<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-203]
[From the U.S. Government Printing Office]



                                                     S. Hrg. 108-203
 
  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2004
=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on

                           H.R. 2691/S. 1391

  AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF THE INTERIOR AND 
RELATED AGENCIES FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 2004, AND FOR 
                             OTHER PURPOSES

                               __________

                      Department of Agriculture
                         Department of Energy
                       Department of the Interior
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

85-929                  U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON : 2003
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone:  toll free (866) 512-1800; (202) 512-1800 
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001 








                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
                    James W. Morhard, Staff Director
                 Lisa Sutherland, Deputy Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

    Subcommittee on Department of the Interior and Related Agencies

                    CONRAD BURNS, Montana, Chairman
TED STEVENS, Alaska                  BYRON L. DORGAN, North Dakota
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
ROBERT F. BENNETT, Utah              ERNEST F. HOLLINGS, South Carolina
JUDD GREGG, New Hampshire            HARRY REID, Nevada
BEN NIGHTHORSE CAMPBELL, Colorado    DIANNE FEINSTEIN, California
SAM BROWNBACK, Kansas                BARBARA A. MIKULSKI, Maryland

                           Professional Staff

                              Bruce Evans
                              Ginny James
                            Leif Fonnesbeck
                              Ryan Thomas
                       Peter Kiefhaber (Minority)
                      Brooke Livingston (Minority)

                         Administrative Support

                             Larissa Sommer













                            C O N T E N T S

                              ----------                              

                        Thursday, March 20, 2003

                                                                   Page

Department of Agriculture: Forest Service........................     1

                        Thursday, April 10, 2003

Department of the Interior: Office of the Secretary..............    57

                         Thursday, May 22, 2003

Department of Energy: Office of the Secretary....................   107
Nondepartmental witnesses........................................   163
  













  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2004

                              ----------                              


                        THURSDAY, MARCH 20, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:01 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Conrad Burns (chairman) presiding.
    Present: Senators Burns, Stevens, Domenici, Bennett, 
Campbell, Dorgan, and Feinstein.

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

STATEMENT OF DALE BOSWORTH, CHIEF
ACCOMPANIED BY HANK KASHDAN, DIRECTOR OF PROGRAM AND BUDGET ANALYSIS


               OPENING STATEMENT OF SENATOR CONRAD BURNS


    Senator Burns. We will call the committee to order. Senator 
Dorgan is on his way. I will make my opening statement and he 
can make his opening statement when he gets here. It is 10 a.m. 
and we are going to run on time as close as we can, and get you 
out of here. We know you have a lot of work to do, Chief, but 
we welcome you here this morning and we appreciate you coming. 
We are operating on North Dakota time here, see--Byron, thank 
you for coming this morning.
    The Chief was the regional forester in Missoula, MT, and we 
had an opportunity to work together on some of the issues that 
always seem to follow the Forest Service around. It was a 
pleasure working with him then, and it is a pleasure to work 
with him now.
    The President's budget for the Forest Service is $4.058 
billion in discretionary appropriations this time. It 
represents a modest overall increase of 2.7 percent, compared 
to the 2003 level at $3.95 billion. Most of the agency's 
programs are funded at levels similar to last year. However, I 
want to point out some that are not, and some areas that I find 
disappointing.
    There are some significant increases, however, the forest 
stewardship program at $35.5 million and the forest legacy 
program at $22.4 million, and wildfire suppression is $186 
million. I believe the increase in the wildfire suppression is 
particularly important, given the experience you have had for 
the fire seasons of the past few years.
    Last year, the Agency spent $1.3 billion putting out fires, 
and the position of the Forest Service and how they handle 
themselves should be commended. The American people are now 
aware of what we can do to manage our forests in the areas of 
prevention, and to keep small fires small fires, instead of 
having these big ones that we have experienced over the last 10 
years.


                                DROUGHT


    Last year, and of course starting back in 1988, pointed up 
that we cannot stand drought in our country and prevent these 
fires or keep them under control. The agency was forced to 
borrow $1 billion from nonfire programs, which caused 
significant disruption in many projects, and some had to be 
cancelled altogether. If the Forest Service spends as much 
money in fiscal year 2004 as they did last year, it will still 
need to borrow several million dollars from other accounts 
under the proposed budget. I hope we can work with you, Chief, 
and figure out some long-term solutions to this funding of 
fireighting costs so these disruptions can be minimized in the 
future.


                           FIRE PREPAREDNESS


    There is also a significant decrease in the proposed 2004 
budget which I find troubling. The levels proposed for fire 
preparedness, for example. This would cause a loss of over half 
of our firefighters and engines we had on the ground last year. 
Reducing our readiness capability to this degree will only lead 
to more small fires escaping, and turning into the devastating 
fires that we have seen in the past on the evening news.


                  BURNED AREA EMERGENCY REHABILITATION


    I am also concerned about the elimination of funding for 
rehabilitation and restoring burned-over lands. Two years ago 
this program was funded at the level of $142 million. We have 
had two severe fires since then, which has burned millions of 
additional acres. There are many areas in my State that burned 
in 2000 that have yet to be treated or dealt with. If these 
acres are not restored soon, they may be permanently lost to 
invasive weeds and erosion.
    Funding for backlog maintenance has also been decreased by 
$46 million, compared to the current level. This is unwise. 
However, on the financial management side I want to 
congratulate you. I am very pleased to see the agency finally 
obtained a clean audit. That is a credit to your office and 
your work. I can remember when you came in 2 years ago, looked 
at the books, and said, this is one area we really have to work 
on, otherwise we will always have a credibility problem. So I 
congratulate you on that. That is the first time that has been 
done in a long time.
    The monies--to work with you, though, not only in fire 
suppression, but prevention, stewardship, forest legacy, and 
forest health--all of these programs are necessary, and I 
believe the American people are supportive of what you are 
doing. The fires that were seen on television every evening 
were devastating fires, and hot fires. These fires took 
everything right out of the soil. Management adjustments have 
to be made for future years, if we are to see healthy forests.
    We also need to do some management work in the areas of 
disease and bark beetle infestation. I would like to work with 
you on those areas. We have some forests that need attention, 
not only in Montana, but nationwide. Those areas are being 
identified and need special emphasis.
    I thank you for coming this morning. We look forward to 
your testimony and again, congratulations on your audit. This 
is our first year at this and I look forward to working with 
Senator Dorgan of North Dakota. He is my new ranking member, 
and Peter, it is good to see you back as we start down the 
Interior appropriations. We look forward to working with our 
colleagues on both sides of the aisle as this appropriations 
process moves on.
    Senator Dorgan.


              OPENING STATEMENT OF SENATOR BYRON L. DORGAN


    Senator Dorgan. Mr. Chairman, thank you very much. I, too, 
look forward to working with you. Montana and North Dakota have 
a rather lengthy common border, and I know that you know a lot 
about----
    Senator Burns. Thank God for the Little Missouri, right?
    Senator Dorgan. That is right. You know a fair amount about 
North Dakota and I know a lot about Montana, so I think we will 
get along just fine.
    Chief, thank you for being here. You run a big agency, 
34,000 people and $4 billion, a big responsibility. You and I 
met yesterday and talked a bit.
    Mr. Chairman, I just got notice a few moments ago that 
Senator Daschle has called a meeting of the Democratic 
leadership at 10:30, so I am going to have to leave earlier 
than I expected today, and I regret that is the case, but let 
me begin my opening statement, then, make a couple of points 
with Mr. Bosworth. I am going to submit some questions for the 
record, but I want to make a couple of points.


                              FIREFIGHTERS


    One, the chairman mentioned the issue of the firefighting 
budget. You and I talked about that yesterday, but firefighters 
have gone from 10,480 in fiscal year 2002 to 4,898 in fiscal 
year 2004, fire engines, 995 to 465 during the same period. I 
mean, it is wrong. This is not good planning. It is not good 
management. It is not an appropriate approach to these issues. 
You and I have talked about that.
    I recognize that this comes from deep in the bowels of the 
Office of Management and Budget, where they know the cost of 
everything and the value of nothing, and I understand you 
probably cannot say much about that because you are a public 
servant who is going to have to support whatever is submitted 
to us as a budget, but I think deep in your heart you know that 
this does not make sense. We have got to adequately fund 
firefighting and fire suppression and preparedness, and this is 
not the case in these budgets. It was not last year.
    We raised the point last year during the hearings and it 
was sort of just dismissed, but the fact is that this has to be 
dealt with, and doing the little tip-toe dance that Mitch 
Daniels is doing on this does not do anybody any favors. That 
is not the way to address these issues. I hope if I do not get 
a chance to tell him, you will tell him that for me.


                              LEAFY SPURGE


    Let me just--I want to show you--Mr. Bosworth, this is 
leafy spurge.
    Let me tell you something about leafy spurge. We have lands 
that you are in charge of, the Forest Service is in charge of, 
that do not deal with their weeds appropriately. The Forest 
Service is not a good neighbor, and when you have got an 
infestation of 30,000 or 40,000 acres of leafy spurge and you 
do not control them, what happens is, everyone else who is on 
the periphery of the Forest Service land is affected by it.
    The reason I brought this plant today is, I wrote an 
earmark of $200,000 in to have some additional chemicals put on 
the ground and to control leafy spurge on specific grasslands 
in North Dakota, and the fact is, I saw no evidence that that 
was put in the ground to control leafy spurge. Although the 
Forest Service did a little tap dance for me to say, well, here 
is how it happened, the fact is, I think it was subsumed into 
payment for the bureaucracy, and I did not see any evidence 
that there was additional control on the ground of leafy 
spurge, despite the fact that that is what we put the money in 
for, and we have got ranchers out there that are trying to deal 
with this, and leafy spurge is one noxious weed, but in our 
part of the territory it is one that is pretty devastating, and 
we have to control these noxious weeds on our land. This is 
Forest Service land. We have a responsibility. If regular folks 
do not control it, we are after them all the time, and the 
Federal Government has to meet its responsibility, Mr. 
Bosworth. You and I have talked about that. I know you are 
looking into this.
    At any rate, Mr. Bosworth, this is serious business for a 
lot of folks in North Dakota, and I want to work with you on 
that, and I mentioned the fire suppression. As a matter of 
fact, on forest issues we rank 50th among the 50 States in 
native forestlands in North Dakota, so I am a lot less familiar 
with forest issues than many of my colleagues, who have great 
familiarity with them, but I am anxious to work with you on 
many of these issues.


                            GRAZING PERMITS


    If I might mention one additional point we have got with 
respect to our grasslands in the Cheyenne Valley, we need a new 
10-year grazing agreement, and I think on March 23 the current 
one expires, so there is great concern that we would have a 
circumstance were cattle to be taken off of those lands. You 
told me yesterday that would not be the case, and that you 
would do extensions until we reach a new agreement. For that I 
am very appreciative, and I hope we can reach an agreement.
    But Mr. Chairman, thanks for indulging me to be able to do 
this now so that I can go to that leadership meeting later.
    Senator Burns. Yes, and do not let it go to seed. That is 
all I ask.
    He brings up a good point, I also want to bring it up, and 
there is not a better place. He brought up grazing permits. We 
not only have spurge, but we have spotted knap. And now we are 
going to have a little lesson in weeds. I do not know what it 
is in Washington, D.C. Just go to one of these glitzy Grey 
Poupon and white wine receptions, and when they come around and 
they ask what your main interest is in Washington, and you say 
weeds, see how fast you are left standing there by yourself.
    It is not a big thing here. It is like yesterday morning, I 
offered to go down and help the guy get his John Deere tractor 
out of that puddle, because it is just too wet to plow there.


                             NOXIOUS WEEDS


    The grazing permit--because what he is trying to do, and 
this problem of noxious weeds go hand in hand, Dale. The only 
way you get this weed and spotted knap is sheep. Sheep will do 
it. You can put chemicals out there, you can fight them with 
hoses----
    Senator Dorgan. To explain, sheep eat it.
    Senator Burns. That is right. Sheep will get rid of noxious 
weeds. And it is a problem in Montana, so I appreciate--we are 
going to get along just fine. I found another weed guy. There 
are not very many of us here, Byron.
    Senator Dorgan. That is right.
    Senator Burns. But this is something that has to be dealt 
with. The grazing permits, and the control of noxious weeds go 
hand in hand in our forest management.
    Senator Dorgan. Mr. Chairman, we could do a caucus of leafy 
spurge, spotted knap, and creeping Jenny.
    Senator Burns. And Russian thistle.
    Senator Dorgan. And Russian thistle.
    Senator Burns. You bet. We could get them all.
    Senator Campbell.


          OPENING STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL


    Senator Campbell. Thanks, Mr. Chairman. I sure do like this 
hearing.
    It sure is a lesson. What we really need in your budget is 
something for more sheep, apparently. We probably will not have 
that, but I do know that you recognize the real danger. All of 
us come from western States that are on the committee today, 
and the fire season out there, they tell us, even though we 
have gotten a lot of snow in Colorado in the last few days, 
they say is going to be every bit as bad as it was last year, 
and as I look at the President's budget there is obviously a 
slight increase from $4.7 billion to $4.8 billion. I do not 
think that is nearly enough, and I have to associate my 
comments with Senator Dorgan. I think that maybe the best thing 
we can do is, the next time we have a big fire out there is 
press OMB into service to come out there and help fight the 
thing. Maybe they would recognize the real dangers that we 
face.
    But you know, as I travel around, like my colleagues from 
the West, we are seeing more and more indicators that because 
of insect infestation there is just mile after mile of dead 
timber, which always is going to become worse fuel this summer. 
I was down by Cortez, Colorado about 2 weeks ago, and I was 
just amazed. All the pine in that area, it is almost all dead, 
and you can just pick them out from the junipers and the other 
trees. Whatever that insect is is just attacking pines, and by 
next year there is just going to be a whole dead forest there.
    Well, in any event, you know the devastating fires we had 
in Colorado--last year between the Hayman fire and the 
Missionary Ridge fire, the cost of property. Fortunately we did 
not have many lives lost--I think only one or two, frankly, but 
it is getting worse.


                     GROUNDED FIRE AIR TANKER FLEET


    But there is something else, too, that is really beginning 
to bother me, and hopefully you will address it, or I will ask 
it maybe in a question, but it is my understanding that one-
half of the whole tanker fleet is grounded now and out West, 
boy, we really rely on those planes, and I do not know how we 
are going to replace the planes or the money for the planes, 
because I imagine they are pretty darned expensive.
    A lot of those old World War II planes, the airframes are 
getting fatigued and they just cannot fly them anymore, and 
after those two tragic accidents last year I certainly 
recognize they have got to be grounded if there is a chance of 
killing some of the pilots, but out where we are, those things 
are the first responders in many cases, and I have been to a 
couple of fires where I have seen them start, seen the planes 
take off, seen them put out, all within a 1-hour period of time 
before people could even get out there, so I would like you to 
address that if you could and just let me tell you that I would 
like you to maybe also give us your prognosis about some of the 
litigation.


                           ANALYSIS PARALYSIS


    I think all the attacks from the environmental community 
every time you want to do a prescribed burn or do a clearing is 
probably on the downside a little bit this year, because they 
are clearly recognizing they are on the wrong side of public 
opinion and most Americans, particularly out West, are saying 
we have got to do a better job of managing the forest, and I 
remember, perhaps it was last year or a year before, we were 
told that about 41 percent of the money that was used in the 
Forest Service program was either--it was called analysis 
paralysis, I think was the word they used. It was used for 
doing studies and preparing to defend yourself and, in fact, in 
defending in the actual lawsuits, and I would like to know a 
little bit more about what you see in that area, too, this 
year.
    But thank you for being here. Thank you, Mr. Chairman.
    Senator Burns. Senator Feinstein. Turn your button on, 
Dianne.
    Senator Feinstein. I have only been here for 10 years. I am 
a slow learner.
    Senator Burns. Auctioneers know how to use these things 
pretty rapid.


             OPENING STATEMENT OF SENATOR DIANNE FEINSTEIN


    Senator Feinstein. Thanks, Chief. Thank you.
    Mr. Bosworth, in California I do not think we have the 
leafy spurge or the Russian thistle, but we do have the 
Yosemite toad and the fairy shrimp, and I want to talk to you a 
little bit about the Sierra Nevada Framework Agreement.
    I very much appreciate what you have done with respect to 
the framework, particularly because it actually prevented a 
listing of the California spotted owl as threatened and 
endangered, but this past week the Forest Service announced 
that it is planning to proceed with a plan to undo some key 
elements of the framework, and I am very concerned about it, 
because I think it is going to cause a huge problem of conflict 
in the State, and I would like to give you a March 19 letter 
from Mary Nichols, the Director of the Resources Agency, who 
expresses concerns that you have not worked with the State in 
determining this, and she says the outcome is unacceptable to 
the State.


               COLLABORATIVE ADAPTIVE MANAGEMENT PROGRAM


    They have proposed an alternative plan offering to bring 
the resources of the State to a collaborative adaptive 
management program in the 2\1/2\ million acres of wildland-
urban interface, where you have got Class 3 forest problems, 
and my hope would be that you would work with the State. The 
State--and I have had a conversation with Secretary Nichols, 
and they understand, and they are prepared to be supportive of 
the need to clean out the forest for a forest fire. She says 
they want to work more aggressively than you want to work to do 
it, so that is the first issue.


                             YOSEMITE TOAD


    The second issue is, there is something called the Yosemite 
toad. You know, the fairy shrimp are microscopic little shrimp 
that grow in vernal pools, so if a puddle lasts more than 90 
days, a shrimp can pop up and it can stop whatever is going on 
around it, whether it is a new vineyard or anything else. Well, 
the Yosemite toad apparently comes out of pools at higher 
levels where there are ranchers grazing on public land, and it 
is my understanding that a number of these ranchers are 
essentially going to have to be put out of business, and I 
would like to ask you personally to take a look at that and see 
if there is not any way ranchers can be allowed to graze in 
other areas, rather than be put out of business.
    I think there are anywhere from half a dozen to a dozen 
ranchers who are going to be put out of business, and one of 
the things that I really believe is also important as we do 
these things is to protect the heritage of the State, and 
ranching has been a heritage of the California frontier. I 
would like to see it protected wherever I can, and I think 
there is a way of moving around some of these pools without 
putting the ranchers out of business, so I would be hopeful 
that you would be willing to work with them.


                              BARK BEETLE


    The third problem is the bark beetle. I think all of us 
have a big problem with the bark beetle. I know I talked to 
Senator Kyl yesterday about Arizona. There is a big infestation 
there, and we have 150,000 acres of forest that are infested, 
particularly in the Lake Arrowhead area, the Idlewild area of 
California.
    The Governor has declared a state of emergency, and we need 
to find a way to quickly respond to these forest epidemics to 
reduce this spread, so I wrote you a letter on February 18, 
which is a month ago, asking you to address the situation and 
hoping for a response. I have not gotten that response as of 
yet, so I hope today you might address what you are going to do 
about the bark beetle as well.


                       LAKE TAHOE RESTORATION ACT


    Additionally, 3 years ago Congress passed the Lake Tahoe 
Restoration Act. As you know, the Tahoe National Forest 
surrounds Lake Tahoe, and we authorized $300 million over 10 
years, the Federal Government to contribute a third. There 
really is good news. First, there is a huge consensus in the 
population. Second, Lake Tahoe's clarity has been increasing. 
It is now 73 feet, which is good news, but the disappointment 
is that there is only I think $6 million in this budget to 
continue that plan, and so I hope to be able to add to that a 
little bit.


                          QUINCY LIBRARY GROUP


    The final thing is the Quincy Library Group. As you know, I 
was a Senate sponsor of that legislation. I am very supportive 
of it. The project has had a number of delays, had a number of 
bumps. The President proposes $26 million to implement it this 
year the same as last year, and I am very hopeful that it will 
be able to serve as a model in other areas, and so I would like 
any comments you would care to make on that as well.
    I thank you, Mr. Chairman. I thank you, Mr. Bosworth.
    Senator Burns. Thank you, Senator Feinstein.
    Senator Bennett.


              OPENING STATEMENT OF SENATOR ROBERT BENNETT


    Senator Bennett. Thank you, Mr. Chairman. Most everything I 
was going to cover has been covered.
    Senator Burns. Turn your mike on.
    Senator Bennett. Oh, I have to do that, too. All right.


                              PRAIRIE DOG


    Thank you, Mr. Chairman. Most everything I had intended to 
say has been covered. Senator Campbell, because our States 
adjoin each other, has exactly all the same concerns I have. I 
have to say to Senator Dorgan, he says you get a prairie dog 
and as soon as you get one you get a whole bunch. There are 
parts of my State where they are endangered species, and you 
have got a whole bunch, but nobody can do anything about them.
    Senator Dorgan. But they are not really endangered. They 
are just on the list, right?
    Senator Bennett. Well, they are endangered because the 
attitude in the local community is the three-S solution: shoot, 
shovel, and shut up. Whether that really solves the problem, I 
do not know.


                              BARK BEETLE


    Then Senator Feinstein talks about the bark beetle, the 
combination of Senator Feinstein and Senator Campbell. In our 
State the problem with the bark beetle are all of the lawsuits 
that get filed, and the Forest Service is absolutely handcuffed 
in dealing with it because every time they want to go into the 
Dixie Forest to deal with the bark beetle, which is an enormous 
problem, somebody files a lawsuit and says oh no, no, you 
cannot do this because somehow this will invade the pristine 
nature of the forest, and by the time they get through with the 
lawsuit, then the bark beetle has expanded another few thousand 
acres and the Forest Service says, okay, we are going to do it 
now.


                     EVIRONMENTAL LITIGATION COSTS


    Well, they file a new lawsuit because it is a new set of 
acreage, and there is great concern that we may, in fact, lose 
the entire Dixie National Forest over this, so I just echo the 
concern about the bark beetle that Senator Feinstein has and 
hope, along with Senator Campbell, that we can find a way to 
deal with the litigation. I would be interested, if you have 
not got the number ready for us here, if you would supply what 
percentage of your budget is taken up in fighting litigation.
    We have asked that question of the BLM director and the 
numbers are between 40 and 50 percent, depending on which area 
you are talking about, and that is a huge, huge drain on the 
land management capabilities. We try to give you the resources 
you need in order to do the job properly, but if all of those 
resources are eaten up in lawsuits--which interestingly enough, 
the BLM always wins.
    It is not a case that the BLM is doing a bad job of 
stewardship. It is the fact that they are constantly being 
diverted with lawsuits, and they have to prove over and over 
and over again that their stewardship is fine in court, and one 
begins to believe that the basic strategy is not to file a 
legitimate lawsuit, but to hamstring the agency through this 
device, and I would appreciate any statistics you could give us 
about what percentage of your budget goes to lawsuits, or 
defending legal activities, and whether or not it is rising.
    Thank you, Mr. Chairman.
    Senator Burns. Thank you, Senator Bennett.
    Senator Domenici.


             OPENING STATEMENT OF SENATOR PETE V. DOMENICI


    Senator Domenici. Well, by the time we get to me, I have 
all the same problems. I would say that we did submit to Deputy 
Under Secretary Dave Tenny questions with respect to the bark 
beetle in New Mexico. I would appreciate it if you would look 
at the question and get it answered.
    We have a very old, long-infested piece of BLM forest up in 
Northern New Mexico. It is already beginning to rot, it is old, 
and it is growing. We submitted some questions about treating 
and the like to which we would like to have some answers.
    You know, about now in my life in the Senate, I kind of get 
tired of coming to meetings and complaining that litigation is 
taking all our time. We cannot get anything done. I really wish 
that people like you would tell us what we ought to do so that 
we do not have that situation. I am not interested in having 
another long list of how much time it is taking. We are not 
doing anything to change the situation, and most of you all say 
that we cannot change it. It is the law.
    I think we ought to give it a try, even if it is some very 
significant surgery that we have to do on these statutes. 
Something is amiss when we cannot take care of the problems 
that are so patent that anybody with an ounce of common sense, 
a few dollars, and a little bit of expertise would at least get 
started on some of these things, but we cannot.


                        STEWARDSHIP CONTRACTING


    Let me suggest, if you look at this year's budget, in all 
deference to the President, you will not get much done this 
year, either. By the time we run out of money, when we cannot 
put out the fires and we start borrowing again, the good plans 
you have got going will get stopped. There is not enough money 
for the programs to clean the forest and thin them either, from 
what I can tell. I hope I am wrong, but that is what it looks 
like to me.
    I have one ray of hope, and I hope it does not get bogged 
down in court so it takes forever. I do have a strong sense 
that if you all will apply the stewardship contract approach in 
the right way, and we do not get ourselves in lawsuits where we 
have acted improperly, I believe there is a real chance you can 
have companies that will go in and contract to clean and manage 
and thin out in exchange for what they can take off the forest. 
You might get a lot of work done for not too many dollars that 
can quite properly be managed. I think it can be used for 
cleaning out infestations and anything.
    Right now, however, it is deemed by the environmentalists 
to be a subterfuge for logging. To the extent I read it, I see 
all the ways we could use it that would not be logging, would 
not be any subterfuge to get around the logging laws. I hope 
you can find ways to use stewardship contracting, and I hope 
you all think it is a good approach. I see no other way, based 
on personnel, management capacity, and money to get the forests 
of America managed and back where they are a credit.
    So with that, if you can comment on that later, fine. I 
have some questions about my State that I will ask or submit 
later. Thank you, Mr. Chairman.
    Senator Burns. Thank you, Senator Domenici. I read your 
statement, Mr. Bosworth, and I just want to point out a couple 
of things that you have highlighted in your statement. I am 
glad we are finally taking a look to see where we want our 
forests to be in 100 years, and the management it will take to 
get there within the next 100 years. That is foresight, and 
hazardous fuels.
    You may summarize your statement if you like. Your entire 
statement will be made a part of the record. As with all of the 
Senators who are here today, your full statement will be made a 
part of the record.
    Chief Bosworth, we welcome you and we look forward to your 
testimony.


                   SUMMARY STATEMENT OF DALE BOSWORTH


    Mr. Bosworth. Thank you. Is this on? It is on, good. After 
all these problems we had with that I was not sure.
    Mr. Chairman and members of the committee, I do appreciate 
the opportunity to talk about the President's fiscal year 2004 
budget for the Forest Service. I have Hank Kashdan with me 
today. Hank is the Director of Program and Budget Analysis for 
the Forest Service. He will help me answer some of the 
specifics in terms of dollar questions that you might have.
    It is really good to have you back in the chair, Senator 
Burns. I really appreciate the working relationship that we 
have had in the past so it is good to have you there. It is 
also good to have Senator Dorgan in the ranking minority member 
position. It does make me feel a little bit like I am back home 
in the Northern Region. I worked with both North Dakota and 
Montana. Of course, we had lots of opportunities to work 
together. It does make me feel like I am back home until I look 
out of the window and see that I am still in the city. It is a 
little bit different here.
    I would like to acknowledge completion of the fiscal year 
2003 budget process. It was important to us, the completion of 
that. There are some thanks that you deserve for supporting 
some things like: Fire reimbursement--$636 million I believe is 
what we were reimbursed for the Forest Service--stewardship 
contracting, which was mentioned by Senator Domenici; an 
achievement of balance between fire suppression and fire 
preparedness. Those were some of the things that came up in 
some of the opening remarks.


                        STEWARDSHIP CONTRACTING


    I wanted to take this opportunity to say right now that I 
am strongly supportive, almost to the point of obnoxiousness, 
of stewardship contracting. I mean, it can be our future. It 
can make a huge opportunity for us to be able to treat, 
particularly, some of the fuels kinds of problems that we have. 
There are other kinds of opportunities beyond fuels management. 
We have been experimenting with it now for about 4 or 5 years, 
thanks in good part to the chairman, and we have learned a lot. 
This is an expanded authority which, I think, if we are smart 
in the way that we implement it, we will have people from all 
different viewpoints feeling like this is a good tool to help 
us do the right things on the national forests. So I really 
appreciate having the opportunity to expand the use of that.


                   FIRE PREPAREDNESS AND SUPPRESSION


    The other thing, the balance between fire suppression and 
preparedness: In the 2003 budget we have the opportunity to 
move the dollars back and forth between suppression and 
preparedness, depending upon what the fire season looks like. 
That can be very, very helpful to us because we are looking 
at--we are talking about the 2004 fire season in this budget. 
We do not really know what that is going to look like in 2004. 
As we get closer and closer, then, you want to maybe move money 
from one side to the other, depending on what the conditions 
are like. So the way the 2003 budget is set up, that gives us 
that flexibility to be able to make some of those adjustments, 
which I appreciate very much.


                             AUDIT OPINION


    I am going to talk mostly about healthy forests, the 
national fire plan, and the Agency priorities. I do want to 
mention our financial accountability first. I appreciate your 
comments, Mr. Chairman, about our accomplishment in finally 
achieving a clean audit opinion. It is very important for us to 
have done that. I am very proud of the folks who worked really 
hard to accomplish that. It is almost unheard of to, really, go 
from no opinion to an unqualified audit opinion in just 1 year. 
We feel very good about that.
    But I also have to say that that is the very, very, very 
minimum that taxpayers ought to expect of us. At the least, we 
ought to be able to do that. We have a long ways to go yet in 
our organization to be able to sustain that clean audit 
opinion. We still have other changes we have to make in terms 
of how we are organized, in terms of how we manage our 
financial dollars. I believe that, while it is our job in the 
Forest Service to be good stewards of the public lands, it is 
also our job to be good stewards of the public funds. We intend 
to do that.
    A little bit, just sort of an overview, I guess, of the 
fiscal year 2004 President's program: For me, the reality is 
that it is a flat budget, the very, very best that we can 
expect, given the international and domestic issues that we are 
faced with. Having a flat budget is the most that we can 
expect. That is what we have.


                       HEALTHY FORESTS INITIATIVE


    We have legislative and regulatory initiatives, though, 
that I believe will help stretch those dollars a lot further to 
get more money on the ground. That would accomplish some of 
those things like the President's Healthy Forests Initiative. 
To me, the key solution here is to be able to do more with the 
dollars that we have. That is what some of these initiatives 
tie into.
    We have the Healthy Forests Initiative--many of you are 
very, very familiar--and everybody from the West is very, very 
familiar--with some of the fires that we have had--the problems 
that the lack of good forest health has brought to us. Many of 
these large fires happened because of the lack of forest 
health.
    Senator Feinstein mentioned the San Bernadino National 
Forest. One of the problems is that we are in a drought 
situation. There are way, way too many trees there for what the 
conditions, the natural conditions, would have been because we 
have been suppressing fires for years and years and years.
    So now we are faced with the problem of trying to clean up 
a place that is messed up because of insects and diseases--
particularly insects, bark beetles in this case, with a whole 
lot of dead trees--rather than having treated it 10 years ago, 
or 15 years ago--to have a healthy forest condition so that we 
do not have to deal with the clean-up and then potential 
devastating fire problems.
    I think that is a good example. There are many other 
examples that we have seen around the country that are facing 
us that, if we can be proactive and get the work done on the 
ground, we maybe hopefully can avoid some of those 
circumstances.
    I think there are lots of opportunities--the same thing in 
Idaho again, or in Montana again--with stewardship 
contracting--to try to achieve some of the same things there, 
and that can apply to places--we have the same opportunities in 
New Mexico, Utah, and Colorado. Those are some great 
opportunities that I am really anxious to continue the work 
with this committee on.
    We have had good support from this subcommittee in the 
whole notion of forest health and long-term fuels reduction. 
That is going to be the challenge for us over the next 10 to 15 
years. I hope we can continue with that.


                                RESEARCH


    There are some other increases in the budget that I think 
are important that I want to point out. There is an increase in 
research that is targeted at sudden oak death and other 
invasive species--an additional increase for fire-related 
research, and that is going to be really important. We need to 
do a good job of research. We need to be building our research 
capacity back. When we get some of these events, like sudden 
oak death, we have to have the capability to try to learn as 
much about that as quickly as we can or we can end up with some 
really difficult situations.


                            RANGE MANAGEMENT


    We have an increase in range management to help improve the 
health of rangelands--an increase for forest legacy, I think 
that you had mentioned, better enable acquisition of 
conservation easements on some important tracts.


                         LEGISLATIVE PROPOSALS


    There is an array of legislative proposals that will do 
things like: update the appeals process; streamline the 
execution of the highest-priority hazardous fuels reduction 
areas; expand partnership authorities; improve the ability of 
partners to cooperate with the Agency--because right now it is 
very difficult for people to be partners with us and so there 
is a legislative initiative that would help that--and also to 
make existing watershed enhancement authority permanent, known 
as the Wyden authority.
    It is also important to note that there is a proposal to 
make the Recreation Fee Demonstration Program permanent. I do 
believe that a large majority of recreation users support that 
program.
    A lot of comments were made in the opening remarks that I 
would be happy to respond to. I could respond, I think, more to 
direct questions regarding these things. The one I would like 
to just--several people talked about ``analysis paralysis'' or 
``process gridlock.''


                          PROCESS PREDICAMENT


    We submitted--developed a report in the Forest Service 
about a year ago in which we referred to a ``process 
predicament.'' The purpose of that report was to identify 
problems. It did not offer solutions but identified problems. 
We used that as a means to try to get some kind of 
understanding and agreement as to whether there was really a 
problem. We believed there was.
    My belief is that it was useful for that. People recognized 
that we have problems and are willing to work with us. 
Consequently, we have submitted a number of things. We proposed 
some changes in our planning regulations. That, hopefully, 
would reduce the time to do a forest plan from something like--
8 to 10 years is what it has been taking us--down to maybe 2 
years. I mean, they are out for public comment right now. That 
is what I would like to do: To be able to get them and shorten 
that period of time.


                         CATEGORICAL EXCLUSIONS


    We are proposing some ``categorical exclusions'' which 
would mean that we would exclude certain kinds of projects from 
documentation in an environmental impact statement. We would 
still do analysis, still do public involvement. We just would 
not document it in an environmental impact statement for those 
projects that we have done over and over and over and over 
again. We know, after having done it so many times, that we are 
not going to have adverse effects on the environment.
    So we are proposing a number of categorical exclusions that 
we believe will help speed up the process for things like some 
small-debris removal, for fuels treatment, and for restoration 
and rehabilitation. Those are out for public comment right now. 
They are not all favorable, the comments we get on those but, 
again, I believe that if we get the opportunity to implement 
some of those things, we can show people what we can do on the 
ground. They will like what they see. We are trying to move 
forward and deal with that issue.

                           PREPARED STATEMENT

    So I am going to wrap it up now. I will answer questions. I 
am happy to be in this job right now. It is an exciting time. 
It is an honor to be here. I look forward to working with you. 
I will be happy to answer your questions.
    [The statement follows:]

                 Prepared Statement of Dale N. Bosworth

    Mr. Chairman, Senator Dorgan, and members of the Subcommittee, 
thank you for the opportunity to discuss the President's fiscal year 
2004 Budget for the Forest Service. I am accompanied by Hank Kashdan, 
Director of Program and Budget Analysis for the Forest Service. It is a 
great privilege to be here today.
    Before discussing my testimony in detail, let me first thank you 
Mr. Chairman for your support of the Forest Service and your focus on 
management of the nation's natural resources. The Committee's support 
of expanded authority for stewardship contracting as contained in the 
fiscal year 2003 Appropriation's Act, exemplifies this focus. And 
Senator Dorgan, let me start by congratulating you on assuming the 
ranking member position on the Subcommittee. I look forward to working 
with you in this important role.

                                OVERVIEW

    Teddy Roosevelt's rich legacy includes the Forest Service, and he 
once observed that people should make few promises and then keep them. 
Our agency, which will celebrate its 99th anniversary during the 2004 
budget year, has made more than a few promises. I am often asked about 
my vision for the Forest Service. The Forest Service must be viewed as 
the world's leader in natural resource management by living up to 
commitments, efficiently using and accounting for the taxpayer funds 
that are entrusted to us, and treating people with respect. My vision 
as we approach the centennial is to heed TR's advice. We are an agency 
that keeps its promises.
    The fiscal year 2004 President's budget request for the Forest 
Service is $4.8 billion, $119 million greater than the fiscal year 2003 
Enacted Budget. The fiscal year 2004 Budget provides funding to reduce 
the risk of wild land fire to communities and the environment by 
implementing the President's Healthy Forests Initiative. In addition, 
it provides funds to enhance the ability of the Forest Service to meet 
multiple demands. The major departure from fiscal year 2003 is an 
increase of $187 million for wild land fire suppression and additional 
increases in funds for forest and rangeland research, forest 
stewardship, forest legacy, range management, and hazardous fuels 
reduction.
    This past August the President announced the Healthy Forests 
Initiative in order to help reduce the risks of catastrophic wildfires 
to communities and the environment. The fiscal year 2004 budget 
proposal contains a combination of legislative and funding priorities 
the President feels are necessary to address this need, as signaled in 
his State of the Union message. The Healthy Forests Initiative builds 
on the fundamentals of multiple use management principles that have 
guided the Forest Service since its formation. These principles embody 
a balance of conservation and balanced approach to the use of natural 
resources that are valid today in working with local communities, 
States, Tribes, and other Federal agencies.

                             ACCOUNTABILITY

    In my testimony today I want to discuss in detail how the 
President's fiscal year 2004 budget and accompanying legislative 
initiatives will improve the health of our forests and rangelands, but 
first let me focus on the agency's effort to improve its financial 
accountability.
    When I began my career, the Forest Service was viewed as a model 
federal agency, accomplishing our mission for the American people. I am 
pleased to share with you today a stride that takes us closer to the 
reputation of a generation ago. Through the extraordinary efforts of 
our employees across the nation, we and our USDA counterparts have 
achieved an unqualified audit opinion for 2002. This is an important 
step in a continuing effort to fulfill promises previous Chiefs and I 
have made to get the Forest Service financial house in order. To 
progress from no opinion to a clean opinion in just one year is 
unprecedented. This unqualified audit opinion sets the basis for our 
next steps, which include additional financial reforms to efficiently 
consolidate financial management personnel; improve the effectiveness 
of the financial management system as part of the funds control and 
budget execution process; and improve the quality of account 
reconciliation. It will take as much work to keep that clean financial 
opinion as it did to earn it. But, this important accomplishment of a 
clean audit opinion demonstrates the progress we are making in keeping 
our word.

                          PROCESS PREDICAMENT

    When I met with you a year ago, gridlock and analysis paralysis 
directly affected our ability to deliver on many promises: to protect 
communities from catastrophic wildfire, to provide a sustainable flow 
of forest and grassland products, and to sustain the landscapes used 
and enjoyed by the American people. These problems still exist, but the 
Forest Service has taken the initiative to deal with this process 
predicament within its authority by proposing regulations and policies. 
I believe we are on the road to success. We proposed a revised planning 
rule to provide a more readily understood planning process--one that 
the agency can implement within anticipated budgets. We proposed new 
processes to simplify documentation under NEPA for management 
activities that do not significantly affect the environment--small, 
routine projects that are supported by local communities, such as 
salvaging dead and dying trees or removing insect infested or diseased 
trees. We propose to work with you and the American people to keep our 
promise that these measures are about sustainable land stewardship.

                     PRESIDENT'S MANAGEMENT AGENDA

    The Forest Service has developed and is implementing a 
comprehensive strategy to achieve the objectives of the President's 
Management Agenda. Today I'll highlight a few of the significant 
efforts we're making to improve Forest Service management and 
performance. In the competitive sourcing arena, we will conduct public/
private competitions on 3,000 full-time equivalent positions during 
fiscal year 2004, identifying the most efficient, effective way to 
accomplish work for the American people, as identified in the Agency's 
Efficiency Plan which has been submitted to the Administration. Our e-
government energies will move beyond web information delivery into four 
important areas: incident planning and management, recreation services 
and information, electronic planning record, and the federal and non-
federal assistance process. We are instituting critical oversight 
controls to keep wildfire suppression costs as low as possible while 
protecting communities and resources and improve our methods of 
reporting wild land fire suppression expenses. Several streamlining 
efforts are underway to reduce indirect costs and better examine the 
role and structure of various Forest Service organizational levels.
    An element of the President's Management Agenda concerning budget 
and performance initiative, the Program Assessment Rating Tool (PART) 
analysis provides a standardized set of performance management criteria 
that provides a consistent evaluation process to identify areas of 
performance and budget integration they should improve. In fiscal year 
2004, the Wildland Fire Management and Capital Improvement and 
Maintenance programs of the Forest Service were selected to participate 
in the first round of assessments using the PART. The PART analyses for 
these programs indicated that funds need to be better targeted within 
the Wildland Fire Management program while the annual performance 
measures of Capital Improvement and Maintenance program inadequately 
linked to ongoing management initiatives aimed at addressing the 
maintenance backlog.

                          RANGELAND MANAGEMENT

    The President's budget provides a $2.6 million increase that 
supports a significant Forest Service promise--to make progress on 
completing environmental analysis on national forest rangelands. The 
funding increase will enhance our capability to manage livestock and 
support communities where rangelands are an integral part of the 
economy and way of life.

                        FOREST SERVICE RESEARCH

    Productive forests and rangelands provide wood and forage, clean 
water, wildlife habitat, recreation, and many other values. Key to 
sustained and enhanced productivity is developing and deploying 
integrated resource management systems based on the best science 
available. A $2.1 million increase in forest and rangeland research is 
a valuable addition to our program. Some of the increase will support 
research and development tools essential to prevent, detect, control, 
and monitor invasive species and restore impacted ecosystems. Other 
emphasis includes a pine bark beetle program that looks at new 
management strategies, better utilization of bark beetle trees, and 
developing additional treatment options for managers and landowners. 
Programs to identify new biological control agents and treatment 
methodology and to develop integrated pest management technology for 
land managers will also be accelerated. The President's Budget 
recognizes the need for research to support the full range of 
challenges faced by land and resource managers because challenges don't 
stop at National Forest System boundaries. Addressing the issues 
associated with America's forests and grasslands--including hazardous 
fuels, protection of communities from catastrophic wildfire, invasive 
species, and pathogens--doesn't depend upon who owns the ground. 
Keeping this promise goes beyond the basic and applied science 
functions of research. We also need to bridge the gap between research 
findings and results on the ground. The request reflects the importance 
of technology transfer, internally in the Forest Service and externally 
through our university and State and Private Forestry program partners.

                       STATE AND PRIVATE FORESTRY

    Through close cooperation with State Foresters and other partners, 
our State and Private Forestry Program provides assistance to 
landowners and resource managers to help sustain the Nation's forests 
and protect communities and the environment from wildland fire. The 
President's budget contains an increase of over $31 million for these 
programs. While most of the forest health management, cooperative fire 
protection, and cooperative forestry programs continue at fiscal year 
2003 levels, forest stewardship and the forest legacy program reflect 
an increase. A $34 million increase for forest stewardship supports the 
objectives of the National Fire Plan, the Healthy Forest Initiative, 
and the Forestry Title of the 2002 Farm Bill. The increase will 
strengthen our partnerships through a competitive cost-share program, 
leveraging the effectiveness of federal funds to reduce hazardous 
fuels, improve invasive species management, and enhance forest 
production from state and private lands. This increase will support 
increased private landowners' investment in the management of small 
diameter and underutilized forest products. In the forest legacy 
program, the President's budget proposes a $22 million increase to 
conserve environmentally important private forests through partnerships 
with States and willing landowners. The budget will support 
partnerships with up to ten additional States that have not previously 
participated in the program. We expect total conservation of more than 
200,000 acres, benefiting wildlife habitat, water quality, and 
recreation.

    THE NEXT 100 YEARS FOR AMERICA'S NATIONAL FORESTS AND GRASSLANDS

    Some people and organizations still argue that timber harvest 
levels represent the greatest threat to the National Forests. However 
loudly voiced or strongly held these views may be, they are not 
accurate for the reality of management of the National Forests in the 
next 100 years. This year's budget request supports a program to offer 
two billion board feet including salvage sales.
    The request addresses two key long-term challenges to America's 
National Forests and Grasslands: the build up of hazardous fuels and 
the spread of invasive species that seriously impair ecosystems. In 
August of last year, the President announced the Healthy Forests 
Initiative (HFI). Its objectives include streamlining the decision-
making process and continuing our long-term commitment of working with 
communities to achieve a meaningful level of public involvement.
    We are committed to our continued partnership with those that use 
and enjoy America's National Forests as well as those that value them 
as part of our nation, no matter where they live. Although we have made 
progress, we must do more. Last year, the Secretaries of Agriculture 
and the Interior proposed new legislation to authorize permanent 
stewardship contracting authority, expedited review, hazardous fuels 
reduction projects, and address a burdensome administrative appeal 
process. President Bush reaffirmed his commitment to Healthy Forests 
during the State of the Union Address. We are committed to working with 
you as you consider the proposals of the Secretaries.

Hazardous Fuels
    The presence of large amounts of hazardous fuels poses a tremendous 
threat to people and to public and private natural resources. The 
Budget increases emphasis on protecting communities and property from 
the effects of these combustible fuels--catastrophic wildfire. The 
budget supports the 10-year Comprehensive Strategy and Implementation 
Plan, developed in close collaboration with governors, communities, and 
the Department of the Interior. Through performance goals contained in 
the implementation plan, we will implement hazardous fuels reduction 
projects, improve fire suppression planning, expand forest product 
utilization, protect lands from fire related spreads of invasive 
species, and undertake key fire research.
    The budget contains an increase of nearly $187 million for fire 
suppression. Wild land fire suppression costs are increasing and are 
having significant impact upon a wide number of Forest Service 
programs. The cost increases are due a number of reasons, including 
costs associated with national mobilization, wild land fire suppression 
in areas of high hazardous fuel loads, large aircraft and helicopter 
operations, and the increasing complexity of suppression in the wild 
land-urban interface. To address these increasing costs, the Budget 
proposes that the Forest Service and the Department of Interior (DOI): 
review the cost-effectiveness of large fire aviation resources; 
establish a review team to evaluate and develop cost containment 
strategies; and revise procedures to improve reporting of fire 
suppression spending. Together with other actions, this should enable 
the Forest Service to significantly improve our ability to fight 
wildfires without the major impacts to other programs we experienced 
during last year's fire fund transfers. Last year we kept our promise 
by aggressively fighting wildfire--long after funds appropriated 
specifically for fire suppression were gone--and catching more than 99 
percent of fires the way they all start, small. The request includes a 
renewed emphasis on up-to-date fire management plans and wild land fire 
use fires.
    Accomplishing performance objectives under the National Fire Plan 
is also consistent with the President's Management Agenda. Reducing 
hazardous fuels, protecting against fire-related invasive species, and 
targeting adequate resources to suppress wildfire promotes improved 
health of Federal, State, Tribal, and local lands as well as enhancing 
the economies of natural resource based communities. I again urge all 
of us--cooperators and skeptics--to keep a focus on what we leave on 
the land, not what we take from it. Effective, integrated hazardous 
fuels reduction can leave us with clean, healthy water, improved 
wildlife habitat, and more satisfying recreation experiences.

Invasives
    Invasive species, especially weeds, pose a tremendous threat to 
forests and grasslands. Whether kudzu or leafy spurge or knapweed or 
oriental bittersweet vine, these unwanted invasives take hold and out 
compete native species, changing the look and structure of entire 
ecosystems. Our response to these threats needs to embrace an 
integrated approach. In the coming year we will improve integration of 
efforts among the National Forest System, Research, and State and 
Private Forestry, and other USDA agencies.

                         LEGISLATIVE PROPOSALS

    The fiscal year 2004 Budget contains several legislative proposals 
that significantly advance common sense forest health efforts that 
prevent the damage caused by catastrophic wildfires and move past 
``process gridlock'' to improve agency land management efficiency. Four 
proposals, in particular, promote the President's Healthy Forests 
Initiative by reducing hazardous fuels; permanently authorizing 
stewardship end results contracting; repealing the Appeals Reform Act; 
and revising standards of judicial review in decisions that relate to 
activities necessary to restore fire-adapted forest and rangeland 
ecosystems.

Hazardous Fuels
    As mentioned earlier, the Secretaries of Agriculture and the 
Interior proposed legislation that authorizes emergency fuels reduction 
projects in priority areas of federal forests outside wilderness areas. 
This will allow timely treatment of forests at risk of catastrophic 
fire and those that pose the greatest risk to people, communities, and 
the environment. Our top priorities will include the wild land-urban 
interface, municipal watersheds, areas affected by disease, insect 
activity, wind throw, and areas subject to catastrophic reburn. We 
would select projects through collaborative processes, consistent with 
the 10-Year Comprehensive Strategy and Implementation Plan.
    Fundamental to better implementation of core components of the 
National Fire Plan's 10-Year Comprehensive Strategy is the outstanding 
cooperation that exists between the Forest Service, Department of the 
Interior, State governments, counties, and communities in the 
collaborative targeting of hazardous fuels projects to assure the 
highest priority areas with the greatest concentration of fuels are 
treated.

Stewardship End Result Contracting
    Section 323 of the Omnibus Appropriations Act for fiscal year 2003, 
authorizes the Forest Service and the Bureau of Land Management to 
undertake, for a period of 10 years ``stewardship end results 
contracting projects.'' The Administration had requested this extended 
authority last year in the President's Healthy Forest Initiative. I 
appreciate the action of the Congress in responding to the President's 
request. We expect this tool, which had been available only to the 
Forest Service on a limited pilot basis, to be used to implement 
projects that have been developed in collaboration with local 
communities and which will primarily improve forest or rangeland 
health, restore and rehabilitate fish and wildlife habitat, and reduce 
hazardous fuel. Projects will have appropriate NEPA analysis and comply 
with agency wilderness and roadless policies, the relevant forest plans 
and appeals regulations.

Repeal the Appeals Reform Act
    The Forest Service is subject to procedural requirements that are 
not required of any other Federal agency. To address this issue, the 
Secretaries of Agriculture and the Interior will propose legislation to 
repeal Section 322 of the Department of the Interior and Related 
Agencies Appropriations Act of 1993 (commonly known as the ``Appeals 
Reform Act''), that imposed these requirements that I believe limit our 
ability to work collaboratively with the public.
Standards of Judicial Review
    To ensure that courts consider the public interest in avoiding 
irreparable harm to ecosystems and that the public interest in avoiding 
the short-term effects of such action is outweighed by the public 
interest in avoiding long-term harm to such ecosystems, the Secretaries 
of Agriculture and the Interior will propose legislation to establish 
revised rules for courts in decisions that relate to activities 
necessary to restore fire-adapted forest and rangeland ecosystems.
    The President's Budget also includes legislative proposals to:
  --Expand or clarify existing partnership authorities,
  --Permanently authorize the Recreation Fee Demonstration program,
  --Allow for the transfer of Forest Legacy titles to willing State 
        governments,
  --Promote watershed restoration and enhancement agreements,
  --Authorize a Facilities Acquisition and Enhancement Fund,
  --Restore eligibility for State and Private Forestry Programs of the 
        three Pacific island entities in ``Compacts of Free 
        Association,'' and
  --Eliminate requirements of the Forest and Rangeland Renewable 
        Resources Planning Act of 1974 that duplicate the Government 
        Performance and Results Act of 1993.

                               CONCLUSION

    We are fulfilling key promises in re-establishing sound management 
throughout the Forest Service. I want the Forest Service to be an 
organization people trust and once again point to as an example of good 
government. Earning this trust means becoming good stewards of not only 
public land and natural resources, but of public dollars, of public 
trust. We know the work is not complete--there are still many 
opportunities like large fire cost management, integrating information 
systems, and making organizational changes in administrative support 
operations--but we're making good progress.
    Traditional functional and program boundaries do not serve us 
well--they get in the way of our ability to keep our word. I am 
committed to putting more effort into integrating our programs and 
becoming better partners with people interested in leveraging our work. 
The President's Healthy Forest Initiative exemplifies an integrated 
approach to problems that affect not just national forests or national 
grasslands, but America's forests and America's rangelands. It is an 
opportunity for our private land neighbors, for research, for partner 
agencies, for everyone concerned about America's forests and 
grasslands.
    Let me reiterate the deep honor I feel in being Chief of the Forest 
Service in this challenging time and the equally deep sense of 
obligation I feel to keep our promises to the American people. I enlist 
your continued support and look forward to working with you toward that 
end.
    I will be happy to answer any questions.

    Senator Burns. Thank you very much, Chief. I have a couple 
of questions, and then I want to move to my colleagues, because 
everyone is on a tight schedule. I have just a couple of 
questions.

                                RESEARCH

    In your R&D, I noticed in your monies to do research--the 
continual research of what we can do--how do we better manage 
our forests? I was going to ask you: Do you ever commission or 
grant out to land grant colleges for work to be done with 
regard to soil or water management, or watershed, or any of 
those things? Do any of the colleges across the country--I 
mean--New Mexico State University, I know, has a forestry 
school that is very good. Do you ever outsource any of that 
research to these colleges and land grant schools?
    Mr. Bosworth. We do a lot of work in terms of research with 
colleges and universities. Yes, we do outsource research to 
colleges and universities. It depends upon the circumstances. 
In some cases, they are doing it in combination with our 
research organization. In other cases, it is just strictly 
outsourced to a college or university.

                        STEWARDSHIP CONTRACTING

    Senator Burns. You might bring this up. I know some folks 
believe that stewardship contracting is somewhat controversial. 
I think you emphasized in your statement that stewardship 
contracting is going to be sort of the centerpiece of getting 
some things done on our forests that we need to be done. What 
are the other main objectives that could be accomplished 
through those stewardship contracts? How many contracts do you 
plan to let this year?
    Mr. Bosworth. Well, the first part, the other kinds of 
objectives: The whole notion behind stewardship contracting is, 
first, to collaborate with the public up front, to figure out 
what condition you want the land to be left in. You work 
together to figure out what that may be. Then, under one 
request for proposal, you end up with a contract that will 
accomplish all the things that you want to accomplish on that 
piece of land. In other words, you are bundling all the 
activities together.
    So it may be things like reducing fuels. You may be able to 
do some work like habitat improvement for a threatened or 
endangered species, or for other species, some restoration work 
for a watershed, rehabilitation or restoration work. I think 
there are great opportunities to do some of the noxious weed 
kind of work that needs to be done as part of that.
    So you do all those jobs together. Then there is some 
value, there may be some value from some of the materials, some 
of the trees that are there. The value that is there would help 
offset the cost of doing that work. The contractor then would 
be able to utilize that material. So it makes a lot of sense 
because you work together and reduce the amount of dollars.
    Senator Domenici. Would the Senator yield?
    Senator Burns. Sure.
    Senator Domenici. Have you not done that, experimented four 
or five times in pilot projects?
    Mr. Bosworth. We have--let us see--we had 28 projects each 
year authorized for the last 4 years. It is a total--I do not 
have a calculator. I cannot multiply that out in my mind right 
now. Anyway, that is how many we are authorized to do.
    We have not completed a lot of those but we gained a lot of 
experience in working with the public in setting those up. We 
have done multi-party monitoring where we had people from the 
public to help monitor those experiments or those pilot 
projects. They were working very well.
    Again, we did not have final results in a lot of cases. We 
have the final results in some and a certain amount of progress 
in lots of cases. To me, the thing that was important--to 
monitor and see how it was working--is public acceptance: 
Whether or not we were actually getting people to look for 
common ground and find common ground. That was the important 
part.
    In terms of the number of projects or number of contracts 
that we have this year, it is difficult for me to answer that 
specifically. You know, we have delegated the authority, or 
will delegate the authority, to the regional foresters to use 
that tool wherever they can use it. There will be some 
sideboards. There are going to be more projects. We need to 
train people. There is some work that we are going to have to 
do now. We are expanding the use of that. I am anxious to get 
moving. I am anxious to have more opportunity to show people 
how it will work. I am certain it is going to be successful.
    Senator Burns. Well, thank you very much. I am going to 
move on. I was going to ask you about your--I see you brought 
all your boxes of appeals to make some points. I will let 
somebody else handle that end of it.
    Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman. I very 
much appreciate what you are trying to do to correct the long-
standing, I think, failed policy of fire suppression. I want 
you to at least know that this Senator wants to work with you 
in that regard. I am very concerned about the Class 3 areas in 
the Sierra Nevada, which are about a third of the Class 3 areas 
in those strategic areas of Class 3.

                     SAN BERNADINO NATIONAL FOREST

    The San Bernadino National Forest supervisor, Gene 
Zimmerman, told my staff that he believes solving the bark 
beetle problem will require at least $300 million--at least--
just for that forest, including $5 to $6 million which is 
needed immediately simply to ensure that: Evacuation routes are 
maintained; critical fire breaks are established; and the 
necessary manpower and equipment are on hand.
    The Omnibus Appropriations bill provided about $3.3 million 
for this problem but it is not enough. How do you intend to 
address this issue financially?
    Mr. Bosworth. The total amount that Forest Supervisor 
Zimmerman is talking about--I have not scrubbed those numbers 
myself or had my staff take a hard look at those numbers--but 
there is no question that the problem there is going to be 
extensive to deal with.
    The regional forester, Jack Blackwell, has already 
committed to shifting some dollars within the region to get 
down to, shift them down to the San Bernadino NF because that 
is an urgent problem. There is a will to deal with it. The 
public down there is interested in dealing with it. So he is 
going to be shifting some of those dollars.
    They have already implemented some projects--I can get you 
some exact acreages, if you would like, and some more specific 
kinds of plans for what we can do--but we are not going to be 
able to put $300 million into that in the short term. That is 
just too much money.
    We also need to be very strategic in where we locate the 
kinds of treatments that we are going to do so that we can get 
the most out of every treatment to protect the communities, to 
protect the homes, and to protect the forest as well.
    Senator Feinstein. Thank you very much. I appreciate that. 
I recognize that $300 million is probably out of the can. As 
has been said by others here, it is a really serious problem. 
Anything you can do would be appreciated.

                               LAKE TAHOE

    I wanted to ask you about the Lake Tahoe situation. As you 
know, both California and Nevada are putting up their share of 
money. They have had enormous success at raising money in the 
private sector for that part of it. I am disappointed that so 
little is in the budget for the Lake this year. I have another 
question, too.
    There was $21 million transferred from the 2003 budget for 
Lake Tahoe to meet emergency wildfire suppression needs in that 
area. The regional forester, the one and only Jack Blackwell, 
has committed to use reimbursement monies in the Omnibus bill 
to restore those funds to Lake Tahoe. Chief, will you commit as 
well to use reimbursement monies in the Omnibus bill to 
reinstate the funds?
    Mr. Bosworth. Actually, the dollars that were--the way that 
the payback--or the dollars to restore--the $636 million that I 
talked about earlier--some of that would have been 
automatically restored, about a third of it would not, of 
National Forest System dollars. About a third of it would not 
have been restored for Lake Tahoe. Regional Forester Blackwell 
has agreed to move the dollars to make sure that Lake Tahoe 
and, I believe, the Quincy Library Group as well--100 percent 
of those dollars will be restored. He is doing that within his 
own region. I appreciate the fact that he is taking that on and 
doing that within the flexibility that he has. Those dollars 
will be there. They will all be back in Lake Tahoe.
    Senator Feinstein. Thank you very much. I appreciate that.

                             LAKE ARROWHEAD

    Can you quickly tell us what you are going to do in the 
Lake Arrowhead area--now, this is for residence protection--in 
those areas that are in the greatest danger of catastrophic 
fire due to the tree mortality surrounding their property?
    Mr. Bosworth. Well, I am going to need some time to be 
really specific. I can tell you that our folks are working very 
closely right now with the county, with local law enforcement, 
as well as fire departments. Together we can take what we have 
to offer in the Forest Service, along with what the State, 
counties, and local jurisdictions have to offer, to work 
together to be able to provide that safety net that people 
need, but I cannot be specific about----
    Senator Feinstein. Maybe somebody could brief me on what 
you are doing in those areas, the bark beetle infestation 
areas----
    Mr. Bosworth. We would be happy to do that.
    Senator Feinstein [continuing]. With some specificity. I 
would appreciate that. Thank you, Mr. Chairman.
    Senator Burns. Thank you. Senator Campbell.
    Senator Campbell. Thank you, Mr. Chairman. Chief, I 
recognize, as I am sure you do--we all do--we have got a huge 
deficit this year. Demands are up. States all have deficits. I 
have to tell you, I think when I look at your budget we are 
being penny-wise and dollar-foolish.

                          WESTERN FOREST FIRES

    Those fires are so intense out there. I do not know if you 
have visited some this last year--like the one in Arizona in 
the national forest down there, and on the Indian reservation, 
or the Hayman fire in Colorado, or the Missionary Ridge fire--
but they are not like fires years ago. These things are--I 
mean--they are hotter, move faster, are more unpredictable--
they are worse.
    I visited the Missionary Ridge fire near Durango while the 
firefighters were there. I talked to a couple of firefighters. 
They told me that the flames were moving at about 50 miles an 
hour sometimes. They actually saw birds being burned out of the 
sky. They could not even out-fly the flames. That is a hot 
fire.
    I think that, you know, we are going to pay the bill no 
matter what. Durango is a good example. After that particular 
fire, there was a lot of sediment washing down from the burn 
area. They came back and asked me to get them one-half million 
dollars in the appropriations process to upgrade their water 
filtration system plant to be able to handle that increased 
sediment, which I did. They got the money. I would have rather 
put that money into your budget, very frankly.
    It seems to me that when we do not plan ahead, do not have 
adequate precautions, we are going to pay the bill. We are 
going to pay the bill anyway at a later date. This all comes 
out of the same taxpayer's pocket one way or the other. I just 
think that if we had more money through the administration's 
request, it would not cost us on the other end. It is going to 
cost, as I understand it, about $3 million to stabilize some of 
the areas around Denver where sediment is already washing 
down--and will even more after this last huge snow begins to 
melt--and washes into the filtration system. I just wanted to 
pass that on and maybe ask you a couple of questions.

                  RECREATION FEE DEMONSTRATION PROGRAM

    By the way, all the calls we are getting in our offices out 
West are absolutely against that fee demo, making that Fee 
Demonstration Program permanent. I think most people think, as 
I do out there, that if you are using the land--like you are 
taking firewood or cutting Christmas trees or something of that 
nature--when you take something from it--or filming for profit 
or something--then it is fair to ask them to pay some kind of a 
fee. But most of the people I talk to out there are absolutely 
opposed to paying just to go out and look at what they think 
they own as an American citizen in a forest. I thought I would 
pass that on to you.

                          WESTERN WATER RIGHTS

    Let me ask you just two questions. One deals with water. 
Out West, we are very, very protective of our water, as you 
might know. It goes back to years and years ago. Mark Twain 
once said that whiskey was for drinking, water was for 
fighting. They still think that way out there, as you know. We 
have this constant struggle between those people who believe 
there is an implied Federal reserved water right and those 
people who think that all water within a State ought to be 
adjudicated through the State water courts.
    I would like to know your view on that, because in some 
cases--and I know it depends a lot on which administration is 
in power, too--but in some cases the Forest Service has tried 
to impose bypass flows in our national forest and circumvent 
working with State instream flow programs. I am sure you are 
aware of that. I would like you to give me your view on where 
you think that is going, particularly as we possibly face 
another drought in the West.
    Mr. Bosworth. Well, the first thing is that States 
adjudicate water rights. My belief is that people who have 
water rights, that is their water. The State is the 
organization that determines who has those rights.
    I also think that, in the end, the way to work with this is 
in a collaborative way to find common ground. The land is not 
worth much if you do not have water on it whether it is private 
land or whether it is public land. So it is important, in my 
view, that: We work together with those folks that hold the 
water rights; do what we can to try to make sure that we are 
still able to keep the functioning of the streams intact and 
also meet their needs; but do it in a working-together way 
rather than in a going-to-court or a regulatory way.
    I may be a little bit naive, but I believe that in most 
cases if you really sit down and try to work toward each 
other's interests, you can find solutions to those problems.
    Senator Campbell. Well, I would like to think so, too. But, 
as I said, sometimes it depends on the administration. It seems 
to me the past administration was hell-bent on usurping State 
water rights in all of our rivers that come through our Western 
States. We had those constant fights. I wanted you to be aware 
of that.

                       FIRE IMPACTS ON WATERSHEDS

    Let me just ask maybe one more, and that is: When I think 
in terms of how watersheds are affected by these murderous 
fires we have out now, it would seem to me the Forest Service 
would get ahead of the curve and try to work with 
municipalities in offering some suggestions or recommendations 
or something before the fires start on what precautions they 
ought to be taking. Do you have anything like that in place in 
the Forest Service? I see Hank is nodding his head so you must 
have something.

                                FIREWISE

    Mr. Bosworth. We have a program called FIREWISE where we 
work with, usually through the State Foresters, the local 
community in making sure that people have the information to 
know what things they can do on their own property and around 
their own homes.

                        WATER FILTRATION PLANTS

    Senator Campbell. Yes, I knew of those because I have sat 
in some of those meetings. I meant particularly dealing with 
water filtration plants and precautions that can be taken by 
towns to protect their water after a fire.
    Mr. Bosworth. I guess I am not aware specifically in terms 
of water filtration. We would certainly have some expertise 
that could work with that. We also have some programs, like our 
Forest Stewardship program under State and Private Forestry, 
that helps in terms of how you manage on private land, how the 
vegetation is managed to help private landowners do things that 
will keep the land in better condition in the event that you 
have a fire. You would not need to deal with the problem in 
terms of filtration through plants. I would be very happy to 
explore some of our State and Private Forestry programs to see 
whether there are some things that can get at that more 
directly.
    Senator Campbell. Well, I might compliment you on one 
thing. I know in our State--and I think it is probably pretty 
much like this in other Western States, too--that Federal and 
State Foresters really work well together. I have done a number 
of town meetings--the things that we all do--and invited them 
to come answer some questions about it. They really have a very 
close working relationship and good communication between 
States and the Federal level.
    They are all strapped with the same problem--that is, not 
having enough resources--but they do have tremendous lines of 
communication.
    Thank you, Mr. Chairman.
    Senator Burns. Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman.

                                DROUGHT

    Again, most of the questions that I am concerned about have 
been asked. You are aware of the fact that we are in the fifth 
year of a drought. It seems hard to realize here in 
Washington--where we have just dug out from under huge amounts 
of snow and now we have rain coming down--but in Utah the 
conditions are very bad. I would hope you would do everything 
you can. I know you are doing everything you can.
    I simply want to underscore that. We are reaching a point 
where we need, not just good stewardship, but we need heroic 
kinds of statements to deal with the challenges of drought. 
Aside from doing a rain dance and making it rain--we will 
assign that to Senator Campbell--I am not quite sure what you 
can do.
    Senator Burns. He said it is a matter of timing.
    Senator Bennett. I see, okay.
    I want to compliment you on the people you have on the 
ground in Utah. We have a good relationship in our office with 
Forest Service personnel in Utah. We very much appreciate their 
cooperation. Other than that, as I say, all the issues relating 
to the bark beetles and litigation, et cetera, probably have 
already been covered.
    Senator Campbell. Would the chairman yield?
    Senator Burns. I would.

                       GROUNDED AIR TANKER FLEET

    Senator Campbell. I had asked you earlier if you would 
comment on the tanker fleet, too, that many of us are worried 
about so much, if you could do that.
    Mr. Bosworth. Yes. As you know, we had two accidents last 
year where the fatal crashes were air tankers: one was a C-130A 
and the other was a PB4Y. Subsequently, the Director of the 
Bureau of Land Management, Kathleen Clarke, and I commissioned 
a blue ribbon panel. It was a very high-level group of people 
from outside the Forest Service to evaluate our aerial 
firefighting program. They came back with some recommendations. 
We are looking through those and implementing some of those 
recommendations.
    But one of the things we have done is, we have grounded the 
C-130As and the PB4Ys. We are taking the rest of the large 
aircraft and, working with FAA, have developed an inspection 
and maintenance program. We are in the process of inspecting 
those before we are going to put them back in service. Once the 
inspections are completed, and we find out what kind of 
maintenance has to be done, then we will be able to move 
forward.
    It is my expectation that we will have retardant aircraft 
available this year. It may not be at the full level that we 
had last year. We are supplementing the numbers with what we 
call SEEDS--it is a single-engine aircraft as opposed to the 
larger ones. Then we also have--we are looking at more heavy-
lift helicopters.
    Senator Campbell. Those will be leases, I guess. You do not 
own any of those.
    Mr. Bosworth. That is right. The other part of it is, we 
need to make sure that we are putting those retardant aircraft 
in the right places. What I mean by that is, I think that the 
best place for using those is in the initial attack and 
extended attack. When you get these huge fires--like the Hayman 
fire, the Rodeo-Chedeski fire, and the Missionary Ridge fire--
in a lot of cases, heavy-lift helicopters are much more 
effective in terms of trying to protect private homes. You have 
seen how big those fires are. You know, dropping retardant in a 
lot of cases is just dropping dollar bills out of the aircraft 
and not doing much more than that.
    We will be prepared this year--maybe not at the full level, 
as we were, but we will be functioning very well.
    Senator Campbell. Thank you.
    Senator Burns. Senator Domenici.
    Senator Domenici. Thank you very much.
    First let me compliment you on your enthusiasm. I think it 
could be a good year for you and for the Forest Service. I was 
going to ask about your airplanes. You have answered that to my 
satisfaction.

                        WILDLAND FIRE MANAGEMENT

    I noted from my staff that a couple of weeks ago, in the 
Energy and Natural Resources Committee, you testified there 
that you expected to be able to put out 98 percent of the fires 
in 2004. I am wondering how you are going to do that. It is our 
understanding you are going to have about half the firefighters 
you had in 2002.
    Mr. Bosworth. What I would like to do first is put a chart 
up here for you to take a look at. I believe you have a copy of 
it in front of you there. It is the chart that shows--if you 
will notice there on the left, the blue circle: That is the 
total number of fires that we had between 1996 and 2001. That 
is that circle. The little pink pie shape in there is 1.8 
percent of those fires. That 1.8 percent are those fires that 
exceed 300 acres.
    So then if you go to the right and you look at the top 
circle, that is our suppression costs. What that shows is that 
86 percent of those suppression costs came from that little 
pink wedge on the left-hand side. In other words, the 1.8 
percent of the fires caused 86 percent of the costs and 95 
percent of the acres burned. The idea, then, is to keep that 
little pink wedge as small as you can keep it. If you could 
keep all fires less than 300 acres, then, of course, we could 
significantly reduce the dollars.
    Now, we are never going to be able to do that, not with 
drought and not with the situation we have with fuels. Our best 
hope to ever do that is by treating fuels. In the long term, 
there is hope that we could even significantly reduce the cost 
even more.
    So, then, our challenge is to look at that balance between 
suppression costs and preparedness costs to make sure that we 
have enough firefighters to do the initial attack, to keep 
those fires small, but still make sure that we have enough 
money to fight those large fires that we are going to have a 
certain amount of.
    There are differences of opinion about how much that ought 
to be. For me, the important thing is to have some flexibility 
to move funds back and forth between suppression and 
preparedness because, again, it depends so much on what the 
fire season looks like when you actually get closer to it. The 
fiscal year 2003 authority provided us that opportunity for 
2003. We will see how well that works this year. My expectation 
is that that will help us get the right level of preparedness 
and then still be able to do the job that we need in 
suppression.
    Senator Domenici. Well, you are saying that you want to try 
to have fewer big fires.
    Mr. Bosworth. That is right. We want fewer big fires 
because that is where the cost and that is where the acres are.
    Senator Domenici. Well, if you can do that, wonderful. We 
will give you some kind of medal if you can do that.

                          PROCESS PREDICAMENT

    Let me talk just a couple of minutes about the report on 
process predicament. I thank you for reminding me of it. I will 
review it. I am at fault for not having reviewed it if there 
are things in there that we ought to be doing. You have stated 
that you are going to be working to get at some of the 
predicaments in the process that that study revealed. We ought 
to be doing some of them if they are legislative. I hope we 
will look at them collectively and see what we can do.
    If there are any legislative changes in that that stand out 
to you, I would hope you would call it to our attention. We, 
too, have a responsibility to help you as you try to do that.
    Mr. Bosworth. Thank you. I would just like to respond very 
quickly if I could. The process predicament write-up does not 
give answers. It just kind of defines a problem. We are trying 
to work together to develop the answers.
    I would like to point out one thing that I have here since 
we are talking about process predicament. The Lolo National 
Forest had fires along with a lot of others in the year 2000. 
They attempted then to do some work, to do some restoration and 
rehabilitation. I would like to point out over here: This is an 
environmental impact statement. This stack here, which is a 
pretty good size stack of stuff--in order for them to do work 
on 752 acres of soil stabilization, 224 miles of road 
decommissioning--closing roads--2,172 acres of timber salvage, 
2,377 acres of commercial thinning, and 12,900 acres of 
reforestation--in order to do that work, it took this 
environmental impact statement.
    When we got the appeals, if you take this--we have the 
appeal record. That box--12 of those boxes is what it took to 
transfer the appeal record to the regional office from the 
forest--12 of those boxes to do the work on one forest after 
just one of the many, many fires that we had--to do some of the 
work of restoration and rehabilitation. That is why I am so 
focused on trying to deal with this process predicament. That 
is just a huge problem for us.
    Senator Domenici. Well, you know, we can just continue on 
and complain, or we can try to do something like you are doing 
and find some of the actual problems.

                        STEWARDSHIP CONTRACTING

    I have a personal commitment to myself to try to establish 
a presentable case for the use of the stewardship contracts. I 
have a certain entity that I would like to convince in my State 
that they are a good thing. To that end, I have the language of 
the law. I wonder if you could have one of your staff just take 
a couple of projects that have worked, even if they are small--
they do not have to be in my State, obviously--and just narrate 
how they start, who gets involved, how it proceeds beyond that, 
and how it ends up--being able to accomplish something 
collectively that is contemplated by this new statute. Could 
you do a couple of those for me, please?
    Mr. Bosworth. I would be very happy to do that. I could 
also make some people available to go through the whole process 
of what they used. We have some people in my office now who 
have actually done those, as forest supervisors, and who have 
now transferred into my office. They would be happy to sit 
down. They have done some projects that are very successful. 
They had a huge amount of public support for them. We would be 
happy to go through some of those examples.
    Senator Domenici. If you could get me one in writing. If I 
may--in New Mexico--want to ask you to send a couple of your 
people with me to show some constituents how it is done. If I 
could start with a written explanation, it would be extremely 
helpful to me.
    Mr. Bosworth. I will do that.

                       COUNTY PARTNERSHIP PROGRAM

    Senator Domenici. I have about 8 or 10 questions I am going 
to submit. One of which has to do with asking you whether you 
will continue to handle the so-called county partnership 
restoration program. Will you continue to work with the 
counties? There are a number of those going. Some of them are 
working. We do not want you to let up on that kind of 
relationship. Could you just take a minute or so and talk about 
that?
    Mr. Bosworth. The way that we are going to get these jobs 
done is through those kinds of partnerships. There are a number 
of projects that I know of that folks are working on, where 
county partnerships are working together, I think, in New 
Mexico, Arizona, and Colorado.
    Senator Domenici. Right. Lincoln is one, Apache----
    Mr. Bosworth. Apache-Sitgraves is one, and then the San 
Juan, I believe, is one.
    Senator Domenici. Right.
    Mr. Bosworth. Those folks are working together in that 
partnership to move forward.
    Now, we have not taken dollars off the top in my office and 
sent funds to those places specifically. We are looking at what 
kind of things we might be able to do in addition to help to 
make it easier for them to do that.
    Senator Domenici. The only thing we expect you to do is to 
continue to push those and give your blessings to them so that 
the people know they are for real and that you support them.
    Mr. Bosworth. I am more than willing to put emphasis, to 
talk it up, and to encourage the regions and the forests to 
take the dollars that we are giving them, and to work them into 
those partnership areas.
    The only thing I am reluctant to do--I am trying not to do 
very much of--is take dollars off the top here. I want to get 
as much money out as I can without me taking it off the top.
    Senator Domenici. Sure.
    Mr. Bosworth. So we have reduced that significantly, but 
boy--I am willing to do all the rest of that.
    Senator Domenici. Thank you. Thank you, Mr. Chairman.
    Senator Burns. Yes, sir.

                        WILDLAND-URBAN INTERFACE

    Would you put the last chart that you had up there, sir, 
please? I have a question regarding it. That is a very, very 
compelling chart that you have up there. I would just like to 
know--up there in the big blue circle where you do your circle 
irrigation up there--that is what it looks like, does it not?
    Mr. Bosworth. It does.
    Senator Burns. How many of those big fires started--or had 
their origination--started in your wildland-urban interface 
areas? Would you have any idea? Have you ever looked at that?
    Mr. Bosworth. We can get some information on that. I could 
not tell you just offhand. I am sitting here trying to decide--
what I was pausing about was whether or not, in my view, most 
of those would be in sort of roaded areas versus the 
backcountry kind of areas. I just do not know. I would have to 
do some work, particularly--and we can do that. I mean, I think 
you can get the information. We will see what we can find and 
at least figure out whether they are in the wildland-urban 
interface or whether they are in roaded versus unroaded areas.
    Senator Burns. And along with what Senator Domenici had to 
say, it would be good if we could do some kind of a white 
paper. He wants some concrete information that he can take to 
his communities in New Mexico as far as stewardship is 
concerned and how those are working.
    We also should take a look and see what changes we would 
have to make in the law to facilitate both what we are trying 
to do on the forest, and also take a look and see where the 
objections are--how we address those objections or those 
questions by people who would file these appeals--because, no 
doubt, some of those appeals have a legitimate basis. How do we 
address those in certain circumstances in order to deal with an 
isolated case? That would help us up here.
    Mr. Bosworth. That is part of--that is what the Healthy 
Forests Initiative wants to do in large part as well.
    Senator Burns. That is right.
    Mr. Bosworth. So that is why that proposal is out there.
    Senator Burns. Okay. Well, we sure appreciate your work on 
that.
    Senator Stevens, welcome to the committee this morning, the 
chairman of the full committee. We look forward to your--if you 
have a statement you may put it in the record.

                       TONGASS TIMBER REFORM ACT

    Senator Stevens. No, I do not have a statement, Mr. 
Chairman. We have four subcommittee meetings this morning. I am 
trying to go to each one. I am sorry to be late here, Mr. 
Bosworth. I have great interest in the Forest Service, as you 
know. We recently had to put a provision in the law to assure 
that the Tongass Timber Reform Act concept was finally approved 
in the Tongass Land Management Plan (TLMP). I hope that you 
will have no difficulty with that.
    Mr. Bosworth. Not at all.
    Senator Stevens. Are you all going to be able to observe 
that provision of the law?
    Mr. Bosworth. We are going to make every effort to do that, 
yes, I believe so.
    Senator Stevens. I have lived now through too many 
agreements with people over what happens in Alaska. One of them 
was in the Tongass Timber Reform Act. It was the third in a 
series of agreements we had to reach in order to continue 
Forest Service operations in Alaska, and harvesting timber. It 
has now been held up, as you know, for about 12 years or more. 
I hope that we will go ahead.
    Mr. Chairman, I am thinking about offering a provision that 
says anyone who challenges those plans must pay the loss of 
income to the people who have suffered by the delay--if they 
suffered--if they prevent going ahead now with the contracts 
that have been in place for so long, as far as harvesting 
Alaska timber.
    These people, who are just professional protesters in the 
legal profession, do nothing but file lawsuits in order to 
raise more money. The contributions go to a foundation they 
form themselves. They pay themselves and they have no downside 
when they lose. I think we have got to find some way to prevent 
people from holding up the harvesting of timber under a plan 
such as--I do not know if you know it--I opposed TLMP when it 
first came out. By the time it has gone through 12 years, I 
have no alternative but to support it.
    I do hope we can find some way to make certain it goes--I 
notice from your resume you never served in Alaska, Mr. 
Bosworth.
    Mr. Bosworth. I have never served in Alaska. I have been in 
a number of regions. I have been to Alaska a number of times. I 
spent a week there last year trying to gain a better 
understanding of the issues. There are some real challenges 
there. There are also some very good--we have some very good 
employees there. They are working hard.
    Senator Stevens. Well, we would invite you to come up, 
because, you know, some things that may work elsewhere, such as 
backfires and other things, can really cause holocausts in our 
State. I think it takes someone with firm professional 
experience to oversee operations on a day-to-day basis up 
there.

                   BEETLE KILL ON THE KENAI PENINSULA

    I went with Senator Domenici when they had those terrible 
fires out in his area. I could hardly believe them. We have 
now--I am told we have over 3 million acres of beetle kill on 
Federal lands that are in the vicinity of our major city of 
Anchorage, and coming up--that is the Kenai Peninsula, up 
towards the Matanuska Valley in Alaska. The beetle kill is 
substantial.
    I hope that under the President's new program that we can 
take some steps to try to thin out some of those dead trees so 
they do not provide the fuel for fires such as we have had 
before in that area. Beetle kill--I have flown over the forests 
when they are burning. The sinuosity of the fire follows the 
dead trees in our area. They just end up by consuming an 
enormous acreage of forest because the trees that are dead, 
because of the infestation, have not been removed.
    I hope you will look at a plan to try and remove some of 
those dead trees.
    Mr. Bosworth. Actually, when I was up visiting there last 
summer, I did get up in the Kenai. I did look at some of the 
area where the spruce is dead. It is a huge problem. I 
certainly agree with you. A lot of that is private land. Some 
of that is national forest. We are working through our State 
and Private Forestry program with private landowners. We are 
then trying to do as much as we can on the national forest as 
well.
    One of the successful programs I think also is the FIREWISE 
program there on the Kenai. We are working with those folks, 
the actual homeowners, helping them find ways that they can 
make their homes safer from fire. I appreciate your support and 
your attention on that.

                     ALASKA JURISDICTIONAL PROBLEMS

    Senator Stevens. You are right, it is a checkerboard of 
Federal ownership. Part of it is a wildlife refuge, for 
instance, and the forest surrounds that. The wildlife refuge 
was actually carved out of national forest lands in the past. 
There are enormous problems jurisdictionally between the two 
Federal agencies in determining how to deal with fires in the 
peninsula. In the final analysis, you know, we have less than 2 
percent of our land in private ownership. It is all surrounded 
by Federal or State land. If Federal and State people do not 
fight their fires, the people who suffer the most are the 
people who have the inholdings, so to speak, that are involved 
in those areas of heavy forestation.
    Southeastern Alaska, I am sure you saw, because of its 
rainfall, does not have as much difficulty. But it has been 
drier this year, too. We are going to have enormous fires if we 
do not get prepared for them.
    Mr. Bosworth. Again, my belief is that the solution is both 
fuels treatment and working together between State, Federal, 
local jurisdictions, and working with homeowners. We can do 
that by working together to make a big difference. That is an 
important part of the National Fire Plan.

                       ALASKA FOREST TRIP BY AIR

    Senator Stevens. Mr. Chairman, once in the past I got the 
cooperation of the Department of Defense. We took one of the 
enormous passenger planes from the military. We went through 
the forested area of our State. We had helicopters and National 
Guard standing by to take people, Senators and staff, out to 
look at these areas of really great risk to everybody. That is 
15 years ago now. I am not sure there are many people around 
here that made that trip.
    I would like to suggest to you that we try to organize a 
trip to go up there. It only takes a weekend, really. I think 
we should go up. We should ask Mr. Bosworth and some of his 
staff to go along. You just have to view it in totality. These 
are the two largest forests in the United States. Beyond that 
are millions of acres of forestland that is owned by the 
Federal Government. There is just not proper stewardship of 
handling the problem of infestation of the timber in 
particular.
    I do not want to belabor it. I urge you to think about it. 
I think that is a fantastic legacy for the future. I think the 
day will come when we will be compelled to resume harvesting 
that timber. We could have harvested that timber on a 103-, 
104-year cutting cycle, using only 10 percent of the forest, 
and supplied better than 450 million board feet forever. That 
has been challenged and cut back. As you know, we are down now 
last year to 34 million board feet.
    The year that I came to the Senate, the harvest was 1.5 
billion board feet. We still only cut--in the history of man, 
we have cut 3 percent of the forest. It does not make any sense 
what happened. I think more people in the Senate, and more of 
your people, need to be exposed to the whole of the totality of 
forest areas in Alaska in order to make sure we have a sound 
policy.
    I appreciate what you are doing. Thank you, Mr. Chairman.
    Senator Burns. Mr. Chairman, thank you for coming by. I 
noted, Senator, that he said he had spent 1 week up there last 
year in your forest. I spent 1 night up there that turned into 
1 week.
    You know how that is. He raises a very legitimate question, 
though, I will tell you that.

                NATIONAL FOREST LAND MANAGEMENT PLANNING

    There are a couple of things I want to ask you about, and 
then--forest plans, money to--we understand that they are 
incredibly costly, to do forest plans. Are you on schedule to 
do, redo forest plans--we have some coming up, I understand--
especially when it has taken us 5 to 6 years to prepare one of 
those things. How are we on that schedule of redoing some of 
the forest plans?
    Mr. Bosworth. We are behind in terms of--you know--we are 
supposed to have our plans done--they are supposed to be 
revised every 10 to 15 years, 15 being the outside. We have a 
number of forest plans that are 15 years and beyond.
    The important thing, I think, is our attempt to update the 
planning rule and, frankly, to modernize the planning rule. The 
way it has been--the last time it was done was back in the 
early 1980s and then, of course, in 2000. The problem with the 
2000 planning rule is that it would cost us an estimated $12 
million per forest plan to do a revision. It would take several 
years--I mean, probably more than what it has taken under the 
old rule. It is my strong desire to get the timeframe down to 
just a couple of years.
    I also have a belief that the only people that can be 
involved in forest planning, when it takes you 8 or 9 years, 
are those who are being paid to be involved. But the person who 
just cares--the person who likes to go hunting or fishing, or 
the person who wants to go camping--they cannot stay with it 
for 8 years and work with us for 8 years along with everybody 
else. So if we really want to work with the public in a 
collaborative way on how their forests are going to be managed, 
we have to get that timeframe down to just 2 years or 3 at the 
max.
    That is what our proposed planning rule would do, I am 
hoping and expecting. If it does, then I think we can make a 
huge difference, reduce costs, and get caught up.
    Senator Burns. The same thing on grazing permits?

                            RANGE MANAGEMENT

    Mr. Bosworth. In the 2004 President's budget we are 
increasing the amount for Range that would--I will have Hank 
give you the dollars--that would increase the number of 
allotments that we could get under NEPA by about 30 percent, I 
believe. Can you give him the figures specifically, Hank?
    Mr. Kashdan. Yes.
    Senator Burns. Turn your microphone around there, Henry.
    Mr. Kashdan. Mr. Chairman, the grazing increase of $7.3 
million, compared to the President's budget, would enable us to 
do 33 percent more allotments and get them under decision 
notices than we had been able to do in 2002. You would still 
continue to have the backlog issues.
    Senator Burns. You still would, okay. That goes hand in 
hand, I think, with the forest plans and the grazing permits. 
All this is linked together, the invasive weeds, these forest 
plans, grazing permits.

                        NOXIOUS WEEDS MANAGEMENT

    Now, if you think just getting rid of weeds, that helps, 
especially in sheep. Now, cattle not so much. The cows will not 
eat that stuff. Sheep will. Doing these grazing permits is 
very, very important not only from a weed standpoint, but also 
in our fire management.
    Where we had grazing, we do not have those really hot 
fires. That excess grass and undergrowth is--and sheep browse--
that is all taken away. It is part of fuels reduction. It does 
not hurt the land. We can do that--not using tax dollars--to 
remove some of those undesirable things that we think that are 
on our forests--such as weed management--and that costs--and 
also fuels reduction.
    There are some natural harvesters out here that will help 
us manage our forests. I do not know why we are not using those 
tools. Any other person who is in charge of managing--just like 
I said: The old equation of sun, water, and soil--and using 
those resources--and knowing how to use those resources.
    Now, does it work on every forest? No, it does not. That is 
why we cannot write a law that one size fits everything. It 
just does not. There are circumstances. There are growing 
seasons. There are variables in moisture, a lot of variables, 
that we have to take into account. It takes a really 
experienced person to understand what forest I am managing and 
what practices work, and what practices do not work. That is 
why it just has to happen that way.
    You can take every ranch in the State of Montana--and Dale, 
you know this as well as anybody else--and no two ranches are 
alike. They may lie right next to one another. How you manage 
it; how you take care of it; how you make it produce--but I 
will tell you, I bet the guy that has lived there for a 
generation-and-a-half or two generations--they know how to 
manage it. The next guy comes by and he buys it--he changes 
everything--he learns pretty quick--some things work and some 
things do not work.
    By the way, I called the Park Service up. I had a way to 
get that guy on that John Deere tractor out of that puddle but 
they did not take my advice down there.
    Just comment on that, then. I think those issues really 
link together. I would help us to complete as much of this as 
we can. That really enables us to deal with some of the 
problems we have, this management problem.

                              LEAFY SPURGE

    Mr. Bosworth. I would like to say something, first, about 
leafy spurge up there. I did not respond to it when Senator 
Dorgan was here. I know what leafy spurge is. It is a huge 
problem. Springtime, as you know--it will have yellow flowers 
on it. Most leafy spurge that has been there for a while will 
have a root system that is 20 and 30 feet deep.
    Senator Burns. That is right.
    Mr. Bosworth. You cannot pull it out when it is 20 or 30 
feet deep. You can pull it and break it but it just pops right 
back up again. You can do some things with grazing. Both goats 
and sheep will eat it. We have even tried in some places to 
contract with goats to pay, in other words, to graze, to try to 
eradicate leafy spurge.
    We are also making some progress on leafy spurge with 
wasps, the bugs that are natural enemies to it.
    Senator Burns. Doing work at Sidney, Montana.
    Mr. Bosworth. Yes, that is correct, and at a couple of 
other places along the Smith River we are working with it, too.

                            INVASIVE SPECIES

    I will tell you, I am so convinced that invasive species--
which would be insects, diseases, and weeds--are probably one 
of the biggest threats to our national forests and grasslands 
that there is, and not just to the national forests but the 
Nation's forests and grasslands. I mean, it is a huge problem. 
Our country spends a lot of money every year trying to deal 
with invasive species--either insects, diseases, or weeds--and 
I will be very happy to work with you to try to improve our 
program and to do it better. But it has to be integrated, like 
you say.
    Senator Burns. Right.
    Mr. Bosworth. When we have fires, when we have wildfires, 
we end up with a spread of--knapweed, for example, in the 
Bitterroot Valley. After those fires, we just had bumper crops 
of----
    Senator Burns. Knap.
    Mr. Bosworth [continuing]. Of knapweed, yes. That is one of 
the problems that you have in many places in the West now. When 
we have fire, whether it is a prescribed burn or whether it is 
a natural fire, we have got to be doing something about weeds 
right after the fire because there are so many of them.
    But again, to me it is essential that this be integrated 
between the fire, between the insects, between the diseases, 
between the weeds, and that our management work on all parts of 
those together. It is critical.
    Senator Burns. I do not know whether you have had the 
opportunity to visit with Packy Burns yet--no relation--no 
relation. She lives at Big Timber. They run sheep in the Big 
Timber area. She contracts out to private lands and also 
permittees. She takes her bands of sheep wherever she is 
contracted. They pay her to come in and do it.
    Mr. Bosworth. No, I have not met her.
    Senator Burns. Well, you ought to meet her. She is a very 
interesting woman and, of course, I knew her old father-in-law 
many years ago. He had sheep and cattle in the big sheep and 
timber area. We used to do a lot of business in Sweet Grass 
County.
    We thank you for your testimony today. I just want to say 
publicly, I remember that when you came to this office I had 
the feeling that we made the right choice, that the President 
made the right choice to put you in charge of the Forest 
Service. You sure have not been a disappointment. I just want 
to congratulate you on the work that you are doing.
    We are not going to agree on everything. No people do. 
Differences of opinion are what make the country go. Generally, 
though, when I talk to your people who are on the ground, 
morale is very good. You are to be complimented on putting some 
people around the forests. I think that are doing as good a job 
as they can possibly do under the conditions they have to do 
them.
    So thank you for coming this morning. We are willing to 
work with you on funding those areas--that white paper on what 
we can do on stewardship, how we make it work, and how we make 
it work for everybody in America. Thank you for coming this 
morning.
    Mr. Bosworth. Thank you, and thank you for those comments.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Burns. There will be some additional questions 
which will be submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Question Submitted by Senator Pete Domenici

                     COUNTY PARTNERSHIP RESTORATION

    Question. Chief Bosworth, I know that last year you made efforts to 
ensure the Lincoln, Apache-Sitgreaves, and GMUG National Forest 
received funding to work with County Partner Restoration Projects to 
help reduce hazardous fuels loads in Arizona, New Mexico, and Colorado.
    I am told that last year, before you had to pull back funding to 
pay for fiscal year 2002 fire fighting, that about $1 million was 
slated to be expended on these three forests for this type of work. How 
much funding should we anticipate will be slated for these three 
forests this year?
    Answer. The following table displays Hazardous Fuels, Forest 
Health, and Vegetation/Watershed funds committed to the County Partner 
Restoration projects for the three forests in fiscal year 2003:

----------------------------------------------------------------------------------------------------------------
                                                                             Apache-
                                                               Lincoln NF   Seagraves    GMUG NF's     Total by
                                                                                NF                       BLI
----------------------------------------------------------------------------------------------------------------
Hazardous Fuels.............................................      ( \1\ )      ( \1\ )      $90,000      $90,000
Forest Health...............................................      ( \1\ )      ( \1\ )       33,000       33,000
Veg/Watershed...............................................     $330,000     $305,000      ( \1\ )      635,000
                                                             ---------------------------------------------------
      Total by Forest.......................................      330,000      305,000      123,000      758,000
----------------------------------------------------------------------------------------------------------------
\1\ None.

                          DEFERRED MAINTENANCE

    Question. Chief Bosworth, I note Deferred Maintenance/
Infrastructure Improvements is down $50.9 Million from the fiscal year 
2003 request of $50.9 Million. In fiscal year 2002 we funded this line 
Item at $61 Million.
    With your current budget, are you able to fully manage and maintain 
the ecosystem health of the lands that are already entrusted to the 
Forest Service? Please provide a yes or no answer?
    Answer. No. However, the Agency's efforts will be to focus on the 
critical high priority work. Limited resources and combined with a 
multitude of resource management issues at the ecosystem level on the 
191 million acre National Forest System requires the careful balancing 
of funding priorities reflected in the fiscal year 2004 Budget. Within 
the Capital Improvement and Maintenance budget line items, the focus is 
on addressing the critical deferred maintenance health & safety items 
deferred maintenance backlog.
    Question. Specifically, which programs will not be funded at 
amounts called for in the Forest Plans, as a result of the fiscal year 
2004 budget request?
    Answer. Forest Land and Resource Management Plans (or Forest Plans) 
do not identify specific funding needs for an individual program in a 
given year. Forest Plans are the result of completing the middle-level 
of the agency's 3-tiered planning process. They are programmatic 
documents that tier from the agency's strategic plan and establish a 
framework for identifying, planning and implementing projects designed 
to achieve Forest and agency objectives.
    Program funding needs for a fiscal year are determined based on a 
combination of factors, including the results of project level planning 
within each program. The agency identifies various combinations of 
programmatic needs in its budget submission that are designed to 
address different sets of goals, objectives, and budget constraints. 
Reduced funding in any program will result in less work being 
accomplished on the ground and potentially lengthen the time it takes 
Forests to achieve their Plan objectives and the agency to achieve its 
strategic objectives.
    Question. I also note that there are a significant number of insect 
and disease outbreaks that are not being sanitized or salvaged. Would 
you provide me an explanation of the relative priority given to 
treating these outbreaks as compared to completing deferred 
maintenance?
    Answer. The President's Budget provides a balanced program to meet 
forest health protection and deferred maintenance/infrastructure 
improvement needs.

                 VIBRANT FOREST AND RANGE BASED ECONOMY

    Question. Give me a list of the legislative changes that you need 
to ensure you can implement the National Fire Plan, not only in a safe 
and effective manner but also in a manner that is environmentally 
acceptable?
    Answer. If Healthy Forest legislation is enacted, we don't 
anticipate a need for other legislative action. We are in the process 
of establishing and implementing several Healthy Forest related 
administrative actions that will enable the Forest Service to safely 
and more effectively implement the National Fire Plan. We will keep you 
informed of any change in circumstances.

                           FIRE PREPAREDNESS

    Question. Chief, a couple of weeks ago you testified to the Energy 
and Natural Resources Committee that you expect to be able to put out 
98 percent of the fires that start in fiscal year 2004. I am wondering 
how you will accomplish this with half as many fire fighters as you had 
in 2002?
    Answer. Preparedness funding was at an all-time high in 2001, the 
first year of the National Fire Plan. This included significant funds 
for one-time purchases of heavy equipment including engines and dozers 
to reach a maximal readiness level. While of that equipment will have 
to be replaced someday, annual investments needs not be maintained at 
the 2001 level.
    In 2002, fire readiness proved to be as good as or better than 
ever. Ninety-nine percent of wildfires on Forest Service-managed lands 
were controlled on initial attack. Preparedness funding in the fiscal 
year 2004 is $9 million higher than fiscal year 2003 request. 
Preparedness funding will be targeted in 2003 and 2004 to maintain the 
agency preparedness at the highest level possible, with resources being 
positioned in the area of extreme fire danger. In addition, resources 
will be moved throughout the fire season to areas in need. If 2004 is 
another severe fire season, the fire program has the flexibility to 
augment Preparedness funding with ``severity'' funds from the 
suppression account to fund the placement of additional resources in 
the areas most at risk from catastrophic wildfires in order to maintain 
sufficient readiness and initial attack capability.
    Unfortunately, no amount of preparedness can prevent all fires from 
escaping to levels requiring extended fire suppression. When fires 
become large, the costs to contain them become large as well. The rise 
in the 10-year average recognizes the long-term trend in fire frequency 
and severity. Even so, even that increase falls below the costs of the 
past three years. We consider it prudent to maintain a funding level 
based on the 10-year average. Anything less would seem shortsighted 
given what we know today.
    I have directed the Regional Foresters to use funds for the purpose 
of attaining preparedness levels that are similar to fiscal year 2002. 
The following table displays a comparison of what we plan to provide in 
fiscal year 2003 versus 2003.

------------------------------------------------------------------------
                                          Fiscal year
          Resource type           --------------------------     2003
                                   2002 actual   2003 base     planned
------------------------------------------------------------------------
Firefighters.....................       10,480        6,008       10,480
Prevention Techs.................          403          296          332
Engines..........................          995          700        1,072
Forest Helicopters...............           75           57           87
National Helicopters.............            7            8            8
Smokejumpers.....................          277          277          277
Type I Crews.....................           65           65           65
Airtankers.......................           41           33           33
------------------------------------------------------------------------

    Question. I also see that you have grounded 11 heavy slurry bombers 
and 11 of 19 of your Beech Craft lead planes. Half as many fire 
fighters, half your lead planes gone, and quarter of your slurry 
bombers out of commission. Please provide specific steps that you have 
taken to make up the 50 percent reduction in fire fighters and the 
grounding of these aircraft?
    Answer. We have some concern about the loss of 11 large airtankers 
but feel we have several alternatives available to us that will 
mitigate the effect of losing this capability. In our 2003 Fire 
Operations planning we are instructing Incident Commanders to shift the 
emphasis of the airtanker fleet to initial attack rather than large 
fire support. We will shift suppression tactics from those that require 
close air support to those that do not require such close support 
(direct fireline construction versus more indirect). This may cause a 
marginal increase in total burned acres but not enough to be 
significant. We will add contract helicopters with aerial suppressant 
capability to help offset the loss of the airtankers. Finally, we will 
add as many as 11 Single Engine Airtankers (SEATS) to help with local 
initial attack. In a normal year, these alternatives will allow us to 
effectively suppress wildland fire without compromising safety, burned 
acres, and program costs.
                        stewardship contracting
    Question. Chief, you advocated for stewardship contracting while 
you were in Region One. Can you tell us how that worked in Region One 
and how you see using Stewardship Contracting in New Mexico? 
Specifically, what type of projects are you thinking about implementing 
in New Mexico under this program?
    Answer. The demonstration pilot authority for stewardship 
contracting in the Northern Region (Region 1) has shown that some 
projects are better able to get needed work done in an area than what 
could be accomplished using a timber sale.
    In the Southwestern Region (Region 3), the Cibola National Forest 
is currently working on an existing stewardship contract on the Mt. 
Taylor Ranger District, and has also started to work on a new one using 
the new authorities on the Mountainair Ranger District. The Mt. Taylor 
Ranger District is also working on a new environmental impact statement 
that is scheduled for completion in fiscal year 2004 and is currently 
planned to be implemented through a stewardship contract. In addition, 
the Lincoln National Forest and the Santa Fe National Forest have 
stewardship contracts that will be completed by the end of the current 
calendar year. All the National Forests in New Mexico are looking at 
stewardship contracting opportunities and are interested in completing 
projects with this new authority.
                          insects and disease
    Question. As you know we have a large area of forest that is being 
devastated by bark beetles in Northern New Mexico. This has been on 
going for several years and is likely to continue and spread due to the 
drought.
    Can you tell me the specific steps the National Forests in New 
Mexico are taking to combat these insects and stop the spread of the 
outbreaks?
    Answer. Severe drought conditions and overcrowding have weakened 
many trees in New Mexico, including those on the National Forests. 
These weakened trees are now being attacked and killed by native bark 
beetles. Pinon and ponderosa pines are most severely affected. Large 
scale control measures to stop the beetle outbreaks are not feasible. 
However, spraying of 55 high-value trees to protect them from attack 
was completed in two campgrounds on the Santa Fe National Forest in 
March 2003. Thinning to enhance tree vigor is planned for those and 
several additional developed recreation sites on the Santa Fe National 
Forest. The thinning is scheduled to begin in the fall, when cutting 
activities are less likely to attract bark beetles. Thinning currently 
underway on the Santa Fe Watershed includes mastication, or shredding, 
of woody debris, rendering it unsuitable for bark beetle breeding. A 
pine bark beetle strategic communication plan is being utilized to 
provide the public with information about bark beetle activity, 
management, and impacts. A bark beetle website has been developed to 
provide information online: http://www.fs.fed.us/r3/resources/health/
index.shtml
    Information has been provided in the form of presentations to 
adults and children, in articles, responses to phone and internet 
questions, and dissemination of literature. An informal interagency 
bark beetle meeting was held at the FS Southwestern Regional Office on 
June 24, 2003 to discuss bark beetle impacts and explore opportunities 
for information-sharing and coordination. In attendance were 
representatives from the Forest Service, the BLM, the BIA, and the NM 
State Forestry Division. A follow-up meeting is planned. The 
Southwestern Region is participating in a Forest Service interregional 
pinon mortality assessment which includes supplemental aerial surveys 
of pinon-juniper woodlands over about 2 million acres in NM. Ground 
crews will also be collecting field data. Surveyed lands will be across 
all ownerships and will cover about 22 percent of the pinon-juniper 
woodlands which exist in New Mexico. The Forest Service solicited input 
from State and federal agencies to delineate priority areas of private 
and public lands to be surveyed. Traps to monitor the pinon ips spring 
emergence, number of generations produced per year, and onset of 
hibernation have been placed in six locations across New Mexico to aid 
in our understanding of this insect's behavior.
    Question. Also specifically, what steps you are taking on each 
forest to remove this dead timber before it provides the fuel for 
another catastrophic fire?
    Answer. The mortality in northern New Mexico is primarily occurring 
in pinyon pine in the pinyon-juniper woodlands. This mortality is at 
the higher elevations, and is quite scattered. Because most of the 
mortality is pinyon pine, very little salvage is occurring, aside from 
firewood gathering. Most Forests do treat areas where personal use 
firewood gathering occurs, but they are not planning on doing any 
large-scale salvage to combat bark beetle outbreaks. All Forests are 
continuing to encourage salvage removal where trees are accessible. 
Some thinning is occurring around Las Alamos using FEMA fuels reduction 
dollars. The state also has a fuels reduction program on private lands, 
where most of the pinyon pine mortality has occurred. However, pinyon 
pine infected by the ips beetle decomposes rapidly, and after one 
season is no longer useful as fuelwood.
    As long as the dead needles remain on the trees, there is an 
increased risk of fire ignition. However, once the needles fall, the 
fire hazard for defoliated standing dead trees is less than for 
standing green trees. Needle fall can take as little as 6 months in 
pinyon pine or as much as 2 years in ponderosa pine. The only way a 
fire in a pinyon-juniper stand will advance is with a sustained stiff 
wind, because many of the high mortality sites have almost no 
understory vegetation and are quite rocky.
    Forests have begun using the new timber salvage categorical 
exclusion authority so that our removal efforts can be focused in a 
timely manner to remove the material that is still useful. This 
authority allows Ranger Districts to treat larger areas and create 
effective barriers at key points on the Forest.

                                 ______
                                 
         Questions Submitted by Senator Ben Nighthorse Campbell

    Question. Last year's fires were not helped by the fact that 
Colorado and much of the West was and still is experiencing the worst 
drought on record. As you know, catastrophic wildfires can have 
catastrophic effects on watersheds where communities located below the 
National Forest boundary get their water. Many communities are 
concerned about the threat of ash and sediment from wildfires clogging 
their ditches, reservoirs, and drinking water intakes in the middle of 
this drought.
    I would be interested to learn a little more about how the Forest 
Service is working with local communities to guard against future water 
contamination due to fires, as well as what they are doing now to 
rehabilitate those affected watersheds. I'm sure that the Forest 
Service really appreciates the effects fire has on existing municipal 
water supplies and is willing to work with the state.
    Answer. Prevention.--The agency's first efforts are directed 
towards reducing the risk of catastrophic wildfire occurrence. The 
National Fire Plan and the President's Healthy Forests Initiative 
provide the agency with strategic guidance for implementing this goal. 
In close cooperation with the Department of Interior, states, local 
governments, and communities, the Forest Service is working to reduce 
hazardous fuels accumulation, and to manage wildland/urban interface 
forests to be more resistant to catastrophic wildfires. In spite of a 
very challenging fire suppression season, the Forest Service reduced 
hazardous fuels on 1.3 million acres in fiscal year 2002.
    Stabilization.--Before a catastrophic wildfire has been 
extinguished, the agency quickly mobilizes Burned Area Emergency 
Response (BAER) teams to assess environmental degradation. Water 
quality and flood potential are prime considerations. The team 
establishes objectives for protecting water resources and prescribes 
needed actions. Treatments may continue up to a year after the fire, 
and monitoring of affected watersheds continue for up to three years.
    In 2002, the Forest Service conducted 130 BAER assessments, 
authorizing $70 million of emergency stabilization work. $47.7 million 
was obligated in fiscal year 2002. These projects will treat 136,000 
acres of severely burned land, of which about 90,000 acres were treated 
before the winter snows. Typical emergency actions include stabilizing 
slopes with log structures, straw wattles, and straw mulch, installing 
larger culverts to handle increased water flows, and seeding burned 
areas. Communities are protected from flood by installation of flood 
warning systems and construction of impoundments to reduce peak flows.
    The Hayman Fire stabilization work illustrates the types of 
accomplishments achieved through BAER team efforts. Hayman Fire BAER 
treatments cost $24 million of the $70 million authorized in fiscal 
year 2002, resulting in the following accomplishments:

                          ASSESSMENT OF THREAT

    Sedimentation of a major water supply reservoir: Post fire erosion 
into Cheesman Reservoir may exceed 1 million tons in the first year if 
storms of 1 inch per day occur.

             ESTABLISHMENT OF EMERGENCY TREATMENT OBJECTIVE

    Reduce impacts to the Denver water supply reservoirs and the water 
quality-listed streams.
    Reduce erosion by establishing ground cover and increasing 
infiltration by scarifying the soil surface.
    Hayman BAER treatments in this emergency phase have been aimed at 
re-establishing the vegetative cover lost in the fire. Ground cover 
holds the soil in place, allows absorption of water into the ground, 
minimizes runoff, reproduces wildlife habitat and generally rejuvenates 
the area. Often, soils in fire areas where high intensity burn occurs 
become water repellent, and the hardened surface must be broken up by 
scarification, or raking, as part of the treatment.

                           AERIAL OPERATIONS

    Application of hydro-mulch (recycled wood fiber, grass seed, water 
and a binding agent) has been applied via helicopter on 1,569 acres of 
heavily burned slope. This work was completed in September 2002.
    Aerial seeding is complete on over 19,835 acres. The seed mix is an 
annual cereal rye mixture, which will germinate readily and persist for 
two to three years to provide ground cover until the native grasses and 
forbs come back.
    Approximately 6,000 acres have been treated as part of an aerial 
dry mulching project (applying straw to burned slopes via helicopter) 
during September 2002. Straw is applied over previously seeded areas. 
The straw helps to minimize erosion during rains, and provides 
necessary moisture and shade for quicker seed germination.

                           GROUND OPERATIONS

    Seeding and scarification (raking the soil) has been completed on 
13,800 acres.
    Hydro-mulch is being applied by truck to 1,500 acres along Forest 
Roads and highways, 300 feet on either side of 25 miles of designated 
roads. Work was completed in October 2002.
    Many private landowners in the burn area have been contacted to 
assess risks from adjacent National Forest lands. BAER is working with 
Natural Resource Conservation Service to formulate and implement 
rehabilitation plans with landowners.
    Culverts and stream crossings within the burn area are being 
cleaned and reinforced to prevent washout along roads. Grading and 
reconditioning of the roads within the fire area is ongoing.
    The Lake George Community Park has been demobilized, and the 
grounds within and around the camp are being rehabilitated. The roads 
at the Lake George Community Park have been graded and reconditioned. 
The area used for the fire camp is being seeded and straw mulch is 
being applied. The park has been reopened for public use.
    Treatment of noxious weeds is complete on 340 acres within and 
adjacent to the fire area.
    An archaeological assessment and clearance of all areas where BAER 
treatment will create ground disturbance has been achieved. Two sites 
within the fire area were identified as needing protection using straw-
bale check-dams, which have been completed.
    Remote Area Weather Stations (RAWS) have been installed in and 
around the fire area. This will facilitate early detection of rainfall 
for public evacuation and emergency warnings when needed.
    Additional details on accomplishments at the Hayman fire are 
available at www.fs.fed.us/r2/psicc/hayres/baer/index.htm.
    Rehabilitation.--Efforts to repair damage caused by the fire begins 
as soon as the fire is out, and focus on lands unlikely to quickly 
recover from fire damage through natural processes. In fiscal year 
2002, the Forest Service implemented 518 projects costing $35.8 
million. These projects treated 435,000 acres of severely burned land 
through invasive plant control, seeding, planting, and watershed 
improvements on federal lands. Additional work was accomplished on 
trail reconstruction, roadwork, riparian enhancement, fencing and 
boundary line location.
    Communities are included in rehabilitation efforts. In June 2002, 
the Hayman Recovery Assistance Center (HayRAC) was established in 
Castle Rock, to aid victims of the Hayman Fire. This recovery 
assistance center provided representatives from state, federal and non-
profit agencies who provided information on financial, logistical, 
human services, and fire rehabilitation techniques to citizens and 
businesses directly impacted by the Hayman Fire. The center served as a 
central source of information during and after the fire, providing a 
mechanism to coordinate interagency restoration and recovery efforts 
with the community, collaborating on short and long-term restoration 
needs, and coordination and facilitating volunteer programs to support 
community and forest restoration efforts. In 2002, HayRAC coordinated 
55 volunteer projects, with more than 3,000 volunteers, for about 
22,000 volunteer hours, and responded to about 1,600 phone calls for 
fire recovery assistance.
    Question. Recognizing the drought conditions that the West, in 
particular, is facing, I think that it is more important than ever for 
the Forest Service to commit to work with the states in good faith on 
water issues. Unfortunately, some in the Forest Service have tried to 
impose bypass flows in our national forests, and circumvent working 
through state instream flow programs. You are aware that bypass flows 
are estimated to cause a reduction in the dry-year water supplies 
available from water facilities on National Forest lands by 50 to 80 
percent?
    Answer. There are numerous permitted water storage and transmission 
facilities on National Forest lands in the west. Some of these 
authorizations have clauses that allow for temporary changes to 
authorization conditions during times of drought or emergency. Prior to 
last year these drought clauses had generally not been invoked, and 
many were undefined. In 2002, we worked actively with Denver Water, and 
others to modify authorization terms and conditions to allow for needed 
flexibility in operation during the drought. We will continue to work 
with facility managers and water providers in 2003 to meet changing 
storage and operation needs that have resulted from the drought.
    Question. Isn't the Forest Service's official policy to work with 
the states, pursuant to state law in administering water? Can I tell 
city officials in Colorado, as well as farmers and ranchers, that you, 
and the Forest Service in general, are committed to working through the 
state instream flow program and eliminating the perception of threats 
to existing water supplies by imposing bypass flows?
    Answer. The Forest Service has, and will continue, to work with 
states, tribal governments, water users, and any interested parties in 
resolving water issues on National Forest System lands in accordance 
with both federal and state laws. The State of Colorado's instream flow 
program falls short of meeting the needs of the United States in the 
matter of in-stream flow protection for federal purposes, such as, but 
not limited to, wilderness areas, wild and scenic rivers, and habitat 
for aquatic species listed under the Endangered Species Act. In other 
western states, the Forest Service does participate in state in-stream 
flow programs where its water needs can be met with reasonable legal 
certainty. The Forest Service has been very judicious about requiring 
instream flow conditions in its land use occupancy permits and 
easements, and will continue to unilaterally require bypass flows as a 
last resort when other options to sustain aquatic resource values have 
failed.
    Question. Colorado experienced its worst fire season on record last 
summer. My compliments go to the brave men and women who risked their 
lives to fight these fires. We also learned some lessons last summer 
and maybe you can tell me what adjustments we are making in 
anticipation of this year's fire season.
    Particularly, how do we use our local resources in suppression 
operations?
    Answer. We use predictive services and monitor local conditions to 
adjust resource locations so that new starts can be suppressed quickly. 
If we can respond to these new starts and suppress them within 24 
hours, we can minimize their cost. Wildland fires that resist 
suppression efforts typically transition from a small, inexpensive 
event to something larger and more expensive within the first 24-48 
hours of the event start. We emphasize and concentrate on aggressive 
initial attack to minimize large fire occurrence. It's not a question 
of what we can do better during the first 72 hours of an event. Our 
firefighters are very successful in initial attack. During the fiscal 
year 2002 fire season, they caught more than 99 percent of all 
unplanned and unwanted wildland fires during initial attack. What we 
need to do is continue to support the initial attack force by 
maintaining training curriculums, providing quality equipment, develop 
the lessons learned program, and maintaining coordination and 
intelligence systems.
    Question. How do we follow up with our communities to make sure we 
are reducing the risk?
    Answer. Local project managers carry out project monitoring. 
Project plans for treatments on National Forest lands adjacent to 
communities typically include specific objectives for addressing risk 
to the community. Appropriate project follow up includes assessment of 
how well project objectives have been met. Such project monitoring is 
the responsibility of the District Ranger. Federal financial and 
technical assistance, provided in conjunction with the efforts of State 
Foresters and other state, local, or tribal governments, will be 
increasingly focused upon the optimal reduction of the risk posed by 
catastrophic wildfires, particularly in the wildland-urban interface. 
In these efforts, communities, non-government organizations, and 
private landowners also have a key responsibility. In most cases such 
projects are developed using project planning standards similar to 
those used by the Federal agencies. Project plans establish risk 
reduction objectives. Federal agency grant administration includes spot 
reviews of projects to establish effectiveness of projects delivered by 
State Foresters or other grant recipients. Success may be judged by a 
measured change in the vegetation condition class or by simply a 
reduction from a high risk ranking to a moderate or low risk based on 
the rating system applied for the area.
    Question. One other thing, with the drought and the forest 
conditions what can we do better during the first 72 hours of a fire?
    Answer. After the 2002 fire season, the Forest Service reviewed 
lessons learned, after action assessments, and formal program reviews 
to develop new direction, clarify existing direction, and communicate 
expectations of line officers and Incident Commanders. These 
considerations manifested themselves in a Fire and Aviation Operations 
Action Plan for the 2003 fire season. This plan emphasizes four areas 
(Preparedness, cost containment, hazardous fuel treatment, and safety) 
of the Fire and Aviation Management program where I expect improved 
performance from the line officers, Incident Commanders, and other 
personnel involved in the conduct of operations in these areas. The 
plan seeks to improve fiscal integrity and reflects important 
performance measures.
    Specific to your question, initial attack and extended attack are 
the number one mobilization priority. We will continue to use 
predictive services, anticipate threats, and pre-position protection 
resources to those local areas that may need additional resources. Our 
first priority will be to maintain sufficient local initial attack 
resources to maximize our ability to staff new fire starts. Our second 
priority will be large fire support. These actions will continue to 
allow us to minimize the number of fires that grow large and require a 
larger response.
    Question. I wanted to mention to you the National Forest County 
Partnership Restoration program. This pilot program is an example of 
how restoration programs can be led by communities as Congress had 
requested.
    As I understand it from the restoration program that serves the 
area I live in down in southwestern Colorado, funding for the three 
partnerships that were created has not reached those who need it.
    Could you give me your views on this program and what is being done 
to fund it?
    Answer. The Forest Service supports the collaborative approach in 
the development of restoration programs. Funding for restoration 
programs should be developed through the normal budget process.
    This program involves a total of three forests, two forests in R-3, 
the Apache-Sitgreaves NF in AZ and the Lincoln NF in NM, and one forest 
in R-2, the Grand Mesa Uncompahgre and Gunnison (GMUG) NF in CO. The 
program is a multi-year collaborative partnership between the Forest 
Service and County governments for large-scale landscape restoration 
utilizing an adaptive management process. It will test streamlined 
processes in administration, contracting, planning and inter-agency 
cooperation with an idea toward national application of the model
    In fiscal year 2002 each forest was allocated between $305,000 and 
$330,000 in start up funding. Given the severity of the 2002 fire 
season, not all of the funds were obligated, consistent with the 
Chief's direction on deferring funds as a result of fire suppression 
needs. The GMUG Forest received some of this funding in fiscal year 
2003 as carryover, and the R-3 Forests received a 2nd year allocation 
in fiscal year 2003 dollars. Fiscal year 2004 allocations for the CPR 
program have not been finalized.
    The three Forests and three Lead Counties have completed a Master 
MOU for the CPR Program. The following table displays Hazardous Fuels, 
Forest Health, and Vegetation/Watershed funds committed to the County 
Partner Restoration projects for the three forests in fiscal year 2003:

----------------------------------------------------------------------------------------------------------------
                                                                             Apache-
                                                               Lincoln NF   Seagraves    GMUG NF's     Total by
                                                                                NF                       BLI
----------------------------------------------------------------------------------------------------------------
Hazardous Fuels.............................................      ( \1\ )      ( \1\ )      $90,000      $90,000
Forest Health...............................................      ( \1\ )      ( \1\ )       33,000       33,000
Veg/Watershed...............................................     $330,000     $305,000      ( \1\ )      635,000
                                                             ---------------------------------------------------
      Total by Forest.......................................      330,000      305,000      123,000      758,000
----------------------------------------------------------------------------------------------------------------
\1\ None.

                                 ______
                                 
             Question Submitted by Senator Byron L. Dorgan

                              FIREFIGHTERS

    Question. According to the National Interagency Fire Center, much 
of the West is expected to experience an above normal fire season. If 
that turns out to be true, I'm concerned that the Forest Service would 
be unable to handle 7 million acres of fire with the resources being 
requested in this budget. Your Preparedness request of $610 million 
would provide for 4,900 firefighters, which is 53 percent fewer than 
the 10,480 you employed in fiscal year 2002; 465 fire engines, which is 
53 percent fewer than the 995 you had in fiscal year 2002; and 48 
helicopters, which is 49 percent fewer than the 94 that were available 
in fiscal year 2002. It seems to me that the administration is 
proposing to cut its firefighting capability in half, while at the same 
time the fire experts are predicting an above normal fire season. How 
does the administration square that incongruity? And what was the 
dollar amount requested for Preparedness; both the request to the 
Agriculture Department, and the department's request to the Office of 
Management and Budget?
    Answer. Preparedness funding was at an all-time high in 2001, the 
first year of the National Fire Plan. This included significant funds 
for one-time purchases of heavy equipment including engines and dozers 
to reach a maximal readiness level. While some of that equipment will 
have to be replaced someday, annual investments needs not be maintained 
at the 2001 level.
    In 2002, fire readiness proved to be as good as or better than 
ever. Ninety-nine percent of wildfires on Forest Service-managed lands 
were controlled on initial attack. Preparedness funding in the fiscal 
year 2004 is $9 million higher than fiscal year 2003 request. 
Preparedness funding will be targeted in 2003 and 2004 to maintain the 
agency preparedness at the highest level possible, with resources being 
positioned in the area of extreme fire danger. In addition, resources 
will be moved throughout the fire season to areas in need. If 2004 is 
another severe fire season, the fire program has the flexibility to 
augment Preparedness funding with ``severity'' funds from the 
suppression account to fund the placement of additional resources in 
the areas most at risk from catastrophic wildfires in order to maintain 
sufficient readiness and initial attack capability.
    Unfortunately, no amount of preparedness can prevent all fires from 
escaping to levels requiring extended fire suppression. When fires 
become large, the costs to contain them become large as well. The rise 
in the 10-year average recognizes the long-term trend in fire frequency 
and severity. Even so, even that increase falls below the costs of the 
past three years. We consider it prudent to maintain a funding level 
based on the 10-year average. Anything less would seem shortsighted 
given what we know today.
    I have directed the Regional Foresters to use funds for the purpose 
of attaining preparedness levels that are similar to fiscal year 2002. 
The following table displays a comparison of what we plan to provide in 
fiscal year 2003 versus 2003.

------------------------------------------------------------------------
                                          Fiscal year
          Resource type           --------------------------     2003
                                   2002 actual   2003 base     planned
------------------------------------------------------------------------
Firefighters.....................       10,480        6,008       10,480
Prevention Techs.................          403          296          332
Engines..........................          995          700        1,072
Forest Helicopters...............           75           57           87
National Helicopters.............            7            8            8
Smokejumpers.....................          277          277          277
Type I Crews.....................           65           65           65
Airtankers.......................           41           33           33
------------------------------------------------------------------------

    We have some concern about the loss of 11 large airtankers but feel 
we have several alternatives available to us that will mitigate the 
effect of losing this capability. In our 2003 Fire Operations planning 
we are instructing Incident Commanders to shift the emphasis of the 
airtanker fleet to initial attack rather than large fire support. We 
will shift suppression tactics from those that require close air 
support to those that do not require such close support (direct 
fireline construction versus more indirect). This may cause a marginal 
increase in total burned acres but not enough to be significant. We 
will add contract helicopters with aerial suppressant capability to 
help offset the loss of the airtankers. Finally, we will add as many as 
11 Single Engine Airtankers (SEATS) to help with local initial attack. 
In a normal year, these alternatives will allow us to effectively 
suppress wildland fire without compromising safety, burned acres, and 
program costs.

                              FIRE FUNDING

    Question. In the past, there has been a fairly large gap between 
what the administration requests each year for firefighting activities 
and what the Congress eventually ends up having to appropriate. In the 
mean time, the Forest Service is frequently forced to borrow money 
until Congress and the President can agree to reimburse the agency for 
its actual costs. That is not the best way to operate. In fact, the 
Chief has been as suggesting the current system is ``absolutely 
crazy,'' and that what's needed is a long-term solution. I know the 
administration's request includes an additional $187 million for fire 
suppression, but even with that money, you could easily be $600 million 
short of what's actually needed. Nevertheless, as I read your prepared 
statement, and as I look at the administration's budget, I don't see a 
long-term fix proposed anywhere. Has the Forest Service actually 
proposed a solution to the Agriculture Department, or to the Office of 
Management and Budget? And if you have, would you please tell us what 
you proposed, and why that proposal hasn't been sent to the Congress 
for consideration?
    Answer. While the fiscal year 2004 proposed budget line item 
structure for suppression is the same as previous years, the methods 
used to calculate the suppression proposal is different from previous 
years. The fiscal year 2004 Budget proposes the 10-year average of 
total suppression costs adjusted for inflation, $604 million. As noted, 
this is $187 million more than the fiscal year 2003 enacted level and 
is also $129 million greater than what would have been required if the 
same method was used as in fiscal year 2003. The method used for fiscal 
year 2004 provides a more realistic amount that decreases the 
likelihood of having to transfer funds and should it be necessary to 
transfer funds, the amount would be substantially less.
    The Chief of the Forest Service has finalized direction for the 
fiscal year 2003 fire season. The USDA Forest Service Fire & Aviation 
Operations Action Plan (04/01/03) responds to lessons learned following 
the 2002 fire season, and focuses attention on four critical areas: 
preparedness, cost containment, hazardous fuels treatments, and 
safety--for both ground and aviation operations. A copy of the Action 
Plan is attached.
    The best long-term solution to reverse the increase in suppression 
costs and eliminate annual transfers is to return the forests to their 
natural fire regimes. The fiscal year 2004 Budget proposes the Healthy 
Forest Initiative for this very reason. It is a tool to implement 
effectively and efficiently core components of the National Fire Plan's 
10-Year Comprehensive Strategy and Implementation Plan. A century of 
well-intentioned but misguided management has interrupted the natural 
fire cycle and allowed forests to grow unnaturally dense. In addition, 
excessive analysis, ineffective public involvement and management 
inefficiencies have further delayed treatments to return our forest to 
their natural fire regime. The Healthy Forest Initiative includes 
legislative and administrative actions that provide the necessary tools 
to efficiently implement actions to return our forests back to their 
historic densities and natural fire cycles. Together with updated fire 
management plans and greater application of wildland fire use, 
implementation of the Healthy Forest Initiative is the solution to 
increase the health of our forest and the pro-active solution to 
decrease the likelihood of extraordinarily expensive fire seasons and 
funding transfers.
    In the interim, we must respectfully defer any discussion of pre-
decisional issues.

                              MAINTENANCE

    Question. The administration's request for the Capital Improvement 
and Maintenance account includes an increase of $14 million for Roads 
and $9 million for Trails, but completely eliminates the $46 million 
provided for Deferred Maintenance. Overall, the request cuts 
maintenance activities by 4.4 percent. I'm puzzled by these cuts 
because your budget documents clearly state that the deferred 
maintenance backlog is over $7.8 billion. Now, I understand the Forest 
Service has management problems with its maintenance program, but I 
don't understand, when you have such an obvious need, why you've chosen 
to cut back on deferred maintenance?
    Answer. Deferred maintenance is an important concern to the agency 
and we will continue to focus on addressing the deferred maintenance 
backlog through use of our existing appropriations. The authority to 
expend funds on deferred maintenance already exists within Capital 
Improvement and Maintenance budget line items, Facilities, Roads, and 
Trails, the Roads and Trails for States--10 Percent fund (Expenditure 
from Receipts Act of 1913), Operation and Maintenance of Quarters 
funds, and the Recreation Fee Demonstration Program funds.
    The Department has a number of facilities and appurtenant 
administrative land excess to agency needs. The fiscal year 2004 Budget 
contains a proposal for the establishment of a Facilities Acquisition 
and Enhancement Fund that would enable the Secretary to sell such units 
excess to need and to utilize proceeds from those sales for the 
acquisition or development of land and improvements for administrative 
purposes. Funds collected under this authority would address backlogs 
and administrative consolidations while improving efficiencies through 
the reconstruction of functionally obsolete facilities or construction 
of new facilities. To this end, the Department will submit proposed 
legislation concerning this Fund in the upcoming weeks.

                      LEAFY SPURGE--NOXIOUS WEEDS

    Question. I'm very concerned with the noxious weed problem in North 
Dakota. My constituents who live near the Sheyenne National Grasslands 
in the southeastern part of my state and those who live near the 
Missouri National Grasslands in the western part have complained 
bitterly to me that the Forest Service has not been a good steward of 
the land. In particular, I'm talking about the spread of Leafy Spurge, 
which, by your own agency's account, has infested somewhere between 
30,000 and 35,000 acres of the Missouri Grasslands. That's more than a 
quarter of that land. For the past two years, I've had funds earmarked 
for leafy spurge management on the Dakota Prairie Grasslands; $200,000 
in fiscal year 2002 and $300,000 in fiscal year 2003. Unfortunately, 
because I've received conflicting reports, I don't have a great deal of 
confidence that the $200,000 provided in fiscal year 2002 was used as 
Congress intended; that is, as an addition to what was otherwise 
provided, not $200,000 total. I want to make sure that that does not 
happen again, Chief, and so my question to you is what assurances can 
you give me and the people of North Dakota that the fiscal year 2003 
funding will be used for additional weed control programs?
    Answer. Interagency and interdepartmental efforts have attempted to 
address the leafy spurge, one of the most insidious invasive noxious 
weed species, using a host of integrated management approaches that 
rely on strong partnerships between local, state, tribal, and national 
groups. The Dakota Prairie Grasslands (DPG) is an important leader in 
addressing the leafy spurge infestations in North Dakota, particularly 
with respect to infestations on the National Grasslands. The DPG has 
undertaken a comprehensive and collaborative program to fight leafy 
spurge infestations. This program relies on partnerships with local 
landowners, state and county governments, grazing associations, and 
other federal agencies. These partnerships are proving to be the most 
effective in fighting leafy spurge on public and private lands. The DPG 
has met often with local congressional staffs and county weed boards, 
other federal and state agencies and grazing association officers to 
plan a landscape-scale approach to the problem, and has developed 
cooperative agreements with the North Dakota Agriculture Department and 
several grazing associations for on-the-ground leafy spurge management 
operations.
    The Forest Service appropriations in fiscal year 2003 contained an 
unrequested $300,000 Congressional earmark for leafy spurge control. 
Our efforts will focus upon slowing infestations across the Dakota 
Prairie Grasslands and adjacent state and private property. A component 
of the approach provides about $100,000 directly to the North Dakota 
Agriculture Department to assist the County Weed Boards, in counties 
where National Grasslands are located, for leafy spurge control 
operations on those National Grasslands and other nearby critical 
locations that threaten to spread to Forest Service lands. This program 
is augmented by roughly a 20 percent voluntary contribution from the 
non-federal partners to the projects. This non-federal contribution 
allows for the implementation of the Wyden Amendment for cooperative 
treatment of noxious weeds on both public and adjacent private property 
in Weed Management Areas. The cost share amount is based on the 
percentage of land ownership within these Weed Management Areas 
(private vs. federal or 20 percent and 80 percent).
    The DPG is also leading cooperative treatment efforts with the 
grazing associations, including McKenzie County Grazing Association, 
Little Missouri Grazing Association, Horse Creek Grazing Association, 
and Sheyenne Valley Grazing Association, in leafy spurge management 
activities on National Grasslands. This effort will have the added 
benefit of 20 percent supplemental funding from the non-federal 
partners. The Dakota Prairie Grasslands will utilize about $180,000 of 
the fiscal year 2003 appropriations to support these partnerships.
    With the balance ($20,000) of the fiscal year 2003 leafy spurge 
earmark, the DPG will hire a four-person seasonal management crew for 
treatment of leafy spurge in critical locations on the Dakota Prairie 
Grasslands with emphasis on biological control (Flea beetles). None of 
the earmark will fund permanent employees, overhead expenses, or other 
Forest Service operational costs. Many of the seasonal workers are from 
local colleges and high schools and work for the Forest Service during 
the summer.
    All participating partners will record treatment and inventory 
activities utilizing global positioning system (GPS) equipment. Field 
data reporting, at minimum, will follow protocol required by North 
Dakota Department of Agriculture. The consolidation of field data will 
be coordinated between the USDA FS and ND Department of Agriculture for 
official records, mapping, and future planning and management.

                       GRASSLANDS MANAGEMENT PLAN

    Question. What is the status of the Scientific Review Team that is 
reviewing and analyzing the 64 Allotment management Plans per the 
Record of Decision on the Grasslands Management Plan?
    Answer. Regional Forester Brad Powell selected the Scientific 
Review Team (SRT) after consultation with North Dakota Governor John 
Hoeven. The SRT is comprised of Dr. Rod Heitschmidt, UDSA--Agricultural 
Research Service; Dr. Kevin Sedivec, NDSU Animal and Range Science 
Department; Jeff Printz, USDA--Natural Resources Conservation Service; 
Dr. Douglas Johnson, USGS--Northern Prairie Wildlife Research Center; 
Karen Smith, U.S. Fish and Wildlife Services; Kent Luttswagger, North 
Dakota Game and Fish Department; Dr. Harvey Peterson, Golden Valley 
County Extension Agent; and Dr. Don Kirby, NDSU Animal and Range 
Science Department.
    The first meeting of the SRT, held on February 10, 2003, was 
designed to provide team members with information that they would need 
to perform their role as defined in the Record of Decision for the 
Dakota Prairie Grasslands (DPG) Plan. Their delineated role is ``. . . 
to determine if the grazing portion of the plan can be implemented and 
to verify that grazing levels are similar to those projected in the 
Revised Grasslands Plan FEIS . . .'' (Record of Decision DPG Plan page 
5). The information presented to the SRT included Record of Decision, 
Dakota Prairie Grasslands Plan, Northern Great Plains Final 
Environmental Impact Statement, SRT Handbook and SRT Draft Charter.
    The second SRT meeting was on April 15, 2003. At this meeting, the 
Dakota Prairie Grasslands staff presented information to the SRT for 
the Little Missouri National Grasslands Assessment and the first set of 
eight allotment management plans (AMPs). The information provided 
included background information for these allotments. Public notice for 
these meetings resulted in well attended sessions by those interested 
in the process. The next meeting, scheduled for June 16-18, will 
include a field trip to those allotments where plan development is 
occurring.

                 LEWIS & CLARK BICENTENNIAL ACTIVITIES

    Question. I'm a big supporter of the Lewis and Clark Bicentennial 
and I'm looking forward to helping the various bicentennial 
celebrations. I know the Forest Service is an important federal partner 
in this endeavor, and I'm interested in knowing how your budget 
supports the Lewis and Clark Bicentennial. I know, for example, that 
there were plans to build an overlook and trail at Tobacco Gardens, in 
North Dakota, where Cruzat shot Merewether Lewis on August 11, 1806. It 
is my understanding that construction was scheduled to begin in 2003. 
Is that project still on schedule? And could you also tell us what the 
Forest Service is doing nationally to commemorate the bicentennial?
    Answer. Forest Service field units, especially those in close 
proximity to the Lewis and Clark National Historic Trail (LCNHT), 
continue to dedicate funding to accomplish the critical work to meet 
the agency's commitment to the Lewis and Clark Bicentennial 
Commemoration. Where possible, the Forest Service provides funding, 
technical assistance, or other in-kind assistance to mutually agreed to 
interagency projects. Four Regions have specific funding allocated for 
National Scenic and Historic Trails, with portions of the LCNHT, have 
an estimated $66,000 available for trail management. Since 1999, the 
Forest Service has granted over a $1.5 million to 27 state and 
community Lewis and Clark Bicentennial projects. Over the past few 
couple year, under the agency's constrained budget, about $3 million 
has been allocated annually to Bicentennial activities, including the 
grants to state and community projects. The Dakota Prairies National 
Grassland has also worked in partnership with the Three Affiliated 
Tribes to provide interpretive programs to school children and as well 
as contributed funding to the North Dakota State Historic Museum for 
the development of a L&C Trail Travel Kit for North Dakota.
    The overlook and interpretive signs for Tobacco Gardens are 
currently under construction. Construction for the connecting trail 
will be accomplished in 2004.
    Nationally, the Forest Service has been working in partnership with 
the National Bicentennial Council, the Trail Heritage Foundation, 
federal interagency Memorandum of Understanding working group, and 
Tribes to ensure protection and interpretation of the historic trail, 
and to provide a coordinated effort for the Bicentennial.
    The Forest Service created a national exhibit that was displayed at 
the first signature event, at Monticello in January 2003. The Forest 
Service is currently planning participation in the Signature Events at 
the Falls of the Ohio, Louisville, KY and Clarksville, IN and in the 
Big Sky Festival in Great Falls Montana. Plans to participate in other 
Signature Events, such as in North Dakota, are evolving. The Forest 
Service is committed to our partnership with the National Park Service 
for Corps II, a traveling educational exhibit, and has designated an 
agency employee to be the liaison to the Corp II effort. Several Forest 
Service employees participated in giving presentations in the Tent of 
Many Voices at Monticello and on the National Mall.
    Question. The bicentennial will also offer the Forest Service the 
opportunity to highlight recreational opportunities that are a bit off 
the Lewis and Clark Trail. The Forest Service has developed the Maah 
Daah Hey Trail, which allows for hiking and biking through the Dakota 
Badlands. With increased tourism expected during the upcoming Lewis and 
Clark Bicentennial, what is the Forest Service doing to promote the 
Maah Daah Hey Trail and other recreational activities it offers in 
North Dakota?
    Answer. The Maah Daah Hey Trail has recently been designated a 
National Recreation Trail and will be formally dedicated on National 
Trails Day, June 7, 2003. The Maah Daah Hey Trail has also been an 
International Mountain Bicycling Association (IMBA) Epic Ride and 
remains listed on the IMBA website (http://www.imba.com). The Dakota 
Prairie Grasslands has developed brochures and maps about the Maah Daah 
Hey Trail as part of its public outreach effort. The Dakota Prairie 
National Grassland also has plans to develop and protect additional 
interpretive sites that commemorate other historical events that took 
place in North Dakota, in particular Custer's Initial Rock and other 
military history of that era.
    There are several other venues for the public to receive 
information on recreation opportunities on the Dakota Prairie 
Grasslands. Medora is the focus of a major advertising campaign by 
North Dakota Tourism, which is being marketed nationally and 
internationally in major magazines and other tourism literature. The 
campaign includes information about the 96-mile long Maah Daah Hey 
Trail. Locally, informational kiosks display information on 
recreational opportunities and special events are publicized in the 
newspaper. Dakota Prairie Grasslands staff also provide information to 
the public both in person and over the phone. North Dakota recreational 
activities in the national grasslands are also available via the 
internet, and is maintained at the Forest Service website (http://
www.fs.fed.us/r1/dakotaprairie/) and through the interagency recreation 
website (http://www.recreation.gov).

                              GRASS BANKS

    Question. Federal rangeland management is often made difficult 
during times of drought or other hardship. Already stressed ranchers 
experience shrinking resources. The Forest Service has the ability to 
work with local ranchers to establish alternative grazing ``grass 
banks'' and swing pastures to help during these hard times. What has 
the Forest Service done to promote the development of such tools?
    Answer. The Forest Service actively seeks alternatives to provide 
for rest and rehabilitation of specifically identified rangelands. The 
term ``grassbanks'' is a registered trademark of the Malpais 
Borderlands Group, therefore the Agency prefers to use the term 
``forage reserves'' when referring to this concept in a generic sense. 
One way the Forest Service is looking at establishing forage reserves 
is through acquisition of private land within the grasslands where the 
landowners want to sell to the federal government. If the Forest 
Service acquires these lands, both the acquired private land and the 
associated federal allotments could be included in a forage reserves 
allotment.
    The Dakota Prairie Grasslands (DPG) is also a cooperating agency 
with the National Park Service on their environmental analysis to 
acquire the Ebert land located in the vicinity of the Elkhorn Ranch 
within the Little Missouri National Grassland. Much of the work with 
the Park Service has entailed looking at how this project can achieve 
the best land ownership pattern for the National Park Service, the 
Dakota Prairie Grasslands, and the involved private landowners. If the 
Park Service acquires the Ebert Ranch, the DPG would be interested in 
establishing a forage reserve on the associated allotment in 
cooperation with the Medora Grazing Association.
    Under the current grazing agreements, the grazing associations have 
the authority to work with the district rangers to establish pastures 
which can serve as forage reserves or swing pastures, although at this 
point no action has taken place. Members of the grazing associations 
have often applied for and received approval for voluntary nonuse. 
However, rather than promoting the establishment of forage reserves or 
swing pastures in these areas, the associations have allowed others to 
use these nonuse pastures with their livestock on an annual basis.
    Dakota Prairie Grasslands (DPG) Supervisor is currently working 
with the Partners for Grasslands Stewardship to develop forage reserve 
allotments or pastures within existing allotments. The DPG program has 
explored opportunities such as land exchanges, land purchase (willing 
seller) and grazing system changes, to provide some of the flexibility 
needed by the ranching industry and to improve resource conditions. The 
Partners for Grasslands Stewardship includes several ranchers and local 
community leaders. One of their efforts has been to develop a better 
understanding and acceptance of forage reserves concepts and 
opportunities.

                  SHEYENNE VALLEY GRAZING ASSOCIATION

    Question. The Sheyenne Valley Grazing Association's 10-year Grazing 
Agreement expires on March 23. Unless a new agreement is signed, or an 
extension granted, grazing will stop on these lands. The Forest Service 
is negotiating a new 10-year agreement with the Association, but the 
Association has raised several concerns. I've sent a letter to Mark 
Rey, the Natural Resources Under Secretary, spelling out these 
concerns, and asking for his cooperation in ensuring that the Forest 
Service continues to negotiate in good faith. In the meantime, I am 
concerned that, after March 23, grazing could come to a halt without a 
new agreement. That would be disastrous. Chief, I understand that you 
have the authority to extend the agreement for 2 or 3 months at a time 
as long as negotiations are continuing. I believe that would be in the 
best interests of all concerned. Can I have your assurance that that 
will happen?
    Answer. Grasslands Supervisor Dave Pieper sent a letter to Senator 
Dorgan's office on March 10, 2003 detailing the actions that have taken 
place and discussions with your Legislative Assistant LaDeene Freimuth. 
The Dakota Prairie Grassland is continuing to work with the Sheyenne 
Valley Grazing Association (SVGA) to renew this Grazing Agreement. In 
the letter, Supervisor Pieper said he was ``hopeful that a new grazing 
agreement will be developed and signed by the expiration date.'' He 
also included the following paragraph of assurance:

    ``In the event a new agreement is not signed by the expiration 
date, I will roll over the existing agreement for periods of three or 
more months until a new agreement is signed. This will allow permitted 
livestock grazing to continue unimpeded. I want to assure you that 
development of the new SVGA grazing agreement will be a cooperative 
effort between the Association and the Dakota Prairie Grasslands.''

    Supervisor Piper has tracked this process and has recently issued a 
letter officially extending the existing Grazing Agreement until July 
1, 2003, while development of a new formal grazing agreement is 
continued.

                                 ______
                                 
           Questions Submitted by Senator Ernest F. Hollings

    Question. The Forest Service is requiring states to identify 
potential tracts of land for acquisition up to two years in advance. It 
has also indicated a preference for identifying individual tracts 
instead of focusing on a strategy that emphasizes corridor area 
protection, a strategy that has proved very effective in South 
Carolina. The ACE Basin river corridor in South Carolina is a great 
example of success regarding this type of approach to land acquisition. 
Why has the Forest Service pushed for such early identification of 
potential land acquisitions? Why has the Forest Service chosen to push 
the identification of individual tracts of land as opposed to 
concentrating on corridor areas, specifically river corridor areas?
    Answer. The federal acquisition process, as defined by laws, rules, 
regulations, and policy, and being subject to the annual appropriations 
process, makes purchasing a tract of land by the Forest Service much 
more complex and time consuming than occurs between two private 
individuals. In addition, much lead-time is required in order to get a 
project in the President's annual budget request to Congress.
    Some of these requirements involve the Uniform Relocation 
Assistance and Real Property Acquisition Policies Act of 1970 (Public 
Law 91-646) and the appraisal process, which can take from 6 to 8 
months to contract for, produce an approvable report, and then complete 
agency review. Title issues, clearing of liens, surveys, hazmat 
investigation requirements, laws dealing with relocation assistance, 
negotiations, the phasing of projects, Congressional oversight, and 
specific requirements found in various appropriate authorizing 
legislation can all add to the time factor in processing a case.
    The annual appropriations process begins with the individual 
forests submitting their priority projects to the regions and then to 
the Washington Office during the summer before the President's next 
year's budget is submitted to Congress. Forests cannot know what lands 
are available for purchase until much of the preliminary work mentioned 
above is completed.
    The Forest Service is aware of and frequently uses the approach of 
``focusing on a strategy that emphasizes corridor area protection'', 
which the Senator suggests in his letter. That approach has been used 
successfully over the past 11 years on the Chattooga Wild and Scenic 
River Corridor, which involves Georgia, North Carolina, and South 
Carolina. Emphasis has been placed on acquiring high priority tracts 
located within those river corridor boundaries. We are currently 
working with The Conservation Fund for the definition of a corridor for 
the new Broad River acquisition program in South Carolina in order that 
our acquisition program there will be the most effective. We have 
frequently used defined corridor planning to focus our acquisition 
efforts in various wilderness areas, other congressionally authorized 
areas such as National Recreation Areas including the Sawtooth; the 
Columbia River Gorge; the Florida National Scenic Trail; and since 1978 
on the Appalachian National Scenic Trail.
    Question. Can you outline for me the guidelines the Forest Service 
follows in identifying and ranking projects selected in the Forest 
Legacy program? Why do different regions follow different guidelines? 
Why does the Forest Service insert itself so heavily into the selection 
process? Why have lead agencies in our states not been intensively 
involved in drafting new guidelines or been involved more heavily in 
the selection process?
    Answer. The Forest Legacy Program operates under program 
implementation guidelines adopted in 1996. These guidelines are 
currently under review and are in the process of revision. The final 
revision will be released this year and is being amended to respond to 
program growth since 1996, findings expressed in the House of 
Representatives Committee on Appropriations investigation report 
released in June 2002 and to meet fiscal year 2003 congressional 
direction on specific items to be included in the revision.
    In keeping with the direction described in the above answer, the 
Forest Service engages in a project selection process that is 
articulated as direction to Forest Service Regional Foresters, Area and 
International Institute for Tropical Forestry Directors and State and 
Private Forestry Directors and Program Managers that includes a 
calendar of milestones and due dates. This is a five-step process that 
begins with submissions of project priorities from each participating 
State; receives Forest Service Regional input; undergoes a national 
review team process in which projects are scored using national 
criteria and selected for recommendation in a prioritized list; and are 
then submitted to the Office of Management and Budget for inclusion in 
the President's Budget.
    The Forest Service conducts this project selection process to 
comply with Congressional and Administration direction and to perform 
its oversight responsibilities to deliver this national program. Forest 
Service regions are allowed flexibility to develop mechanisms to assess 
and to recommend projects for selection. They must utilize the national 
criteria and provide information and input on individual projects to 
inform that process. The foundation for the entire project selection 
process is the process that participating State Lead Agencies perform 
with their State Forest Stewardship Coordinating Committees to review, 
approve and rank projects in their State. Only projects that are 
determined by the State-based process as priorities are considered for 
funding and recommended by the Forest Service.
    The Forest Legacy Program Implementation Guidelines revision has 
been conducted through a State lead agency--Forest Service Team. The 
revision began in 2000 and has undergone numerous drafting rounds and 
open comment periods with input received from hundreds of groups and 
agency personnel from across the country. The Guidelines Revision Team 
is composed of nine members from State lead agencies and the Forest 
Service. Drafts of the guidelines have been presented at national 
meetings and for review with State program managers from all 
participating States.
    Question. The regulations employed by the Forest Service for land 
appraisal in the states is overburdening. The process is inconsistent, 
especially with respect to projects in the Forest Legacy program. In a 
time of tight budgets and huge deficits, it is unwise to require 2 or 3 
appraisals by certified appraisers at a high cost to the taxpayer. 
There has been more emphasis placed on the method of appraisals as 
opposed to the value of the land. What has the Forest Service done to 
improve and streamline this process? Why is it taking multiple 
appraisals in order to get Forest Service approval for new land 
acquisitions? Do I need to ask for a GAO review of the appraisal 
process to determine where the problem is?
    Answer. The House Appropriations Committee reviewed the Forest 
Service Legacy Program and issued a report in June 2002. Among the 
findings of that investigation report were several related to appraisal 
and appraisal review. The report cited the requirement that Federal 
payments to landowners not exceed the market value of the property and 
that appraisals prepared to determine market value must be prepared in 
conformance with the Uniform Appraisal Standards for Federal Land 
Acquisitions. Many appraisals approved by States were later found not 
to comply with Federal appraisal standards and, in many cases, the 
value estimates were not supported.
    There are several reasons for a large number of unapproved 
appraisal reports. Federal oversight of the program was found to be 
inconsistent and States have hired appraisers and review appraisers not 
qualified to perform the appraisal and review assignments. States have 
been reluctant to impose uniform qualifications requirements for 
appraisers and review appraisers. Federal reviews of those appraisals 
in compliance with Forest Service oversight requirements have too often 
discovered these deficiencies after the fact. It often requires 
multiple appraisals to effect an acquisition when appraisers or 
reviewers are hired that are not qualified or who cannot support their 
value estimates.
    In an effort to streamline the appraisal process and help ensure 
more effective use of public funds, the Forest Service is working with 
the States to involve the assigned review appraiser early in the 
acquisition process to help obviate later unpleasant surprises. The 
Forest Service is also working with the States to adopt standard 
implementation guidelines for appraisal and appraisal review. There are 
both industry and Federal appraisal standards that must be applied when 
public funds are expended. Appraisal reports failing to comply with 
those standards cannot be approved.
    The Forest Service valuation function has been investigated and 
reviewed by GAO, the U.S. Department of Agriculture Office of the 
Inspector General (OIG), The Appraisal Foundation (TAF), and the 
aforementioned House Appropriations Committee. The Forest Service has 
made substantial changes in policy the past few years to comply with 
recommendations of those investigations and reviews.
    In the Federal appraisal community, the Forest Service is now 
regarded as a yardstick by which other agencies measure their valuation 
function. For example, TAF also reviewed the Bureau of Land Management, 
Department of Interior, and issued a report in October 2002. That 
report recommended massive changes to the way BLM does its appraisal 
business and how it is organized. The Forest Service has been requested 
to assist the BLM in implementing some recommendations of TAF report, 
as well as OIG and GAO reviews and audits dating back to 1987. The 
Appraisal Work Group chartered by BLM has relied upon ``the Forest 
Service model'' for several appraisal organization recommendations. The 
Chief Appraiser, Department of Justice, recently reported that he has 
fewer litigation and standards compliance problems with Forest Service 
than any other agency with which he routinely works.
                                 ______
                                 
    USDA Forest Service--Fire & Aviation Operations Action Plan 2003

                          [Finalized 04/01/03]

                              INTRODUCTION

    This plan establishes Chief's direction for the 2003 fire season. 
It responds to lessons learned, after-action assessments, and formal 
reviews following the 2002 fire season. It incorporates recommendations 
from the Line Officer's Team and Chief's taskings dealing with cost 
containment (Troyer-Mann Report and Cost Accountability Report). The 
plan is consistent with the 30-Mile Mitigation Plan, the 10-Year 
Comprehensive Plan and the National Fire Plan. This direction 
introduces operational expectations and clarifies existing policies and 
procedures. It reinforces performance expectations for Forest Service 
Line Officers and Fire & Aviation Management personnel.
    The plan focuses attention on four areas:
  --Preparedness
  --Cost containment
  --Hazardous fuel treatments
  --Safety--ground and aviation operations
    This plan is responsive to Administration goals of fiscal integrity 
and the Chief's goals to deliver a safe, effective Fire & Aviation 
Management program. It recognizes that large air tanker capacity is 
down from previous years and several cooperator programs are also below 
last year's levels.
    The direction established in this plan reflect important 
performance measures for Line Officers, Incident--Area Command Teams, 
and fire management personnel in the conduct of operations.
    Finally, this plan recognizes that, because of Forest Service 
capability and experience with emergency response, the agency will 
continue to be asked to respond to incidents beyond the normal scope of 
business. The Forest Service is prepared to support missions that 
assist others in need, with focus on assisting others to build their 
capacity to respond. Management options for handling future all-risk 
workloads must be defined. In this context, the following priorities 
will guide the commitment of resources:
    1. National security
    2. Protection of life
    3. Protection of property
    4. Protection of natural resources

                               BACKGROUND

    During the fire season of 2002, initial attack forces displayed 
remarkable success under extreme burning conditions by containing over 
98 percent of all starts before they could become large fires. The 
fires that escaped initial or extended attack actions resulted in 
extraordinary costs, losses, and damages. Fires that grew above 300 
acres accounted for over 95 percent of the total acres burned and 
nearly 85 percent of all suppression expenditures. Wildfires on 
National Forest System lands burned over 1.4 million acres or over 
twice the 10-year average. Suppression expenditures were $1.2 billion; 
again twice the 10-year average.
    Fireline operations were relatively safe, given the level of 
exposure. Vehicle accidents and aircraft accidents, however, exceeded 
past levels and accounted for 69 percent of all wildland fire-related 
fatalities in 2002.

                         SITUATIONAL ASSESSMENT

    Wildland Fire Outlook--March through August 2003. National and 
Geographic Predictive Service groups, climatologists, fuels specialists 
and fire behavior analysts convened for a seasonal assessment workshop 
in Mesa, Arizona during the week of February 24-28, 2003. Based on the 
analysis shared and assessments completed, it was determined that 
nationally, the 2003 fire season will not be as severe as 2002 
(seasonal assessment http://www.nifc.gov). However, much of the 
interior West, south/central Alaska, western Great Lakes and northern 
Maine is expected to experience an above normal fire season for the 
following reasons:
  --Long-term drought persists over much of the interior West with 
        mountain snowpack and winter precipitation remaining below 
        average to date.
  --Drought stressed and/or insect damaged vegetation is becoming more 
        prevalent across the western states and will increase the 
        potential for large, destructive wildfires at mid to high 
        elevations.
  --Drought conditions are emerging in the Great Lake States leaving 
        herbaceous fuels standing, uncompressed, and receptive to 
        ignition. An early fire season is anticipated with peat fires 
        in these areas being problematic due to dry conditions.
  --Early snow melt is anticipated for Alaska, Pacific Northwest, Great 
        Basin and Northeastern California which will cause large dead/
        downed fuel moistures to drop below critical values earlier 
        than normal in the higher elevation areas, resulting in an 
        early and extended fire season.
  --The Southern Area is expecting a below normal spring fire season 
        overall, however forecasts call for a very active tropical 
        storm season which could result in an above average number of 
        hurricanes that impact the area and diminish fire risk through 
        the summer months.
  --An early spring prescribed fire season is expected across many 
        western states.
  --State budget reductions are likely to result in reduced 
        firefighting capacity from our State and local cooperators.
    Unless weather patterns provide relief, 2003 has the potential for 
an above normal fire season with several areas experiencing significant 
wildfire activity simultaneously. In some parts of the country, fire 
season potential will likely be higher, as the result of several years 
of drought. Of particular significance is the potential for long-
duration fires in higher elevation timber types in much of the interior 
West. Fires occurring in these types often prove to be difficult to 
suppress and very labor intensive. Historically, in the Northern 
Rockies and higher elevation sites elsewhere in the interior West, 
exponential acreage growth typically occurs very late in the season, as 
high velocity winds blow out unsecured perimeters.

                              PREPAREDNESS

    Policy.--``Agencies will ensure their capability to provide safe, 
cost effective fire management programs in support of land and resource 
management plans through appropriate planning, staffing, training, 
equipment, and management oversight.''
    Principle.--Where hazardous fuels dominate the landscape, 
establishing a strong, decisive initial attack capability is a key 
component in minimizing large fire suppression costs. As fire danger 
levels increase and suppression resources become scarce, initial attack 
capacity must be maintained as the most certain means of preventing new 
costly wildfires.
    Chief's Intent.--Extended attack and initial attack operations will 
be the number one mobilization priority. All efforts will be made to 
utilize predictive services, anticipate threats, and pre-position 
protection resources.
    At National Planning Levels Four and Five, national shared 
resources (airtankers, hotshot crews, smokejumpers, etc.) will be 
allocated and re-allocated by National Multi-agency Coordination Group 
(NMAC), based on observed and predicted fire danger intelligence.
    All units will be trained, staffed and ready to meet operational 
demands. Staffing levels will be adjusted, based on observed and 
predicted fire danger in order to maintain protection capabilities. 
Staffing levels will be coordinated with adjacent cooperators.
    Personnel will be trained, qualified, and red-carded for the 
positions that they are assigned. Forest Service employees will be 
available to support fire emergencies to the best of their ability and 
capability.
    Objective.--All level units will be staffed at the identical 2002 
level. We are currently working with OMB to achieve this goal. (95 
percent of planned NFMAS capability). A 98 percent initial/extended 
attack success rate remains our goal in 2003.

Chief's Direction
  --Fire Management Plans will be updated utilizing the new interagency 
        template (All plans must meet this new requirement no later 
        than December, 2004).
  --Effective organizational capability will be sustained by 
        maintaining management, supervisory, and crew staffing skills. 
        Coaches or mentors will be pre-identified for support, where 
        they may be needed.
  --Managers will assure personnel assigned to full duty will be 
        appropriately trained and physically fit prior to their 
        deployment.
  --Staffing levels and drawdown plans will be adjusted, based on 
        observed and predicted fire danger. Severity funding requests 
        will be submitted and approved prior to the pay period for 
        which they are planned. Severity requests will be coordinated 
        with cooperators to most effectively maintain management 
        oversight, supervisory controls, and crew capabilities in the 
        critical area.
  --Units will be prepared to hire and train AD employees and local/
        volunteer fire department personnel to meet local and, as 
        appropriate, national needs. Training and availability of State 
        and local fire departments, including volunteers, will be 
        coordinated.
  --Preparedness Plans, Mutual Threat Plans, Memorandums of 
        Understanding, Cost Share Agreements, and other plans will be 
        reviewed and updated prior to fire season.
  --Multi-agency Coordinating Group (MAC) members will be pre-
        identified and Predictive Services support will be ready prior 
        to the start of fire season. MAC Groups should include 
        individuals with coordination and command experience. Prior to 
        fire season, MAC Groups will establish prioritization criteria 
        for incident allocation and re-allocation of resources. Line 
        Officers will provide a formal Delegation of Authority to MAC 
        Groups that include agency objectives and agency expectations. 
        Prioritization criteria will be included in the Delegation of 
        Authority.
  --Service and Supply Plans will be completed and associated Emergency 
        Equipment Rental Agreements (EERA) will be in place prior to 
        fire season.
  --Pre-season simulations, including Wildland Fire Situation Analysis 
        (WFSA) development, will be conducted on units.

                            COST CONTAINMENT

    Policy.--``Fires are suppressed at minimum cost, considering 
firefighter and public safety, benefits, and values to be protected, 
consistent with resource objectives.''
    Principle.--Line Officer oversight and involvement during the 
decision-making process is critical for containing suppression costs.
    Chief's Intent.--In terms of implementation, this means that the 
primary criteria for choosing suppression strategies are to minimize 
costs without compromising safety. Planned and actual suppression costs 
must also be commensurate with the values to be protected. They must be 
included and displayed in the Wildland Fire Situation Analysis (WFSA).
    Under no circumstances are suppression strategies to be tailored to 
achieve resource benefit. Even though resource benefits may result in 
some areas of the fires, it is inappropriate to expend suppression 
dollars with the explicit objective of achieving resource benefits.
    Indirect suppression strategies (containing to natural barriers, 
etc.) are appropriate only if they are the safest or least cost option. 
When fire danger trends are rising, the selection of these strategies 
must be carefully scrutinized because escape potentials are greater. 
Long-duration, ``siege-like'' wildfires where high numbers of 
firefighting resources are being committed, need to be closely 
evaluated by standing cost containment teams to ensure that operations 
are not occurring beyond the point of diminishing returns.
    Objective.--Expend only those funds required for the safe, cost-
effective suppression of the incident.

Chief's Direction
  --Line Officers are responsible for financial oversight. This 
        responsibility cannot be delegated.
  --Formulate two inter-agency Standing Suppression Cost Review Teams. 
        Teams will be established by April 15.
  --When fire danger trends are rising, the long-term consequences of 
        indirect containment strategies, including final fire cost, 
        will be considered in the initial action decision.
  --The WFSA will include the least-suppression cost option. This 
        option will serve as a way to describe the values to be 
        protected and the context surrounding a suppression decision. 
        If the least-suppression cost option is not chosen, the WFSA 
        will include written rationale for not choosing it.
  --A suppression cost objective will be included as an incident 
        objective and included in the Delegation of Authority to the 
        Incident Commander. These cost objectives must maintain safety 
        considerations and be commensurate with the values to be 
        protected Revision of the WFSA is required if incident cost 
        objectives are exceeded.
  --Incident suppression cost objectives will be included as a 
        performance measure in Incident Management Team evaluations.
  --Suppression costs over $2 million will require approval of the 
        Forest Supervisor.
  --Suppression costs over $10 million require Regional Forester 
        approval and costs exceeding $50 million will require Chief's 
        Office approval. It is understood that, in approving 
        suppression costs, decision-makers at the higher organizational 
        levels share the risks associated with outcomes.
  --All incidents projected to exceed $5 million will require assigning 
        an Incident Business Advisor. The Incident Business Advisor 
        reports directly to the responsible Line Officer/Agency 
        Administrator.
  --Wildfires involving multiple jurisdictions should require mutually 
        agreed-upon Unified Commands. Commands should be unified as 
        early in the incident as possible. The rapid exchange of 
        information and coordinated tactics are a safety precaution, 
        first, and a cost containment protocol, second. Cost 
        apportionments will be based on mutually agreed upon criteria 
        and reflected in the Delegation of Authority from Agency 
        Administrators.

                       HAZARDOUS FUEL TREATMENTS

    Policy.--Hazardous fuels are treated, using appropriate tools, to 
reduce the risk of unplanned and unwanted wildland fire to communities 
and the environment.
    Principle.--The most effective means of reducing large fire 
suppression costs, protecting community values, restoring forest and 
grassland health, and improving firefighter safety, is an aggressive 
fuel treatment program. Treatments are particularly important in fire-
dependent ecosystems, where prolonged fire exclusion has resulted in 
over-accumulated fuels. The Forest Service will continue to emphasize 
fuel treatments in high priority areas where communities, watersheds, 
and critical resources are at risk.
    Chief's Intent.--The President's Healthy Forest Initiative, the 10-
Year Comprehensive Strategy and the National Fire plan establish goals 
for reducing hazardous fuels. Reducing risk to our firefighters, 
communities, municipal watersheds and restoring the health of our 
forests and rangelands are the central themes of these initiatives.
    The safest, most effective wildfire protection strategy is 
predicated on an aggressive fuels reduction program. In fire-dependent 
ecosystems, the use of prescribed fire, at ecologically appropriate 
intensities is an essential means of restoring forest health 
conditions. In Fire Regime I, Condition Class 3 forests, hazard 
mitigation treatments may often be required before prescribed fire 
projects can go forward within acceptable limits of social, economic, 
and ecological risk.
    Prescribed fires and wildland fires that aim to achieve resource 
benefits must be accompanied by supporting NEPA compliant plans.
    Objective.--Treat 1.6 million acres of hazardous fuels, service-
wide.

Chief's Direction
  --A high priority will be given to achieving fuels treatment projects 
        through the fire season.
  --Re-distribution of targets and funds between Regions may occur in 
        order to maximize project accomplishments, service-wide.
  --Identification on fiscal year 2004 hazardous fuels projects will be 
        completed by May 1, 2003 (reference FSM 5100 letter, dated 
        January 14, 2003, ``fiscal year 2004 Fuel Treatment Program 
        Priorities'').
                 safety--ground and aviation operations
    Policy.--``Firefighter safety is the first priority.'' Fight fire 
aggressively, but provide for safety first!
Principles
  --Firefighter safety comes first on every fire every time.
  --The 10-Standard Firefighting Orders are firm; we don't break them, 
        we don't bend them.
  --Every firefighter has the right to a safe assignment.
  --Every Line Officer, every Fire Manager, every fireline supervisor, 
        and every firefighter is responsible to ensure that established 
        safe practices are known and observed.
    Chief's Intent.--Safety will not be compromised in the conduct of 
ground or air operations. However, safety decisions must be made in the 
context of probabilities, exposure, and consequence over the long-term, 
particularly as fire danger trends are rising. The selection of 
indirect containment strategies must be weighed against longer-term 
safety concerns that may result if the fire exceeds expected or planned 
perimeters. Likewise, nighttime operations that mitigate snags and 
other hazards may be the safer tactic when weighed against fire 
behavior dangers that often exist during active burning periods. When 
seasonal fire danger trends are rising, the small wildland fire kept 
small is generally the safer fire.
    Proactive suppression tactics that can mitigate hazards and provide 
an operational advantage are favored over reactive or passive tactics 
that increase exposure to the firefighters over time. We all have a 
role in safety. In pre-season preparedness meetings, take the time to 
discuss the responsibilities and expectations that surround 
firefighting safety.
    Objective.--Observe established safe practices on every fire this 
year.
Chief's Direction
  --Continue the implementation of the Thirty mile Hazard Abatement 
        Plan on all units.
  --Unit preparedness--at management oversight, supervisory control, 
        and crew levels--will be commensurate with observed and 
        predicted fire danger.
  --Managers and supervisors will be in compliance with the National 
        Wildland Coordinating Group (NWCG) work rest guidelines (2003 
        National Interagency Mobilization Guide).
  --Appropriate span of control will be maintained for managers, 
        supervisors, and firefighters at a ratio commensurate to the 
        complexities presented by the fireline operations at hand.
  --Define control objectives (e.g. road, river, fuel type break, or 
        other perimeter objective) on every initial attack incident. 
        When control objectives are exceeded, immediately delay, 
        modify, or abandon any firefighting action. Fireline 
        Supervisors will assess the new situation, brief the 
        firefighters on strategy/tactical change, and then implement 
        appropriate actions.
  --Airtankers airworthiness and maintenance status will be monitored 
        as the fire season progresses. At appropriate intervals, 
        required inspections and maintenance will be conducted.
  --Airtankers will be pre-positioned, based on projected fire danger 
        levels, in the context of values to be protected.
  --Airtankers will be utilized primarily for initial and extended 
        attack. Large fire airtanker use will be determined on a case-
        by-case basis, or when lives or communities are at risk.
    Communicate.--Safety is a responsibility we all share.
    See it--Say it--Fix it.--You owe it to yourself, your crew, and 
those around you.

                                SUMMARY

    Dynamic tensions define today's Fire and Aviation Management 
Program. These tensions can only be managed successfully with adherence 
to established safe practices procedures, attention to critical fire 
behavior risk thresholds, and sound judgment.
    At the highest levels of activity, when suppression demands are 
high and resources are scarce, Line Officers and Fire Managers must 
maintain a high level of situational awareness, anticipate needs, and 
proactively lead.
    Paying attention to relationships and maintaining open lines of 
communication pay big dividends when people and organizations are under 
stress. We are stronger when we work together and more effective when 
we share information.
    Early projections indicate that this fire season may be another 
difficult year for us. The steps outlined in this action plan are 
intended to increase margins of safety and preparedness with the aim of 
reducing the costs, losses, and damages that have become more common as 
fuels have built up in drought areas where people live.
    However, over the long-term, an aggressive fuel treatment program 
is the surest means of ensuring firefighter and public safety, 
reversing wildfire costs, and restoring healthy, resilient forests and 
grasslands (Wildfire Suppression: Strategies for Containing Costs, NAPA 
Report, 09/02).
    We will continue to pursue an accelerated fuel treatment program. 
Programs that focus on restoration of fire-dependent ecosystems and 
better integrate fuel management, forest health, wildlife, range, 
watershed, and other available dollars will be more aggressively 
explored.

                          SUBCOMMITTEE RECESS

    Senator Burns. Thank you all very much. The subcommittee 
will stand in recess to reconvene at 10 a.m., Thursday, April 
10, in room SD-124. At that time we will hear testimony from 
the Honorable Gale A. Norton, Secretay of the Interior.
    [Whereupon, at 11:36 a.m., Thursday, March 20, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday, 
April 10.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2004

                              ----------                              


                        THURSDAY, APRIL 10, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Conrad Burns (chairman) presiding.
    Present: Senators Burns, Stevens, and Dorgan.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF HON. GALE A. NORTON, SECRETARY OF THE 
            INTERIOR
ACCOMPANIED BY:
        P. LYNN SCARLETT, ASSISTANT SECRETARY, POLICY, MANAGEMENT AND 
            BUDGET
        JOHN D. TREZISE, DIRECTOR OF BUDGET

               OPENING STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. We will call the committee to order.
    Depending on if you are running on daylight savings time, 
or just standard time, which one of the clocks do you want to 
go by?
    We like to serve everybody with 10 o'clock according to one 
and another one.
    Madame Secretary, thank you for coming today as we look at 
the budget for the Interior Department and the appropriations 
for 2004. While I suspect we will get to a number of topics 
today, there is one aspect of the Department's budget request 
that really jumps off the page. One does not have to be an 
accountant to see that we have real problems. I am talking, of 
course, about the Indian trust reform.
    It looks like right now, compared to the 2003 enacted 
level, the Department's request for programs under this 
subcommittee's jurisdiction represents an increase of about 
$370 million. Of that total increase, at least $180 million is 
for trust reform activities of the Office of Special Trustee in 
the Bureau of Indian Affairs. The bulk of that increase is to 
implement the Department's plan for historical accounting. This 
is a remarkable concentration of resources for a single task. I 
think you would have to agree with that.
    Madame Secretary, we applaud the commitment you have made 
to the trust reform; both in dollars, and in terms of your 
personal attention. I know it has occupied far more time than 
you would have imagined, or you would care to even talk about. 
But the litigation has taken its toll on the morale and funds 
of the Department.
    I think all of us here are struggling with the fact that 
increasing resources being devoted to trust reform are 
resources that might otherwise be spent in improving Indian 
schools, maintaining our national parks and public lands, or 
working with landowners to eliminate noxious weeds, and 
conserve the critical wildlife habitat. We know that it will 
take money to fix the trust problem.
    Madame Secretary, I think you would agree that over the 
years this committee has been very responsive to the 
Department's budget request for trust reform. But this year's 
request, particularly in respect to the historical accounting, 
really forces this committee to ask some tough questions.
    On one hand, I do not think any of us want to simply give 
up on historical accounting. I hate to condemn the Federal 
Government to paying billions of dollars of damages that may or 
may not have occurred. On the other hand, can we justify 
spending hundreds of millions of dollars to perform a 
historical accounting that will, undoubtedly, be disputed in 
Indian country?
    What will such an accounting ultimately tell us? And what 
needs in Indian country will go unfulfilled while we go through 
this very expensive process? These are really difficult issues. 
And, Madame Secretary, I suspect the line of questioning this 
morning will go down that trail.
    We also have a problem that I want to raise with you as far 
as increased funding in Indian schools, and the community 
colleges that are located around our many reservations. We 
increased the monies going into that particular program, and to 
higher education in Indian country. As it turns out, by some 
quirk of the pen, I get a decrease in my monies going for 
students in Montana. Rather than being an accross the board 
increase for all Indian schools, all of the funding gets 
distributed elsewhere.

                           PREPARED STATEMENT

    We will look into this. But I will tell you that you can 
look forward to seeing this Senator in that office. I am going 
to find out how they do those figures, because I will not allow 
this to happen. I do not fight for my State, and I do not fight 
for funds for higher education in Indian country, to see it 
become concentrated in one place under some quirk of a rule of 
titles. We are going to look into that and be very critical of 
it. Again, I thank you for coming this morning.
    [The statement follows:]

               Prepared Statement of Senator Conrad Burns

    Welcome Madam Secretary. We appreciate your making the time today 
to appear before the committee in support of your fiscal year 2004 
budget request.
    While I suspect we will get into a number of topics today, there is 
one aspect of the Department's budget request that really jumps off the 
page. I am talking, of course, about Indian trust reform.
    Compared to the fiscal year 2003 enacted level, the Department's 
request for programs under this subcommittee's jurisdiction represents 
an increase of about $370 million. Of that total increase, at least 
$180 million is for trust reform activities in the Office of Special 
Trustee and the Bureau of Indian Affairs. The bulk of that increase is 
to implement the Department's plan for historical accounting. This is a 
remarkable concentration of resources on a single task.
    Madam Secretary, we applaud the commitment you have made to trust 
reform, both in dollars and in terms of your personal attention. I know 
it has occupied far more of your time than you ever imagined, and that 
the litigation has taken a toll on morale within the Department.
    But I think all of us are struggling with the fact that the 
increasing resources being devoted to trust reform are resources that 
might otherwise be spent improving Indian schools, maintaining our 
national parks and public lands, or working with landowners to 
eliminate noxious weeds and conserve critical wildlife habitat.
    We know that it will take money to fix the trust problem. Madam 
Secretary, I think you would agree that over the years this Committee 
has been very responsive to the Department's budget requests for trust 
reform. But this year's request--particularly with respect to 
historical accounting--really forces this committee to ask some tough 
questions.
    On the one hand, I don't think any of us want simply to give up on 
historical accounting. I'd hate to condemn the Federal Government to 
paying billions of dollars in damages that may or may not have 
occurred. On the other hand, can we justify spending hundreds of 
millions of dollars to perform an historical accounting that will 
undoubtedly be disputed in Indian country? What will such an accounting 
ultimately tell us? And what needs in Indian Country will go 
unfulfilled while we go through this very expensive process?
    These are difficult issues, Madam Secretary, and we're anxious to 
hear your thoughts on them today. Certainly we'll have a lot else to 
talk about as well, so I'll conclude my remarks at this time and ask 
Senator Dorgan if he has an opening statement.

    Senator Burns. It is good this morning to recognize my co-
partner on this committee, Senator Dorgan. It is your turn.

              OPENING STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. No, no. Mr. Chairman, I am just trying to 
digest all that you have just said.
    I agree with much of what the chairman has said. And, 
Madame Secretary, let me say, first of all, that I welcome you 
and look forward to working with you on these issues. You know, 
perhaps, that today I will ask you about the United Tribes 
Technical College and the proposal to de-fund that. I will ask 
you about some issues that are not necessarily the purview of 
this subcommittee dealing with NAWS funding and some things, 
some commitments we have made that the President's budget does 
not keep.
    I note some things in the budget that I think give us some 
heart, taking care of parks. The proposal to increase the 
maintenance backlog in national parks, I think, makes a lot of 
sense. I mean, we just cannot keep pushing that off. And a 
number of administrations have done that. I think there are 
some solid recommendations that we will agree on.
    The Senator from Montana described the funding issue with 
respect to Indian schools. And it is not right and not fair, in 
my judgment, to decide we are going to actually decrease the 
money that is available to Indian schools. I know that you 
probably will argue, ``Well, the funding for last year included 
$2 million that was added by the Congress.'' But even at that, 
we are dramatically below the per-student support that we 
provide to other colleges in this country.
    So on that I think you will find that this subcommittee 
feels very strongly about Indian education. And the tribal 
colleges have been a remarkably effective way to allow people 
to escape from poverty, to get educated and move to a payroll, 
get a good job as a result of the training and the education 
they get at tribal colleges.

                           PREPARED STATEMENT

    So we have a number of things to talk about. You run a very 
big agency. It does a lot of different things. Some I think it 
does exceptionally well. Some perhaps can well use some 
improvement. So I look forward to visiting with you about all 
of those issues, Madame Secretary.
    [The statement follows:]
             Prepared Statement of Senator Byron L. Dorgan
    Madame Secretary, thank you for being here this morning to present 
the department's fiscal year 2004 budget request. We understand that 
you have many responsibilities and many demands placed on your time, 
and so we appreciate your willingness to come before this subcommittee 
to answer our questions.
    As you know, the services provided by the Department of the 
Interior are vitally important to our constituents and reach well 
beyond the traditional notion of parks and wildlife refuges. Many North 
Dakotans, for example, rely on the programs of the Bureau of Indian 
Affairs. From education, to community. development, to law enforcement, 
to environmental and resource management, the BIA is critical to the 
Native American population in my state, and I think in the Chairman's 
state, too. Yet, as I look at the administration's budget, I am deeply 
concerned with the way the administration has prioritized its scarce 
resources. While some agencies and programs have received 3 or 4 or 5 
percent increases, total funding for tribal allocations goes up by less 
than I percent and funding for tribal colleges is cut by nearly 9 
percent. These are serious flaws, Madame Secretary.
    Mr. Chairman, despite my reservations, I look forward to hearing 
the Secretary's testimony, and I have no doubt that she will put the 
best face on a rather dismal situation. Nevertheless, as this process 
proceeds, I hope to work with you to rectify what I think are 
fundamental mistakes in the way this budget has been arranged.

    Senator Burns. Thank you, Senator Dorgan.
    Senator Stevens.
    We are blessed with the chairman of the full committee this 
morning.
    Senator Stevens. Not for long.

                OPENING STATEMENT OF SENATOR TED STEVENS

    Madame Secretary, I want to invite you--I heard you are 
interested in going out to the end of the Aleutian chain. I 
would encourage you to do that and tell you that if you do 
that, we will get a plane and take a few other people along 
with us. It is the forgotten place of World War II. More people 
were killed in the Aleutian battle than were killed in the 
Battle of the Coral Sea.
    The battles took place at approximately the same time. Very 
interesting place. We would go to Kiska and Attu and Shemya and 
Dutch Harbor. I think it is a wonderful thing if you show some 
interest there, because there are many people who would like to 
go there, but there are no facilities to do so. We have 
prohibited that because of the withdrawals made by your 
predecessors.
    So I think it would be wonderful if you would just look at 
it. I think the World War II veterans, their families, would be 
very interested to see some means of access to those areas.
    I have a long statement here to make, but let me do this 
for the convenience of the committee and for the time factor 
that you have. My colleague, Lisa Murkowski, Senator Murkowski, 
and I would like to talk to you about the delay in terms of 
land conveyances to both the Alaska natives and the State of 
Alaska. We would like to set a deadline for getting all that 
done, which includes accelerating the surveying.
    We would like to talk to you about the proposed regulations 
of the Park Service concerning commercial use that put 
commercialization within the national parks, as far as those 
people who are recognized to have rights to conduct their 
business activities within the parks. As you know, we have, I 
think, more than 70 percent of the total areas with the 
national parks that are in our State. There are two categories, 
those that were national park areas before 1980 and those after 
1980. The 1980 Act preserved a considerable number of rights 
for Alaska native people and other Alaskans with the additions 
to the national park system that was created by the 1980 Act. 
Those regulations, in our opinion, do not recognize the rights 
that were preserved by the 1980 Act. And I would encourage you 
to review that. My statement, full statement, deals with some 
of those.
    Of basic concern, really, is the restriction of access 
across the parklands. We accept the fact that the pre-1980 
parks and their acreage are not subject to the rights created, 
or really preserved in the 1980 Act for the enormous additions. 
That Act withdrew over 100 million acres of our State. And 
without the rights for access across those lands that were 
preserved, the native lands and the State lands that are beyond 
them become absolutely inaccessible, unless we build some 
really crazy roads that would go north, south, east, and then 
west and back north again. It would be impossible to get money 
for Federal roads of that type. But I would urge you to take a 
look at it with regard to that.
    We have also raised the issue of fires on Federal lands. It 
is an interesting thing. We burned over 7.1 million acres 
nationwide. And there was little attention paid to fires in 
Alaska. When a few hundred thousand acres burned around Montana 
or Colorado around national parks, they flew Alaska 
firefighters down there to fight it.
    We think there has to be some standard made in terms of the 
regions of Alaska that are going to be given fire protection 
because in many instances, those fires rushed across State 
lands and Federal lands. And by the time they reached our 
lands, they were just out of control. I can show you that right 
in Kenai just south of where I live.
    Also, we have a problem with--the spruce bark beetles have 
killed millions of acres of land. And we know that when fire 
starts, the fire goes through the beetle kill area, the dead 
timber first. And that, too, with the dry winter we have had, 
we feel this 2 million acres in the south-central area alone 
have been killed by the birch beetles, most of them on Federal 
land. But there is no action being taken. And I understand, in 
fact, the people I call extreme environmentalists oppose taking 
action on Federal land to remove that dead timber. That dead 
timber jeopardizes half of our population. We are not very big 
in population, but half of the population of Alaska is still 
important. And we are surrounded by that beetle kill.

                           PREPARED STATEMENT

    So, Mr. Chairman, let me put the whole statement in the 
record.
    I will send you a copy, Madame Secretary, and save the rest 
of the time. Let me take the time to congratulate you on what 
you are doing. I think you are a breath of fresh air in being 
willing to listen. I am not sure I always agree with you, but 
you will listen. And we look forward to working with you. And I 
am particularly proud to be a member of this committee so I can 
listen to you.
    Thank you very much.
    [The statement follows:]

               Prepared Statement of Senator Ted Stevens

    Good morning Madam Secretary. An issue of concern to myself and to 
Senator Lisa Murkowski is the pace of the Bureau of Land Management's 
Alaska Land Conveyance Program.
    As you know, the BLM was tasked with completing work on Native 
allotments and land selections mandated by both the Alaska Statehood 
Act of 1959 and the Alaska Native Claims Settlement Act of 1971.
    That task has not been completed.
    This delay has severely impacted the ability of the State of Alaska 
and our Native groups from developing their resources and furthering 
the economic development of the State.
    Language included in the fiscal year 2003 Omnibus Appropriations 
bill directs the Bureau to develop a plan to ensure that allotments and 
conveyances are completed by 2009.
    I would like to get your commitment that the BLM will abide by its 
obligations and complete the land conveyance program by 2009.
    I know that Senator Murkowski is committed to assisting you and the 
BLM in this effort through her membership on the Energy and Natural 
Resources Committee.
    And I commit to providing the BLM the resources it needs to develop 
this plan.
    Another issue is the National Park Service's proposed regulations 
concerning the issuance and administration of commercial use 
authorizations in National Parks.
    As expressed to you in a February 6, 2003 letter from Senator 
Murkowski, Congressman Don Young and myself, these proposed regulations 
fail to comply with the Alaska National Interest Lands Conservation Act 
of 1980. The 1980 law is the controlling authority on public lands in 
Alaska and any Park Service regulations must conform with this law.
    I would like your assurance that the Department and the Park 
Service are committed to working with the State of Alaska, interested 
parties and Alaska Native groups in developing regulations which are 
consistent with the 1980 law.
    Additionally, Denali National Park recently issued its draft 
backcountry management plan.
    I am concerned that some of the alternatives, if implemented, would 
restrict public access to our Parks.
    Access to public lands is an issue that I have struggled to protect 
first as a solicitor your Department, in the Alaska State House, and in 
my 34 years in the Senate.
    I will oppose any plan which imposes unnecessary limits on the 
public's right to visit their Parks.
    I understand that Denali's superintendent and his staff have held 
public hearings and meetings on this management plan.
    I encourage these efforts in order to ensure that the final plan 
balances the protection of our natural resources with the public's 
right to access for recreational, economic and social purposes.
    I am pleased with the proactive stance the administration has taken 
in the area of wildfire prevention and suppression through the healthy 
forests initiative.
    In recent years we have witnessed catastrophic fires which burned 
over 7.1 million acres, affecting several regions in the United States 
including Alaska.
    In Alaska, we have a particular problem with Spruce Bark beetles 
which have decimated spruce forests in the Kenai Peninsula area along 
the Kachemak Bay watershed and the Copper River basin near Wrangell-St. 
Elias National Park and preserve.
    The Spruce Bark beetle problem along with an extremely dry winter 
season in Alaska raises serious concerns for this coming fire season.
    I hope that your efforts in fire prevention and suppression will 
include funding to address Alaska's Spruce Bark beetle problem.
    As you know, we have begun the fiscal year 2004 appropriations 
process. It has come to my attention that the committee does not have 
the most current data for public lands being administered by the 
Department of Interior.
    In order to appropriately allocate scarce resources towards the 
management of our public lands, I request that the Department provide 
the committee with statistics on federally owned land by agency in each 
State and Territory by acreage and percentage of total State area.
    These statistics should also include the total wilderness areas 
within each State.

    Senator Burns. Thank you, Mr. Chairman. Appreciate that, 
and appreciate you dropping by this morning.
    Madame Secretary, again, welcome to the committee. We look 
forward to your statement. Your full statement will be made 
part of the record, if you want to summarize and hit the high 
points of what you would like to tell the committee. Thank you, 
and your guests, for coming this morning.

                SUMMARY STATEMENT OF HON. GALE A. NORTON

    Secretary Norton. Good morning and thank you, Mr. Chairman. 
It is a pleasure to once again address this committee and talk 
with you about our budget for fiscal year 2004. I appreciate 
the opportunity to highlight a number of our initiatives.
    I am accompanied today by Lynn Scarlett, who is our 
Assistant Secretary for Policy, Management and Budget, and John 
Trezise, who is the Department's Budget Director.
    Interior takes pride in its mission to protect and manage 
the Nation's natural resources and cultural heritage, provide 
scientific information about those resources, and honor our 
special responsibilities to American Indians, Alaska Natives, 
and affiliated island communities. Our programs touch the lives 
of individuals across the Nation. How well we fulfill our 
mission influences whether farmers will have water and people 
can turn on the tap, whether our children will enjoy America's 
vistas, places in history, and whether we can hike, bird watch, 
canoe, or hunt and fish in the great American outdoors.
    Our 2004 budget request lays the foundation for us to build 
a legacy of healthy lands and thriving communities. Our request 
for programs under the purview of this subcommittee is $9.8 
billion. This is the largest Presidential request in the 
Department's history. It is a 28 percent increase over the 2000 
budget.
    The Department of the Interior is not quite self-
supporting. We bring in $3 for every $4 in expenditures. The 
Department anticipates that it will collect $7.8 billion in 
revenue in 2004.

                        TRUST REFORM INITIATIVES

    As the chairman noted, our largest increase is in the area 
of trust reform initiatives. Fulfilling our trust 
responsibilities presents a major challenge. The challenge is 
both retrospective and prospective. We inherited a history of 
inadequate management of trust accounts. Our budget lays the 
groundwork for a better future.
    Our budget for Indian trust programs includes $554 million 
for trust operations and reform. Our budget proposal reflects 
new management concepts that grew out of consultation efforts, 
including a reorganization of Interior trust offices to improve 
delivery of services. The budget provides an increase of $183.8 
million for trust programs, which is an increase of nearly 50 
percent over 2003.
    We also have a substantial increase for the Office of the 
Special Trustee, bringing it to $275 million. Within the Office 
of the Special Trustee request is $130 million for the Office 
of Historical Trust Accounting, an increase of $114 million 
over the 2003 level. These funds will provide a major down 
payment toward our plan to complete a historical accounting for 
individual Indian money accounts. We submitted a plan to the 
district court in the Cobell litigation on January 6 that 
outlines the details of how we would do that historical 
accounting.
    Once this accounting is completed, we should be able to 
resolve the disputes about whether the books are off by 
billions of dollars or the much smaller amounts that we expect. 
We hope to improve our management of our Indian trust program 
by consolidating our portfolio. Today we manage interests in 
land that are very tiny, as small as .00002 of an 80-acre tract 
of land. These areas often provide less than $1 a year in 
income to the owners.
    Fractionated interests in individual Indian-allotted land 
continue to expand exponentially as these small fractions pass 
through the generations. The 2004 budget proposes $21 million 
for Indian land consolidation, which is an increase of $13 
million. These funds will enable us to expand our pilot efforts 
to reduce the fractionation of individual land ownership 
interest in a nationwide program. This is only a very small 
part of what will be needed to accomplish a nationwide 
consolidation of these lands. But it gives us an opportunity to 
begin tackling this problem seriously.
    Our budget also lays the foundations for leaving a legacy 
of healthy lands. Our request presents a blueprint for 
fulfilling the President's vision of a new environmentalism of 
citizen stewards and cooperative conservation. Building 
partnerships lies at the heart of this effort. Enduring 
conservation needs many helping hands on the landscape. It 
requires a nation of citizen stewards.

                  COOPERATIVE CONSERVATION INITIATIVE

    Last year we proposed a cooperative conservation 
initiative. This year we are restructuring that program around 
our bureau challenge cost-share programs and cooperative 
conservation grant programs. It will tap into the tremendous 
potential that resides in conservation partnerships. It will 
better enable our land managers to join with Americans across 
the nation in caring for the land. Thousands of landowners and 
organizations remain on waiting lists to participate in our 
cooperative conservation grant programs.
    The 2004 budget includes $113 million for this initiative, 
including an increase of $9 million for the Partners for Fish 
and Wildlife Program. This will allow us to partner with 2,500 
landowners and restore wetlands, uplands, and riparian habitats 
through voluntary conservation agreements.

                          MAINTENANCE BACKLOG

    As Senator Dorgan described, the maintenance backlog in the 
national parks has been a continuing problem. We need to take 
care of these lands. We need to take care of the buildings and 
infrastructure through which we serve the millions of visitors 
to our parks, refuges, and BLM recreation sites. We are 
continuing our commitment to fulfill the President's pledge of 
addressing the maintenance backlog, proposing nearly $706 
million for national park backlogs.
    To date, the National Park Service accomplishments have 
been impressive. But we still have more work to do. A key focus 
will be to improve park roads. Here, too, we are reaching out 
to partners. The Federal Highway Administration has helped us 
review our roads program to see how we can operate it more 
efficiently. And the budget request for maintenance of park 
roads is in the Department of Transportation budget as part of 
the Federal Lands Highway bill.

                           ENERGY DEVELOPMENT

    Lands managed by Interior include working landscapes where 
ranchers, energy partners, and other entrepreneurs help ensure 
that Americans have food, can warm their homes, and have 
shelter for their families. Federally managed lands in onshore 
areas supply about a third of the Nation's oil, natural gas, 
and coal. Our 2004 budget provides $2 million to support the 
development of geothermal energy on public lands, as well as 
increased wind and solar energy opportunities. Our renewable 
energy program budget is more than five times the 2002 amount.
    Our budget also includes increased funding to facilitate 
the development of coal bed natural gas reserves, an abundant 
clean source of energy.

                            INDIAN EDUCATION

    No task is more important to all of our communities than 
educating our children. As we seek to educate our children, the 
President has committed to leave no child behind. At Interior, 
this commitment centers on the children educated at BIA schools 
and educated with Bureau assistance. The 2004 school operations 
request is over $529 million. The children also need safe, 
functional places to learn. Our budget includes a request to 
invest $293 million, including funds to replace at least seven 
decaying and dilapidated school facilities.

                        RECREATION OPPORTUNITIES

    Perhaps the closest connection that Americans have with the 
Department is through recreation opportunities. With almost 500 
million visits to our public lands, Interior provides a wide 
array of recreational opportunities. We are seeing a dramatic 
increase in visitation to our Bureau of Land Management lands 
where we are requesting increased funding to enable BLM to 
continue to provide high quality recreational opportunities.

                         EVERGLADES RESTORATION

    Our Everglades restoration efforts also affirm the power of 
partnerships. As stewards of about one-half of the remaining 
Everglades ecosystem, the Department works with a broad team of 
Federal, State, and local partners. In 2004, the President's 
budget included $112 million for Everglades activities, an 
increase of almost $28 million over the 2003 enacted level.
    Near these Everglades restoration efforts is Pelican 
Island, the Nation's first national wildlife refuge established 
100 years ago. We just celebrated the anniversary of the 
wildlife refuge system with large events there at Pelican 
Island. And our budget builds on last year's historic increases 
for refuges with an increase of nearly $34 million for refuge 
operations and maintenance, bringing the total to $402 million. 
Together, our increases for last year and this year set forth 
an additional $82 million increase in our national wildlife 
refuges.

                       OTHER PROGRAM INITIATIVES

    The fisheries program is also an important Fish and 
Wildlife Service activity. The budget recognizes this and 
includes a $7 million increase for the national fish hatchery 
system.
    The National Resource Challenge is an important component 
of the President's commitment to improving natural resource 
management in our parks. It strengthens the scientific basis of 
knowledge about our national parks. Our budget includes nearly 
$9 million to increase this program.
    The Land and Water Conservation State Grant program is a 
cornerstone of our commitment to involve State governments in 
conservation planning. Our budget requests $160 million for the 
traditional State grant program, which is a $63 million 
increase over the 2003 level enacted by Congress.
    The President's budget includes full funding for the Land 
and Water Conservation Fund at $900 million through a medley of 
programs that emphasize achieving LWCF goals through 
partnerships. We have two central resource protection goals. 
First is to leave a legacy of healthy lands by targeting our 
budget toward caring for the vast lands under our stewardship. 
Second is to extend our conservation and recreation 
achievements through partnerships.
    Through a mix of grant programs, we propose to leverage 
Federal LWCF dollars. These programs engage States, tribes, and 
other partners allowing us to achieve conservation and outdoor 
recreation goals across many lands and with many landowners. 
Through leveraging using conservation easements and other 
agreements, we are able to achieve more conservation than we 
would through fee acquisition alone.

                             WILDLAND FIRE

    There are two problems that we need to address in an 
ongoing way. And one of those that has attracted a lot of 
attention from this committee is the problem of wildland fire. 
Last year over 7 million acres of Federal lands went up in 
flames during catastrophic wildfires. The President's healthy 
forest initiative will help us reduce decades-long buildups of 
underbrush and unnaturally dense forests.
    The budget continues a high level of funding, $186 million, 
to reduce the buildup of brush, dead vegetation, and fire-prone 
invasive species. This will allow us to reduce the risk of 
catastrophic wildfire. The best approach for the long run is in 
building public-private partnerships. Stewardship contracting 
allows us to do that. Thanks to the subcommittee's efforts, we 
now have stewardship contracting authority. We are moving 
forward with getting that in place, working with the Forest 
Service on some joint standards for those programs, and 
beginning to get our contracting going.

                                SECURITY

    We are also investing in greater security for our monuments 
and for public lands that border Mexico and Canada. The 2004 
budget includes $46.8 million for increases in improved 
security to protect our visitors, employees, and resources. 
Over $10 million of this increase will be targeted to public 
lands located along the borders.
    An additional $34 million is slated for site security 
improvements at the Jefferson National Expansion Area in St. 
Louis, Independence National Historic Park in Philadelphia, and 
the Jefferson Memorial and Washington Monument here in 
Washington.

                                SCIENCE

    At the foundation of all Interior's efforts is scientific 
information, and it is the cornerstone of our research 
management activities, providing a basis for decisions about 
resource protection, use, recreation, and community-based 
programs. The 2004 budget proposes a $17 million increase for 
USGS to enhance science support to Interior's bureaus to meet 
their high-priority needs and address other high-priority 
research needs, including invasive species control.
    Thank you very much for the opportunity to discuss our 
budget. We are working to better manage through partnerships. 
Our ability to leave a legacy of healthy lands and thriving 
communities depends on how well we can build those 
partnerships. Our budget sets forth the tools through which we 
can accomplish those goals.
    Thank you.
    [The statement follows:]

                  Prepared Statement of Gale A. Norton

    I am pleased to be here today before the Subcommittee on Interior 
and Related Agencies to discuss with you the fiscal year 2004 budget 
for the Department of the Interior. I appreciate the opportunity to 
highlight a number of important initiatives and to answer questions 
that you might have.
    As an introduction to our 2004 budget request, I'd like to offer 
some observations about the Department's mission. We take a great deal 
of pride in our mission to:
  --Protect and manage the Nation's natural resources and cultural 
        heritage;
  --Provide scientific information about those resources; and
  --Honor our special responsibilities to American Indians, Alaska 
        Natives and affiliated Island Communities.
    Our responsibilities touch the lives of each individual across the 
Nation. How well we fulfill our mission influences:
  --Whether farmers will have water and people can turn on the tap;
  --Whether our children will enjoy America's grand vistas, places, and 
        history;
  --Whether we can hike, bird watch, canoe, or hunt and fish in the 
        great American outdoors; and
  --Whether our landscapes are healthy and our communities are 
        thriving.

                            BUDGET OVERVIEW

    Our 2004 $9.8 billion budget request provides the single clearest 
statement of how we plan to honor these commitments in the upcoming 
year. It lays the foundation for us to build a legacy of healthy lands 
and thriving communities, including:
  --Resource Protection--Reflecting the Department's multiple missions, 
        the budget proposes $2.5 billion to fund programs that improve 
        the health of landscapes, sustain biological communities, and 
        protect cultural resources.
  --Serving Communities--The budget proposal includes $5.0 billion to 
        serve communities through fire protection, generation of 
        scientific information, education investments for American 
        Indians, and through activities to fulfill responsibilities 
        toward American Indians, Alaskan natives, and the Nation's 
        affiliated island communities.
  --Resource Use--Interior lands include many working landscapes where 
        ranchers, energy partners, and other entrepreneurs help 
        maintain thriving American communities and a dynamic economy. 
        The budget includes $728 million to provide access for these 
        important uses.
  --Recreation--$1.4 billion in fiscal year 2004 budget investments 
        will ensure recreational opportunities for all Americans in the 
        network of public lands, parks and refuges that the Department 
        administers.
    In total, the 2004 budget is the largest presidential request in 
the Department's history. The 2004 request includes $9.8 billion for 
programs funded in the Interior and Related Agencies Appropriations 
Act, an increase of $369.8 million or 3.9 percent over the 2003 enacted 
level. Permanent funding that becomes available as a result of existing 
legislation without further action by the Congress will provide an 
additional $3.0 billion, for a total 2004 Interior budget of $12.8 
billion. The Department anticipates that it will collect $7.8 billion 
in receipts in 2004, equivalent to 73 percent of Interior's current 
appropriations request.

                             TRUST PROGRAMS

    Over one-half of our $369.8 million increase for 2004 will fund 
trust reform initiatives. While the overall budget request is 
approximately 3.9 percent over the fiscal year 2003 request, our fiscal 
year 2004 Indian trust budget request is almost 50 percent higher than 
what was included in the 2003 appropriations act.
    Fulfilling our Trust responsibilities remains one of the 
Department's greatest challenges. The Department has responsibility for 
the management of 100,000 leases for individual Indians and Tribes on a 
land trust that encompasses approximately 56 million acres. Leasing, 
use permits, sale revenues, and interest of approximately $226 million 
per year are collected for approximately 230,000 individual Indian 
money accounts, and about $530 million per year are collected for 
approximately 1,400 tribal accounts per year. In addition, the trust 
manages approximately $2.8 billion in tribal funds and $400 million in 
individual Indian funds.
    Interior faces many challenges in reforming the management of its 
Indian trust responsibilities. First, the Department has not been well 
structured to focus on its trust duties. Second, fractionated interests 
in individual Indian allotted land continue to expand exponentially 
with each new generation. Today, there are approximately four million 
owner interests in the 10 million acres of individually owned trust 
lands. These four million interests could expand to 10 million 
interests by 2030 unless an aggressive approach to fractionation is 
taken. There are now single pieces of property with ownership interests 
that are less than 0.000002 of the whole interest.
    Third, there are 230,000 open individual Indian money accounts, the 
majority of which have balances under $100 and annual transactions of 
less than $1,000. Interior maintains thousands of accounts that contain 
less than one dollar, and has a responsibility to provide an accounting 
to all account holders. Unlike most private trusts, the Federal 
Government bears the entire cost of administering the Indian trust. As 
a result, the usual incentives found in the commercial sector for 
reducing the number of accounts do not apply to the Indian trust.
    An increase of $114.1 million for the Office of Historical Trust 
accounting will support the Department's plan to conduct a historical 
accounting for individual Indian money accounts and to account for 
funds in Tribal accounts. On January 6, 2003, the Department presented 
a plan to the District Court in Cobell v. Norton for the historical 
accounting for about 260,000 IIM accounts. The work described in that 
Plan is expected to take five years to complete and is preliminarily 
estimated to cost approximately $335 million. The budget includes 
$130.0 million for these historical accounting activities. Funds also 
will be used to provide for historical accounting activities related to 
tribal accounts.
    The 2004 budget proposes $21.0 million for Indian land 
consolidation, an increase of $13.0 million, to expand pilot efforts to 
reduce the fractionation of individual land ownership interests into a 
nation-wide program. During 2003, we will establish a national program 
office, standardize business practices, and develop a strategic plan to 
guide expansion to more tribal reservations.
    Interior is reorganizing trust functions in BIA and OST. The new 
organization was developed after detailed analysis of the prior 
organization and a year-long consultation process with tribal leaders. 
In one of the most extensive consultation efforts ever undertaken by 
the senior management level at the Department on any issue relating to 
Indian Country, over 45 meetings with tribal leaders provided detailed 
findings and recommendations. The new organization reflects a synthesis 
of the views heard during the consultation process. It will meet 
fiduciary trust responsibilities, be more accountable at every level, 
and operate with people trained in the principles of trust management. 
The 2004 budget provides an increase of $15.0 million to support the 
new organization, which together with base funding available in BIA and 
OST will provide resources needed for the new organization in 2004.
    The proposed $183.8 million increase for trust management reforms 
includes funding to help rebuild Bureau of Indian Affairs information 
technology infrastructure to support trust and non-trust programs. The 
BIA's information infrastructure and security use outmoded hardware and 
software that do not meet lifecycle management and systems architecture 
principles, and do not comply with the security requirements of OMB 
Circular A-130 and the Government Information Security Results Act. The 
Department requests IT funding for the significant new investments 
needed to address these challenges. The 2004 budget includes increases 
of $29.6 million for a ground-up rebuilding of the BIA IT 
infrastructure to support trust, as well as non-trust programs, and 
$2.5 million for Interior-wide IT security. The proposed rebuilding 
will fit within the enterprise architecture and includes full business 
cases for proposed investments.
    The 2004 budget also proposes an increase of $4.5 million to 
accelerate a new strategy to administer, manage, search, retrieve, and 
store trust records. Reform efforts to date have improved records 
collection and security. However, recent Interior reviews have resulted 
in a reassessment of the resource requirements needed to establish 
proper records retention schedules, establish and implement record 
keeping requirements, safeguard records, implement and maintain 
training programs, and meet records-retrieval needs in an effective and 
cost-efficient way.

                  COOPERATIVE CONSERVATION INITIATIVE

    The 2004 budget lays the foundation for a legacy of healthy lands, 
presenting a blueprint for fulfilling the President's vision of a new 
environmentalism of citizen stewards and cooperative conservation. 
Building partnerships lies at the heart of this effort. Last year's 
budget proposed a Cooperative Conservation Initiative. This year, our 
budget again includes a Cooperative Conservation Initiative, structured 
around bureau Challenge Cost Share programs and other existing 
cooperative conservation grant programs.
    The Cooperative Conservation Initiative, funded at $113.2 million, 
will empower citizen stewards to conserve and protect natural 
resources, while also achieving important community and economic goals. 
The Initiative builds on existing conservation partnership programs and 
will provide new and expanded opportunities for landowners, land 
managers, and others to participate in projects that foster innovation 
and create incentives for stewardship. Our budget also provides funds 
for a public lands volunteers program.
    The 2004 CCI request builds upon Interior's long history of working 
collaboratively with others. It builds on existing conservation 
partnership programs, including the challenge cost share programs of 
the Bureau of Land Management, Fish and Wildlife Service, and National 
Park Service, as well as FWS's Partners for Fish and Wildlife program, 
Coastal program and Migratory Bird Joint Venture program. This 
initiative also funds a program of volunteers to increase public 
awareness of, and appreciation for, natural and cultural resource 
protection.
    The CCI request includes a $9.1 million increase for the Partners 
for Fish and Wildlife program, the largest increase ever provided to 
this program. The Fish and Wildlife Service will partner with 2,500 
additional landowners on the program's waiting list. These new 
partnerships will restore an additional 19,298 acres of wetlands; 
83,601 acres of native grasslands, forest and other uplands; and 241 
miles of riparian and in-stream habitat over 2003 levels.

                          CONSERVATION GRANTS

    The Private Stewardship grants and the Landowner Incentive Program 
recognize continuing opportunities for conservation of endangered and 
threatened species through partnerships with private landowners. The 
budget request includes $50.0 million for Private Stewardship grants 
and the Landowner Incentive program. Interest in the State portion of 
the program is high, with over 80 grant requests totaling $61.0 million 
for the program's first year.
    The 2004 budget request includes a comprehensive, partnership 
approach to meeting the President's commitment for fully funding the 
Land and Water Conservation Fund. The 2004 LWCF program includes $662.4 
million for the Department. It emphasizes conservation partnerships 
with States, Tribes, local communities, and private citizens, including 
a strong State grant program, and reduced Federal land acquisition. 
This proposal recognizes the costs of adding to the significant land 
holdings that are already managed by the Department and our commitment 
to take better care of these lands. It also recognizes the value and 
cost-effectiveness of partnerships. We can accomplish our conservation 
goals by conserving endangered and at risk species through conservation 
easements, working with private landowners to enhance habitat for 
endangered and at risk species, and other innovative partnership 
approaches.

                   CONSERVING WILDLIFE AND FISHERIES

    March 14, 2003 marks a milestone in the history of wildlife 
conservation in America-the centennial anniversary of the national 
wildlife refuge system. Reflecting the importance of this event and the 
record of conservation established through this unique system of lands 
and resources, the 2004 budget builds on last year's historic $48.4 
million budget increase for the national wildlife refuge system by 
requesting a total of $402.0 million for refuge operations and 
maintenance, an increase of $33.6 million over 2003 appropriation 
levels. The total budget request for the Fish and Wildlife Service is 
$1.3 billion.
    The Fish and Wildlife Service fisheries program has played a vital 
role in conserving and managing fish and other aquatic resources. The 
2004 budget enhances the Federal contribution to aquatic resource 
conservation partnerships, by providing $103.6 million for the FWS 
fisheries program. The request includes an $3.9 million increase for 
operation and maintenance of the national fish hatchery system's 
hatcheries, fish health centers, and fish technology centers. Also 
included is a $1.0 million increase to combat aquatic nuisance species, 
part of the larger, coordinated interdepartmental effort discussed 
below.

                           OTHER PARTNERSHIPS

    As stated earlier, the 2004 budget is based on a vision of 
partnerships and leaving a legacy of healthy lands and thriving 
communities resulting from efforts to work together across landscapes 
and across communities. The 2004 budget sets forth the tools through 
which these partnerships can flourish and leave a legacy of healthy 
lands and thriving communities
    The Department's parks, refuges, and public lands host nearly 500 
million visitors a year and provide access for economic uses, 
activities that fuel the economic engines for communities adjacent to 
our Federal lands. Recognizing that the Department's decisions can 
greatly impact these gateway communities, the Department is working in 
partnership with the people who live on the private lands that border 
these areas and developing collaborative approaches to address local 
issues.
    Everglades.--The Everglades restoration effort also affirms the 
power of partnerships. As stewards of about one-half of the remaining 
Everglades ecosystem, the Interior Department works with a broad team 
of Federal, State and local partners. In 2004, the President's budget 
includes $112.3 million for Interior Everglades activities, an increase 
of $27.8 million above 2003 enacted appropriations. The request 
includes $40.0 million to protect the Big Cypress National Preserve by 
acquiring the Collier family's mineral right holdings.
    Exemplifying the partnership approach to this restoration effort, 
the Department is building stronger coalitions to implement the 
restoration program, including:
  --Forming an advisory committee for public input to land managers in 
        South Florida on a wide range of issues;
  --Providing scientific expertise to the State and the U.S. Army Corps 
        of Engineers to meet the objectives of the Comprehensive 
        Everglades Restoration Plan; and
  --Taking steps to ensure that appropriate quantities of water are 
        distributed at the right times and in the right places to 
        restore the unique Everglades ecosystem.
    Invasive Species.--The Department is participating in an 
interagency performance budget to promote invasive species management 
that is being coordinated by the National Invasive Species Council. The 
2004 budget proposes $57.5 million for the Department's portion of this 
interagency effort.
    At this funding level, Interior will participate in the control and 
management of tamarisk and giant salvinia in the southwest; conduct 
ballast water research; control and eradicate nutria in the Chesapeake 
Bay and in Louisiana; plan early detection and rapid response to 
eradicate outbreaks of sudden oak death in eastern hardwood forests of 
the central Appalachian Mountains; and develop a marine invasive 
species early detection warning system.
    Abandoned Mine Reclamation and Clean Streams.--Through partnerships 
the Office of Surface Mining is restoring streams impacted by coal 
mining. Its Clean Streams program involves State and local groups to 
enhance miles of riparian areas. The President's budget request 
includes $281.2 million for State and Federal programs to protect the 
environment during coal mining, assure prompt reclamation after mining, 
and clean up abandoned mine lands. The request will enable OSM to 
continue directly administering Federal regulatory and reclamation 
programs in States that do not operate their own surface mining 
programs as well as on Federal and Indian lands, and to reclaim 6,900 
acres of disturbed land and other hazards that threaten human health 
and welfare and environmental quality.
    Payment of Lieu of Taxes.--The President's proposal calls for 
$200.0 million for Payments in Lieu of Taxes, to compensate States for 
Federal lands that cannot be taxed by local governments. The 2004 
budget proposes to move the program from the Bureau of Land Management 
to the Departmental Management account to reflect the breadth of this 
program. The lands on which the payments are made are administered by 
the NPS, FWS, and USDA Forest Service, as well as by the Bureau of Land 
Management.

                   WILDLAND FIRE AND HEALTHY FORESTS

    Building a legacy of healthy lands and thriving communities means 
applying a healing hand to the landscape. The Department is advancing 
the President's Healthy Forests Initiative to reduce decades-long 
build-ups of underbrush and unnaturally dense forests.
    The budget proposes $698.7 million for wildfire prevention and 
suppression and Healthy Forest initiatives in fiscal year 2004. This is 
a $48.5 million, or 7.5 percent increase over last year's budget 
proposal. The request includes continued funding for a robust fuels 
treatment program at $186.2 million, 400 percent above spending in 
2000. At this funding level, the Department will treat 307,000 high 
priority acres in the wildland-urban interface and an additional 
768,000 acres that are not in the wildland-urban interface.
    The Department is also taking a number of steps to improve the 
productivity and performance of the fuels program that will help the 
Department's firefighting bureaus take maximum advantage of the 
opportunity for fuels treatment projects at the beginning of the fiscal 
year when weather and workload conditions for fuels treatments are 
optimal. The Department is accelerating project planning and selection, 
issuing policy guidance and proposed legislative language designed to 
facilitate and expand contracting in the fuels program, and issuing 
policy guidance to expedite the budget allocation process for the fuels 
program and individual projects.
    The fuels treatment program is key to restoring forests and 
rangelands to long-term health and preventing damage caused by 
catastrophic wildfires. One approach to improving forest health that 
holds promise is stewardship contracting. Stewardship contracts allow 
the private sector, non-profit organizations, and local communities to 
productively use materials generated from forest thinning.
    The 2004 budget proposal also calls for $282.7 million for fire 
preparedness, including increased funding for aviation contract costs. 
The fire suppression request of $195.3 million reflects a $36.0 million 
increase to fund suppression operations at the revised 10-year average. 
This funding level will provide resources to respond to an ``average'' 
fire year without having to rely on emergency borrowing that can be 
disruptive to other Interior programs. The Department is also working 
to develop new and improved current cost control strategies for 
suppression. The budget also includes $24.5 million for rehabilitating 
burned areas. Timely stabilization and rehabilitation of severely 
burned areas are critical to prevent further damage due to erosion, 
loss of soil nutrients, and the introduction and spread of invasive 
species. The budget also continues funding for Rural Fire Assistance at 
$10.0 million. Frequently, local firefighting departments are the first 
responders to wildland fires on public lands and play a vital role in 
preventing fires from escaping initial attack and becoming 
exponentially more expensive to suppress. In 2002, the Department 
assisted 5,349 rural and volunteer fire departments through grants, 
technical assistance, training, supplies, equipment, and public 
education support.

               HELPING TO MEET THE NATION'S ENERGY NEEDS

    Interior plays a central role in meeting the Nation's energy needs. 
Conservation, renewable energy, and traditional energy sources all play 
an intertwined role in helping the Nation meet these needs. The budget 
supports the President's and the Department's goal for increasing 
domestic energy supplies from a variety of sources, in an 
environmentally acceptable manner, with a special emphasis on 
developing renewable energy sources on Federal lands.
    The 2004 budget request includes an increase of $444,000 for 
activities on the North Slope, for a total of $8.4 million. Funding 
will support planning for sales in the National Petroleum Reserve-
Alaska, and, if authorized, the Arctic National Wildlife Refuge. 
Congressional authorization will be required for a lease sale to be 
conducted in ANWR.
    The budget requests an increase of $2.0 million for BLM to 
strengthen inspection and enforcement activities, targeted primarily to 
the Powder River and San Juan basins. The budget also proposes a 
$500,000 increase to expand resource monitoring to improve assessment 
of the cumulative impacts of oil and gas development, especially on 
cultural resources and species at risk.
    The 2004 budget includes $2.0 million for renewable energy 
resources. This includes an increase of $100,000 over 2003 enacted 
appropriations to support the development of geothermal, wind, and 
solar energy on public land. This is more than five times the 2002 
funding level for these programs.
    The Outer Continental Shelf is projected to produce over 25 percent 
of both the Nation's oil and natural gas in 2003. The Minerals 
Management Service is the primary steward of the mineral resources on 
the OCS. The MMS appropriations request of $171.3 million includes an 
increase of $1.6 million to meet increased workload brought about by 
the demand for Outer Continental Shelf program services in the Gulf of 
Mexico. The 2004 budget includes a total of $11.6 million, an increase 
of $2.9 million over 2003 funding levels for MMS to employ innovative 
business processes and advances in electronic technology in the 
offshore program. The budget also includes an increase of $300,000 to 
investigate the energy resource potential found in methane hydrate 
formations. The MMS will also invest an additional $3.0 million to 
operate and maintain its minerals revenue management and royalty-in-
kind systems.
    The 2004 BIA request includes a $2.0 million increase for grants to 
Tribes to evaluate mineral resource potential on tribal trust and 
restricted lands. The request also includes $1.0 million to help Tribes 
expedite the development of tribal regulations governing mineral 
leasing and permitting, and rights-of-way of tribal lands required 
under the Energy Policy Act, 2002.

                          TAKING CARE OF PARKS

    Complementing the Department's cooperative conservation commitments 
is a continued investment in taking care of National Parks. The 
President's budget proposes a $2.4 billion budget for the National Park 
Service, an increase of $131.4 million above 2003 appropriations.
    This budget continues the Department's commitment to fulfill the 
President's pledge of addressing the maintenance backlog in National 
Parks, proposing $705.8 million this year toward this effort, an 
increase of $54.1 million, nearly an eight percent increase over 2003. 
The budget includes an increase of $16.3 million for cyclic 
maintenance. This increase will provide additional funds for regular 
maintenance activities and will help the NPS keep pace with its 
maintenance needs and prevent additional projects from becoming 
deferred. It also includes an additional $16.7 million for the repair 
and rehabilitation program and a $4.7 million increase for 
comprehensive condition assessments at parks. Data collected through 
the condition assessments will be used in 2004 to evaluate progress in 
eliminating the deferred maintenance backlog, as measured by a facility 
condition index.
    To date, our accomplishments are impressive. For example, the Many 
Glacier Hotel at Glacier National Park was built in 1914. A highly 
recognized National Landmark, this facility signifies an important 
period in the development of the National Park Service. Due to the 
harsh climate and insufficient maintenance in the past, this important 
landmark had deteriorated to a stage where emergency stabilization was 
necessary. The Department is in the process of stabilizing this 
important facility.
    But we still have more work to do. A key focus in the 2004 budget 
will be to improve park roads. Here, too, the Department is reaching 
out to partners. A signed memorandum of agreement with the Federal 
Highway Administration will help us achieve our road maintenance goals 
efficiently. The Department of Transportation's 2004 budget proposes 
$300.0 million in 2004 for Park road repair as part of the 
reauthorization of TEA-21, bringing the total park maintenance budget 
to over $1 billion.
    In the National Park Service, the Natural Resource Challenge helps 
Park managers improve resource management by strengthening the 
scientific base of knowledge about park resources. Our budget proposes 
$76.1 million, an $9.0 million increase over 2003, for the program. 
This increase will provide a three-year cumulative total increase of 
over $104 million above the 2001 level. The Natural Resource Challenge 
is an integral component of President Bush's ongoing commitment to 
improving natural resource management in Parks.

                            INDIAN EDUCATION

    No task is more important to the American community than educating 
its children. In education, the President has committed to ``leave no 
child behind.'' At Interior, this commitment centers on the 48,000 
children educated at schools operated by the Bureau of Indian Affairs 
or by Tribes under BIA grants or contracts.
    The budget request for Indian education continues the President's 
commitment with a robust $528.5 million school operations budget 
request, including funding for teacher pay increases. The budget 
includes $3.0 million to establish a separate fund for new 
administrative cost grants to encourage more Tribes to exercise their 
authority to operate BIA schools by providing full funding for start-up 
costs for the first year of tribal operation of bureau-operated 
schools.
    Children deserve safe, functional places to learn. The 2004 budget 
invests $292.6 million in school facilities, including funds to replace 
at least seven high priority school facilities and to repair schools 
identified in the Indian school maintenance backlog. The President's 
goal is to eliminate the backlog by 2006.

                               RECREATION

    With almost 500 million visits each year to the Department's lands, 
Interior provides a wide array of recreational opportunities, including 
fishing, hiking, hunting, camping, and wildlife viewing. Public lands 
managed by the Bureau of Land Management provide recreational venues 
for a growing population in the West, hosting over 60 million visitors 
annually.
    The 2004 budget requests $48.7 million to enable the Bureau of Land 
Management to continue to provide quality recreational opportunities. 
BLM will address transportation and access needs and challenges, expand 
interpretive and other visitor services, and support greater outreach 
and consultation efforts to help resolve user conflicts in the face of 
growing visitation.
    In recreation as in conservation, partnering is central to achieve 
our recreation goals. The Department depends on the contributions of 
200,000 volunteers, almost three times Interior's Federal workforce, to 
help address resource protection and public recreation needs. Over 
126,000 volunteers work in parks, the rest work in refuges, public 
lands, and other Interior sites across the country. In 2004 volunteers 
will assist NPS staff with important park projects including the Lewis 
and Clark bicentennial, the Powered Flight centennial, and the 
Jamestown 400th anniversary. The budget request proposes to increase 
funding by $1.5 million for partnership efforts and volunteer 
recruitment and training. A $1.0 million increase is aimed at 
bolstering volunteer participation and improving park capacity to 
supervise, train, and reward volunteers. An increase of $500,000 will 
allow NPS to establish full time volunteer coordinators to manage an 
expanding program.
    The Department's partnerships include working with States. Today, 
the LWCF State grant program is a cornerstone of the Secretary's 
commitment to involve State governments in conservation and recreation 
activities. This program, enacted in 1965, helps States develop and 
maintain high quality recreation areas and stimulate non-Federal 
investments in the protection and maintenance of recreation resources 
across the United States. Reflecting the President's goals, the 
Interior LWCF program seeks to promote cooperative alliances, leave 
land on State tax roles, and achieve conservation goals by emphasizing 
innovative alternatives to fee simple title purchases, such as 
conservation easements and land exchanges. This emphasis also enables 
Interior land management agencies to focus more funds on caring for 
lands already under their management.
    The President's budget fully funds the Land and Water Conservation 
Fund at $900.7 million. The LWCF proposal calls for $160.0 million in 
State grants, an increase of $62.6 million over the 2003 funding level 
enacted by the Congress.

                      LAW ENFORCEMENT AND SECURITY

    The budget requests increases for Interior's law enforcement and 
security programs. The funding would be used to hire additional law 
enforcement officers, for law enforcement agreements with States and 
localities, additional training, and physical hardening of key visitor 
sites, all of which will improve security operations Department-wide. 
The increase of $46.8 million is earmarked for strengthening law 
enforcement and security operations at Interior refuges, parks, and 
public lands, including along the U.S. borders with Mexico and Canada. 
Included within this increase is funding for site security improvements 
at the Jefferson National Expansion Area in St. Louis, Independence 
National Historical Park in Philadelphia, and the Jefferson Memorial 
and Washington Monument in Washington, D.C.

                                SCIENCE

    All of the Department's efforts require good information. 
Scientific information is the cornerstone for Interior's natural 
resource management activities, providing a basis for making decisions 
about resource protection, resource use, recreation, and community-
based programs. The USGS has the principle responsibility within 
Interior to provide its bureaus the earth and natural science 
information and research necessary to manage the Nation's natural 
resources.
    The President's 2004 budget proposes $895.5 million for the USGS. 
The budget includes $17.1 million in new program increases above the 
2003 conference level for high priority research needs, including 
invasive species control and management and increased capability to 
address science needs for Interior bureaus.

                               CONCLUSION

    The Interior Department's responsibilities lie at the confluence of 
people, land, and water. The 2004 budget funds programs that support 
our broad and multiple missions. Leaving a legacy of healthy lands and 
thriving communities requires resources, creativity, and, above all, 
collaboration. The 2004 budget supports this vision of forging 
partnerships.
    This concludes my overview of the 2004 budget proposal for the 
Department of the Interior and my written statement. I will be happy to 
answer any questions that you may have.

                      HISTORICAL TRUST ACCOUNTING

    Senator Burns. Thank you, Madame Secretary.
    We have spent numerous occasions discussing your 
inheritance of one of the most frustrating court cases in 
recent memory. However, the recently released summary of the 
Ernst and Young analysis of the five lead plaintiffs' accounts 
raises questions about whether historical accounting is a wise 
use of Federal resources. If you could, would you please give 
us a quick update on the court's actions over the past few 
months, and how those actions impact your 2004 request?
    Secretary Norton. We submitted plans to the courts in 
January that set forth how we would go about doing an 
historical accounting and how we would improve the overall 
management of our trust programs to address some specific 
deficiencies identified by the court. We are preparing now for 
a trial that is set to occur starting in May that will cover 
those plans. The court will in essence be looking both at our 
plan and the plans that were submitted by the plaintiffs and 
evaluating those.
    We also have, ongoing, an appeal to the Federal Court of 
Appeals from the decision that held myself and the Assistant 
Secretary for Indian Affairs, Neil McCaleb, in contempt of 
court. The oral argument on that will take place on April 24.
    Senator Burns. What message should this committee take from 
the Ernst and Young report?
    Secretary Norton. I think it helps illustrate the 
difficulty that we have in trying to resolve these issues. On 
the one hand, we have the plaintiffs' attorneys, who are 
estimating the damages that the Department and the Federal 
Government would owe to individual Indian account holders at 
$137 billion. On the other hand, the Ernst and Young report, 
which looks at the accounts of specified individuals, found 
that there was, in reviewing approximately 2,900 transactions, 
a $60 account error. So we have a wide divergence of opinion 
about the accuracy of the books that were handled by the 
Department of the Interior over time.
    In essence, what we are doing through the historical 
accounting is verifying our bank ledgers. We have the account 
ledgers that say how much was given to individuals, how much 
was deposited, and what was received. The question is trying to 
find external documents that verify those account records. The 
court has asked us to find that external documentation.
    We submitted to you all a plan for doing a complete 
historical accounting and finding all of the documents that 
would support those transactions. That basically would have 
cost about $2.4 billion to do all of that accounting. We then 
revised that in the report that we gave to you, and the basis 
for our budget is to use statistical sampling on smaller 
transactions, as opposed to going through transaction by 
transaction.
    We will still look at all of the transactions over $5,000 
individually and in certain other categories of transactions 
and account for those in a detailed way. The others we would 
propose to use statistical sampling.
    Senator Burns. Do you see an end to this?
    Secretary Norton. Our plan would basically have us complete 
all of that accounting in 5 years. That would basically be a 
$335 million project over that time to complete that 
accounting. At that point, we would have what we view as a 
definitive answer as to how much those books might be off.
    Senator Burns. Looking at it from this perspective, we do 
not see an end to it. Either that, or we are not getting the 
right signals, or I am not smart enough to figure it out. 
Probably a combination of the two. It seems to me that this is 
something we do not know how we got into, and we have had very 
few answers on how to get out of it, until you came into 
office. I congratulate you on your commitment to straighten 
this out. I hope you have enough time to see it through to its 
completion.

                             INDIAN SCHOOLS

    I want to ask you about the situation with the Indian 
schools. I know the President cut some funds out of Indian 
education. Then the subcommittee put them back in, especially 
this past year, we put $1.7 million back into Indian education. 
Can I get an answer to why--the enacted 2003 level was 
functionally $1.7 million over the 2002 level after an across-
the-board reduction? That sounds confusing, but I guess up here 
people can walk their way through that.
    Despite the increase, Title I TTCs are faced with an $8-
per-student reduction. The BIA split the reduction as follows: 
Approximately 23 percent of the total increase allocated to the 
Dine College due to Dine stance as a Title II, which is a 
boarding school; this amounted to an increase of approximately 
$60 per student. The Title I schools also sought an enrollment 
increase of approximately 300 Indian students. As a result, the 
remaining, to be put into the formula for Title I schools, 
resulted in a decrease of $8 per student in fiscal year 2003.
    I would like to know how we come up with those kinds of 
figures. Can anyone respond to that? John, can you enlighten 
us?

                      DIFFERENT FUNDING CATEGORIES

    Mr. Trezise. Senator Burns, your figures are correct. This 
is a situation that arises from the authorizing legislation 
which authorizes two categories of colleges, which are funded 
on the basis of different formulas. In addition to the colleges 
authorized in the TCC Act, we have two colleges which have 
traditionally been funded by the Congress outside of the Act, 
which are funded on yet other basis. So we have four different 
funding levels on a per-student basis.
    This is a situation, I think, that does warrant some 
consideration. Specifically with respect to 2003, though, your 
figures are correct. But I would point out that of the increase 
of $1.7 million over the 2003 enacted level, or $3.6 million 
over the President's budget, 77 percent was devoted to the 
Title I colleges. This is an increase over the President's 
budget of about $2.7 to $2.8 million.
    The per-student funding went down, despite that increase, 
because the number of students which we were expecting, which 
we actually have in school this year, in 2003, is higher than 
the student level in 2002.
    Senator Burns. It sounds like we are going to have to 
change the way we fund our colleges. I do not like the idea of 
being discriminatory one against the other. And when we try to 
do the overall good for everybody, it seems like we have not 
attained that degree of fairness.
    Senator Dorgan.
    Secretary Norton. Mr. Chairman, anticipating a question 
from Senator Dorgan, since this is all on the same topic, we 
have had some discussions previously as to the United Tribes 
Technical College. I have asked the Assistant Secretary for 
Indian Affairs, the acting Assistant Secretary, to work with 
you all. It may be appropriate to bring that college into the 
same funding category, which it is my understanding would 
require a statutory change, as well as the Crown Point 
Institute of Technology, which is the other one that has 
usually been independently funded.
    I am not familiar enough with the rest of the differences 
in the funding, but this might make sense as a time to try to 
wrap all of that into an examination of the authorizing basis 
for those appropriations.
    Senator Burns. I think you have a point. I am not versed 
enough in exactly how those stages are funded, or in what 
categories they fall. So I will have to do a little looking 
into this. It seems unfair that funds dedicated to community 
colleges found on reservations are increased or restored. And 
then what we receive per student decreases.
    I have an idea that we might have been remiss in not 
identifying where those funds were to go. So it seems that the 
``haves'' got, and the ``have nots'' got less. I find that 
inherently unfair.
    Senator Dorgan.

                            INDIAN EDUCATION

    Senator Dorgan. Mr. Chairman, thank you very much.
    Again, Secretary Norton, thank you for being here. Let me 
start on the point that the chairman finished with; that is, 
Indian education. First of all, I think tribal colleges are 
remarkably successful. Let me tell you about--since we take a 
lot away from these hearings, I want you to take something away 
in terms of an anecdotal story about Indian colleges.
    There is a young woman in North Dakota named Loretta that I 
have known for a good many years. Loretta Delong is her name. 
And she lived in a two-room log house on an Indian reservation. 
She stuttered. She was painfully shy, wore hand-me-down 
clothes. She was called a savage at school. And she wondered, 
you know, what it would take to be noticed. She reached the 
seventh grade. She got into all kinds of trouble. She dropped 
out of school, had a child, was involved in substance abuse. 
And she is now a Ph.D. When I see Loretta, I call her Dr. 
Delong.
    She got her life turned around and is a remarkable 
contributor to the Indian reservation on the Turtle Mountain 
Reservation. And it happened because of tribal colleges, the 
availability and opportunity for people to go to college and 
have their extended family be involved in childcare and all the 
things that allow somebody to get up and out and do something 
for themselves.
    There are many other stories. I simply mention Loretta 
because she is happy for me to do that, and I am proud of what 
she has done.

                        TRIBAL COLLEGES FUNDING

    It just makes no sense to me to be reducing the funding for 
tribal colleges at a time when we are already substantially 
short of the support per student that exists in the rest of the 
country. The Tribal College Act authorizes funding of $6,000 
per full-time Indian student. It has currently funded about 
$3,900. That is 45 percent below the $7,180 spent by the non-
Indian community colleges. So these colleges are already 
underfunded. And this is just a recommendation that we will 
have to change, I believe.
    With respect to your point about Crown Point and United 
Tribes, it would not make much sense to me to put them into the 
rest of the tribal colleges, if the other batch is already 
underfunded. For almost a quarter of a century, we have 
provided funding for Crown Point and United Tribes, which are 
unique tribal technical colleges that serve, in the case of 
United Tribes, dozens of States' American Indian populations.
    So, I mean, the suggestion that we should put them in with 
the rest of the tribal colleges does not make sense. What is 
suggested here in the budget is let us de-fund United Tribes 
and then let us cut the other tribal colleges. My guess is you 
will say: ``Well, this is a matter of choice and priorities.'' 
But would you not agree that this should be a priority, tribal 
college funding should and must be a priority, and cutting them 
at this point, when they are so far below the support that is 
given to non-Indian community colleges, that that is not a fair 
recommendation?
    Secretary Norton. Senator, if I can point out a few things. 
First of all, the tribal college funding has increased by over 
62 percent since 1993, while the enrollment has increased by 11 
percent. So there is certainly considerably more funding than 
there has been in the past. The funding for tribal colleges was 
increased by $3.6 million in the 2003 Appropriations Act, but 
our budget was formulated before that final congressional 
action. So it does not reflect that 2003 increase.
    Senator Dorgan. Would you support that increase? If the 
budget were formulated now, do you think that would be 
included? And would you support that?
    Secretary Norton. We have a couple of different things 
going on here. One is the base level of funding for that. We 
are certainly interested in working with you all for next year 
on improvements needed in our funding structure, to work on 
that approach with you.
    The other issue has been those items that have been 
earmarked from outside any authorization. That causes problems 
for us and will continue to cause problems, as I have said. It 
is much more difficult for us to fund something that does not 
have any standards, does not have a program, is simply an add-
on to our other programs. There is no way of evaluating whether 
that is treating fairly those particular colleges in comparison 
with other colleges.
    Senator Dorgan. Yes, but you----
    Secretary Norton. We would certainly like to see something, 
and we would be very happy to work with you on something that 
would look at those on a more across-the-board kind of basis.
    Senator Dorgan. But I do not understand that. These are--
for example, United Tribes Technical College is easily 
accredited, identified by all as a remarkable institution, 
visited by yourself and by the head of the Bureau of Indian 
Affairs. I mean, I have never heard anyone suggest this is not 
worth funding. So I understand your point about ``Let's make 
sure that we are always funding things that work,'' but there 
has never been a question that I am aware of that this is not, 
both this and Crown Point are not, good educational 
institutions. So de-funding them just makes no sense to me.
    Secretary Norton. It is a question of trying to prioritize 
our funding. And, you know, we have increased funding for 
elementary and secondary schools. We have a $16 million 
increase enacted over there. These are good programs. We do 
continue to support the funding of the tribal college programs. 
We have had to make some tough choices this year with, as you 
all have mentioned, the increased funding that we needed for 
historical accounting for Indian trust programs.

                      WILD HORSE AND BURRO PROGRAM

    Senator Dorgan. But you know what? In terms of priorities, 
I was just looking here, we have $31 million for the wild horse 
and burro management program, including Adopt-a-Horse. So $31 
million for that and $39 million for all the tribal colleges in 
America? I mean, I am not sure I understand that.
    In terms of choices, I want us to make good choices and 
right choices. And it is not the right choice to de-fund United 
Tribes Technical College. And it is not the right choice to 
come in with a funding recommendation that is below what the 
tribal colleges received last year. There is bipartisan 
support. Senator Domenici is not here, but you know he would be 
more aggressive than I am even on these issues. And I know the 
chairman feels the same way.
    So I understand your point about choices, but it is very 
important to make the right choices. And I think Indian 
education is very important.
    Senator Burns. Do you want to switch that money from the 
burros over to schools?
    Senator Dorgan. Well, I tell you what I am going to do. I 
did not even know about the program until I was reading last 
evening. I am trying to go through. This is a big agency, as I 
said. You have quite a job, a lot of things. And I was not 
aware that the wild horse--I knew we had a wild horse and burro 
management. I also knew that we had an Adopt-a-Horse program. 
But I did not know we spent $31 million on it. And I do not 
know how many horses there are, but I am going to divide the 
number of horses into the $31 million to find out how much per 
horse we are spending. Because I used to raise horses. My dad 
used to raise horses. And, in fact, the program in here talking 
about gentling horses, I do not think anybody in Montana has 
ever uttered that, nor have we in North Dakota. You do not 
gentle horses; you break horses. I would like to know what they 
are spending on gentling horses, because we have some young men 
and women in North Dakota who will do that pretty cheaply and 
do it pretty well. And I suppose in Montana you have some as 
well.
    But at any rate, my point is not to--I love horses. I have 
not been around burros much, so I cannot profess any love for 
burros. But I do want to find out how much per animal we are 
spending here and how we are spending----
    Senator Burns. I saw one on your jacket the other day.
    Senator Dorgan. Is that right?
    They call it donkey where I come from.
    Senator Burns. Oh, yes.

                  NORTHWEST AREA WATER SUPPLY PROJECT

    Senator Dorgan. It would not be fair to you if I did not 
mention the NAWS funding. That is not the province of this 
subcommittee, but it is in your agency. And you will appear 
before another subcommittee of mine on this. But as you know, 
the folks in Minot, North Dakota, and northwestern North Dakota 
are really upset, and that is a mild way of saying it, upset 
about the proposal not to fund NAWS.
    We have had the groundbreaking. Construction is under way. 
And the proposal is to stop that by, I understand, the Office 
of Management and Budget with a new program. It is called PART, 
I believe it is. Is it PART? And I am not doing this--what does 
PART mean?
    Secretary Norton. Program Assessment Rating Tool.
    Senator Dorgan. Right. I am involved in a formal program 
assessment rating of the Office of Management and Budget. And I 
have just a preliminary estimate of that. And it really does 
not look good for OMB.
    But no one has suggested, for example, that the NAWS 
program, which is, as I said, under construction, is anything 
other than a stellar program and the continuation of a promise 
that was made to the people of North Dakota as a result of 
being willing to host a half-a-million-acre flood that came and 
stayed. And then just out of the blue we discovered this de-
funding because of PART, I believe, from OMB. So tell me again, 
how does OMB justify recommending we not fund this program?
    Secretary Norton. There are several factors that went into 
their rating tool. One of the things that they looked at was 
the difference between the number of people served per million 
dollars under this program compared to other Federal agency 
programs. They found that the Bureau of Reclamation, on 
average, serves 363 people per million dollars, whereas the 
USDA program serves almost 1,800 people. EPA serves almost 
1,700 people. So that was one of their concerns as to why 
Interior's program was different than those other programs.

                RURAL WATER PROGRAM LEGISLATIVE PROPOSAL

    We are moving forward to address some of the problems that 
were identified in terms of lack of goals and consistency in 
the program. We do have underway a legislative proposal being 
developed that would establish a reclamation rural water 
program with adequate controls and clear guidelines for project 
development.
    It would provide a two-pronged approach that involves 
pursuing new general authority for reviewing, planning, 
prioritization, and construction of rural water projects, 
combined with administrative measures that would improve the 
program. It would eliminate the piecemeal approach that we 
currently experience. As we have discussed previously, there is 
no overarching rural water program that the Bureau of 
Reclamation has through which we have standardized funding or 
standardized approaches. That was one of OMB's concerns, that 
we try to put that in place instead of doing piecemeal 
projects.
    This legislative proposal would provide that type of 
overarching program. It would allow the Department and the 
administration to set priorities and control the process and 
would thereby limit the problems that were identified by OMB. 
It would also involve other interested parties in the planning, 
design, and construction of rural water supply projects.
    Although this is still in the formative stages, we will be 
happy to work with you on further developing that overarching 
program.
    Senator Dorgan. Well, let me understand this because when a 
project is underway or under construction, and the 
groundbreaking has taken place and, therefore, we have a 
project under construction, it seems to me you stop that 
project only if you believe that project is not worthy. Is the 
administration suggesting that the NAWS project is not a worthy 
project?
    Secretary Norton. The evaluation that was done was based on 
identification of goals and seeing whether we were meeting the 
goals of the project. It is the same kind of evaluation that is 
taking place on Federal programs across the board. Based on 
that approach, OMB found that this particular program fared 
more poorly than other programs. They made the choice to put 
the funding into the programs that did better in this kind of 
an approach.
    Senator Dorgan. But the distinction here is you are using 
the word ``program,'' not project. The OMB described this 
program as not meeting certain goals. It made no such judgment 
about this project. Is that not correct?
    Secretary Norton. This was based on, as we said, an overall 
assessment of the effectiveness of this rural water project or 
several rural water projects. It combines with an evaluation of 
those in comparison to other departments' similar programs.
    Senator Dorgan. Has Governor Hoven talked to you about this 
issue?
    Secretary Norton. Yes, he has.
    Senator Dorgan. It is interesting to me, if you look at the 
map, about where these cuts came. I will talk to you more about 
that in the other subcommittee. But I am still not 
understanding. I guess you are saying something to me that is 
different now than what you said when you testified before the 
Energy Committee. I think you are saying----
    Secretary Norton. I am saying we have made progress in 
getting some of these problems resolved.
    Senator Dorgan. At which point would you then recommend 
continuing funding of a project that is under construction?
    Secretary Norton. Once we get this in place, we would be 
focusing on fiscal year 2005 and working with you on getting 
legislation put in place and then work on funding things on 
that legislation.
    Senator Dorgan. So the administration's recommendation is 
that even if this project is finally determined to be worthy, 
that we should delay it for a year?

                       PROGRAM ASSESSMENT RATING

    Secretary Norton. The findings of the program assessment 
rating are that we need to look at those programs that are 
working, that are providing what they are supposed to provide, 
and to fund the things that are working. And this, by having 
come out low on that rating, by not having clearly-defined 
goals, means that we are going forward with something that is 
not coming out as high on providing value to the taxpayers.
    Senator Dorgan. But let me just--Mr. Chairman, I do not 
know what your time situation is, but I do want to just finish 
this point.
    You know, Montana and North Dakota did not rush to 
Washington to ask if we could host some floods in reservoirs 
and so on. I mean, we did not beg Washington to have a Rhode 
Island-sized flood come in North Dakota and stay there forever. 
Washington asked us to be the host to a permanent flood of half 
a million acres. So they built the dam, and we have a permanent 
flood.
    They said: ``In exchange for that, we will give you some 
benefits.'' And, I mean, we would be crazy to say: ``Well, 
bring this flood. And by the way, it will be no cost. We will 
just lose half a million acres of land,'' good bottom land, by 
the way.
    But the Federal Government said: ``No, no. We will give you 
some benefits.'' And we said: ``All right. That is a fair 
trade,'' except we got the flood but never quite got all the 
benefits.
    The NAWS program, the Northwest Area Water Supply, program 
is part of that. And for anybody to suggest to me that because 
there are fewer people in North Dakota that it somehow does not 
quite measure up, I mean, I think that is nuts. If that is what 
OMB is saying, I am sorry, tell them to go back and read a 
little history. We know we do not have as many people as New 
York City does, but we know what the promise was. And the 
people in North Dakota deserve good quality water.
    Here, incidently, is a sample of the water. And some of it 
looks like coffee. This is actually a little better looking. 
But this is the kind of water we are trying to replace with the 
NAWS program. And we do not want to wait another year, and we 
are not going to wait another year. And I think what OMB has 
done to us is a disaster. I mean, there is no excuse for what 
the Office of Management and Budget has done. We want this 
funded. We want it funded now. And we do not want to wait a 
year. And I do not want somebody telling me they are going to 
change the rules after we have already begun construction and 
after the promise has been made.
    So you and I will have other discussions about it. But you 
are probably just required to defend OMB and defend this 
budget. But I hope you know that what has happened in this 
budget, at least with respect to this project, is fundamentally 
wrong. And it is unfair to the people of North Dakota, who have 
been told this project is going to help them get a good supply 
of quality water.
    One additional point--do you want to respond to that?
    Secretary Norton. I think we have had a number of 
conversations about this. So----
    Senator Dorgan. And we will talk again in the other 
subcommittee.

                                OVERHEAD

    But one other point: I am very interested in pursuing with 
a range of agencies the issue of how much in each agency is 
represented by ``overhead.'' And that comes from a 1993 
Presidential directive that asks all Federal agencies to 
determine what their overhead was. Almost no Federal agencies 
have complied with that. And I have been involved with some 
others in trying to make sure that we do force Federal agencies 
to comply.
    The reason is simple. If we have to tighten our belt, and I 
believe we do, I believe we are going to have to cut some 
Federal spending. If we do that, I would prefer that we begin 
to cut where businesses would cut. The first thing they would 
cut is some overhead, some travel, some administrative burden. 
But the fact is we cannot get at that in any of the Federal 
agencies because they do not determine what their overhead is.
    I would like, at least in this subcommittee, to ask you to 
work with us to try to, for this agency, comply with the 
Federal direction of 1993, which has not been complied with. 
And I am not blaming your agency, because no agency has 
complied with it. But I hope that we can work together to 
understand what is the overhead burden, what is the 
administrative overhead burden, in these agencies, your agency 
and the various component parts of your agency.
    I think it is important because, Mr. Chairman, as we begin 
taking a look at funding levels, I would much prefer that we 
fund critically needed programs such as Indian colleges, rather 
than fund overhead that could well be cut in lean or in tough 
times.
    Secretary Norton. Senator, if I could say, that is a very 
good question to ask. And it is something that has, frankly, 
been frustrating for us as well. When you come in and say, 
``Okay, here is the box of a program. Can't we look within that 
box and figure out what is being spent that really does not 
need to be spent?'' The way our accounting is currently 
operating throughout most of the Department, we really cannot 
see how much is actually spent on particular types of things.

                         ACTIVITY BASED COSTING

    We are now moving towards something called activity-based 
accounting or activity-based costing that will let us 
understand that. And it will require each of the bureaus to say 
not just ``We budgeted for this program and we spent it all,'' 
but ``Here is what we spent on travel. Here is what we spent on 
printing. Here is what we spent on litigation,'' all the 
different categories of expenditures.
    That is something that is currently in place for the Bureau 
of Land Management, and we are getting it into place for our 
other bureaus. I think that will be very helpful for all of us 
in trying to better manage.
    We have also just implemented an across-the-board cut in 
travel expenditures. So we are addressing some of those things.
    Senator Dorgan. All right. Well, Madame Secretary, I am not 
perpetually crabby. It is just that I feel very strongly about 
tribal colleges, UTTC, about NAWS and some other issues. And I 
look forward to working with you on these issues. And can we 
work together to find out what we spend per horse and per mule, 
just for fun?
    Senator Burns. You are not going to like that figure.
    Senator Dorgan. Actually more than just for fun. I think we 
ought to know that, just as policymakers.
    Secretary Norton. We will provide that information for you.
    [The information follows:]

                      Wild Horse and Burro Program

    For 2004, the BLM budget proposes $29.4 million to manage a wild 
horse and burro population estimated at 57,000. This would represent a 
cost-per-animal average of $516 per year. This total population 
estimate includes 38,000 on the open range, and 19,000 in what BLM 
refers to as the ``National Pipeline'', including 10,155 in 
sanctuaries, 4,656 in maintenance facilities, and 4,303 in preparation 
facilities. The budget supports such activities as monitoring 
populations on the open range, gathers, holding costs, adoption 
activities, and compliance checks.

    Senator Burns. You are not going to like that horse figure. 
I will tell you that. We have been involved in that over in 
Montana. As you know, some of those wild horses and burros come 
from that part of the country. And I will tell you, it is 
something. I have some special projects in Montana.

                         POWDER RIVER BASIN EIS

    We have an 11:15 conference coming up, Madame Secretary. 
And I want to make that, I think all of us are involved in this 
budget thing. Though, there are a couple of questions I want to 
ask. We have been following the multi-year effort by the BLM on 
the environmental impact statement in the Powder River Basin. 
This has to do with coal bed methane. We want the EIS to be 
completed in a comprehensive and responsible way. Could you 
update us on the status of that EIS? And when can we expect any 
kind of a record of decision?
    Secretary Norton. Mr. Chairman, it is my understanding that 
that is expected to be completed later this month.
    Senator Burns. I assume you have all the resources that you 
need to complete this and to get it off the board?
    Secretary Norton. We have requested increases in this 2004 
budget proposal for taking care of that, including inspection 
and monitoring.

                        STEWARDSHIP CONTRACTING

    Senator Burns. Let me also ask you about standardizing the 
Forest Service and Department of the Interior stewardship 
programs. Will you be using the same book in your procedures, 
and everything else in the stewardship contracting? Tell me how 
that is coming along.
    Secretary Norton. We have had a great working relationship 
with the Forest Service throughout our fire program. It is my 
understanding that that is nearly completed to get the program 
that the Forest Service has already been operating tuned so 
that it can also accommodate our Department of the Interior 
needs.
    Senator Burns. Will you be offering some stewardship 
contracts this year?
    Secretary Norton. We certainly expect to be doing that very 
quickly. In fact, can I let Lynn Scarlett respond to that? She 
has been involved very directly in our fire management program.
    Senator Burns. Please.
    Ms. Scarlett. Yes, Mr. Chairman. We are working with the 
Forest Service and all our land management agencies to develop 
the operating guidelines and principles for the stewardship 
contract. We expect that to be completed this month. That will 
give us the basis from which to move forward on contracts right 
away. So yes, it is very much in our plans.
    Senator Burns. In the areas where you have large 
concentrations of forest lands, rather than grazing lands, do 
you have any kind of assessment of what kind of fire season you 
are looking at? And conditions, how are you looking in that 
respect? Give Congress an idea of some of the challenges that 
we may have to meet later on this summer.
    Ms. Scarlett. Well, I have copies of the recent drought 
maps. We get these every week. And I feel very optimistic, 
because the drought map in the last couple of weeks has 
improved dramatically over where it was in early March. 
Unfortunately, in preparation for this hearing, I looked at the 
drought map for this year in comparison with the drought map 
for last year. We are generally much worse across the western 
United States than we were last year. And especially in your 
area of Montana, we see a tremendous drought that is now a 
multi-year drought. So we are very concerned.
    Senator Burns. We are in a different weather pattern up 
there. We are hoping that June will bring the normal--where we 
have a little more snowpack than we had a year ago, I can tell 
you that. Our rains and moisture have been a little bit better 
this spring. We just hold our breath and make sure our Junes 
turn out the way traditional Junes do, and we will be okay.

                   ZORTMAN/LANDUSKY MINE RECLAMATION

    In another area, I know you are aware of the Zortman/
Landusky Mine reclamation in north-central Montana. The State 
of Montana holds approximately $60 million in bond for 
reclamation. But the BLM and State DEQ joint SEIS recommends 
reclamation exceeding this bond of approximately $33 million 
over that bond number. $11 million is still needed to 
supplement a trust, ensuring the water treatment facilities. It 
can be operated in perpetuity.
    It is my understanding that the Montana BLM office 
identified this project as a top priority and requested 
increased funding in its fiscal year 2003 and fiscal year 2004 
budget to address these reclamation needs. Additionally, this 
committee directed the Bureau to consider the project in the 
formulation of the 2004 and 2005 budget requests. Why did the 
Department not include this request in its final proposal in 
the 2004 budget? And can you identify funding for your current 
budget request to support these activities? In other words, are 
you going to put some money into this?
    Secretary Norton. Let me defer to John Trezise. But I think 
we will have to get the detailed answer for you in writing.
    Senator Dorgan. Mr. Chairman, before he answers, I have to 
run off to the Energy Committee markup.
    Senator Burns. Okay.
    Senator Dorgan. So let me thank the Secretary and the 
Secretary's staff for being here.
    Secretary Norton. Thank you.
    Senator Burns. Thank you. Thank you, Senator Dorgan. 
Appreciate it. You can vote for me.
    Senator Dorgan. I will do that. Careful what you ask for.
    Senator Burns. All right.
    Mr. Trezise. Senator Burns, this is a very difficult 
problem and obviously one where a great deal of work is needed 
to restore the Zortman/Landusky site and address the water 
quality problems associated with the site. Work is currently 
ongoing, of course, using the bond that was posted by the 
mining company. Unfortunately, the bond is not adequate to 
cover all costs, especially the long-term costs. The water 
monitoring costs we will face for many decades.
    As you say, the Montana office did recommend significant 
funding in the 2003 and 2004 budgets for this project. We at 
the Department and the Bureau headquarters are working with the 
Montana State office to look at all the options about how we 
can address this issue, both in the short term and, more 
importantly, in the long term, which is where the bond money is 
really going to be a problem. I think it would be useful for 
the Bureau to come up and talk to you later in the spring about 
the progress they have made in looking at options.
    Senator Burns. Well, we look forward to that visit. Also, I 
was talking to the tribal leaders at Fort Belknap, and they 
want to have a meeting with you. They have not been able to 
secure one, Madame Secretary. I would suggest you sit down with 
the tribal leaders at Fort Belknap, go through some of the 
concerns they have. Because they are in that drainage area off 
of Zortman, not only on water, but also on land issues. I would 
like for you to meet with them, if you possibly could.
    Secretary Norton. I will try to make sure that somebody who 
is familiar with the issues and can actually perhaps address 
them better than I can is able to meet with them.
    Senator Burns. I would suggest you sit in on the meeting, 
but take your experts with you. That is the way we do things, 
just a little hint.
    Okay. We have more questions for you, and I am going to put 
those in letter form. We would like to have a response.
    We are looking at the overall funding. And, of course, we 
do not know what is going to finally come out of the budget. 
But we hope to have a budget. That is what that conference is 
about at 11:15 today. We are going to talk about Going to the 
Sun Road in Glacier Park, and also some Forest Service, and 
stuff with fuel loads on our forest floors.
    There is a reauthorization of the SMCRA activities, Surface 
Mining Control and Reclamation Act. And, of course, surface 
mining and State regulatory grants. We will put these in 
question form. We will need your response before we finally go 
to final markup on the Interior side of this bill.
    Secretary Norton. We will be happy to provide you that 
information.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Burns. Okay. We appreciate you coming this morning. 
And we will leave the record open for questions, from other 
committee members.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Conrad Burns

                         SMCRA REAUTHORIZATION

    Question. The authority of OSM to collect the abandoned mine 
reclamation fee established under the Surface Mining Control and 
Reclamation Act (SMCRA) expires on September 30, 2004. Many states out 
West have paid a great deal in these fees which go into the Abandoned 
Mine Reclamation fund abut have not received back anywhere near what we 
put in. For example, Montana has paid in over $266 million but has only 
gotten back about $100 million.
    What is the Administration's position with respect to extending the 
authority to collect this fee?
    Answer. The Administration is seeking to extend fee collections 
beyond September 30, 2004. We think that additional funds are necessary 
to address the many remaining health and safety problems threatening 
our citizens who live and recreate in coal country. OSM hopes to craft 
a proposal that will concentrate funding on the highest priority 
abandoned mine land problems affecting the largest number of people. We 
have been working with our stakeholders (the States and Indian tribes, 
as well as environmental groups, industry and members of Congress) to 
develop an extension proposal.
    Question. If you propose to extend SMCRA, does the Administration 
support keeping the fee the same or will you propose increasing it?
    Answer. The President's Budget assumed the extension of the fee at 
its current rate. However, we continue to refine the proposal.
    Question. Will there be anything in the proposal to deal with 
states that have paid in a great deal but have not gotten much back?
    Answer. The Administration is reviewing several options for paying 
out AML funds to the States. States which have certified the completion 
of coal mine land reclamation, like Montana, are of particular concern 
to us. Our records show that as of September 30, 2002, over $275 
million in AML fees has been collected from mining operators for coal 
mined in Montana. Under SMCRA, 50 percent of those collections, or over 
$137 million, are State Share funds targeted for projects in Montana, 
of which $95 million has been distributed to the State of Montana for 
grants. The remaining State share balance of $42.5 million is a 
concern, and we hope to find ways to provide the payment of such funds 
to Montana and to the other certified States.
    Question. When will the Administration send its proposal to 
Congress?
    Answer. We're working diligently to develop recommendations for 
Congress. We hope to have something ready by mid-summer.

                        STATE REGULATORY GRANTS

    Question. As you know, the Office of Surface Mining provides grants 
to states on a 50/50 cost share basis to regulate mining in their 
states. This is a good deal for the Federal government, since if the 
states did not regulate surface mining the Federal government would be 
required to do it and pay 100 percent of these costs. I see that the 
budget request for this activity is $57.6 million but that the states 
asked for $64.4 million.
    If we don't fund the full amount asked for by the states will it 
lead to any serious problems such as legal challenges to state programs 
based on their inability to carry out their regulatory requirements?
    Answer. The amount requested in the President's Budget is a slight 
increase from fiscal year 2003, and OSM believes that the requested 
total will be sufficient to assist the States/Tribes. OSM is concerned 
about the States and Tribes having adequate funding to meet their 
requirements and will work with each individual State and Tribe to 
ensure that their program needs are met. OSM will continue to closely 
monitor the State programs, and State and Tribal funding requests and 
expenditures, to identify and resolve any concerns.
    Question. Do you expect that any states will turn the regulatory 
program back over to the Federal government due to lack of funding?
    Answer. OSM is not currently aware of any specific State or Tribe 
seriously considering giving up regulatory primacy due to lack of 
funding. We agree that it is possible that if funding were inadequate, 
States might pursue this option. As previously mentioned, OSM will 
continue to work with each State and Tribe to ensure that their 
regulatory program needs are met.
    Following the release of the NRC report, the agencies agreed to 
form a standing technical team to address issues of mutual concern, 
particularly those related to coal slurry impoundments. The group will 
focus on NRC report recommendations related to mapping, engineering and 
design standards, and monitoring requirements. Additionally, the 
agencies have discussed the other recommendations of the NRC committee 
and have identified priorities for future work. The standing joint OSM-
MSHA technical committee will begin addressing particular actions 
needed to implement the NRC recommendations at its July 2002 meeting. 
As these efforts are ongoing, neither OSM nor MSHA have yet developed 
any regulatory proposals or guidelines based on the NRC report. 
However, as the joint team's work progresses, one or both of the 
agencies may develop additional requirements for impoundments.
    At the same time, OSM is committed to working with the states and 
others on these issues as well. OSM and MSHA plan to host a meeting 
between representatives of the two agencies and the states to discuss 
their role in developing standards and approaches to implement any new 
requirements.
    Not only is OSM working with MSHA, the states and other federal 
entities, OSM is working on its own to address concerns surrounding the 
safety of coal waste impoundments. After the Martin County Coal 
Corporation impoundment failure, OSM developed and implemented a 
regional plan designed to minimize the potential for future impoundment 
breakthroughs into underground mines by:
  --evaluating the factors contributing to the Martin County 
        impoundment breakthrough,
  --developing criteria for evaluating existing high-risk impoundments 
        near underground mines,
  --evaluating state program requirements and program implementation 
        with regard to impoundments, and
  --ensuring effective state evaluation of existing high-risk 
        impoundments through oversight and technical assistance.
    As part of its oversight responsibilities, OSM has made 
impoundments a priority by initiating ongoing evaluations of state 
programs to ensure that they are adequate and that they are effectively 
implemented. A part of this effort includes a determination of whether 
the states are effectively evaluating existing high-risk impoundments, 
identifying problems, and adequately addressing those problems.
    In providing technical assistance on this issue, OSM has made 
resources available to the states to assist them in their identifying 
and evaluating existing impoundments that are of high concern. In 
addition, using its impoundment engineering expertise, and with input 
from states and MSHA, OSM has developed a technical guidance document 
with established criteria that can be used in re-evaluating existing 
high-risk impoundments over or adjacent to underground mines. OSMS 
provided this document to the states in July 2001.
    Finally, OSM has worked to facilitate communication between State 
and Federal agencies involved in regulating coal slurry impoundments 
and related facilities. Through enhanced communication, coordination 
and cooperation, OSM believes that many of the issues related to coal 
waste impoundments can be resolved.

                          MMS ROYALTY-IN-KIND

    Question. I see that MMS has greatly expanded its use of the 
Royalty-In-Kind authority. Currently, over 80 percent of the oil 
production from the Gulf of Mexico is taken ``in kind'' in order to 
fill up the Strategic Petroleum Reserve (SPR).
    How long will it take for MMS to fill up the SPR?
    Answer. The SPR Fill Initiative is a joint project of the 
Department of Energy (DOE) and the Department of the Interior (DOI) to 
fill the remaining capacity of the SPR utilizing RIK oil from Federal 
leases in the Gulf of Mexico. For the majority of RIK oil committed to 
the SPR Initiative, the DOI is responsible for supply side logistics of 
taking the oil RIK at offshore leases and accomplishing delivery of the 
oil to the account of the DOE at onshore market centers. The DOE is 
responsible for taking onshore custody of the RIK oil and, through 
exchange contracts, accomplishing the actual delivery and physical fill 
at the SPR sites. Approximately 10 percent of RIK production is 
directly transported from offshore leases to the DOE at an SPR site.
    At current RIK delivery rates, the MMS expects to complete the RIK 
oil supply side deliveries to the DOE's account by the end of fiscal 
year 2005. However, the completion of supply side deliveries could be 
delayed somewhat due to interruptions of production caused by 
hurricanes and pipeline operation issues or by declines in physical 
production at the leases.
    Question. After SPR is filled, does the agency plan to continue to 
take the bulk of its Gulf of Mexico royalty production ``in kind'' 
rather than ``in value?''
    Answer. The MMS has adopted an asset management strategy in 
administering mineral revenues. A key aspect of this strategy is the 
strategic utilization of two asset management options--royalty-in-value 
or RIK--for the purpose of increasing benefits to the Government. One 
of the important determinants in making the decision on which option to 
utilize is the opportunity to increase revenues to the Treasury. 
Because the oil markets play an important role in the economics of the 
decision making process, it is difficult to forecast how much of the 
Gulf of Mexico oil royalties will be taken in kind in fiscal year 2006. 
However, the MMS will be well positioned to continue to have a 
significant RIK program in the Gulf of Mexico that includes small 
refiners and competitive sales.
    Question. Since taking the royalty ``in kind'' eliminates, for the 
most part, questions over how to value the oil, does the agency believe 
that expanding the RIK program makes sense over the long term?
    Answer. The results of the current RIK program to fill SPR have 
been positive from the standpoint of taking oil in kind. However, we 
have not traded this oil for value on the open market. Therefore, we 
don't know if we can increase revenues to the Treasury. We continue to 
evaluate the RIK efforts; if the results continue to be positive, we 
believe there is a good future for the RIK program.

                   OIA/STATUS OF COMPACT NEGOTIATIONS

    Question. The current Compact of Free Association between the 
United States and the Marshall Islands and the Federated States of 
Micronesia expires at the end of this fiscal year. Negotiations have 
been going on for some time regarding a new Compact between the 
parties. Once these negotiations are concluded Congress will need to 
pass legislation to put the new Compact into effect. I am concerned 
that time is running out to get this legislation through the Congress 
by the end of the fiscal year.
    When will parties reach agreement on a legislative package that 
will be sent to the Congress?
    Answer. The State Department has generally reached agreement with 
the freely associated states and, in fact, a signing ceremony was 
concluded with the Republic of the Marshall Islands. The package has 
been transmitted to Congress.
    Question. Does the Administration have a plan if there is further 
delay and the new Compact can't be enacted by Congress before the end 
of the fiscal year?
    Answer. While it is not considered a good alternative, the 
Administration is prepared to deal with such an eventuality. There is 
sufficient budget authority in the President's fiscal year 2004 
proposal to work with the Congress on various options. In developing 
these options, it is extremely important to the Administration that the 
essence of the new agreement, including greater accountability and more 
targeted use of U.S. assistance, be incorporated. It is also important 
to the Administration that options deal with the problem of impacts to 
U.S. insular areas and, finally, that any considered options not be 
viewed as a disincentive to the quickest possible implementation of the 
new agreements.
              fws/consultation on fuels reduction projects
    Question. A critical part of the National Fire Plan is the effort 
to reduce hazardous fuels on our forests and rangelands. Many of these 
projects require consultation with the Fish and Wildlife Service under 
the Endangered Species Act before they can be implemented. In order to 
ensure adequate resources to accomplish this work, the Committee gave 
the Forest Service and other Interior Department agencies the ability 
to transfer fire funds to the Fish and Wildlife Service for 
consultations on these projects.
    How is this effort proceeding?
    Answer. The Service developed a cooperative agreement with the 
Bureau of Land Management shortly after passage of the fiscal year 2001 
appropriations bill to provide reimbursement for any consultation 
support provided to DOI bureaus in support of the National Fire Plan. A 
similar agreement was executed with the Forest Service shortly after 
passage of Public Law 107-13. Beginning in fiscal year 2001, the Fish 
and Wildlife Service recruited approximately 65 temporary/term 
employees to support an anticipated consultation workload increase 
associated with the National Fire Plan. The highest priority work for 
these new employees is to provide ESA consultation support to the 
Forest Service and DOI fire management agencies.
    Question. Has the Fish and Wildlife Service put in place adequate 
resources to ensure that fuels reduction projects receive their 
consultations in a timely manner?
    Answer. Yes. The biologists hired in fiscal year 2001 and 2002 to 
provide consultation services to the fire management agencies have been 
sufficient to respond to the consultation workload generated by 
projects supporting the National Fire Plan. We are not aware of any 
significant delays to National Fire Plan projects that were caused by 
section 7 consultations; however, some non-National Fire Plan projects 
may have been delayed as a result of the Service diverting consultation 
resources to National Fire Plan projects. On June 5, 2003, we proposed 
Joint Counterpart Endangered Species Act Section 7 Consultation 
Regulations to help streamline the National Fire Plan consultation 
process and increase the Service's capability to help focus on these 
non-National Fire Plan actions (68 Federal Register 33805).
    Question. How much money has been transferred to the agency for 
this work?
    Answer. To date, the USFS has made $7,500,000 available to the 
Service, and the BLM, $8,000,000.

                         GOING-TO-THE-SUN ROAD

    Question. The fiscal year 2003 bill included additional funds for 
staff and equipment at Glacier National Park. These funds will 
hopefully enable the Park to open the Going-to-the-Sun Road as quickly 
and as safely as possible each spring. Can you tell me whether these 
additional resources will be in place in time to have an impact on this 
year's road opening? Are funds included in the fiscal year 2004 budget 
to continue these enhanced operations next year?
    Answer. Glacier National Park staff has already begun seven-day-a-
week operations on the west side of the Going-to-the-Sun Road. East 
side seven-day-a-week operations began May 10, 2003. In terms of 
equipment, Glacier NP has already contracted for an excavator to be 
used for snow removal this year. In addition, the park is leasing two 
additional pieces of snow removal equipment for this season. As part of 
the initiative to assure employee and visitor safety, the park will be 
procuring a GIS location system with funds received from Congress this 
fiscal year. Finally, this effort at Glacier NP is part of an overall, 
ongoing strategy to better manage the opening of the Going-to-the-Sun 
Road and the above-stated efforts will continue into fiscal year 2004 
and beyond.
    Prior to the enactment of the fiscal year 2003 bill, the fiscal 
year 2004 request identified a $500,000 operating increase for the 
Spring opening of Going-to-the-Sun Road. This recurring funding was 
included within the additional park funding provided by Congress for 
fiscal year 2003 and continues in fiscal year 2004 and beyond.
    Question. I know the Administration's budget request projects an 
increase for the park roads program to $300 million in fiscal year 2004 
as part of the reauthorization of TEA-21. Is it your understanding that 
this amount will be sufficient to complete the Going-to-the-Sun Road 
rehabilitation in a timely manner?
    Answer. The President's Budget for fiscal year 2004 articulated a 
Park Roads and Parkways Program (PRPP) funding level for National Park 
Service (NPS) of $300 million in fiscal year 2004, $310 million in 
fiscal year 2005, and $320 million annually in fiscal year 2006-2009. 
This would nearly double current funding levels of $165 million 
annually. Part of President Bush's ``Park Legacy Project'' is to 
address the NPS backlog of maintenance needs across the Service. A 
significant portion of the backlog is in roads.
    The NPS seeks to continue the progress made under the 
Transportation Equity Act for the 21st Century (TEA-21) to restore, 
build, and reshape its transportation system, by giving priority and 
focus to the following categories:
  --Category I ($270-$310 million/annually).--Restores the condition of 
        the existing roads to ``good,'' system wide. Supports President 
        Bush's commitment to address the NPS deferred maintenance 
        backlog. Deploys sound asset management strategies to optimize 
        life cycle cost.
  --Category II ($3-$10 million/annually).--Builds the next logical 
        phase of the Congressionally mandated parkways. Continues 
        construction of the Foothills Parkway ``missing link'' and 
        begins the construction of multi-use trails around three urban 
        areas along the Natchez Trace Parkway.
  --Category III ($20 million/annually).--Continues to plan and build 
        alternative transportation systems. Deploys integrated visitor 
        transportation systems using a combination of technologies, 
        facilities, and community transport management strategies.
    Historically, these categories are administrative in nature only 
and are not legislatively directed to allow maximum flexibility to move 
dollars across categories to facilitate high annual obligation rates 
and to meet emergency and/or critical Service-wide priorities.
    Rebuilding the Going-to-the-Sun Highway is a complex multi-million 
and multi year-construction event with an identified need of some $150-
$180 million. Much of this need goes beyond bridge and pavement 
condition. Latest studies reflect an ambitious schedule that would take 
approximately $18-$25 million annually over some eight years.
    Category I funds are distributed by formula based on miles, 
condition, average daily traffic and traffic accidents. The logic is to 
deploy sound asset management strategies to spend the dollars at the 
right time and at the right place to get the best return on available 
funds. The Service has many parks with large road maintenance needs. 
The Administration's proposed $270-$310 million annually means the 
Intermountain Region will receive some $60-$70 million annually, an 
increase of $30 to $35 million over the current level. Accordingly, the 
NPS is challenged with making headway with such large park needs as the 
Going-to-the-Sun Highway rehabilitation while balancing the mix of 
projects across the Service and Intermountain Region so as to not 
compromise President Bush's commitment to address the deferred 
maintenance backlog and ensure the system is in ``good'' condition 
system wide.
    The President's Budget would provide significant funding for the 
Going-to-the-Sun Road at a rate about as fast as could be efficiently 
obligated. Even at this accelerated rate, however, such an extensive 
project would be in all probability pushed past the end of the next 
Highway Trust Fund Reauthorization (fiscal year 2009).
    Question. Will the Administration's legislative proposal for TEA-21 
reauthorization include language that specifically addresses the needs 
of large projects like the Going-to-the-Sun Road?
    Answer. Currently, the Administration's legislative proposal for 
Transportation Equity Act for the 21st Century (TEA-21) reauthorization 
has not been completed and formally submitted to Congress. We 
understand the package will be forwarded in the middle of May 2003.
    The Administration's legislative proposal does not include specific 
language for large projects. The funding for the Park Roads and 
Parkways Program (PRPP) has historically not been legislatively 
identified for a specific area or category to allow flexibility across 
categories to facilitate high annual obligation rates and meet 
emergency and/or critical Service-wide priorities. The PRPP has been 
guided by program goals such as keeping the system from further 
deteriorating, completing four of the six Congressionally mandated 
parkways and completing pilot parks to explore and implement 
alternative transportation systems. The NPS has proposed to continue to 
focus on these three areas with the dollars made available. Given the 
large increases proposed, the PRPP will be able to address the needs of 
large projects, like the Going-to-the-Sun Road, without requiring 
specific language.

                   FORT PECK RESERVATION/DRY PRAIRIE

    Question. It is my understanding that the Office of Management and 
Budget has completed its review of the engineering report for the Ft. 
Peck/Dry Prairie water project in Montana.
    How soon will the engineering report be transmitted to Congress?
    Answer. The Final Engineering Report was transmitted to Congress in 
a letter signed by the Assistant Secretary for Water and Science on May 
6, 2003.
    Question. Will the Department be in a position to obligate funds 
this year? If not, why not?
    Answer. The likelihood is high that funds can be obligated this 
fiscal year. Contracts have been negotiated for obligation of funds and 
work plans are being developed by Fort Peck Tribe and by Dry Prairie. 
Funds may then be obligated for non-construction activities, a process 
that may take about a month to complete. Funds for construction 
activities may be obligated in August/September of 2003, which is after 
the Final Engineering report sits for a mandatory 90 days from the time 
it was transmittal to the Congress (May 6, 2003).
    Question. Can you tell me why no funds were requested for this 
project in the fiscal year 2004 budget request?
    Answer. It has been Reclamation's position, as articulated by the 
Commissioner of Reclamation on this and other rural water projects, 
that, given limited funding, Reclamation does not support starting 
construction of new projects to the detriment of projects already under 
construction.

                     PRESIDENT'S MANAGEMENT AGENDA

    Question. Pursuant to the President's Management Agenda, the 
Department has been studying whether or not it makes sense to outsource 
certain Federal jobs.
    Can you tell us where you are in the process?
    Answer. DOI has completed review/study of 1,079 FTE as of mid-April 
2003. We are in the process of conducting seven full A-76 competitive 
sourcing cost comparisons. DOI is on track to complete competitive 
sourcing studies on 15 percent (3,041) of the FTE listed in their 
fiscal year 2000 FAIR Act Inventory by the end of 2003.
    Question. How many positions has the Department decided to study?
    Answer. DOI has committed to a cumulative ``soft target'' of 25 
percent (5,068) by the end of fiscal year 2004.
    Question. When will these studies be completed, and when will 
decisions be made about whether to outsource?
    Answer. The study results of the remaining 1962 for fiscal year 
2003 will be completed by December 2003. The decision to remain in-
house or contract with a private sector source will also be made around 
December 2003. The studies for fiscal year 2004 (an additional 2,027 
for a total of 5,068 FTE) will begin October 2003 and the results will 
be announced in first quarter fiscal year 2005 (October/November 2004).
    Question. What has been the cost of the studies throughout the 
Department?
    Answer. As of June, 2003, the Department's estimate on the cost of 
studies and other related costs for fiscal year 2003 was $3.3 million. 
This estimate includes the following:
    BLM--$886,000 in study costs as of June 2003
    OSM--zero as all studies were performed in house
    NPS--$1.6 million anticipated costs for 2003 as reflected in a July 
11, 2003 reprogramming
    BIA--$400,000 anticipated costs for 2003 (projected in June 2003)
    GS--$160,000 in study costs as of June 2003
    MMS--$74,000 in study costs as of June 2003
    FWS--$200,000 anticipated costs for 2003 (projected in June 2003)
    For internal purposes these amounts were reported to appropriations 
staff on June 6, 2003.

             BUREAU OF LAND MANAGEMENT--CBM EIS FOR MONTANA

    Question. I have been following the BLM's multi-year effort in the 
preparation of the Environmental Impact Statement for the Powder River 
Region of Montana with a great deal of anticipation and interest. We 
have worked with the Department to secure additional funding above past 
budget request figures to ensure that adequate environmental studies 
would be completed and that the EIS would be done in as responsible a 
manner as possible.
    Could you update us on the status of the EIS, and when can we 
expect a record of decision?
    Answer. The Record of Decision (ROD) for the Final Statewide Oil 
and Gas EIS and Proposed Amendment to the Powder River and Billings 
Resource Management Plans was signed on April 30, 2003.
    Prior to signing the ROD, the Director of BLM resolved all 
protests, including 21 protest letters that addressed issues on the 
Montana side, 76 protest letters that addressed issues on the Wyoming 
side, and 98 letters that addressed issues in both states.
    In order to resolve the protests, the BLM needed to determine the 
validity of each protest filed, prepare a written decision, and set 
forth the reasons for the decision. The decisions were sent to the 
protesting parties by certified mail in April 2003.
    In addition, 400 faxes and 18,000 emails were received during the 
protest period. Since letters of protest were required to be sent to 
the Bureau Director, faxes and emails were not valid protests and did 
not require individual responses.
    Question. I assume we have completed the need for resource planning 
dollars for this specific EIS. Does the current fiscal year 2004 budget 
submission include adequate funding in the oil and gas base program to 
support development in the Powder River Region of Montana in fiscal 
year 2004?
    Answer. The proposed funding for fiscal year 2004 will be adequate 
based on the number of Applications for Permit to Drill (APD) we have 
received so far in 2003 and expect to receive by the end of the fiscal 
year. The 2004 budget request also factored in the level of demand for 
2004 that was projected at the time the budget was formulated. If 
actual demand in 2004 deviates from this projection, BLM will consider 
any necessary budgetary adjustments to ensure appropriate support for 
development of Coalbed Natural Gas in the Powder River Basin of 
Montana.

           BUREAU OF LAND MANAGEMENT--MONTANA GAS PERMITTING

    Question. Madam Secretary, in the face of natural gas prices 
skyrocketing once again to record levels, and questionable domestic 
energy security, I applaud your leadership to increase responsible and 
reasonable domestic production.
    It is my understanding that the funding increases for energy 
permitting that your Department has proposed--and this Committee has 
supplemented--are resulting in real results on the ground. I am told 
the Department is planning on announcing a substantial number of new 
gas leases being permitted in eastern Montana as early as this week.
    Could you please update us on the status of this increased 
permitting activity and give us a sense of whether other regions of the 
country are seeing similar results?
    Answer. In Montana, BLM expects to process 24 percent more APDs 
than in 2002. BLM has already processed 68 percent of the 279 APDs 
expected in 2003. The Miles City field office has in the last month 
received 99 APDs for coalbed natural gas.
    The following table shows the APDs processed in fiscal year 2002 
and so far in fiscal year 2003 relative to the fiscal year 2003 goal. 
It also gives an estimate of the number of APDs to be processed in 
fiscal year 2004 in Montana and other states with APD activity. This 
table reflects total oil and gas APDs, not just those associated with 
Coalbed Natural Gas.

                                        APPLICATIONS FOR PERMITS TO DRILL
----------------------------------------------------------------------------------------------------------------
                                                                                 Fiscal years
                                                             ---------------------------------------------------
                                                                           2003 actual
                                                                  2002      (as of  6/      2003         2004
                                                                 actual       30/03)      planned     estimated
----------------------------------------------------------------------------------------------------------------
California..................................................          149           66          245          260
Colorado....................................................          264          179          240          275
Montana.....................................................          225          189          279          920
New Mexico..................................................        1,134          912        1,185        1,335
Utah........................................................          512          294          450          538
Wyoming.....................................................        1,787        1,043        2,750        3,400
Other states................................................          564           46          351          272
                                                             ---------------------------------------------------
      Total.................................................        4,635        2,729        5,500        7,000
----------------------------------------------------------------------------------------------------------------

    Question. I am told that the Bureau of Land Management is 
interested in addressing the concern that some offices are seemingly 
much more inefficient than other offices in addressing the backlog of 
energy applications.
    Can you speak to the Bureau's work to explore methods to increase 
efficiency and predictability in the permitting process?
    Answer. BLM holds its field managers accountable for annual 
workload targets and timeliness of responses to authorization requests 
from industry. BLM is using cost management data along with the 2002 
customer survey results to pinpoint where APD processing delays are 
occurring and to identify how to prevent any further delays. In 
addition, the BLM is taking several steps which will improve the APD 
processing time frames. On April 14, 2003 the BLM Washington Office 
issued 5 Instruction Memorandums (IMs) on APD process improvement. 
These IMs cover Conditions of Approval, Cultural Resources, revision of 
Onshore Oil and Gas Order No.1 which specify minimum standards of 
performance for oil and gas operators, Comprehensive Strategies, and 
revision of the Oil and Gas ``Gold Book'', a reference book used by oil 
and gas operators to comply with surface use standards for oil and gas 
operations.
    The IM on Conditions of Approval (IM 2003-146) asked the Field 
Offices to supply the Washington Office with copies of conditions of 
approval currently being used. The Washington Office will then develop 
standard conditions of approval and guidance on how to develop 
reasonable and enforceable conditions of approval. This will help oil 
and gas operators by eliminating inconsistencies across the Bureau.
    The IM on Cultural Resources (IM 2003-147) identifies some ``best 
practices'' being used in some Field Offices concerning Cultural 
Resources. All Field Offices are instructed to use these ``best 
practices'' to help streamline the APD processing time frames.
    In July 2003, over 50 percent of pending permit applications were 
incomplete. BLM is revising Onshore Oil and Gas Order No. 1 (IM 2003-
151) and the Oil and Gas ``Gold Book'' (IM 2003-153), two references 
used by oil and gas operators to comply with standards concerning 
surface use for oil and gas operations. Clarifying these two references 
will make it easier for oil and gas applicants to submit a complete 
application, thus reducing APD delays.
    The IM on Comprehensive Strategies (IM 2003-152) outlines some 
strategies Field Offices can employ to streamline the APD processing 
time. This IM publicizes to all BLM Field Offices some ``best 
practices'' for APD processing being used by other BLM Field Offices.
        pilt--proposed movement from blm to the department level
    Question. Madam Secretary, this year's request includes a proposal 
to move funding for PILT out of the BLM account and shift the program 
to the Department level.
    Setting aside the request's decrease of $18.5 million from the 
fiscal year 2003 enacted level, which concerns me greatly, could you 
explain the Department's proposal to shift this program to the 
Department level?
    Answer. PILT payments are principally based on public lands in 
local jurisdictions that are Federally-administered by U.S. Fish and 
Wildlife Service, National Park Service, U.S. Forest Service, and other 
Federal agencies, in addition to the BLM. Funding for PILT is not 
singularly attributed to one Department agency. The program is being 
consolidated at the Department level in recognition of the fact that 
PILT payments are made not only for BLM lands, but also for the lands 
of these other Federal agencies, and to ensure that appropriate 
emphasis can be directed to this program.
    Question. The Interior Appropriations Act has historically capped 
the administrative costs for the PILT program at $400,000? Will the 
Department be able to live within this cap, or hopefully reduce the 
administrative costs further?
    Answer. Yes, the Department will be able to continue administration 
of the PILT program at the $400,000 level.
             bureau of land management--energy and minerals
    Question. Madam Secretary, I notice your budget for the BLM 
essentially asks for level funding for Energy and Minerals production, 
rather than including a substantial increase, as has been the case in 
the past two requests.
    I whole-heartedly applaud your efforts to increase domestic 
production, but I am curious if the lack of increase in this year's 
request for Energy and Minerals was based upon budget limitations or 
the reality that we are doing everything we can to address the current 
permitting backlogs and related activity.
    Answer. Funding increases in the last two years have brought BLM's 
Energy and Minerals program up to $106 million in 2003, an increase of 
34 percent over the 2001 level of $79 million. These increases--which 
have been generally in line with the Administration's requests and 
reflect the high priority the Administration places on energy 
development--have been built into the ``base'' for the fiscal year 2004 
request. The fiscal year 2004 budget request for the BLM's Energy and 
Minerals Management program is adequate to reduce the current APD 
backlog, based on the estimated number of APDs that the Bureau expects 
to receive during 2003 and 2004. The BLM has had indications that some 
operators are planning to submit large numbers of APDs in the future, 
especially in the Powder River Basin and in other areas with potential 
coalbed natural gas development. However, based on past experience, the 
BLM cannot count on this increase in activity. It is not uncommon for 
an operator to tell the Bureau that plans for the following year 
include drilling large numbers of wells, only to have the operator 
change his/her priorities the following year, and not drill any of the 
wells that were planned. The BLM has planned for a 27 percent increase 
in activity over 2003. An increase greater than 27 percent would likely 
result in a growing APD backlog, while an increase of less than 27 
percent would allow BLM to further reduce the existing backlog beyond 
what has been anticipated in 2004. Also, to the extent that some of 
BLM's efforts to improve efficiencies are successful, BLM could see 
additional reductions in the APD backlog.
    Question. Could you detail some of the initiatives that the BLM 
will be undertaking in fiscal year 2004 that are designed to increase 
domestic energy production while also diversifying our energy 
portfolio?
    Answer. The National Energy Policy specifically directs BLM to 
address several key issues that are vital to the current and future 
status of the Nation's energy program. In response, the BLM has 
developed a plan that will continue to be implemented in 2004. In 
Alaska, BLM will conduct a second biennial lease for oil and gas in the 
northeast sector of the National Petroleum Reserve-Alaska (NPR-A). BLM 
is also pursuing the expansion of the area offered for lease to include 
the northwest and southern section of NPR-A. BLM plans to increase 
support for coalbed natural gas development in areas beyond the Powder 
River Basin and to continue support for active coal leases to provide 
these fuels that are so vital for power generation.
    In order to respond to the demand for diverse energy sources, the 
BLM plans to process and approve twice the number of geothermal permits 
to drill in 2004 that are processed in 2003. Also, the BLM will 
concentrate on processing geothermal applications for development on 
U.S. Forest Service public lands in California, Oregon, and Washington, 
and clear new areas managed by the Bureau for geothermal leasing in 
Utah, New Mexico, Idaho, and Arizona. BLM's efforts are expected to 
result in a 15 percent increase in geothermal power plants.
    In Idaho, Utah, and Nevada, BLM plans to update land use plans and 
perform environmental studies needed to respond to applications for 
wind energy development. BLM staff will also be responding to demand 
for access across BLM lands for transmission lines and pipelines 
related to renewable and non-renewable energy development. BLM 
recognizes that timely issuance of these right-of-ways is important to 
the economic viability of these projects.
    BLM is also incorporating in Resource Management Plans the 
information contained in a new report titled, ``Opportunities for Near-
Term Geothermal Development on Public Lands in the Western United 
States''. This report (released in April 2003) identifies 35 ``top 
pick'' sites in six western states for near-term development of 
geothermal energy for power generation. Of the 35 sites, ten are in 
Nevada, nine are in California, seven are in Oregon, and three each are 
located in New Mexico, Utah, and Washington. The report was prepared 
for the BLM and the Department of Energy by the National Renewable 
Energy Laboratory.
    Question. In my experience, these initiatives are largely supported 
by State and local governments. In your opinion, is the Department 
working well with local government entities and are they generally 
supportive of these efforts?
    Answer. BLM field offices work closely in the development of land 
use plans, which provide the framework for managing the exploration and 
development of energy. In addition, State governments are often 
cooperating agencies in the preparation of major environmental impact 
statements (EIS). In the case of the coalbed natural gas development 
EISs, both Montana and Wyoming State agencies assisted in the 
preparation or review of these important environmental documents. State 
agencies with permitting authority, such as Montana's Board of Oil and 
Gas Conservation (MBOGC) and Montana's Department of Environmental 
Quality, are closely involved in establishing operating requirements 
and mitigation measures to minimize or eliminate hazards associated 
with coalbed natural gas development. BLM and MBOGC review and approve 
Water Management Plans for each project in order to support the goal of 
developing coalbed natural gas in an environmentally sound manner.
                bureau of land management--fire funding
    Question. Your budget request includes a $36 million increase for 
fire suppression activities. I support your desire to bolster this 
account to avoid the inefficient process of routinely borrowing against 
other Department accounts to offset suppression costs.
    Can you explain the projections the Department used to support this 
increase?
    Answer. The budget request for suppression operations assumes that 
2004 will be an average year for wildland fire activity. The request is 
based on the most recent 10-year average cost for fire suppression 
operations, as adjusted for inflation. For the 2004 request, the 10-
year period covers the years 1993 through 2002. The actual cost for 
fire suppression for each year was converted into 2002-comparable 
dollars, using the approved Gross Domestic Product non-Defense 
deflators as the basis for the adjustments. The inflation-adjusted 
costs were added together, and the sum was divided by ten to calculate 
the annual average of $195.3 million.
    Question. We have had numerous discussions within this 
Subcommittee, and in both the Energy and Natural Resources and Budget 
Committees, to address the problem of borrowing against other accounts 
to fight fires. This practice functionally crippled the U.S. Forest 
Service last year and caused some problems for Interior as well.
    Could you explain how the Department was impacted, and what steps 
have been taken to minimize the disruption to core programs?
    Answer. The impact of borrowing funds from other accounts to pay 
for wildland firefighting has not disrupted Interior operating 
programs. The Secretary of the Interior is authorized to draw on 
construction and land acquisition accounts with significant unobligated 
balances. Borrowing from these accounts has enabled Interior to avoid 
borrowing from operating accounts that could impede or disrupt on-the-
ground operational activities such as resource protection, park and 
refuge operations, and BIA school operations.
    The Departments of the Interior and Agriculture are in the process 
of developing a large fire cost reduction action plan. The plan will 
respond to Congressional direction included with the 2003 appropriation 
and will build upon previous reports by the National Academy of Public 
Administration and the National Association of State Foresters. It will 
address the roles of agency line officers and incident commanders as 
well as changes in wildfire situation analyses, financial management, 
and operational actions. We expect that the recommendations in the 
draft plan will result in operational savings that will result in 
savings to the taxpayer and a reduced need to rely on transfers from 
other accounts for emergency funding.

                      TRUST REFORM REORGANIZATION

    Question. Last year the Department proposed an organizational 
restructuring to handle the Department's Indian Trust responsibilities. 
This proposal met with concern by some in the tribal community and a 
robust consultation process was the result.
    Could you update the subcommittee on your current actions to 
organize the Department's trust reform responsibilities and give us a 
roadmap of what you feel are the next logical steps to be pursued by 
the Department?
    Answer. The new organizational structure for the BIA and OST 
provides a single executive sponsor for trust reform; enhance 
beneficiary services; ensure accountability; and emphasize Economic 
Development, Self-Governance and Self-Determination activities.
    Both BIA and OST are working aggressively to implement the 
reorganization. The Departmental Manual to formalize the reorganization 
was issued on April 21, 2003. OST and BIA are determining personnel 
selections for key management positions. OST has initiated recruitment 
of Trust Officers to be placed in, or in close proximity to, the BIA 
agencies with the highest level of trust activities and recurring trust 
income. BIA and OST have established a joint implementation 
coordination team that meets regularly to discuss issues related to 
implementing the reorganization as efficiently and effectively as 
possible.
    The reorganization focuses on the BIA and OST fiduciary 
responsibilities to tribal and individual Indian beneficiaries. The BIA 
will retain its responsibilities relating to land and natural resource 
management because of its demonstrated expertise in this area of the 
trust. OST will retain its financial trust asset management and 
statutory oversight duties, and expand its role to provide beneficiary 
representation in all aspects of fiduciary operations and oversight. 
OST's Trust Officers and Regional Trust Administrators will provide 
local presence to support beneficiary services and ensure the proper 
management of fiduciary trust assets.
    The reorganization of trust functions in the BIA and OST was 
developed after detailed analysis of the prior organization and a 
yearlong consultation process with tribal leaders. This was, perhaps, 
the most extensive consultation effort ever undertaken by the senior 
management level at the Department on any issue relating to Indian 
Country. Over 45 meetings with tribal leaders provided a range of 
proposals and recommendations. The new organization reflects a 
synthesis of the views heard during the consultation process. It will 
meet fiduciary trust responsibilities, be more accountable at every 
level, and operate with people trained in the principles of fiduciary 
trust management.
    The Department recently issued a Comprehensive Trust Management 
Plan to address trust reform. In addition to work outlined in the Plan 
to move forward on trust improvement initiatives, the Department is 
also actively engaged in the historical accounting for individual 
Indian account holders. Completion of a yearlong project to document 
trust business processes provides the Department with the information 
necessary to begin a major re-engineering task of these processes. The 
re-engineering or ``To-Be'' process as it is known is an integral part 
of the Comprehensive Trust management Plan.
    Question. Do you have any recent indication from the Court that 
moving forward with the reorganization is timely, or adequate to 
address the current problems?
    Answer. We have not received any response from the Court regarding 
the reorganization.

                    FISH AND WILDLIFE GRANT PROGRAMS

    Question. The Department has proposed two new grant programs over 
the last two years called the Landowner Incentive Program and the 
Private Stewardship Grants Program. There were some difficulties 
establishing eligibility requirements and criteria for allocating these 
funds.
    What is the status of these two programs now? Are funds getting out 
the door?
    Answer. The Secretary announced the approval of State Landowner 
Incentive Program proposals from 42 States in the amount of $34.8 
million on February 25, 2003. Funds will be made available through 
grants to these States once they submit their complete package of grant 
agreement papers and the Service signs them.
    Of the 42 States, 39 have programs approved for Tier 1 grants 
(emphasis on building a program infrastructure), and 22 are approved 
for Tier 2 grants (on-the-ground conservation work). As of May 28, four 
Tier 1 LIP grants were signed and are now active in the States of 
Idaho, Minnesota, Montana, and Nebraska. A Tier 2 grant is active in 
Minnesota.
    The Service has received additional grant documentation from eight 
other States for Tier 1 grants (Arkansas, Delaware, Maine, New Jersey, 
South Carolina, Texas, Washington, and Wisconsin), and two States for 
Tier 2 grants (Nebraska and South Carolina). The Service anticipates 
these additional 10 programs will be awarded grants in June. Most of 
the remaining States are nearing the end of their State fiscal years 
(June 30), and the Service expects most will establish grants for their 
approved programs later in the summer.
    The grant awards for the Private Stewardship Grants Program were 
announced on May 28, 2003. More than $9.4 million will be awarded under 
this innovative program to individuals and groups to undertake 
conservation projects on private lands for endangered, threatened, and 
other at-risk species. The Fish and Wildlife Service spent additional 
time working with States and potential grant applicants to help them 
understand the new program and its requirements. Project proposals were 
originally due to the Service's Regional Offices by December 1, 2002, 
but after many applicants requested more time, the due date was 
extended to January 15, 2003, providing the public more than 100 days 
to develop and submit project proposals. We do not anticipate having 
such a long application period this year, and anticipate being able to 
award grants at an earlier date in the spring of 2004.
    Question. How many projects have been funded thus far?
    Answer. Of the 42 States approved for Landowner Incentive Program 
grants to fund their programs, the States of Idaho, Minnesota, Montana, 
and Nebraska have Tier 1 grants in place; Nebraska and South Carolina 
have Tier 2 grants. Tier 1 grants are small (up to $180,000), and 
emphasize agency infrastructure and capability building. Most on-the-
ground conservation projects will be conducted in the 22 States 
approved for the larger Tier 2 grants. The Service will act to award 
grants for these approved programs once it receives the State 
documents. We awarded approximately $9.4 million to about 113 projects 
in some 42 states ranging from Alaska to New York.
    Question. Will the Committee have the track record of 
accomplishments that we can evaluate how to fund these programs in 
fiscal year 2004?
    Answer. While some Landowner Incentive Program projects will be 
initiated in the States this summer, the Service will not receive the 
first annual performance reports for these grants until the summer or 
fall of 2004. These reports will describe accomplishments and are due 
after the first year of the project period. As a point of interest, 
there are 28 States and 6 Territories that did not receive any Tier 2 
conservation project funding in fiscal year 2003. Many of these are 
eager to gain initial funding to start projects with private landowners 
in their jurisdictions.
    The Fish and Wildlife Service will be able to provide the Committee 
with a list of projects selected for funding through the Private 
Stewardship Grants Program including information on the objectives to 
be reached through the funding of each project. At a later date, a full 
analysis of the accomplishments of implementing these projects under 
the Private Stewardship Grants Program can be provided.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens

                       ALASKA CONVEYANCE PROGRAM

    Question. An issue of concern to myself and Senator Lisa Murkowski 
is the pace of the Bureau of Land Management's Alaska Conveyance 
program. As you know, the BLM was tasked with completing work on Native 
allotments and land selections mandated by both the Alaska Statehood 
Act of 1959 and the Alaska Native Claims Settlement Act of 1971. That 
task has not been completed.
    This delay has severely impacted the ability of the State of Alaska 
and our Native groups from developing their resources and furthering 
the economic development of the State. Language included in the fiscal 
year 2003 Omnibus Appropriations Bill directs the Bureau to develop a 
plan to ensure that allotments and conveyances are completed by 2009. I 
would like to get your commitment that the BLM will abide by its 
obligations and complete the land conveyance program by 2009.
    I know that Senator Murkowski is committed to assisting you and the 
BLM in this effort through her membership on the Energy and Natural 
Resources Committee, and I commit to providing the BLM the resources it 
needs to develop this plan.
    Answer. BLM is developing the plan required in the 2003 Omnibus 
Appropriations bill, and is exploring options for improving the 
conveyance process. A Senate hearing on this issue is scheduled to take 
place in Anchorage on August 6, 2003.

            ALASKA NATIONAL INTEREST LANDS CONSERVATION ACT

    Question. Another issue is the National Park Service's proposed 
regulations concerning the issuance and administration of commercial 
use authorizations in national parks. As expressed to you in a February 
6, 2003 letter from Senator Murkowski, Congressman Don Young, and 
myself, these proposed regulations fail to comply with the Alaska 
National Interest Lands Conservation Act of 1980. The 1980 law is the 
controlling authority on public lands in Alaska and any Park Service 
regulations must conform with this law. I would like your assurance 
that the Department and the Park Service are committed to working with 
the State of Alaska, interested parties, and Alaska Native Groups in 
developing regulations that are consistent with the 1980 law.
    Answer. The draft regulations were published for comment in the 
Federal Register (Volume 67, Number 229) on November 27, 2002 as 36 CFR 
Part 52. Though the draft regulations do not reference the Alaska 
National Interest Lands Conservation Act of 1980 (ANILCA), it has 
always been our understanding that they must conform to ANILCA as they 
are applied in Alaska. The draft regulations implement Section 418 of 
the National Park Service Concessions Management Improvement Act of 
1998 (16 USC 5901 et seq.). Section 415 (c) of the same law states:

    ``ANILCA.--Nothing in this title amends, supersedes, or otherwise 
affects any provision of the Alaska National Interest Lands 
Conservation Act (16 U.S.C. 3101 et seq.) relating to revenue-producing 
visitor services.''

    Comments were received from organized groups, their members, 
individual operators, and from within the NPS. The National Park 
Service intends to establish a multi-disciplinary work group under the 
umbrella of the Secretary's Concession Management Advisory Board 
(Board), covered under the Federal Advisory Committee Act, to review 
the comments and develop a second draft rule. The work group will 
consist of interagency personnel, representatives of private sector 
interested parties including affected commercial operators in Alaska, 
and designated officials of the Board. This approach will allow for 
consideration of the business need for a predictable, stable platform 
while ensuring consistency with the preservation and conservation of 
park resources. Recommendations of the work group will roll-up to the 
full Advisory Board in a public meeting and this consultation will 
occur prior to drafting the next published rule.

                          DENALI NATIONAL PARK

    Question. Additionally, Denali National Park recently issued its 
draft backcountry management plan. I am concerned that some of the 
alternatives, if implemented, would restrict public access to our 
parks. Access to public lands is an issue I have struggled to protect 
first as a Solicitor in your Department, in the Alaska State House, and 
in my 34 years in the Senate. I will oppose any plan which imposes 
unnecessary limits on the public's right to visit their parks.
    I understand that Denali's Superintendent and his staff have held 
public hearings and meetings on this management plan. I encourage these 
efforts in order to ensure that the final plan balances the protection 
of our natural resources with the public's right to access for 
recreational, economic, and social purposes.
    Answer. Public enjoyment of Denali National Park and Preserve is 
extremely important. The National Park Service emphasizes this point in 
the first chapter of the park's Draft Backcountry Management Plan. One 
of the primary objectives of the new plan is to: ``provide for the 
public's maximum freedom of use and enjoyment of the park's backcountry 
and wilderness in a manner that is consistent with park purposes and 
the protection of park resources and values.'' Consistent with this 
objective, the National Park Service does not intend to impose 
unnecessary limits on the public's right to visit or enjoy their park.
    Meeting the Congressional direction to provide for enjoyment while 
at the same time protecting Denali National Park and Preserve's 
resources and values, requires the National Park Service to manage 
access and use. This management is not intended to unnecessarily 
restrict the public's right of access. Quite the opposite, careful 
implementation of the alternatives in the draft plan will provide for 
more visitor access, and will accommodate greater numbers of visitors 
than are accommodated today under current management strategies. The 
National Park Service will carefully evaluate, and appropriately 
incorporate, all of the public comments received on the draft plan to 
ensure that the final plan balances the protection of our natural 
resources with the public's right to access for recreational, economic, 
and social purposes.
    The alternatives in the Draft Backcountry Management Plan were 
developed in collaboration with the public over the past four years. 
The National Park Service first held a series of public scoping 
meetings in 1999 in Anchorage, Fairbanks, Talkeetna/Trapper Creek, and 
McKinley Village to define issues and impact topics to address in the 
plan. Approximately 150 people attended the meetings and the NPS 
received 65 written comments. The NPS next sent a preliminary 
alternatives newsletter to 2,000 addresses on the park mailing list in 
January 2001, outlining ideas for alternatives. This newsletter was 
followed up with open house meetings in Anchorage, Fairbanks, 
Talkeetna/Trapper Creek, Cantwell, and Healy. After receiving comments 
on the newsletter and in the meetings, the NPS continued to meet 
frequently and solicit feedback from interest groups representing such 
diverse park constituencies as aviation, snow machine users, 
mountaineering guides, conservation organizations, and the State of 
Alaska. Information from these ongoing contacts shaped the alternatives 
in the draft plan printed in February 2003.
    After publishing the draft plan, the National Park Service held six 
informational workshops in Fairbanks, Anchorage, Wasilla, Talkeetna/
Trapper Creek, Cantwell, and Healy during March 2003 to help the public 
understand the draft plan and its implications. These workshops were 
followed in April by public hearings in each of those communities and 
in Lake Minchumina. In addition, all individuals who had previously 
expressed interest were personally notified by mail and telephone of 
the draft plan's release.
    Opportunities for public comment were available through May 30, 
2003 by mail, e-mail, and directly through the park web site as well as 
at the public hearings. Park staff will continue contacts with 
interested groups and individuals as they produce the final plan.

                          SPRUCE BARK BEETLES

    Question. I am pleased with the proactive stance the administration 
has taken in the area of wildfire prevention and suppression through 
the Healthy Forests Initiative. In recent years, we have witnessed 
catastrophic fires, which burned over 7.1 million acres, affecting 
several regions in the United States, including Alaska.
    In Alaska, we have a particular problem with spruce bark beetles, 
which have decimated spruce forests in the Kenai Peninsula area along 
the Kachemak Bay Watershed and the Copper River Basin near Wrangell-St. 
Elias National Park and Preserve. The spruce bark beetle problem along 
with an extremely dry winter season in Alaska raises serious concerns 
for this coming fire season. I hope that your efforts in fire 
prevention and suppression will include funding to address Alaska's 
spruce bark beetle problem.
    Answer. The State of Alaska is currently undergoing one of the 
largest spruce bark beetle infestations ever observed. As much as four 
million acres of forestlands, across all ownerships, have been affected 
during the last 15 years, of which only 100,000 acres are managed by 
the BLM. Only 10,000 acres of the infested lands managed by the BLM are 
accessible and could be harvested with timber sales. Although some of 
this infected timber has been offered for sale by BLM, the sales have 
not sold due to poor market conditions. The majority of the timber has 
deteriorated to the point where it has no value as a commercial 
product.
    The Bureau recognizes that the dry winter and the build-up of fuels 
resulting from this beetle outbreak creates some formidable challenges 
for this fire season and for years to come. The Bureau and its partners 
are prepared to meet this challenge and protect the communities and 
resources in Alaska. The BLM is currently working with rural 
communities in Alaska to reduce the threat of wildfire, including 
providing financial and technical support to the communities and their 
fire departments, collaboratively identifying conditions and planning 
actions to reduce those threats, and reducing hazardous fuels within 
the wildland-urban interface. Where spruce bark beetles have killed 
timber in these areas, BLM will continue to try to find markets for the 
material as it is removed during fuel reduction treatments.

                    FEDERALLY-OWNED LAND STATISTICS

    Question. As you know, we have begun the fiscal year 2004 
appropriations process. It has come to my attention that the Committee 
does not have the most current data for public lands being administered 
by the Department of the Interior. In order to appropriately allocate 
scarce resources toward the management of the public lands, I request 
that the Department provide the Committee with statistics on Federally-
owned land by agency in each State and territory by acreage and 
percentage of State total area. These statistics should also include 
the total wilderness areas within each State.
    Answer. The Department will compile this information and transmit 
it to the Subcommittee under separate cover.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

                   CROWNPOINT INSTITUTE OF TECHNOLOGY

    Question. The Crownpoint Institute of Technology (CIT) is one of 
only two tribal vocational-technical schools in the country. CIT plays 
a critical role in training Native American students for employment. 
The school has a successful program in which an average of 87 percent 
of its students is placed in jobs upon graduation. A successful post-
secondary vocational-technical school such as CIT is a tremendous 
resource for Native Americans.
    Unfortunately, the President's fiscal year 2004 budget request does 
not include specific funding for CIT.
    Given the important and specific roles the two vocational/technical 
schools play on educating young Native Americans, why has specific 
funding for CIT been deleted?
    Answer. One of the Department's strategic goals is to support 
development of quality communities for tribes by improving education. 
An important component of this goal is supporting higher education to 
provide students with the knowledge and skills they need to become 
successfully employed. The Bureau currently operates two fully 
accredited post-secondary schools, Southwestern Indian Polytechnic 
Institute (SIPI) and Haskell Indian Nations University, and provides 
funding for 25 Tribally controlled colleges and universities.
    CIT is not bureau operated nor is it eligible for funding under the 
authority of the Tribally Controlled Community College or Universities 
Assistance Act, as amended. CIT is eligible for funding under the Carl 
D. Perkins Act, as amended, and receives funding under authority of the 
Act through a grant program administered by the Department of 
Education. The Department of Education provided $6.955 million under 
this authority to post-secondary schools in fiscal year 2003, of which 
CIT received $3.8 million.
    Question. What considerations would you take into account when 
determining funding allocations for schools like CIT?
    Answer. The Bureau takes into consideration education funding 
priorities for the existing K-12 programs, eligible TCCCs, and Bureau 
post-secondary schools. While CIT is meeting an important and unique 
need for those students who attend it, the Bureau takes into 
consideration authorizing legislation. Currently, there is no statutory 
authorization for the Bureau to fund schools like CIT, which is neither 
Bureau operated nor eligible for funding under the authority of the 
Tribally Controlled Community College or Universities Assistance Act, 
as amended (Public Law 95-471.). Public Law 95-471 permits each Tribe 
to apply for operating grants for a single TCCC. CIT is a Navajo 
school. CIT is ineligible for TCCC funding because another Navajo 
school, Dine College, currently receives funding under authority of 
Public Law 95-471.
    CIT is eligible for funding under the Carl D. Perkins Act, as 
amended, and receives funding under authority of the Act through a 
grant program administered by the Department of Education. The 
Department of Education provided $6.955 million under this authority to 
post-secondary schools in fiscal year 2003, of which CIT received $3.8 
million.

                       INDIAN SCHOOL CONSTRUCTION

    Question. Secure, modern, and pleasant school facilities are 
critical to the education of all students. To that end, I am pleased to 
see that President Bush sustains the current level of commitment to 
replace deteriorated BIA schools through new construction with his 
request of $292.6 million. These funds are critically needed to 
continue to address the backlog for repairs, renovation, and 
replacement for all federally owned and operated BIA elementary and 
secondary schools.
    While I am pleased with the overall request, I am concerned that 
the $131.4 million proposed for the replacement of schools does not 
specify the dollar amount going to each project. New Mexico has five 
schools on the replacement list for fiscal year 2004--Isleta Elementary 
School; Mescalero Apache Elementary School; Pueblo Pintado Community 
School; Navajo Prep School, Phase II; and Wingate High School, Phase 
II.
    Specifically, could you address my concerns that the failure to 
delineate specific funds for the listed schools may lead to unnecessary 
confusion, delay, and at worst, failure to provide adequate funding for 
the projects?
    Answer. During formulation of the 2004 Budget, the Administration 
began using the Program Assessment Rating Tool (PART) to identify 
strengths and weaknesses of programs and to inform budget, management, 
and policy activities regarding recommendations. The process generated 
extensive information on program effectiveness and accountability 
including the need for additional performance measures. One of the 
principal PART findings for Indian School Construction program was that 
it had limited flexibility to adjust funds appropriated to a specific 
project when there are delays or changes due to planning or design 
which impact the original cost estimate for the project. The fiscal 
year 2004 President's Budget reflects a policy change to no longer 
provide cost estimates for individual projects for replacement schools 
or facilities improvement and repair until the planning documents and 
design for the projects are developed to the point where adequate 
information is available to make a reasonably accurate cost estimate. 
This will greatly improve accountability for program funding.
    Question. Generally, would you please describe the efforts of the 
Department of the Interior to replace aging structures that pose a 
health and safety threat and make learning difficult?
    Answer. The Bureau has undertaken an intense effort on the 
President's commitment to reduce the maintenance backlog and has 
developed a five-year Maintenance and Construction Plan to address 
aging structures. Each fiscal year plan includes the projects of 
greatest need in priority order with special focus first on critical 
health and safety. The Bureau has also developed a Facilities 
Management Information System (FMIS) to improve the management of 
deferred maintenance, major facilities improvement and repair, and 
replacement school construction projects. The system effectively tracks 
improvements and facility conditions associated with health, safety, 
disability access, classroom size, computer, and communications 
technology space. The data in FMIS is used to determine funding for the 
highest priority items in the maintenance backlog of health and safety 
deficiencies.

             SANTA FE INDIAN SCHOOL RECONSTRUCTION FUNDING

    Question. The President requested, and the Congress approved, $23.2 
million for Santa Fe Indian School in fiscal year 2002, and another 
$15.3 million in fiscal year 2003. In addition, the Santa Fe Indian 
School requires $9.2 million to complete its replacement project. There 
was to be a phase 3 to the project that included a gym and health 
facility, an administrative building, and site modifications. The Santa 
Fe Indian School was notified that phase 3 would not be funded and that 
no funding would be in the fiscal year 2004 budget as anticipated.
    Considering the stated goals of the President's Indian Education 
Initiative and No Child Left Behind programs, could you explain why the 
budget request did not include funding to complete the Santa Fe Indian 
School replacement project as planned?
    Answer. Schools compete for ranking on the BIA priority list for 
replacement school construction. Higher rankings are given to schools 
with critical health and safety needs and for which current facility 
program space is insufficient for current approved education program 
offerings.
    When evaluating the Santa Fe Indian School Phase 3 construction 
project proposal, it was determined that Santa Fe Indian School is 
located within walking distance of a U.S. Indian Public Health Service 
hospital, an administrative building exists on site, the status of the 
current gym does not warrant complete replacement, and the needed site 
work was for sidewalk, curb, and gutter improvements. Based on this 
assessment, other schools more effectively competed for school 
replacement construction funds.

            SOUTHWESTERN INDIAN POLYTECHNIC INSTITUTE (SIPI)

    Question. The Southwestern Indian Polytechnic Institute (SIPI) in 
Albuquerque, New Mexico is a national vocational-technical school that 
enrolls approximately 750 students representing 100 Indian tribes from 
across the nation. SIPI provides Indian students with post-secondary 
educational opportunities and technical job skills.
    The Administration's fiscal year 2004 budget request of $5.593 
million for the post-secondary schools of SIPI and the Haskell Indian 
Nations University in Kansas does not reflect the funding needed to 
implement the new funding formula that would bring parity in funding to 
the two institutions. SIPI and Haskell collaborated on the new formula, 
which was enacted in the Omnibus Appropriations bill for fiscal year 
2000. The formula language was again included in the 2001 
Appropriations Act to direct the allocation of increased operating 
funds for the unmet needs identified for both SIPI and Haskell.
    The BIA has now adopted the SIPI/Haskell funding formula as its 
model for all post-secondary school funding proposals, yet it has never 
been implemented. SIPI would require a total of $10.641 million in 
fiscal year 2004 to implement the new funding formula. There are 
concerns that without this funding the SIPI will be unable to fill key 
faculty positions, update its library, maintain the college's 
information infrastructure system, meet new educational demands, and 
strengthen student support services.
    Why has the BIA-adopted funding formula not been fully funded?
    Answer. To meet the needs of each of the post-secondary 
institutions, BIA has allocated funds proportional to their enrollment. 
The formula that was developed by SIPI and Haskell was to be applied to 
any increases in funding levels.
    Unfortunately, the Department of the Interior is faced with making 
difficult choices in setting priorities for funding for the post-
secondary institutions. Funding has been relatively flat for the past 
several years. One of the Department's strategic goals is to support 
development of quality communities for tribes by improving education. 
In the 2004 budget, funding increases were targeted to the primary and 
secondary education levels--areas of higher priority to the Tribes on a 
nationwide basis.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett

                OIL AND GAS PERMITTING ON FEDERAL LANDS

    Question. A recent report by the Independent Petroleum Association 
of Mountain States shows that companies looking for oil and gas on 
Federal leases contend with increasing uncertainties and, in many 
cases, extreme delays in trying to acquire the necessary permits to 
conduct activities. Using BLM's own data, the average APD now takes on 
average 137 days to be approved and in some cases have taken over 365 
days to approve.
    If the statute states that a typical APD should be approved within 
30 days, and the average approval time is 107 days beyond that, please 
identify the primary obstacles that exist in approving an APD in a 
timely manner.
    Answer. There is no statutory requirement that BLM approve an APD 
within 30 days. APD processing times are prescribed in BLM's own 
regulations (43CFR 3162 and Onshore Oil and Gas Order#1 issued under 
43CFR 3164). The BLM has promulgated regulations that state:
    ``III D. Processing Time Frames. The following table summarizes the 
major time frames involved in processing most APD's:

                 APPLICATION FOR PERMIT TO DRILL OPTION
------------------------------------------------------------------------
           Action item                              Days
------------------------------------------------------------------------
Onsite inspection................  Within 15 days after receipt of the
                                    APD.
Requirements to be imposed when    Developed onsite, or within 5 working
 APD is approved.                   days thereafter.
Complete processing of APD.......  Within 30 days of the APD's receipt,
                                    provided that it is technically and
                                    administratively complete at the end
                                    of the 30-day period (includes the
                                    above 15-day and 5-day periods).
------------------------------------------------------------------------


                        NOTICE OF STAKING OPTION
------------------------------------------------------------------------
           Action items                             Days
------------------------------------------------------------------------
Onsite inspection................  Within 15 days after receipt of the
                                    NOS.
Requirements for inclusion in APD  Furnished onsite or within 5 working
                                    days thereafter.
Complete processing of APD.......  Within 10 days of the APD's receipt,
                                    provided that it is technically and
                                    administratively complete at the end
                                    of the 10-day period.
------------------------------------------------------------------------

    The above time frames, together, comprise the total period during 
which the BLM anticipates it will be able to process approximately 90 
percent of all APD's. However, the 30 days may not run consecutively . 
. . .''

    BLM has self imposed a 30 day time frame for the processing of most 
APDs. As stated in BLM's Onshore Oil and Gas Order#1, these 30 days may 
not be consecutive. If an incomplete APD is received, the Bureau must 
wait to complete the processing of the permit until the operator 
submits all required information. The BLM does not include the days 
between the initial receipt of the application and the day when all 
required information is submitted in the 30 day processing time frame, 
according to Onshore Oil and Gas Order#1. Since fiscal year 2000, the 
Bureau has approved 38 percent of the APDs within the 30 day time 
frame. Although the BLM is not currently meeting its objective of 90 
percent, it continues to explore alternatives for increasing this 
percentage.
    The BLM is revising Onshore Oil and Gas Order#1 to clarify the 
requirements of a complete application. This clarification should 
reduce the number of incomplete APDs submitted and decrease overall 
processing times.
    Other factors that may extend the processing times beyond the 30 
days include the need to: (1) complete any supplemental NEPA analysis, 
(2) consult with other surface managing agencies (primarily Forest 
Service), (3) obtain any necessary cultural clearances, and (4) 
maintain staffing support for ADP processing.
    Applications for oil and gas development that are proposed over 
large acreages may require the development of an Environmental Impact 
Statement to fulfill National Environmental Policy Act requirements. 
For example, the Bureau spent two years completing the EIS that 
examines the impacts of coalbed natural gas development in the Powder 
River Basin. Some BLM Field Offices had not been accepting any new APDs 
for coalbed natural gas, due to the existing large backlog of APDs. Now 
that the Powder River Basin EIS is completed, Field Offices will be 
able to begin processing the backlogged APDs and accept new 
applications. The processing of APDs will be extended any time a major 
field development EIS is required.
    In situations where BLM is required to approve surface disturbance 
for another surface-management agency, such as the Forest Service, 
additional time may be needed to allow BLM to coordinate with the other 
agency. BLM is working with other surface-management agencies to 
improve coordination and consistency and reduce the time it takes to 
complete the APD process on non-BLM lands.
    Cultural clearances can also extend time frame for APD processing. 
If a cultural clearance is required, and a cultural clearance report 
has not been completed prior to submission of the APD, delays can be 
expected. It typically takes a minimum of 30 days from submission of a 
cultural clearance report to the State Historic Preservation Officer to 
get concurrence that historic and cultural resources are being 
protected. Onshore Oil and Gas Order#1 encourages operators to check 
with the BLM at least 15 days before submitting an APD or NOS to 
determine if a cultural clearance will be required.
    The Federal Onshore Oil and Gas Leasing Reform Act of 1987 requires 
BLM to post all APDs for at least 30 days prior to approval. The 
process could be extended as a result of this requirement.
    Due to unanticipated changes in demand in the last few years, 
staffing has not kept pace with workload in some BLM Field Offices. 
Additional funding provided in 2002 and 2003 budgets and continued in 
the President's Budget for fiscal year 2004 funds increased staffing.
    Question. What steps can be taken administratively to improve this 
process? What realistic legislative remedies might exist that would 
provide additional resources to improving the permitting process?
    Answer. The BLM is taking several steps to improve the APD 
processing time frames. On April 14, 2003, the BLM Washington Office 
issued five Instruction Memorandums (IMs) on APD process improvements. 
These IMs cover Conditions of Approval, Cultural Resources, revision of 
Onshore Oil and Gas Order No.1, Comprehensive Strategies, and revision 
of the Oil and Gas ``Gold Book''.
    The IM on Conditions of Approval (IM 2003-146) directed BLM field 
offices to supply the Washington Office with copies of conditions of 
approval currently being used. The Washington Office is developing 
standard conditions of approval and guidance on how to develop 
reasonable and enforceable conditions of approval.
    The IM on Cultural Resources (IM 2003-147) identifies some ``best 
practices'' being used in some BLM field offices concerning cultural 
resources. All field offices are instructed to use these ``best 
practices'' to help streamline the APD processing time frames.
    The IM on Revision of Onshore Oil and Gas Order No. 1 (IM 2003-151) 
and the IM on Revision of the Oil and Gas ``Gold Book'' (IM 2003-153) 
initiates the rewriting of two references used by oil and gas operators 
on standards concerning surface use for oil and gas operations. These 
revisions will provide oil and gas applicants with improved direction 
on application requirements.
    The IM on Comprehensive Strategies (IM 2003-152) outlines ``best 
practices'' strategies that field offices can implement to streamline 
the APD processing time.
    Currently, the BLM does not require any legislative remedies to 
improve APD processing. As the BLM progresses with APD streamlining 
efforts, Congress will be notified if new legislation is determined to 
be necessary.
    Question. Finally, please provide the Committee with a recommended 
funding level that would be expected in order to bring the fiscal 
resources in line with the demands in the field.
    Answer. The 2004 President's Budget request includes an increase of 
$350,000 to bring the fiscal resources in line with current APD demands 
and $2.5 million for inspections, enforcement, and monitoring 
associated with this level of energy development.

               FEDERAL PERMIT STREAMLINING PILOT PROJECT

    Question. A pilot project has been suggested as a means of helping 
to streamline the Federal permit process for energy related projects. 
While it does not specifically address APD backlogs, it is my 
understanding that a pilot project has been included in the Senate 
Energy Committee's proposed energy bill.
    Please comment on the proposed pilot program to streamline federal 
permit processing currently under consideration before Congress.
    Answer. The proposed program in Section 122 of the Senate Energy 
Bill would establish a Federal Permit Streamlining Pilot Project. This 
proposal has also been known as the ``Tiger Team Proposal''. Section 
122 calls for Federal agencies to assign on a non-reimbursable basis 
employees to serve under BLM Field Managers in six offices. These six 
teams would work on proposed energy projects, planning and 
environmental analyses. We have several comments on this section.
    Governors should be encouraged to support pilot projects in their 
respective States by signing the Memorandum of Understanding that 
defines the arrangement in the pilot States.
    Currently, the Energy Bill proposes that six offices participate in 
the Federal Permit Streamlining Pilot Project. The Bureau recommends 
that the pilot project be implemented in only one office, Buffalo, 
Wyoming. This team would work on reducing the backlog in the Powder 
River Basin. Once the team has completed that task, it would then work 
in other offices to reduce the APD backlog.
    Interagency teams should include personnel from the Bureau of 
Indian Affairs, U.S. Fish and Wildlife Service, or other agencies 
within the Department of Interior, and the USDA Forest Service, that 
the BLM is required to contact as part of the NEPA process for oil and 
gas operations.
    Question. What impact, if any, might this pilot program have upon 
addressing the issue of the APD backlog?
    Answer. Initially this pilot program will have little effect on 
handling the existing APD backlog, because most of the backlog of 
permit processing was caused by issues that are currently being 
addressed (e.g. Powder River Basin EIS), or are due to the submission 
of incomplete applications by operators. In the future, the pilot 
program could resolve or prevent backlogs from occurring.
    Question. Please comment on the feasibility of developing a similar 
pilot program specifically for Federal oil and gas permitting within 
BLM to address APD permit backlogs.
    Answer. The BLM has been looking into the idea of a pilot program 
where a team of specialists within the BLM would be available to Field 
Offices to assist with processing oil and gas operations backlogs 
related to Federal permitting. The team could be centrally located, or 
could be dispersed in several field offices, but when a Field Office 
requires assistance, the team would be temporarily relocated to that 
office. It is believed that this approach would enable the BLM to 
accelerate the processing time of APDs and other related oil and gas 
applications.
    Question. Would such a program be effective in reducing the 
backlog, and providing greater predictability in the permitting 
process? Is it feasible that such a program might be put together in a 
timely manner and begin to take effect within weeks of being funded by 
Congress?
    Answer. Yes, it is believed that such an approach could reduce or 
eliminate the present backlog of APDs within two years, though the 
effects of new demand during that two-year period cannot be estimated.
    Question. Has BLM taken steps to develop a ``best practices'' 
program for BLM Field Offices to share information, processes, and 
expertise in the permitting process? If so, what is the status of the 
program?
    Answer. BLM has been using ``best practices'' of Field Offices to 
improve BLM management of the public lands nationwide. In the past, the 
BLM did not effectively highlight ``best practices'' to other Field 
Offices. The BLM is working to improve the dissemination of information 
concerning ``best practices''.

                         MOJAVE DESERT TORTOISE

    Question. The recent GAO report regarding the efforts to recover 
the Mojave desert tortoise stated that at least $100 million has been 
spent since its first listing. However, the GAO was unable to identify 
any Fish and Wildlife Service documentation regarding its population 
trends or whether any of that money has been effective in recovering 
the species.
    What is the Department's response to the report and what is being 
done to provide some direction to this extraordinary amount that is 
being spent on the species' recovery?
    Anwer. The Department concurs with the recommendations in GAO's 
final report, Research Strategy and Long-term Monitoring Needed for the 
Mojave Desert Tortoise Recovery Program. Expenditures for the desert 
tortoise include those for habitat acquisition, research, surveys, plan 
development, habitat enhancement, and agency staff time. Habitat 
acquisition, the largest expenditure category, has contributed 
significantly to the protection of biologically important areas 
necessary to achieve recovery objectives. Although recovery actions 
have been implemented, tortoise habitat and populations may not respond 
in a measurable way for several to many years afterward. We acknowledge 
that information on the status of tortoise populations and habitats 
affected by land management actions is limited; however, collection of 
population trend data is in progress under the direction and oversight 
of the Service. We have been working with many partners and 
stakeholders to establish a collaborative process for implementing 
recovery actions through a science-based adaptive management approach 
that all interested parties can embrace. The Desert Management 
Oversight Group provides a structure for the implementation of recovery 
and research priorities, and the Service has completed a more effective 
expenditures reporting system for the next fiscal year.
    Question. Many restrictions have arisen as a result of the desert 
tortoise, including grazing reductions and development restrictions. 
This is a burden that falls heavily upon the local communities.
    Answer. The Service and other federal agencies have employed 
several tools to implement the Endangered Species Act while 
accommodating existing land use practices as much as possible. Regional 
habitat conservation plans have been implemented in Nevada and Utah to 
allow development and facilitate recovery of the species with active 
community involvement. Federal agencies have purchased cattle grazing 
allotments from willing sellers and worked with local groups to reduce 
the impacts of activities on lands with tortoise habitat. We are 
assessing further options to conserve the desert tortoise while 
minimizing economic impacts. In January 2003, the Service appointed the 
Recovery Plan Assessment Committee and initiated reassessment of the 
1994 Recovery Plan. During the reassessment process, we will evaluate 
new information on the status and conservation needs of the tortoise, 
and ensure that research is applied towards management needs as 
recommended by the GAO.
    Question. What is being done on the federal end by the Service to 
set goals and track the population trends and recovery of the species 
so that at some point in the future the species might recover and be 
[de]listed?
    Answer. The Service recently met with stakeholder groups and 
federal, state, and local partners to discuss development of a recovery 
strategy and direction for the revised desert tortoise recovery plan. 
Workshops are being held to address issues such as disease, predation, 
and population monitoring. The Recovery Plan Assessment Committee will 
evaluate the delisting criteria and consider the appropriateness of 
designating the existing recovery units as distinct population 
segments. If designated as such, any given distinct population segments 
may be delisted independently by achieving its stated recovery 
objectives. Development of a statistically valid monitoring program for 
a wide-ranging species that occurs underground most of the year has 
proved to be challenging. However, we are pursuing implementation of a 
line distance sampling technique to obtain statistically valid 
population data and track population trends across the range of the 
species.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan

    Question. The Administration's fiscal year 2004 budget request for 
the Payment-in-Lieu-of-Taxes program (PILT) is $200 million. This 
amount is $18.5 million below the fiscal year 2003 enacted level, a cut 
of 8.5 percent. Why has the administration sought to cut this program? 
What was the Department's request for the PILT program to the Office of 
Management and Budget? How much will North Dakota receive under the 
fiscal year 2003 enacted level of $218.5 million? How much would North 
Dakota receive under the President's budget request of $200 million?
    Answer. Although the fiscal year 2004 President's Budget request 
for PILT of $200 million is $18.5 million below the fiscal year 2003 
enacted level, it is $35 million more than the fiscal year 2003 request 
of $165 million. The Department's request to OMB is part of the 
Administration's pre-decisional budget process and is therefore not 
subject to release. Under the fiscal year 2003 enacted level of $218.5 
million, North Dakota will receive an estimated $1 million in PILT 
payments. Under the President's budget request of $200 million, North 
Dakota would receive an estimated $800,000.
    Question. The Department of the Interior has indicated that an 
additional $2 million is needed in fiscal year 2003 to pay for court-
ordered endangered species listing actions. While the Department has 
provided the Committee with documentation of the shortfall in listing 
funding, no formal request has been made to bridge this gap. Does the 
Department have a solution to this problem?
    Answer. The White House formally requested that the Congress adopt 
a technical amendment to raise the cap for listing from $9 million to 
$11 million and the sub-cap for critical habitat from $6 million to $8 
million. If this is approved, the Department intends to ask the 
Committee's approval for a reprogramming of $2 million in funds from 
other endangered species program elements to listing. This will fund 
our fiscal year 2003 listing shortfall. In addition, the President's 
budget contains an increase in the listing budget of about $3.3 
million--which includes an increase of $3.8 million for critical 
habitat for already listed species and a decrease for other listing 
activities of $600,000.

                          SUBCOMMITTEE RECESS

    Senator Burns. Thank you all very much. The subcommittee 
will stand in recess to reconvene at 9:30 a.m., Thursday, May 
22, in room SD-124. At that time we will hear testimony from 
the Honorable Spencer Abraham, Secretary, Department of Energy.
    [Whereupon, at 11:09 a.m., Thursday, April 10, the 
subcommittee was recessed, to reconvene at 9:30 a.m., Thursday, 
May 22.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2004

                              ----------                              


                         THURSDAY, MAY 22, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Conrad Burns (chairman) presiding.
    Present: Senators Burns, Domenici, Dorgan, and Byrd.

                          DEPARTMENT OF ENERGY

                        Office of the Secretary

STATEMENT OF HON. SPENCER ABRAHAM, SECRETARY

               OPENING STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. We're going to call the committee to order 
this morning, Mr. Secretary, thank you for coming. I've got a 
brief statement on my opening and then the ranking member, 
Senator Dorgan, will be along soon and we will take his 
statement and if he has questions, we will allow him to do 
that. He's running on a tight tether today, and I understand 
you are too. And I think we are going to have a stack of votes 
this morning, and with the President being in HC-5, once you 
get into the bowels of that building, it takes a while to free 
yourself.
    First of all, we're glad to see you here to discuss the 
budget this morning for the Department of Energy. I know we 
struggled a bit to get this hearing on your schedule and I know 
you made some changes to accommodate us, we appreciate that.
    The Department's request for activities under the 
subcommittee's jurisdiction represents an effective cut of 
around $120 million. That is a considerable reduction for 
energy activity. Of course the reason it falls under this 
committee is because of the vast amount of our energy found on 
public lands under our jurisdiction. We can quibble over 
transfers and deferrals, but I think it's fair that we discuss 
some of these reductions as that is the reason we hold these 
hearings.
    Within the total you have requested, there are some very 
healthy increases in some selected programs. The budget 
increases weatherization by $65 million, in keeping with the 
President's intention to double the program. The budget 
includes $40 million for the National Climate Change Technology 
Initiative for climate change-related research, $23 million of 
which is under this subcommittee's jurisdiction. And the budget 
increases fuel cell research within the Office of Energy 
Efficiency by $22 million, and includes the increases to 
support the President's Freedom Car Initiative.
    We are anxious to hear more about these proposals, Mr. 
Secretary, and I expect you will find at least conceptual 
support for many of them from this subcommittee. The problem is 
that the budget also includes fairly severe cuts in other 
important programs. The oil and gas programs within the Office 
of Fossil Energy have been cut in half. The fuels program 
within the Office of Fossil Energy has been completely 
eliminated, and the Industries of the Future program has been 
reduced about two-thirds.
    We recognize, Mr. Secretary, that you are compelled to 
operate under some fairly restrictive budget constraints and we 
are certainly not opposed to reducing some programs in favor of 
others as national priorities change, and as successes and 
failures in your research programs become known.
    But I think what you will find concerns us most is the 
severity of some of these reductions, and the fact that some of 
them may result in us failing to capitalize on important 
research that has been supported by this committee for many, 
many years, and the research done in those areas has been 
fairly sizable. It is important, Mr. Secretary, to maintain a 
robust and balanced R&D program in the Department, one that 
enhances our Nation's energy security and enables our economy 
to grow without sacrificing environmental quality, and I think 
the focus today will be whether your budget request is adequate 
to sustain such a program.
    Your testimony will help us as we begin to draft this 
appropriations bill under some very tight constraints and 
again, we appreciate you being here this morning. I think it 
will also help our deliberations on the energy bill, which I 
hope the Senate will return to after the Memorial Day recess.
    I now turn to our ranking member, my good friend from North 
Dakota, Senator Dorgan. Good morning.

              OPENING STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Senator Burns, thank you very much, and 
thank you for holding this hearing.
    Senator Burns. You didn't bring any more weed this morning?
    Senator Dorgan. Since we're dealing with the Energy 
Department, I should have brought a gallon of gas perhaps, but 
the chairman is referring to a noxious weed that I brought to 
the last hearing, but I am not going to do that in the future. 
I didn't know it was very effective.
    Let me thank the Secretary for being here. The Secretary 
and I had a chance to visit yesterday, and I know that you are 
under certain restraints, that there really isn't any way that 
you could tell us or the audience, or for that matter the press 
what you really think of the Office of Management and Budget. 
So, I will not ask you about that, but let me raise a couple 
issues, some of the same issues that Senator Burns raised.
    You know I'm concerned about the decrease for energy 
conservation research, I talked to you about that yesterday. I 
think cutting energy conservation research is moving in exactly 
the wrong direction. I appreciate that the funding for the 
larger energy efficiency and renewable office funded in the 
energy and water bill is up slightly less than 1 percent, but 
renewable energy research, while important in its own right, is 
not a substitute for efforts focused on conserving the amount 
of energy we use. We use a prodigious amount of energy in this 
country as I've stated, and it is exactly the same calculation, 
and we consume 25 percent of the world's energy, which points 
to our need to focus on research and development efforts in 
reducing the amount of energy consumption, so I'm concerned 
about that.
    My colleague Senator Burns said that the budget severely 
undercuts fossil energy R&D, which accounts for 85 percent of 
the energy resources in this country. Over half of our 
electricity comes from coal, and oil and natural gas account 
for almost 100 percent of our transportation energy needs. 
Because of this, environmentally sound approaches to the 
management of fossil energy certainly is essential to our 
national energy security.
    Now, we need money for new initiatives, but money for new 
initiatives should not come from other initiatives that are 
also very important. We talk about a hydrogen economy and fuel 
cells, and I am very appreciative of the present research in 
that area and this is a direction we ought to head, I don't 
think you can overstate the importance of that. It is very 
important. I have said that we need an Apollo-type program, a 
program that is bold and aggressive, and I suggested around 
$6.5 billion over a period of years. But having said all that, 
I'm very impressed that the administration put itself on record 
saying let's move in this regard. So the question isn't the 
direction so much as it is velocity, and I hope that we can 
wrap this up into an Apollo-type program. But we should not be 
believing that even as we move in that direction we are going 
to somehow diminish the use of coal, oil and natural gas long 
into the future, and the ability to do that in a thoughtful way 
requires that we have adequate research.
    As Senator Burns knows, we have a Commerce Committee 
hearing ongoing at the moment and I have another appropriations 
subcommittee as well, so I will not be able to stay for 
questions, Mr. Secretary, but you and I covered most of our 
concerns yesterday in the meeting in my office. And again, I 
was pleased to serve with you in the Congress, here in the 
Senate, and I am really pleased you are where you are.
    Secretary Abraham. Me as well, thank you, Senator.
    Senator Burns. Thank you, Senator Dorgan. Mr. Secretary, we 
look forward to your statement.

               SUMMARY STATEMENT OF HON. SPENCER ABRAHAM

    Secretary Abraham. Thank you, Mr. Chairman, and you and the 
ranking member, we obviously served together for a number of 
years and have come to these projects we work on together from 
a background of previous successful collaboration, and I look 
forward to continuing that again this year.
    Mr. Chairman, what I propose is that I submit most of the 
testimony I have here for the record rather than in an oral 
presentation, give a very brief overview so that we can move 
ahead with the hearing.
    Our fiscal year budget for the Department of Energy, both 
the component within this subcommittee as well as the component 
within the Subcommittee on Energy and Water is a request for 
$23.4 billion, and we believe it will allow the Department to 
help address a number of issues that relate to America's safety 
and security. This amount is $1.3 billion above the fiscal year 
2003 budget request, which is a 5.9 percent increase overall.
    We do recognize, Mr. Chairman, the critical contribution of 
energy on national defense, that the environment and science 
and technology make to a prosperous as well as a peaceful 
future, and I think this budget continues that work. With 
regard to our energy work, the energy sector, this budget 
submission is collectively between both subcommittees $2.5 
billion. We think it will allow us to continue our wide-ranging 
efforts that will lead to the eventual transformation of our 
energy economy.
    I think the most exciting work and promising areas of long-
term research and technology expansion either fall wholly or in 
large part within the province of this subcommittee, so I think 
not just this year but in the years ahead, we are going to see 
a great deal of activity going on in programs that this 
subcommittee has appropriations responsibility for.
    Our fossil energy promotes this administration's belief 
that coal must be a critical part of our long-term energy 
future. We recognize coal is abundant, it is comparatively 
inexpensive and is going to be used here and around the world. 
Our administration appreciates environmental concerns regarding 
coal and will devote technology to answer those concerns and to 
guarantee the future widespread use of coal. That's the 
rationale between the President's Clean Coal Power Initiative, 
which seeks $2 billion over 10 years to companies that work on 
and test technologies that improve power plant generation and 
emission of coal.
    In addition, we recognize carbon management requires 
special attention and that's why our budget this year features 
a 60 percent increase for research into carbon sequestration, 
which in my view and I think in our judgment will be a key to 
finding methods and technologies to reduce, avoid or capture 
greenhouse gas emissions. More importantly, it is that interest 
as much as any which was behind our recently announced coal-
powered generation project of the future, we call it Future-
Gen, which will lead us to operate the world's first coal-
fired, emission-free power plant. Future-Gen will take on the 
challenge of cutting electricity emissions and sequestration of 
greenhouse gasses and promote the increased use of hydrogen in 
meeting future energy needs. It is one of, I think, the most 
bold steps we can take towards a pollution-free energy future.
    In addition to the game-changing research in the clean coal 
area, we are likewise engaged in another initiative that in my 
judgment will lead us to a transformation in the energy world 
with the development of hydrogen fuel cells, as Senator Dorgan 
referred to earlier, as a power source. Hydrogen is the most 
abundant element in the universe, with nearly a limitless 
supply, and the use of hydrogen eliminates many of the 
consequences currently associated with fossil fuels. Our 
administration is very optimistic about the use of hydrogen as 
the transportation fuel of the future. As the President noted 
in his State of the Union address, we are similarly exploring 
the use of hydrogen to generate electricity to heat our homes 
and power our businesses, proposing to spend about $1.7 billion 
dollars on hydrogen fuel cell research and development, and the 
development of the transportation applications of hydrogen.

                           PREPARED STATEMENT

    I can think of no other program with the potential payoff 
for our Nation's security, our economic security, our foreign 
policy and especially for the environment as the work we're 
going to be doing on hydrogen. I think some day people may look 
back on that initiative as one of the greatest achievements of 
this time, and perhaps connect it up to the activities of this 
subcommittee. We look forward to working with the committee on 
these exciting new ventures as well as our ongoing work related 
to weatherizaton assistance programs, natural gas, and a host 
of other topics that time doesn't permit me to go into 
discussion at this moment of these various other initiatives, 
as well as the ones I mention in my written testimony. I look 
forward in the Q and A session to having the chance to respond 
to any questions that you might have.
    [The statement follows:]

               Prepared Statement of Hon. Spencer Abraham

                              INTRODUCTION

    Mr. Chairman, and Members of the Subcommittee, it is a pleasure to 
be here today to discuss the President's fiscal year 2004 Budget 
request for the Department of Energy (DOE).
    The total fiscal year 2004 Budget request for the Department of 
Energy is $23.4 billion (excluding $123 million advanced appropriated/
deferred from fiscal year 2003). This amount is $1.2 billion above the 
fiscal year 2003 appropriated level. This Administration recognizes the 
critical contribution our work on defense, energy security, the 
environment and world-leading science and technology makes to a 
peaceful and prosperous future. Of the total $23.4 billion request, 
$1.7 billion is requested for programs funded in the Interior and 
Related Agencies Appropriation under the jurisdiction of this 
Subcommittee. The $1.7 billion Interior Appropriations request is $76.7 
million less than appropriated in fiscal year 2003.
    The total fiscal year 2004 Budget continues the Administration's 
commitment to ensure national defense and safeguard the Nation's energy 
security through advances in science and technology, as well as fulfill 
our obligation as the environmental stewards to our communities. While 
DOE's national policy objectives have not changed, this budget reflects 
a new approach toward conducting business at the Department of Energy. 
Reengineering efforts that we began in fiscal year 2002 have taken 
shape: programmatic activities are better focused to achieve primary 
mission objectives, budget priorities are set with improved measurable 
performance criteria, and corporate management initiatives reflect 
aggressive implementation of the President's Management Agenda.
    The President's fiscal year 2004 Budget for the Department of 
Energy reflects, and addresses, the critical challenges we face today 
and will continue to face in the coming decades. I have charted a 
course for the Department of Energy that emphasizes DOE's critical 
contributions to the Nation's national security and provides forward-
reaching solutions to America's energy problems. My priorities are to 
meet our responsibilities to maintain the nuclear stockpile; expand and 
make more comprehensive our non-proliferation activities; accelerate 
the environmental cleanup program; develop 21st century cutting edge 
advanced fuel cell and alternative energy technologies; maintain coal 
as a major, low-cost, domestically produced, energy resource through 
the Coal Research initiative; build and maintain a stable and effective 
national defense program to respond to the guidance in the Nuclear 
Posture Review with special emphasis on revitalizing laboratory and 
production plant infrastructure; continue our leadership to ensure 
nuclear power remains a key energy resource; and maintain a world class 
scientific research capability. The fiscal year 2004 Budget is focused 
to deliver on these priorities.
    As part of the Department's Strategic Planning process these 
priorities translate into six overlapping Departmental goals that form 
our core mission of National Security. All of the Department's planning 
and budgeting for fiscal year 2004 drives toward these six goals:
  --Maintain a safe, secure and reliable nuclear deterrent
  --Control nuclear proliferation
  --Reduce dependence on energy imports
  --Achieve a cleaner, healthier environment
  --Improve our energy infrastructure to ensure the reliable delivery 
        of energy, and
  --Maintain a world-class scientific research capability
    Formulation of this year's budget reflects significant management 
changes occurring within the Department of Energy. Guided by the 
President's Management Agenda and my management reforms started in 
fiscal year 2003, this budget implements integrated, long-term program 
planning and performance accountability. The Department is implementing 
a five-year programmatic and planning framework to provide an 
unprecedented opportunity to consider future impacts in determining 
this year's funding priorities. This budget was formulated to deliver 
measurable results to reach the Department's strategic goals. This 
achievement is a significant step toward reaching my key goal to focus 
DOE activities to adhere to the primary mission of national security. 
By streamlining program activities and management structures, the 
Department of Energy will more effectively and efficiently manage and 
produce the results expected by American taxpayers.
 president's management agenda and national energy policy coordination
    Rising to the challenge of the President's Management Agenda, the 
Department is beginning to improve how it manages, budgets, and plans 
for all programs, projects, and activities. By improving management, 
performance, and accountability, the Department is striving for a level 
of performance that keeps DOE programs safe, on track, and on budget. A 
system of scorecards is being used to evaluate the effectiveness of 
various programs and allocate resources to achieve this end. 
Performance measures are improving to ensure that they are specific, 
quantifiable, concise, comprehensive, and relevant to the American 
taxpayer. Also, in accordance with the President's commitment to an 
expanded and effective electronic government, DOE is centrally managing 
information technology investments to reduce waste, increase 
productivity, and provide increased corporate services at lower cost.
    Research and Development Investment Criteria.--The President's 
Management Agenda calls for consistent and sufficient evaluation of 
future research and development (R&D) investments and past performance. 
In response, the Department developed internal guidance for programs to 
score their R&D activities against the Administration's applied R&D 
investment criteria. This approach focuses R&D dollars on long-term, 
potentially high-payoff activities that require Federal involvement to 
be both successful and achieve public benefit. The Department will 
continue to work to develop consistent scoring and benefit estimation 
methods, to permit comparison of applied R&D programs across the 
Department.
    The applied R&D scorecard process is an important way the 
Department is integrating performance into the budget. The scorecard 
process is in its second year of development. The goal is to develop 
highly analytical justifications for applied research portfolios in 
future budgets. This will require the development and application of a 
uniform cost and benefit evaluation methodology across programs to 
allow meaningful program comparisons.
    The Department's Science programs also participate in the 
government-wide effort to evaluate basic research efforts against the 
criteria of quality, relevance, and performance. As part of this first 
year effort for basic research programs, the Office of Science has 
incorporated the principles of the investment criteria into the 
formulation of its Congressional budget narrative.
    Program Assessment Rating Tool.--In addition to the use of R&D 
investment criteria, the Department implemented a new tool to evaluate 
the management effectiveness of selected programs. The Program 
Assessment Rating Tool (PART) was developed by the Office of Management 
and Budget (OMB) to provide a standardized way to assess the 
effectiveness of the Federal Government's portfolio of programs. While 
OMB's objective for fiscal year 2004 was to evaluate 20 percent of each 
government agency, the Department of Energy reviewed nearly 60 percent 
of its activities through the PART process. The Departmental elements 
that participated were Environmental Management, Science, Fossil 
Energy, Nuclear Energy, Energy Efficiency and Renewable Energy, the 
Power Marketing Administrations, and the National Nuclear Security 
Administration.
    The structured framework of the PART provides a means through which 
programs can assess their activities differently than through 
traditional reviews. While some of the programs received less than 
favorable scores, the information exchange between the Department and 
OMB proved quite valuable. The current focus is to establish outcome- 
and output-oriented goals, the successful completion of which will lead 
to benefits to the public, such as increased national security and 
energy security, and improved environmental conditions. The Department 
will incorporate feedback from OMB into the fiscal year 2005 Budget and 
planning process, and will take the necessary steps to continue to 
improve performance. The results of the review are reflected in the 
Department's fiscal year 2004 Budget. The refocusing of the Fossil 
Energy Oil and Gas program was supported by the results of the PART 
review.
    National Energy Policy Office.--The Department of Energy has 
established a National Energy Policy Office to provide strategic 
direction within DOE and overall coordination within the Federal 
Government with respect to implementing national energy plan 
recommendations and activities to assure dependable, affordable, and 
environmentally responsible production, delivery, and use of energy. 
This Office's mission is to achieve measurable performance results and 
consistency in implementing our national energy goals through effective 
policy development, planning and management strategies that are 
integrated into DOE's budgeting process and that foster interagency and 
intergovernmental coordination, generate public-private collaboration, 
and enhance international cooperation. Through such coordination and 
integrated policy planning and budgeting, the Office will assure 
performance results that advance and safeguard our national energy 
security objectives by assuring access to reliable and affordable 
energy supplies through a balanced and diversified portfolio of energy 
sources and modernization of energy infrastructure; securing continuous 
improvement in energy efficiency and conservation through technology 
research development and deployment to manage effectively and extend 
our energy resources, reduce demand and lower costs; assuring 
environmental progress and sustainable growth; and assuring that a 
robust market guides pricing, technology deployment, energy efficiency, 
fuel selection and energy systems.
       interior and related agencies appropriation budget request
    I would now like to address some of the specifics of our fiscal 
year 2004 Interior and Related Agencies Appropriations request.
    In total for fiscal year 2004, we are requesting $1.7 billion. This 
amount is $76.7 million less than appropriated in fiscal year 2003. By 
appropriation, we are requesting $519.3 million for Fossil Energy 
Research and Development; $16.5 million for Naval Petroleum and Oil 
Shale Reserves; $36.0 million for the 6th payment in the Elk Hills 
School Lands Fund; $875.8 million for Energy Conservation; $1.0 million 
for Economic Regulation; $175.1 million for Strategic Petroleum 
Reserve; $5.0 million for the Northeast Home Heating Reserve; and $80.1 
million for the Energy Information Administration. In addition, fiscal 
year 2003 appropriations action advance appropriated $36.0 million for 
the 5th payment in the Elk Hills School Lands Fund and deferred $87.0 
million of Clean Coal Technology balances into fiscal year 2004. This 
brings the fiscal year 2004 total to $1.8 billion.
    I would now like to address some specifics of the Fossil Energy, 
Energy Conservation, and Energy Information Administration budget 
requests.

                      FOSSIL ENERGY BUDGET REQUEST

    Mr. Chairman, when he took over as Assistant Secretary for Fossil 
Energy last year, I asked Assistant Secretary Mike Smith to realign the 
Fossil Energy program to focus virtually and exclusively on supporting 
three of the President's top energy and environmental initiatives: 
Clear Skies, Climate Change, and Energy Security.
    To be included in the fiscal year 2004 Budget, Fossil Energy 
programs must either support the development of lower cost, more 
effective pollution control technologies or help diversify the Nation's 
future sources of clean-burning natural gas to meet the President's 
Clear Skies goals; expand the Nation's technological options for 
reducing greenhouse gases either by increasing power plant efficiencies 
or by capturing and isolating these gases from the atmosphere; or 
measurably add to the Nation's energy security by providing a short-
term emergency response (e.g., Strategic Petroleum Reserve) or a 
longer-term alternative to imported oil (e.g., hydrogen and methane 
hydrates).
    President's Coal Research Initiative.--The fiscal year 2004 Budget 
continues to meet the President's commitment to spend $2 billion on 
clean coal research over 10 years by providing $320.5 million for the 
President's Coal Research Initiative. Since our budget testimony last 
year, the Department has made significant progress on a new generation 
of environmentally-clean coal technologies.
    Our ``first round'' solicitation in the Clean Coal Power 
Initiative--the centerpiece of the President's clean coal commitment--
attracted three dozen proposals for projects totaling more than $5 
billion. On January 15, 2003, we announced the first winners of this 
competition--eight projects with a total value of more than $1.3 
billion, more than one billion dollars of which would be provided by 
the private sector. Industry has again stepped up to the table, 
offering both good ideas and significant private sector cost-sharing.
    In fiscal year 2004, we are requesting $130.0 million as the next 
``installment'' of the Clean Coal Power Initiative. At the present 
time, our plans are to issue competitive solicitations every 2 years--
the next one in the fall of 2004. As in the initial solicitation, we 
propose to combine 2 years of appropriations (and any available funds 
from prior solicitations) because of the size and scope of the 
projects.
    The President's Clean Coal Power Initiative is especially 
significant because it directly supports the President's Clear Skies 
initiative. The first projects, for example, included an array of new 
cleaner and cheaper concepts for reducing sulfur dioxide, nitrogen 
oxides, and mercury--the three air pollutants targeted by the Clear 
Skies initiative. To ensure that even more effective pollution control 
concepts continue to emerge as candidates for future clean coal 
competitions, we are also requesting $22.0 million for research into 
even cleaner and more affordable innovations for existing plants.
    Several of the recently-selected Clean Coal projects also help 
expand the menu of options for meeting the President's climate change 
goal of an 18 percent reduction in greenhouse gas intensity (carbon 
equivalent per GDP) by 2012, primarily by boosting the efficiencies of 
power plants (meaning that less fuel is needed to generate electricity 
with a corresponding reduction in greenhouse gases). To position even 
more advanced, high efficiency power generating concepts for future 
development and testing, we are requesting $64.0 million to continue 
research into integrated gasification-combined cycle and a companion 
effort in high-performance, multi-fuel-capable turbines. A key aspect 
of these advanced power concepts--which will make up key modules of our 
``Vision 21'' emission-free power plant of the future--is that they 
emit carbon dioxide in a way that makes the greenhouse gas easier to 
capture.
    Carbon management will become an increasingly important element of 
our coal research program. Carbon sequestration--the capture and 
permanent storage of carbon dioxide--has emerged as one of our highest 
priorities in the Fossil Energy research program--a priority reflected 
in the proposed budget increase to $62.0 million in fiscal year 2004 
from a fiscal year 2003 appropriated level of $39.9 million.
    Carbon sequestration, if it can be proven practical, safe, and 
affordable, can dramatically enhance our long-term response to climate 
change concerns. It could offer the United States and other nations one 
approach for reducing greenhouse gases that would not necessitate 
changes in the way we produce, deliver, or use energy.
    Beginning in fiscal year 2004, one of the cornerstones of our 
carbon sequestration program will be a national network of regional 
partnerships. This Secretarial initiative, which I announced in 
November, will bring together the Federal Government, state agencies, 
universities, and private industry to begin determining which options 
for capturing and storing greenhouse gases are most practicable for 
specific areas of the country. We hope to start at least five of these 
partnerships in fiscal year 2004.
    Our sequestration budget also includes support for the President's 
National Climate Change Technology Initiative Competitive Solicitation 
program. Funding from the Fossil Energy program will be combined with 
funding from the Office of Nuclear Energy, Science and Technology and 
the Office of Energy Efficiency and Renewable Energy to competitively 
fund technology R&D with the greatest potential to reduce, avoid, or 
sequester gas emissions.
    Another aspect of the President's Coal Research Initiative is the 
production of clean fuels from coal. Hydrogen has emerged as a major 
priority within the Administration and the Department of Energy as a 
clean fuel for tomorrow's advanced power technologies (such as fuel 
cells) and for future transportation systems. Within the Fossil Energy 
program, we have allocated $5.0 million for research into new methods 
for making hydrogen from coal.
    To provide fundamental scientific knowledge that benefits all of 
our coal technology efforts, our fiscal year 2004 Budget also includes 
$37.5 million for advanced research in such areas as materials, coal 
utilization science, analytical efforts, and support for coal research 
at universities (including historically black and other minority 
institutions).
    Other Power Systems Research and Development.--We are also 
proposing $47.0 million for continued development of fuel cells with an 
emphasis on lower-cost technologies that can contribute to both Clear 
Skies emission reductions, particularly in distributed generation 
applications, and Climate Change goals by providing an ultra-high 
efficiency electricity-generating component for tomorrow's power 
plants. Distributed power systems, such as fuel cells, also can 
contribute to the overall reliability of electricity supplies in the 
United States and help strengthen the security of our energy 
infrastructure.
    Natural Gas Research.--The President's Clear Skies Initiative also 
provides the rationale for much of the Department's $26.6 million 
budget request for natural gas research. Clear Skies legislation is 
likely to further increase demand for this clean-burning fuel; even in 
the absence of new environmental requirements, natural gas use in the 
United States is likely to increase by 50 percent by 2020.
    Our natural gas research program, therefore, is directed primarily 
at providing new tools and technologies that producers can use to 
diversify future supplies of gas. Emphasis will be increased on 
research that can improve access to onshore public lands, especially in 
the Rocky Mountain region where much of our undiscovered gas resource 
is located. A particularly important aspect of this research will be to 
develop innovative ways to recover this resource while continuing to 
protect the environmental quality of these areas.
    We also plan to establish a new industry-led, university consortia-
based program to develop breakthrough technologies that can help assure 
a continued supply of affordable natural gas beyond 2015. The focus of 
this program will be on projects that could revolutionize the way 
natural gas is supplied in the United States--a focus that is well 
beyond the type of research industry is now doing.
    Natural gas storage will also assume increasing significance in the 
United States as more and more power plants require consistent, year-
round supplies of natural gas. Toward this end, we will initiate a 
nationwide, industry-led consortium that will examine ways to improve 
the reliability and efficiency of our Nation's gas storage system and 
explore opportunities for LNG facility sitting.
    The most significant change in our Natural Gas Research program is 
the new work we are proposing in hydrogen. In keeping with our energy 
security goal of finding alternatives to traditional transportation 
fuels, we are proposing to spend $6.6 million to study innovative 
methods to produce hydrogen from natural gas. We will ask industry, 
academia, and our national laboratories to submit new ideas on hydrogen 
production and related research. Since the byproduct of gas-to-hydrogen 
processes will likely be carbon dioxide, this effort will also include 
research on ways to capture this greenhouse gas. This work will be 
closely coordinated with other efforts in the Office of Fossil Energy 
to capture and sequester carbon dioxide.
    Over the long-term, the production of natural gas from hydrates 
could have major energy security implications. Hydrates--gas-bearing, 
ice-like formations in Alaska and offshore--contain more energy than 
all other fossil energy resources. Hydrate production, if it can be 
proved technically and economically feasible, has the potential to 
shift the world energy balance away from insecure sources of supply. 
Understanding hydrates can also improve our knowledge of the science of 
greenhouse gases and possibly offer future mechanisms for sequestering 
carbon dioxide. For these reasons, we are continuing a research program 
to study gas hydrates with a proposed funding level of $3.5 million.
    Oil Technology Development.--The President's National Energy Plan 
calls attention to the continued need to strengthen our Nation's energy 
security by promoting enhanced oil (and gas) recovery and improving oil 
(and gas) exploration technology through continued partnerships with 
public and private entities.
    At the same time, however, we recognize that if the Federal oil 
technology R&D program is to produce beneficial results, it must be 
more tightly focused than in prior years. Consequently, our fiscal year 
2004 Budget request of $15.0 million reflects a reorientation of the 
program toward those areas where there is clearly a national benefit 
rather than solely a corporate benefit.
    One example is the use of carbon dioxide (CO<INF>2</INF>) injection 
to enhance the recovery of oil from existing fields. CO<INF>2</INF> 
injection is a proven enhanced oil recovery practice that prolongs the 
life of some mature fields, but the private sector has not applied this 
technique to its fullest potential due to insufficient supplies of 
economical CO<INF>2</INF>. A key Federal role to be carried out in our 
proposed fiscal year 2004 program will be to facilitate the greater use 
of this oil recovery process by integrating it with CO<INF>2</INF> 
captured and delivered from fossil fuel power plants.
    We will also refocus much of our Oil Technology program on a new 
Domestic Resource Conservation effort that will target partnerships 
with industry and universities to sustain access to marginal wells and 
reservoirs. These aging fields account for 40 percent of our domestic 
production, yet contain billions of barrels of oil that might still be 
recovered with ever-improving technology. A high priority effort in 
fiscal year 2004 will be to develop ``micro-hole'' technology. Rather 
than developing just another new drilling tool, the Federal program 
will integrate ``smart'' drilling systems, advanced imaging, and 
enhanced recovery technologies into a complete exploration and 
production system. Micro-hole systems may offer one of our best 
opportunities for keeping marginal fields active because the smaller-
diameter wells can significantly reduce exploration costs and make new 
drilling between existing wells (``infill'' drilling) more affordable. 
Using breakthrough technology like this to keep marginal fields in 
production preserves the opportunity to eventually apply even more 
advanced innovations that could recover even larger quantities of 
domestic crude that traditional oil recovery methods currently leave 
behind.
    Other Fossil Energy R&D.--Our budget also includes $124.3 million 
for other activities in our Fossil Energy program, including $92.8 
million for headquarters and field office salaries, $3.0 million for 
plant and capital improvements, $9.7 million for environmental 
restoration, $6.0 million for Federal matching funds for cooperative 
research and development projects at the University of North Dakota and 
the Western Research Institute, $2.8 million for electricity and 
natural gas import/export responsibilities, and $10.0 million for 
advanced metallurgical research at our Albany Research Center. The 
increase in funding at the Albany Center (up from $6.0 million in 
fiscal year 2003) reflects the Center's growing role in developing 
better materials for fuel cells and in studying new mineral carbonation 
concepts for carbon sequestration.

                           PETROLEUM RESERVES

    The Strategic Petroleum Reserve and Northeast Home Heating Oil 
Reserve are key elements of our Nation's energy security. Both serve as 
response tools for the President to use to protect U.S. citizens from 
disruptions in commercial energy supplies.
    Strategic Petroleum Reserve.--The President has directed us to fill 
the Strategic Petroleum Reserve to its full 700 million barrel 
capacity. The mechanism for doing this--a cooperative effort with the 
Minerals Management Service to exchange royalty oil from Federal leases 
in the Gulf of Mexico--is working well. We have been able to accelerate 
fill from an average of 60,000 barrels per day at the start of the 
President's initiative to a planned rate of 130,000 barrels per day for 
deliveries beginning this month.
    Because of the President's ``royalty in kind'' initiative, we have 
achieved the Reserve's highest inventory level ever, now at 600 million 
barrels. Our goal remains to have a full inventory of 700 million 
barrels by the end of calendar year 2005.
    Our fiscal year 2004 Budget for the SPR is $175.1 million, all of 
which is now in our facilities development and operations account. We 
do not require additional funds in the oil acquisition account because 
charges for transporting ``royalty in kind'' oil to the SPR are now the 
responsibility of the oil supplier. Also, because we have the authority 
to ``borrow'' funds from other Departmental accounts to support an 
emergency SPR drawdown, we no longer require the same amount of standby 
funding in this account. This has allowed us to use $5.0 million in 
funds previously appropriated for this purpose to support a portion of 
our fiscal year 2004 Fossil Energy R&D budget request.
    Northeast Home Heating Oil Reserve.--We are requesting $5.0 million 
for the Northeast Home Heating Oil Reserve, a decrease of $1.0 million 
from the fiscal year 2003 appropriated level. The decrease reflects 
cost savings realized from recompeting our commercial storage 
contracts. The 2-million-barrel reserve remains ready to respond to a 
Presidential order should there be a severe fuel oil supply disruption 
in the Northeast. A key element of this readiness is a new online 
computerized ``auction'' system that we implemented during the last 
year to expedite the bidding process. Installing and testing the 
electronic system (including tests with prospective commercial bidders) 
has been a major element of the Office of Fossil Energy's role in 
implementing the ``e-government'' initiatives in the President's 
management agenda.
    Naval Petroleum and Oil Shale Reserves.--The fiscal year 2004 
Budget request of $16.5 million is a decrease of $1.2 million from the 
fiscal year 2003 appropriated level. The Rocky Mountain Oilfield 
Testing Center (RMOTC), established at the Naval Petroleum Reserve No. 
3 in Wyoming, will be closed, resulting in a $3 million per year cost 
savings. RMOTC is more appropriately a private sector activity. We also 
intend to transfer the Naval Petroleum Reserve No. 2 in California to 
the Department of the Interior by the end of fiscal year 2003, although 
the transition and certain environmental compliance activities will 
continue into fiscal year 2004. We further expect to be able to reduce 
our funding requirements for equity redetermination studies for the 
Government's portion of the Elk Hills Naval Petroleum Reserve No. 1, 
which was divested in 1998. Of the four producing zones for which final 
equity shares had to be finalized, three have been completed; the 
fourth (the Shallow Oil Zone) is expected to be finished in fiscal year 
2005.

                   ENERGY CONSERVATION BUDGET REQUEST

    For our Interior appropriation funded programs in fiscal year 2004, 
we are requesting $875.8 million, $16.0 million less than appropriated 
in fiscal year 2003. The decrease reflects a shift in priorities among 
activities supported by the different appropriations, consistent with 
the Administration's R&D investment criteria and PART results, as I 
will describe through my testimony.
    Mr. Chairman, our fiscal year 2004 Budget reflects the new 
organization within EERE. Two years ago, EERE was divided into 31 
programs, in 17 offices, stovepiped into 5 market sectors. There were 
multiple overlapping layers of management and duplicative and 
inconsistent business systems that generated significant inefficiencies 
and made it difficult to ensure accountability.
    In response to the President's Management Agenda, we launched a 
dramatic restructuring of the EERE program in April 2002. This 
restructuring eliminated the 5 market sectors and 17 offices, 
streamlined 31 programs into 11, eliminated up to four management 
levels, and centralized administration functions into a single support 
organization with a focus on developing consistent, uniform, and 
efficient business practices. This is the most dramatic restructuring 
of EERE in at least 12 years and arguably in its history.
    The restructuring combined all the hydrogen and fuel cell 
activities, formerly scattered across 2 market sectors and 3 programs, 
into a single program for greater efficiency and synergy. It also 
combined all the bioenergy-related activities, formerly scattered 
across 3 market sectors and 3 programs, into a single program focused 
on advanced biorefineries.
    The fiscal year 2004 Budget is fully aligned with EERE's new 
management structure and strategic goals and together they will provide 
greater synergy and increased efficiency and productivity in the R&D 
and deployment activities lead by EERE.
    EERE's R&D and technology deployment efforts supported by the 
fiscal year 2004 Budget will provide Americans with greater freedom of 
choice of technology, while providing increased energy security, and 
reducing financial costs and impacts on the environment.
    Mr. Chairman, the Energy Conservation budget request has been 
developed with these challenges and opportunities in mind.
    FreedomCAR and Vehicle Technologies.--The FreedomCAR and Vehicle 
Technologies (FCVT) Program is developing more energy efficient and 
environmentally friendly highway transportation technologies to help 
reduce United States petroleum consumption. The long-term aim of the 
program is to develop ``leap frog'' technologies such as hydrogen-
fueled vehicles to provide Americans with freedom of mobility along 
with energy security, lower costs, and lower environmental impacts. 
Program activities include research, development, demonstration, 
testing, technology validation, technology transfer, and education that 
could achieve significant improvements in vehicle fuel efficiency and 
displacement of oil by other fuels which ultimately can be domestically 
produced in a clean and cost-competitive manner.
    In fiscal year 2004, the Department is requesting $157.6 million, a 
decrease of $19.7 million below the fiscal year 2003 appropriated level 
for the FreedomCAR and Vehicle Technologies program. The FreedomCAR 
portion of the budget is $91.1 million, an increase of $5.5 million 
above the fiscal year 2003 appropriated level. All funding for 
transportation fuel cell and hydrogen infrastructure activities is 
included in the Hydrogen, Fuel Cells, and Infrastructure Technologies 
program to accelerate RD&D activities to support both the FreedomCAR 
partnership and President's new Hydrogen Fuel Initiative.
    Fuel Cell Technologies.--In fiscal year 2004, we are requesting 
$77.5 million, an increase of $22.4 million above the fiscal year 2003 
appropriated level for Fuel Cell Technologies from Interior 
Appropriations. The fiscal year 2004 Budget supports fuel cell cost 
reduction and initiation of a fuel cell vehicle test and evaluation 
program.
    Americans currently depend on foreign sources for 55 percent of our 
oil-a dependence that is projected to rise to 68 percent by 2025. Since 
two thirds of the oil we consume is used for transportation, we must 
focus on alternative means of fueling transportation from domestic 
resources if we ever expect to reverse this trend.
    Hydrogen fuel cell vehicles require no petroleum-based fuels and 
emit no pollutants or carbon dioxide. Their development and commercial 
success would remove personal transportation as an environmental issue 
and substantially reduce our dependence on foreign oil
    The hydrogen needed to fuel these vehicles is domestically 
available in abundant quantities as a component of natural gas, coal, 
biomass, and even water through electrolysis using renewable or nuclear 
power. The challenge is to economically produce, deliver, store, and 
distribute hydrogen for use as a consumer fuel, and to engage the 
broader oil, energy, and power companies in this effort. To meet this 
challenge, the President's fiscal year 2004 Budget proposes a new 
Hydrogen Fuel Initiative, a $1.2 billion effort over five years, which 
will accelerate research and development activities to solve technical 
challenges in hydrogen production, delivery, storage, and distribution. 
When the vision of the President's Fuel Initiative is achieved, 
hydrogen will power the fuel cells that provide energy for our cars, 
trucks, homes, schools, and businesses.
    To support FreedomCAR and the Hydrogen Fuel Initiative, we need to 
make significant research and development investments to develop 
vehicles powered by hydrogen fuel cells and the infrastructure to 
support them. The government will be to help fund and coordinate the 
high-risk R&D work of numerous private sector partners and our National 
network of science laboratories. Government coordination of this 
undertaking will help resolve one of the difficulties associated with 
development of a commercially viable hydrogen fuel cell vehicle: the 
``chicken and egg'' question. Which comes first, the fuel cell vehicle 
or the hydrogen production and delivery-refueling infrastructure to 
support it? The President's Hydrogen Fuel Initiative, in conjunction 
with the FreedomCAR partnership, answers the question by proposing to 
develop both in parallel; that is, to augment the already significant 
investments in vehicle technologies with new investments in hydrogen 
and fuel cell technologies. By so doing, Federal investments can help 
advance commercialization of hydrogen fuel cell vehicles and 
infrastructure by 15 years, from 2030 to 2015.
    These efforts will enable the development of hydrogen fuel cell 
vehicles for the showroom floor by 2020. Success of these programs will 
begin to eliminate the need for imported oil, while simultaneously 
reducing emissions and greenhouse gases from America's transportation 
fleet without affecting the freedom of personal mobility we demand.
    Weatherization and Intergovernmental Activities.--In fiscal year 
2004, we are requesting $357.0 million for Weatherization & 
Intergovernmental Activities, $42.5 million more than appropriated in 
fiscal year 2003.
    The Weatherization and Intergovernmental Program activities support 
the President's National Energy Policy recommendations for rapid 
deployment of clean energy technologies and energy efficient products. 
The program's funding request also supports the President's commitment 
to increase funding by $1.4 billion over 10 years for the 
Weatherization Assistance Program, which improves the energy efficiency 
of dwellings occupied by low-income Americans.
    Our Weatherization Assistance Program request ($288.2 million, 
$64.7 million above the fiscal year 2003 appropriated level), supports 
weatherization of approximately 126,000 low-income homes. Based on 
historical data, the program anticipates that low-income families will 
save $1.80 in energy costs for every dollar invested over the life of 
the efficiency improvements. The Weatherization Assistance Program was 
assessed using the Administration's PART and was rated Moderately 
Effective.
    Our fiscal year 2004 request for other subprogram activities within 
the Weatherization and Intergovernmental Program are as follows: State 
Energy Program Grants ($38.8 million, $5.9 million less than 
appropriated in fiscal year 2003), State Energy Activities ($2.4 
million, $3.0 million less than appropriated in fiscal year 2003), and 
Gateway Deployment ($27.6 million, $13.3 million less than appropriated 
in fiscal year 2003). Within Gateway Development, there are several 
program shifts. For example, to avoid duplication of efforts, funding 
for International Market Development activities is now requested within 
the International Renewable Energy Program in the Energy and Water 
appropriation. The National Industrial Competitiveness through Energy, 
Environment, and Economics (NICE3) activity is terminated because the 
activities are within industry's capability and do not match up well 
against the Administration's R&D investment criteria. Other activities 
are being refocused to ensure program performance can be meaningfully 
evaluated.
    Building Technologies.--EERE's buildings technology R&D programs 
address technologies, techniques and tools to make residential and 
commercial buildings, both in existing structures and new construction, 
more energy efficient, productive and affordable. Strategies include 
system R&D to reduce overall residential and commercial building energy 
use, R&D focused on energy end uses such as water heating, food 
refrigeration, and clothes washing, and the development of building 
energy efficiency codes and national equipment energy efficiency 
standards. The Buildings program was assessed using the PART and was 
rated Adequate. Recommendations included refocusing R&D funding on 
long-term, high-risk, potentially high-payoff activities; evaluating 
potential duplication of Building program activities funded via the 
Energy and Water appropriation; and developing better performance 
measures. The request begins to address these recommendations.
    Our fiscal year 2004 Budget for the Interior-funded portion of the 
Building Technologies program is $52.6 million, $6.8 million less than 
appropriated in fiscal year 2003. The funding supports a portfolio of 
activities that includes solid-state lighting, energy efficiency 
improvement of other building components and equipment, and their 
effective integration using whole-building-system-design techniques, as 
well as the development of codes and standards.
    Emerging Technologies R&D.--In fiscal year 2004, we are requesting 
$21.8 million to conduct building components and equipment R&D. This 
amount is $9.4 million below the fiscal year 2003 appropriated level. 
The request reflects a redirection of near-term, low risk R&D in space 
conditioning and appliances to longer-term, higher-risk activities with 
a greater potential public benefits. For example, we are proposing a $5 
million investment to expand our Solid State Lighting research 
activities. Solid State Lighting represents a promising, new approach 
to efficient lighting systems. Our Solid State Lighting research will 
create the technical foundation to revolutionize the energy efficiency, 
appearance, visual comfort, and quality of lighting products by 
achieving efficiencies upwards of 70 percent (source efficiency).
    Residential Buildings and Zero Energy Buildings R&D.--The fiscal 
year 2004 Budget is $15.2 million, an increase of $2.9 million from the 
fiscal year 2003 appropriated level. The Department will pursue systems 
research on five promising technology areas, enhance activities to 
apply practices and approaches developed through Building America to 
existing residential buildings.
    Equipment Standards and Analysis Program.--We are requesting $9.0 
million, compared with $9.6 million in our fiscal year 2003 
appropriated level. The Department will continue the development of 
equipment test procedures and standards. We will be completing analyses 
that will add new products to the lighting and appliance standards 
program.
    Industrial Technologies.--The Industrial Technologies program 
partners with energy-intensive industries to develop and apply advanced 
technologies and practices that reduce industry's energy consumption 
and improve environmental performance. In fiscal year 2004, we are 
requesting $24.0 million, compared with the $62.1 million appropriated 
in fiscal year 2003, for the Industries of the Future (IOF) (Specific) 
programmatic area. The request reflects a determination that the 
program supports some activities for which the private sector has 
sufficient incentive to pursue without Federal support. The Department 
has re-focused its R&D efforts to higher priority technologies within 
the EERE portfolio, including hydrogen and advanced fuel cell 
technologies. The activities that continue in the IOF (Specific) 
programmatic area will focus on bringing existing projects to 
successful commercialization and pursuing longer-term, higher-risk 
activities with significant potential public benefits that industry 
would not undertake alone. We are also requesting $34.4 million, $2.1 
less than appropriated in fiscal year 2003, for the IOF (Crosscutting) 
programmatic area, which includes Industrial Materials of the Future 
($13.6 million); High Efficiency Combustion Systems ($2.0 million); 
Sensors and Control Technology ($3.8 million); and Industrial Technical 
Assistance ($14.8 million).
    Biomass.--For the first time we have brought a diverse industry 
together and produced a vision and R&D roadmap that has increased the 
level of industry investment. This roadmap has allowed us to begin the 
process of rebuilding the program and focusing on the most promising 
long-term opportunities for these technologies. We have improved our 
collaboration with other Federal agencies, especially the Department of 
Agriculture (USDA). In addition, the Farm Bill provided direction and 
mandatory funding to USDA to work with DOE in advancing biomass 
technologies. Our fiscal year 2004 request for Interior-funded portion 
of the biomass program is $8.8 million, compared with $24.6 million 
appropriated in fiscal year 2003. The request supports continuing R&D 
on the thermochemical and bioconversion process, and evaluating 
opportunities for the production of fuels and chemicals from 
intermediates (``platforms'') such as sugars from biomass and starch 
crops, synthesis gas from biomass gasification, and biomass oils. The 
request terminates black liquor gasification activities, which do not 
align well with the R&D investment criteria, as sufficient incentive 
exists for industry to pursue these activities alone.
    EERE bioenergy activities were integrated into one office to help 
focus resources on a limited and more coherent set of goals and 
objectives, increasing collaboration with industry, reducing overhead 
expenses, and exploiting synergies among similar activities in support 
of a future biorefinery industry. This focus on a clear set of goals, 
substantial leveraging of research funding with industry, and the 
transfer to industry of a number of demonstration activities that 
industry should continue to pursue without federal support is reflected 
in our request.
    Power.--Our Distributed Energy Resources Program leads a national 
effort to develop a flexible, smart, and secure energy system by 
integrating clean and efficient distributed energy technologies 
complementing the existing grid infrastructure. The program is 
supporting regional and state strategies to ensure electricity and 
reliability. By producing electricity where it is used, distributed 
energy technologies can increase grid asset utilization and reduce the 
need for upgrading some transmission and distribution lines. Also, 
because distributed generators are located near the point of use, they 
allow for the capture of the waste heat produced by fuel combustion 
through combined heat and power (CHP) systems. In fiscal year 2004, we 
are requesting $51.8 million, compared with $61.1 million appropriated 
in fiscal year 2003. The program is following an RD&D model, similar to 
Advanced Turbine Systems subprogram, completed in fiscal year 1999, in 
pursuing activities in microturbines, reciprocating engines, thermally 
activated devices and other areas. The program expects to meet the 
performance milestones for efficiency, environmental emissions and cost 
effectiveness for microturbines and reciprocating engines through cost-
shared RD&D and down selecting among several different approaches.
    Federal Sector.--The Federal Government is the Nation's single 
largest energy consumer. It uses almost one quadrillion British thermal 
units (Btu) of energy annually, or about 1 percent of the Nation's 
energy use. In fiscal year 2000, the Federal Government spent about $4 
billion in energy to heat, cool, light, and conduct operations in 
500,000 buildings. Simply by using existing energy efficiency and 
renewable energy technologies and techniques, the Federal Government 
can begin to lead the Nation toward becoming a cleaner, more efficient 
energy consumer. In fiscal year 2004, we are requesting $20.0 million 
for the Federal Energy Management Program to continue meeting the goals 
of reducing Federal energy consumption.
    Program Management.--The Energy Conservation Program Management 
budget component provides executive and technical direction, 
information, analysis, and oversight required for efficient and 
productive implementation of those programs funded by Energy 
Conservation appropriations in EERE. In addition, Program Management 
supports all Headquarters staff, six Regional Offices, the Golden Field 
Office in Colorado and several DOE employees at three Operations 
Offices to plan and implement EERE activities as well as facilitate 
delivery of applied R&D and grant programs to federal, regional, State, 
and local customers. In fiscal year 2004, we are requesting $76.7 
million for these activities, which is fairly level with the fiscal 
year 2003 appropriated level.
            energy information administration budget request
    For the Energy Information Administration (EIA), we are requesting 
$80.1 million, the same level as appropriated in fiscal year 2003. The 
requested funding will be used for ongoing data and analysis activities 
and critical data quality enhancements, so EIA can continue to 
disseminate accurate and reliable energy information and analyses to 
inform energy policy-makers. EIA's base program includes the 
maintenance of a comprehensive energy database, the dissemination of 
energy data and analyses to a wide variety of customers in the public 
and private sectors through the National Energy Information Center, and 
the maintenance of modeling systems for both near- and mid-term energy 
market analysis and forecasting.
    In fiscal year 2004, EIA's priority is to maintain high-quality 
core energy data programs and forecasting systems needed to provide 
timely data, analysis, and forecasts. EIA will complete the update and 
overhaul of its consumption surveys. EIA will continue to overhaul the 
electricity surveys and data systems to accommodate changes in the 
deregulated energy industry and improve data quality and accuracy in 
the petroleum, natural gas, and electricity areas.
    EIA continues to aggressively expand the availability of electronic 
information and upgrade energy data dissemination, particularly on the 
EIA Web site. The increased use of electronic technology for energy 
data dissemination has led to an explosive growth in the number of its 
data customers and the breadth of their interests, as well as an 
increase in the depth of the information distributed. During fiscal 
year 1997, EIA established a goal to increase the number of users of 
its Web site by 20 percent annually. In each of the succeeding years 
EIA has managed to either meet or exceed this commitment, with a 39 
percent increase in fiscal year 2002 while delivering more than 2,400 
gigabytes of information.
    EIA also has increased dramatically the distribution of its 
information by becoming the dependable source of objective energy 
information for the news media. By using this distribution channel EIA 
has ensured its energy data to be widely seen and used by the general 
public at minimal additional cost to the Federal Government.
    In May 2002, on short notice, and with no new budget resources, 
EIA, at my direction, began operation of a new weekly survey of natural 
gas in underground storage after the American Gas Association stopped 
operation of its weekly survey. This survey is the Nation's only weekly 
gas supply data and is crucial to decisions of supply planners in 
industry and utilities as well as to analysts assessing the current 
natural gas supply and demand situation, especially prior to the winter 
heating season.
    EIA culminated a three-year effort to revise its electric power 
data collection forms with a new set of surveys. The new surveys will 
collect information necessary to understand and evaluate many of the 
changes that have occurred in the electric power industry due to 
restructuring and retail competition by collecting additional 
information from the growing percentage of nonutility generators. EIA 
added to its E-Government initiatives by incorporating Internet data 
collection with this set of surveys.
    In the area of improving data quality, EIA has reprocessed twelve 
years of electricity data from nonutility generators and has revised 
its Annual Energy Review to present this data according to industry 
conventions, moving nonutility power producers' consumption from the 
industrial sector to the electric power sector. The revised data uses 
natural gas consumption supplied by nonutility electric generators in 
place of natural gas pipeline deliveries, providing a better 
representation of natural gas consumption. These revisions will be 
extended to other EIA publications this year.
    With increasing frequency, EIA has been requested by the 
Administration and Congress to produce comprehensive service reports 
that analyze current energy issues of major importance. The number and 
sophistication of these analytical requests have grown, often requiring 
EIA to postpone work on vital quality assurance activities, and 
requiring negotiation with the requestor on delivery dates and the 
scope of the study and final report. As in past years, EIA fulfilled 
several requests for special studies and investigations for the 
Administration and Congress. During fiscal year 2002, EIA expended 
nearly $2 million in resources to complete the 93 special reports and 
analyses during the fiscal year. In particular, EIA was asked by 
several Members of Congress to evaluate the impact of several 
provisions of the proposed House and Senate Energy Bills on energy 
demand, supply, prices, and on the economy. These analyses were often 
referred to Congressional floor debates and many were cited in revision 
to the proposed Senate bill. If this level of demand continues, EIA is 
expected to exceed $2 million in fiscal year 2004 to fulfill these 
requests for analyses and reports on topical energy issues.
    Mr. Chairman, and Members of the Subcommittee, this concludes my 
prepared statement. I would be happy to answer any questions you may 
have at this time.

    Senator Burns. Thank you, Mr. Secretary. We have been 
joined by the ranking member, and former chairman of the full 
committee, Senator Byrd this morning. Senator Byrd, if you have 
a statement, we would entertain that at this time.

              OPENING STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Mr. Chairman, thank you very much, and thank 
you, Mr. Secretary. Thank you, Mr. Chairman, for holding this 
hearing today so that the members of this subcommittee have an 
opportunity to review and discuss the administration's fiscal 
year 2004 budget request for the Office of Fossil Energy, the 
Office of Energy Efficiency, the Energy Information Agency, and 
the Strategic Petroleum Reserve. I appreciate your willingness 
to ensure the Secretary's appearance this morning. He's kind of 
hard to get hold of, but you brought him in. You are from the 
west, and when you go after them, you get them, right?
    Senator Burns. I wish I could say that about my fishing.
    Senator Byrd. Much of the $1.7 billion appropriated to the 
Energy Department through the Interior bill is directed towards 
research and development activities. These programs, 
particularly the fossil energy programs, are the linchpin to 
ensuring our Nation's energy security. Mr. Chairman, 52 percent 
of the electricity generated in this country comes from a coal-
fired power plant, and close to 100 percent of our 
transportation comes from oil and natural gas. Obviously, the 
importance of fossil fuels to our national and economic 
security cannot be overstated.
    Yet despite those facts and contrary to all the rhetoric 
that we hear coming from this administration, what is being 
proposed for the Office of Fossil Energy is simply disastrous. 
This budget cuts coal research 10 percent below the fiscal year 
2003 enacted level. It cuts natural gas research and 
development by 43 percent. It cuts oil research and development 
by 64 percent. And it would put 150 of the brightest fossil 
energy scientists out of work at the very moment we should be 
redoubling our efforts to find resources in an environmentally 
sound manner.
    Mr. Chairman, I look forward to working with you throughout 
the appropriations process to see what can be done to rectify 
these shortsighted and negative proposals. I know that 
resources will be particularly tight for fiscal year 2004, but 
this budget request cannot be adopted in its present form 
without doing serious damage to our Nation's energy security 
efforts. I would urge you and all the members of the 
subcommittee to resist going down that path.
    Thank you, Mr. Chairman.
    Senator Burns. Thank you, Senator.
    We discussed this when the Secretary was in my office, and 
we're going to find a way to get the job done the way it should 
be done. I'm always amazed at the mindset of some folks. The 
majority of our oil and gas is found on public lands. Yet, we 
vote every day to take those lands and those areas where that 
resource is found completely off the board when it comes time 
to inventory what we have in the event that we need them. So 
this thinking on oil and gas runs counter to some ideas here on 
the Hill of what we should be using.
    We spend a lot of money every year on the Strategic 
Petroleum Reserve, and send millions of barrels of oil down 
there, we simply buy it and put it in the ground. That's a cost 
to the taxpayer. The taxpayer is paying nothing for the natural 
reserves that we find on some of our outer continental shelf 
and our public lands. It is already there because Mother Nature 
stores it, but we are denied the right to inventory it and 
recover it, if it has to be recovered.
    About 2 weeks ago we had the opportunity to drive the fuel 
cell automobiles that General Motors had out here. I will tell 
you that looking at the numbers, and looking at the work that's 
being done, we are closer to a hydrogen society than we think 
we are. The work that's being done in hydrogen fuel cells is 
starting to see some results. So I'm very encouraged about 
that. Also the Secretary and I think there is a great 
possibility with Future-Gen.
    We have tons and tons of coal, and we should not back off 
in working on the technology to make it more feasible, to make 
it more acceptable to the environment, and to look at this 
great product we have because it is a source of the cheapest 
power that we produce today other than hydro. Hydro is the only 
one that can come close to that. So, Mr. Secretary, we talked a 
little bit about Future-Gen and its proposals, we look forward 
to working with you on that, and of course we also have some 
very distinct ideas on where it should be located, but 
nonetheless I think it is a bold step as far as our concerns.
    In the area of conservation, I believe you are aware of the 
solid-state lighting initiative which this subcommittee 
supported with an appropriation of around $3 million last year. 
You have requested $5 million for this program and there is 
significant promises that lay ahead in solid-state lighting and 
we've been a witness to a lot of that research and development. 
I understand the Department has investigated and calculated 
these potential benefits while developing a road map for the 
solid-state lighting program. Would you want to share with the 
committee your conclusions or have you drawn any conclusions, 
or where are you in that particular program?
    Secretary Abraham. Well, I think, Mr. Chairman that the 
conclusions we have to this point is we believe it is possible 
to produce higher quality lighting using advanced solid-state 
technology that could produce a 70 percent improvement over the 
best fluorescent lighting today. We are seeking about a 21 
percent increase in the lighting R&D budget from what we had 
submitted in 2003, in part to accommodate an increase in next-
generation solid-state lighting.
    So you know, I think the percentage of total electricity 
used in this country that's attributed to lighting is about 22 
percent of all of our electricity demand level, so if we can 
make gains in efficiency or breakthroughs in this area, it has 
a much broader application than a lot of the other things in 
which we do research. So I think we are exploring creating a 
more formal public/private kind of partnership and try to focus 
more on this issue. And I know that in the energy bill, this 
has come up as an area in which the Congress will want to take 
a lead in setting out a formalized process for this and it is 
an area where real potential exists.
    Senator Burns. For the information of the committee, we are 
talking about the use of fiber optics for the purpose of 
lighting. Senator, this can even be done through your drapes. 
They can change the tone of light and the amount of light. The 
folks who work what they call the midnight shift now, but in 
your day we worked graveyard, if you remember.
    Senator Byrd. The hoot owl.
    Senator Burns. The hoot owls. They can now make lighting in 
a plant to simulate a morning light, noon light, and an 
afternoon light, even though it's dark outside. It's a 
marvelous breakthrough. There is a consortium of manufacturers 
who have come together to support this lighting initiative. 
It's just like the Secretary says, when you talk about the 
possibility of a 70 percent savings in lighting costs alone in 
this country, you're talking about a big chunk of conservation. 
I really hope that the Department of Energy will take a closer 
look.
    According to the budget justification, a rather small off-
highway vehicle R&D program is being terminated because other 
research opportunities have higher impact on energy savings. In 
looking at the Department's own R&D road map off-highway, 
however, I find that off-highway uses account for 20 percent of 
the fuel used in the transportation sector. That is a huge 
amount and I don't think there are a lot of people that 
understand how much off-highway fuel is used in this country. 
Can you reconcile these figures with the energy use and the 
emissions with your decision to terminate a $3.5 million 
program?

              OFF-HIGHWAY VEHICLE R&D PROGRAM TERMINATION

    Secretary Abraham. As I understand, the principal focus of 
the work that has been done has been related to railroad 
applications, and I think in that area the amount of actual 
demand or the use of oil is pretty small compared to the daily 
total consumption of the country, which is about a quarter-
million barrels a day out of 12 million barrels a day of 
imports alone. So in terms of the priority somebody has to set 
when somebody sets a budget, we looked at that percentage 
versus the percentage that goes to the rest of the 
transportation sector and made the judgment that even if we 
were highly successful in the improvement of R&D in this area 
that it wouldn't have in terms of application that big of an 
effect, and I think that's the basis of that conclusion that 
you read.

                            GASOLINE PRICES

    Senator Burns. I think even though we're going into the 
vacation season gasoline prices are on everybody's mind. We saw 
the spike in February, and it's settled down to around $27 or 
$28 a barrel now. They tell me the domestic supplies are lower, 
our domestic production keeps going down. OPEC made an 
announcement the other day that they were going to watch their 
supplies. Can you give us an update on these fluctuating oil 
prices? And have you drawn any conclusions about what we should 
be doing about them?
    Secretary Abraham. Let me talk about the sense of the 
market for a minute and then what we should be doing. On the 
market itself, there is no question that we went through a 
period here over the last 4 or 5 months that was sort of the 
perfect storm in terms of problems. Just an incredible 
combination of events happened in a very short period of time. 
One of them was the strike in Venezuela, which took about 3 
million barrels of production out for a very long time, and 
much of the Venezuelan oil comes to the United States, that's 
one of our major supply sources. We also had a cold winter 
which made the demand go up during the winter heating season. 
We had in Nigeria a period of civil unrest that threatened some 
of the employees that worked in the oil sector there and they 
pulled people out of the fields and caused production in 
Nigeria to drop for a period. And we had the period leading up 
to the war in Iraq, we had the war, and since its beginning of 
course and even today, the production from Iraq was essentially 
halted. So this was a pretty amazing period of events.
    In one sense we saw some spikes in the market and you 
referred to them, we saw the market go from the mid-20s to even 
a little bit higher, to spike up into the high-30s for a brief 
period of time right before the war, I think the top limit it 
hit was $39.99 a barrel. And it has now come down and is 
stabilizing in the mid-to high-20 range. We would like probably 
less of that, to see, you know, obviously less of that 
volatility.
    On the other hand, if you compare this period to three 
similar periods in which a lot of international crises were 
taking place, from the last 30 years, the spike was 
substantially lower. In 1973 during the oil embargo that took 
place, prices spiked four-fold. In the 1979-80 period during 
the revolution in Iran, prices more than doubled. From the 
Persian Gulf War in 1990, 1991, prices doubled. But here they 
went up for a shorter period of time and by a much smaller 
amount.
    As a consequence, we have seen gasoline prices, the 
projection for gasoline prices for the summer based on our 
energy administration reduced substantially. At one point we 
were pointing to a summer-long average of almost $1.70 a 
gallon, and now it's $1.46 a gallon. We would like to see 
gasoline prices lower than that, but that's comparable or lower 
than two of the last three seasons, so in that sense we are a 
little more optimistic today than we would have been just 1 or 
2 months ago.
    What we would like to do in the long term is much more 
important, and I think the subcommittee cares how we address 
this. One, the chairman has talked about with me and talked 
publicly at some length about the need to diversify our 
international source of supply.
    Senator Byrd makes a good point. We will try to get our 
national labs focused on this challenge.
    So to complete the thought I was on before, Senator, the 
issue you have raised on a number of occasions about the 
diversification of where we have energy partnerships is 
important and Russia is one area I know you're interested in, 
and is one focus of our attention as well. Last year we hosted 
a summit between Russian energy companies and American energy 
companies, tried to bring them together to create an 
opportunity for people to become familiar with new project 
opportunities in Russia and the Caspian region generally. There 
is a lot of infrastructure that needs to be built in order for 
those resources to become available to the world market, but we 
see that as an opportunity. We see in Africa as well as our own 
hemisphere areas where greater production is possible. That's 
one part of the solution.
    A second part of the solution is the need to proceed 
producing more here at home, and the debate the Senate last had 
on the war and other production issues is critical to that.
    Finally, we try to look ahead, how can we reduce our 
dependence on foreign oil, and that's really the reason that 
the hydrogen proposal that we're talking about this morning, we 
see it as a way to address both the dependence on imports on 
the one hand and the environmental issues that relate to 
internal combustion engines on the other. And we are very 
confident that the research we're proposing and would be 
carried out with Congress's support to develop not just a fuel 
cell operating vehicle but the infrastructure to support it has 
the potential by 2020 to produce the capability to literally be 
operated on hydrogen fuel cells. The source of the hydrogen 
could be domestic in nature and it would change the game 
completely in terms of the dependence issue on the one hand and 
the issue of the environmental concerns on the other.
    The one thing I always point out to people is that these 
issues keep coming up. Every time there is a spike in energy 
prices, we all look for answers and then when the prices go 
back down it seems that the people sort of forget about it for 
a while and yet, the cycle continues. And whether it's a series 
of issues like the ones we have had this year or others, it's 
going to keep going in that sort of pattern until we get past 
this debate if we are successful, which I think we can be on, 
the hydrogen fuel cell initiative.
    Senator Burns. Senator, do you have a statement? I was 
going to go to Senator Byrd for his questions.

             OPENING STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. I have a brief statement. First, I want 
to thank you, Mr. Chairman, and welcome the Secretary. It's 
good to have you here and great to be with you again. I am 
interested in the President's budget for fossil energy R&D and 
energy conservation programs of the Department, and related 
programs. It has been 2 years since President Bush submitted 
his comprehensive energy plan, and we renewed our commitment to 
passing a comprehensive energy act. I look forward to Senate 
action on Senate bill 14, which is pending on the calendar, and 
I thank you for the help you gave us in preparing that bill.
    I also thank Senator Byrd and his staff and others for the 
significant help they gave us for preparing the coal provisions 
of that bill, which we think are mighty powerful for America's 
future. I believe the programs under the jurisdiction of the 
Interior Subcommittee are critical to our Nation's future. The 
administration's proposal to develop a hydrogen-powered car 
through the FreedomCAR and FreedomFuel initiatives with about 
$1.5 billion spread over the next 5 years hold significant 
promise for the future and again, Senator Byrd, we will find 
provisions for that in Senate bill 14 as a part of a Senate and 
congressional policy, with some changes.
    The Clean Coal Power Initiative and the Coal Research and 
Technology Initiative in which DOE proposes to invest $2 
billion over 10 years focuses on our most abundant energy 
resource. Coal is necessarily part of our energy future, and we 
want it to be clean coal. Investments in more efficient energy 
technologies for industry, the building sectors, and 
transportation have big payoffs for the country.
    Conservation is an important component of our energy 
security. The administration plans to double the funding for 
weatherization assistance over 10 years will greatly advanced 
this goal.
    There are many good initiatives in the President's budget, 
and most necessarily come at the expense of our ongoing 
programs. You know of my concern, Mr. Secretary, over the 
repeat of the administration proposals to significantly reduce 
our investments in oil and gas technologies. These are not big 
programs but over a number of years they have contributed 
significantly to new technology by which we are discovering oil 
and gas underground. The budget proposes funding oil at 65 
percent below the currently enacted level and gas by 44 percent 
below the enacted level. Those are the funding levels.
    Congress has traditionally restored funding to these 
programs and I suspect, even though the budget is tight, that 
we will try again to set our priorities in these appropriations 
bills. It will be tough for us to provide funding for all the 
initiatives, but we are up to the task, and with the ranking 
member understanding these issues as he does, I believe somehow 
or another we are going to come through with a good 
Presidential budget being made better by this subcommittee.
    So I join my colleagues in welcoming you, Mr. Secretary, 
and look forward to an exchange of views. Before I am finished 
today, I will cite a technology that's going on in a little 
community in New Mexico and that I'm going to invite you to 
come and see. When it comes to the issue of clean coal, it is 
truly a marvel. We can't quite get it exposed, but it's 
something that the world should know about. I yield.
    Senator Burns. Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman, and thank you, 
Senator Domenici, for the good work you're doing, and you have 
made my statement already but I'm going to make it again, 
because I know the Secretary wants to hear it.

                   FOSSIL ENERGY RESEARCH BUDGET CUTS

    Mr. Secretary, 2 years ago, the administration ignored its 
own campaign rhetoric and proposed an 18 percent cut in funding 
for fossil energy research. At that time, I remember that 
speech that the President made in West Virginia, and that's why 
you're sitting right here today. He made that speech in West 
Virginia, he was going to add $2 billion to fossil energy 
research, so here you are. But for that, and his outreach to 
the steelworkers in West Virginia, he wouldn't be President and 
you wouldn't be Secretary.
    So at that time, you explained away the inconsistencies 
between the rhetoric and the reality by telling us that you 
were new to the job and that you did not have complete control 
of the budget. You told us just wait a year and we would see 
concrete evidence that the administration was truly committed 
to the kind of research needed to secure our national energy 
security.
    Last year, the President's budget proposed a 16 percent cut 
in the fossil energy account. You told us then, with all due 
respect, that despite its actions, the administration was 
indeed devoted to fossil energy research but that the Assistant 
Secretary was new to his job and did not have complete control 
of the budget. You also said that he was undertaking a top-to-
bottom review of all fossil energy programs and that that 
policy review would drive future budget requests.
    Now today, here comes the Secretary before us to present a 
budget request which again cuts fossil energy research by 16 
percent overall, including 13 percent from the Clean Coal 
program, 44 percent from natural gas research, and 58 percent 
from oil research. I think these requests constitute prima 
facie evidence that this administration lacks a coherent and 
comprehensive national energy plan. I can't believe that these 
cuts are based on sound policy decisions. Nor do I believe that 
anyone can seriously argue that in a $2.2 trillion Federal 
budget, $600 million invested in research that will allow us to 
utilize our most abundant energy resources in a sound manner is 
too much. Thus, I question you, Mr. Secretary.
    Can you point to anything in your top-to-bottom policy 
review that would suggest, even suggest a need for the level of 
cuts that this administration has proposed?
    Secretary Abraham. Well, let me try to preface my remarks 
if I could take a little additional time on this response by 
saying this administration absolutely is committed to and is 
working hard on programs that relate to maintaining the 
strength of coal and/or fossil fuels as part of our energy mix, 
and there should be no misunderstanding of that.
    Second, I want to also sort of talk briefly about the 
commitments we are making and the programs we are trying to 
launch.
    Third, I want to put in context, although just for your 
consideration, the chronology of how some of these budgets have 
been put together.
    Let me talk about the program, Senator. We obviously are 
demonstrating a greater level of commitment to putting the 
fossil fuel, and particularly the coal sector, to bring it into 
the 21st century and maintain it as a strong part of our energy 
mix. I base it on the rhetoric of people who accuse us of being 
far too committed to coal in the future. In fact, when we 
announced our hydrogen fuel vehicle program, people assailed it 
because they said you were going to burn dirty coal to create 
hydrogen.
    Our position is that for coal to succeed and survive and be 
successful, we have to address some of these environmental 
concerns, and we concluded that the carbon sequestration is a 
key component of that long-term vision for the use of coal. 
That's why that program is increased by 60 percent. That's a 
result of the review which we conducted.
    I am also convinced that we have to go beyond the 
laboratory and demonstrate to the world the capabilities that 
we have and the ability that we will have to actually operate a 
totally clean power plant, coal-based electricity generation 
facilities that sequesters 100 percent of the carbon. That's 
why we launched a $1 billion program in the new Future-Gen 
proposal which over the next decade and perhaps 10 or 12 years 
will be, I think the most ambitious new program in the area of 
fossil fuel that is being undertaken anywhere in the world. In 
fact, since we announced it, we have had many numerous nations 
contact us to ask if they can participate.
    Now, you have to----
    Senator Byrd. Mr. Secretary, my time is limited. You are 
still cutting the budget. Now, is there anything in the policy 
documents or in the administration's national energy policy 
that would convince Congress to massively scale back our 
national commitment to fossil energy research?
    Secretary Abraham. Let me apologize. I was taking extra 
time and I hope it won't come off Senator Byrd's time.
    Senator Burns. Nothing comes off his time.
    Senator Byrd. You see what respect age brings you. I am the 
ancient gnome of the Capitol.

                 PROGRAM ASSESSMENT RATING TOOL [PART]

    Secretary Abraham. Let me try to focus on that specific 
issue. First, in determination of some specific conclusions, 
one of the things which was included in the process of putting 
this budget together was the result of a series of analyses 
called PART scores, that analyzed various Department of Energy 
programs. It was a review conducted by the Office of Management 
and Budget, and regrettably from our point of view, the scores 
with respect to our natural gas and oil technology programs 
deemed those programs as currently constituted ineffective. 
After that process, with the programs in those areas deemed to 
be literally ineffective in their performance, not every part 
of them, but substantial parts of them, I did not feel I could 
come to this committee or the public and say we are asking for 
large amounts of money to support programs that have been rated 
as ineffective. We are in the process of reconfiguring those 
test programs.
    Second, I would say to the committee if the chronology 
could be thought about, we submitted this budget before this 
committee and this Congress passed its budget, and now the 
comparison to what was the enacted level of 2003 is being used 
to say that we proposed big cuts. And granted, there were marks 
in the House and Senate at the time, but we didn't have a final 
budget. We are proposing in R&D for fossil energy a $40 million 
increase over what we proposed last year.
    I would also note that we had available to us last time 
when we submitted our budget for our 2003 request, we had 
available advanced appropriations which we could include in 
that request. We still submitted a budget with an R&D----

                        FOSSIL ENERGY OMB BUDGET

    Senator Byrd. Mr. Secretary, would you provide the 
committee with the fossil energy budget submission that your 
Department presented to OMB, so the committee can compare it 
with what the administration has requested?
    Secretary Abraham. I don't know if such documents are 
normally provided in this kind of setting and I would have to 
check on whether that kind of document is provided.
    Senator Byrd. What I'm trying to get at is, I'm trying to 
get at what you really told the Office of Management and 
Budget--I suppose Mr. Mitch Daniels is still at the helm--what 
you really told OMB you needed and what, how we can compare 
that with what the administration requested. Perhaps then we 
will be in a position to make an adjustment that will help you 
meet your needs. And that's what the people I think want to 
see, they want to see careful handling of their money, but they 
also want to see research go forward so their children can be 
encouraged by the needs are that are going to confront them. 
Can you provide that?
    Secretary Abraham. Senator, I can't recall which documents 
we have made available or would make available. That which has 
been made available in the past, I will make available. I can't 
recall which of these sorts of submissions have ever been 
submitted to Congress.
    Senator Byrd. I can assure you that's not the first time 
that question has been asked and I can also assure you that the 
Appropriations Committee has been provided with the answers to 
such questions as they have been propounded to various 
department heads in the past. I have been around here 50 years 
and this is something the committee needs to know. See what you 
can do and see if you can provide that for the record.
    [The information follows:]

             Non-Release of Department's OMB Budget Request

    According to the Office of Management and Budget [OMB], the advice 
and counsel leading up to the recommendations that form the basis of 
the President's budget are part of the internal deliberative process of 
the executive branch. Similar to the pre-mark up activities of any 
congressional committee, the initial views and positions within the 
executive branch vary widely relative to the outcome in the President's 
budget. In order to assure the President the full benefit of advice 
from the agencies and departments, the administration treats these 
working papers, such as the Department's OMB budgets, as pre-
decisional, internal documents. Therefore, the Department's OMB budget 
is not releasable outside of the executive branch.

    Senator Byrd. Is my time up?
    Senator Burns. It is, and I would call on Senator Domenici.

                               CLEAN COAL

    Senator Domenici. Mr. Secretary, I want to compliment the 
administration on the continuing commitment to the Clean Coal 
Power initiative and to the Clean Coal Power and Coal Research 
initiative in the 2004 budget. I believe we should capitalize 
on our greatest strength in coal and nuclear, in both areas and 
address the risk areas. I think you are handling these in the 
right way now and I compliment you for it.
    I would like to assure you that coal initiatives will 
address issues associated with mining as well as the subsequent 
combustion process. For example, I want to cite this for you 
and for you, Senator Byrd. There is a small company in New 
Mexico in the city of Raton which has worked with a Russian 
institute through your Department's Initiatives for 
Proliferation Prevention to develop instruments that allow 
remarkable refinements in coal and how it is mined.
    This instrument, which actually mounts itself on a drill 
head, enables the drill to automatically, believe it or not, 
leave the last few inches of the top and bottom of the coal 
seam in place. The majority, it happens, of all the heavy metal 
contaminants are in those few inches of coal. Can I repeat? The 
majority of the metal contaminants, which are the worse, are in 
those few inches. This machine goes through the mine and leaves 
that there, never touches it, and it's geared to it, it's 
instrumented to it, it's all technology. What comes out is coal 
that is far less contaminated. Thus, the burden of what you 
have to do with it to clean it is dramatically reduced.
    I continue to believe that we should focus on research and 
development in clean coal. I like the big picture, let's 
produce a machine. I think the same way about nuclear, let's 
produce the new nuclear machine. But at the same time, there is 
research of this type and many like it, and I would like to 
call it to your attention because I believe it has some 
fantastic potential for America. I would hate to see it used 
exclusively in Russia for the next 8 or 10 years before we take 
a look. So I leave that with you and I will call it to your 
attention again, Mr. Secretary.
    Secretary Abraham. Thank you.

                               FUEL CELLS

    Senator Domenici. On oil and gas research, I'm disappointed 
in the request. I told you about it, but I believe we will work 
together on this committee to see what we can do about it.
    On fuel cells, the administration's proposed initiatives 
for fuel cells and hydrogen R&D have been very well received in 
the scientific community and in the Congress. The so-called 
FreedomCar and other things that go with it are excellent 
ideas. There is a serious question about whether that program 
is going to get us where we want to be fast enough, but in an 
economy where we don't have all the money in the world to 
spend, I believe for an initiative just announced to have $1.4 
billion is an excellent start.
    A recent report of the National Research Council raised the 
issue, essentially saying that in its assessment, that a number 
of the fuel cell demonstration projects seemed to be getting 
ahead of our progress on essential fuel cell R&D. Mr. 
Secretary, do you share my concern that we need more 
fundamental R&D to make progress on fuel cell technology?
    Secretary Abraham. Yes, we do. The challenges we have on 
the hydrogen fuel cell and FreedomCar initiatives are multiple. 
We have a challenge in bringing down the cost of the fuel cell 
itself. The price has come down a lot in recent years, but it 
still has a long way to go.
    Second, we have an issue relating to storage. We have to be 
able to store sufficient power on the vehicle to enable the 
range that they think you should be able to drive, that's 300 
miles, and there is research involved there. We have the 
production of the hydrogen, and one of the things that we are 
doing in this next 5-year period is to try to invest in a 
variety of production technologies, coal being a possible 
source, nuclear energy being a possible source, natural gas 
being a source, and renewable sources as well.
    Senator Domenici. Just for the record, I rode around in 
one. How much was the cost of that one?
    Secretary Abraham. The rental cost is in the $10,000 range.
    Senator Domenici. Aren't they worth more than a few million 
dollars each?
    Secretary Abraham. Yes.
    Senator Domenici. I would expect that if they are going to 
each cost $10 million, we will have to vote on whether we want 
to make any progress or not. Let me leave that.
    What is your assessment of research on liquid hydrogen, 
compressed gas, and carrier fuels that would transport hydrogen 
in vehicles?

                           HYDROGEN VEHICLES

    Secretary Abraham. At the end of the day, our belief is 
that some of these technologies, can work for near-term 
demonstrations of hydrogen vehicles. One of the major problems 
is that they, for example, the liquid tanks come nowhere close 
to meeting the volume targets, the issue I mentioned a moment 
ago. One of the ideas a few years ago was electric vehicles, 
and then people realized the distance you could drive was 
constrained. We recognize that for a hydrogen motor vehicle 
fleet to work, people have to see it as a comparable product to 
the product it's used to, it has to drive as far, sufficient 
power and size, but you have to be able to refuel and get home 
when you drive some place, and the storage issues are 
substantial for liquid tanks and compressed tanks.
    Fuels like gasoline or methanol can be used, you have to 
have an on-board processing unit, and the processors have been 
reduced dramatically in size. They are expensive and 
complicated projects, so again, we question whether either of 
these routes will get you to a vehicle comparably priced even 
after much development, which is why we tried to develop the 
fuel cell.

          FUEL CELL RESEARCH AT LOS ALAMOS NATIONAL LABORATORY

    Senator Domenici. I want to close my testimony here by 
making a suggestion to you. I note that the researchers at Los 
Alamos National Laboratory continue to make progress in fuel 
cell research, and I think you would concur in that statement. 
I think they are poised to be one of the centers of excellence 
in this area. I believe the Nation needs to create a center to 
integrate a number of the specialties to more easily develop 
commercially-ready fuel cell initiatives, and I think the 
Department ought to be thinking about a center, a focal point. 
I ask you to consider that and obviously in your consideration 
of it, if you might consider Los Alamos as a center of 
excellence to pursue more vigorously the various research 
moving efficiently towards a prototype and more ready-to-go-
fuel cell.
    Secretary Abraham. The answer would be of course as we move 
through those considerations, both the question of one or more 
centers will be examined, and we already have I think very high 
regard for the work that has gone on and continues at Los 
Alamos in this area. What we're trying at this stage to do is 
to determine the road map in kind of the logistics. I think we 
have an excellent road map in terms of the research pathway 
forward. A key part of that is we really make sure that the 
money that's needed, I think 80 percent is the amount that we 
believe has to be focused on basic research with a smaller 
percentage, 20 percent or so in terms of demonstrations, and 
now that we have that pathway for it, I think how we execute 
the pathway is what is important.
    We definitely know what the research challenges are and we 
hope to keep people realistic about the time frame. People 
think that somehow in 4 or 5 years, we can mandate or force the 
marketplace to move faster than it is prepared to move and I 
think that will undermine the success of this transformation. 
It took many, many years and a trillion dollars to build the 
petroleum infrastructure we have today and it's going to take 
time with respect to a hydrogen fuel infrastructure, and if you 
try to short-cut that, it would be counterproductive.
    Senator Domenici. But Mr. Secretary, the objective of 
moving as rapidly as you can in the most efficient manner to 
get to a consumer-ready fuel cell system is something you must 
look at every day, because that may not happen by having 
diffuse research that's going on with everybody excited about 
their little business.
    Secretary Abraham. You are absolutely correct and there is 
no question that the time issue is critical in the following 
respect. This has always been 30 years away.
    Senator Domenici. It's not now.
    Secretary Abraham. I will say this. It will be 30 years 
away if we don't put it on a fast track, don't fund it and 
don't move with the vehicles at the same time. Because as I 
think many of you are already well aware, which is a challenge 
itself, is we can't just build the car when there isn't a fuel 
system, or a fuel system when there is no car. We really have 
to move them both.
    Senator Domenici. Thank you very much. Thank you, Mr. 
Chairman.

                           HYBRID TECHNOLOGY

    Senator Burns. I want to follow up on that. You have cut 
Vision 21 on the hybrids and that tells me that the production 
or the results of that R&D has been on the negative side. Can 
you bring me up to date?
    Secretary Abraham. In the budget we submitted, we're 
seeking a higher amount than we did last year for hybrid 
technology because we do see developments in that area as still 
beneficial. However, we don't believe the hybrids are the final 
answer, we see this as a transitional step between where we are 
today with a basic, you know, internal combustion engine, 
traditional system and the day in 20 years or so when hydrogen 
vehicles are available. We would like to and believe there can 
be an expansion of other kinds of more fuel efficient vehicles 
and we see hybrids as a part of that transition, which is why 
you will see that we are proposing a slight increase in hybrid 
technology.
    Senator Burns. I am concerned about all these cuts in 
particular areas. I don't want you to weaken your hand when it 
comes to interagency governmental policy. I think you have to 
have a strong hand about interagency on these environmental 
issues, because I would like to see more cooperation between 
the Department of Energy and Department of the Interior. 
Sometimes those talks break down when we talk about either 
stationary or transportation fuels, so I would kick that up if 
we could. We are going to have new people to deal with at EPA, 
but this is very sensitive.
    I have some questions on off-shelf reserves. We talked 
about most of these issues privately, and I think we can deal 
with them. We look forward to working very closely with you as 
we develop this budget.
    Do you have any further questions, Senator Byrd?
    Senator Byrd. I do have some, Mr. Chairman. Shall I 
proceed?
    Senator Burns. You may.

                     CLEAN COAL TECHNOLOGY PROGRAM

    Senator Byrd. 2\1/2\ years ago, I referred to this earlier, 
candidate George Bush endorsed the Clean Coal Technology 
program, he committed to spend $2 billion over 10 years to 
support that program. That's $200 million a year, a very strong 
endorsement of coal, and I'm sure that's one of the reasons he 
was able to carry the State of West Virginia in the 2000 
election.
    But despite his promise, in fiscal year 2002 he only 
proposed $150 million, in fiscal year 2003 he again proposed 
$150 million, and this fiscal year 2004 budget proposes just 
$130 million. By my calculation, I use the old math, I don't 
think the new math will be far off the point, that's $170 
million behind on the promise. Rather than seeking $600 million 
for the Clean Coal program, as candidate Bush promised, the 
administration sought only $430 million, 38 percent less than 
what was pledged. That seems to be a credibility gap between 
what was said and what has taken place. What can you say, Mr. 
Secretary, to the people who heard Mr. Bush as a candidate 
proclaim if he was elected that he would spend $2 billion on 
the Clean Coal program, and does the administration have a plan 
to live up to its commitment?
    Secretary Abraham. I would state that we are $430 million 
ahead of where we were, and the administration has demonstrated 
those commitments, and in a variety of other regulatory debates 
that have gone on, that we are deeply committed, as I said 
earlier, to the coal sector and the role of coal in the energy 
mission. But I would just add to what I said earlier, that in 
addition to the Clean Coal Power initiative that you have 
discussed, there are 7 more years to go and we are mindful of 
the commitment that was made.
    We have just announced the Future-Gen program, which I 
believe will be a very substantial $1 billion program over the 
next 10 to 12 years, so it's my anticipation that the Future-
Gen program will be running parallel to the Clean Coal Power 
initiative and the combination of these over this time frame 
will at least reach the level that the President committed and 
could conceivably be a fair bit higher than that level when the 
price tags are added up at the end.
    Senator Byrd. Mr. Secretary, you seem to be counting all 
coal research. Mr. Bush cited in specificity the Clean Coal 
program, not coal in general, he said Clean Coal. And so, there 
is a credibility gap. He wasn't talking about all coal, he was 
talking about clean coal research when he used that figure.

                               FUTURE-GEN

    Secretary Abraham. Senator, again, I focus on our Future-
Gen proposal as being the greatest enterprise that will be 
undertaken to demonstrate how we can generate power with coal 
in an environmentally clean fashion. It complements the Clean 
Coal initiative that you referenced and so I believe, as I 
said, over the 10 years, I mean, the combination of those 
programs will more than meet the $2 billion commitment the 
President made.

                 NATIONAL ENERGY TECHNOLOGY LABORATORY

    Senator Byrd. The administration's request for the Office 
of Fossil Energy contains $92.7 million for employee salaries 
and expenses. Most of those people are assigned to the National 
Energy Technology Laboratory headquartered in Morgantown, West 
Virginia. On the face of it, it would appear to be a $5.5 
million increase over the fiscal year 2003 enacted level. But 
just as it did last year, the administration has again double 
counted $14 million in employee salaries previously authorized 
under the Clean Coal acts. The true request, therefore, is not 
$92.7 million, but, rather, $78.7 million, an 11 percent cut 
that translates into a loss of 150 jobs.
    The country cannot afford to lose 150 of the brightest 
fossil energy scientists we have. I can assure you that I will 
do everything I can to see to it that this budgetary sleight-
of-hand is reversed. In the meantime, would you please tell the 
committee the rationale for this decision, and is the 
Department of Energy responsible or as I would rather think, 
have you been dictated to by the Office of Management and 
Budget?
    Secretary Abraham. Senator, I take all the responsibility, 
because that's my job, and my only comment would be that we 
certainly will do our very best to address the issue of the 
work force. I'm happy to note that in addition to the money we 
had available to work with when we submitted the budget, the 
advanced appropriations which were included in the final 
enacted budget included an additional $80 million which we did 
not have access to when we made our submission for Clean Coal 
Technology. Obviously, the implementation of programs with that 
money will require us really to have more program direction and 
we'll work within that amount certainly to try to address the 
question of our work force.

               FOSSIL ENERGY PROGRAM TOP-TO-BOTTOM REVIEW

    Senator Byrd. Last year when you testified before the 
subcommittee, you told the subcommittee that you had directed 
the new assistant secretary to conduct a top-to-bottom review 
of all programs under his jurisdiction. And on November 21, 
2002, you wrote to me that the committee would be fully briefed 
on the contents of the review as soon as it had been approved 
by the Office of Management and Budget. The approval has now 
taken place and I know our subcommittee has, in fact, received 
a copy of the review, but I don't believe our staff has been 
fully briefed on its contents, nor have they had the 
opportunity to ask questions about the review's many 
recommendations. For example, it would be helpful to know more 
about the management reforms that have been proposed on page 4 
of the review for the Office of Fossil Energy and the National 
Energy Technology Lab in Morgantown. Given the fact that any 
such reorganization would have to be approved by the committee 
before it could be implemented, it's important to have these 
matters discussed with our staff as soon as possible.
    Can you tell us when you anticipate having the fossil 
energy staff brief the subcommittee staff?
    Secretary Abraham. I believe, Senator, in fact your staff 
brought this specifically to my attention, or at least that 
there has been inadequate communication between our staffers, 
this week on Tuesday. I conveyed that to my staff on Tuesday. 
My understanding is there was conversation yesterday with an 
offer actually to come up yesterday to provide an initial 
opportunity to have discussions, but because of the hearing 
that was happening today, that was not feasible. So it's my 
understanding there will be a meeting next week. I don't know 
that that will satisfy all of the issues, but it will be a 
starting point of what I hope will be much more frequent 
discussion and dialogue between the staffs. And I would make 
clear to you as I did to your staff, that if there is an 
inadequate level of this communication, please bring it to my 
attention and I will be happy to address it.
    Senator Byrd. Very well, thank you. If you do intend to 
move forward with a reorganization, can you tell the committee 
whether you expect to formally seek the committee's approval?
    Secretary Abraham. I guess I'm happy to try to answer that, 
but I'm not sure I can answer it at this time. Perhaps the 
Assistant Secretary, who is here--within the next week would be 
a time frame in which the request should be forthcoming.

                      COMPETITIVE SOURCING PROGRAM

    Senator Byrd. Very well, thank you. Mr. Chairman, I have 
just a couple other quick ones, if I may.
    One of the government-wide initiatives that I am 
particularly interested in is the administration's competitive 
sourcing program. As I understand it, the Office of Management 
and Budget essentially scores each department and agency on how 
well it complies with the President's management agenda. The 
various agencies are encouraged to submit management plans to 
the OMB and to meet competitive sourcing targets outlined in 
the President's budget. I have been informed by officials at 
OMB that these plans, while submitted to OMB for approval, may 
be released to the public at the discretion of the agency or 
department head.
    If this subcommittee is to recommend the appropriation of 
nearly $1.8 billion to the Department of Energy for the 
programs under the committee's jurisdiction, I think it's 
reasonable to expect a full accounting of any management plan 
or competitive sourcing plan submitted to OMB for approval. 
Will you please tell the committee the status of your 
Department's competitive sourcing plan, and will you agree to 
make it available to the Congress when it is complete?
    Secretary Abraham. Senator, I would be happy to make it 
available if it is--unless there are constraints I am unaware 
of. If it is being made available by other agencies, we 
wouldn't have a different viewpoint on that, and I would be 
glad to also provide, if the committee would like, some kind of 
personal briefing on it by the folks who have been engaged in 
the competitive sources work.
    [The information follows:]
      U.S. Department of Energy, Revised Competitive Sourcing Plan

                             [June 9, 2003]

                               BACKGROUND

    The Department of Energy [DOE] listed 9,889 full-time equivalents 
[FTE] on its 2001 FAIR Act Inventory as ``commercial,'' or about 67 
percent of DOE's total civilian workforce of 14,717 FTE. These figures 
include 3,409 commercial FTE at the Power Marketing Administrations 
[PMA]. Since the PMAs are largely funded by ratepayers and are already 
subject to the competitive forces of the marketplace, the Department 
and the Office of Management and Budget [OMB] mutually agreed to 
exclude the PMAs from the competitive sourcing initiative. 
Consequently, the Department's overall goal is to study 3,230 positions 
or 33 percent of its commercially coded FTE. In March 2002, DOE 
commenced studies on 972 FTE. As a result of further review and 
analysis, the total number of FTE included in the Department's first 
round of studies has increased to approximately 1,100. DOE plans to 
study an additional 2,100 FTE in fiscal year 2004 and beyond to reach 
its OMB mandated objective. It is expected that the taxpayers will 
benefit from the initiative, regardless of who wins the competitions, 
as a result of reduced costs, greater effectiveness, and increased 
responsiveness.

                     SUMMARY OF THE MANAGEMENT PLAN

    The Department plans to meet its goals through the use of in-house 
and contract support resources. The Department assembled a team of 
management, human resources, financial, acquisition and functional area 
analysts and defined the conversion, public-private competitions and 
privatization initiatives necessary to meet DOE's fiscal year 2002 and 
fiscal year 2003 performance targets. The Department awarded 
Performance Based Service Contracts (PBSC) to support the development 
of the management studies and competitions. The provisions of OMB 
Circular A-76 govern DOE's studies and competitions. The Department 
will continue its on-going studies and will conduct feasibility studies 
to determine the specific activities and related FTE that should be 
studied in future rounds. Business case anaylses will be the 
methodology employed, as well as a determination as to the studies' 
resource impacts and the ability of the Department to sustain its 
mission.
    Below is a further breakout of the fiscal year 2002/2003 plan by 
Departmental function and FTE. The name of the individual responsible 
for the Department of Energy's Office of Competitive Sourcing/A-76, 
with telephone number, is also provided.
    Competitive Sourcing Project Manager: Dennis E. O'Brien, Office of 
Management, Budget and Evaluation/CFO
    Phone Number: (202) 586-1690
    The Department, on March 22, 2002, announced an initial list of 927 
FTE to be competed in fiscal year 2002/2003. As anticipated, the number 
increased to approximately 1,100. It is expected that the scope of the 
studies and changes to the baseline will occur as the teams continue to 
review the functions and FTE under study.
    Announced cost comparison functions: Financial Services, 150 FTE, 
Department-wide. Revised to 159 FTE; Information Technology, 420 FTE, 
Department- wide. Revised to 642 FTE; Human Resources (training), 98 
FTE, Department-wide. Revised to 130 FTE; Logistics, 190 FTE, 
Department-wide. Revised to 220 FTE; Personnel Security Investigators, 
27 FTE, Department-wide. Study Deferred; Paralegal Support, 21 FTE, 
Department-wide. Exempted from further study; Graphics, 13 FTE; and 
Civil Rights Reviews, 8 FTE.
    These figures do not include contractor positions that are also 
being studied by the A-76 Teams.
    Overall the Department expects to compete at least 30 percent 
percent of its adjusted 2001 FAIR Act inventory upon the conclusion of 
its first round of studies.
    We estimate that the one-time additional budgetary cost of 
conducting these competitions will be about $6M (based on an estimated 
cost of $7,700 per FTE for a multifunction/multilocation study 
subjected to a full public-private cost comparison and other associated 
study and acquisition costs).
    The Department has completed the initial overview training program 
for competition managers, program managers, selected employees, and 
labor organizations that focused on the A-76 process. The Department's 
training emphasized performance and delivering quality service in the 
most cost-effective manner.

------------------------------------------------------------------------
                   Tasks                           Completion date
------------------------------------------------------------------------
Complete fiscal year 2001 FAIR Act           Completed.
 Inventory/Challenges/Appeals.
Develop Competitive Sourcing Plan..........  Completed.
    Identify functions, locations and FTE..  Completed.
    Coordinate program with employee labor   Completed.
     organizations.
    Establish communication/training         Completed.
     program.
    Publish guidance for functions with 10   Completed.
     or fewer FTE.
    Publish guidance for cost comparisons..  Completed
    Create tracking and reporting database.  June 2003.
Develop, plan and schedule fiscal year 2002/ Completed.
 2003 studies.
    Assemble team to review inventories/     Completed
     functions on sourcing plans.
    Review competitive sourcing plans and    Completed
     adjust as needed.
    Identify potential functional or         Completed
     geographic groupings.
    Determine schedule for function reviews  Completed
    Announce functions to be studied in      Completed
     fiscal year 2002/2003.
    Develop performance-based work           Completed
     statements for common functions.
Issue Guidance for fiscal year 2002 FAIR     Completed.
 Act Inventory.
Submit fiscal year 2002 FAIR Act inventory   Completed.
 to OMB.
Establish Study Team Organizations.........  Completed.
Select Study Team Support Contractors......  Completed.
Develop and submit for Secretarial approval  Completed.
 individual study action plans.
------------------------------------------------------------------------

         FISCAL YEAR 2004/05 COMPETITIVE SOURCING/A-76 PLANNING

    DOE is initiating a feasibility study to determine the FTE to be 
competed in fiscal year 2004-2005. This study will encompass cost 
benefit tradeoff analyses, identification of potential functions/
organizations and related FTE, identification of locations and 
recommended number of studies, identification of insourcing 
opportunities and characterization of mission/personnel and 
geographical impacts. The result will be the development of the most 
effective and efficient business case to support particular study 
areas.

                               INSOURCING

    DOE has and will continue to explore insourcing opportunities when 
it is deemed appropriate to fulfill mission requirements and in cases 
where significant efficiencies and economies can be achieved. The 
Department received approval under the fiscal year 2001 Energy and 
Water Development Appropriations Act to federalize its Emergency 
Operations contractor workforce. To-date, this has resulted in a 
conversion of 30 contractor positions with an additional 5 positions 
expected to be federalized by the end of fiscal year 2003. Overall, 
this national security related initiative will result in a net savings 
of $1.7 million annually. These savings will be redirected to enhance 
emergency operations training and to provide additional technical 
assistance to the field. Also during fiscal year 2003 and 2004, DOE 
will be soliciting organizations to identify insourcing opportunities 
warranting an A-76 study. To date, potential insourcing opportunities 
have been identified and are being investigated in the function of 
aircraft maintenance.

    Senator Burns. I think that would be helpful.

                    CLEAN ENERGY TECHNOLOGY EXPORTS

    Senator Byrd. I have one last question. Congress has urged 
the administration to support increased opportunities to open 
and expand international energy markets and export U.S. clean 
energy technologies to developing countries and other nations 
abroad. These efforts are very important to help meet our own 
energy security needs, addressing related economic job 
creation, trade, environmental, and climate change objectives. 
Additionally, such efforts could significantly aid in meeting 
other nations' infrastructure and development needs while also 
increasing the deployment of a range of U.S. clean energy 
technologies, including clean coal technologies.
    The Clean Energy Technology Exports, or CETE, will help 
meet that challenge. It had its genesis within the Senate 
Appropriations Committee and has had broad bipartisan support. 
The administration has talked about such ideas on occasion, but 
despite such rhetoric, the participating Federal agencies have 
done little, if anything, to implement the strategic plan. It 
seems to me that someone is sitting on their hands and missing 
a critical opportunity.
    Because the Department of Energy is a leading agency 
involved in the implementation of the CETE initiative as called 
for by the Congress and released by the administration in 
October of 2002, what specific actions is your agency taking to 
work with the other Federal agencies and to engage 
nongovernmental organizations, private sector companies, and 
other international partners with regard to this plan? And can 
you tell the committee when the Appropriations Committee will 
receive the required annual CETE progress report that was due 
to this committee on March 1, 2003?
    Secretary Abraham. Senator, here is what I know we have 
done. We have created a new Office of International Energy 
Market Development, and acting separately the Fossil Energy 
Division has developed an international program for clean coal 
which will augment the efforts of that. We have now been 
designated to be a co-chair of the interagency working group to 
try to promote clean energy exports, so that gives us a greater 
role in being able to move this ahead, which we intend to do.
    Obviously, a lot of work that we are engaged in is 
applicable to sharing internationally. But if I could just go 
beyond the confines of that program to reassure you that this 
is a high priority that I have personally become engaged with. 
We have a lot of meetings both in Washington, and occasionally 
in multilateral and international settings with developing 
countries who are just starting to look at how they can address 
their growing demand for energy with environmental concerns, 
and we have been looking at a lot of bilateral working groups 
to try to provide that assistance on that basis as well.
    It is probably the single most frequently requested support 
that I receive when I am having a meeting with an energy 
minister from a developing country because they are challenged, 
they don't have the technology to do the sorts of things they 
want in an environmentally clean or effective way. So I see it 
as an area of substantial growth on the international side of 
what we do, even in addition to the program which you talked 
about.
    I'm not sure what the status of the March 1 report is and 
if somebody with me can answer that, and if they can't, we will 
get you an answer for the record immediately.
    [The information follows:]
                Status of Clean Energy Technology Report
    The Department expects to submit the clean Energy Technology Report 
to Congress by the end of July 2003.

    Senator Byrd. Very well. If I have further questions, Mr. 
Chairman, I would like to submit them for the record.

                    SOLID STATE CONVERSION ALLIANCE

    Senator Burns. You might update us along the same lines 
with respect to the solid state conversion alliance. Can you 
update the committee on the progress of the program and how you 
propose allocating resources for fiscal year 2004, to ensure 
you have adequate resources for the team to fulfill its 
promises?
    Secretary Abraham. I will be happy to. I will comment in 
general here, I don't think there is at all disagreement as to 
the potential for solid state energy production the program is 
designed to achieve. I think we are in total agreement, as far 
as I can tell, which is, this is a program with which we are in 
agreement in terms of what the issue is, what is the pace at 
which we get there and what is the timetable that has the 
highest potential for success. So, I will be glad to get that 
information for the committee.
    [The information follows:]

                 Solid State Energy Conversion Alliance

    Overall, the Solid State Energy Conversion Alliance Program [SECA] 
is progressing extremely well. In fact, there is early interest from 
auto manufacturers in SECA type fuel cells as evidenced by BMW's 
arrangement with Delphi, one of the SECA industry team developers, to 
put a compact fuel cell unit for auxiliary power in the trunks of BMW 
vehicles by 2007.
    The SECA program is dedicated to developing innovative, effective, 
low-cost ways to commercialize solid oxide fuel cells [SOFCs]. The 
program is designed to move fuel cells out of limited niche markets 
into widespread market applications by making them available at a cost 
of $400 per kilowatt or less through the mass customization of common 
modules. SECA fuel cells will operate on today's conventional fuels 
such as natural gas, diesel, as well as coal gas and hydrogen, the fuel 
of tomorrow. The program will provide a bridge to the hydrogen economy 
beginning with the introduction of SECA fuel cells for stationary (both 
central generation and distributed energy) and auxiliary power 
applications.
    The SECA program is currently structured to include competing 
industry teams supported by a crosscutting core technology program. 
SECA has six industry teams working on designs that can be mass-
produced at costs that are ten-fold less than current costs. The SECA 
core technology program is made up of researchers from industry 
suppliers and manufacturers as well as from universities and national 
laboratories all working towards addressing key science and technology 
gaps to provide breakthrough solutions to critical issues facing SECA.
    The SECA industry teams collectively are making very good progress. 
Delphi, in partnership with Battelle, is developing a 5 kW (kilowatt), 
planar, 700C-800C, anode-supported SOFC compact unit for the 
distributed generation [DG] and auxiliary power unit [APU] markets. 
Delphi is expert at system integration and high-volume manufacturing 
and cost reduction. They are focused on making a very compact and 
light-weight system suitable for auxiliary power in transportation 
applications.
    General Electric is initially developing a natural gas 5 kW, 
planar, 700C-800C, anode-supported SOFC compact unit for residential 
power markets. GE is evaluating several stack designs and is especially 
interested in extending planar SOFCs to large hybrid systems. They also 
have a radial design that can simplify packaging by minimizing the need 
for seals. GE has made good progress in achieving high fuel utilization 
with improved anode performance using standard materials by optimizing 
microstructure.
    Cummins and SOFCo (formerly McDermott) are developing a 10 kW 
product initially for recreational vehicles [RVs] that would run on 
propane using a catalytic partial oxidation [CPOX] reformer. The team 
has produced a conceptual design for a multilayer SOFC stack assembled 
from low-cost ``building blocks.'' The basic cell, a thin electrolyte 
layer (50-75 micron) is fabricated by tape casting. Anode ink is 
screen-printed onto the one side of the electrolyte tape, and cathode 
ink onto the other. The printed cell is sandwiched between layers of 
dense ceramic that will accommodate reactant gas flow and electrical 
conduction. The assembly is then co-fired to form a single repeat unit.
    Siemens Westinghouse Power Corp. [SWPC] is developing 5-10 kW 
products to satisfy multiple markets. SWPC has developed a new tube 
design for their 5 kW units that use flat, high power density [HPD] 
tubes. This allows for a shorter tube length and twice the power output 
compared to their current cylindrical tube. It also results in more 
efficient manufacturing, assembly, and better volumetric power density.
    The Department is requesting $33 million in fiscal year 2004 for 
the SECA Program from several research budget elements. Primary funding 
of $23.5 million will be provided from the Distributed Generation Fuel 
Cells Innovative Concepts budget line. This funding will be primarily 
for the six industry teams. In addition, $6.0 million for SECA from 
Fuel Cells Advanced Research will be used for the SECA core technology 
program, $1.5 million for SECA from Advanced Research--for research on 
materials for coal-based SECA systems, and $2.0 million for SECA from 
Advanced Metallurgical Research (Albany), for metallurgical research 
applicable to general SECA systems. Additionally, in fiscal year 2004, 
we will begin funding the two additional SECA industry teams just added 
in fiscal year 2003--Fuel Cell Energy and Acumentrics. These industry 
teams represent additional industry design alternatives that will 
enhance the prospects of success of SECA fuel cells for a broader 
market. The SECA program cost-share levels range from 20-50 percent. 
For the industry teams the cost share begins at 20 percent and ends at 
50 percent for later phases.

    Senator Burns. Okay, I think that takes care of just about 
all our questions. There will be a couple more coming up. And I 
want to thank Senator Byrd for being here this morning, and for 
you. We know the scheduling is tough. We will leave the record 
open for a couple weeks and hopefully after the break, we will 
begin finalizing these appropriations.
    Secretary Abraham. Senator, thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Burns. There will be some additional questions 
which will be submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted by Senator Conrad Burns
                     hydrogen transportation system
    Question. Your testimony refers to the difficult ``chicken and 
egg'' problem that confronts us as we discuss moving to a hydrogen-
based transportation system. No consumer is likely to invest in 
hydrogen or fuel cell products without adequate fueling infrastructure 
in place, and nobody will invest in fueling infrastructure without 
customers. How do you think we get past this problem?
    Answer. Launching a hydrogen-fueled transportation system does face 
the classic ``chicken and egg'' question as it relates to fuel cell 
vehicles and hydrogen infrastructure. Establishing a new fuel 
infrastructure such as hydrogen will be complicated, yet it will need 
to be largely in place when widespread fuel cell vehicle introduction 
starts. Strong market signals will be needed for this infrastructure 
development to happen, making low cost hydrogen production and delivery 
technologies essential. Transition strategies will have to be developed 
that are far more effective than what has been used to foster markets 
for today's alternative fuels. The exact nature of those strategies 
will depend on infrastructure and vehicle technologies that are far 
from being fully developed. Therefore, the Department is working with 
all stakeholders to develop both the vehicle and the infrastructure 
technologies in parallel. DOE's planning efforts have included the 
FreedomCAR Partnership Plan, the National Hydrogen Energy Roadmap, and 
R&D plans. These documents describe how DOE will integrate its ongoing 
and future vehicle and hydrogen R&D activities into a focused effort. 
This coordinated DOE effort will improve the effectiveness and 
accountability of DOE's research, development and demonstration (RD&D) 
activities and strengthen its contribution to achieving the technical 
milestones on the road to a hydrogen economy.
    Question. What have we learned to date from efforts to get other 
alternative fueled vehicles into the marketplace?
    Answer. Our experience with alternative fuels tells us that the 
issue of reasonable fuel availability must be resolved before 
widespread acceptance of dedicated alternative fueled vehicles is 
possible. DOE learned that consumers find it simply more convenient to 
operate fuel flexible vehicles with petroleum-based fuels rather than 
alternative fuels because of the lack of alternative refueling 
stations. In addition, natural gas, methanol and ethanol vehicles are 
limited to niche markets or certain regions because fuel for these 
vehicles isn't available nation-wide.
    Because hydrogen is a universal energy carrier made from various 
primary energy resources, we think it can be a standardized national 
fuel. This assumes successful resolution of technical and cost 
barriers, and development of codes and standards. To address these 
issues, the Department is launching a transportation and infrastructure 
partnership with industry and local government agencies to demonstrate 
and evaluate fuel cell vehicles under real operating conditions to 
obtain cost, performance and reliability information, and hydrogen 
fueling stations to validate efficient, clean, and economical hydrogen 
production, storage, and delivery technologies, including standard 
vehicle refueling interfaces, safety practices, and codes and 
standards.
    Question. Some have suggested that natural gas might be a logical 
bridge to a hydrogen based transportation system. Is there merit to 
this suggestion, or are we likely to have to make the leap directly to 
hydrogen from today's gasoline-based system?
    Answer. Hydrogen does present a long-term solution to America's 
energy security needs, and can do so with significant benefits for the 
local and global environment. Hydrogen is an energy carrier, not an 
energy resource like natural gas, and can be produced from a variety of 
domestic feedstocks. This feedstock diversity is a benefit unique to 
hydrogen and means we would not be dependent on any one energy 
resource.
    In the near-term, natural gas will be an important hydrogen 
feedstock. It is a good choice for near-term hydrogen production 
because the distribution infrastructure exists, and because the 
economics are presently more favorable than that of other feedstocks.
    Hydrogen production is not expected to increase demand for natural 
gas by any more than 5 percent in 2025, due to the small number of 
vehicles expected to be on the road. The vehicle infrastructure needed 
for these demands will be small. It is envisioned that as the hydrogen 
fuel cell vehicle fleet increases, our ability to produce hydrogen from 
other sources will grow to match it. In the long-term, we hope to 
generate hydrogen through renewable energy and other carbon-free 
processes, such as nuclear energy.

ADVANCED VEHICLE TECHNOLOGY PROGRAMS--PARTNERSHIP FOR A NEW GENERATION 
                   OF VEHICLES (PNGV) AND FREEDOMCAR

    Question. Your budget states that the FreedomCAR program will build 
on the successes of the Partnership for a New Generation of Vehicles 
(PNGV) program and learn from its failures. What were the successes of 
the PNGV program?
    Answer. PNGV provided the framework for government and industry to 
align previously independent research to address common societal goals. 
The partnership opened up new channels of communication between 
industry and government, which has provided both parties with access to 
more and better technical data.
    In its annual reviews of the PNGV, the National Research Council 
noted ``the substantial accomplishments already gained in pursuing the 
program so far'' (seventh report--2001) and observed that the 
partnership has ``enhanced cooperation at all levels and has achieved 
results more rapidly than would have been the case in the absence of 
partnership'' (6th report--2000). Selected concrete examples of 
technological achievements are listed below.
Enabling research
  --Increased the life of lithium ion batteries from 2 years to 7 years 
        for hybrid-electric vehicle drives.
  --Demonstrated that, under certain conditions, advanced diesel fuel 
        formulations can achieve particulate matter (PM) emission 
        reductions of up to 35 percent without compromising fuel 
        efficiency or raising oxides of nitrogen (NO<INF>X</INF>) 
        emissions.
Vehicle integration
  --The aluminum body structure on the Ford's Prodigy concept vehicle 
        is 53 percent lighter than a conventional steel design, and the 
        process used on the Prodigy is applicable to high volume 
        production.
  --In DaimlerChrysler's ESX3 concept vehicle, the unique thermoplastic 
        injection molded body system is estimated to reduce weight by 
        46 percent and cost by 15 percent versus conventional steel 
        structures.
  --General Motors' Precept concept vehicle proved the technical 
        feasibility of achieving 80 miles per gallon, however, high 
        cost remained as a major barrier toward commercialization.
PNGV Research successes migrating into production
  --Cadillac, Oldsmobile, and Chevrolet vehicles incorporate aluminum 
        door, deck, and hood panels by utilizing a PNGV developed 
        production processes.
  --The 2001 Chevrolet Silverado uses a 50-pounds lighter composite 
        pickup truck box.
  --The 2001 Jeep Wrangler utilizes a new, lighter, recyclable 
        thermoplastic hardtop.
    FreedomCAR will build on the technology advancements gained from 
successful PNGV R&D efforts. The new research portfolio, focused on 
longer range, higher risk research, will be applicable to a broader 
range of production vehicles.
    Question. What were PNGV's failures, and what have we learned from 
them?
    Answer. FreedomCAR is taking advantage of the technological 
progress made under the PNGV to build a stronger, better partnership 
more closely aligned with the Nation's needs. The centerpiece of the 
FreedomCAR Partnership is the effort to develop efficient, affordable 
fuel cell technologies that can help to reduce our Nation's petroleum 
consumption while eliminating vehicle emissions.
    One key improvement of FreedomCAR compared with PNGV concerns 
management structure. DOE, the agency that funded the majority of PNGV 
activities, now solely represents the government in the partnership, 
with consultation from other agencies as appropriate. The streamlined 
organizational structure improves communication with the industry.
    Another improvement is in the research time horizon and focus. The 
PNGV had a 10-year horizon and was aimed at a single vehicle platform, 
the mid-size sedan. In order to meet the accelerated 10-year horizon, 
some promising technologies (i.e., ultracapacitors) were prematurely 
downselected from the research portfolio. These technologies were 
unable to meet the requirements of the PNGV within the 10-year horizon. 
The single vehicle platform narrowed the research focus on a vehicle 
segment that was the highest selling segment at the start of the 
partnership but did not address the explosion in the sport utility 
vehicles.
    FreedomCAR is focused on performing R&D at the component and sub-
systems level and leaves the vehicle integration of these technologies 
to the automakers, offering more flexibility. As in the PNGV, 
FreedomCAR places significant effort on the core technologies 
supporting hybrids, such as advanced materials and batteries, not only 
because the work is essential for the hydrogen vehicle but also because 
of the near-term benefits possible from petroleum-fueled power sources 
in hybrid.

                  TRANSITION OF TECHNOLOGIES TO MARKET

    Question. In several places your budget request terminates or 
reduces funding for activities that are closer to the deployment end of 
the R&D spectrum, choosing instead to focus resources on more basic, 
high-risk research. Generally speaking I understand this philosophy, 
but at some point we run the risk of investing in a lot of 
technological advances that will sit on the shelf without some 
additional support for deployment or demonstration. Do you think your 
budget request is balanced in this regard?
    Answer. Yes, I believe it is balanced. About ten years ago these 
programs made a similar (but opposite) shift in their balance, moving 
some resources from more basic work to near-term and deployment 
efforts. That was never intended to be a permanent change in balance. 
To some degree, we have been living off accumulated intellectual 
capital, and we now need to move the balance back toward more 
fundamental research in order to replenish those reserves and refill 
the technology pipeline. This is not a wholesale change in our R&D 
balance, however: we are continuing to propose substantial funding in a 
variety of deployment activities.
    Energy markets are changing and our energy policies have matured. 
The unusually low energy prices of the 1990s made it particularly 
difficult for new technologies to enter the marketplace successfully, 
and our energy policies were focused on showing action on near-term 
reductions in greenhouse gas emissions. While today's energy prices are 
not high in historical terms, they are high enough to create 
significant economic incentives for energy efficiency in applications 
such as industrial processes.
    The progress we made on advancing hybrid vehicle technology has 
caused almost every major automobile manufacturer in the world to turn 
their attention to such vehicles, and competitive pressures are now 
growing to the point where most major auto manufacturers have announced 
production plans for at least some forms of hybrid vehicles. But the 
types of hybrids currently being announced and produced use 
conventional engine technologies, and do not offer the really dramatic 
gains in efficiency that we believe are possible with advanced 
technologies such as fuel cells and unconventional lightweight 
materials.
    In many cases, including hybrid and electric vehicles, the 
technologies we are currently deploying run the risk of remaining 
niche-market products unless technology breakthroughs or leapfrog 
approaches make their performance and economics so compelling that they 
become mainstream.
    Our energy and climate-change policies are now focused on the 2015-
2020 timeframe, and we have a renewed emphasis on energy security. In 
order to make a major market impact in that timeframe, products will 
need to be competitive in broad market segments, not just niche 
markets, which is driving our search for leapfrog technologies in 
activities such as the FreedomCAR Partnership, the Hydrogen Fuel 
Initiative, solid-state lighting for buildings, and distributed energy 
resources.
    Question. Take black liquor gasification, for example. We've 
invested significant funds to develop this technology in partnership 
with the pulp and paper industry, and the Department had expressed its 
intention to participate in at least three demonstrations of different 
gasification technologies. Now the budget proposes to terminate the 
program after only one partial demonstration. There is great potential 
for reduction in energy use and emissions if advanced technologies are 
deployed, but industry says the capital investment is simply too large 
to justify investing in an unproven technology. Is the industry just 
bluffing in your opinion?
    Answer. The Department did not request funds for the industrial 
gasification activities under the Interior Appropriation in fiscal year 
2004 based upon the state of technology advances made and a review 
using the Administration's R&D investment criteria, which helped guide 
this decision. The Department has invested substantially in R&D on the 
thermochemical conversion of biomass for producing power, fuels, and 
products that is directly applicable to the pulp and paper industry. We 
also are continuing with R&D on advanced technologies that will further 
lower the risk to industry for the deployment of these technologies. 
Additionally, we have committed available funds to complete our 
obligation for the black liquor gasifier demonstration at Big Island, 
VA.
    As discussed in the previous question, we believe that there are 
sufficient economic incentives for industry to adopt many new energy 
efficiency technologies such as black liquor gasification. When it 
comes to determining the appropriate Federal role in R&D, there is 
frequently an inherent tension between the Federal Government (acting 
as a prudent steward of taxpayer dollars while seeking to maximize 
benefits from a broad research portfolio) and industry (which seeks to 
minimize new technology development and acquisition costs in order to 
reduce outlays and achieve a greater financial return for its 
investors). Thus, while the Department does not wish to conclude that 
industry is ``just bluffing'' in this instance, we would note that we 
believe it would be shortsighted of industry should they decide not to 
bring this gasification technology to commercialization.
    Question. Do you think market forces will eventually compel 
companies to install these new technologies on their own, or that 
industry will be forced to do so because of regulatory pressure?
    Answer. Those factors and more will provide businesses with the 
incentive to use or market the technologies that we have been 
developing. Virtually all of our efforts are planned in conjunction 
with industry, and the ``road mapping'' process we have used means that 
we know the technologies we have developed are useful, and the roadmaps 
give the companies a good sense of how they can utilize the 
technologies for their own benefit. In the case of some industries, 
such as the automakers discussed above, it is competitive pressures 
that will lead to adoption of new technologies. In energy-intensive 
industries, such as pulp and paper and the ones we have worked with in 
our Industrial Technologies program, the companies would be financially 
shortsighted not to make use of the energy- and cost-saving 
technologies we have developed. In yet other industries, the regulatory 
pressures you allude to may become important--there is clearly more 
interest now among heavy truck and bus manufacturers in adopting more 
efficient, less-polluting engine technologies than there was prior to 
the recent tightening of heavy diesel emissions standards.

                        OFF-HIGHWAY VEHICLE R&D

    Question. According to the budget justification, the rather small 
Off-highway Vehicle R&D program is being terminated ``because other 
research opportunities have higher impact on energy savings.'' In 
looking at the Department's own R&D roadmap off-highway research, 
however, I find that off-highway uses account for 20 percent of fuel 
use in the transportation sector. I also find that of all mobile 
sources, large off-highway diesel engines contribute 20 percent of 
NO<INF>X</INF> emissions and 36 percent of particulate matter. Can you 
reconcile these figures on energy use and emissions with your decision 
to terminate a $3.5 million program?
    Answer. The definitions of ``Off-Highway'' and ``Non-Highway'' that 
DOE uses are found in the Transportation Energy Data Book, which is 
published annually by Oak Ridge National Laboratory for DOE. Off-
Highway includes vehicles that are used in construction and 
agriculture. These vehicles accounted for 3.4 percent of transportation 
energy use in 2000. Non-Highway includes aircraft, marine vessels, rail 
and pipeline. These activities accounted for 21.1 percent of 
transportation energy use in 2000. The Off-Highway Vehicle R&D effort 
within the FreedomCAR and Vehicle Technologies Program was aimed at 
saving oil in vehicles that account for less than four percent of the 
oil used in transportation, therefore the potential oil savings would 
be small relative to potential oil savings achievable by shifting these 
funds to other aspects of our transportation sector R&D portfolio.
    While off-highway vehicles currently contribute a 
disproportionately large amount of NO<INF>x</INF> and PM, we anticipate 
that EPA's existing and proposed future emissions standards, to be 
phased in over the next decade, will result in a significant decline in 
criteria pollutant emissions from these sources.

                     ENVIRONMENTAL IMPACTS OF FUELS

    Question. Your budget also eliminates funding for analysis of the 
environmental impacts of fuels, deeming this activity to be in the 
purview of other agencies. While I would agree that DOE shouldn't be 
duplicating the efforts of EPA or other Federal agencies, I think there 
have been times that the Department has had differences with EPA about 
the environmental impacts of various fuels or technologies. Are you at 
all concerned that termination of this program will weaken your hand in 
inter-agency policy or regulatory discussions?
    Answer. DOE's and EPA's complementary efforts to research the 
environmental impacts of alternative fuels have been ongoing for many 
years at this point. DOE's work was intended to ensure that emerging 
technologies do not have unforeseen negative environmental impacts, as 
was the case with tetraethyl lead and MTBE (methyl tertiary butyl 
ether). In addition, DOE activities investigated the environmental 
effects of fuels derived from diverse feedstocks such as biorenewables, 
oil sands (tar sands), and even hydrogen. EPA's efforts focus on the 
determination of the impacts of current technologies and fuels on the 
environment.
    The DOE work provided a feedback loop to the management of our 
research and development efforts, but we believe that the topics have 
been quite thoroughly researched now. If such feedback is needed for 
additional fuels in the future, we feel we can rely on external 
organizations. EPA will continue to conduct the comprehensive 
evaluations necessary to support regulations. Since their research, 
rather than ours, has been what has driven regulations, we do not 
expect any regulatory impact from the termination of our program.

                          PERFORMANCE MEASURES

    Question. First of all, let me acknowledge the work that your staff 
has done to be responsive to this committee's repeated calls for 
better, more clearly written budget justifications. I'm not saying it's 
a perfect document yet, but this year's product is an improvement in 
many areas over past years. Some of the more interesting displays in 
the justification are your Government Performance and Results Act 
estimates that project the benefits of your R&D programs. I know this 
is a complex undertaking, but the numbers do raise some interesting 
questions. Among the Energy Conservation R&D programs, the Industrial 
echnologies program, the Vehicle Technologies program and the Buildings 
Technologies program are expected to produce by far the largest savings 
in energy use, oil consumption, and carbon emissions. In spite of this, 
the Industrial Technologies program is taking the largest cut of any 
program, and the vehicle and buildings programs are being reduced as 
well. How should we interpret this seemingly conflicting information?
    Answer. Potential benefits are but one consideration in making 
difficult allocation decisions. Other considerations include program 
performance, relative priority, and alignment with the Administration's 
R&D investment criteria, among others (see response to next question). 
One aim of the R&D investment criteria is to ensure an appropriate 
Federal role exists, and that there are market barriers causing 
underinvestment by the private sector. In the case of many Industry 
Program R&D activities, firms have the financial incentive to invest in 
energy efficient technologies that can reduce their costs. Thus, the 
seemingly conflicting information you describe can be explained by our 
determination that, despite potentially large benefits, many industry 
R&D activities benefit firms more than the taxpayer, so there is less 
of a Federal role in these activities.
    We would make two important notes. First, on the whole, the 
reductions you identified were more than offset by increases in other 
programmatic areas. For example, reductions for some activities in the 
FreedomCAR and Vehicle Technologies program were more than offset by 
increases in the Hydrogen (in the Energy Supply account) and Fuel Cells 
subprograms. This represents a shift in funding from near-term 
technology issues that industry is very capable of addressing, such as 
combustion engines and petroleum-based fuels, to more advanced 
technologies that offer greater energy and carbon-emissions benefits in 
the long term, such as fuel cells for hybrid vehicles. Second, we 
continue to improve our modeling assumptions and scenarios so that we 
can better compare potential benefits of technology investments within 
and between programs. This effort is a priority in helping to implement 
the Administration's R&D investment criteria.
    Question. Aside from the expected benefits in terms of energy 
savings and emissions reductions, what other inputs are used as you 
develop your budget request?
    Answer. We seek a portfolio balance among a number of criteria:
  --the energy savings and emissions reductions that you've already 
        mentioned, plus
  --other benefits like:
    --energy security,
    --pollution reduction, and
    --net economic benefits to society;
  --program performance and alignment with the Administration's R&D 
        investment criteria, which include many policy considerations 
        such as:
    --the need for, or appropriateness of, a government role in a given 
            technology (typically a clear public benefit with a market 
            failure or friction that precludes optimal private 
            investment);
    --plans for merit-based, competitive program execution;
    --industry's apparent commitment to adopting or marketing a 
            technology (often as evidenced by their willingness to 
            cost-share);
    --clearly-defined performance measures and decision-points for the 
            R&D area;
    --a technology's or industry's track record of progress based on 
            those performance measures; and
    --maintaining a portfolio balance of near-, mid-, and long-term 
            technology RD&D in each of the major sectors of our 
            economy.

             FOSSIL ENERGY--DOMESTIC OIL PRODUCTION/IMPORTS

    Question. First, I would like to commend the Department's efforts 
to keep an eye on energy markets through the work of the Energy 
Information Administration. However, I am extremely concerned that the 
Department seemingly ignores its own information in the formulation of 
budget priorities. During the early stages of the recent war with Iraq, 
crude prices shot to $38 a barrel and have recently stabilized at a 
lower level. However, all indicators seem to illustrate crude prices 
are rising again and stocks are low. Can you update us on the current 
state of the highly fluctuating oil markets?
    Answer. We expect oil markets to continue to be volatile but well 
within the high and low limits established in the last two years. 
Supplies are dependent on the rate at which Iraqi exports return to 
market, the stability of West African production, recovery in 
Venezuela, the reaction of other non-OPEC producers to current prices 
and, of course, the level of exports from OPEC countries. Demand may 
also deviate from expectations, as the world's economies grow at rates 
different from projections. Given the current level of oil inventories, 
news will tend to move prices up and down rather quickly, but we do not 
expect them to approach either the highs set earlier in 2003 or the 
lows reached in early 2002.
    Question. This Subcommittee has an acute interest in energy 
production, as most domestic production comes from land and waters 
under our jurisdiction, and the Fossil Energy portfolio under DOE 
requires our close attention due to the Administration's lack of 
adequate commitment to domestic energy R&D. Can give us a sense of how 
current crude imports compare to prior years as a percentage of 
domestic consumption?
    Answer. In March 2003, the most recent month for which complete 
monthly data is currently available, the ratio of average U.S. crude 
oil imports to average domestic petroleum consumption (or products 
supplied) is estimated to have been 46.0 percent. The comparable 
percentage for March 2002 was 44.7 percent and for March 2001 it was 
48.3 percent. For the first three months of 2003, the ratio of average 
U.S. crude oil imports to average domestic petroleum consumption is 
estimated to have been 43.2 percent. The comparable percentage for the 
first three months of 2002 was 45.6 percent and for the first three 
months of 2001 it was 46.4 percent. For the years 1997-2002, the ratio 
of the annual average U.S. crude oil imports to annual average domestic 
consumption ranged from a low of 44.2 percent in 1997 to a high of 47.5 
percent in 2001, and for 2002 it was 46.3 percent.
    Question. It is my understanding the recent reductions in crude 
costs are directly related to increasing imports. Given these trends, 
can you explain why your budget reduces funding for the Fossil accounts 
focused on increasing domestic oil production by 65 percent from the 
enacted level?
    Answer. The Office of Fossil Energy has completed its Top to Bottom 
Review, and is beginning to implement it. The review provides a solid 
first step towards a new program direction, emphasizing results and 
focusing on customer groups in order to more effectively carry out the 
President's energy plan to increase energy security and improve the 
environment through his Clear Skies and Climate Change initiatives.
    Certain program areas and projects that do not address the specific 
goals of this new direction will be terminated. As stated in the 
President's Management Agenda, spending large budgets without a clear 
goal does not necessarily achieve good results.
    These changes were also in part a response to the results of the 
Investment Criteria Scorecards that were completed as part of the 
President's Management Agenda initiative for better R&D Investment 
criteria.
    Additionally, the Program Assessment Rating Tool (PART) was 
completed for all program elements. Analysis of PART showed that the 
program did not link annual activities and outputs to long-term 
benefits. These outcomes reinforced the new program direction.
    Question. Your own testimony before the House Interior Subcommittee 
last month states, ``Previous oil program funding was spread thinly . . 
.'' In my opinion reducing a ``spreadly thin'' [sic] budget by 65 
percent when it is the primary budget focused on enhancing domestic oil 
recovery technologies seems a little haphazard at best. Can you 
reconcile this proposed reduction with your written testimony for the 
House and trends in domestic production?
    Answer. The completed Top to Bottom Review, conducted by the Office 
of Fossil Energy resulted in a new program direction, emphasizing 
results and focusing on customer groups in order to more effectively 
carry out the President's energy plan to increase energy security and 
improve the environment through his Clear Skies and Climate Change 
initiatives.
    Certain program areas and projects that do not address the specific 
goals of this new direction will be terminated. As stated in the 
President's Management Agenda, spending large budgets without a clear 
goal does not necessarily achieve good results.
    These adjustments in the program's investment portfolio were also 
in part a response to the results of the Investment Criteria Scorecards 
that were completed as part of the President's Management Agenda 
initiative for better R&D Investment criteria.
    Additionally, the Program Assessment Rating Tool (PART) analysis 
completed for all program elements showed that the program did not link 
annual activities and outputs to long-term benefits. These outcomes 
reinforced the new program direction.
    Question. An alarming highlight of last month was what appears to 
be an all-time monthly record for gasoline imports. It is bad enough to 
be dependent upon other nations for raw natural resources, but it is 
even more alarming that we now are becoming increasingly dependent upon 
foreign nations to produce refined product. Can you explain whether 
this dependency on foreign gasoline is an anomaly or part of a trend?
    Answer. In almost every year, gasoline demand increases. This 
increase can either be supplied by more production from refineries or 
increased gasoline imports. In recent years, suppliers have more 
economically increased supplies through the use of imports. There are 
several reasons for this.
    First, for many countries, they produce more gasoline than they can 
consume. In Europe, for instance, diesel fuel and other middle 
distillates are the most important part of the barrel, and thus, 
surplus gasoline is produced. With the United States being the world's 
largest consumer of gasoline, it is thus not surprising that increasing 
amounts of gasoline arrive from Europe each year. In addition, if 
refiners were to increase gasoline production it would merely reduce 
the amount of other products that are produced, or else would require 
an increase in refinery throughput. The latter is an option only when 
refinery economics dictate that it would lead to increased income. This 
would usually require high product prices with comparatively lower 
crude oil prices. If, however, refiners kept the same throughput, but 
instead produced more gasoline at the expense of production of other 
petroleum products, that would dampen prospects for rebuilding low 
inventory levels for those products, e.g. distillate fuel.
    That being said, it is likely that product imports, including those 
for gasoline, will continue to increase over the next several years. Of 
course, the alternative is to get the increased supplies needed form a 
source that would be less economical, thus putting an additional strain 
on the U.S. economy.
    Question. What are the factors for this reliance and does the 
ongoing effort of the Department to divert domestic crude into the 
Strategic Petroleum Reserve have a tangible impact?
    Answer. North America and Europe have long been integrated markets 
for refined petroleum products. This integration has proved beneficial 
for both the United States and Europe, allowing the best possible 
utilization of refineries and inventories. At times the United States 
is an importer of products and at others it exports to Europe depending 
on market conditions. At the moment, Europe is increasing its 
consumption of diesel fuel relative to gasoline, thereby making its 
surplus gasoline available for export to the United States at 
reasonable prices. The fact that the Strategic Petroleum Reserve is 
acquiring crude oil probably has only a marginal impact on oil prices, 
and whatever that impact, it is the same for United States and foreign 
refiners. Therefore, whether the Strategic Petroleum Reserve acquires 
or does not acquire crude oil is immaterial to the level of U.S. 
imports of refined products.

             FOSSIL ENERGY--DOMESTIC GAS PRODUCTION/IMPORTS

    Question. In February 2003, the gas markets were subject to 
unprecedented spikes as natural gas availability hit rock bottom. 
You'll remember that when you were serving in the Senate, similar cost 
spikes hit the electricity markets, leading to public outcry and the 
subsequent failure of many businesses. Could you update us on the 
natural gas markets?
    Answer. Natural gas markets have recovered from the unprecedented 
spikes in February 2003 but they remain tight. Spot market natural gas 
prices were in the $5.24 to $6.24 range in May while natural gas 
inventories were at least 29 percent below the five-year average for 
this time of the year. Recent inventory additions have been at record-
levels and the situation appears to be improving. However, the Energy 
Information Administration (EIA) projected in its June 2003 Short-Term 
Energy Outlook that natural gas prices will remain well above average; 
they are expected to average $5.50 to $6.00 per million Btu for the 
remainder of the year; 2004 natural gas prices are expected to ease 
slightly.
    As I said at the time of that report, the nation's stocks of 
natural gas in underground storage are unusually low due to weather 
factors and declines in both domestic production and net imports. 
Industry is already responding by significant increases in storage 
rates, with record net injections reported in each of the first two 
weeks of June, but a hot summer could increase demand for natural gas 
that may jeopardize storage refill, and thus, exacerbate the problem.
    I had previously asked the National Petroleum Council to conduct a 
study of natural gas in the United States that is expected to be 
released later this year but, in my view, we cannot wait to take action 
on the problem. Therefore, I have called for a special meeting on June 
26 during which the National Petroleum Council will gather information, 
and discuss problems and solutions.
    Question. What steps are the Department taking to help alleviate 
these gas supply problems?
    Answer. In the near-term, we are working to better understand U.S. 
natural gas needs. In March 2002, we requested that the National 
Petroleum Council, an advisory body to the Secretary of Energy, conduct 
a comprehensive study of the North America natural gas market (supply, 
transmission, and demand issues through 2025). The results of this 
study will be delivered in September of this year.
    We are also called on the Council to hold a National Gas Summit on 
June 26 to gather information from State and Federal officials, 
consumer groups, and industry experts, and discuss actions and develop 
recommendations that can be taken immediately to address the near-term 
natural gas situation. Among the measures expected to be discussed are 
those related to energy efficiency, conservation, and fuel switching. 
DOE will also publish a paper dealing with the issues associated with 
expanded supplies of natural gas from the Rocky Mountain region.
    Question. I know the Natural Gas Technologies accounts under Fossil 
Energy focuses on exploration and production techniques as well as 
developing advances in infrastructure to prevent failures and enhance 
delivery capabilities. Unfortunately your budget request suggests 
reducing these activities from $47 million to $26 million. Can you 
explain the disconnect between the information collected by your 
Department and the direction the Research and Development Accounts 
appear to be headed?
    Answer. The President's Natural Gas Technology research and 
development program under Fossil Energy accounts is intended to 
complement and enrich the existing portfolio of ongoing industry 
sponsored natural gas research and help ensure that long-term, high-
risk technology options in exploration and production, gas hydrates, 
natural gas storage, and delivery reliability are explored.
    The Office of Fossil Energy has completed its Top to Bottom Review, 
and is beginning to implement it. The review provides a solid first 
step towards a new program direction, emphasizing results and focusing 
on customer groups in order to more effectively carry out the 
President's energy plan to increase energy security and improve the 
environment through his Clear Skies, Climate Change, and Energy 
Security initiatives.
    Certain program areas and projects that do not address the specific 
goals of this new direction will be terminated. As stated in the 
President's Management Agenda, spending large budgets without a clear 
Federal goal does not necessarily achieve good results.
    These changes were also in part a response to the results of the 
Investment Criteria Scorecards that were completed as part of the 
President's Management Agenda initiative for better R&D Investment 
criteria.
    The Office of Management and Budget's analysis of Fossil Energy's 
Natural Gas Technology Program Assessment Rating Tool (PART) 
submissions showed that overall the Natural Gas Technology program did 
not successfully link annual activities and outputs to measurable long-
term benefits. These outcomes reinforced the new program direction and 
a reduction in the fiscal year 2004 budget request for Fossil Energy's 
Natural Gas Technology research and development program.
    Question. Your budget also proposes a ``new'' initiative to produce 
hydrogen from natural gas sources. Much like your testimony on the Oil 
Research Development accounts, I believe our natural gas infrastructure 
is spread too thin. The prior administration envisioned a world based 
on natural gas, but without backing the vision with investment in 
technology. I fear the current administration is doing the same. While 
we are shifting all this demand to natural gas, domestic production is 
not increasing at a similar rate. How to you believe we prevent a 
demand crunch in the natural gas markets without investing in new 
technology?
    Answer. The majority of the funding in our natural gas research 
program is directed to long-term technology development--where the 
government has a key role. These efforts will help ensure that adequate 
supplies of natural gas are available to meet the long-term increase in 
demand--about a 50 percent increase by 2025.
    Natural Gas Exploration and Production-Sustainable Supply program 
will provide new tools and technologies that can improve access, 
economics and environmental performance of onshore gas operations. 
Significant emphasis will be placed on public lands in the Rocky 
Mountain region where much of the nation's undiscovered gas resource is 
located.
    Natural gas storage will also assume increasing significance as 
more power plants require consistent, year-round supplies of natural 
gas. A nationwide, industry-led consortium will develop ways to improve 
the reliability and efficiency of the nation's gas storage system.
    Over the long-term, the production of natural gas from the U.S.'s 
vast deposits of methane hydrates, which is a program goal, could 
strengthen energy security and provide a major component of the 
Hydrogen Fuels Initiative. Understanding hydrates will also improve the 
scientific understanding of greenhouse gases and offer possible 
mechanisms for sequestering carbon dioxide. In the near-term, 
implications for drilling or producing oil and gas near or through 
hydrate formations will be defined, to avoid environmental issues that 
could arise with conventional oil and gas operations.
    The environmental science program will focus on defining and 
mitigating issues constraining produced water from coal bed methane 
production.
    Question. On the same topic, you list a new $6.5 million Hydrogen 
from Gas initiative under the Natural Gas Technology account. However, 
you reduce the Fuels account under Fossil Energy Research and 
Development from $31 million to $5 million. It is my understanding we 
were already performing substantial work in the Fuels budget that 
focused on hydrogen as a product. Could you detail how much DOE plans 
to focus on hydrogen production in the fiscal year 2003 Fossil 
Accounts?
    Answer. In fiscal year 2003, the Transportation Fuels & Chemicals 
budget line in the Fuels program request was $5 million for Syngas 
Membrane Technology (SMT) activity with an additional $17.1 million 
added by Congress to increase this activity and to support the ongoing 
Early Entrance Coproduction and Ultra Clean Fuels (UCF) programs, and 
the new Hydrogen from Coal Research (HCR) program. Since syngas is a 
mixture of carbon monoxide and hydrogen and a few of the UCF projects 
produce syngas as an intermediate on the path to liquid fuels, it is 
fair to say that some of the Syngas Membrane Technology and UCF 
programs could be considered Hydrogen Programs. However, to be 
efficient, the projects would have to be modified with a substantial 
change in direction. Thus, the funding for fiscal year 2003 that 
focuses on hydrogen as a product includes the new HCR (about $2.4 
million), SMT (about $6 million), and UCF (about $5.4 million).

                          FOSSIL ENERGY--FUELS

    Question. Mr. Secretary, I am interested in your decision to 
essentially stop all advanced research in the Fossil program. For 
fiscal year 2003, Congress provided $31 million to continue research 
aimed at developing cleaner fuels from domestic fossil sources 
including coal, gas and petroleum. The strides made in producing new 
fuel products such as ultra clean diesel have given hope that we can 
produce and use much cleaner burning fossil fuels in the near term. Can 
you explain why you believe we should abandon research that is arguably 
on the verge of creating marketable solutions to near term 
environmental concerns?
    Answer. The President's budget request for fiscal year 2004 of $5 
million for the Fuels/Transportation Fuels and Chemicals program is to 
perform supporting research for the Administration's FutureGen and 
Hydrogen Fuel Initiatives. In addition, $6.55 million is being 
requested in the Natural Gas Technologies program--Emerging Processing 
Technology budget to support research on natural gas to hydrogen as 
part of the Administration's Hydrogen Fuels Initiative. The Department 
believes that this budget request is appropriate to support a balanced 
energy research program within the budget constraints in fiscal year 
2004. In addition, considerable work is being conducted in the private 
sector on natural gas to liquids processes and we believe that industry 
is prepared to meet the promulgated EPA Tier II standards. The 
Department believes that research dollars would be better spent in 
longer-term fuels research such as that which is associated with the 
production, storage and delivery of hydrogen from coal and natural gas.
    Question. You assert in your request that portions of the fuel 
programs proposed for elimination have been shifted to the Oil and Gas 
programs, which have been reduced by 65 percent and 44 percent 
respectively. Could you show the Subcommittee where exactly this 
research shows up in the Oil and Gas programs, and explain what level 
of funding will be provided under your proposal for fiscal year 2004?
    Answer. In fiscal year 2003, the Fuels Program provides funding for 
both natural gas and coal based programs even though the Fuels Budget 
line is found in the Coal & Power Systems budget. However, in fiscal 
year 2004, the Fuels activities, which are related to production and 
delivery of hydrogen, will be split into two budget lines, one will 
remain in the coal program under Fuels and the other program activity 
will be moved to the Oil and Gas Program under the Emerging Process 
Technology activity in the Natural Gas Program. In fiscal year 2004, 
$6.555 million has been provided for this budget area.
    Question. Will all ongoing contracts continue at the level of 
funding agreed to by the contractors and DOE?
    Answer. The President's budget request for fiscal year 2004 of $5 
million for the Fuels/Transportation Fuels and Chemicals program is for 
conducing research activities to develop advanced, lower cost 
technology for the production of hydrogen from coal for the 
Administration's FutureGen and Hydrogen Fuel Initiatives. In addition, 
$6.55 million is being requested in the Natural Gas Technologies 
program--Emerging Processing Technology budget to support research on 
advanced, lower cost natural gas to hydrogen technology, which is also 
part of the Administration's Hydrogen Fuels Initiative. The Department 
believes that the budget requests are appropriate to support a balanced 
energy research program within the budget constraints in fiscal year 
2004. To the extent that funds are available, it is planned to continue 
those projects that can adjust their scopes of work to fit the new 
longer-term program goals. However, it is not likely that all contracts 
can be continued.
 fossil energy--distributed generation--fuel cells--vision 21--hybrids
    Question. Mr. Secretary, I have long been a proponent of fuel cell 
technology and am as frustrated as anyone else is with our inability to 
mass-produce fuel cells at a price point that makes them commercially 
viable to most markets. Your proposal to reduce the Vision 21 Hybrids 
account by $8.4 million peaks my interest as the Department has long 
touted the wonders of the Vision 21 program. With a reduction of this 
amount, I can only imagine one of two outcomes. Either we have hit the 
price point and these units are ready for mass development, or the 
technology has underperformed and DOE is making the decision to abandon 
the program. I don't believe we have Vision 21 Hybrids being produced 
commercially, so can you explain the decision that led to the reduction 
in this program?
    Answer. The $13.5 million for Vision 21 Hybrids in the fiscal year 
2003 budget is for the completion of DOE-funded work on tubular solid 
oxide fuel cell systems and fuel cell/turbine hybrid systems. The 
fiscal year 2004 budget request of $5 million supports a redirected 
Vision 21 enabling cost reduction and performance enhancement program 
to emphasize SECA-based low-cost, Vision 21 fuel cell/turbine hybrid 
and Vision 21 zero-emissions system concepts.
    Question. Are we on target with the goals set by DOE and will we 
continue on target at this funding level?
    Answer. The Department's goals for tubular solid oxide fuel cell 
turbine hybrids systems will be achieved with the conclusion of 
activities in fiscal year 2003. Tests on a first-of-a-kind tubular 
solid oxide fuel cell/turbine hybrid system have contributed valuable 
design knowledge that will be used in the next phase of the Vision 21 
hybrids program, which is focused on SECA-based hybrid systems. The 
funds proposed for fiscal year 2004 are appropriate for the re-directed 
effort focused on SECA-type fuel cells.

    FOSSIL ENERGY--DISTRIBUTED GENERATION--FUEL CELLS--SOLID STATE 
                 ELECTRICITY CONVERSION ALLIANCE (SECA)

    Question. Mr. Secretary, I am extremely interested in the SECA 
program and am watching its progress with high hopes. I know that DOE 
has recently decided to add two new industry teams to the program, yet 
has proposed reducing funding for the core program from $33.8 million 
to $23.5 million. I am concerned that reducing the funding and trying 
to support additional teams will cause the program to slow, when it is 
poised to make great strides. Additionally, it is my understanding some 
teams may be under performing, and some of the competing technologies 
may show little promise for future development. Can you update the 
Subcommittee on the progress of the SECA program and explain how you 
propose allocating resources in fiscal year 2004 to ensure we are 
providing sufficient resources to the teams showing the most promise?
    Answer. The Solid State Energy Conversion Alliance (SECA) Program 
is progressing extremely well with implementation as planned and 
promised. The SECA industry teams are making good progress towards 
their Phase 1 performance targets for prototype demonstrations in 
fiscal year 2005/fiscal year 2006. In fiscal year 2003, the second full 
year for the initial four industry teams, the teams have built, tested, 
and evaluated small single ``button'' cells, completed designs for 
multi-cell stacks, improved performance, and reduced proof of concept 
volume. The new industry teams represent design alternatives that will 
enhance the prospects of success of SECA fuel cells for a broader 
market.
    The Department is requesting in fiscal year 2004, $33 million for 
the SECA Program from several research budget elements. Primary funding 
of $23.5 million will be provided from the Distributed Generation Fuel 
Cells Innovative Concepts budget line. This funding will be primarily 
for the six industry teams. In addition, $6.0 million for SECA from 
Fuel Cells Advanced Research will be used for the SECA core technology 
program, $1.5 million for SECA from Advanced Research--for research on 
materials for coal-based SECA systems, and $2.0 million for SECA from 
Advanced Metallurgical Research (Albany), for metallurgical research 
applicable to general SECA systems.

 NAVAL PETROLEUM AND OIL SHALE RESERVES--ROCKY MOUNTAIN OIL TECHNOLOGY 
                             CENTER (RMOTC)

    Question. I notice the Naval Petroleum Account proposes closing the 
Rocky Mountain Oil Technology Center (RMOTC). Could you provide the 
committee with the number of industry proposals to partner with this 
facility for each of the past five years?
    Answer. RMOTC received 151 proposals from fiscal year 1999 through 
the current fiscal year 2003. These proposals were from a variety of 
small businesses, major industry leaders, and international consortia 
and cover testing related to: drilling technology, coal bed methane, 
oil shale production, enhanced oil recovery, CO<INF>2</INF> 
sequestration, produced water management, environmental rehabilitation, 
renewable energy development, homeland security, reservoir services and 
flow assurance. The proposals are broken down accordingly; 25 in fiscal 
year 1999; 25 in fiscal year 2000; 31 in fiscal year 2001; 29 in fiscal 
year 2002; and 41 fiscal year 2003 (YTD).
    Question. It is my understanding industry partnerships to promote 
advanced oil recovery utilize this center with great success. I am also 
aware of renewed interest by industry to re-examine the potential of 
oil shale production. If we were to follow your recommendation to 
reduce the oil program by 65 percent and close RMOTC, what other 
avenues are available for independent producers to partner with DOE to 
research avenues of increasing domestic production?
    Answer. The President's budget does request $41.6 million for 
research and development in oil and natural gas, and that money will be 
targeted to the most promising opportunities. We hope that industry 
will independently increase its funding for recovery research, which 
would be appropriate, and the Administration supports across the board 
tax incentives for R&D and investment in domestic production of all 
kinds. An important action the Government could undertake is to 
increase access to lands for oil and gas exploration resulting in 
increased domestic production without any cost to taxpayers.
    If the Center were closed, those activities would have to be 
conducted at private facilities such the Gas Technology Institute's 
Catoosa test facility in Oklahoma.
    Question. Is it your belief DOE holds no responsibility to work 
with industry to advance domestic fossil fuel production?
    Answer. The Department of Energy supports private industry 
development of domestic fossil fuels in every way. We are committed to 
research to increase the recoverable resource base of oil and natural 
gas and research to reduce the cost of production and protect the 
environment. We have a national laboratory working on ways to mitigate 
the environmental impacts of fuels production and consumption. We 
support tax and regulatory changes that would encourage domestic energy 
production, and we support making Federal lands available for 
exploration and development of fossil fuels. The Department of Energy 
fully supports the Administration's National Energy Plan, which makes 
explicit its support for more domestic energy production of every type.

                        FOSSIL ENERGY--FUTUREGEN

    Question. Mr. Secretary, we talked a little bit about the FutureGen 
proposal when you came to see me earlier this week. Montanans are very 
excited about this project and my office has been working with our 
Governor's office and a large group of other entities wanting to make 
sure Montana is given full consideration as a possible site for the 
project. Can I have your assurance the Department will work with me and 
the State of Montana to make sure Montana's unique geographic and 
geological offerings are taken into full consideration as the site 
selection process moves forward?
    Answer. I can assure you that we will be glad to work with Montana, 
and any other interested states, to ensure that the FutureGen site 
selection process will be a fair and open competitive process. Montana 
will be given full consideration, along with other sites proposed for 
evaluation.

                          SOLID STATE LIGHTING

    Question. In reply to: believe you're aware of the Solid State 
Lighting Initiative, which this subcommittee supported last year with 
an appropriation of $3 million. Your budget request includes $5 million 
for this program, which has significant promise in terms of energy 
savings, environmental benefits, and lower costs to consumers. I 
understand that the Department has investigated and calculated these 
potential benefits while developing a ``Road Map'' for the solid-state 
lighting program. Would you share with the Committee the Department's 
conclusions?
    Answer. The Department believes that solid state lighting has the 
potential to create the technical foundation to revolutionize the 
energy efficiency, appearance, visual comfort, and quality of lighting 
products for general illumination by achieving efficiencies upwards of 
70 percent (source efficiency). In consultation with industry, the 
Department has estimated long-term benefits, which include annual 
savings of nearly 40 percent of lighting energy and $19 billion in 
consumer expenditures by 2020. As with all benefits modeling, the 
assumptions have a large impact on the results. Because modeling 
procedures and assumptions used to generate this estimate are different 
from those used in EERE GPRA models, we cannot directly compare the 
estimated benefits of this initiative to other EERE or other 
Departmental applied R&D activities. But we intend to improve the 
consistency in our modeling efforts. As a stand-alone document, the 
multi-sector forecast, Energy Savings Potential of Solid State Lighting 
in General Illumination Applications, is available at: 
www.eere.energy.gov/buildings/documents/.
    As solid state lighting represents the most promising approach to 
more efficient lighting systems of the future, success in the 
initiative will retain the technology base and jobs in the United 
States (while facing increased product competition from Pacific Rim 
corporations supported by their governments) and will widely enable 
more efficient lighting systems to be applied widely. The potential for 
such technology is quite significant, given the very low performance 
characteristics of present incandescent (1 percent efficient in 
delivered, useful light) and fluorescent systems (20 percent).
    The Department has held seven workshops over the past two years to 
plan out a broad agenda for research and development focused on 
improving the performance of compound semiconductor science in the 
application of general illumination. More than 300 participants 
attended these workshops (including the conventional lighting industry, 
compound semiconductor industry, academia, National Labs, research 
institutions, and other government agencies). In general, R&D is 
necessary in several areas: quantum efficiency, lifetime, performance, 
packaging, infrastructure, and first cost. The most recent summary 
document on this research agenda, The Promise of Solid State Lighting 
for General Illumination, is available at: www.eere.energy.gov/
buildings/documents/.

                          SOLID STATE LIGHTING

    Question. How far has this technology developed and what is the 
nature of the research that has to be concluded?
    Answer. Solid state lighting (SSL) exists today in a monochromatic 
form (i.e. single color such as red or green). Currently, SSL is used 
for ``exit'' signs and traffic control lights, and offers several 
attributes beyond energy savings, such as durability and longer 
lifetime. Additionally, the auto industry is converting incandescent 
lamps applications to solid state devices (e.g. LED tail lights). To 
save significant energy, the science and engineering of SSL needs to 
mature in several performance metrics to be capable of competing in the 
general illumination market with high quality white light, which is the 
focus of the DOE SSL research.
    White light SSL is in its infancy, with many prototypes in the 5 to 
10 lumens per Watt (LPW) range. Newer prototypes perform in the 15 to 
25 LPW range, about what an incandescent can do. Future research needs 
cover six concept areas:
    Efficiency.--The ability of solid state light sources to convert 
electrons into photons is governed by three basic elements: (1) 
materials systems; (2) internal quantum efficiencies (IQE); and (3) 
external quantum efficiencies (EQE). Materials system research 
evaluates semiconductor materials, studying the performance and 
limitations of materials. IQE measures a material's ability to convert 
electron-hole pairs into photonic emissions, and is largely a function 
of the material system selected. EQE measures the amount of light that 
leaves the semiconductor device and is available for collection and 
use.
    Lifetime.--Technologies lasting in excess of 50,000 hours are 
sought. SSL research will focus on advancing our basic science 
understanding of the role of impurities, defects, crystal structure and 
other factors closely related to materials systems choices.
    Lighting Performance.--(a) basic material properties and (b) 
semiconductor physics directly impact the evolution of photon 
wavelength, emission bandwidth and ultimately, color. For the future, 
emission spectrum approaching the spectral power distribution of 
natural sunlight is required.
    Device Design.--Research will focus on (a) geometrical optical 
engineering and (b) optical simulation within the compound 
semiconductor--increases of 5 to 10 times present levels of optical 
coupling are predicted. Research on structures of the individual layers 
of materials will be required, as will integration of the substrate 
geometry and optics.
    Packaging.--Investigate packaging requirements such as sealing out 
moisture and oxygen, managing heat transfer, and protecting optical 
material from UV degradation. SSL technology will assemble them into an 
optimized light delivery system.
    Manufacturing.--Research will concentrate on significant first cost 
reduction through aggressive development of suitable manufacturing 
technologies and technical elements of the distribution infrastructure, 
such as technology standards.

              CLIMATE CHANGE TECHNOLOGY INITIATIVE (NCCTI)

    Question. The budget request includes $40 million for a new Climate 
Change Technology Initiative; $23 million of which is funded through 
this subcommittee. Why is it necessary to establish a new, separate 
program for this purpose?
    Answer. The President's National Climate Change Technology 
Initiative Competitive Solicitation program is intended to complement 
and enrich the existing portfolio of ongoing research throughout the 
Federal government and help to ensure that all possible technology 
options are explored. The program is unique and warranted because 
funding will be allocated solely on the basis of the potential for a 
technology to contribute in significant ways future reductions or 
avoidances of greenhouse gas emissions, and/or their capture and 
sequestration (permanent storage). No program, past or present, has 
made technology-neutral funding allocations in this manner. In general, 
successful proposals would be focused on novel approaches for 
contributing to broader technological goals, or on innovative ways of 
solving or circumventing technical barriers to progress along a 
plausible line of technology development
    Question. Weren't climate change objectives already folded into 
many of the Department's R&D programs like the Carbon Sequestration 
program within the Office of Fossil Energy?
    Answer. Many of the existing DOE R&D programs aim to provide 
multiple public benefits such as increased energy security, reduced 
emissions of pollutants, and reduced emissions of carbon dioxide. The 
purpose of the NCCTI program is to focus solely on potential climate 
change benefits. In doing so, we expect to identify R&D opportunities 
that complement and enrich existing R&D programs. The responses to the 
NCCTI Request For Information, released in November 2002 and closed in 
January 2003, suggest that there are certain categories of novel 
concepts (e.g., crosscutting evaluation methodologies, research that 
does not clearly fall into the basic or applied research areas) that 
show great promise for reducing greenhouse gas emissions and that are 
unlikely to be eligible for or selected in procurements conducted under 
existing DOE programs.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

                      CLEAN COAL POWER INITIATIVE

    Question. I compliment the Administration on continuing its 
commitment to the Clean Coal Power Initiative and Coal Research 
initiative in the fiscal year 2004 budget with a request of $320.5 
million overall. I firmly believe that we should capitalize on our two 
greatest strengths in electricity supply--coal and nuclear. In both 
cases, we should address risk areas. I'd like to ensure that the coal 
initiatives would address issues associated with mining as well as the 
subsequent combustion processes. For example, a small New Mexico 
company in Raton has worked with Russian institutes, through the 
Department's Initiatives for Proliferation Prevention program, to 
develop instruments that allow remarkable refinement in how coal is 
mined. This instrument, which actually mounts on the drill head, 
enables the drill to automatically leave the last few inches at the top 
and bottom of a coal seam. The majority of the serious heavy metal 
contaminants in the seam are concentrated at the edges of the seam; 
thus this new tool allows dramatically cleaner coal to be mined. When 
burned, that coal then burns much more cleanly. I continue to believe 
that we should focus on coal at the source in the coal R&D program and 
in the Clean Coal Power initiative. Mr. Secretary, does the Clean Coal 
Power Initiative include opportunities for advancing exciting new 
technologies like this, no matter what part of the overall coal 
utilization cycle they impact?
    Answer. The current structure of the Clean Coal Power Initiative 
(CCPI) focuses on demonstrating advanced technologies that will provide 
clean, efficient, reliable and affordable electricity from coal. In 
order for a technology to qualify for consideration under CCPI, it must 
be proposed as part of an integrated power system that utilizes clean 
coal. If a proposed technology, associated with another part of the 
coal utilization cycle (such as mining), is integrated into the coal 
power system, it could be considered under CCPI.

                          OIL AND GAS RESEARCH

    Question. I'm very disappointed to note that oil and natural gas 
technology research and development funds were again sharply cut in the 
Administration's budget. Oil technology R&D is reduced by nearly 65 
percent below the fiscal year 2003 enacted level (from $42.3 million to 
$15 million in the President's request), and natural gas R&D is reduced 
by nearly 44 percent from ($47.3 million to $26.3 million in the 
President's request). These two energy sources play major roles in 
current national energy supplies. In New Mexico, I've noted how 
improved extraction technologies, which depend on continued research 
and development, have helped to boost production of old wells. The 
Senate bill would support R&D of the type done at the Petroleum 
Recovery Research Center at New Mexico Institute of Mining and 
Technology in Socorro. How would the Administration's reduced budget 
for oil technologies impact ongoing strong R&D programs, such as this 
one at New Mexico Tech?
    Answer. The proposed budget would have no impact on the Petroleum 
Recovery Research Center at New Mexico Institute of Mining and 
Technology in Socorro, as there are no outstanding mortgages on 
projects with this institution. The proposed fiscal year 2004 budget 
does require the elimination of $5.9 million for projects being 
conducted at other universities. However, only $1.3 million is for 
projects that support the newly aligned oil program. This shortfall 
will be addressed by extending the projects over a longer period of 
time.
    The new direction for the oil program resulting from a complete 
strategic review of the program, emphasizes results and focuses on 
customer groups in order to more effectively carry out the President's 
energy plan to increase energy security and improve the environment 
through his Clear Skies and Climate Change initiatives.
    These changes were also in part a response to the results of the 
Investment Criteria Scorecards that were completed as part of the 
President's Management Agenda initiative for better R&D Investment 
criteria.
    Additionally, the Program Assessment Rating Tool (PART) was 
completed for all program elements. Analysis of PART showed that the 
program did not link annual activities and outputs to long-term 
benefits. These outcomes reinforced the new program direction.
    Question. What is the Administration's rationale for nearly 
terminating these R&D programs as the nation makes a comprehensive 
effort to increase our energy security and independence through 
reducing dependence on foreign sources and developing new sources of 
domestic energy?
    Answer. The Office of Fossil Energy has completed its Top to Bottom 
Review, and is beginning to implement it. The review provides a solid 
first step towards a new program direction, emphasizing results and 
focusing on customer groups in order to more effectively carry out the 
President's energy plan to increase energy security and improve the 
environment through his Clear Skies and Climate Change initiatives.
    Certain program areas and projects that do not address the specific 
goals of this new direction will be terminated. As stated in the 
President's Management Agenda, spending large budgets without a clear 
goal does not necessarily achieve good results.
    These changes were also in part a response to the results of the 
Investment Criteria Scorecards that were completed as part of the 
President's Management Agenda initiative for better R&D Investment 
criteria.
    Additionally, the Program Assessment Rating Tool (PART) was 
completed for all program elements. Analysis of PART showed that the 
program did not link annual activities and outputs to long-term 
benefits. These outcomes reinforced the new program direction.

                OIL AND GAS--FEDERAL TRANSMISSION SITING

    Question. Congestion and inadequate transmission infrastructure has 
an impact on consumers. The Electric Power Research Institute estimated 
that transmission reliability losses cost the economy $120 billion 
annually. Contained in S. 14 is a provision to accelerate the 
permitting of transmission lines across federal lands. The provision 
requires the Department of Energy to take the lead in coordinating the 
federal permitting efforts in order to accelerate and improve the 
siting process. Do you believe that DOE can assist in this role and 
reduce the time and costs associated with permitting transmission 
facilities?
    Answer. The process for obtaining permits for transmission lines 
across federal lands has been a major source of delay and unnecessary 
cost in the development of new transmission projects, particularly in 
the West where much of the land is federally owned. Better coordination 
is needed among a wide range of parties, including project developers, 
state agencies, Native American tribes, and federal agencies. DOE is 
well positioned to help facilitate this coordination.

                               FUEL CELLS

    Question. The Administration's proposed initiatives for fuel cells 
and hydrogen R&D have been very well received in the scientific 
community and in the Congress. The FreedomCAR and FreedomFuel proposals 
would receive about $235 million in the Energy Conservation budget 
specifically to work on vehicle technologies ($157.6 million) and fuel 
cell technologies ($77.5 million). Another $88 million would go to 
hydrogen technology R&D through the Energy Efficiency and Renewable 
Energy budget. These initiatives hold great hope for this nation to 
move away from our heavy reliance on petroleum products for 
transportation.
    Mr. Secretary, you know of my strong support for moving toward a 
hydrogen economy, but I have some concerns about the mix of the program 
between essential R&D and demonstration programs. A recent letter 
report of the National Research Council raised this issue essentially 
saying that in its assessment the number of fuel cell demonstration 
projects seem to be getting ahead of our progress on essential fuel 
cell R&D. Mr. Secretary, do you share my concern that we need more 
fundamental R&D to make progress on fuel cell technology?
    Answer. The April 4, 2003 interim letter report from the National 
Academy of Sciences (NAS) recommended that fundamental and exploratory 
research should receive additional budgetary emphasis, and the DOE 
should develop a careful plan for evaluating, funding, and validating 
emerging technologies for hydrogen production, transportation, storage, 
and end-use. Within the background, the interim report stated that, 
when properly used, demonstrations have a place in a balanced research 
program because they can lead to cost reductions and accelerate the 
development of codes, standards, environmental permitting, and 
strategies for inspection and monitoring. But, demonstrations also risk 
distorting budgets and diverting effort toward technology with limited 
potential. Development of a careful plan for funding and evaluating 
demonstrations to address this risk will serve the public interest.
    Since the time of the NAS letter, the DOE Office of Science (SC) 
hosted a workshop to determine the basic science needs that support 
hydrogen and fuel cell technology development. SC is currently 
developing a research plan based on the outcomes of that workshop. The 
DOE plan is based on the Hydrogen Vision and Roadmap that were 
developed in collaboration with over 200 technical experts. The current 
DOE plan includes 80 percent of funding for research and development 
and 20 percent of funding for technology validation. These technology 
validation projects are cost-shared 50/50 by industry partners. Strong 
leveraging of Federal dollars indicates private sector support of the 
RD&D pathway we have outlined and that our research validation approach 
is sound. The results of technology validation are critical to refining 
and directing future research and development efforts.
    Question. What is your assessment of the progress of R&D on liquid 
hydrogen, compressed gas, and on several carrier fuels that would 
transport hydrogen in vehicles?
    Answer. Liquid and compressed hydrogen tanks are relatively mature 
technologies that are suitable for near-term demonstrations of 
hydrogen-powered vehicles. Development of pressurized insulated vessels 
has reduced evaporative losses in liquid tanks. However, liquid tanks 
do not meet the volume targets for on-board storage and liquefying 
hydrogen incurs a sizable energy penalty. Development of low-permeation 
liners, high-strength fibers, and conformable tanks has led to 
fabrication of 5,000 and 10,000 psi gaseous hydrogen tanks. However, 
these compressed gas tanks do not result in the required 300-mile range 
while also meeting vehicle weight and space requirements. Therefore, 
the long-term effort of the DOE program will be the development of low-
pressure, solid-state materials that store hydrogen, such as carbon 
nanotubes, hydrides and alanates.
    Question. What in your view is the appropriate mix of fuel cell R&D 
and demonstration projects?
    Answer. Every research activity must be evaluated with 
consideration to its own particular factors, including the state of 
research progress. At this point, we believe that an 80/20 fuel cell 
R&D/demonstration mix, where demonstration projects require a minimum 
50 percent cost share by industry, is appropriate.
    Question. I note that researchers at Los Alamos National Lab 
continue to make great progress in fuel cell research and are poised to 
be a center of excellence in this area. I believe the nation needs this 
center to integrate a number of separate specialties to more 
efficiently develop commercially-ready fuel cell systems. Previous 
budget submissions led me to believe this was also part of the 
Administration's thinking. What is the Department's current position on 
establishing a national fuel cell research center?
    Answer. We appreciate the major advances that Los Alamos National 
Laboratory (LANL) has made in polymer electrolyte membrane (PEM) fuel 
cells and that they hold seminal patents in the field. For example, 
LANL scientists were responsible for achieving the breakthrough that 
allowed a 90 percent reduction in the platinum required by fuel cell 
electrodes. This breakthrough significantly lowered the cost of PEM 
fuel cells and stimulated the large-scale automotive industry 
investment that exists today.
    With respect to establishing a national center for fuel cell 
research, the Department is currently studying this concept.
    Question. What level of funding for fuel cells could be effectively 
utilized to advance this exciting technology as rapidly as possible?
    Answer. The Fossil Energy and Energy Efficiency and Renewal Energy 
Fuel Cells Programs are working with partners to accelerate the 
development and successful market introduction of these technologies.
    In fiscal year 2004, the Fossil Energy Budget Request is $44.5 
million for the continuation of the entire program, with emphasis on 
the Solid State Energy Conversion Alliance (SECA) where efforts are 
underway to drastically reducing fuel cell costs to make them more 
broadly applicable and widespread commodity in the competitive, mature 
distributed generation and auxiliary power markets. Funding at the 
requested level will allow six competing SECA industry teams and about 
19 core technology participants to advance the technology at an 
accelerated pace.
    In fiscal year 2004, the Energy Efficiency and Renewal Energy 
(EERE) budget request is $77.5 million for development of polymer 
electrolyte membrane fuel cells in support of the President's 
FreedomCAR and Hydrogen Fuel Initiative. This request level is 
appropriate for EERE's planned fuel cell R&D and is consistent with our 
technology roadmap plans. Research in membranes, electrodes, fuel 
processing and system components will lead to $30/kW engine costs, 60 
percent energy efficiency and 5,000 hours durability on hydrogen. 
Fiscal year 2004 funding for fuel cells and hydrogen is the first year 
of the President's Initiative, which will accelerate commercialization 
of hydrogen fuel cell vehicles by 15 years to 2015.

                   HIGH TEMPERATURE SUPERCONDUCTIVITY

    Question. If I could change subjects for a moment, I would like to 
ask you about the Energy Efficiency and Renewable Energy budget, and 
high temperature superconductivity R&D. It is my sense that within DOE 
there is support to move into grid-level demonstration projects to 
begin effective utilization by utilities of high-temperature 
superconductivity technology for more reliable supplies of electricity. 
The request of $76.9 million for electricity reliability activities is 
9 percent below the $85 million approved for fiscal year 2003 and does 
not move us in that direction.
    Answer. Within the $76.9 million request, there are significant 
grid-level demonstration projects that will be more visible in fiscal 
year 2004 in which utilities will begin effective utilization of high 
temperature superconductivity. The most notable is a planned Long 
Island installation of a superconducting transmission power cable able 
to serve 300,000 homes. This could lead to a future superconductivity 
``backbone'' being put in place to supply electricity to most of Long 
Island. Similar projects are planned in Albany, NY, and Columbus, OH. 
Our intent is to move as rapidly as possible to effective utilization 
of several types of grid technologies (transmission and distribution 
cables, transformers, generators, and fault current limiters) while 
maintaining research on higher capacity, cost-effective, 
superconducting wires and other key enabling technologies.
    Question. What is the major thrust of the Department's fiscal year 
2004 budget proposal for high-temperature superconductivity?
    Answer. In the Department's fiscal year 2004 budget proposal for 
high-temperature superconductivity, the major thrust is to improve 
Second Generation superconducting wire (longer lengths, higher 
capacity, lower-cost processing) through collaboration of university, 
national laboratory, and private company scientists; while 
simultaneously moving as rapidly as possible to effective utilization 
of transmission and distribution cables by installing and testing 
different cable types in the electric grid. The latter work is carried 
out by industry teams consisting of a utility, cable manufacturer, 
superconducting wire supplier as well as special expertise from the 
national labs and universities.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

       TECHNOLOGY TRANSFER--CLEAN ENERGY TECHNOLOGY EXPORT (CETE)

    Question. Mr. Secretary, Congress has urged the Administration to 
support increased opportunities to open and expand international energy 
markets and export U.S. clean energy technologies to developing 
countries and other nations abroad. These efforts are very important to 
helping meet our own energy security needs while at the same time 
addressing related economic, job creation, trade, environmental, and 
climate change objectives. Additionally, such efforts could 
significantly aid in meeting other nations' infrastructure and 
development needs while also increasing the deployment of a range of 
U.S. clean energy technologies, including clean coal technologies. The 
Clean Energy Technology Exports (CETE) Initiative will help meet that 
challenge. It had its genesis within the Senate Appropriations 
Committee and has had broad bipartisan support. The administration has 
talked about such ideas on occasion, but despite such rhetoric, the 
participating federal agencies have done little, if anything, to 
implement the strategic plan. It seems you are just sitting on your 
hands and missing a critical opportunity. Because the Department of 
Energy is a leading agency involved in the implementation of the CETE 
Initiative as called for by the Congress and released by the 
Administration in October 2002, what specific actions is your agency 
taking to work with the other federal agencies and engage non-
governmental organizations, private sector companies, and other 
international partners with regard to this plan?
    Answer. The Department is involved in many activities with other 
federal agencies, non-governmental organizations, private sector 
companies and international partners to expand the market for clean 
energy technologies. One such effort is the current joint working group 
on U.S.-China Olympic cooperation. This cooperative effort is 
consistent with CETE objectives and aims to deploy clean energy 
technologies for the 2008 Summer Olympic Games, by facilitating U.S. 
industry interest in the Chinese market, and promoting U.S.-made 
equipment and services while protecting the global environment. One of 
the eleven areas of mutual interest for cooperation is clean coal 
technology. To this end, the Department's Office of Fossil Energy has 
developed a plan to: use U.S. NO<INF>X</INF> Control Technologies for 
Beijing region power plants; jointly design coal preparation plants; 
and reach out to U.S. industry on business opportunities.
    Question. Can you tell me when the Appropriations Committee will 
receive the required annual CETE strategic plan progress report that 
was due to this committee on March 1, 2003?
    Answer. The Department expects to submit the CETE report to the 
Congress by the end of July 2003.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                        NUCLEAR WEAPONS TESTING

    Question. Mr. Chairman, thank you for holding this hearing and 
Secretary Abraham, thank you for coming. I am interested to hear your 
answers to many subjects important to Californians. Among them are the 
Administration's position on the use and development of low-yield 
nuclear weapons; banning fraud and manipulation in the energy sector; 
and the President's hydrogen fuel and fuel cell car proposals in the 
fiscal year 2004 Department of Energy Budget. First and foremost, I 
want to focus on the Administration's position on the use and 
development of low-yield nuclear weapons. The President is right that 
the greatest threat facing the United States lies in the global 
proliferation of Weapons of Mass Destruction, and terrorist access to 
those weapons. But I am deeply concerned that by appearing to focus its 
national security strategy on its nuclear arsenal, current U.S. policy 
may well actually encourage proliferation, alienate our friends and 
allies, and promote a backlash against the United States. Instead of 
ratcheting back on our reliance on nuclear weapons with the Cold War 
over, the administration seems to be looking for new ways to use our 
nuclear advantage to restructure our forces so that they are more 
``usable''--blurring the lines between nuclear and conventional forces 
and legitimizing the idea that nuclear weapons can be used.
    Like it or not, the United States sets the pace when it comes to 
international norms regarding nuclear weapons, and, in fact, just 
considering the use of these weapons much less actually using them 
threatens to undermine our efforts to stop proliferation and makes us 
less safe, not more.
    The administration's Nuclear Posture Review, released in January 
2002, stressed the importance of being prepared to use nuclear weapons. 
The review noted that we must plan to possibly use them against a wider 
range of countries. And it said that we need to develop new types of 
weapons so that we can use them in a wider variety of circumstances. 
According to press reports the review also explicitly listed seven 
nations Russia, China, Iran, Iraq, Syria, Libya, and North Korea 
against which the United States should be prepared to use nuclear 
weapons even though most of those nations do not have nuclear weapons 
themselves. That means the Administration is contemplating the first 
use of nuclear weapons in a conflict.
    Indeed, a few months after issuing the nuclear posture review, 
President Bush signed National Security Presidential Directive-17, 
which, according to press reports, abandons a bipartisan policy of 
ambiguity and explicitly says that the United States might use nuclear 
weapons to respond to a chemical or biological attack. Clearly the 
administration seems to be moving toward a military posture in which 
nuclear weapons are considered just like other weapons in which their 
purpose is not simply to serve as a deterrent but as a usable 
instrument of military power, like a tank, a fighter aircraft, or a 
cruise missile.
    I believe that such an approach is not in our nation's interest, 
nor is it consistent with our standards and values. A first use of 
nuclear weapons by the United States should be unthinkable, and 
responding to a non-nuclear attack with nuclear weapons violates a 
central tenet of just war and U.S. military tradition. There is no 
question that in the post 9/11 era a full range of policy options for 
dealing with new and uncertain events should be on the table. But in my 
view, nuclear options should not be considered as an extension of 
conventional options because this inevitably lowers the threshold for 
use.
    So, if the United States is seeking to develop nuclear weapons 
which blur the distinction between conventional and nuclear forces and 
lowers the threshold for the possible use of these weapons, we must 
consider the message that this sends to the rest of the world. I 
believe that it is critical that the United States sets a very high 
international standard for nuclear restraint. If we do not, we may well 
encourage others to develop their own standards and their own nuclear 
arsenals.
    Using nuclear weapons, even ``small'' ones, would cross a line that 
has remained sacrosanct for almost 60 years. Using a small nuclear 
weapon makes the use of all nuclear weapons more permissible it 
legitimizes their use and legitimizing nuclear weapons promotes their 
spread. It also puts us in greater danger should we ever have to fight 
a nuclear power.
    Moreover, there is no real evidence that the United States needs to 
use nuclear weapons in the scenarios outlined in the Nuclear Posture 
Review or NSPD 17.
    The most often-cited need for new nuclear weapons is to destroy 
underground bunkers. But the most important factor in destroying a 
deeply buried target is knowing exactly where it is. And if we know 
exactly where it is, we can either destroy it with conventional weapons 
or deny access to it by destroying entrances and air ducts.
    Earlier this year, at an Energy Committee Hearing, I asked you 
whether Secretary Rumsfeld had been quoted correctly in The Washington 
Post, on the 20th of February, when he said that the Administration had 
no plans to develop new low-yield nuclear weapons. You said yes, he had 
been quoted correctly, that the Administration was only studying 
adaptations of existing weapons.
    This week on the Floor of the Senate I offered an amendment to 
strike the controversial provision in the Defense Authorization Bill 
that will end a 10-year-old ban on research and development of low 
yield nuclear weapons.
    The Defense Authorization Bill would repeal the decade old 
``Spratt-Furse'' provision, which bans all development leading to the 
production of nuclear weapons with yields of fewer than five kilotons. 
I believe this prohibition should remain in full force because 
repealing it:
  --Provides the United States no military benefit;
  --Could lead to the resumption of nuclear testing;
  --Undermines efforts to halt the proliferation of Weapons of Mass 
        Destruction; and
  --Blurs the line between conventional and nuclear weapons.
    Now that the ban will be repealed, what are the exact plans for the 
Administration's study, development, and testing of low-yield nuclear 
weapons?
    Answer. The Department has no research currently under way to 
develop low-yield or other new nuclear weapons at the Department's 
nuclear weapon design laboratories. However, the Department of Defense 
and Department of Energy have begun a two to three-year study on 
potential modifications to current stockpile gravity bombs, the B61 and 
the B83. The study, known as the Robust Nuclear Earth Penetrator (RNEP) 
phase 6.2 study, will assess the feasibility, design definition, and 
cost for modifications of providing a robust earth penetrating weapon 
to address the threat posed by hard and deeply buried facilities.
    The RNEP concept is being studied as one of a number of possible 
means to deal with emerging threats. Development, production and 
fielding of the RNEP concept would not require nuclear testing.
    There has been no decision to move the RNEP to engineering 
development. Should this occur in the future, the Department of Energy 
would request funds from Congress as a separate budget line item, 
consistent with Section 3143 of Public Law. 107-314, in the President's 
budget request for that year.
    I appreciate your observation that ``a full range of policy options 
for dealing with new and uncertain contingencies should be on the 
table.'' I believe that the Department's work will not blur the 
distinction between nuclear and conventional weapons. I also encourage 
you to seek the views of the Department of Defense on the issues you 
raise regarding military utility of low-yield weapons and their 
potential contribution to the deterrent.
    Question. What exactly will you do differently when this Defense 
Authorization Bill is passed?
    Answer. Repeal of the prohibitions of Spratt-Furse would allow the 
NNSA's weapons laboratories to examine more fully the technical 
options, the investigation of which is currently prohibited by law and 
to a lessor extent by the Spratt-Furse provisions of the House bill. 
There are problems in attempting to confine intellectual efforts to 
``research only'' rather than ``research and development'' because 
these lines are often not clear. In the end, Congress controls these 
activities which could lead to a recommendation to initiate engineering 
development, since the Department of Energy would request funds from 
Congress as a separate line item in the President's budget request for 
that year.
    Question. Will the Administration seek to test these weapons?
    Answer. The Administration remains committed to adhering to a 
moratorium on nuclear weapons testing. At the same time, the 
Administration has no intention of resubmitting the CTBT to the Senate 
for ratification.

                             ENERGY MARKETS

    Question. Now I would like to turn to the energy markets. Over the 
past few years, we have seen corporate scandal after corporate scandal 
in the news--and nowhere has there been more fraud and market abuse 
than in the energy sector. In March, the Federal Energy Regulatory 
Commission issued its ``Final Report on Price Manipulation in Western 
Markets'' which confirmed there was widespread and pervasive fraud and 
manipulation during the Western Energy Crisis. The overwhelming 
evidence uncovered demands that California receive full and complete 
refunds and that FERC revise the state's long-term contracts to remedy 
the manipulation that has taken place and to deter future abuse.
    Three years ago, this month California's energy market began to 
spiral out of control. The crisis forced the State of California into a 
severe budget shortfall. It forced the state's largest utility into 
bankruptcy and nearly bankrupted the second-largest utility. Now three 
years and $45 billion in costs later, we have learned how the energy 
markets in California were gamed and abused.
    Yet the Senate Energy Bill doesn't prevent the type of gaming that 
went on during the energy crisis. The Senate bill only bans one type of 
specific manipulation--wash trades in the electricity market--but it 
does not address the natural gas market, nor does it prevent other 
forms of fraud and manipulation that took place in California and were 
detailed in the Enron memos as ``Fat Boy,'' Ricochet,'' ``Death Star,'' 
and ``Get Shorty.''
    Does the Bush Administration support banning the type of fraud and 
manipulation that Enron engaged in?
    Answer. The Administration strongly opposes illegal market 
manipulations and supports the prevention of fraud and manipulation in 
the nation's energy markets. It would not be appropriate to discuss 
cases involving Enron, and other energy firms that are still pending 
before FERC and in other forums, and this answer should not be 
understood as presuming the outcomes of those cases.
    Question. FERC Chairman Pat Wood and FERC Commissioner Bill Massey 
support conforming the penalty and refund provisions in the Federal 
Power Act with those of the Natural Gas Act. Does the Bush 
Administration also support these changes?
    Answer. Yes.
    Question. Section 1121 of Senator Domenici's Energy Bill prevents 
the Federal Energy Regulatory Commission from issuing any rulemaking on 
the proposed Standard Market Design until July 1, 2005. What are the 
Bush Administration's views on delaying the Standard Market Design 
rulemaking until this date--especially in light of the recent revisions 
proposed by the FERC Commissioners in their White Paper?
    Answer. In the White Paper FERC demonstrated its willingness to 
work with state regulators and industry to accommodate regional 
perspectives in the design of regional transmission organizations 
(RTOs) and other matters related to the formation and operation of 
regional wholesale markets for electricity. The Administration opposes 
blocking the FERC from any final rulemaking in this area for two years, 
which could prevent FERC from taking needed action to maintain 
stability in regional electricity markets.
    Question. In a speech last week to the National Petroleum Council, 
you made some comments about the current conditions in our natural gas 
markets. As you know, low U.S. production, low inventories, and high 
prices are battering industries that rely on natural gas as a raw 
material or energy source. In addition to the chemical, aluminum, and 
fertilizer industries--the ethanol industry is also dependant on 
natural gas. Since most ethanol plants rely solely on natural gas, is 
this the time to mandate billions of gallons of ethanol into our fuel 
supply and force many more ethanol plants to be built?
    Answer. New, modern dry mill ethanol plants use about 40,000 BTUs 
of natural gas per gallon of ethanol produced (76,000 BTUs). A small 
additional amount of natural gas will be used in the production of 
fertilizer used to grow corn. For the incremental 2.5 billion gallons 
that would need to be produced to reach the 5 billion gallon per year 
target under a renewable fuels standard, natural gas demand would be 
about .075 TFC higher in 2015. This would be an increase of about half 
of 1 percent in expected 2015 gas demand. We do not believe this is a 
significant amount given the potential factors that will drive natural 
gas supply and demand over the next 10-20 years.
    Question. Is the ethanol mandate something DOE is considering in 
evaluating our long-term natural gas needs?
    Answer. As discussed in the answer above, we do not believe that 
the impact of a 5 billion gallon per year renewal fuels standard will 
have a significant impact on future natural gas demand.

                             HYDROGEN FUEL

    Question. I support research and development efforts to make 
hydrogen fuel and fuel cell powered automobiles a reality. In fact, 
companies and universities based in California have been at the 
forefront of developing hydrogen and fuel cell technologies. However, I 
am concerned about the overwhelming amounts of energy it will take to 
extract hydrogen fuel on a large scale. Since the actions we take today 
will influence what kind of hydrogen economy develops 10 or 20 years 
from now, how does the Administration propose to generate this large 
amount of energy?
    Answer. A big advantage of hydrogen as a transportation fuel is its 
potential to be produced efficiently and economically via a number of 
processes and from a variety of domestic resources, such as natural gas 
and other fossil fuels, abundant renewables, and nuclear. The 
Department has established a balanced effort to research and develop 
hydrogen production capabilities from all of these resources. Today, 
the most cost-effective and efficient process is steam reforming of 
natural gas. Natural gas reforming is a route for producing hydrogen, 
particularly in the near term because of its current economics and the 
availability of existing infrastructure. Use of coal with 
sequestration, renewable resources, and nuclear are other routes for 
producing hydrogen over the long term. Although hydrogen production in 
the future is not likely to come from natural gas alone, an Energy 
Information Administration (EIA) calculation indicated that if 36 
million hydrogen fuel cell vehicles were on the road by 2025, it would 
add about 5 percent to total natural gas that will be used in the 
United.States that year. This increase would be more than offset by 
natural gas demand reduced by new advanced technologies and efficiency 
improvements to existing technologies under development within the EERE 
portfolio. EERE's analysis, based on our fiscal year 2004 budget 
request, indicates that by 2020 the industrial, buildings, and other 
portions of our portfolio will be freeing up some 11 percent of 
expected natural gas demand. In the future, hydrogen will likely be 
produced from a diverse suite of domestic resources, such as 
renewables, nuclear, natural gas and, if carbon capture and 
sequestration technologies are perfected, coal. Thus, the domestic 
resources needed to produce large amounts of hydrogen are available 
and, with continued research and development, the necessary production 
processes should meet required efficiency and cost objectives to 
facilitate a fuel cell vehicle commercialization decision by industry 
in 2015.

                                ELK HILL

    Question. The Department of Energy entered into a Settlement 
Agreement with the State of California to compensate the State for its 
interest in the Elk Hills oil reserve. The Settlement Agreement calls 
for the State to receive compensation in seven annual installments. The 
Department has met its obligations for the first five installments. Mr. 
Secretary, will the Department continue to meet its obligations under 
this Agreement?
    Answer. Estimates for the total for the remaining payments have 
been as high as $118 million; however, until final equity and final 
cost determinations are made, the precise amount is speculative. The 
President's budget for fiscal year 2004 requests $36 million for the 
payment to California, indicative of the Department's intention to meet 
its obligation to California. Under the agreement, if equity has not 
been finalized by July 2003 (which it will not be), DOE and the state 
should confer, and DOE must determine whether any or all of the seventh 
installment should be deferred.
    Question. DOE has held back $26 million in compensation due to the 
State because DOE has taken 6 years to finalize the split of the 
proceeds from selling Elk Hills. Under DOE's Settlement Agreement, for 
the sixth installment in fiscal year 2004, the State is entitled to 
half of the balance in the Elk Hills School Lands Fund that's left 
after this holdback. Thus, the State is entitled to $59 million in Elk 
Hills compensation for fiscal year 2004, not the $36 million requested 
in your budget. Mr. Secretary, what is the Department's view of an 
appropriation of the full $59 million?
    Answer. The Settlement Act provided for 9 percent of the net sales 
proceeds to be reserved in a contingent fund in the Treasury for 
payment to the State, subject to appropriation. The Department's 
estimate of 9 percent of the net sales proceeds was $324 million, of 
which $298 million has already been deposited into the contingent fund. 
The Department will adjust the amount in the contingent fund once all 
divestment related costs and final equity have been determined. It is 
now apparent that the final equity determination will not be completed 
until fiscal year 2006. Since 9 percent of the net revenues can only be 
calculated after final equity and final costs are determined, the 
amount of the two ``equal'' final payments is contingent upon events 
that have not yet occurred, and it will be impossible for Congress to 
appropriate an amount for fiscal year 2004 that would be known to be 50 
percent of the remaining payment.

                         CONCLUSION OF HEARINGS

    Senator Burns. Thank you all very much. The subcommittee 
will stand in recess subject to the call of the Chair.
    [Whereupon, at 10:56 a.m., Thursday, May 22, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2004

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses, the statements and 
letters of those submitting written testimony are as follows:]

                       DEPARTMENT OF THE INTERIOR

 Prepared Statement of the Colorado River Basin Salinity Control Forum
    In Support of $5,200,000 to assist in Colorado River Salinity 
Control, Title II, and with support for the President's request for the 
Land Resources Subactivity: Soil, Water, and Air Management. 
Specifically, this testimony supports the President's request for the 
Soil, Water and Air account in the amount of $34,936,000 and for a 
designation that $800,000 be used to further advance Colorado River 
salinity control efforts.
    This testimony is in support of funding for the Bureau of Land 
Management (BLM) for activities that assist the Colorado River Basin 
Salinity Control Program. The BLM budget, as proposed by the 
Administration in the BLM budget justification document, calls for four 
principle program priorities within the Soil, Water and Air Management. 
One of these priorities, in part, is ``through continuing BLM measures 
to meet the international agreement for salinity of the Colorado 
River.'' It is also noted that in the budget justification document 
there are identified performance estimates for 2003 and it is stated 
that ``The BLM continues to implement on-the-ground projects, evaluate 
progress in cooperation with Bureau of Reclamation and Natural 
Resources Conservation Service, and report salt-retaining measures in 
order to further the Plan of Implementation of the Federal Salinity 
Control program in the Colorado River Basin.'' The Forum believes that 
in fiscal year 2004 funds appropriated by Congress will be used for 
this purpose in this next fiscal year.
    The seven Colorado River Basin States, through the Colorado River 
Basin Salinity Control Forum, have been trying to engage the BLM in a 
partnership with the Basin states as has been done with other federal 
agencies. This enhanced working relationship has been slow to develop. 
The Forum is encouraged by the words in the BLM budget document. The 
Forum supports the funding request. Our analysis indicates that the BLM 
needs to specifically target the expenditure of funds in the amount of 
$5,200,000 for activities that help control salt contributions from BLM 
managed lands in the Colorado River Basin in fiscal year 2004 with 
$800,000 being focused upon salinity control efforts.
    Although the Forum has not been able to determine, to its 
satisfaction, how funds have been or will be spent, we are encouraged 
by recent BLM efforts. The Forum has requested that the BLM select a 
salinity coordinator for the basinwide program. This person would serve 
with the two full-time coordinators now in place for the USBR and the 
USDA. Salinity Coordinators in each of the state BLM offices have been 
identified.
    The BLM has been charged by the Congress with preparing a special 
report as to how the Bureau will advance salinity control activities. 
In the past, it has been difficult to determine the extent of BLM 
efforts in the water quality program. It has been very general in its 
accounting for accomplishments. The Forum hopes that the BLM report to 
the Congress, which is required under S. 1211 (Public Law 106-459), 
will better document the BLM efforts. The success of the BLM in 
controlling erosion and, hence, salt contributions to the Colorado 
River and its tributaries is essential to the success of the Colorado 
River Basin Salinity Control Program, including adherence to the water 
quality standards adopted by the seven Colorado River Basin states and 
approved by the Environmental Protection Agency. Inadequate BLM control 
efforts will result in very significant additional economic damages to 
water users downstream. The Forum submits this testimony in support of 
adequate funding so that the BLM programs can move ahead at a pace that 
is needed to meet these water quality standards.

                                OVERVIEW

    The Colorado River Basin Salinity Control Program was authorized by 
Congress in 1974. The Title I portion of the Colorado River Basin 
Salinity Control Act responded to commitments that the United States 
made, through a minute of the International Boundary and Water 
Commission, to Mexico with respect to the quality of water being 
delivered to Mexico below Imperial Dam. Title II of the Act established 
a program to respond to salinity control needs of Colorado River water 
users in the United States and to comply with the mandates of the then 
newly enacted Clean Water Act. Initially, the Secretary of the Interior 
and the Bureau of Reclamation were given the lead federal role by 
Congress. This testimony is in support of funding for a portion of the 
Title II program.
    After a decade of investigative and implementation efforts, the 
Basin states concluded that the Salinity Control Act needed to be 
amended. Congress revised the Act in 1984. That revision, while leaving 
implementation of the salinity control policy with the Secretary of the 
Interior, gave new salinity control responsibilities to the Department 
of Agriculture and to the Bureau of Land Management. Congress has 
charged the Administration with implementing the most cost-effective 
program practicable (measured in dollars per ton of salt removed). The 
Basin states are strongly supportive of that concept and have proceeded 
to implement their own salinity control efforts in the Colorado River 
Basin.
    Since the congressional mandates of nearly two decades ago, much 
has been learned about the impact of salts in the Colorado River 
system. Reclamation recognizes that the damages to United States' water 
users alone is about $0.3 billion per year.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of Gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum has become the seven-state 
coordinating body for interfacing with federal agencies and Congress in 
support of the implementation of the salinity control program. In close 
cooperation with the Environmental Protection Agency (EPA) and under 
requirements of the Clean Water Act, every three years the Forum 
prepares a formal report analyzing the salinity of the Colorado River, 
anticipated future salinity, and the program elements necessary to keep 
the salinities at or below the levels measured in the river system in 
1972.
    The plan necessary for controlling salinity has been captioned the 
``plan of implementation.'' The 2002 Review of water quality standards 
includes an updated plan of implementation. The level of appropriation 
requested in this testimony is in keeping with the agreed to plan. If 
adequate funds are not appropriated, state and federal agencies 
involved are in agreement that the damage from the high salt levels in 
the water will be even more widespread in the United States and Mexico.

                             JUSTIFICATION

    The BLM is, by far and away, the largest land manager in the 
Colorado River Basin. Much of the land that is controlled and managed 
by the Bureau of Land Management is heavily laden with salt. Past 
management practices, which include the use of lands for recreation; 
for road building and transportation; and for oil, gas, and mineral 
exploration have led to man-induced and accelerated erosional 
processes. When soil and rocks heavily laden with salt erode, the silt 
is carried along for some distance and ultimately settles in the 
streambed or flood plain. The salts, however, are dissolved and remain 
in the river system causing water quality problems downstream.
    The Forum believes that the federal government has a major and 
important responsibility with respect to controlling salt contributions 
from public lands. Congress charged federal agencies, including the 
BLM, to proceed with measures to control the salinity of the Colorado 
River, with a strong mandate to seek out the most cost-effective 
options. It has been determined that BLM's rangeland improvement 
programs can lead to some of the most cost-effective salinity control 
measures available. These salinity control measures may be more cost-
effective than some now being considered for implementation by the 
Bureau of Reclamation and by the Department of Agriculture. They are 
very environmentally acceptable, as they will prevent erosion, increase 
grazing opportunities, increase dependable stream flows, and enhance 
wildlife habitat.
    Through studying hundreds of watersheds in the States of Utah, 
Colorado, and Wyoming, consortiums of federal and state agencies, 
including the BLM, have selected several watersheds where very cost-
effective salinity control efforts could be implemented immediately. In 
keeping with the Congressional mandate to maximize the cost-
effectiveness of salinity control, the Forum is requesting that the 
Congress appropriate and the administration allocate adequate funds to 
support the Bureau of Land Management's portion of the Colorado River 
salinity control program as set forth in the Forum's adopted plan of 
implementation.
    BLM has not had a history of always adequately reporting its 
efforts, the associated expenditures and its accomplishments with 
respect to Colorado River salinity control. Legislation passed in 2000, 
S. 1211, requires the BLM to report its program for salinity control to 
the Congress. The Forum supports this requirement and looks forward to 
the filing of the report, which, by law, must also be filed with the 
Colorado River Basin Salinity Control Advisory Council.

                                 ______
                                 
      Prepared Statement of the Colorado River Board of California

    Support for fiscal year 2004 Federal Funding of $5.2 Million for 
the Department of the Interior--Bureau of Land Management to assist in 
the Colorado River Basin Salinity Control Program, with $800,000 to be 
designated specifically to salinity control efforts.
    Your support and leadership are needed in securing adequate fiscal 
year 2004 funding for the Department of the Interior-Bureau of Land 
Management with respect to the federal/state Colorado River Basin 
Salinity Control Program. This program is carried out as a part of 
ecosystem and watershed management pursuant to the Colorado River Basin 
Salinity Control Act and the Clean Water Act.
    As you are aware, the Bureau of Land Management (BLM) is the 
largest landowner in the Colorado River Basin. Due to geological 
conditions, much of the lands that are controlled and managed by the 
BLM are heavily laden with salt. Past management practices have led to 
man-induced and accelerated erosional processes from which soil and 
rocks, heavily laden with salt have been deposited in various stream 
beds or flood plains. As a result of this disposition, salt is 
dissolved into the River System causing water quality problems 
downstream.
    Congress has charged federal agencies, including the BLM, to 
proceed with programs to control the salinity of the Colorado River. 
BLM's rangeland improvement programs can lead to some of the most cost-
effective salinity measures available. These salinity control measures 
may be more cost-effective than some now being considered for 
implementation by the Bureau of Reclamation through its Basinwide 
Program and by the Department of Agriculture through its EQIP program. 
In keeping with the Congressional mandate to maximize the cost-
effectiveness of the salinity control program, the Colorado River Board 
is requesting that Congress appropriate and the administration allocate 
adequate funds to support BLM's portion of the Colorado River Basin 
Salinity Control Program.
    The Colorado River Board of California, the state agency charged 
with protecting California's interests and rights in the water and 
power resources of the Colorado River System, requests that Congress 
appropriate $5,200,000 of these funds in fiscal year 2004, to 
accomplish activities that BLM either has underway or should initiate 
in order to further control the concentrations of salinity of the 
Colorado River. It is particularly important that the BLM's line item 
for Management of Lands and Renewal Resources be adequately funded. The 
Colorado River Board urges the Subcommittee to specifically mark, 
$800,000 from this line-item for the Colorado River Basin Salinity 
Control Program as has been the direction to BLM from the Subcommittee 
in past years.
    Soon your Subcommittee will receive testimony from the Colorado 
River Basin Salinity Control Forum (Forum) on behalf of the seven 
Colorado River Basin states. The Colorado River Board concurs in the 
fiscal year 2004 funding request and justification statements for BLM 
as set forth in the Forum's testimony.
    California's Colorado River water users are presently suffering 
economic damages, estimated at $300 million per year, due to the 
river's salinity, as stated in a recent report prepared by the Bureau 
of Reclamation and the Metropolitan Water District of Southern 
California. In addition, the federal government has made significant 
commitments to the Republic of Mexico and to the seven Colorado River 
Basin states with regard to the delivery of quality water to Mexico. In 
order for those commitments to be honored, it is essential that in 
fiscal year 2004 and in future fiscal years, that Congress provide 
funds to the Bureau of Land Management for its activities.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the 17 million residents of southern California. 
Preservation of its quality through an effective Salinity Control 
Program will avoid the additional economic damages to river users in 
California.
    The Board greatly appreciates your support of the Colorado River 
Basin Salinity Control Program and asks for your assistance and 
leadership in securing adequate funding for this vital program.

                                 ______
                                 
           Prepared Statement of the Doris Day Animal League

    The Doris Day Animal League is a non-profit, member supported 
animal advocacy organization located in Washington, D.C. On behalf of 
our more than 350,000 members and supporters, we respectfully present 
to the subcommittee our concerns about the Bureau of Land Management's 
(BLM) Wild Horse and Burro Program (Program).
    In 1971, Congress charged the BLM with preserving America's wild 
horses and burros via passage of the Wild Free-Roaming Horse and Burro 
Act. The Act declares that ``wild free-roaming horses and burros are 
living symbols of the historic and pioneer spirit of the West . . . 
[who] shall be protected from capture, branding, harassment or death.'' 
Further, they are to be considered as ``an integral part of the natural 
system of the public lands.''
    We are gravely concerned that the BLM is failing to fulfill this 
mandate, and instead is engaging in questionable and unsustainable 
practices under the guise of multiple-use land management. While the 
BLM has several mandates and must appease various interested parties, 
it should not do so at the expense of the very animals and land it is 
charged with protecting.
    In fiscal year 2001, the BLM requested and received a $9 million 
budget increase from Congress to implement a four year program to halve 
the number of wild horses on the range in order to restore the health 
of the land. Despite the agency's failure to meet its own goals, this 
new level of funding was effectively maintained in fiscal years 2002 
and 2003.
    The BLM's plan raised several questions, not least of which was, 
where would the thousands of rounded-up horses go? Although the BLM has 
recognized the shortage of good adoptive homes and has subsequently 
made a commendable effort to open additional long-term holding 
facilities to accommodate these horses, it is unclear how the agency 
can sustain this plan of action; as more horses are rounded up, 
additional facilities and homes are needed, yet the agency's budget 
remains essentially static.
    Already, BLM spends some 40 percent of its annual budget on holding 
and caring for horses and burros removed from the range. Nearly 40 
percent of the program budget goes to administering and marketing an 
adoption program that can never be expected to absorb the thousands of 
wild horses and burros rounded up annually. In contrast, little more 
than 3 percent of the budget is devoted to range work, including 
monitoring and censusing of wild horse populations, even though such 
work is critical to the successful management of wild horse and burro 
populations and the range itself.
    Despite some grazing reductions in recent years, domestic livestock 
still so dramatically outnumber wild horses on BLM land (the ratio is 
estimated to be 50:1) that the removal of tens of thousands of horses 
has not had a significant impact on the health of the range. As a GAO 
report from 1990 stated, ``. . . the primary cause of degradation in 
rangeland resources is poorly managed domestic livestock (primarily 
cattle and sheep) grazing . . . wild horses are vastly outnumbered on 
federal rangelands by domestic livestock . . .'' (Rangeland Management: 
Improvements Needed in Federal Wild Horse Program, GAO, 1990). Our 
observations and experience in working with this program over the past 
several years reinforce that this is still very much the case.
    We therefore respectfully urge this subcommittee to carefully 
scrutinize the BLM's request for funding for fiscal year 2004. While we 
do not oppose the agency receiving additional funds, we do not agree 
that the health of the range can be noticeably improved simply through 
the removal of large numbers of wild horses. Not only does this not 
yield significant improvements in range conditions, but the strategy 
also is financially unsustainable.
    As such, we strongly suggest that a new GAO Report on the BLM's 
Program be conducted to determine if its wild horse and burro policies 
are appropriate when viewed as part of the agency's larger mission. 
Further, in light of the huge number of wild horses and burros being 
rounded up through emergency and scheduled gathers, it is imperative 
that the ``no-kill'' provision that has been attached to the Interior 
Appropriations bill for several years now remain intact. That provision 
reads:

``The appropriations made herein shall not be available for the 
destruction of healthy, unadopted, wild horses and burros in the care 
of the Bureau of Land Management or its contractors.''

    Thank you for your consideration.

                                 ______
                                 
    Prepared Statement of the International Association of Fish and 
                           Wildlife Agencies

                    BUREAU OF LAND MANAGEMENT (BLM)

    The Bureau of Land Management (BLM) manages some 262 million acres 
of the Nation's public lands, which is 48 per cent of our total public 
lands, making it the single largest natural resource management agency 
in terms of acres managed. Yet its operating budget amounts to a 
funding rate of $3.73 per acre, about $4-$16 less per acre than the 
three other largest Federal land and natural resource management 
agencies. These lands provide critically important fish and wildlife 
habitat, and, in 2004, over 60 million visitors are expected to 
participate in recreational opportunities for fishing, hunting, 
camping, rafting, hiking, mountain biking, and wildlife viewing. The 
Association is concerned that the fiscal year 2004 budget proposes 
essentially a static funding level. This will continue to present 
significant challenges to BLM to even maintain current levels of 
activity on these public lands, without providing the agency any 
capability to enhance its management presence and programs. Congress 
needs to begin to incrementally increase BLM's operational budget to 
bring it into parity with the other Federal land management agencies.

The BLM's Fish and Wildlife Priorities
    While the Association appreciates the fact the Secretary of the 
Interior has revised the Cooperative Conservation Initiative, as well 
as increased the Challenge Cost Share Program, we also recognize that 
these undertakings are largely made possible by reallocating money from 
existing resource-based programs. For example, in fiscal year 2003, 
$5.5 million--over 60 percent--of the funding for the Challenge Cost 
Share Program originated from the wildlife, fisheries and T&E species 
programs. Since a like amount is not guaranteed to be used for these 
same purposes, the long-term implications are a reduction of program 
emphasis. The Association, therefore, requests funding for the 
Challenge Cost Share program not come from existing programs and those 
redirected funds be returned to the budget of origin. In addition to 
the source of funding, the Association remains very concerned that BLM 
does not have the staff to take full advantage of either the 
Cooperative Conservation Initiative or the Challenge Cost Share 
Program.

Wildlife Management
    Consumptive (hunting and fishing) and non-consumptive wildlife 
activities (such as viewing, photography and conservation education) on 
public lands provide millions of America's outdoor enthusiasts with 
opportunities to pursue these endeavors, which are part of our Nation's 
rich cultural heritage. Such activities on BLM lands result in $2 
billion in expenditures from participants each year. The 
Administration's fiscal year 2004 budget for BLM's Wildlife Management 
program is $22.42 million, which is nearly identical to the fiscal year 
2003 enacted level, but nearly $2.9 million (13 percent) below the 
fiscal year 2002 enacted level. The Association strongly urges Congress 
to increase BLM's fiscal year 2004 wildlife management budget by an 
additional $4 million. The return for this investment in expenditures 
in local communities is significant.

Fisheries Management
    The BLM manages roughly 117,000 miles of fish bearing streams, 
17,000 miles of anadromous fish habitat, and 3 million acres of 
fishable lakes and reservoirs which provide recreational anglers with 
high quality fishing opportunities, generating $390 million annually in 
economic benefits. In order to manage these resources, the 
Administration is requesting $11.87 million in fiscal year 2004 for 
Fisheries Management. This represents a program increase of $200,000 
from the fiscal year 2003 enacted budget, but remains nearly $250,000 
below the fiscal year 2002 enacted budget. This will reduce BLM's 
aquatic and riparian habitat restoration capabilities on vital public 
lands. Management activities will focus on the maintenance and 
restoration of habitat for both anadromous and resident species. These 
improvements are aimed at providing recreational angling opportunities 
and precluding the need for the listing of fish stocks as threatened or 
endangered under the Endangered Species Act. The Association strongly 
encourages Congress to increase this budget by an additional $1 
million.

Threatened and Endangered Species
    Lands administered by BLM provide habitat to more than 900 
vulnerable and declining species and 306 threatened or endangered plant 
and animal species. The latter number has more than doubled since 1990. 
Like other Federal agencies, the Bureau is mandated by the Endangered 
Species Act to take steps to ensure that strategies are implemented to 
protect and restore both the species and the habitat that they require. 
With the rapid increase in the number of listed species, however, BLM's 
Threatened and Endangered Species Program has transformed from one of 
proactive species conservation management to one that, out of 
necessity, must react to the increasing consultation workload.
    In the Conference Report from the Committee on Appropriations on 
the 2001 Department of Interior Appropriations Bill, the Committee 
specifically requested the Bureau to, ``submit as part of its fiscal 
year 2002 budget request the results of its ongoing analysis and review 
of the impacts of ESA listings on the ability of the Bureau to 
accomplish its mission while at the same time responding to the growing 
demand for use authorization requests''. The Committee also requested 
the Bureau to, ``provide a detailed roadmap of how it intends to 
address these impacts, including the level of funds and other resources 
that would be required to address these problem areas''.
    In its Report to Congress, dated March, 2001, and entitled 
``Effects of Endangered Species Act Listings on Bureau of Land 
Management Programs and Activities,'' the agency concluded the 
following: ``. . . BLM is proposing a future management strategy that 
streamlines the consultation process, enhances pre-listing management 
through the development of multi-species conservation frameworks, and 
aggressively addresses recovery actions identified in formal species 
recovery plans. This strategy will be integrated within the framework 
of the Bureau's strategic plan. It will require doubling the current 
Threatened and Endangered Species budget to $48 million and take an 
additional 70 staff positions over 5 years . . .''.
    The President requests $21.83 million in fiscal year 2004 for BLM 
threatened and endangered species management, which represents a 
$543,000 increase from the fiscal year 2003 request, but totally 
ignores the aforementioned Report to Congress. The request is woefully 
inadequate to meet identified needs or allow the BLM to carry out its 
responsibilities under the ESA--or for that matter--its mission. 
Significant increases in funding are needed in fiscal year 2004 and the 
next several years to accomplish what was recommended in the 2001 
Report to Congress--that is: ``. . . At that time, funding and 
personnel needs should stabilize, and begin to decline as species 
recovery becomes effective''. In view of this gross inequity between 
resource needs versus funding levels, the Association strongly 
encourages Congress to add an additional $5 million to the Threatened 
and Endangered Species fiscal year 2004 budget.

BLM Fish & Wildlife Staffing
    The Association supports the previously-referenced programs and 
Bureau funding requests (with the recommended changes), however, we 
remain extremely concerned that at current staffing levels, the Bureau 
and its field staff will be unable to meet its program and statutory 
requirements. The western states' population has more than tripled, to 
over 60 million people, over the past 55 years, while the Nation's 
largest land management agency's staff has declined. At current staff 
levels, biologists are often forced to divide their time between on-
the-ground program implementation efforts and other program 
requirements, which may or may not provide direct fish or wildlife 
benefits.
    Evaluations of staffing needs by BLM have shown that the Bureau is 
lacking in staff to accomplish program goals. For example, a 1990 study 
of the Fish, Wildlife, and Forest Group showed that BLM was in need of 
three times its workforce at that time. Exacerbating the problem is the 
fact that the fisheries and wildlife staffing levels have declined 20 
percent since that time. Further, a recent workforce evaluation showed 
that with its current level of staffing in fisheries and wildlife, the 
BLM is staffed at only 50 percent and 57 percent, respectively, of its 
1993 identified needs. More recently, the March, 2001, Report to 
Congress concluded it would take an additional 70 staff positions over 
five years to address its consultation, pre-listing management and 
recovery actions under the ESA. Nowhere in the fiscal year 2004 budget 
request are these staffing needs addressed. Given the increased 
emphasis in this budget on accelerating the completion of land use 
plans and expanding energy development on public lands, these staffing 
shortages are resulting in fish and wildlife resources being 
inadequately addressed in agency actions.
    The Association understands the entire Wildlife and Fisheries 
Management Program has just undergone a complete review and the 
findings will be made public in the coming months. It is our sincere 
hope that recommendations contained therein will help guide preparation 
of the fiscal year 2005 and subsequent budgets. The Association asserts 
it is critical that the BLM be provided both the adequate staff and 
additional operating funds needed to implement its base programs in 
order to be effective in managing aquatic and terrestrial resources on 
public lands. These programs can help point the way towards both 
wildlife sustainability and economic stability and development.
    Because of these ongoing staffing shortages, the BLM has to utilize 
more and more contract employees to do much of its work related to 
planning efforts and on-the-ground monitoring, and this past year 
implemented an intern program with the Institute for Plant Conservation 
Biology. While the Association understands the use of contract 
employees and graduate students, we would encourage the BLM to explore 
ways to partner with State fish and wildlife agencies--through MOUs and 
funding agreements--to help accomplish its work related to wildlife and 
fisheries and threatened and endangered species management. This, in 
fact, should be aggressively pursued. This approach would help utilize 
existing expertise from the States who have management authority over 
resident species and expand the state-federal partnership necessary to 
perpetuate the diversity of flora and fauna of Western rangelands.
    The BLM needs to coordinate closely with the respective State fish 
and wildlife agencies so that programs and activities do not compromise 
State jurisdictional authorities for fish and resident wildlife and to 
facilitate the cooperative design and conduct of research and 
management programs. Collaborative efforts between the BLM and the 
State fish and wildlife agencies play a critical role in achieving land 
and resource objectives for species and related resources. The 
Association recommends that funds be made available to the States to 
maximize discretion of the States in fish and wildlife information and 
management needs, wherever possible, instead of duplicating or 
authorizing conflicting programs.
    On a related matter, the Association continues to be deeply 
concerned that, as part of the Federal Activities Inventory Reform Act 
(FAIR) inventory, wildlife biology is one of the position categories 
that has been identified for possible outsourcing (i.e., contracting) 
to the private sector. We are adamantly opposed to any action that 
might result in the reduction or elimination of Federal career 
professionals being responsible for day-to-day oversight and management 
of the Nation's public land resources.
    Finally, with the increased emphasis on energy development on BLM 
lands being advocated by the Administration, increased demands and 
needs for fish and wildlife expertise are expected. Already, 
approximately 30 percent of existing wildlife and fisheries staff time 
is being directed at energy-related functions. The Association strongly 
supports hiring additional fish and wildlife staff to address these 
critical program areas in the context of addressing the Nation's Energy 
Policy, but recommends these positions be directly funded from the 
energy account, rather than extracted from the existing base Wildlife 
Management, Fisheries Management or Threatened or Endangered Species 
Program budgets.

Riparian Management
    The BLM manages over 23 million acres of land classified as 
riparian or wetland. These areas include or support some of the most 
ecologically diverse and important plant and animal communities on the 
public lands. These areas have ecological significance far beyond their 
small acreage. They provide vital habitat components for hundreds of 
fish and wildlife species, filter sediment from water, afford greater 
water storage capacity, dissipate flood waters and offer excellent 
recreational opportunities. For these reasons and more, the Association 
supports BLM efforts in riparian areas, but remains concerned that the 
requested $21.97 million is insufficient to meet all of the identified 
needs. This amount, in addition to inflation and uncontrollables, is 
actually far less than what has been devoted to this important work in 
prior years. Given the potential for partnerships this program provides 
with other State and local interests, it is disheartening to see any 
lessening of attention paid these important resources. The Association 
requests that Congress add $3 million to this program, and urges BLM to 
continue its coordination with State fish and wildlife agencies in 
order to achieve optimal program results.

Rangeland Management
    The Association is encouraged by BLM's efforts to address the 
problem of invasive and noxious weeds on public lands and recommends a 
more focused effort to address high priority invasive species that are 
serious problems for fish and wildlife habitat. The Association 
supports a fiscal year 2004 budget of $9.4 million for invasive weed 
management, rather than the $8.3 million being requested. We also 
encourage Congress to add $3 million for local and State efforts to 
combat invasive weeds.

Realty and Ownership Management
    The Association recommends reinstatement of the proposed reduction 
of $2 million in the Alaska Conveyance and Lands program in the fiscal 
year 2004 budget. This reduction, coupled with absorption of nearly 
half of the uncontrollables, will significantly impact this program. 
Completion of this program is long overdue and critical for the State 
and native corporations to receive their land entitlements under the 
Alaska Native Claims Settlement Act and Alaska Statehood Act, both of 
which are several decades old. Until the land conveyances are complete, 
it is difficult for Federal and State agencies and private landowners 
to make land management decisions affecting State fish and wildlife 
management, public access, and land uses.
    In addition, we urge the BLM to redirect to actual land conveyances 
any funds currently being used for the ``2001 Public Easement Review 
Process'' in the Alaska region. Until the conveyance process is 
complete, any agency resources spent on the ``2001 Process'' is 
premature. Existing regulations already prescribe an easement vacation 
process that can be used when needed. We recommend the BLM focus on 
signing and marking of easements to reduce trespass and land management 
issues. We urge the funds currently being spent on expediting vacations 
be more appropriately spent on completing land conveyance itself and 
the management of existing easements.

Monitoring
    The Association understands the fiscal year 2004 budget request for 
BLM includes $1 million to conduct long-term, large-scale, ``cumulative 
effects'' resource monitoring. We support this effort and the manner in 
which these fiscal resources are included in the appropriate programs 
including wildlife management; fisheries management; soil, air and 
water; and cultural resources. Conversely, BLM is proposing $500,000 to 
expand resource monitoring to increase its ability to assess the 
cumulative impact of oil and gas development, especially on cultural 
resources and species-at-risk. This effort is targeted at states where 
coalbed natural gas development is occurring. However in this instance, 
the funding is contained in the oil and gas account. The Association 
supports this monitoring, but recommends the fiscal resources to 
conduct this work be allocated within the appropriate program area 
budget where biological and cultural resource expertise exists.

Wild Horse and Burro Management
    The Association remains very concerned about the BLM's inability to 
reach appropriate population levels for wild horses and burros on 
western rangelands and the resulting habitat damage, being further 
worsened by the continuing region-wide drought. In some instances, 
resource damage caused by excessive numbers of wild horses and burros 
will never recover, and in other areas, the situation is reaching 
crisis proportions. Yet, the President's fiscal year 2004 budget 
request for this program is $295,000 less than the fiscal year 2003 
enacted budget. This is simply an inconsistent response to a 
significant resource problem. The Association, therefore, recommends 
Congress increase this budget by an additional $500,000 in fiscal year 
2004 and require BLM--if not already scheduled--to undertake a complete 
review of the Wild Horse and Burro Management Program and have it 
accompany the fiscal year 2006 budget request. Not to be lost in this 
recommendation is the importance of the fact that BLM's existing Wild 
Horse and Burro Management Program--which is funded at $29.7 million 
for fiscal year 2003--already exceeds what is committed for its 
Fisheries Management ($11.7 million); Threatened and Endangered Species 
($21.7 million); and Wildlife Management ($22.4 million) programs 
during the same period. This further validates the Association's 
earlier assertion that the latter three program areas are grossly 
under-funded, by comparison.

                                 ______
                                 
   Prepared Statement of the New Mexico Interstate Stream Commission

                                SUMMARY

    This Statement is submitted in support of fiscal year 2004 
appropriations for Colorado River Basin salinity control program 
activities of the Bureau of Land Management. I urge that $5,200,000 be 
appropriated for the Bureau of Land Management for activities that 
benefit the control of salinity in the Colorado River Basin, and of 
that amount, $800,000 be marked specifically for the Colorado River 
Basin Salinity Control Program. In addition, I support the President's 
requested appropriation of $34,936,000 for the Land Resources 
Subactivity: Soil, Water, and Air Management.

                               STATEMENT

    The Colorado River Basin Salinity Control Forum is comprised of 
representatives of the seven Colorado River Basin States appointed by 
the respective Governors of the States. The Forum has examined all of 
the features needed to control the salinity of the Colorado River. 
Those features include activities by the States, the Bureau of 
Reclamation, the Department of Agriculture, and the Bureau of Land 
Management (BLM). The salinity control program has been adopted by the 
seven Colorado River Basin States and approved by the EPA as a part of 
each state's water quality standards. Also, water delivered to Mexico 
in the Colorado River is subject to Minute 242 of the United States 
treaty with Mexico that sets limits on the salinity of the water.
    About 75 percent of the land in the Colorado River basin is owned, 
administered or held in trust by the federal government. BLM is the 
largest landowner in the Colorado River Basin, and manages public lands 
that are heavily laden with salt. When salt-laden soils erode, the 
salts are dissolved and remain in the river system affecting the 
quality of water used from the Colorado River by the Lower Basin States 
and Mexico. BLM needs to target the expenditure of $5,200,000 in fiscal 
year 2004 for activities that benefit salinity control in the Colorado 
River Basin: In addition, BLM needs to target the expenditure of 
$800,000 of the $5,200,000 specifically for salinity control projects 
and technical investigations. Experience in past years has shown that 
BLM projects are among the most cost-effective of the salinity control 
projects.
    I believe that the Federal government has a major and important 
responsibility with respect to controlling salt discharge from public 
lands. Congress has charged the federal agencies to proceed with 
programs to control the salinity of the Colorado River Basin with a 
strong mandate to seek out the most cost-effective solutions. BLM's 
rangeland improvement programs can lead to some of the most cost-
effective salinity control measures available. In addition, these 
programs are environmentally acceptable and control erosion, increase 
grazing opportunities, produce dependable stream run-off and enhance 
wildlife habitat.
    The water quality standards adopted by the Colorado River Basin 
States contain a plan of implementation that includes BLM participation 
to implement cost effective measures of salinity control. BLM 
participation in the salinity control program is critical and essential 
to actively pursue the identification, implementation and 
quantification of cost effective salinity control measures on public 
lands.
    Bureau of Reclamation studies show that damages from the Colorado 
River to United States water users are about $300,000,000 per year. 
Control of salinity is necessary for the Colorado River Basin States, 
including New Mexico, to continue to develop their compact-apportioned 
waters of the Colorado River. The Basin States are proceeding with an 
independent program to control salt discharges to the Colorado River, 
in addition to up-front cost sharing with Bureau of Reclamation and 
Department of Agriculture salinity control programs. It is vitally 
important that BLM pursue salinity control projects within its 
jurisdiction to maintain the cost effectiveness of the program and the 
timely implementation of salinity control projects to avoid unnecessary 
damages in the United States and Mexico.
    For much of the last decade or more, there has been a protracted 
problem with BLM accounting and reporting on salinity control efforts. 
Congress required, by Public Law 106-459, that BLM report to Congress 
on its salinity control efforts. I fully support the action by Congress 
to require BLM to report on its accomplishments within the salinity 
control program. Accounting and reporting BLM salinity control 
accomplishments annually is an essential activity to provide a 
coordinated, cost effective salinity control program.
    At the urging of the Basin States, BLM has agreed to create a full 
time position to coordinate its activities among the BLM state offices 
and other federal agencies involved in implementation of the salinity 
control program. BLM is to be commended for this important first step 
to improve cooperation and coordination with the Basin States and other 
federal agencies, and to comply with BLM responsibilities pursuant to 
the Colorado River Basin Salinity Control Act, as amended. The Basin 
States and I are pleased with the current BLM administration's 
responsiveness in addressing the need for a salinity coordinator and 
are hopeful that submittal of the required report to Congress will 
signal a renewed effort by BLM to identify and implement projects to 
address the salinity control objectives required to maintain the water 
quality standards for salinity. It is commendable that BLM's budget 
focuses on ecosystems and watershed management, but it is essential 
that funds be targeted on specific subactivities and the results of 
those expenditures reported. This is necessary for accountability and 
effectiveness of the use of the funds.
    I request the appropriation of $5.2 million in fiscal year 2004 for 
Colorado River salinity control activities of BLM, and that $800,000 of 
that amount be marked specifically for the Colorado River Basin 
Salinity Control Program, including projects and technical 
investigations. In addition, I request the appropriation of $34,936,000 
for the Land Resources Subactivity: Soil, Water, and Air Management as 
requested by the President. I very much appreciate favorable 
consideration of these requests. I fully support the statement of the 
Colorado River Basin Salinity Control Forum submitted by Jack Barnett, 
the Forum's Executive Director, in request of appropriations for BLM 
for Colorado River salinity control activities.

                                 ______
                                 
        Prepared Statement of the Wildlife Management Institute

    The Wildlife Management Institute (WMI) is a nonprofit organization 
staffed by experienced resource management professionals and is 
dedicated to sound, scientific management of wildlife and wildlife 
habitats. This letter contains our comments on the Administration's 
proposed fiscal 2004 budget for the Bureau of Land Management (BLM). In 
particular, we propose increases of $40 million for the Wildlife and 
Fisheries program, a $50 million increase for the Threatened and 
Endangered Species program, and a $10 million increase for the Riparian 
Area Management program.
    The BLM manages some 262 million acres of the nation's public 
lands, which is 48 percent of our total public lands, making it the 
single largest natural resource management agency in terms of acres 
managed. These lands provide critically important fish and wildlife 
habitat, and, in 2004, over 60 million visitors are expected to 
participate in recreational opportunities for fishing, hunting, 
camping, rafting, hiking, mountain biking, and wildlife viewing. In 
contrast, the energy and mineral production components of BLM's mission 
often pose extreme threats to wildlife resources and associated 
recreation. These circumstances merit an ongoing commitment to funding 
sound wildlife management.
    Hunting and non-consumptive wildlife activities (Such as viewing, 
photography and conservation education) on public lands provide 
millions of America's outdoor enthusiasts with opportunities to pursue 
these endeavors. Such activities on BLM lands result in $2 billion in 
expenditures from participants each year, most of this spent in rural 
communities. The Administration's fiscal 2004 budget for BLM's Wildlife 
Management Program is $22.42 million, which remains $2.9 million (13 
percent) below the fiscal 2002 enacted level. WMI strongly urges your 
subcommittee to increase BLM's fiscal 2004 wildlife management budget 
by an additional $4 million to $26.42 million.
    The BLM manages roughly 117,000 miles of fish bearing streams, 
17,000 miles of anadromous fish habitat, and 3 million acres of 
fishable lakes and reservoirs, which provide recreational anglers with 
high quality fishing opportunities, generating $390 million annually in 
economic benefits. Yet, the Administration is requesting $250,000 less 
than was enacted in fiscal 2002. This will reduce BLM's aquatic and 
riparian habitat restoration capabilities on vital public lands. WMI 
encourages your subcommittee to increase the agency's fisheries budget 
by an additional $1 million to $12.87 million.
    Lands administered by BLM provide habitats to more than 900 
vulnerable and declining species and 306 threatened or endangered plant 
and animal species, and these numbers are increasing. With the rapid 
increase in the number of listed species, however, BLM's Threatened and 
Endangered Species Program has transformed from one of proactive 
species conservation management to one that, out of necessity, must 
react to the increasing consultation workload. The BLM is proposing a 
future management strategy for at-risk species that streamlines the 
consultation process, enhances pre-listing management through the 
development of multi-species conservation frameworks, and aggressively 
addresses recovery actions identified in formal species recovery plans. 
This strategy will be integrated within the framework of the Bureau's 
strategic plan, and is projected to cost the agency $30 million above 
current authorized funding levels. The Administration is requesting 
$21.83 million in fiscal 2004 for BLM threatened and endangered species 
management, but this request is woefully inadequate to meet identified 
needs or allow the BLM to carry out its responsibilities under the 
ESA--or for that matter, its mission. Significant increases in funding 
are needed in fiscal 2004 and the next several years. In view of the 
inequity between resource needs and appropriated funding levels, WMI 
encourages your subcommittee to increase the Threatened and Endangered 
Species fiscal 2004 budget for the BLM to $27 million. Failing to 
provide adequate fiscal support for these programs will allow further 
unnecessary declines in sensitive species populations, resulting in 
even greater costs for future restoration and management.
    We support the Administration's requested increase of $15.11 
million for Resource Management and Planning to $48.146 million. We 
understand these funds are to expedite the development of 37 land 
management plans, but we are concerned that the BLM will overlook the 
need to balance biological and other resource monitoring with the rush 
to accelerate energy development. We believe these plans should provide 
guidelines for management of public lands for the next 15 years and 
that they should require an orderly development of energy resources. We 
recommend that each land management plan have an annual monitoring 
plan, and that funding be appropriated to conduct and analyze the data.
    The BLM has identified a need of approximately $140 million to 
implement 13 ecosystem restoration initiatives over the next four 
years; almost half of which deal with sagebrush/sage grouse, lesser 
prairie-chicken or prairie dog habitats (BLM's Sagebrush and Prairie 
Grassland Initiatives). These innovative restoration projects range 
from the Arctic Tundra and Boreal Forests in Alaska to the Chihuahuan 
and Sonoran Deserts in Arizona, New Mexico, and Texas. Without 
additional funding, BLM will have no choice but to delay action on 
these initiatives. While the total cost to restore these ecosystems is 
high, it will be even more expensive to restore them in the future. We 
recommend you subcommittee to provide at least $2 million to the BLM to 
implement the Sagebrush and Prairie Grassland Initiatives (particularly 
to support the efforts of the High Plains Partnership). Importantly, 
other State and Federal agencies, as well as private organizations, are 
poised to fund closely allied efforts for these initiatives, so BLM has 
a unique opportunity to leverage its expenditures, if appropriate 
funding is provided.
    We are concerned about the agency's request not to provide funding 
to the National Fish and Wildlife Foundation (NFWF). The foundation 
leverages more than $3 private for every Federal dollar invested. The 
collaborative and cooperative projects supported by the NFWF resolve 
real conflicts in conservation and land management that otherwise would 
lead to gridlock and extreme cost. We recommend that your subcommittee 
provide $1 million in the BLM's budget for the National Fish and 
Wildlife Foundation.
    The Wildlife Management Institute is concerned that at current 
staffing levels, the Bureau and its field staff will be unable to meet 
its program and statutory requirements. The western states' population 
has more than tripled--over 60 million people--over the past 55-years, 
while the nation's largest land management agency's staff has declined. 
At current staff levels, biologists are often forced to divide their 
time between on-the-ground program implementation efforts and other 
program requirements; which may or may not provide direct fish or 
wildlife benefits. Exacerbating the problem is the fact that the 
fisheries and wildlife staffing levels have declined 20 percent in 
recent years. Nowhere in the Administration's fiscal 2004 budget 
request for the agency are these staffing needs addressed. Given the 
increased emphasis in this budget on accelerating the completion of 
land use plans and expanding energy development on public lands, these 
staff and skill shortages are resulting in fish and wildlife resources 
being inadequately addressed in agency actions. We request that your 
subcommittee provide the BLM with the authority and funding for staff 
and operation resources necessary to implement its base programs in 
order to be effective in managing aquatic and terrestrial resources on 
public lands. We also encourage your subcommittee to direct the BLM to 
explore ways to partner with State fish and wildlife agencies, other 
Federal agencies and professional private wildlife groups and 
individuals--through MOUs and funding agreements--to help accomplish 
its work related to wildlife and fisheries and threatened and 
endangered species management. However, we are opposed to any action 
that might result in the reduction or elimination of Federal career 
fish or wildlife professionals who are responsible for day-to-day 
oversight or management of the nation's public land resources.
    The BLM needs to coordinate closely with the respective State fish 
and wildlife agencies so that programs and activities do not compromise 
State jurisdictional authorities for fish and resident wildlife and to 
facilitate the cooperative design and conduct of research and 
management programs. Collaborative efforts between the BLM and the 
State fish and wildlife agencies play a critical role in achieving land 
and resource objectives for species and related resources. WMI 
recommends that funds be made available to the States to maximize 
discretion of the States in fish and wildlife information and 
management needs, wherever possible, instead of duplicating or 
authorizing conflicting programs.
    Finally, the increased emphasis on energy development on public 
lands by the Administration has placed a heavy burden on BLM's 
professional fish and wildlife staff. Already, approximately 30 percent 
of existing wildlife and fisheries staff time is being directed at 
energy-related functions yet charged to fisheries and wildlife program 
elements. WMI recommends that your subcommittee direct the BLM to 
ensure that energy accounts pay for the costs related to energy 
development. Further, WMI recommends that your subcommittee strongly 
support hiring additional fish and wildlife staff by the BLM to address 
these critical program areas, but again, we recommend these positions 
be directly funded from the energy account, rather than extracted funds 
from Wildlife management, Fisheries Management or Threatened or 
Endangered Species Program budgets. Without addressing these fish and 
wildlife staffing and skill needs, the orderly development of our 
energy resources could be curtailed and make activities more vulnerable 
to legal challenge. We believe Congress should invest more in assuring 
that high profile fish and wildlife resources are treated before 
development creates a crisis.
    Thank you for considering our comments, and we look forward to 
working with you and your staff throughout the appropriation process as 
we learn more details about the Administration's budget request and 
needs. If you or your staff would like to discuss our recommendations 
further, please contact me or Terry Riley, Director of Conservation, at 
(202) 371-1808.

                                 ______
                                 
      Prepared Statement of the Alaska Department of Fish and Game

  REQUESTING $100 MILLION FOR STATE WILDLIFE GRANTS PROGRAM IN FISCAL 
                               YEAR 2004

    The mission of the Alaska Department of Fish and Game is to manage, 
protect, maintain, and improve the fish, game and aquatic plant 
resources of Alaska. The ability of the Department to carry out this 
mission is greatly enhanced by federal funding provided by the State 
Wildlife Grants (SWG) Program.
    The Department appreciates the significant support this committee 
has given to the SWG Program over the past several years. This 
relatively new funding source has enabled us to initiate new programs 
needed to monitor low and declining species in Alaska, especially those 
not hunted or fished. We have commenced new research programs to 
monitor amphibians, neotropical migratory birds, and a variety of 
individual species, including the Queen Charlotte Goshawk, which was 
recently petitioned to be listed as a threatened species, largely 
because little was known about the bird. We have also initiated a 
comprehensive planning effort, aimed at identifying those species most 
in need of management attention.
    Unfortunately, in fiscal year 2003 funding for this program was cut 
substantially from $85 million to $65 million. This represented a 
breach in the commitment made to supporters of Conservation and 
Reinvestment Act legislation, when--as a compromise--Congress created 
the Conservation Trust Fund within the fiscal year 2001 appropriations 
bill. The intention was to fund these programs for six years and to 
increase funding by 10 percent annually. This occurred for the first 
two years; however, last year funding for State Wildlife Grants was cut 
significantly. The decrease from $85 to $65 million threatens to 
undermine this critical program just as it is beginning to influence 
on-the-ground conservation. We encourage you to uphold the 2001 
compromise and provide this much-needed funding at the $100 million 
level.
    With more than 1,000 animals and plants already listed as federally 
threatened or endangered, State Wildlife Grants are our best hope for 
aggressively stemming this decline. Investing federal dollars now to 
protect or restore wildlife populations is far more effective than 
waiting until populations reach critically low levels and need 
``emergency room care'' through the Endangered Species Act. Ultimately, 
State Wildlife Grants will save both our nation's precious wildlife 
heritage and taxpayer dollars.
    We urge you to help ensure that $100 million is provided in fiscal 
year 2004 to fund this priority fisheries and wildlife conservation 
program.

                                 ______
                                 
               Prepared Statement of Friends of Back Bay

    I am Molly Brown from Virginia Beach, Virginia. I am the President 
of Friends of Back Bay, a group of over 400 dedicated volunteers who 
are committed to the protection of the Back Bay National Wildlife 
Refuge. Located in southeastern Virginia Beach, Back Bay National 
Wildlife Refuge was established on February 29, 1938, as a 4,589-acre 
refuge and breeding ground for migratory birds. We thank Congress for 
their continued support of this project.
    The Director of the U.S. Fish and Wildlife Service approved a 
Refuge boundary expansion on May 7, 1990. The expansion area includes 
6,340 acres of important wildlife habitat. To date the Fish and 
Wildlife Service has been able to acquire 4,452 acres. The Virginia 
Division of Natural Heritage has identified 14 natural areas within the 
Back Bay watershed, nine of which are within the Refuge boundary. These 
areas contain rare plant and animal communities, some of which are 
found nowhere else in Virginia. The Refuge annually supports tens of 
thousands of migratory birds including neotropical migrants, other 
songbirds, waterfowl, shore birds, wading birds and raptors. Submerged 
aquatic vegetation has begun to make a reappearance in Back Bay, due in 
part to land protection efforts of the Service. Various wintering 
waterfowl (widgeons, green-winged teal, and gadwall) have wintered in 
Back Bay this year. This acquisition had been zoned to accommodate 
3,000 homes; however, thanks to Congress, this area has been protected 
forever as a portion of the Back Bay National Wildlife Refuge.
    The Back Bay National Wildlife Refuge is truly a diversified 
ecosystem. The Refuge is the first undeveloped area south of the mouth 
of the Chesapeake Bay. The first successful bald eagle nest on Back Bay 
in over 30 years occurred on newly acquired Refuge lands in 1994. For 
the past nine years, fifteen eaglets were fledged from this nest. Again 
this year the eagles are nesting. Furthermore, additional adult Bald 
Eagles have been observed on the Refuge, as well as other area of the 
City of Virginia Beach. Also, loggerhead sea turtles nest on the Refuge 
beaches at the northern limit of their nesting range. Three loggerhead 
nests were successfully located and protected in 2002 and sea turtle 
management on the Refuge received significant media coverage during the 
summer. Peregrine falcons and piping plovers continue to use Refuge 
habitats during migration. Finally, owl research continues to be 
conducted on the Refuge. So far they have banded and studied the 
eastern screech, great horned, common barn and saw-whet owls.
    The threat to the Back Bay watershed continues. The primary threat 
is conversion of existing farmland and woodland into residential, 
commercial and recreational uses. The City of Virginia Beach 
Comprehensive Plan projects an estimated 100,000 additional residents 
in the Back Bay watershed. Current proposals include condo development, 
mineral extraction and golf course development. As development 
restrictions are relaxed, land values are escalating and may soon be 
out of reach for conservation purposes.
    Since the metropolitan area of Southeastern Virginia is one of the 
fastest growing urban areas in the nation, natural havens such as the 
Back Bay National Wildlife Refuge are increasingly important to its 1.5 
million inhabitants. A survey of 500 registered voters conducted in 
2000 by the City of Virginia Beach and Trust for Public Lands revealed 
that 86 percent believed that it is important to protect the Back Bay. 
This in part led the City of Virginia Beach to adopt the Virginia Beach 
Outdoors Plan in February 2001. This plan is an initiative to preserve 
open space for physical and visual enjoyment. The Refuge provides 
public recreation, e.g. hunting, fishing, bird watching, photography 
and environmental education. Visitation at the Refuge is over 100,000 
per year. Environmental education is a major public use, with over 5000 
schoolchildren utilizing the area in 2002. 2003 marked the 100th 
anniversary of the National Wildlife Refuge System. Back Bay NWR and 
its partner in education school, Red Mill Elementary, observed it with 
a school assembly and photo contest for the fifth graders. The photos 
were the student's reflection on the Back Bay area. The winning photos 
were placed in the 100-year time capsule, as evidence of the importance 
of Back Bay to today's students and future leaders. From the Refuge's 
visitor center, students can observe seven different habitats. These 
habitats are necessary for the survival of a wide variety of wildlife. 
In keeping with our environmental education opportunities, a group of 
local volunteers have worked with the Refuge staff to put the Back Bay 
Refuge on the Internet. This will enable people world wide to access 
information about the Back Bay ecosystem.
    Furthermore, the Back Bay Refuge is now part of the Charles Kuralt 
Trail, which includes eleven refuges in Virginia and North Carolina. 
Back Bay is designated for the osprey and has a handicap accessible 
trail to view these magnificent ``fish hawks.''
    The acquisition of lands on the west side of Back Bay, that are 
contiguous with Refuge property, will provide a more complete wildlife 
habitat unit that can be managed with the existing Refuge staff. In 
addition, in 1997 the Fish and Wildlife Service purchased a 17-acre 
tract on the west side of the Bay that is now serving as a new 
environmental education center for the Back Bay Refuge. This is helping 
to introduce school children and other interested citizens to the 
ecology of freshwater marshes and forested wetlands. The location of 
this facility is closer to the people and reduces the travel time by 
forty minutes.
    With money appropriated in fiscal year 2003, the Fish and Wildlife 
Service has purchased 139 acres from willing sellers. In order to 
continue the Back Bay Refuge expansion project, we respectfully request 
$1.0 million for fiscal year 2004. This money will help to fill in the 
mosaic pattern of small land parcels from willing sellers who have been 
waiting patiently to sell their land to the Refuge. One 15-acre tract 
for sale on Horned Point Road is bound on both sides by Refuge 
property. The owners of another 65-acre marsh are willing sellers who 
want to see this area protected. A 20-acre tract will provide ingress/
egress to a parcel recently purchased by the Refuge and will complete 
the acquisition of this property. A 260-acre shallow lake is being 
added to the Refuge boundary at the request of the owner. Approximately 
three-fourths of the shoreline is bounded by the Refuge and the 
remainder is bounded by Dam Neck Naval Base.
    I wish to extend my appreciation for the funding that you have 
appropriated through fiscal year 2003. This money has purchased 4,452-
acres of the proposed 6,340-acres expansion. This means that this 
project is over 70 percent completed in thirteen years. Also, this 
project is ranked thirty-seventh on the U.S. Fish and Wildlife 
Service's LAPS list and is in the President's budget. Thank you for the 
opportunity to comment on this important project.

                                 ______
                                 
           Prepared Statement of the City of Kansas City, MO

    I am pleased to provide written comments on behalf of the City of 
Kansas City, Missouri (the City) in support of the President's 2004 
Budget Request of $288.2 million for the Department of Energy's Low-
Income Weatherization Assistance Program (WAP). For more than 20 years 
the City has been the leader in the State of Missouri in effective and 
efficient energy conservation assistance to low-income households. The 
City has historically supported weatherization assistance by 
contributing more than $250,000 in General Funds annually. The City 
also leads the State in leveraging private utility and business monies 
for the WAP. We have ``honed'' service delivery skills through highly 
technical diagnostic analysis of each site to be assisted. These 
increased skills provide assurance that any monies spent on 
weatherization will meet performance expectations before energy 
conservation measures are installed on site. This results in guaranteed 
outcome before public dollars are spent.
    Despite these successes, changes in the economy have dramatically 
increased requests for assistance. Increased energy costs also affect 
requests for assistance. We are confident that the full provision of 
the President's requested funding for WAP will provide many more 
benefits than reductions in energy use.
    Energy providers throughout the nation are pleased to participate 
in the Low Income Home Energy Assistance Program (LIHEAP). LIHEAP's 
``safety net'' assistance is helpful; however, most energy providers 
support the notion that investment in energy efficiency is a better 
long-term solution than paying fuel bills. LIHEAP is critical during 
intense heating and cooling seasons; however, the ratio of energy 
assistance to the prevention component of energy efficiency is 
estimated to be more than 8 to 1. Energy efficiency investment produces 
a better bottom line for energy suppliers by reducing collection, turn-
on turn-off cycles and charge offs to bad debt which all customers 
eventually pay through rate increase that are affected by the 
collection problems.
    The WAP's mission statement is ``to reduce the heating and cooling 
costs for low-income families, particularly for the elderly, people 
with disabilities, and children, by improving the energy efficiency of 
their homes while ensuring their health and safety.'' In Kansas City, 
we track incidences of health issues discovered during the course of 
site analysis of homes eligible for assistance. We find the average 
low-income home visited was built inefficiently when energy was 
inexpensive and with little knowledge of whole house energy use 
technology versus today's standards. By their low-income nature, most 
eligible homes experience critical deferred maintenance. Some of the 
most critical areas of deferred maintenance are with the heating/
cooling and hot water and cooking appliances. A review of past years 
weatherization activity in Kansas City shows that on average:
  --Approximately 600 households receive energy efficiency assistance 
        annually;
  --One or more natural gas leaks are detected and corrected on each 
        house;
  --Very high levels of carbon monoxide is discovered in 20 percent of 
        the houses;
  --Indoor air quality issues are diagnosed and corrected in 87 percent 
        of the houses; and
  --Back drafting of flue gas occurs in over 25 percent of homes 
        weatherized.
    These health issues have a major impact on the well being of the 
applicant, the community. Eliminating natural gas leaks not only saves 
energy dollars, their elimination also eliminates personal injury and 
property damage due to explosions. We know that without weatherization 
intervention, there are increased health care costs from over exposure 
to high levels of carbon monoxide and moisture related indoor air 
quality problems. From time to time we receive anecdotal feedback that 
cellulose insulation installed by WAP prevented fire from spreading in 
homes.
    The sum total of energy efficiency investment though WAP is a 
compelling reason for full program funding. Numerous empirical studies 
by Oakridge National Laboratory and The Final Report by TecMRKT Works 
Process and Impact Evaluation of Missouri Gas Energy Pilot 
Weatherization Program, 827 Shady Oaks lane, Oregon, Wisconsin, 83575 
that the return on public dollars is more the 3 times its investment.
    The partnerships WAP developed with HUD, state finance agencies and 
the private market provides assurance that the innovative financing 
mechanisms that are used to produce affordable housing assure the 
success of the affordable concept. You should note that because most 
development costs for government and privately financed affordable 
housing are fixed and generally predictable. Home energy costs are the 
most volatile component of housing expenses. On that basis energy 
efficiency investment becomes a critical tool to ensure affordable 
housing remains affordable. Neighborhoods and many communities are now 
at risk due to higher than usual layoff and plant closings. Households 
that traditionally do not apply for assistance are now seeking help. 
WAP investment reduces household energy expenses for this newly group 
in need of help.
    We know that WAP is often the test bed for efficiency technologies 
that ultimately are adopted by the housing industry. We are proud of 
this historical legacy and we know that we can continue to contribute 
to the well being of America by maximum use of the WAP infrastructure.

                                 ______
                                 
            Prepared Statement of the Defenders of Wildlife

    Defenders of Wildlife has substantial concerns about the 
Administration's fiscal year 2004 budget and makes recommendations 
regarding these concerns and funding in the following priority areas.
          fish and wildlife service endangered species funding
    Defenders urges an increase of $13 million over the 
Administration's budget request of $12.2 million for the FWS endangered 
species listing account and $50 million over the Administration request 
of $62 million for the recovery account. The President's request for 
the four main FWS endangered species accounts, $128.7 million, is up 
slightly by nearly $3 million from fiscal year 2002. Most of this is a 
modest increase for the listing account largely due to a series of 
court decisions forcing the federal government to designate critical 
habitat for listed species. FWS has a current listing backlog of $137 
million and more than 250 species awaiting ESA protection--including 
the Washington ground squirrel, Northern sea otter, sheath-tailed bat, 
gunnison sage grouse, friendly ground dove, lesser prairie chicken, 
band-rumped storm petrel, and the elfin woods warbler. Many candidates 
could become extinct while awaiting protection. A total of about $25 
million per year for listing for the next 5-6 years would help FWS 
address this backlog.
    Recovery funding is cut $1.6 million below fiscal year 2002 even 
though FWS has said that more than 200 species currently listed under 
the Act could become extinct in the next five years simply because not 
enough funds are available for recovery activities. Some of these are 
Hawaiian species, including the world's rarest bird--the po'ouli with 
only three individuals known to exist in the wild. Others include: the 
Columbia Basin pygmy rabbit with less than 50 individuals in the wild; 
the Selkirk population of the woodland caribou with less than 35 
remaining in the wild; and the Mississippi gopher frog which is limited 
to one pond in south central Mississippi. We understand that FWS 
believes it could realistically spend an additional $50 million per 
year in recovery with current staffing and we urge such an increase.

 LAND, CONSERVATION, PRESERVATION, AND INFRASTRUCTURE IMPROVEMENT FUND 
                                (LCPII)

    Defenders urges full funding of this conservation trust fund at its 
dedicated fiscal year 2004 level of $1.56 billion for the Interior 
appropriations subcommittee portion of the fund. We further urge the 
subcommittee to maintain the integrity of the fund and include only 
programs originally incorporated in the fund when it was established. 
We greatly appreciate the subcommittee's past support for fully funding 
and maintaining the integrity of this historic dedicated fund, however 
we were dismayed that the final fiscal year 2003 Omnibus appropriations 
bill cut the Interior portion of the fund by more than $400 million 
below its dedicated fiscal year 2003 level. We understand that during 
final resolution of the fiscal year 2003 bill the subcommittee was 
under substantial funding constraints not within its control, and we 
will be working to generate Congressional support for a fiscal year 
2004 302(b) allocation sufficient to allow full funding for the 
conservation trust fund. Unfortunately, the Administration's budget 
cuts the subcommittee's portion of this historic fund by $477 million 
below the fiscal year 2004 $1.56 billion dedicated level. Moreover, the 
request again erodes the original purpose of the dedicated fund by: (1) 
substantially cutting existing programs; (2) substantially increasing 
the level in the fund for federal lands maintenance originally intended 
to be complementary to amounts provided in the base; and (3) adding 
programs not originally included in the fund as a new ``Cooperative 
Conservation Initiative.''
    State and Tribal Wildlife Grants Program.--Defenders of Wildlife 
and the more than 3,000 organizations nationwide in the Teaming With 
Wildlife Coalition are requesting at least $125 million for this 
important program for fiscal year 2004. The Administration's budget 
recommends $60 million for fiscal year 2004, slashing this critical 
program by $25 million or nearly 30 percent below its fiscal year 2002 
level. This important program gives states desperately needed funding 
to develop and implement comprehensive conservation plans to protect 
declining species and their habitats before protection under the ESA is 
necessary. More than 1,200 species currently are under the ESA's 
protection. Without proactive efforts to reverse species declines, 
scientists estimate that more than 5,000 new wildlife and plant species 
may need to be listed under the ESA. State fish and wildlife agencies 
have identified a need that totals $1 billion annually--the requested 
amount of $125 million is only a modest 12.5 percent of the total 
annual need.
    The State and Tribal Wildlife grants program is particularly 
important to future efforts to prevent habitat loss. The most 
significant threat to U.S. biodiversity is habitat loss and 
degradation. A 1995 report analyzing habitat loss by conservation 
biologists Reed Noss and Rob Peters, ``Endangered Ecosystems: A Status 
Report on America's Vanishing Habitat and Wildlife,'' identified 69 
ecosystems that have lost more than 85 percent of their acreage since 
colonization. The State and Tribal Wildlife grants program requires 
states to develop landscape-level comprehensive wildlife and habitat 
conservation plans as a condition for receiving program monies; these 
plans are blueprints that will help arrest the type of habitat declines 
occurring nationwide while guiding restoration and conservation.
    Land and Water Conservation Fund.--Defenders urges funding of at 
least $650 million for the Land and Water Conservation Fund for fiscal 
year 2004: $450 million for federal LWCF and $200 million for state-
side LWCF. The Administration says it is requesting full funding for 
the Land and Water Conservation Fund at its authorized $900 million 
level. But all the request does is re-package 15 other separate and 
important but non-LWCF conservation programs as LWCF. Ostensibly, the 
request for LWCF is $900 million, but only $348 million of this is for 
authorized LWCF purposes--$225 million or 39 percent below fiscal year 
2002 and $552 million below the authorized level. Moreover, the 
Administration budget actually cuts federal land acquisition for our 
National Wildlife Refuges, Parks, Forests and Bureau of Land Management 
lands by $240 million or 56 percent below fiscal year 2002.
    The Natural Resources Inventory estimates 2.2 million acres are 
lost to development each year. Funding for LWCF land acquisition needs 
to be increased, not decreased. LWCF remains one of the greatest tools 
we have to address the increasingly severe problem of loss of open 
space, forests, and wildlife habitat. While the subcommittee has for 
the most part not acquiesced to the Administration's request to add new 
programs to LWCF, it has placed several new programs under the Fund. 
Defenders urges the subcommittee to maintain the integrity of the LWCF 
by reversing this action and rejecting the Administration's proposal to 
fund additional important conservation programs out of it.

 FISH AND WILDLIFE SERVICE NATIONAL WILDLIFE REFUGE SYSTEM OPERATIONS 
                            AND MAINTENANCE

    Defenders and the Cooperative Alliance for Refuge Enhancement are 
requesting an fiscal year 2004 increase of $100 million over the fiscal 
year 2003 funding level of $367 million, or $75 million over the 
President's requested $25.5 million increase and urge that the bulk of 
it be directed to operations. We greatly appreciate the subcommittee's 
support in the past and ask that it be continued. The National Wildlife 
Refuge System is an American treasure that recently passed a landmark 
when it celebrated its 100th anniversary on March 14. The 94 million 
acre National Wildlife Refuge System is the only federal public lands 
system dedicated primarily to the conservation of fish and wildlife; it 
is crucial to the protection of a teeming array of migratory birds, 
endangered species and other wildlife. Yet despite its critical 
importance to the conservation of wildlife and wildlife habitat, 
chronic and severe funding shortfalls for operations and maintenance 
have threatened the Refuge System's ability to achieve its mission for 
many years. At this point, the bulk of the need is for operations 
funding to address protection of wildlife, management and restoration 
of wildlife habitat, public outreach and visitor services, and a 
crippling 38 percent staff shortage--nearly 200 refuges have no staff 
on site. The current backlog of the most critical operations and 
maintenance projects totals $955 million.
    Defenders is a member of the Cooperative Alliance for Refuge 
Enhancement (CARE), a diverse coalition of 20 environmental, recreation 
and scientific organizations working to substantially increase funding 
for the Refuge System. CARE is calling for increasing the Refuge 
System's budget to a total of $700 million over the next three years so 
that it has the funds to carry out its mission as it embarks on its 
second century of wildlife conservation. Defenders is extremely 
concerned, however, that the requested O&M increase appears to be at 
least partially at the expense of critically needed land acquisition 
for refuges which has dropped by 59 percent since fiscal year 2002. We 
urge any increase for O&M not come at the expense of land acquisition 
for refuges.

           FISH AND WILDLIFE SERVICE MIGRATORY BIRD PROGRAMS

    Defenders requests a $15 million increase for Migratory Bird 
Management over the fiscal year 2002 level of $28 million and full 
funding of $5 million for the Neotropical Migratory Bird Conservation 
Act under the Multinational Species Conservation Fund. As currently 
funded, these programs cannot fulfill their mandates to adequately 
monitor and plan for the conservation of 825 species of migratory 
birds, of which more than 750 species are nongame birds. Nearly 100 
nongame birds are listed under the ESA and more than 100 species are on 
the FWS List of Migratory Nongame Birds of Management Concern. Thus, 
over 25 percent of all migratory birds are in serious need of 
conservation to assure their long-term survival.

    BUREAU OF LAND MANAGEMENT (BLM): RESOURCE PROTECTION AND ENERGY 
                              DEVELOPMENT

    Defenders urges rejection of the requested $10 million increase for 
expansion of energy and mineral development. Instead, we urge increases 
for important resource protection needs including: Integrated Weed 
Management to curb the prolific spread of invasive species; Threatened 
and Endangered species to preserve the 306 listed, 59 candidate and 
1,500 sensitive species on BLM lands; Sagebrush and Prairie Grassland 
Ecosystem Projects to apply multi-species conservation approach across 
large landscapes; Rangeland Management to help improve the health of 
grazing lands; Recreation Resources Management to prevent off-road 
vehicle damage; and the National Landscape Conservation System which 
contains some of our country's most extraordinary natural and cultural 
resources. Under the Bureau of Land Management, the Administration is 
requesting a nearly $10 million increase to expand energy and mineral 
development on public lands including expedited permitting and 
increased leasing, energy related rights of way, and further 
development on Alaska's North Slope--including plans for drilling in 
the pristine Arctic National Wildlife Refuge. The budget also includes 
assumptions of lease sale receipts from the Arctic Refuge in 2004.

        FOREST SERVICE: FIRE PREVENTION AND RESOURCE PROTECTION

    Defenders urges that at least 85 percent of funds for hazardous 
fuels activities on federal lands be spent within the zone nearest to 
communities and that substantial funding be provided directly to 
states, tribal and local authorities to support community wildfire 
preparedness activities. We urge significant reductions for Forest 
Products and Timber Road Construction, un-needed timber industry 
subsidies, and redirection of funds to recovery from prior timber 
sales, including to ecosystem restoration and Road Decommissioning and 
to resource protection programs including Wildlife and Fisheries 
Habitat Management; Wildlife, Fish, Water and Air Research; and 
Inventory and Monitoring. We urge Congress to reject the legislative 
proposals in the Administration's ``Healthy Forests Initiative'' which 
would undermine the public's ability to appeal and seek judicial review 
of projects. Finally, we strongly opposed addition of the damaging 
Stewardship End Results Contracting rider to the final fiscal year 2003 
bill, and we urge the subcommittee to exercise rigorous oversight of 
this program to prevent it from being used as a vehicle for fiscal and 
environmental abuse.

                           SPECIFIC PROJECTS

    Defenders wishes to highlight two specific funding needs for 
efforts that contribute to endangered species protection. First, a 
broad group of interests, including environmental groups, sea otter 
researchers, agencies, fisheries group representatives, legislative 
staff, aquarium staff, and public stakeholders has determined that 
$1.675 million in research is needed each of the next five years to 
support recovery of the threatened sea otter whose population has 
suffered declines in 4 out of the last 5 years. Funding should be 
earmarked to the USGS Biological Research Division. Second, we request 
$600,000 for continued Nez Perce Tribe operation of gray wolf recovery, 
monitoring, research and outreach programs in Idaho: $450,000 for on-
going programs and $150,000 for more staffing, updating of equipment 
and the monitoring program, holding additional public meetings and 
conducting necessary research. The Tribe has been successfully managing 
wolves since the species was reintroduced in 1995 and 1996. With the 
dramatic increase in the Idaho wolf population, funds are more critical 
than ever to achieve necessary research and management goals, 
particularly in light of recent federal actions to downlist, and 
eventually delist, wolves in the region.
                                 ______
                                 

 Prepared Statement of the Friends of Rachel Carson National Wildlife 
                                 Refuge

    Thank you for the opportunity to offer this written testimony. I am 
writing on behalf of the Friends of Rachel Carson National Wildlife 
Refuge, which is a non-profit organization based in Maine. I am writing 
in regards to Rachel Carson National Wildlife Refuge, which is a 
national wildlife refuge located on Maine's southern coast.
    I hope that the Subcommittee on Interior and Related Agencies 
(Committee on Appropriations) will support $4.5 million in land 
acquisition funding for Rachel Carson NWR in fiscal year 2004. This 
funding would enable the protection of multiple properties with willing 
landowners in several portions of the Refuge. Available properties are 
located in five of the Refuge's ten units. These potential acquisitions 
would consolidate existing Refuge ownership and would complement land 
protection that has already taken place.
    Rachel Carson NWR is working to buffer sensitive lands from the 
pressures of development and is doing a great job of protecting 
critical habitat lands. Southern coastal Maine is under severe sprawl 
and development pressures. The Refuge has been able to permanently 
protect beautiful and important parts of the southern Maine coast for 
present and future generations to enjoy.
    On behalf of the Friends of Rachel Carson, we hope that you will 
provide $4.5 million for Rachel Carson NWR from the Land and Water 
Conservation Fund in fiscal year 2004. Thank you for your 
consideration.
                                 ______
                                 
           Prepared Statement of the Frontera Audubon Society

    Frontera Audubon Society respectfully requests appropriation of $5 
million from the Land and Water Conservation Fund (LWCF) in fiscal year 
2004 for purchase of lands by the U.S. Fish and Wildlife Service for 
the Lower Rio Grande Valley National Wildlife Refuge in Texas.
    Half of this appropriation--$2.3 million--would fund acquisition of 
two specific tracts totaling 1,937 acres.
    The first of these tracts, called the ``Southmost Tract'', is 614 
acres of farmland located south and east of the City of Brownsville. It 
is adjacent to or near several other protected areas, including six 
tracts of the Lower Rio Grande Valley National Wildlife Refuge totaling 
4,586 acres, The Nature Conservancy's 1,034-acre Lennox Foundation 
Southmost Preserve, the National Audubon Society's 527-acre Sabal Palm 
Grove Sanctuary, and Texas Parks and Wildlife Department's 68-acre 
Voshell Unit. The property includes not only agricultural land but also 
significant habitat along field edges, heavily vegetated frontage along 
the Rio Grande, and an oxbow lake. The farmland could be easily 
restored to native habitat, including stands of the native sabal palms 
(Sabal mexicana) which once lined the banks of the Rio Grande from the 
river's mouth inland for approximately 80 miles. Today, little remains 
of this original palm forest. The protection and restoration of Texas' 
native sabal palm community is one of the primary objectives of 
conservation partners at this site. The Refuge's current holdings 
include only about one-third of the planned acreage of Sabal Palm 
Forest.
    The second tract, called the ``Starr County Tract'', is 1,323 acres 
of farmland and thornscrub that can be revegetated to restore Upper 
Valley Flood Forest. As we have pointed out in past years, the biotic 
communities found in Starr County, including Upper Valley Flood Forest, 
Chihuahuan Thorn Forest, and Ramaderos, are important and unique biotic 
communities that are significantly underrepresented in terms of the 
Refuge's strategic protection plan. Purchase of this tract would raise 
Refuge holdings of the Upper Valley Flood Forest to close to 50 percent 
of the acquisition goal. Most fortunately, this property is held in 
clear title and thus does not present the severe title problems that 
have slowed acquisition of other sites in the area.
    While both tracts require revegetation, this important conservation 
tool has been used successfully for more than two decades on many 
thousands of acres in the Valley. Revegetation returns areas to 
functioning wildlife habitat and allows reestablishment of populations 
of rare plants. Among the many species of rare, threatened and 
endangered plants in Starr County are Runyon's huaco, Vasey's adelia, 
and Mission fiddlewood. Planting of these species could help forestall 
their future listing under the Endangered Species Act.
    As Frontera Audubon has documented in our past testimony, the Lower 
Rio Grande Valley is a biological treasurehouse. The Valley is home to 
half of all bird species found in the United States, including sixty 
species found in no other part of the country. The 300 species of 
butterflies outnumber any other part of the country except the Florida 
Everglades. In addition, there are more than 200 species of mammals, 
reptiles, amphibians, and fish and 1,200 species of plants. For these 
reasons, completing the ``wildlife corridor'' will be a significant 
contribution to meeting the Nation's conservation goals.
    When completed, the Lower Rio Grande Valley National Wildlife 
Refuge will protect nearly half of a planned 285,000 acre wildlife 
protection network--the ``Wildlife Corridor''--that reaches 275 miles 
along the Rio Grande River. Other lands and waters in the corridor are 
managed by state, county, and private conservation organizations as 
well as the Laguna Atascosa NWR. The entire planned complex will 
protect a modest 10 percent of the valley's area.
    Permanent protection of wildlife habitat in the Lower Rio Grande 
Valley National Wildlife Refuge also provides economic benefits by 
helping the region to take advantage of growing nature tourism. Texas 
is already the number one birding destination in the United States and 
the Rio Grande Valley is the number one birding destination in the 
state. More than 200,000 people watch birds or other wildlife in the 
Lower Rio Grande Valley every year. These visitors spend more than $100 
million and create or sustain more than 2,000 jobs. It has been 
calculated that each rare bird sighting accounts for approximately 
$100,000 per year in spending locally.
    Because the Refuge protects lands from the Gulf Coast to Fontana 
Dam, it draws visitors to all parts of the Valley. The result is 
welcome economic diversification in regions with otherwise limited 
economic resources.
    The Lower Rio Grande Valley needs the economic stimulus that nature 
tourism provide. Despite rapid population growth, the region is 
economically depressed, with unemployment chronically near 20 percent 
and a high proportion of residents living below the poverty level. 
Agriculture, which formerly dominated the economy, is in decline due to 
a prolonged drought, freezes that have discouraged the citrus industry, 
and other factors.
    Furthermore, the increased recreational opportunities provided by 
the Lower Rio Grande Valley National Wildlife Refuge will contribute to 
a better quality of life for everyone. Already, the Refuge has opened 
40,000 acres to the public for recreation; more will be opened as the 
management funding is appropriated. In addition to birding and 
canoeing, these acres are available for public hunting of deer, feral 
hogs, nilgai, and white-winged doves.
    Lands acquired for the refuge all come from willing sellers.
    Completion of the Lower Rio Grande Valley NWR is critical to 
providing the open space and wildlife viewing opportunities underlying 
the Valley's ecotourism economic development strategy.

                                 ______
                                 

     Prepared Statement of the Humane Society of the United States

    Thank you for the opportunity to offer testimony to the Interior 
and Related Agencies Subcommittee on several funding items of 
importance to The Humane Society of the United States (HSUS) and its 
7.3 million supporters nationwide. As the largest animal protection 
organization in the country, The HSUS urges the Committee to address 
these priority issues in the fiscal year 2004 budget.

Bear Feeding
    The HSUS strongly recommends that all federal land management 
agencies develop consistent policies with respect to prohibiting the 
feeding of bears on their land, including deliberate baiting practices. 
Bill or report language should direct the Bureau of Land Management and 
the U.S. Forest Service to promulgate regulations banning the practice 
of feeding bears, just as the National Park Service and U.S. Fish and 
Wildlife Service have done.
    Baiting involves the intentional placement of human food as a means 
of attracting bears for the purpose of shooting the animals. While 40 
states have resident bear populations, only 10 states permit baiting. 
Baiting occurs on BLM and U.S. Forest Service lands in 9 states despite 
agency materials emphatically stating that feeding bears is harmful to 
the animals and hazardous to humans.
    Bears are naturally wary of humans. But once they acquire a taste 
for human food, they lose their wariness and become emboldened in 
approaching people and property. Human-fed bears cause millions of 
dollars in damage to property every year and can pose a serious safety 
threat to humans. A consistent policy should apply to all federal lands 
and for all forest users. Such a policy would have no impact on how 
states set bag limits, season lengths, and weapons rules for bear 
hunting which is a duty otherwise reserved to the states.

Trapping on National Wildlife Refuges
    National Wildlife Refuges should not permit commercial and 
recreational trapping with inhumane traps. The National Wildlife Refuge 
System (NWRS) is the only category of federal lands specifically set 
aside for the protection and benefit of wildlife.
    According to a June 1997 report to the Congress, ``Mammal Trapping 
within the National Wildlife Refuge System: 1992-1996,'' the U.S. Fish 
and Wildlife Service administered 487 trapping programs on 281 refuges; 
thus, more than half of the nation's 520 refuges permit some trapping. 
According to the report, ``[e]ighty-five percent of the mammal trapping 
programs on refuges were conducted primarily for wildlife and 
facilities management reasons. The remaining 15 percent occurred 
primarily to provide recreational, commercial, or subsistence 
opportunities to the public.''
    In 2001, recreational trappers visited 80 units of the NWRS a total 
of 40,696 times (number of trapper visits per unit ranged widely from 4 
to 9,563). ``Consumptive'' uses as a whole (including recreational 
trapping and hunting) are allowed on the majority of NWRS units 
according to data from the U.S. Fish and Wildlife Service for fiscal 
year 2001. However, most people who enjoy the refuges are ``non-
consumptive'' users, whose activities in the refuges include hiking, 
photography, and nature observation. In particular, in fiscal year 
2001, the U.S. Fish and Wildlife Service recorded over 36 million 
visits by non-consumptive users to the 485 refuges open to the public. 
Clearly, an elimination of recreational trapping on the NWRS would have 
negligible effect on the millions of Americans who use and enjoy the 
refuges every year. In fact, according to the U.S. Fish and Wildlife 
Service's most recent national survey, people who appreciate wildlife 
in a non-consumptive manner, such as bird watchers, spent $40 billion 
in the year 2001 to travel and purchase equipment related to activities 
such as wildlife observation and photography.
    The American Veterinary Medical Association, the American Animal 
Hospital Association, and the World Veterinary Organization have all 
declared leghold traps to be ``inhumane.'' These traps are designed to 
slam closed and grip tightly an animal's leg or other body part. 
Lacerations, broken bones, joint dislocations and gangrene can result. 
Additional injuries result as the animal struggles to free itself, 
sometimes chewing off a leg or breaking teeth from biting the metal 
trap. Animals caught in leghold traps sometimes die from dehydration, 
starvation, exposure to sub-freezing temperatures, or predators. An 
animal may suffer for several days before a trapper returns to check a 
trap.
    These traps are as indiscriminate as they are inhumane. Any animal 
unlucky enough to stumble across a trap will be victimized by it. In 
addition to catching ``target'' animals, traps catch non-target, or 
``trash,'' animals, such as family pets, eagles, and other protected 
species. A number of studies conducted by professionals from management 
agencies reveal that for every target animal caught in a steel-jawed 
leghold trap, there are one to ten non-target animals caught. This is 
an unacceptable level of by-catch.
    Voters in Arizona, California, Colorado, Massachusetts, and 
Washington have approved ballot measures to ban leghold traps. New 
Jersey and Florida have also banned the use of these traps, and many 
other states have severe restrictions on their use, including 
Connecticut and Rhode Island. A May 1999 national poll conducted by 
Peter Hart Research Associates, Inc., revealed that 84 percent of 
respondents oppose the use of steel-jawed leghold traps on National 
Wildlife Refuges. There are dozens of wildlife refuges in Arizona, 
California, Colorado, Massachusetts, New Jersey, Washington, and 
Florida. There have been no adverse impacts on those refuges from the 
statewide bans.
    Neck snares are similarly inhumane and indiscriminate. Coyotes, 
foxes, and other animals trapped in neck snares often die slowly over 
hours or days by strangulation, as evidenced by necropsy data. Even 
when animals are anesthetized prior to snaring in laboratory tests of 
the snares' humaneness--a procedure that decreases the time to loss of 
consciousness--foxes often take several minutes (up to 45 minutes in 
one study) to lose consciousness.
    In 1999, the House approved an amendment offered by Representative 
Sam Farr to bar the use of tax dollars to administer or promote the use 
of steel-jawed leghold traps or neck snares for commerce or recreation 
on units of the National Wildlife Refuge System. The amendment allowed 
use of these traps for purposes of research, subsistence, conservation, 
or facilities protection. The House approved this measure by a 
bipartisan vote of 259-166.
    We urge the Committee to incorporate the language of the Farr 
amendment in the fiscal year 2004 Interior Appropriations Act. It is a 
sensible, humane, and narrowly crafted provision. The amendment would 
not bar trapping on refuges. Other traps, including foot snares, 
Conibears, and box and cage traps, could be used for any purpose 
consistent with law and regulation on the refuges. The Farr amendment 
would not forbid the use of steel traps or neck snares. It would ban 
those two devices only for commercial and recreational purposes.

Law Enforcement Division of the Fish and Wildlife Service
    After illegal drugs and arms, trade in wildlife parts is the third 
most lucrative smuggling enterprise in this country. New technology and 
a full complement of Special Agents are essential if law enforcement is 
to have any hope of effectively enforcing the nation's endangered 
species trade laws. The HSUS strongly supports an increase of $5 
million over the Administration's request for U.S. Fish and Wildlife 
Service Law Enforcement Operations and Maintenance. The recommended 
increase represents an additional $1 million for nine inspectors at our 
borders, and $4 million to hire twenty Special Agents.
    The Law Enforcement Division is currently undergoing a three-year 
rebuilding effort designed to bring the number of Special Agents to 
253. These Special Agents investigate domestic and international 
wildlife crime and monitor wildlife trade. The Division of Law 
Enforcement is also charged with the responsibility of inspecting 
shipments at ports of entry. Wildlife inspectors play an invaluable 
role in stopping wildlife smuggling by inspecting wildlife shipments to 
ensure compliance with laws and treaties.
    Investigating sophisticated wildlife smuggling operations requires 
the latest in law enforcement technology. The Clark R. Bavin Wildlife 
Forensics Laboratory is capable of providing assistance in the 
prosecution of wildlife crimes by analyzing claws, teeth, feathers, 
tissue, blood, and other wildlife samples. The Clark R. Bavin Wildlife 
Forensics Laboratory is indispensable in the vigorous enforcement of 
the nation's wildlife trade laws. The HSUS urges the Committee to 
expedite the $6.1 million approved for fiscal year 2005 for the coming 
fiscal year. This increase will allow the lab to add scientists and 
staff, expand and improve its physical location, and continue its 
valuable work ahead of schedule.

Protection for Walruses
    We urge this subcommittee to appropriate $500,000 in fiscal year 
2004 to fund much-needed research on the Pacific walrus. Walruses are 
targeted by Native hunters for subsistence, despite a paucity of data 
regarding their current population status or population structure. 
Hundreds of walruses are killed annually; in some years this number has 
climbed to as many as 7,000. Moreover, in some hunting villages, 
females and their calves are preferentially killed, against the 
recommendation of the U.S. Fish and Wildlife Service and standard 
management practice. A portion of these funds could also be used to 
assist and improve the Walrus Harvest Monitor Project, which collects 
basic management data.

Multinational Species Conservation Fund
    The HSUS joins a broad based coalition of organizations in 
requesting an increase over the Administration's request for the 
Multinational Species Conservation Fund (MNSCF). The MNSCF is a fund 
established by Congress to benefit African and Asian elephants, rhinos 
and tigers, great apes, and neotropical migratory birds. Last year, 
Congress demonstrated its commitment to the Fund by appropriating $7.8 
million for the five programs. Unfortunately, the Administration 
requested only $7 million for the five funds in fiscal year 2004. We 
ask that you continue to support these highly threatened mammals and 
birds in fiscal year 2004 by appropriating $2 million each for the 
African Elephant Conservation Fund, the Asian Elephant Conservation 
Fund, and the Great Ape Conservation Fund, $3 million for the 
Rhinoceros and Tiger Conservation Fund, and $5 million for the 
Neotropical Migratory Birds Conservation Fund, for a total of $14 
million.
    While there are threats to the long-term survival of elephants, 
rhinos, tigers, great apes, and neotropical migratory birds, there have 
been improvements attributable to funds made available through the 
MNSCF. Grants made from the MNSCF provide a stable funding source that 
has leveraged over four times as much in additional contributions from 
range states, non-governmental organizations, and others.
    While The HSUS wholeheartedly supports increased funding for the 
MNSCF, we are concerned about past incidents and future opportunities 
for funds from these conservation programs to be allocated to promote 
trophy hunting, trade in animal parts, and other consumptive uses--
including live capture for trade, captive breeding, and entertainment 
for public display industry--under the guise of conservation for these 
animals. We would like to see grants made to projects that are 
consistent with the spirit of the law.

Wild Horse and Burro Program
    Wild horses and burros are a public trust greatly beloved by the 
American people. Consequently, we strongly believe that the Bureau of 
Land Management (BLM) should be given the direction and resources it 
needs to ensure the health of wild horse and burro herds and the public 
lands they inhabit, as well as the welfare of the horses and burros 
that are removed from the range.
    During fiscal year 2002 and fiscal year 2003, the Bureau of Land 
Management's Wild Horse and Burro Program received a substantial 
increase to their annual operating budget. This increase was to be used 
to implement BLM's four-year plan to achieve appropriate management 
levels (AML's) in all herd management areas, principally through an 
increase in the number of horses and burros removed from the public 
lands. The HSUS supports in principle the BLM's attempt to establish a 
national, strategic approach to wild horse management. We strongly 
believe, however, that many of the AML's set by the BLM exaggerate the 
impact of wild horses on the public lands, and do not provide wild 
horses and burros with the fair share of public land resources to which 
they are entitled under the law. We also fear that the planned removals 
will threaten the viability of these populations. To adequately address 
these concerns, the BLM should carry out a programmatic environmental 
impact analysis of the impacts of wild horses, burros, and livestock on 
the conditions in herd management areas, and of the proposed population 
reductions on the viability of wild horse and burro populations on 
public lands.
    Currently, however, the BLM's plan to achieve AML has been stalled 
by the rapid filling of the holding facilities available for horses 
removed by the range. As has happened repeatedly, the budget and 
attention of the Wild Horse and Burro Program are being diverted from 
management of wild populations on the public lands to maintenance of 
wild horses and burros in captivity. There is a long-term solution, 
which only awaits agency implementation that can help restore the 
agency's focus to wild horses and the land. With the strong support of 
The HSUS and this committee, BLM-sponsored research has produced a one-
shot, one-to-two-year contraceptive vaccine for wild horses. Wide 
application of this vaccine, known as PZP, would be a humane, publicly 
acceptable, cost-efficient means for reducing the number of horses that 
must be removed from the public lands. Accordingly, we ask the 
committee to insert the following language into the fiscal year 2004 
Interior Appropriations bill: ``The BLM is strongly encouraged to 
implement immunocontraception to help control populations of wild 
horses on the public lands.''
    In addition to the more traditional threats faced by wild horses 
and burros, which include habitat destruction, wildfires, and cattle 
ranching encroachment, wild horses are coming under pressure from the 
increasing demand for horsemeat as a result of the ``mad cow'' disease 
threat in Europe. The BLM documented that in 1999 hundreds of wild 
horses that had been adopted through the BLM's adoption program were 
sold into slaughter, despite the congressionally mandated prohibition 
on such action.
    Because of pressure on wild horses and burros from decreasing 
habitat, the policy of aggressive removals, and mad cow disease, we 
urge the committee to once again include the following standard 
language in the fiscal year 2004 Interior Appropriations bill: ``The 
appropriations made herein shall not be available for the destruction 
of healthy, unadopted, wild horses and burros in the care of the Bureau 
of Land Management or its contractors.'' We also request $100,000 in 
additional funding to be allocated to the preparation of a 
comprehensive NEPA review. Finally, we urge this committee to allocate 
$500,000 in additional funding to the BLM for pre-titling compliance 
monitoring of adoptions, adopter mentoring programs, and other means of 
ensuring that adopted wild horses and burros are treated consistently 
with the intent of the Wild Horse and Burro Protection Act and are not 
sent to slaughter.
                                 ______
                                 
    Prepared Statement of the International Association of Fish and 
                           Wildlife Agencies

                 U. S. FISH AND WILDLIFE SERVICE (FWS)

General Comments
    The Association is pleased that the Administration's fiscal year 
2004 budget request for the U.S. Fish and Wildlife Service (FWS) is 
more than the fiscal year 2003 enacted budget. We understand the 
reasons for certain reductions, however we also understand that if our 
Fish and Wildlife program needs are not met today, it will be far more 
expensive in the future. We are most concerned that some of the more 
significant budget reductions are for State fish and wildlife 
administered programs, the cutting of which seems inconsistent with 
building strong partnerships with the States.
    The Association is particularly concerned that the fiscal year 2004 
budget request further reduces the State Wildlife Grants account in 
fiscal year 2004 to $59.9 million. While the Association is 
appreciative of those funds, there is a demonstrated need for at least 
$350 million per year. We strongly recommend that the $59.9 million in 
fiscal year 2004 be increased to $125 million, for apportionment to the 
State fish and wildlife agencies under the formula allocation used in 
fiscal year 2002, in order to achieve significant progress toward $350 
million.
    We fully recognize the difficulty of providing adequate funding for 
conservation while at the same time meeting national defense and 
homeland security needs. Unfortunately, there are long-term 
consequences to delaying conservation work. Cooperative programs with 
States multiply efforts through matching funds and, therefore, should 
be given high priority.
    The Association believes the programs within the FWS that offer the 
following characteristics are consistent with its basic mission and 
afford the highest benefit to fish and wildlife resources and the 
cooperating State fish wildlife agencies:
    (1) establish true State/Federal partnerships which recognize the 
primacy of State jurisdiction for fish and resident wildlife;
    (2) offer significant leverage of non-Federal funds through 
cooperative programs;
    (3) support efforts to prevent species and their habitats from 
becoming threatened or endangered;
    (4) provide fish and wildlife associated outdoor recreation 
opportunities, including hunting, fishing, wildlife observation and 
environmental education which serve a large number of people each year;
    (5) provide important economic and environmental benefits to large 
segments of the American people;
    (6) reinvest and enhance existing public land holdings/refuges;
    (7) empower States to determine priority management action at the 
State level; and
    (8) provide adequate flexibility for local program adjustment.
    The Association encourages Congress to measure programs against 
these criteria and ensure that programs that measure up are adequately 
and appropriately funded.
    The Association is concerned about any FWS programs or activities 
that compromise State jurisdictional authorities for fish and resident 
wildlife and/or lack funding and commitment to secure meaningful 
management on the ground. The FWS needs to coordinate closely with the 
respective State fish and wildlife agencies to avoid compromising State 
authorities and to facilitate the cooperative design and conduct of 
research and management programs. Cooperative efforts between the FWS 
and the State fish and wildlife agencies will play a critical role in 
achieving land and resource objectives for species and related 
resources. The Association recommends that funds made available to the 
States provide discretion to the States in meeting fish and wildlife 
information and management needs, wherever possible, and where not 
possible, to emphasize close cooperation with the States to reduce 
duplicating or conflicting programs which are both costly and confusing 
to the public.
    Consistent, dedicated and assured funding for state-based broader 
fish and wildlife conservation, wildlife-associated recreation and 
conservation education programs is vitally needed in the states. 
Programs at the state level are required in order to preclude the need 
to list species (under the Endangered Species Act) by addressing life 
needs and habitat requirements in response to early warning signs of 
decline. The Association urges Congress and the Administration to work 
cooperatively with the states in the design and enactment of 
legislation which would provide $350 Million annually in assured 
funding for the full array of fish and wildlife programs. The 
Association is committed to working with Congress to identify an 
appropriate source of funds for this vitally needed endeavor, whether 
it be revenues from Outer Continental Shelf Gas and Oil leases, or 
other sources.

A Proposal for an Aquatic Animal Drug Approval Partnership Program
    Public and private aquaculture interests have suffered from an 
almost total lack of U.S. Food and Drug Administration approved aquatic 
drugs and chemicals. For the past seven years, the FWS, State fish and 
wildlife agencies, U.S. Geological Survey, and the U.S. Department of 
Agriculture have engaged in a cooperative project to gain approval for 
high priority use of eight drugs in aquaculture. This project is 
nearing its end, and many of the project's goals will have been met 
within the next year. However, not all the necessary broad approvals 
for these critically needed drugs will have been obtained. Continued 
work will be needed on gaining additional approvals and developing new 
aquaculture drugs to meet existing and new disease and aquaculture 
problems.
    Unfortunately, no one agency currently has responsibility to obtain 
the approvals, develop new drugs, and coordinate continuation and 
expansion of this drug approval effort. To meet this critical need, the 
Association recommends that $450,000 in new funds be added to the Fish 
and Wildlife Service's fiscal year 2004 budget for the development and 
implementation of an ``Aquatic Animal Drug Approval Partnership'' 
program. This program would have responsibility to coordinate its 
efforts with those of other interested Federal, State, and private 
agencies and organizations to meet the current and future needs for 
safe and effective aquaculture drugs.

North American Wetlands Conservation Act Activities
    The Association strongly supports the FWS request of $49.56 million 
for the North American Wetlands Conservation Act (NAWCA). However, 
Congress authorized a funding level of $55 million for this important 
conservation program in fiscal year 2004 and the Association recommends 
full funding. The authorization level for this program will increase by 
$5 million each year. This cooperative program, requiring at least a 
1:1 non-federal match, is one of the most successful, non-regulatory, 
incentive based programs within all of government and the program has 
shown unprecedented success in restoring wetlands, waterfowl and other 
migratory bird populations. The program has more than 2,000 partners 
from communities, governments (including of Canada and Mexico), 
nonprofit organizations, States, and academia. The program has put over 
1,114 projects on the ground in North America, including a total of 
more than of 15.9 million acres of wetlands and associated uplands in 
the United States and Canada, with a return of $2.88 for every dollar 
the Federal government has invested to date. The Association strongly 
urges that Congress appropriate the full $55 million authorized for the 
NAWCA in the FWS fiscal year 2004 budget.
    The Association believes that evaluation of on-the-ground wetland 
habitat enhancement activities under the NAWCA, the Farm Bill and other 
programs are extremely important and supports adequate funding for this 
evaluation.

Migratory Bird Management
    The Association is disappointed to see that migratory bird 
management is reduced from with the fiscal year 2003 enacted level. 
This has occurred during a time when public interest in migratory birds 
is at an all-time high, and when the need for management programs is 
increasing. With the broad support for the North American Bird 
Conservation Initiative by conservation organizations and the States, 
the Association believes the FWS should continue to place a high 
priority and budget emphasis on migratory bird management.
    Inflation and increased operating costs have escalated and enhanced 
funding in recent years has been absorbed in these areas. Additional 
funding is needed to facilitate meeting program objectives for 
migratory bird conservation. The Association recommends an increase of 
$3 million to address this need, and urges the FWS to cooperate with 
the State fish and wildlife agencies to begin implementation of the 
Colonial Waterbird Conservation Plan, Shorebird Conservation Plan and 
the Partners in Flight Plan. All of these plans are complete and funds 
are needed to put these programs on the ground for the birds and the 
many people who enjoy them. These plans are particularly critical as 
many nongame migratory bird populations are declining, but not yet 
endangered. These plans are intended to provide actions to avoid 
listing these populations as threatened or endangered while there still 
is time. It makes financial, biological and political sense to take 
actions early on when it costs less and there are more biological 
options. The economic benefits provided by migratory birds are far in 
excess of the funding these programs received.
    The Association strongly supports the request for $1 million to 
begin an aircraft replacement program to support migratory bird 
surveys, which are important for setting hunting regulations. We 
strongly recommend these funds become part of the FWS budget base for 
this program.
    The Association strongly supports the requested funding ($550,000) 
in the FWS budget to enable the Service to appropriately assess 
(through band reporting) the effects on harvest of proposed early and 
late season extensions to duck hunting seasons. As duck populations 
continue to grow, there is more demand for additional hunting 
opportunities. The FWS and the States need to monitor and evaluate the 
impacts of these extensions on harvest distribution and rates of 
harvest in order to assess the effects of the experimental season 
extensions. The Association strongly recommends that these funds become 
part of the FWS budget base for this program.
    The Association also strongly recommends an addition of $250,000 to 
the migratory bird program to enable the FWS to begin to modernize its 
database on mourning doves. While the mourning dove is one of our most 
popular gamebirds, there is a demonstrated need for better population 
and harvest survey information for this species. Again, the Association 
requests that these funds (at appropriate future levels) become part of 
the FWS base budget request.
    Since the early 1980s, insufficient effort has been devoted to 
improving data collection related to the management of webless 
migratory game birds. There is a demonstrated need for better 
population and harvest survey information for species such as woodcock, 
mourning doves, sandhill cranes and rails. The Association strongly 
contends webless migratory game bird management is an integral and 
important part of the Service's programs and responsibilities, and 
recommends full funding of $750,000 for the Webless Migratory Gamebird 
Program.
    The Association is pleased to recognize Congress' and the 
Administration's continuing commitment to the implementation of the 
North American Waterfowl Management Plan (NAWMP), including support for 
the 12 habitat and 3 species Joint Ventures. However, the Association 
reasserts its position that a need exists for additional funds to 
enable the FWS to provide adequate assistance for the Joint Ventures. 
In the fiscal year 2003 Appropriation Act, Congress recognized the need 
for increasing support for Joint Ventures and urged the Service to 
request additional funding in the fiscal year 2004 budget. Joint 
Ventures are the ``engine'' of plan implementation and these 
partnerships need to be supported. Most Joint Ventures are under-
funded, but the Association is pleased that Joint Venture funding has 
been increased and supports the Service's request for $10.3 million in 
fiscal year 2004 for the Joint Venture program. Congress anticipated 
that by fiscal year 2004 there should be an appropriation of $10.4 
million annually for existing habitat and species Joint Ventures. In 
addition to direct habitat protection, restoration and enhancement, 
Joint Ventures engender private-public partnerships and communication 
in pursuit of their conservation objectives. This is good business, 
good relationships and good conservation and a success story to be 
emulated.
    The Association continues to recommend that Congress appropriate an 
additional $5 million to collect data and monitor 16 priority goose and 
brant populations across North America. Currently there are no 
operational breeding population surveys or pre-harvest banding programs 
on populations of Arctic geese. This information is needed for 
management of these migratory, international resources.
    For several years, Congress has added $1 million to the FWS budget 
to assist several states in managing depredating geese, particularly 
through partnerships with USDA-APHIS (Wildlife Services) and the 
agriculture community. This add-on was absent from the fiscal year 2003 
omnibus appropriations bill and the Association urges Congress to 
restore that additional $1 million in the fiscal year 2004 
appropriation for FWS.

Endangered Species Act (ESA) Funding for States
    The Association is concerned with the proposed reduction (from the 
fiscal year 2003) in the Administration's request for Cooperative 
Endangered Species grants to the States. The reduction of $2.3 million 
will continue to erode this program. Traditional Section 6 grants to 
the States remain funded at $7.5 million, which is grossly insufficient 
to satisfy growing needs. Cooperative efforts between the FWS and the 
State fish and wildlife agencies are the surest way to meet objectives 
for species recovery and conservation under the Act. The Association 
recommends that the increase for assistance in this fund be made 
available to the States through a mechanism that maximizes spending 
discretion to the States, such as a State Fish and Wildlife Agency ESA 
Conservation and Recovery Block Grant Program, with the individual 
States deciding the best mix of information, incentives and 
acquisitions to achieve habitat conservation and recovery objectives. 
Much of the Section 6 grant funds in fiscal year 2004 are already 
earmarked for program needs such as HCPs and CCAs. While these are 
certainly meritorious and useful purposes, the Association's first 
priority for Section 6 Grants to the States remains for those dollars 
which allow the States the greatest discretion in satisfying priority 
needs.
    The Association strongly supports and urges Congress to appropriate 
an additional $10 million to Section 6 (Cooperative Endangered Species 
Fund) for traditional grants to the states, particularly in the western 
United States. The funds would be allocated within the State grants 
program to benefit at-risk species for example, in western grasslands, 
shrub-steppe, Hawaiian Islands and Sierra Nevada foothills. The funds 
would be used by 19 western States to aggressively pursue proactive, 
broad-scale and interstate conservation efforts, including partnerships 
through State Conservation Agreements, Safe Harbor Agreements, 
Candidate Conservation Agreements with Assurances or other agreements 
with willing landowners and public, State, Tribal, and other land 
management agencies. Funding under this program will be used to support 
actions by all partners in a given project.
    The Association also strongly supports and urges Congress to 
appropriate an additional $7.4 million to Section 6 (Cooperative 
Endangered Species Fund) being requested by 11 western states, to be 
allocated within the appropriate State grant programs to fulfill the 
requirements of the Black-tailed Prairie Dog Conservation Agreement, 
developed in 1999. Key to the agreement is forging partnerships with 
local interests and developing and implementing State-specific 
management plans that contribute to conserving the species, while 
maintaining management at the State and local level. An integral part 
of each State plan is providing incentives for private landowner 
participation. Private lands are crucial to meeting range-wide 
population objectives identified by the Multi-State Conservation Team. 
These funds will allow the States to complete and implement their 
management plans, and provide an incentives program for private 
landowners. Absent this Federal funding, listing of the species under 
the ESA is inevitable, with the consequent social and economic 
disruption.
    The Association is pleased with the seriousness at which the FWS is 
proceeding with the delisting process for the gray wolf population in 
the Northern Rockies. That population has met all recovery criteria and 
the three states of Idaho, Montana and Wyoming will soon complete their 
requisite state management planning efforts. As management authority 
transitions from the Federal government to the affected States, there 
is an immediate and long-term need to continue rigorous monitoring of 
that region's wolf population. Heretofore, the FWS has had that 
responsibility. The fiscal year 2003 FWS budget included a $250,000 
Congressional add-on for the State of Idaho to launch this effort 
within that state. The Association supports this kind of funding 
assistance to all affected states, especially when it involves species 
of national significance, and, therefore, recommends $1.2 million be 
added to the FWS' fiscal year 2004 budget for wolf monitoring 
activities in the states of Idaho, Montana, and Wyoming, with that 
amount being equally distributed among the three states. This will 
ensure a coordinated and consistent approach to monitoring the wolf 
population in the Northern Rockies during this critical period.
    The Association also strongly supports the Administration's request 
for $40 million for the Landowner Incentive Program. The Association 
appreciates that FWS has engaged the State fish and wildlife agencies 
in developing the criteria for this competitive program. The quality of 
the proposals submitted for first year money (fiscal year 2002), and 
the fact that proposals exceed available funds, exemplify the merits of 
and need for this program. Consistent funding is essential to be able 
to work effectively with private landowners, and the Association urges 
the FWS to continue to work with the states to bring greater assurance 
to the availability of these funds.
    The Association is concerned with the reductions in the Endangered 
Species Act Recovery Program. Endangered species recovery efforts can 
ultimately lead to delisting actions that result in significant 
benefits to species through State management efforts. Delisting of 
recovered species needs to receive priority attention and should be 
based on science and biology rather than other inappropriate factors. 
The targeted programs for decreases represent important partnerships 
with state fish and wildlife agencies that should continue. The 
Association recommends that Congress increase the amount allocated to 
recovery efforts in the FWS budget request.

Wildlife Conservation and Appreciation Fund
    The Association is disappointed that the Administration deleted 
funding for the Partnership for Wildlife Act. Because these funds were 
matched equally by both State and private monies, this effective 
program leveraged substantial dollars. We expect these cooperative 
proposals to increase dramatically in the years ahead. The Association 
recommends restoring and enhancing this program at the $2 million 
level.

Refuges and Wildlife
    The Association is pleased to see an increase of $25.5 million 
requested in the fiscal year 2004 budget for National Wildlife Refuge 
operations and maintenance. Even with this increase, there is a 
tremendous backlog of funding needs that will have to be addressed in 
the future to successfully meet the Service's NWR System mission of 
conserving fish and wildlife. Several years ago the Association, along 
with 16 other organizations, created the Cooperative Alliance for 
Refuge Enhancement (CARE) specifically to address this growing backlog. 
As a result of this cooperation, the CARE group developed a plan of 
modest increases for Refuge Operations and Maintenance budgets that 
will enable the Refuge System to be fully functional by its 100th 
anniversary in 2003. The Association continues to support the CARE 
recommendations to eliminate the backlog of Refuge Operations and 
Maintenance, and strongly urges these recommendations be used to guide 
future budget requests.
    A significant problem still exists with regard to brucellosis, 
which affects both wildlife and domestic livestock and is present in 
elk and bison in the Greater Yellowstone area, located within the 
states of Wyoming, Montana and Idaho. The Association understands that 
FWS and the National Park Service intend again this year to contribute 
to a research program conducted by the Biological Resources Division 
(USGS) to improve the vaccination program for brucellosis in elk and 
bison. This continuing need should clearly be carried as a budget item 
rather than identified as a program that will be funded on an ``ability 
to pay'' basis by the several agencies. This has been a concern since 
the onset of this project, yet no attempt has been made to date to 
correct this deficiency. The Association strongly supports this 
research endeavor, but remains concerned about the level of cooperation 
with the involved states. We urge the commitment by these several USDI 
Bureaus to this project be affirmed in their respective budgets through 
some type of formal agreement, in full cooperation with the states 
involved. We look forward to this being reflected in the fiscal year 
2005 budget request. Brucellosis recognizes no boundaries and only a 
fully cooperative program will likely be successful.
    The Association is pleased that $500,000 has been requested to 
address Chronic Wasting Disease on the refuge system; however, much 
more will be required to deal with this epizootic.
    In late 1997, the United States entered into an agreement with the 
European Union that identified a process to develop and test more 
effective and humane alternative trapping devices used by wildlife 
professionals to manage certain wildlife populations (e.g. for 
research, to reestablish species extirpated from prior habitats, and to 
protect endangered species). An active research program is being 
developed at the USDA's National Wildlife Research Center in Fort 
Collins, Colorado. Given the significant role that trapping plays in 
management of the NWR System for research, protecting habitat, roads 
and other investments, and managing predation and epizootic diseases, 
the Association recommends that $250,000 be added to the fiscal year 
2004 FWS budget to support this research effort.
    With respect to the use of certain types of traps on NWRs, the 
Association strongly opposes any legislative language that would 
prohibit the FWS from funding the use or authorization of the use of 
certain of these devices on NWRs. The Association, along with several 
other conservation organizations, has successfully defeated proposed 
amendments that would restrict FWS authority with respect to traps in 
previous years. The FWS needs to retain the discretion to use these 
devices to protect and conserve endangered species, migratory birds, 
and significant habitats; protect buildings, roads, and other 
facilities; and to protect public health and safety through managing 
epizootics such as rabies. These decisions are best made by the FWS-NWR 
manager working cooperatively with the State fish and wildlife agency, 
which has legal responsibility for the management of most furbearing 
wildlife species.
    The Association supports the efforts of the FWS for increased 
public visitation to the Nation's refuges. We believe that each refuge 
is a unique area that varies in its capability to support carefully 
planned and managed user pressure. However, increased public use has 
the potential to adversely impact the fish and wildlife resources of 
the refuges and some uses may not be compatible under the National 
Wildlife Refuge System Improvement Act of 1997. The Association would 
support the establishment of a research program, including cooperative 
grants, to support carrying capacity studies that would help develop 
innovative management measures to ensure the sustainability of the 
resources on these properties. The study design and preparation, 
however, must be done with the full cooperation of the appropriate 
State fish and wildlife agency. The program should be a joint effort 
utilizing the State fish and wildlife agency within the State where the 
Federal refuge resides, the refuge management staff and the Fish and 
Wildlife Cooperative Research Units. Since state fish and wildlife 
agencies manage comparable state lands, they have substantial 
experience in assessing impacts to species and habitats and balancing 
competing uses of these types of habitats, the principal use of which 
is fish and wildlife conservation.

Law Enforcement
    Federal law enforcement is an important tool in fish and wildlife 
management and a critical element in complementing and filling gaps 
within State fish and wildlife law enforcement programs. While Law 
Enforcement enjoyed a modest appropriations increase in fiscal year 
2003, a past history of flat funding has left this important program 
significantly underfunded. The number of agent vacancies remains at an 
unacceptable level because managers continue to absorb increasing 
operating costs by keeping vacant positions unfilled. The fiscal year 
2001 and fiscal year 2002 increase was the first of a 3-year plan to 
restore funding for law enforcement to acceptable levels (a $10 million 
requested increase per year for 3 years was deemed to be necessary). 
The Association has urged the Service to stay on course with this plan 
and request funding for law enforcement staffing at more appropriate 
levels in future years. The Association is therefore disappointed and 
concerned that the fiscal year 2004 budget indicates only a minimal 
requested increase of $700,000. The Association urges Congress to 
increase funding for FWS law enforcement to a total program level of 
$60 million. This increase will put the Service's law enforcement 
program back on track to fulfill its needs.
    While the Association is vitally interested in seeing all FWS law 
enforcement vacancies filled and the workforce then kept at authorized 
levels, we are fully aware that 40 percent of the FWS' officers are 
expected to retire by the end of 2005. If not vigilant in its response, 
the FWS could exacerbate an already acute workforce situation--one that 
could have serious ramifications to State fish and wildlife agencies. 
The Association was pleased to learn the FWS is developing a 
comprehensive five-year plan to guide the decisions to address the 
challenges this poses. We encourage Congress to monitor this planning 
effort to make certain there is no lessening of emphasis on this 
critical program, and furthermore, that sufficient opportunity for 
state participation be afforded throughout this process to ensure their 
needs and concerns are adequately addressed.

International Conservation
    The Association recommends that Congress fund the Neotropical 
Migratory Bird Conservation Act at its full authorization of $5 
million. This legislation passed both houses of Congress in 2000 with 
strong bi-partisan support. It provides a broad-spectrum approach to 
bird conservation sought for a long time by game bird and non-gamebird 
advocates alike. The NMBCA has the potential to serve as a major 
delivery mechanism to further develop bird conservation strategies for 
songbirds, shorebirds, waterbirds, and other neotropical bird species 
in need of conservation action.

Fisheries and Habitat Conservation
    The Association recognizes the impressive progress the Service's 
Fisheries Program has made in working collaboratively with the 
Association and the various States, as well as with other partners in 
industry, academia, conservation organizations and Tribal 
organizations, to develop its Strategic Vision and to develop strategic 
plans for each of its Regions. In furtherance of this Vision and the 
underlying relationships with States and other partners, the 
Association supports the increases for the Fisheries Program proposed 
in the President's budget request. The Association supports the 
proposed $5 million increase for hatchery operations, which are badly 
needed, but is concerned with the proposed allocation of these funds to 
the recovery of threatened and endangered species (+$1.6 million), 
restoration of key species in accordance with prescriptions in fishery 
management plans (+$2.5 million), and development of additional 
scientific capabilities at hatcheries, Fish Technology Centers and Fish 
Health Centers (+$0.9 million). Absent from this proposed allocation is 
the large and important segment of the Service's hatchery program that 
produces fish to meet the Federal mitigation obligations at Federal 
water projects. The production from these mitigation hatcheries is 
critically important to the states, both recreationally and 
economically, and fulfills the Federal obligations that were agreed to 
by Congress when these water projects were authorized. The Association 
urges Congress to specify that the $5 million increase for hatchery 
operations be used proportionally for the Service's mitigation 
hatcheries, as well as other appropriate uses of hatchery production.
    The Association supports the Service's request for an additional 
$3.0 million for hatchery maintenance, which will begin to enable the 
Hatchery System to address priority needs in its water management 
facilities across the entire System. However, the Association believes 
that this amount is inadequate to significant address the current $300 
million hatchery facilities maintenance backlog. FWS hatchery 
facilities average 55 years in age and much of the infrastructure is 
outmoded and in serious need of repair. For several years, these 
maintenance needs have been largely ignored and hatchery facilities 
have been allowed to deteriorate to an alarming level. The Association 
strongly urges Congress to provide an additional $7 million in the 
Service's fiscal year 2004 appropriation for hatchery maintenance. 
Furthermore, the Association asks the Congress to support the 
President's request for an additional $1.0 million to combat aquatic 
nuisance species, which the Fisheries Program will use to support 
interdepartmental and intergovernmental efforts to control and 
eradicate alien invaders.
    The Association also requests the Congress to provide additional 
funds that will enable the Fisheries Program to strengthen and expand 
its efforts to conserve and restore critical aquatic habitats that 
support valuable recreational fisheries. Specifically, the Association 
asks that the Congress include an additional $3 million in the base 
appropriations of the Fisheries Program to eliminate additional 
barriers to fish passage and fish migration nationwide. The Service has 
recently reported impressive progress in its fish passage program--a 
program that is clearly achieving impressive results in increasing the 
abundance and distribution of native fishes and in providing additional 
angling opportunity.
    Furthermore, the Association asks the Congress to appropriate an 
additional $15 million for the Service's Fisheries Program to work with 
the southeastern States and its other partners in developing the 
Southeast Aquatic Resources Partnership, which is making progress 
toward development of a comprehensive plan that will protect, conserve, 
and restore aquatic resources including habitats in the Southeast. This 
partnership of the U.S. Fish and Wildlife Service and all states in 
Region IV is preparing a report that will provide a blueprint for 
fisheries which will incorporate objectives in six issue areas: (1) 
Public Use, (2) Fishery Mitigation, (3) Imperiled fish and aquatic 
species, (4) Interjurisdictional fisheries, (5) Aquatic habitat 
conservation, and (6) Aquatic nuisance species. The Association 
recommends Congress appropriate $15 million to assist the Fish and 
Wildlife Service and all southeastern states in this endeavor in which 
local biologists would examine local needs with respect to the six 
issue areas and those findings would be consolidated and prioritized at 
the state level. This work would facilitate timely implementation of 
future regional programs that may develop as a result of the 
Partnership's final report.
    Further, the Association requests an additional $770,000 be 
appropriated to FWS in their fisheries program for the Connecticut 
River Atlantic Salmon Commission Migratory Fish Restoration Program to 
continue efforts to restore migratory fish in the four state basin of 
Connecticut, Massachusetts, New Hampshire and Vermont.
    In addition, the Association supports the President's request for 
an additional $9.6 million for the Partners for Fish and Wildlife 
Program. This program has proven enormously popular with America's 
private landowners and has an impressive history of conserving and 
restoring hundreds of thousands of acres of wetlands, riparian habitats 
and upland habitats, as well as opening thousands of miles of streams 
and rivers to fish passage. No program in the Service has been more 
successful in achieving on-the-ground results and in benefiting fish 
and wildlife and the millions of Americans who enjoy hunting and 
fishing, as well as non-consumptive uses and benefits of fish and 
wildlife. In addition, the Association asks the Congress to appropriate 
an additional $4 million to enhance the Service's Coastal Program, 
which much like the Partners for Fish and Wildlife Program, has 
delivered tangible improvements in wetland and upland habitats in 
America's coastal states, where upwards of 75 percent of our nation's 
population resides.
    No less importantly, the Association respectfully asks the Congress 
to provide $2 million increases to each of two Ecological Services 
programs that have essentially been level-funded for the past decade 
and unable to address growing resource challenges. A $2 million 
increase in the Environmental Contaminants Program would enable the 
program to meet basic needs in its efforts to address accidental 
releases or spills of oil and other hazardous chemicals, and to work 
collaboratively with the Environmental Protection Agency and States in 
reviewing and promulgating water quality standards and criteria for 
aquatic organisms. A $2 million increase in Ecological Service's 
Coordination Act program would enable the Service to participate more 
fully in important planning processes and decisions relative to 
hydropower and wind power, as well as mineral extraction. For the past 
decade inflation and stable funding have combined to reduce the 
program's involvement and effectiveness in this important function and 
in ensuring sustainable development coupled with wise stewardship of 
fish and wildlife resources.

Invasive Non-Native Species
    The Association is concerned over the lack of priority placed on 
invasive non-native species in the fiscal year 2004 budget. The program 
of the FWS, as well as other federal agencies, lacks focus and 
therefore is likely to fall short of expectations to address the most 
significant problems caused by some invasive non-native species. The 
Association requests an additional $10 million be included in the 
fiscal year 2004 appropriation to be distributed among several FWS 
programs to help address a significant and serious domestic and 
international threat to indigenous fish and wildlife species. The 
Association strongly supports the FWS efforts to address high priority 
invasive species that are serious problems for fish and wildlife 
habitat.
                                 ______
                                 
  Prepared Statement of the Minnesota Department of Natural Resources

    The Minnesota Department of Natural Resources strongly supports 
efforts by Congress to continue the State Wildlife Grants (SWG) 
program. We urge the Subcommittee to allocate $125 million to the State 
Wildlife Grants program for fiscal year 2004 and to take measures to 
establish a long-term funding mechanism for this important program.
    Congress created the State Wildlife Grant Program (SWG) in 2001 to 
protect and manage those wildlife species of greatest conservation 
need. This program seeks to prevent wildlife from becoming endangered 
and ensure a bright future for the nation's wildlife. Its proactive 
approach to wildlife and habitat conservation will save both wildlife 
and taxpayer dollars because it protects species before it's too late. 
This program is a first step to addressing the unmet needs of hundreds 
of species that fall through the cracks because they are neither 
abundant game species or rare and endangered.
    Minnesota's State Wildlife Grants program funds a range of projects 
across the state. Below are examples of current projects.
  --Monitoring Goshawk Nesting Territories
  --Timber Rattlesnake Recovery in Minnesota's Blufflands
  --Rare Animals in the Glacial Lakes and Moraines Landscape of Central 
        Minnesota
  --Statewide Mussel Resource Survey
  --A Landscape Approach to Grassland Bird Conservation in Minnesota
  --Critical Wildlife Habitat Acquisition
  --Identification and Protection of Important Bird Areas
    The State Wildlife Grants Program was established as part of the 
Conservation Trust Fund in fiscal year 2001. SWG has strong bipartisan 
support and leverages federal funds by requiring a state match. In 
order to participate in the SWG Program, each state is required to 
develop a comprehensive wildlife conservation plan by October 2005. 
These plans will demonstrate the need for long-term, predictable 
funding for wildlife conservation, and guide the use of future SWG 
funds.
    In addition to funding the State Wildlife Grants program at the 
$125 million level for 2004, please consider decreasing the required 
state match for this program from 50 percent to 25 percent, as is the 
case with the Pittman-Robertson, Dingell/Johnson, and Wallop/Breaux 
programs. The purpose of this program is to partner with states to 
protect the wide array of wildlife species under their jurisdiction, 
especially those species that are not hunted or fished. This area of 
wildlife conservation has historically been under-funded, and it is 
very challenging for us to identify a good, stable source of matching 
funds this early in the program's life. Also, please consider 
supporting reliable, long-term funding for state-based wildlife 
efforts, as was originally intended with the Conservation and 
Restoration Act of 2001 (CARA).
    Thank you for the opportunity to offer these comments.
                                 ______
                                 

 Pepared Statement of the National Association of University Fisheries 
                         and Wildlife Programs

    The National Association of University Fisheries and Wildlife 
Programs (NAUFWP) appreciates the opportunity to submit testimony 
concerning the fiscal year 2004 budget for the U.S. Department of the 
Interior. NAUFWP represents approximately 55 university programs and 
their 440 faculty members, scientists, and extension specialists, and 
over 9,200 undergraduates and graduate students working to enhance the 
science and management of fisheries and wildlife resources. NAUFWP is 
interested in strengthening fisheries and wildlife education, research, 
extension, and international programs to benefit fish, wildlife, and 
habitats on public land. We understand the many pressing needs of the 
nation at this time, but we stress that a nation strong in its 
international role must be strong in its support and conservation of 
its natural resources, including fish and wildlife.

                     U.S. FISH AND WILDLIFE SERVICE

    We are concerned that the fiscal year 2004 budget request for State 
Wildlife Grants will diminish the ability of state wildlife agencies to 
conserve fish, wildlife, and habitat, and to prevent further declines 
in at-risk fish and wildlife populations. State Wildlife Grants were 
established in fiscal year 2001 with a promise from Congress to 
increase the amount of funding for the program by 10 percent a year 
over six years. However, this program was cut in fiscal year 2003 to 
$60 million, a 29 percent reduction from the $85 million appropriated 
in fiscal year 2002. The Administration's fiscal year 2004 request is 
$60 million. NAUFWP strongly recommends that State Wildlife Grant 
funding be increased to $125 million in fiscal year 2004, for 
apportionment to the State fish and wildlife agencies under the formula 
allocation used in fiscal year 2002, in order to achieve significant 
progress toward the demonstrated conservation need of at least $350 
million per year.
    While we understand that Congress must make difficult programmatic 
decisions during this time of fiscal constraints, it is critical to 
recognize that State Wildlife Grants ultimately save federal dollars by 
enabling states to be proactive and avert conservation catastrophes. 
State Grants further maximize wildlife and taxpayer dollars for the 
benefit of millions of Americans by leveraging additional funds from 
states and NGOs.

          U.S. GEOLOGICAL SURVEY BIOLOGICAL RESOURCES DIVISION

    NAUFWP is very concerned that the fiscal year 2004 budget request 
for the Biological Resources Division (BRD), $138.875 million, is a 
reduction from the fiscal year 2003 enacted level of $139.816 million. 
This reduction is due primarily to the lack of continued funding for 
several Congressional initiatives, most of which are intended to 
provide critical, timely information to improve natural resource 
management in the United States. Even with funding for these programs 
however, BRD has been dramatically under-funded for years. Adjusted for 
inflation, BRD would have to be funded at over $200 million to maintain 
programs at 1994 levels. In addition, BRD is proposing to absorb 
approximately $1.9 million of $3.4 million in uncontrollable costs in 
the fiscal year 2004 budget. This equates to a significant loss in 
operational funds for BRD. We recommend that Congress appropriate $200 
million for the Biological Resources Division to allow critical 
monitoring and research projects to continue, to eradicate the budget 
decline in real dollars that the program has accumulated, and to fully 
fund uncontrollable costs.
    We support the Administration's requested increase of $1 million to 
expand research on chronic wasting disease, a fatal disease in deer and 
elk; the $500,000 increase in amphibian research; and the $4 million 
increase to expand invasive species research and begin developing a 
prototype model for a national early detection network for invasive 
species in US terrestrial and aquatic ecosystems. At the same time, 
however, NAUFWP urges Congress and BRD not to diminish funding directed 
at ongoing research needs that may not, at present, be garnering the 
public attention that the above issues are, but for which there remain 
many unanswered questions.
    We appreciate the Administration's recognition of the value of the 
National Biological Information Infrastructure (NBII) and support the 
$1 million increase in funding requested for fiscal year 2004. However, 
we also support Congressional direction in the fiscal year 2003 omnibus 
appropriations bill to BRD to further refine the objectives for NBII 
and clearly define a strategy for achieving those objectives. NBII, a 
broad, collaborative program that provides increased access to data and 
information on the nation's biological resources, is a good example of 
what can be achieved by emphasizing partnerships with academic 
institutions and others, provided those partnerships are meaningful.
    NAUFWP applauds Congress' efforts to fully fund the Cooperative 
Fish and Wildlife Research Units (the Units). Full funding and staffing 
for the Units was achieved in fiscal year 2001, but since then 
available fiscal resources have been eroded, principally due to 
uncontrollable costs. Uncontrollable costs for the Units are 
disproportionately high compared to other agencies, as 90 percent of 
the budget for the Units is salaries. This issue first surfaced in the 
fiscal year 2002 enacted budget, which was $123,000 less than the 
fiscal year 2001 budget, leaving the Units $400,000 short of covering 
the high proportion of personnel costs. We are thankful that the fiscal 
year 2003 enacted budget for the Units was $14.9 million, including 
$623,000 to cover uncontrollable costs, and $400,000 for the new 
Nebraska Cooperative Research Unit. However, the $400,000 
uncontrollable shortfall from fiscal year 2002 still remains. The 
Administration's fiscal year 2004 budget request for the Units is 
$14.139 million, an $854,000 decrease from fiscal year 2003. This means 
there would be no funding for the new Nebraska Cooperative Research 
Unit to operate in 2004, and there would be a $600,000 shortfall in 
uncontrollable costs, resulting in a net uncontrollable cost shortfall 
for three consecutive years.
    To maintain full funding and staffing levels for the Cooperative 
Research Units, NAUFWP recommends that Congress increase the fiscal 
year 2004 budget to $16 million. This would include $400,000 to 
maintain the new Nebraska Unit that Congress established in fiscal year 
2003, $600,000 to cover uncontrollable costs in fiscal year 2004, plus 
sufficient funds to address the uncontrollable cost backlog from fiscal 
year 2002.
    There is a great deal of interest from the Unit cooperators to 
expand the Cooperative Research Unit program. Currently, three states 
have fisheries units only and 12 states have neither fisheries nor 
wildlife units. Most states have expressed an interest in entering into 
a partnership between BRD, a State University, and the state fish and 
wildlife agency to bring one or both Cooperative Research Units to 
their state. NAUFWP is pleased that the fiscal year 2003 appropriations 
included language directing BRD ``to develop a priority system for 
expanding the current program.'' NAUFWP looks forward to participating 
in the long-term strategic planning process for the Units, and we urge 
Congress to approve budget requests in subsequent years based on this 
undertaking. The well-established record of accomplishment of the 
Research Units, a partnership of universities, state agencies, federal 
agencies, and non-governmental organizations, illustrates the success 
of their work to conserve fish and wildlife resources and habitats, and 
to train young professionals in the field.

                         NATIONAL PARK SERVICE

    NAUFWP recommends $2.225 million in support of the Cooperative 
Ecosystem Study Units (CESU) program. This amount would provide 
$125,000 to each host university, which provides research, technical 
assistance, and education, and $125,000 for the national office to 
partner with other agencies to support conservation and information 
sharing through websites and other technologies. This funding could be 
placed within the National Park Service under external programs on 
behalf of all the federal agencies involved with the CESU program.

                          U.S. FOREST SERVICE

    The Administration's fiscal year 2004 budget request provides $252 
million for Forest and Rangeland Research, essentially level with the 
fiscal year 2002 budget, including over $11 million for new research 
initiatives related to invasive species, the Healthy Forests 
Initiative, and Sudden Oak Death disease. The wildlife, fish, and 
watershed research budget request is $54 million, about $2 million less 
than was appropriated in 2003. NAUFWP recommends an additional $2 
million for Forest Service Research, to be allocated to Wildlife, Fish, 
Watershed, and Air Research, and recommends that current activities in 
the Wildlife, Fish, Water, and Air Research segment of the budget can 
be maintained.
    NAUFWP is concerned about the essentially level funding of $134.8 
million for the Wildlife and Threatened & Endangered (T&E) Species 
programs in fiscal year 2004. NAUFWP recommends that Congress 
appropriate $149 million for the Wildlife, Fish and Threatened & 
Endangered Species program in fiscal year 2004. This will help ensure 
that each National Forest has a base infrastructure of personnel to 
administer viable Wildlife Biology, Terrestrial Threatened, Endangered 
and Sensitive Species, Botany and other natural resource programs, and 
provide base level funding for Forest and District biologists to 
implement proactive management, monitoring, and research projects.

                       BUREAU OF LAND MANAGEMENT

    The Bureau of Land Management (BLM) manages 264 million acres (48 
percent) of the nation's public lands, making it the largest natural 
resource management agency in terms of acres managed. These lands 
provide critical habitat for fish and wildlife and recreational 
opportunities for millions of visitors. The Wildlife and Fisheries, and 
Threatened and Endangered Species programs of BLM help ensure sound 
management and protection of a diversity of wildlife, fish and 
habitats, while providing for recreational and commercial uses of the 
land. While the Administration has proposed slight increases in the 
fiscal year 2004 budgets of these programs, they still will be running 
at minimal funding and staffing levels. NAUFWP recommends that Congress 
appropriate an additional $10 million over the President's request for 
Wildlife and Fisheries Management, and an additional $5 million over 
the President's request for the Threatened and Endangered Species 
program.
    The Administration's request for BLM also includes $500,000 for 
monitoring the cumulative impacts of oil and gas development on natural 
resources such as wildlife. We believe that if energy production on 
public lands is accelerated, then BLM must have the funds necessary to 
carry out not only monitoring and evaluation, but also eventual 
mitigation of any impacts to wildlife and fish that are identified from 
energy development. NAUFWP recommends that additional funds be 
dedicated to mitigating the impacts of energy development on wildlife 
and fish, particularly species-at-risk, and recommends that the fiscal 
resources to conduct this work be allocated within the appropriate 
program area budget where biological and cultural resource expertise 
exists, as opposed to allocating this funding to the oil and gas 
account.
    In addition, with increased emphasis on energy development, we 
expect an increased demand and need for fish and wildlife expertise. 
Already, approximately 30 percent of existing wildlife and fisheries 
staff time is being directed at energy-related functions. NAUFWP 
supports hiring additional fish and wildlife staff to address these 
critical program areas in the context of addressing the Nation's energy 
policy, but recommends these positions be directly funded from the 
energy account, rather than extracted from the existing base Wildlife 
and Fisheries Management or Threatened and Endangered Species Program 
budgets.
    Thank you for considering the views of universities with fisheries 
and wildlife programs. We look forward to working with you and your 
staff to ensure adequate funding for wildlife conservation.
                                 ______
                                 
   Prepared Statement of the Teaming with Wildlife Steering Committee

    On behalf of the Teaming with Wildlife Steering Committee, we 
request your support for the State Wildlife Grants program in fiscal 
year 2004 Interior and Related Agencies Appropriations. Teaming with 
Wildlife is a broad coalition of more than 3,000 groups who have united 
to enhance America's wildlife resources. We are dedicated to achieving 
increased federal funding for state-level fish and wildlife 
conservation, education, and recreation, to ensure a bright future for 
all fish and wildlife and the habitat on which they depend. We strongly 
urge you to appropriate $125 million for State Wildlife Grants under 
the Land, Conservation, Preservation, and Infrastructure Improvement 
Fund (LCPII) in fiscal year 2004.
    State Wildlife Grants provide essential resources to state agencies 
to conserve fish, wildlife, and habitat, and to prevent further 
declines in at-risk fish and wildlife populations. More than 1,000 
species are imperiled, or listed as federally threatened or endangered, 
with many more under consideration for listing. While we understand 
that Congress must make difficult programmatic decisions during this 
time of fiscal constraints, it is critical to recognize that State 
Wildlife Grants ultimately save federal taxpayer dollars. Past 
experience shows that efforts to restore imperiled wildlife are 
difficult and costly. State Wildlife Grants enable states to be 
proactive and avert such conservation catastrophes, concurrently saving 
wildlife and taxpayer dollars, and improving our quality of life by 
conserving wildlife for the benefit of millions of Americans.
    Within the first two years of the State Wildlife Grants program, 
state agencies initiated a number of important wildlife conservation 
measures. However, the Administration's request of $60 million for 
State Wildlife Grants in fiscal year 2004 is a substantial reduction 
(29 percent) from the $85 million enacted in fiscal year 2002. This 
will significantly curtail the effectiveness of many state wildlife 
diversity programs that are in their infancy and require consistent, 
adequate federal appropriations to realize their objectives. The 
proposed cut for SWG in fiscal year 2004 also will jeopardize the 
States' ability to craft and implement the Comprehensive Wildlife 
Conservation Plan required by Congress. The development of these plans 
is underway in many states, in anticipation of consistent funding for 
implementation. If the commitment to this planning is reduced, the 
focus of spending likely will shift toward meeting short-term needs, 
instead of being channeled toward long-term conservation through 
comprehensive conservation, education and recreation programs.
    Indeed, the monies acquired for State Wildlife Grants through the 
annual appropriations process offer only short-term support for fish 
and wildlife conservation. For this reason, Teaming with Wildlife 
remains committed to securing the reliable, long-term nature and intent 
of Title III of the Conservation and Reinvestment Act (CARA). Title III 
of CARA would have provided $350 million per year for 15 years to 
prevent species from becoming endangered, to enhance outdoor 
recreational experiences, and to foster responsible fish and wildlife 
stewardship through conservation education. We respectfully urge you to 
address the continuing shortfalls in state wildlife program funding 
with a long-term and comprehensive approach by supporting the passage 
of dependable funding. We pledge to assist in implementing such a 
program.
    We understand the many pressing needs of the nation at this time, 
but we stress that a nation strong in its international role must be 
strong in its support for and conservation of its natural resources, 
including fish and wildlife. We need and sincerely appreciate your help 
with annual funding, and are hopeful that we can work together to bring 
dependability to these funds, which will be necessary to achieve long-
term fish and wildlife conservation objectives for all citizens.
                                 ______
                                 
       Prepared Statement of the Nebraska Game & Parks Commission

    The Nebraska Game & Parks Commission is the agency responsible for 
stewardship of Nebraska's wildlife resources in the best long-term 
interest of Nebraskan's and those resources. The Commission is charged 
with administration of the State Wildlife Grants program. The Nebraska 
Game and Parks Commission strongly supports an appropriation of $125 
million for the State Wildlife Grants Program (administered by the U.S. 
Fish & Wildlife Service) in fiscal year 2004.
    For more than 50 years, the highly successful Federal Aid to Fish & 
Wildlife Restoration program (Pittman Robertson Act) has enabled state 
wildlife agencies to meet their obligation to restore and conserve game 
species. The recovery of wild turkey, deer, and waterfowl populations 
is nothing short of miraculous. In addition to game conservation, the 
Federal Aid program has indirectly conserved habitat for hundreds of 
nongame species.
    Nevertheless, Nebraska faces the immense challenge of conserving 
more than 500 nongame species considered rare or declining. During the 
past three years the State Wildlife Grants program has been 
instrumental in helping the Commission and its many partners begin 
implementing conservation strategies aimed at stemming population 
declines of nongame fish and wildlife. The Commission fully embraces 
the concept behind the State Wildlife Grants program--Use proactive 
conservation strategies now, to reduce the likelihood for endangered 
species listings in the future.
    In 2002, the Commission used a competitive grant program to 
disburse State Wildlife Grants funds. The agency received more than 
eight times the request for funds than was available. We expect the 
demand for these funds to increase substantially in the next few years. 
As a result of this competitive grant program, the Commission has built 
new and innovative partnerships with more than a dozen conservation 
organizations and universities leveraging more than $1 million in state 
and private conservation funds.
    Without the State Wildlife Grants program, Nebraska will likely be 
faced with the regulatory requirement to add more species to the state 
endangered species list in the future. This outcome is exceedingly 
expensive, controversial, and risky to imperiled species. We prefer a 
more proactive approach such as that offered through the State Wildlife 
Grants Program.
    The Commission is extremely appreciative of your committee's 
support of the State Wildlife Grants program in fiscal years 2002 & 
2003. We encourage you to give thoughtful consideration for this 
program in the 2004 budget. Thank you for your time.
                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress

                                REQUEST

    The Oregon Water Resources Congress is requesting $25 million for 
the full funding in fiscal year 2004 for the U.S. Fish and Wildlife 
Service Fish Restoration Irrigation Mitigation program as authorized in 
the Fish Restoration Irrigation Mitigation Act (FRIMA) in November 2000 
as Public Law 106-502 (H.R. 1444). The Administration has not request 
any funding in the fiscal year 2004 Budget submission for this program.
    FRIMA created a new federal partnership fish screening and passage 
program in the Pacific Ocean drainage areas of Idaho, Oregon, 
Washington and western Montana, administered by the Fish and Wildlife 
Service and partnered through state fishery agencies.
    The original legislation was supported and requested by the Pacific 
Northwest Partnership, a coalition of local governmental entities in 
the four Northwest states. As one of the members of that coalition, we 
appreciate your consideration of this request.

                                  NEED

    Our association has represented irrigation districts in Oregon 
since 1912. About half of those districts are affiliated with the U.S. 
Bureau of Reclamation. The remainder of the districts were not 
developed under the Reclamation program. There are over 200 irrigation 
districts in Oregon that provide water supplies to over one million 
acres of cropland in Oregon. Almost all of these districts are affected 
by either state or federal Endangered Species Act listings of Salmon 
and Steelhead, Bull Trout or other sensitive, threatened or endangered 
species.
    Fish passage and fishscreen needs have become critical to fishery 
protection:
  --to keep protected fish species out of water canals and delivery 
        systems;
  --to allow fish to be safely bypassed around reservoirs and facility 
        structures; and
  --to eliminate water quality risks to fish species.
    Oregon irrigation districts anticipate no less than $500 million in 
funding will be required to develop fish passage and fishscreening 
needs. Limited cost-share funds are available from the Oregon Watershed 
Enhancement Board (OWEB) program in Oregon, but primarily the cost 
share for passage and screening needs will be provided by the districts 
and their water users. Many districts already have screening facilities 
in place, but requirements for screening have been changed to meet 
federal agency requirements of the NOAA Fisheries Service and the Fish 
and Wildlife Life Service, driven by implementation of the federal 
Endangered Species Act (ESA) so that existing facilities must be 
upgraded at significant cost.

                    BACKGROUND OF PUBLIC LAW 106-502

    FRIMA was enacted November 2000, creating a voluntary cost-share 
fish screen construction program for water withdrawal projects in 
Idaho, Oregon, Washington and western Montana. The Fish and Wildlife 
Service is to implement this program through the fishery agencies in 
the four states. The funding is to go to local governments for 
construction of facilities. Irrigation districts (local governments), 
can access the funding; individual irrigators can access funding 
through their local Soil and Water Conservation District. (SWCD 
districts are local governments affiliated with the Natural Resources 
Conservation Service.)

                                FUNDING

    The legislation calls for $25 million annually, to be divided among 
the four states, from 2001 forward. The Service has never included 
funding in its budget requests since passage of the legislation. 
Congress provided the first funding in 2001 through a write-in of $4 
million to be shared among the four states. The agency did not get the 
program up and running until late 2002, so the first moneys were 
distributed then. A 2003 budget write-in resulted in a $470,000 
allocation to Oregon ($1.8 million total for the 4 states) which has 
not yet been disbursed.

                            FUNDING HISTORY

    2000--Congressional authorization for $25 million per year
    2001--Congressional write-in of $4 million as no agency budget line
    2002--No budget; agency did not disburse 2001 money until late 2002
    2003--Congressional write-in of $1.2 million as no agency budget 
line
    2004--No agency budget line
    For the 4 years, 2001-2004:
  --Congress--Authorized $100 million
  --CBO--Anticipated $70 million
  --Service--Budgeted $0
  --Congress--Wrote in $5.8 million (2002 & 2003 total combined)
    In 2000, in the report accompanying the legislation, the 
Congressional Budget Office (CBO) estimated outlays of $8 million for 
fiscal year 2001; $15 million in fiscal year 2002; $22 million in 
fiscal year 2003 and $25 million in fiscal year 2004 and years forward. 
While the CBO estimate would have provided $70 million between 2001 and 
2004, the actual appropriation was only $5.8 million (8 percent) during 
that same time period and all of the money was a write-in.
    Funding funneled through the Service to state fishery agencies is 
distributed on the basis of an application and approval process that is 
based on a ranking system implemented uniformly among the states, 
including the following factors:
  --fish restoration benefits
  --cost effectiveness
  --feasibility of planned structure
    Each state is allocated 25 percent of the annual program funding. 
Agency administrative costs cannot exceed 6 percent of the funding.

                            PROJECT BENEFITS

    The project must provide improved fish passage or fish protection 
at water diversion structures and must benefit fish species native to 
and present in the area, including those listed on state or federal 
endangered species or conservation lists. The project must meet 
applicable state and federal requirements for project construction and 
operation. Projects will increase the survival of many native fish 
species in a relatively short period of time. Compared to other 
recovery strategies, the risks posed by these activities are low and 
the assurance of success in increasing numbers of fish is high. 
Dislocation of existing social and economic activities is minor. 
Screening and passage can make a very substantial contribution 
utilizing existing implementation mechanisms and methods well accepted 
by landowners and rural communities.

                               COST SHARE

    The federal cost-share is 65 percent. The applicant's cost-share is 
35 percent plus the on-going maintenance and support of the structure 
for passage or screening purposes. Applicants operate the projects and 
the state agencies monitor and review the projects.
    For more information, see the Services' Fishery Resources website 
for the Pacific Region at http://pacific.fws.gov/Fisheries/
Fish%20Passage-Screening %20Program.htm.
    This program is headquartered in the Portland, Oregon regional 
office of the Service.

                       OREGON'S PROJECT BENEFITS

    Of the $4 million provided to the program in 2001 for the 4 states, 
Oregon received $1 million for projects:
    Santiam Water Control District Project.--Fishscreen project on a 
large 1050 cfs multi-purpose water diversion project on the Santiam 
River (Willamette Basin) near Stayton, Oregon. Partners are the Santiam 
Water Control District, Oregon Department of Fish and Wildlife, Marion 
Soil and Water Conservation District, and the City of Stayton. Approved 
FRIMA funding of $400,000 leverages a $1,200,000 project. Species 
benefited include winter steelhead, spring Chinook, rainbow trout, and 
cutthroat trout.
    South Fork Little Butte Creek.--Fishscreen and fish passage project 
on a 65 cfs irrigation water diversion in the Rogue River Basin near 
Medford, Oregon. Partners are the Medford Irrigation District and 
Oregon Department of Fish and Wildlife. Approved FRIMA funding is 
$372,000 and leverages a $580,000 total project cost. Species benefited 
include listed summer and winter steelhead, coho salmon, and cutthroat 
trout.
    Running Y (Geary Diversion) Project.--Fishscreen project on a 60 
cfs irrigation water diversion in the upper Klamath Basin near Klamath 
Falls, Oregon. Partners are the Wocus Drainage District, Oregon 
Department of Fish and Wildlife, and Jeld-Wen Ranches. Approved FRIMA 
funding of $44,727 leveraged a total project cost of $149,000. Species 
benefited include listed red-band trout and short-nosed sucker.
    Lakeshore Gardens Project.--Fishscreen project on a 2 cfs 
irrigation water diversion in the upper Klamath Basin near Klamath 
Falls, Oregon. Partners are the Lakeshore Gardens Drainage District and 
Oregon Department of Fish and Wildlife. Approved FRIMA funding is 
$5,691, leveraging a total project cost of $18,970. Species benefited 
include red-band trout, short-nosed sucker and Lost River sucker.
    Oregon Department of Fish and Wildlife Inventory Project.--An 
inventory project to be conducted by Oregon Department of Fish and 
Wildlife to identify FRIMA-eligible passage and screening projects 
within the Rogue and Klamath basins of southwestern Oregon. Approved 
FRIMA funding is $76,000. Estimated total project cost is $125,000.
    (See total projects list, Pacific Region States at http://
www.r1.fws.gov/Fisheries/Fish%20Passage-Screening%20Projects.htm.)

                      TOTAL OREGON PROJECT FUNDING
                        [In millions of dollars]
------------------------------------------------------------------------
 
------------------------------------------------------------------------
5 Projects:
    FRIMA funds...........................................           0.9
    Applicant funds.......................................           1.2
                                                           -------------
      Total Project.......................................           2.1
------------------------------------------------------------------------

                             WHY FUND NOW?

    Dollar-for-dollar, providing screening and fish passage at 
diversions is one of the most cost-effective use of restoration 
dollars, creating fishery protection at low cost, with low risk and 
significant benefits. That is why it is important that this program be 
funded now. We urge the full authorized funding for fiscal year 2004 
and urge Congress' oversight in encouraging the Service to budget for 
this successful program in the future.
    Thank you for the opportunity to provide this statement for the 
hearing record.

                                 ______
                                 
   Prepared Statement of the Tern and Plover Conservation Partnership

    The Tern and Plover Conservation Partnership (Partnership) was 
initiated in 1999 to protect and manage endangered least terns (Sterna 
antillarum athalassos) and threatened piping plovers (Charadrius 
melodus) that nest in Nebraska on river sand bars and on gravel mine 
spoil piles. Birds that nest at these mines are vulnerable to predation 
and potential conflicts with mining operations. The Partnership was 
formed to protect these and other river birds in a way that reduced 
conflicts with private industry and that educated and involved local 
communities. To further these goals an ``Adopt-a-Colony'' program was 
initiated in 2000 to help with project activities and to engage local 
community members in endangered species management and protection 
issues.
    The Partnership is run solely by the means of grant funds and is 
partially funded by the State Wildlife Grant program, being recommended 
for a $45,000 grant in 2003. The program received a Wildlife 
Conservation and Restoration Program GRANT for $75,000 in 2002. The 
Nebraska Environmental Trust and The U.S. Fish and Wildlife Service 
also partially fund the Partnership.
    These grants have helped with needed supplies and have allowed us 
to meet the critical need of employing two seasonal technicians to 
assist with monitoring and protection efforts during each nesting 
season. Technicians are essential to the continuing success of the 
Partnership. Without efforts from technicians it would be impossible to 
monitor colonies on a regular basis, erect and maintain several 
protective electric fences, and successfully mitigate potential 
conflicts at sand mines. Technicians also help foster high quality 
working relationships with sand and gravel personnel and volunteers. 
Moreover, the grants have helped provide essential supplies such as 
protective fencing, field signs, educational materials, and video and 
GPS equipment.
                                 ______
                                 
  Prepared Statement of the Upper Mississippi River Basin Association

    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created in 1981 by the Governors of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin to serve as a forum for coordinating 
the five states' river-related programs and policies and for 
collaborating with federal agencies on regional water resource issues. 
As such, the UMRBA has an interest in the budget for both the U.S. Fish 
and Wildlife Service and the U.S. Geological Survey.

                     U.S. FISH AND WILDLIFE SERVICE

    The U.S. Fish and Wildlife Service has important responsibilities 
in the Upper Mississippi River Basin, including management of federal 
refuge lands and coordination with other federal, state, and local 
agencies on river-related ecological issues. The UMRBA strongly 
supports funding necessary to enable the Fish and Wildlife Service to 
fulfill its responsibilities in the Upper Mississippi River Basin.
    Refuges and Wildlife.--The U.S. Fish and Wildlife Service 
administers over 250,000 acres of land and water scattered along the 
Mississippi and Illinois Rivers from the most northerly unit near 
Wabasha, Minnesota to the most southerly unit near Gape Girardeau, 
Missouri. This includes the Upper Mississippi River National Wildlife 
and Fish Refuge (NWFR), Mark Twain NWR Complex, and Illinois River NWFR 
Complex. The existence of this extensive national refuge system is, in 
part, the reason that, in 1986, Congress designated the Upper 
Mississippi River System as a ``nationally significant ecosystem and a 
nationally significant commercial navigation system.''
    The UMRBA strongly supports the proposed increase for Refuge 
Operations and Maintenance in the President's fiscal year 2004 budget. 
In fiscal year 2003, funding for the three refuges along the Upper 
Mississippi and Illinois Rivers totaled $13.4 million, approximately 43 
percent of which was carryover for special flood-related repair needs. 
Yet there continues to be a routine maintenance backlog and a need for 
additional personnel to address law enforcement, biological needs, 
floodplain forest management, technical assistance to private 
landowners, environmental education, and other refuge management needs. 
In particular, the refuges along the Upper Mississippi River System 
have responsibility for the Operation and Maintenance (O&M) of projects 
that the Corps of Engineers constructs on those refuges, under the 
authority of the Environmental Management Program (EMP). Currently, 
those annual O&M costs are estimated to be $360,000, but will likely 
increase within 10 years to more than $560,000. Fully funding the O&M 
of EMP projects is vital to ensuring that these habitat restoration and 
enhancement projects are fully operational and provide lasting 
environmental and public use benefits.
    In order to properly care for the lands already in the National 
Wildlife Refuge System, the President's fiscal year 2004 budget request 
for acquisition of new lands is reduced by more than half. Despite this 
dramatic cut, the fiscal year 2004 budget includes $2 million to 
acquire lands for three refuges along the Upper Mississippi River. 
Included are $1 million for acquisition of 924 acres for the Great 
River NWR and $500,000 for acquisition of 400 acres for the Middle 
Mississippi River NWR. Both of these refuges are part of the Mark Twain 
NWR Complex for which 27,000 acres remain to be acquired. In addition, 
the fiscal year 2004 budget includes $500,000 for acquisition of 380 
acres for the Upper Mississippi River NWFR Complex, which has 
outstanding unmet acquisition needs of over 35,000 acres. The UMRBA 
supports the fiscal year 2004 budget request for refuge land 
acquisition and is pleased that the refuges in this region are 
recognized as a high priority, even in tight budget times.
    Ecological Services.--Funding from the Ecological Services account 
supports the field offices in Rock Island (IL), the Twin Cities (MN), 
and Marion (IL), which provide most of the ecological services work on 
the Upper Mississippi River (UMR) and tributaries. This includes work 
on threatened and endangered species, environmental contaminants, and 
habitat conservation. In fiscal year 2003, work being done by these 
Ecological Services field offices related to the Upper Mississippi 
River is estimated to be $375,000. The UMRBA supports this base funding 
for Ecological Services offices on the UMR and thus recommends that, at 
a minimum, Ecological Services fiscal year 2004 funding be increased 
from the President's recommended level, to at least match the fiscal 
year 2003 appropriation.
    Fisheries.--Most of the Service's fish management on the Upper 
Mississippi River is conducted out of the La Crosse (WI), Columbia 
(MO), and Carterville (IL) Fisheries Resource Offices, which conduct 
habitat restoration and assessments of paddlefish, pallid and 
shovelnose sturgeon, and freshwater mussels. The UMRBA supports the 
important work done by these offices and thus supports the funding 
proposed in the President's budget for the Fisheries account in fiscal 
year 2004. In particular, of the $1 million increase proposed for work 
on aquatic nuisance species in fiscal year 2004, $250,000 is proposed 
for efforts in this basin related to Asian carp.
    The UMRBA is particularly pleased that the President's fiscal year 
2004 budget recognizes the needs related to hatchery operations and 
maintenance, by proposing an increase of $8 million in the hatcheries 
budget. The National Fish Hatchery on the banks of the Mississippi 
River at Genoa, Wisconsin has become a center of excellence in the 
recovery of endangered mussels. Additional funds proposed for the Genoa 
Hatchery in fiscal year 2004 would be used for production of freshwater 
mussels, lake sturgeon, and brook trout to meet restoration and 
recovery objectives. In particular, $370,000 is budgeted for large 
migratory species, such as lake and shovelnose sturgeon, and $55,000 is 
allocated for endangered mussels, such as the Higgin's Eye and Winged 
Mapleleaf. Additional funds proposed for the Fish Health Center in La 
Crosse, Wisconsin would be used for health diagnostics for lake 
sturgeon and lake trout and would enhance the Wild Fish Health Survey 
on the Upper Mississippi River.

                         U.S. GEOLOGICAL SURVEY

    In contrast to the deep cuts proposed for the U.S. Geological 
Survey over the past two years, the President's fiscal year 2004 budget 
signals strong support for the science mission of the USGS. Yet while 
the Administration's fiscal year 2004 request for water and for 
biological research reflects an increase over its prior years' 
requests, it is, in fact, slightly lower than the fiscal year 2003 
amounts recently appropriated by Congress. It is therefore important 
that Congress actually increase funding above the President's request 
just to maintain stable funding for these critical science programs.
    The states of the Upper Mississippi River Basin are concerned that 
the USGS' ability to provide timely and unbiased scientific information 
about complex natural systems not be compromised. There are several 
specific research and monitoring programs in the Water Resources and 
Biological Research programs that are of particular interest to the 
UMRBA.
    Water Resources Investigations.--The UMRBA strongly supports 
increased funding for the National Streamflow Information Program 
(NSIP). The stream gaging network is essential to protecting public 
health and safety by forecasting floods and droughts, managing the 
nation's navigation system, and monitoring water quality. There are 
currently 675 stream gages operated by USGS in the five UMRBA states. 
Over recent years, 80 gages have become inactive in the five states, 
many as a result of funding cutbacks. The loss of gages means the loss 
of the historical record that is needed for managing our nation's water 
resources. The UMRBA shares the commitment of water resource managers 
across the nation to the long-term stability and security of the 
nation's stream gaging program. Toward that end, UMRBA joins other 
organizations, such as the Interstate Council on Water Policy (ICWP), 
in urging Congress to increase the Administration's fiscal year 2004 
proposed budget of $14.4 million for NSIP by $2 million.
    The UMRBA also strongly supports funding for the Federal/State 
Cooperative Water Program. The Coop Program is an essential tool in 
meeting state and local science needs, including both interpretive 
studies and stream gaging. Originally, the match between nonfederal 
cooperators and the USGS was 50-50. Over time, increased requests by 
cooperators for USGS services, coupled with stagnant federal funding, 
has altered that proportion. In 2002, cooperators generally matched 
every $1.00 in federal funds with $1.65, demonstrating the value they 
place on the program. In 2002, there were 182 nonfederal cooperative 
projects in the five UMRBA states, an increase of over five percent in 
just two years.
    In contrast to last year's proposal to eliminate USGS' Toxic 
Substances Hydrology program, the President's fiscal year 2004 budget 
proposes $11 million for this important research. The Toxics Program, 
which conducts research on the behavior of toxic substances in the 
nation's hydrologic environments, is particularly important to the 
states of the Upper Midwest. Under this program, USGS has been studying 
the occurrence, transport, and fate of agricultural chemicals in a 12-
state area in the Upper Midwest. This research effort, called the 
``Midcontinent Agricultural Chemical Research Project,'' is helping to 
identify factors that affect dispersal of agricultural chemicals in 
surface and ground waters and evaluating the resulting effects in small 
streams and large rivers. The goal is to provide the general scientific 
basis needed to develop agricultural management practices that protect 
the quality of this region's water resources. Through its Toxics 
Program, USGS is also studying questions associated with hypoxia in the 
Gulf of Mexico, including the loads and sources of nutrients from the 
Mississippi River basin. Given the important work underway in the USGS 
Toxic Substances Hydrology Program, UMRBA urges Congress to provide 
$13.5 million, at a minimum, commensurate with the fiscal year 2003 
level of funding.
    The UMRBA continues to support funding for the National Water 
Quality Assessment (NAWQA), which is slated to be at $64 million under 
the President's fiscal year 2004 budget. NAWQA is designed to answer 
basic questions about the status and trends in the quality of our 
nation's ground and surface waters, assessing 42 major river basins and 
aquifers across the nation on a rotating basis every 3-4 years. The 
Upper Mississippi River Basin includes four NAWQA study units (Upper 
Mississippi, Eastern Iowa, Lower Illinois, and Upper Illinois). The 
first 3 of these are scheduled for assessment in fiscal year 2004.
    Biological Research.--The President's budget request for USGS 
Biological Research is $168.9 million, reflecting an increase over the 
fiscal year 2003 request, but a decrease from the fiscal year 2003 
appropriation of $170.9 million. The UMRBA recommends that, at a 
minimum, Biological Research be funded at the fiscal year 2003 level. 
Of particular interest to UMRBA is funding for invasive species 
research, including ballast water research and development of a 
prototype model for a national early detection network for invasive 
species. Also of interest is research into amphibian declines and 
malformations that have been occurring in recent years.

                                 ______
                                 
        Prepared Statement of the Wildlife Management Institute

    The Wildlife Management Institute (WMI) is submitting its comments 
on the U.S. Fish and Wildlife Service's (FWS) proposed budget for 
fiscal 2004. WMI is a scientific, educational non-profit organization 
that is staffed by professional wildlife biologists and is committed to 
the sustainable management of wildlife populations and habitats 
throughout North America. For 63-years we have worked closely with the 
FWS to identify wildlife conservation needs and resource management 
solutions. Our following comments include recommendations for the 
following spending increases over the Administration's FWS requests: 
$65 million for State and Tribal Wildlife Grants; $5 million for the 
North American Wetlands Conservation Fund; $1.2 million for Migratory 
Bird Management; $2 million for Neotropical Migratory Bird 
Conservation; and $10 million for controlling invasive species. It also 
includes a $24.9 million request for traditional state grants under the 
Cooperative Endangered Species Fund.
    During this time of war, we greatly appreciate the Administration's 
$9 million spending increase over the fiscal 2002 spending level. The 
Administration's $1.3 billion request recognizes the significant 
contributions of several partnership oriented programs and will help 
the FWS leverage significant support among private organizations and 
individuals when addressing critical issues confronting migratory 
birds, declining species and a host of other game and nongame animals. 
Specifically, we welcome the Administration's request for the following 
programs and urge your subcommittee to support these programs 
throughout the appropriations process:
    1. Landowner Incentive Program and Private Stewardship Grants ($50 
million);
    2. Partners for Fish and Wildlife Program ($38.4 million, of which 
$9.1 million is for habitat restoration projects);
    3. Joint Ventures under the North American Waterfowl Management 
Plan ($10.3 million);
    4. Refuge Challenge Cost Share Fund ($3 million);
    5. Replacement of bird survey aircraft ($1 million);
    6. Chronic Wasting Disease surveillance and control on National 
Wildlife Refuges ($500,000 although spending increases should be 
considered in future years); and
    7. Updating database for mourning doves ($250,000).
    WMI also supports the Administration's $25.5 million increase for 
the National Wildlife Refuge System's operations and maintenance 
account (total request is $402 million). Under the fiscal 2003 omnibus 
appropriations bill, that account received the largest increase any 
natural resources program had ever received in a single year ($48.4 
million). These consecutive increases will greatly improve the Fish and 
Wildlife Service's ability to reduce its operations and maintenance 
backlog. However, according to the Cooperative Alliance for Refuge 
Enhancement, the refuge system needs $700 million annually to expand 
its support staff, to oversee maintenance projects and to conduct daily 
operational work on refuges. To the degree that current circumnstances 
allow, we ask that your subcommittee narrow the gap between the 
Administration's $402 million request and the refuge system's $700 
million need.
    The Institute remains concerned about the lack of adequate funding 
for the State and Tribal Wildlife Grants program, North American 
Wetlands Conservation Fund, Cooperative Endangered Species Fund, 
Migratory Bird Management, land acquisition program, and invasive 
species control/eradication. Please accommodate the following comments 
and spending recommendations to the best of your ability.

                    STATE AND TRIBAL WILDLIFE GRANTS

    We are very concerned that the Administration has requested only 
$60 million for the State and Tribal Wildlife Grants program for the 
second consecutive year. This request represents a 30 percent reduction 
from the fiscal 2002 amount of $85 million and significantly limits the 
ability of State and Tribal fish and wildlife agencies to complete 
their Comprehensive Wildlife Conservation Plans and to implement on-
the-ground projects that benefit game and nongame species. These 
agencies need a stable or growing source of funds to meet long-term 
planning objectives, and WMI is committed to locating a dependable 
source of funding that will provide states and Tribes with $350 million 
every year to fulfill their unique conservation, recreation and 
education needs. In pursuit of that $350 million per year goal, WMI 
asks that your subcommittee appropriate $125 million to the grant 
program in fiscal 2004.

               NORTH AMERICAN WETLANDS CONSERVATION FUND

    WMI welcomes the Administration's request of $50 million for the 
North American Wetlands Conservation Fund, but according to the 
reauthorizing language for North American Wetlands Conservation Act, 
this fund is to receive $55 million in fiscal 2004. Since 1989, the FWS 
has used this fund to collaborate with more than 2,000 partners and to 
conduct at least 1,114 enhancement projects for wetlands and associated 
upland habitat in 48 states, U.S. Virgin Islands, 13 Canadian 
provinces, and 24 Mexican states. Moreover, every federal dollar in 
this fund leverages $2.88 from the Fish and Wildlife Service's state 
and private partners. For these reasons, we recommend that your 
subcommittee appropriate the authorized amount of $55 million to this 
fund.

                  COOPERATIVE ENDANGERED SPECIES FUND

    Through the Cooperative Endangered Species Fund, state fish and 
wildlife agencies receive necessary financial assistance to implement 
habitat conservation and population recovery efforts for imperiled 
species. However, the Administration's $86.6 million request for this 
fund includes only $7.5 million for the traditional Section 6 state 
grants program. We encourage your committee to support the Section 6 
grant program at $24.9 million so that 19 western states can 
participate in proactive, multi-state partnerships through efforts, 
such as State Conservation Agreements, Safe Harbor Agreements and 
Candidate Conservation Agreements.
    One specific project that requires additional resources is the 
Black-tailed Prairie Dog Conservation Agreement. This 4-year-old 
partnership involves 11 western states and each state is developing its 
own management plan to address prairie dog issues at the state and 
local level. However, the partnership needs $7.4 million in fiscal 2004 
so that each state can finalize its management plan and to let all 
partners establish an incentives program for private landowners. The 
High Plains Partnership is another effort that is proactively 
addressing the population declines of multiple animals dependant upon 
short and mixed grasslands (e.g., sage grouse, Cassin's sparrow and 
prairie chickens). At least $10 million is needed to insure that the 
Federal, State and private partners can restore grasslands and 
associated wildlife species throughout the Great Plains and can enhance 
the productivity of private land operations throughout the region.

                       MIGRATORY BIRD MANAGEMENT

    The North American Bird Conservation Initiative (NABCI) is an 
international effort between Canada, the United States, and Mexico to 
deliver bird conservation through regionally based, biologically 
driven, landscape-oriented partnerships. To date, there has been no 
authorization to provide the necessary staff to coordinate the program 
within the United States. Needed are a National Coordinator, a Database 
Manager, and 6 Regional All-bird Coordinators (Northeast, Midwest, 
Southeast, Alaska, Southwest, Northwest). We believe these positions 
should be funded through the Service's Migratory Bird Management 
Division, but we recommend the FWS director be authorized to enter into 
contracts with State wildlife agencies or non-governmental 
organizations to fill these important positions. We recommend an 
increase of $1.2 million in the Administration(s budget request for the 
Migratory Bird Management program to fund these 8 positions critical to 
NABCI. We also recommend that these positions be funded with new money 
opposed to shifting funds from other existing fish and wildlife 
programs.
    Also, NABCI partners met in February 2003 to identify priorities 
for fiscal 2004 and beyond and recognized the Neotropical Migratory 
Bird Conservation program as one of its top priorities. This program is 
authorized for $5 million but the Administration requested only $3 
million. WMI seeks your support for a $5 million appropriation to this 
account.

                        LAND ACQUISITION PROGRAM

    In fiscal 2002, the FWS received $99.1 million to acquire 
ecologically valuable and sensitive lands from willing landowners. For 
fiscal 2004, however, the Administration requested only $40.7 million 
so that the FWS can invest more time and fiscal resources on presently 
owned lands. Although we support the Administration's decision to 
improve the management of existing federal lands, we caution your 
subcommittee against a drastic cut in this program. Over the course of 
one year, opportunities to protect critically important habitat for 
wildlife may be lost forever, which in turn would further limit the 
Service's ability to remove fish and wildlife from the threatened/
endangered species list and to prevent the listing of other animals.

                        INVASIVE SPECIES PROGRAM

    Although the Administration has requested $2.1 million to combat 
the spread of non-native, invasive species in National Wildlife 
Refuges, the FWS does not have a comprehensive plan for controlling and 
eradicating invasives. Thus, WMI requests the appropriation of an 
additional $10 million so that the agency can strategically incorporate 
invasive species management activities into other conservation 
programs.
    In summary, we appreciate the Administration's $9 million boost for 
Fish and Wildlife Service programs during such a difficult time for our 
nation. Productive landscapes that host a diversity of wildlife and 
fish offer all Americans a peaceful playground in which they can 
connect to their local environment via fishing, hunting, wildlife 
watching and photography and other recreational pursuits. But many 
national conservation needs remain unmet, and WMI encourages you to 
consider and act upon our above spending recommendations.
    Thank you for reviewing our comments, and we look forward to 
working with you throughout the appropriations process. If you or your 
staff would like to discuss our recommendations further, please contact 
me or Terry Riley, Director of Conservation, at (202) 371-1808.

                                 ______
                                 
               Letter From the Wyoming Water Association
                         Wyoming Water Association,
                                   Water is Wyoming's Gold!
                                        Cheyenne, WY, June 3, 2003.
Hon. Conrad Burns, Chairman
Hon. Robert C. Byrd, Ranking Minority Member
Subcommittee on Interior and Related Agencies, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Dear Chairman Burns and Senator Byrd: The Wyoming Water Association 
sends this letter to request your support and assistance in insuring 
continued funding for the Recovery Implementation Program for 
Endangered Fish Species in the Upper Colorado River Basin (Upper 
Colorado River Endangered Fish Recovery Program) and the San Juan River 
Basin Recovery Implementation Program. The objectives of the Wyoming 
Water Association are to promote the development, conservation, and 
utilization of the water resources of Wyoming for the benefit of 
Wyoming people. Since 1932, the Wyoming Water Association has served 
the interests of Wyoming's water users. With changing and growing 
demands on Wyoming's limited water resources, complicated by an 
increasingly complex overlay of federal laws and regulations, 
management and development challenges and conflicts continue to become 
more numerous. The Association maintains an active role in supporting 
the State of Wyoming's efforts to put Wyoming water to use for 
Wyoming's citizens.
    The members of our Association supports the continuation of these 
two cooperative programs involving the States of Colorado, New Mexico, 
Utah and Wyoming, Indian tribes, federal agencies and water, power and 
environmental interests are ongoing in the Upper Colorado River Basin 
and have as their objective recovering four species of endangered fish 
while water development proceeds in compliance with the Endangered 
Species Act of 1973, state law, and interstate compacts. The Wyoming 
Water Association respectfully requests support and action by the 
Subcommittee that will provide the following:
    1. The continued allocation of $700,000 in ``recovery'' funds 
appropriated to the U.S. Fish and Wildlife Service (FWS) for fiscal 
year 2004 to allow FWS's Region 6 to meet its funding commitment to the 
Upper Colorado River Endangered Fish Recovery Program. This is the same 
amount appropriated in fiscal years 2002 and 2003 for this program. 
Funding will be used for FWS' program and data management costs, 
estimating the abundance of fish populations, evaluating stocking and 
monitoring fish and habitat response to recovery actions.
    2. The allocation of $444,000 in appropriated base operation and 
maintenance funds (``Fisheries Activity; Hatchery O&M Subactivity'') to 
support the current operation of the FWS' Ouray National Fish Hatchery 
in Utah for fiscal year 2004.
    3. The allocation of $165,000 in ``recovery'' funds for the San 
Juan River Basin Recovery Implementation Program to the FWS for fiscal 
year 2004 to meet FWS's Region 2 expenses associated with program 
management and implementing the San Juan Program's actions.
    The enactment of Public Law 106-392, as amended by Public Law 107-
375, authorized the Federal Government to provide up to $46 Million of 
cost sharing for these two ongoing recovery programs' remaining capital 
construction projects. Additional hatchery facilities to produce 
endangered fish for stocking, restoring floodplain habitat and fish 
passage, regulating and supplying instream habitat flows, installing 
diversion canal screens to prevent fish entrapment and controlling 
nonnative fish populations are key components of the capital 
construction efforts. The four participating states are contributing 
$17 Million and $17 Million is being contributed from revenues derived 
from the sale of Colorado River Storage Project (CRSP) hydroelectric 
power. Subsection 3(c) of Public Law 106-392 authorizes the Secretary 
of the Interior to accept up to $17 Million of contributed funds from 
Colorado, Wyoming, Utah and New Mexico, and to expend such contributed 
funds as if appropriated for that purpose. The Wyoming Water 
Association has for a number of years adopted a resolution supporting 
the appropriation of federal and state funds to carry out the purposes 
of these programs.
    The above line item funding requests for the FWS are supported by 
the State of Wyoming and each of the participating States engaged in 
these effective partnership programs. The requested federal 
appropriations are critically important and will be used in concert 
with other federal and non-federal cost-sharing funding. The support of 
your Subcommittee in past years is gratefully acknowledged and 
appreciated, and has been a major factor in the success of these multi-
state, multi-agency programs in progressing towards endangered fish 
species recovery in the Upper Colorado and San Juan River Basins while 
necessary water use and development activities are occurring. We again 
request the Subcommittee's assistance to ensure that the FWS is 
provided with adequate funding for these vitally important programs.
            Sincerely,
                                           John W. Shields,
                                               Executive Secretary.
                                 ______
                                 
  Prepared Statement of Bear Trust International; Boone and Crockett 
   Club; Bowhunting Preservation Alliance; Buckmasters American Deer 
    Foundation; Campfire Club of America; Congressional Sportsmen's 
  Foundation; Conservation Force; Foundation for North American Wild 
   Sheep; Houston Safari Club; International Association of Fish and 
     Wildlife Agencies; Izaak Walton League of America; Mule Deer 
   Foundation; National Rifle Association; National Shooting Sports 
Foundation; National Trappers Association; Pope and Young Club; Quality 
  Deer Management Association; Rocky Mountain Elk Foundation; Ruffed 
     Grouse Society; Safari Club International; Shikar Safari Club 
International; The Wildlife Society; Wildlife Management Institute; and 
                       Whitetails Unlimited, Inc.

    We urge you to include adequate funding in the fiscal year 2004 
federal budget to fully implement the National Plan to Assist States, 
Federal Agencies and Tribes in Managing Chronic Wasting Disease in 
Captive and Free Ranging Cervids. We specifically ask your subcommittee 
to appropriate $7.75 million for agency programs within Department of 
the Interior and, further, $20.46 million for non-matching state and 
tribal grants to be administered either through USDA-Animal and Plant 
Health Inspection Service (APHIS) or the U.S. Fish and Wildlife Service 
(USFWS).
    Chronic Wasting Disease (CWD) is always fatal for deer and elk. It 
has been found in either captive or free-ranging wildlife in 12 states 
and 2 Canadian provinces. Left unmanaged, this disease has the 
potential to devastate local deer and elk populations. Moreover, 
improper management of CWD will stimulate a major economic loss for 
state agencies and private businesses that rely on hunting and wildlife 
associated tourism for their livelihood. According to the USFWS's 2001 
National Survey of Fishing, Hunting, and Wildlife-Associated 
Recreation, 10.9 million sportsmen and women spent 153 million days 
hunting big game in 2001. Collectively, they spent $10.1 billion to 
purchase necessary equipment and to cover trip-related costs. And 
within Colorado, the Division of Wildlife estimated that deer and elk 
hunters generated $599 million for the state's economy in 2001. 
Furthermore, the Division collected $44 million through deer and elk 
license sales, which represented 54 percent of the agency's $81.9 
million budget for 2001.
    In May 2002, the House Resources Subcommittees on Forests and 
Forest Health and Fisheries Conservation, Wildlife and Oceans held a 
joint oversight hearing on the CWD crisis. Invited witnesses were asked 
to provide suggestions as to how Congress and the federal government 
could most effectively assist states in the fight against CWD. 
Resultantly, the U.S. Department of Agriculture (USDA) and U.S. 
Department of the Interior (DOI) were directed to prepare a national 
plan to address CWD.
    A national CWD task force was quickly formed to ensure that federal 
and state agencies cooperated in the development and implementation of 
an effective national CWD strategy and program. Membership for the task 
force, and its associated working groups, totaled 75 professionals who 
were knowledgeable in wildlife health, wildlife management, wildlife 
biology and livestock health and represented a myriad of state and 
federal wildlife management and animal health agencies, as well as 
universities.
    On June 26, 2002 the task force released the National Plan to 
Assist States, Federal Agencies and Tribes in Managing Chronic Wasting 
Disease in Captive and Free Ranging Cervids, also known as the National 
CWD Plan. This plan represents the most current scientific knowledge on 
CWD, and delineates a strategy to identify the extent of the disease 
and management actions necessary to limit its spread. An Implementation 
Document was then developed to identify who will be responsible for 
individual projects, how these projects will help control CWD, how much 
money is necessary to implement the projects, and when each project 
should be completed. The Implementation Document, dated October 16, 
2002, was provided to Bobby Acord, Director of APHIS, and Steve 
Williams, Director of the U. S. Fish and Wildlife Service. It is our 
understanding that the document has since been provided to the Office 
of Management and Budget for review and analysis. Both documents are 
available at http://www.cwd-info.org/index.php/fuseaction/
policy.policy.
    According to the National CWD Plan, the primary federal role will 
be to provide coordination and assistance with research, surveillance, 
disease management, diagnostic testing, technology, communications, 
information dissemination, education and funding for state CWD 
programs. Federal agencies will provide tools and financial assistance 
to states and help develop consensus-based approaches to CWD control.
    The federal funding requirements identified in the Implementation 
Document total $108 million over a three year period. It is important 
to recognize that not all CWD funding has been or will be federal 
dollars. For example, it is estimated that the states of Colorado, 
Nebraska, and Wisconsin expended $3.6 million to combat CWD during 
2002. In Colorado, a portion of that money was used to cull 
approximately 450 mule deer and 200 elk, further evidence of the 
mounting need to protect the viability of wild and captive cervid 
populations.
    We are concerned that the collaborative science-based 
recommendations in the National CWD Plan and its associated 
Implementation Document have not been given due consideration during 
the development of the fiscal year 2004 budget. The Implementation 
Document recommends $13.6 million for USDA, $7.75 million for DOI and 
$20.46 million for state and tribal grants during the first year. 
However, the Administration only requested $14 million for USDA, of 
which only $7 million is for Plan activities. Moreover, DOI would 
receive $2.4 million under the Administration's request, less than half 
of what the Implementation Document's authors recommended, and the 
states would receive nothing. We believe this spending request is 
woefully inadequate to effectively implement the National CWD Plan.
    In summary, we urge you to include in the fiscal year 2004 federal 
budget the funding necessary to fully implement year one of the 
National CWD Plan. Both the DOI and the USDA Agriculture have been 
assisting states and tribes to the extent that their budgets permit; 
however, significant additional funding is needed to implement the 
actions and programs outlined in the National CWD Plan and its 
associated Implementation Document. Since the management of resident 
wildlife is the responsibility of the appropriate state wildlife 
agency, in addition to funding the CWD activities of both the DOI and 
USDA, the federal budget appropriation must provide funding that will 
be passed on to the states through a grant program that requires no 
match. The states have already spent millions of dollars on this issue 
and need federal funding assistance to continue the battle.
    Thank you for reviewing our comments, and we look forward to 
working with you on this important issue throughout the appropriations 
process.
                                 ______
                                 
   Prepared Statement of the African Wildlife Foundation, The Nature 
    Conservancy, American Zoo and Aquarium Association, Safari Club 
 International, The Wildlife Conservation Society, American Veterinary 
     Medical Association, World Wildlife Fund, International Rhino 
 Foundation, International Elephant Foundation, WildAid, Conservation 
  International, National Wildlife Federation, The Fund for Animals, 
Sierra Club, The Humane Society of the United States, National Audobon 
Society, Dian Fossey Gorilla Fund International, Defenders of Wildlife, 
 Wildlife Management Institute, Jane Goodall Institute, International 
         Fund for Animal Welfare, and American Bird Conservancy

    We are writing as a coalition of conservationists, zoos, circuses, 
sportsmen, veterinarians, and animal protection groups to request your 
support of the Multinational Species Conservation Fund. This Fund has 
made an important contribution to the survival of wild tigers, 
elephants, rhinos, great apes, and neotropical migratory birds. Last 
year, Congress demonstrated its continued commitment to the Fund by 
increasing the appropriation to $4.8 million for the four mammal 
programs and $3 million for migratory birds. We ask for fiscal year 
2004 that you again support these successful programs by appropriating 
$2 million each for the Asian Elephant, African Elephant, and Great 
Apes Conservation Funds, $3 million for the combined Rhinoceros and 
Tiger Conservation Fund, and $5 million for the Neotropical Migratory 
Bird Conservation Fund.
    There have been significant improvements in the status of elephants 
and white rhinos in parts of southern Africa, rhinos in Nepal, and 
tigers in Russia as a result of grants from the Multinational Species 
Conservation Fund. The remaining 300 Sumatran rhinos and 60 Javan 
rhinos would not have survived without the Rhino Protection Units 
supported by the Fund. Black rhinos, whose numbers plummeted from 
70,000 in 1970 to 2,500 in 1993 are now recovering in many parts of 
Africa to a current total of about 3,100. These successes show that a 
species can survive if sufficient and reliable resources are provided 
for anti-poaching, habitat protection, disease control, public 
education, and measures to increase compatibility with humans.
    There are still many unfulfilled needs, particularly in India and 
Indonesia where burgeoning human populations have fractured habitat and 
isolated tiger, rhino and elephant populations. Great apes in the Congo 
Basin and in Indonesia continue to struggle for survival against 
disease, habitat reduction, and an increasingly commercialized trade in 
bush meat. Elephants, rhinos and tigers face challenges from poaching 
for ivory, horn, and body parts. Neotropical migratory bird populations 
that migrate from the United States to wintering grounds in the 
Caribbean and South America continue to suffer from environmental 
contaminants and loss of habitat. Many of the countries where these 
species are found cannot muster the resources to meet the needs of both 
people and wildlife. Continued support will be needed from the Fund to 
ensure the future of these species.
    The Multinational Species Conservation Fund has been especially 
effective in encouraging local and international matching contributions 
from governments and private organizations. The program's $23 million 
in grants over the past twelve years has leveraged almost $100 million 
in additional funding, including $14 million alone during the first 
year of neotropical migratory bird grants. The Fund benefits mammals 
and birds that are cherished by millions of Americans who visit zoos, 
watch birds, or adopt them as symbols of athletic prowess, corporate 
strength or political power. Continued support by the United States 
will conserve these highly threatened species, create a positive image 
for America in Asia, Africa and Latin America, and encourage public-
private partnerships throughout the world. We urge you to support 
increased appropriations for the Multinational Species Conservation 
Fund and the Neotropical Migratory Bird Conservation Fund in fiscal 
year 2004.
                                 ______
                                 
Prepared Statement of the American Association of Museums, the Society 
  for Historical Archaeology, and the Society for American Archaeology

    Mr. Chairman and members of the Subcommittee: I am Jason Hall, 
Director of Government and Public Affairs for the American Association 
of Museums, presenting written testimony on behalf of a consortium 
consisting of the American Association of Museums, the Society for 
American Archaeology, and the Society for Historical Archaeology.
    As you know, Section 10 of the Native American Graves Protection 
and Repatriation Act (Public Law 101-601--``NAGPRA'') authorizes the 
Secretary of the Interior to ``make grants to Indian tribes and native 
Hawaiian organizations for the purpose of assisting such tribes and 
organizations in the repatriation of native American cultural items'' 
and to ``make grants to museums for the purpose of assisting the 
museums in conducting the inventories and identification required under 
sections 5 and 6.'' While we appreciate the Congress and the President 
agreed in the Interior bill to provide funding of approximately $2.5 
million for fiscal year 2003 to allow the statutorily-mandated 
repatriation process to proceed, we respectfully urge Congress to 
increase the appropriation to at least $5 million for fiscal year 2004. 
We present the following reasons in support of this request.
    As you are aware, NAGPRA is remedial legislation. Congress enacted 
the law in 1990 in large part to assure that Native American remains 
and funerary and other objects retained by the federal government and 
museum community are returned under the law to appropriate tribes and 
organizations for reburial or other appropriate treatment. As remedial 
legislation, NAGPRA will not remedy the problem Congress sought to 
resolve unless adequate dollars are appropriated so that tribes and 
museums can complete the repatriation process--which is now under way 
but which necessarily proceeds slowly in many cases because of 
essential museum-tribe consultation and other factors. Repatriation is 
a high priority of the museum and tribal communities, which do not have 
adequate funds to do the necessary work required by NAGPRA.
    Since repatriation is the subject of federal legislation as well as 
regulations and administrative guidelines, the U.S. government has a 
trust responsibility to Indian tribes and their members in the area of 
repatriation. This trust responsibility imposes strict, binding 
fiduciary standards on the conduct of executive agencies, here the 
National Park Service and the Department of the Interior, in its 
treatment of tribes in repatriation matters. Adequate funding for 
tribes, museums and universities is necessary to carry out the 
statutory mandates of Congress.
    At the same time, it is clear that the communities and sovereign 
Indian tribes represented by the consortium have been called upon to 
take a much increased role in implementing Public Law 101-601 in the 
past several years, as the mandated summaries and inventories of museum 
holdings were largely completed by museums and sent to the tribes in 
mid-November, 1993, and mid-November, 1995, respectively. Activity has 
intensified immensely in recent years and will continue to do so as the 
number of actual repatriations continues to increase. The consortium's 
testimony provides information on how the requirements of the law are 
creating significant costs for our communities and seeks your support 
for funding for the grant program authorized in the law, so that we can 
continue to comply with it in a timely and responsible way.
    Let me start by addressing in generic terms the needs of the museum 
community. In order to comply with Public Law 101-601, museums have to 
engage in activities falling into four categories: (1) preparation of 
inventories, in the case of human remains and associated funerary 
object, and written summaries, in the case of unassociated funerary 
objects, sacred objects and cultural patrimony; (2) notification and 
consultation with Native American groups and visitation by those groups 
to museum collections; (3) research to identify cultural affiliation of 
human remains and objects; and (4) repatriation.
    To prepare the inventories of human remains and funerary objects 
which were due by November 16, 1995, museums have needed to: physically 
locate every item within the museum's storerooms; locate and review 
existing records to compile information necessary to determine whether 
a funerary object is ``associated'' or not, and to determine the 
cultural affiliation of the objects; catalog any remains ad objects 
that are not catalogued; document (e.g., measure and photograph) and 
analyze the human remains and funerary objects; and compile an 
inventory of human remains and funerary objects containing the 
information required under Public Law 101-601, including cultural 
affiliation. The delay in promulgation of the final regulations, and 
the late start and low level of grant funding for repatriation grants 
to the tribes and museums, have slowed the process such that a 
significant number of museums were not able to prepare inventories by 
the November 16, 1995 deadline, despite timely and continuing good 
faith efforts, and had to appeal for extensions.
    With respect to unassociated funerary objects, sacred objects and 
objects of cultural patrimony, museums were required to and did, 
prepare a written summary by November 16, 1993 rather than an itemized 
inventory of their collections. Nevertheless, many museums needed to 
undertake many tasks similar to those noted above in order to collect 
the required information. Throughout all of this, museums have needed 
to consult with native American tribes which might have an interest in 
the objects. The time and funds spent on consultation with Native 
American peoples varies according to the physical proximity of the 
museum to the particular group.
    Once the inventory and written summary are complete, the museum 
must identify the tribal representatives authorized to accept 
repatriable objects and formally notify those representatives. Tribal 
representatives must travel to the museums to examine the objects and 
consult with the museum. Remains and artifacts must be packed and 
shipped to the appropriate Native American group. During this process, 
disagreements may arise as to the disposition of items covered by 
Public Law 101-601, and these issues must be resolved.
    Let me turn to some specific cases. On December 6, 1995, the Senate 
Committee on Indian Affairs held an oversight hearing on the 
implementation of NAGPRA. Final NAGPRA regulations, with some sections 
still incomplete, were published two days prior to the hearing. Two 
years later, the Interior Department published an interim rule on one 
of those incomplete sections, the civil penalties section. But as of 
April 2001, there have been no final regulations issued on the three 
remaining sections (future applicability, culturally unidentifiable 
remains, and unclaimed items from Federal or tribal lands.)
    Representatives from the National Park Service, the NAGPRA Review 
Committee, three affected tribes, and a witness representing both the 
American Association of Museums and an affected museum, testified about 
compliance with the law. NPS witness Katherine Stevenson noted that the 
NPS had made 83 NAGPRA grant awards totaling $4.37 million since the 
beginning of the program, but that over that time, they had received 
337 grant proposal requests totaling nearly $30 million, and she 
conceded that the Interior Department's $2.3 million request for fiscal 
year 1996 did not meet the valid needs demonstrated in the grant 
applications from museums and the tribes. Since that 1995 testimony, 
the situation has remained much the same in terms of funding needs. As 
of April 2002, the NPS has been able to make 351 NAGPRA grant awards 
totaling approximately $21.3 million since the beginning of the 
program, but during that time, it has received well over 770 grant 
proposals totaling more than $52 million, and funding has essentially 
been flat at $2.3 million, and more recently $2.5 million annually. The 
$2.5 million appropriation continues to fall short of valid needs.
    The witness representing museums in 1995, William Moynihan, 
President of the Milwaukee Public Museum, testified about the effort of 
his museum to comply with the law. He noted that the ``Milwaukee Public 
Museum will have committed well in excess of half a million dollars by 
1997 to deal with the legislation. Existing staff in our Anthropology/
History Section have been reallocated from their normal duties to 
NAGPRA-related activities, a large team of volunteers assembled, and 
trained student interns and work-study students hired.'' He noted that 
the Museum has been collecting anthropological and archaeological 
materials for over 100 years, that included in the holdings are the 
remains of 1,500 individuals, and that the collections are not 
computerized. Despite these difficulties, the museum had completed a 
physical inventory of over 22,000 Native American ethnographic objects, 
and a preliminary inventory of 50,000 archaeological objects; sent 
summaries to 572 tribes and native Alaskan and Hawaiian groups; 
followed up with hundreds of calls to tribes; and taken a variety of 
other actions to comply with the law.
    On a broader scale, we have results from the American Association 
of Museums' 1994 repatriation survey of 500 of its member institutions, 
including all of its natural history museums and a selected sample of 
its art and history museums. The survey response rate was 43.6 percent. 
Of those responding, 76 percent of the natural history museums, 43 
percent of the history museums and 23 percent of the art museums had 
Native American objects. Those respondents--a little more than 200--
alone had almost 3.5 million objects which fell into NAGPRA categories, 
and that does not include 15 responding natural history museums, 
including 3 large institutions, which could not give an estimate of 
their NAGPRA- related holdings. An overwhelming number of these 
institutions noted how lack of final regulations and of NAGPRA grant 
funding had hindered or prevented their repatriation efforts.
    Estimating aggregate costs is not possible from the survey data, 
given the great disparities in how institutions calculated their own 
costs. It is clear, however, that thousands of institutions across the 
country are affected to some degree by NAGPRA costs.
    The Native American community is also incurring major expenses in 
attempting to comply with the requirements and deadlines of NAGPRA. As 
you know, the repatriation process involves sacred items and, most 
importantly, human remains, not just artifacts. In this light we must 
approach the funding issues related to the Act. A 1994 repatriation 
survey done by the National Congress of American Indians indicated that 
some tribes had received hundreds of NAGPRA summaries from museums, and 
that the need for outside funding to hire experts to help them analyze 
these materials and subsequent NAGPRA inventory materials is virtually 
universal. From the dozens of responses to the survey, it is apparent 
that most tribes do not have the capacity to comply with the Act. For 
example, the Shingle Springs Rancheria/Miwok/Maidu tribe reported, 
``Our tribe has been well versed in the purpose and intent of NAGPRA. 
The response from museums--the sending out of surveys to the tribes at 
the November 1993 deadline--has been astounding. We have received over 
100 notices. However, we cannot respond or take advantage because of 
lack of funds.'' This tribe estimated its financial needs at 
approximately $35,830. And at the December 1995 Senate oversight 
hearing, Cecil Antone of the Gila River Indian Community noted that the 
Community had received over 150 letters from various museums and 
federal agencies about the disposition of NAGPRA-related collections. 
The needs of the tribes vary depending on the number of responses they 
have received, their present and future ability to comply with the Act, 
and what, if any, experience their tribe has had with projects of this 
sort. In fact, tribal responses estimating funding needs ranged from 
``unknown'' to ``very much'' to ``$2 million.''
    In October 1990, the Congressional Budget Office estimated NAGPRA 
implementation costs to museums of $40 million and to tribes and native 
Hawaiian organizations of $5-10 million over 5 years, assuming that 
museums and federal agencies hold between 100,000 and 200,000 Native 
American remains and that the cost to inventory and review each remain 
would be $50-150. Those estimates now appear to be very low in light of 
our experience since that time. As a result, viable tribal and museum 
request for grants continue to exceed available funds by a large 
margin. In addition, museums cannot repatriate to the tribes until 
appropriate notices go into the Federal Register, and there is 
currently a backlog of about 150 such notices at the NPS, about a 
year's worth, due to lack of staff to process them.
    In closing, let me add that while the museums and tribes must have 
this grant program funded simply to comply with the requirements of 
NAGPRA, it is also true that the grant program will accomplish far more 
than compliance. Museums and tribes have discovered that the exchange 
of data required under NAGPRA is yielding new information that helps us 
all. In the process of identifying sensitive cultural items, museums 
are learning much more about their entire collections. Delegations of 
elders and religious leaders have supplied valuable new insights about 
many objects in the repositories they have visited, and in turn they 
are discovering items of immense interest to their own tribes, the 
existence of which had been unknown in recent generations. Few items in 
these categories are being sought for repatriation; it is simply that 
access to the collections has led to much better mutual understanding 
and exchange of knowledge. While the repatriation process will 
eventually end as the transfer of materials is completed, the long-term 
relationship created between museums and tribes will continue.
    Thus, this funding will not just support expenses mandated by law. 
It is also an excellent investment that serves the public interest 
now--and will continue to pay dividends in the future--through more 
accurate and respectful exhibits and education programs that are the 
fruits of long-term collaborations.
    Finally, we respectfully urge you to keep in mind that we are 
talking in large part about the reburial of the remains of human 
beings, and that under a reasonable and dignified standard, such 
repatriation and reburial should occur with all due haste. Certainly 
the United States government has acted urgently with due regard to 
repatriation of remains of American soldiers killed in foreign wars or 
missing in action. Native American repatriation and reburial should be 
treated with the same priority and dignity.
    The consortium appreciates this opportunity to testify on this 
issue.
                                 ______
                                 
         Prepared Statement of the Americans for National Parks

    Americans for National Parks (ANP) is pleased to share its views 
regarding the programs in the Department of Interior's budget that 
affect national park resources and requests that this statement be 
included in the hearing record for the fiscal year 2004 Interior and 
Related Agencies appropriations bill. We appreciate the opportunity to 
share our priorities for funding and we respectfully request that the 
Committee consider these views as the fiscal year 2004 budget is 
shaped. ANP requests an increase of $178 million over the current 
fiscal year 2003 spending levels, $102 million above the president's 
request, for a total of $1,633,351,000 in fiscal year 2004 for the 
operation of the National Park System.
    ANP is a growing coalition of people who care deeply about these 
awe-inspiring places. Today, we have more than 325 members, including 
chambers of commerce, nonprofit organizations, private businesses, 
government municipalities, and tourism and trade associations, working 
together to encourage Congress and the administration to address the 
critical needs of the National Park System.
    At a time when our country is at war, America's national parks 
provide a priceless opportunity to reconnect with our shared history 
and culture and awe-inspiring wilderness. From the hallowed grounds of 
Gettysburg National Military Park to the peaks of Wrangell-St. Elias 
National Park and Preserve. From breathtaking landscapes, like the 
scenic badlands of Theodore Roosevelt National Park, to crown jewels 
like Mesa Verde National Park, Bandelier National Monument, and other 
sites that preserve and interpret our culture. All of our 388 national 
park sites help define us, inspire us to continue to grow as a diverse 
nation, and, especially during difficult times, offer us solace.
    Now is the time to cherish these precious places, but sadly, many 
are in dire straits. While Congress has regularly increased funding, 
the budget of the National Park Service has failed to keep pace with 
need, crippling the ability of dedicated park staff to protect native 
plants and wildlife, and the cultural and historic artifacts within the 
parks, as well as meet the needs of millions of visitors.
    Examples of the dire need can be found across the National Park 
System: At Death Valley National Park, public education activities have 
been reduced by a third. Many of Mesa Verde's 600 archaeological sites 
containing prehistoric architecture have not been visited in 40 years 
due to inadequate staffing. These sites need to be assessed, 
documented, treated, and monitored, resulting in long-term preservation 
for research, interpretation and visitor education. Twenty-one Native 
American groups have a history in Yellowstone, yet only one percent of 
the park has been surveyed for Native American sites. Through natural 
erosion, land use, and vandalism, sites are being damaged before they 
can be studied. Great Smoky Mountains National Park doesn't have 
sufficient staff and funding to maintain the park's many historic 
structures, including historic log cabins and mills. White Sands 
National Monument needs additional staff to manage its museum 
collection, so that relics, such as Mogollon pottery shards, will be 
properly preserved. Mount Rainier National Park doesn't even have a 
volcanologist or geologist on staff to monitor the park's active 
volcano!
    Research in more than 50 parks has revealed that national parks are 
operating, on average, with only two-thirds of the needed funding-and 
annual shortfall of more than $600 million. A critical first step 
toward alleviating this shortfall is an increase of $178 million, a 
reasonable and manageable amount that would better enable the National 
Park Service to fulfill its mission and preserve our national parks 
unimpaired for future generations.
    The national parks inspire all who treasure the best of our nation 
to stand up as stewards for their protection. Please support a $178-
million increase for our national parks. Because there's just too much 
to lose.
                                 ______
                                 
    Prepared Statement of Americans for Our Heritage and Recreation

                                REQUEST

  --Full funding of the Interior Appropriation's Conservation Trust 
        Fund (also known as the Conservation Spending Category) at its 
        $1.56 billion level;
  --Funding for the Land and Water Conservation Fund's stateside 
        program at no less than $200 million; and
  --Funding for the Urban Park and Recreation Recovery Program at no 
        less than $50 million.
    Americans for Our Heritage and Recreation is a broad and diverse 
organization representing more than 1,000 park and recreation 
associations, state and local elected and non-elected officials, 
conservation and wilderness proponents, the outdoor recreation and 
sporting goods industries, wildlife enthusiasts, smart growth 
champions, urban parks groups, historic preservationists, land trust 
leaders, the youth sports community, and civic groups.
    The organization works to communicate to policy makers at all 
levels of government the value of parks and recreation areas made 
possible by the Land and Water Conservation Fund and the need for 
support of these sites. AHR mobilizes this national coalition through 
its extensive grassroots communications network, employing regional and 
state leaders to coordinate an integrated public education campaign.
    AHR is committed to permanent full funding for the Land and Water 
Conservation Fund (LWCF), with an equitable allocation of funds between 
its federal and state matching grants programs. In addition, AHR 
supports a revived and substantially funded Urban Park and Recreation 
Recovery program (UPARR). We believe the Conservation Trust Fund, 
passed by Congress in 2000, is a significant short-term commitment. 
Accordingly, AHR supports full funding of this program in fiscal year 
2004 at its $1.56 billion level.
    The organization recognizes the original intent of LWCF as a long-
term investment of proceeds from sales of non-renewable resources to 
acquire land and water within our nation's national parks, forests, 
wildlife refuges, and other public lands, and to enhance recreation 
opportunities at the state and community levels. That is why AHR 
supports the use of LWCF funds for these purposes but not for programs 
outside of its legislative mandate. We also ask the Senate 
Appropriators to follow the President's lead in fiscal year 2004 by 
protecting the traditional priority of stateside LWCF funds for 
accessible public recreation enhancement.
    In asking for your leadership, we believe:
  --LWCF and UPARR are programs that return conservation and recreation 
        funds to states and local communities.--LWCF has been 
        responsible for more than 38,000 community parks that reflect 
        local concerns and needs. UPARR has been integral to a healthy 
        and safe urban community life through funding municipal parks 
        and creating urban soccer, baseball, and football fields. 
        Collectively, these resources are nationally important.
  --LWCF and UPARR encourage and promote healthy lifestyles, an area of 
        growing concern in our country.--Five chronic diseases--heart 
        disease, cancers, stroke, chronic obstructive pulmonary 
        diseases, and diabetes--account for more than two-thirds of all 
        deaths and three-fourths of the $1 trillion spent on health 
        care annually. Research is clear that aggressive health 
        promotion, especially with regard to daily physical activity, 
        can substantially alter the epidemic brought on by current 
        trends in these chronic diseases. If funded at appropriate 
        levels, LWCF and UPARR can continue to be instrumental in 
        helping local communities develop close-to-home recreation that 
        can serve as venues for physical activity.
  --LWCF and UPARR promote smart growth and livable communities.--LWCF 
        and UPARR are a means to assist intelligent, planned growth, 
        and to curb the detrimental effects of sprawl by protecting 
        lands outside the borders of the city, and making efficient and 
        attractive use of open space within it. LWCF and UPARR empower 
        states and municipalities to accomplish these objectives 
        through leverage by partnering of federal, state, and local 
        funds.
  --LWCF and UPARR are critical resources for providing recreation 
        places for America's kids.--LWCF has helped communities create 
        more than 7,000 soccer and football fields, 6,000 baseball 
        fields, and thousands of other recreation centers. UPARR 
        provides recreation centers for children in the critical 3 p.m. 
        to 6 p.m. time frame, providing learning environments where 
        children are tutored and have access to mentors.
    Parks and recreation areas funded through LWCF and UPARR are 
integral components of community life for millions of Americans 
nationwide. They provide venues for everything from hiking and biking, 
to picnicking and playing ball. They serve as places for people to 
gather, gain strength, and affirm their faith in America's core values.
    The broad range of groups that comprise AHR evinces the 
enthusiastic support for LWCF and UPARR across the country. Fully 
funding the Conservation Trust Fund, with LWCF at no less than $200 
million and UPARR at no less than $50 million, will demonstrate to the 
American people that Congress recognizes the important role these 
programs have played in ensuring that parks and recreation centers will 
always be there. This appropriation, coupled with adequate funding for 
LWCF's federal program, will advance the goal of a national system of 
American parks. The time to make this commitment is now.

                                 ______
                                 
           Prepared Statement of the American Hiking Society

    Mr. Chairman and members of the subcommittee, American Hiking 
Society represents 5,000 members and the 500,000 members of our 160 
affiliated organizations. As the national voice for America's hikers, 
American Hiking Society (AHS) promotes and protects foot trails and the 
hiking experience-and is a long time partner with the National Park 
Service (NPS), USDA Forest Service, and Bureau of Land Management 
(BLM). In order for Americans to enjoy the outdoors, we need protected 
open spaces and well-maintained trails and other recreation facilities. 
We urge you to support funding increases that will protect trails and 
recreation resources for the benefit of the nation. American Hiking 
makes the following trail and recreation funding recommendations for 
fiscal year 2004:
    National Park Service:
    --Rivers, Trails and Conservation Assistance program.--$15 million
    --National Trails System.--$11 million
    --Geographic Information System Network for National Trails.--$1.25 
            million
    USDA Forest Service:
    --Recreation Management, Heritage and Wilderness.--$320 million
    --Capital Improvement and Maintenance--Trails.--$100 million
    Bureau of Land Management:
    --Recreation Management.--$64 million
    Conservation Trust Fund.--$2.08 billion
    --Stateside Land and Water Conservation Fund (LWCF).--$200 million
    --Federal LWCF, Ice Age National Scenic Trail, National Park 
            Service.--$4 million
    --Federal LWCF, Appalachian National Scenic Trail, USDA Forest 
            Service.--$8.3 million
    --Federal LWCF, Florida National Scenic Trail, USDA Forest 
            Service.--$5 million
    --Federal LWCF, Pacific Crest National Scenic Trail, USDA Forest 
            Service.--$5 million
    --Federal LWCF, Pacific Crest National Scenic Trail, BLM.--$1 
            million
    --Urban Park and Recreation Recovery Program (UPARR).--$50 million

                     TRAILS AND RECREATION FUNDING

    Our public lands offer Americans outstanding outdoor recreation 
opportunities, especially hiking, to experience freedom and renewal 
while enjoying natural and cultural treasures. Hiking represents one of 
the fastest growing recreational activities--75 million Americans hike 
regularly or occasionally according to the Outdoor Industry 
Association's Participation Study 2001. However, many recreation 
opportunities are at risk, have deteriorated, or been lost due to 
funding shortages.
    Federal policy encouraging healthy lifestyles, promoting 
volunteerism, and backing partnerships to protect and maintain our 
public lands prompt and support funding increases for trail and 
recreation programs across the National Park Service, USDA Forest 
Service, and Bureau of Land Management. Targeted funding increases 
coupled with increased on-the-ground recreation staff, including trail 
and volunteer coordinators, is essential to providing and preserving 
hiking and other outdoor recreation opportunities nationwide.
    National Park Service.--The 17 national scenic and historic trails 
administered by the National Park Service require $11 million for 
natural and cultural resource management and protection, improving 
visitor services, and strengthening volunteer partnerships. For most of 
the national scenic and historic trails, barely one-half of their 
congressionally authorized length and resources are protected and 
available for public use. Most trail offices are understaffed, 
hindering the agencies' ability to properly administer and manage these 
trails and work effectively with other public agencies and non-profit 
volunteer partner organizations.
    In 2002, national trail volunteer organizations contributed more 
than $6.8 million in financial resources and over 662,429 volunteer 
hours with an estimated labor value of $10.6 million to the national 
scenic and historic trails (Partnership for the National Trails System 
data). Of this, the volunteer hours contributed to the 17 NPS 
administered trails represents approximately 11 percent of total 
volunteer hours contributed to the NPS. These volunteer contributions 
leverage federal funding significantly but must not be considered a 
substitute for appropriations. Many of the national scenic trails have 
made significant strides in trail maintenance and protection efforts, 
but much work remains for these trails to become the continuous 
footpaths that Congress intended. American Hiking thanks the 
subcommittee for its support of the National Trails System and urges 
you to increase funding to help complete and protect these national 
treasures. AHS endorses the specific figures submitted by the 
Partnership for the National Trails System.
    In addition, NPS requires $1.25 million to continue work on a 
Geographic Information System network for the national scenic and 
historic trails. This program, costing approximately $9.8 million over 
five years, will provide accurate information to assist the public, 
trail managers, and other stakeholders in trail protection, 
development, maintenance, interpretation, and resource management. The 
project applies state-of-the-art technology to better administer and 
protect trail resources and landscapes and facilitates interagency 
coordination of staff, data, and resources.
    The NPS' Rivers, Trails and Conservation Assistance (RTCA) program 
requires $15 million to help communities manage and protect their 
recreational and natural resources. Despite the program's successes in 
coordinating over 200 projects annually, RTCA funding has remained 
relatively stagnant during the last decade and lagged well behind the 
rate of inflation. The program's declining real budget has caused large 
cuts to staff and therefore, to projects.
    With its strong focus on partnerships, RTCA is exceptionally cost 
efficient and effective. In fiscal year 2002, RTCA helped develop more 
than 1,200 trail miles, protect more than 850 river miles, and preserve 
nearly 18,000 acres of open space. RTCA-assisted projects accomplish 
much more than conservation goals. They promote physical activity, 
encourage smart growth, minimize flood loss, provide opportunities for 
close-to-home recreation, and revitalize inner-city communities. RTCA 
has experienced a dramatic increase in requests for assistance but is 
only able to assist half of all applicants. The Administration budget 
includes a much needed $1.5 million increase, but the program needs a 
total of $15 million to put staff closer to the people they serve, to 
replace the staff they lost in years of declining real budgets, and to 
better help communities meet local conservation needs.
    USDA Forest Service.--We strongly support increased funding for two 
major Forest Service programs-Recreation Management, Heritage, and 
Wilderness and Capital Improvement and Maintenance for trails. The 
current investment in Forest Service recreation falls far below the 
level needed to support the role recreation plays in the agency and 
economy, yet the Forest Service itself highlights the growing 
importance of recreation through the continued implementation of its 
Recreation Agenda released in September 2000.
    The Forest Service estimates that recreation creates over 75 
percent of the Gross Domestic Product generated from Forest Service 
land, yet only about 10 percent of the Forest Service budget goes to 
recreation. The Forest Service requires increased funding to restore 
and maintain thousands of miles of trails; protect and preserve natural 
and cultural resources; upgrade inadequate and/or poorly maintained 
recreation facilities; reduce the maintenance backlog; augment on-the-
ground recreation staff; and more effectively utilize and support 
volunteers. Increased funding is especially crucial to the Recreation 
Agenda goals of reducing the $298 million recreation maintenance 
backlog and placing trail and volunteer coordinators and/or recreation 
planners at each national forest and for each nationally designated 
area or trail. Just as the Administration is focused on eliminating the 
maintenance backlog for the NPS, we urge Congress to appropriate funds 
to address the Forest Service and BLM maintenance backlogs.
    Despite the agency's increased emphasis on recreation, we are 
concerned that this conversation at the top is not translating to the 
ground. Very few national forests have even one full-time trails 
coordinator. Understaffing often results in volunteers performing 
essential functions instead of agency personnel. And despite the number 
of hiking and other recreation organizations that offer to volunteer to 
build and maintain trails in national forests, very few forests have a 
volunteer coordinator. Ironically, volunteer trail crews have been 
turned away because of the agency's inability to provide even minimal 
supervision or support. In 2002, more than 90,700 volunteers 
contributed three million work-hours valued at $38 million to the 
Forest Service; 70 percent of this contribution supported recreation. 
These efforts warrant an expanded commitment to trails and recreation 
funding, notably funding for recreation staff on the ground.
    The Forest Service must receive additional funding to manage 
Wilderness effectively and appropriately. With 33,000 miles of trail in 
FS Wilderness, and an estimated 12.7 million visits in 2001, increased 
funding is necessary to provide quality recreation experiences with 
minimal impact to the environment and to keep these places truly wild 
for future generations.
    Ensuring visitor safety, protecting natural resources, maintaining 
visitor access, and improving the backcountry and recreation experience 
require a greater investment in trails. The Forest Service trail 
maintenance backlog totals over $118 million. Inadequately maintained 
trails suffer from excessive erosion, trail widening, and braiding. 
Many trails are in such disrepair that they require re-construction. 
Increasing the trails budget is crucial to enable the agency to begin 
to address this significant recreational infrastructure need, including 
projects such as bridge replacement or trail relocation.
    The Forest Service administers four national scenic and historic 
trails and manages significant portions of 11 other national trails. 
Responsible administration requires the full-time attention of an 
inter-regional administrator for each trail and continual collaboration 
with other federal and state agencies and nonprofit partner 
organizations. Land acquisition by dedicated land teams is underway for 
the Florida and Pacific Crest Trails. New sections of the Continental 
Divide, Florida and Pacific Crest Trails must be constructed to fill in 
gaps in these long-distance trails.
    Bureau of Land Management.--BLM manages over 4,700 miles of 
national scenic, historic, and recreational trails as well as thousands 
of miles of multiple use trails. BLM requires increased funding to 
manage rapidly expanding recreational use while protecting natural and 
cultural resources, including the special areas managed under the 
National Landscape Conservation System. Outdoor recreation is an 
important use of these lands and management of outdoor recreation 
resources, facilities, and visitor use are important components of the 
BLM's multiple use mission, yet the agency remains severely underfunded 
and understaffed.
    BLM requires additional funding to manage existing recreation 
programs; protect resources; upgrade planning efforts, including the 
engagement of local communities; adapt to increasing visitor demands; 
and to manage off-highway vehicle usage more effectively. Recreation 
facilities are inadequate or often in poor condition, and staff 
shortages place recreational, natural, and cultural resources at risk. 
Additional staffing is especially needed to meet the management demands 
for each of the National Monuments and National Conservation Areas.
    Conservation Trust/Land and Water Conservation Fund.--AHS strongly 
supports federal Land and Water Conservation Fund (LWCF) appropriations 
for the Appalachian, Ice Age, Florida, and Pacific Crest National 
Scenic Trails. Only one of the eight national scenic trails--the 
Appalachian Trail--is nearly complete; we urge you to turn your support 
toward the remaining national scenic trails and label them as high 
priority projects under the LWCF. LWCF monies for land purchases must 
also be accompanied by adequate funding for the agencies to effectively 
manage the acquisitions process and disburse the appropriations. We 
support $200 million for the stateside LWCF program. UPARR should be 
restored at the amount of $50 million, and the Conservation Trust Fund 
should be funded at its dedicated amount of $2.08 billion in fiscal 
year 2004.
    Fee Demo.--AHS recognizes that the Recreational Fee Demo Program is 
an attempt to meet the growing needs of recreationists at a time when 
appropriations are not keeping pace with demand, yet we urge the 
Subcommittee to continue to oppose any trail and recreation 
appropriations offsets with Fee Demo revenues. American Hiking is 
committed to working with Congress and the agencies on the proper role 
and application of recreation entrance/user fees.
    On June 7, 2003, AHS will coordinate the eleventh National Trails 
Day (NTD) to raise public awareness and appreciation for trails. 
Participants will gather at more than 2,000 NTD events nationwide. 
Thank you for considering our request. AHS members and outdoorspeople 
nationwide appreciate the subcommittee's support in the past and look 
forward to continued strong support.
                                 ______
                                 
                Prepared Statement of Audubon of Florida

    Mr. Chairman and members of the Committee, on behalf of Audubon of 
Florida, a strategic alliance of the National Audubon Society, Florida 
Audubon Society and 43 chapters and 40,000 members in the State of 
Florida, thank you for the opportunity to express to your Committee our 
recommendations for fiscal year 2004 funding of specific programs and 
projects at the Department of the Interior related to the restoration 
of America's Everglades.
    The Everglades ecosystem, from the Kissimmee River Valley in the 
north through Lake Okeechobee, the Everglades, Florida Bay, the Keys, 
and the coral reefs to the south, is a unique and world-renowned eco-
region. The Everglades has been abused for more than 100 years. Its 
restoration is the most ambitious environmental challenge our nation 
has ever undertaken. Congress approved, and the State of Florida 
supports, the Comprehensive Everglades Restoration Plan (CERP) as a 
framework for changes to the Central and Southern Florida (C&SF) 
Project. CERP, along with Modified Water Deliveries and C-111 projects, 
are needed to restore, preserve, and protect the South Florida 
ecosystem, while providing for other water-related needs of the region 
consistent with restoration goals. We urge support for the following 
funding needs for fiscal year 2004:

   LAND ACQUISITION ASSISTANCE TO THE STATE OF FLORIDA--ZERO FUNDING

    The Administration has proposed to zero out this critical program 
that provides assistance to the State in purchasing lands needed for 
Everglades restoration at the worst possible time, when the State of 
Florida has run out of money for land acquisitions. The program was 
funded at $20 million in the President's request last year and needs to 
be significantly increased, not zeroed out. Now is not the time to cut 
land acquisition assistance when over 200,000 acres needed for the 
Comprehensive Everglades Restoration Plan (CERP) remain to be acquired 
at an estimated cost of approximately $2 billion and real estate prices 
are escalating dramatically. Restoration options are being foreclosed 
in South Florida as the CERP footprint is being developed, and the 
State is out of money for its land acquisition program, leaving crucial 
lands at risk. National Park Service Land Acquisition Assistance to the 
State of Florida should be funded at $20 million.

                            SCIENCE FUNDING

    We urge the Committee to fund U.S. Geological Services and NPS 
Everglades science programs at least $15 million. The National Research 
Council's December, 2002 report on Everglades science indicated that 
recent funding for the Critical Ecosystem Studies Initiative (CESI) of 
$4 million is inadequate. CESI funding should be gradually restored to 
its previous levels of $12 million. In addition to CESI, adequate 
funding should also be provided to ongoing critical Everglades studies 
regarding the sheet flow of water across the Everglades, water quality, 
the levels of mercury and other contaminants, nutrient levels, and the 
complex interaction of groundwater and surface water in South Florida. 
On-going science and research are critical to the successful use of 
adaptive assessment. Applied research that directly supports 
implementation and monitoring of project effectiveness is vital to the 
success of the CERP.

                              CERP FUNDING

    The Administration's request of $9 million for CERP implementation 
for Fish and Wildlife Service and NPS in fiscal year 2004 should be 
increased to $10 million. The functions and responsibilities of the 
recently closed Interior South Florida office were transferred to the 
Miami Office of the South Florida Ecosystem Restoration Task Force. We 
urge the Committee to provide $1 million additional funding to support 
these additional functions and responsibilities.

     MODIFIED WATERS DELIVERIES TO EVERGLADES NATIONAL PARK PROJECT

    Funding for this project, which would return critical sheetflows of 
water to Everglades National Park and Florida Bay, was cut by $300,000 
to $13 million. The Modified Water Deliveries project should be funded 
at $15 million, $2 million above the Administration's request. The 
budget must continue adequate funding for previously authorized 
programs such as this project whose performance assumptions have been 
included in the CERP. It is crucial to the successful and timely 
implementation of CERP that all components of the Modified Water 
Deliveries project be adequately funded and completed in 2005. This 
will require $15 million in fiscal year 2004 and an additional $15 
million in fiscal year 2005.

               NO CONSTRUCTION FUNDING FOR PILOT PROJECTS

    While funding for the Pilot Projects comes under the purview of the 
Energy and Water Subcommittee, we feel it is appropriate to keep the 
Interior Subcommittee apprised of the urgent need to fund these 
projects since so much of the CERP is dependent on their results. 
Congress authorized Everglades restoration with the understanding that 
there were some unanswered questions regarding the technological and 
scientific challenges facing certain aspects of Everglades restoration, 
and that the plan would have to evolve and adapt over time to answer 
those questions. Pilot projects were designed to provide the technical 
detail needed to resolve some of the uncertainties surrounding the 
Aquifer Storage and Recovery, Seepage Management, and Lake Belt storage 
components of the CERP. Construction funding of $2.5 million is needed 
to begin these pilot projects that have been delayed for several years 
due to a lack of construction funding.
    The President committed on January 9, 2002 in the Comprehensive 
Everglades Restoration Plan Assurance of Project Benefits Agreement, 
``To effectuate this agreement, the Federal party [President of the 
United States] agrees [t]o include within the President's budget 
submissions to the Congress requests for the Federal appropriations in 
the amount the President deems necessary to implement the Federal share 
of the Plan's implementation[.]'' We note that this funding was left 
out of the Administration's budget, and ask that Congress correct this 
apparent oversight in order to implement the plan with the requisite 
scientific rigor.
    We greatly appreciate this opportunity to provide the Committee 
with our views on the fiscal year 2004 Interior budget.

                                 ______
                                 
 Prepared Statement of the California Industry and Government Central 
                California Ozone Study (CCOS) Coalition

    On behalf of the California Industry and Government Central 
California Ozone Study (CCOS) Coalition, we are pleased to submit this 
statement for the record in support of our fiscal year 2004 funding 
request of $1,000,000 for CCOS as part of a Federal match for the $9.1 
million already contributed by California State and local agencies and 
the private sector. This request consists of $500,000 from the 
Department of Energy (DOE), $250,000 from the National Park Service 
(NPS), and $250,000 from the Forest Service.
    Most of central California does not attain federal health-based 
standards for ozone and particulate matter. The San Joaquin Valley is 
developing new State Implementation Plans (SIPs) for the federal ozone 
and particulate matter standards in the 2002 to 2004 timeframe. The San 
Francisco Bay Area has committed to update their ozone SIP in 2004 
based on new technical data. In addition, none of these areas attain 
the new federal 8-hour ozone standard. SIPs for the 8-hour standard 
will be due in the 2007 timeframe--and must include an evaluation of 
the impact of transported air pollution on downwind areas such as the 
Mountain Counties. Photochemical air quality modeling will be necessary 
to prepare SIPs that are approvable by the U.S. Environmental 
Protection Agency.
    The Central California Ozone Study (CCOS) is designed to enable 
central California to meet Clean Air Act requirements for ozone State 
Implementation Plans (SIPs) as well as advance fundamental science for 
use nationwide. The CCOS field measurement program was conducted during 
the summer of 2000 in conjunction with the California Regional 
PM<INF>10</INF>/PM<INF>2.5</INF> Air Quality Study (CRPAQS), a major 
study of the origin, nature, and extent of excessive levels of fine 
particles in central California. CCOS includes an ozone field study, a 
deposition study, data analysis, modeling performance evaluations, and 
a retrospective look at previous SIP modeling. The CCOS study area 
extends over central and most of northern California. The goal of the 
CCOS is to better understand the nature of the ozone problem across the 
region, providing a strong scientific foundation for preparing the next 
round of State and Federal attainment plans. The study includes six 
main components:
  --Developed the design of the field study
  --Conducted an intensive field monitoring study from June 1 to 
        September 30, 2000
  --Developing an emission inventory to support modeling
  --Developing and evaluating a photochemical model for the region
  --Designing and conducting a deposition field study
  --Evaluating emission control strategies for upcoming ozone 
        attainment plans
    The CCOS is directed by Policy and Technical Committees consisting 
of representatives from Federal, State and local governments, as well 
as private industry. These committees, which managed the San Joaquin 
Valley Ozone Study and are currently managing the California Regional 
Particulate Air Quality Study, are landmark examples of collaborative 
environmental management. The proven methods and established teamwork 
provide a solid foundation for CCOS. The sponsors of CCOS, representing 
state, local government and industry, have contributed approximately 
$9.1 million for the field study. The federal government has 
contributed $3,730,000 to support some data analysis and modeling. In 
addition, CCOS sponsors are providing $2 million of in-kind support. 
The Policy Committee is seeking federal co-funding of an additional 
$6.25 million to complete the remaining data analysis and modeling and 
for a future deposition study. California is an ideal natural 
laboratory for studies that address these issues, given the scale and 
diversity of the various ground surfaces in the region (crops, 
woodlands, forests, urban and suburban areas).
    There also exists a need to address national data gaps, and 
California should not bear the entire cost of addressing these gaps. 
National data gaps include issues relating to the integration of 
particulate matter and ozone control strategies. The CCOS field study 
took place concurrently with the California Regional Particulate Matter 
Study--previously jointly funded through Federal, State, local and 
private sector funds. Thus, CCOS was timed to enable leveraging the 
efforts of the particulate matter study. Some equipment and personnel 
served dual functions to reduce the net cost. From a technical 
standpoint, carrying out both studies concurrently was a unique 
opportunity to address the integration of particulate matter and ozone 
control efforts. CCOS was cost-effective since it builds on other 
successful efforts including the 1990 San Joaquin Valley Ozone Study. 
Federal assistance is needed to address these issues effectively.
    For fiscal year 2004, our Coalition is seeking funding of $500,000 
from the Department of Energy (DOE) Fossil Program.--The California 
Energy Commission is a key participant, having contributed $3 million. 
Consistent with the memorandum of understanding between the California 
Energy Commission and the DOE, joint participation in the CCOS will 
result in: 1) enhanced public interest in programs on energy research, 
development, and demonstration; 2) increased competitiveness and 
economic prosperity in the United States; and 3) further protection of 
the environment through the efficient production, distribution, and use 
of energy.
    The CCOS program coincides with DOE's initiative to develop the 
Federal Government's oil technology program. In fact, the oil industry 
in California has been working for several years with DOE to identify 
innovative partnerships and programs that address how changes in those 
sectors can cost-effectively reduce particulate matter and ozone-
related emissions. This approach will likely result in new ideas for 
technologies to improve oil recovery technologies, as well as improve 
environmental protection in oil production and processing operations. 
The overlap of CCOS and the California Regional Particulate Matter Air 
Quality Study provides a unique opportunity to perform research related 
to petroleum-based VOC and particulate matter emissions as well as 
methods to characterize these categories of emissions. The CCOS program 
is utilizing modeling, instrumentation, and measurement to obtain 
results that can be used to better understand the impact of oil and gas 
exploration and production operations on air quality. CCOS program 
results might also be applied to identify the most efficient and cost-
effective methods of reducing emissions from oil and gas operations.
    The Department of Energy has been a key participant in many 
programs with the oil and agricultural sectors. By becoming a partner 
in this program, DOE will be furthering its own goals of ``Initiatives 
for Energy Security'' by aiding domestic oil producers to enhance their 
environmental compliance while reducing their costs. DOE will also be 
building upon an established and effective partnership between state 
and local governments, industry, and institutional organizations.
    For fiscal year 2004, our Coalition is also seeking funding of 
$250,000 from the National Park Service (NPS) and $250,000 from the 
Forest Service.--The National Park Service and Forest Service conduct 
prescribed burns that contribute to both ozone and particulate matter 
pollution. Prescribed burns are needed for forest health or to reduce 
fuel loads, and must be carefully managed to minimize public health and 
visibility impacts.
    Improving the fundamental science related to emissions, 
meteorological forecasting, and air quality modeling will help in 
designing effective smoke management programs. In addition, attainment 
of air quality standards is an important goal for protecting national 
parks and forests. Ozone damage to trees and vegetation in national 
parks and forests is well documented in California and nationwide. The 
National Park Service and Forest Service are key stakeholders relying 
on the success of SIPs in achieving the emission reductions needed to 
attain air quality standards. The participants in the CCOS have been 
partners in regional study efforts addressing visibility and haze 
impacts on national parks and forests in the West. The results of this 
study will provide valuable information that will further those efforts 
on a regional basis.
    Scientists at the University of Nevada, Desert Research Institute 
(DRI) are involved with the CCOS. To expedite research studies related 
to biomass burning and smoke management for CCOS, it is requested that 
funds provided by the National Park Service and Forest Service be 
allocated directly to DRI.
    Thank you very much for your consideration of our requests.

                                 ______
                                 
        Prepared Statement of Citizens For Mojave National Park

    Mr. Chairman, the Citizens For Mojave National Park (CFMNP) would 
like to thank you for the opportunity to provide recommendations and 
comments on the fiscal year 2004 Department of the Interior and Related 
Agencies Appropriations bill. On behalf of the more than 500 members 
and supporters of CFMNP, an organization dedicated to protecting the 
natural and cultural resources of the Eastern Mojave Desert, I provide 
below our fiscal year 2004 funding recommendations for the Land and 
Water Conservation Fund projects and Conservation Trust Fund. Our top 
priorities include:
  --$450 million for Land and Water Conservation Fund federal land 
        acquisition within the Conservation Trust Fund in fiscal year 
        2004:
  --we specifically recommend $2 million for the National Park Service 
        to fund Mojave National Preserve federal LWCF projects;
  --the Conservation Trust Fund should be funded at its dedicated 
        amount of $2.08 million in fiscal year 2004.
    Adequate fund for the programs discussed below is vital to protect 
America's wild areas and environmental values, essential components of 
our American identity and our heritage. The land and our relationship 
with it infuse our history, our heroes, and our hearts. We hope to work 
with you to find the resolve and funding to protect those values that, 
like freedom itself, are a national birthright.
    The Mojave National Preserve, managed by the National Park Service, 
is a diverse ecosystem that contains sand dunes, Joshua tree forests, 
desert washes, dry lakes, and mile-high mountains. The landscape 
provides habitat to a wide variety of animals including bighorn sheep, 
cougars, mule deer, and the threatened desert tortoise. Numerous 
private inholdings exist within the National Preserve, some of which 
have proposed development by the owners in the past. As these 
inholdings become available for purchase it is essential that they be 
acquired for preservation to prevent development and critical habitat 
loss. The purchase of critical inholdings within the Mojave National 
Preserve is an ongoing project and we request funding of $2,000,000 for 
fiscal year 2004. Funding will be used to secure the most urgent 
properties first.
    In conclusion, it is important to our high desert communities that 
willing sellers have an avenue with which to sell their inholding 
properties within the Mojave National Preserve. This relatively new 
national preserve is a great tourism attraction in our county and 
brings in thousands of dollars of income to our desert communities each 
year. Please fund the Land and Water Fund with $450 million for fiscal 
year 2004 and the Conservation Trust Fund at $2.08 billion. Thank you.

                                 ______
                                 
         Prepared Statement of the Civil War Preservation Trust

    On behalf of the 43,000 members of the Civil War Preservation Trust 
(CWPT), I respectfully ask the Subcommittee's support for the $2 
million requested in President Bush's fiscal year 2004 Budget for Civil 
War battlefield preservation matching grants. The request is included 
in the Federal side of the National Park Service's land acquisition 
appropriations account financed from the Land and Water Conservation 
Fund.
    In fiscal year 1999 and fiscal year 2002, Congress allocated a 
total of $19 million for Civil War battlefield preservation matching 
grants. Most of the funding has already been put to good use, saving 
more than 10,000 acres of key endangered battlefields in 14 states. 
CWPT has met with Subcommittee Majority and Minority staff to provide 
them with specific information demonstrating these results and 
contrasting them to the costly legislative taking at the Manassas, 
Virginia, battlefield in 1988.
    However, despite these accomplishments, much more needs to be done 
if our children and grandchildren are to have the opportunity to walk 
these precious and threatened historic resources.
    For this reason, Congress late last year authorized a total of $50 
million for Civil War battlefield preservation matching grants between 
fiscal year 2004 and fiscal year 2008. The bill, which received broad 
bipartisan support, was signed into law by President Bush on December 
17, 2002 (Public Law 107-359). These Federal grants must be matched on 
a one-to-one basis by the Government's partners in state and local 
governments and the private sector.
    The grants will be administered on a competitive basis through the 
American Battlefield Protection Program, an arm of the National Park 
Service. The program will employ ranking criteria developed by the 1993 
Congressionally established Civil War Sites Advisory Commission, on 
which House Interior and Related Agencies Appropriations Subcommittee 
Chairman Charles Taylor served.
    I should also emphasize that none of the matching grants will go to 
finance Civil War Preservation Trust or other non-Federal staff or 
overhead. All the funding will be directly used to protect America's 
historic battlefields.
    The President's $2 million request will build on the success of the 
fiscal year 1999 and fiscal year 2002 funding and last year's historic 
authorization legislation. It is an excellent example of sensible, 
cost-effective public/private land conservation.
    In addition, it will complement the ``Preserve America'' initiative 
announced by the First Lady on March 3, 2003. This initiative is 
intended to bring history alive for all Americans.
    The President's fiscal year 2004 request features:
  --cooperative Federal partnerships with state and local governments 
        and the private sector;
  --acquisition of lands and interests in lands from willing sellers 
        only, outside the boundaries of National Park System units 
        (thus, not adding to the Park Service's backlog of deferred 
        maintenance);
  --highly targeted funding using matching grants and the already 
        established, Congressionally sanctioned, priority list of Civil 
        War battlefield sites recommended by the 1993 Commission (this 
        is no ``save everything everywhere program''); and
  --most importantly, the opportunity to preserve historic resources 
        that illuminate the past and tell us what it means to be 
        Americans (resources that will be gone forever over the next 5-
        10 years if we do not act now).
    Mr. Chairman, the Civil War Preservation Trust is grateful for the 
past support Congress has given to the issue of battlefield 
preservation. We look forward to working with Subcommittee Members and 
staff to ensure that the momentum of past accomplishments is maintained 
in the coming year.
    In particular, our chairman, Paul Bryant, our vice-chairman, John 
Nau (who is also the chairman of the Advisory Council on Historic 
Preservation), and I are especially appreciative of Congressional 
support of Civil War battlefield preservation, and what the previous 
appropriations and the $2 million request for fiscal year 2004 have 
meant, and will mean, for the permanent protection of hallowed ground 
throughout the nation.
    Thank you for your consideration and your attention to this matter.

                                 ______
                                 
                Prepared Statement of Friends of Acadia

    I am writing on behalf of Friends of Acadia to respectfully request 
$1,633,351,000 in operations for the National Park Service in the 
fiscal year 2004 Interior Appropriations bill. This represents an 
increase to the Park Service's operating budget by $102 million above 
the President's request and $178 million above the enacted fiscal year 
2003 level.
    Friends of Acadia is a nonprofit conservation organization located 
in Bar Harbor, Maine. The organization's mission is to preserve and 
protect the outstanding natural beauty, ecological vitality, and 
cultural distinctiveness of Acadia National Park and its surrounding 
communities. Friends has approximately 4,000 members in Maine and 32 
other states who share a common love for the park, Maine's most visited 
natural destination.
    Two years ago, a business plan was completed for Acadia under the 
national Business Planning Initiative, a program started by the 
National Parks Conservation Association in conjunction with the 
National Park Service and several private foundations. On average, 
business plans completed at national parks across the country showed a 
32 percent annual operational funding shortfall ($600 million overall). 
At Acadia, the situation was much worse--a 53 percent or $7.3 million 
annual operating funding shortfall.
    Despite the best efforts of Acadia National Park staff, these 
operating funding shortfalls limit the Park Service's ability to fully 
manage park resources and serve the three million visitors who come to 
the park each year. Some examples:
  --The park's complex, 115-mile boundary and miles of roads and trails 
        are not adequately patrolled, resulting in resource damage from 
        illegal snowmobile and all-terrain vehicle use, illegal trail 
        cutting, and poaching.
  --Acadia National Park owns or holds conservation easements on more 
        than 70 coastal Maine islands. Due to operational funding 
        shortfalls, park staff is unable to routinely monitor and 
        protect important archaeological sites on these islands.
  --A pair of Civil War-era dueling pistols and museum artifacts that 
        are centuries old sit in boxes at park headquarters, awaiting 
        cataloging and preservation with more than a million other 
        objects because there is not enough funding to do the job.
  --Over the next few years, Acadia will be restoring the natural and 
        cultural environments of the Park's campgrounds (i.e. 
        revegetate social trails, repair water and road systems, etc.), 
        yet these improvements are at risk if operational dollars are 
        not available to maintain them.
    Acadia is fortunate to have received several operating funding 
increases in recent years, and we thank you for your leadership in 
securing these crucial operating dollars. Unfortunately, however, the 
National Park Service operating budget, including Acadia, has failed to 
keep pace with the increasing demands being placed on our parks.
    Friends of Acadia recognizes that in these difficult times, there 
are many needs competing for limited funding. Our national parks, 
especially Acadia, represent an important quiet refuge for American 
citizens, and they help protect much of our natural and cultural 
heritage. We support a $178 million increase in the National Park 
Service operations over the fiscal year 2003 enacted level because we 
feel that it demonstrates long-term Congressional commitment to 
preserving the National Parks while preventing greater costs in the 
future to repair degraded national assets.
    Thank you very much for your time and consideration.

                                 ______
                                 
  Prepared Statement of Friends of Great Smoky Mountains National Park

    As you prepare the fiscal year 2004 Interior Appropriations bill, 
Friends of Great Smoky Mountains National Park respectfully requests 
your support for $1,633,351,000 in operations for the National Park 
Service, an increase to the Park Service's operating budget of $102 
million above the President's request, $178 million above the enacted 
fiscal year 2003 level.
    We thank you for your leadership and commitment to our national 
parks, and appreciate the increase of $98 million that the Committee 
provided for park operations during the fiscal year 2003 appropriations 
process. As you know, unfortunately, this funding increase was 
significantly reduced in the final fiscal year 2003 figures.
    While the National Park Service's operating budget has increased in 
recent years, it has failed to keep pace with the increasing demands 
being placed on our parks. The Park Service operating budget is 
critical to protecting park resources and providing visitor services 
for the nearly 300 million people who visit our national parks 
annually.
    These funding shortfalls are a source of significant concern for 
Great Smoky Mountains National Park, the most popular national park in 
the country. This is especially true for the park's law enforcement 
program, which experiences one of the heaviest law enforcement 
workloads in the system. The park is also impacted by rapid 
development, intense visitation, and special events conducted in 
gateway communities. Over the years, the park's ability to sustain its 
law enforcement program has steadily eroded, resulting in a 
consolidation of districts, a reduction in law enforcement supervisory 
positions, and elimination of the park's dedicated backcountry patrol 
function. Even with a more streamlined organizational structure, at 
current levels, the Division needs an additional $532,000 to sustain 
currently approved positions on a year-round basis. To make ends meet, 
the Division has had to lapse a large number of positions for sustained 
periods and will have to do so for the foreseeable future. The safety 
and well being of remaining staff--and visitors--are compromised.
    Additional funding shortfalls have been identified in other aspects 
of the park's operations--from preventative maintenance to historic 
preservation. Similar stories can be told about other units of the 
National Park System ranging from Glacier National Park in Montana to 
Theodore Roosevelt National Park in North Dakota and many more. While 
we welcome line-item appropriations to address law enforcement and 
other operating needs in the Smokies and other specific parks, we 
realize that the funding problem affects the entire park system and 
that it requires a more comprehensive solution.
    By increasing operating dollars for the National Park Service, 
Congress can take a critical step toward providing Great Smoky 
Mountains National Park and the other 387 units of the National Park 
System the funding they need and deserve. An increase of $178 million 
in the parks' operating budgets this year represents a reasonable and 
manageable amount, and it signifies a wise investment to protect these 
priceless assets. It is critical to protect our national treasures at a 
time when their values and resources are so greatly needed by the 
American public.
    We thank you again for your support for our national parks, and we 
appreciate your continuing attention to this important matter.

                                 ______
                                 
    Prepared Statement of the Grand Canyon National Park Foundation

    As you prepare the fiscal year 2004 Interior Appropriations bill, 
we respectfully request $1,633,351,000 in operations for the National 
Park Service, an increase to the Park Service's operating budget by 
$102 million above the president's request, $178 million above the 
enacted fiscal year 2003 level.
    We thank you for your leadership and commitment to our national 
parks, and appreciate the increase of $98 million the Committee 
provided for park operations in its bill during the fiscal year 2003 
appropriation process. As you know, unfortunately, this funding 
increase was significantly reduced in the final 2003 omnibus 
appropriations act.
    While the National Park Service's operating budget has increased in 
recent years, it has failed to keep pace with the increasing demands 
being placed on our national parks. The Park Service operating budget 
is critical to protecting park resources and providing visitor services 
to the nearly 300 million visitors to our national parks annually.
    In Grand Canyon National Park, the operations budget has remained 
relatively flat over recent years. A Business Plan Initiative study 
conducted for the park last summer measured $8,500,000 as its annual 
operating budgetary shortfall. This limits the park's ability to 
provide transit needs in one of the world's most popular national 
parks. It limits the park's staff ability to manage and protect the 
endangered California condor. It limits the park's ability to defend 
remote backcountry canyons from the encroachment of nonnative plants 
like the widely spreading, water hungry tamarisk. Increased operating 
dollars for the Park Service represent a critical step toward providing 
Grand Canyon National Park and the other 387 units of the National Park 
System the needed funding to survive and meet the needs of 
constituents.
    An increase of $178 million in the parks' operating budgets this 
year represents a reasonable and manageable amount, and is a small 
price to pay to protect these priceless assets. While we recognize that 
our nation is faced with many important funding needs during these 
challenging times, shortchanging the Park Service's operating budget 
now will only result in escalating costs in the future.
    Americans are unified in supporting our national parks. On behalf 
of the Grand Canyon, and all our national parks, we urge your support 
so that current and future generations will enjoy these irreplaceable 
national treasures.

                                 ______
                                 
    Prepared Statement of the International Association of Fish and 
                           Wildlife Agencies

                      NATIONAL PARK SERVICE (NPS)

Natural Resource Challenge
    The Association has previously raised serious concerns regarding 
the conduct and products of the National Resources challenge which 
National Park Service has not address to our satisfaction. Therefore, 
the Association can no longer support funding under the Natural 
Resource Challenge until the Association's concerns are adequately 
addressed. Despite repeated requests described below, to date we remain 
unable to ascertain what has actually been accomplished with the 
previous four years' expenditures in this program. We supported this 
program when it was established in fiscal year 2000 as a five-year 
effort ``to allow critical conduct of scientific inventory, 
preservation, protection and management activities, thus bringing the 
parks current data and other tools necessary to identify and address 
management needs'' by the end of fiscal year 2004. In fiscal year 2001, 
the Association continued to support the program but urged Congress 
request status reports to assess NPS' progress in meeting the original 
goals. The Association did not support funding increases requested in 
fiscal year 2002, the third year of the program, due to concerns 
regarding the conduct and lack of accountability in reaching identified 
products. The fiscal year 2002 budget stated ``there are nearly $470 
million in unfunded natural resource project needs identified in 
Resource Management Plans'' [p.41] and claimed that ``the percentage of 
the basic inventory needs completed has increased from 20 percent to 
approximately 40 percent by the end of fiscal year 2002 . . .'' [p. 
102]. Despite these statements, no accounting of the needs and products 
are provided. Thus, in fiscal year 2003 the Association refused to 
support any funding, noting it was the fourth year NPS requested 
significant increases, originally established as a five-year program. 
The NPS provided an Annual Performance Plan section in the fiscal year 
2002 budget and each year provided reports to Congress consisting of 
general overviews with few specific examples. The NPS has yet to list 
the items for which funding has been received each year and the status 
of completing the previously identified project and inventory needs.
    The fiscal year 2004 budget request is the fifth year of the five-
year program. With the requested $8.5 million increase, the fiscal year 
2004 NPS budget includes a total of $76 million for the Natural 
Resource Challenge. The Association finds that it cannot support 
funding for this program until a clear presentation of the status of 
projects is available, as repeatedly requested, along with specific 
information on the natural resource information needs. Some of the 
fiscal year 2004 budget documents state the program is ``designed to 
protect native species and habitats through resource management and 
performance measures'' and that the fiscal year 2004 ``increase will 
focus on monitoring resources.'' Specifics in the fiscal year 2004 
budget indicate the increases will be used ``to establish 25 of 32 
monitoring networks that track the vital signs of the health of the 
national parks.'' Without the requested program specifics, we interpret 
from the above that considerable increases in staffing has occurred 
rather than actual data acquisition as justified at the program's 
inception: ``critical conduct of scientific inventory, preservation, 
protection and management activities, thus bringing the parks current 
data and other tools necessary to identify and address management 
needs'' by the end of fiscal year 2004.
    The Association is also concerned that projects have been developed 
without consultation with the State fish and wildlife agencies. While 
NPS may have exclusive jurisdiction within some units of the park 
system, the state fish and wildlife agency(s) authority overlays many 
park units. Furthermore, fish and wildlife move across boundaries. 
Thus, any inventory and monitoring efforts should be fully coordinated 
with the states prior to the selection, development, design, and during 
the conduct of the projects.
    The Association urges the NPS to coordinate closely with the 
respective state fish and wildlife agencies so that programs and 
activities do not compromise State jurisdictional authorities for fish 
and resident wildlife and to facilitate the cooperative design and 
conduct of research and management programs. Collaborative efforts 
between the NPS and the state fish and wildlife agencies play a 
critical role in achieving land and resource objectives for species and 
related resources. We are aware of numerous projects that have been 
conducted without appropriate coordination with the state to use 
current research techniques or collect useful information. The 
Association further recommends that funds be made available to the 
States to maximize discretion of the States in fish and wildlife data, 
monitoring, and management needs, wherever possible, instead of 
duplicating or authorizing conflicting programs.

Cooperative Ecosystem Studies Units (CESU)
    The Association retains strong concerns about the establishment and 
continued expansion by NPS of the Cooperative Ecosystem Units and 
therefore requests that Congress direct the Secretary of the Department 
of the Interior to clearly and explicitly identify the need for CESUs 
and articulate the distinction between these entities and the Fish and 
Wildlife Cooperative Units in the BRD of USGS. It is the Association's 
conclusion that, unless such a distinction can be clearly articulated 
and the need clearly identified, Congress should ultimately transfer 
all monies budgeted for the establishment and operation of CESUs be to 
the Biological Resources Division of the USGS. NPS has used Natural 
Resource Challenge monies to create 12 CESUs located in universities 
and intends to establish 5 more in fiscal year 2004. The purpose of the 
CESUs is to coordinate and conduct resource research within and 
adjacent to the park units and to cooperate in other agencies' 
research. The BRD was created and continues to be funded to serve as 
the primary research arm for the Department of the Interior bureaus. 
This research function was solidified with the transfer of the 
Cooperative Research Units from the FWS to BRD, establishing one 
research arm to prioritize and conduct quality, credible, and 
coordinated research on resources. However, the creation of and 
continued expansion of natural resources research activities in the 
CESUs, separately established within NPS, has led to duplication of 
effort among federal and state agencies, confusion among cooperators, 
and significant expenditures of limited resources. Because Congress 
intends that BRD be the research arm of the USDI, the Association urges 
Congress to direct the Secretary to undertake the appropriate analysis 
of the need for CESUs in the NPS.

Cooperative Conservation Initiative (CCI) and Traditional Land and 
        Water Conservation Fund (LWCF) State Grants Program
    The Association supports the fiscal year 2004 funding of $12.0 
million in the Cooperative Conservation Initiative for natural resource 
protection as part of the Challenge Cost Share program. The proposed 
CCI's intended goal is ``restoration, protection and enhancement of 
natural areas.'' We urge NPS to thoroughly consult with the states, 
including the State fish and wildlife agencies, to ensure that the goal 
of the grants is appropriately addressed in dispersing this $12 
million. We similarly urge that the additional $10 million funded in 
the traditional NPS Challenge Cost Share and Public Lands Volunteers 
program be dispersed through a coordinated consultation process with 
the states.

Brucellosis
    A significant problem still exists with regard to brucellosis, 
which affects domestic livestock and other animals and is present in 
elk and bison in the Greater Yellowstone Area, located within the 
states of Wyoming, Montana and Idaho. The Association understands that 
NPS and the Fish and Wildlife Service intend again this year to 
contribute to a research program conducted by the Biological Resources 
Division of USGS to improve the vaccination program for brucellosis in 
elk and bison. This continuing need should clearly be carried as a 
budget item, rather than identified as a program that will be funded on 
an ``ability to pay'' basis by the several agencies. The Association 
strongly supports this research endeavor, but remains concerned about 
the level of cooperation with the involved states. We urge the 
commitment of these several Department of the Interior Bureaus to this 
project be affirmed in their respective budgets through some type of 
formal agreement, in full cooperation with the states involved.

                                 ______
                                 
      Prepared Statement of the Japanese American Citizens League

    On behalf of the Japanese Americans Citizens League, the nation's 
oldest and largest Asian Pacific American civil rights organization, I 
am writing to express our unqualified support for funding to continue a 
study of the Eagledale Ferry Dock site on Bainbridge Island, Washington 
(authorized under Public Law No. 107-363).
    As you may know, on March 30, 1942, a little over one month after 
Executive Order 9066 was signed, 227 men, women and children on 
Bainbridge Island were herded onto a ferry at the former Eagledale dock 
to begin their journey to internment camps. This community was the very 
first group of Japanese Americans in the United States to be forced 
from their homes to be interned. Only allowed to bring what they could 
carry or wear, they boarded the ferry ``Kehloken'' with their friends 
and neighbors watching, and said goodbye to Bainbridge Island, 
beginning a lonely journey with an unknown destination and fate.
    This tragic episode in is an important part of American history 
that must be preserved to ensure that the full and rich diversity of 
our history is represented on the public record. This site is the 
literal and symbolic starting point for the Minidoka Internment 
National Monument (ID) and the Manzanar National Historic Site (CA), 
two internment camps already designated by the National Park Service, 
and it should be preserved for future generations to learn about the 
experience of Japanese Americans during the war. Bainbridge Island is a 
short ferry ride from Seattle and the site would be within easy reach 
for those discovering or wanting to learn about this period in our 
nation's history.
    The National Park Service has already demonstrated its their 
commitment to this project by allocating initial funds of $25,000, and 
while we believe this is an excellent start, the entire study is 
estimated at $250,000. We would like to urge the committee to fully 
fund the National Park Service's budget for special resources studies 
with an addition of $150,000 for the Bainbridge Island study, above and 
beyond the $500,000 request in the NPS budget.
    The Bainbridge Island site is a tremendous opportunity to allow 
history to come to life outside the confines of a classroom. The story 
of this community will educate future generations about the courage of 
Americans--those who suffered sixty years ago by being removed from 
their homes and those who supported their friends as they left, in 
their absence and upon their return home.
    Continuing the special resources study is essential to tell this 
American story, and we respectfully urge the committee to fully fund 
the National Park Service's budget for special resources studies with 
an addition of $150,000 for the Bainbridge Island site. Thank you for 
your consideration.

                                 ______
                                 
  Prepared Statement of the Minnesota Department of Natural Resources

    The Minnesota Department of Natural Resources strongly supports 
efforts by Congress to continue the Land and Water Conservation Fund 
(LWCF) stateside program. We urge the Subcommittee to allocate $200 
million to the LWCF stateside program for fiscal year 2004. In 
addition, we request that you fund the Conservation Trust Fund (CARA 
Lite) at the dedicated amount of $2.08 billion.
    Over the last three years, the reinvigorated LWCF stateside program 
has helped fund over 50 state and local park and openspace projects 
across Minnesota. Historically the LWCF projects include state parks 
and historic sites, trails, wildlife management areas, public water 
accesses, scientific and natural areas, state forests, and other areas.
    A few recent examples of projects that benefited from the LWCF 
program are:
  --Lake Gervais Park, a county park in the suburbs of St. Paul
  --Split Rock Lighthouse State Park, a well known landmark on Lake 
        Superior
  --Tansem Prairie, a state Scientific and Natural Area in Clay County
  --Maple Creek Trail, a nature/walking trail in Owatonna.
    These and many other projects were made possible by the 
availability of the stateside LWCF funds. These funds allow for the:
  --Acquisition of critical open space threatened by development
  --Renovation of outdated, unsafe facilities
  --Protection of high quality natural areas
  --Improved accessibility of parks and trails for people of all 
        abilities
  --Provision of a wide variety of outdoor recreational opportunities.
    For our Spring 2003 grant round, preliminary requests for local 
park, trail and open space projects in Minnesota alone total over $65 
million. In addition to this figure, the backlog of state park and 
trail acquisition and renovation needs is in the tens of millions. The 
current LWCF Program is able to meet only a fraction of these needs.
    One of our most urgent needs in Minnesota is to protect open space 
in rapidly developing portions of the state, particularly in counties 
surrounding the Twin Cities Metropolitan Area. As land prices 
accelerate, however, local government resources are inadequate to meet 
these rising needs. For example, one county seeking to acquire 
lakeshore and a high quality wooded area near the rapidly growing City 
of St. Cloud requires an initial investment of at least $2 million. 
While local officials have identified willing sellers, they will be 
hard-pressed to raise all this money locally, without outside 
assistance. For many years, the LWCF program has provided such 
assistance.
    State projects would also benefit from LWCF funds. The new Red 
River State Recreation Area, the scene of massive residential flooding 
several years ago, has been reclaimed as a state park in East Grand 
Forks. With the assistance of the LWCF program we anticipate the 
potential development of a new campground. Another project that could 
benefit from the LWCF program is expanding our camper cabins in 15 
state parks throughout the state. In addition, near the City of Granite 
Falls, we hope to acquire a native prairie area that is home to 
threatened plant and animal species.
    These projects offer just a few examples of how the stateside LWCF 
program benefits the citizens of Minnesota. Increasing the LWCF 
stateside funding level to $200 million in fiscal year 2004 will help 
us reach our goals. We believe that this funding level is consistent 
with the commitment made by Congress and the current Administration to 
the LWCF program.
    Thank you for the opportunity to offer these comments.
                                 ______
                                 

    Prepared Statement of the National Conference of State Historic 
                         Preservation Officers

                               SHPOS.--MAKING PRESERVE AMERICA A REALITY THIS YEAR
                                  [Historic Preservation Fund Fiscal Year 2004]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                                                                       2003            2004         2004 budget
----------------------------------------------------------------------------------------------------------------
State Historic Preservation Offices:
    Core........................................................     $33,779,000     $50,000,000     $34,000,000
    Expedite project reviews....................................  ..............      10,000,000  ..............
    Local communities' preservation.............................  ..............      30,000,000  ..............
Tribes..........................................................       3,000,000      10,000,000       3,000,000
Save America's Treasures........................................      29,805,000      30,000,000      30,000,000
NTHP Hist. Sites Fund...........................................       1,987,000  ..............  ..............
                                                                 -----------------------------------------------
      Totals....................................................      68,571,000     130,000,000      67,000,000
----------------------------------------------------------------------------------------------------------------

    Preservation is a high priority for this Administration.--On March 
3, 2003, the First Lady announced the Preserve America \1\ initiative 
and the President issued Executive Order No. 13287 directing federal 
agencies to assess, preserve and use the historic resources in their 
control, particularly for heritage tourism.
---------------------------------------------------------------------------
    \1\ All quotes in this testimony come from the First Lady's March 
3, 2003, ``Preserve America'' speech available at the White House 
website.
---------------------------------------------------------------------------
    Historic Preservation Fund Puts Preserve America into Practice.--
The Historic Preservation Fund has for three decades put the Preserve 
America principles in practice by laying the foundation for the 
nation's historic preservation program. The fundamentals of historic 
preservation are finding historic places, nomination of significant 
places to the National Register, opening the door to localities to 
participate officially, protecting historic National Conference of 
State Historic Preservation Officers 2004 Historic Preservation Fund 
Testimony Interior Appropriations Subcommittee places from inadvertent 
harm by federal agencies, and supporting private investment in 
rehabilitation through the rehabilitation tax credit (over $2 billion 
annually). State Historic Preservation Officers (SHPOs) deliver these 
programs to the local level on behalf of the Department of the 
Interior. Preserve America updates historic preservation program 
launched by the National Historic Preservation Act (16 USC 470) in 
1966.
    Although the Administration recommended a reduced level of funding 
for the State Historic Preservation Offices for 2004, it is obvious 
from his Preserve America initiative that the President strongly 
supports historic preservation and the kind of federal/State/local 
partnership program the SHPOs administer. The cornerstone of the 2003 
Preserve America program is cooperation among federal, State and local 
governments to identify and use cultural resources for economic 
development, a function SHPOs have been performing since the passage of 
the National Historic Preservation Act in 1966. We hope the Interior 
Appropriations Subcommittee will use the 2004 Historic Preservation 
Fund appropriation to make the SHPO programs full partners in Preserve 
America.
    ``Our land is the foundation upon which the American story is 
written. Our history is rooted in buildings, parks and towns.''
    Congress: Make Preserve America a 2004 Reality for All Americans.--
The National Conference of SHPOs request for fiscal year 2004 will make 
Preserve America a reality including funding for tribal grants and Save 
America's Treasures. The purpose of this testimony is to explain the 
need for a $50,000,000 withdrawal from the Historic Preservation Fund 
for the core preservation programs run by SHPOs. The First Lady said on 
March third, ``America is blessed with historic architecture, 
landscapes, and communities, everyone [emphasis added] tells a story. . 
. . But to prepare for the future, we must remember our history.'' 
Before you can tell the story, you have to know the story which means 
research and study. An increase in core program funding will 
dramatically increase SHPOs' historic site inventory work, publication 
of results, and entry of the data on to computerized geographic 
information systems.
    Historic site research brings the past to life. Owners who want 
recognition for their stories look to the National Register to confirm 
the significance of their properties. Funding the core program at 
$50,000,000 will give the SHPOffices the resources to prepare 
nominations (which low funding has eliminated) and to help and train 
private citizens volunteering to prepare nominations.
    ``The second goal of Preserve America is to support community 
efforts to restore cultural resources for heritage tourism.''
    Heritage tourism is an important part of economic development for 
many communities. It relies on the authentic experience. SHPOs' 
historic site surveys and National Register nominations provide the 
facts upon which heritage tourism programs are built. $50,000,000 for 
States' core programs will benefit heritage tourism by expanding the 
number of heritage sites to visit.
    ``Preserve America . . . will provide . . . greater support to 
protect and restore our nation's cultural . . . from monuments and 
buildings to landscapes and main streets.''
    Preserve America Involves Protection.--Protection is an important 
part of historic preservation. State Historic Preservation Offices 
protect historic places in several ways. First, recognition and common 
knowledge about historic places helps the public support preservation. 
Second, the SHPOs operate a volunteer program for local governments who 
decide to enact local ordinances and operate historic preservation 
programs. Core program funding at $50,000,000 will automatically 
increase the pass-through to local government partners from $3.4 
million to $5 million. Third, SHPOs review every federal project 
proposed in their State--that's a national total of 100,000 projects 
annually. SHPOs work with federal agencies and applicants to minimize 
adverse impacts on historic places. Protecting properties is a high 
priority for SHPOs. While cuts in the HPF have reduced or eliminated 
activity in other program areas, SHPOs have (until recent federal and 
state cuts) maintained protection activities. Every preservationist in 
America, relies on the SHPOs' work reviewing federal projects and 
persuading agencies to modify the scope to protect historic places when 
needed.''The President wants to continue his support and the 
preservation of our heritage through Preserve America. Today, President 
Bush signed an Executive Order . . . [which] directs federal agencies 
to inventory and promote greater use of historic sites in partnership 
with state, tribal, and local governments. Preserve America will 
provide more opportunities for preservation and increase tourism and 
economic development.''

------------------------------------------------------------------------
                                                Fiscal year
  North Carolina response times   --------------------------------------
                                          2001                2002
------------------------------------------------------------------------
At a HPF Allocation of...........  $897,000..........  $747,000
To help developers using historic  30 days...........  60 days
 tax credit.
On National Register nominations.  3 months..........  7 months
to local governments seeking       3 days............  3 weeks
 information.
------------------------------------------------------------------------

    Historic Preservation Fund Decisions Adversely Affect the Private 
Sector.--There are consequences when the Historic Preservation Fund is 
cut. Discretionary programs get cut first. As cuts go deeper, non-
discretionary programs get cut too which means reductions in force. 
These cuts cost time and money to everyone who uses SHPO services. The 
impacts fall hardest on private business and federal projects. Reducing 
the resources to SHPOs has the same effect as narrowing the neck of a 
funnel--the flow is constrained. As an example, Wyoming's average 
response time for individual federal projects increased from 12 days in 
fiscal year 2001 to 18 days in fiscal year 2002 following the decline 
in their allocation from $680,000 to $569,000.
    These increases in response time affect applicants who need SHPO 
comments. Applicants for an oil and gas lease or for an Army Corps 
permit and developers borrowing money to invest in a historic 
rehabilitation project face increased carrying costs because of 
extended response times.
    The National Conference of SHPOs proposes a special $10,000,000 
withdrawal from the Historic Preservation Fund to focus exclusively on 
upgrading historic site surveys, inventory information and geographic 
information systems in areas of high potential for development and 
future federal agency activity. Historic preservation needs to stop 
being an obstacle to project planning and to streamline and expedite 
project reviews.
    Preserve America Through Private Investment and Economic 
Development.--America has seen a decade of private investment in 
historic preservation at a level of $2 billion a year. Investors have 
seen the potential in America's underused historic resources for 
productive, modern uses. The rehabilitation investment tax credit has 
provided the incentive for this voluntary commitment to America's 
historic downtowns and neighborhoods. State Historic Preservation 
Offices are the delivery system for developers and owners. Increasing 
the core funding for SHPOs to $50,000,000 will provide the resources 
for the time consuming, pre-construction technical assistance to advise 
on historic preservation alternatives. Equally important, an increase 
in core programs to $50,000,000 will provide resources to expedite 
National Register nomination processing. (National Register listing is 
a requirement for rehab tax credit eligibility.)
    ``Preserve America will promote historic and cultural preservation 
and encourage greater public appreciation of our national treasures.''
    ``Help Americans Volunteer for Preservation.''--Core funding of 
$50,000,000 for the State Historic Preservation Offices will mean a 
return of preservation education programs to help volunteers prepare 
National Register nominations, work toward local preservation 
ordinances, and prepare for heritage tourism. Further beneficiaries of 
public education will include federal agencies working to fulfill the 
mandates of the President's Executive Order 13278 whose offices are 
closer to a State capitol than to Washington.
    Preserve America and Preserving America's Beloved Landmarks.--The 
First Lady said, ``Many of our historic sites and monuments are 
deteriorating and need to be preserved.'' That is why the National 
Conference of SHPOs is proposing a special grant program to flow 
through the SHPOs to localities to provide matching, restoration grants 
for the landmarks that have meaning to ordinary American's. Montana's 
Treasure State Treasures Survey will identify what Montanans what they 
value from the past. While the companion Save America's Treasures is 
reserved for an elite category of properties that people in Washington 
see as nationally significant, the $30,000,000 for local landmarks will 
be dedicated to the places that everyday Americans value.
    Preserve America: , ``. . . what will we pass down to our 
children--what will their heritage be?''--SHPOs want to work with 
Congress and the First Lady to Preserve America.

                                 ______
                                 
   Prepared Statement of the National Parks Conservation Association

    The National Parks Conservation Association (NPCA) is the only 
national, nonprofit conservation organization that advocates 
exclusively for the national parks. Through public education, advocacy, 
and citizen outreach, NPCA works to protect, preserve, and enhance 
America's National Park System for present and future generations.
    NPCA is pleased to share its views regarding the programs in the 
Department of Interior's budget that affect national park resources and 
requests that this statement be included in the hearing record for the 
fiscal year 2004 Interior and Related Agencies appropriations bill. We 
appreciate the opportunity to share with you our priorities for funding 
and respectfully request the Committee consider these views as the 
fiscal year 2004 budget is shaped.

                    NATIONAL PARK SERVICE OPERATIONS

    A top priority for NPCA in the budget of the National Park Service 
is to significantly increase funding for the operations of the Park 
Service. NPCA requests an increase of $178 million over the current 
fiscal year 2003 spending levels, $102 million above the president's 
request, for a total of $1,633,351,000 in fiscal year 2004 for the 
operation of the National Park System.
    NPCA greatly appreciates your leadership and commitment to our 
national parks, demonstrated in the increase of $98 million that the 
Committee provided for park operations in the fiscal year 2003 Interior 
appropriations process. As you know, this funding increase was 
unfortunately significantly reduced in the final 2003 omnibus 
appropriations act.
    As you know, park operational funding continues to lag behind the 
need. This situation is further aggravated by homeland security needs, 
which have put increased pressure on park budgets and staffing. For 
example, many park rangers have been reassigned to security detail at 
icon and border parks, leaving their visitor interpretation and 
resource protection duties unmet. In addition, National Park Service 
Director Fran Mainella recently stated that added security expenditures 
since the Code Orange alert are anticipated to cost the national parks 
an additional $23 million annually.
    While Congress has regularly increased the operating budget of the 
parks, research in more than 50 parks has shown that funding fails to 
keep pace with need. On average, the national parks are operating with 
only two-thirds of the needed funding--an annual shortfall of more than 
$600 million system-wide. An increase of $178 million in the national 
parks' operating budget this year represents a reasonable and 
manageable amount, and a critical step toward fulfilling the mission of 
the Park Service and protecting our national heritage.
    Just last month, Director Mainella testified to the House Interior 
Appropriations Subcommittee that, ``support of park operations is 
integral to fulfilling the mission of the National Park Service.'' As 
caretaker of some of our nation's most valued natural, cultural, and 
historic resources, the Park Service has a tremendous responsibility, 
managing 388 sites nationwide.

                    NPS NATURAL RESOURCES CHALLENGE

    NPCA strongly supports the National Park Service's Natural 
Resources Challenge(a successful multi-year program to preserve and 
protect the natural resources of the national parks. We request an 
increase of $20 million above enacted fiscal year 2003 level, $11.5 
million above the administration's request for this important program.

              NATIONAL PARK SERVICE HISTORIC PRESERVATION

    Frederick Douglass National Historical Site, Washington, D.C.--$2 
million in fiscal year 2004 for historic preservation of this important 
home. Mr. Douglass' historic 1850s home in Anacostia is in need of 
immediate repair. The National Park Service lacks critical funding and 
staff to meet day-to-day needs and to protect Mr. Douglass' personal 
belongings and the integrity of the property. For example, $550,000 is 
needed to restore light-damaged photographs from the 19th century and 
to restore Mr. Douglass' treasured library collection. The site also 
needs funding to complete a Landscape Maintenance Plan and to hire 
archaeological expertise to inventory and protect the park's cultural 
and archaeological resources.

                 NATIONAL PARK SERVICE LAND ACQUISITION

    Big Thicket National Preserve, Texas.--$10 million in fiscal year 
2004, $6.6 million above the administration's request, to complete 
acquisition of land previously owned by timber companies within the 
1994 boundary expansion. Big Thicket National Preserve, often called 
the ``biological crossroads of North America,'' contains a unique mix 
of southeastern swamps, eastern deciduous forest, central plains, pine 
savannas, and dry sandhills. This acquisition is critical to protecting 
this unique area.
    Cedar Creek & Belle Grove National Historical Park, Virginia.--$2 
million in fiscal year 2004 to acquire land from willing sellers in 
this model partnership park dedicated in January 2003. Private 
landowners have expressed an interest in the National Park Service 
acquiring land in Cedar Creek & Belle Grove. $2 million is a reasonable 
amount to provide the Park Service a foundation for moving forward with 
serious discussions.
    Everglades Restoration, Florida.--$20 million in fiscal year 2004 
to provide assistance to the State of Florida in purchasing lands 
needed to restore the Everglades. The Comprehensive Everglades 
Restoration Plan (CERP) requires that more than 200,000 acres of land 
be purchased for water storage, flow and treatment. With the rising 
cost of real estate and increasing pressure to develop land in South 
Florida, it is critical that land acquisition remain on track.
    Fort Clatsop National Memorial, Oregon.--$8 million in fiscal year 
2004 to purchase from willing sellers a portion of the 1,500-acre 
expansion of the memorial. President Bush signed the Fort Clatsop 
National Memorial Expansion Act into law on August 21, 2002, 
authorizing the expansion. Acquiring this land is important step in 
preparation for the Lewis and Clark Bicentennial event to culminate at 
Fort Clatsop in November 2005. The Clatsop County Board of 
Commissioners and Governor of Oregon support this acquisition.
    Mojave National Preserve, California.--$2 million in fiscal year 
2004 to complete purchase of approximately 4,000-6,000 acres of the 
nearly 150,000 acres of privately held lands in the Preserve. We 
appreciate the $1 million provided by the Committee in fiscal year 
2003. $2 million in additional funds are needed in fiscal year 2004 to 
continue the purchase of sensitive lands within the boundary of the 
Mojave Preserve.
    Tumacacori National Historical Park, Arizona.--$3 million in fiscal 
year 2004 to acquire 310 acres. The Tumacacori National Historical Park 
Boundary Revision Act of 2001, signed into law by President Bush on 
August 21, 2002, expanded the boundaries of the park to protect 
portions of the original mission, historic orchards, and ancient 
irrigation systems that are extremely vulnerable to subdivision 
development.
    Obed Wild and Scenic River, Tennessee.--$1.5 million in fiscal year 
2004 to acquire approximately 1,000 acres of inholdings within the Obed 
Wild and Scenic River corridor in Tennessee. We appreciate the 
Committee including this request in the fiscal year 2003 House bill, 
which was not, as you know, included in the final conference. The Obed 
is one of the few free-flowing streams of its type remaining in the 
entire six-state Cumberlands region, and is the only National Wild and 
Scenic River in Tennessee.
    Petrified Forest National Park, Arizona.--$5 million in fiscal year 
2004 as a down payment to complete the purchase of private lands next 
to the park from willing sellers. The Arizona delegation is expected to 
introduce legislation this year to expand the boundaries of Petrified 
National Forest. A significant portion of lands within the proposed 
expansion area currently are in private or state ownership. Acquiring 
this land of nationally significant paleontological, archaeological, 
and scenic resources is important to their long-term protection.
    Valley Forge National Historical Park, Pennsylvania.--$10 million 
in fiscal year 2004, $5 million above the president's request. Of this 
amount, $6 million for acquisition of the Toll Brothers tract, and $4 
million for additional acquisition, potentially approximately 100 acres 
owned by St. Gabriel's School for Boys. Valley Forge preserves the 
history of the American Revolution through 190 historic structures and 
more than 600 archaeological sites, various wetlands, grasslands, 
woodlands, and wildlife, including more than 200 species of birds and 
several state-listed rare plants.

                   NATIONAL PARK SERVICE CONSTRUCTION

    Denali National Park, Alaska.--$750,000 in fiscal year 2004 to 
complete environmental reviews and compliance with all design and 
permitting requirements for the South Denali Nature Center. This 
funding was provided in the Senate fiscal year 2003 bill, but 
unfortunately, was not included in Conference. This funding will help 
to alleviate visitor pressure on the existing park infrastructure and 
to provide a new opportunity for visitors on the south side of Denali 
National Park. The State of Alaska and the Park Service are working 
cooperatively on a South Denali Nature Center to be sited in Denali 
State Park, near the border of the national park. The Nature Center 
will focus visitor attention to the alpine environment through 
interpretive programs and a trail system.

                      NATIONAL PARK SERVICE--OTHER

    Everglades Modified Waters Deliveries Project.--$15 million in 
fiscal year 2004 for the Modified Waters Deliveries Project, an 
important Everglades restoration project launched prior to CERP. This 
project would return critical sheetflows of water to Everglades 
National Park. $30 million over the next two years is needed to 
complete this project, so we recommend $15 million this year.
    Everglades Restoration Plan Funding.--$10 million in fiscal year 
2004 for the Department of Interior's Comprehensive Everglades 
Restoration Plan (CERP) funding. This important funding will enable the 
Park Service and other Interior agencies to carry out critical 
Everglades restoration projects.
    Everglades Science Funding.--$6 million in fiscal year 2004 for the 
Critical Ecosystem Studies Initiative (CESI), the Department of 
Interior's research program designed to help guide Everglades 
restoration planning and project designs. A December 2002 report of the 
National Research Council of the National Academies of Science found 
that $4 million is insufficient to allow CESI to meet pressing science 
needs of the restoration program.
    National Park Service Soundscape Program Office.--$6 million in 
fiscal year 2004 to hire contractors for research and development of 
air tour management plans in national parks. The National Park Air Tour 
Management Act of 2000 directed the Park Service to cooperate with the 
FAA on the development of air tour management plans in parks. While 
originally the Park Service and FAA anticipated that air tour operators 
would wish to fly over 55 parks, they have received applications for 
flights over more than 102 park units and require $6 million in fiscal 
year 2004 to meet its mandate on air tour management plan development.
    Tribal Historic Preservation Officers.--$11 million in fiscal year 
2004 through the Historic Preservation Fund to stabilize funding for 
all Tribal Historic Preservation Officers (THPOs) and to accommodate 
new THPOs at a base level funding of $275,000 per Tribe. Increased THPO 
funding will enable Tribes to achieve more timely compliance with 
federal, states, and tribal historic preservation laws. The THPO 
program represents a successful partnership; tribes match federal THPO 
dollars at least 3 to 1. Examples of partnerships include the Navajo 
National Historic Preservation Department working with the Park Service 
at Chaco Culture National Historic Site and at Canyon de Chelly 
National Park.

                                 ______
                                 
  Prepared Statement of the Partnership for the National Trails System

    Mr. Chairman and members of the subcommittee: The Partnership for 
the National Trails System appreciates your support over the past 
several years, through operations funding and earmarked Challenge Cost 
Share funds, for the national scenic and historic trails administered 
by the National Park Service. We also appreciate your increased 
allocation of funds to support the trails administered and managed by 
the Forest Service and your support for the trails in the Bureau of 
Land Management's National Landscape Conservation System. To continue 
the progress that you have fostered, the Partnership requests that you 
provide annual operations funding for each of the 23 national scenic 
and historic trails for Fiscal year 2004 through these appropriations:
  --National Park Service.--$10.965 million for the administration of 
        18 trails and for coordination of the long-distance trails 
        program by the Washington Park Service office.
  --USDA Forest Service.--$3.07 million to administer four trails and 
        $750,000 for portions of 13 trails managed through agreements 
        with the Park Service and Bureau of Land Management; 
        Construction: $1 million for the Continental Divide Trail, 
        $500,000 for the Florida Trail and $865,000 for the Pacific 
        Crest Trail.
  --Bureau of Land Management.--To administer the Iditarod National 
        Historic Trail: $410,000, the Camino Real de Tierra Adentro 
        National Historic Trail: $380,000, the Old Spanish National 
        Historic Trail: $100,00 and $2.78 million to manage portions of 
        9 trails administered by the Park Service or the Forest 
        Service; $385,000 for the Iditarod Trail interpretive center 
        feasibility study.
  --We ask that you appropriate $9 million for the National Park 
        Service Challenge Cost Share Program and continue to earmark $5 
        million for Lewis & Clark Bicentennial projects and one-third 
        of the remaining $4 million (approximately $1,326,000) for the 
        other 17 national scenic and historic trails it administers.
  --We ask that you appropriate $1.253 million to the National Park 
        Service National Center for Recreation and Conservation to 
        support the second year of an interagency pilot project to 
        develop a consistent system-wide Geographic Information System 
        (GIS) for the National Trails System.
    We ask that you appropriate from the Land and Water Conservation 
Fund:
  --To the Forest Service.--$5 million to acquire land for the Pacific 
        Crest Trail, $5 million to acquire land for the Florida Trail, 
        $3 million to acquire land for the Appalachian Trail in 
        Georgia, Tennessee and Virginia;
  --To the Bureau of Land Management.--$1 million to acquire land for 
        the Pacific Crest Trail, $2 million to acquire land for the 
        Oregon Trail in Oregon, $500,000 to acquire land for the Juan 
        Bautista de Anza Trail in Arizona;
  --To the Park Service.--$4 million to grant to the State of Wisconsin 
        to match state funds to acquire land for the Ice Age Trail; 
        $1.5 million to grant to the States of Wisconsin, Michigan and 
        Ohio to match state funds to acquire land for the North Country 
        Trail.

                         NATIONAL PARK SERVICE

    We request $1.253 million to fund the second year of a 5 year 
interagency effort to develop a consistent GIS for all 23 national 
scenic and historic trails. This initiative is described in the August 
2001 report (requested by Congress in the fiscal year 2001 
appropriation) ``GIS For The National Trails System'' and is built upon 
work already underway on the Ice Age, Appalachian, Florida, Oregon, 
California, Mormon Pioneer and Pony Express Trails to develop 
consistent information and procedures that can be applied across the 
National Trails System. The requested funding will be shared with the 
Bureau of Land Management and the Forest Service.
    The $10.965 million we request for Park Service operations includes 
increases for many of the trails to continue the progress and new 
initiatives made possible by the $975,000 funding increase provided for 
nine of the trails in fiscal year 2001. $124,000 of our requested 
increase will finally provide significant operational support for the 
Natchez Trace Trail, which currently receives only $26,000 in annual 
operations funding. Another $381,000 will enable the Park Service to 
begin managing the three new national historic trails--Ala Kahakai, El 
Camino Real de Tierra Adentro, and Old Spanish--the latter two 
administered collaboratively with the Bureau of Land Management. These 
funds will provide full-time management and support projects for each 
of these trails.
    We request an increase of $51,000 for the Overmountain Victory 
Trail to enable the Overmountain Victory Trail Association to continue 
and expand the first comprehensive survey of historically significant 
sites along the trail and plan for their preservation. An increase of 
$52,000 will fund interpretive projects and the trail corridor study 
along the Potomac Heritage Trail in Washington, D.C.
    We request an increase of $316,000 to continue and expand Park 
Service efforts to protect cultural landscapes at more than 200 
significant sites along the Santa Fe Trail and to fund public outreach 
and educational programs of the Santa Fe Trail Association. We also 
request an increase of $111,000 to expand cooperative interpretation 
with schools and Latino communities along the Juan Bautista de Anza 
Trail. An increase of $251,000 for the Trail of Tears will enable the 
Park Service to work cooperatively with the Trail of Tears Association 
to protect the Trail's critical historical and cultural heritage sites 
and interpret them for visitors.
    The $402,000 increase we request for the interagency Salt Lake City 
Trails office will enable the Park Service to work with CALTRANS to 
mark the California and Pony Express Trails auto routes and to develop 
interpretive plans for wayside exhibits for these trails and the Oregon 
and Mormon Pioneer Trails.
    We request $2 million to fund the operation of ``Corps II,'' a 
major component of the Federal government's commemoration of the 
Bicentennial of the Lewis & Clark Expedition. This interagency mobile 
interpretive exhibit is designed to follow the route of the Lewis & 
Clark Trail, stopping in communities along the way to provide state-of-
the art, interactive interpretation of the Lewis & Clark ``Corps of 
Discovery.''
    All of these trails are complicated undertakings, none more so than 
the 4,000 mile North Country Trail. With more than 650 miles of Trail 
across 7 national forests in 5 states there is good reason for close 
collaboration between the Park Service and Forest Service to ensure 
consistent management that provides high quality experiences for 
hikers. Limited budgets for both agencies have severely hampered their 
ability to practice this effective management procedure. The $840,000 
we request will give them that ability for the first time while also 
providing greater support for the local trail building and management 
led by the North Country Trail Association, hastening the day when our 
nation's longest national scenic trail will be fully opened for use.
    The $1,001,000 we request will enable the Park Service to expand 
the Geographic Information System (GIS) capability to more efficiently 
plan resource protection, trail construction and maintenance to correct 
unsafe conditions and better mark the 1,200 mile Ice Age Trail for 
users. The funds will also provide assistance to the Ice Age Park & 
Trail Foundation to better equip, train and support the volunteers who 
build and maintain the Ice Age Trail and manage its resources. Some of 
the funds will be used to develop an interpretive plan for the Trail.
    The Challenge Cost Share program is one of the most effective and 
efficient ways for Federal agencies to accomplish a wide array of 
projects for public benefit while also sustaining partnerships 
involving countless private citizens in doing public service work. The 
Partnership requests that you appropriate $8.98 million in Challenge 
Cost Share funding to the Park Service for fiscal year 2004 as a wise 
investment of public money that will generate public benefits many 
times greater than its sum. We ask you to continue to direct $5 million 
for Lewis & Clark Bicentennial projects and one-third of the other 
$3.98 million for the national scenic and historic trails to continue 
the steady progress toward making these trails fully available for 
public enjoyment.

                          USDA--FOREST SERVICE

    As you have done for several years, we ask that you provide 
additional operations funding to the Forest Service for administering 
three national scenic trails and one national historic trail, and 
managing parts of 13 other trails. We ask you to appropriate $3.07 
million as a separate budgetary item specifically for the Continental 
Divide, Florida and Pacific Crest National Scenic Trails and the Nez 
Perce National Historic Trail. Full-time managers have been assigned 
for each of these trails by the Forest Service. Recognizing the on-the-
ground management responsibility the Forest Service has for 838 miles 
of the Appalachian Trail, more than 650 miles of the North Country 
Trail, and sections of the Ice Age, Anza, Lewis & Clark, California, 
Iditarod, Mormon Pioneer, Oregon, Overmountain Victory, Pony Express, 
Trail of Tears and Santa Fe Trails, we ask you to appropriate $750,000 
specifically for these trails.
    Work is underway, supported by funds you provided for the past four 
years, to close several major gaps in the Florida National Scenic 
Trail. The Florida Trail Association is building Trail across Eglin Air 
Force Base, in the Ocala National Forest, Big Cypress National Preserve 
and along Lake Kissimmee and the Choctawahatchee River, adding about 
100 miles to the completed Florida Trail. The Partnership requests an 
additional $500,000 for trail construction in fiscal year 2004 by the 
Forest Service on these and other segments of the Florida Trail.
    The Continental Divide Trail Alliance, with Forest Service 
assistance and funding from the outdoor recreation industry, surveyed 
the entire 3,200 mile route of the Continental Divide Trail documenting 
$10.3 million of construction projects needed to complete the Trail. To 
continue new trail construction, begun with fiscal year 1998 funding, 
we ask that you appropriate $1,050,000 to plan 383 miles of new trail 
and $1 million to build or reconstruct 114 miles of the Continental 
Divide Trail and 7 new trailheads in fiscal year 2004.
    A Forest Service lands team is working with the Pacific Crest Trail 
Association and the Park Service National Trail Land Resources Program 
Center to map and acquire better routes for the 300 miles of the 2,650 
mile Pacific Crest Trail located on 227 narrow easements across private 
land or on the edge of dangerous highways. We request $200,000 to 
continue the work of the fulltime Trail Manager and the lands team and 
$100,000 for Optimal Location route planning. We also request $865,000 
for new trail construction and reconstruction of fire-damaged bridges 
along the PCT by the Forest Service and the Pacific Crest Trail 
Association in fiscal year 2004.

                       BUREAU OF LAND MANAGEMENT

    While the Bureau of Land Management has administrative authority 
only for the Iditarod, El Camino Real de Tierra Adentro, and the Old 
Spanish National Historic Trails, it has on-the-ground management 
responsibility for 641 miles of two scenic trails and 3,115 miles of 
seven historic trails administered by the National Park Service and 
U.S. Forest Service. The significance of these trails was recognized by 
their inclusion in the National Landscape Conservation System and, for 
the first time, in fiscal year 2002, by provision of specific funding 
for each of them. The Partnership applauds the decision of the Bureau 
of Land Management to include the national scenic and historic trails 
in the NLCS and to budget specific funding for each of them. We ask 
that you continue to support the funding for the National Landscape 
Conservation System and that you appropriate for fiscal year 2004 
$410,000 for the Iditarod National Historic Trail, $380,000 for El 
Camino Real de Tierra Adentro National Historic Trail, $100,000 for the 
Old Spanish National Historic Trail and $2,780,000, as requested by the 
Administration, for management of the portions of the nine other trails 
under the care of the Bureau of Land Management. We also request $1 
million for construction of the California Trail Interpretive Center in 
Elko, Nevada, $100,000 for maintenance of the Pacific Crest Trail, and 
$385,000 for a feasibility study for the Iditarod Trail interpretive 
center.

                    LAND AND WATER CONSERVATION FUND

    The Partnership requests that you fully appropriate the $900 
million annual authorized appropriation from the Land and Water 
Conservation Fund and that you make the specific appropriations for 
national scenic and historic trails detailed at the beginning of this 
statement and in Attachment #2. The funding we request for the Florida 
and Pacific Crest National Scenic Trails will continue acquisition 
underway by the Forest Service. The first tracts to help close gaps in 
the Florida Trail have been acquired with LWCF money provided in 
previous years. Necessary Optimal Location Planning and appraisal work 
have been completed and acquisition has begun in earnest along the 
Pacific Crest Trail. The requested funding for the Appalachian National 
Scenic Trail will help complete its protection in Tennessee, Georgia, 
and Virginia.
    The $2,500,000 requested for the Bureau of Land Management will 
help protect important cultural resources along the Juan Bautista de 
Anza National Historic Trail in Arizona and along the Oregon National 
Historic Trail in Oregon.
    The National Trails System Act encourages states to assist in the 
conservation of the resources and development of the national scenic 
and historic trails. Wisconsin has committed more than $10 million to 
help conserve the resources of the Ice Age National Scenic Trail. With 
fiscal year 2000-2002 LWCF funding, matched more than 2:1 by State 
funds, Wisconsin has purchased 12 parcels and now has another 12 
parcels under appraisal or option to purchase. The requested $4 Million 
Land and Water Conservation Fund grant to Wisconsin will continue this 
very successful Federal/State partnership for protecting land for the 
Ice Age Trail.
    The essential funding requests to support the trails are detailed 
in Attachment #2.

         PRIVATE SECTOR SUPPORT FOR THE NATIONAL TRAILS SYSTEM

    Public-spirited partnerships between private citizens and public 
agencies have been a hallmark of the National Trails System since its 
inception. These partnerships create the enduring strength of the 
Trails System and the trail communities that sustain it by combining 
the local, grass-roots energy and responsiveness of volunteers with the 
responsible continuity of public agencies. They also provide a way to 
enlist private financial support for public projects, usually resulting 
in a greater than equal match of funds.
    The private trail organizations commitment to the success of these 
trail-sustaining partnerships grows even as Congress' support for the 
trails has grown. In 2002 the trail organizations channeled 662,429 
hours of documented volunteer labor valued at $10,631,985 to help 
sustain the national scenic and historic trails. This is a 6.5 percent 
increase over the volunteer labor reported for 2001. The organizations 
also applied private sector contributions of $6,850,214 to benefit the 
trails. These contributions are documented in Attachment #1.

 ATTACHMENT 1.--CONTRIBUTIONS MADE IN 2002 TO SUPPORT THE NATIONAL TRAILS SYSTEM BY NATIONAL SCENIC AND HISTORIC
                                               TRAIL ORGANIZATIONS
----------------------------------------------------------------------------------------------------------------
                                                                                     Estimated
                                                                     Volunteer       value of        Financial
                          Organization                                 hours         volunteer     contributions
                                                                                       labor
----------------------------------------------------------------------------------------------------------------
Appalachian Trail Conference....................................         184,216      $2,956,667      $4,100,000
Continental Divide Trail Society................................       \1\ 1,500          24,075  ..............
Continental Divide Trail Alliance...............................          22,256         357,209         319,242
Florida Trail Association.......................................          53,540         857,712         159,000
Ice Age Park & Trail Foundation.................................          73,440       1,178,712         550,705
Iditarod National Historic Trail, Inc...........................      \1\ 17,900         287,295      \1\ 75,000
Heritage Trails/Amigos De Anza..................................             422           6,773  ..............
Anza Trail Coalition of Arizona.................................           3,068          49,241  ..............
Lewis & Clark Trail Heritage Foundation.........................      \1\ 40,000         642,000         313,395
Mormon Trails Association.......................................           7,956         127,694      \1\ 20,068
Iowa Mormon Trails Association..................................         \1\ 750          12,038       \1\ 1,000
Nebraska Mormon Trails Association..............................             203           3,258           1,022
Natchez Trace Trail Conference..................................           2,062          33,095  ..............
National Pony Express Association...............................          33,168         532,346         215,472
Pony Express Trail Association..................................           3,444          55,276          51,140
Nez Perce Trail Foundation......................................           1,457          23,385           5,244
North Country Trail Association.................................           5,986         577,575         195,413
Old Spanish Trail Association...................................           5,697          91,726          23,222
Oregon-California Trails Association............................          72,725       1,167,236         264,553
Overmountain Victory Trail Association..........................           6,005          96,380          29,138
Pacific Crest Trail Association.................................          44,100         707,805         395,600
Potomac Trail Council...........................................       \1\ 4,800          77,040           1,700
Santa Fe Trail Association......................................      \1\ 19,000         304,950          69,000
Trail of Tears Association......................................          28,816         462,497          60,300
                                                                 -----------------------------------------------
      Totals....................................................         662,429      10,631,985       6,850,214
----------------------------------------------------------------------------------------------------------------
\1\ Estimate.


                               ATTACHMENT 2.--PARTNERSHIP FOR THE NATIONAL TRAILS SYSTEM REQUESTED FISCAL YEAR 2004 APPROPRIATIONS FOR THE NATIONAL TRAILS SYSTEM
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                Fiscal year      Fiscal year
                                                    2003             2004         Fiscal year
                Agency/Trail                   congressional    administration   2004 partners                           Project/programs possible with increased funding
                                               appropriation       request          request
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                PARK SERVICE
 
Ala Kahakai.................................         $181,000         $181,000         $181,000  Begin preparation of Comprehensive Management Plan for new trail;
Appalachian.................................        1,041,000        1,044,000        1,044,000  Operations of NPS A.T. Park Office; $300,000 of the total supports volunteer-based trail
                                                                                                  maintenance and construction and land and resource management guided by ATC;
Natchez Trace...............................           26,000           26,000          150,000  Planning & building new trail & bridges; backlog maintenance with NTTC & SCA;
El Camino Real..............................  ...............  ...............          100,000  Begin collaborative management of new trail with Bureau of Land Management;
California..................................          200,000          200,000          351,000  Interpret more auto tour routes with CALTRANS; Enhance Four Trails GIS database;
Ice Age.....................................          498,000          501,000        1,001,000  Trail corridor planning; Coordinate land acquisition by agency partners and Trail maintenance
                                                                                                  and resource management by IAP&TF; Develop Trail interpretive plan;
Juan Bautista de Anza.......................          189,000          189,000          300,000  Coordination of Trail site protection, interpretation & development projects with local
                                                                                                  agencies & organizations; Outreach to schools and Latino communities;
Lewis & Clark...............................        1,707,000        1,712,000        3,734,000  Planning, coordination & support for local Bicentennial projects and ``Corps II'';
Mormon Pioneer..............................          127,000          127,000          128,000  Enhance Four Trails GIS database; Interpret additional auto tour routes;
North Country...............................          547,000          547,000          840,000  Advance Trail construction, Trail route protection and support for volunteers and partners
                                                                                                  through regional trail centers, greater technical assistance and route planning;
Old Spanish.................................  ...............  ...............          100,000  Collaborative administration with Bureau of Land Management;
Oregon......................................          215,000          216,000          366,000  Update and upgrade Four Trails GIS database and mapping;
Overmountain Victory........................          135,000          135,000          186,000  New route signs & interpretive exhibits; mapping Trail sites for protection inventory, and
                                                                                                  archaeology in Cherokee County, North Carolina;
Pony Express................................          180,000          181,000          281,000  Develop Interpretive Plan for wayside exhibits for Pony Express and California trails;
Potomac Heritage............................          198,000          198,000          250,000  Assistance to local agencies & organizations for planning & educational projects;
Santa Fe....................................      \1\ 596,000      \1\ 603,000          919,000  Cultural resource preservation, design & distribute interpretive media with partners;
Selma to Montgomery.........................          260,000          261,000          261,000  Comprehensive management plan developed and trail interpretation begun in collaboration with
                                                                                                  citizen support organizations & local agencies;
Trail of Tears..............................          247,000          247,000          498,000  Preserve & interpret critical Trail sites & provide new visitor facilities with TOTA;
NTS-Washington Office.......................          217,000          218,000          275,000  Program coordination and special projects funding.
                                             ---------------------------------------------------
      National Trails System................        6,594,000        6,605,000       10,965,000  Total National Trails System operations funding.
                                             ===================================================
Challenge Cost Share........................    \2\ 6,980,000    \3\ 8,980,000        8,980,000  $5 M for Lewis & Clark; one-third of remaining $3.98 M for rest of National Trails System;
Interagency GIS Project.....................    \4\ 1,000,000  ...............    \5\ 1,253,000  Development of GIS for National Trails;
 
                     BLM
 
Iditarod Trail..............................          330,000          160,000          410,000  Coordination and support for collaborative management with other Federal agencies, Iditarod
                                                                                                  Trail organizations and State of Alaska; bridges and cabins;
El Camino Real..............................          330,000          380,000          380,000  Collaborative administration and management with National Park Service;
Old Spanish.................................  ...............          100,000          100,000  Collaborative administration and management with National Park Service;
Continental Divide..........................          117,000          117,000          117,000  Marking 230 miles of CDT in Wyoming; Interagency management collaboration;
Pacific Crest...............................          190,000           90,000           90,000  PCT maintenance in California; Interagency management collaboration;
Juan Bautista de Anza.......................           80,000           80,000           80,000  Interpretive exhibits for Anza Trail at Painted Rock, Arizona;
California..................................          136,000          151,000          151,000  California Trail resource inventories in Wyoming and California;
Lewis & Clark...............................        1,642,000        1,937,000        1,937,000  Lewis & Clark Bicentennial preparations in Idaho and Montana;
Mormon Pioneer..............................           94,000           94,000           94,000  ...............................................................................................
Nez Perce...................................           33,000           33,000           33,000  Lewis & Clark Bicentennial preparations in Idaho and Montana;
Oregon......................................          124,000          184,000          184,000  Interagency management collaboration;
Pony Express................................           70,000           95,000           95,000  Archaeology at Little Sandy and Dry Sandy Pony Express Stations, Wyoming and marking 120 miles
                                                                                                  of Pony Express Trail in Nevada;
                                             ---------------------------------------------------
      National Trails System................        3,146,000        3,421,000        3,671,000  Total National Trails System operations funding.
                                             ===================================================
Iditarod Trail..............................  ...............  ...............          385,000  Feasibility study for Iditarod Trail Interpretive/visitor Center;
El Camino Real..............................          172,000  ...............  ...............  Developing Comprehensive Management Plan with Park Service;
Construction of:
    California Trail Interpretive Center--NV        1,000,000  ...............        1,000,000  Continued funding for construction of California National Historic Trail interpretive center in
                                                                                                  Elko, Nevada;
    Pacific Crest Trail.....................          100,000  ...............          100,000  Annual maintenance of sections of the Pacific Crest Trail on BLM land.
 
               FOREST SERVICE
 
Continental Divide..........................          655,000  ...............        1,350,000  Continued support for full administrative responsibility and leadership for consistent
                                                                                                  interagency collaboration for each trail; support for consistent management with trail
                                                                                                  organization and local agency partners; trail brochures, signs, project planning etc.; Also
                                                                                                  $1,050,140 to plan 383 new miles of CDT; $200,000 to support work of full-time Trail
                                                                                                  administrator and $100,000 for Optimal Location Planning for PCT and $70,000 to increase Trail
                                                                                                  maintenance by volunteers coordinated by PCTA; $750,000 to continue collaborative work with
                                                                                                  Florida Trail Association to inventory 500 miles of the Florida Trail and continue development
                                                                                                  of Trail GIS;
Florida.....................................          556,000  ...............          750,000
Pacific Crest...............................          735,000  ...............          620,000
Nez Perce Trails............................          536,000  ...............          350,000
                                             ---------------------------------------------------
      Total.................................    \6\ 2,482,000        1,000,000        3,070,000
                                             ===================================================
Appalachian, North Country, Ice Age,                  746,000          350,000          750,000  Improved trail maintenance, marking, interpretation, archaeological studies, historic site
 Iditarod , California, Juan Bautista de                                                          protection and trailhead facilities for trail segments in National Forests; $200,000 to
 Anza, Lewis & Clark, Oregon, Mormon                                                              address deferred maintenance, make improvements and provide liaison for collaborative
 Pioneer, Overmountain Victory, Pony                                                              management of the North Country Trail with National Park Service;
 Express, Santa Fe, Trail of Tears.
Continental Divide Trail....................          994,000  ...............        1,000,000  Trail construction projects along the Continental Divide Trail: 90 miles of new trail, 24 miles
                                                                                                  of trail reconstruction and 7 new Trailheads;
Florida Trail...............................          497,000  ...............          500,000  Trail construction projects in Eglin Air Force Base, Ocala National Forest, Big Cypress
                                                                                                  National Preserve and along the Choctawahatchee River;
Pacific Crest Trail.........................  ...............  ...............          865,000  Trail construction projects along the Pacific Crest Trail, including reconstruction of fire and
                                                                                                  storm damaged bridges and structures in California and Washington; Fabrication and
                                                                                                  installation of roadside interpretive signs at Trail highway crossings;
                                             ---------------------------------------------------
      National Trails System................        4,719,000        1,350,000        6,185,000  Total: National Trails System funding.
                                             ===================================================
Nat. Forest System Trail Maintenance........       36,664,000  ...............  ...............  Trail maintenance throughout the National Forest System.
Nat. Forest System Trail Construction.......       33,015,000  ...............  ...............  New trail construction and trail re-construction throughout the National Forest System.
Nat. Forest System Capital Improvement &           69,679,000  ...............      100,000,000  Trail maintenance and new trail construction throughout the National Forest System.
 Maintenance-- Trails.
 
               LWCF FOR TRAILS
 
LWCF grant--FS Pacific Crest................        3,000,000  ...............        5,000,000  USDA-Forest Service acquisition of lands in southern California, Oregon and southern Washington
                                                                                                  to preserve the scenic integrity of the Pacific Crest Trail.
LWCF grant--FS Florida......................        3,000,000  ...............        5,000,000  USDA-Forest Service acquisition of lands to protect 62 miles of threatened Florida Trail
                                                                                                  corridor and connect trail segments across private land between National Forests, St. Marks
                                                                                                  Wildlife Refuge & Eglin Air Base and in central Florida.
LWCF grant--FS Appalachian..................        7,600,000  ...............        8,300,000  The total supports three USDA-Forest Service acquisition projects in the Georgia Mountains,
                                                                                                  Tennessee Mountains, and Virginia Mountains. Of that total, about $3 million would acquire
                                                                                                  Appalachian Trail-related tracts; the balance would acquire other significant inholdings
                                                                                                  within the affected forests.
LWCF grant Ice Age--Wisconsin \7\...........        2,000,000  ...............        4,000,000  Assistance provided to State of Wisconsin to protect threatened Ice Age Trail corridor and
                                                                                                  connect trail segments across private land in Dane, Chippewa, Columbia, Marathon, Polk,
                                                                                                  Portage, Walworth, Washington, Waupaca and Waushara Counties. NPS will purchase one
                                                                                                  interpretive site for the Ice Age Trail.
LWCF grant--NPS North Country--WI, MI \8\...  ...............  ...............        1,500,000  Assistance provided to States of Wisconsin, Michigan and Ohio to acquire critical links in the
                                                                                                  North Country Trail;
LWCF grant--BLM Pacific Crest...............  ...............  ...............        1,000,000  BLM acquisition of land along the Pacific Crest Trail in California.
LWCF grant--BLM Oregon......................  ...............        2,000,000        2,000,000  BLM acquisition of land along the Sandy River and the Snake River Rim in Oregon.
LWCF grant--BLM Juan Bautista de Anza.......          800,000          500,000          500,000  BLM acquisition of land at Sears Point Area of Critical Concern along the Juan Bautista de Anza
                                                                                                  Trail in Arizona.
                                             ---------------------------------------------------
      Total.................................       16,400,000        2,500,000       27,300,000  ...............................................................................................
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Includes $261,000 for operations of Santa Fe Park Service office, not related to the Santa Fe Trail.
\2\ Includes $5 million earmarked for Lewis & Clark Bicentennial projects. One-third of the remaining funds (about $664,000 of $1.987 million) are earmarked for National Trails System
  projects.
\3\ Administration request does not allocate any funds for the National Trails System. The Congressional earmark is needed to accomplish this.
\4\ Congress tells NPS to report on progress of GIS development and future funding needed by January 31, 2001 and to request increased GIS funding for fiscal year 2002.
\5\ Funding request reflects budget detailed in Park Service GIS report delivered to Congress in January 2002.
\6\ Appropriation includes: $2.5 million for administration of the Continental Divide, Florida, and Pacific Crest National Scenic Trails and the Nez Perce National Historic Trail, funding for
  full-time administrators for each trail and land acquisition teams for the Florida and Pacific Crest Trails.
\7\ This would be a grant to the State of Wisconsin to be matched at least 1:1.
\8\ These would be grants to the States of Wisconsin, Michigan and Ohio to be matched at least 1:1.

                                 ______
                                 
   Prepared Statement of the National Recreation and Park Association

    This statement is to share with the Subcommittee the views of the 
National Recreation and Park Association on fiscal year 2004 
appropriations for selected programs within its jurisdiction. We 
appreciate the opportunity to comment on programs administered 
principally by the National Park Service.
    We recommend the following:
  --Not less than $200,000,000 from the Land and Water Conservation 
        Fund for state assistance, and additional funds to meet the 
        highest land conservation priorities of eligible federal land 
        systems. Funds should be allocated to the states as authorized 
        by current law.
  --$50,000,000 to address the most distressed urban recreation 
        resource conditions and deficiencies identified and aided 
        through the Urban Park and Recreation Recovery Program.
  --Sufficient funds to enable the National Park Service, through 
        Federal Lands to Parks, Rivers, Trails, and Conservation (RTC) 
        and other programs to collaborate with state and local 
        recreation and park agencies and others on such matters as 
        conservation and use of excess surplus federal real property 
        and rivers and trails.
  --Sufficient funds to support sustainable public recreation use of 
        national forests, parks, refuges, and public lands.
    These recommendations, if enacted, will help address the national 
imperative to improve physical and mental health, sustain the 
environment, and stimulate economic growth.

           LAND AND WATER CONSERVATION FUND STATE ASSISTANCE

    We commend the Subcommittee's actions to build and sustain fiscal 
partnerships with state and local recreation and park authorities. We 
share with many legislators and advocates the disappointment that the 
fiscal year 2003 omnibus appropriations act ultimately resulted in a 
reduction of some $80 million in LWCF state assistance and the urban 
park programs. Our request for fiscal year 2004 equals the 
Administration's LWCF state assistance request for fiscal year 2003--
$200,000,000--absent restrictions that would have been imposed by the 
``Cooperative Conservation Initiative.''
    We also commend the President for his commitment to appropriations 
from the Land and Water Conservation Fund. However, we urge the 
Administration in future budgets to more accurately affect actual 
public needs and the basic authority of the LWCF act.
    Recent (2000-2002) requests for LWCF assistance exceed $3.26 
billion, according to applications submitted to state officials. This, 
we believe, is a very conservative estimate of need. In general, 
project priorities reflect a nationwide demand to increase the 
recreation capacity of public systems.
    We remain deeply concerned that the Administration's budget 
proposes access to the Land and Water Conservation Fund for a number of 
programs not presently authorized to do so. The LWCF act, while broad 
in its application and diversity of projects, is very specific in its 
policy objectives--provision of recreational opportunities to improve 
public health and conservation of lands and waters for public 
recreation. If the Subcommittee in its wisdom accepts the 
Administration's interpretation of LWCF authority, then it should 
specifically stipulate that state and local public recreation and park 
entities are fully eligible to access these programs, and that assisted 
resources be publicly accessible for appropriate forms of recreation.
    Non-federal recreation and park resources are fundamentally 
essential to quality recreation experiences for all people. 
Collectively, these systems--with strong citizen support and executive 
and management expertise--provide the majority of public recreation 
destinations, services, and visitor experiences. While diverse and 
widespread, until all people have appropriate access to recreation and 
parks our collective missions will remain unfinished. Beyond our fiscal 
year 2004 recommendation, we urge the Subcommittee to move quickly 
toward annual full funding of the Land and Water Conservation Fund.

               URBAN PARK AND RECREATION RECOVERY PROGRAM

    The Urban Park and Recreation Recovery Program recognizes the 
recreation values associated with conservation of the built 
environment. We believe these values are of no less importance than 
conservation of other recreation spaces and places of high ecological 
and aesthetic value. Demand for Urban Park and Recreation Recovery 
Program assistance remains high. This interest is reflected in both the 
number of requests for assistance and the quality and objectives of 
projects. While no fiscal year 2003 funds were appropriated, the record 
of interest expressed in previous fiscal years is revealing. For 
example, in fiscal year 2000 ($2 million available) only 14 projects 
were selected for assistance. In fiscal year 2001 187 local 
jurisdictions applied ($28.8 million available), and 95 projects were 
selected. Nearly 200 communities requested 2002 funds, and only 71 were 
assisted with available funds. UPARR projects emphasize the national 
importance of bringing quality recreation resources and services to 
children and youth in more economically distressed cities and 
neighborhoods. Our request for increased investment is based in part on 
the ultimate loss of $30 million included in the fiscal year 2003 
House-passed bill.
    Despite a degree of fiscal stress impacting many state and local 
governments as a direct or indirect result of terrorist activities, 
``homeland security'' costs, or economic conditions there is no 
information that suggests that our recommended LWCF assistance minimum 
of $200 million and $50 million for urban parks will not be fully 
utilized within allowable time frames.

           NATIONAL PARK SERVICE INTERGOVERNMENTAL ACTIVITIES

Rivers and Trails Conservation Assistance Program
    We recommend $15,000,000 for the Rivers, Trails, and Conservation 
Assistance Program administered by the National Park Service. This 
amount is based in part on emerging interest in partnerships and 
resource conservation strategies that often result in less than fee 
title actions. The RTCA program illustrates the critical importance and 
federal contribution to public/private partnerships for conservation of 
natural and cultural resources, and public access for recreation. The 
program provides technical assistance to local governments, citizen and 
community organizations, and state agencies to consider recreation and 
conservation strategies. The results include restoration of rivers, 
planning and development of trails, conservation of open space and 
greenways, among other types of projects.
    Our proposed funding will allow the NPS RTCA program to assign 
staff resources to initiatives in each state. It will leverage 
additional funds and bring projects to completion earlier than might 
otherwise be possible. Our request also recognizes that requests for 
assistance outpace program capacity by about 4 to 1. That is, the 
National Park Service annually receives about 400 requests for 
assistance, but presently has the capacity to start about 100. Early 
federal technical support is critical to the long-term success of 
local, often citizen-driven initiatives. NPS anticipated that its 
involvement will be relatively short term--1 to 2 years--and it does 
not measure its contribution to a project until at least 5 years after 
providing technical assistance. This ``delayed evaluation'' approach 
enables NPS to more effectively assess the outcomes arising from early 
organization and technical support. We urge the Subcommittee to resist 
so called ``hard earmarks'' and instead rely on the relative quality of 
proposals and conservation priorities to determine support.

Federal Lands to Parks Program
    We recommend an appropriation of at least $1 million to support the 
Federal Lands to Parks program administered by the National Park 
Service. Our recommendation will address what we believe to be a long-
standing budget shortfall relative to program demands. The FLP program 
is an exemplary partnership. It guides and assists in the conversion of 
surplus federal properties to state and local governments for public 
recreation and park use. Unfortunately, the program was downsized in 
the early 1980s, and funding has remained essentially flat. 
Concurrently, property potentially available for state and local parks 
and demand for federal assistance has increased beyond the capacity of 
program staff. A large part of this demand is the result of the closure 
of military bases between 1988 and 1995. In fiscal year 2002, FLP 
program staff assisted in the transfer of twenty-four properties valued 
at nearly $30 million. Today, there is a backlog of some sixty pending 
transfers, mostly resulting from the closure of military installations.
    Local and state park systems are critical to the American people 
and others who work and reside among us. With sufficient funds, more 
recreation resources could become accessible. These resources address 
the diverse public interests and our collective need for quality 
recreation and associated services for children of working parents. 
They host programs that serve millions of nutritious breakfasts, 
lunches, snacks, and suppers to needy children, and help reduce crime 
and delinquency, especially after school hours. Public recreation and 
park mangers and sites recognize that at any given time perhaps 50 
million people have a disability, and attempt to accommodate their 
desire for recreation.
    State and local agencies contribute importantly to plant and 
wildlife diversity. Nationwide, over 5,000 local park systems, for 
example, contain about 9 million acres. Hundreds of local systems have 
more than 5,000 acres, with many systems in excess of 15,000 acres. An 
estimated 80 to 85 percent of larger systems are typically undeveloped 
and thus contribute to an array of conservation outcomes. Larger 
systems also provide opportunities for environmental awareness and 
experiential education.
    The National Recreation and Park Association appreciates the 
opportunity to comment. NRPA public policy director, Barry Tindall 
(202-887-0290) is available to provide additional perspectives and to 
respond to questions.

                                 ______
                                 
 Prepared Statement of the New York State Office of Parks, Recreation 
                       and Historic Preservation

    Thank you for the opportunity to present testimony on behalf of the 
New York State Office of Parks, Recreation and Historic Preservation. 
My purpose in presenting this testimony is to support the State Side of 
the Land and Water Conservation Fund (LWCF), and to respectfully 
request an appropriation of $160 Million for fiscal year 2004. In 
addition, I ask that you support the Urban Parks and Recreational 
Recovery Program (UPARR), and I would resectfully request that this 
program be restored, and funded in the amount of $50 Million for fiscal 
year 2004.
    As you know, your predecessors in Congress conceived a simple, but 
powerfully effective idea in 1964: a pay-as-you-go program that takes a 
small portion of the fees generated from oil & gas drilling on the 
Outer Continental Shelf, the portion designated for state side funding 
that is to support the creation, development, and enhancement of a wide 
variety of community parks and recreational resources.
    Those bodies promised the American people that, where on the one 
hand we are generating billions of dollars in revenue by the depletion 
of one non-renewable resource, we would invest in the environment by 
dedicating a small portion of those funds to the acquisition, 
preservation and development of recreational resources in states and 
communities across America.
    It is a program that works. From 1965 to 1995, NYS Parks, as 
administrator for LWCF, directed 58 percent of the NYS allocation of 
some $200 million to Municipal Park acquisition and development 
projects, (33 percent to cities, 5 percent to counties, 14.5 to towns, 
4.5 percent to villages). Since its inception, this program has 
resulted in over 1,100 projects undertaken throughout New York State, 
and LWCF projects exist in virtually every county in the state. These 
projects have built and illuminated baseball and soccer fields, hiking 
trails and camping facilities, and provided for open spaces for our 
youth, adults and seniors.
    Not all of our citizens realize that the State side of LWCF touches 
the lives of every one of our residents and constituents.
    Because grants may not exceed 50 percent of the total project 
costs, the program is enormously successful in leveraging these federal 
dollars, literally allowing communities to create parks and 
recreational opportunities where none would otherwise exist. These 
projects are so important because they provide close-to-home 
opportunities for Americans to exercise, recreate, and simply get 
outdoors and play with their children, and the development of 
recreational facilities creates jobs.
    From 1994 through 1999 stateside LWCF received no funding, and the 
entire program simply disappeared. As a result of widespread support 
from all around the country, stateside LWCF was restored by the 106th 
Congress for fiscal year 2000, with an appropriation of $40 Million. 
Funding gradually increased through fiscal year 2002, until the program 
suffered substantial cuts in the fiscal year 2003 Omnibus Budget 
Resolution.
    As Commissioner for the New York State Agency responsible for the 
administration of the program, I can report that since the year 2000 
alone, approximately 60 projects have been funded throughout the state, 
from eastern Long Island to the Niagara Frontier, to New York City, and 
north to the Thousand Islands. These include 30 municipal projects in 
22 counties, and 26 state park projects in communities throughout every 
region of New York State. We have taken great care to balance our use 
of these funds so that they benefit all residents of our state. I thank 
the members of this committee for that support, and for keeping the 
vision behind LWCF alive.
    However, I must also report that even in fiscal year 2002, the best 
year for LWCF funding thus far in my tenure, there were some 170 
project applications that could not be funded, representing some $30 
million in unmet needs. Precisely because this program reaches all 
Americans where we live, the demand for recreational facilities close 
to home continues to grow, and I must ask, on behalf of your 
constituents, that you prevent the deterioration of one of the most 
successful and cost-effective domestic programs at this critical time.
    For fiscal year 2004 please support the state side LWCF by 
providing the $160 million appropriation to this program that is 
contained in the Administration's budget request, thereby preserving 
the effectiveness of this program for this generation of Americans, who 
were no less the recipients of the promise made by your predecessors 
than their forbears.
    The funding source for this program, fees generated from 
exploration on the Outer Continental Shelf remains intact. The 
financial commitment necessary to keep state side LWCF intact is a 
small percentage of those fees realized. And yet, the cost in lost 
opportunities will be great indeed, if this Congress fails to preserve 
the program at the $160 million figure.
    The other program that I would like to add my support to today is 
the Urban Parks and Recreation Recovery Program, or UPARR.
    UPARR is another program that seeks to improve recreational 
facilities in neighborhoods throughout the country, with a special 
focus on underserved communities. Similarly effective by the use of 
leveraged matching grants, this program helps urban communities 
rehabilitate existing but deteriorating facilities. This program will 
suffer greatly this year by an elimination of funding. I strongly urge 
you to restore this program by providing $50 million in funding for 
fiscal year 2004.
    By preserving these two complimentary programs, we can live up to 
the promises made, and the commitment to our communities, our families, 
our neighborhoods, and our children. Thank you for the opportunity to 
present my views as New York State Parks Commissioner on a program that 
I know works for New Yorkers, and for all Americans.

                                 ______
                                 
               Prepared Statement of Preservation Action

    Between fiscal year 2001 and fiscal year 2003, funding for Historic 
Preservation Fund has been cut by 28 percent with the overall 
appropriation dropping from $94 million to just $67 million. President 
Bush's fiscal year 2004 budget proposes level funding for the program. 
Preservation Action and its national membership of citizens dedicated 
to historic preservation in their communities, respectfully requests 
that funding be restored to the Historic Preservation Fund. We request 
$50 million for State Historic Preservation Offices; $10 million for 
Tribal Historic Preservation Offices; $30 million for Save America's 
Treasures Grants; and $10 million to assist states to complete and 
digitize their historic site surveys--totaling $100 million.
    The national historic preservation program is unique among federal 
initiatives because it does not rely on acquisition or federal 
intervention to achieve its objective: to discover, celebrate and 
protect America's rich architectural heritage. Rather, it gives 
property owners and local citizens the tools they need to restore and 
protect heritage resources for the benefit of the entire community. In 
effect, the National Historic Preservation Act creates an extremely 
effective partnership between the federal government, States, Tribes 
and local governments as a way to deliver these tools to citizens, 
property owners and developers. This partnership is underwritten by the 
Historic Preservation Fund and matched by the State Historic 
Preservation Officers, Tribal Historic Preservation Officers and 
Certified Local Governments. We ask that the federal government not 
renege on its part of the bargain by under funding its financial 
commitment to this important program.

                                DISCOVER

    The number one priority of the national historic preservation 
program at its inception was to survey and document the immensely rich 
architectural and archaeological resources across this nation, from the 
smallest town to the largest city. The survey was intended to serve as 
the basis of federal, state, tribal, and local protection efforts. It 
was also envisioned as a way to expedite the 106 review process, 
mandated by federal law. Under funding has dramatically reduced the 
number and scope of survey work. Indeed, most states have been forced 
to turn their attention to ``demand'' responsibilities at the expense 
of survey work. Lack of adequate surveys actually costs process. If 
Congress had provided sufficient funding for the Historic Preservation 
Fund over the past 15 years, historic site inventories would be 
complete. Federal agency planners could access historic site 
information including descriptions and photographs from the Internet on 
their desktop computers and proceed with project planning in an 
atmosphere of knowledge and forethought. Increased funding can help 
States complete their survey work to the benefit of their historic 
resources and federal agency planners.

                               CELEBRATE

    Importantly, survey and subsequent nomination and listing on the 
National Register were intended to offer a way to celebrate and promote 
a community's heritage resources boosting pride, stimulating economic 
investment and inviting heritage tourism. Unfortunately, it is 
estimated that cuts to State Historic Preservation Offices between 2001 
and 2003 have already reduced annual National Register nominations by 
some 15,000 properties. That means that hundreds of communities are 
unable to take advantage of restoration grants, commercial 
rehabilitation tax credits, and heritage tourism plans that could help 
them save and sustain their historic resources.

                                PROTECT

    From our perspective, there is no component of the program that 
better illustrates the power of the federal-State partnership than the 
Historic Rehabilitation Tax Credit. This tax incentive program 
leveraged more than $3.27 billion in private investment for historic 
resources in 2002 and created 13,886 housing units, 5,673 of them for 
low to moderate income individuals. On the ground these numbers 
translate into comfortable high-quality places for people of average 
means to live. They mean that boarded up and vacant buildings are 
restored and re-opened as viable business enterprises and are put back 
on the tax rolls for the benefit of the entire community. They mean 
that the federal government, working with its partners, quadrupled its 
investment, put people to work, and repaired the fabric of our 
neighborhoods. The tax act program carries out the spirit of the 
National Historic Preservation Act in concrete ways.
    For this program to work, owners and developers must be able to 
turn to State Historic Preservation Officers for National Register 
nominations, for advice on project design and for timely review and 
certification. Unfortunately, State Offices have been forced to cut 
back on staff, slowing tax act reviews and seriously curtailing their 
ability to partner with developers to save historic resources.
    Similarly, when the Historic Preservation Fund appropriation 
allows, State Offices offer grants to help restore National Register 
properties. These grants are often the catalyst for additional public 
and private investment. When restoration grants are not available, 
historic buildings are allowed to deteriorate. For the first time since 
the 1970's increased funding in fiscal year 2001 allowed substantial 
disbursement of restoration grants, it also gave State Offices the 
opportunity to invest in long overdue infrastructure improvements 
(e.g., geographic information system upgrades). These investments 
totaled nearly $11 million in fiscal year 2001. However, the cuts in 
fiscal year 2002 reduced that investment to an estimated $3 million and 
with the cuts in 2003 many states simply were unable to extend 
restoration and project grants leaving untold thousands of projects 
without the seed money they need to ensure there success.

                               CONCLUSION

    We are a nation at war, facing a new and uncertain era. Our 
citizens are turning to their neighborhoods, town centers and heritage 
resources as a source of comfort. In small towns and big, rural, urban 
and suburban areas, our history--embodied in the built environment--
gives context and meaning to the American experience. We must find a 
way, even in difficult fiscal times, to discover, celebrate and protect 
our heritage and to build a thriving future that does not compromise 
our historic resources. Now, more than ever, historic preservation, as 
defined and guided by the National Historic Preservation Act, must be 
an integral part of how we do business in all our communities. This can 
not happen without adequate funding for the Historic Preservation Fund. 
Please approve funding for the Historic Preservation Fund at $100 
million for fiscal year 2004.

                                 ______
                                 
        Prepared Statement of the American Geological Institute

    Thank you for this opportunity to provide the American Geological 
Institute's perspective on fiscal year 2004 appropriations for 
geoscience programs within the subcommittee's jurisdiction. The 
president's budget requests significant cuts in the U.S. Geological 
Survey (USGS). If enacted, these reductions would hamper the Survey's 
ability to carry out its important missions to ensure adequate natural 
resources, monitor environmental conditions and reduce the nation's 
vulnerability to natural hazards. Specifically, we ask the subcommittee 
to restore funds to the USGS Mineral Resources, Advanced National 
Seismic System, National Cooperative Geologic Mapping, and Toxic 
Substances Hydrology programs. In addition, the president's request 
would decimate the Department of Energy's Office of Fossil Energy oil 
and natural gas research programs, and we ask for restoration of those 
to their fiscal year 2002 levels.
    Geoscience activities are also found in a number of other agencies 
within the subcommittee's jurisdiction. We ask the subcommittee to 
provide adequate funds for geoscience activities in the Minerals 
Management Service (MMS) Environmental Studies Program, the National 
Park Service Geologic Resources Division and the U.S. Forest Service 
Minerals and Geology Management Program, and to fully fund scientific 
research programs at the Smithsonian Institution. MMS does important 
work in energy resource assessment and collection of geoscience data. 
Geoscience programs within the land management agencies provide a 
scientific basis for land-use decisions, a role that they share with 
the USGS. The Smithsonian's National Museum of Natural History plays a 
dual role in communicating the excitement of the geosciences and 
enhancing knowledge through research and preservation of geoscience 
collections.
    AGI is a nonprofit federation of 40 geoscientific and professional 
associations that represent more than 100,000 geologists, 
geophysicists, and other earth scientists. The institute serves as a 
voice for shared interests in our profession, plays a major role in 
strengthening geoscience education, and strives to increase public 
awareness of the vital role that the geosciences play in society's use 
of resources and interaction with the environment.

                         U.S. GEOLOGICAL SURVEY

    For the third year in a row, the USGS faces substantial cuts in the 
administration's request. AGI thanks the subcommittee for its record of 
restoring cuts and recognizing the Survey's broad value to the nation. 
This year, we urge the subcommittee to not only put back funds cut in 
the president's request but also to provide enough additional support 
to stop the ongoing erosion of the Survey's ability to carry out its 
programs due to the rising costs of doing business. Uncontrollable 
expenses, such as cost-of-living increases for salaries, should not cut 
into the funds available to fulfill the agency's mission.
    AGI has recently signed on as a charter member of the USGS 
Coalition, a newly formed alliance of organizations united by a 
commitment to the continued vitality of the unique combination of 
biological, geological, hydrological and mapping programs of the U.S. 
Geological Survey. The Coalition supports increased federal investment 
in USGS programs that underpin responsible natural resource 
stewardship, improve resilience to natural and human-induced hazards, 
and contribute to the long-term health, security and prosperity of the 
nation.
    Virtually every American citizen and every federal, state, and 
local agency benefits either directly or indirectly from USGS products 
and services. As was made clear by the recent National Research Council 
report Future Roles and Opportunities for the U.S. Geological Survey, 
the USGS's value to the nation goes well beyond the Department of the 
Interior's stewardship mission for public lands. USGS information and 
expertise address a wide range of important problems facing this 
nation: earthquakes and floods, global environmental change, water 
availability, waste disposal, and availability of energy and mineral 
resources. Some of the most important activities of the Survey serve 
the entire nation and often are most applicable to those non-federal 
lands where the nation's citizens reside. At the same time, AGI 
recognizes that the Survey does have a responsibility to provide 
scientific support for its sister land management agencies at Interior, 
an important mission that needs to be well executed if land management 
decisions are to be made with the best available scientific 
information. It is imperative that both these missions be recognized 
and valued within the Department and the White House. AGI asks the 
subcommittee to continue its efforts to help the administration better 
understand the Survey's value to the nation as a whole
    National Cooperative Geologic Mapping Program.--AGI urges the 
subcommittee to reject the administration's requested cuts to the 
National Cooperative Geologic Mapping Program and to fund this 
important program at the fiscal year 2003 appropriated level. This 
important partnership between the USGS, state geological surveys, and 
universities provides the nation with fundamental data for addressing 
natural hazard mitigation, environmental remediation, land-use 
planning, and resource development.
    Mineral Resources Program.--This highly regarded research program 
is the nation's premier credible source for regional, national and 
global mineral resource and mineral environmental assessments, 
statistics and research critical for sound economic, mineral-supply, 
land-use and environmental analysis, planning and decision making. AGI 
urges the subcommittee to reject the administration's requested cuts to 
this program and to fund it at the fiscal year 2003 appropriated level. 
If additional funds are available to grow this program, we ask the 
subcommittee to consider the Mineral Education and Research initiative 
that would establish an external grant program to support university-
based applied mineral deposits research and training in mineral 
resource issues. Such a program has been recommended by the National 
Research Council as a means of improving cooperation between the 
minerals industry, universities and government, and of arresting the 
decline in geoscience faculty research expertise in minerals geology.
    Advanced National Seismic System.--A key role for the USGS is 
providing the research, monitoring, and assessment that are critically 
needed to better prepare for and respond to natural hazards. When a 
massive quake struck Alaska in December, a major economic and 
environmental disaster was averted because the Trans Alaska Pipeline 
System did not rupture where it crossed the fault. The pipeline's 
resilience, despite the 14 feet of ground movement, was due to 
stringent design specifications based on USGS geologic studies three 
decades ago. To ensure future successes in hazard identification and 
mitigation, the Earthquake Hazards Reduction Authorization Act of 1999 
called for a significant federal investment in expansion and 
modernization of existing seismic networks and for development of 
ANSS--a nationwide network of shaking measurement systems centered on 
urban areas. ANSS can provide real-time earthquake information to 
emergency responders as well as building and ground shaking data for 
engineers and scientists seeking to understand earthquake processes. 
AGI urges the subcommittee to reject the administration's requested 
cuts to this program and to fund it at the fiscal year 2003 
appropriated level. If additional funds are available, this program 
should grow toward its authorized levels of $35 million.
    Hydrology Programs.--Although the administration has abandoned its 
fiscal year 2003 proposal to transfer the Toxic Substances Hydrology 
program to the National Science Foundation, it is still requesting a 
significant cut. The Toxics program supports targeted, long-term 
research on water resource contamination in both surface and 
groundwater environments. Such problem-specific research in this area 
is highly appropriate for USGS. The president's request also calls for 
the termination of the Water Resources Research Institutes. AGI 
strongly encourages the subcommittee to oppose these reductions and to 
fully support these programs. AGI is pleased that the administration 
has requested full funding for the National Water Quality Assessment 
and National Streamflow Information programs, both of which make 
important contributions to the nation.
    Homeland Security.--Another troubling aspect of the president's 
request that is not apparent from the budget documents is the lack of 
funding for the USGS activities in support of homeland security and the 
war on terrorism overseas. All four disciplines within the Survey have 
made and continue to make significant contributions to these efforts, 
but the fiscal year 2004 request does not provide any direct funding. 
Instead, those costs must be absorbed in addition to the proposed cuts. 
AGI encourages the subcommittee to recognize the Survey's important 
role in homeland security and ensure adequate support for its newfound 
responsibilities.

               DOE FOSSIL ENERGY RESEARCH AND DEVELOPMENT

    AGI is very concerned by the significant reductions in the 
President's budget request to the Oil Technology R&D and Natural Gas 
R&D programs. The proposed 65 percent cut to oil research and 43 
percent to natural gas research would decimate these programs. The cuts 
to upstream exploration and production research are even more drastic, 
reaching 96 percent in the case of upstream oil research. The research 
dollars spent by these programs go largely to universities, state 
geological surveys and research consortia to address critical issues 
like enhanced recovery from known fields and unconventional sources 
that are the future of natural gas supply. This money does not go into 
corporate coffers, but it helps American businesses stay in business by 
giving them a technological edge over their foreign competitors. AGI 
strongly encourages the subcommittee to restore these funds and bring 
these programs back to at least fiscal year 2002 levels.
    Research funded by DOE leads to new technologies that improve the 
efficiency and productivity of the domestic energy industry. Continued 
research on fossil energy is critical to America's future and should be 
a key component of any national energy strategy. The societal benefits 
of fossil energy R&D extend to such areas as economic and national 
security, job creation, capital investment, and reduction of the trade 
deficit. The nation will remain dependent on petroleum as its principal 
transportation fuel for the foreseeable future and natural gas is 
growing in importance. It is critical that domestic production not be 
allowed to prematurely decline at a time when tremendous advances are 
being made in improving the technology with which these resources are 
extracted. The recent spike in both oil and natural gas prices is a 
reminder of the need to retain a vibrant domestic industry in the face 
of uncertain sources overseas. Technological advances are key to 
maintaining our resource base and ensuring this country's future energy 
security.
    The federal investment in energy R&D is particularly important when 
it comes to longer-range research with broad benefits. In today's 
competitive markets, the private sector focuses dwindling research 
dollars on shorter-term results in highly applied areas such as 
technical services. In this context, DOE's support of fossil energy 
research is very significant both in magnitude and impact compared to 
that done in the private sector. Without it, we risk losing our 
technological edge with this global commodity.

                        SMITHSONIAN INSTITUTION

    This venerable institution was established for ``the increase and 
diffusion of knowledge.'' Those dual charges require that the 
Smithsonian not only welcome visitors to its museums but also produce 
new knowledge through scientific research. Earlier this year, a 
specially appointed science commission released a report outlining the 
role of research within the Smithsonian. The report noted that funding 
erosion has placed the institution's world-class research facilities 
and researchers in poor financial standing. The National Research 
Council has released a report with similar findings. The message, 
however, does not appear to have had a significant impact on the 
president's fiscal year 2004 request, which calls for a 6 percent cut 
in research funding. AGI asks the subcommittee to embrace the findings 
of these reports and build up Smithsonian research.

                         NATIONAL PARK SERVICE

    The national parks are very important to the geoscience community 
as unique national treasures that showcase the geologic splendor of our 
country and offer unparalleled opportunities for both geoscientific 
research and education of our fellow citizens. The National Park 
Services's Geologic Resources Division was established in 1995 to 
provide park managers with geologic expertise. Working in conjunction 
with USGS and other partners, the division helps ensure that 
geoscientists are becoming part of an integrated approach to science-
based resource management in parks. AGI asks the subcommittee to fully 
support the president's requested increase for the Natural Resources 
Challenge. AGI would like to see additional support for the Volunteer 
in the Park program and its associated partnerships as well as 
additional geological staff positions to adequately address the 
geologic resources in the national parks.
    Thank you for the opportunity to present this testimony to the 
subcommittee. If you would like any additional information for the 
record, please contact me at 703-379-2480, ext. 228 voice, 703-379-7563 
fax, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5a3b2a2a363f3d3b2e3f1a3b3d332d3f387435283d">[email&#160;protected]</a>, or 4220 King Street, Alexandria VA 22302-
1502.

                                 ______
                                 
      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM), the largest single 
life science organization in the world, comprised of more than 40,000 
members, appreciates the opportunity to provide written testimony on 
the fiscal year 2004 budget of $896 million for the U.S. Geological 
Survey (USGS). The ASM represents scientists who work in academic, 
medical, governmental and industrial institutions worldwide and are 
involved in research to improve human health and the environment.
    The USGS is a world leader in the natural sciences and serves the 
nation by furthering our understanding of the Earth and its ecosystems. 
Through the management of water, biological, energy, and mineral 
resources, USGS research is providing novel solutions to pressing 
issues in the geological, hydrological, geographical, and biological 
processes. USGS's ability to carry out large scale, multi-disciplinary 
studies on a national scale are critical to advancing this knowledge. 
Through its long-term monitoring and assessment programs of the 
nation's natural resources, the USGS provides the impartial science 
that federal, state and local governments need in order to respond to 
changing environmental conditions.
    The USGS's environmental monitoring capabilities also make it the 
lead science provider for accessing information and facts necessary for 
resolving complex natural science problems across the nation and around 
the world. For instance, the USGS is collaborating with the Centers for 
Disease Control and Prevention and the U.S. Department of Agriculture, 
in order to better understand the west Nile Virus (WNV) and its effects 
on humans and animals. This type of collaboration relies on USGS's 
unique, nation-spanning monitoring systems that allow the USGS to track 
and evaluate disease-causing vectors in an effort to protect human and 
animal health. The USGS is also co-sponsoring with the National 
Institutes of Health and the National Science Foundation research on 
the ecological changes that affect infectious diseases such as 
biodiversity loss, habitat transformation, environmental contamination, 
and climate change. This type of research can only be accomplished with 
USGS's extensive environmental monitoring data and its expertise in 
analyzing complex environmental phenomena.
    The ASM is concerned that the fiscal year 2004 budget request 
proposes cuts that will severely restrict the USGS's ability to provide 
scientific support for the Department of Interior and other agency 
research needs. The proposed cuts result in a decrease of $30 million 
for the USGS, or 3 percent, to $895 million for fiscal year 2004. 
Within the USGS budget, the Biological Resources Division (BRD) is 
essentially level funded at $168 million; the Water Resources Division 
is cut by 5 percent to $200 million and the Geologic Division is cut by 
5 percent to $222 million. The ASM would like to submit the following 
comments and recommendations for adequate funding levels for research 
in the Water Resources Division and the BRD for fiscal year 2004.

               NATIONAL WATER-QUALITY ASSESSMENT PROGRAM

    Since 1991, USGS scientists with the National Water-Quality 
Assessment Program (NAWQA) have been collecting and analyzing data and 
information on more than 50 major river basins and aquifers across the 
nation. Its efforts focus on long-term, independent water quality 
research that is otherwise unavailable. NWQAP is made-up of 42 sites 
nationwide, which provide quantitative information on: (1) long-term 
trends in concentrations of nutrients, pesticides, and sediment that 
enter the water system; (2) regional source areas of contaminants; and 
(3) the effects of population and land use on the concentrations of 
contaminants. Through NWQAP, the USGS is able to leverage its nation-
spanning environmental monitoring facilities to provide local 
government, resource managers and industry the means to protect 
drinking water and water ecosystems. NWQAP other partners for 
responding to local, state, regional, and national efforts to protect, 
improve, and manage water resources.
    The Administration's budget proposes a $64 million budget for the 
NWQAP, a 10 percent increase over fiscal year 2003, but level with 
fiscal year 2002.--This level of funding will allow the program to 
continue microbial sampling initiatives, which were singled out by the 
National Academy of Science-National Research Council's (NRC) Water 
Science and Technology Board (1999) as a priority.
    The ASM applauds USGS's leadership in addressing existing and 
future water quality needs through multidisciplinary research teams. 
The ASM urges Congress to support this critical program that plays such 
an important role in public health and safeguarding our water supply 
from unexpected biological hazards.

                   TOXIC SUBSTANCES HYDROLOGY PROGRAM

    The ASM is pleased to see the Administration has supported this 
program in its fiscal year 2004 budget proposal.--The ASM recommends 
that Congress meet or exceed the Administration's funding of $11 
million. The Toxics program is a major resource in the nation's effort 
to identify harmful pharmaceuticals, hormones, and other organic 
wastewater contaminates in the water system. The ASM supports the focus 
and mission of this program and its efforts to combat increasing levels 
of toxic substances and water-borne pathogens in our drinking water 
supplies.
    The Toxic Substances Hydrology Program (Toxics) is conducting long-
term research to improve our understanding of the behavior of 
contaminants in the nation's ground and surface waters. The Toxics 
program is also an essential partner in the water-quality monitoring 
and assessment programs of the U.S. Environmental Protection Agency, 
the U.S. Department of Agriculture, the Department of Defense, the 
Department of Energy, the Nuclear Regulatory Commission, and other DOI 
agencies. In 2004, the program will focus on identifying new 
contaminants (e.g., hormones, animal-based pharmaceuticals), and 
developing the analytical methods needed to protect the integrity of 
our water resources, one of the most important issues of the 21st 
century. For instance, the Toxics program is involved in research to 
identify the factors that control where and when mercury accumulates to 
toxic levels in the food chain. This research is an important component 
in restoration efforts of the Florida Everglades ecosystem.

            STATE WATER RESOURCES RESEARCH INSTITUTE PROGRAM

    The ASM requests that Congress continue to fund this program 
despite the Administration's plan to eliminate it in fiscal year 2004. 
The funding level for the program in fiscal year 2002 and fiscal year 
2003 was $6 million. Therefore, the ASM highly recommends that the 
Subcommittee allocate the necessary funds (at least $6 million) to 
maintain program viability. The Water Resources Research Act of 1984 
established the State Water Resources Research Institute Program 
(SWRRIP) to coordinate State and federal research on water quality and 
water supply problems. This program is also one of the federal 
government's principal mechanisms for training the next-generation of 
water scientists and engineers. For example, in 2002, the program 
requested funding (USGS and University of Arizona scientists) to 
examine the impact of agricultural chemicals as a major non-point 
source of arsenic, by monitoring the microbial processes and 
microorganisms responsible for the conversions of arsenic compounds. 
Such water quality research is essential if the toxicity of 
agriculturally based arsenic is to be determined and plans for 
amelioration developed.

                      WILDLIFE DISEASE INITIATIVE

    The Wildlife Disease Initiative (WDI) is currently an unfunded 
program within the BRD. The USGS anticipates the cost of the program in 
its first year, which would be fiscal year 2004, to be $10 million. The 
ASM supports this level of funding for the WDI. The WDI would focus 
research on the recent emergence of major diseases affecting wildlife, 
such as, the West Nile virus (WNV), Chronic Wasting Disease (CWD), 
bovine Tuberculosis (TB), and the potential introduction of Foot and 
Mouth Disease (FMD). While several of these diseases (TB, CWD, and FMD) 
can have a devastating effect on domestic animals, their potential 
impact upon human health is less understood. However, it should be 
noted that the agent of bovine Tuberculosis can cause TB in humans. The 
WDI would allow the USGS to assist the U.S. Department of Agriculture 
and the Centers for Disease Control and Prevention in bridging this 
knowledge gap. Such a partnership would provide the critical wildlife 
expertise necessary for studying the effects of these emerging diseases 
on wildlife; improve our understanding of wildlife's role as 
reservoirs; and improve our ability to prevent and control outbreaks.
    No other agency has the capabilities or expertise to address 
disease detection, control and prevention in wildlife. Therefore, the 
ASM fully supports an integrative, inter-agency program that combines 
animal and human health as elements of public health. Furthermore, the 
ASM urges the Subcommittee to consider the importance of tracking and 
responding to wildlife diseases, such as, WNV that can move freely 
between animal host and humans.

                               CONCLUSION

    Interactions between the environment, its biota and people are 
highly complex and solutions require integrative, multidisciplinary 
approaches and an adequately funded and staffed USGS. The ASM 
encourages Congress to maintain its commitment to U.S. Geological 
Survey research programs, which are vital to continued discovery of 
geological, hydrological, geographical, and biological processes that 
are so important to the well being of the environment and protecting 
public health.
                                 ______
                                 

       Prepared Statement of the Ground Water Protection Council

    Mr. Chairman, thank you for the opportunity to testify today. My 
name is Tom Richmond and I am a member of the Board of Directors of the 
Ground Water Protection Council and the Administrator of the Montana 
Board of Oil & Gas Conservation. This agency is responsible for the 
environmental safeguards related to oil and gas exploration and 
production, including the re-injection of produced salt water into 
geologic formations below underground source of drinking water. This 
Underground Injection Control (UIC) program assures the safety of our 
underground water supplies. My testimony today is submitted on behalf 
of the Ground Water Protection Council (GWPC).
    The Ground Water Protection Council (GWPC) is responsible for the 
development and operation of the nationally acclaimed Risk Based Data 
Management System (RBDMS) system. GWPC has received DOE's Energy 100 
Award for RBDMS. This recognizes RBDMS as one of the top 100 of all DOE 
projects. Research indicates that agencies with data management systems 
that provide access to oil and gas data experienced a conservative 
estimated increase of 10 percent for new developments as a result of 
the much improved data access. The GWPC is made up of state oil and gas 
agencies, as well as, those that regulate ground water and other 
underground injection control programs. Through the GWPC, the states 
are all working together to protect ground water resources while 
holding down the cost of environmental compliance.
    We would like to thank the Committee for the previous support of 
approximately $950,000 in the fiscal year 2003 budget. The funding has 
given the states the opportunity to develop additional software and 
management tools that enables states to make decisions that result in 
the best possible balance of exploration and environmental 
considerations. We, in turn share that information with the public and 
companies we regulate, many of which are small businesses that would 
not otherwise have the ability to access such accurate information. We 
ask for continued support and assistance to state oil & gas agencies 
and the independent oil & gas industry with continued funding of the 
Risk Base Data Management Systems (RBDMS) and urge the Committee to 
hold the funding for RBDMS at the same level ($950,000) for fiscal year 
2004 so we can continue to expand the system to every oil and gas 
producing state. The system is currently operational in Alaska, 
Montana, Nebraska, Mississippi, North Dakota, Ohio, New York, 
Pennsylvania, Utah, New Mexico, Alabama, Kentucky, Missouri, Arkansas, 
Florida, Kansas, as well as the Osage Tribe in Oklahoma. In 03 we are 
installing RBDMS in Nevada and California and we are beginning the 
process in Oklahoma and Louisiana. Additional funding would allow each 
remaining state to initiate the program as well. This funding will be 
used to enhance the current capabilities of RBDMS to make it accessible 
to both the public, local governmental agencies and the companies 
through the Internet. We are learning that electronic commerce mutually 
saves time and money for both the oil and gas industry and the 
regulatory agencies. On-line permitting and reporting is cost effective 
and saves industry time and money. One California operator estimated 
that an automated permitting system for new drills and reworks could 
increase production from one of its larger oil and gas fields by 
500,000 barrels per year. Therefore, any delay in issuing a permit 
caused by the inefficiencies of manual processes and analyses can have 
a significant impact on production. This funding will provide the 
smaller independent oil producers access to this environmental data 
management system. Smaller producers are often the most in need of such 
a system because high regulatory costs hit them the hardest.
    I want to stress that states are dedicating their own financial 
resources to RBDMS. For example Ohio, is using almost $600,000 in state 
capital improvement and $400,000 of operations funding to implement 
RBDMS. Every state currently using the system has also contributed to 
building the system and I know all additional states are planning on 
using state dollars as well as federal funds. But what the remaining 
states need is a relatively small amount of start-up assistance after 
which time they have shown they are willing to begin applying their own 
resources. State match for federal funding exceeds 100 percent. We are 
more than doubling the investment of federal dollars we receive.
    With past assistance from the U.S. Department of Energy, the GWPC 
assembled a project team with extensive knowledge and experience in 
state oil and gas agency environmental data management to develop 
RBDMS, the only comprehensive, fully relational, PC-based oil & gas 
regulatory data management system in the country. By allowing the oil 
and gas industry to participate in the next phase of development of the 
system, we will assure that it will be useful and effective for them. 
Continued funding at $950,000, the fiscal year 2004 level, will be 
mutually beneficial to the private sector and the states by keeping 
environmental compliance costs down.
    RBDMS is one of the best examples we have seen of how the states, 
working with the private sector, can improve both industry production 
and environmental protection at the same time. Included with my 
testimony within the ``RBDMS Annual Report'' are endorsement letters of 
RBDMS as an alternative to costly command and control regulatory 
policies. It is supported by both the regulated community and the 
regulators themselves. Continuing to fund the states in this manner 
allows us to tailor our regulatory program needs to the industry which 
operate in our respective states. There is no federal alternative, or 
``one size fits all'' national approach that would work as efficiently 
as this cooperative multi-State effort.
    In summary, the funding we are requesting will provide a means for 
the successful expansion of the Risk Based Data Management System and 
will provide the following benefits: (1) improve environmental 
protection, (2) less regulatory and compliance costs for producers, (3) 
better state enforcement of environmental regulations, (4) increased 
exploration activity by small and independent operators and (5) 
increased oil and gas production. The remainder of my testimony 
provides a more detailed explanation of how we have used prior funds 
and how we would use the requested increase. Due to its length, the 
GWPC will submit it independently in the form of an ``RBDMS Annual 
Report''.
                                 ______
                                 
    Prepared Statement of the International Association of Fish and 
                           Wildlife Agencies

                 BIOLOGICAL RESOURCES DISCIPLINE, USGS

    Since fiscal year 1994, the base level of funding for BRD has 
lagged more than $30 million behind the rate of inflation, to say 
nothing about the inability of BRD to realize substantial increases in 
program funding to meet the basic research needs of the natural 
resources community. The President's proposed fiscal year 2004 budget 
continues to reflect an emphasis on meeting needs identified by 
Department of the Interior land management bureaus, while biological 
research needs for the remainder of the land area in the United States, 
including that managed by the States, remains largely ignored.
    The Association is disappointed that the biology component of the 
fiscal year 2004 USGS budget request reflects a 1.2 percent reduction 
from the fiscal year 2003 enacted. This reduction is due primarily to 
the lack of continued funding for several Congressional Add-ons, most 
of which are intended to provide critical, timely information to 
improve natural resource management in the United States. We recommend 
that Congress continue to fund the following projects in the BRD budget 
for fiscal year 2004: Amphibians Research and Monitoring ($500,000), 
Ballast Water Research ($499,000), Mark Twain National Forest Mining 
Study ($750,000), Yukon River Chum Salmon ($180,000), Molecular Biology 
Studies ($400,000), Pallid Sturgeon Study ($500,000), Diamondback 
Terrapin Study ($100,000), Atlantic Salmon ($50,000), DNA Bear Sampling 
in Montana ($1 million), Multidisc Water Resources--Leetown ($300,000), 
Additional Work at Lake Tahoe ($500,000), Great Lakes Vessel Operations 
($120,000), Two Additional Researchers--GLSC ($180,000), Genetic 
Research at Wellsboro Lab ($500,000), and Cherokee National Forest 
Inventory and Monitoring ($300,000). These projects are of particular 
importance to State fish and wildlife agencies in providing necessary 
information to address these local, regional and national needs.
    Of particular concern in the fiscal year 2004 BRD budget request is 
the reduction of support for continuation of the long-term Fire Science 
initiative. These fire ecology studies represent collaborative efforts 
with the Fish and Wildlife Service, National Park Service and Bureau of 
Land Management. These studies are intended to enhance our 
understanding of the effects of fire, subsequent recovery of the 
landscape, and improve our ability to manage burned landscapes. It is 
the intent of USGS to rely on the Interagency Fire Science Fund for 
continuation of this work. We do not believe this represents an 
effective approach for long-term funding, as these funds must be 
negotiated annually. Long term studies need stable and predictable 
funding. The Association recommends that $2.8 million be restored by 
Congress for this effort.
    BRD is proposing to absorb approximately $1.9 million of $3.4 
million in uncontrollable costs in the fiscal year 2004 budget. This 
reduction will result in significant losses in operational funds. The 
Association recommends that Congress provide $1.9 million of additional 
funds to fully fund uncontrollable costs in BRD.
    The Association is also concerned that BRD is disproportionably 
allocating information technology (IT) reductions. It is vital that 
these reductions be implemented in a manner that best preserves all 
programs' viability. The Association recommends that the proposed IT 
reductions be spread equitably among all BRD programs.
    The Association applauds the Administration, DOI, and USGS for 
their recognition of the value and growing importance of the Gap 
Analysis Program and the National Biological Information Infrastructure 
(NBII) and supports the $1 million increase in funding requests for 
fiscal year 2004 for the latter. However, we also support Congressional 
direction in the fiscal year 2003 omnibus appropriations bill to BRD to 
further refine the objectives for NBII and clearly define a strategy 
for achieving those objectives. As we have stated in the past, these 
two programs are good examples of the results that may be derived from 
placing an emphasis on partnerships with States and others, as long as 
those partnerships are meaningful.
    The Association has long supported GAP's inclusion of, and reliance 
on, State agencies for GAP projects, and looks forward to the expansion 
of States' roles in Aquatic GAP. The Association is nearing the 
conclusion of its second year of close partnership with the NBII, and 
has seen, with gratification, the growing number of States that are 
beginning to reap the benefits of this liaison. Examples include sage 
grouse conservation/sagebrush habitat, chronic wasting disease, West 
Nile virus, and Internet access to Breeding Bird survey data. The 
Association seeks to expand the relationship of the States with the 
NBII Program, and recommends Congress increase the fiscal year 2004 
budget for NBII by $2 million to support a pilot project designed to 
fund States' data management needs through a grants award process to be 
administered by the Association. Furthermore, the Association 
recommends Congress increase NBII's fiscal year 2004 budget by an 
additional $500,000 to fund the Northern Rockies Node at a level of 
$500,000 (a $350,000 increase over what is proposed) and the Pacific 
Northwest Node at a level of $350,000 (an increase of $150,000 over 
what is proposed). The Association supports the proposed expansion of 
the California Node and the proposed initiation of the Mid-Atlantic 
Node in the fiscal year 2004 budget request, but also strongly believes 
existing nodes must be adequately funded. Such is the case with the 
Northern Rockies and Pacific Northwest nodes where demands far outstrip 
the modest funding levels currently in place. This disparity should be 
addressed in this budget cycle, in advance of other nodes scheduled for 
initiation next year and beyond.
    The Association applauds Congress' past efforts at fully funding 
the Cooperative Research Units, thereby allowing Unit productivity to 
rise to record levels. Since that was first achieved in fiscal year 
2001--at $14 million--there has been some erosion of available fiscal 
resources for the Units, principally due to uncontrollable costs. These 
have been disproportionately high since 90 percent of the budget for 
the Units is salaries. This first surfaced in the fiscal year 2002 
enacted budget when the Units were $400,000 short. Because of the high 
proportion of personnel costs, the burden was high, yet the budget 
remained flat at $14 million. In the fiscal year 2003 enacted budget, 
the Units were funded at $14.9 million. The President's proposed fiscal 
year 2003 budget had actually left the budget flat, but funds were 
added in markup as follows: $400,000 for operating costs for the new 
Nebraska Cooperative research unit and $500,000 for uncontrollable 
costs--although the $400,000 uncontrollable shortfall from fiscal year 
2002 still remains. In the President's fiscal year 2004 budget request, 
the Units would be funded flat, based on the President's fiscal year 
2003 request. This means there would be no money for the Nebraska 
Cooperative research Unit to operate in 2004, and there would be a 
$600,000 shortfall in uncontrollables. Because of the flat budget, this 
would mean a net uncontrollable cost shortfall for three consecutive 
years. In short, the impact on the other Units would be significant.
    To maintain full funding for the Cooperative Research Units, the 
Association recommends Congress increase the fiscal year 2004 budget by 
$1 million over the fiscal year 2003 enacted--to $15.9 million--in 
order to maintain the new Nebraska Unit that Congress established in 
fiscal year 2003, plus again cover uncontrollable costs as Congress did 
in fiscal year 2003 enacted.
    Three states have fisheries units only and 12 states have neither 
fisheries nor wildlife units. Most states have expressed an interest in 
entering into a partnership between the BRD, a State University and the 
state fish and wildlife agency to bring one or both Cooperative 
Research Units to their state. The Association is pleased that the 
fiscal year 2003 Appropriations language directs BRD ``to develop a 
priority system for expanding the current program.'' The Association 
looks forward to participating in this strategic planning process and 
we urge Congress to approve budget requests in subsequent years based 
on this undertaking.
    The Association strongly supports BRD's proposal to fund the 
aquaculture chemical and drug registration effort. The continuation of 
this cooperative project between BRD, the U.S. Fish and Wildlife 
Service, the U.S. Department of Agriculture and the state fish and 
wildlife agencies is critically important to assure that approved, 
effective and safe treatment measures are available to private, state 
and federal aquaculture programs. Great progress has been made in 
registration of drugs and chemicals for the treatment and prevention of 
diseases in important aquaculture species but additional work remains 
to increase and expand the treatment options that are available to 
aquaculture managers. BRD is uniquely qualified for its leadership role 
in this project and we recommend that Congress express its support for 
BRD's continued participation in this cooperative effort.
    A significant problem still exists with brucellosis, a disease that 
affects domestic livestock and other animals, and is present in elk and 
bison in the Greater Yellowstone Area, located within the states of 
Montana, Wyoming and Idaho. The BRD has a key responsibility, working 
with other agencies, to help resolve this issue, with the goal of 
eliminating the disease from the region by 2010. Both the National Park 
Service and U.S. Fish and Wildlife Service have contributed to a 
brucellosis research program conducted and partially funded by BRD to 
improve the vaccination program for brucellosis in elk and bison. These 
commitments have been on an ``ability to pay'' basis. The Association 
recommends that in addition to BRD's own $500,000 programmed for 
ongoing brucellosis studies, the other USDI agencies cooperating in 
this research be required to specifically identify the amount intended 
for this purpose in their respective budgets, and then transfer that 
amount to BRD's budget to allow the Division to meet its 
responsibilities in resolving this issue. The Association strongly 
supports this research endeavor, but encourages ongoing communications 
and cooperation with the involved States.
    Emerging disease issues, such as West Nile virus, chronic wasting 
disease, foot-and-mouth disease, avian vacuolar myelinopathy, and 
whirling disease represent significant threats to fish and wildlife. 
The Association strongly recommends that Congress direct BRD to enhance 
its ability to assist state fish and wildlife management agencies in 
dealing with disease issues by increasing by an additional $500,000 the 
funding of the National Wildlife Health Center (NWHC). Further, the 
Southeastern Cooperative Wildlife Disease Study (SCWDS) provides vital 
diagnostic services to the States and is the principal coordinating 
entity between the State fish and wildlife agencies and the U.S. 
Department of Agriculture with respect to epizootics that can affect 
both domestic animals and wildlife. The funding of SCWDS has been 
static since 1987 at $250,000 (minus $18,500 in administrative fees 
paid to NWHC). Inflationary erosion has reduced the purchasing power of 
the SCWDS appropriation to approximately 25 percent of its value at 
inception in 1963 and an ever-expanding workload due to emerging 
disease issues threatens to compromise the ability of SCWDS to continue 
to provide all its state and federal supporters with the level of 
service they have come to expect. The Association strongly recommends 
that an additional $150,000 be appropriated to BRD for SCWDS to bring 
the total to $400,000. The Association further strongly encourages BRD 
to request incremental increases in future years in their budget 
request to enable adequate funding of SCWDS. Additionally, the 
Association recommends that BRD increase consultation and cooperation 
with other wildlife resource, land management, agriculture, and human 
health agencies to control diseases that threaten the health of the 
Nation's wildlife.
    The BRD was created to serve as the primary research arm for USDI 
bureaus. This research function was solidified with the transfer of the 
Cooperative Research Units from the U.S. Fish and wildlife Service to 
BRD. However, the creation of, and continued expansion of, natural 
resources research activities in the Cooperative Ecosystem Studies 
Units (CESU) within the National Park Service has led to duplication of 
efforts, confusion amongst cooperators, and significant expenditures of 
limited resources. Because Congress intended that BRD be the research 
arm of the USDI, the Association recommends Congress direct the 
Secretary of the Department of the Interior to clearly and explicitly 
identify the need for CESUs and articulate the distinction between 
these entities. It is the Association's conclusion that, unless such a 
distinction can be clearly articulated and the need clearly identified, 
Congress should ultimately transfer the funding for NPS' CESUs to BRD 
and have BRD assume the CESU's ecological research function.
    The Association strongly supports BRD's requested funding increase 
of $1 million to expand research on chronic wasting disease, a 
progressively degenerative and ultimately fatal disease in deer and 
elk; the $500,000 increase in amphibians research; and $4 million 
increase to expand invasive species research and begin developing a 
prototype model for a national early detection network for invasive 
species in U.S. terrestrial and aquatic ecosystems. At the same time, 
however, the Association urges BRD and Congress not to diminish funding 
directed at ongoing research needs that may not, at present, be 
garnering the kind of public attention as those targeted here, but for 
which there remain many unanswered questions and the consequences of 
not continuing the research in earnest has dire consequences.

                                 ______
                                 
      Prepared Statement of the Interstate Council on Water Policy

    The Interstate Council on Water Policy (ICWP), a national 
organization representing state, local and interstate water resource 
agencies, would like to take this opportunity to comment on the 
Administration's proposed budget for the U.S. Geological Survey in 
Federal fiscal year 2004.
    ICWP is pleased to see that, in contrast to the past two years when 
USGS water data collection programs faced severe cuts, the President's 
2004 budget proposes to at least maintain stable funding for the U.S. 
Geological Survey's Cooperative Water Program and National Streamflow 
Information Program (NSIP). Stream-gaging has been the hallmark 
function of the USGS for over a century. Water management involving 
water supply, water quality protection, flood control and recreation 
all require information on the flow condition of streams throughout the 
United States. While the President's budget does hold the funding of 
these programs steady, it does not keep up with the anticipated four 
percent increase in costs typically seen annually in the stream-gaging 
program. Therefore, loss of gages across the country is an inevitable 
result of this budget.
    ICWP has made the long-term stability and security of the nation's 
stream-gaging program a priority concern. In 2001, ICWP convened four 
regional workshops across the nation to discuss a national network of 
stream gages, the purposes for such gages and the financial 
responsibility of this network. Concurrently, USGS was implementing the 
first stages of its National Streamflow Information Program to deal 
with the erosion of national gage coverage in recent years. The ICWP 
workshops also provided a forum for critiquing USGS's NSIP program. 
This critique and recommendations for a national stream-gaging network 
are contained in an ICWP report from February 2002, which is enclosed.
    One of the basic tenets of building the national network of stream 
gages has been the need to shore up the Cooperative Water Program. This 
Co-op program matches state and local funds with a match from the USGS. 
The program supports two main functions, data collection, such as 
stream-gaging, and interpretive studies. Originally, the match between 
non-federal cooperators and the USGS was 50:50. Over time, increased 
requests by cooperators for USGS services, coupled with stagnant 
federal funding has altered the proportion of funding within the Co-op 
Program, such that, in 2002, there was $65 million of unmatched 
cooperator funds supporting projects and gages. While there is 
substantial support for the USGS to continue its NSIP initiative to 
stabilize the national network of gages, there is an overwhelming need 
by cooperators to see USGS rebuild its level of commitment to the 
Cooperative Water Program and the gages supported by that program.
    Based on the findings of the ICWP regarding stream-gaging in the 
country, we would request Congress increase the federal investment in 
gages managed and maintained under the NSIP and the Cooperative Water 
Programs. To that end, ICWP requests Congress increase the 
Administration's proposed 2004 USGS budget to add $2 million for NSIP 
and $2 million to the Cooperative Water Program, earmarked specifically 
for supporting stream gages with state and local cooperators. While 
there are a number of other programs of USGS that deal with hydrologic 
monitoring, assessment and research, ICWP believes that the paramount 
concern of state and local water managers is the acquisition of 
streamflow data. Without the provision of basic data from the nation's 
rivers and streams, all other water resource information has marginal 
utility. Increased funding over current levels for the NSIP and 
Cooperative Water Program remains our first priority, and we believe it 
should be the priority of the federal government as well.
    As a side note, ICWP has become aware of Draft Office of Management 
and Budget Circular A-76, which effectively limits state and local 
governments' use of USGS expertise, unless they can demonstrate the 
absence of a private sector vendor who can perform the same service. We 
believe this limitation applies to both interpretive studies and basic 
data collection. Given the over $65 million in unmatched funds directed 
toward USGS through its Cooperative Water Program, it is small wonder 
that the private sector would seek to re-direct those resources to 
engineering and consulting firms. While there may be some opportunity 
to utilize other investigators for interpretive analysis, ICWP believes 
that the basic USGS data collection responsibilities should be immune 
from this type of institutional approach. The value of having USGS, 
rather than the private sector, collect water data is significant. It 
ensures quality control by an impartial party, a factor that is often 
critical in potentially controversial water allocation decisions or 
litigation. We encourage your committee to examine the intent and 
effect of the OMB Circular on acquisition of water resource 
information.
    ICWP recognizes ongoing budget struggles aggravated by the 
hostilities in Iraq and need for Homeland Security, however, we would 
observe that providing water supplies to communities and industries, 
warning citizens to stay out of harm's way during flooding events and 
protecting the nation's waters from the continual threat of pollution 
are intrinsic to Homeland Security. Those functions of water management 
must have reliable information upon which to act, thus increased 
investment in acquiring that hydrologic intelligence is a reasonable 
and prudent act on the part of the federal government.
    ICWP appreciates your consideration of these remarks. Please feel 
free to contact me at 785-296-6170 or ICWP Executive Director Susan 
Gilson at 202-218-4133 to continue this discussion.

                                 ______
                                 
            Prepared Statement of the Mineral Policy Center

    On behalf of the Mineral Policy Center and its members around the 
country, we appreciate the opportunity to submit testimony on three key 
hardrock minerals-related issues in the Interior Appropriations bill 
that are vital to the public interest.
    First, we urge the Senate Interior Appropriations Subcommittee to 
provide full funding for United States Geological Survey (USGS), and in 
particular, the Mineral Resources Program. Unfortunately, the 
Administration's fiscal year 2004 budget request would cut funding to 
an unacceptable level for both of these programs. The President's 
fiscal year 2004 budget request for the USGS is $895.5 million, a 
decrease of $24 million or 2.6 percent relative to the fiscal year 2003 
enacted level of $919.3 million. The Mineral Resources Program would 
suffer even further--the President's fiscal year 2004 budget request is 
$43.4 million, a decrease of $12.4 million or 22.2 percent from the 
fiscal year 2003 enacted level of $55.8 million. Such cuts would make 
it extremely difficult for the USGS to produce the same quality and 
quantity of information that it has in the past, with the result that 
the public's awareness of such information would also decline. It is 
critical that the USGS be fully funded, with adequate levels for the 
Mineral Resources program to research and produce national and 
international information products.
    The USGS and the Mineral Resources Program collect, analyze and 
provide data that is of vital use to the public and to public interest 
groups. For example, the Western Region Mineral Resources Project works 
to assess the mineral resources and mineral related environmental 
problems of the western region of the United States, focusing on 
impacts to the environment and public health; sustainability and 
societal need; the economy and public policy; and more. Other programs, 
such as the Minerals Information Team, provide key data on the domestic 
and international supply and demand for minerals via the Minerals 
Yearbook and Mineral Commodity Summaries. Because of the often 
devastating impacts that hardrock mining in the United States and 
internationally can have on communities, water supplies, habitat and 
other crucial natural resources, not to mention taxpayers and local 
economies, such information is invaluable to for the public.
    It is difficult to overstate the importance of the Mineral 
Resources Program. As identified by the National Academy of Sciences 
and others, those charged with administering U.S. minerals resources--
the Bureau of Land Management and the Forest Service--inadequately 
document and/or publicize their mineral management activities and the 
consequences of mineral activity under their management. If it weren't 
for the USGS Mineral Resources Program, the public would know little 
about mineral activity in the United States.
    Additionally, the international aspect of the Mineral Resources 
Program must not be overlooked--many hardrock mining companies are 
active both here and abroad, and many are also foreign-owned. Data on 
mining overseas can directly impact the situation on the ground here.
    The USGS and its programs are the only source of minerals 
information that is both readily available and affordable to ordinary 
citizens and public interest groups. As such, this remains one of the 
only ways that public interest groups and concerned members of the 
public can check on the accuracy of information disseminated by the 
hardrock mining industry itself.
    In addition to full funding for the USGS, Mineral Policy Center 
highly supports the retention in the Interior Appropriations bill 
placing a moratorium on any new patent applications under the general 
mining laws. This provision has been reinstated every year since 1994 
and represents sound public policy. Prior to the enactment of this 
moratorium, mining companies acting under the 1872 Mining Law purchased 
public land equal in size to the state of Connecticut, containing 
minerals worth more than $245 billion. In 1994, the Canadian company 
Barrick Resources purchased the Goldstrike Mine in Nevada, which is 
worth $10 billion, for about $9,765--literally a millionth of its 
worth. Such a giveaway of public resources should never be allowed to 
occur again.
    Finally, we would like to praise the Interior Appropriations 
Subcommittee for its past efforts to keep many anti-environmental 
riders out of the bill and urge that this bill be kept clean of any 
such anti-environmental provisions this year.
    Thank you again for the opportunity to submit testimony.
                                 ______
                                 

    Prepared Statement of the National Council for Science and the 
                              Environment

                                SUMMARY

    The National Council for Science and the Environment (NCSE) urges 
Congress to appropriate $959.7 million for the U.S. Geological Survey 
in fiscal year 2004, an increase of 4.4 percent over the fiscal year 
2003 enacted level of $919.3 million (Table 1). Our national interests 
will be served if Congress provides adequate resources for the USGS to 
fulfill its mission, including its critical role in homeland security. 
NCSE supports increased federal investment in USGS programs that 
underpin responsible natural resource stewardship, improve resilience 
to natural and human-induced hazards, and contribute to the long-term 
health, security, and prosperity of the nation. A 4.4 percent increase 
in the USGS budget in fiscal year 2004 would provide new funding to 
support the agency's responsibilities related to homeland security and 
other priorities and support an adjustment that accounts for inflation 
and uncontrollable costs.
    NCSE is a nonprofit, nonpartisan organization that has been working 
since 1990 to improve the scientific basis for environmental 
decisionmaking. Our work is endorsed by nearly 500 organizations, 
ranging from the U.S. Chamber of Commerce to the Sierra Club, including 
the National Association of Attorneys General, National Association of 
Counties, some 300 colleges and universities, and more than 80 
scientific and professional societies. As a neutral science-based 
organization, NCSE promotes science and its relationship with 
decisionmaking but does not take positions on environmental issues 
themselves.
    The National Council for Science and the Environment thanks the 
Senate Appropriations Subcommittee on Interior and Related Agencies for 
the opportunity to provide testimony on the U.S. Geological Survey 
budget request for fiscal year 2004.

                       FEDERAL INVESTMENTS IN R&D

    Federal investments in R&D and science education are essential to 
the future well-being and prosperity of the nation and deserve the 
highest priority of Congress. The long-term prosperity of the nation 
and the maintenance of our quality of life depend on a steady and 
growing commitment of federal resources to science and technology.
    The U.S. Geological Survey is a critical component of the nation's 
R&D portfolio. NCSE supports the continued vitality of the unique 
combination of biological, geological, hydrological and mapping 
programs of the U.S. Geological Survey. The USGS provides independent, 
high-quality data, information, research support and assessments needed 
by federal, state, local and tribal policymakers, resource and 
emergency managers, engineers and planners, researchers and educators 
and the public. NCSE supports increased federal investment in USGS 
programs that underpin responsible natural resource stewardship, 
improve resilience to natural and human-induced hazards, and contribute 
to the long-term health, security and prosperity of the nation.

            HOMELAND SECURITY AND THE U.S. GEOLOGICAL SURVEY

    The USGS has tremendous strength in areas that are critical to 
homeland security, such as protecting water resources and producing 
digital maps that are needed for assessing terrorist threats and 
responding to terrorist attacks. The significance of USGS research to 
homeland security is reflected by the fact that its report on ``Source-
Area Characteristics of Large Public Surface-Water Supplies in the 
Coterminous United States,'' has been withdrawn from approximately 300 
federal depositories. FBI agents visited several libraries to ensure 
that the document was truly removed from circulation.
    After September 11, the USGS provided more than 100,000 topographic 
maps as well as digital geospatial information and Landsat images to 
emergency response, law enforcement, intelligence, and defense 
agencies. The USGS has produced a set of 55,000 topographic maps that 
provides the nation's only comprehensive coverage of the nation's 
infrastructure, including highways, bridges, dams, power plants, 
airports, railroads, and major buildings. The average age of the 
topographic maps is 23 years. The USGS National Map program would bring 
this asset into the 21st century. Accelerated investments in the 
National Map--which involves partnerships with federal, state, and 
local agencies and the private sector--will pay dividends to homeland 
security, economic development, natural resource management, and many 
other national needs.
    Some of the proposed cuts in the USGS fiscal year 2004 budget 
request are in areas related to homeland security, such as topographic 
mapping and research on the dispersal of toxic substances in lakes, 
streams, and aquifers. At a time when the federal government is 
allocating tens of billions of dollars for homeland security, we urge 
Congress to explore the role of the USGS in homeland security and 
counterterrorism and to provide full funding for its responsibilities 
in these critical areas.

       U.S. GEOLOGICAL SURVEY BUDGET REQUEST FOR FISCAL YEAR 2004

    The National Council for Science and the Environment urges Congress 
to appropriate $959.7 million for the U.S. Geological Survey in fiscal 
year 2004, an increase of 4.4 percent over the fiscal year 2003 enacted 
level of $919.3 million. Our national interests will be served if 
Congress provides adequate resources for the USGS to fulfill its 
mission. A 4.4 percent increase in the USGS budget in fiscal year 2004 
would provide new funding to support the agency's responsibilities 
related to homeland security and other priorities as well as an 
adjustment that accounts for inflation and uncontrollable costs.
    The President's fiscal year 2004 budget request would cut nearly 
every line item in the USGS budget relative to the fiscal year 2003 
enacted level (Table 1). The budget request would cut funding for 
Biological Research by 0.6 percent, Geologic Hazards and Resources by 
5.0 percent, Mapping, Remote Sensing and Geographic Investigations by 
9.6 percent, and Water Resources by 3.4 percent. Total funding for the 
USGS would decrease by $24 million or 2.6 percent.
    The proposed cuts would have negative impacts related to homeland 
security; natural hazards mitigation; water, energy, and mineral 
resources; invasive species; the national spatial data infrastructure; 
and other areas. For example, the Toxic Substances Hydrology program 
would receive a disproportionate cut of 17.7 percent. USGS water 
programs are essential for maintaining safe and secure water resources 
for citizens of the United States.
    NCSE greatly appreciates the Senate Appropriations Subcommittee on 
Interior and Related Agencies' sustained support for the U.S. 
Geological Survey. We are especially grateful for the Subcommittee's 
leadership in restoring past cuts in the USGS budget. Thank you very 
much for your interest in improving the scientific basis for 
environmental decisionmaking.

                                 TABLE 1.--U.S. GEOLOGICAL SURVEY APPROPRIATIONS
                                    [Budget authority in millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                   Budget Authority          Change from fiscal
                                                          --------------------------------- year 2003 enacted to
                                                                                              fiscal year 2004
                USGS Activity/Subactivity                    Fiscal     Fiscal     Fiscal          request
                                                              year       year    year 2004 ---------------------
                                                             actual    enacted     request    Amount    Percent
----------------------------------------------------------------------------------------------------------------
Mapping, Remote Sensing, & Geog. Investigations..........     $133.1     $133.2     $120.5     -$12.7       -9.6
    Cooperative Topographic Mapping......................       81.0       81.1       74.1       -7.0       -8.6
    Land Remote Sensing..................................       35.8       35.7       34.0       -1.7       -4.7
    Geographic Analysis and Monitoring...................       16.3       16.4       12.3       -4.0      -24.7
Geologic Hazards, Resources, and Processes...............      232.6      233.2      221.6      -11.6       -5.0
    Geologic Hazard Assessments..........................       74.9       75.0       72.8       -2.2       -3.0
    Geologic Landscape & Coastal Assessments.............       77.9       78.7       79.4        0.7        0.9
    Geologic Resource Assessment.........................       79.7       79.5       69.4      -10.1      -12.7
Water Resources Investigations...........................      206.4      207.2      200.1       -7.1       -3.4
    Hydrologic Monitoring, Assessm'ts & Research.........      136.1      136.8      135.6       -1.2       -0.9
    Cooperative Water Program............................       64.3       64.4       64.5        0.1        0.2
    Water Resources Research Act Program.................        6.0        6.0        0.0       -6.0     -100.0
Biological Research......................................      166.2      169.8      168.9       -0.9       -0.6
    Biological Research and Monitoring...................      133.4      132.1      134.0        1.9        1.4
    Biological Information Management & Delivery.........       18.9       22.8       20.7       -2.1       -9.2
    Cooperative Research Units...........................       14.0       14.9       14.1       -0.8       -5.1
Science Support..........................................       86.2       85.2       91.5        6.4        7.5
Facilities...............................................       89.4       90.8       92.9        2.2        2.4
                                                          ------------------------------------------------------
      Total..............................................      913.9      919.3      895.5      -23.8      -2.6
----------------------------------------------------------------------------------------------------------------
Source: ``The Interior in Brief Fiscal Year 2004'' and USGS.
\1\ Included in the fiscal year 2002 Actual Column are: enacted funding ($914.0 million); Across-The-Board (ATB)
  reduction (-$0.9 million); and transfer to Water for Cyprus Work ($0.8 million).
\2\ Included in the fiscal year 2003 Enacted column are: enacted funding ($925.3 million) and ATB reduction (-
  $6.0 million)

                                 ______
                                 
   Prepared Statement of the National Institutes for Water Resources

    I am Robert Ward, President of the National Institutes for Water 
Resources and Director of the Colorado Water Resources Research 
Institute at Colorado State University. My testimony requests the 
Subcommittee to provide $8,775,000 to the U.S. Geological Survey for 
the state water resources research institutes program.
    First, I would like to thank you and this Subcommittee for the 
strong support you have given to the state water resources research 
institutes program in the past. You have recognized the importance of 
local, state and federal government agencies cooperating with 
universities to produce new the knowledge and understanding and also 
well trained and educated water professionals who will design and 
operate our increasingly sophisticated water systems in the future. In 
addition, I want to acknowledge the leading role you and your 
colleagues have played in efforts to ensure that the U.S. Geological 
Survey provides the science needed to manage the nation's natural 
resources.
    As you know, Public Law 106-374, passed in 2000, reauthorizes 
appropriations for The Water Resources Research Act through fiscal year 
2005. In passing this reauthorization, Congress recognized that the 
state water resources research institutes are meeting their mission 
objectives as outlined in the Water Resources Research Act.

                                REQUEST

    The National Institutes for Water Resources respectfully request 
the addition of $8,775,000 in the U.S. Geological Survey's fiscal year 
2004 budget for the state water resources research institutes program. 
This recommendation is based on the following components:
  --$7,000,000 in base grants for the water resources research 
        institutes as authorized by Section 104(b) of the Water 
        Resources Research Act, including state-based competitive 
        grants;
  --$1,500,000 to support activities authorized by section 104(g) of 
        the Act, a national competitive grants program, and
  --$275,000 for program administration.
    This recommendation would provide a $125,000 base grant to support 
the institutes that are located at land-grant universities in each of 
the states, plus territories. Currently, this base grant is 
approximately $84,000. In addition, it would provide for a modest 
increase in the highly popular national competitive grants program.

                             JUSTIFICATION

    Homeland security, drought, salinity control, TMDLs, and source 
water protection are a few of the difficult water-related issues facing 
communities across the U.S. today. Each issue has a scientific 
foundation upon which local communities and state and federal agencies 
base water management decisions. As our population grows and the 
concern about environmental quality continues, unbiased knowledge and 
insight are demanded to insure fair and equitable decision-making. 
Furthermore, as new water-related problems emerge (such as those 
surrounding forest fire cleanup in the West), gaps in the science that 
underpins management decision-making are exposed. This, in turn, can 
greatly complicate the decision-making process for not only water 
managers, but also, in the case of the forest fires, forest managers. 
The term ``sound science'' is often used to describe the sought after 
knowledge and insight.
    For more than 37 years the 54 state water resources research 
institutes have served to link university scientists working in the 
water quality and water quantity arenas with governments, business and 
industry, and citizens in efforts to produce sound science to assist in 
resolving difficult water issues at the local, state and national 
levels. In addition, the water resources research institutes, in many 
cases, are the means by which the search for new knowledge is joined, 
in a collaborative manner, by local, state, federal and university 
managers and scientists. The state water resources institutes represent 
``sound science'', networked among levels of government and 
universities.
    The water resources research institute program is constantly 
striving for efficiency in research administration and collaboration. 
In cooperation with the U.S. Geological Survey (which administers the 
water resources research institute program), the water institutes are 
developing and implementing modern electronic information technology to 
manage their nationally networked water research programs. Proposals 
for the national competition are submitted electronically, peer 
reviewed electronically (by a list of scientists from across the United 
States), and reported electronically. The water research management 
system is now being employed by some of the state institutes to manage 
state-based water research competitions. The resulting database of 
current research plans and activities, as well as past results, are 
increasingly being made readily available to the public and 
professionals alike via the internet. Electronic administration of 
water research assists in fostering research collaboration in ways not 
dreamed of just 10 years ago. This is but one example of the value of a 
national network of water institutes working together with local, state 
and federal partners, particularly the U.S. Geological Survey.
    State water resources research institutes take the relatively 
modest amount of federal funding appropriated by this Subcommittee, 
leverage it 2:1 with state matching funds and funding from other 
sources, including local governments, and use it to put university 
scientists to work finding solutions to the most pressing local and 
state water problems that are of national importance. In fiscal year 
2002, the institutes generated about $22.70 in support for each federal 
dollar appropriated to them through this program and put three-quarters 
of every dollar they received into research projects. The remainder 
supports information transfer, training activities, etc. This program 
does not provide any indirect costs to universities, unlike most 
federal research programs. All of the funding goes to support the goals 
set forth in the Water Resources Research Act.
    Federal funding for the water resources research institute program 
is therefore the catalyst that moves states to invest in university-
based research to address their own water management issues. The added 
benefit is that often research to address state and local problems 
helps solve problems that are of regional and national importance, as 
well. Perhaps most important, the federal funding provides the driving 
force of collaboration in water research and education among local, 
state, federal and university water professionals.
    How do water resources research institutes know they are working on 
the most pressing water issues? Each institute brings together a local 
advisory panel typically consisting of local, state, and federal agency 
officials, representatives of business and industry, and representative 
of non-governmental organizations. These panels identify the most 
important water problems facing their states, establish priorities for 
research, and rank proposals as to relevance.
    The work of the water resources research institutes does not stop 
with identifying needs and arranging for research to address the needs. 
Once research is completed, institutes also see that the results are 
transferred to federal, state, and local agencies and the general 
public via publication of reports; newsletters; presentation of 
seminars, workshops and conferences; maintenance of Internet sites, and 
one-on-one contact with agency personnel. Many institutes collaborate 
directly with Cooperative Extension in distributing water research 
findings.
    Institutes also help educate future water scientists. Quite often a 
significant portion of a research grant goes to pay part of the stipend 
of a master's or PhD student studying in such critical fields as 
watershed hydrology, hydrogeology, aquatic ecology, toxicology, 
sanitary engineering, and water resources engineering. In fiscal year 
2002, institutes provided research support for more than 1,165 
students. As you know, our scientific workforce is aging and a mass 
exodus through retirements is expected in government, academia and 
industry over the next decade. Supporting the education of new 
scientists is a critical role of institutes that should be expanded.
    In fiscal year 2002, water resources research institutes across the 
nation funded 198 research projects from their base grants and 936 
projects from additional research funds. Typically, institutes can fund 
only one of every four or five proposals they receive in response to 
solicitations based on their established priorities.
    The state-based water research collaboration focus of the core 
funding is complimented by a national water research competition 
referred to as the national competitive grants program (or Section 
104(g) grants). The national competitive grants program is administered 
by USGS in collaboration with the National Institutes for Water 
Resources. Priorities for this program are set jointly by USGS and the 
institutes. This program received 75 proposals in fiscal year 2002 and 
was able to fund only eight. Here again, regional and national research 
needs are not being met. For instance, in much of the Southeast we are 
suffering from a 3-year drought that some are now predicting to stretch 
out another 7 years. There are many unanswered questions about the 
effects of this drought not only on regional water supplies but also on 
water quality and habitat. We should already be planning how to respond 
to the potential for long-term drought, but there are many gaps in the 
information base. An increase in the competitive grants funding could 
catalyze additional research on regional problems such as effects of 
drought in the same way that an increase in base grants would catalyze 
research on local and state water resources problems.
    There are many pressing needs for new knowledge in the water 
resources area. For 37 years, the Water Resources Research Institute 
program has been linking university scientists to government, business 
and citizens to provide new knowledge and help solve problems. This is 
a productive, useful, and valuable partnership that should be continued 
and expanded.
    Mr. Chairman, basing water quality and water quantity management on 
sound science is worthy goal. But, we have to invest to produce sound 
science. Congress must invest to catalyze states and states must invest 
to address their own issues. You can rest assured that if you do your 
part, the water resources research institutes will carry the challenge 
to state and local governments, business and industry, foundations and 
environmental groups to invest in sound science for water resources 
management. The National Institutes for Water Resources respectfully 
recommend this Subcommittee provide $8,775,000 to the USGS for the 
state water resources research institutes program authorized by the 
Water Resources Research Act. Thank you.

                                 ______
                                 
        Prepared Statement of the Wildlife Management Institute

    The Wildlife Management Institute (WMI) is submitting these 
comments regarding the fiscal year 2004 proposed budget for the U.S. 
Geological Survey's Biological Resources Division (BRD). WMI is a 
private, non-profit scientific and educational organization dedicated 
to the conservation of wildlife through wise stewardship and management 
of species and habitats. WMI consists of highly respected wildlife 
professionals each with considerable experience with wildlife and 
natural resources agencies prior to joining WMI. Our comments include 
recommendations for the following increases over the Administration's 
budget request: $1.4 million for Cooperative Fish and Wildlife Research 
Units; $1.9 million for uncontrollables; $2.8 million for the Fire 
Science Initiative; $500,000 for the National Wildlife Health Center; 
$150,000 for the Southeastern Cooperative Wildlife Disease Study; and 
$3 million for the DOI Landscape Initiative.
    The Cooperative Fish and Wildlife Research Units (CRUs) are 
fundamental to producing both the natural resources scientists needed 
for the future and the science information needed by federal and state 
land management agencies. In recent years, Congress has recognized the 
need to support appropriations to fully staff the CRUs, and provided 
consistent increases in funding to fill vacant positions. CRUs are 
unique in that over 90 percent of their budget is for salaries. 
However, OMB and Department of Interior budget guidance assumes that 50 
percent of budgets are salaries. This discrepancy, added to the budget 
guidance directing BRD to absorb more than half of the uncontrollables, 
will result in significant shifts in costs just to cover salaries, and 
will again jeopardize the ability of CRUs to fill vacancies. This is 
exactly the situation Congress attempted to correct in the recent past 
by adding additional funding to permit full staffing of the CRUs. In 
addition, a new CRU was established in Nebraska in fiscal year 2003, 
with $400,000 appropriated to fund that Unit. The dollars to fund that 
Unit again in fiscal year 2004 are absent from the budget request. WMI 
recommends that Congress add $900,000 to the CRU budget to provide the 
$400,000 needed for continued funding of the new Nebraska CRU and an 
additional $500,000 to fully cover the uncontrollables of CRUs and 
correct the discrepancy between actual salary costs and those assumed 
by OMB and DOI budget guidelines.
    Three states have fisheries units only, and 12 states have neither 
fisheries nor wildlife Units. Most states have expressed an interest in 
entering into a partnership with BRD, a state university, the state 
fish and wildlife agency, and the Wildlife Management Institute to 
bring one or both CRUs to their state. An initiative is underway by 
WMI, BRD, state fish and wildlife agencies and other stakeholders to 
review the Research Unit program and to develop recommendations to 
ensure that critical research needs are met in the future. We recommend 
that Congress direct BRD to consider these recommendations and in 
future years to develop appropriate budget requests consistent with 
those recommendations.
    Since fiscal year 1994, the base funding level for BRD has lagged 
more than $30 million behind the rate of inflation, at a time when real 
increases are needed to meet the basic research and information needs 
of the natural resources community. We are especially concerned that 
BRD is now being asked to absorb almost $1.9 million out of $3.4 
million in uncontrollable costs. This will force significant reductions 
in operational funds for critical programs. WMI recommends that 
Congress fully fund uncontrollable costs by adding $1.9 million for 
uncontrollables.
    We are disappointed by the proposed reduction in support for the 
long term Fire Science initiative. These fire ecology studies are 
collaborative studies with the U.S. Fish and Wildlife Service, National 
Park Service, and Bureau of Land Management and are needed to enhance 
understanding of the effects of fire and landscape recovery, and to 
improve our ability to manage burned landscapes. WMI recommends that 
$2.8 million be restored by Congress for this effort.
    WMI strongly supports the proposed budget of $1.25 million for 
studies of Chronic Wasting Disease (CWD) and the $4.05 million proposed 
budget for studies of invasive species. Control of CWD is a major 
concern to state and federal agencies and to sportsmen, and will 
continue to be for some years. We are also concerned about the spread 
of West Nile Virus (WNV) and its impacts on bird species throughout the 
United States. WMI recommends that Congress fully fund the requested 
$1.25 million for CWD and $4.05 million for invasive species, and we 
further recommend that Congress add an additional $500,000 to the 
funding of the National Wildlife Health Center and an additional 
$150,000 to the Southeastern Cooperative Wildlife Disease Study to 
conduct the research needed to cope with CWD, WNV, and other diseases.
    WMI also is concerned about special research needs of other DOI 
agencies, and BRD's ability to meet those needs. The Science on the DOI 
Landscape initiative proposed budget includes $1.3 million for 
biological research programs to meet regional priorities designated by 
the DOI Bureaus. WMI recommends that Congress increase this research 
support to $3 million for biological programs, and that Congress direct 
that research should include sage grouse conservation needs, wildlife 
impacts of energy exploration and development, and the population and 
habitat surveys necessary to support waterfowl seasons and conservation 
of other priority bird species.
    Finally, I would just reiterate our concerns that the Cooperative 
Fish and Wildlife Research Units be fully funded and that 100 percent 
of uncontrollable costs be included in that funding. These Units have a 
lengthy history of partnerships and successes, and are vital to states 
and others for providing answers needed for management of our nation's 
fish and wildlife resources.
    Thank you for considering our comments. We look forward to working 
with you and your staff throughout the appropriations process. If you 
or your staff would like to discuss our recommendations further, please 
contact me or Terry Riley, Director of Conservation, at (202) 371-1808.
                                 ______
                                 

     Prepared Statement of the Interstate Mining Compact Commission

    My name is Gregory E. Conrad and I am Executive Director of 
the Interstate Mining Compact Commission. I appreciate the 
opportunity to present this statement to the Subcommittee 
regarding the views of the Compact's member states concerning 
the fiscal year 2004 Budget Request for the Office of Surface 
Mining (OSM) within the U.S. Department of the Interior. In its 
proposed budget, OSM is requesting $57.6 million to fund Title 
V grants to states and Indian tribes for the implementation of 
their regulatory programs and $126.5 million for state and 
tribal Title IV abandoned mine land (AML) program grants. Our 
statement will address both of these budgeted items.
    The Compact is comprised of 20 states that together produce 
some 60 percent of the Nation's coal as well as important 
noncoal minerals. Participation in the Compact is gained 
through the enactment of legislation by the member states 
authorizing their entry into the Compact and they are 
represented by their respective Governors who serve as 
Commissioners. The Compact's purposes are to advance the 
protection and restoration of land, water and other resources 
affected by mining through the encouragement of programs in 
each of the party states that will achieve comparable results 
in protecting, conserving and improving the usefulness of 
natural resources and to assist in achieving and maintaining an 
efficient, productive and economically viable mining industry.
    Over the past several years, the Commission has alerted the 
Subcommittee to a potentially debilitating trend in Title V 
grant funding. As you know, these grants support the 
implementation of state regulatory programs under the Surface 
Mining Control and Reclamation Act (SMCRA) and as such are 
essential to the full and effective operation of those 
programs. Ever since fiscal year 1995, the appropriation for 
these grants has either decreased or remained stagnant. 
Following an encouraging increase by Congress in fiscal year 
2001, OSM has failed to provide any increase for Title V grants 
for fiscal year 2004, despite the states' projected need for 
additional moneys to meet actual program expenses.
    Each year, OSM requests and receives increases in its own 
budget to meet ``uncontrollable costs'' (such as workers' 
compensation, unemployment compensation, retirement costs and 
pay rate increases) and ``fixed overhead costs''. In estimating 
its projected program operating costs, the states face these 
same annual increases, in addition to the costs associated with 
the escalating cost of travel and replacement of equipment 
(especially vehicles and computers). And yet, a trend has 
emerged over recent federal fiscal years where states have 
received no significant increases in the grants that are 
intended to support their programs and address inflationary 
concerns, with the notable exception of fiscal year 2001 when 
the states received a much-needed and well justified $3 million 
increase over OSM's proposed amount.
    For fiscal year 2004, the states (and tribes) have 
projected a need for $64.4 million for Title V grants based on 
a new and improved budget forecasting methodology. This 
represents a well-documented and well-justified increase of $3 
million over our request of last year ($61.3 million) and yet 
we are faced with an OSM proposal that does not provide for any 
increase in funding for Title V grants in fiscal year 2004. 
This is very discouraging and reflects either a lack of 
appreciation for the states' Title V funding needs or a 
misunderstanding of the Title V dilemma facing the states, and 
ultimately, OSM.
    It is essential that the states be made whole in fiscal 
year 2004 and thus we are requesting Congress to appropriate 
the full amount requested by the states and tribes of $64.4 
million. If this does not occur, it likely will result in the 
classic ``SMCRA Catch-22'' situation: where there is inadequate 
funding to support state programs, some states will be faced 
with either turning all or portions of their programs back to 
OSM or, in other cases, will face lawsuits from environmental 
groups for failing to fulfill mandatory duties in an effective 
manner, not unlike the present situation in West Virginia and 
what previously occurred in Kentucky and Oklahoma. Of course, 
where a state does, in fact, turn all or part of its Title V 
program over to OSM (or if OSM forces this issue based on an 
OSM determination of ineffective state program implementation), 
the state would be ineligible for Title IV funds to reclaim 
abandoned mine lands. This would be the height of irony, since 
the states have recently worked diligently to convince the 
Interior Department, OMB and Congress about the need to 
increase funding for state Title IV AML work.
    OSM's own Budget Justification Document acknowledges the 
likely outcome should states not receive adequate funding:

    ``Primacy States have the most direct and critical 
responsibilities for conducting regulatory operations to 
minimize the impact of coal extraction operations on people and 
the environment. The States have the unique capabilities and 
knowledge to regulate the lands within their borders. Providing 
a 50 percent match of Federal funds to primacy States in the 
form of Administration and Enforcement (A&E) Grants results in 
the highest benefit and the lowest cost to the Federal 
Government. If a State were to relinquish primacy, OSM would 
have to hire sufficient numbers and types of Federal employees 
to implement the program. The cost to the Federal Government 
would be significantly higher.''----[OSM Budget Justification 
Document, ``Environmental Protection,'' page 65.]

    Some may argue that there are at least a handful of states 
who either are unable to meet the 50 percent state match or are 
unable to spend all of the federal funds allocated to them in a 
particular grant year. This merely reflects the reality of the 
significant fiscal challenges facing these states as they 
attempt to balance record deficits with their desire and intent 
to continue operating effective state regulatory programs. 
Rather than focus on the occasional inability to match federal 
dollars or the limited deobligation of year-end moneys, we 
believe it is more critical to investigate the potential 
mechanisms for assisting the states to meet their financial 
requirements, either through increased overall grant funding 
(as we propose) or through adjustments to the current funding 
formula. This will become increasingly important as the federal 
government is faced with the dilemma of either securing the 
necessary funding for state programs or implementing those 
programs (or portions thereof) themselves--at significantly 
higher costs.
    Suffice it to say that should our proposed increase not be 
approved, one of the more distressing outcomes resulting from 
inadequate Title V grant funding is that it will pit the states 
and OSM against one another as they compete for limited funds. 
Given the commitment of the states to their respective 
regulatory programs, and their role as front-line regulatory 
authorities under SMCRA, it is impossible for the states not to 
urge full funding of their programs. We believe that there 
should be a way for Congress to fund both OSM and the states, 
thereby assuring that the mandates of SMCRA are met.
    For years now, we have tried to impress upon OSM and your 
Subcommittee the value and importance of the states' estimates 
of program costs and the necessity of meeting the states' 
funding needs. Under OSM's proposed fiscal year 2004 budget, it 
will require all of the states' fiscal ingenuity and belt-
tightening efforts, together with some difficult trade-offs, to 
manage our programs and resources in such a way that we can 
achieve the same level of performance that has been expected 
from us in the past. We are especially concerned about the 
impacts of this funding crisis on OSM's evaluation of state 
programs pursuant to federal oversight. How ironic it would be 
for the states to receive something less than the high marks we 
have consistently received from OSM due to insufficient grant 
funding.
    With regard to funding for state Title IV Abandoned Mine 
Land (AML) program grants, OSM's proposed decrease of $17 
million from last year's amount of $144 million for non-Clean 
Streams/non-emergency state grants is very disheartening. In 
recent years, OSM has been working with the states and Congress 
toward full funding for the AML program, whereby the amount of 
receipts paid into the Fund from reclamation fees by coal 
operators each year is appropriated and then allocated to the 
states and tribes to address the myriad problems remaining in 
the AML inventory. Last year we saw the President's budget 
propose a $17 million reduction for state AML grants, which 
Congress ultimately (and thankfully) restored. This year, we 
see a continued attempt to reverse the trend once again--
without justification or rational explanation. While we are 
well aware of the Administration's efforts to reduce the 
overall budget by some percentage in order to meet other 
priorities related to Homeland Security and the War on 
Terrorism, this is not the time or place to exercise such 
reductions and back track on the promise to provide adequate 
funding to the states to address AML problems.
    As the states recently reiterated to Congressional staff, 
OSM and OMB, significant progress has been made by the states 
in remediating outstanding AML problems and sites. As of 
September 30, 2002, the states have obligated 93 percent of all 
funds received and $1.3 billion worth of priority 1 and 2 
problems have been reclaimed. Another $319 million worth of 
priority 3 problems have been funded or completed and $309 
million worth of noncoal problems have been funded or 
reclaimed. Of the $3.2 billion provided to the states in Title 
IV grant moneys, $2.4 billion has been used for construction or 
project costs and only an average of 15 percent of Title IV 
moneys were spent on administrative costs. However, 45 percent 
of priority 1 and 2 sites in the AML inventory remain to be 
reclaimed and the cost of completing this reclamation now 
approaches $6.6 billion. We would be pleased to present the 
Subcommittee with more information and analysis regarding these 
figures.
    Suffice it to say that major AML problems remain to be 
addressed and are only getting more expensive, and in some 
cases more extensive, with the passage of time due to 
inflation, deterioration of the sites and urban sprawl. The 
health and safety of the public is also increasingly at risk. 
It is absolutely critical to release additional moneys from the 
AML Trust Fund now in order to allow the states to address 
these problems today. The states are prepared to deliver the 
expected benefits and services to our customers under the Title 
IV AML program in a cost-effective and efficient manner and 
welcome the new opportunities presented by increased AML 
funding. In this regard, we are very encouraged by OSM's 
statement of intent in its proposed budget to support extension 
of the fee collection authority under Title IV of SMCRA, as 
well as its intent to propose a mechanism whereby more receipts 
from the Fund are targeted to abandoned mine reclamation, thus 
increasing the pace of the overall reclamation program. This is 
consistent with the position we have been advocating for the 
past several years. We look forward to working with OSM, the 
Congress and other affected parties to seek the expeditious 
reauthorization of fee collection authority prior to the 
expiration date of September 30, 2004. Please see the attached 
resolution recently adopted by IMCC, which addresses AML 
reauthorization.
    In the meantime, we urge the Subcommittee to continue its 
commitment to full funding for the AML program and to increase 
OSM's budget by $37 million--a $20 million increase for state 
Title IV (non-Clean Streams/non-emergency) grants over last 
years's amount of $143 million, for a total of $163 million for 
state/tribal grants in fiscal year 2004. This amount would 
allow ``minimum program'' states to be funded at $2 million, 
the authorized allocation level established by Congress for 
these states in 1990, which we again urge the Subcommittee to 
restore. Given the fact that receipts into the AML Fund this 
year should average $285 million (exclusive of interest), we 
believe the suggested increase is a modest and appropriate one, 
and is clearly justified given the amount of AML work remaining 
to be done.
    We also urge the Subcommittee to support adequate funding 
for OSM's training program, including moneys for state travel. 
These programs are central to the effective implementation of 
state regulatory programs as they provide necessary training 
and continuing education for state agency personnel. 
Additionally, the states are key players in OSM's training 
program, providing instructors for many of the courses. IMCC 
also urges the Subcommittee to support adequate funding for 
TIPS and SOAP, two programs that directly benefit the states by 
providing needed upgrades to computer software and hardware and 
assistance to small operators in permit preparation.
    Finally, IMCC requests continuing support for the Acid 
Draining Technology Initiative (ADTI), a nationwide technology 
development program with a guiding principle of building 
consensus among Federal and State regulatory agencies, 
universities and the coal industry to predict and remediate 
acid drainage from active and inactive coal and metal mines. 
This collaborative effort receives funding and other support 
from industry and several federal agencies for specific 
projects. OSM has provided ADTI $200,000 for the last three 
fiscal years, which has been a consistent source of funding for 
activities related to acid mine drainage from coal mines and 
has been instrumental in accomplishing ADTI's goals. If each of 
the Interior Department agencies involved (OSM, BLM, and USGS) 
could commit $200,000 toward ADTI, together with other federal 
agencies (such as EPA, DOE and the Corps of Engineers), about 
$1 million would be available to support the work of this vital 
initiative.
    In conclusion, we want to reiterate that adequate Title V 
grants are the lifeblood of effective state regulatory 
programs. Should states be unable to operate these programs due 
to funding constraints, the federal government will be faced 
with the burden of operating regulatory programs at a 
substantially increased cost (generally 30 to 50 percent more). 
Further, without Title V programs in place, states are unable 
to access Title IV funds. In the final analysis, it behooves 
everyone--OSM, the Congress and the states--to commit the 
resources necessary to assure strong and effective state 
programs that will achieve the purposes and objectives of 
SMCRA, thereby protecting the environment where active mining 
operations occur and enhancing the environment through 
remediation of past problems associated with abandoned mines.
                                ------                                

 Prepared Statement of the National Association of Abandoned Mine Land 
                                Programs

    My name is Murray J. Balk, and I administer the State of Kansas' 
Abandoned Mine Land (AML) Program as well as being this years' 
President of the National Association of Abandoned Mine Land Programs 
(Association). In my capacity as President of the Association, I would 
like to thank you for allowing me the opportunity to submit this 
statement regarding the views of the Association concerning the U.S. 
Department of Interior, Office of Surface Mining's (OSM) fiscal year 
2004 Budget Request to this subcommittee.
    The Association is a 501(c)(6) tax exempt organization made up of 
30 states and tribes, all with a history of coal mining and coal mine 
related hazards. The states and tribes within the organization 
administer Abandoned Mine Land Programs, funded and oversighted by OSM, 
as provided for in Title IV of the Surface Mining Control and 
Reclamation Act of 1977 (Public Law 95-87). The mission statement of 
the Association is: (1) to provide a forum to address current issues, 
discuss common problems, and share new technologies regarding the 
reclamation of abandoned mine lands, (2) foster positive and productive 
relationships between the states and tribes represented by the 
Association and the federal government, (3) serve as an effective, 
unified voice when presenting states'/tribes' common viewpoints, and 
(4) coordinate, cooperate, and communicate with the Interstate Mining 
Compact Commission, Western Interstate Energy Board, and all other 
organizations dedicated to the wise use and restoration of our natural 
resources.
    The 30 Abandoned Mine Land Programs represented by the Association 
have accomplished some very impressive reclamation which has remediated 
serious hazards created by past coal mining. The states and tribes are 
abating these hazards in a very cost effective and efficient manner. 
Information presented to the Association by OSM indicates that the 
states and tribes have obtained a 93 percent obligation rate as of 
September 30, 2002. This is an outstanding number considering some of 
the states and tribes do not begin their grant year until July 1, which 
allows them only 3 months to get the funds encumbered.
    This means that the states and tribes are utilizing the funding 
provided by OSM in a very timely manner, and they have a number of 
projects engineered, and ready to implement as soon as funding is 
available. Besides having an outstanding obligation rate, the states 
and tribes are doing a very good job of administering their programs by 
keeping their administrative costs to a minimum. Of the $3.2 billion 
given to the States and Tribes to conduct Title IV reclamation, only 15 
percent of the these funds have been used to administer these AML 
Programs. This indicates that the states and tribes are very successful 
at running their programs without being top heavy in the area of 
administration. With a 93 percent obligation rate and only 15 percent 
of funds going to administration, it is apparent that the states and 
tribes are quite capable of properly utilizing the funds given to them 
through SMCRA.
    What has been accomplished to date has made our country a safer 
place, but due to the magnitude of the problems associated with past 
coal mining, much more is needed. The following is a nationwide list as 
of March 28, 2003, of Priority 1 and 2 inventory problems that still 
need to be remediated including their cost:

------------------------------------------------------------------------
           Problem type                 Units \1\            Costs
------------------------------------------------------------------------
Clogged Streams (miles)...........              1,021        $59,016,880
Clogged Stream Lands (acres)......             26,883        201,931,496
Dangerous Highwalls (feet)........          4,335,947        665,168,960
Dangerous Impoundments (count)....                811         15,735,570
Dangerous Piles & Embankments                   9,017        267,921,479
 (acres)..........................
Dangerous Slides (acres)..........              4,649         69,089,199
Gases: Hazardous/Explosive (count)                 86          2,775,001
Hazardous Equipment/Facilities                  2,485         24,735,001
 (count)..........................
Hazardous Water Body (count)......              1,062         62,516,077
Industrial/Residential Waste                      387          9,897,797
 (acres)..........................
Portals (count)...................              8,925         29,697,601
Polluted Water: Agricultural/                     567         99,611,275
 Industrial (count)...............
Polluted Water: Human Consumption               4,798      3,718,081,865
 (count)..........................
Subsidence (acres)................              9,040        484,626,549
Surface Burning (acres)...........                475         19,909,448
Underground Mine Fires (acres)....              4,198        857,501,301
Vertical Openings (count).........              7,306         47,619,380
                                                      ------------------
      Total costs.................                        6,635,834,879
------------------------------------------------------------------------
\1\ Count indicates individual incidences.

    As can be seen from these figures taken directly from AMLIS, there 
is over $6.6 billion in Priority 1 and 2 coal mine hazards left to 
remediate before we can say our work is complete. This undeniably 
demonstrates that there is much left to be done to correct the problems 
caused by past coal mining. Because of the extreme hazards associated 
with Priority 1 and 2 AML problems, the Association would encourage the 
committee to release additional funds so the States and Tribes can 
accelerate their AML work, helping to protect the population of this 
country from the hazards created by past coal mining.
    The Association encourages the committee to adopt a Title IV budget 
for non-Clean Streams/non-Emergency AML grants of $163 million for 
fiscal year 2004, an increase of $20 million over last years budget of 
$143 million. A portion of this increase, $5 million, could then be 
used to fund the ``underfunded states'' (or minimum program states) at 
the minimum level of $2 million, as promised by Congress and provided 
for in Section 402 (g)(8) of SMCRA. The remaining $15 million could 
then be distributed among the remaining states to help alleviate more 
hazards associated with Priority 1 and 2 AML problems. The projected 
receipts collected through SMCRA entering the AML Fund this year, 
exclusive of interest, will be approximately $285 million. This amount, 
along with the $1.4 billion which remains unappropriated in the AML 
Fund, will more than offset the amount requested, which is a very valid 
request considering the amount of AML work that remains to be done in 
this country.
    The trend over the past few years has been to give the AML Programs 
less and less funding. Since fiscal year 2001, which was funded at 
$161,863,000, until fiscal year 2003 which was funded at $141,991,721, 
we have seen around a $20 million decrease in the amount of funding 
used for non-Clean Streams/non-Emergency AML projects. It is 
unreasonable to believe that the States and Tribes can do more with the 
same or even less funding. The States and Tribes are running very 
efficient and effective AML Programs, but by decreasing funding or even 
leaving funding at the status quo, we are jeopardizing the mission of 
the AML Programs and the mandate of Congress to abate these hazards as 
provided through SMCRA. Unless Congress acts quickly to remediate these 
hazards it will cost even more in the future. Environmental conditions 
at these AML sites continue to deteriorate over time, which means 
increased costs to complete AML construction projects. Highwalls 
continually erode closer to streets and homes, roofs on underground 
mines deteriorate further causing more roof collapses, and as mine 
fires burn, they cover larger and larger areas. These are just a few 
examples of how time and weather related environmental degradation 
create AML hazards that are more costly to abate. Also, inflation 
affects the cost of reclamation making it more costly to abate AML 
hazards as we postpone work on these AML sites. The Association would 
urge the committee to act now, before these hazardous AML sites become 
more expensive to remediate and the problem areas enlarge. The longer 
the committee waits to allocate these appropriations, the bigger the 
bite inflation and the weather will take out of the funds.
    The Association asks the committee to continue funding the OSM 
training program, which is one of the greatest benefits that OSM 
provides to the States and Tribes. This program provides very 
specialized training to AML staff which helps the States and Tribes 
immensely in dealing with handling many aspects of the AML programs, 
from NEPA requirements all the way through design and construction 
management. It also provides a forum for the staff from states, tribes, 
and OSM to stay up on all the new advances in reclamation technology. 
Another benefit of this training program is that the States/Tribes and 
OSM share the responsibility of developing and teaching the classes. 
Through the effort of both team members these classes have become very 
informational and help disseminate information useful in the field of 
reclamation. Another OSM program that needs to have adequate funding is 
the Technical Information Processing System (TIPS) program which 
provides software and hardware of a very technical nature to the States 
and Tribes. Through the TIPS program, software is shared among the 
States and Tribes for the design of reclamation projects. For these 
reasons, the Association would encourage adequate funding for the OSM 
training program and the TIPS portion of the budget.
    Finally, as the AML Trust Fund's 2004 expiration date approaches, 
we need to ask the question, ``Is there a need for Title IV, a need for 
AML programs across the country?'' I, along with the members of the 
Association, believe the answer to this question is yes. Unless SMCRA 
is extended with all funds generated being distributed to the states 
and tribes, there is no way we can abate a majority of the hazards 
associated with the AMLIS inventory. Even with all the work that has 
been accomplished to date, there is still a national inventory of over 
$6 billion for priority 1 and 2 AML hazards needing remediation. There 
are many health and safety problems as well as environmental problems, 
that need to be addressed by the Abandoned Mine Land Programs. 
Therefore, the Association members believe the funds generated by SMCRA 
are essential for protecting the people of this country from the 
hazards and environmental problems associated with past coal mining and 
SMCRA's ability to collect fees should be extended past 2004.
    If I can be of any further help, or if you have any questions or 
comments please feel free to contact me at (620) 231-8540.

                                 ______
                                 
       Prepared Statement of the American Indian Graduate Center

    The American Indian Graduate Center (``AIGC'') of Albuquerque, New 
Mexico, is pleased to present testimony on the needs of American Indian 
and Alaska Native graduate students who are served by the Bureau of 
Indian Affairs' (``BIA'') Special Higher Education Program for Graduate 
Students. Our request for the 2003 academic year is for $2,000,000 from 
the Continuing Education portion of the BIA budget.
    The ATGC, a 501(c)(3) private non-profit organization, was 
established in 1969 and incorporated in the state of New Mexico in 
1971. AIGC has served the community for over 33 years, and has assisted 
more than 9,500 American Indian and Alaska Native graduate students in 
numerous fields of professional study. American Indians continue to be 
the least represented of all minority groups in the country in fields 
requiring advanced degrees. AIGC was founded to open the doors to 
graduate education for American Indians, and to help tribes obtain the 
educated Indian professionals they need to become more self-sufficient 
and able to exercise their self-determination rights, and to meet the 
duties and responsibilities that self-sufficiency and self-
determination entail. Since 1972, AIGC has administered the BIA's 
Special Higher Education Program for Graduate Students and has 
consistently maintained low overhead (less than 10 percent for several 
years). AIGC recently received an ``A+'' and ``Open Book Credit'' from 
the American Institute of Philanthropy (``AIP'' a.k.a. 
CharityWatch.org), a nonprofit charity watchdog and information 
service, for ``putting 75 percent or more towards program costs while 
generally spending $25 or less to raise $100, and for willingly sending 
the financial documents AIP requests.'' AIGC is proud of its record of 
achievement, and has alumni professionals employed in a plethora of 
fields at numerous tribal, public, and private sector entities, many of 
which directly serve the American Indian community. This year, our 362 
fellowship recipients, representing 112 tribes in 23 states, are 
attending 170 colleges and universities in 44 states and the District 
of Columbia.

                          STATISTICS AND NEED

    For the 2003 academic year, AIGC received 1,800 requests for 
applications and 426 completed applications for funding. AIGC awarded 
fellowships to 362 (85 percent) applicants. The 2003 average award is 
$2,700, a 7 percent decline from the 2002 average award of $2,916, and 
a precipitous 42 percent decline from the 2001 average of $4,667. This 
decline trend is extremely troubling, given that the cost of higher 
education is forecast to rise 6 percent per year.
    For the academic year ended 2002 (the most recent year for which 
comprehensive statistics are compiled), 180 (50 percent) awardees were 
enrolled in Master's programs, 175 (48 percent) in Doctorate, and 7 (2 
percent) were pursuing dual degrees. 124 (34 percent) were enrolled in 
Health and Counseling fields of study; 81 (22 percent) in Law; 34 (9 
percent) in Education, 31 (9 percent) in Business; and 18 (5 percent) 
in Psychology. The remaining 20 percent were enrolled in a variety of 
fields of study, ranging from architecture to theology.
    For the seven-year 1996-2003 period, total unmet need has averaged 
$786,000 per year, with the average unmet need per applicant at 
$17,000, a potentially insurmountable gap for a graduate student, given 
that just one year of graduate school at a public school can cost in 
excess of $18,000.
    Our request of $2,000,000 was arrived at using the following 
formula:
362 Awardees * $4,667 Award Goal * (110 percent Program Costs) * (106 
        percent Inflation)
    Our goal is to reverse the slide in the average award per student 
to ensure that every qualified applicant receives an increasingly 
significant fellowship award.

                                SUMMARY

    In summary, the American Indian Graduate Center requests $2,000,000 
from the Continuing Education line item of the BIA budget for the 
Special Higher Education Program for Graduate Students. AIGC has 
successfully administered the program for 30 years, and has awarded 
fellowships to over 9,500 students. Of the appropriated amount, AIGC 
will award $1,800,000 in graduate fellowships, or $4,972 per student. 
AIGC will use the remaining $200,000 for program costs.
    The American Indian Graduate Center, and the communities it 
dutifully serves, greatly appreciate your continued support and 
consideration.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium

                            REQUEST SUMMARY

    On behalf of this nation's 34 Tribal Colleges and Universities 
(TCUs), which comprise the American Indian Higher Education Consortium 
(AIHEC), thank you for this opportunity to present our fiscal year 2004 
Appropriations requests for the 25 colleges currently funded under the 
Tribally Controlled College or University Assistance Act (Tribal 
College Act), and for our tribally controlled postsecondary vocational 
institutions. The U.S. Department of the Interior, Bureau of Indian 
Affairs, administers these programs. While AIHEC ultimately seeks full 
funding for all of the Tribal College Act's authorized programs, we 
recognize that a focused approach with incremental increases is a way 
to best meet that goal over time. In fiscal year 2004, we seek a total 
of $52.2 million for Tribal College Act programs. Our first priority 
within this request is to increase funding for our institutions' basic 
operations under Titles I & II of the Act, we specifically request 
$49,666,000; of which, $39,528,000 would be for Title I grants and 
$10,138,000 would be allocated for Title II. This request is an 
increase of $7,650,000 over the fiscal year 2003 appropriated level, 
and $11,637,000 over the President's fiscal year 2004 budget request. 
Additionally, we seek: $500,000 for technical assistance, an increase 
of $386,000 over fiscal year 2003 and the President's request, to help 
address ever emerging technical assistance needs and to gather and 
analyze data necessary to comply with the Congressional request to 
provide additional information on TCUs; and $2 million for endowments 
under Title III of the Act. Additionally we support $4 million for 
United Tribes Technical College; and a minimum of $1.2 million for 
Crownpoint Institute of Technology; the fiscal year 2004 budget 
recommendation eliminates funding for these two vocational 
institutions.
    AIHEC's membership also includes three other TCUs funded under 
separate authorities within the Interior Appropriations Act, namely: 
Haskell Indian Nations University; Southwestern Indian Polytechnic 
Institute; and The Institute for American Indian Arts. AIHEC supports 
the independently submitted funding requests of these institutions.

                   BACKGROUND AND FUNDING DISPARITIES

    In 1972, six tribally controlled colleges established AIHEC to 
provide a support network for member institutions. Today, AIHEC 
represents 34 Tribal Colleges and Universities in 12 states created 
specifically to serve the higher education needs of American Indians. 
Collectively, they serve 30,000 full- and part-time students from over 
250 federally recognized tribes.
    The vast majority of TCUs are accredited by independent, regional 
accreditation agencies and like all institutions of higher education, 
must undergo stringent performance reviews on a periodic basis. In 
addition to college level programming, tribal colleges provide much 
needed high school completion (GED), basic remediation, job training, 
college preparatory courses, and adult education. Tribal colleges 
fulfill additional roles within their respective communities 
functioning as community centers, libraries, tribal archives, career 
and business centers, economic development centers, public meeting 
places, and childcare centers. An underlying goal of tribal colleges is 
to improve the lives of students through higher education and to move 
American Indians toward self-sufficiency.
    Title I of the Tribal College Act authorizes funding for the basic 
institutional operating budget of one qualifying institution per 
federally recognized tribe based on a full-time American Indian student 
enrollment formula. Despite a greatly appreciated increase of almost $2 
million in fiscal year 2003, these tribal colleges are currently 
operating at $3,908 per full-time Indian student count (ISC). This is a 
decrease of $8 per ISC from the fiscal year 2002 level and still less 
than two-thirds of the authorized level of $6,000 per ISC. This is not 
simply a matter of appropriations falling short of an authorization; it 
effectively impedes our institutions from having the necessary 
resources available to provide the educational services afforded 
students at mainstream institutions.

                             JUSTIFICATIONS

    (a) Tribal colleges provide access to critical postsecondary 
education opportunities that would otherwise be out of reach.--TCU 
reservations are located in remote areas, and their populations are 
among the poorest in the nation. On average, median household income 
levels are only about half of the level for the U.S. population as a 
whole. As a result, the cost of attending a mainstream institution, 
which for many reservation communities is several hours away, is 
prohibitively high, especially when tuition, travel, housing, 
textbooks, and all other expenses are considered.
    (b) Tribal colleges are producing a new generation of highly 
trained American Indians as teachers, tribal government leaders, 
engineers, nurses, computer programmers, and other much-needed 
professionals.--By teaching the job skills most in demand on their 
reservations, TCUs are laying a solid foundation for tribal economic 
growth, with benefits for surrounding communities. In contrast to the 
high rates of unemployment, 74 percent of recent tribal college 
graduates are employed and using the skills gained through their 
educational experiences. Of these graduates, a significant percentage 
are employed in ``high need'' occupational areas such as elementary and 
secondary school teachers, and nurses/health care providers. Just as 
important, the overwhelming majority of tribal college graduates remain 
in their tribal communities, applying their newly acquired skills and 
knowledge where they are most needed.
    (c) Tribal colleges meet the strict standards of mainstream 
accreditation boards and offer top-quality academic programs.--Several 
TCUs have attained a ten-year accreditation term, the longest term 
granted for any higher education institution. The quality of the 
colleges' programs is reflected in the high rates of satisfaction 
reported by their graduates: 91 percent of TCU graduates surveyed 
reported being very satisfied or satisfied with courses in their major 
field of study and with overall instruction.
    (d) Tribal colleges serve as highly effective bridges to four-year 
postsecondary institutions.--While most TCUs are two-year institutions 
offering associate's degrees and certificates, their transfer function 
is significant. A survey of TCU graduates indicated that almost 50 
percent continued their education during the year after graduation, 
with more than 80 percent of those seeking a bachelor's degree. This 
compared nationally to about 33 percent of other community college 
graduates who enroll in further higher education the year after 
receiving an associate's degree. The overwhelming majority of the 
continuing TCU graduates felt that the programs at TCUs had prepared 
them well for further education and greatly enhanced their success 
rates.

                         SOME ADDITIONAL FACTS

    (a) Enrollment Gains & New TCUs.--Compounding existing funding 
disparities is the fact that although tribal college enrollments have 
dramatically increased since 1981, appropriations have increased at a 
disproportionately low rate. Title I tribal colleges have recorded a 
remarkable 298 percent increase in enrollments from 1981 to 2002. In 
fiscal year 2004, two new tribal colleges, Saginaw Chippewa Tribal 
College, in Mt. Pleasant, Michigan and Tohono O'odham Community College 
in Sells, Arizona will be eligible to receive funds under the Tribal 
College Act. TCUs are in many ways victims of their own successes. The 
dramatic enrollment increases, coupled with a growing number of 
tribally chartered colleges, have forced Title I colleges to slice an 
already inadequate pie into even smaller pieces. Our fiscal year 2004 
funding request would increase Title I operating funds to $4,500 per 
full-time equivalent Indian student, still just 75 percent of the 
$6,000 authorized.
    (b) The Absence of State Funds for Institutional Operations.--While 
mainstream institutions have a foundation of stable state support, TCUs 
must rely on the Federal government for their operating funds. Because 
TCUs are located on Federal trust lands, states have no obligation to 
fund them even for the non-Indian state-resident students who account 
for approximately 20 percent of TCU enrollments. Yet, if these same 
students attended any other public institution in the state, the state 
would provide basic operating funds to the institution.
    (c) Local Tax and Revenue Bases.--TCUs cannot rely on local tax 
base revenue. Although tribes possess the sovereign authority to tax, 
high reservation poverty rates, the trust status of reservation lands, 
and the lack of strong reservation economies impede the creation of a 
reservation tax base. In Indian Country, according to the Bureau of 
Indian Affairs, 50 percent of the eligible workforce is unemployed. In 
comparison, the current national unemployment rate is 5.8 percent.
    (d) Trust Responsibility.--The emergence of tribal colleges is a 
direct result of the special relationship between American Indian 
tribes and the Federal government. TCUs are founded and chartered by 
their respective American Indian tribes, which hold a special legal 
relationship with the Federal government, actualized by more than 400 
treaties, several Supreme Court decisions, prior Congressional action, 
and the ceding of more than one billion acres of land to the Federal 
government. Beyond the trust responsibility, the fact remains that TCUs 
are providing a public service to all American people that no other 
institutions of higher education are willing to, or can, provide. We 
are helping the Federal government fulfill its responsibility to the 
American people, particularly in rural America. Despite the fact that 
only Indian students are counted for the purpose of determining the 
level of an institution's operating funds, TCUs have open enrollment 
policies and do not discriminate based on race or ethnicity. They are 
simply and effectively removing barriers that have long prevented equal 
access to higher education for reservation community residents.

          THE PRESIDENT'S BUDGET REQUEST FOR FISCAL YEAR 2004

    The President's fiscal year 2004 budget recommends a $4 million cut 
in already inadequate funding to operate our tribally chartered 
reservation based colleges, and eliminates funding for our two 
vocational colleges. Despite an almost $2 million increase in the 
fiscal year 2003 Appropriation, the 24 colleges funded under Title I of 
the Act will receive just $3,908 per full time equivalent Indian 
student (ISC), a decrease of $8 per ISC, and still under two-thirds the 
authorized level of $6,000 per ISC. The $4 million cut proposed in the 
President's fiscal year 2004 budget, if enacted, would result in a loss 
of $733 per ISC for Title I colleges, if Title II funding remained 
level. This slashing of basic operating funds would cause some TCUs to 
no longer be able to meet minimum requirements for stable funding 
needed to pay overhead and faculty/staff salaries. This would not only 
jeopardize their accreditation status but would most likely force some 
of the colleges close their doors.

          AIHEC'S APPROPRIATIONS REQUEST FOR FISCAL YEAR 2004

    We respectfully request a total appropriation of $52.2 million for 
our Tribal College Act programs. Of that amount our first priority is 
$49,666,000 for Titles I and II of the Tribal College Act; of which, 
$39,528,000 would be for Title I grants and $10,138,000 would be 
allocated for Title II. This request is an increase of $7,650,000 over 
the fiscal year 2003 appropriated level, and $11,637,000 over the 
President's fiscal year 2004 budget request. This increase would bring 
funding for the basic operations of our Title I colleges, including our 
two new colleges, Saginaw Chippewa Tribal College (Michigan) and Tohono 
O'odham Community College (Arizona), to $4,500 per ISC, which still 
represents just 75 percent of the $6,000 authorized. Additionally, we 
seek $500,000 for technical assistance, an increase of $386,000 over 
fiscal year 2003 and the President's request, to help address ever 
emerging technical assistance needs and to fund data collection and 
analysis necessary to comply with the Congressional requests for 
additional information on TCU operations, and $2 million for endowments 
under Title III of the Act.
    For our two tribally controlled vocational institutions, we support 
$4 million for United Tribes Technical College; and a minimum of $1.2 
million for Crownpoint Institute of Technology, to restore and expand 
the funding for these programs that the fiscal year 2004 budget 
recommends eliminating.

                               CONCLUSION

    Tribal colleges are bringing education to thousands of American 
Indians. The modest Federal investment in the TCUs has paid great 
dividends in terms of employment, education, and economic development, 
and continuation of this investment makes sound moral and fiscal sense. 
We very much need your help to sustain and grow our programs and 
achieve our missions.
    Thank you for your past and continued support of the nation's 
Tribal Colleges and Universities and your consideration of our fiscal 
year 2004 appropriations requests.
                                 ______
                                 
Prepared Statement of the Assiniboine and Sioux Tribes of the Fort Peck 
                           Indian Reservation

                              INTRODUCTION

    The Fort Peck Tribes are pleased to present testimony on the fiscal 
year 2004 BIA and IHS Budget.

                      TRIBAL PRIORITY ALLOCATIONS

    The Tribal Priority Allocations system is intended to give tribes 
an additional measure of flexibility in determining how to use 
available funds to best meet local needs. However, the Administration 
has requested only a small increase of $2.1 million for programs under 
TPA. While we support this request, it would still fall far short of 
allowing the Fort Peck Tribes to meet the needs of our people in key 
areas including, education, agriculture and tribal courts. We urge the 
Congress to do all it can to increase TPA above the level requested by 
the President.
    In particular, we are very concerned with the Administration's 
failure to restore last year's $4 million cut in General Assistance 
funding. This cut is premised on a purported decline in caseloads. It 
is difficult to believe this is in fact true on a national level, since 
we at Fort Peck have experienced an increase in requests for General 
Assistance. This increase is largely the result of the Welfare Reform 
law and the strict work and benefit restrictions placed on individuals. 
People, who have had the benefits terminated, are returning home to 
take advantage of tribal work, educational and housing programs. As a 
result, the GA shortfall at Fort Peck alone is $800,000. Thus, as 
Congress seeks to reauthorize the Welfare Reform law we would urge the 
Subcommittee not to cut GA, which is an important part of tribal 
assistant programs.

                               EDUCATION

Higher Education
    We urge the Committee to support the education needs of Indian 
people. The President's budget requests $28 million for scholarships 
for Indian students to attend accredited post-secondary schools. 
Obtaining a degree in higher education--particularly for those 
individuals from families that have not previously sent anyone to 
college--takes courage and often considerable personal sacrifice. We 
believe it is our responsibility to support the efforts of our people 
to attend college. The Tribes provide scholarship funds available 
through the BIA program. However, the current levels of funding are 
already far too inadequate. For example, this year the Tribes have 
identified 230 students who are eligible for scholarship benefits for 
higher education but who cannot be served because of lack of funding. 
The BIA itself reports that the level of unmet requests for 
scholarships nationwide has increased steadily over the last three 
years.

Tribal Colleges
    We oppose the Administration's proposal to cut tribal colleges 
funding by $4 million. The twenty-six tribal colleges are important 
institutions in the remote tribal communities that they serve. On our 
Reservation, we operate the Fort Peck Tribal College, a fully 
accredited institution, offering Associate Degrees in arts, science and 
applied sciences.
    The College offers our students an opportunity to obtain a higher 
education without having to leave their homes and families. This is 
critical for many of our students, especially our single parent 
students, who need family members to provide child care. These students 
do not have the resources or the network to attend school in Billings 
or Great Falls and if it weren't for our Tribal College they would have 
no opportunity to improve their lives, through higher education.
    We strongly urge the Subcommittee to increase funding for this 
vital program that is improving the lives of Indian people.

                         INDIAN HEALTH SERVICE

    The President's budget requests a total of $3.6 billion for IHS 
services and construction (including the $50 million funded through the 
mandatory special diabetes program.) While this represents an increase 
on paper, it will not translate into any program improvements or 
expansions. This increase does not even keep pace with medical 
inflation rates.
    The Federal Government has a trust responsibility to provide health 
care to Native Americans, an obligation that was paid with millions of 
acres of land and resources. This Federal responsibility has been 
reaffirmed through treaties, legislation, executive orders and policies 
by Congress and Presidential Administrations. The Indian Health Service 
budget must include consideration for medical inflation, population 
increases and mandatory payroll increase. The IHS has adsorbed over one 
billion dollars in mandatory cost increases over the past 10 years 
causing the loss of purchasing power that has led to insufficient 
funding for medical services putting lives and health of Native people 
at risk. This is not acceptable. The same allowance given to federal 
programs, Medicaid and Medicare, for inflation and population 
adjustments should be applied to the IHS fiscal year 2004 Budget.
    The health indicators in Indian communities consistently 
demonstrate higher infant mortality, teenage suicide, accident, 
alcoholism, diabetes, and heart disease rates among Indian people when 
compared with other minorities and the general American population. 
Yet, money directed to health care, especially preventative care, such 
as routine checkups and health education, that clearly improve the 
quality of life and help avoid more expensive health care costs in the 
future is not included in the Administration's fiscal year 2004 budget 
request. This is unacceptable.

Special Diabetes Study-$316,000 Request
    Diabetes is an epidemic on the Fort Peck Reservation. The rate of 
heart disease, amputations, blindness, kidney failure and other 
diabetic related complications are growing at an accelerated rate, 
while the age of onset becomes younger every year. The death rate for 
Indian people from diabetes is nearly three times higher than non-
native people.
    To begin to combat this problem that is threatening the future of 
our community, the Fort Peck Tribes request an earmark of $316,000 to 
implement the first year of a five year epidemiological study of the 
impact of a more traditional diet on the diabetics. Preliminary studies 
show that bison meat is a natural inducer of insulin production in the 
body. In addition, bison meat is high in protein and low in fat, which 
is the ideal diet choice for diabetics
    The Tribes propose to establish a study population of 250 people--
125 would be diagnosed diabetics and 125 would be individuals with an 
established diagnosis of Insulin Resistance Syndrome. All study 
participants will be evaluated by a physician at a baseline and 
thereafter quarterly. The Tribes propose to provide buffalo meat to 
these individuals on a weekly basis. As a part of the study, 
participants will receive an orientation other healthy benefits of 
Bison meat, including how to prepare healthy bison dishes and how to 
incorporate other healthy lifestyle changes to improve their condition 
such as increased exercise, weight control and overall change of diet. 
The study groups will be evaluated quarterly by a physician and receive 
education by the nurse educator and dietitian for weight, waist to hip 
ratio, comprehensive chemistry, magnesium levels, lipid profiles, 
HgbAIC, fasting insulin levels, urinalysis, A/C ratios and aliquots.
    The Tribes estimate that it will require 35 buffalo per year to 
provide sufficient meat to the study participants. The initial term of 
the study would be for five years.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
First year costs........................................        $316,000
    Purchase of Bison Meat..............................          95,000
    Labs for controlled/Non-controlled Group............          52,000
    Data analysis.......................................          45,000
    Office equipment....................................          15,000
    Equipment for processing meat.......................          20,000
    Physician, Nurse Educator, Dietitian................          35,000
    Laboratory technician...............................          24,000
    Administrative Coordinator..........................          30,000
------------------------------------------------------------------------

                                 ______
                                 
 Prepared Statement of the Association of Navajo Community Controlled 
                             School Boards

             SUMMARY OF ANCCSB'S REQUESTS, IN PRIORITY ORDER
                        [In millions of dollars]
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Administrative Cost Grants--continuing tribally-operated            61.5
 schools...................................................
Administrative Cost Grants--first-year conversion schools..          3.0
Student Transportation.....................................           55
Indian School Equalization Formula.........................      ( \1\ )
Facilities Operations......................................           70
Facilities Improvement and Repair..........................         158
------------------------------------------------------------------------
\1\ $4,000/WSU for basic program--(net after special education costs).

    This preliminary statement of the Association of Navajo 
Community Controlled School Boards (ANCCSB) is submitted on 
behalf of its 16 member school boards who operate BIA-funded 
schools on the Navajo Reservation in Arizona and New Mexico 
under contracts or grants from the Bureau of Indian Affairs. We 
will supplement our comments after the fiscal year 2004 BIA 
detailed budget justification is released. The issues we 
discuss below and on which we provide our recommendations are 
presented in priority order.
    Administrative Cost Grants.--We strongly supported the 
NCLBA provision that requires the Bureau to create a separate 
Administrative Cost (AC) Grants fund to cover the first-year AC 
Grant needs of schools that newly convert to tribal operation. 
The BIA budget recommends $3 million for this separate fund.
    The amount requested for AC Grants for continuing tribally-
operated schools is, however, alarmingly inadequate to meet the 
needs of these schools. The amount requested for these schools 
is only $46,181,000. At this level, it will be impossible for 
BIA to supply even 75 percent of the AC Grant needs of these 
ongoing tribally-operated schools. This budget request is not 
responsive to the increasing costs of annual financial audits, 
liability insurance, and salaries for certified administrators 
and business managers.
    Recommendation.--We recommend that $61.5 million be 
supplied to meet 100 percent of need for on-going tribally-
operated schools, and concur with the BIA's request for an 
additional $3 million to cover the first-year costs of schools 
who convert to tribal operation in SY 2004-2005. We also 
recommend that Congress direct that any funds remaining from $3 
million, will be transferred to and distributed to meet the AC 
Grant needs of on-going contracts and grants.
    Student Transportation.--We are extremely disappointed that 
the Administration once again requests only a minimal increase 
of $1.1 million for our school transportation system. According 
to the most recent national report, the average expenditure for 
public schools was $2.97/mile six years ago but, during SY 
2002-2003, BIA schools received only $2.17/mile. The budget 
request of $38.6 million, which will be used in SY 2004-2005, 
will barely enable the BIA to pay at the $2.17/mile range when 
increased fuel costs and vehicle maintenance costs are taken 
into account.
    There are a host of transportation costs our schools must 
budget for that do not impact other school systems, such as (1) 
approximately 90 percent of the roads on the Navajo reservation 
are unimproved and unpaved--resulting in increased maintenance 
and repair costs, and (2) oftentimes the authorized maintenance 
and repair facilities are not located nearby, and in some 
instances result in roundtrips of over 250 miles. We are also 
experiencing rising fuel costs, which have recently averaged 
$1.90-2.00/gallon. Furthermore, retaining CDL certified bus 
drivers is always difficult due to our inability to offer 
competitive, full-time positions.
    Congress should be aware that the transportation formula 
does not take into consideration mileage associated with extra-
curricular activities (athletics, educational field trips, 
etc.), after-school activities, or trips for repairs and 
maintenance. We must cover these expenses from our 
instructional funds. The ``student transportation'' funds are 
only used for the daily bus runs associated with getting 
students to/from school, and, in fact, the amount we receive 
for this purpose is so inadequate that we must subsidize bus 
costs from instructional funds.
    Recommendation.--We urge that Congress provide student 
transportation funding at $3.00/mile which we believe will 
require a $55 million appropriation. We also request that 
Congress direct the BIA to amend the transportation formula to 
include factors for isolation and mileage related to extra-
curricular activities.
    Indian School Equalization Formula (ISEF).--The ANCCSB 
schools were alarmed to learn that only a small increase in 
ISEF program funds is requested for fiscal year 2004. Coupled 
with the Administration's rescission of more than $700,000 from 
the ISEF in the fiscal year 2003 budget, the new budget request 
will not even be sufficient for us to cover the inflation rate 
or the additional costs such as School Board training mandated 
by the No Child Left Behind Act of 2001 (NCLBA).
    ISEF is the primary source of funds for the instructional 
and residential programs at the 185 schools and dormitories in 
the BIA system. We face significant costs connected with 
increasing instructional program costs, teacher recruitment, 
and curriculum development just to maintain our current 
programs, let alone cover the costs associated with the many 
additional requirements of the NCLBA.
    Under the NCLBA, we are required to hire only highly 
qualified teachers and paraprofessionals, provide increased 
professional development and parent involvement activities, and 
ensure adequate yearly student progress--which is dependent 
upon curriculum alignment, utilization of ``research-based'' 
materials and methods, and a host of other factors. Due to the 
remoteness of many of our schools, staff recruitment and 
retention remains a tremendous challenge. We cannot assure the 
availability of professional staff with the required 
certification, or paraprofessionals with AA degrees, unless we 
have the financial resources to recruit/retain personnel with 
these credentials. Our Indian schools must compete with public 
school districts for highly qualified personnel, but we cannot 
survive this competition unless we can offer competitive 
salaries and benefits.
    Important technical change regarding the ISEF ``weighted 
student unit'' system!--It is essential that Congress be aware 
that BIA changed the way student ``weights'' are counted under 
the ISEF in SY 2002-2003. The fiscal year 2004 budget request 
will be the first one impacted by this change, but we do not 
know if BIA will fully describe what has taken place and the 
additional calculations that are needed to enable Congress to 
properly evaluate the fiscal year 2004 budget request for ISEF. 
The key changes are these: BIA has eliminated from the ISEF 
program any weights for special education students. Under the 
previous system, schools received extra ISEF ``weights'' for 
services they supply to special education students; these 
weights generated funds for the school specifically for special 
education services. In addition, BIA changed the weights 
assigned to each grade level for students in the basic 
instructional program and in the Gifted & Talented program.
    In the past, we and Congress have been able to evaluate an 
ISEF budget request by comparing the prior year's amount of 
funding for each ``weighted student unit'' (WSU) with the WSU 
amount that would be produced by the new proposed budget. Such 
a comparison is no longer meaningful, however, since the 
weighting factors have been altered.
    Under the new system, BIA now requires that a school use 15 
percent of its ISEF dollars to pay for special education 
services. If its special education needs exceed this amount, 
the school can apply for supplemental dollars under the 
Individuals with Disabilities Education (IDEA) Program. In the 
past, the school applied for IDEA funds after using the ISEF 
funds it attracted through the add-on weights under the ISEF.
    This change will produce a different number of overall 
``weighted student units'' in the BIA school system, and a 
different relative value of each WSU. It is important to know 
this so that Congress can determine whether the WSU base amount 
is actually increasing at a rate needed to keep pace with 
instructional costs in the BIA system. The BIA estimates that 
the fiscal year 2004 amount requested will result in a $4,035 
WSU for SY 2004-2005. However, if the BIA has not allowed for 
the 15 percent reduction for special education services, the 
actual amount would be $3,429/WSU. This amount would be $525 
less than the SY 2003-2004 WSU amount.
    Recommendation.--If our schools are to enhance the 
educational programs to ensure our students make adequate 
yearly progress and meet the requirements established in the No 
Child Left Behind Act, we urge that Congress provide an amount 
that would result in at least $4,000 per WSU for the basic 
instructional program--that is, the amount of ISEF funds 
devoted to basic instructional programs after the 15 percent 
that must be devoted to special education services is taken off 
the top.
    Facilities Operations.--This account must cover the cost of 
utilities, heating fuel, janitorial, communications, refuse 
collection, water/sewer, fire protection, pest control, and 
technology maintenance. Funding for this program is based on 
the total square feet of education space.
    The ANCCSB schools have several concerns regarding the 
proposed $57.8 million requested for fiscal year 2004, which 
represents only a $2 million increase over fiscal year 2003. It 
is evident that fuel and other utility costs are steadily 
increasing, yet funds for basic school operating costs have 
only covered 60 percent to 70 percent of the actual costs the 
schools incur. The BIA-requested $2 million increase will 
barely enable schools to continue at their current level of 
shortfall. Nearly half of all BIA schools are more than 30 
years old, and nearly 15 percent are more than 50 years old, 
which means it costs substantially more to operate and maintain 
these outdated facilities. A recent GAO study \1\ confirmed 
that BIA schools are generally in poorer physical condition, 
have more unsatisfactory environmental factors, more often lack 
key facilities requirements for education reform, and are less 
able to support computer and communications technology.
---------------------------------------------------------------------------
    \1\ General Accounting Office, BIA and DOD Schools: Student 
Achievement and Other Characteristics Often Differ from Public 
Schools', GAO-01-934 (September 2001).
---------------------------------------------------------------------------
    The safety of our students and our desire to provide an 
adequate learning environment are not the only reasons the 
ANCCSB schools believe additional Facilities Operations funds 
are necessary. One of our primary concerns is that in order to 
meet the academic requirements of the NCLBA, ANCCSB schools 
plan to implement year-round schooling or provide a summer 
school session. The extended year will result in additional 
maintenance, utilities, and staff costs. Other concerns include 
the following: costs for utilities, propane, electricity, 
sewage, and water purchased from the Navajo Tribal Utility 
Authority has increased 3 percent in the past year; many of our 
schools lack adequate fire protection but must rely on fire 
trucks located 50-70 miles away; security costs have increased 
due to the national security threat (requiring school security 
to be on alert 24 hours/day) and the planned extended school 
year. Also, under the NCLBA, the BIA is required to pass on to 
the schools all funds appropriated for facilities operation and 
maintenance, but we believe the agency is not generating the 
information we need to assure that this directive is carried 
out. In the past, despite Congressional orders to the contrary, 
BIA has ``skimmed'' funds from the appropriation to support 
federal bureaucrat salaries. Now that the NCLBA has expressly 
prohibited this practice, schools and the Appropriations 
Committees need a mechanism to assure that the law is being 
followed. We ask the Appropriations Committees to obtain an 
assurance from BIA that it has ceased to retain any facilities 
operation and maintenance funds at the agency level.
    Recommendation.--Please demand that the BIA supply 
information on the amount that would be needed to fully fund 
the formula used to calculate the amount of facilities 
operation and maintenance funds needed by each school in the 
system. Armed with this data, the Congress should then 
appropriate that sum in order that these schools can be 
properly operated and maintained.
    Replacement Schools Construction.--The ANCCSB schools are 
pleased that the BIA wants to start six replacement school 
construction projects in fiscal year 2004. If this 
recommendation is followed, nearly all schools on the existing 
Priority List will have been funded.
    Construction of new schools remains a critical need for the 
BIA system, and particularly schools on the Navajo Reservation. 
For example, the Lukachukai Community on the Navajo Reservation 
continues to educate its children in dilapidated, unsafe 
buildings that are 10+ years beyond their useful life, are not 
in compliance with handicapped accessibility codes, are 
overcrowded and lack the space needed to conform to the 
dictates of the No Child Left Behind Act's instructional 
minimums, and contain a variety of health/safety code 
violations. We were therefore extremely disappointed that 
Lukachukai was not included on the long-awaited Priority List 
compiled from the applications filed some 18 months ago but 
only recently finalized by the BIA.
    Facilities Improvement & Repair Program.--We are deeply 
concerned that the fiscal year 2004 budget request would reduce 
the education Facilities Improvement & Repair (FI&R) Program by 
over $16 million in light of the tremendous backlog of needed 
school repairs--reported to be over $960 million in a recent 
General Accounting Office report.\2\
---------------------------------------------------------------------------
    \2\ Id. at page 23.
---------------------------------------------------------------------------
    BIA attempts to justify the cut in FI&R funding by 
asserting that funding was transferred to the replacement 
school construction account. Although additional funds for 
replacement of unsafe schools is most welcome, it means that 
$16 million worth of repair work needed at many schools will be 
devoted to possibly constructing one additional school! While 
the repair backlog remains high, it is equally important that 
the students who attend schools throughout the system are 
provided much-needed health, safety and environmental 
improvements, utility upgrades, and additional classrooms.
    Recommendation.--At a minimum, Congress should restore the 
$16.2 million BIA proposes to cut from the FI&R program. To 
properly fulfill its responsibility to Indian students, this 
account should be increased by some $10 million in fiscal year 
2004.
    Negotiated Rulemaking.--Our final comment is related to the 
recently enacted fiscal year 2003 Omnibus Appropriations Act. 
The ANCCSB schools are disheartened by the inclusion of bill 
language that would allow BIA to use the ISEP Contingency Funds 
to pay the costs of the negotiated rulemaking to prepare 
regulations required by the No Child Left Behind Act (NCLBA). 
This authority to re-direct much-needed funds for school 
programs was not what was provided in the NCLBA. Instead, the 
NCLBA requires the Secretary of the Interior to cover the costs 
of the negotiated rulemaking process through the Department's 
general administration funds. The ISEP Contingency Funds are 
meant to be used only for school-related emergencies, and any 
unused funds remaining at the end of the school year are to be 
apportioned to the schools for use in instructional programs. 
Allowing the Secretary to use the Contingency Funds in any 
other manner not only violates the NCLBA but would also mean 
less funds to purchase essential materials for our schools such 
as textbooks and other school supplies.
    Recommendation.--We request that Congress strongly urge the 
Secretary to follow the mandate of the NCLBA and use funds from 
the Department's general administration funds to pay the 
expenses for negotiated rulemaking instead of the ISEP 
Contingency Funds.
    This statement of the Association of Navajo Community 
Controlled School Board is sponsored by the following tribally-
operated member schools of the Navajo Nation:

    1. Stanley Herrera, President Alamo Navajo School Board
    2. Wilson Gilmore, President Black Mesa Community School, 
Inc.
    3. George Tolth, President Borrego Pass Community School, 
Inc.
    4. Beverly Becenti-Pigman, President Kayenta Community 
School, Inc.
    5. Marge Begay, President Lukachukai Community School, Inc.
    6. Ross Smallcanyon, President Naa Tsis' Aan Community 
School, Inc.
    7. Edison Wauneka, President Navajo Preparatory School, 
Inc.
    8. Joseph Dedman, President Nazlini Community School, Inc.
    9. Lorenzo Yazzie, President Pinon Community School, Inc.
    10. Jamie Henio, President Ramah Navajo School Board, Inc.
    11. Johnny Decheeny, President Rock Point Community School, 
Inc.
    12. Betty Dailey, President Rough Rock Community School, 
Inc.
    13. Eva Stokely, President Shiprock Alternative Schools, 
Inc.
    14. William Lynch, President Wide Ruins Community School, 
Inc.
    15. Marie Brady, President Winslow Residential Hall, Inc.
    16. Sarah J. Attakai, President Jeehdeez'a Academy, Inc.
                                ------                                

    Prepared Statement of the Chugach Regional Resources Commission

    We appreciate the opportunity to provide this written testimony to 
the Senate Appropriations Subcommittee on Interior and Related 
Agencies. The Chugach Regional Resources Commission (CRRC), a non-
profit Alaska Native coalition for managing tribal natural resources, 
with its seven member Tribes located in the Prince William Sound and 
Lower Cook Inlet, respectfully requests as our first priority 
restoration of its base funding of $350,000 from the fiscal year 2004 
Bureau of Indian Affairs budget, Fish, Wildlife and Parks Program.
    The Tribes of the Chugach Region, who make up the Chugach Regional 
Resources Commission, appreciate the support of the Subcommittee in 
reinstating our fiscal year 2003 funding which was zeroed out by the 
Bureau of Indian Affairs. Unfortunately, the Administration has once 
again zeroed out our funding of the President's proposed BIA fiscal 
year 2004 budget. Therefore, we are respectfully requesting the support 
of the Senate Appropriations Subcommittee on Interior and Related 
Agencies to restore the $350,000 to the Bureau of Indian Affairs fiscal 
year 2004 Fish, Wildlife and Parks budget earmarked for CRRC and add it 
to the base budget as permanent funding. In addition, we are requesting 
a $250,000 increase for the region-wide mariculture program and an 
additional $250,000 increase for the education and training program 
described below.
    Until fiscal year 2003, this funding had been included in the BIA's 
Fish, Wildlife and Parks budget for the past 13 years. The mission of 
CRRC is to work with our seven member Tribes to promote and develop 
sound economic resource based-projects and to work collectively to 
address any natural resource and environmentally related issues that 
affect the Native people of the Chugach Region.
    This funding, over the past 13 years, has supported the development 
and operation of many programs that have assisted communities in 
providing meaningful employment opportunities as well as valuable 
services and products to the people of the State of Alaska. If this 
funding is not restored, 35 Native people in the Chugach Region will 
lose their jobs. With the scarcity of employment opportunities in rural 
Alaska, the impact of approximately six families per village losing 
this income in a village with an average population of 100, strikes a 
devastating blow to the local community economy. In addition, these 20 
families will create a much larger burden on state and federal 
financial resources as they will be forced to depend upon state and 
federal welfare programs to provide funding for necessary living 
expenses. This funding also supports the base operating expenses of 
CRRC, and without it, our work will not be able to continue. A summary 
of some of these programs supported by this funding is provided to give 
you a better understanding of the integral role this funding plays in 
Tribal community development.
    The Port Graham Salmon Hatchery has been in operation since 1990, 
and raises sockeye, pink, and coho salmon. CRRC provided Port Graham 
with the technical and administrative assistance necessary to build the 
hatchery program. The hatchery's goal is to rebuild local pink salmon 
runs and provide economic opportunities for village residents. CRRC has 
funded the hatchery operations for many years and employed the hatchery 
staff consisting of 5-7 full time and seasonal employees.
    The original hatchery was located in the net loft of the salmon 
cannery building. This building was completely destroyed by a fire in 
January of 1998. CRRC worked closely with the Port Graham Village 
Council to obtain funding and help to build a new hatchery. The new 
hatchery was completed in 2000 and is now in the process of bringing 
salmon production to full capacity, which is 110 million pink salmon 
eggs, 5 million sockeye salmon eggs and 2 million coho salmon eggs. The 
hatchery currently produces local stock pink and coho salmon and 
incubates sockeye salmon eggs for the nearby Native Village of 
Nanwalek. The hatchery is expecting about 300,000 adult pink salmon to 
return this year, which will be enough to fill it to capacity. Annual 
adult returns are expected to increase to about 3 million pink salmon 
beginning in 2004 and 100,000 to 200,000 sockeye salmon beginning in 
2006. Reinstatement of the fiscal year 2004 funding will allow to 
continue with its needed investment in the hatchery program and to help 
develop a a value added processing component to the local processing 
plant which is owned and operated by the Port Graham Corporation.
    The Nanwalek Sockeye Enhancement Program (NSEP) was also initiated 
in 1990. CRRC provided funding and technical and administrative 
assistance to develop a sockeye smolt stocking program that would 
supplement wild production and help rebuild the depleted English Bay 
sockeye run. The Nanwalek IRA Council operates the project with 
administration and support coming from CRRC. It is the only program of 
its kind currently permitted in the State of Alaska and employs one 
full time and ten seasonal workers. The heart of the project consists 
of rearing Port Graham hatchery produced fry to smolt size in English 
Bay Lakes and releasing them in the lakes to migrate out to sea and 
return as adults. Rearing operations commenced in 1991 and have 
occurred annually since that time. Over two and a half million sockeye 
smolts have been released into the English Bay Lakes since project 
inception. This has produced over 220,000 adult sockeye salmon that 
have returned to the English Bay River and associated fisheries. Fish 
from this project allowed for the reopening of the subsistence fishery 
in 1996 and a limited commercial fishery in 1997.
    This important program is expected to reach a peak production of 
about 150,000 adult sockeye salmon returning every year beginning in 
2007. English Bay River sockeye salmon are a principal source of 
subsistence food and commercial fishing income for the Nanwalek and the 
nearby Port Graham villages. CRRC continues to provide consulting and 
technical assistance for this project that will help provide a 
sustainable economic base for the village of Nanwalek.
    The Qutekcak Shellfish Hatchery in Seward has been a major 
accomplishment for both the Qutekcak Native Tribe and CRRC. The 
operation began in a small pilot hatchery with funding provided from 
CRRC BIA funds, and is now operating out of a new state-of-the-art 
facility, spawning, hatching, and rearing littleneck clams, Pacific 
oysters and geoducks for sale to shellfish farms in Alaska and 
elsewhere. This hatchery is now operated by the Tribe under a contract 
with the City of Seward, and employs 4 full time employees. This is the 
only shellfish hatchery in the State of Alaska, and has the capacity to 
serve all shellfish farms in the state. The Tribal hatchery staff is 
currently conducting research on the culture techniques of Purple-
hinged Rock Scallops and Cockles. CRRC has helped fund hatchery 
research and development, which would be sharply curtailed without this 
support. This would devastate not only the Tribal hatchery, but the 
shellfish farmers in Alaska as well who depend upon seed for their own 
operations. One condition of the hatchery operating contract stipulated 
that the Tribe put up $100,000 bond to cover the cost of mothballing 
the hatchery should the Tribe pull out and no one else found to take 
its place. Operating costs are approximately $340,000 per year for the 
hatchery. Without the BIA funding, hatchery operations would have to be 
cut back. This would reduce seed production that, in turn, would reduce 
income. This likely would force the Tribe to back out of its operating 
contract. This would mean that some or all of its $100,000 bond would 
be forfeited if no one else could be found to take over hatchery 
operations. Closing the hatchery would also doom the state's 
mariculture industry; reducing it to a very small number of farmers 
supplying oysters to the tourists.
    The Tatitlek IRA Council has operated the Alutiiq Pride Oyster Farm 
since 1992 and is one of those farms that depend upon seed from the 
Qutekcak Shellfish Hatchery for their operation. The oyster farm has 
produced some of the best oysters in the country and is well known 
throughout Alaska. The operation sells their product primarily in 
Anchorage at this time, marketing approximately 200-300 dozen per week. 
Funding for this project is slowly being phased out as their profit 
margin increases. Sales currently account for about $80,000 of its 
$145,000 budget. About $35,000 of the remainder comes from the CRRC's 
BIA natural resources program and the rest from village funding 
sources. This is one of the bigger mariculture operations in the state, 
providing 3 full time and several part time employment opportunities 
for Tribal members. The Tribe recently completed construction of a 
processing facility to process the oysters and prepare them for 
shipping. Losing the BIA funding would likely result in a reduction in 
employment and production, and possibly the end of the program. This in 
turn would hurt the Qutekcak shellfish hatchery since Tatitlek is one 
of the hatchery's bigger customers.
    In a related project, the Chenega IRA Council operates the Chenega 
Floating Nursery System for oysters and other shellfish in Chenega Bay. 
With this nursery system, they are able to raise shellfish to a size 
larger than what can legally be imported into Alaska. The ability to 
purchase larger seed means shorter grow-out time, and higher 
profitability for the shellfish farms. So, this program fills a niche 
in the shellfish market that did not exist anywhere in the state prior 
to its inception. This program employs one full time community member.
    In addition to these projects, this funding has also supported the 
development of Tribal Natural Resource Programs in the region in an 
effort to be more meaningfully involved in the natural resource 
management projects and decisions that affect the Tribes' traditional 
subsistence lifestyle. We request an increase of $250,000 per year for 
the next four years, to develop a model technical education and 
training in natural resource management to allow for increased and 
meaningful tribal involvement in the management of subsistence 
resources in cooperation with federal and state management agencies.
    Active participation by the Tribes in such current initiatives as 
the Exxon Valdez Trustee Council's Gulf Ecosystem Monitoring Program 
and the federal subsistence fisheries management projects occurring in 
traditional use areas is vital to the overall success of each of these 
programs. Funding from this initial appropriation also supports the 
base operations of the organization, such as salaries, travel, 
telephone, office space, office supplies, and professional biological 
assistance, which are vital to the CRRC's very existence. We have been 
very successful at utilizing these funds to use as match for other 
grants as well, oftentimes doubling or even tripling the initial 
investment.
    As you can see, this funding has played an integral role in 
allowing CRRC to develop and implement important community-based 
programs such as those described above. The over 35 Native people 
employed under this funding, the majority of which are located in the 
villages, will lose their jobs if this funding is not restored; CRRC 
will be without operating funds, thus unable to facilitate the 
development of local community economies, and Tribes will no longer 
have a collective voice to address the environmental and resource 
issues that affect their lives.
    We are respectfully requesting the Committee's support to restore 
the original amount of $350,000 to the BIA Fish, Wildlife and Parks 
Budget for the Chugach Regional Resources Commission and make it part 
of the recurring base budget. Due to the magnitude of this program to 
the people of the Chugach, as well as its far reaching impacts and high 
cost to benefit ratio, we are also requesting that this funding be 
included in the budget as part of the permanent base. We believe that 
making our funding a part of the permanent base will alleviate the need 
for us to spend what little funding we have on getting our BIA funding 
restored rather than on meaningful projects that will benefit the 
communities. We also ask for the Committee's support for our requested 
increase of $500,000 to enhance our programs.
    In a related matter, we also support the restoration of funds to 
other Tribal fish and wildlife programs that were cut from the BIA 
budget, including $100,000 to the Alaska Sea Otter and Stellar Sea Lion 
Commission, $454,000 to the Bison Restoration Program, $593,000 in 
Wetlands/Waterfowl Management, and $320,000 in Unresolved Hunting and 
Fishing Rights for Tribal management of shellfish resources and 
associated treaty harvest in the Northwest Region.
    Once again, we ask the Committee to restore these funds in behalf 
of the Native people of the Chugach Region and thank you for your 
support of our programs, as well as this opportunity to provide our 
written testimony. If you have any questions, please feel free to 
contact me at 907/284-2212 or Patty Brown-Schwalenberg, Executive 
Director, at 907/562-6647.

                                 ______
                                 
   Prepared Statement of the Confederated Tribes of the Grand Ronde 
                          Community of Oregon

    Mr. Chairman, I am Cheryle A. Kennedy, Tribal Council Chairwoman of 
the Confederated Tribes of the Grand Ronde Community of Oregon. I 
hereby submit this testimony regarding Bureau of Indian Affairs fiscal 
year 2004 appropriations to the House Appropriations Subcommittee for 
Interior and Related Agencies Appropriations with the following 
requests:
    (1) Restore BIA Endangered Species Act funding to $3.1 million and 
direct that $1.7 million of the funds be utilized among Northwest 
tribes, as they were in fiscal year 2002, to manage for ESA listed 
species, including the northern spotted owl, marbled murrelet, and 
steelhead.
    (2) Add $115,000 to BIA Other Recurring Programs, Natural 
Resources, Wildlife and Parks, for a Grand Ronde study of the decline 
of Roosevelt Elk and its habitat on and around our Reservation.
    The Confederated Tribes of Grand Ronde were restored to federal 
recognition by Act of Congress in 1983. Today, we have close to 4,800 
members centered in the Oregon community of Grand Ronde is western Polk 
County, but also dispersed throughout the United States. In the 
adjacent hills of Oregon's Coast Range of Mountains is our 10,052 acres 
of Reservation timberland, established by a separate 1988 Act of 
Congress.
    (1) Restore BIA Endangered Species funding (in Non-Recurring 
Programs, Resources Management) to $3.1 million and direct that $1.7 
million of the funds be utilized among Northwest tribes, as they were 
in fiscal year 2002, to manage for ESA listed species, including the 
northern spotted owl, the marbled Murrelet, and steelhead.
    In fiscal year 1992, at the request of Grand Ronde and other 
Northwest tribes, Congress added $1.4 million to the BIA Forestry 
budget for management of the northern spotted owl, with had become 
listed under the Endangered Species Act. In subsequent years, BIA--over 
the objections of tribes--combined the northern spotted owl funding 
with other funds to reintroduce the Black Footed Ferret on the Northern 
Cheyenne Reservation and established a separate ESA line item. By 
fiscal year 2002, this ESA line item totaled $3 million, including $1.6 
million for Northwest tribes affected by the northern spotted owl and 
$1.3 million for the ferret. In fiscal year 2003, BIA proposed to 
eliminate all of these funds except for $197,000, which they proposed 
to keep for Central Office staff. Responding to tribal objections, 
Congress restored the ESA line item to about $2,697,000. At this point, 
we do not know what we will receive under this fiscal year 2003 
funding. For fiscal year 2004, the BIA reportedly is requesting 
$2,198,000 for the ESA line item. Again, at this point, we do not know 
how the BIA is proposing to spend the $2,198,000. However, we are 
concerned that for both fiscal year 2003 and for fiscal year 2004, 
funding for the Grand Ronde Tribe's ESA compliance program will fall, 
imperiling our ability to meet the ESA's management requirements.
    To maintain the Grand Ronde Tribe's goal of complying with the 
Endangered Species Act, our Tribe will need to continue surveys for 13 
listed species that can, or do, occur in the region of our Reservation. 
Our participation in the ESA program, in the fiscal year 2002 amount of 
$68,600, will be used to pay for 128 hours of staff time for the survey 
and monitoring of marbled murrelets, 120 hours for the survey and 
monitoring of the northern spotted owl, 966 hours of monitoring for 
steelhead trout, and 224 hours for the survey and monitoring of 
Nelson's checkermallow. It will also construct an adult steelhead 
monitoring station, conduct RADAR survey for marbled murrelets, and 
conduct filed inspections for other listed species.
    The loss or reduction of these funds will directly and immediately 
hinder our ability to comply with the Endangered Species Act, which in 
turn could threaten our ability to manage our forest, including the 
commercial harvest upon which we depend. We urge the Committee not to 
let this happen by maintaining these funds and their purpose. It was 
the affected Northwest tribes, including our Tribe, that initially 
secured these funds, not the BIA. Further, BIA has never sought any 
other funds for Endangered Species management, which makes BIA's 
unilateral efforts to either eliminate these funds or divert them to 
some other use particularly troubling. Accordingly, we ask that the 
Committee not allow this to happen, and that you fully restore the ESA 
item funding to $3.1 million, with $1.7 million dedicated to affected 
Northwest tribes.
    (2) Add $115,000 to BIA Other Recurring Programs, Natural 
Resources, Wildlife and Parks, for a Grand Ronde study of the decline 
of Roosevelt Elk and its habitat on and around our Reservation.
    The Confederated Tribes of the Grand Ronde Community of Oregon 
requests your support of the addition of $115,000.00 to Wildlife and 
Parks in the BIA's Other Recurring Programs, Natural Resources budget 
to study the habitat use and distribution of Roosevelt Elk on and 
around our Reservation lands. Elk are an important cultural, natural, 
and subsistence resource for members of the Grand Ronde Tribes. Tribal 
members are authorized by the Tribal government, the State of Oregon, 
and the federal government to hunt elk on and around Reservation lands 
within the Trask Wildlife Management Unit.
    Elk populations in the Trask Unit are below state management 
objectives and tribal harvest rates have declined over the last 10 
years. Approximately 46 percent of the Trask Unit is public land and 
there is a perception among many hunters that these lands are not 
providing quality elk habitat due to changes in management policies. 
The Tribes would like to gather data on elk distribution and use of 
habitat to learn how the available habitat is affecting elk 
populations. Information learned from the study would allow the Tribes, 
the State of Oregon, and other land managers and owners to make 
informed decisions regarding management of elk habitats and 
populations, with the goal of improving elk habitat to allow for 
sustainable harvest of elk for current and future generations. While 
there is clear need for research and data, no other agencies, state or 
federal, are currently conducting elk research on or near the 
Reservation.
    The Tribe's Natural Resources Division would manage the project, 
track the collared elk for two years, and analyze the data. The funding 
requested would be used to obtain GPS (global positioning system) 
tracking collars, tracking equipment, and to capture (using a 
helicopter) and collar the elk. For this undertaking, we request 
$115,000.
    Mr. Chairman, this concludes our fiscal year 2004 testimony. We 
hope the Committee will be able to accommodate our requests. If you 
have any questions, please let us know.
    Thank you.

                                 ______
                                 
   Prepared Statement of the Confederated Tribes of the Warm Springs 
                              Reservation

    Mr. Chairman, I, Olney Patt, Jr., Chairman of the Confederated 
Tribes of the Warm Springs Reservation of Oregon, hereby submit this 
fiscal year 2004 testimony regarding Bureau of Indian Affairs, the 
Office of the Special Trustee, and Indian Health Service funding for 
fiscal year 2004. In summary, the Warm Springs requests are:
    (1) Add $2 million to BIA TPA Forestry designated for Warm Springs 
(BIA Tribal Priority Allocations, Resources Management).
    (2) Restore BIA ESA funding to $3.1 million, with $1.8 million for 
Northwest tribal ESA compliance activities, including $300,000 for Warm 
Springs (BIA Non-Recurring Programs, Resources Management).
    (3) Provide $500,000 for a Warm Springs Water Settlement 
Implementation Plan (BIA Non-Recurring Programs, Resources Management, 
Water Management, Planning, and Pre-Development).
    (4) Within BIA Law Enforcement, add $500,000 for Warm Springs (BIA 
Special Programs and Pooled Overhead, Public Safety and Justice).
    (5) In IHS Hospitals and Clinics, add $1.75 million for the Warm 
Springs Joint Venture Pilot Project (Indian Health Services Hospitals 
and Health Clinics).
    (6) Increase BIA and IHS contract support funding to 100 percent 
(BIA Tribal Priority Allocations, Tribal Government, Contract Support, 
Indian Health Services, Contract Support Costs).
    (7) On trust reform, Office of Special Trustee funding increases 
must not come out of existing tribal programs, and BIA's reorganization 
should be deferred until the Trust Officers idea can be examined and 
clarified and the ``As Is/To Be'' study is completed.
    Mr. Chairman, my Tribe, the Confederated Tribes of Warm Springs, 
has a 1,000 square mile Reservation in north Central Oregon that is 
home to most of our 4,200+ members. Over the past several years, the 
two long-time mainstays of our Reservation economy, timber and 
hydroelectric revenues, have been steadily declining. Our available 
timber harvest has fallen by half, and softwood lumber prices are low. 
Electricity prices, after years of strong fluctuation, have also gone 
substantially down. Unfortunately, these conditions are projected to 
continue for at least several years into the future. We are 
aggressively pursuing other economic development initiatives, but as I 
am sure you know, economic development does not come easily to most of 
Indian Country. We are trying, but at present, not making much headway. 
In the past, when our tribal revenues were comparatively strong, we 
were able to significantly contribute to the federal government's 
provision of services for Warm Springs. But that is not the case today, 
and we now find we must ask the federal government to more fully abide 
by its obligations to our Tribe. Accordingly, we hereby present our 
list of particulars to the U.S. Congress, and ask that you do all you 
can to honor them and uphold the unique and solemn obligations the 
United States has pledged to the Warm Springs Tribes.

(1) Add $2 million to BIA TPA Forestry designated for Warm Springs (BIA 
        Tribal Priority Allocations, Resources Management)
    The $2 million increase for Warm Springs is necessary for the BIA 
to fulfill, as a trustee, its legal duties and obligations to properly 
manage the Tribe's forest resources. BIA funding for management of our 
350,000 acre forest is $1,843,000, or $5.26 an acre. With cost of 
living adjustments, this is in keeping with the 1993 findings of the 
Congressionally authorized independent Indian Forest Management 
Assessment Team (IFMAT) that BIA funding per acre was $4.14 at that 
time, compared to $11.69 per acre for National Forests (roughly one-
third the annual funding for National Forests on a per acre basis). 
This gross inequity continues to hamper the proper management of our 
forest, and has reaped consequences accordingly: the Tribe has recently 
prevailed in a forest mismanagement suit against BIA. Yet the BIA has 
failed to provide any increased resources to correct its deficiencies 
at Warm Springs. To begin to rectify these inadequacies, we request 
that a $2 million increase be specified for Warm Springs Forestry the 
BIA's Tribal Priority Allocation budget, which we estimate will still 
only bring Warm Springs to approximately two-thirds of parity with 
National Forests.
    We note, and support, the $1.5 million national increase 
recommended by the Administration for Tribal Priority Allocation 
Forestry in its fiscal year 2004 request. The Administration 
recommended a like increase for 2003 that was the first outright 
increase in Forestry funding since it was slashed by nearly 20 percent 
in fiscal year 1996.

(2) Restore BIA ESA funding to $3.1 million, with $1.8 million for 
        Northwest tribal ESA compliance activities, including $300,000 
        for Warm Springs (BIA Non-Recurring Programs, Resources 
        Management)
    In fiscal year 1991, Northwest tribes, including Warm Springs, 
asked Congress to initiate northern spotted owl compliance funding. In 
fiscal year 1995, $1.7 million for NW tribes was combined with $1.3 
million for a Northern Cheyenne prairie project. In fiscal year 2003, 
BIA proposed to defund almost all the program, but Congress restored 
$2,697,000 of the $3,000,000. For fiscal year 2004, BIA now proposes 
$2,198,000, all of which will reportedly go to set-up Regional ESA 
offices for BIA--none will go to tribes for on-the-ground activities. 
We request that, for fiscal year 2004, the funding and purpose of the 
program be restored with $3.1 million, of which $1.8 million is for 
Northwest tribes, including $300,000 designated for Warm Springs.

(3) Provide $500,000 for a Warm Springs Water Settlement Implementation 
        Plan (BIA Non-Recurring Programs, Resources Management, Water 
        Management, Planning, and Pre-Development)
    In 1997, the Warm Springs Tribes reached a water settlement with 
the United States and the State of Oregon which left most of the water 
in the Metolius and Deschutes Rivers and does not now require the 
expensive water development legislation that normally accompanies 
tribal water settlements. However, $500,000 in BIA financial support is 
still needed to develop a Comprehensive Warm Springs Water Development 
Plan, to conduct water quality modeling for the Deschutes River Basin, 
and to examine potential energy development options. The Warm Springs 
federal water settlement took years to negotiate, and at the time of 
its completion was the first settlement achieved by Interior in four or 
five years. The settlement is now bringing greater water certainty to 
the Deschutes Basin, but the Tribe now needs Interior's assistance in 
planning how we may best put our water rights to use.

(4) Within BIA Law Enforcement, add $500,000 for Warm Springs (BIA 
        Special Programs and Pooled Overhead, Public Safety and 
        Justice)
    Law enforcement and public safety remain a very high priority at 
Warm Springs. In the past three years, Tribal leaders have worked to 
improve law enforcement capability on the Reservation by augmenting 
Tribally-funded police officers, corrections officers, investigators 
and fire medics with additional personnel and equipment supported in 
part by BIA law enforcement funds. For fiscal year 2004, we note that 
the President's request for BIA Law Enforcement Services (LES) includes 
a funding increase of $10,110,000 to $168,774,000. Most of the BIA's 
LES funding goes to support BIA staffed (direct operations) law 
enforcement activities on a limited number of reservations while other 
locations, including Warm Springs, have been left to largely fend for 
themselves. The Warm Springs Tribal Police Department is the only law 
enforcement agency responsible for our 1,000 square mile Reservation, 
as well as numerous off-Reservation trust parcels. With our own Tribal 
budget declining, and with the Department of Justice COPS program being 
discontinued at our Reservation, it is essential that BIA law 
enforcement share its steadily increased funding will all locations, 
including those such as Warm Springs where BIA has largely abandoned 
its public safety responsibilities. To restore a measure of balance and 
fairness to BIA law enforcement, we ask that $500,000 be added for Warm 
Springs. For fiscal year 2004, the Warm Springs Tribe will contribute 
$2,600,000 for public safety, and BIA will contribute an estimated 
$590,000. With the increase of $500,000, the fiscal year 2004 BIA total 
would still be less than one third of the public safety budget at Warm 
Springs.

(5) In IHS Hospitals and Clinics, add $1.75 million for the Warm 
        Springs Joint Venture Pilot Project (Indian Health Services 
        Hospitals and Health Clinics).
    In 1991, the Congress, Indian Health Service (IHS), and the Warm 
Springs Tribe entered into an innovative ``Joint Venture Pilot 
Project'' to improve health care facilities and services at Warm 
Springs. The Tribe financed and constructed a new clinic to federal 
standards and the Congress and IHS agreed to fully fund and staff the 
enhanced health care program in the new facility. However, the federal 
funding actually provided has been far short of the promise. Moreover, 
for the last several years inadequately funded federal mandates have 
further diminished health services at Warm Springs. We request a $1.75 
million increase in funding IHS Hospitals and Clinics to provide full 
direct services for the Warm Springs Joint Venture.

(6) Increase BIA and IHS contract support funding to 100 percent (BIA 
        Tribal Priority Allocations, Tribal Government, Contract 
        Support, Indian Health Services, Contract Support Costs)
    Since 1975, Tribal Self-Determination pursuant to Public Law 93-638 
has been the keystone of Federal Indian policy, in which tribes either 
contract or compact to take over the operation and management of 
programs otherwise run by the BIA and the IHS. In taking over these 
activities, tribes incur various unavoidable administrative costs over 
and above the federal program and program administration costs, 
including such things as audit and administrative costs for the 
contract itself (in contrast to the direct administrative costs for a 
particular program). Lest these unavoidable tribal contract support 
costs become a disincentive to the tribal assumption of BIA and IHS 
programs, Public Law 93-638 provides that tribes are to negotiate these 
costs with the respective Department's Inspector General. The contract 
support costs are expressed as a percentage of a tribe's amount under 
contract. Public Law 93-638 then authorizes payment of contract support 
costs to reimburse the tribe's contract support expenses.
    Unfortunately, BIA and IHS budgets have failed to completely 
reimburse tribes for these unavoidable expenses. In fiscal year 2003, 
for instance, BIA only reimbursed about 92 percent of tribal contract 
support costs, leaving tribes to shoulder the remaining 8 percent. 
Please bear in mind these are costs the tribe would not incur if it 
were not contracting a program. For fiscal year 2004, we project the 
BIA and IHS contract support amounts, once again, will only be enough 
to reimburse 92 percent or 93 percent of tribal contract support costs. 
Here at Warm Springs, where we have about $17 million under BIA and IHS 
Public Law 93-638 contracts, the unreimbursed amount we must shoulder 
is substantial, and with our tribal revenues declining, we are less 
able to contribute that amount toward the implementation of a federal 
policy. Accordingly, we request that BIA and IHS contract support be 
funded at 100 percent for fiscal year 2004, or about $145 million and 
$283 million respectively.

(7) On trust reform, Office of Special Trustee funding increases must 
        not come out of existing tribal programs, and BIA's 
        reorganization should be deferred until the Trust Officers idea 
        can be examined and clarified and the ``As Is/To Be'' study is 
        completed
    The BIA budget request includes a significant increase for trust 
management within the BIA and the Office of Special Trustee (OST). A 
$123 million increase for OST--to $275 million--is partially offset by 
a $63 million cut to the BIA Construction and an $8 million cut to 
Indian Water and Claims Settlements. Education Construction will lose 
$32 million--despite a terrible backlog of new school construction. 
Tribal leaders have repeatedly emphasized that funding needed to 
correct deficiencies in DOI trust management must not come from 
existing BIA programs or administrative monies. Instead, it is 
essential that DOI's trust reform funding increases be provided by 
Congress rather than depleting already insufficient BIA programs.
    We are also concerned by Interior's unilateral approach to trust 
reorganization and their request for significant increased funding for 
that reorganization with no clear provision for accountability. 
Increased funding for the OST is potentially an empty promise without 
clear accountability in place or plans to work with the impacted tribes 
and individuals. Organizational charts show the establishment of newly 
created Trust officers, likely placed at every BIA Agency and Regional 
Office, which may cause significant conflict with the authority held by 
the BIA Agency Superintendents. Before we create a mini-bureaucracy we 
would like a detailed examination of the financial and operative impact 
by both the Congress and impacted the Tribal governments. Moreover, 
before implementation, the authority and role of the proposed Trust 
Officers need to be much more clearly defined.
    Finally, trust reform should not be carried out until the 
corrective ``To Be'' portion of the ``As Is/To Be'' study of BIA is 
completed. A rush to trust reform before ``To Be'' completion will 
squander millions of dollars and significant tribal contributions, and 
only help perpetuate BIA's past mistakes in trust management.
    This concludes my testimony. Thank you.

                                 ______
                                 
   Prepared Statement of the Crownpoint Institute of Technology (CIT)

    This testimony CIT requests $1.5 Million for fiscal year 2004 and 
continuation of Contract Support language under U.S. Department of 
Interior, Bureau of Indian Affairs. Activity: Special Programs and 
Pooled Overhead. It is CIT understanding that tribal postsecondary 
vocational institutions under this program are being internally 
transferred in the Bureau of Indian Affairs to the Office of 
Postsecondary Education.
    On behalf of the Crownpoint Institute of Technology (CIT), I thank 
this Subcommittee for appropriating critically needed operational 
funds, the use of which is described below in quantitative detail. In 
addition, CIT expresses its deepest gratitude to the Subcommittee for 
its guidance to the Department on the issue of contract support. 
Funding for CIT is authorized under Public Law 84-959, ``Vocational 
Training for Adult Indians.''
    CIT is the only postsecondary vocational educational institution on 
the Navajo Nation reservation. For academic year 2002-03, CIT's 
enrollment is 517 Full Time Equivalency or Indian Student Count (FTE/
ISC).
    The population of the Navajo Nation is 225,298 (U.S. Census 2000). 
The Navajo Nation is one of the very few tribes with an extant native 
language. Nearly all Navajo citizens raised on the reservation not only 
speak the Navajo language but also use it in their daily lives. On 
trust land alone, 106,432 Navajo citizens are age 18 and over. The 
median Native American population age is 27.4 years, eight years 
younger than the median age for mainstream America. Approximately 
10,000 Navajo students graduate from area high schools each year. The 
average CIT student age is 26, with the actual age range being 18 to 
64.
    The Navajo reservation is an immense and remote 26,897 square miles 
extending into three States: Arizona, New Mexico and Utah. This 
reservation is 2,810 square miles larger than the State of West 
Virginia. The driving distance across the reservation is approximately 
nine hours. Although distant from major towns, Crownpoint is a major 
reservation activity center. CIT students come from throughout the 
reservation, as well as from the towns of Gallup, Cruet, Continental 
Divide, Fruitland, Kirtland, Mentmore, Rehoboth (all in New Mexico), 
Durango, Colorado, White Mesa, Utah and the Tohono O'odham and Hopi 
Reservations in Arizona. Approximately 30 percent of CIT students are 
from the Arizona side of the Reservation.
    It is important that appropriators understand the immense 
population difference that exists among Indian tribes. One typical 
comparison is the fifteen tribes in the States of Montana, North Dakota 
and South Dakota which have a combined population of 72,835 (U.S. 
Census 2000). The Navajo Nation population is more than three-fold this 
population. These fifteen tribes have sixteen tribal colleges, each on 
significantly smaller land bases. These distances are more commutable, 
and most do not require boarding facilities as CIT does. The Navajo 
Nation has only one other college, Dine', based in Tsaile, Arizona with 
eight small branch campuses throughout the reservation. Of the entire 
Navajo population, only 4.66 percent of high school graduates go on to 
achieve a bachelor's degree. Only 2 percent achieve Masters degrees, 
and less than one-half percent earn doctorates. CIT has proven to offer 
a realistic educational alternative that equips young adults with 
meaningful employment skills as well as placing graduates in career 
track employment.
    In order to achieve these goals, CIT has broader infrastructure 
responsibilities. CIT is campus-based with 153,468 square feet of 
facilities. The CIT campus includes state of the art classrooms and 
Veterinary Clinic, modular administrative buildings, library, 
dormitory, efficiency apartments, married student housing and 
cafeteria. CIT has no recreation facility. CIT students has a higher 
proportion with development educational needs, and longer distances 
travel to school daily. Despite many challenges, CIT earns 
achievements. In 2003, CIT received a Center for National Excellence 
award from the U.S. Department of Agriculture for the second time for 
sincere commitment to student outcomes, one of only eight such awards 
nationally. Also in 2003, the CIT Culinary Arts Program students won 
the Hilton Hotels-sponsored creative culinary art award.
    CIT continues to increase its student housing capacity with 
assistance from the Navajo Nation HUD. CIT does not use BIA funding for 
construction. In 2003, another sixteen married and family student units 
were completed under Navajo Nation HUD funding. Students with dependant 
families are among those most in need of acquiring employment skills. 
CIT opened a new 75 unit efficiency housing for 150 students, but at 
the same time had to temporarily close its 110 unit dormitory for 
safety-related repairs to be completed in a year. Each year, CIT has 
averaged a waiting list of approximately 200 otherwise qualified 
students due to residential hosing limitations. Rental housing is 
scarce in the town of Crownpoint. Daily commuting from most parts of 
the reservation is hindered by poor roads, harsh weather and vast 
distance, although some students do commute daily up to 70 miles each 
way. CIT has an eight-year average student retention rate of 95 
percent. Due to increased enrollments and funding shortages in 
Placement personnel, the average job placement has dropped from 86 
percent to 75 percent.
    CIT is fully-accredited by North Central Association of Colleges 
and Schools as a vocational educational institution. CIT offers two-
year Associate of Applied Science degrees in seven disciplines: 
Accounting, Administrative Assistant, Applied Computer Technology, 
Environmental Technology and Natural Resources, Law Advocate, Legal 
Assistant and Veterinary Technician. CIT offers sixteen vocational 
certificate programs: Accounting, Administrative Assistant, Applied 
Computer Technology, Automotive Technology, Building Maintenance, 
Carpentry, Culinary Arts, Electrical Trades, Environmental Technology 
and Natural Resources, Law Advocate, Legal Assistant, Nursing 
Assistant, Veterinary Assistant, Small Business Development (new), 
Commercial Drivers License and Computer Aided Drafting. In the upcoming 
year, CIT is ready to offer Alternative Energy to assist the many 
reservation areas that still do not have access to electricity and 
possibly never will.
    In May 2002, CIT graduated 208 students. This reflects an increase 
of 25 percent in the number of graduates over the previous year, which 
was 167 graduates. Approximately 80 percent of CIT completions not 
continuing their educations had secured employment placement by the 
time they graduated. Of this number, 86 percent secured full-time 
employment with the remaining 14 percent accepting seasonal jobs. 54 
percent secured employment on-reservation and 46 percent off-
reservation. In addition, the region's economy is comprised 
significantly of self-employed ranchers who by definition are not 
placed in employment. Several CIT Veterinary students are self-employed 
ranchers who improve their livelihoods through knowledge and skills 
learned in the CIT Veterinary Program. Students continuing their 
educations are considered positive terminations.
    Of the above graduating classes (375 students), the CIT Placement 
Office successfully tracked and job placed 82 percent (308). 92 CIT 
graduates (30 percent) continued their educations. Funding limitations 
inhibit the capability of the CIT Placement Office to track and place 
100 percent, but indicators over time are that some graduates who do 
not maintain contact with the Placement Office after graduation may do 
so because they have no need for job placement services. In other 
words, they find employment on their own. Of those graduates utilizing 
CIT placement services the following were placed in jobs or continued 
their education: Accounting 10 of 10 (100 percent): Administrative 
Assistant 30 of 43 (70 percent): Applied Computer technology 24 of 44 
(55 percent): Automotive Technology 19 of 20 (95 percent): Building 
Maintenance 15 of 18 (83 percent): Carpentry 17 of 20 (85 percent): 
Culinary Arts 9 of 12 (75 percent): Electrical Trades 20 of 22 (91 
percent): Environmental Technology and Natural Resources 17 of 23 (74 
percent): Legal Assistant 5 of 5 (100 percent): Law Advocate 5 of 8 (63 
percent): Nursing Assistant 34 of 52 (65 percent): Veterinary Assistant 
10 of 13 (77 percent): Commercial Drivers License 16 of 18 (89 
percent). Other variables affect employment success rates. For example, 
Nursing Assistants are in high demand. However, due to housing scarcity 
and transportation obstacles, several CIT Nursing Assistant graduates 
were unable to accept jobs offered.
    Of all CIT graduates, the average entry level wage is $17,160 per 
annum. CIT's Commercial Drivers License (CDL) program graduates earn 
the highest wage at $16 to $18 an hour, or $33,280 to $37,440 annually 
if employment remains stable. The next highest paid entry-level wages 
average by vocational program are: Veterinary Technician/Assistant 
$23,920: Legal Advocate/Assistant $21,320: Electrical Trades $20,280: 
Automotive and Environmental Technology, both at $19,760. Even the 
modest entry-level wages can be deceiving as to the wage once 
established in that profession. For example, an electrical apprentice 
will start at $9/$11 hourly. This wage will more than double to $22/$28 
hourly in 3\1/2\ to 4 years.
    For Associate degree students continuing their educations, CIT has 
articulation agreements with University of New Mexico Albuquerque and 
Gallup, New Mexico State, Ft. Lewis College, University of Arizona and 
Northern Arizona University. The University of Pennsylvania and Iowa 
State University interns participate in CIT's Elk Management Program. 
In addition, CIT partners this program with the Tohono O'odham Tribe of 
Arizona where livestock is critical to subsistence. In the Tohono 
O'odham partnership, CIT addresses the very real problem of migratory 
livestock disease transmission from across the Mexico border. 
Partnering with Iowa State and Colorado State Universities, CIT offers 
an elk and cattle artificial insemination program for the region's 
ranchers. In response to overgrazing, the Elk Management Program has 
proven to be a viable alternative livestock offering a three-fold 
return over traditional livestock.
    In an average lifetime of employment, CIT graduates will return to 
the Federal Government the cost of its investment many times over. Each 
employed graduate pays an average of $2,576 of their earnings to 
federal taxes in the first year of employment alone. Actual taxes paid 
differ according to a number of variables, but wage earnings and 
resultant tax contributions will generally continue over at least 
thirty years. 62 percent of tracked graduates are employed in private 
industry and do not rely directly or indirectly on federal 
appropriations for jobs.
    As is prevalent throughout the economically disadvantaged in Native 
America, many high school graduates are not equipped with skills 
necessary to enter postsecondary education. To rectify this deficiency 
among some CIT applicants, CIT will hold its first summer session of 
Developmental Studies in 2003 for 150 entering students.
    CIT continually strives to strengthen its programs. In 2003 CIT 
will enhance articulation agreements with San Juan and Dine Colleges 
through standardization of course offerings, particularly in the math 
and sciences. Through such measures CIT can more effectively ascertain 
student achievement and modify course offerings as necessary. CIT will 
require additional resources to retain adjunct faculty in order to 
achieve this goal.
    On behalf of all the CIT students whose quality of life has been 
immensely improved by Interior appropriations, I thank this 
Subcommittee for all of its assistance. CIT still faces the challenges 
described above, and will deeply appreciate and maximally benefit from 
the modest increase requested from this Subcommittee.

                                 ______
                                 
 Prepared Statement of the Eastern Shoshone and Northern Arapaho Tribes

    The Wind River Reservation in central Wyoming is home to the 
Eastern Shoshone Tribe and the Northern Band of the Arapaho, as well as 
approximately 25,000 non-Indians. The majority of these residents are 
cattle ranchers, working small ranches to support a modest lifestyle. 
The Eastern Shoshone and Northern Arapaho respectfully request $3.35 
million for the fiscal year 2004, fiscal year 2005, and fiscal year 
2006 appropriations cycles to begin the repair and rehabilitation of 
the Wind River Irrigation Project, which provides vital water to these 
ranchers.

                       NEED FOR AN APPROPRIATION

    Irrigation on the Wind River Indian Reservation dates back to the 
early 1860's, prior to the Reservation's establishment in 1868. In 
1905, Congress enacted legislation providing, in part, for the 
construction of an irrigation system to serve Indian lands on the Wind 
River Reservation. This system, the Wind River Irrigation Project, was 
never completed, and unfortunately, is in exceptionally poor condition.
    During the 1960's, a report completed on the status of the project 
indicated that 74 percent of the 3,820 structures along the 420 miles 
of the canal were in dire need of repair. Regardless, restorative 
efforts were not taken and instead, these structures have continued to 
deteriorate.
    Currently the project encompasses 77,000 acres, of which only 
40,000 acres are irrigable. Three major structures are in imminent 
danger of failure, with only enough emergency funds on hand to repair 
one such failure. Canals and diversion structures are of inadequate 
size, canals and laterals have eroded, and extensive seepage is evident 
along delivery canals and laterals. (Full reports of the deficiencies 
are available for congressional review.)
    Various evaluations by the Bureau of Indian Affairs (BIA), the 
Tribes, and other entities, have shown that the system is in critical 
condition and in need of immediate attention to maintain the current 
economic conditions of the Wind River Reservation. The Project Engineer 
estimates that major head gate structures will begin failing soon, 
rendering much of the project unserviceable. One engineering firm 
suggests that, without action, the Wind River Irrigation Project has a 
maximum life of seven (7) years. Because 25 percent of the irrigable 
acreage is idle and lacks an adequate water delivery system, these 
Indian and non-Indian landowners are denied the ability to make their 
lands productive.
    Further exacerbating the situation, Wyoming is in the midst of its 
worst drought in more than a century. Failure of the Irrigation Project 
will devastate these Indian and non-Indian ranchers, and a local 
economy where agriculture income is key.

                            ISSUE OF EQUITY

    The Wind River Reservation is also home to similar projects, such 
as the Midvale Irrigation Project. Aimed at providing water to non-
Indians residing on the reservation, the Midvale Project has received 
federal assistance of approximately $1,000/acre for water delivery 
enhancements and improvements. By comparison, the Wind River Irrigation 
project has received approximately $100/acre.
    It is inequitable for the United States to have funded the non-
Indian federal project on the reservation at a level of 90 percent more 
than the Indian project. The Tribes are simply asking to be provided 
equitable treatment with other irrigators. The inequities of the past 
have contributed to 53 percent of our population living below the 
poverty level, a 49 percent unemployment rate, and the inability to put 
our land to productive use.

                         USE OF APPROPRIATIONS

    The requested appropriations will be used to begin the 
rehabilitation process. Specifically, steps will be taken to replace or 
repair, and correctly size, approximately 11 major headgates; install 2 
sand traps; reconfigure, repair, and install pipe on 9.5 miles of 
lateral; install or repair 14 check and headgate structures; and repair 
and clean 5 laterals. This work is the initial part of the overall 
rehabilitation of the project.
    In summary the irrigation project is in dire need of federal 
funding to stabilize and reverse the continuing deterioration of the 
system. The Eastern Shoshone and the Northern Arapaho Tribes are 
seeking Congressional appropriations to begin the repair and 
rehabilitation of the Wind River Irrigation Project. We respectfully 
request that the Senate Appropriations Subcommittee on Interior and 
related agencies support the Tribe's request of $3.35 million for each 
of the fiscal years 2004, 2005, and 2006.
    Thank you for the opportunity to present testimony to the Committee 
on this urgent matter.

                                 ______
                                 
  Prepared Statement of the Fond du Lac Band of Lake Superior Chippewa

    I, Robert B. Peacock, Chairman of the Fond du Lac Band of Lake 
Superior Chippewa would like to thank you for this opportunity to 
present written testimony on fiscal year 2004 appropriations for the 
Department of Interior. The Fond du Lac Reservation was established by 
Treaty with the United States on September 30, 1854 and encompasses 
100,000 acres of land in northeastern Minnesota. There is a population 
of 6,500 Indian people that live within the service area of the 
Reservation with the Band providing employment or services to most of 
them. On behalf of the Fond du Lac Band, I am asking that you increase 
the bands funding from the Bureau of Indian Affairs by $9 million for 
fiscal year 2004 to develop the infrastructure necessary to continue to 
serve and protect the resources of the band. I also request that 
$915,000 be provided for the Circle of Flight program under the BIA's 
Other Recurring Programs--Resource Management line item. The Dept. of 
Interior's Tribal Wildlife Grant Program was funded at $5 million, and 
I request that this Grant Program be funded at this level for fiscal 
year 2004.
    We strongly support the Administration's request of additional 
funding under the Indian Country Law Enforcement Initiative. In 1997 
the Minnesota Supreme Court held that certain traffic regulations 
including, speeding, driving without a license, and driving with no 
insurance were ``civil-regulatory'' in nature and under Public Law 280 
are unenforceable by state police officers on the Reservation. The 
ruling known as the Stone decision, left a jurisdictional void with 
regard to law enforcement on the roads within Indian Reservations in 
the State. In order to fill this void, the Band has undertaken the 
establishment of it's own Tribal police force through the Community 
Oriented Policing Services, Bureau of Indian Affairs and Tribal funds. 
In addition, the Band has worked with all local law enforcement 
agencies to establish a cross deputization agreement that ensures 
maximum law enforcement protection for the Reservation and it's 
citizens by allowing all law enforcement agencies within the 
Reservation boundaries to enforce each other's laws. However, because 
of the short-term, limited financial resources available, there are 
significant unmet needs in this area. At Fond du Lac, we need long term 
funding to pay for staff and equipment to adequately ensure the safety 
of the Reservation population. In light of the Stone decision, we ask 
this committee to support the Administration's request for investment 
in strengthening Indian Country's Law Enforcement and Criminal Justice 
System and ask that this committee consider placing these initiatives 
into the BIA's permanent base budget. The Band currently employs seven 
police officers, six conservation officers, one records clerk, one 
prosecuting attorney, one clerk of court, one part time court recorder, 
and one part time judge. All of these staff positions are located 
within the Resource Management division. Along with this staff, are 
thirty other permanent full time staff and fifteen full time seasonal 
staff housed in a building that was designed to house twenty. With the 
increased responsibility assumed by the Band there is an ever 
increasing need to expand the staff and it's capabilities. With this in 
mind, we request a one time allocation of $6 million to the Band for 
expansion of the office space for the Resource Management Division. We 
are also requesting that $1.5 million be added to our base budget to 
continue to implement and staff the court and enforcement systems for 
the Band.
    Under Treaties with the United States made in 1837 and 1854 the 
Fond du Lac Band reserved the right to hunt, fish and gather on the 
lands ceded, a large portion of central and northeastern Minnesota, to 
the United States. The Band's rights under these treaties have been 
recognized and upheld by the federal courts--most recently the United 
States Supreme Court. On March 24, 1999 the Supreme Court issued a 
decision expressly re-affirming the Band's hunting and fishing rights 
in the 1837 Ceded Territory. Under established Band conservation law, 
the exercise of these off-reservation treaty rights require that the 
Band take the steps necessary to ensure proper use and management of 
the natural resources. This means the Band is responsible for member's 
hunting, fishing and gathering activities over approximately 8,000,000 
acres of land. The Band has adopted, along with the federal courts, a 
code and a resource management plan that protects the exercise of 
treaty reserved rights and the resources. It is very essential that the 
Band continues to manage it's on-reservation resources in order to meet 
the demands of an increasing population. Established by the Treaty of 
1854 with the United States, the home of the Band is 100,000 acres in 
northeastern Minnesota. The waters, wildlife, wild rice and the forest 
resources of the reservation are vitally important to it's members as 
these resources provide the foundation for our culture, subsistence, 
employment and recreation. The Fond du Lac Reservation includes some 
3,200 acres of lakes, 1,900 acres of wild rice lakes and associated 
wetlands, 66 miles of cool water streams, and 17,500 acres of forest 
with the remaining acres being used by individual land owner for 
housing and development. The increasing resident population and 
development are placing all resources under great stress. The loss of 
wild rice acres, wildlife habitat, and the decline of our forest are of 
great concern to the Band. Therefore, we are seeking an additional $1.5 
million be added to the Band's base budget for the Fond du Lac Resource 
Management Division, for it's natural resource programs, that will 
enable us to protect these resources for the future generations on Fond 
du Lac.
    In the $1.5 million request, we seek an additional $100,000 
increase to the base budget of the Fond du Lac Natural Resources 
Program. The Fond du Lac Natural Resources program carries out the 
essential fisheries, wildlife and wild rice programs on the Fond du Lac 
Reservation. This Program is restoring over 1,000 acres of wild rice on 
our Reservation's wild rice lakes, and is also conducting a long term 
project to restore the lake sturgeon to the upper St. Louis River. The 
funds for this program have not been increased since 1991 and the cost 
of conducting these resource management programs has increased 
substantially.
    Another important resource management need is to obtain funds to 
address the threat of Chronic Wasting Disease (CWD), which has recently 
infected white tailed deer in our region. CWD poses a very serious 
threat to the health of the white tailed deer herds and potentially to 
the moose population in northern Minnesota. Where it has been found, 
the only known treatment is eradication of captive herds and great 
reduction in the wild deer herds. The impacts of CWD on human health 
are currently unknown, but warrant further investigation. The potential 
harm to the deer population in this region has serious implications for 
Native Americans, because for a majority of Fond du Lac Band Members, 
deer comprise 25-30 percent of their diet. Therefore, we urgently 
request $75,000 in base program funds for our Conservation Enforcement 
Program. The long term funding of this project is necessary for our 
Conservation Enforcement and Wildlife staff to collect the samples from 
hunters for analysis, in order to identify the frequency and range of 
infected deer in Northeastern Minnesota. This is the area in which our 
Band Members frequently hunt for deer and moose. If infected animals 
are found, a program of deer harvesting to thin the local herd is 
essential in order to prevent or limit the expansion of this disease.
    We ask that the House Appropriations Committee support the Fond du 
Lac Band in behalf of the Fond du Lac Ojibwe Schools to support all 
Bureau of Indian Affairs requests for education programs.
    The Circle of Flight.--Tribal Wetland & Waterfowl Enhancement 
Initiative program, under the BIA's Other Recurring Programs category, 
was again eliminated in President Bush's fiscal year 2004 budget 
request. The Circle of Flight program has been one of Interior's top 
trust resource protection programs for 10 years. Since fiscal year 
1991, Great Lakes tribes and other partners have restored or enhanced 
more than 66,000 wetland, wild rice, grassland and native prairie 
acres, and installed thousands of waterfowl nest structures. Wild rice 
lakes provide high quality forage for migratory waterfowl as well as 
waterfowl nesting habitat. The Circle of Flight program enabled the 
Great Lakes tribes to become key partners with federal, state, and 
local government units, as well as private organizations such as Ducks 
Unlimited, the Nature Conservancy. The Circle of Flight program has 
invested more than $6 million in habitat projects, and has leveraged 
these dollars for an additional $18 million in federal, state, private, 
and tribal funding, yielding and impressive match ratio of 3 to 1. The 
elimination of the Circle of Flight program would cripple the Great 
Lakes tribe's ability to continue these successful partnerships, which 
have benefited a diverse array of wildlife species and their associated 
habitats. I ask that you restore the Circle of Flight program to the 
BIA's fiscal year 2004 budget to at least the fiscal year 2003 level of 
$594,000, and to consider providing the fiscal year 2004 requested 
amount of $915,000.
    I thank the Committee for the new $5 million Tribal Wildlife Grants 
program in the Interior Conservation Spending category in fiscal year 
2002 and 2003. Even though this amount represents only .28 percent of 
this Title, whereas tribes are directly responsible for protecting at 
least 2.35 percent of the land area of the United States, it represents 
a good start at helping to address the massive unmet need tribes have 
in meeting their conservation responsibilities. I ask that you consider 
increasing the Tribal Wildlife Grant program to $10 million in fiscal 
year 2004.
    In conclusion, the needs at Fond du Lac and throughout Indian 
Country remain massive. Your support to preserve the current BIA 
funding request is critical to maintain current program levels. Your 
consideration for our additional funding requests will enable us to 
improve the delivery of services to Band members and help ensure that 
we enter the 21st Century with a renewed sense of hope.
    Miigwech. Thank you.
                                 ______
                                 
 Letter From the Fremont County, WY Legislative Delegation and Members 
              of the Select Committee on Tribal Relations
                                                    April 11, 2003.

Re Support for Funding to Rehabilitate the Wind River Irrigation 
        Project.

Hon. Conrad Burns,
Chairman, Interior Appropriations Subcommittee, U.S. Senate, 
        Washington, DC.
    Dear Senator Burns: We, the Fremont County, Wyoming legislative 
delegation and members of the Select Committee on Tribal Relations, are 
writing this letter to express our support for the Eastern Shoshone 
Tribe and the Northern Arapaho Tribe's fiscal year 2004 appropriations 
request to begin rehabilitation of the Wind River Irrigation Project. 
The Tribes are in significant need of water development funding.
    The Bureau of Indian Affairs-administered Wind River Irrigation 
Project is in a condition of severe disrepair, with over $50 million in 
deferred maintenance. The recent drought has highlighted the 
inefficiency of water delivery on the Wind River Irrigation Project. In 
addition, many of the essential delivery structures arc in danger of 
failing. If rehabilitation does not occur soon, the system will become 
inoperable.
    During Wyoming's last legislative session we worked closely with 
the Eastern Shoshone and Northern Arapaho Tribes to develop and pass 
legislation which will enable the Tribes to act as sponsors of water 
development projects through the Wyoming Water Development Program. Due 
to the poor condition of water delivery infrastructure on the WRIR, a 
combination of federal and state funds will likely be needed to meet 
all the water development needs of the Tribes. A federal appropriation 
for irrigation rehabilitation on the WRIR for fiscal year 2004 will 
encourage favorable consideration by the Wyoming legislature for the 
Tribal request for Wyoming Water Development funding during the next 
legislative session.
    If we can be of further assistance, please contact us at our 
respective addresses and phone numbers. We respectfully ask that you 
support this much needed appropriation.
            Sincerely,

                                         Senator Cale Case,
                                                        Lander, WY.
                                          Senator Bob Peck,
                                                      Riverton, WY.
                               Representative Harry Tipton,
                                                        Lander, WY.
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                               Commission

    BIA Treaty Rights Protection/Implementation: $3,966,000 (enacted 
fiscal year 2003).--Operation of Indian Programs, Other Recurring 
Programs, Resources Management, Rights Protection/Implementation, Great 
Lakes Area Resource Management.
    GLIFWC seeks to maintain the base budget that Congress has provided 
for the past two years. The ``Green Book'' is not yet available for 
fiscal year 2004, but GLIFWC presumes that, as with previous budget 
proposals, the Administration will propose funding at $300,000 below 
the enacted fiscal year 2003 amount. Since GLIFWC's inception in 1984, 
Congress consistently has recognized the need to maintain GLIFWC's core 
natural resource conservation and law enforcement programs. For 
example, Congress provided funds in fiscal year 2002 to restore GLIFWC 
program cuts caused by chronic underfunding. And, in fiscal year 2003, 
Congress restored the Administration's proposed cut of nearly $300,000 
from GLIFWC's enacted fiscal year 2002 funding.
    The requested fiscal year 2004 funds would allow GLIFWC to maintain 
its programs that fulfill important federal obligations to its 11 
member Ojibwe Tribes and that provide a wide range of associated public 
benefits. With full base funding, GLIFWC's will be able to meet its 
duties under a number of federal court decisions. And, it can remain a 
viable conservation and public safety partner in Wisconsin, Michigan 
and Minnesota at a time when many surrounding agencies have been hit 
hard by the call to active military duty.
    BIA Contract Support Costs.--GLIFWC also seeks full funding of its 
contract support costs, as it has experienced a $250,000 shortfall 
since 1995. This shortfall cuts into program funding, and the lack of 
funding certainty throughout the year further compounds its effect. 
GLIFWC's indirect cost rate has always been below 15.25 percent, and 
was 14.2 percent in fiscal year 2002. Such a low rate is difficult to 
maintain when actual funding is not known until the end of the fiscal 
year.
    BIA ``Circle of Flight'' Program.--GLIFWC supports funding to 
Operation of Indian Programs, Other Recurring Programs, Resources 
Management, Tribal Management Development Programs, Wetlands/Waterfowl 
Management. In fiscal year 2003, the Administration proposed to 
eliminate this long-standing tribal contribution to the North American 
Waterfowl Management Plan. Congress disagreed, and restored the 
necessary funding. Over the past 11 years, the roughly $7 million 
provided to Tribes, including to GLIFWC and its member Tribes, has 
leveraged over $18 million--a 2.5 to 1 ratio--in matching federal, 
state, private, and other tribal funding for cooperative wetland 
enhancement projects.
    Ceded Territory Treaty Rights and GLIFWC'S Role.--GLIFWC was 
established in 1984 as a ``tribal organization'' within the meaning of 
the Indian Self-Determination Act (Public Law 93-638) to assist its 
member Tribes in:
  --securing and implementing treaty guaranteed rights to hunt, fish, 
        and gather in Chippewa treaty ceded territories; and
  --cooperatively managing and protecting ceded territory natural 
        resources and their habitats.
    It exercises authority delegated by its member Tribes to implement 
federal court orders and various interjurisdictional agreements related 
to their treaty rights. It serves as a cost efficient agency to 
conserve natural resources, to effectively regulate harvests of natural 
resources shared among treaty signatory Tribes, and to develop 
cooperative partnerships with other government agencies, educational 
institutions, and non-governmental organizations.
    Congress has funded GLIFWC for the past 17 years to meet specific 
federal obligations under: (a) a number of U.S./Chippewa treaties; (b) 
the federal trust responsibility; (c) the Indian Self-Determination 
Act; and (d) various court decisions, including a 1999 U.S. Supreme 
Court case, affirming the treaty rights of GLIFWC's member Tribes.
    Under the direction of its member Tribes, GLIFWC operates a ceded 
territory hunting, fishing, and gathering rights protection/
implementation program through its staff of biologists, technicians, 
conservation enforcement officers, and public information specialists. 
Its activities include: natural resource population assessments and 
studies; harvest monitoring and reporting; enforcement of tribal 
conservation codes into tribal courts; funding for tribal courts and 
tribal registration/permit stations; development of natural resource 
management plans and tribal regulations; negotiation and implementation 
of agreements with state, federal and local agencies; invasive species 
eradication and control projects; biological and scientific research; 
and development and dissemination of public information materials.
    Why GLIFWC'S Funding Base Needs to be Maintained.--A $300,000 cut 
in GLIFWC's base funding will threaten a number of its core programs. 
This is best illustrated by how the restored funding in fiscal year 
2003 was used: to reinstitute fall juvenile walleye recruitment surveys 
at previous levels; to restore tribal court and registration station 
funding cuts; to restore Lake Superior lamprey control and whitefish 
assessment programs; to restore GLIFWC's share in cooperative wildlife 
and wild rice enhancement projects; to replace ageing equipment; to 
meet expanding harvest monitoring needs; and to meet uncontrollable 
increases in employee benefit costs (particularly health and other 
insurance).
    In addition, a continued base funding level will ensure GLIFWC's 
participation in regional emergency services networks at a time when 
many personnel of surrounding agencies have been called to active 
military duty. GLIFWC's officers are integral partners with surrounding 
emergency responders. They not only enforce the Tribes' conservation 
codes, but also work cooperatively with surrounding authorities in 
detecting violations of state or federal criminal and conservation 
laws. Moreover, they are certified medical emergency first responders, 
including in CPR and in the use of defibrillators, and are trained in 
search and rescue.
    GLIFWC has worked hard to streamline its programs and institute 
other cost-saving options. Specifically, it has: (i) cut staff; (ii) 
teamed up with its partners to maximize the cost efficiency of 
cooperative projects; (iii) obtained separate contract support funding 
from the BIA; and (iv) diversified its funding from non-BIA sources to 
build upon its Self-Determination Act funding and to undertake special 
projects.
    How the Restored Base Funding Would be Used.--The $300,000 would be 
used the same in fiscal year 2004 as it was in fiscal year 2003--(1) 
Restore Cut or Reduced Programs ($160,000) \1\; (2) Replace Ageing 
Vehicles and Field Equipment ($100,000) \2\; and (3) Meet Increased 
Personnel and Fringe Costs ($40,000).
---------------------------------------------------------------------------
    \1\ $100,000 to restore fall juvenile walleye recruitment surveys 
to previous levels; $30,000 to restore tribal court and registration 
station funding cuts; $10,500 to restore Lake Superior lamprey control 
and whitefish assessment programs; $15,000 to meet harvest monitoring 
obligations; and $4,500 to restore GLIFWC's share in cooperative 
wildlife and wild rice enhancement projects with state and federal 
agencies, as well as with non-profit conservation organizations and 
other partners.
    \2\ With fiscal year 2003 funds, GLIFWC replenished a $100,000 
vehicle/equipment replacement capital fund and replaced a number of its 
oldest vehicles and equipment that had become obsolete or economically 
inefficient to operate and maintain. This fund would be replenished 
again with fiscal year 2004 funds to cover some of the over $200,000 in 
other vehicle/equipment replacement needs.
---------------------------------------------------------------------------
    Public Benefits From GLIFWC's Funding.--With the requested funds, 
GLIFWC will:
    1. Remain a constructive, stabilizing natural resource management 
and public safety institution.--GLIFWC provides continuity and 
stability in interagency relationships and among its member Tribes, and 
contributes to social stability in the ceded territory in the context 
of treaty rights issues. It is a recognized and valued partner in 
natural resource management, in emergency services networks, and in 
providing accurate information to the public.
    2. Retain an Experienced Professional Staff.--In many instances, 
GLIFWC staff experience matches or exceeds that of their counterparts 
in other agencies when it comes to treaty rights issues and to ceded 
territory natural resource management and enforcement.
    3. Maintain cooperative, cost-effective partnerships.--GLIFWC has 
built partnerships with:
  --Federal, state, and local government agencies (e.g. State DNR's, 
        USFWS, USDA-FS, USDA-NRCS, Great Lakes Fishery Commission, US 
        Coast Guard, EPA, ATSDR, HHS-ANA, and Canadian federal and 
        provincial governments);
  --Schools and Universities (e.g. University of Wisconsin-Madison, 
        University of Wisconsin-Superior, Northland College, University 
        of Minnesota, and Lac Courte Oreilles Ojibwe Community 
        College); and
  --Conservation groups (e.g. Ducks Unlimited, the Sharp-Tail Grouse 
        Society, the Natural Resources Foundation, the Nature 
        Conservancy, and local lake associations).
    Through these partnerships, the parties have achieved public 
benefits that no one partner could have achieved alone by:
  --Identifying mutual natural resource concerns, and implementing 
        joint conservation and enhancement projects (e.g. wild rice 
        restoration, waterfowl habitat restoration and improvement 
        projects, and exotic species control projects);
  --Providing accurate information on state and tribal harvests and on 
        the status of natural resource populations (e.g. joint fishery 
        assessment activities and jointly prepared reports);
  --Maximizing financial resources to avoid duplication of effort and 
        costs (e.g. coordinating annual fishery assessment schedules 
        and sharing personnel/equipment);
  --Contributing scientific research and data regarding natural 
        resources and public health (e.g. furbearer/predator research, 
        fish consumption/human health studies, and other fish 
        contaminant research particularly regarding mercury); and
  --Engendering cooperation rather than competition (e.g. cooperative 
        law enforcement and emergency response, joint training 
        sessions, mutual aid emergency services arrangements, and 
        cross-credential agreements).
                                 ______
                                 
          Prepared Statement of the Hoopa Tribe of California

    The Hoopa Tribe respectfully submits this written testimony 
regarding the fiscal year 2004 budget for the Bureau of Indian Affairs. 
A summary of my requests are as follows:
  --Request support for the California Trust Reform Pilot Project
  --$319,000 for Forest Development Add-On.
  --$546,000 for Timber Sale Preparation and Administration.
  --$228,000 for Forest Program Management.
  --$194,000 for Forest Inventories and Plans.
  --$435,000 for Road Maintenance and Improvements.

                          NARRATIVE OF REQUEST

    California Trust Reform Pilot Project.--In 1997, the Hoopa, Karuk, 
Redding Rancheria, Yurok, Big Lagoon, Cabazon Tribes formed the 
California Trust Reform Consortium. The Guidiville Indian Rancheria 
joined in 2002. The purpose of the Consortium is to work with the 
Bureau of Indian Affairs Pacific Regional Office (PRO) to improve 
management of trust activities being performed by the Federal 
Government and member Tribes. A part of the Consortium's efforts has 
been to work with the PRO to identify problem areas related to 
management and protection of trust assets, identify and resolve funding 
and staffing shortages and address policy and regulatory conflicts that 
arise during tribal and BIA management of trust resources. The ongoing 
working relationship between the member tribes and the PRO has provided 
a meaningful way for the tribes and the PRO to identify trust issues as 
they arise and effectively resolve them before a legal or breach of 
trust issue can develop between the parties.
    The California Trust Reform Pilot Project has been tremendously 
successful for both the BIA and Tribes. Further, the ongoing working 
relationship has created new opportunities to begin working on trust 
issues that were never before been addressed and has facilitated a 
positive environment to emerge to support economic development and 
enhance tribal management and infrastructure. Therefore, the California 
Trust Reform Consortium requests that the Subcommittee provide language 
in the Appropriations Report that continues the support for this 
important and successful effort.
    Forest Development--$319,000.--The current Forest Development 
budget for Hoopa is used for the salary of one person whose sole 
responsibility is to lay out pre-commercial thinning projects for the 
Hoopa Reservation. In addition, Tribal funds are used to pay for one-
half of the salary of the certified silviculturist who oversees 
projects as they are carried out by local Indian contractors. To date, 
the Tribe has implemented over 5,000 acres of thin and release projects 
on the Reservation, which has generated more than 100 man years of work 
during the past ten years. Pre-commercial thin and release projects are 
designed to remove competition from non-commercial vegetation of forest 
lands and to remove brush that has historically contributed to wildland 
fires. This funding increase will allow the Tribe to carry out this 
important trust responsibility activity at a level to keep up with non-
commercial vegetation growth by increasing the ``on- the -ground'' work 
that is needed for proper for management of Indian trust assets. These 
funds would allow the Tribe to thin and release an additional 1,000 
acres of newer second growth timber stands that have not thinned since 
1970 due to the lack of funding. In addition, this funding would allow 
the Tribe to hire another one full time employee that is critically 
needed to carry out these efforts.
    Timber Sale Layout and Administration--$546,000.--This program is 
responsible for overseeing the preparation, layout, documentation in 
FOR's and contracts, and for administering of timber sale contracts 
used to harvest approximately $8 million of annual tribal timber sales. 
The program provides timber sale layout, administration, scaling, and 
small sales for Indian allotments. The Tribe currently funds nearly all 
of the layout and small sales work with tribal funds, including timber 
sales for individual Indian allottees. These funds would allow the 
Tribe to hire a timber management officer, two sale administrators and 
two scaling technician, which compose the minimal trust oversight 
obligations for these responsibilities. In addition, the funding 
requested would allow the Tribe to establish the necessary staffing and 
resources needed to carry out timber sales activities in accordance 
with federal timber statutes and regulations.
    Forest Program Management--$228,000.--This program pays for the 
central administrative staff that is necessary to oversee all Tribal 
and individual Indian timber sales, management of timber trust assets 
and provide technical assistance where needed relating to forest and 
timber land activities to the Tribe and Indian allottees. The funding 
request would not only support the administrative functions of the 
Hoopa Forestry Department but would also provide funds for a personnel 
clerk for the 70 Forestry Department staff and for a grants and 
contracts personnel, neither of which are not presently funded by the 
BIA. These funds would also allow the Forestry Administration to 
properly manage contracts for Forest development projects and conduct 
proper oversight functions for timber sale site pre-preparation, 
prescribed burning activities, reforestation and grubbing, as well as 
other activities, such as NEPA, botany surveys and Endangered Species 
oversight.
    Forest Management Planning and Inventories--$194,000.--Forest 
Management Planning and Inventories is responsible for all initial 
project planning including the development and approval of 
Environmental Assessments (EA) for all projects. Approximately three to 
five EA's are produced annually, including timber sale project EA's and 
road development. Presently, this important component of the Tribal 
Forestry Department is not funded by the BIA.
    Roads Maintenance and Improvements--$435,000.--There are 450 miles 
of system roads on the Hoopa Reservation, of which only 130 miles are 
on the BIA road maintenance schedule. There are an additional 100 miles 
of roads that are in very poor condition that continuously contribute 
to fishery stream sedimentation due to winter landslides and blown out 
culverts, as well as create wildland fire hazards due to brush 
overgrowth and allow trespass and illegal wood cutting by outsiders. 
The present funding level of the BIA Road maintenance Program for only 
the 130 miles of roads that are on the BIA maintenance schedule for the 
Reservation is $132,000, which is 11.59 percent of need. In 1992, the 
Tribe hired an engineering firm to assess the road conditions and 
establish an adequate maintenance budget and schedule. The firm's 
analysis determined that an annual additional operating budget of 
$435,000 would be required to properly manage Reservation roads.

                               CONCLUSION

    The California Trust Reform Pilot Project has been a proven success 
in improving the management of trust assets and improving the working 
relationship between the member tribes and the BIA. We request the 
Subcommittee's support for continuing this Pilot Project. With respect 
to Forest Management and Road Maintenance, the BIA's budget is 
significantly short of demonstrated need. The Tribe will have an 
extremely difficult time continuing to carry out these federal trust 
responsibility activities without the funding requested.
    Should you have any questions, please do not hesitate to contact me 
at (530) 625-4211 ext. 102 or via email at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d9b5a0b5bc86b4b8abaab1b8b5b599b1b6adb4b8b0b5f7bab6b4f7">[email&#160;protected]</a>
                                 ______
                                 
    Prepared Statement of the International Association of Fish and 
                           Wildlife Agencies

                     BUREAU OF INDIAN AFFAIRS (BIA)

    The management of multi-jurisdictional fish, wildlife and outdoor 
recreation resources on Indian reservations and in treaty-ceded areas 
is a complex process requiring the implementation of comprehensive 
programs comparable to those conducted by State and Federal fish and 
wildlife agencies. The shared status of many fish and wildlife 
resources and the roles and responsibilities of many Tribal governments 
as resource co-managers require close coordination with State, Federal 
and other resource management authorities. Effective Tribal 
participation promotes and facilitates fish and wildlife conservation 
for the benefit of Tribal and non-Tribal communities alike. For these 
reasons, the Association continues to be concerned by the woefully 
inadequate Wildlife and Parks budget of the Bureau of Indian Affairs. 
The base request for fiscal year 2004 of $24.2 million is virtually 
identical to the fiscal year 2003 request and is more than a $7 million 
(23 percent) reduction from the fiscal year 2002 enacted budget for 
this program. This is an inappropriate and inadequate response to the 
needs on Tribal lands. The Association encourages Congress to restore 
these cuts and subsequently appropriate additional funds to begin to 
address long-standing resource needs on Tribal lands.
    The fiscal year 2004 budget request includes $434,000 for fish 
hatchery maintenance, an amount that mirrors the current year's budget, 
which barely recognizes the more than $25 million backlog in required 
hatchery maintenance. This amounts to approximately $3,600 per year for 
each of the 120 currently operating Tribal hatcheries and rearing 
facilities across the country, and falls far short of addressing even 
minor maintenance requirements. The Association strongly recommends a 
significantly increased funding level for fiscal year 2004 and out 
years with the objective of eliminating the fish hatchery maintenance 
backlog by fiscal year 2010.
    The Association has, in the past, strongly supported the agency's 
request for fish hatchery rehabilitation to rehabilitate Tribal fish 
hatcheries and replace capitalized equipment for the highest priority 
projects. Not since fiscal year 1995 has Congress appropriated money 
for such rehabilitation. The Association strongly recommends that 
Congress reestablish the fiscal year 1995 funding base of $1.5 million 
to replace failing systems and modernize Tribal fish hatcheries to 
enable them to optimize fish production. This funding would help 
satisfy vital Tribal fishery needs.
    The Association believes that Tribal lands are integral to the 
maintenance and recovery of threatened and endangered species. 
Presently, the majority of Tribes are unable to be parties to candidate 
species studies and conservation agreements due principally to lack of 
funding. The Association strongly recommends an increase of $900,000 to 
the fish hatchery operations line-item for the Tribes to participate in 
all phases of the endangered species recovery process. This would 
enable Tribes to begin to address listed species needs and recovery of 
species from which all Americans benefit.
    The Association is concerned about the funding being requested for 
endangered species activities within the non-recurring portion of the 
budget request. The $2.19 million being requested for this function is 
a considerable improvement over the President's 2003 budget request of 
$197,000, but still falls short of addressing nearly $70 million in 
identified needs for this program area. While important work related to 
monitoring spotted owls and marbled murrelets in the Pacific Northwest 
and the range management improvements related to black-tailed prairie 
dogs and black-footed ferrets in South Dakota will be allowed to 
continue, funding is below the level needed. The Association, 
therefore, recommends an increase of $.8 million to the fiscal year 
2004 Tribal endangered species budget category to fully fund the 
aforementioned projects and significantly increased funding in the out 
years with the objective of addressing the backlog of needed endangered 
species conservation efforts by fiscal year 2010.
    The fiscal year 2002 budget ceased listing the funds for Alaska 
Subsistence as a separate line-item and placed the funding for this 
purpose in the Tribal Management/Development Program, and that practice 
continues in the fiscal year 2004 budget. Given that provisions for 
subsistence in Alaska are not specific to Tribes, the Association 
recommends that this program be identified as a separate line-item in 
the same fashion as other Interior agencies.
    The Association opposes the elimination of $2.85 million from the 
base budget of Wildlife and Parks. The six programs being eliminated in 
Tribal Management/Development programs are:
    1. The Chugach Regional Resources Commission. The Commission, which 
encourages and oversees Native resource development programs for five 
Native Villages along the northern rim of the Gulf of Alaska, has been 
funded since fiscal year 1991. The Association supports the 
reinstatement of the full $347,000 to fund this important project in 
the coming fiscal year.
    2. The Alaska Sea Otter Commission. This Tribal consortium promotes 
Native participation in resource policy decisions pertaining to the sea 
otter and has been funded since fiscal year 1993. The Association 
supports the reinstatement of the full $69,000 to fund this important 
project in the coming fiscal year.
    3. The Bering Sea Fisherman's Association. This association has 
been funded since fiscal year 1994 and supports the involvement of 
Alaska Native tribes and organizations in salmon research and 
monitoring projects in the Arctic-Yukon-Kuskokwim region of Alaska. The 
Association supports the reinstatement of the full $803,000 to fund 
this important project in the coming fiscal year.
    4. The Lake Roosevelt Management Project in Washington State. 
Funding has been provided in the past through negotiated contracts with 
the Confederated Colville Tribes and the Spokane Tribe. Funds are used 
to implement a cooperative management agreement between the Tribes and 
the Department of the Interior for managing outdoor recreation in and 
around Lake Roosevelt. Funds support Tribal programs focusing on the 
management, planning and regulation of fishing, boating, camping and 
related public use activities occurring within the Reservation Zone of 
the Lake Roosevelt Recreation Area. Funding from this account also 
supports the Lake Roosevelt Water Quality Management Council. The 
Association supports the reinstatement of the full $630,000 to fund 
this important project in the coming fiscal year.
    5. Upper Columbia United Tribes. These funds have been provided 
since fiscal year 1988 to the Kalispell, Kootenai, Spokane, and Coeur 
d'Alene Tribes to protect tribal hunting, fishing, and gathering rights 
and conservation projects in the Upper Columbia River Basin. The 
Association supports the reinstatement of the full $418,000 to fund 
this important project in the coming fiscal year.
    6. Wetlands/Waterfowl Management. Tribes in Minnesota, Michigan, 
and Wisconsin have been provided vital funding, since fiscal year 1991, 
for wetland rehabilitation and enhancement in cooperation with the 
North American Waterfowl Management Plan, designed to add tens of 
thousands of ducks and geese to spring and fall migrations. The 
Association supports the reinstatement of the full $600,000 to fund 
this important project in the coming fiscal year.
    While the Association is opposed to diversion of Sport Fish and 
Wildlife Restoration Program funds for Tribal use, it is committed to 
adequate federal funding to provide for professional management of 
Tribal fish and wildlife resources. The Association believes that 
Native American Tribes have identified legitimate funding needs for 
fish and wildlife on millions of acres of Tribal lands. Adequate 
funding preserves and enhances the cultural heritage of Native American 
Tribes, while providing positive economic benefits, and ensuring the 
conservation of significant fish and wildlife resources.

                                 ______
                                 
        Prepared Statement of the InterTribal Bison Cooperative

                       INTRODUCTION & BACKGROUND

    My name is Ervin Carlson, a Tribal Council member of the Blackfeet 
Tribe. I am President of the InterTribal Bison Cooperative (ITBC). On 
behalf of our 51 member Tribes, I would like to thank the honorable 
members of the committee for this opportunity to provide written 
testimony. On behalf of ITBC, I would like to address the following 
issues: (1) Request an appropriation of $3,000,000 for fiscal year 
2004, which is an increase of $1,250,000 over last year's 
appropriation, (2) Explain to the committee ITBC's unmet funding need 
of $19.4 million, and (3) Update the committee on ITBC's present 
initiatives.
    The InterTribal Bison Cooperative (ITBC), located in Rapid City, 
South Dakota, is a Native American non-profit organization composed of 
51 federally recognized Indian Tribes within a 17 state region. ITBC is 
dedicated to the development and restoration of buffalo on Indian lands 
for the economic, agricultural, environmental, spiritual and cultural 
purposes of Indian Nations. Additionally, ITBC acts as an informal 
guardian of the buffalo to promote, protect and preserve buffalo 
traditions within the United States.
    In 1992, ITBC was created as an initiative of the Bush 
Administration. The organization intended to promote development of 
Indian reservation lands that could not sustain other successful 
economic or agricultural projects. Often, Indian reservation lands were 
of a poor quality and not able to sustain any sort of farm, wildlife or 
livestock projects. Since buffalo had occupied these lands for 
centuries before they were hunted to near extinction in the 1800's, 
ITBC believed buffalo could once again thrive successfully on 
reservation land.
    Buffalo provided subsistence to the Native people. In the Plains 
Indian culture, the buffalo provided food, housing, materials and tools 
used in daily life, and a philosophic and cultural basis for everyday 
life. Originally, ITBC was organized to preserve the sacred 
relationship between Indian tribes and the buffalo. Tribal buffalo 
operations are a logical extension of an historic way of life and also 
serve as a source of economic opportunities on tribal lands. Restoring 
these animals is critical to the health of Indian nations. Indian 
Tribes approach buffalo herd development with a seriousness and respect 
that other economic development projects may not receive.
    Today, as a result of federal appropriations and ITBC's efforts, 
buffalo are once again thriving on tribal lands. ITBC has played a 
significant role in this restoration and is now making every effort to 
assure that the Tribal buffalo projects are economically sustainable.

                            FUNDING REQUEST

    The InterTribal Bison Cooperative respectfully requests an 
appropriation for fiscal year 2004 in the amount of $3,000,000. This 
amount is $1,250,000 above the fiscal year 2003 appropriation for ITBC 
and is greatly needed to maintain last years funding level and to help 
build economic sustainability to the Tribal projects.

                     FUNDING SHORTFALL & UNMET NEED

    In fiscal year 2003, the ITBC and its member tribes were funded 
through appropriations at $1,746,000. The President's budget for fiscal 
year 2004 recommends a funding amount of $1,146,000 which is a decrease 
of $600,000 at a time when the current market price for buffalo is only 
10 percent of the price three years ago.
    At the current level of funding, many of our member tribes cannot 
receive adequate technical assistance, product and resource 
development, nor do they receive funding for start-up or maintenance 
costs.
    ITBC is a cooperative with 100 percent of the appropriated funds 
going toward the support and development of Tribal buffalo herds and 
buffalo product business ventures. ITBC funding is distributed among 
all ITBC member Tribes. In fact, an important aspect of ITBC is the 
cooperative agreement that member Tribes have reached in regard to the 
sharing of ITBC funding.
    Each year, ITBC surveys all its member tribes to determine their 
unmet project needs. The current unmet need for ITBC tribal projects to 
fully develop is $19,378,367. I have attached the Tribal Bison Project 
Proposal summaries for your review, which details each of ITBC member 
tribe's projects and financial need.

                        ITBC GOALS & INITIATIVES

    The immediate goal of ITBC is the restoration of the buffalo on 
Indian lands through the development of Tribal buffalo herds and 
related economic development projects. The ultimate goal is for Tribal 
buffalo herds to reach a point of self-sufficiency and once again 
become an economic cornerstone throughout Indian country.
Economic Development.
    In 1991, seven Indian tribes had small buffalo herds, with a 
combined total of 1,500 animals. Little or no economic development was 
taking place with the buffalo. ITBC has proven its success in 
restoration of tribal buffalo herds during its relatively short 10-year 
history. Today, with the support and technical assistance of ITBC, over 
35 Indian Tribes are engaged in raising buffalo. There are 
approximately 15,000 animals owned and managed by these Tribes. Many of 
these Tribal buffalo programs are on the verge of becoming fully self-
sufficient and successful operations. Most important for the Tribal 
economies, a new industry has been born where previously none existed. 
Hundreds of direct and indirect jobs relating to the tribal buffalo 
industry have been created. The positive impact to Indian country has 
been unmistakable.
    However, in order to become fully self sufficient and sustainable 
the Tribes must be able to build a solid foundation for this new 
industry. ITBC provides critical assistance to member Tribes who must 
have sustainable management plans, infrastructure growth and 
development plans, training for the new jobs being created, and as the 
herds grow and develop, marketing plans as well. Therefore, in order to 
provide the necessary assistance ITBC is ready to begin a marketing 
initiative.

Tribal Buffalo Marketing Initiative
    When the tribal buffalo are finally, ready for market, ITBC member 
tribes face yet another obstacle to economic success. Few meat 
processing plants exist that can process buffalo. The geographic 
isolation that is common to most of our Tribes, further compounds the 
problem by increasing operating costs and reduces the quality of the 
meat by introducing unnecessary and harmful stress to the animals. 
Because the Tribal buffalo are range fed many existing plants will not 
allow them to be processed. Therefore, ITBC supports the development of 
tribally owned processing facilities that will accept range fed buffalo 
and assure product identity and quality control.
    Currently, there is only one Indian-owned, USDA approved, meat-
processing plant. This plant is located in Malta, Montana and was only 
recently acquired by the Ft. Belknap Tribe. The Tribe has requested the 
assistance of ITBC to build a sound infrastructure and to coordinate 
with other Tribes to process their buffalo, and help build a 
cooperative market for the Tribally produced range fed buffalo. ITBC is 
anxious to launch its marketing initiative by providing critical 
support to the Ft. Belknap Tribe in Montana. This project will begin 
the necessary infrastructure development that is so critical to 
sustainability. ITBC will assist with training for meat processing, 
cold storage facility development, help plan and upgrade the plant for 
buffalo, develop a distribution plan and system for Buffalo meat and 
by-products, and develop a cooperative brand name with standards and 
labeling guarantees, similar to the Kosher Beef brand. The development 
of the Ft. Belknap plant will serve as a model for other Tribal 
processing plants that are on the verge of achieving USDA approval. The 
primary benefits of tribally owned buffalo processing plants is to 
maintain the integrity of the Tribally owned buffalo meat as a health 
benefit, to develop a culturally appropriate processing schedule and to 
provide sustainability to the Tribal buffalo projects.

Preventive Health Care Initiative
    Another important aspect of ITBC's economic development effort is 
to provide buffalo meat to reservation families and to re-educate 
tribal members to the health benefits of including buffalo meat in 
their diets. ITBC is working to provide better ways for reservation 
families to have easier access to purchase buffalo meat. In most cases, 
buffalo meat is not sold in small quantities at the grocery stores and 
convenience stores located on Indian reservations. When Native families 
purchase meat, often the only choice of meat available to them is the 
high fat, and high cholesterol, processed meats that most reservation 
stores stock.
    Current research indicates that the diet of most Indian families on 
the reservations, includes large amounts of high fat, processed meats, 
which contributes to diabetes and heart disease and other diet related 
health problems.
    ITBC is working on a health care initiative that will provide 
easier access to buffalo meat on the reservations, target those 
individuals with the greatest need, and to educate more Indian families 
of the health benefits of including range fed buffalo meat in their 
daily diets.

                     SUPPORT FOR TRIBAL INITIATIVE

    ITBC support for the Confederated Salish and Kootenai Tribes of the 
Flathead Reservation in their effort to assume management of buffalo in 
the National Bison Range as a compactable federal function under the 
1994 Self-Governance Act.
    Tribal management of the National Bison Range would restore the 
relationship of buffalo with the Tribe on their ancestral land, allows 
the Tribe to assume management of their resources and save the 
government a significant amount of funding for the current management 
expenses.

                               CONCLUSION

    ITBC has demonstrated success over the years by assisting its 
member tribes with the restoration of buffalo to their native lands for 
cultural purposes and economic development. ITBC will continue to 
provide technical assistance and funding to its member tribes in order 
that they can restore and maintain tribal buffalo herds.
    Through the efforts of ITBC and its member tribes, new jobs have 
been created in the tribal buffalo industry resulting in new money for 
tribal economies. In addition, ITBC continues to support methods to 
market buffalo meat by providing easy access on the reservation and 
education efforts to the health benefits of buffalo meat in the Native 
diet.
    ITBC and its member tribes are appreciative of past and current 
support from the Congress and the Administration. I urge the committee 
to consider an increase to ITBC fiscal year 2004 appropriation so that 
the important work of restoring buffalo herds can continue without 
interruption, and so ITBC can help it's member Tribes achieve 
sustainability. I would like to thank this Committee for the 
opportunity to present testimony regarding ITBC's buffalo restoration 
efforts and resulting economic development opportunities. We invite the 
members of the Committee and their staff to visit one or more of the 
Tribal buffalo projects and to witness first hand their success.
    Questions and/or comments regarding any of the issues presented 
within this testimony may be directed to Mr. Ervin Carlson, President 
or to Mr. Fred DuBray, Executive Director at (605) 394-9730.

                                 ______
                                 
          Prepared Statement of the Intertribal Timber Council

                                SUMMARY

    Mr. Chairman, I am Nolan Colegrove, Sr., President of the 
Intertribal Timber Council. I hereby submit the following requests for 
fiscal year 2004 BIA and U.S. Forest Service appropriations:
    (1) Provide a total increase of $7.5 million in BIA T.P.A Forestry,
    (2) Restore Endangered Species in Resources Management, Non-
Recurring Programs to $3,035,000, and add $3 million for unfunded ESA 
mandates,
    (3) In Forestry under Resources Management, Non-Recurring 
Programs--
  --Add $25 million for Forest Development backlog elimination,
  --Add $6 million for Inventories and Plans to provide current 
        management plans for all trust forest land,
  --Add $500,000 for Woodlands management, and
  --Support the $1 million increase for Integrated Resource Management 
        Plans,
    (4) Add $1 million to Environmental Management in Non-Recurring 
Trust Services for cultural resources surveys,
    (5) Add $8 million to Cadastral Surveys in Non-Recurring Programs 
Real Estate Services, and add $1.5 million to Regional Office 
Operations Land Titles and Records,
    (6) Within Wildland Fire funding in the Bureau of Land Management, 
direct BIA to develop a Native American fire crew leadership training 
program, and
    (7) In the U.S. Forest Service State and Private Forestry budget, 
create a line item for the expanded ``Office of Tribal Relations'' and 
add $1 million for its support.

                 INTERTRIBAL TIMBER COUNCIL BACKGROUND

    The Intertribal Timber Council (ITC) is a twenty-seven year old 
organization of seventy forest owning tribes and Alaska Native 
organizations that collectively possess more than 90 percent of the 7.6 
million timberland acres and a significant portion of the 9.5 million 
woodland acres that are under BIA trust management. These lands provide 
vitally important habitat, cultural and spiritual sites, recreation and 
subsistence uses, and through commercial forestry, income for the 
tribes and jobs for their members. In Alaska, the forests of Native 
corporations and thousands of individual allotments are equally 
important to their owners. To all our membership, our forests and 
woodlands are essential to our physical, cultural, and economic well-
being, and their proper management is our foremost concern.

(1) Provide a Total Increase of $7.5 million in BIA Tribal Priority 
        Allocation Forestry
    The ITC appreciates the addition of $1,500,000 to the Tribal 
Priority Allocation Forestry budget approved by the Committee for 
fiscal year 2003. This was the first program increase since fiscal year 
1995. For fiscal year 2004, we urge the Committee to increase the 
Forestry appropriation by $7.5 million to reflect a cumulative 31.9 
percent cost of living adjustment since fiscal year 1992 and a 7.5 
percent increase in trust forest land acres. The resulting funding 
level of $37.3 million will only restore the BIA TPA Forestry program 
to the current equivalent of its fiscal year 1992 status, at which time 
the IFMAT report documented BIA Forestry funding as being grossly 
insufficient, with Indian forests receiving only 63 percent of the 
funding for timber production on National Forests, and only 35 percent 
of that for coordinated resources management. Adequate funding must be 
provided to enable the Department to fulfill its trust responsibilities 
for managing Indian forests.

(2) Restore Endangered Species in Resources Management, Non-Recurring 
        Programs, to $3,035,000 and add $3 million to Begin Fulfilling 
        the Unfunded ESA Mandates
    We request that the Endangered Species item in the BIA's Non-
Recurring Programs Natural Resources budget be provided $6,035,000. 
This amount restores the northern spotted owl/marbled murrelet (NSO/MM) 
and Cheyenne River ferret programs back to their fiscal year 2002 level 
of $3 million ($1.6 million for the owl, $1.4 million for the ferret), 
plus $35,000 for cost of living adjustments, and then adds another $3 
million to begin addressing unfunded tribal/BIA endangered species 
mandates. Congress started the NSO/MM program in 1991 to enable the BIA 
to fulfill its obligations after the owl and murrelet were listed under 
the ESA. BIA subsequently combined the NSO/MM with the ferret program. 
In fiscal year 2003, the Administration proposed eliminating both 
activities, but Congress partially restored the funding to $2,697,000. 
(As of this writing, we do not know how that amount will be distributed 
between the NSO/MM and ferret programs.) For fiscal year 2004, the 
Administration is requesting $2,198,000 for ESA activities, but we do 
not know how those funds are proposed to be spent. It is essential that 
funding to support ESA activities be restored. They are the only funds 
that have ever been specifically provided in the BIA's budget for 
addressing the NSO/MM listings. Elimination of these funds would 
threaten ESA compliance activities and could potentially restrict or 
shut-down the timber harvesting that is essential to the economies of 
tribal communities.
    We request that ESA funding be fully restored for the NSO/MM and 
ferret programs to inflation adjusted levels provided for fiscal year 
2002. We also request a further $3 million increase in the ESA budget 
item for management of other ESA-listed species throughout Indian 
Country.

(3) In Forestry under Resources Management, Non-Recurring Programs--
            Add $25 million for Forest Development backlog elimination
    Forest Development, one of four components in Non-Recurring 
Forestry, provides for thinning and planting on the 6 million acres of 
commercial trust forest land. As in fiscal year 2003, the fiscal year 
2004 Forest Development request of approximately $9.6 million will only 
provide treatment on 50,000 acres, which is about the annual accrual of 
commercial forest acres in need of thinning and planting. The 
Administration's budget requests nothing for reducing the backlog of 
1.3 million acres. Some 22 percent of the trust commercial forest land 
base is now in need of thinning and planting. These acres are either 
underproductive or out of production altogether. To fulfill the federal 
government's fiduciary obligation to ensure that all trust commercial 
forest land is productively utilized, we request an fiscal year 2004 
increase of $25 million to treat 130,000 backlog acres as a start on 
eliminating the backlog.

            Add $6 million for Inventories and Plans to provide current 
                    management plans for all trust forest land
    Forest Management Inventory and Planning (FMI&P), another component 
of Non-Recurring Forestry, covers the costs of preparing forest 
inventories and plans that are required for the management of trust 
forests. According to the most recent BIA information, only 43 percent 
of all Indian trust forest lands, including woodlands, have current 
management plans. A November 13, 1998 Interior Solicitors' Opinion 
holds that ``Indian timber may not be harvested until an approved 
forest management plan has been established.'' The absence of current 
management plans for more than half of all Indian trust forest land 
could damage the resources that comprise the trust corpus or even 
foreclose harvest on those lands. The consequences of the failure of 
the trustee to meet its fiduciary obligations would fall on Indian 
beneficiaries in terms of lost tribal jobs and increased stress on 
already scarce resources necessary to meet the financial, health, 
economic, education, and subsistence needs of tribal communities. To 
prevent such occurrences and for the U.S. to fulfill its trust 
responsibilities, we request that $6 million be added to the 
approximately $2 million fiscal year 2004 FMI&P request to begin 
providing current management plans for all trust forest lands.

            Add $500,000 for Woodlands management
    We request the addition of $500,000 for Woodlands Management, 
another component of Non-Recurring Forestry. Funding for the 9.4 
million acres of Indian Woodlands has not changed since the program's 
start in 1988. The current funding level only provides three woodlands 
managers in the Southwest and a very few on-the-ground projects. Just 
one quarter of these lands, often vital for subsistence purposes, are 
covered by management plans, and less than one half have resource 
inventories. An addition of $500,000 would increase staff for improved 
management and oversight, and enable badly needed management projects 
to be undertaken.

            Support the $1 million increase for Integrated Resources 
                    Management Plans
    The ITC supports the Administration's proposed fiscal year 2004 $1 
million increase for Integrated Resource Management Plans (IRMPs) for 
reservations. IRMPs are an essential element in modern natural resource 
management planning for BIA's 56 million total acres in trust, 
including the 17.1 million forest land acres. We support the 
Administration's request for a $1 million increase as an initial step 
towards supporting the development of IRMPs, although we believe the 
true needs for funding far exceed this amount.

(4) Add $1 million to Environmental Management in Non-Recurring Trust 
        Services for cultural resources surveys
    Indian lands are rich in historic artifacts and sensitive sites, 
and various federal laws, such as the Historic Preservation Act, 
NAGPRA, and NEPA, impose exacting requirements on land and resource 
managers. Cultural surveys generate the data that is essential for 
forest and other resource management plans, but BIA has never requested 
any funding to help meet those federal mandates. Accordingly, like last 
year, we request that $1 million be added to Environmental Management 
in Non-Recurring Trust Resources for cultural resource surveys.

(5) Add $8 million to Cadastral Surveys in Non-Recurring Programs Real 
        Estate Services, and add $1.5 million to Regional Office 
        Operations Land Titles and Records
    Reliable and accurate boundaries and clear, current title are 
essential for the management of Indian trust lands and resources. 
Without these two elements, the land's use and management are clouded, 
its income subject to question, and its protection jeopardized. But 
Interior funding for these two critical elements has not been 
sufficient. A new BIA cadastral survey ranking system identified $30 
million just in ``priority'' projects. To begin to address this 
problem, we suggest doubling the BIA's fiscal year 2004 request to $16 
million. We also ask that BLM, which for years has shirked its 
statutory responsibility to provide cadastral surveys for trust land, 
be directed to institute such a program as part of its baseline 
responsibilities.
    For Land Titles and Records, we ask an increase of $1.5 million, to 
renew the commitment started several years ago to improve the BIA's 
ability to produce timely and accurate titles. Currently, BIA has 
150,000 title documents that need to be recorded, and this case load is 
growing as demand continues to outstrip the BIA's capacity. 
Accordingly, we ask that funding be increased by $1.5 million.

(6) Within Wildland Fire funding in the Bureau of Land Management, 
        direct BIA to develop a Native American fire crew leadership 
        training program
    There is an increasing need for fire crew leadership training that, 
if not addressed, could endanger the safety and hinder the deployment 
of otherwise fully trained and able tribal fire crews. Native American 
crews constitute about 25 percent of the line fire fighter work force 
and a crew leadership training program in the BIA is essential to 
improve their safety and effectiveness. To help address this need, we 
ask that the BIA be directed to develop a Native American fire crew 
leadership training program.

(7) In the U.S. Forest Service State and Private Forestry budget, 
        create a line item for the ``Office of Tribal Relations'' and 
        add $1 million for its support
    Last mid-December, after several years of work by a USFS National 
Tribal Relations Program Task Force and its Implementation Team, the 
U.S. Forest Service decided to enhance its Office of Tribal Relations. 
The job announcement for the Office's Director was issued March 18 and 
the Office will ultimately be staffed by six positions. We ask that $1 
million be added to State and Private Forestry to fund the Tribal 
Relations Office. Tribes and the Forest Service share thousands of 
miles of common border. Tribes also have rights and interests on 
hundreds of thousands of Forest Service acres, and must confront 
numerous trans-boundary resource issues, including forest management 
and health, watershed, and wildlife. Yet, in the past, tribes and the 
Forest Service have failed to adequately coordinate their management 
approaches. Today, with new pressures on America's resource base, and 
with emphasis on cohesive resource management strategies that transcend 
man-made boundaries, we are pleased that the Forest Service is actively 
reaching out to its tribal neighbors with an enhanced Office of Tribal 
Relations. We fully support the Tribal Relations Office, and ask 
Congress to support it as well.
    Thank you for the opportunity to present this testimony.

                                 ______
                                 
          Prepared Statement of the Jamestown S'Klallam Tribe
    This testimony is submitted by the Jamestown S'Klallam Tribe 
regarding our funding priorities and requests on the fiscal year 2004 
Bureau of Indian Affairs (BIA) and Indian Health Service (IHS) budgets.

                 TRIBAL-SPECIFIC APPROPRIATION PRIORITY

    $150,000 adjustment for the Jamestown S'Klallam Tribe for Fisheries 
Management in the Point No Point Treaty Council (PNPTC) for the BIA 
fiscal year 2004 Budget.

              LOCAL/REGIONAL REQUESTS AND RECOMMENDATIONS

    Support all requests and recommendations of the Affiliated Tribes 
of Northwest Indians, Northwest Portland Area Indian Health Board, and 
the Northwest Indian Fisheries Commission.

           SELF-GOVERNANCE AND OTHER NATIONAL CONSIDERATIONS

    1. Provide a minimum of $25,000,000 in BIA Tribal Priority 
Allocation (TPA) General Increase for inflationary adjustment;
    2. Provide $5 million increase for BIA and $98 million for IHS to 
fully fund Contract Support Cost (CSC);
    3. Provide $4.5 million increase to the Indian Health Service (IHS) 
Office of Tribal Self-Governance;
    4. Provide $360 million for IHS mandatory, inflation and population 
growth increase to maintain existing health care services; and,
    5. Support all requests and recommendations of the National 
Congress of American Indians and National Indian Health Board.

              TRIBAL-SPECIFIC APPROPRIATION JUSTIFICATION

    For the last 25 years Western Washington tribes have struggled to 
meet our responsibilities for proper fisheries management which we 
incurred following the affirmation of our treaty fishing rights in the 
U.S. v. Washington Supreme Court decision. Following the Boldt Decision 
in the late 1970's, PNPTC was formed by the Port Gamble S'Klallam, 
Lower Elwha Klallam and Skokomish tribes to conduct a professional 
biological and enforcement program, thereby insuring that the tribes 
could manage their fisheries activities responsibly and more 
efficiently through a consortium.
    Following our Tribal recognition in 1981, we joined the PNPTC 
consortium and requested funding from the BIA. PNPTC was then operating 
on behalf of the other three tribes at a funding level of $692,500 for 
fisheries services. Due to funding limitations, the BIA made the 
decision that adding Jamestown to the consortium could be accomplished 
without adding an equivalent share to PNPTC's funding. The addition to 
services for Jamestown should have been a level of one-third of PNPTC's 
budget, or $230,833. The BIA only added $133,000, a grossly deficient 
amount to meet our Treaty obligations.
    Currently, PNPTC is struggling to keep basic operations funded. 
Staff and other overall reductions in work hours have been necessary. 
These cuts greatly inhibit the tribes' ability to meet our fisheries 
management obligations. A total of $150,000 increase is needed in order 
to bring Jamestown's pass-thru funding up to the level equivalent to 
the other Tribes and to address the additional new responsibilities due 
to shellfish management and ESA obligations in the last 9 years. We are 
requesting a recurring base funding adjustment to our Self-Governance 
Funding Agreement to alleviate the funding pass-through inequity now 
experienced by the PNPTC member tribes. This will help to address the 
significant inter-tribal friction, as well as support hiring essential 
staff to operate our Iribal programs.

              LOCAL/REGIONAL REQUESTS AND RECOMMENDATIONS

    The Jamestown S'Klallam Tribe is a direct beneficiary of the 
collective Tribal efforts and continues to support the requests and 
recommendations of the Affiliated Tribes of Northwest Indians, 
Northwest Portland Area Indian Health Board, and the Northwest Indian 
Fisheries Commission.

           SELF-GOVERNANCE AND OTHER NATIONAL CONSIDERATIONS

    Provide a minimum of $25,000,000 in BIA Tribal Priority Allocation 
(TPA) General Increase for inflationary adjustments.--This is the fifth 
year in a row that the Administration's request contains no general 
increase for TPA. This activity includes the majority of the funds used 
to support on-going services at the local Tribal level including such 
programs as housing, education, natural resources management and Tribal 
government services. A Congressional Research Service Report on Indian-
related federal spending trends for fiscal year 1975-fiscal year 2000 
finds that increases in the combined BIA/Office of Special Trustee 
``current'' dollars averaged $46 million per year. But as ``constant'' 
dollars (adjusted for inflation), there has actually been a decline of 
approximately $6 million per year. Over this 25-year period, the total 
is $150 million! At a minimum, the requested amount will provide for a 
modest 3.5 percent inflation adjustment for existing Tribal programs 
and services.
    Increase BIA and IHS Contract Support Cost (CSC) Funds to address 
documented need.--CSC funds are required for Tribes to successfully 
manage their own programs. While the Administration's budget request 
for fiscal year 2004 includes a modest increase for CSC, an additional 
$98 million is needed in IHS and an additional $5 million increase is 
needed in BIA to fully fund CSC. This shortfall continues to penalize 
Tribes which elect to operate BIA and IHS programs under the self-
determination policy. Further, this shortfall threatens to pit tribe 
against tribe as mature contractors are asked to absorb all 
inflationary increases in order to fund new contractors. Additional CSC 
appropriations are needed to implement the self-determination and self-
governance policy as supported by Congress. We urge the Subcommittee to 
fully fund CSC for Tribes similar to how other contractors are funded 
within the federal government.
    Provide $4.5 million increase to the IHS Office of Tribal Self-
Governance.--In fiscal year 2003, a total of $4.2 million was 
eliminated from the Office of Tribal Self-Governance within the IHS 
budget. We believe that this decrease will severely impact IHS's 
ability to fully implement the provisions of Title V of the Indian 
Self-Determination and Education Assistance Act, as amended. The IHS 
Office of Tribal Self-Governance was established in 1996 to advocate 
and implement the Self-Governance initiative within IHS. There are 
currently 285 Tribes (51.1 percent of all federally-recognized Tribes) 
implementing Self-Governance agreements. While the number of Self-
Governance Tribes has and continues to increase, the staff and 
organizational capacity of OTSG has not. Additional funding is needed 
to increase the OTSG's organizational capacity to meet the legal 
requirements of Title V and to protect and advance the Self-Governance 
initiative.
    Provide $360 million for IHS mandatory, inflation and population 
growth increase needed to maintain existing health care services.--The 
Administration's request of $40 million in fiscal year 2004 is far 
short of the $360 million needed just to maintain current health care 
services. These costs are unavoidable and include medical and general 
inflation, pay costs and staff for recently constructed facilities. IHS 
and Tribal programs simply cannot afford to continue to lose real 
resources. Mandatories should be the first consideration in budget 
formulation. If unfunded, these cost increases will result in further 
health service reductions in our Tribal communities.
    In conclusion, we recognize that the Administration and Congress 
has placed a major priority on fighting the war against terrorism and 
protecting our homeland. However, the treaties and legislation, that 
tribal governments have fought so hard to achieve with the United 
States government, remain the basic foundation of our unique 
governmental relationship. We strongly urge this Subcommittee to honor 
these commitments and that tribal government operations be afforded the 
highest priority in your appropriation decisions.
    Thank you.

                                 ______
                                 
    Prepared Statement of the Lac du Flambeau Band of Lake Superior 
                            Chippewa Indians

    As Chairman of the Lac du Flambeau Band of Lake Superior Chippewa 
Indians, located in Wisconsin, I am pleased to submit this written 
testimony which reflects the needs, concerns and issues of the Tribal 
membership arising from the President's fiscal year 2004 Bureau of 
Indian Affairs and National Park Service Budget request.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Bureau of Indian Affairs Scholarships...................        $250,000
Bureau of Indian Affairs Johnson O'Malley...............          93,000
Bureau of Indian Affairs Wetlands Waterfowl/Circle of            593,000
 Flight.................................................
Bureau of Indian Affairs Wildlife and Parks.............         200,000
Bureau of Indian Affairs Forestry.......................         188,000
National Park Service Historic Preservation.............         275,000
Bureau of Indian Affairs Law Enforcement................         800,000
BIA-TPA Tribal Courts...................................         762,122
------------------------------------------------------------------------

                            INDIAN EDUCATION

    Education of our tribal youth still continues to be the Band's 
number one priority and we look to Congress to support us on this 
issue. In the past we have supported the President's BIA budget on 
Indian Education, but this year most of the increases are associated 
with school construction ($292.7 million) and operation ($567 million). 
The Band is and has been requesting increased funding through the 
Administration's Tribal Priority Allocation planning process in higher 
education and Johnson O'Malley, but has not been successful. So again, 
we are asking Congress to address this funding short-fall through the 
legislative process.
    The Band's specific concern is the funding levels associated with 
higher education programs. There has not been an increase in the BIA's 
higher education funding for seven (7) years. In the last three (3) 
years, the Band had 130 tribal members, who were not able to receive 
funding for college due to shortfalls. To fully support our eligible 
students, an additional $250,000.00 of funding for Lac du Flambeau is 
required. It should be noted to the members of this Committee, that 
like many other states, Wisconsin is having financial problems. 
Wisconsin's financial woes are driving the cost of college tuition even 
higher, making our request of additional funding even more important.
    The Johnson O'Malley program has been under funded through the 
Tribal Priority allocation process and the Band has identified a 
funding shortfall. Our Education Program receives $55,967.00 to operate 
the JOM program in which we concentrate all our efforts and funding to 
high school students. We have 520 students in grade school that cannot 
be served by Johnson O'Malley because of the shortfall. To fully fund 
this program at Lac du Flambeau, an additional $93,000.00 would be 
required.

                           NATURAL RESOURCES

    The Lac du Flambeau Indian Reservation is located in northern 
Wisconsin and is in the heart of the north woods and lakes area. The 
reservation is 86,000 acres with 46,000 acres of forested land, 20,000 
surface acres of water and 14,000 acres of wetland. The land, air and 
water resources and associated fish, wildlife and plants are very 
important to the well-being of the Band. Our wildlife and plant 
resources support a subsistence way of life, which is an integral part 
of our culture as well as our economy. The comprehensive Department 
includes the following programs: Fish Culture, Fisheries Management, 
Wildlife, Water Resources, Environmental Protection, Forestry, 
Conservation Law Enforcement, Land Management and Tribal Historic 
Preservation. The primary goal of all the programs is to assure that 
the natural and cultural resources; the Band's most precious assets, 
are protected and preserved. The following lists our funding needs.

Circle of Flight-Great Lakes Wetland/Water Fowl Management Program
    We strongly urge the Committee to restore $593,000.00 for the Great 
Lakes Wetland/Water Fowl Management Program (Circle of Flight) that the 
Administration proposes eliminating entirely again this year. The 107th 
Congress restored this important funding last year and the Lac du 
Flambeau Band would like to thank the Committee for understanding how 
important this program is in restoring and preserving our Nation's 
wetlands and waterfowl populations. This program also gives Congress, 
the Great Lakes Region Tribes, States, USFWS, USDA, Ducks Unlimited and 
other private sector groups an opportunity to work cooperatively in 
projects that provide wetland protection, flood control, clean water 
and recreation in the Great Lakes Region. Your strong support of this 
program is required again.

Wildlife and Parks
    The Band has a comprehensive Natural Resource Department and 
dedicated staff with considerable expertise in natural resource and 
land management. Our activities include raising fish for stocking, 
conservation law enforcement, data collection on water and air quality, 
developing well head protection plans, conducting wildlife surveys, and 
administering timber stand improvement projects on the 86,000 acre 
reservation. We urge this Committee to increase the Wildlife and Parks 
budget and set aside $200,000 for Lac du Flambeau ($100,000 for Tribal 
Fish Hatchery Operations and $100,000 for Tribal Management and 
Development). The Wildlife and Parks budget has not increased 
significantly since 1990. An increase will ensure we can maintain our 
current staff and critical natural resource programs.

Forestry
    Within the 86,000-acre reservation, we have 46,000 acres of 
forested land that supports hunting and gathering opportunities for 
tribal members as well as logging. Proper management of the forest is 
essential to sustain our subsistence lifestyle, but also to provide 
economic growth for the Band. The Forestry Program, consisting of two 
(2) foresters and two (2) technicians, undertakes a broad range of 
management activities including tree planting, prescribed burning, 
timber road design and maintenance and timber sale administration. The 
Forestry Program is funded through the Tribal Priority Allocation (TPA) 
within the Bureau of Indian Affairs budget, which has been historically 
under funded. The Band supports the Administration request of $1.5 
million but wants Congress to understand that at the Tribal level, the 
$1.8 million increase last year only equaled $4,000.00 for our Forestry 
Department. Through the TPA planning process, the Band identified an 
unmet need of $107,000.00 just to support the current program. In order 
to increase forest development, timber sale management and wildfire 
control activities we urge the Committee to not only support the 
President's budget but to earmark $188,000.00 for the Lac du Flambeau 
Forestry Department. This program has not received any substantial 
funding increases since 1991.

                      TRIBAL HISTORIC PRESERVATION

    The Lac du Flambeau Band is asking Congress to provide $9.9 million 
to be allocated within the Tribal Historic Preservation Fund. This 
would provide $275,000.00 per Tribal Historic Preservation Office, a 
dollar amount almost, but less than, a state's share.

                       LAW ENFORCEMENT AND COURTS

    At Lac du Flambeau we are fortunate to have a police department 
that is able to ensure a safe community for our members. For instance 
in 2002, the Lac du Flambeau Tribal Police Department logged 26,687 
man-hours answering 4,018 complaints. The 12, member Police Department 
consists of 11 full time officers and one (1) administrative assistant 
responding to calls ranging from domestic violence to juvenile cases 
including runaways, burglary, fraud, battery and vandalism. The Lac du 
Flambeau Tribal Police not only respond to tribal complaints, but also 
provides services to the non-Indian community as well.
    The Lac du Flambeau Tribal Police Department is in dire need of 
space. Currently, a 50-year-old converted hardware store is housing the 
Tribal Court System, Tribal Attorney's Office, Probation and Parole 
Department, Child Support Agency, the Great Lakes Indian Fish and 
Wildlife Commission Wardens and Tribal Police. The cramped conditions 
do not allow our police officers to conduct private interviews without 
compromising confidentiality. The lack of an interview area jeopardizes 
the officer's ability to solve cases and is time consuming, because not 
more than one person can be interviewed at a time. The Lac du Flambeau 
Band needs a new Police Department building. It is estimated that the 
new building will cost $800,000.00 and we respectfully request Congress 
to help us in our effort to provide adequate space for the Police 
Department.
    Our Lac du Flambeau Tribal Court System includes a Chief Judge, two 
(2) Associated Judges, Tribal Attorney/Prosecutor, Clerk of Courts, 
Deputy Clerk and Truancy Officer. In fiscal year 2002, our Court System 
had 1,148 cases filed and conducted 2,355 hearings. Cases ranged from 
Children and Family cases to on and off reservation conservation/
natural resource violations. Throughout Indian country, tribal courts 
are severely under funded and yet continue to fulfill a critical role 
in bringing justice to our communities. It is vital that these courts 
start to receive the funding that they need. Currently, the Band is 
receiving $77,000.00 from the BIA to support our court system. This 
only represents 9 percent of the total Tribal Court operating budget. 
Thus, the Band respectfully requests Congress to support the 
President's proposed fiscal year 2004 Budget of $17 million for Tribal 
Courts. Any additional Congressional funding support would be greatly 
appreciated as well. It should be noted that Lac du Flambeau did not 
receive an increase in fiscal year 2003 even though there was $17 
million allocated.

                       TRIBAL PRIORITY ALLOCATION

    The Band supports the $2.1 million increase, but urges the 
Committee to consider additional increases for these vital programs, 
since at the tribal level we are not realizing any significant funding 
increases.

            GREAT LAKES INDIAN FISH AND WILDLIFE COMMISSION

    The Band supports the Great Lakes Indian Fish and Wildlife 
Commission request of $3.966 million, to meet the needs in the 
Commission's testimony submitted to the Committee.

                   INDIAN LAND CONSOLIDATION PROGRAM

    We would urge the Committee to support the $21 million increase the 
Administration proposes. We suggest that in order to improve upon the 
implementation of this Project, Congress allow tribes to administer the 
project through a Public Law 93-638 contract or some other cooperative 
agreement. We believe the Tribes can more efficiently implement this 
vital program.

      STATE TRIBAL WILDLIFE GRANT AND LANDOWNER INCENTIVE PROGRAM

    We strongly support the continuation of State and Tribal Wildlife 
Grant and program ($5 million tribal set-aside) and the Landowner 
Incentive Program (overall $50 million).

                                 ______
                                 
          Prepared Statement of the Lower Elwha Klallam Tribe

    The Lower Elwha Klallam Tribe submits this written statement to 
request funding from the Bureau of Indian Affairs and the Indian Health 
Service in the fiscal year 2004 Appropriations bill.
    First and foremost, we would like to express our sensitivity to the 
tasks that you are currently under taking. While addressing the matters 
associated with the United States being at war, you must continue to 
conduct the business of the domestic agenda as well. You have our 
blessings and are in our prayers during these most turbulent times.

                            TRIBAL REQUESTS

    Request $19.5 Million for Elwha River Restoration to the National 
Park Service Account; and,
    Request $4 Million for Land Acquisition authorized in Public Law 
102-495 to the Office of Trust Responsibility's Realty Office Account.

                           REGIONAL REQUESTS

    Restore $320,000 to the Unresolved Hunting and Fishing Rights 
account;
    Restore $550,000 for Western Washington tribal shellfish management 
and enforcement;
    $6.3 million to implement tribal treaty rights in tribal shellfish 
programs;
    $22 million for federal contribution of Tribal/Growers shellfish 
settlement;
    Restore $3.0 million Forest Development, Woodland Management, 
Northwest Forest Plan, Jobs in the Woods and Wild Stock Restoration 
Initiative;
    Restore $3.1 million for the Timber-Fish-Wildlife Forest and Fish 
Report; $1.0 million Increase for Timber-Fish-Wildlife ESA Obligations 
under new state and private forest practices rules and regulations;
    Increase Hatchery Cyclical Maintenance/Rehabilitation funding to 
$2.5 million with language; and,
    Support the requests of the Point-No-Point Treaty Council, 
Affiliated Tribes of Northwest Indians, and the Northwest Portland Area 
Indian Health Board.

                           NATIONAL REQUESTS

    The BIA and IHS are preparing to re-organize. We are concerned that 
this will come at the expense of diminishing tribal programs and the 
delivery of tribal services. Therefore, we ask that the Subcommittee 
include language directing both the BIA and IHS not to reduce funds 
appropriated by this Subcommittee to offset Departmental or agency 
shortfalls, to support reorganization plans, or trust reform 
initiatives without consulting with Tribal Leadership. This language 
should be included in future appropriations bills for these agencies;
    Provide a minimum of $25,000,000 in BIA Tribal Priority Allocation 
(TPA) General Increase for inflationary adjustment;
    Provide $5 million increase for BIA and $98 million for IHS to 
support 100 percent funding of Contract Support Cost (CSC);
    Restore $4.5 million increase to the Indian Health Service (IHS) 
Office of Tribal Self-Governance;
    Provide $360 million for IHS mandatory, inflation and population 
growth increase to maintain existing health care services; and,
    Support all requests and recommendations of the National Congress 
of American Indians and National Indian Health Board.

                  SPECIFIC TRIBAL REQUESTS JUSTICATION

$19.95 million (+$7 million more than President's Budget)
    In the fiscal year 2004 President's Budget package, there was a 
request of $12.95 million for the Lower Elwha Tribe River Restoration 
Project. We are requesting an additional $7 million to support the 
timelines identified in the project design.
    The Administration's requested funding level will not allow the 
Project to proceed on schedule and this will require additional cost. 
The current project has been budgeted for $19.95 million and delays 
will subject this amount to inflation and other cost increases 
associated with construction projects. The Tribe and the National Park 
Service have reviewed the Restoration Project budget throughout the 
preliminary stages. In order to alleviate the likelihood that 
additional requests for funds to support the conduct of tasks 
identified for this phase of the project, we encourage the Subcommittee 
to fund the project at the increased level of $19.95 million in fiscal 
year 2004.
    There are many functions included in the Project such as the 
required modifications to the Army Corp of Engineer's flood control 
levy, designing our water supply system and the design and construction 
of our hatchery, flood protection assessments, identifying and 
designing a septic system & wastewater alternatives for homes on the 
reservation, resources for habitat restoration, performing a coast line 
assessment and designing a plan to restore aquatic life. These are but 
a few of the many tasks to be performed within a timeframe that 
supports the overall conduct of this Project.
$4 million for Land Acquisition as Authorized in Public Law 102-495
    In Public Law 102-495, to restore Olympic National Park and the 
Elwha River Ecosystem and Fisheries in the State of Washington, there 
was an authorized amount of $4 million for land acquisition for the 
Tribe. It has been more than a decade since this law was enacted and 
the Tribe is consistently requested these funds.
    This acquisition is yet another component of this major River 
Restoration Project. We request that the Subcommittee appropriates the 
$4 million for land acquisition to the Bureau of Indian Affairs, Office 
of Trust Responsibility, Division of Reality Services.
    Thank you.

                                 ______
                                 
       Prepared Statement of the Lower Lake Rancheria Koi Nation

    The Lower Lake Rancheria Koi Nation (``Tribe'') in California, is a 
federally-recognized Indian Tribe, located in Northern California. 
Through administrative error and neglect by the Federal Government, for 
many years, our Tribe was wrongly omitted from the Bureau of Indian 
Affairs' (BIA) listing of federally-recognized Indian tribes.
    After years of intensive efforts, the error was acknowledged and 
our Tribe's federally-recognized status was reaffirmed. On December 29, 
2000, the Assistant Secretary for Indian Affairs ordered that our Tribe 
be returned to the official list of federally-recognized Indian Tribes. 
Even so, it was not until a year and a half later--July 12, 2002--that 
our Tribe was once again included on the official list.
    During the time our Tribe was erroneously omitted from the listing, 
we were ineligible for federal funding, such as basic health care 
services from the Indian Health Services, and deprived of our 
Government-to-Government relationship with the Federal government. Once 
the error was acknowledged and our Tribe was added to the list, the 
Department of the Interior informed us that we would be included in the 
funding for ``New Tribes.'' Because the fiscal year 2002 budget had 
already been prepared, however, we were told we would have to wait 
until fiscal year 2003. Nonetheless, for unknown reasons, the 
Department zeroed-out funding for ``New Tribes'' in both the fiscal 
year 2003 and fiscal year 2004 budgets.
    Historically, the Department of the Interior has funded newly 
recognized and restored Indian Tribes under the ``New Tribes'' line 
item of their budget. ``New Tribes'' have been provided a baseline of 
$160,000 a year to support basic governmental operations. While an 
almost insignificant amount in relation to the Department's overall 
budget, this funding is vitally important to the newly restored Tribes 
and will be vital to our Tribe's goal of providing basic governmental 
services, such as health care, housing, and educational assistance, to 
our members.
    Funding is needed for basic governmental purposes as the Tribe 
transitions to the BIA's annual Tribal Priority Allocation funding. As 
a federally-recognized Indian tribe, the Lower Lake Rancheria Koi 
Nation enjoys a government-to-government relationship with the United 
States. The Assistant Secretary of Indian Affairs' reaffirmation of the 
Tribe's federally-recognized status, and our addition to the official 
listing of federally-recognized Tribes, makes the Tribe eligible for 
federal funding, such as ``New Tribes'' money. Provision of such 
funding is in furtherance of the federal government's trust 
responsibility to Indian tribes.

                        REQUESTED APPROPRIATION

    In accordance with the commitments made by the Department of the 
Interior, the Lower Lake Rancheria respectfully requests $320,000 (to 
cover $160,000 in baseline funding for fiscal year 2003 and fiscal year 
2004) to support its governmental operations under the ``New Tribes'' 
funding in the Interior Appropriations Bill.
    In addition to the Lower Lake Rancheria, five other Tribes: the 
Graton Rancheria of California, the Shawnee Tribe of Oklahoma, the King 
Salmon Tribe and the Shoonaq' Tribe of Kodiak, both from Alaska, and 
the Cowlitz Tribe of Washington, were added to the 2002 listing of 
federally recognized Indian Tribes. The Lower Lake Rancheria also urges 
restoration of funding for these similarly situated Tribes.
    Thank you for the opportunity to provide testimony to the Committee 
on this important matter.

                                 ______
                                 
                 Prepared Statement of the Lummi Nation

    My name is Darrell Hillaire, Chairman of the Lummi Nation and I 
would like to thank the Subcommittee for this opportunity to present 
written testimony. The Lummi Nation, is located on the northern 
coastline of Washington State, and is the third largest tribe in 
Washington State serving a population of over 5,200.
    On behalf of the Lummi Nation I want to thank you and the members 
of the Committee for their kind attention and assistance provided to 
the Lummi Nation in the past and the opportunity to express our 
concerns and requests regarding the fiscal year 2004 BIA, IHS 
appropriation allocations and special earmarks. The following written 
testimony presents the Lummi Nation funding priorities, as well as 
regional and national concerns and recommendations for your 
consideration.
    The Lummi Nation desires to strengthen our long-standing 
government-to-government relationship with federal officials to work 
through the consultation process and/or formal hearings for policy 
decisions impacting the Lummi people. Further, the Lummi Nation 
strongly opposes any bill, language or legislative riders that 
undermine tribal sovereignty or restrict tribal governments from 
protecting or exercising treaty rights.

                TRIBAL-SPECIFIC APPROPRIATION PRIORITIES

    1. +$750,000 Water & Sewer Infrastructure Planning & Engineering.--
Provide the Lummi Nation with an earmarked allocation of funds from the 
IHS Sanitation Facilities Construction program or USDA Rural 
Development program to support the planning and engineering of water 
and sewage system infrastructure improvements. The tribe's current 
water and sewer system is nearing threshold operational capacity and 
utilizes dated industrial technology' that is over 25 years old. Future 
tribal community development and economic growth is jeopardized without 
this financing.
    2. +$1,150,000 BIA Economic Development Program.--Lummi Nation is 
requesting resources to establish a Small Business Development Office 
to provide over 500 ``dislocated'' fisherman with economic and business 
assistance services from: technical assistance, support services, 
training services, business planning, and loan services.
    3. +$140,000 BIA-Office of Indian Education Programs, Facility 
Management and Construction Contract (FMCC) for provision of 
``Quarters''.--Lummi Nation seeks funds to cover planning and 
construction costs for development of school based housing units 
through the BIA-FMCC ``Quarters program'' that remains an unbudgeted 
need.
    4. +$1,500,000 Semiahmah Memorial Park and Heritage Center.--
Provide the Lummi Nation with National Park Service, Conservation and 
Historical Preservation construction program funds. Provide the Lummi 
Nation with initial planning and design phase funding for a Semiahmah 
Memorial Park and Heritage Center preserve ancestral burial grounds 
that were desecrated by non-Indian officials in 1999 and to commemorate 
this traditional village encampment.
    5. +$700,000 Increase to Lummi Nation Shellfish Hatchery 
Operation.--Provide support to the development of the tribal shellfish 
hatchery to address identified weather related market access problems 
that have effectively stopped the development of the shellfish 
hatchery. The Hatchery is critical the ability of Tribal fishers to 
generate family income from the harvest of shellfish, as provided in 
the Pt. Elliot Treaty, the right to harvest and manage shellfish 
resources.
    6. +$740,000 Support Realty.--Provide the Lummi Nation with funding 
to ensure the major elements such as land consolidation, land records 
management, tribal probate, and training services are available to 
effectively manage tribal realty resources.
    7. +500,000 Lummi Youth Safe House.--Provide Lummi Nation with 
funds to design and construct a youth ``safe-house'' for the provision 
of emergency ``holistic'' care, shelter and/or wrap-around social and 
health services for youth living in the Lummi community.
    8. +$1,300,000 BIA Tribal Government Services--Water 
Negotiations.--Provide for the following water negotiation costs: 
$300,000 for attorney fees, $400,000 for on-Reservation technical 
studies, and $600,000 for Nooksack River Basin technical studies.
    9. +$1,076,000 BIA-Financial and Social Service ``General 
Assistance'' program.--Funds for the Lummi Nation to effectively 
respond to a critical need for tribal fisherman to receive disaster 
relief assistance. This aids the tribe and fisherman to recover from 
the cumulative impact (1999-2001) of unrealized revenue from the local 
commercial fishing industry.

         TRIBAL-SPECIFIC APPROPRIATION SUMMARIES, JUSTIFICATION

1. Water & Sewer Infrastructure Planning & Engineering--+$750,000
    The Lummi Reservation supports a population of nearly 5,200 
persons, which has pushed water and sewer system capacities to their 
limit. Additional capacity must be obtained now to support the existing 
population. In the short-term, water and sewer systems redesign and 
upgrades will handle the problem. However, the long-term solution must 
include additional treatment capacity and water source location and 
development. Public Works infrastructure development and investments 
like these require substantial planning. The Lummi Nation is not able 
to undertake this level of planning without the assistance requested 
herein. Lummi Nation recommends the IHS Sanitation Facilities 
Construction Program to receive earmarked funds to support tribal 
planning of water delivery and sewage treatment system infrastructure 
for the existing and projected population of the Lummi Indian 
Reservation.

2. BIA Economic Development Program--+$1,150,000
    Lummi Nation is seeking funds to create a tribal Small Business 
Development Office to provide fisherman with economic and business 
training technical assistance services. Approximately $250,000 is 
requested to establish the Small Business Development Office with the 
goal of aiding fisherman to maximize profits horizontally within the 
fish marketing industry and/or create new small businesses to sustain 
self-sufficiency. Another $900,000 is requested form the BIA Credit 
Services program to enable the Lummi Nation to establish a fisherman 
revolving loan fund to enable participants to access development 
capital to support their small business plans.

3. BIA-Office of Indian Education Programs, Facility Management and 
        Construction Contracts (FMCC) for provision of ``Quarters''--
        +$140,000
    Lummi Nation seeks additional finances to cover planning and 
construction costs for development housing units through the BIA-FMCC 
Quarters program that remains an unbudgeted need. Lummi Nation new 
school facility exists in a rural area and is eligible to receive 
construction revenue for housing units for administrative and security 
staffing needs. No funds are allocated to fulfill the Lummi Nation need 
for the provision of staff quarters.

4. Semiahmoo Memorial Park and Heritage Center--+$1,500,000
    Provide the Lummi Nation with National Park Service, Conservation 
and Historical Preservation construction program funds. Provide the 
Lummi Nation with initial planning and design phase one funding for 
construction of a Memorial Park and Heritage Center to commemorate and 
preserve ancestral burial grounds that were desecrated by non-Indian 
officials in 1999. The National Park Service, National Registry of 
Historic Places, lists the site. The desecration of over 100 human 
remains and graves was primarily due to the expansion of a local sewage 
treatment plant financed with federal funds and permitted by the state. 
The Lummi Nation has created a Memorandum of Agreement that possesses 
terms to relocate the existing non-Indian treatment plant. The Memorial 
Park is to be constructed on the existing site as a unique tribute to 
promote regional education of the traditional Indian encampments 
reflecting the culture and lifestyle of the Coastal Salish people in 
Northwest America. Planning and design of a Heritage Center is 
envisioned to house social, economic and educational events and 
meetings.

5. BIA Office of Indian Education Programs--+$2,000,000
    Lummi Nation seeks increased school operational revenue to cover 
increased expenditures for the new tribal school in fiscal year 2004. 
The new school is projected to house 750 students that is over three 
times the current Lummi Tribal School student population. The Lummi 
Nation anticipates that the new school shall need increased funds to 
cover expanded operational expenses in the areas of: Administrative 
Cost Grants, Maintenance and Improvement funds, Transportation 
services; Special Education funds; High School and Tribal school 
operational funds. The Lummi Nation is reporting that this large school 
facility requires additional revenue to provide quality educational 
services.

6. Lummi Nation Shellfish Hatchery Operation--+$700,000
    The thirty-year old hatchery supplies oyster and clam seeds to a 
majority Northwest Washington Indian tribes and growers. The need to 
provide both the treaty and non-treaty growers for oyster seed, clam 
seed, enhancement projects. These projects benefit both the tribal 
government and Washington State. The Lummi Nation recommends that 
$350,000 increase be earmarked to Lummi Nation through the BIA Hatchery 
Operational program and an additional $350,000 be provided through the 
BIA Economic Development Program to support planning, development and 
constructing covered all weather loading, unloading and staging areas 
and access road improvements from the Hatchery to the State Highway.

7. Support Realty--+$740,000
    The Lummi Nation has a multi-year plan to address the realty 
tribulations. The major elements include land consolidation, land 
records management, tribal probate process, revision of realty 
procedures, backlog elimination, and training. Land consolidation 
requires untangling the heir ship disarray by conducting research to 
land titles, appraisals, surveys, subdivision and other technical work. 
Land records management requires development of a tribal land database 
with electronic connection to BIA databases. Existing process of tribal 
probates is time consuming and a contributive factor land is so 
fractionated. Development of an on-site process using Lummi Tribal 
Court is needed to shorten the processing time.

8. Lummi Youth Safe House--+$500,000
    Provide the Lummi Nation with a Family-centered Youth Facility to 
provide a continuum of care to ``At-risk'', Homeless and/or Runaway 
adolescents. The primary components of this continuum are screening, 
intervention, substance prevention, respite and after-care services 
consistent to youth needs. Participating youth are supported through 
center-based continuum and wrap around social/health services' to 
overcome barriers to achieve their goals. Lummi youth entering and/or 
completing treatment successfully make the transition to return to 
daily life through a traditional holistic' approach towards recovery 
involving family members and dependency counselors.

9. Water Negotiations--+$1,300,000
    The Lummi Nation signed an Agreement in Principle with the Federal 
Government and the State of Washington on January 27, 1998. This 
agreement is a stepping stone toward a final settlement of the ``on''-
reservation water rights conflict, which were and still are, 
attributable to the non-Indians disregard for treaty-reserved water and 
fishing rights in the Nooksack River Watershed. Many difficult issues 
remain to be resolved which require significant technical studies and 
legal consultation before a final agreement may be produced and signed. 
To complete this work the Lummi Nation is requesting $1.3 million 
during fiscal year 2003: $300,000 to defray legal consultation costs, 
$400,000 for on-reservation technical studies, and $600,000 for 
technical studies in the Nooksack River Basin. Lummi Nation recommends 
BIA provide the tribe with special earmark to support the increase in 
the Water Rights Negotiation/Litigation, Attorney fees and technical 
studies.

10. BIA-Financial and Social Service ``Disaster Assistance'' program--
        +$1,076,000
    Lummi Nation seeks disaster relief assistance to 500 fishermen to 
meet their basic needs for housing, food and clothing assistance. These 
funds enable the tribe to fulfill a critical need of tribal fisherman 
to receive disaster assistance in response to unrealized revenue. The 
Lummi Nation has historically relied upon the salmon resource that 
possesses a cultural and economic value to the tribal membership, which 
is irreplaceable. The Lummi tribe and U.S. Department of Commerce 
declared the sockeye commercial fishery as a fishery resource disaster 
under the Magnuson Stevens Act.

                                 ______
                                 
            Prepared Statement of the Mescalero Apache Tribe

                         APPROPRIATIONS REQUEST

    The Mescalero Apache Tribe (``Tribe'') is seeking $250,000 for 
operational funding in fiscal year 2004 for the Mescalero Fish 
Hatchery. The Hatchery will provide fish to more than a dozen Indian 
Tribes in the Southwest for stocking Tribal lakes and restoring native 
fish, and serves as an important economic development engine for our 
Tribe as well as for those served by the facility.

                               BACKGROUND

    On March 24, 1964, the Tribe entered into a lease with the United 
States Fish & Wildlife Service (``FWS'') for the operation of the 
Mescalero National Fish Hatchery (NFH) on the Mescalero Apache 
Reservation in the south central part of the State of New Mexico. On 
October 1, 1965, the Service commenced operations at the Mescalero NFH. 
For over thirty-five (35) years, the hatchery served as a primary 
economic engine for many tribal recreational and tourism programs 
providing stockable fish to fourteen (14) Indian Tribes and Pueblos in 
New Mexico, Arizona, and Southern Colorado.
    For the past fifty (50) years, the primary policy goal of the 
Department of the Interior has been to ensure maximum participation of 
the Indian Tribes including the eventual transfer of the fishery 
facilities to Tribes. Yet, the Department has struggled with how to 
implement its policy supporting the stocking of fish in Tribal waters 
and providing the associated technical assistance to the Tribal 
Governments. FWS has budgeted for the stocking of fish in Tribal waters 
and related technical assistance since the 1950's. In the mid-1970's, 
FWS began phasing out these programs, and during the late 1970's and 
early 1980's, it adopted a policy of requiring full reimbursement for 
services delivered to Indian Tribes, terminated many of its tribal 
assistance operations, and submitted budgets proposing to close 
numerous fish hatcheries and fisheries assistance office that had long 
served Tribal needs. Evidently, the evolution of FWS policy emphasizing 
the recovery of species listed under the Endangered Species Act and the 
restoration of native species have become FWS priorities that have 
outweighed the need to adequately support Tribal fisheries programs.
    In the midst of FWS downsizing and funding shortfalls for the 
national fish hatchery system, the BIA created the Division of Fish, 
Wildlife and Recreation in 1982, which focused on contracting fish and 
wildlife resource operations directly with Indian Tribes, rather than 
trying to duplicate the assistance program that FWS had been providing. 
To prevent the closure of key FWS fish hatchery serving Tribes, 
including the Mescalero NFH, BIA's Division of Fish, Wildlife and 
Recreation entered into annual memorandums of agreement (MOA) with the 
FWS for the continued operation of these hatcheries. Through the MOA, 
BIA provided in fiscal year 1987 $1.3 million and 29 FTEs to the FWS 
for ten facilities, including $211,000 and 5 FTEs for the Mescalero 
NFH. In 1988, Congress transferred to FWS funds from BIA for 6 of the 
10 facilities covered by the MOA, and directed FWS to contract with the 
affected Tribes served by each facility, when so requested, and to work 
with the Tribes in moving toward tribal control of the program as 
quickly as possible. Similar report language was included in the fiscal 
year 1989 and fiscal year 1990 appropriations.
    In the fiscal year 1996 budget, FWS again proposed the closure of 
the Mescalero NFH or to transfer operations to the State of New Mexico 
as part of a broader effort to redirect funding to meet otherwise 
``higher priority'' federal responsibilities of the NFH system. In 
response BIA proposed that FWS transfer funding for the Mescalero NFH 
to BIA for the purpose of the BIA sustaining operations of the facility 
until a contract transferring the facility to the Mescalero Apache 
Tribe could be finalized. However, at Congressional direction, the FWS 
continued to operate the facility.
    In 1999, a fire burned the watershed above the Mescalero NFH 
resulting in flooding and mudslides causing damage to the hatchery 
grounds, and killing many trout. In addition, FWS lack of adequate 
operational and maintenance funding over the years caused certain 
physical problems such as high radon levels in the hatchery buildings, 
high nitrogen levels in the water, hard water that resulted in 
formation of kidney stones in older fish, and cracking raceways and 
buildings caused by unstable soil.
    At the request of FWS, the Mescalero Apache Tribal Council agreed 
to FWS's proposal ``to temporarily suspend operations'' of the facility 
so that the FWS could address these deteriorating conditions. In 
November 2000, FWS suspended operations at the Mescalero NFH, but 
rather the repairing the facility as it had pledged to do, FWS decided 
to permanently close the hatchery. FWS stripped the facility of all 
equipment and most of the fixtures, reassigned personnel and 
reprogrammed $392,400 appropriated specifically for the Mescalero NFH 
to address other Service program priorities.
    The Tribe has since terminated the lease with the FWS and has been 
working to resume operations of the facility under Tribal control and 
management, in a concerted effort with the affected Southwest Indian 
Tribes that had received fish from the Mescalero NFH. Specifically, our 
Tribe along with the other affected Tribes in the Southwest have 
organized the Southwest Tribal Fisheries Commission (SWTFC) as a long-
term approach and strategy for assuming primary authority and 
responsibility for stocking and managing Tribal waters in the 
Southwest. Our Tribe entered into a Public Law 93-638 self-
determination contract with the BIA to organize the SWTFC., This 
approach fulfills the congressional goal of Tribal contracting of 
related resource management functions, operations and programs without 
diminishing the Department's responsibility to protect the resources 
and sovereignty of the affected Tribes.
    The combined efforts of the Southwest Tribes through the SWTFC with 
the goal of economic self-sufficiency supports the diversification of 
tribal economies, an endeavor that will not only benefit the 
reservations but also the surrounding regions and the entire state. A 
key component to the Tribes efforts through the SWTFC is the successful 
operation of the Mescalero fish hatchery, and the Williams Creek/
Alchesay program on the White Mountain Apache Reservation.

                             CURRENT STATUS

    The Tribe secured a grant from the Economic Development 
Administration (EDA) in the Department of Commerce to develop a 
business plan for the operation and construction of the hatchery. New 
Mexico State University (NMSU) College of Business Administration is 
assisting the Tribe with this business plan. The Tribe's fisheries 
consultant, FishPro, Inc., based in Santa Fe, New Mexico is providing 
the technical and scientific expertise in this process. The business 
plan will include the goals and objectives of the project and the study 
will provide an in-depth analysis of the facility, the water supply, 
permitting requirements, schematic design work and estimated 
construction costs. The study will also provide an examination and 
analysis of the marketing conditions as well as financial, accounting 
and management plans. In this process, the Tribe is working with the 
SWTFC to ensure that the needs of the affected Southwest Tribes are 
included in the planning and development process.
    The business plan is scheduled to be completed by the end of August 
2003 and will be the justification to obtain construction funding from 
the EDA. The Tribe will complete the final design work and may proceed 
with a design/build-out approach. The Tribe is aiming for early Spring 
2004 to beginning raising fish and resuming operations at the facility.

                         USE OF APPROPRIATIONS

    Based on our current course, the Tribe estimates that we will need 
$250,000 to cover operational costs for the remaining part of fiscal 
year 2004 after the construction is completed. The Tribe will use the 
funds for hiring and training of staff prior to commencement of 
operations, as well as purchasing of supplies, equipment, and 
conducting ``dry runs'' in preparation for operations. The Tribe will 
also be working with NMSU, SWTFC, FWS, and BIA to increase our capacity 
and ensure the success of this project.

                               CONCLUSION

    In the past, Congress vested funding for these endeavors with the 
BIA, and then with the FWS. Due to competing policies and funding 
priorities, the Mescalero NFH fell into disrepair and eventually closed 
causing hardship to the Mescalero Apache Tribe and the many other 
Tribes that relied on the facility. By contrast, our Tribe has a long 
record of economic success and management capability, and we are 
prepared to assume the primary role in the management and control of 
the facility, as intended by Congress. In accordance with the 
Government-to-Government relationship the Tribes have with the Federal 
Government, we will also be working with the federal agencies on 
building our capacity to conduct these activities. To assist us in 
achieving our goals of Tribal economic development and self-
sufficiency, we need the funding to resume operations of this important 
facility.
    Thank you for the opportunity to present this written testimony. 
For additional information contact: Sara Misquez, President, Mescalero 
Apache Tribe at (505) 464-9969 or the Tribe's Washington D.C. counsel 
Shenan Atcitty at (202) 457-7128.

                                 ______
                                 
          Prepared Statement of the Narragansett Indian Tribe

    As Chief Sachem, Matthew Thomas, of the Narragansett Indian Tribe, 
located near Charlestown, Rhode Island, I would like to submit these 
written remarks concerning the fiscal year 2004 BIA and IHS 
Appropriations. Our tribe operates more than a dozen BIA-funded 
programs serving our more than 2,600 members as well as a comprehensive 
health program funded by the IHS including a 5,000 square foot 
outpatient health clinic. We are proud of the accomplishments we have 
made over the years and look forward to a day when we are less 
dependent on Federal appropriations to finance the basic governmental 
services we provide. Despite many efforts, we lack reliable alternate 
resources to finance the growing needs of our Tribe. Federal 
appropriations remain critical to the health and well being of our 
members. We seek increases to the IHS appropriation, the BIA's Indian 
Country Law Enforcement Initiative, and the BIA Tribal Priority 
Allocation (TPA), which funds our tribally operated programs which we 
perform under a Public Law 93-638 self-determination contract.
    We seek increased appropriations for law enforcement, education, a 
daycare center, and social services.

              LAW ENFORCEMENT--($559,000 INCREASE SOUGHT)

    The Narragansett Indian Tribe seeks to hire four more patrol 
officers and one dispatcher to provide quality law enforcement services 
to the tribe and funds to cover a 10  40 trailer which presently 
houses our police department. At the present time our goal is to 
provide 24-hour law enforcement services to the reservation. Due to 
lack of manpower, vacations and sick leave, it is not being 
accomplished. Through a Justice Department COPS grant and reprogramming 
of our TPA funds we have a law enforcement department of 1 Police 
Chief, 1 Lieutenant, 1 Sergeant, 1 dispatcher and 5 tribal police 
officers. All Tribal Officers are also commissioned Deputy Special 
Officers of the Bureau of Indian Affairs.
    The Narragansett Indian Tribal Police patrol approximately 1,944 
acres of Trust and Reservation land and another 399 acres of fee land 
all of which has buildings plus living quarters and other facilities on 
the same. Presently, there are five tribal occupied houses on the 
reservation. Within the next few months there will be another five 
units. HUD has also approved the renovation of another 12 units, plus 
the addition of 38 more units within the next three years. These units 
will house approximately 180-200 tribal elders and members. This 
project is all on Narragansett Indian land, which will require 
additional Tribal Police coverage during renovation and construction. 
Furthermore, the location of the Tribe's land in the midst of a densely 
populated area creates unique enforcement and safety issues that are 
not common elsewhere. History has shown all too clearly that the Tribe 
cannot rely on the local communities to place a priority on 
safeguarding the interest of Tribal members or Tribal lands.
    At the present time, the Narragansett Tribal Police has one 
dispatcher to cover the busy daytime hours. In 1999, the Narragansett 
Tribal Police handled 91 incidents; in 2002 the Department handled 376 
incidents. This number represents a 300 percent increase. Therefore, 
another dispatcher is needed for the evening hours.
    Despite a concerted effort by the Tribe, the State Police and the 
Town of Charlestown have not agreed to enter into a MOU (Memorandum of 
Understanding) concerning public safety issues, which place a greater 
burden on our existing Tribal Police Department.
    Congress has long recognized that if Indian Tribes are to improve 
reservation conditions they must first have in place the necessary 
infrastructures which include adequate law enforcement services, basic 
human services, roads, safe water and waste disposal systems. Congress 
has long recognized that only when these are in place are tribes ``in 
the best position to implement economic development plans, taking into 
account the available natural resources, labor force, financial 
resources and markets''. S. Rep. 274, 100th Cong, 4 (1987) we encourage 
congress to put teeth behind these words by supporting increases in BIA 
Indian Country Law Enforcement Initiative in a manner that will assist 
us to increase our ranks to a more appropriate level. The three-year 
costs of the 4 officers with uniform and equipment will be $480,000 and 
the dispatcher for a three year period with uniform will be $79,000 for 
a total of $559,000.

                          EDUCATION DEPARTMENT

    The education department is comprised of the following bureau 
programs; Adult Education, Higher Education and Johnson O'Malley 
Program.

             ADULT EDUCATION--($78,971.00 INCREASE SOUGHT)

    The objective of the adult education program is to provide the 
adult Tribal members with the opportunity to become employable, 
productive and self-sufficient by attaining a higher level of 
education. This objective can be obtained by collaborating with other 
Tribal programs such as Adult Vocational Training, Social Services, and 
Higher Education. To date, the funds provided assist with 
administrative costs, ABE/GED assistance, educational enhancement and 
cultural preservation, which include language, dance and history 
classes. Ideally, the cultural component of this program would thrive 
with its own budget. Due to the level of funding received we are only 
meeting 25 percent of the Tribal community needs at best. We would like 
to double our existing budget to better meet the needs of our ever-
growing Tribal community and to enhance the services provided and 
enrich lives.

             HIGHER EDUCATION--($81,150.00 INCREASE SOUGHT)

    The objective of the higher education program is to provide 
assistance to the Narragansett Indian students in the attainment of a 
college degree at the bachelors and graduate level (based on the unmet 
financial need of each student). The department received 46 requests 
for financial assistance during the Fall 2002 and Spring 2003 
semesters. The unmet financial need for these terms was $196,00.00. To 
date, bachelor students have received minimal assistance and graduate 
students cannot be assisted because we lack the necessary funds. We 
estimate that this program is meeting roughly 25 percent of our 
students' need. We would like to double the budget for this program to 
address the unmet need and to provide greater opportunities for our 
members to fulfill their higher education goals.

             JOHNSON O'MALLEY--($58,094.00 INCREASE SOUGHT)

    The Johnson O'Malley program provides services to meet the unique 
and special needs of the Narragansett Indian Children, which are not 
met by schools and or other departments/agencies. The department 
presently operates a reservation based homework center and will be 
employing two (2) part-time tutors and one (1) cultural coordinator. 
These positions are being advertised based on responses from the 2002 
JOM Needs Assessment. To date, the funding received makes it impossible 
to meet the needs of our 768 eligible students and the goals and 
objectives of the contract. Our overall goal is to afford the children 
of the Tribe with opportunity to receive a quality education. We would 
like to double the budget for this program.

DAYCARE CENTER--($48,868.00-DISCRETIONARY; $52,307-MANDATORY, TOTALING 
                              $101,175.00)

    The Narragansett Indian Tribe is anticipating a Summer 2003 opening 
for its Hand in Hand Day Care Center. The Center will be able to serve 
31 Tribal Children and the activities and projects will be child 
directed and culturally based to enhance their learning environment. 
The Tribe continues to receive a Child Care Development Fund grant 
annually. To date, the funding received will barely support the 
operational costs. We will need more funding to qualify for State 
licensure. We plan to meet or exceed State requirements in order to be 
certain that our children are in a quality childcare center. We would 
like to double our budget for this important program.

    NARRAGANSETT INDIAN HEALTH CENTER--($403,603.00 INCREASE SOUGHT)

    The Narragansett Indian Health Center (NIHC) has been in operation 
for six years. NIHC provides both direct onsite clinical services and 
Contract Health Services through local area providers. Our patient 
demographics remain the same as last year. Many members are unemployed, 
underemployed, or seasonally employed. As a result, most do not have 
the means for private insurance or are not eligible for state and 
federal insurance programs. This limits third-party billing revenue 
that could be used to supplement the budget.
    The center employs one full-time Physician, an internist placed 
here through an MOA with IHS. The full-time Nurse Practitioner position 
is still vacant, despite numerous attempts to hire a qualified 
candidate and we are still advertising to fill vacated nursing 
positions. Lack of funding has made it difficult to recruit for and 
staff many of these vacancies. The result is significant unmet need, 
particularly, in the areas of pediatric care, OB/GYN services. Further, 
insufficient staff and limited services add to tribal program expenses, 
since we must contract out for services that we could otherwise provide 
on-site with additional space.
    To address some of our unmet needs, the center needs a full-time 
Medical Social Worker, a part-time Clinical Psychologist, two 
additional full-time Outreach Workers, a part-time Podiatrist, Lab 
Technician, X-ray Technician, and a part-time Dental Hygienist. 
Further, we need funds to provide minimum optometry services, dental 
services, and other specialty clinic care on an in-house subcontracted 
basis.
    In fiscal year 2001, NIHC applied for the Small Ambulatory Program 
(SAP) Grant but we were not awarded the funding. Our application for 
the fiscal year 2002 SAP, also, was not awarded. It was our 
understanding that Congress intended the grant to fund small tribes; 
however, only large tribes have received funding, to date. Please note 
that while no eastern area tribes have been funded, we just received a 
letter from IHS officials asking if we intend to resubmit our 
application for the fiscal year 2003 SAP. We are responding 
affirmatively.
    The Narragansett Indian Tribe applied for the grant as a means to 
offer our community a ``one stop shopping'' concept for its health care 
needs-providing all services under one umbrella of a centralized health 
and human services facility. The existing building is too small to 
house the health programs currently offered and leaves no room for the 
future expansion of services that are necessary to meet tribal needs. 
An example of this occurred during a recent emergency when it became 
clear that stretchers could not fit around hallway corners. Further, 
there is no place for doing emergency Cardio-Pulmonary Resuscitation 
(CPR) other than a conference room table or the floor. Exam rooms are 
too small to accommodate three people comfortably and staff office 
space is crammed. The current space limitations also do not allow for 
the incorporation of the Indian Child Welfare and Social Services 
Departments into our concept of a centralized health and human service 
facility. This results in unnecessary transportation hardships on many 
of our tribal members, as they have to travel to another town to access 
these services. Since there are currently no funds appropriated for the 
SAP grant in fiscal year 2004, we urgently request your support of our 
application for the fiscal year 2003 grant.
    In addition to the funding necessary to replace or expand our 
existing facility, we are requesting an increase in our IHS program 
funds of $403,603.00. Among other obstacles, Contract Support Costs 
shortfalls and insufficient funding continue to impact program 
operations. The Tribe will use additional funds to hire the necessary 
staff to provide a range of services that are severely lacking in our 
community.

         SOCIAL SERVICES DEPARTMENT--($385,000 INCREASE SOUGHT)

    The Social Service Department operates a number of programs to 
provide services for eligible tribal members who reside in Washington 
County, Rhode Island, the designated service delivery area for the 
Narragansett Indian Tribe. Services provided include General 
Assistance, Child Welfare Assistance, Adult Care, Miscellaneous 
Assistance, Family/Community Services, Emergency Assistance-food, 
clothing, housing/shelter-Heating Assistance, and referrals to and 
assistance with alternate resource agencies, when necessary. The 
objective of the Social Services Department is to assist in the 
enhancement of everyday living for eligible tribal members and to help 
build and strengthen the dignity and self worth of the tribal members 
so they can obtain self-sufficiency.
    To date, the Social Services Department remains understaffed. Two 
full-time caseworkers and an administrative assistant staff the 
department. Under the oversight of the Director of Heath and Human 
Services, the staff is responsible to deliver all aspects of social 
welfare programs for more than 1300 tribal members residing in 
Washington County. Insufficient staff and funding result in much unmet 
need among our tribal members, since those factors restrict outreach 
efforts and make proactive activities essentially nonexistent. With out 
additional full-time caseworkers, the tribe can better address the 
tribal community's unmet needs. The tribe seeks $150,000 additional 
recurring program dollars to hire staff and to expand program services.
    The Tribe needs an additional $235,000 to incorporate the Indian 
Child Welfare and Social Services Departments into the Narragansett 
Indian Health Center. This is in our efforts to provide ``one-stop 
shopping'', centralized health and human services facility for our 
tribal community. That will decrease the transportation burdens placed 
on both tribal members and tribal programs' transportation services.
    Our efforts to increase funding for the Social Services Department, 
through grant writing and other means have been unsuccessful. It has 
come to our attention that funding for that BIA program is based on the 
number in the tribal population and the poverty index. Our current 
funding is based on population figures taken from the 1990 census. The 
Tribe needs Congress to authorize the use of the 2000 census figures as 
a means to determine funding levels, which will reflect more closely 
the appropriations needed to fulfill our social services obligations to 
our tribal community.

                                 ______
                                 
    Prepared Statement of the National American Indian Court Judges 
                              Association

    On behalf of the National American Indian Court Judges Association 
(NAICJA), I am pleased to submit this testimony on the fiscal year 2004 
budget for the Interior Department's funding for the Indian Tribal 
Justice Act and Tribal Courts (under the Tribal Priority Allocations). 
We request $73.4 million for Tribal Courts.
    The National American Indian Court Judges Association (NAICJA), 
www.naicja.com, was incorporated in 1969. NAICJA is the largest 
organization representing Tribal Judges and Tribal Courts in the United 
States. The mission of NAICJA is to strengthen and enhance all Tribal 
justice systems through improvement and development of Tribal Courts 
and Tribal Court Judges.

INTERIOR DEPARTMENT FUNDING INDIAN TRIBAL JUSTICE ACT AND TRIBAL COURT 
                                FUNDING

    Full Funding for the Indian Tribal Justice Act; $58.4 million.--
NAICJA respectfully requests that, for the first time, Congress 
appropriate full funding for Indian Tribal Justice Act: NAICJA 
recommends a funding level of $58.4 million. On December 21, 2000, the 
106th Congress re-affirmed the Congressional commitment to provide this 
increased funding for tribal justice systems when it re-authorized the 
Indian Tribal Justice Act for seven more years of funding at a level of 
$58.4 million per year (see Public Law 106-559, section 202). NAICJA 
strongly supports FULL FUNDING of the Indian Tribal Justice Act as 
promised in 1993. NAICJA requests funding at a much higher rate since 
the number of tribal courts and their needs have substantially 
increased since the Act was entered into law in 1993--nearly ten years 
ago.
    Tribal Courts--an additional $15 million (under the Tribal Priority 
Allocations Account).--NAICJA strongly supports increased funding for 
Tribal Courts to a level of $15 million under the Tribal Priority 
Allocations (TPA). This minimal increase represents only a minimal 
first step towards meeting the vital needs of tribal justice systems. 
It is important to note that funding has steadily decreased since the 
passage of the Indian Tribal Justice Act. The needs (as recognized by 
Congress in the enactment of Public Law 103-176 and re-affirmed with 
the enactment of Public Law 106-559), however, have only been 
compounded with the passage of time, the increase in tribal courts (170 
to approximately 300), the increase of caseloads, population growth, 
and rise in crime rate in Indian country.
    Tribal Courts must deal with a wide range of difficult criminal and 
civil justice problems on a daily basis, including the following:
  --The crime rate, especially the violent crime rate, has increased 
        substantially in Indian Country. (At the same time, it has been 
        declining nationally.) Tribal court systems are grossly under-
        funded to deal with increasing criminal justice problems.
  --Number/complexity of tribal civil caseloads have also been rapidly 
        expanding. Tribal Courts are expected to deal with the same 
        complex civil cases as state and Federal Courts with grossly 
        less funding.
  --Congress acknowledged the need for better funded Tribal Court 
        systems when it enacted the Indian Tribal Justice Act in 1993. 
        Congress specifically found that ``tribal justice systems are 
        an essential part of tribal governments and serve as important 
        forums for ensuring public health and safety and the political 
        integrity of tribal governments'' and ``tribal justice systems 
        are inadequately funded, and the lack of adequate funding 
        impairs their operation.''
  --The Indian Tribal Justice Act promised more than $58 million per 
        year in additional funding for Tribal Court systems starting in 
        fiscal year 1994. Tribal Courts have yet to see ANY funding 
        under this Act.
  --Since Congress enacted the Indian Tribal Justice Act, the needs of 
        Tribal Court systems have continued to increase, but there has 
        been no corresponding increase in funding for Tribal Court 
        systems. In fact, the Bureau of Indian Affairs funding for 
        Tribal Courts has actually decreased substantially since the 
        Indian Tribal justice Act was enacted in 1993.
    The vast majority of the approximately 300 Tribal court systems are 
located in rural communities. These Tribal justice systems face many of 
the same difficulties faced by other isolated communities, but these 
problems are greatly magnified by the many other complex problems that 
are unique to Indian country. In addition to the previously mentioned 
problems, Tribal justice systems;
  --lack sufficient jurisdiction over non-Indians
  --have complex jurisdictional relationships with Federal and state 
        criminal justice systems
  --have inadequate staffing for law enforcement
  --tend to be a great distance from the few existing resources outside 
        of the Tribe
  --face a lack of detention facilities
  --have a limitation of sentencing or disposition alternatives
  --lack of access to advanced technology
  --lack substance abuse testing and treatment options
    In most Tribal justice systems, 80-90 percent of the cases are 
criminal in nature and 90 percent of these cases involve the difficult 
problems of alcohol and/or substance abuse.

                      IMPORTANCE OF TRIBAL COURTS

    Tribal justice systems are the primary and most appropriate 
institutions for maintaining order in Tribal communities.

    ``Tribal courts constitute the frontline tribal institutions that 
most often confront issues of self-determination and sovereignty, while 
at the same time they are charged with providing reliable and equitable 
adjudication in the many and increasingly diverse matters that come 
before them. In addition, they constitute a key tribal entity for 
advancing and protecting the rights of self-government. . . . Tribal 
courts are of growing significance in Indian Country.'' (Frank 
Pommersheim, Braid of Feathers: American Indian Law and Contemporary 
Tribal Law 57 (1995)).

    Tribal Courts must deal with the very same issues state and Federal 
courts confront in the criminal context, including, child sexual abuse, 
alcohol and substance abuse, gang violence and violence against women. 
Tribal Courts, however, must address these complex issues with far 
fewer financial resources than their Federal and state counterparts. 
Judicial training that addresses the existing problems in Indian 
Country, while also being culturally sensitive, is essential for Tribal 
Courts to be effective in deterring and solving crime in Indian 
communities.

              INADEQUATE FUNDING OF TRIBAL JUSTICE SYSTEMS

    There is no question that Tribal justice systems are, and 
historically have been, under-funded. The 1991 United States Civil 
Rights Commission found that ``the failure of the United States 
Government to provide proper funding for the operation of tribal 
judicial systems . . . has continued for more than 20 years.'' The 
Indian Civil Rights Act: A Report of the United States Civil Rights 
Commission, June 1991, p. 71. The Commission also noted that 
``[f]unding for tribal judicial systems may be further hampered in some 
instances by the pressures of competing priorities within a tribe.'' 
Moreover, they opined that ``If the United States Government is to live 
up to its trust obligations, it must assist tribal governments in their 
development . . .'' More than ten years ago, the Commission ``strongly 
support[ed] the pending and proposed congressional initiatives to 
authorize funding of tribal courts in an amount equal to that of an 
equivalent State court'' and was ``hopeful that this increased funding 
[would] allow for much needed increases in salaries for judges, the 
retention of law clerks for tribal judges, the funding of public 
defenders/defense counsel, and increased access to legal authorities.''
    With the passage of the Indian Tribal Justice Act, 25 U.S.C. 
Sec. 3601 et seq. (the ``Act''), Congress found that ``[T]ribal justice 
systems are an essential part of tribal governments and serve as 
important forums for ensuring public health, safety and the political 
integrity of tribal governments.'' 25 U.S.C. Sec. 3601(5). Congress 
found that ``tribal justice systems are inadequately funded, and the 
lack of adequate funding impairs their operation.'' 25 U.S.C. 
Sec. 3601(8). In order to remedy this lack of funding, the Act 
authorized appropriation of base funding support for tribal justice 
systems in the amount of $50 million for each of the fiscal years 1994 
through 2000. 25 U.S.C. Sec. 3621(b). An additional $500,000 for each 
of the same fiscal years was authorized to be appropriated for the 
administration of Tribal Judicial Conferences for the ``development, 
enhancement and continuing operation of tribal justice systems . . .'' 
25 U.S.C. Sec. 3614.
    Nine years after the Act was enacted into law, and even after 
reauthorization, no funding has been appropriated. Only minimal funds, 
at best, have been requested. Yet, even these minimal requests were 
deleted prior to passage. Even more appalling is the fact that BIA 
funding for Tribal Courts has actually substantially decreased 
following the enactment of the Indian Tribal Justice Act in 1993.

                               CONCLUSION

    Tribal justice systems are the primary and most appropriate 
institutions for maintaining order in tribal communities. They are key 
to tribal economic development and self-sufficiency. Any serious 
attempt to fulfill the federal government's trust responsibility to 
Indian Nations must include increased funding and enhancement of Tribal 
justice systems. We respectfully request that Congress consider the 
funding increases.
    We welcome the opportunity to comment on the Interior Department's 
fiscal year 2004 Budget Request for the Indian Tribal Justice Act and 
Tribal Courts (under the Tribal Priority Allocations).
    Please contact Judge Eugene White-Fish, President, NAICJA at (715) 
478-7255, or NAICJA Executive Director Chuck Robertson, at (605) 342-
4804 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="197778707a7378596b6c6a7174766b7c377a7674">[email&#160;protected]</a> with questions or comments. Thank you.

                                 ______
                                 
                Prepared Statement of the Navajo Nation

    The Navajo Nation welcomes this opportunity to provide 
recommendations on the proposed federal fiscal year 2004 budget for the 
Interior, including the Indian Health Service and the Bureau of Indian 
Affairs requested budgets. The Navajo Nation requests that:
    The Appropriation Subcommittee not appropriate funding for the 
Department of the Interior's proposed BIA Reorganization.--The Navajo 
Nation is opposed to the Interior's proposal due to lack of tribal 
consultation. The Interior has yet to submit a formal proposal to 
Congress, the Navajo Nation or Indian tribes to consult and comment on.
    The Appropriation Subcommittee not appropriate funding for the 
Proposed BIA ``Privatization'' School Initiative.--In the President's 
budget, increased funds were requested to make BIA schools attractive 
for private educational companies, yet the Navajo Nation and other 
tribes have repeatedly asked the BIA to increase funds for its BIA 
schools but have been constantly denied. The BIA has yet to have 
consultation to fully discuss tribal education plans.
    The Navajo Nation requests fiscal year 2004 appropriations in the 
amount of:
    Navajo Indian Irrigation Project (NIIP).--$30,000,000. The Navajo 
Nation requests full funding for NIIP. NIIP construction is a legal 
obligation of the federal government based on statute.
    Navajo Southwest Judicial Complex.--$20,000,000. Current court 
facilities built in the 1950's are dilapidated. This funding would 
enhance self-determination and encourage economic self-sufficiency.
    Crownpoint Institute of Technology (CIT).--$1,500,000. CIT is a 
critically important educational institution that reduces unemployment 
and attracts businesses to the Navajo Nation.
    Southwestern Indian Polytechnic Institute (SIPI).--$5,730,000. SIPI 
is one of two fully accredited universities in the Bureau's education 
system.

                         INDIAN HEALTH SERVICE

    Contract Support Cost Grants.--$20,000,000. Contract support costs 
are necessary to fund the Navajo Nation's self-administered healthcare 
to the Nation's approximately 250,000 citizens.
    Facilities.--The Navajo Nation supports the President's request for 
$4,000,000 for Fort Defiance Hospital Staff Quarters; $21,573,000 for 
the Pinon Health Center; and $30,000,000 for the Red Mesa Health 
Center.

                        BUREAU OF INDIAN AFFAIRS

    BIA Roads Maintenance.--$32,100,000. Tribes are in need of solid 
infrastructure and the funds to maintain existing roads and new road 
construction.
    Law Enforcement.--$172,663,760. The Navajo ratio of 0.3 police 
officers per 1,000 population is dangerously below the necessary 
minimum rural-setting ratio of 3 officers per 1,000 population.
    Indian Police Academy.--$2,545,530. The Indian Police Academy 
provides basic and advanced law enforcement training for Bureau law 
enforcement and detention officers.
    Justice Systems.--$10,000,000. Congress passed the Indian Tribal 
Justice Act of 1993, but has never provided appropriations for adequate 
based funding for tribal courts.
    Tribal Courts.--$18,292,720. Tribal courts have long been under 
funded and under developed. The Navajo Nation is focusing on 
strengthening its courts as a means for creating safe communities and 
building infrastructure for economic development.
    Tribal Education Department (TEDs).--$1,000,000. Congress 
authorized appropriations for the development of TEDs in Public Law 95-
561, but has never appropriated this initiative.
    School Construction.--$131,400,000. The Navajo Nation's request 
supports a serious commitment to building Indian schools, of which the 
Navajo Nation has a majority of BIA schools slated for replacement.
    Facilities Improvement and Repair (FI&R).--$165,000,000. The Navajo 
Nation supports funding that will eliminate this backlog of repairs at 
these schools.
    Education Facilities Operations.--$74,900,000. The Navajo Nation 
does not support the President's request of $57,687,000. If the 
Administration requested full funding, then schools would not have to 
cover operations from funds appropriated for instruction.
    Minor Improvement and Repair (MI&R).--$17,747,491, of which the 
Navajo Nation requests $3,000,000 for the Navajo Area. The Navajo 
Nation has the majority of BIA education facilities to maintain.
    Indian School Equalization Program (ISEP).--$361,000,000. This 
amount will at least cover the required pay cost adjustments and 
prevent actual declines in the instructional program. However, since 
education is a priority of the President and the Congress, it is 
disappointing that there is not a significant increase in this line 
item.
    ISEP-Pro Ajustments.--$6,072,250. This amount would allow tribes to 
plan and assume greater control of their educational programs.
    Administrative Cost Grants (ACG).--$61,400,000. The Navajo Nation's 
request is consistent with the BIA's stated initiative to encourage 
tribes to contract/grant the remaining BIA schools.
    Student Transportation.--$55,000,000. Navajo Nation's request would 
help to fully implement President Bush's education policies, as funds 
for Indian student transportation is a must.
    Family and Child Education Expansion (FACE)--$15,800,000. The 
Navajo Nation supports the FACE program as it has done much to 
facilitate learning on the Navajo Nation.
    New Schools and Program Expansion.--The Navajo Nation requests that 
the Appropriations Committee lift the 1992 Appropriation Act moratorium 
on BIA program expansion and new BIA schools so that the Navajo Nation 
may better serve its students.
    Johnson O'Malley Program (JOM).--$18,310,910. The JOM Program 
provides funds to supplement the regular school program. JOM programs 
are used for tutoring, academic support, cultural activities, summer 
education programs and after school activities. Navajo Nation provides 
supplemental funding to provide special services to meet the unique and 
specialized needs of over 52,000 Native American students through 36 
subcontracts in public schools on or near the Navajo reservation in the 
states of Arizona, New Mexico, and Utah.
    Scholarship Funding.--$30,000,000, of which, $1,223,397 should be 
directly allocated to the BIA Navajo Area. The Navajo Nation supports 
President Bush's committed to education, and asks for a strong 
commitment to assist Indian.students in Higher Education.
    Adult Education Scholarships.--$3,210,000. While the Administration 
may emphasize elementary and secondary education, the Navajo Nation 
still believes in including all of its citizens to gain education 
opportunities.
    Special Higher Education Scholarships.--$1,605,000. There must be 
an emphasis on adults achieving higher education. BIA Scholarship 
provides supplemental financial assistance to Indians for graduate 
level study.
    Tribally Controlled Community Colleges (TCCCs).--$44,940,000 of 
which, $40,029,000 would be for Operating Grants. TCCCs encourage 
tribal members to attend school, obtain new skills and a better quality 
of life.
    Environmental Projects/Assessments/Inspections/Abatement.--
$12,466,570. Many BIA schools have asbestos in their facilities and a 
reduction in this area does not show commitment to have healthy 
environments for children. Navajo has schools listed on the BIA 
priority list.
    Social Services under Tribal Priority Allocations.--$33,299,390.
    Indian Child Welfare Act.--$12,460,150. Protecting Navajo children 
is a duty for creating healthy families and strong communities. 
Reducing these funds does neither.
    Housing Improvement Program (HIP).--$35,310,000. The Navajo Nation 
strongly encourages full funding of HIP to maintain safe living 
environments for Indian people living in harsh and economic deprived 
environments.
    Public Safety Minor Improvement and Repair (MI&R).--$857,070. The 
Navajo Area has many facilities that need immediate repair to keep its 
Public Safety facilities safe. The Navajo Area receives the lowest of 
the BIA regions and is requested at only $50,000.
    Bennett Freeze Area Rehabilitation.--$20,000,000. As a result of 
the Bennett Freeze, construction and development in the western portion 
of the Navajo Nation has been impossible for nearly 40 years. During 
these 40 years, Navajo families living in the Bennett Freeze area could 
not take advantage of federal, state or tribal programs. The area is in 
severe need of these development funds.
    Office of Navajo and Hopi Relocation.--$30,000,000. ONHIR received 
$15 million in fiscal year 2001 and again in fiscal year 2002. Many 
Navajos continue to wait to receive housing and other promised benefits 
under the Navajo-Hopi Settlement Act. In order to accelerate the 
provision of such benefits, the Navajo Nation requests that this 
federal agency's budget be doubled to $30 million.
    Relocation Act Study.--$1,000,000. The relocation. law has resulted 
in the dislocation of 10,000 Navajos, dramatically impacted local 
Navajo and non-Indian communities, and cost the federal government 
approximately $400 million. The time has come for a comprehensive study 
of the effects of the relocation law, with a focus on long-term impacts 
that may have to be mitigated over the next 20 years.
    HPL Community Center.--$1,000,000. Due to construction and 
development freezes, Navajo families who reside on the Hopi Partitioned 
Lands, have never had any facilities developed to support their 
community. This funding would facilitate badly needed community 
services.
    Water Management, Planning, and Pre-Development--$8,615,640. To 
assist the Navajo Nation in effectively managing its water, especially 
during these times of drought in order to stabilize water usage in the 
west.

     BUREAU OF RECLAMATION (BOR)--BUREAU OF RECLAMATION EFFICIENCY 
                           INCENTIVES PROGRAM

    Navajo-Gallup Water Supply Project.--$500,000. This amount would 
enable the BOR to complete the planning report and the environmental 
impact statement to continue this Project. The Project will create the 
infrastructure necessary to provide critically needed water to tribal 
and non-tribal communities in New Mexico.
    Ganado Water Conservation and Management Project.--$350,000. This 
amount will allow irrigators to have access to water from the Ganado 
Reservoir.
    Navajo Nation Drought Relief Within New Mexico--$1,340,000. This 
would allow BOR Emergency Drought Relief Act funds for Spencer Valley 
(Manuelito Chapter) for a conveyance line ($90,000); at Torreon Chapter 
for a new water source ($450,000); and at Baca/Haystack Chapter for 
water source and storage ($800,000).
    Navajo Nation Drought Relief Within Arizona.--$2,000,000. BOR 
Emergency Drought Relief Act funds for Teec Nos Pos Chapter for a new 
water source ($470,000); Fort Defiance Chapter for a replacement well 
and storage ($250,000); Tuba City Chapter for water source and storage 
($380,000); and Cameron-Grey Mountain for water source and storage 
($900,000).
    Navajo Mountain Public Water System.--$4,000,000. The Navajo 
Mountain Public Water System is inadequate to provide for the needs of 
the community and its schools as it depends on springs that are 
unreliable during dry periods. Last year the Navajo Nation had to 
resort to hauling water more than 40 miles to provide drinking water 
for the community and resulted in the closing of the schools during the 
summer months. The proposed project would cost approximately $6 
million. Programmatic funding committed through the U.S. EPA and BIA 
totals $2 million.

                    BUREAU OF LAND MANAGEMENT (BLM)

    Dine Power Authority (DPA).--$1,500,000. This would allow DPA to 
complete archaeological, biological and cultural studies, and related 
mitigation measures, within the right of way corridor on Navajo lands 
for the Navajo Transmission Project.

                                 ______
                                 
               Prepared Statement of the Nez Perce Tribe

    The Nez Perce Tribe requests the following funding amounts for 
fiscal year 2004, which are specific to the Nez Perce Tribe:
  --$100,000 through the United States Department of the Interior, 
        Bureau of Indian Affairs, Fish and Wildlife Program to support 
        its fisheries efforts relating to consultation on hydrosystem 
        operations, Endangered Species restoration, harvest monitoring, 
        conservation enforcement, and program administration.
  --$600,000 (request includes $450,000 as appropriated in fiscal year 
        2003, for continuing efforts plus $150,000 increase for 
        expanded needs as part of an overall fiscal year 2004 program 
        request of $1.16 million appropriation request) through the 
        United States Department of the Interior, Fish and Wildlife 
        Service, Threatened and Endangered Species Program for 
        continued operation of the Nez Perce Tribes gray wolf recovery, 
        monitoring, research and outreach programs in Idaho. This 
        $600,000 request is part of a larger appropriation package 
        totaling $1.16 million, prepared by the Nez Perce Tribe after 
        initial discussions with the State of Idaho Office of Species 
        Conservation, in order to create a wolf recovery program in the 
        state of Idaho, that anticipates probable delisting of wolves 
        from the Endangered Species list, by adequately funding the 
        coordinated and shared responsibilities of the Nez Perce Tribe, 
        State of Idaho, and Fish and Wildlife Service.
    The Tribe urges support for the full and adequate funding of tribal 
programs through the Department of Interior fiscal year 2004 budget, 
with the specific requests discussed below.

 NEZ PERCE TRIBE DEPARTMENT OF FISHERIES RESOURCE MANAGEMENT FUNDING: 
                             BIA, $100,000

    The Nez Perce Tribe requests $100,000 be added to its Bureau of 
Indian Affairs Public Law 93-638 contract for enhanced capabilities in 
its fish recovery effort.
    The Nez Perce Tribe has one of the largest and most successful 
tribal fisheries management programs in the United States. We take our 
challenge of restoring the fisheries resources in Idaho, northeast 
Oregon, and southeast Washington very seriously. The Tribe has brought 
back coho salmon from extinction, is utilizing hatchery supplementation 
to return ESA listed spring, summer, and fall Chinook and restore these 
populations to harvestable levels, and is the single-most active 
habitat restoration entity in the Snake River Basin. We employ 150 to 
200 people, most of which are tribal members, and maintain four offices 
in Oregon and Idaho. Principle program areas include Administration, 
Research, Habitat, Conservation Enforcement, Resident Fish, Harvest, 
and Production. The Tribe's Fisheries Management program is focused on 
restoring and maintaining an abundance of fish populations within the 
Tribe's treaty lands in order to provide for environmental and cultural 
health and meet recreational, commercial and subsistence fishing needs.
    The Nez Perce Tribe's Fisheries Management Program is built upon 
the extremely strong treaty rights retained by the Tribe. Among other 
things, the treaties guarantee the right of the Tribe to harvest fish 
at virtually every single river and stream flowing through the lands 
ceded to the United States and at all usual and accustomed areas. The 
Tribe's ceded lands sit astride the largest and best salmon habitats 
remaining in the northwest--the Snake River Basin. This is the 
``breadbasket'' of the Columbia, although now, most salmon runs 
returning here are listed as threatened or endangered under the 
Endangered Species Act (ESA). Rather than continuing with this status 
quo, and having the actualization of treaty rights depend upon what the 
federal and state fisheries managers could provide, the Tribe initiated 
its own program.
    The Fisheries Program relies on a host of funding sources, 
including the Lower Snake River Compensation Program, Bonneville Power 
Administration's Fish and Wildlife Mitigation Program, and the Pacific 
Coastal Salmon Recovery Fund initiative. In addition, the Tribe has 
sought opportunities to utilize its contracts as matching funds with 
various federal and private partners. However, these funding sources 
are very project specific and short-lived. The addition of appropriated 
dollars through the BIA is critical to funding overall management 
activities required for Program Administration, Harvest Monitoring and 
Conservation Enforcement. These programs are central to the Tribe's 
fisheries management responsibilities as established in the treaties 
and further delineated in litigation regarding implementation of 
hunting and fishing treaty rights.
    An increase in funding through the BIA is required to deal with 
these core management actions. For several years the salmon runs have 
returned in larger numbers and to many more streams than have occurred 
in the past. These larger returns are due to a number of factors, but 
importantly have responded to the Tribe's supplementation efforts using 
hatchery fish. As a result of the larger returns, tribal commercial and 
subsistence harvest activities and harvest opportunities for sportsmen 
are occurring over a much broader area of the ceded lands and the usual 
and accustomed fishing areas, and for longer periods of time. 
Consequently, costs associated with the central administration, 
enforcement, and harvest monitoring actions are similarly increasing. 
With increasing success come increasing responsibilities.
    Additionally, Tribes have never had access to federal aid in 
fisheries work through the Pittman-Robertson, Dingell-Johnson, and 
Wallop-Breaux Acts. These funds are derived from a federal tax paid on 
outdoor and sporting equipment. States are provided these funds to 
supplement their fish and wildlife programs for just such needs as 
identified in the Tribe's appropriation request. While tribal members 
pay taxes on the sale of certain sporting goods items, tribal 
governments do not receive any of the federal tax revenue.
    The requested fiscal year 2004 funding would support two staff 
positions in Administration, six in Harvest Monitoring and ten in 
Conservation Enforcement. Although the jobs are located in Idaho, work 
conducted by the positions occurs primarily in Idaho, but also in 
Washington and Oregon.
    The Nez Perce Tribe urges Congress to appropriate $100,000 through 
the United States Department of the Interior, Bureau of Indian Affairs, 
Fish and Wildlife Program to support the fisheries efforts of the Nez 
Perce Tribe.

  NEZ PERCE TRIBE'S CENTRAL IDAHO GRAY WOLF RECOVERY PROGRAM FUNDING: 
                            USFWS, $600,000

    The Nez Perce Tribe (Tribe) requests that Congress direct the U.S. 
Fish and Wildlife Service (Service) to allocate $600,000 for wolf 
recovery efforts by the Tribe, for tasks identified in a cooperative 
agreement between the Tribe and Service. The Tribe's fiscal year 2003 
appropriation for wolf recovery was $450,000. The Tribe is requesting 
an additional $150,000 above the fiscal year 2003 appropriated level of 
$450,000 for a total fiscal year 2004 program budget of $600,000. The 
Tribe anticipates using the additional funds to expand efforts of 
previous years to retain more staff; increase on-the-ground presence 
especially in areas of new or recent wolf activity; update the 
monitoring program to enable the Tribe to develop a methodology to 
continue to produce accurate estimates of population size using less 
intensive monitoring techniques; expand field operations especially 
focusing on documenting and radio collaring new packs and maintaining 
radio-collars in existing packs; acquire equipment; increase continuing 
reporting and information dissemination activities; hold informational 
public meetings in affected communities; document new packs; establish 
a system of special effort to notify landowners, grazing permittees, 
agencies, and others who have particular needs for the information 
gathered; and develop and deliver all maps and reports due per the 
existing cooperative agreement with the Service.
    The Nez Perce Tribe and the USDA APHIS Wildlife Service staff have 
been the primary entities responsible for the day-to-day recovery and 
management of wolves in Idaho. The Tribe has provided such services as 
monitoring wolves; providing information to agencies, organizations and 
the public; working with affected and interested parties to address 
concerns supporting the implementation of directed wolf research; 
assisting with resolution of wolf-livestock conflicts; and assisting 
Service's Law Enforcement personnel when requested. Yet, more effort is 
needed. The Idaho wolf population is growing in numbers and expanding 
into new geographic areas. Additional funding is needed to continue 
providing Recovery Program services to newly affected communities with 
the geographic expansion of the wolf population.
    The Tribe and the State of Idaho as represented by the Idaho Office 
of Species Conservation (OSC) submitted a joint appropriation request 
for fiscal year 2003 including $600,000 for the Tribe, $460,000 for OSC 
and $100,000 for the Service. The Tribe anticipated filing a similar 
joint federal appropriation request with the OSC for fiscal year 2004, 
but opted not to do so when the OSC asked the Tribe to limit its fiscal 
year 2004 request to only $400,000 this year, which is $50,000 less 
than the Tribe received in fiscal year 2003 and $200,00 less than the 
Tribe and OSC requested for the Tribe in fiscal year 2003. The OSC is 
requesting an increase of nearly $200,000 over fiscal year 2003 
appropriated levels, which would equal the $460,000 amount previously 
requested by OSC in fiscal year 2003. The Tribe supports the State of 
Idaho in its fiscal year 2004 request for increased federal 
appropriations for planned wolf management efforts as long as it is not 
at the expense of the Tribe's request for $600,000. To that end the 
Tribe has included a request for $460,000 for the OSC in the Tribe's 
fiscal year 2004 appropriation request package of $1.16 million. As 
respective fiscal year 2004 workloads between the Tribe and OSC have 
not changed considerably from fiscal year 2003, as outlined in the 
fiscal year 2003 and fiscal year 2004 appropriations requests, the 
Tribe feels strongly justified in requesting funding needs similar to 
those requested in fiscal year 2003, as does OSC.
    The Nez Perce Tribe continues to hold legal and contracted 
obligations to recover and manage wolves in Idaho pursuant to a 
cooperative agreement with the Service and a Service approved Tribal 
wolf management plan. Until such time as the tribal contractual 
obligations are changed through consensual efforts between the Tribe, 
OSC and Service, the Tribe needs full funding to carry out its 
contractual obligations. The OSC and the Tribe have agreed to continue 
with negotiations to develop and adopt an MOA outlining respective 
roles and responsibilities for coordinated wolf management after wolf 
management shifts from the Federal Government to the State and Tribe. 
We hope to conclude those discussions before the final appropriations 
are decided late this summer. The Tribe believes this MOA and 
subsequent additionally required MOA's coordinated between the OSC and 
the Tribe and the Service are the appropriate vehicles for 
reapportioning respective roles and responsibilities, legal contractual 
obligations and funding among the parties. Funding levels should be 
closely tied to and follow agreed to workloads identified in the MOA 
between the Tribe and Service and the MOA's between the Service and 
Tribe and OSC and Tribe. The Tribe feels strongly that reapportioning 
funding levels prior to reallocation of respective roles and 
responsibilities through the MOA's is premature, as the Tribe continues 
to hold full legal obligations for the entire Recovery Program as 
outlined in our current cooperative agreement with the Service.
    The Nez Perce Tribe requests that Congress support wolf recovery in 
Idaho by fully funding the Tribe's total wolf recovery appropriation 
request package which seeks appropriations for the Nez Perce Tribe, the 
Idaho State Office of Species Conservation, and U.S. Fish and Wildlife 
Service's Snake River Basin Office. At a minimum, however, the Nez 
Perce Tribe requests that Congress appropriate $600,000 specifically to 
the Nez Perce Tribe which is necessary for the Tribe to adequately 
monitor the expanding wolf population in Idaho and provide 
accountability to local affected rural communities and Idaho citizens.
    Thank you for your continued support of the Nez Perce Tribe's fish 
and wolf recovery efforts.

                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission

    On behalf of the Northwest Indian Fisheries Commission member 
tribes, I want to thank the Subcommittee for the opportunity to present 
this written testimony on our fiscal year 2004 fisheries and habitat 
management needs. Funds for these programs should be directed to the 
Fish, Wildlife and Parks Account within the Bureau of Indian.
           summary of fiscal year 2004 appropriations request
    The NWIFC generally supports the enacted fiscal year 2003 
appropriation levels. We request funding and direction which will 
achieve the following for fiscal year 2004:
  --Restore $320,000 to the Unresolved Hunting and Fishing Rights 
        account
  --Restore $550,000 for Western Washington tribal shellfish management 
        and enforcement
  --$6.3 million to implement tribal treaty rights in tribal shellfish 
        programs
  --$22 million for federal contribution of Tribal/Growers shellfish 
        settlement
  --Restore $3.0 million Forest Development, Woodland Management, 
        Northwest Forest Plan, Jobs in the Woods and Wild Stock 
        Restoration Initiative
  --Restore $3.1 million for the Timber-Fish-Wildlife Forest and Fish 
        Report
  --$1.0 million Increase for Timber-Fish-Wildlife ESA Obligations 
        under new state and private forest practices rules and 
        regulations
  --Increase Hatchery Cyclical Maintenance/Rehabilitation funding to 
        $2.5 million with language
  --Support existing funding levels within the BIA for Trust 
        Responsibility, TPA, and Self Governance for Fisheries 
        Management/U.S.-Canada Pacific Salmon at fiscal year 2003 
        levels
  --Include Committee Language directing the BIA to include Shellfish, 
        Forest and Fish Report and Unresolved Hunting and Fishing in 
        the fiscal year 2005 Budget
  --Fully fund CSC at levels necessary for existing and emerging 
        programs

         TRIBAL AND NWIFC BASE PROGRAMS NEED CONTINUED SUPPORT

    Tribes have made great strides in institutionalizing management 
consistent with tribal values, treaty rights and federal court 
decisions. Tribes have developed great professional capabilities and 
policy respect, and are efficient and effective, but find ourselves far 
short of where we would like to be in our capabilities. And, while we 
have efficiently organized our tasks and assigned responsibilities 
between our tribal communities to extend our collective efforts, the 
management obligations are many. New and highly difficult complexities 
abound, many are precipitated by the demands of the Endangered Species 
Act (ESA) and the Clean Water Act (CWA). Treaty rights to harvest 
shellfish are thwarted due to pollution in marine waters. To meet this 
challenge, we will need all of our existing funding and additional new 
resources.
    Over the past decade, tribes have been able to secure new monies 
for additional responsibilities. However, over the same time, tribes 
have seen other monies they once received for other duties diminish, 
either through inflation or through the elimination of program and 
support funding. And in this process, Indian natural resource 
management capacity has been unfairly affected. Therefore, we strongly 
urge the Subcommittee to guard against any further diminishment of the 
tribal program funding base, and do all it can to strengthen and 
enhance the Bureau's Trust, Tribal Priority Allocation and Self-
Governance Program funding. We ask that the Subcommittee ensure that 
the Western Washington-Boldt Implementation and the Pacific Salmon 
Treaty base budgets be fully funded as was included in last year's 
appropriation. We note with concern the reduction of $320,000 from the 
Unresolved Hunting and Fishing Rights line item, and ask that it be 
restored. Tribes are using these monies to develop in-common and co-
management databases, population assessments and other activities with 
the state of Washington.

                    SHELLFISH MANAGEMENT INITIATIVE

    For centuries, members of Puget Sound and Coastal Treaty Tribes 
have harvested shellfish for their commercial, ceremonial and 
subsistence needs. Hard shell and razor clams and oysters were 
collected from shoreline areas. Other shellfish species, such as crab 
and shrimp, were also gathered for subsistence and commercial uses. 
Shellfish harvesting was as important to tribal traditional life and 
commerce, as was fishing for salmon and steelhead.
    Tribes signed treaties with the United States in the mid-1850s, 
that included guaranteed tribal rights to gather shellfish. However, 
over the course of the past century and a half, conflicts arose, and 
the tribal right to harvest these resources was diminished. As a 
result, tribes were forced to seek a reaffirmation of their rights 
through the federal courts system. In 1999, the Supreme Court denied 
cert. and let stand the favorable decision of the 9th Circuit Court. 
Tribes have steadily moved forward during this time in implementing 
their treaty rights to harvest their share of the resource. However, 
Tribes need monies to implement this right, in much the same way as 
they did after the original U.S. v. Washington case was decided. 
Several dozen regional shellfish management plans have been 
successfully negotiated with tribal and state agencies, and tribes have 
redirected efforts to conduct the minimum management needed for their 
fisheries. Agreements and processes to access private tidelands have 
also been proceeding peacefully. Without new resources this success 
will be short-lived.
    During the course of the court case, tribal and state attorneys 
were able to negotiate a consent decree regarding shellfish sanitation. 
This agreement establishes shellfish sanitation programs designed to 
protect the public health. The implementation of the decree has 
revealed that the presence of biotoxins in shellfish is dangerously 
unacceptable, and threatens the viability of both the state and tribal 
fisheries. Additional research and monitoring of this biotoxin is 
necessary to prevent illness and death that may result from consuming 
toxic shellfish. The significant value of deep-water shellfish 
fisheries has increased illegal harvesting and enforcement is 
inadequate. Tribes and state enforcement agencies are addressing 
problems by coordinating patrols, but additional monitoring of harvest 
is needed.
    It is clear that more needs to be done to adequately address 
resource concerns for the benefit of all fisheries, Indian and non-
Indian alike. The Western Washington tribes request the Subcommittee to 
restore last years funding of $550,000, and add an additional $6.3 
million to tribal fishery management contracts as part of the permanent 
base.
    We are also asking the Committee for its help in funding a final 
settlement decree between treaty tribes and a number of private 
shellfish growers. This settlement will allow tribes to shift their 
treaty reserved rights from harvesting of grower owned land-to-land 
acquired under the terms of this settlement. The entire cost of this 
settlement will be $33 million, with the cost split two-thirds-one-
third between the federal and state governments.

  WILDSTOCK RESTORATION INITIATIVE, WATERSHED RESTORATION, NORTHWEST 
         FOREST PLAN, AND ENDANGERED SPECIES ACT IMPLEMENTATION

    In 1999, a number of species of Pacific Salmon were listed by the 
National Marine Fisheries Service as threatened under the terms of the 
Endangered Species Act (ESA). Last year, the Bull Trout was listed as 
threatened by the U.S. Fish and Wildlife Service. This ESA listing 
process is triggering a cascading chain of events, and will culminate 
in significant changes to harvest, hatchery and habitat practices for 
the region and its inhabitants.
    Tribes are affected by this federal process. As fisherman, the 
listing raises serious questions about the status of the stocks and 
poses a threat to the individual's opportunity to continue to harvest 
this salmon, a treaty-secured resource. As governments, the ESA process 
places inordinate demands upon the tribes as co-managers of the 
resource. Biological Reviews, Listing Decisions, Assessments, Opinions, 
Consultation, and Recovery Planning are just a few of the processes 
tribes will now be forced to participate in just to ensure their treaty 
protected fisheries. The tribes harvest opportunity and management are 
being placed in severe jeopardy by these actions without additional 
funds to manage through the risks imposed by this federal mandate.
    We are requesting that the Subcommittee continue to provide 
$400,000 for the Wild Stock Restoration Initiative from the $3.0 
million Bureau of Indian Affairs, Forest Development, Woodland 
Management and the Northwest Forest Plan ``Jobs in the Woods'' 
Initiative line item. The WSRI is essential to developing a habitat 
inventory base from which restoration efforts can begin. The remaining 
$2.6 million from this initiative will allow tribes throughout the 
Pacific Northwest to continue to conduct watershed analysis and 
watershed restoration within their Usual and Accustomed Areas. This 
approach is identical to last year's request, which the Subcommittee 
supported.

              TIMBER-FISH-WILDLIFE/FOREST AND FISH REPORT

    We are supporting the restoration of Funding to tribes for the 
Timber-Fish-Wildlife/Forest and Fish Report that cooperatively and 
collaboratively allows tribes to actively participate in state forest 
practice rules and regulations that have an affect on listed salmon 
populations. Tribes, as a result of their co-management status, are 
deeply involved in this management forum. The negotiations leading up 
to the development of the TFW Forest and Fish Report were exceedingly 
contentious. However, most agreed that the only way to actually resolve 
these issues is for a strong monitoring and adaptive monitoring process 
be put in place, which will require additional funding.
    Tribes are using the funds provided last year by the Committee in a 
very organized fashion. Tribes have a strong central and regional 
coordination component and are focusing implementation efforts at their 
local watersheds. The strategy calls for two tracks. One is aimed at 
supporting the development of the Habitat Conservation Plan (HCP) 
development process at TFW. A second track supports tribal 
participation in TFW in a continuing effort to shape and steer forest 
management practices toward greater fish protection.
    For fiscal year 2004, we are again requesting $3.1 million be 
restored plus an additional $1.0 million to further develop tribal 
participation in the TFW Forest and Fish effort. For each of our 
requests to restore funding, we ask the Committee to include language 
directing the Bureau of Indian Affairs to include these funding amounts 
in their fiscal year 2005 budget request.

              HATCHERY CYCLICAL MAINTENANCE/REHABILITATION

    Tribes operate extensive salmon and steelhead hatchery facilities 
that produce fish for tribal and non-tribal use. These facilities are 
located throughout the western Washington U.S. v. Washington Case Area. 
Many of these facilities were built with federal funding and were 
intended to partially fulfill federal trust responsibilities to off-set 
loss of fishing opportunities and fish habitat due to non-Indian action 
and developments.
    Hatchery operations are reviewed through the Hatchery Reform 
Project Initiative funded through the Fish and Wildlife Service. Not 
unexpectedly, one of the outcomes from this rigorous scientific review 
process is to make physical changes to facilities that bring them in 
line with the scientific review recommendations.
    Tribes will need about $2.5 million to do necessary work to ensure 
that their facilities are ESA certified. The Bureau of Indian Affairs 
has a small line item that could be amended to include this kind of 
work. Such funding would complement state of Washington funding through 
their capital construction budget, and ensure that tribal facilities 
are improved at the same pace as state owned and operated hatcheries. 
Direction would need to be given to the Bureau to ensure that tribal 
facilities in western Washington are recipients to these monies.

        CONTRACT SUPPORT FUNDING IS ESSENTIAL TO TRIBAL PROGRAMS

    We continue to have concerns that the Bureau of Indian Affairs has 
failed to fully request Contract Support Funds for tribal programs. We 
are also concerned that Congress has not fully appropriated the 
necessary funds. An artificial cap upon the funding pool for indirect 
cost reimbursements places a huge burden on tribal fisheries programs. 
We have been, and will be forced to continue to reduce our programs to 
cover these costs as mandated by law. Such a burden cannot be borne by 
tribal programs again this year or into the future without onerous 
results.

                               CONCLUSION

    We appreciate the Subcommittee's continued support for the tribes 
and the NWIFC as we implement co-management responsibilities. It takes 
funding resources to make our management system work, but the returns 
to our efforts are many. The challenges are great, and we must continue 
our effort with renewed vigor. We thank you for your attention to our 
needs. We have provided the subcommittee staff with additional 
supporting documentation for our requests. We are available to meet 
with you and your staff at your leisure.

                                 ______
                                 
          Prepared Statement of the Puyallup Tribe of Indians

    Mr. Chairman, my name is Bill Sterud, Puyallup Tribal Chairman. We 
thank the Committee for past support of many tribal issues and in your 
interest today. We share our concerns and request assistance in 
reaching objectives of significance to the Congress, the Tribe, and to 
32,000+ Indians (constituents) in our Urban Service Area.
    U.S. Department of Interior--Bureau of Indian Affairs.--The 
Puyallup Tribe has analyzed the President's fiscal year 2004 budget and 
submit the following detailed written testimony to the House Interior 
Subcommittee on the proposed funding bill for the Dept. of Interior and 
Related Agencies. In the fiscal year 2003 budget process, the Puyallup 
Tribe supported actions of Congress to restore the base level funding 
for various programs including the Timber-Fish-Wildlife program in the 
amount of $3.1 million along with $550,000 for Shellfish management. We 
look forward to working with the 108th Congress to insure that funding 
levels for programs necessary for the Puyallup Tribe to carry-out our 
sovereign responsibility of self-determination and self-governance for 
the benefit of Puyallup tribal members and the members from 
approximately 435 federally recognized Tribes who utilize our services 
are included in the fiscal year 2004 budget.
    The following provides a brief review of the Puyallup Tribe's 
priorities and special appropriation requests for fiscal year 2004;
    Chief Leshci School--Auditorium Completion & Athletic Facilities 
Development.--The Puyallup Tribal education support began in 1972 as 
the ``Hawthorne School'', a teen drop-in prevention program established 
in cooperation with Tacoma Schools on the site of the present Tacoma 
Dome. An Elementary School was constructed on the main tribal campus in 
1978 through funding from the Economic Development Administration. The 
Elementary School was relocated to the Tribal Headquarters and the K-12 
offerings became the new Chief Leschi School, which was designated as a 
tribal school through a ``638 contract'' with the BIA. A combination of 
school population and weakness in the school buildings structural 
integrity caused the school to relocate educational services to various 
sites. This initiated a request to the BIA for a new school facility.
    This request was realized in 1996 with the completion of the new 
Chief Leshci School pre-K through 12. As of February 2003, enrollment 
of Native American children is 702. This enrollment figure represents 
native children from 65 federally recognized tribes through-out the 
country. As with many construction projects, limited funding and cost 
increases had a significant impact on the final design of Chief Leschi 
Schools. This is evident in the lack of an Auditorium and Athletic 
Facilities. Although construction on the Auditorium was started, it was 
not completed due to lack of funding. We feel that the completion of 
the Auditorium and Athletic Facilities will significantly enhance the 
activities and services that Chief Leschi Schools is able to offer to 
the school community and our Tribe. We will request your support for 
the fiscal year 2004 BIA budget for the following;
  --$1,554,989 for the completion of the Chief Leschi School 
        Auditorium; and
  --$2,903,020 for design and construction of the Chief Leschi School 
        Athletic Facilities Development.
    Puyallup Nation Law Enforcement.--The Puyallup Reservation is 
located in the urbanized Seattle-Tacoma area of the State of 
Washington. The 18,061 acre reservation and related urban service area 
contains 17,000+ Native Americans from over 200 Tribes and Alaskan 
Villages. The Puyallup Nation Law Enforcement Division currently has 
fifteen (15) commissioned officers to cover 40 square miles of 
reservation in addition to the usual and accustomed areas. The officers 
are charged with the service and protection of the Puyallup Reservation 
seven days a week, twenty-four hours a day. We currently operate with 
outdated equipment, patrol vehicles requiring constant repair and 
insufficient staff levels. With the continuing increase in population, 
increase in gang related activities on the Puyallup Reservation and the 
impact of the increase in manufacturing of meth amphetamines in the 
region, the services of the Puyallup Nation Law Enforcement Division 
are exceeding maximum levels.
    A major area of concern is the status of the Tribe's Regional 
Incarceration Facility. Due to damages from the February 2001 Nisqually 
earthquake, we have had to relocate to modular/temporary facilities. As 
a regional detention facility, the relocation to the modular facility 
not only impacts the Tribe's ability to house detainee's but also the 
approximately 173 native inmates that were incarcerated at the Puyallup 
Incarceration facility during the period of 2001-2002. Relocation to 
the modular facility has also impacted the Tribes ability to house 
juvenile detainees. With no juvenile facilities, Native American youth 
are sent to non-native facilities.
    We respectfully request congressional support to fund the BIA Law 
Enforcement program at levels adequate to operated law enforcement 
services at a safe and effective method and to fund the Department of 
Justice--Detention Facilities Construction program for fiscal year 
2004. The following list is a brief summary of law enforcement needs of 
the Puyallup Nation Law Enforcement programs:
  --Juvenile Incarceration Facility--$1,000,000 (est.);
  --Staffing for Juvenile Facility--8 employees @ $320,600;
  --Adult Incarceration Facility--$2,500,000 (est);
  --Additional staff for dispatching center--3 employees @ $120,800;
  --Additional Officers--4 @ $225,900;
  --Equipment; firearms, radios and equipment--$30,000;
  --Technologies, hardware and software--$80,000;
  --Patrol vehicles--2 @ $60,000;
  --Training--$30,000.
    Fisheries & Natural Resources Management.--The Puyallup Tribe as 
steward for land and marine waters in the Usual and Accustomed fish and 
shellfish areas has treaty and Governmental obligations and 
responsibilities to manage natural resources for uses beneficial to the 
regional community. Despite our diligent program efforts, the fisheries 
resource is degrading and economic losses are incurred by Indian and 
Non-Indian fisherman, and surrounding communities. Our Resource 
Management responsibilities cover thousands of square miles in the 
Puget Sound region of the State of Washington with an obligation to 
manage production of anadromous, non-anadromous fish and shellfish 
resources. Existing levels of support are inadequate to reverse the 
trend of resource/habitat degradation. Resource management is 
constrained due to funding shortfalls. We seek support and endorsement 
in the following areas:
  --Tribal Fisheries Resource Management, Hatchery Operation and 
        Maintenance funding via Public Law 93-638 contracts have not 
        increased substantially since establishment of base budgets in 
        1984. The demand on Puyallup Tribal Fisheries Program has grown 
        exponential since the eighties and is currently faced by 
        Endangered Species Act listings on Bull Trout and Chinook 
        Salmon which is in an highly urbanized setting more so than any 
        other Pacific Northwest Tribe. We request Committee support to 
        increase base contract funding in the amount of $150,000.00 for 
        additional fisheries staff.
  --Western Washington Timber-Fish-Wildlife Program--The TFW Program 
        has allowed for the expansion of tribal participation in the 
        state forest practice rules and regulations that have an affect 
        on listed salmon populations. In fiscal year 2003 Congress 
        restored TFW base funding for the Bureau of Indian Affairs. 
        However, this base funding increase is being proposed to be 
        discontinued in the fiscal year 2004 budget. Continued funding 
        in this area is essential to facilitate tribal participation in 
        monitoring, research, data analysis and adaptive management 
        processes that are a cornerstone to the TFW process. We request 
        Committee support for base funding level of $3,555,000 to the 
        TFW fiscal year 2004 budget.
    Tribal Priority Allocation & Contract Support Costs.--The 
President's fiscal year 2004 budget calls for $2.3 billion to be 
allocated to the Bureau of Indian Affairs, which is an increase of 
$65,900,000 over the fiscal year 2003 enacted level. This request 
includes $777,000,000 for Tribal Priority Allocations (TPA), a 
$2,100,000 increase over the fiscal year 2003 enacted level. Although 
the increases are a positive commitment by the Administration, they 
still fall short of providing adequate funding for critically needed 
tribal programs supported by TPA funding. TPA budget activity includes 
the majority of funding used to support on-going services at the 
``local tribal'' level, including; law enforcement, natural resources 
management (fisheries), child welfare, housing, tribal courts and other 
tribal governmental services. TPA has not received adequate funding to 
allow tribes the resources to fully exercise self-determination and 
self-governance. Further, the small increases TPA has received over the 
past few years has not been adequate to keep pace with inflation. At a 
minimum, we request your support and endorsement in the following;
  --Support by Congress of the President's fiscal year 2004 request for 
        TPA increase of $2,100,000, for a total request of $777,000,000 
        for fiscal year 2004 TPA funding
    Another concern the Puyallup Tribe has with the fiscal year 2004 
budget request is the on-going issue of contract support costs. The 
President's fiscal year 2004 budget request includes $135,300,000 to 
address the Bureau of Indian Affairs continuing contract support costs 
and $0 for the Indian Self-Determination Fund to address the needs of 
tribes taking on new Bureau of Indian Affairs programs. At a minimum, 
we request your support and endorsement in the following;
  --Support by Congress of the President's fiscal year 2004 request for 
        an increase in contract support cost funding of $135,300,000, 
        and include a $3,000,000 request for the Indian Self-
        Determination Fund for new Bureau of Indian Affairs programs 
        contracted by tribes. Full funding of Contract Support is a 
        mandate towards the full realization of Self-determination and 
        Self-governance.
    DHHS Indian Health Service.--Funding for the Indian Health Service 
fails to meet the needs of health services for Native Americans. The 
Puyallup Tribe has been operating their health care programs since 1976 
through the Indian Self-determination Act, Public Law 93-638. The 
Puyallup Tribal Health Authority (PTHA) is a successful ambulatory 
program that provides comprehensive ambulatory medical dental, mental 
health, drug and alcohol treatment services to an expanding population 
in Tacoma and Pierce County, Washington. In fiscal year 2002 it was the 
most productive Indian health program in the tri-state areas of 
Washington, Oregon and Idaho.
    Adequate funding for the continued operations and delivery of 
quality care is essential. PTHA, like most IHS facilities, is being 
asked to do more with less. The cost of supplies and staff increases as 
does the eligible population increases, yet funding has not kept pace. 
IHS has lost $1.9 Billion in purchasing power since 1992. Unlike 
private practice counterparts, we can not raise fees, negotiate higher 
reimbursement from insurance companies or restrict the population we 
serve. Preserving purchasing power and ensuring that medical needs are 
met must be paramount to IHS and HHS.
    Highlights of the IHS Budget request include an increase of $73 
million or a 2.5 percent increase. The Budget Request also factors in 
approximately $31 million in cost savings from administrative 
reductions. The fiscal year 2004 Budget Request for the IHS continues 
to fall short of the $250 million to just maintain current services. 
The Puyallup Tribe will submit detailed written testimony to Congress 
on the fiscal year 2004 IHS Budget.
    We request congressional support for the fiscal year 2004 IHS 
budget in the following areas:
  --Fund medical and general inflation costs, which have again reached 
        double digits;
  --Fund the increased expenses due to population growth. Although AI/
        NApopulation has a 2.1 percent growth rate, growth has not been 
        funded for 11 years;
  --Index Contract Care to population growth and the medical inflation 
        rate. Contract care is most vulnerable to inflation since 
        services are provided by vendors constrained by IHS guidelines. 
        There are no IHS hospitals in the Pacific Northwest which makes 
        our clinic dependent on Contract Care for necessary specialty 
        referrals and hospital care.

                                 ______
                                 
          Prepared Statement of the Sauk-Suiattle Indian Tribe

    The Sauk-Suiattle Indian Tribe (Tribe) of Washington State has 200 
members. We see ourselves as a small and disadvantaged tribe. The 
Tribes remote location at the foot of the Cascade Range coupled with 
its small size places it in a position where it is unable to compete 
with larger and more affluent tribes for scarce federal resources. 
Sauk-Suiattle does not operate a casino and because of its location 
will never have that opportunity. In the 1940's and 1950's, Senators 
Jackson and Magnuson worked unsuccessfully to ensure the Sauk-Suiattle 
Indian Tribe a reservation land base within its homeland. Following the 
Land Allotment era in the United States there were still millions of 
unclaimed acres within the Tribes' traditional areas in Washington 
State. These lands were eventually transferred to other federal 
agencies and to Washington State; Sauk-Suiattle was left out and 
remained landless until 1980. In 1980 the Tribe purchased 23 acres of 
land with grant funding to provide essential housing for Tribal 
members. As a small Tribe, our needs are magnified, and competition for 
resources is fierce. All Tribal operational costs are funded under 
grants and contracts, which provide less than 70 percent of need. The 
Tribe requests $10.276 Million from the Department of the Interior and 
Related Agencies' appropriations for fiscal year 2004 to support the 
following priorities:
    1. +$100,000 for Homeland Security to protect our Tribal 
communities.
    2. +$250,000 to Tribal Budget Base for Aid to Tribal Government 
operations, in the Bureau of Indian Affairs Tribal Priority Allocation 
line item including 100 percent Contract Support Costs.
    3. +$100,000 to Education in the BIA Education Program Account.
    4. +$450,000 to study the Mountain Goat herds depletion in the 
Northern Cascades including a 3 year study on the causes and action 
needed to correct the decline.
    5. +$200,000 to BIA Law Enforcement, for additional program 
operations, salary increases, equipment, training, and jail contract 
funds. To be added to the BIA TPA, Public Safety and Justice, Law 
Enforcement Tribal Agency Account.
    6. +$100,000 to restore and enhance the Sauk-Suiattle cemetery 
damaged by the United States Navy training in 1997.
    7. +$1.301 million. For the Northwest Intertribal Court System to 
provide court related services to nine tribes and for a regional 
appellate court system.
    Other requests.--+$100,000 to conduct a Comprehensive Needs 
Assessment of the Sauk-Suiattle membership. This is requested as a one-
time non-recurring cost to TPA, BIA. +$350,000 for Cultural Research 
funding for anthropological and archaeological studies specific to 
Sauk-Suiattle Indian Tribe. No research studies, published or 
unpublished, exist on the Sauk-Suiattle. This is needed to preserve 
Tribal history, cultural preservation, documentation and protection of 
historical and sacred sites, identification of burial grounds, and to 
restore language. +$575,000 to develop economic enterprises for the 
Tribe with funding to be added to BIA Tribal Government Account; 
+$100,000 to Tribal Base for Indian Child Welfare for additional staff, 
program enhancements, program resources, and the development of a much 
needed short term emergency placement home for foster children, added 
in the BIA, TPA for Human Services, ICWA Account. +$50,000 to Tribal 
Housing Base Budget for HIP and administrative management. +$100,000 to 
finally establish title, responsibility and ownership of tribal 
allotments, Tenas Creek Cemetery, and Suiattle Cemetery; and, then to 
place those allotments that are Tribal property under Tribal management 
through Public Law 93-638. The multiple jurisdiction and joint 
responsibilities that currently exists between the Sauk-Suiattle Tribe, 
the U.S. Forest Service and the BIA, need to be clarified. (Mitigating 
settlement has not yet been achieved from damages caused by the US 
Navy's use of the Suiattle Cemetery for training maneuvers in 1997). 
+$5.5 Mil for planning and acquisition of lands and the construction of 
homes and to protect the Sauk-Suiattle Indian Tribes' Natural 
Resources, Gathering, Hunting and Fishing Areas. To maintain access to 
all Rights without infringements.

                      PRIORITY REQUESTS-NARRATIVE

    1. Homeland Security.--Tribes are not funded to provide essential 
homeland security measures, including protection of drinking water 
sources, public safety, and emergency planning. Current funding is 
allocated to the Centers for Disease Control and Prevention, and the 
Department of Defense, with no allocation to Tribal governments. We 
request $100,000 new funding for this initiative.
    2. Increase in Core Tribal Government Infrastructure.--Sauk-
Suiattle currently receives a paltry $160,000 in recurring funding to 
conduct all aspects of Tribal government, including the Legislative 
Body, Natural Resources, Tribal Court and all Social Services and 
Education programs. The Tribe requests an additional $250,000 
appropriation increase above the $160,000 allocated to the Sauk-
Suiattle Indian Tribe through the BIA Tribal Priority Allocations, 
Tribal Government, Other Aid to Tribal Government Budget Base. To 
strengthen its position to maintain a stable government, these 
additional funds would employ or purchase legal assistance, a grant & 
contracts manager, and a business planner & developer, to assist in the 
protection of the Tribes' natural resources, increase Tribal court 
capacity beyond the current four (4) hours per month, and employ staff 
support for Tribal governmental activities. This includes the 
replacement of federal excess property, government office equipment and 
furnishings that the Tribe has been using since the 1970's. The Tribe 
is requesting funding of the Contract Support Costs at 100 percent.
    3. Education.--The Tribes' current funding from the BIA includes 
less than $4,000 for higher education. This funding is totally 
inadequate and provides for very little educational assistance to the 
Tribal members. The Tribe requests that BIA Education funding be 
increased by $100,000 to provide educational opportunities to our Sauk-
Suiattle Tribal members, so that we do not leave anyone behind.
    4. Mountain Goat Herd Study.--For the restoration of the mountain 
goat herds which have been depleted in the Northern Cascades. The 
mountain goat is integral to the cultural heritage of the Tribe. It is 
a Tribal resource providing for the unique mountain heritage of the 
Tribes' culture. It is a source for food, cultural and ceremonial 
objects, and the origin of our cultural belief system. The last hunt by 
Tribal members was 7 years ago due to the scarcity of the mountain goat 
stock. The $450,000 requested would provide funds to conduct a three-
year study of the goats in the Northern Cascades range, and to develop 
preservation and protection plans of this tribal resource.
    5. BIA Law Enforcement.--The Tribe continues to have inadequate law 
enforcement funding, especially in respect to Homeland Security issues. 
The Tribe needs to keep pace with current events and technology within 
its law enforcement department and is requesting $200,000 funding to 
ensure access to 911 across the nation, a minimum of one full-time law 
enforcement officer on per shift, twenty-four hours each day. Currently 
the Tribe has two forty-hour a week officers under its BIA contract. 
The Police Department requests additional funding for officer's 
salaries after the 3-year grant funding expires. This should include 
funding for all Indirect Costs to the Tribe. We just recently separated 
some functions from a joint organization and we request funding for a 
complete Fisheries Enforcement program.
    6. Suiattle Cemetery Reparation.--In 1997 the Navy destroyed the 
Sauk-Suiattle Indian Tribes' cemetery. At issue here is the destruction 
of the headstone grave markers, foliage, and sentiments that were 
damaged during the training maneuvers. The grave markers were displaced 
and proper location cannot be reestablished. The title ownership and 
responsibility of this cemetery must finally be resolved.
    7. Northwest Intertribal Court System.--The ``Circuit Court `` 
System provides judicial, prosecutorial services to nine member tribes 
judicial process. The System operated on $597,584 last year with an 
unmet need of $1,300,997. Tribal courts are essential for tribal 
sovereignty & providing due process to individuals within tribal 
jurisdiction.

                             OTHER REQUESTS

    a. Needs Assessment.--For a Comprehensive Needs Assessment of the 
Tribal community population to determine social, economic, education, 
housing, environmental, and cultural preservation needs. The Assessment 
will provide information for short and long term Tribal planning to 
enhance the delivery of coordinated services to Tribal community 
members. This request of $100,000 is for a one-time, non-recurring 
cost.
    b. Cultural Research.--$350,000 is requested to conduct formal 
archaeological studies on identified sites, including the recording of 
tribal history and culture through an anthropological study, a 
recording of our unique language, and restoration of the language. No 
formal studies exist on the Sauk-Suiattle Indian Tribe. Knowledge about 
a Tribes' past is necessary to better understand the scale of progress, 
or lack thereof. And, in the case of the Sauk-Suiattle people we have 
defied the odds of extinction by surviving and retaining our 
traditional and cultural ways.
    c. Land Acquisition.--The Sauk-Suiattle Tribe has 200 members, 20 
houses on the reservation, one community building, and no vacant 
sustainable land to develop a Tribal economy. The Tribal unemployment 
rate is more than 65 percent. Over 80 percent of our employed tribal 
members make less than $7,000 a year. The Tribe would provide 
employment, generate Tribal revenue, decrease dependency on federal 
funds, and enable our members to return to their ancestral homelands 
with the increased land base. The Tribe is looking to protect their 
natural resources, hunting, fishing and gathering rights. We request a 
special appropriation of $5.5 million for the Tribe to purchase land.
    d. Increase Economic Development Enterprise.--The Sauk-Suiattle 
Indian Tribe is focused on developing economic self-sufficiency. Since 
these efforts require dedicated time to expedite results, the Tribe 
requires a stable economic incubation period of three years for funding 
in order to: (1) Hire a business manager/planner to focus on the 
effort, (2) Develop business plans, (3) Developing business codes, and 
(4) Initiate a viable financial enterprise(s). The Tribe has calculated 
a three-year cost of $575,000 for this project.
    e. Increase in BIA Indian Child Welfare.--Requests that $100,000 in 
appropriations be added to the Tribes' base budget of $50,000 through 
the BIA Tribal Priority Allocations, Human Services, Indian Child 
Welfare Act account for ICW program development or enhancements. The 
increased funds will go towards: (1) A proposed Emergency-Crisis 
Placement Home, (2) To develop a training program for the non-Native 
foster families serving the Tribe to better understand the Tribes' 
culture; and (3) Develop a Family Reunification program that will 
provide resources and training for families ready to reassume their 
roles as parents or are at risk of losing their families. Of our 200 
tribal members, 80 are under the age of eighteen.
    f. Housing.--Addition to the Housing Improvement Program (HIP) to 
repair and improve current houses of the Tribal members. Plus, provide 
for administrative costs to manage the housing program. The $50,000 
requested would provide the funds to cover these costs.
    g. Allotments.--There are several thousand acres of unresolved 
Tribal allotments that should be factored into study. These lands 
(5,000+ acres) were allotted to Tribal members and then taken without 
compensation in 1897 when the Mt. Baker-Snoqualmie National Forest was 
created. Tribal cemeteries are located within the area of the allotted 
lands. The cemetery sites are sacred sites and need protection. We need 
documents from the U.S. Forest Service that indicate that the United 
States Government is holding these sites in trust for the Sauk-Suiattle 
Indian Tribe. This proposal is to initiate the Public Law 93-638 
management of these sites by the Tribe under the BIA trust status. This 
will address and clarify the issue of ownership.
    Regional American Indian Appropriations Priorities.--The Sauk-
Suiattle Indian Tribe supports the following regional requests from the 
following Indian consortiums and organizations: Skagit System 
Cooperative, Northwest Portland Area Indian Health Board, Northwest 
Indian Fisheries Commission, Western Washington Indian Employment and 
Training Programs, Affiliated Tribes of Northwest Indians, and the 
Small Tribes of Western Washington organization. Plus, the U.S. Forest 
Service funding request to protect, study and manage Mountain Goat 
habitat.
    National American Indian Appropriations Priorities.--We urge that 
funding for tribes, their programs and their developments be given the 
highest priority.
    We urge your consideration of our request and appreciate the 
consideration.

                                 ______
                                 
          Prepared Statement of the Seminole Tribe of Florida

    The Seminole Tribe of Florida is pleased to submit this statement 
regarding the Tribe's fiscal year 2004 request for funding from 
programs in the Department of the Interior (DOI). The Tribe requests 
that Congress:
  --Continue to provide $396,000 to the Bureau of Indian Affairs for 
        water quality and quantity studies by the Seminole Tribe of 
        Florida and the Miccosukee Tribe of Indians, to be equally 
        divided between the Tribes; and
  --Provide $864,000 to the Bureau of Indian Affairs, Water Management 
        Planning and Pre-Development account for the Seminole Tribe for 
        water quality studies and other ecosystem restoration studies, 
        as a part of the Seminole Tribe's Everglades restoration 
        efforts.
    The Tribe's Everglades Restoration Initiative is a comprehensive 
water conservation system designed to improve the water quality and 
natural hydropatterns in the Big Cypress Basin. The Initiative, as 
implemented on the Big Cypress Reservation, is designed to mitigate the 
degradation the ecosystem has suffered through decades of flood control 
projects and urban and agricultural use. It will also provide an 
important public benefit: a new system to convey excess water from the 
western basins to the Big Cypress National Preserve, where water is 
vitally needed for rehydration and restoration of lands within the 
Preserve. This Initiative will contribute to the overall success of the 
Comprehensive Everglades Restoration Plan (CERP) as authorized by the 
Water Resources Development Act of 2000 (WRDA 2000).
    Department of Interior funding has helped the Tribe develop 
restoration programs and projects and ultimately define its role in the 
overall South Florida Ecosystem effort. The Seminole Tribe continues to 
make significant contributions to the restoration effort and looks 
forward to a continued partnership with DOI toward achieving our common 
goals.
    The Seminole Tribe reviewed many federal programs in search of 
funding opportunities for the design, engineering, and construction of 
the projects that compose the Everglades Restoration Initiative. U.S. 
Army Corps of Engineers (COE) and the USDA Natural Resources 
Conservation Service (NRCS) programs have been identified as 
appropriate matches for the Tribe's Everglades Restoration Initiative. 
The Tribe and the Corps initiated an agreement for design and 
construction of the western portion of the Big Cypress Reservation, 
along with a canal that transverses the Reservation, as a Critical 
Project under the authority of the Water Resources Development Act of 
1999. Initial construction activities on this project are nearly 
complete and the detailed planning activity for the balance of the 
project. The NRCS has identified a number of Farm Bill programs and the 
Small Watersheds Program as suitable for funding the design, planning, 
and construction of the project on the eastern portion of the 
Reservation.
    The funds provided by the DOI have made it possible for the Tribe 
to initiate the research necessary to allow the Corps and NRCS to 
complete final project designs. The Tribe continues to spend Tribal 
funds to advance the research and design and is prepared to provide the 
required cost share payments as required by the different federal 
programs. In addition, the results of studies the Tribe helps pay for 
with both the Critical Ecosystem Study Initiative (CESI) funds from NPS 
and the BIA funds will be applicable to other CERP projects.

                            FUNDING HISTORY

    The DOI, through the Bureau of Indian Affairs (BIA), has provided 
the Seminole Tribe with $199,500 in each of the fiscal years 1994 
through 2002, half of the $399,000 line item. In fiscal year 2003, 
$396,000 was appropriated. The Tribe has used this BIA funding to 
complete studies and water quality and quantity monitoring that has 
proven critical to the Tribe's leading role in Everglades restoration.
    Through the NPS's CESI program, Interior provided the Tribe with 
$390,000 in fiscal year 1997, $920,000 in fiscal year 1998, $684,125 in 
fiscal year 1999, $230,000 in fiscal year 2000, and $220,000 in fiscal 
year 2001. The Tribe did not receive any fiscal year 2002 CESI funds. 
The Seminole Tribe uses CESI funds to monitor and analyze the quality 
and quantity of water coming onto and leaving the Reservation and to 
conduct scientific studies to determine nutrient impacts. For example, 
the Tribe studied the assimilative capacity of the C&SF canals for 
nutrients, phosphorus in particular. The results of such monitoring and 
studies will be available to others studying ecosystem degradation and 
developing plans to arrest the harm.

               DETAIL ON FISCAL YEAR 2004 FUNDING REQUEST

    Continued funding at an increased level is necessary for the Tribe 
to complete a number of studies that will support the design, 
construction, and operation of the Big Cypress water conservation 
project. Funding through the BIA budget is also necessary because the 
source of supplemental funding in prior fiscal years (the NPS CESI 
account) has become so low as to not support the studies originally 
funded with the CESI funds.
    Specific studies that would be supported through the increased 
level of BIA funding include the following:
  --Forested Wetland Nutrient Uptake Research designed to address how 
        to restore and maintain wetland communities of plants and 
        animals weakened by the adverse impact of poor water quality 
        and desiccation by re-establishing natural hydrology and water 
        quality;
  --Seminole Tribe Data Collection and Monitoring designed to access 
        ecosystem damage and explore methods to restore and enhance 
        natural habitats; and
  --Early Detection and Management of the Invasion of the Big Cypress 
        Reservation by the Exotic Climbing Fern designed to prevent 
        this invasive species from negating the restoration and 
        preservation of native wetland communities.
    Most of this research is likely to be applicable to most areas of 
the Big Cypress Basin where similar forested wetland bio-regions exist.

                               CONCLUSION

    The Tribe understands that the President's government-wide 
management plan issued in August 2001 directed the Energy Department to 
align its applied-research projects to performance goals. We also 
understand that, eventually, the results of the Energy Department's 
efforts will be used as a model for examining the effectiveness of 
research and development programs throughout the government. The 
Tribe's research projects for which this testimony requests funding 
support the performance goals of the ecosystem restoration projects the 
Tribe is building with other federal agencies. Further, the results of 
the applied research for which the Tribe seeks funding will enhance the 
effectiveness of the physical projects.
    Improving the water quality of the basins feeding into the Big 
Cypress National Preserve and the Everglades National Park is vital to 
restoring the Everglades for future generations. By granting this 
appropriation request, the federal government will be taking a 
substantive step towards improving the quality of the surface water 
that flows over the Big Cypress Reservation and on into the delicate 
Everglades ecosystem. Such responsible action with regard to the Big 
Cypress Reservation, which is federal land held in trust for the Tribe, 
will send a clear message that the federal government is committed to 
Everglades restoration, and the Tribe's role in this historic ecosystem 
restoration effort.
    The Seminole Tribe is working hard to realize the environmental 
benefits the Reservation and the surrounding ecosystem need. The Tribe 
is making substantial commitments, including the dedication of over 
9,000 acres of land for water management improvements. However, as the 
Tribe moves forward with its contribution to the restoration of the 
South Florida ecosystem, a substantially higher level of federal 
financial assistance is needed as well.
    The Tribe has demonstrated its economic commitment to the 
Everglades Restoration effort; the Tribe is asking the federal 
government to also participate in that effort. This effort benefits not 
just the Seminole Tribe, but all Floridians dependent on a reliable 
supply of clean, fresh water flowing out of the Everglades, and all 
Americans whose lives are enriched by this unique national treasure.
    Thank you for the opportunity to present the request of the 
Seminole Tribe of Florida. The Tribe will provide additional 
information upon request.

                                 ______
                                 
    Prepared Statement of the Southwest Tribal Fisheries Commission

                         APPROPRIATIONS REQUEST

    The Southwest Tribal Fisheries Commission (SWTFC) respectfully 
requests a Congressional appropriation of $150,000.00 for fiscal year 
2004. The funds will be used toward achieving the goals of the SWTFC: 
(1) support the professional development and sustainable funding of 
Tribal fisheries resource management and conservation capabilities, (2) 
restore and expand Southwest (SW) tribal recreational fishing programs 
to promote economic development and conservation capacity building on 
tribal lands by providing enhanced outdoor recreation opportunities, 
and (3) build meaningful, well-coordinated partnerships with tribal, 
state, federal and local interests on issues of common concern that 
generate regional benefits.

                          BACKGROUND OF SWTFC

    The SWTFC is a non-profit organization formed in September 2002 
(using a $91,000.00 base-funding contract through the Bureau of Indian 
Affairs) to assist Indian Tribes in the southwestern United States to 
develop and organize a more comprehensive and collaborative approach to 
securing the futures of their respective fisheries management programs, 
and to generally support tribal capacity building. The SWTFC purpose is 
to mobilize Tribes to work in a more coordinated and strategic fashion 
to secure underlying recreational fishing programs and to advance 
meaningful resource management projects/initiatives that strike a 
sustainable balance between economic development and resource 
conservation on tribal lands.
    The Southwestern Tribes served by the SWTFC (presently, those 
Tribes and Pueblos within the states of Arizona, New Mexico, Colorado, 
Utah, Nevada and Southern California) hold significant lands and 
natural resources, and have become important contributors to the 
development of regional recreation economies and resource conservation 
efforts. Many of these tribes have developed and relied heavily upon 
economies that are natural resource and recreation based, with 
recreational fishing programs evolving into important components of 
tribal social fabric and economic viability. Furthermore, with tribes 
being ineligible for long established Federal-Aid conservation funding 
programs such as Pittman-Robertson, Dingell-Johnson, and Wallup/Breaux, 
tribal recreational programs provide critical revenue sources that 
enable many Tribes to fund important conservation work on their lands. 
In addition to providing high quality regional recreational fishing 
opportunities, SW tribal resources/programs also play significant roles 
in regional conservation efforts, with a number of Tribes having been 
at the forefront in the development of successful native-fish 
conservation and recovery programs for species such as the Apache 
trout, Colorado River Cutthroat trout, Rio Grande Cutthroat trout, Gila 
topminnow, Gila chub, Bonytail chub, Razorback sucker and Silvery 
minnow, to name a few.
    In developing these core enterprises and conservation programs over 
many decades, SW Indian Tribes have worked closely with the U.S. Fish & 
Wildlife Service (USFWS) and have become completely reliant upon the 
network of National Fish Hatcheries (NFH) located on Indian lands to 
support their fisheries programs. A steady shift of USFWS policy and 
budget priorities through recent decades has led to a gradual 
deterioration of tribal recreational fishing programs and the fish 
hatchery facilities upon which these programs depend. The recent (2000) 
closure of the Mescalero NFH on the Mescalero Apache Reservation (NM), 
together with increasing unmet demands for both sport and native fish 
management resources on Indian lands throughout the southwest provide 
clear evidence of this decline. These trends and challenges have 
mobilized Tribes to organize their efforts in a more strategic and 
results-oriented fashion, through the SWTFC, with state, federal and 
local partners to preserve the integrity/viability of their recreation 
and conservation programs.
    The SWTFC seeks to develop and foster these working relationships, 
while further serving as a ``capacity-building'' resource to Tribes in 
helping them to plan and develop projects and programs that, through 
time, strike a sustainable balance between recreation/resource-based 
economic development and scientifically sound conservation. In pursuing 
this ``capacity-building'' objective, the SWTFC will seek to secure the 
economic/financial underpinnings of Tribal fisheries programs while 
jointly cooperating, as appropriate, with federal, state, tribal and 
local partners to enhance professional management capabilities on 
tribal lands.
    The SWTFC will further serve as a regional ``conduit'' among its 
member-tribes and state, federal and local partners to encourage the 
development of cooperative inter-agency conservation efforts using a 
``landscape'' approach to maximize benefits. The SWTFC intends to 
establish professional steering Committees, comprised of regional 
tribal/non-tribal experts, to formulate management standards and 
protocols that assist Tribes in developing sustainable programs and 
otherwise guide ongoing research and administrative actions. Non-tribal 
partners, like the USFWS, will benefit from the approach of having the 
SWTFC providing a vehicle to improve coordination with tribal 
governments on a regional basis, which will, in turn, result in more 
efficient and effective allocation of outside agency resources on 
programs of mutual concern.
    The SWTFC is currently complimenting and leverage existing USFWS 
technical assistance programs. With the help of USFWS, the SWTFC is 
assessing recreational/native fish management needs and contributions 
of SW Tribes. In addition, the SWTFC expects to assist with resource 
and business planning, identifying and developing feasible fish 
hatchery/rearing capabilities (including those for native-fish), and 
establishing a regional/watershed approach to developing and executing 
more effective regional conservation efforts.

             ORGANIZATION, MANAGEMENT & BUDGET OF THE SWTFC

    The SWTFC is comprised of member Tribes who have designated tribal 
representatives to the Commission. SWTFC is governed by Officers, all 
experienced in tribal resource conservation and/or business management, 
who are duly elected from member-tribe representatives. Officers and 
management of the SWTFC will be supported by key representatives from 
regional partner agencies or interests to conduct appropriate program/
project reviews and otherwise provide management recommendations to the 
Board.
    SWTFC operations are managed by an Executive Director who is 
experienced in both business and conservation management (B.S. Wildlife 
Ecology and M.B.A.), is a former Director of a prominent southwestern 
tribal fish & wildlife organization (White Mountain Apache Tribe, AZ), 
and has extensive hands-on experience managing tribal programs and 
working with various government agencies and private interests. At its 
inception, the SWTFC will also employ a full-time Administrative 
Assistant and a Biologist/Project Manager. The complete operating 
budget for the SWTFC (salaries, office, project support, travel, 
supplies, etc.) is projected to be $250,000.00.

                               CONCLUSION

    The SWTFC and the Mescalero Apache Tribe are taking the lead in 
rehabilitating the fish hatchery to transform it into a viable tribal 
economic enterprise in the Southwest. Again, the SWTFC and Mescalero 
respectfully request your support. Thank you for the opportunity to 
submit written testimony before the Committee. If you have any 
questions, please contact our Washington, DC counsel Shenan Atcitty at 
202-457-7128 or John Cooley, SWTFC Executive Director, can be reached 
at 928-368-5492.

                                 ______
                                 
             Prepared Statement of the Squaxin Island Tribe

    Thank you, distinguished Members of this Subcommittee, for 
accepting written testimony from the Squaxin Island Tribe on the fiscal 
year 2004 Budgets for the Bureau of Indian Affairs (BIA) and Indian 
Health Service (IHS).
    The Squaxin Island Tribe, a signatory of the 1854 Medicine Creek 
Treaty, has a 2002 year-end enrollment of 736 and an on-reservation 
population of 400 living in 103 homes (18 new homes will be occupied in 
2003). Squaxin has an estimated service area population of 2,747, a 
growth rate of about 10 percent, and an unemployment rate of about 30 
percent, according to the BIA Labor Force Report. According to the 
Mason County Economic Development Council, Squaxin is the fourth 
largest employer in Mason County.
    The BIA and IHS are preparing to re-organize. We are concerned that 
this will come at the expense of diminishing tribal programs and the 
delivery of tribal services. Therefore, we ask that the Subcommittee 
include language directing both the BIA and IHS not to reduce funds 
appropriated by this Subcommittee to offset Departmental or agency 
shortfalls, to support reorganization plans, or trust reform 
initiatives without consulting with Tribal Leadership. This language 
should be included in future appropriations bills for these agencies.

                        TRIBAL SPECIFIC REQUESTS

  --$5.42 million for Tribal Infrastructure Improvements
  --$250,000 to support the design and construction of new fire station
  --$940,000 for Public Safety and Justice Department

                           REGIONAL REQUESTS

    Support all requests and recommendations of the Affiliated Tribes 
of Northwest Indians, Northwest Portland Area Indian Health Board, and 
the Northwest Indian Fisheries Commission.

                 SELF-GOVERNANCE AND NATIONAL REQUESTS

    1. Provide a minimum of $25,000,000 in BIA Tribal Priority 
Allocation (TPA) General Increase for inflationary adjustment;
    2. Provide $5 million increase for BIA and $98 million for IHS to 
fully fund Contract Support Cost (CSC);
    3. Provide $4.5 million increase to the Indian Health Service (IHS) 
Office of Tribal Self-Governance;
    4. Provide $360 million for IHS mandatory, inflation and population 
growth increase to maintain existing health care services; and,
    5. Support all requests and recommendations of the National 
Congress of American Indians and National Indian Health Board.

               INFRASTRUCTURE IMPROVEMENTS--$5.42 MILLION

  ESTIMATED COSTS OF SQUAXIN ISLAND TRIBE'S INFRASTRUCTURE IMPROVEMENTS
------------------------------------------------------------------------
                       Improvement                             Cost
------------------------------------------------------------------------
Replacement of potable water infrastructure lost to road        $773,000
 realignment............................................
Additional potable water storage--housing and government         784,000
 area...................................................
Additional potable water distribution lines for new              396,000
 housing................................................
Enhance potable water system-economic development zone..         761,720
New wastewater treatment plant-economic development zone       2,004,000
Wastewater collection system-economic development zone..         700,000
                                                         ---------------
      Total Infrastructure Project Estimated Costs......       5,418,720
------------------------------------------------------------------------

    The City of Mason County, Washington is reconstructing the access 
road to the Squaxin Island Tribe's main housing areas. A critical water 
supply main and water pumping station is in this right-of way and must 
be replaced due to the road realignment. Funding must be secured for 
this portion of the overall infrastructure improvement project by 
January 2004.

                             REGIONAL PLAN

    The Tribe is working with the Indian Health Service and a private 
engineering firm to complete a regional infrastructure plan. We are 
partnering with local agencies and surrounding landowners to ensure 
that the plan supports both the Tribe's and its neighbors' current and 
future needs.

                               WASTEWATER

    The topography of the Tribe's land base dictates two separate 
wastewater collection and treatment systems--one serving the housing 
and government area and one serving the economic development zone. We 
have just completed a new wastewater treatment plant that supports the 
housing and government area. Using funds from USDA, IHS, and NAHASDA, 
the new plant, a Sequencing Batch Reactor, has the capacity to handle 
forecasted demand for the next twenty years. The economic zone, 
however, needs a new treatment facility to support both immediate and 
long-term growth.

                             DRINKING WATER

    The overall scarcity of safe drinking water points toward combining 
the Tribe's three separate water systems. Three existing wells in the 
housing and government area continue to produce only marginal 
quantities of water. Research indicates that we will have to depend on 
water from the economic zone for most of our future needs. The 
preliminary plan calls for connecting all of the Tribe's existing wells 
and up to three new wells.

                  FIRE PROTECTION DISTRICT 4--$250,000

    The Squaxin Island Tribe, in a joint effort with Mason County Fire 
Protection District 4, is developing a $1.0 million multi-bay manned 
facility to be located in the Kamilche area (about five miles South of 
Shelton, Washington in the 35th Legislative District and 6th 
Congressional District) to provide citizens with improved fire 
protection and emergency medical services. This current station serves 
a rural area of 52 square miles, approximate 6,700 residents and 2,500 
homes and farm homes. The new fire station will have quarters for up to 
six resident firefighters, training facilities for 100 students, room 
for four emergency vehicles, and administrative offices. It could 
eventually become the headquarters for Fire District 4.
    Fire District 4 has committed to contribute $250,000 cash toward 
construction costs, as well as waive the fire protection fees, that 
were previously paid by the Tribe, for the next 25 years.
    The Tribe has committed to contribute $750,000 in cash ($500,000 
Tribal funds are available) toward the design and construction of the 
new fire station, to contribute the land for the new facility, and to 
contribute $40,000 a year to Fire District 4 for operating costs.
    We are seeking $250,000 in appropriations to complete the funding 
for this project.

              PUBLIC SAFETY AND JUSTICE REQUEST--$940,000

    The Squaxin Island Tribal Public Safety and Justice Department is 
dedicated to protecting lives, maintaining peace and ensuring that the 
property and resources of the Squaxin Island Tribe are protected 
through the enforcement of the Laws and Regulations set forth by the 
Squaxin Island Tribal Council. Over the past few years, the number of 
caseloads and calls have continued to increase placing a higher demand 
on the level of services needed in order to provide a program suitable 
to the needs of the growing community.
    The Squaxin Island Tribe is seeking $939,159 in additional funds to 
address the critical need to improve the services of the Squaxin Island 
Public Safety and Justice Department. The Squaxin Island Tribe is 
located in Kamilche, Washington in SE Mason County. The Squaxin Island 
Public Safety and Justice Department has continued to operate on 
funding levels insufficient to meet the needs of the department and 
community. This has resulted in operating a program at minimum capacity 
which has placed a negative impact on the service level provided to the 
Squaxin Island Community. Over the next few years the Tribe will be 
enhancing the shellfish habitat and production programs which will 
increase the demand on the water enforcement program to address issues 
of illegal harvesting. It is vitally important to ensure that natural 
resources are protected.
    The Department is in need of two (2) additional FTE officers for 
24-hour coverage in order to ensure the safety of the community is 
being met. The process of protecting the public is hampered by lack of 
officers to provide the 24-hour coverage, which is very critical in 
life and death situations. Additional funds are also needed for the 
Justice program to fund a Public Defender whom the Tribe contracts with 
to provide legal representation to the community members. The Public 
Defender funding level is inadequate to meet the increasing need of the 
Squaxin Island Community. The graph below demonstrates the increasing 
caseload over the past few years. Also listed below is a budget which 
lists the additional funds that the Tribe needs to effectively meet the 
increasing service level demand.
    The Public Safety enhancements will benefit the Squaxin Island 
Tribe by providing the Department with sufficient funds to operate a 
full-fledged program providing the 24-hour coverage needed to ensure 
that the community, property and resources are being protected 
effectively.
    The Squaxin Island Tribe envisions a culturally and economically 
strong community of self-governing, resilient people, united by shared 
values and traditions--by protecting life and maintaining the peace, 
protecting tribal property and resources, serving in a reasonable and 
prudent manner, and carrying out these responsibilities diligently, 
courteously, and with pride.

                                 ______
                                 
       Prepared Statement of the United Tribes Technical College

    For thirty four years, United Tribes Technical College (UTTC) has 
been providing postsecondary vocational education, job training and 
family services to Indian students from throughout the nation. We have 
received funding through the Bureau of Indian Affairs every year since 
1981, and were shocked at the Administration's request of zero funding 
for UTTC in the fiscal year 2004 Department of Interior Budget.
    The request by the United Tribes Technical College Board for the 
fiscal year 2004 Bureau of Indian Affairs budget is:
  --$4 million in BIA funds for UTTC, which is $1 million over the 
        fiscal year 2003 enacted level minus a .65 percent cut.
  --$4 million in BIA funds for phase one of student housing 
        construction, a need identified in the 2000 Department of 
        Education study.
  --Requirement that the BIA place more emphasis on funding and 
        administrative support for job training and vocational/
        technical education. The Adult Vocational Training program, 
        funded at $9 million in fiscal year 2003 is but a shadow of its 
        former self. There is no BIA leadership or advocacy for job 
        training or vocational/technical education at the central or 
        area levels.
    United Tribes Technical College: Unique Inter-tribal Educational 
Organization.--Incorporated in 1969, United Tribes Technical College is 
the only inter-tribally controlled campus-based, postsecondary 
vocational institution for Indian people. UTTC is chartered by the five 
tribes in North Dakota and operate under an Indian Self-Determination 
and Education Assistance Act contract with the BIA. This year UTTC 
enrolled 645 students from 44 tribes and 17 states. The majority of our 
students are from the Great Plains states, an area that, according to 
the 1999 BIA Labor Force Report, has an Indian reservation jobless rate 
of 71 percent. UTTC is proud that we have an annual placement rate 
(placement in jobs or in higher education) of 90 percent. We hope to 
enroll 2000 adult students by 2008.
    In addition, we serve 147 children in our pre-school programs and 
148 children in our Theodore Jamerson Elementary school, bringing the 
population for whom we provide direct services to 940.
    UTTC Course Offerings and Partnerships with Other Educational 
Institutions.--UTTC offers 14 vocational/technical programs and awards 
a total of 24 two-year degree and one-year certificates. The North 
Central Association of Colleges and Schools is the accrediting body for 
UTTC. UTTC was accredited again in 2001 for the longest period of time 
allowable--ten years or until 2011--and with no stipulations.
    We are very excited about the recent additions to our course 
offerings, and the particular relevance they hold for Indian 
communities. These new programs are:
  --Injury Prevention
  --On-Line Education
  --Nutrition and Food Services
  --Tribal Government Management
  --Tourism
    --Injury Prevention.--Through our Injury Prevention Program we are 
addressing the injury death rate among Indians, which is 2.8 times that 
of the total U.S. population We received assistance through Indian 
Health Service to establish the only degree granting Injury Prevention 
program in the nation. Injuries are the number one cause of mortality 
among Native people for ages 1-44 and the third for overall death 
rates. IHS spends more than $150 million annually for the treatment of 
non-fatal injuries and treatment of injuries is the largest expenditure 
of IHS contract health funds. (IHS fiscal year 2004 Budget 
Justification).
    --On-Line Education.--We are bridging the ``digital divide'' by 
providing web-based education and Interactive Video Network courses 
from our North Dakota campus to American Indians residing at other 
remote sites, including the Denver Indian community, and plan to serve 
rural-based Indian Tribes. Training is currently provided in the areas 
of Early Childhood Education and Computer Literacy. By the year 2005, 
students will be able to access full degree programs in Computer 
Technology, Injury Prevention, Health Information Technology, Early 
Childhood Education, and Office Technology, and others from these 
remote sites.
    High Demand exists for computer technicians. In the first year of 
implementation, the Computer Support Technician program is at maximum 
student capacity. In order to keep up with student demand, UTTC will 
need more classroom space, computers and associated equipment and 
instructors. Our program includes all of the Microsoft Systems 
certifications that translate into higher income earning potential for 
graduates.
    --Nutrition and Food Services.--UTTC will meet the challenge of 
fighting diabetes in Indian Country through education. As this 
Subcommittee knows, the rate of diabetes is very high in Indian 
Country, with some tribal areas experiencing the highest incidence of 
diabetes in the world. About half of Indian adults have diabetes 
(Diabetes in American Indians and Alaska Natives, NIH Publication 99-
4567, October, 1999)
    The College currently offers a Nutrition and Food Services 
Associate of Applied Science degree to increase the number of American 
Indians with expertise in human nutrition and dietetics. Currently, 
there are only a handful of Indian professionals in the country with 
training in these areas. Future improvement plans include offering a 
Nutrition and Food Services degree with a strong emphasis on diabetes 
education and traditional food preparation.
    We have also established the United Tribes Diabetes Education 
Center to assist local tribal communities and UTTC students and staff 
in decreasing the prevalence of diabetes by providing diabetes 
educational programs, materials and training. UTTC has published and 
made available tribal food guides to our on-campus community and to 
tribes.
    --Tribal Government Management/Tourism.--Another of our new 
programs is tribal government management designed to help tribal 
leaders be more effective administrators. We continue to refine our 
curricula for this program.
    A newly-established education program is tribal tourism management. 
UTTC has researched and developed core curricula for the tourism 
program and are partnering with three other tribal colleges (Sitting 
Bull, Fort Berthold, and Turtle Mountain) in this offering. The 
development of the tribal tourism program was well timed to coincide 
with the national Lewis and Clark Bicentennial this year. As you may 
know, Lewis and Clark and their party spent one quarter of their 
journey in North Dakota. UTTC art students were commissioned by the 
Thomas Jefferson Foundation to create historically accurate 
reproductions of Lewis and Clark-era Indian objects using traditional 
methods and natural materials. Our students had partners in this 
project including the National Park Services and the Peabody Museum at 
Harvard University. The objects made by our students are now part of a 
major exhibition in the Great Hall at Monticello about the Lewis and 
Clark expedition.
    Job Training and Economic Development.--UTTC is a designated 
Minority Business Center serving Montana, South Dakota and North 
Dakota. We also administer a Workforce Investment Act program and an 
internship program with private employers.
    Economic Development Administration funding was made available to 
open a ``University Center.'' The Center is used to help create 
economic development opportunities in tribal communities. While most 
states have such centers, this center is the first ever tribal center.
    Department of Education Study Documents our Facility/Housing 
Needs.--The 1998 Vocational Education and Applied Technology Act 
required the U.S. Department of Education to study the facilities, 
housing and training needs of our institution. That report, conducted 
for the Department by the American Institutes for Research was 
published in November 2000 (``Assessment of Training and Housing Needs 
within Tribally Controlled Postsecondary Vocational Institutions, 
November 2000, American Institute of Research'') The report identified 
the need for $16,575,300 for the renovation of existing housing and 
instructional buildings ($8 million if some existing facilities are 
converted to student housing) and $30,475,000 for the construction of 
housing and instructional facilities.
    UTTC continues to identify housing as its greatest need. We have a 
huge waiting list of students some who wait from one to three years for 
admittance. New housing must be built to accommodate those on the 
waiting list as well as to increase enrollment. Enrollment for the 
2002-2003 academic year has increased by 31 percent. In order to 
accommodate the enrollment increase, UTTC partnered with local renters 
and the Burleigh County Housing Authority. Approximately 40 students 
and their dependents were housed off campus. The demand for additional 
housing also presents challenges for transportation, cafeteria, 
maintenance and other services.
    UTTC is building a new 86-bed single-student dormitory on campus. 
UTTC formed a unique strategic alliance with the U.S. Department of 
Education, the U.S. Department of Agriculture, the American Indian 
College Fund, the Shakopee Mdwekanton Sioux Tribe and other sources to 
build the dormitory. The new dorm will help UTTC address its housing 
shortage. It will however create new challenges such as shortages in 
classroom, office and other support facility space.
    Existing housing must be renovated to meet local, state, and 
federal safety codes. In the very near future, some homes will have to 
be condemned which will mean lower enrollments and fewer opportunities 
for those seeking a quality education.
    Classroom and office space is at a premium. The College has 
literally run out of space. This means that the UTTC cannot expand its 
course offerings to keep up with job market demands. Most offices and 
classrooms that are being used are quite old and are not adequate for 
student learning and success. We were able to piece together three 
sources of funds (EDA, USDA, DOEd) to raise $1 million to renovate a 
building to create a new student life and technology center.
    Thank you for your consideration of our request. We cannot survive 
without he basic vocational education funds that come through the 
Bureau of Indian Affairs.
                                 ______
                                 

   Prepared Statement of the Wind River Irrigation Project in Wyoming

    Construction of Bureau of Indian Affairs-administered Wind River 
Irrigation Project (WRIP) began in 1905 as authorized by congressional 
legislation. Although construction continued off and on for over 50 
years, the project was never completed. Currently, the WRIP is in a 
condition of extreme disrepair. Very little maintenance has been 
performed on the WRIP in the years since construction ceased. Studies 
commissioned by both the Eastern Shoshone and Northern Arapaho Tribes 
(Tribes) and the State of Wyoming, as well as BIA reports show that the 
WRIP has over $50 million in deferred maintenance.
    As the result of decades of neglect, many essential water delivery 
structures in the WRIP are in immediate danger of failing. As these 
structures fail, large portions of the WRIP will be left without water. 
Such failure will have a huge impact not just on the livelihoods of 
agricultural producers left without water, but also on the entire 
Fremont County economy. A study conducted in 2000 concluded that the 
WRIP has a maximum life of 5 to 10 years if a large-scale 
rehabilitation effort is not undertaken.
    The poor overall condition of the WRIP results in extremely 
inefficient use of water. Irrigation efficiencies in the WRIP range 
from 45 percent to as low as 27 percent. The inefficiency of the WRIP 
results in water shortages, even during normal or wet years. Water 
supply modeling done as part of a recent basin-wide planning effort 
undertaken by the State of Wyoming showed that the WRIP has one of the 
largest unmet needs of any irrigation project in the Wind River basin, 
even during wet years. During the past three years of drought, water 
shortages in the WRIP have been especially severe.
    The poor condition and water delivery in the WRIP leaves farmers in 
the WRIP at a competitive disadvantage with other farmers in the region 
who irrigate in nearby, better-funded irrigation districts (Midvale 
Irrigation District, Riverton Valley Irrigation District, and Leclair 
Irrigation District).
    To solve the problems on the Wind River Irrigation Project, a 
large-scale rehabilitation effort must be undertaken. The Tribes have 
completed numerous studies on WRIP rehabilitation, much of the 
engineering work has been done, and all that remains is to secure 
funding. The total cost of WRIP rehabilitation, based on studies that 
are several years old, is over $50 million. This cost is currently 
being updated. Completing a rehabilitation project of this magnitude 
will likely require a combination of federal and state funding. During 
the past legislative session, the Tribes worked closely with Wyoming 
legislators to pass into law a bill that will allow the Tribes to 
receive funding for water projects through the Wyoming Water 
Development Commission. In the months since the passage of this bill, 
the Wyoming Water Development Commission has been working closely with 
the Tribes to prepare an application for funds to help rehabilitate the 
WRIP.
    We sincerely hope that Congress will be able to appropriate funds 
in the amount of $3.5 million per year over a three year period on a 
non-reimbursable basis for rehabilitation of the Wind River Irrigation 
Project--to begin initial and emergency rehabilitation. These funds 
should be in addition to funds normally allocated to the Bureau of 
Indian Affairs for their irrigation projects. With a combination of 
federal and state funding, the WRIP can be rehabilitated for the 
benefit of everyone in the Wind River Basin.

                                 ______
                                 
  Prepared Statement of the Enewetak/Ujelang Local Government Council

    Mr. Chairman and distinguished members of this Subcommittee: Thank 
you for providing this opportunity to the people of Enewetak to 
describe issues that relate to our ability to live on Enewetak Atoll. 
Of immediate concern is increased funding of Enewetak Food and 
Agriculture Program. Consequently, this statement includes a request to 
increase the funding of the Department of Interior funded Enewetak Food 
and Agriculture Program by $309,000 from $1.391 million to $1.7 
million.
    Other issues that relate to our ability to live on Enewetak Atoll 
are: Funding of the health care program; funding of the just 
compensation award issued by the Nuclear Claims Tribunal; resettlement 
of the Enjebi people on their home island of Enjebi; monitoring of the 
our people for radiation exposure; continued monitoring of the 
environment to determine current radiation levels; and, monitoring of 
the Runit dome.
    We would first like to address the continuing challenges that life 
on Enewetak presents. These challenges are the result of the severe 
damage inflicted on our atoll by the U.S. Nuclear Testing Program. This 
committee has helped us meet some of these challenges by funding the 
Enewetak Food and Agriculture Program.

 CONTINUED AND INCREASED FUNDING OF THE ENEWETAK FOOD AND AGRICULTURE 
                                PROGRAM

    This program is necessary because over one-half of Enewetak remains 
contaminated by radiation. The remaining fifty percent of the land was 
turned into a desert-like wasteland in the course of the nuclear 
testing program. As a result of such activities, there is insufficient 
food and other resources on Enewetak atoll to support the people.
    Congress recognized the predicament of the Enewetak people and in 
Section 103(h) of the Compact of Free Association Act of 1985, Public 
Law 99-239, authorized funding for the Enewetak Food and Agriculture 
Program. Such funding provides imported food, an agriculture 
rehabilitation program, and the operation of a vessel.
    Much progress has occurred over the past several years with regard 
to the agriculture rehabilitation effort. In addition, we have become 
more and more involved with the soil rehabilitation effort and the 
planting and maintenance of food bearing plants. Increase in the 
funding from $1.1 million to approximately $1.4 million these past 2 
years has helped the program keep up with inflation and has created a 
momentum that we would like to maintain.
    However, the increasing population, much improved agriculture 
rehabilitation techniques, and transportation expenses has increased 
the costs to the program. These costs are the costs of the necessary 
food imports; transportation costs for food imports; transportation 
costs of equipment, material, supplies, and fuel for the agriculture 
rehabilitation program; and labor costs for the accelerated agriculture 
effort. To meet these increased costs, the program needs to be 
increased to the sum of $1.7 million in fiscal year 2003. The $1.7 
million is broken down as follows: Food and cooking fuel costs, 
$550,000; agriculture costs (labor, equipment, material, supplies, 
fuel, operations and maintenance), $850,000; transportation costs 
(labor, fuel, operations and maintenance), $300,000. Included in the 
three foregoing categories is the cost of administration of the 
program. Due to the foregoing, we respectfully request that this 
committee increase the amount requested by the Administration for this 
program for fiscal year 2003 by the amount of $309,00, for a total of 
$1.7 million.
    We would now like to describe the award of $386 million made to us 
by the Marshall Islands Nuclear Claims Tribunal for damages we suffered 
as a result of the U.S. Nuclear Testing Program. We will briefly 
describe this development and then describe the necessity of resettling 
the Enjebi island members of our community on their home island, 
radiation monitoring of our people and the environment, and the 
background of the food and agriculture program and its components.

  FUNDING OF THE JUST COMPENSATION AWARD ISSUED BY THE NUCLEAR CLAIMS 
                                TRIBUNAL

    The issue most important to us is the funding of the $386 million 
award for just compensation made to the Enewetak people by the Nuclear 
Claims Tribunal. Enewetak was the site for forty-three of the sixty-
seven nuclear bombs detonated by the United States in the Marshall 
Islands. The damages of the U.S. Nuclear Testing Program affect us to 
this day. It is important to remember that in 1947, prior to the 
removal of our people from Enewetak, the United States promised us that 
we would have all constitutional rights accruing to U.S. citizens, that 
we would be taken care of during our exile to Ujelang, and that we 
would not be exposed to any greater danger than the people of the 
United States.
    The constitutional rights to which we are entitled include the 
right to be justly compensated for the damages we suffered as a result 
of the U.S. nuclear testing program. In addition to the well documented 
promises made to us, the United States in the Compact (1) accepted 
responsibility for the just compensation owing for loss or damage 
resulting from its nuclear testing program and (2) agreed that the 
Marshall Islands Nuclear Claims Tribunal (``Tribunal'') make a final 
determination of the amount that would satisfy the constitutional 
requirement of just compensation.
    The Tribunal, following well established U.S. constitutional, 
legal, and regulatory principles, determined that the just compensation 
to be provided to us was an amount of $386 million in addition to what 
we received or will be received under the Compact. The funding of this 
amount by the United States would satisfy its constitutional obligation 
to us. This funding could be provided through the Changed Circumstances 
Petition process that has been presented to the U.S. Congress. 
Alternatively, the Congress could direct the U.S. Court of Appeal for 
the Federal Circuit to review and certify, or to reject in whole or in 
part, the award of the Tribunal similar to an existing Congressional 
provision that deals with judgments of the Marshall Islands courts 
against the U.S. arising from its administration of the Marshall 
Islands under the U.N. Trusteeship.
    It is important to note that this funding would provide us with the 
resources to rid our land of radiological contamination, rehabilitate 
the soil, revegetate the land, resettle the Enjebi people on their home 
island, and provide the means by which we could establish a local 
economy in the fishing and tourism sectors. The foregoing would permit 
us to once again become self-reliant and self-sufficient. Until this 
funding materializes, we require continued and increased funding of the 
Enewetak Food and Agriculture Program.

    RESETTLEMENT OF THE ENJEBI PEOPLE ON THEIR HOME ISLAND OF ENJEBI

    We, the Enewetak people, consist of two groups: The people of the 
southern part of the atoll, the Enewetak group; and, the people of the 
northern part of the atoll, the Enjebi group. The Enjebi people have 
been exiled from their home island for a period of over 56 years. They 
have not been able to resettle their home island because it remains 
contaminated. As a result, the Enjebi people need to share the limited 
land and resources with the other Enewetak people on the islands of 
Enewetak, Medren and Japtan. As the populations grow, this is becoming 
an increasingly difficult situation. Yet Enjebi cannot be resettled in 
the near term because insufficient funding exists for the cleanup and 
resettlement.
    The situation at Enjebi is difficult since Enjebi Island was ground 
zero for a number of tests. In addition, it underwent bulldozing, 
scrapping and soil removal during the 1977-80 partial cleanup 
activities. In order to make the island habitable again, radiological 
remediation and soil and plant rehabilitation are required. As 
determined by the experts, the cost for the radiological remediation 
and soil and plant rehabilitation is approximately $118 million, which 
includes the cleanup and rehabilitation of the other northern islands 
which are part of the Enjebi people's resources for food from land and 
marine areas. These costs are part of the just compensation award made 
to the Enewetak people by the Tribunal.
    In addition, the people require the housing, infrastructure, and 
other buildings necessary to permit them to live on the island while 
the rehabilitation is ongoing. These costs are estimated at $30 
million.
    In short, the cleanup and resettlement of Enjebi is projected to 
cost $148 million. The best solution is for the funding of the Tribunal 
award which would provide the funding for the cleanup and 
rehabilitation of all the northern islands including Enjebi, and which 
would provide the funding for the housing and other necessary 
infrastructure at Enjebi.
radiation monitoring of the people, the environment, and the runit dome
    Because of the residual radiation contamination at Enewetak Atoll, 
we and our environment need to be monitored. The U.S. Department of 
Energy (DOE) and the Enewetak/Ujelang Local Government Council have 
reached an agreement on an appropriate whole body counting and 
plutonium detection regime. The DOE responsibilities under such a 
regime need to continue until Enewetak is radiologically remediated. In 
addition, the Runit Dome (Cactus Crater Containment Site) contains over 
110,000 cubic yards of material including plutonium and other 
radioactive debris. This site needs to be monitored to assure the 
integrity of the structure and to assure that no health risks from the 
radioactive waste site are suffered by us. To effect the foregoing, a 
long-term stewardship program of the Runit Dome needs to be implemented 
by the United States.

                   FUNDING OF THE HEALTH CARE PROGRAM

    In Section 102 of Public Law 96-205, the U.S. Congress, authorized 
a program of medical care and treatment for the peoples of the atolls 
of Bikini, Enewetak, Rongelap, Utrik and other Marshallese determined 
to be affected as a result of the U.S. Nuclear Testing Program in the 
Marshall Islands. The funding for such program continued, in an amount 
of $2 million annually for 15 years, under the terms of Article II 
Section 1(a) of the Agreement Between the Government of the United 
States and the Government of the Marshall Islands for the 
Implementation of Section 177 of the Compact of Free Association, 
Public Law 99-239. The funding for such medical care and treatment 
program expired as of October 21, 2001. The RMI has provided funding 
for the continuation of this program from the Section 177 trust fund. 
However, that fund is now so depleted that the RMI cannot fund the 
program in the future. The Congress in Section 104 of Public Law 96-
205, intended such medical care and treatment program to continue 
unless terminated by the express approval of the Congress. Congress has 
not approved termination. The program needs to continue and the funding 
needs to be increased to $4 million annually to provide a medical 
safety net for the people of the 4 atolls and other Marshallese 
determined to have been affected by nuclear testing. Even at the $4 
million level, the program will only be able to expend $28 per person 
per month for the program costs. The $4 million should include an 
inflation factor by being tied to the U.S. medical CPI.
    We would now like to describe the food and agriculture program:

                 ENEWETAK FOOD AND AGRICULTURE PROGRAM

    The Enewetak Food and Agriculture Program enables us to live on 
Enewetak. It provides funding for imported food, continued agriculture 
rehabilitation, operation of a motor vessel that brings us the imported 
food, and an operation and maintenance component conducted out of a 
facility on Enewetak known as the field station.
    Efforts made to increase food production.--The most significant 
aspects of the agriculture rehabilitation program are the infusion of 
nutrients into the soil and the planting of buffer plants along the 
island's shore to protect the interior plants from salt spray. The 
infusion of nutrients into the soil is accomplished by digging trenches 
and placing organic material in the trenches along with a compost 
mixture of copra cake and chicken manure. This activity is extremely 
labor intensive and required the importation of copra cake and chicken 
manure. Although the work is progressing, additional funding is 
required to provide greater manpower and the necessary equipment, 
materials and supplies.
    Importation of food.--Imported food is required because of the poor 
soil condition of the land available to us and the radiation 
contamination of other lands. Imported food is now approximately 
$500,000 of the program budget and is expected to increase because of 
the increase in food costs and because of our growing population. These 
issues further illustrate the need to increase the program to $1.7 
million.
    Vessel.--In 1999, we purchased, repaired, and refitted a 104-foot 
motor-vessel as a replacement vessel for our 54-foot motor-sailer, 
which sank. This replacement vessel, named the KAWEWA, has greater 
capacity for cargo and passengers than the previous vessel. The KAWEWA 
permits us to transport machinery, equipment, supplies and other 
necessary cargo. It also provides transportation to members of our 
community. Both the transport of cargo and people has become extremely 
difficult in the Marshall Islands because of the lack of transport 
vessels and aircraft. The KAWEWA provides the necessary lifeline for 
goods, materials, and transportation for our community.
    Field Station.--Operation and maintenance of the entire program is 
conducted out of a facility referred to as the Field Station. Field 
Station personnel provide all the required agricultural work; maintain, 
service, and operate the equipment required by the various components 
of the program; make payments and maintain books of accounts; and 
coordinate the procurement of food, material and equipment.

                               CONCLUSION

    We thank the Congress for its past support and its consideration of 
the items described above.
                                 ______
                                 

 Prepared Statement of the Central Sierra Environmental Resource Center

    Our organization provides the following recommendation and input 
for the fiscal year 2004 Department of the Interior and Related 
Agencies Appropriations bill. Our Center is cognizant of the need for 
public land acquisition in our local region and the priorities that are 
important, given limited funding. This letter provides our fiscal year 
2004 funding recommendations for Land and Water Conservation Fund 
projects and the Conservation Trust Fund. We urge that $450 million be 
allocated to the Federal LWCF program in fiscal year 2004. We 
specifically recommend $3.7 million for the National Park Service to 
fund the acquisition of the unique Ackerson Meadow property and to also 
acquire the Hazel Green property, and $2 million to purchase Mojave 
National Preserve inholdings. We recommend $2.5 million for the U.S. 
Forest Service to acquire wilderness inholdings in Northern California. 
We recommend $2 million for the Bureau of Land Management to purchase 
wilderness inholdings in the desert lands under their management. As 
other groups have endorsed, we also agree that the Conservation Trust 
Fund should be funded at its dedicated amount of roughly $2 billion in 
fiscal year 2004.
    As you are aware, the LWCF is critically important for protecting 
important lands and at-risk resources in California and elsewhere. For 
example, in our local region, there is a 400-acre parcel of land 
(called the Ackerson Meadow property) that lies directly adjacent to 
Yosemite National Park. The forest on the Ackerson Meadow property 
contains nesting pairs of rare Great Gray Owls, and amazingly, the 
Ackerson Meadow property also contains riparian breeding habitat for 
the threatened Willow Flycatcher. The meadow system is both a wet and 
dry meadow complex that supports abundant wildflowers, ferns, and 
groundcovers, and the stream system of the property may contain rare 
Mountain Yellow-Legged Frogs. All of this is currently at risk as the 
property owners have placed the land on the open market, which could 
lead to its development and the permanent loss of an opportunity to add 
this unique and critical wildlife habitat to either Yosemite Park or 
the Stanislaus National Forest (which also abuts the property). This 
Ackerson Meadow parcel is representative of other precious, vitally 
important parcels that have national significance. Once they are 
developed or altered, the resource values that could last for countless 
generations could be forever lost.
    The following is a list of specific areas, including Ackerson 
Meadow, that deserve high priority consideration for immediate funding:

Ackerson Meadow
    Out of the entire region that lies west and northwest of Yosemite 
National Park, there is no other public or private that provides as 
much important diversity and unique value as Ackerson Meadow. More than 
100 bird species have been documented to use the property. Rare Great 
Gray Owls nest along the meadow edge. Willow Flycatchers breed along 
one section of the stream. There are Native American sites, one old 
homestead building, and many outstanding scenic values. The property is 
currently listed for sale to any interested buyers, and the potential 
for it to be developed or converted into a cattle ranch makes the 
priority for purchase extremely high. In addition, the current property 
owner has discussed logging the property if no buyer steps forward 
soon. Such logging would directly affect the nest stands needed by the 
Great Gray Owls. These 400 acres of spectacular meadow and forest could 
be purchased for $2,500,000 from the present owners and managed by the 
National Park Service for its outstanding wildlife values. If the 
property, instead, sold to developers or as a cattle ranch, the 
potential for any public land purchase would plummet, while any future 
purchase price would correspondingly climb dramatically.

Wilderness Inholdings on Forest Service Land within California
    Each year, numerous private parcels that are inholdings within 
designated Wilderness are offered for sale by the landowner. For fiscal 
year 2004, we request $2,5000,000 to purchase available inholdings now 
available, including two properties in the Trinity Alps Wilderness area 
and in the Marble Mountains Wilderness Area. Both wilderness areas 
provide important habitat for wildlife and recreational opportunities 
to the public. The Pacific Crest Trail runs through both wilderness 
areas. The Trinity Alps wilderness is especially popular with hikers, 
offering numerous loop trails extending off the Pacific Crest Trail. 
The Marble Mountains Wilderness Area is known for its diverse forests 
of tanbark oak, madrone, Douglas fir, foxtail pine, and mountain 
hemlock. The private lands in the Trinity Alps and Marble Mountain 
areas represent only a small fraction of the California Forest 
inholdings that will be put on the market for sale in the coming years. 
Annual funding allocated specifically for critical forest inholdings 
would allow the Forest Service to purchase land on a prioritized need 
basis to prevent development of lands and protect areas of significant 
ecological value.

Wilderness Inholdings on BLM lands within the Desert Region of 
        California
    In southern California, the BLM Desert District manages 65 
individual wilderness areas throughout the California desert. Hundreds 
of land acquisition opportunities exist among the 65 wilderness areas 
the BLM manages. Due to the numerous important ecosystems and habitats 
of these areas, the BLM would like an annual appropriation of 
$2,000,000 to purchase critical inholdings. For every $1,000,000 
allocated, 1,500 acres of land can be acquired and protected. New 
opportunities arise each year as landowners place their property on the 
market. Some properties have more urgent funding needs and some 
properties are of greater ecological significance. With an annual 
funding allocation for critical inholdings, the BLM will be able to 
acquire and protect the most sensitive lands in the wilderness areas 
each year.

Mojave National Preserve Inholdings
    The Mojave National Preserve, managed by the National Park Service, 
is a diverse ecosystem that contains sand dunes, Joshua tree forests, 
desert washes, dry lakes, and mile-high mountains. The landscape 
provides habitat to a wide variety of animals including bighorn sheep, 
coyotes, iguanas, wild burros, and the threatened desert tortoise. 
Numerous private inholdings exist within the National Preserve, some of 
which have proposed development by the owners in the past. As these 
inholdings become available for purchase it is essential that they be 
acquired for preservation to prevent development and critical habitat 
loss. The purchase of critical inholdings within the Mojave National 
Preserve is an ongoing project and we request funding of $2,000,000 for 
fiscal year 2004. Funding will be used to secure the most urgent 
properties first.

Hazel Green Property--adjacent to Yosemite National Park
    Yosemite, made famous by its spectacular mountain and valley 
scenery and its groves of giant Sequoia trees, is one of America's 
oldest and best-loved national parks. The Hazel Green property, located 
on the western boundary of the park, is targeted for hotel development. 
Acquiring the Hazel Green property will help realize the transportation 
components of the Yosemite Valley plan, which is to reduce traffic 
congestion and crowding. The property will be listed with a local real 
estate agent shortly so funding of $1,200,000 for fiscal year 2004 is 
needed to acquire these lands.
    All of the properties described above provide important values that 
should be maintained in public ownership. Prices will never be lower in 
the future, and the threats to many of these areas make acquisition 
especially timely.
                                 ______
                                 
                 Prepared Statement of Audubon New York

    Thank you for the opportunity to present testimony on behalf of 
Audubon New York, the State program of the National Audubon Society. My 
name is David J. Miller, the Executive Director of the organization 
that promotes the protection and proper management of birds, other 
wildlife and their habitats through advocacy and education. I am 
testifying in support of the Conservation Trust Fund, which should be 
fully funded at its dedicated level for fiscal year 2004, $2.08 
billion. My primary reason for submitting this testimony is to 
respectfully request an allocation of $200 million for the stateside 
Land and Water Conservation Fund (LWCF) and $125 million for State 
Wildlife Grants.
    Your predecessors in the Congress had a simple, but brilliant, idea 
in the mid-1960's. They recognized that non-renewable resources, oil 
and gas, were being depleted on the Outer Continental Shelf, and 
billions of dollars of revenue were being realized by the Federal 
government through leases authorizing the exploration and removal of 
these commodities. About this time, a report had been issued by the 
Outdoor Recreation Resources Review Commission, chaired by Laurence 
Rockefeller, which documented the need for quality and accessible 
outdoor recreation and recommended a funding source be identified so 
that other non-renewable resources could be safeguarded for their 
natural attributes and/or for their recreational value. A bi-partisan 
effort resulted in the creation of the Land and Water Conservation Fund 
in 1964.
    The LWCF is one of the components of the Conservation Trust Fund 
and has two basic elements: a federal program and a stateside matching 
grant program. The federal side provides funds to acquire land and 
water resources for national parks, forests, wildlife refuges and other 
public land. These are important purposes and we support the continued 
availability of money for federal use. As important, however, is the 
stateside program, which provides 50 percent matching grants to states 
and localities for the planning, acquisition, development and 
improvement of parks and recreational facilities. These are enormously 
important because they provide close-to-home opportunities for people 
to refresh their spirit, to interact with family and friends and to 
enjoy the healthful attributes of the great outdoors. The funds 
supplied by the federal government to this program are most efficient 
since they are matched by state and local dollars. Since its inception 
in 1964, more than 38,000 projects have been funded and the LWCF has 
touched the lives of most every U.S. citizen in one way or another, 
whether they realize it are not.
    The fund is authorized at $900 million annually. Originally, the 
formula between federal and stateside funding provided that not less 
than 60 percent of the annual appropriation was to go to stateside 
projects. In the early 1980's, the formula was changed to allow not 
more than 40 percent for the stateside program. Obviously, this was a 
substantial change and resulted in a further strain on stateside 
projects. Stateside funding trickled in from that time until 1995, when 
the funding dried up completely.
    Recognizing the importance of the funding, New York State carried 
the ball authorizing bond acts and other funding mechanisms to continue 
state projects and 50 percent matching grants to municipalities for the 
same purposes authorized in the LWCF. The demand for these funds 
greatly exceeded their availability and in 1998 Governor George E. 
Pataki called for the creation of an Empire State Task Force for Land 
and Water Conservation Funding. Ironically, Laurence Rockefeller agreed 
to serve as the Honorary Chair since he continues to believe in the 
importance of close-to-home recreational opportunities. Audubon New 
York, and an incredible number of diverse and concerned organizations, 
responded to the Governor's call and under the direction of Parks 
Commissioner Bernadette Castro, and then Environmental Conservation 
Commissioner John Cahill, mobilized a massive grassroots campaign to 
revitalize the stateside LWCF. The result was unanimous and bipartisan 
support for the Fund by the New York Congressional delegation.
    As a result of the vocal support heard all around this Country, 
monies once more started to flow. New York received almost $2 million 
in fiscal year 2000, more than $4.5 million in fiscal year 2001 and 
more than $7 million in fiscal year 2002, and it looked like we were 
trending in the right direction. Even though the Conservation and 
Reinvestment Act (CARA) was not passed, there was a good feeling about 
the Conservation Trust Fund, which was authorized for 6 years, starting 
at $1.6 billion annually and was to grow by $160 million each year. 
Unfortunately, fiscal year 2003 served to once more take the wind out 
of the proponent's sails. Once more we started to go backwards. Once 
more we were disappointed, even though the need for respite and 
sanctuary is clearly greater today than it was in fiscal year 2001.
    We respectfully request that you stop the deterioration of these 
critical programs during a time of such need. We ask that you remember 
the vision of your predecessors in the mid 1960's. We ask that you 
fully fund the Conservation Trust Fund, recognizing that this was the 
compromise presented when CARA failed! To go backwards from the reduced 
commitment cannot be justified, especially since it represents such a 
small amount in the relative scheme of domestic spending.
    For fiscal year 2004 please provide full funding for the stateside 
LWCF. $200 million will allow the states and their municipalities to 
continue to address the recreational needs of their citizenry. This 
number is higher than the $160 million requested by the Administration, 
but it is far below the original share authorized for the states. 
Audubon New York believes that ultimately the LWCF should be funded at 
its $900 million authorized level, and that amount should be evenly 
split between the federal and stateside programs. New York has funded 
more than 1,100 projects, in every County in the State, with LWCF 
funds. Since the year 2000, approximately 60 projects have been funded 
throughout the state from eastern Long Island to the Niagara Frontier; 
from New York City to the Thousand Islands and from the Southern Tier 
to the Adirondacks. Valuable open space has been protected, ball fields 
built and trails aligned. None of these essential community amenities 
would have been available without the support of the Congress. We thank 
you for this, and we urge you to continue that good work in the future.
    The other Conservation Trust Fund program that we would like to add 
our support for today is the State Wildlife Grants program. This is 
another critical program, which provides money for wildlife 
conservation projects that stabilize, restore, enhance and protect wild 
species and their habitats. Although authorized at $150 million, the 
Administration is only recommending funding at the $60 million level. 
Audubon New York urges an appropriation in the area of $125 million. We 
struggle daily to prevent species from becoming endangered, and with 
more than 1,000 species in such danger, we desperately need the funding 
requested. The federal government needs to remain a partner in this 
effort and we implore the appropriators to recognize that it is less 
expensive to protect them today than it would be to help them recover 
tomorrow.
    I thank you for this opportunity to share the thoughts of Audubon 
New York with you. Again, we are asking for full funding for the 
Conservation Trust Fund at $2.08 billion; $200 million for the 
stateside Land and Water Conservation Fund; and $125 million for the 
State Wildlife Grants program. Let's live up to the promises and 
commitments of the past; and let's invest in our communities, families 
and children's future. Thank you for your thoughtful consideration.
                                 ______
                                 

      Prepared Statement of the Conservation Trust Fund Coalition

    Mr. Chairman, we, the Conservation Trust Fund Coalition, are 
writing to express our support for fully funding the Conservation Trust 
Fund (also known as the ``Conservation Spending Category''), the key to 
providing adequate levels of conservation, recreation, historic 
preservation, ocean conservation, and wildlife funds at the local, 
state, and federal level.
    As a broad and diverse coalition of conservation and civic 
organizations, historic preservationists, state wildlife directors, 
advocates for marine and coastal areas, park and recreation directors, 
advocates for urban and wilderness areas, outdoor recreation and 
sporting goods industry leaders, hunters and anglers, and youth sports 
groups, we believe that the Conservation Trust Fund represents a major 
advancement in conservation spending. The programs within the Trust 
Fund encourage active lifestyles, promote smart growth, and stimulate 
the economy by investing in communities across America.
    For fiscal year 2004, we support maintaining the integrity of and 
fully funding the Conservation Trust Fund at its dedicated $2.08 
billion level. To make this possible, we respectfully urge you to 
provide sufficient 302(b) allocations to both the Interior and the 
Commerce, Justice, State and Judiciary Appropriations Subcommittees to 
allow them to provide full funding for portions of the Conservation 
Trust Fund within their jurisdiction without harming other important 
programs.
    We hope that you will join us by supporting the Conservation Trust 
Fund at its dedicated level, safeguarding the health and well being of 
America's communities and preserving our natural, cultural, and 
historic resources. Thank you for your consideration of this important 
matter.
                                 ______
                                 
              Prepared Statement of The Ocean Conservancy

    The Ocean Conservancy is pleased to share its views regarding the 
programs in the Department of the Interior's budget that affect marine 
resources and requests that this statement be included in the record 
for the fiscal year 2004 Interior and Related Agencies Appropriations 
bill.
    The Ocean Conservancy (TOC) strives to be the world's foremost 
advocate for the oceans. Through science-based advocacy, research, and 
public education, we inform, inspire, and empower people to speak and 
act for the oceans. TOC is the largest and oldest nonprofit 
conservation organization dedicated solely to protecting the marine 
environment. Headquartered in Washington DC, TOC has regional offices 
in Alaska, California, Florida, and Maine.

                        CONSERVATION TRUST FUND

    TOC supports full funding for the Conservation Trust Fund. We 
believe that the Conservation Trust Fund represents a major advancement 
in conservation spending and urge the Subcommittee to fully fund and 
maintain the integrity of the Conservation Trust Fund at its authorized 
level of $1.56 billion in fiscal year 2004.

                       FISH AND WILDLIFE SERVICE

Endangered Species Program
            Listing and Critical Habitat
    The Fish and Wildlife Service (FWS) continues to face a backlog of 
species needing listing and critical habitat designation. TOC 
respectfully requests the Subcommittee fund endangered species listing 
and critical habitat programs at $24 million in fiscal year 2004, $14.9 
million above fiscal year 2003 enacted levels.
            Consultation Program
    Each year, FWS reviews more than 62,000 federal actions under 
Section 7 consultations. TOC requests that the Subcommittee increase 
funding by $8 million to $56 million in fiscal year 2004 to ensure 
timely completion of these consultations.
            Recovery Program
    TOC is extremely concerned about the Administration's proposed $2.4 
million cut to the endangered species recovery program. We appreciate 
the Subcommittee providing a modest increase in fiscal year 2003 and 
urge an additional increase be provided in fiscal year 2004. Within 
this increase, TOC respectfully requests the committee specifically 
earmark funds for the southern sea otter.
    The southern sea otter was listed as threatened under the 
Endangered Species Act in 1977. The current population has suffered 
significant declines in six out of the last seven years. Necropsy data 
indicates that nearly 40 percent of otters examined had an infection at 
the time of death. TOC respectfully requests $500,000 in fiscal year 
2004 to produce an epidemiology plan, conduct a health assessment 
workshop, and support the scientific research recommended by the 
Southern Sea Otter Working Group.

National Wildlife Refuge System--Coral Reef Conservation
    Coral reefs are rightly known as ``the rainforests of the sea,'' 
and are among the most complex and diverse ecosystems on earth. Coral 
reefs provide habitat to almost one third of marine fish species, serve 
as barriers to protect coastal areas, and provide an estimated $3 
billion annually in economic benefits to the country from recreational 
tourism and fishing. Coral reefs are also extremely fragile and face 
serious threats from overutilization and pollution around the world.
    The Department of the Interior serves on the Interagency Coral Reef 
Task Force and is responsible for implementing the National Action Plan 
to Conserve Coral Reefs. Unfortunately, the Department's budget is 
grossly inadequate to properly manage, monitor and protect the over two 
million acres of coral reefs under its jurisdiction. TOC respectfully 
requests an additional $1.5 million in fiscal year 2004 be directed to 
increase protection, monitoring and management of coral reefs within 
the National Wildlife Refuge System, including the refuges in the 
Florida Keys and newly established units at Palmyra and Kingman atolls.

Manatee Law Enforcement
    TOC urges the Subcommittee to continue funding manatee law 
enforcement in fiscal year 2004. Heightened law enforcement efforts are 
necessary to protected the endangered Florida manatee and curtail 
motorboat caused mortalities. Watercraft mortalities represent the 
single largest identifiable cause of death for Florida manatees each 
year. Past funding has enhanced compliance with manatee protection 
speed zones and has increased the number of National Wildlife Refuge 
System officers patrolling Florida waters. While we support the 
Administration's proposed increase of $500,000 we ask for an additional 
$500,000 to promote recovery and minimize human caused mortalities 
within federally designated manatee refuges and sanctuary areas.

National Invasive Species Act--Ballast Technology Demonstration
    Nonindigenous species infestations degrade natural resources of 
virtually every U.S. waterway and coastal area. Free of natural 
predators, alien species which become established in our waters often 
out-compete native organisms, destroy habitat and alter the physical 
and chemical conditions in our coastal waters. Invasive species are 
regarded as a leading cause of diminished biodiversity and cost our 
economy millions of dollars each year. The leading vector of 
unintentional introductions of aquatic pest species is the discharge of 
ballast water by oceangoing vessels. he National Invasive Species Act 
(Public Law 104-332) authorizes $2.5 million for the FWS to eliminate 
this source of aquatic invasives. We appreciate the Subcommittee's past 
support and urge the full $2.5 million be provided in fiscal year 2004 
to help develop and demonstrate environmentally sound ballast water 
treatment technologies.

                         NATIONAL PARK SERVICE

Buck Island Reef National Monument, St. Croix, U.S. Virgin Islands
    The Buck Island Monument has expanded in size from 880 acres to 
18,135 marine acres, a twenty-fold growth. As a result, TOC 
respectfully requests an additional $1.0 million in funding in fiscal 
year 2004 for the Park Service to administer this ocean park; 
scientifically assess, monitor and protect its marine resources; and 
conduct outreach and education programs for its increased number of 
visitors.

Virgin Islands Coral Reef National Monument, St. John, U.S. Virgin 
        Islands
    TOC respectfully requests an additional $500,000 in funding in 
fiscal year 2004 to administer this new monument; scientifically 
assess, monitor, and protect its marine resources; and conduct outreach 
and education programs.

Channel Islands National Park
    TOC respectfully requests an additional $500,000 in funding in 
fiscal year 2004 for the Channel Islands National Park. This funding is 
necessary for the Park to continue working with the State of 
California's Department of Fish and Game and NOAA's National Marine 
Sanctuary Program to protect Park resources, conduct a scientific 
assessment of the new marine reserves, and support education and 
outreach efforts for Park visitors.
    Additional funding should be also provided to improve the 
management and protection of special coral reef areas in Florida's Dry 

Tortugas National Park and Biscayne National Park.

                        U.S. GEOLOGICAL SERVICE

Coral Reef Conservation
    TOC respectfully requests $4.5 million in fiscal year 2004 for the 
U.S. Geological Survey to support research and monitoring of coral 
reefs, particularly in the U.S. Virgin Islands. Research and monitoring 
is needed to better understand the impacts of fishing on coral reefs, 
the causes of coral diseases, and the role of marine protected areas in 
coral reef conservation.

National Water Quality Assessment Program
    Over the past 50 years, nitrogen and phosphorus inputs into U.S. 
waters from human activities on land have increased up to 20 times 
their previous levels, and the rate of increase is accelerating. This 
has had a number of adverse impacts on our coastal water quality. Algae 
blooms are depleting oxygen levels, killing fish and other aquatic 
organisms. Dead zones are increasing in size and quantity.
    At the present time we cannot effectively assess the extent of our 
water quality problems or the effectiveness of our programs because 
only 32 percent of our estuaries and 5 percent of our ocean waters are 
monitored. The National Water Quality Assessment Program (NWQAP) is one 
of the few federal programs charged with systematically monitoring the 
status of the nation's water quality, evaluating trends, and assessing 
the sustainability of this critical resource. Data from NWQAP is 
absolutely essential if we are to make progress in reducing the impacts 
of excess nutrients in the marine environment.
    We greatly appreciate the Subcommittee's rejecting the 
Administration's proposed 10 percent budget cut last year and request 
$66.8 million in fiscal year 2004, $3 million above the 
Administration's fiscal year 2004 request.

Toxics Substances Hydrology Program
    The Toxic Substances Hydrology Program provides objective 
scientific information on the behavior of toxic substances in the 
nation's hydrologic environments. The information is used to improve 
characterization and management of contaminated sites, to protect human 
and environmental health, and to reduce potential future contamination 
problems. The program is guided by reviews conducted by the National 
Research Council. We urge the committee to reject the Administration's 
proposed $2.5 million cut to this program and restore funding in fiscal 
year 2004 to the fiscal year 2002 level of $13.9 million.

                      MINERALS MANAGEMENT SERVICE

Offshore Oil and Gas Leasing Moratoria
    Since 1981, Congress has included bill language in the Interior 
Appropriations legislation to protect sensitive coastal and marine 
regions from new offshore oil and gas leasing. Today the moratorium 
protects the east and west coasts of the United States, Alaska's 
Bristol Bay, and parts of the Eastern Gulf of Mexico off Florida. TOC 
applauds the Subcommittee's historic support of this language and 
strongly supports its continued inclusion in fiscal year 2004.
    Thank you for considering the funding needs of these programs. They 
are of the utmost importance to the stewardship of the nation's living 
marine resources. We greatly appreciate your past support for these 
programs and your consideration of our fiscal year 2004 requests.

                                 ______
                                 

              Prepared Statement of The Wilderness Society

    Mr. Chairman, The Wilderness Society (TWS) would like to thank you 
for the opportunity to provide recommendations and comments on the 
fiscal year 2004 Department of the Interior and Related Agencies 
Appropriations bill. On behalf of the more than 200,000 members and 
supporters of TWS, a 70-year-old organization dedicated to preserving 
America's last remaining wild places, I provide below our fiscal year 
2004 funding recommendations for a number of important conservation 
programs. Our top priorities include:
  --Continuation and full funding for the Interior portion of the 
        Conservation Trust Fund (Land Conservation, Preservation and 
        Infrastructure Improvement Fund) at $1.56 billion;
  --Within the Conservation Trust Fund, $450 million for Land and Water 
        Conservation Fund federal land acquisition; and
  --Within the Conservation Trust Fund, $150 million for the Forest 
        Legacy program.
    We also urge you to maintain the integrity of both the Conservation 
Trust Fund, and of the Land and Water Conservation Fund contained 
within it.
    Adequate funding for the programs discussed below is vital to 
protect America's wild areas and environmental values, essential 
components of our American identity and our heritage. The land and our 
relationship with it infuse our history, our heroes, and our hearts. We 
hope to work with you to find the resolve and funding to protect those 
values that, like freedom itself, are a national birthright.

                        CONSERVATION TRUST FUND

    We respectfully urge the Subcommittee to provide full funding for 
its portion of the Conservation Trust Fund (CTF) at $1.56 billion for 
fiscal year 2004. In one of its great bipartisan environmental 
achievements, the Congress established the Conservation Trust Fund in 
2000 to address the chronic and severe underfunding of our nation's 
conservation, recreation, wildlife, and cultural treasures' needs.
    We thank the Subcommittee for providing the full dedicated for CTF 
programs under the jurisdiction of the Interior Appropriations 
Subcommittee for fiscal year 2001 and fiscal year 2002. However, we are 
troubled by the drop of over $400 million in total CTF funding in the 
final fiscal year 2003 Omnibus appropriations bill, and by the cut of 
nearly $600 million in the President's fiscal year 2004 budget. We 
strongly urge you to maintain Congress' commitment to the CTF for 
fiscal year 2004 by providing the dedicated funding level of $1.56 
billion for Interior appropriations programs.
    Additionally, Congress should reject the proposal in the 
President's budget to erode the fund's original purposes by cutting 
funding for its authorized programs, such as the Land and Water 
Conservation Fund and State and Tribal Wildlife grants, while adding 
funding for new programs such as the poorly-defined Cooperative 
Conservation Initiative.
    Land and Water Conservation Fund.--Within the CTF, we urge the 
Subcommittee to reject the Administration's proposal for the Land and 
Water Conservation Fund (LWCF), and instead to provide at least $650 
million for LWCF's original, authorized programs, including $450 
million for Federal Land Acquisition. For decades, LWCF has been a 
premier tool to fund two things: federal land acquisition and a state 
assistance program. This year, in an attempt to make LWCF look full, 
the Administration shoehorns in numerous additional unrelated programs. 
This was done to mask cuts of over 50 percent in real land acquisition. 
Funding in the President's Budget for National Park Service, Fish and 
Wildlife Service, Bureau of Land Management and U.S. Forest Service 
land acquisition is cut from a combined total of $429 million enacted 
in fiscal year 2002 to $187 million proposed for fiscal year 2004. 
Americans have long relied on federal land acquisition to protect and 
complete its parks, forests and refuges, and the Administration's cuts 
would result in smaller, more degraded lands and fewer recreation 
experiences--and the words ``Land and Water Conservation Fund'' would 
lose the meaning they have had since 1965.
    We specifically recommend LWCF federal land acquisition funding for 
24 priority projects for fiscal year 2004, listed in Appendix A. 
Federal acquisition of these lands is necessary to address grave, 
immediate environmental threats with the potential for permanent 
damage, and to help protect and restore wildlands of significance (e.g. 
those with rare ecosystems, endangered species, and/or other special 
qualities).
    Forest Legacy.--We also recommend $150 million within the CTF for 
Forest Legacy. Authorized by Congress in 1990, the Forest Legacy 
program offers the opportunity for the federal government to work in 
partnership with states, local communities and private landowners to 
ensure that the multiple benefits found on forest lands--economic 
sustainability, wildlife habitat protection, and recreational 
opportunities--are secured for future generations. Since its inception, 
Forest Legacy has proven an extremely popular means to combat the loss 
of privately-owned timberlands to development, but is currently unable 
to meet national demand. In fiscal year 2003, states submitted funding 
requests totaling over $300 million in Forest Legacy funding, yet less 
than a third of this amount was appropriated. In addition, several 
other states are in the process of enrolling in the program in the near 
future, increasing the demand for funding. We specifically recommend 
Forest Legacy funding for 11 priority projects, listed in Table B 
below.

            ADDITIONAL AGENCY APPROPRIATIONS RECOMMENDATIONS

    U.S. Forest Service.--Forest Service lands provide a vast array of 
popular recreational opportunities for millions of Americans. Outdoor 
recreation contributes more to the U.S. economy than any other use of 
the National Forest System, producing 31 times more jobs and 38 times 
more economic benefits than logging. Despite this, many important 
conservation programs that help maintain Forest Service lands' 
recreational and ecological components are chronically underfunded, 
while programs that harm our national forests have traditionally 
received too much funding. We urge the Subcommittee to provide $76 
million for Wildlife, Fish, Watershed and Atmospheric Sciences 
Research, approximately a $25 million increase over the fiscal year 
2004 President's Budget request. We also recommend $285 million for the 
Recreation, Heritage, and Wilderness Program, an increase of $30 
million, as well as $200 million for the Wildlife and Fisheries Habitat 
Management Program, an increase of $65 million.
    We are concerned that the proposed fiscal year 2004 President's 
Budget's for the Forest Service Research and Development account falls 
$8 million short of the $260 million needed to prevent the further 
erosion of scientific capability within the Forest Service. 
Additionally, TWS strongly urges the Subcommittee to restore funding to 
the Rehabilitation and Restoration program at the fiscal year 2001 
level of $142 million; and to fund Deferred Maintenance and 
Infrastructure Improvement at the fiscal year 2002 level of $60 
million. These two funds are critically important for mitigating 
environmental impacts after severe wildland fire events and for 
reducing the $8 billion road maintenance backlog. Finally, we request 
that you avoid endorsing the President's proposal to reduce the number 
of wildland firefighting crews and engines by 53 percent, but instead 
at least double the wildland fire budget to prepare for a fire season 
similar to 2000 or 2002.
    Fish and Wildlife Service.--The National Wildlife Refuge System 
passes a significant milestone when it celebrates its 100th anniversary 
this year. Unfortunately, the Refuge system is suffering under a nearly 
$2 billion backlog in operations and maintenance. TWS gratefully 
acknowledges the Subcommittee's faithful and consistent efforts to 
improve funding for the system, and we look forward to continuing our 
collaborative work with the Subcommitee towards additional 
improvements. We recommend $700 million for the Operations and 
Maintenance Program, an increase of $298 million above the President's 
Budget, to carry out necessary repairs, fund new staff positions, and 
support development of Comprehensive Conservation Plans.
    National Park Service.--TWS is grateful for the President's 
continued support of the National Resource Challenge, but an increase 
of $12.4 million is needed in this fifth and critical year of this 
program to bring its funding level to $80 million. We also recommend $6 
million for the Soundscape program, to assist the National Park Service 
(NPS) in preserving and/or restoring the natural soundscapes within the 
parks. Additionally, as a member of the steering committee for 
Americans for Our National Parks, we recommend an additional $178 
million over the enacted fiscal year 2003 levels in Park Operations to 
adequately protect the natural and cultural resources of the National 
Park system, bringing the total NPS Operations appropriation to $1.63 
billion.
    In addition, TWS continues to recommend the formation of a 
Wilderness Branch within NPS, as the agency is the conservator of the 
largest total area of wilderness in the world.
    Bureau of Land Management.--The President's fiscal year 2004 Budget 
proposes $43 million for the National Landscape Conservation System 
(NLCS), including an increase of $2.7 million for operations. This 
funding increase is critical to protect the cultural and ecological 
``crown jewels'' of the BLM system: 15 National Monuments, 15 National 
Conservation Areas, hundreds of wilderness areas and wilderness study 
areas and numerous segments of Wild and Scenic Rivers and National and 
Scenic Trails. We also suggest the Subcommittee work with the agency 
and other interests to allocate funding for specific resource 
protection priorities at NLCS units.
    For BLM overall, TWS recommends an increase of $2 million for 
Resource Management Planning above the fiscal year 2004 President's 
Budget request of $48 million, to ensure effective public participation 
and outreach for new planning starts.
    We also endorse the Interior Department's multi-agency Invasive 
Species Initiative, and urge the Subcommittee to provide the full $9 
million increase for its programs proposed in the fiscal year 2004 
President's Budget.

                        TABLE A.--RECOMMENDED FEDERAL LWCF PROJECTS FOR FISCAL YEAR 2004
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                    Fiscal year
                 Agency                             State                    Project name           2004 funding
                                                                                                      request
----------------------------------------------------------------------------------------------------------------
BLM....................................  Arizona...................  Grand Canyon Parashant                1.2
                                                                      National Monument.
                                         California................  California Desert Wilderness          2
                                                                      Inholdings.
                                         Utah......................  Grand Staircase Escalante/            1
                                                                      Calf Creek.
USFS...................................  Alaska....................  Cube Cove--Admiralty Island.          4
                                         Alaska....................  Tongass--North Knig Slough..           .510
                                         Alaska....................  Unuk River--Misty Fjords               .400
                                                                      Nat. Monument.
                                         California................  California Wilderness                 2.5
                                                                      Inholdings.
                                         Florida...................  Pinhook Swamp/Suwanee                 2.5
                                                                      Wildlife Corridor.
                                         Georgia...................  Chattahoochee NF--Etowah              1.2
                                                                      River Basin.
                                         Georgia...................  Chattahoochee NF--Springer             .700
                                                                      Mountain.
                                         Georgia...................  Chattahoochee NF--Thrower             1.25
                                                                      Tract.
                                         Idaho.....................  Payette NF--Thunder Mtn.              5
                                                                      Area--River of No Returns.
                                         Montana...................  Gallatin National Forest--            2
                                                                      Taylor Fork.
                                         New Mex...................  Gila Wilderness--Margaret              .075
                                                                      Stewart Purchase.
                                         New Mex...................  Gila Wilderness--Middle                .175
                                                                      Percha Purchase.
                                         New Mex...................  Gila Wilderness--Spring                .340
                                                                      Canyon Purchase.
                                         New Mex...................  Kelly Purchase..............           .320
                                         N. Dakota.................  Griffin Ranch--Bullion Butte          1.5
                                                                      Roadless Area.
                                         Vermont...................  Vermont Long Trail                    0.20
                                                                      Additions--Bolton Mt..
                                         Washington................  Cascade Crest...............          8
NPS....................................  California................  Mojave National Preserve              2
                                                                      Inholdings.
                                         California................  Yosemite National Park--              1.2
                                                                      Hazel Green Property.
                                         Texas.....................  Big Thicket National                  6
                                                                      Preserve.
NPS/FWS................................  Colorado..................  Baca Ranch/Great Sand Dunes.         12
----------------------------------------------------------------------------------------------------------------


    TABLE B.--RECOMMENDED FOREST LEGACY PROJECTS FOR FISCAL YEAR 2004
                        [In millions of dollars]
------------------------------------------------------------------------
                                                             Fiscal year
               State                      Project name      2004 funding
                                                               request
------------------------------------------------------------------------
Maine..............................  Boundary Mountains to          5
                                      Nahmakanta.
                                     Katahdin Forest......          8
                                     Machias River........          2
                                     Tumbledown Mtn./Mt.            4.3
                                      Blue/Bald Mtn..
New Hampshire......................  13-Mile Woods........          2
New York...........................  Moose River Corridor.          2
                                     Sable Highlands-               5
                                      Domtar.
                                     Tahawus-National Lead          3.5
Vermont............................  Chittenden County              4.15
                                      Uplands.
                                     Mallory Brook........          0.25
                                     Northeast Kingdom IP           1.5
                                      Realty Lands.
------------------------------------------------------------------------

                                 ______
                                 

           Prepared Statement of the Anza-Borrego Foundation

    The Anza-Borrego Foundation thanks you for this opportunity to 
provide recommendations and comments on the fiscal year 2004 Department 
of the Interior and Related Agencies Appropriations bill. On behalf of 
the more than 1,000 members and supporters of the Anza-Borrego 
Foundation, an organization dedicated to the acquisition of lands for 
Anza-Borrego Desert State Park, the largest contiguous state park in 
the nature, I provide below our fiscal year 2004 funding 
recommendations for the Land and Water Conservation Fund projects and 
the Conservation Trust Fund.
    Our top priorities include:
  --Support of the allocation of $450 million to the federal LWCF land 
        acquisition program in fiscal year 2004.
  --Support of funding the Conservation Trust Fund (commonly known as 
        CARA ``Lite'' or the Conservation Spending Category) at its 
        dedicated amount of $2.08 billion in fiscal year 2004.
  --We specifically recommend $4 million for the Bureau of Land 
        Management to fund the California Desert Wilderness Inholdings 
        and Mojave National Preserve Inholdings federal LWCF projects. 
        (Please see below.)
    The Anza-Borrego Foundation (ABF) is a small regional land trust 
that acquires land through donation or purchase from willing sellers 
that benefits Anza-Borrego Desert State Park. ABF was first organized 
in 1967 at the request of the California State Parks Commission to deal 
with the issue of nearly 60,000 acres of inholdings in the 600,000-acre 
Anza-Borrego Desert State Park. In our 36 years of business, this small 
but mighty foundation has acquired and transferred to the Park over 
30,000 acres of inholdings and significant park resource lands.
    ABF and the Anza-Borrego Desert State Park have benefited from 
major funding from the stateside LWCF. In 2001, with the help of ABF, 
the Park acquired 2,675 acres of the Lucky 5 Ranch. This acquisition 
links two state parks, Rancho Cuyamaca State Park and Anza-Borrego 
Desert State Park, thus creating a vital wildlife corridor between 
these two publicly held lands. Currently California State Parks is 
seeking additional stateside LWCF funding for the acquisition of 3,339 
acres of the Vallecito Ranch. Here again, this acquisition will link 
BLM lands to the south with existing state park land to the north. Both 
of these acquisitions possess untold natural and cultural resources 
including prime habitat for the federally listed endangered Peninsular 
bighorn sheep.
    Although our Foundation's focus in land acquisition is local in 
scope and while this particular park has benefited only from the 
stateside LWCF sources, the Anza-Borrego Foundation actively 
participates as a partner in the broader land trust movement to protect 
California's deserts. We enthusiastically support the need to fully 
fund the federal LWCF to benefit the following California projects.
    California Desert Wilderness Inholdings.--$2 million.
    In southern California, the BLM Desert District manages 65 
individual wilderness areas throughout the California desert. These 
areas are as large as 200,000 acres and as small as 1,500 acres. 
Landscapes vary between ecosystems, ranging from mountainous high-
altitude desert to lowland dry lakes and expansive sand dunes. The 
designated wilderness areas provide habitat to numerous species 
including bighorn sheep, bobcats, mountain lions, wild burros, gray 
foxes, fringe-toed lizards and the threatened desert tortoise. The 
Kingston Range Wilderness, home to the Banded Gila monster, is one of 
only five places in the world where this critter exists.
    Hundreds of land acquisition opportunities exist among the 65 
wilderness areas the BLM manages. Due to the numerous important 
ecosystems and habitats of these areas, the BLM would like an annual 
appropriation of $2,000,000 to purchase critical inholdings. For every 
$1,000,000 allocated, 1,500 acres of land can be acquired and 
protected. New opportunities arise each year as landowners place their 
property on the market. Some properties have more urgent funding needs 
and some properties are of greater ecological significance. With an 
annual funding allocation for critical inholdings, the BLM will be able 
to acquire and protect the most sensitive lands in the wilderness areas 
each year.
    Mojave National Preserve Inholdings.--$2 million.
    The Mojave National Preserve, managed by the National Park Service, 
is a diverse ecosystem that contains sand dunes, Joshua tree forests, 
desert washes, dry lakes, and mile-high mountains. The landscape 
provides habitat to a wide variety of animals including bighorn sheep, 
coyotes, iguanas, wild burros, and the threatened desert tortoise. 
Numerous private inholdings exist within the National Preserve, some of 
which have proposed development by the owners in the past. As these 
inholdings become available for purchase it is essential that they be 
acquired for preservation to prevent development and critical habitat 
loss. The purchase of critical inholdings within the Mojave National 
Preserve is an ongoing project and we request funding of $2,000,000 for 
fiscal year 2004. Funding will be used to secure the most urgent 
properties first.
    In conclusion, as an organization that was formed exclusively to 
acquire park inholdings, the Anza-Borrego Foundation is vitally aware 
of the significance of acquiring these inholdings to make ``whole'' 
these vital publicly owned lands. We, therefore, support and recommend 
the allocations of $450 million for federal LWCF land acquisition, and 
$2.08 billion for the Conservation Trust Fund and, specifically $4 
million for the projects identified above.
    Thank you.
                                 ______
                                 

                       DEPARTMENT OF AGRICULTURE

    Prepared Statement of the American Forest and Paper Association
    he American Forest and Paper Association (AF&PA) \1\ supports 
sustainable forest management on all forest lands. Principles such as 
active management, long-term forest health and sustainability, and 
local level decision-making are vital components of AF&PA's New Federal 
Forestry policy. Federally supported research and forest health 
programs are vital to achieving sustainable management on private 
forests. AF&PA supports Forest Service and Energy programs that will 
help achieve these objectives.
---------------------------------------------------------------------------
    \1\ AF&PA is the national trade association of the forest, pulp, 
paperboard, and wood products industry. AF&PA represents approximately 
200 member companies and related trade associations (whose memberships 
are in the thousands) which grow, harvest, and process wood and wood 
fiber; manufacture pulp, paper, and paperboard products from both 
virgin and recovered fiber; and produce solid wood products.
---------------------------------------------------------------------------
    Congress should address the nation's forest health crisis through 
support for Hazardous Fuels Reduction, Forest Health Management, and 
Forest Health Research Initiatives. AF&PA considers the Forest Products 
program a vital means of promoting forest health and providing a stable 
supply of fiber for society. Priority research efforts include FIA; 
Forest Products, Utilization, and Process; Biobased Products and 
Bioenergy; Industries of the Future; and Systems Integration & 
Production Industrial Gasification programs. Following are specific 
funding level and program recommendations for fiscal year 2004:
          ensuring long-term forest health and sustainability
    Our nation's forestlands face a forest health crisis. Millions of 
acres of public and adjacent private forestland are at high risk to 
catastrophic wildfire, insect infestation, or disease. The President's 
Healthy Forests Initiative (HFI), building on the National Fire Plan, 
will help reduce these threats and restore the health of our nation's 
forests. The fiscal year 2004 budget needs to support these programs to 
improve forest health, reduce hazardous fuels, improve fire suppression 
efforts, and assist rural communities. Specifically, support is needed 
for:
    Hazardous Fuels Reduction.--AF&PA recommends $262.100 million for 
this program. Increased funding is needed for hazardous fuels reduction 
in order to protect resource values such as fish, wildlife, and water. 
There are significant treatment needs in all areas of the country and 
in all three condition classes. Regional allocations need to reflect 
these nationwide priorities.
    Rehabilitation and Restoration.--Rehabilitation and restoration 
work is critically important, and requires a dedicated funding source. 
AF&PA has serious concerns with the Forest Service's proposal to shift 
funds from other programs, as this will adversely affect other 
important work. Projects within this budget should focus on protecting 
soil and water quality.
    Fire Suppression Operations.--Congress needs to promptly resolve 
the chronic problem of fire suppression costs exceeding available 
funds. While the President's request of $604.580 million for fiscal 
year 2004 is a significant increase over the fiscal year 2003 budget of 
$417.964 million, it will prove to be insufficient if the nation 
experiences a future fire season like the ones in 2000 and 2002.
    Wildlife and Fisheries Habitat Management.--AF&PA supports the 
President's request of $134.794 million for this program, and seeks to 
ensure that important wildlife habitat and conservation programs are 
undertaken. The drawdown in the Knutson-Vandenberg (KV) fund to pay for 
wildfire suppression costs has a major impact on this and other 
programs. Approximately $170 million was borrowed from the KV Fund 
during the 2002 fire season; the Fund is now still owed a total of $433 
million. Failure to completely repay the KV Fund diminishes 
implementation of much-needed wildlife habitat, reforestation, TSI, and 
other conservation projects. In some regions, this adversely impacts 
non-essential KV projects, such as fish and wildlife programs that are 
already underfunded.
    Vegetation and Watershed Management.--AF&PA supports the 
President's request of $192.606 million for this program. This program 
should address the significant reforestation backlog, currently 
estimated at 838,066 acres. Reforestation accomplishments have steadily 
decreased while reforestation needs have increased since 1999 primarily 
due to wildfires.
    Forest Health Management.--AF&PA supports the President's request 
of $82.019 million for the overall Forest Health Management budget, but 
recommends an allocation of $44.963 million for Federal Lands and 
$37.056 million for Cooperative Lands. It is vitally important that 
programs to treat insects and disease be fully funded in order to 
protect both federal and adjacent private forests. AF&PA supports the 
concept behind the Emerging Pest and Pathogens Fund, but recommends 
greater flexibility to address the forest health crisis. Pest 
suppression funds should not be limited to new pests or pathogens as 
proposed by the Administration.
    State Fire Assistance.--AF&PA recommends $58 million for the 
program under the ``Wildland Fire Management, Fire Operations--Other'' 
budget area, and $28 million under the ``State and Private Forestry, 
Cooperative Fire Assistance'' budget area. AF&PA supports these 
increases to provide States and communities with increased technical, 
financial, and strategic assistance to reduce hazardous fuels and 
enhance their capacity to implement fire protection activities.
    Watershed Forestry Assistance.--AF&PA supports the development of a 
new Watershed Forestry Assistance program, funded at $20 million. This 
program would assist States in monitoring Best Management Practices and 
would promote the beneficial relationship between good forest 
management and water quality.
    Community and Private Land Fire Assistance (CPLFA).--AF&PA 
recommends $15 million for this program, which is designed to aid 
landowners and communities in the prevention, preparation, and response 
to wildfire threats in the wildland-urban interface. This program 
directly supports the objectives of the National Fire Plan.

                        ACTIVE FOREST MANAGEMENT

    Active forest management is needed to ensure that the agency meets 
legislative mandates of promoting forest health and providing a stable 
supply of fiber for society. If the agency is to address urgent forest 
health needs and meet its responsibilities, funds must be provided for:
    Forest Products.--AF&PA recommends an increase to the total volume 
sold, to 3.0 BBF, and funding of $404 million to support this program. 
Timber sales can be an important tool to achieve forest health 
objectives. Furthermore, the timber program is one of the few Forest 
Service programs that generates revenue. The Forest Service expects to 
achieve greater program efficiencies as a result of administrative 
actions now under consideration; increased timber volume is likely to 
result. Salvage sales are an important component of the timber sale 
program as a means to treat forests following insect outbreaks, fires, 
blow down, and other natural disasters. The Salvage Sale Fund balance 
is so low, however, that Forests are unable to take advantage of 
salvage opportunities. This fund is normally replenished with proceeds 
from salvage sales; however, Congress should appropriate funding to 
rebuild the capacity of this fund. AF&PA also recommends an increase in 
timber sale pipeline funding sufficient to provide for one-half of a 
year's program in the pipeline (1.2 BBF by the end of fiscal year 
2004). Additionally, AF&PA recommends that the accomplishment 
measurement be changed from volume offered to volume sold.
    Land Management Planning.--AF&PA supports the President's request 
of $70.868 million and urges the agency to expedite forest plan 
revisions in order to stay on schedule and to ensure consistent and 
reliable management. Revision of older plans is a high priority and it 
is critical that these funds not be diverted for other planning 
purposes.
    Deferred Maintenance and Infrastructure Improvement.--AF&PA concurs 
with the findings of the Program Assessment Rating Tool, which 
highlighted significant problems with strategic planning regarding 
deferred roads maintenance. Congress should require the Forest Service 
to develop a prioritization system and complete a backlog analysis 
within one year.

                                RESEARCH

    Research helps find innovative ways to promote and enhance forest 
sustainability and provides scientifically sound data that benefits 
both public and private forests. Congressional support is needed for:
    Forest Inventory and Analysis (FIA).--AF&PA recommends $67.691 
million for FIA, which is the target funding for fiscal year 2004 
required to deliver the base federal FIA program. Funding for this 
program should include $14.8 million for State and Private Forestry, 
$6.2 million for National Forest System, and $46.691 million for Forest 
and Rangeland Research. FIA provides the forestry community with timely 
and comprehensive forest data needed to make resource allocation 
decisions. The President's request for fiscal year 2004 would severely 
hamper the program. The Forest Service should analyze the collected 
data annually in a consortium with State Foresters, universities, and 
other stakeholders, and make this data available through annual 
reports.
    Forest Products, Utilization, and Process.--AF&PA recommends 
$18.005 million for the program and suggests that the increase over the 
agency's request be allocated to the Forest Products Lab for the 
Building Durability Test Facility ($2.5 million), the Coalition for 
Advanced Housing Research ($885,000) and core functions ($1 million). 
To help promote forest sustainability, the Forest Products Lab and 
experiment stations conduct research focusing on the efficient and 
effective use of wood fiber. Unfortunately, funding for this research 
has suffered from steady erosion in budget over the last several years. 
Support is needed for the core functions of the research stations to 
address issues such as the use of small diameter wood and bioenergy 
production, and for the construction and operation of a Building 
Durability Test Facility at the Forest Products Lab to address mold and 
moisture issues. Funding is also needed for the Coalition for Advanced 
Housing Research for research on damage mitigation from natural 
disasters like floods, earthquakes and hurricanes.
    Biobased Products and Bioenergy.--AF&PA recommends $10 million for 
biobased products and bioenergy research, of which $1 million should be 
specifically appropriated for Agenda 2020. Biobased Products and 
Bioenergy research is needed to improve forest utilization, reduce U.S. 
reliance on oil, and reduce greenhouse gas emissions. Agenda 2020 plays 
a vital role in improving forest productivity; developing new bio-
energy technologies with superior environmental performance; 
encouraging research in new forest-based materials and biobased 
products; and innovating new technologies for wood and wood composite 
materials.
    Forest Health Research Initiatives.--AF&PA supports the President's 
proposed increases to the Forest Service Research and Rangeland 
Research budget for new science and technologies, including the 
research targeted at invasive species and the Healthy Forests 
Initiative. AF&PA looks forward to working with Congress to identify 
priority research needs.
    Industries of the Future.--The forest product industry's Agenda 
2020 program has a proven track record for pre-competitive R&D. Working 
with National Labs, universities, and private sector concerns, the 
Agenda 2020 program undertakes research to improve the energy 
efficiencies of the wood and paper products sectors. Unfortunately, the 
Administration has proposed a 54 percent reduction in this program. We 
strongly urge the committee to fund these programs at a continuing 
level of $10.5 million for fiscal year 2004.
    Systems Integration & Production Industrial Gasification.--The 
forest products industry is engaged in the fifth year of a pre-
competitive research program with DOE to develop power generation by 
gasifying pulping liquor and wood residuals. This new technology has 
the potential to produce a net 22 gigawatts of power from a renewable 
fuel source, displacing as much as 100 million barrels of oil per year. 
The DOE budget stops this research program mid-stream. AF&PA recommends 
that this funding level be restored to the fiscal year 2003 level of 
$14.68 million.

                               CONCLUSION

    AF&PA appreciates the chance to provide the Subcommittee with 
testimony regarding fiscal year 2004 appropriations for the Forest 
Service. If implemented, the funding levels proposed for the programs 
listed above will help promote sustainable management and forest health 
on public and private lands.
                                 ______
                                 

      Prepared Statement of the American Sportfishing Association

    The American Sportfishing Association (ASA) recommends the 
following as the Subcommittee considers appropriations for fiscal year 
2004. The American Sportfishing Association is a non-profit trade 
association whose 555 members include fishing tackle manufacturers, 
sport fishing retailers, boat builders, state fish and wildlife 
agencies, and the outdoor media.
    The ASA makes these recommendations on the basis of briefings with 
agency staff and from years of experience with fisheries management in 
this Nation. It is important to note that sportfishing provides $116 
billion in economic output to the economy of the United States each 
year.

Forest Service
    The American Sportfishing Association strongly objects to the 
Forest Service budget structure as it relates to fisheries. Fusion of 
budget line items make it impossible to track specific expenditures and 
does not promote accountability to industry and state partners, the 
public, or Congress. ASA recommends the budget return to individual 
line items for each of the following areas: (1) fish; (2) wildlife; (3) 
vegetation; (4) and threatened and endangered species habitat 
management.
    ASA supports the proposed fiscal year 2004 budget of $134.8 million 
for Wildlife and Fisheries Habitat Management Program, but is concerned 
that this represents no real dollar increase for fiscal year 2004.
    Given a healthy fishery resource, recreational anglers and others 
in local communities depend on forest roads to access fishing and other 
related recreational areas. Many of these roads and bridges are 
deteriorating or unsafe, requiring maintenance to keep them usable and 
assure they do not contribute to poor water quality. The ASA supports 
the increase in the fiscal year 2004 budget for the roads, trails, and 
facilities program but requests an additional $50 million in funding 
for fiscal year 2004. The Forest Service has a $10 billion road 
maintenance backlog. If this backlog were eliminated, annual road 
maintenance needs would continue to be a minimum of $152 million 
annually.

National Park Service
    The ASA supports the President's requested funding of $12.0 million 
for the Cooperative Conservation Initiative (CCI) under the Challenge 
Cost Share program. This initiative's goals to restore, conserve, and 
enhance natural resources is vital to ensuring quality and longevity of 
parks natural resources. In addition, we support the $10 million 
funding level for the traditional Land and Water Conservation Fund, but 
recommend the funds are dispersed through consultation with the states.
    The Natural Resources Challenge, a program intended to protect 
native species and habitat through resource management and performance 
measures, has yet to provide evidence of success. Without proper 
evidence that this program is accomplishing the original set of goals 
and objectives, the American Sportfishing Association cannot support 
funding of the National Resource Challenge program. Until a clear 
status of proposals can be presented and specific natural resources 
information needs are determined we no longer support funding.
    The ASA is concerned with the structure and use of Cooperative 
Ecosystem Studies Units (CESU). The Biological Resources Division (BRD) 
of USGS is the primary research arm of the Department of the Interior 
and the CESUs create competition between these research unit systems. 
As we understand it, the CESUs purpose is to coordinate and complete 
research for the Park Service with other federal and state agencies in 
areas adjacent to national parks. CESU's activities lead to a 
duplication of expenditures and efforts from federal and state agencies 
when research projects are competing for the same government funding. 
The ASA urges Congress to strictly define the need for CESUs and 
express the difference between these study units and the longstanding 
efforts of the BRD Cooperative Fish and Wildlife Research Units of 
USGS. Unless a distinction can be made, the monies for this program 
should be transferred from the CESUs to the Biological Resources 
Division.

Bureau of Land Management (BLM)
    The BLM manages 117,000 miles of fishable streams, 17,000 miles of 
anadromous fish habitat, and 3 million acres of fishable lakes and 
reservoirs which provide recreational anglers with high quality fishing 
opportunities, generating $390 million annually in economic benefits. 
In order to manage these resources, the Administration is requesting 
$11.87 million in fiscal year 2004 for Fisheries Management. This 
represents a program increase of $200,000 from the fiscal year 2003 
enacted budget, but remains $250,000 below the fiscal year 2002 enacted 
budget. The ASA strongly encourages Congress to increase BLM's 
fisheries budget by an additional $1 million.
    The ASA is extremely concerned that at current staffing levels, the 
Bureau's staff will be unable to meet its statutory requirements. A 
recent workforce evaluation showed that with its current level of 
staffing in fisheries, the BLM is staffed at only 50 percent of its 
1993 identified needs. Nowhere in the fiscal year 2004 budget request 
are these staffing deficiencies addressed. Already, approximately 30 
percent of existing wildlife and fisheries staff time is being directed 
to energy-related functions. The ASA strongly supports hiring 
additional fish and wildlife staff to address these critical program 
areas in the context of addressing the Nation's Energy Policy, but 
recommends these positions be directly funded from the energy account, 
rather than extracted from the existing base Wildlife Management, 
Fisheries Management or Threatened or Endangered Species Program 
budgets.
    The BLM manages over 23 million acres of land classified as 
riparian or wetland. These areas provide vital habitat components for 
hundreds of fish and wildlife species, filter sediment from water, 
afford greater water storage capacity, dissipate flood waters and offer 
excellent recreational opportunities. For these reasons and more, the 
ASA supports BLM efforts in riparian areas, but remains concerned that 
the requested $21.97 million is insufficient to meet all of the 
identified needs. The ASA requests that Congress add $3 million to this 
riparian program, and urges BLM to continue its coordination with State 
fish and wildlife agencies in order to achieve optimal program results.
    The ASA understands the fiscal year 2004 budget request for BLM 
includes $1 million to conduct long-term, large-scale, ``cumulative 
effects'' resource monitoring. We support this effort and the manner in 
which these fiscal resources are included in the appropriate programs 
including wildlife management; fisheries management; soil, air and 
water; and cultural resources. Conversely, BLM is proposing $500,000 to 
expand resource monitoring to increase its ability to assess the 
cumulative impact of oil and gas development, especially on cultural 
resources and species-at-risk. This effort is targeted at states where 
coalbed natural gas development is occurring. However in this instance, 
the funding is contained in the oil and gas account. The ASA supports 
this monitoring, but recommends the fiscal resources to conduct this 
work be allocated within the appropriate program area budget where 
biological and cultural resource expertise exists.

Fish and Wildlife Service
    The American Sportfishing Association is pleased with the overall 
requested increases for the fiscal year 2004 budget. Despite these 
increases, there are several reductions that will cut necessary 
programs and further delay conservation efforts.
    The North American Wetlands Conservation Act (NAWCA) is a 
cooperative program that matches at least 1:1 in non-federal funds, is 
incentive based and is one of the most successful programs for 
restoring wetlands for fish and wildlife habitat. With more than 2,000 
partners including communities, governments, nonprofit organizations, 
States, and academia involved in this program, the ASA strongly urges 
Congress to appropriate the full $55 million as authorized for 2004.
    The ASA is pleased with the requested increase of $25.2 million for 
operations and maintenance of the National Wildlife Refuge System. With 
a maintenance backlog of $663 million this funding can only begin to 
address the needs for maximum operation of the Service's refuges. The 
ASA also recommends continued support of the Cooperative Alliance for 
Refuge Enhancement (CARE) recommendations for eliminating the backlog 
of the Refuge Operations and Maintenance by recommending future budget 
requests.
    The ASA is pleased with the increase in funding for the Fisheries 
Program's ``Vision for the Future'' developed by partners and States. 
The ASA supports the Presidents request for $103.6 million for this 
program, which is an increase of $9.0 million from fiscal year 2003. 
Although we support this increase there are certain factors within the 
Fisheries Program with which the ASA is concerned. We support an 
increase of $5.0 million for hatchery operations, but a significant 
hatchery purpose is to produce fish for mitigation and funding for this 
is absent from the proposal. There is a statutory responsibility to 
produce fish as mitigation for Federal water projects. In support of 
the Sport Fishing and Boating Partnership Council's recommendations for 
the Service's Fisheries Program, the ASA urges Congress to provide an 
additional $5.0 million for the Federal fishery mitigation programs 
conducted by the Service.
    The ASA supports the proposed increase of $3.0 million for hatchery 
maintenance repairs and improvements on aging infrastructures. However, 
the ASA is concerned about the $300 million backlog of hatchery 
maintenance. We urge Congress to allocate an additional $7.0 million to 
hatchery maintenance for the fiscal year 2004 budget, and we ask 
Congress to support the President's additional request of $1.0 million 
to combat aquatic nuisance species.
    The American Sportfishing Association urges Congress to support 
Fisheries Program efforts to restore fish passage for important 
recreational fisheries. This can be accomplished by Congress 
appropriating an additional $3.0 million for elimination of barriers to 
allow fish passage and fish migration nationwide. This program is 
critical to the health of our nations waters and to keep fish habitat 
as close to its natural state as possible.
    The ASA is concerned for the continuation of the Connecticut River 
Atlantic Salmon Commission Migratory Fish Restoration Program's efforts 
to restore migratory fish in the four state basin of Connecticut, 
Massachusetts, New Hampshire, and Vermont. The ASA requests an 
additional $770,000 to the Fish and Wildlife Service for this program.
    The Partners for Fish and Wildlife Program has worked with 28,700 
private landowners in restoration efforts for over 1,790,220 acres 
across the United States. The ASA supports the President's increase of 
$9.6 million, but asks Congress to add an additional $4.0 million to 
enhance the Coastal program which has also made significant 
improvements to wetlands and fishery habitats.
    One important aspect of the Service is to control invasive non-
native species. This program needs to be a priority within the Service. 
The ASA recommends an additional $10 million for the Service's invasive 
species control programs. This problem is not only domestic but also 
international and requires additional funding to ensure the survival of 
native species.
    No single agency has the responsibility to obtain the Food and Drug 
Administration's approval for aquatic drugs and chemicals necessary to 
run federal, state and private hatcheries. To meet this critical need, 
the ASA urges Congress to make available $450,000 in new funds to be 
added to the Service's Aquatic Animal Drug Approval Partnership 
program. This program would complete this important process that state 
fish and wildlife agencies have already provided substantial funding.
                                 ______
                                 

          Prepared Statement of the Appalachian Mountain Club

    On behalf of the Appalachian Mountain Club's 90,000 members, thank 
you for the opportunity to provide comments on the fiscal year 2004 
Interior Appropriations Bill. Founded in 1876, the AMC is America's 
oldest conservation and recreation organization, with chapters from 
Maine to Washington D.C. AMC is dedicated to protecting critical 
resources throughout our region, including the Northern Forest and the 
Central Appalachian Highlands. In addition, our staff and volunteers 
contribute countless hours to provide safe outdoor recreation 
opportunities for the public in places like the White Mountain National 
Forest, Acadia National Park, the Delaware Water Gap National 
Recreation Area, and the Appalachian Trail, not to mention many state 
parks and forests. As you will see by our priorities below, we place a 
premium on those programs that foster partnerships and leverage the 
substantial local, state, and private efforts in our region.
    On behalf of the Appalachian Mountain Club I am submitting 
testimony in strong support of:
  --An increase in funding for the Forest Legacy Program to at least 
        $150 million,
  --Full funding ($900 million) of the state and federal components of 
        the Land and Water Conservation Fund,
  --Full funding ($2.08 billion) for the Conservation Trust Fund (Title 
        VIII),
  --An increase in funding to the Rivers and Trails Conservation 
        Assistance Program to $15 million, and
  --Priority consideration to projects in the Northern Forest and 
        Central Appalachian Highlands.

                          REGIONAL PRIORITIES

The Northern Forest
    Encompassing 26 million acres across Maine, New Hampshire, Vermont 
and New York, the Northern Forest is the largest contiguous forest area 
east of the Mississippi. Its rugged mountains, legendary rivers, 
extensive array of lakes and ponds, and endless woodlands lie within a 
day's drive of 70 million people. The forest's capacity to grow quality 
timber for high-value manufacturing; to lure visitors with breathtaking 
displays of natural beauty; and to showcase a rich cultural and 
historical tradition are the cornerstones on which to build a robust 
regional economy.
    In response to growing anxieties about development, land 
stewardship, traditional access, and community sustainability, local 
businesses and community leaders, elected officials, and conservation 
organizations are working together to protect the important places and 
traditional values in the Northern Forest. Private initiative has been 
tremendous. In the last ten years, the region has witnessed some of 
America's most exciting and innovative conservation partnerships, 
protecting more than 2.4 million acres through a combination of state, 
federal, local and private investments of $301 million. Our job in this 
region is not done, and for fiscal year 2004, $38 million in needs from 
the Forest Legacy Program have been identified.

Central Appalachian Highlands
    The AMC also supports efforts to protect the critical treasures of 
the Central Appalachian Highlands of New York, New Jersey, Pennsylvania 
and Connecticut. This surprising region of beauty, water and life lies 
within a two hour drive of 20 million people and supplies quality 
drinking water to over 11 million residents of the New York 
metropolitan area. The Highlands provide abundant outdoor recreation 
opportunities and critical wildlife habitat in one of the most densely 
populated regions of the country.
    The recent release of the U.S. Forest Service report on the 
Highlands confirmed what locals have long understood: these water-rich 
forests are the lifeblood of our region, and they will be lost soon 
without further land conservation. The report reaffirms the ``national 
significance'' and threatened nature of the Highlands region, including 
the loss of over 5,000 acres of open space annually. The report 
identified 100,000 acres of high-value conservation lands that are 
imminently threatened by development in the NY-NJ Highlands. Given the 
pace of development and high cost of land in the Highlands, a 
significant federal investment and partnership in the region is needed 
to secure its future. The Highlands Coalition has identified nearly $16 
million in funding needs through the Forest Legacy Program in fiscal 
year 2004 in the NY & NJ Highlands alone. Full funding of the Land & 
Water Conservation Fund's state and federal programs would provide an 
additional source of funding. As federal land units are scarce in the 
Highlands region, we also support innovative conservation partnerships 
between the states and federal government, building upon the successful 
model to preserve Sterling Forest in New York.

                           PROGRAM PRIORITIES

Forest Legacy Program (FLP)--$150 million
    With the program on a track to serve as many as 43 states within a 
year, the rest of the country is quickly finding out what the Northeast 
has known for decades: that the Forest Legacy Program is an excellent 
tool for leveraging federal, state, local, and private resources. 
States have a chance to opt into the program, and every project 
requires at least a 25 percent match. Private landowners are 
comfortable with the program's market-based approach; in fact, Forest 
Legacy easements give landowners the support they need to continue 
traditional uses of the land, including forestry. At the same time, the 
public enjoys the many benefits that Forest Legacy promotes, including 
scenic beauty, clean water, outdoor recreation and wildlife. Because of 
the program's impressive track record of creating win-win conservation 
solutions, this committee has steadily increased Forest Legacy funding 
to $68.3 million in fiscal year 2003. In light of the overwhelming and 
expanding demand for this program, the AMC strongly encourages this 
committee to continue the momentum behind Forest Legacy by raising the 
funding level in fiscal year 2004 to at least $150 million.

Forest Legacy Project Requests
  --Machias River, Maine--$2 million
  --Tumbledown/Mt. Blue, Maine--$4.3 million
  --Katahdin Forest, Maine--$8 million
  --Boundary Mountains to Nahmakanta, Maine--$5 million
  --Pillsbury-Sunapee, New Hampshire--$2.5 million
  --Thirteeen Mile Woods II, New Hampshire--$1.2 million
  --Moose Mountain, New Hampshire--$1 million
  --Trout Pond, New Hampshire--$1 million
  --Chittenden County Uplands, Vermont--$4.15 million
  --Monadnock Mtn./Victory Basin, Vermont--$1.5 million
  --Mallory Brook, Vermont--$250,000
  --Sable Highlands, New York--$5 million
  --Moose River Corridor, New York--$2 million
  --Tehawus-National Lead, New York--$3.5 million
  --Highlands/Taconics region (including Pochuck Mountain and Torne 
        Valley), New York--$8 million
  --Upper Delaware River Watershed, New Jersey--$8 million

Land and Water Conservation Fund (LWCF)--$900 million
    As our nation's conservation cornerstone, LWCF is critical to the 
future of many places that Americans treasure. From playgrounds and 
ball fields, to biking paths and hiking trails, national parks, refuges 
and forests, LWCF has been the key to providing places for all 
Americans to recreate and get outdoors. Since its inception, LWCF has 
helped communities acquire nearly seven million acres of parkland, 
water resources, and open space. We strongly urge the subcommittee to 
fully fund LWCF at $900 million in fiscal year 2004.

1Conservation Trust Fund--$2.8 billion
    At the close of the 106th Congress, the Interior Appropriations 
Subcommittee established the Conservation Trust Fund (Title VIII). 
Through an amendment to the Balanced Budget and Emergency Deficit 
Control Act of 1985, the new fund was fenced off in a separate 
``conservation spending'' budget category that set aside a total of $12 
billion in increased funding over a six-year period. The Conservation 
Trust Fund is still subject to annual appropriations. We applaud the 
creation of this budget category and ask that you honor this commitment 
by providing the full level of $2.08 billion for the Conservation Trust 
Fund in fiscal year 2004.

Rivers, Trails, and Conservation Assistance Program (RTCA)--$15 million
    Through technical assistance to build trails, restore rivers, and 
establish open space, RTCA fosters walkable communities for healthier 
lifestyles. RTCA, one of the National Park Service's smallest programs, 
delivers enormous returns by building partnerships between state and 
local interests and strengthening communities. RTCA has been recognized 
by the Center for Disease Control and Prevention as an effective 
program for improving community health by increasing the opportunities 
for readily available opportunities for outdoor physical activities. 
For fiscal year 2004, we urge you to increase funding for this 
innovative program to $15 million.

In Conclusion
    Mr. Chairman, as we look forward, we are faced with an historic 
opportunity to conserve places of extraordinary natural and public 
value. To successfully meet this challenge, conservation solutions will 
depend on creative partnerships between government, businesses and the 
non-profit community. Federal funds, leadership and expertise are 
critical components of this partnership. We urge Congress to continue 
to take up this challenge of working with the people of the Appalachian 
region to protect its irreplaceable resources. On behalf of the 
Appalachian Mountain Club, I would like to thank the chairman and 
members of the subcommittee for considering our request.

                                 ______
                                 
         Prepared Statement of the Appalachian Trail Conference

    I am writing, in behalf of the Appalachian Trail Conference, to 
request the Subcommittee's consideration of an fiscal year 2004 
appropriation from the Land and Water Conservation Fund in an amount 
totaling $8.3 million for three separate line items for the USDA Forest 
Service--a ``Georgia Mountains'' project ($1 million), a ``Tennessee 
Mountains'' project ($5.3 million), and a ``Virginia Mountains'' 
project ($2 million). Each of those project areas includes parcels 
relevant to the Appalachian National Scenic Trail. In the case of the 
Tennessee Mountains project and the Virginia Mountains project, the 
request also includes other parcels that, while not proximate to the 
Appalachian Trail, nevertheless represent critical in-holdings within 
the proclamation boundaries of the affected forests (Cherokee and 
George Washington/Jefferson, respectively). Permit me to further 
describe the basis for our request.
    The Appalachian Trail was initially established between 1923 and 
1937 and has been maintained as a continuous long-distance footpath 
since that time. In 1968, with the passage of the National Trails 
System Act, the Appalachian Trail was designated as the nation's first 
national scenic trail. The act also authorized state and federal land 
acquisition to establish a permanent route and protective corridor or 
greenway along the 14-state, 2,171-mile route of the trail. Since 1978, 
with strong bipartisan support within the Congress, the two affected 
federal agencies--the National Park Service and the USDA Forest 
Service--have made remarkable progress in their respective Appalachian 
Trail land-acquisition programs. Indeed, those programs are now 99-
percent complete. In the case of the National Park Service, the agency 
has acquired more than 108,200 acres of land, affecting more than 2,600 
parcels in eleven states, and has protected more than 618 miles of the 
footpath. In the case of the USDA Forest Service, the agency has 
acquired more than 55,890 acres, affecting more than 675 parcels in the 
eight national forests crossed by the trail, and protected 149 miles of 
the footpath. Together, those programs represent perhaps the most 
successful land-acquisition programs in the history of those two 
agencies.
    At this point in the evolution of those two programs, our 
expectation is that the National Park Service will complete its 
program, possibly by the end of this fiscal year, with prior-year 
appropriations. However, in the case of the Forest Service, indications 
are that additional appropriations will be necessary to complete that 
agency's Appalachian Trail land-acquisition inventory, which includes 
about 70 parcels, affecting about 4,000 acres and about five miles of 
the footpath in the states of Georgia, North Carolina, Tennessee, and 
Virginia. In those states, the agency has been impacted by significant 
escalation in land values, particularly in the past five years. As a 
result, our current best estimate of funding requirements to complete 
the Appalachian Trail program is approximately $5.5 million. Slightly 
more than one-half ($3 million) of that remaining need is reflected in 
the above-referenced request for fiscal year 2004.
    Georgia Mountains Project ($1 million).--We are requesting an 
fiscal year 2004 appropriation of $1 million for the so-called Springer 
Mountain (Glover/Little) parcel in the Chattahoochee National Forest. 
This request is consistent with the Administration's fiscal year 2004 
budget request and represents a second-phase acquisition, building on 
an earlier appropriation in fiscal year 2003, for acquisition of this 
key in-holding in that forest. That tract is a highly scenic parcel in 
the foreground vista of Springer Mountain, the southern terminus of the 
Appalachian Trail and the jumping-off point for thousands of would-be 
``thru-hikers'' who, each year, set out to hike the full length of the 
Appalachian Trail in one season. Due to estate issues, our 
understanding is that the parcel must be acquired this year.
    Tennessee Mountains Project ($5.3 million).--Our request includes a 
second-phase acquisition of approximately 3,400 acres of the so-called 
Rocky Fork tract--a 10,000-acre in-holding in the Cherokee National 
Forest. The first-phase acquisition benefited from an appropriation in 
fiscal year 2003 and will affect about 1.5 miles of the Appalachian 
Trail. The Administration's fiscal year 2004 budget request includes 
$3.5 million for the second-phase Rocky Fork acquisition. However, the 
Appalachian Trail Conference is requesting additional appropriations in 
order to permit other acquisitions in the forest, including several key 
in-holdings--affecting approximately 250 acres ($325,000)--in the 
Highlands of Roan area, as well as nine in-holdings--affecting 
approximately 450 acres ($1 million)--along the 220-mile route of the 
Appalachian Trail through that forest.
    Virginia Mountains Project ($2 million).--Our request for the two 
Virginia forests (Jefferson and George Washington) includes several 
components. One-half of the request ($1 million) is for the acquisition 
on an opportunity, willing-seller basis, of as many as nine parcels, 
affecting approximately 800 acres, that border the Appalachian Trail. 
The balance of the request would provide, again on an opportunity/
willing-seller basis, for the acquisition of in-holding parcels in 
three areas of the Jefferson National Forest: the Mount Rogers National 
Recreation Area, a number of parcels bordering the Pine Mountain Trail 
near the Virginia/Kentucky border, and the so-called Rocky Hollow Cave 
property, which provides critical habitat for the endangered Indiana 
bat. Although the estimate costs for land acquisition related to those 
three areas exceeds $2 million, we are requesting only one-half that 
amount in fiscal year 2004.
    More detailed descriptions of the three project areas are provided 
in separate attachments.
    The Appalachian Trail Conference is a private, nonprofit, 
educational organization established in 1925 to coordinate the design, 
construction, and maintenance of the Appalachian Trail, to conserve 
adjacent lands, and to provide educational opportunities for trail 
visitors who now number in the millions each year. The Conference has a 
membership of 33,000 individuals and also serves as a federation of 31 
affiliated hiking and outing clubs throughout the eastern United States 
that maintain an assigned segment of the Appalachian Trail. In fiscal 
year 2002, more than 4,700 citizen volunteers from those clubs 
contributed more than 184,000 hours toward the construction and 
maintenance of the trail footpath, its system of overnight shelters and 
campsites, and in education and outreach to its visitors.
    Thank you for considering our fiscal year 2004 appropriations 
request and for the steadfast support of the Subcommittee over many 
years.

    Attachments
                           Virginia Mountains
    State: Virginia
    Region/Forest: Region 8, George Washington and Jefferson National 
Forests
    Congressional District/Representatives:
                6th District, Rep. Goodlatte
                9th District, Rep. Boucher
                Senators Allen and Warner

                          APPROPRIATION HISTORY
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Appropriations received: 1989-2002......................  \1\ $4,321,179
Purchased through fiscal year 2002: Acres...............           6,209
Appropriated 2003.......................................  ..............
2004 Administration request.............................  ..............
2004 Conservation request...............................      $2,000,000
    Acres...............................................           1,650
------------------------------------------------------------------------
\1\ Dollar amount indicated in appropriations history for the Forest
  includes reprogrammed money and money received from the Emergency
  Inholding appropriation

    The proposed fiscal year 2004 appropriation is intended to address 
on an opportunity-purchase basis a number of land-acquisition needs in 
the Mount Rogers National Recreation Area, as well as for protection of 
endangered species habitat at Rocky Hollow Cave, and right-of-way needs 
for the Pine Mountain Trail through the Jefferson National Forest. 
Although those needs exceed the $1 million requested, an appropriation 
in that amount should permit acquisition of key tracts in any and 
perhaps all of those areas. An additional $1 million is requested to 
acquire tracts for the Applachian National Scenic Trail corridor across 
the George Washington and Jefferson National Forests.
    Mount Rogers National Recreation Area ($1,000,000).--Six parcels, 
with an estimated value of $1,083,000, have been identified as high-
priority acquisitions within the Mt. Rogers NRA. The Mount Rogers 
National Recreation Area is of exceptional biological interest because 
of the number of organisms that occur nowhere else in the state, most 
of them associated with elevations above 4,000 feet. Some represent 
northern forms that extend southward along the higher elevations of the 
Appalachians, but the majority are species endemic to the southern 
Appalachians that extend no farther than Mount Rogers.
    Acquisition of the tracts would result in protection of views in 
the NRA, securing endangered species habitat, provide for continued and 
expanded recreational use in the Mt. Rogers area, and improve visitor 
access. The properties would also improve Forest Service management by 
decreasing boundary maintenance, reducing the potential for 
encroachments, and by consolidating ownership.
    These acquisitions are of national concern because of the use that 
the Mount Rogers NRA is receiving. The NRA is within a day's drive of 
more than 100 million people. Last year, it is estimated that more than 
one million people visited the NRA. Equestrian use, mountain biking, 
angling, and hiking are very popular, but concentration of these uses 
promotes overcrowding and resource damage. The acquisition of these 
tracts would enable completion of additional trail systems to spread 
the visitor use over a larger area.
    All six tracts are within the proclamation boundary of the 
Jefferson National Forest and are within the Mount Rogers National 
Recreation Area. They also are identified for acquisition in the 
Forest's Land Adjustment Plan and acquisition is consistent with 
existing Jefferson Forest Plan direction to acquire lands that 
facilitate consolidation of National Forest ownership and enhance 
wilderness and other resource values such as key recreational tracts 
and habitat for endangered species.
    All of these tracts have willing sellers. There are no known health 
or safety concerns with any of the seven tracts, nor are there any 
known hazardous materials present.
    If the Forest Service is not able to purchase these tracts, in all 
likelihood they will be sold to private investors. The trend in these 
areas is to subdivide property into recreational and residential home 
sites. Should this occur, it will become increasingly difficult to 
protect the NRA, the trails, and endangered species habitat. 
Descriptions of these properties follow.
    The Craig tract is located in the NRA and is a 128 acre tract that 
is retangular in shape and adjoins National Forest on three sides. The 
owner of this tract is a willing seller and has recently contacted the 
Forest Service regarding his interest in selling the property. 
Acquisition will eliminate a possible request for legal access across 
National Forest. There is no need for additional infrastructure to make 
this tract safe and usable by the general public if acquired. The 
interest to be acquired is fee simple with no reservations.
    The 40-acre Zachary property adjoins the Lewis Fork Wilderness and 
is a complete inholding within the Forest and NRA. Acquisition of this 
tract would enable the closure of a road, which has been a law-
enforcement problem involving illegal use of the wilderness.
    In addition to the Craig and Zachary tracts, there are four other 
tracts on the NRA identified for acquisition at this time. The 30-acre 
James property, the 40-acre Dixon Lumber tract, the 228-acre Andrews 
property, and the 220-acre Jennings tract. Acquisition of these tracts 
would provide ecosystem protection and consolidation, preservation of 
historic and prehistoric artifacts, and would protect the unique plant 
and animal diversity of the Mount Rogers NRA.
    Rocky Hollow Cave ($100,000).--Acquisition of this 285-acre 
property would permanently protect a known bat cave for the Indiana 
bat, an endangered species. It was noted after a visit to the cave in 
1998 that ``Rocky Hollow Cave has the best potential for large-scale 
repopulation of nay of the 13 most important Indiana bat caves and 
mines in Indiana, Kentucky, Missouri, Tennessee, and Virginia.'' 
Attempts to protect the cave through acquisition and by gating have 
been made by the Forest Service, The Nature Conservancy, and the 
Virginia Department of Game and Inland Fisheries throughout the past 20 
years. In addition to those agencies and organizations, this project 
also is supported by the American Cave Conservation Association and Bat 
Conservation International.
    Pine Mountain Trail Tracts ($915,000).--A variety of tracts, 
affecting a total of 2,612 acres are required to establish a right-of-
way for the Pine Mountain Trail across the Jefferson National Forest. 
The Pine Mountain Trail is located along the crest of Pine Mountain, 
the highest point in Kentucky and the geological break between the 
ridge and valley and Cumberland Plateau geological provinces. 
Approximately 27 miles of trail currently are constructed within the 
proclamation boundaries of the Jefferson National Forest. However, the 
entire trail, as planned, would extend for 110 miles along the crest of 
Pine Mountain from Breaks Interstate Park on the Virginia/Kentucky 
border to Pine Mountain State Park in Kentucky. An additional ten miles 
of trail would extend from Pine Mountain State Park to Cumberland Gap 
National Park. Also, the state of Tennessee is actively constructing 
140 miles of trail that would extend from Chattanooga, Tennessee to 
Cumberland Gap National Park. Proposed acquisitions are intended to 
provide easements or fee-simple ownership for a right-of-way along 
approximately nine miles of the trail presently situated on private 
lands between Skeggs Gap and Pound Gap.
    Appalachian National Scenic Trail ($1,000,000).--The Appalachian 
National Scenic Trail (A.T.) is a public footpath through 14 states 
across 2,169 miles of spectacular Appalachian Mountain ridgelines from 
Maine to Georgia. Management of the A.T. is a partnership between the 
Forest Service, National Park Service, Appalachian Trail Conference 
(ATC), and local trail-maintaining clubs. This partnership has become a 
model for partnerships between governmental agencies and private 
groups. The local hiking clubs are made up of a small army of 
volunteers dedicated to the maintenance and protection of the A.T.
    With the passage of the 1968 National Trails System Act, and 1978 
amendments to that act, funds were authorized to provide a permanent, 
protected corridor along the entire trail route. The Congress has 
continually supported the acquisition of land for the protection of the 
A.T. The Forest Service, National Park Service and the Appalachian 
Trail Conference have worked in partnership to complete the trail 
acquisition project. Overall, about 99 percent of the entire A.T. 
corridor from Georgia to Maine now is protected or in public ownership. 
Corridor protection within the Jefferson and George Washington national 
forest boundaries also is very close to completion: Since 1978, the 
Forest Service has acquired nearly 200 tracts and more than 15,500 
acres along the trail within the two forests. Indeed, only nine 
parcels, totaling 814 acres, remain to be acquired, at an estimated 
cost of $1.2 million.
    In the New River/Pearisburg area near the Virginia/West Virginia 
state line, an environmental assessment is nearing completion that will 
determine the preferred route for the trail to eliminate road-walking 
along busy Route 460 and to provide greater physical separation between 
the footpath and the adjacent Celanese industrial complex there. 
Additional lands (estimated at 170 acres, more or less) will be 
acquired on a willing-seller basis from the Celanese corporation.
    At the Big Walker farm in the Nebo Valley of Bland County, 
additional land acquisition is necessary to supplement the very narrow 
right-of-way interests presently in national forest ownership. This 
area is characterized by wide-open and sweeping views of the pastoral 
landscapes unique to southwest Virginia, and additional public 
ownership (140 acres) is warranted in order to preserve that scenic and 
agricultural character.
    The 34-acre Abbot tract is adjacent to the A.T. corridor below the 
popular Dragon's Tooth area in Craig County. The tract is within a 
prominent A.T. viewshed and adjoins a Forest Service parking lot that 
provides visitor access to the area.
    The 22-acre Schliefer property is an inholding adjacent to the A.T. 
corridor within the Mt. Rogers National Recreation Area and likely will 
be developed if it remains in private ownership. Acquisition of the 
property would help ensure the remote, primitive character of the trail 
in the NRA.
    Other tracts include Cash (78 acres), and Campbell (292 acres) 
properties. However, due to the circumstances surrounding a number of 
the affected owners, not all of these properties are suitable for 
acquisition at this time. For this reason, although total land-
acquisition needs involve 814 acres at an estimated cost of $1.5 
million, only $1 million is being requested in fiscal year 2004 for the 
acquisition of approximately 450 acres.

                          Tennessee Mountains

    State: Tennessee
    Region/Forest: Region 8, Cherokee National Forest
    Congressional District: 01: Representative(s): Bill Jenkins
    Senators William Frist and Lamar Alexander

                          APPROPRIATION HISTORY
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Appropriations received: 1996-2002......................      $5,280,000
Purchased through fiscal year 2002: Acres...............           4,800
Appropriated: 2003......................................      $4,400,000
    Acres...............................................           2,442
2004 Administration request.............................      $3,800,000
    Acres...............................................           2,649
2004 Conservation request...............................      $5,300,000
    Acres...............................................           3,420
------------------------------------------------------------------------

    Significance.--The proposed acquisitions consist of inholdings of 
various sizes within the Cherokee National Forest. The Cherokee 
National Forest shares a common border with National Forests in 
Georgia, North Carolina, and Virginia. The Forest encompasses several 
high elevation mountain ranges in the Southern Appalachians with a rich 
biodiversity in both flora and fauna. Centered between the north half 
and south half of the Forest is the Great Smoky Mountains National 
Park. It is the most visited national park in the United States. 
Visitation to the entire area is very high and is steadily increasing 
due to easy access and proximity to large metropolitan areas including: 
Knoxville, and Gatlinburg, Tennessee that are within a thirty minute 
drive; Chattanooga, Tennessee, and Asheville, North Carolina, one hour; 
Atlanta, Georgia and Lexington, Kentucky, two hours; Nashville, 
Tennessee and Cincinnati, Ohio, three hours.
    A portion of the lands proposed for acquisition would protect the 
Appalachian National Scenic Trail (A.T.). The A.T. is a public footpath 
through 14 states across 2,172 miles of spectacular Appalachian 
Mountain ridgelines from Maine to Georgia. About 220 miles of the A.T. 
cross the Cherokee National Forest. Management of the A.T. is a 
partnership between the Forest Service, National Park Service, 
Appalachian Trail Conference, and local hiking clubs.
    Acquisition of these key tracts in the Tennessee Mountains of the 
Cherokee National Forest will protect the Appalachian Trail, provide 
opportunities for public recreational uses (such as hunting, hiking, 
and fishing), improve public access, and protect critical natural 
resources, including wildlife habitat and fragile mountain watersheds.
    The Rocky Fork Tract (2,649 acres).--The Forest Service proposes to 
purchase approximately 2,649 acres of the larger area known as Rocky 
Fork. This would be the second of a multi-phased purchase of the entire 
10,000-acre tract. (Purchase of 2,130 acres was funded in fiscal year 
2003). The tract encompasses the northeast section of the Rocky Fork 
area and is situated along the crest of Rich Mountain and includes 
Higgins Ridge and the entire upper watershed of Higgins Creek. Numerous 
tributaries combine within this area to form Higgins Creek, a major 
tributary, which then flows, into Indian Creek. Both Higgins Creek and 
Indian Creek are designated trout streams. The tract's northern 
boundary lies along the crest of Rich Mountain adjoining the Sampson 
Mountain Wilderness and features stunning views of distant mountain 
ranges and valleys in Tennessee, North Carolina and Virginia. 
Elevations of this tract range from 2, 200 feet in the valleys to 4,400 
feet on Higgins Ridge at Frozen Knob. Ridgetops, rugged terrain, 
abundance of water and a mixture of hardwoods and evergreens provide 
excellent critical habitat for a variety of native fish and wildlife.
    The Rocky Fork tract is one of the largest undeveloped and pristine 
forested areas remaining in the rugged chain of the Appalachian 
Mountains. Rocky Fork harbors miles of native brook trout fisheries and 
vital watershed, rugged outcroppings and ridgelines featuring 
breathtaking views of distant mountain ranges and valleys including the 
Nolichucky River Valley in Unicoi and Greene Counties. Rocky Fork 
serves as critical wildlife habitat for black bear, deer, turkey, 
peregrine falcon and many other species. Much of the boundary adjoins 
National Forest, including the Sampson Mountain Wilderness. The 
Appalachian Trail, a National Scenic Trail, is situated along the 
western boundary of Rocky Fork. Acquisition of Rocky Fork would close a 
substantial gap in public lands along of the new scenic U.S. Hwy. 23 
corridor (soon to be designated I-26), enhance protection to the 
Appalachian Trail and Sampson Mountain Wilderness, preserve a large 
expanse of critical watershed, wildlife habitat and aesthetic beauty, 
and expand recreational opportunities, such as hiking, mountain biking, 
hunting, and fishing.
    The Forest Service has sought the acquisition of Rocky Fork for 
many years, but since the development of the U.S. Hwy 23 corridor, 
ownership of this large private holding has changed twice within the 
last four years. Thus far, purchasers have not pursued development of 
this wild area. With each transaction, combined with the expected 
completion of the U.S. Hwy 23 corridor linking the Tri-Cities in 
Tennessee to Asheville in North Carolina, development of Rocky Fork 
becomes an increasing possibility. Should this happen, an opportunity 
to preserve such a magnificent mountainous area will be lost forever. 
The estimated cost of acquiring this 2,649-acre portion of Rocky Fork 
is $3,800,000.
    The Roan Mountain/Big Ridge Tract (250 acres).--This inholding lies 
on the slopes of Big Ridge in the Roan Mountain area of Carter County, 
Tennessee, on the headwaters of Doe River near the North Carolina/
Tennessee state line. Georges Creek, an excellent native Brook Trout 
stream, flows 0.5 mile through the property, as do several unnamed 
tributaries. The slopes and peaks of this tract are covered with a 
mixed hardwood forest, with elevations that range from 2,600 to 4,000 
feet. The property ties together fragmented and isolated National 
Forest (NF) ownership and adjoins Roan Mountain State Park. Roan 
Mountain State Park is one of Tennessee's premier state parks which 
enjoys a high visitor count and features camping, cabin rentals, a 
historic farm, trout fishing, hiking trails, and vistas. Nearby is the 
6,285-foot summit of Roan Mountain, an environmentally sensitive 
highlands area known for its unique flora, including scenic 
rhododendron gardens amid spruce-fir forests and grassy balds. Views 
from and to the property are outstanding. If not acquired, the property 
will be sold for private development, complicating NF management and 
limiting public benefits and uses.
    National Forest purchase of this property will:
  --Protect the best and most productive native Brook Trout waters in 
        this region.
  --Protect habitat for 11 rare and endangered plant species, including 
        several sedges.
  --Provide and improve public access to National Forest land.
  --Enhance FS management and public recreational use by linking roads 
        and trails.
  --Provide habitat for a variety of wildlife, including black bear, 
        deer, and wild turkey.
  --Protect a fragile and sensitive watershed that's within 200 feet of 
        the Doe River.
  --Protect waterfalls on Georges Creek that are critical for native 
        trout management.
  --Preserve natural scenic values along US Highway 19E, a major 
        tourist route.
  --Provide opportunity to plan a hiking/bike trail connecting with 
        other public lands.
  --Protect high elevation slopes and peaks within view of the 
        Appalachian National Scenic Trail. While the property is 
        outside the trail's corridor, it is highly visible from the 
        trail's vistas on nearby White Rocks Mountain and from the 
        summit of Roan Mountain.
    In short, public ownership of the Roan Mountain/Big Ridge property 
will protect critical natural resources, greatly enhance National 
Forest management, and provide enormous public benefits. The estimated 
cost for this tract is $325,000.
    In addition to the Roan Mountain/Big Ridge tract, there is an 
opportunity to acquire two other smaller inholdings within the Cherokee 
National Forest that would provide critical public access to a large 
block of National Forest ownership and protect the highly scenic I-26 
corridor. The purchase price of these two tracts, affecting 170 acres, 
is estimated at $175,000. Those tracts, together with the Roan 
Mountain/Big Ridge tract include a total of 420 acres at a cost of 
$500,000.
    Appalachian National Scenic Trail (884 Acres).--A total of 9 
inholdings are proposed for purchase for protection of the Appalachian 
Trail (A,T.) within the Cherokee National Forest in Carter, Unicoi, and 
Greene counties. The tracts are located in the Sugarloaf Gap, Little 
Mountain, Shook Branch/Watauga, Hump Mountain, Allen Gap, and Buck 
Mountain areas. Acquisition of these scenic tracts will help maintain 
the undeveloped mountainous environment and visitor experiences along 
the Appalachian Trail.
    Over the years, tremendous progress has been made to acquire A.T. 
corridor lands and only a few remain that are not funded with prior-
year appropriations. Additional funds are needed, however, due to a 
rerouting of the A.T. in the Shook Branch/Watauga area, where the trail 
is being relocated off a paved road with residences and onto a much 
improved route through a forested area, and as a result of significant 
land-value escalation during the past several years.
    The Appalachian Trail often is described as a national treasure. To 
complete protection of that treasure in the Tennessee Mountains 
requires additional funding. The total estimated funding need to 
purchase these tracts, encompassing 884 acres, is $2,200,000. However, 
only $1,000,000 is being requested in fiscal year 2004 for the 
acquisition of seven of the nine parcels, affecting approximately 300 
acres.
    Constituencies.--There is growing public concern over development 
in areas that adversely affect critical ecosystems such as the above 
properties. The Cherokee Forest Land and Resource Management Plan 
addresses the need for significant land acquisition for recreation and 
ecosystem protection. Support for land acquisition by the Forest 
Service comes from local, state, regional, and national organizations, 
including the State Rivers Coordinator, The Wilderness Society, The 
Trust for Public Land, The Nature Conservancy, the State Historian, the 
Southern Appalachian Highlands Conservancy, the Tennessee Wildlife 
Resources Agency, The Conservation Fund, the Southern Appalachian 
Forest Coalition, the Southern Environmental Law Center, Partners of 
Cherokee National Forest, local sportsman groups, and the Appalachian 
Trail Conference and its local affiliates, the Tennessee Eastman Hiking 
Club and the Smoky Mountains Hiking Club.

                           Georgia Mountains
    State: Georgia
    Region/Forests: Region 8, Chattahoochee-Oconee National Forests
    Georgia 10th Congressional District: Representative Deal
    Senators Miller & Cleland

                          APPROPRIATION HISTORY
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Appropriations received: fiscal year 1997...............        $155,000
    Acres acquired......................................           45.87
Appropriations received: fiscal year 2002...............      $1,200,000
    Acres acquired......................................             175
Appropriations received: fiscal year 2003...............      $3,200,000
    Acres to acquire....................................             550
2004 request............................................      $1,000,000
    Acres...............................................             125
------------------------------------------------------------------------

    Springer Mountain ($850,000).--This tract was identified as a 
critical purchase for the Appalachian Trail project and has been 
actively sought for more than 30 years. The owners of the tract agreed 
to sell in 2003, but due to rapidly escalating land values in the area, 
the appraised price exceeded the original project budget, and a phased 
purchase became necessary. The 2004 request is the second and final 
part of a phased purchase for this tract. The Springer tract 
encompasses the foreground vista from the southern terminus of the 
Appalachian Trail and is seen by many thousands of Forest visitors each 
year. Due to estate issues, this purchase must be completed this year. 
The remaining $150,000 will be used for other high-priority riparian 
area inholding tracts in the Chattahoochee and Oconee national forests.
    Constituencies.--The Chattahoochee Land and Resource Management 
Plan clearly addresses the need to acquire and consolidate the Forest. 
Support for acquisition by the Forest Service comes from local, state, 
regional and national organizations, including The Trust for Public 
Lands, The Nature Conservancy, The Conservation Fund, the Appalachian 
Trail Conference and its local affiliate, the Georgia Appalachian Trail 
Club, the Southern Environmental Law Center, Georgia Forest Watch, 
local sportsmen, Trout Unlimited, The Wilderness Society, the Georgia 
DNR, the Chattawah Land Trust, NRCS, local county commissioners, the 
University of Georgia, The Upper Etowah River Alliance, and local 
business leaders.

                                 ______
                                 
                     Prepared Statement of Audubon

    Mr. Chairman, on behalf of over one million members and supporters 
of Audubon, thank you for the opportunity to express to your Committee 
our recommendations for fiscal year 2004 funding of Department of the 
Interior and U.S. Forest Service programs. The purpose of our testimony 
is to recommend levels of funding for specific programs that are vital 
to our mission to protect birds, other wildlife, and their habitat.

                         EVERGLADES RESTORATION

    We are grateful to the Committee for its long-standing support of 
Everglades restoration through the appropriations process and in 
important appropriations-related policy issues such as the Modified 
Water Deliveries project and the programmatic regulations. We urge the 
Subcommittee to support the following funding needs for fiscal year 
2004:
  --National Park Service Land Acquisition Assistance to the State of 
        Florida should be funded at $20 million (the Administration's 
        fiscal year 2003 request).--The State of Florida has run out of 
        money for land acquisitions and the integrity of the entire 
        CERP rests on land acquisition.
  --U.S. Geological Services and NPS Everglades science programs should 
        be increased to at least $15 million.--CESI funding should be 
        gradually restored to its previous levels of $12 million. 
        Adequate funding should also be provided to ongoing critical 
        Everglades studies regarding the sheet flow of water across the 
        Everglades, water quality, the levels of mercury and other 
        contaminants, nutrient levels, and the complex interaction of 
        groundwater and surface water in South Florida. On-going 
        science and research are critical to the successful use of 
        adaptive assessment. Applied research that directly supports 
        implementation and monitoring of project effectiveness is vital 
        to the success of the CERP.
  --The Restoration, Coordination, and Verification Team (RECOVER), 
        should be funded by Interior at $3 million.--Interior and the 
        Corps of Engineers share federal leadership on RECOVER, so it 
        is appropriate that Interior contribute to this aspect of 
        Everglades restoration.
  --CERP implementation for Fish and Wildlife Service and NPS in fiscal 
        year 2004 should be increased to $10 million.
  --The Modified Water Deliveries project should be funded at $15 
        million, $2 million above the Administraion's request.--The 
        budget must continue adequate funding for previously authorized 
        programs whose performance assumptions have been included in 
        the CERP. It is crucial to the successful and timely 
        implementation of CERP that all components of the Modified 
        Water Deliveries project be adequately funded and completed in 
        2005. This will require $15 million in fiscal year 2004 and an 
        additional $15 million in fiscal year 2005.

  LAND CONSERVATION, PRESERVATION AND INFRASTRUCTURE IMPROVEMENT FUND 
                                (LCPII)

    We urge you to renew the commitment to fully fund LCPII at its 
dedicated amount of $2.08 billion in fiscal year 2004, while the DOI 
appropriations portion of LCPII should receive $1.56 billion.
Land and Water Conservation Fund (LWCF)
    We urge the Committee to appropriate the full $900 million 
authorized for LWCF, with $200 million allocated to the stateside LWCF 
program, to combat the rapid rate of habitat loss threatening America's 
native birds and wildlife. Incorporating input from our 27 state 
offices and more than 500 chapters, we have identified dozens of 
critically important conservation opportunities through LWCF and we 
will provide a complete list of those priorities for the committee's 
consideration in the coming weeks.

State Wildlife Grants
    This valuable program provides matching grants for design and 
implementation of habitat and wildlife conservation plans and allows 
states to conserve and restore declining native species prior to a 
necessity to list them as endangered or threatened. The 
Administration's request of $60 million for combined State and Tribal 
Wildlife Grants short-changes the important conservation goals of this 
program. Audubon supports funding SWGs at $125 million in fiscal year 
2004.

                  U.S. FISH AND WILDLIFE SERVICE (FWS)

National Wildlife Refuge System
    America's Refuge System faces a massive $2 billion backlog of 
operations and maintenance needs that is widely recognized as a 
handicap to Fish and Wildlife Service efforts to conserve and protect 
the System's more than 94 million acres of prime habitat for more than 
2,000 bird and wildlife species. We call on the Committee to seize the 
opportunity provided by the Refuge System Centennial to increase 
funding for refuge operations and maintenance by $100 million over the 
fiscal year 2003 level.

Endangered Species Program
    We firmly believe that the Endangered Species Act (ESA) is one of 
our nation's most important environmental laws. We continue to be 
disappointed that the Endangered Species Program has not been funded at 
the level needed to carry out its critical purpose of staving off the 
loss of irreplaceable species and biological diversity. Although FWS's 
needs are much greater, in order to maintain its programs, we urge the 
Committee to appropriate at least $275.7 million toward the Endangered 
Species Program.

Law Enforcement Operations
    The FWS Law Enforcement program is a primary means of protecting 
fish, wildlife, and plants throughout the United States. There are 
currently only 231 FWS special agents, despite an authorized level of 
253. We therefore urge the Committee to provide $3 million over the 
Administration's request to $55.6 million in fiscal year 2004.

Neotropical Migratory Birds and the Multinational Species Conservation 
        Fund
    Approximately 500 of the existing 800 bird species found within the 
United States migrate across this nation's borders annually. The 
Neotropical Migratory Bird Conservation Act (NMBCA) was passed to 
reverse the decline of migratory birds that breed in the United States 
by protecting their habitats in Latin America and the Caribbean. For a 
great deal of these species, this region contains almost the entire 
world population of these birds in the non-breeding season. In 2002, 
the very first year for this program, there were 290 grant proposals, 
from 33 countries and 31 states, for a total of more than $120 million 
in proposed grants and matching conservation work submitted to the Fish 
and Wild Life Service. With the limited budget of $3 million, however, 
only 32 of the proposals could be granted. In light of the enormous 
demand for this program, we respectfully request the full-authorized 
amount of $5 million in fiscal year 2003 and 2004.
    We ask that for the remaining Multinational Species Conservation 
mammal funds, you appropriate $2 million each for the Asian Elephant 
Conservation Fund, the African Elephant Conservation Fund, and the 
Great Apes Conservation Fund; and $3 million for the combined 
Rhinoceros and Tiger Conservation Fund.

Migratory Bird Management (MBM)
    The President's budget for fiscal year 2004 is insufficient to 
enable FWS MBM to adequately carry out its mission. We urge the 
Committee to increase funding for MBM by $12.4 million, for a total of 
$43.5 million.
    The FWS Migratory Bird Management (MBM) budget has been essentially 
flat for the last 10 years. No increase has been provided since 1998, 
and the base funding for MBM programs has been steadily eroded by cost 
of living increases and unforeseen expenses. MBM has had to absorb 
$475,000 in postal costs for the Harvest Information Monitoring (HIP) 
program and $300,000 for DOI's Office of Aircraft Safety this year, 
expenses that were previously covered out of a FWS overhead cost pool. 
For the first time this year, OAS has not issued a waiver to FWS to fly 
planes over weight capacity limits, so valuable migratory bird survey 
data could be disrupted. We recommend that $2 million be provided to 
begin to replace aged planes so surveys may continue. No funding has 
been provided for an additional $400,000 cost of living increases this 
year. Last year the $575,000 duck stamp program was transferred to MBM 
without any accompanying funding. MBM has also been burdened by 
unforeseen earmarks, including a $550,000 reward band study and a 
$250,000 golden eagle survey. While these earmarked programs would be 
warranted at some point in the future, FWS can not carry them out this 
year without cutting core activities. MBM needs more FTEs, particularly 
biologists, to carry out its responsibilities through support of 
Partners in Flight (PIF), the U.S. Shorebird Plan, and the North 
American Waterbird Conservation Plan. The office has zero funding for 
PIF regional coordinators, which were eliminated this year. An 
additional $1.1 million would provide for seven PIF regional 
coordinators, plus nominal program expenses. Despite a hiring freeze 
and dramatic reductions in travel expenses, MBM faces a deficit of $2 
million in fiscal year 2004.

                    BUREAU OF LAND MANAGEMENT (BLM)

Managing for At-Risk Species and Habitats
    We urge the Committee to increase the President's budget request 
for BLM Threatened and Endangered Species Programs to $38 million. 
These funds will give the agency the ability to implement some 200 
necessary recovery activities for listed species, and to conserve other 
species to avoid the listing of new species. Many of the species found 
on BLM land are birds, which the Wildlife Habitat Management, the 
Threatened and Endangered Species Management, and the Riparian 
Management programs work to conserve.

                     U.S. GEOLOGICAL SURVEY (USGS)

Biological Research Division
    Audubon urges the Committee to appropriate $207 million, a total 
increase of $37 million, to the USGS for the Biological Research 
Division. Ongoing research and monitoring within BRD help Interior's 
land management agencies to maintain the health, diversity, and 
ecological balances of biological resources. Funding at current levels 
for the BRD is not fully adequate to meet the science needs of the 
Interior agencies and the complex, interrelated natural systems they 
must manage.

West Nile Virus
    Nearly two hundred species of birds have been infected by West Nile 
Virus, which has spread to forty-four states since it was first 
reported in 1999. The BRD requires additional staff and funding to 
better understand and contain this epidemic. We urge the committee to 
provide $3 million to BRD for research and monitoring in fiscal year 
2004.

                       U.S. FOREST SERVICE (USFS)

International Programs
    Audubon strongly urges the Committee to provide $10 million to 
these grossly under-funded programs in fiscal year 2004. Of special 
interest to Audubon within the International Programs is the Migratory 
Bird Conservation program. Unfortunately, many migratory birds are 
experiencing rapid population decline due mainly to the loss of habitat 
outside of the United States. An increase of $3 million, to $4.2 
million for the Migratory Bird Conservation Program will provide the 
resources needed to help conserve such species as the Kirtland's 
Warbler, Swallow-Tailed Kite, Cerulean Warbler, Bicknell's Thrush, and 
The Mountain Plover. Without such support, these migratory bird species 
will likely continue to decline and may ultimately face extinction.
    Thank you for providing us with this opportunity to testify on 
Audubon's priorities for the Interior Department and U.S. Forest 
Service. I appreciate the fact that this is a large agenda, but the 
problems facing America's birds, wildlife and their habitat are 
daunting. We look forward to working with you to protect America's 
birds, wildlife and habitat.

                                 ______
                                 
      Prepared Statement of The Cascades Conservation Partnership

    Mr. Chairman, The Cascades Conservation Partnership, a public-
private campaign, is seeking appropriations in fiscal year 2004 to 
protect important conservation and recreation lands in Washington's 
Central Cascades. Our request matches each forest conservation 
objective with the appropriate tool, either Forest Legacy or LWCF. 
Thank you for this opportunity to provide testimony to the committee.

       FOREST LEGACY REQUEST.--$2.5 MILLION--EASTON/YAKIMA RIVER

  --Funds would secure conservation easements on 1600 acres to retain 
        forests near Easton and the Yakima River.
  --Rapid conversion of prime forestland to urban type developments 
        fragments habitat, reduces recreational opportunities and 
        increases risk of fire.

              LWCF REQUEST.--$8.5 MILLION--PLUM CREEK/I-90

  --Funds would acquire 6,500 acres of checkerboard lands identified by 
        Congress as important for acquisition. Reduces management 
        expenses of public and private landowners.
  --Forest Service options to purchase expire at end of this year.
  --Wildlife habitat includes 1,700 acres of late-successional forest.
  --Lands are near Interstate 90, include 5 miles of trails, and are 
        extremely popular with recreationists.

               LWCF REQUEST.--$3.5 MILLION--CARBON RIVER

  --Funds would acquire 700 acres of Plum Creek Timber Company lands, 
        adjacent to Mt. Rainier National Park, providing important 
        wildlife and salmon habitat and recreational opportunities.

                EXPLANATION OF FISCAL YEAR 2004 REQUEST

Forest Legacy.--$2.5 million--Easton/Yakima River
    The Forest Legacy project would acquire conservation easements on 
approximately 1600 acres on lands to retain forests near Easton and the 
Yakima River. This strategic project supports a working forest 
landscape connected to nearby private, state and national forest lands. 
Rapid conversion of prime forestland to urban type developments 
fragments habitat, reduces recreational opportunities and increases 
risk of fire and fire suppression costs.

LWCF.--$8.5 million--Plum Creek/I-90, Wenatchee National Forest
    Keystone Lands.--Bringing certain lands into public ownership would 
eliminate the checkerboard ownership pattern and improve management of 
both public and private lands. Over 1,600 acres of roadless area and 
1,700 acres of late-successional forest provide critical habitat for 
species dependent on large contiguous forested areas to survive. These 
parcels are contained in areas that have been given special 
designations by the Forest Service, such as the Snoqualmie Pass 
Adaptive Management Area.
    Forested creeks in the Cle Elum River Valley provide important 
habitat for fish and wildlife as well as abundant recreational 
opportunities. Several trails and campgrounds are located in this area 
just south of the Alpine Lakes Wilderness. Significant roadless areas, 
including Kachess Ridge and Teanaway, surround the valley. Parcels in 
the Manastash Roadless Area include groves of pine and fir, with waters 
flowing into Taneum Creek, which supports bull trout. These tracts of 
land are home to threatened spotted owls. They also contain miles of 
trails and scenic vistas.
    Urgency.--Plum Creek Timber Company is a willing seller, and 
appraisals are complete. But the ancient forests on fiscal year 2004 
parcels are threatened with logging next year, as the restrictions on 
logging and road building in these parcels run out at the end of this 
year.
    Option Lands.--In negotiations with Plum Creek Timber Company over 
the I-90 land exchange, many important lands were dropped from the 
transfer. However, the Forest Service was granted an option to purchase 
many of the highest priority lands. These options run out at the end of 
2003. If the Forest Service allows its options to expire, Plum Creek 
may sell the lands to another buyer (the company has been actively 
marketing its Cascade lands). Even if Plum Creek agrees to sell the 
lands to the Forest Service following the expiration of these options, 
a new appraisal may be required, which may increase the purchase price 
significantly.
    Congressional Support.--In 1998, Congress passed legislation that 
directed the I-90 Land Exchange between the Forest Service and Plum 
Creek Timber Co. be completed. Congress found that, ``. . . the 
checkerboard ownership pattern in the area has frustrated sound and 
efficient land management on both private and National Forest lands . . 
. [and that] acquisition . . . of certain parcels of land . . . will 
serve important public objectives, including . . . enhancement of 
public access, aesthetics and recreation opportunities . . . protection 
and enhancement of old-growth forests and habitat for threatened, 
endangered and sensitive species . . . meet a broad array of ecosystem 
protection and other public land management goals . . . [and provide] a 
significant reduction in administrative costs to the United States . . 
.'' (section 602, fiscal year 1999 Omnibus Appropriations Act). The 
legislation specifically mentions trails, streams and unroaded lands as 
important public gains. The subject parcels still retain those values.
LWCF.--$3.5 million--Carbon River, Mt. Baker-Snoqualmie NF
    700 acres of Plum Creek Timber Company lands, adjacent to Mt. 
Rainier National Park, provide important lowland forest habitat and 
connections. This includes over 2 miles of frontage on the Carbon 
River, protecting salmon habitat. The project is part of a larger 
valley conservation plan with broad public support, designed to improve 
recreation, habitat protection and economic stability.

                 THE CASCADES CONSERVATION PARTNERSHIP

Unique Effort to Protect Wildlife Connections and Recreational 
        Opportunities
    Providing a Private Match for Public Funding.--The Cascades 
Conservation Partnership is an unprecedented three-year public-private 
campaign to purchase and protect forest lands that link the Alpine 
Lakes to Mt. Rainier. The Partnership seeks funding to accomplish this 
goal. In addition to seeking Land and Water Conservation Fund 
appropriations for the acquisition of lands included in our proposal, 
we have undertaken a private fundraising campaign. To date, The 
Partnership has raised $14.5 million from over 16,000 citizens.
    Focusing on Wildlife.--Our effort is to protect important 
conservation lands-especially habitat corridors between Washington's 
north and south Cascades-to ensure the viability of many wildlife 
species. Several of these species are threatened or endangered. Further 
fragmentation of the forest threatens the wildlife corridors and risks 
splitting species into smaller, more vulnerable populations.
    Spotted owls, wide-ranging cougars tracking herds of deer and elk, 
and martens will make good use of the habitat we protect. Even smaller 
species such as salamanders need a connection.
    Protecting Spectacular Lands & High Demand Recreation Areas.--In 
addition to their importance to wildlife, these lands are prized for 
the values they contribute to our quality of life. Key lands included 
in our proposal provide clean water for drinking and spawning habitat 
for endangered salmon. The lands contain vast recreational 
opportunities for the burgeoning population of Washington State, 
including more than 45 miles of trails. Hiking, horseback riding, 
bicycling, hunting, fishing, and camping are just an hour's drive from 
Seattle.

                   COMBINED FUNDING AND ACQUISITIONS

    Several sources of funds have been used to conserve forests in the 
Cascades.
    Federal Funds.--Congress has appropriated $40 million for nearly 
23,000 acres in the checkerboard country. These acquisitions included 
4,000 acres of roadless lands, five miles of river, more than 5,000 
acres of ancient forest and over 12 miles of trail, including segments 
of the Pacific Crest National Scenic Trail.
    Private Funds.--The Partnership has raised over $14.5 million to 
date, and has purchased 4,200 acres, including three mile-square 
parcels in the Manastash roadless area plus lands in a valley near 
Leavenworth. These tracts, containing old-growth forests, streams and 
trails, were donated to the Forest Service.
    Forest Legacy Program.--The federal Forest Legacy Program provides 
grants to states to conserve forest land threatened with conversion to 
urban developments. With conservation easements, the lands can remain 
as forestland in private ownership. For selected areas this will 
provide added support to the wildlife corridors, where the core is in 
public ownership.
    Washington State.--Washington State and nearby cities have acquired 
nearby critical low-elevation properties to better protect the greater 
Central Cascade ecosystem from development, including urban sprawl. In 
the past decade, Washington and other local governments have acquired 
more than 37,000 acres in the area surrounding The Partnership's 
proposal. Currently, funding for two major state acquisitions is 
pending.
    Related Transportation Project.--The Washington Department of 
Transportation is planning an expansion of Interstate 90 east of 
Snoqualmie Pass. One objective of this project is to improve wildlife 
connectivity. Among the improvements will be major bridge structures 
that will allow wildlife to move under the freeway, and two of the 
structures are adjacent to our acquisition targets on the Yakima River 
Wildlife Corridor. The Partnership's forest conservation project will 
solidify the habitat areas north and south of the freeway, and the I-90 
project will improve wildlife movement between these areas. Both 
projects are essential for wildlife connectivity. The I-90 project will 
also reduce the threats of accidents involving animals crossing the 
freeway.

                 THE CASCADES CONSERVATION PARTNERSHIP

    Alpine Lakes Protection Society; Biodiversity Northwest; Kittitas 
Audubon Society; Kittitas League of Women Voters; Kongsberger Ski Club; 
North Cascade Conservation Council; Northwest Ecosystem Alliance; 
Seattle Audubon Society; Sierra Club; The Mountaineers; Washington 
Native Plant Society; Washington Trails Association; Washington 
Wildlife Federation; and The Wilderness Society.
                                 ______
                                 

             Prepared Statement of the Highlands Coalition

    On behalf of the more 100 member groups of the Highlands Coalition, 
I am writing to request fiscal year 2004 appropriations from the Land 
and Water Conservation Fund and Forest Legacy Program to conserve the 
valuable forests in the Highlands region. I am also writing to 
encourage a total appropriation for Forest Legacy of $150 million as 
part of full funding ($2.08 billion) of the Conservation Trust Fund 
(Title VIII) package authorized in 2000.

                               BACKGROUND

    The over 2 million-acre Highlands Region is defined by a series of 
forested ridges stretching through four states (PA, NJ, NY and CT). 
These ridges border and buffer several major metropolitan areas, 
including Philadelphia, New York City and Hartford. Approximately 25 
million people live within an hour of the Highlands, and over 15 
million people rely on surface and ground waters from Highlands 
watersheds for their drinking water. Some 247 threatened and endangered 
species occur in the Highlands and over 14 million people visit the 
region's parks annually for recreation. For these reasons, the USDA 
Forest Service found the Highlands to be of ``national significance'' 
in their 1992 and 2002 studies of the region.
    Unfortunately, the forested ridges of the Highlands are becomingly 
increasingly fragmented and converted to non-forest uses due to intense 
development pressure from suburban sprawl. The USDA Forest Service's 
NY-NJ Highlands Regional Study: 2002 Update documented the loss of over 
5,400 acres of open space to development annually in the NY-NJ 
Highlands alone between 1995 and 2000, a four-fold increase since their 
previous study of the region in 1992. The Study projects that if 
current trends continue, the population of the NY-NJ Highlands region 
(1.4 million) could increase by 50 percent, leading to significant 
impacts on both water quality and quantity, wildlife and recreation.
    Only 20 percent of this nationally significant region has been 
conserved publicly or privately. The NY-NJ Highlands Regional Study: 
2002 Update identified nearly 540,000 acres of land that have high 
conservation value for water, wildlife, recreation, and productive 
forests and farmland, but are currently unprotected. Almost 100,000 
acres of these high-value lands are identified as facing imminent 
development pressure. The Highlands Coalition, a group of over 100 
national, regional, state and local organizations working to protect 
the region, has identified 180,000 acres of priority conservation lands 
in the NY-NJ Highlands at an estimated value of $750 million.

              FISCAL YEAR 2004 FUNDING NEEDS AND REQUESTS

    For fiscal year 2004, the Highlands Coalition respectfully submits 
the following requests for funding:
  --$3 million from the Land & Water Conservation Fund for the Mount 
        Bethel and Egan projects, two important additions to the 
        Wallkill NWR, one of our identified Critical Treasure areas of 
        the NJ Highlands.
  --$8 million from the Forest Legacy program for five projects in the 
        Upper Delaware River Watershed area of the NJ Highlands 
        identified as the top priority by the State of NJ: Stabile, 
        Culbertson, Checchio, Buckhorn Creek, and Crown Towers.
  --$8 million as requested by the State of New York from the Forest 
        Legacy program for the Highlands/Taconics region, including the 
        following projects: Pochuck Mountain, Blumberg, Fahnstock-
        Kisslinger, Cabot, Ice Pond, JJNC (Great Swamp) and Gilbert 
        (Vernay Lake). Additional critical projects that should be 
        considered for future funding include Torne Valley, Shirazi 
        (Sterling Forest) and Storm King School Property.
  --$150 million in total program funding for Forest Legacy, to 
        accommodate not only these critical projects in the Highlands, 
        but also the many other important projects throughout the 
        eastern forests. National requests for fiscal year 2004 were in 
        excess of $300 million.
  --$2.08 billion for Title VIII, the Conservation Trust Fund, the 
        authorized level for fiscal year 2004. For our region's 
        priority projects to receive critical Forest Legacy funding, 
        and also for a host of important conservation initiatives 
        across the nation, it is imperative that the array of programs 
        included in this title be fully funded.
    Finally, the fiscal year 2002 Interior Appropriations Bill included 
language requesting the Secretary of Interior to join the Secretary of 
Agriculture to review the findings of the NY-NJ Highlands Regional 
Study: 2002 Update and to report to the Committee on ways in which the 
Federal Government can partner with state, county, local and private 
efforts to preserve critical lands within this nationally significant 
area in the Northeast. We urge you to review the final report and 
recommendations and to consider these findings as you make decisions 
regarding funding priorities in fiscal year 2004 and beyond.
    Thank you for the opportunity to comment on the need for funding 
from the Forest Legacy program and the Land & Water Conservation Fund 
in fiscal year 2004 to protect these critical and threatened forested 
watersheds in the Highlands region.
                                 ______
                                 
    Prepared Statement of the International Association of Fish and 
                           Wildlife Agencies

                       U.S. FOREST SERVICE (USFS)

General Comments
    The fiscal year 2004 budget approach (initiated for fiscal year 
2001) continues to make it very difficult to understand the budget 
request and to make meaningful comparisons with previous year 
appropriations. The Association continues to object to the Forest 
Service budget structure. Without specific budget line items and 
expenditures for specific purposes, the current approach does not 
promote accountability to State partners, the public, or Congress. In 
addition, the lumping of important items in the budget structure 
contributes to the continuing perception of the diminution of Forest 
Service effectiveness and accomplishment resulting from planning-based 
operational changes. In particular, the so-called ``output'' measures 
of accomplishment (e.g., acres ``enhanced'', miles of stream 
``enhanced'') are so broad and nonspecific as to be meaningless to 
measure either the services provided or the benefits derived.
    The Forest Service is in the process of eliminating the accounting 
``by work activities'' system and implementing a new national work 
planning system effective April 2003. We recognize the desire to reduce 
the number of budget line items but believe a better system is needed 
to get accountability for allocated monies. The Association requests 
that future budgets include individual line items specific to fish, 
wildlife, and endangered species habitat management. This should 
include specific line items for: (1) wildlife and vegetation; and (2) 
watersheds and fisheries, specifying the threatened and endangered 
species efforts within each. This breakdown will combine improved 
performance accountability with improved opportunities for integrated 
activities with the state fish and wildlife agencies and other federal 
agencies.
    Furthermore, the Association continues to urge Congress to provide 
a budget which reflects the full range of needs as identified in the 
Forest Plans. The planning process includes extensive public and agency 
considerations that are addressed in adoption of the final plans. The 
public benefits both economically and environmentally as a result of 
balanced consideration for all National Forest resources. According to 
a 1996 survey, wildlife-related recreation on National Forest lands 
contributed $21 billion to the national economy, and recreational 
fishing generated an additional $8.5 billion. All these uses on 
National Forest lands are projected to significantly increase in the 
future, and where addressed in Forest Plans, should be reflected in the 
budgets.

Wildlife and Fisheries Habitat Management
    The Association supports the proposed fiscal year 2004 budget of 
$134.8 million for the Wildlife and Fisheries Habitat Management 
Program, which (with adjustments) is essentially level-funded. The 
Association specifically recommends and urges that the USFS coordinate 
closely with the State fish and wildlife agencies in the use of these 
funds. We also draw attention to the important partnership benefits 
achieved through the Challenge Cost-Share Program and support continued 
funding as proposed.
    The USFS needs to coordinate closely with the respective State fish 
and wildlife agencies so that programs and activities do not compromise 
State jurisdictional authorities for fish and resident wildlife. The 
USFS also needs to facilitate the cooperative design and conduct of 
research and management programs with state agencies to reduce 
duplication and increase acceptability of program results. Genuine 
cooperative efforts between the USFS and the State fish and wildlife 
agencies will play a critical role in achieving land and resource 
objectives for species and related resources.
    We applaud the implementation of the Presidential Management 
Initiatives and Forest Service Initiatives to streamline operations to 
reduce bureaucracy. While reducing the number of positions in 
headquarters by transfers to field offices, we urge the USFS take care 
to avoid positions which duplicate or overlap with state fish and 
wildlife biologist positions and programs. In times of reduced state 
budgets, it is particularly important for the Service to look to ways 
to use funding to assist the state programs and biologists involved in 
mutual projects.

Forest and Rangelands Research
    The proposed fiscal year 2004 budget provides $252 million for 
Forest and Rangeland Research, an increase of approximately $9 million 
above the fiscal year 2003 request but essentially level with the 
fiscal year 2002 enacted budget. The fiscal year 2004 budget provides 
over $11 million for new research initiatives related to invasive 
species, the Healthy Forests Initiative and Sudden Oak Death disease. 
The Association supports the proposed fiscal year 2004 research budget 
provided current activities in the Wildlife, Fish, Water, and Air 
Research segment of the budget can be maintained.

Roads, Trails, and Facilities
    The Association has continuing concerns regarding proposed funding 
and management decisions involving roads and trails. There is a need to 
prioritize funding for maintenance and to address deteriorating, unsafe 
conditions. We support the increases in fiscal year 2004 for the USFS 
roads, trails, and facilities program but request additional funding 
for this and subsequent fiscal years for maintenance and improvements 
to resolve the maintenance backlog.
    The fiscal year 2004 budget estimates the deferred maintenance 
backlog of roads and bridges at $10 billion, and if eliminated, the 
annual maintenance needs would be approximately $152 million. These 
figures are significantly different than the fiscal year 2003 budget 
document, perhaps due to changes in the budget structure itself. We 
urge that future budget documents break out deferred maintenance, 
backlog of improvements, and other components from facilities so that 
the funding needs and accomplishments can be more consistently 
evaluated.
    The Association strongly urges the USFS to closely coordinate with 
State and local agencies early in the process of decisions to close or 
to reduce use of roads on the National Forest System. Many roads are 
important to the transportation needs and desires of local communities 
and recreational users. While poorly designed, constructed, or 
maintained roads add significantly to water quality issues and fish 
habitat concerns, involvement of organizations with interests in 
maintaining or retaining roads may result in additional options for 
correcting those conditions without total closure. As noted in the 
past, road closures should seek a balance with consideration for 
adequate recreational and other user access to National Forest lands. 
In particular, cooperation with State fish and wildlife agencies in 
identifying roads to close or to seek alternate management options is 
strongly recommended.

State and Private Forestry
    We commend the President for increasing the Forest Legacy budget in 
fiscal year 2004 to $91 million. We encourage Congress to support this 
$20 million funding increase over the fiscal year 2003 President's 
budget. We request that the USFS develop a nationally competitive and 
unbiased process to rank Forest Legacy projects that includes state 
lead agencies and Forest Service staff participation (Forest Service 
staff should be within comparable employment rank to avoid weighting by 
supervisors). We appreciate that the budget for fiscal year 2004 now 
includes specific funding identified for the Forest Legacy program by 
state and project.
    The Stewardship Incentive Program and Forestry Incentives Program 
were replaced with Forest Land Enhancement Program (FLEP). We support 
the $25 million request for FLEP in fiscal year 2004.
    The Association continues to strongly support programs that assist 
private landowners and States to improve and enhance fisheries and 
wildlife habitat, protect watershed values, and contribute to the 
economic and environmental well being of urban and rural America. Under 
the Cooperative Forestry component of the State and Private Forestry 
budget, we support the proposed budget increases for the Urban and 
Community Forestry program.

National Fire Plan
    The Association is deeply concerned by the complete lack of any 
funding request in the fiscal year 2004 Forest Service budget for 
National Fire Plan rehabilitation and restoration. In fiscal year 2001 
the amount allocated for this purpose was $141.7 million; in fiscal 
year 2002 the level declined to $62.7 million; in fiscal year 2003 
Congress approved $7.1 million; and in fiscal year 2004 the President's 
budget request for rehabilitation and restoration is zeroed out. This 
comes at a time when 19.2 million acres of forestland have burned in 
the past three years--7 million in 2002 alone--with four states 
experiencing their largest fires in recorded history. Predictions call 
for another catastrophic fire season in 2003.
    Given this devastating trend, the Association is at a loss to 
understand the absence of any fiscal resources directed at 
rehabilitation and restoration, while the other four program areas of 
the National Fire Plan have experienced, and are proposed for, 
significant budgetary increases. This action on the part of the Forest 
Service also appears to be in direct conflict with Congressional 
direction for the 10-year comprehensive strategy as expressed in the 
Conference Report for the fiscal year 2001 Interior and Related 
Agencies Appropriations Act (Public Law 106-291). That report 
specifically directed, ``The Secretaries should also work with the 
Governors on a long-term strategy to deal with the wildland and 
hazardous fuels situations, as well as the needs for habitat 
restoration and rehabilitation in the Nation . . .'' As such, and given 
the obvious need for ongoing forestland rehabilitation and restoration 
throughout the life of the National Fire Plan, the Association strongly 
recommends Congress appropriate at least $25 million in the fiscal year 
2004 Forest Service National Fire Plan budget for the exclusive purpose 
of rehabilitation and restoration, and in the out years, the Forest 
Service submit realistic funding requests to meet this requirement.

                                 ______
                                 
    Prepared Statement of the Mother Lode Chapter of the Sierra Club

    The Mother Lode Chapter of the Sierra Club urges the Subcommittee 
to recommend a $2 million Land and Water Conservation Fund 
appropriation for Inholdings in Sierra Nevada National Forests.
    This appropriation is included in the President's Budget.
    This appropriation would purchase lands at several locations in the 
Tahoe National Forest. The first priority would be the remaining large 
parcels along the North Fork of the American Wild River. The remaining 
funds would purchase:
    (1) lands along the Middle Fork of the American River; and
    (2) Barker Pass lands near the Pacific Crest Trail.
    The significant natural values that would be preserved by each of 
these purchases are described in the following sections of this letter.
    Appropriations for purchasing lands in the North Fork of the 
American Wild River and the Middle Fork of the American River are 
supported by the Placer County Board of Supervisors, the Board of 
Directors of the Placer County Water Agency, and civic and 
environmental organizations in Placer County.

               THE NORTH FORK OF THE AMERICAN WILD RIVER

    The appropriation would purchase 1,400 acres of private lands along 
the North Fork of the American Wild River in Tahoe National Forest, 
California. The anticipated cost of these lands is about $1 million. 
The Forest Service has already acquired 8,200 acres along and near the 
Wild River, and the proposed purchase would finally complete the 
acquisitions of presently available large private parcels in and near 
the Wild River Zone.
    The North Fork American River flows down the western slope of the 
Sierra Nevada in a beautiful wild rugged canyon more than half a mile 
deep. Most of the canyon is steep-walled and narrow.
    Both the Federal Government and the State of California designated 
a 38-mile stretch of the North Fork American as a Wild River in the 
1970's. The designations recognized the river's outstanding wildness 
and beauty and its exceptionally pure waters.
    The river supports an excellent self-sustaining trout fishery 
managed as a Wild Trout Stream by the State of California. The canyon 
is home to numerous large mammals, including black bear and mountain 
lion, and provides habitat for 150 species of birds, including 
peregrine falcons, golden eagles, and goshawks. The canyon's varied 
ecosystems and vegetation, including a large acreage of old-growth 
forest, are almost unspoiled. Ten challenging trails descend steeply 
into the canyon, providing access for rugged hikers, backpackers, and 
fishermen seeking solitude and strenuous adventure.
    Though the canyon is remote and rugged, development which would 
degrade the beauty and naturalness of these private lands could still 
occur. A previous owner filed helicopter logging plans on several of 
the parcels. Cabin sites could be developed on some of the parcels, 
degrading their naturalness and limiting public recreational access.

                 THE MIDDLE FORK OF THE AMERICAN RIVER

    Funds would also be used to begin the purchase of private lands in 
the canyon of the Middle Fork of the American River, the adjacent major 
drainage to the south.
    The available lands include almost all the private land in a 25-
mile stretch of the Middle Fork canyon. This stretch of the Middle Fork 
is the boundary between Tahoe and Eldorado National Forests.
    The canyon of the Middle Fork is even more narrow, steep, rugged, 
and remote than the canyon of the North Fork, and also possesses all 
the same outstanding features. The clean waters of the river support a 
high-quality trout fishery sustained by natural reproduction. Large 
mammals, including black bear and mountain lion, are found in the 
canyon. This remote unspoiled canyon provides habitat for the same 
species of birds, including several sensitive species--spotted owls, 
peregrine falcons, golden eagles, and goshawks. Fishermen and 
naturalists who make the strenuous descent into the canyon are rewarded 
by pristine conditions and solitude.
    The Middle Fork is a major source of high-quality water for Placer 
County and fast-growing downstream areas. Placer County has developed 
the Middle Fork for water supply and hydroelectric power; this 
development directly affects only a small proportion of the 25 miles of 
canyon. Unified management of the Middle Fork Canyon by the Forest 
Service would better protect water quality and better guarantee 
preservation of its outstanding natural attributes. Possible future 
mining and logging on private land could significantly degrade the 
canyon's naturalness and the purity of the Middle Fork's waters.

             BARKER PASS LANDS NEAR THE PACIFIC CREST TRAIL

    Barker Pass crosses the Sierra Nevada crest on the edge of the 
Tahoe Basin. Sierra Pacific Industries (SPI) has made 1,400 acres near 
Barker Pass available for purchase. These lands are just outside the 
Tahoe Basin and adjacent to the Granite Chief Wilderness. About 640 of 
the 1,400 acres were purchased by an fiscal year 2003 LWCF 
appropriation.
    The Pacific Crest Trail along the crest near Barker Pass traverses 
lands with attractive forest and meadow scenery; volcanic outcrops add 
scenic variety. Human activities do not dominate views from the Trail, 
despite past roading and logging. Upper Barker Meadow provides 
attractive campsites for PCT hikers.
    Development of these lands would have significant adverse effects 
on the Pacific Crest Trail, the Granite Chief Wilderness, and major 
trails into the Wilderness. Much of the SPI acreage could be developed 
for summer residences, especially appealing to purchasers preferring an 
isolated location. These lands are easily accessible from Lake Tahoe in 
summer by the high-standard Blackwood Canyon Road. Lands outside the 
Tahoe Basin are not subject to the Basin's strict controls on 
development.
    The integrity of the Granite Chief Wilderness and wilderness users' 
experiences would be adversely affected by development on the SPI 
parcels near the boundary of the Granite Chief Wilderness.
    The SPI lands, the largest block of private lands in the watersheds 
of the Granite Chief Wilderness, include the headwaters of Powderhorn 
and Little Powderhorn Creeks. New development and roadbuilding on the 
SPI lands would increase erosion and siltation in these tributaries of 
Five Lakes Creek. Pristine Five Lakes Creek, which flows through a 
beautiful wilderness canyon, supports an outstanding population of wild 
rainbow trout.
    Acquisition of the SPI lands near Barker Pass will foreclose the 
possibility of development adversely affecting the Pacific Crest Trail 
and the watersheds of the Granite Chief Wilderness.

                                 ______
                                 
    Prepared Statement of the National Association of Conservation 
                               Districts

    The National Association of Conservation Districts is the 
nonprofit, nongovernment organization that represents the nation's 
3,000 conservation districts and more than 16,000 men and women who 
serve on their governing boards. Established under state law, 
conservation districts are local units of state government charged with 
carrying out programs for the protection and management of natural 
resources at the local level. They work with nearly two-and-half 
million cooperating landowners and operators--many of them farmers and 
ranchers--to provide technical and other assistance to help them manage 
and protect private land in the United States. In carrying out their 
mission to coordinate and carry out all levels of conservation 
programs, districts work closely with USDA and USDI agencies to provide 
the technical and other help farmers and ranchers need to plan and 
apply complex conservation practices, measures and systems including 
their interactions with public lands.
    The partnership of conservation districts, state conservation 
agencies, state forestry agencies, state wildlife agencies and other 
resource organizations provide farmers and ranchers with critical help 
in protecting and improving the quantity and quality of our soil and 
water resources while meeting both domestic and international food and 
fiber needs. America's agricultural producers provide many benefits to 
our citizens including clean water and air, fish and wildlife habitat 
and open space. Many of the practices producers apply on their land 
also take carbon out of the atmosphere and store it in the soil, 
providing a hedge against global climate change.
    As stewards of the nation's working lands, farmers, ranchers and 
forestland owners manage the vast majority of America's private lands 
and provide tremendous environmental benefits to the country. They also 
have a considerable influence on many of the nation's public lands.
    On behalf of America's conservation districts, I am pleased to 
provide our recommendations on selected conservation programs carried 
out through the U.S. Department of Agriculture and U.S. Department of 
Interior relative to conservation on both private and public lands.

                             FOREST SERVICE

State and Private Forestry
    The private forestlands of the nation are coming under increasing 
pressure for production of wood and other products. Resource concerns 
and needs include growing fragmentation, wildfire threats and insect 
and disease infestation, as well as wildlife and recreation needs. The 
State and Private Forestry (S&PF) programs of the Forest Service 
promote the health and sustainability of the nation's private forest 
resources by providing technical and cost-sharing assistance to 
landowners to support voluntary stewardship of state and private 
forestlands. Conservation districts are key partners with both the 
Forest Service and state foresters in carrying out the S&PF programs.
    The Forest Stewardship Program is designed to assist nonindustrial 
private forestland owners to better manage and use their forest 
resources. Cost-shared with the states, the FSP provides technical 
assistance that enables landowners to manage lands for multiple uses.

Fiscal Year 2004 Forest Stewardship Program Recommendation--$66 million
    Urban and Community Forestry helps to provide leadership for 
improving and expanding urban forest ecosystems in the nation's 45,000 
towns and cities. It also provides leadership for state of the art 
technology and grants to urban areas to support tree planting and urban 
tree protection actions.

Fiscal Year 2004 Urban and Community Forestry Recommendation--$38 
        million
    Cooperative Lands Forest Health Management provides technical 
assistance for insect and disease suppression programs on both federal 
and private lands. As our population continues to expand into rural 
America, Cooperative Fire Protection helps ensure cost-effective fire 
protection at the rural-urban interface.
    The Forest Legacy Program helps to protect forestlands under threat 
of conversion to nonforest uses. Economic Action Programs help rural 
communities develop and sustain locally driven natural-resource-based 
economies. Forest Resources and Information Analysis (FRIA) supports 
regional units that have responsibility for collecting and analyzing 
forest resource data to help guide management decisions.

Fiscal Year 2004 Cooperative Lands Forest Health Management 
        Recommendation.--$31 million

Fiscal Year 2004 Cooperative Fire Protection Recommendation--$31 
        million

Fiscal Year 2004 Forest Legacy Program Recommendation--$91 million

Fiscal Year 2004 Economic Action Programs Recommendation--$36.000 
        million
    The 2002 Farm Security and Rural Investment Act of 2002 (Farm Bill) 
repealed both the Stewardship Incentives Program and Forestry 
Incentives Program and established the Forest Land Enhancement Program 
(FLEP). The purpose of FLEP is to encourage the long-term 
sustainability of nonindustrial private forest lands by assisting 
forestland owners in more actively managing those lands. FLEP is 
carried out through state foresters and provides resource management 
expertise, financial and educational programs assistance. Funded 
through the Commodity Credit Corporation at $100 million through 2007, 
the Office of Management and Budget will apportion funds annually. 
Conservation districts urge the subcommittee to allow full 
implementation of FLEP.

                        WILDLAND FIRE MANAGEMENT

    As a result of management decisions made in past decades that 
resulted in unnatural suppression of fires on public lands, large 
acreages of forest and rangeland have become extraordinarily dense and 
overloaded with fuels, resulting in fires that no longer burn at 
natural temperatures or rates. These catastrophic fires are dangerous 
to fight, difficult to control, and, rather than renewing forests, they 
destroy them. The President's Healthy Forests Initiative, which 
includes components of several S&PF programs, as well as Wildland Fire 
Management activities, is a new approach to address these issues.

Fiscal Year 2004 Wildland Fire Management Recommendation--$1.8 billion
    The 2002 Farm Bill also established the Community and Private Land 
Fire Assistance Program to help focus the federal role in promoting 
firefighting efficiency, to augment federal wildfire protection 
projects, expand outreach and education programs and to help establish 
defensible wildfire buffers around communities and private homes. The 
program, authorized at $35 million annually, is implemented through 
state foresters.

Fiscal Year 2004 Community and Private Land Fire Assistance Program 
        Recommendation--$35 million
                       fish and wildlife service
    Fish and Wildlife resource concerns are significant throughout the 
nation. With growing human population dwindling land and water 
habitats, the need for active resource management programs grows with 
each passing year.
    The Partners for Fish and Wildlife Program offers technical and 
financial assistance to private landowners to voluntarily restore 
wetlands and other fish and wildlife habitats on their land. The 
program emphasizes the re-establishment of native vegetation and 
ecological communities for the benefit of fish and wildlife while 
meeting the needs and desires of private landowners. Conservation 
districts are major partners in the program, raising matching funds and 
sponsoring more than 900 wetland restoration projects.

Fiscal Year 2004 Partners for Fish and Wildlife Program 
        Recommendation--$39 million
    The Private Stewardship Grants Program provides grants and other 
assistance on a competitive basis to individuals and groups engaged in 
local, private, and voluntary conservation efforts that benefit 
federally listed, proposed, or candidate species, or other at-risk 
species. The Landowner Incentive Program provides financial incentives 
to encourage landowners to help protect and conserve rare species on 
their lands. Established in the fiscal year 2002 appropriations process 
as part of the Cooperative Conservation Initiative, both programs are 
flexible and are open to all private landowners who have a desire to 
voluntarily manage for rare species on their land.

Fiscal Year 2004 Private Stewardship Grants Program Recommendation--$10 
        million

Fiscal Year 2004 Landowner Incentive Program Recommendation--$50 
        million
    The Ecological Services Program (Endangered Species and Habitat 
Conservation) works in partnership with public agencies, private 
organizations and landowners and operators with the goal of reducing 
threats to declining species. Its consultation and recovery elements 
include a wide range of management options designed to protect species 
while still allowing private economic development to proceed.

Fiscal Year 2004 Endangered Species Recommendation--$130 million

Fiscal Year 2004 Habitat Conservation Recommendation--$85 million
    Payments in Lieu of Taxes are funded through the National Wildlife 
Refuge Fund and are designed to offset revenue lost by localities when 
refuge acquisition results in land being removed from tax rolls.

Fiscal Year 2004 Payments in Lieu of Taxes Recommendation--$50 million
    The Coastal Program focuses the U.S. Fish and Wildlife Service's 
efforts in bays, estuaries and watersheds around the U.S. coastline. 
The purpose of the Coastal Program is to conserve fish and wildlife and 
their habitats to support healthy coastal ecosystems. The Service 
provides funding through the program to 16 high priority coastal 
ecosystems.

Fiscal Year 2004 Coastal Program Recommendation--$12 million.
    The North American Wetlands Conservation Fund and associated 
program provides assistance to conserve wetland ecosystems and 
waterfowl and the other migratory birds and fish and wildlife that 
depend upon wetlands. Through voluntary partnerships, federal funding 
leverages non-federal funds for projects that focus on restoring 
wetlands and acquiring wetlands from willing sellers to be managed for 
wildlife conservation by private organizations or state and federal 
agencies.

Fiscal Year 2004 North American Wetlands Conservation Fund 
        Recommendation--$50 million

                       BUREAU OF LAND MANAGEMENT

    The Bureau of Land Management (BLM) administers 262 million of 
America's public lands, located primarily in 12 Western States. BLM's 
mission, sustaining the health, diversity and productivity of public 
lands, becomes more challenging each year as populations and pressures 
on the resource base grow rapidly in these states.
    BLM's Payments in Lieu of Taxes are designed to offset revenue lost 
by localities when federal land acquisition results in land being 
removed from tax rolls.

Fiscal Year 2004 Payments in Lieu of Taxes Recommendation--$200 million
    The agency's Soil, Water and Air; Range Management; Wildlife & 
Fisheries Habitat accounts and Challenge Cost Share Partnership are 
each aimed at improving the health of landscapes and watersheds and to 
manage, protect and restore important fish, wildlife and grazing 
habitats.
Fiscal Year 2004 Soil, Water and Air--$36 million
Fiscal Year 2004 Range Management Recommendation--$75 million

Fiscal Year 2004 Wildlife & Fisheries Habitat Recommendation--$38 
        million

Fiscal Year 2004 Challenge Cost Share Partnership Recommendation--$21 
        million
    Forestry programs within BLM target conducting commercial timber 
thinning sales and management activities to improve the condition and 
productivity of forests. OR&CA Grant Lands funds target enhanced 
management activities on environmentally sensitive public lands in 
Oregon and California.

Fiscal Year 2004 OR&CA Grant Lands Recommendation--$114 million

                         BUREAU OF RECLAMATION

    Water needs are an increasing resource concern, especially in the 
Western United States. The Bureau of Reclamation (Reclamation) is the 
lead federal agency for supplying water to agricultural producers and 
others in the seventeen Western states. Reclamation initiated the Water 
Conservation Field Services Program (WCFSP) in 1997 to encourage the 
efficient use of water on federal projects, assist water districts 
develop and implement effective water conservation plans, and 
complement and support other federal, state, and local conservation 
program efforts. WCFSP is designed to provide technical and financial 
assistance in conservation planning, education, demonstration of 
innovative conservation technologies and implementation of effective 
conservation measures.
    The President's budget request includes a new, $11.0 million 
Western Water Initiative to help develop solutions to the increasing 
demands for limited water resources-especially in the West. The 
initiative is directed at enhancing Reclamation's efficiency and 
performance in carrying out its core mission of delivering water and 
power in an environmentally sound and cost efficient manner. The 
initiative has four key elements intended to enhance water management 
and prevent crisis-level water conflicts in the West.

Fiscal Year 2004 Water Conservation Field Services Program 
        Recommendation--$20 million
Fiscal Year 2004 Western Water Initiative Recommendation--$11 million
    We appreciate the opportunity to provide our recommendations to the 
subcommittee.

                                 ______
                                 
              Prepared Statement of The Nature Conservancy

    Mr. Chairman and members of the Subcommittee, I appreciate this 
opportunity to present The Nature Conservancy's recommendations for 
fiscal year 2004 appropriations. We understand and appreciate the fact 
that the Subcommittee's ability to fund programs within its 
jurisdiction is limited by our current national emergency.
    The Nature Conservancy is an international, non-profit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. The Conservancy has more than 1,000,000 individual 
members and 1,900 corporate associates. We have programs in all 50 
states and in 30 foreign countries. We have protected more than 15 
million acres in the United States and Canada and more than 83 million 
acres with local partner organization globally. The Conservancy owns 
and manages 1,340 preserves throughout the United States--the largest 
private system of nature sanctuaries in the world. Sound science and 
strong partnerships with public and private landowners to achieve 
tangible and lasting results characterize our conservation programs.
    The Nature Conservancy believes that the conservation community has 
an obligation to take action as well as raise awareness. Private 
efforts alone, however, will not suffice. Federal investments in 
conservation, through federal land and fish and wildlife programs, and 
as a partner with state and local governments and the private sector, 
are essential to conserve the nation's biodiversity.

                      STEWARDSHIP OF PUBLIC LANDS

    The nation's federal lands require enhanced stewardship funding. 
Many of our ecosystems are extremely degraded, particularly by invasive 
species and poor fire management, and require substantial investments 
to restore proper ecosystem function.

National Fire Plan
    The President's fiscal year 2004 budget includes a substantial 
increase in suppression funding and a very small increase in hazardous 
fuels reduction funding. We believe that the smartest and most cost-
efficient way to address the threat of ecologically destructive fires 
is through long-term restoration. Continuing to spend money on 
suppression, at the expense of restoration to prevent destructive fires 
creates a vicious cycle causing more need for suppression monies. We 
believe that Congress should: (1) increase total funding for Hazardous 
Fuel Reduction to $480 million, with an emphasis on funding for long-
term, large-scale hazardous fuels reduction projects with rigorous 
adaptive management plans; and (2) restore total Rehabilitation and 
Restoration programs to $82.7 million, the fiscal year 2002 level, with 
a portion of the funding targeted at expanding restoration ecology 
expertise. Despite one of the worst fire seasons in history, the 
Restoration and Rehabilitation activity was zeroed out for the Forest 
Service for fiscal year 2004, and reduced for DOI. Without adequate 
post-emergency restoration following unnaturally severe fires, the 
result is increased damaged caused by invasive species such as cheat 
grass--including increased risk of future fires. As part of the 
restoration funds, we recommend $10 million for development and 
production of additional native plant materials through private/public 
partnerships.

Invasive Species
    Next to habitat loss, invasion by non-native species is the most 
pervasive threat to native biodiversity on public lands. The 
Conservancy supports the interagency National Invasive Species Cross-
Cut Performance Budget as a start for accelerating prevention, early 
detection, rapid response, control and management and restoration. This 
multi-pronged approach emphasizes private-public partnerships and 
interagency collaboration and is essential if we are to reduce the 
threat of invasive species to the nation's lands and waters. The 
Conservancy supports the President's requested funding increases of $9 
million for BLM, BOR, NPS and USGS and $6.6 million for the Forest 
Service for enhanced invasive species management by federal land 
management agencies.

                      ACQUISITION OF FEDERAL LAND

    The Nature Conservancy applauded action by the Appropriations 
Committees to establish and fully fund the Land Conservation, 
Preservation, and Infrastructure Improvement program established in 
fiscal year 2001 and fiscal year 2002. The Conservancy was disappointed 
that the fiscal year 2003 Interior appropriations bill did not continue 
the commitment to implementing this historic 6-year conservation 
achievement. We strongly urge the Subcommittee to fully fund this 
program at its fiscal year 2004 level of $1.56 billion.

Land and Water Conservation Fund
    The Nature Conservancy strongly supports continued federal 
acquisition of high-priority biologically important land and urges the 
Congress to provide funding for the Land and Water Conservation Fund 
(LWCF) at a far more robust level than the President's request. The 
Nature Conservancy proposes funding of 44 biologically rich land 
acquisition projects totaling $103,050,000. Priorities include 
completing multi-year projects to transform Great Sand Dunes National 
Monument into the nation's 57th National Park, expansion of Hawaii 
Volcanoes National Park, and protection of major inholdings at 
Florida's St. Marks NWR and Arkansas' Cache River NWR. A number of 
projects, including the Red Rock Lakes NWR, Northern Tallgrass Prairie 
NWR and BLM's Henry's Lake ACEC and Upper Snake /South Fork Snake River 
projects, rely upon conservation easements to achieve important 
conservation objectives while maintaining the integrity of working 
landscapes. We also encourage the Subcommittee to maintain the 
programmatic integrity of the LWCF and use it only for its 
legislatively authorized uses. We urge the subcommittee to provide at 
least the level of funding requested by the Administration for the 
state-side of the LWCF. Overwhelmingly successful ballot measures 
continue to demonstrate the substantial need and demand in states and 
counties across the country to acquire land for conservation and 
recreation purposes.

Forest Legacy
    This program identifies and protects ecologically important 
forestland that is threatened by conversion to non-forest uses. It is 
an increasing popular and successful model of a non-regulatory 
conservation approach based on partnerships between federal and state 
governments and private landowners. This program has delivered 
measurable conservation results at sites such as the Bar J Ranch in 
Utah and the John Tully Wildlife Management Area in Tennessee, while 
maintaining sustainable public use of these lands. Building on that 
success requires a significant funding increase. We strongly support a 
$150 million appropriation for this program, including such priority 
projects as Maine's Machias River Project, Broxton Rocks in Georgia and 
Dragon Run in Virginia.

          PAYMENTS IN LIEU OF TAXES AND REFUGE REVENUE SHARING

    Programs provide payments to counties where land has been taken off 
the local property tax roles and put into federal ownership. In some 
counties, protection of significant natural resources impacts the tax 
base necessary to fund local government services, including schools and 
public safety. We urge the Committee to provide full funding for these 
programs and honor the federal government's commitment to impacted 
communities.

                         SCIENTIFIC INFORMATION

    Sound decisions on public and private land acquisition and 
management must be based on high-quality scientific information. The 
Conservancy's work on the ground long has been guided by information 
from the non-profit organization NatureServe and its state natural 
heritage program members. We support increase of $5 million for the 
U.S. Geological Survey's National Biological Information Infrastructure 
program and encourage an allocation of $500,000 to support the 
scientific information management and dissemination work of NatureServe 
and its state agency partners. We also support an increase of $2 
million in BLM's budget for long-term resource monitoring to measure 
the effects of increased energy development on other resources.

                      ENDANGERED SPECIES PROGRAMS

    The Conservancy supports a funding level of $100 million for the 
FWS's Cooperative Endangered Species Fund, an effective and flexible 
tool for building cooperative, voluntary partnerships between federal, 
state, and local governments to protect and recover critically 
imperiled species. The requested increase reflects the importance and 
unmet public funding needs of collaborative conservation strategies to 
protect critically rare species on non-federal land, and state and 
local acquisition of habitat necessary for the survival of listed and 
candidate species. We support and appreciate the Subcommittee's long-
standing funding of $2 million annually to Southern California's 
Natural Community Conservation Planning program.
    The Nature Conservancy proposes significant increases for the FWS's 
ESA implementation programs. Funding increases would enhance the 
Service's ability to provide important incentive-based, non-regulatory 
programs that assist private landowners in protecting species. $12 
million for Candidate Conservation would expand this innovative program 
and permit more effective monitoring and implementation of existing 
agreements. $12 million for Listing would enable the Service to expand 
its evaluation of imperiled species for listing, a critical action that 
guarantees certain protections under the law, including the authority 
to purchase habitat. $55 million for Consultation/Habitat Conservation 
Planning would permit the Service to respond to the dramatic increase 
in the use of HCPs. $75 million for Recovery would permit the 
development, monitoring, and implementation of recovery plans and 
actions for a rapidly increasing number of listed species. We also urge 
support for the Cooperative Recovery Program for the four endangered 
fish species in the Upper Colorado River Basin by requesting $700,000 
of resource management funds for the FWS, along with $444,000 for 
operation and maintenance of the Ouray National Fish Hatchery.

                    STATE AND TRIBAL WILDLIFE GRANTS

    The Conservancy strongly supports this important and developing 
program and recommends funding of $125 million. We believe the 
development of state comprehensive wildlife conservation plans will set 
the foundation to direct future resources for state conservation 
objectives and encourage the states to make full use of the best 
existing scientific information, including natural heritage data.

   COOPERATIVE CONSERVATION INITIATIVE AND PRIVATE LANDOWNER PROGRAMS

    Private lands provide a portion of the habitat for at least two-
thirds of all federally listed species. The Administration's 
Cooperative Conservation Initiative supports innovative ways to meet 
conservation needs of private landowners, local communities, states and 
the federal government through enhancing the capacity of federal 
agencies for innovative conservation partnerships.
Challenge Cost Share
    We support increased funding for the BLM, $23 million, FWS, $11.9 
million, and NPS, $21 million. Challenge Cost Share programs leverage 
appropriated dollars through 1:1 matches with State and private 
partners to implement important restoration and resource protection 
projects. Partners for Fish and Wildlife. We support an increase for 
this program to $50 million. It provides important technical and 
financial assistance to private landowners and other partners to 
protect, restore and enhance habitat for fish and wildlife species. The 
fact that more than 2,000 private landowners are on a waiting list to 
use the program demonstrates the demand for this cost-sharing program. 
Landowner Incentive Program and Private Stewardship Grants. Last year, 
Congress funded these new programs to facilitate private wildlife 
conservation efforts. We urge the Subcommittee to favorably consider 
the Administration's request for $40 million and $10 million for these 
programs.

                        PARTNERSHIP INITIATIVES

National Fish and Wildlife Foundation
    The National Fish and Wildlife Foundation is an excellent example 
of a program that effectively leverages conservation benefits. Federal 
support to NFWF continues to yield a return of nearly $3 for every 
single taxpayer dollar. Since its creation in 1984, NFWF has supported 
over 5,756 grants and leveraged over 230 million federal dollars for 
more than 700 million dollars in on-the-ground conservation. We 
recommend appropriations of $14 million for the USFWS, $4 million for 
the BLM and $4 million for the Forest Service.

North American Wetlands Conservation Fund and Joint Venture program
    The North American Wetlands Conservation Fund (NAWCF) supports 
implementation of the North American Waterfowl Management Plan and 
other initiatives that protect, restore, or enhance habitat for 
wetland-dependent migratory birds. Working with a variety of partners 
in Canada, Mexico, and the United States, it matches federal dollars at 
more than 2:1. The Conservancy urges $55 million for this 
extraordinarily successful program. The Conservancy is also supportive 
of Congress' and the Administration's continuing commitment and support 
for the Joint Ventures. In the fiscal year 2003 Appropriation Act, 
Congress recognized the need for increasing support for Joint Ventures 
and urged the Service to request additional funding in the fiscal year 
2004 budget The Conservancy is pleased that Joint Venture funding has 
been increased and supports the Service's request for $10.4 million for 
the Joint Venture program.

Neotropical Migratory Bird Conservation Fund
    We support funding for this new and promising program at its 
authorized level of $5 million. Significantly, it can secure 
conservation gains by leveraging partnership investments throughout the 
Western Hemisphere. The Service should continue to administer this 
grant program through its division of bird habitat conservation, 
following the model of the North American wetlands conservation 
program.

                         INTERNATIONAL PROGRAMS

    The Conservancy recommends a total of $14 million to the programs 
identified in the FWS' Multinational Species Conservation Fund. We 
propose, however, that the Committee appropriate $9 million for the 
Rhinoceros/tiger, Elephants and Great Ape funds and appropriate 
separately $5 million to the Neotropical Migratory Bird Conservation 
Fund. The U.S. Forest Service's International Programs address 
biodiversity challenges to forests worldwide. An increase of funding to 
$10 million would enhance current efforts to protect migratory birds. 
The NPS Office of International Affairs should be funded at $2 million 
so that the National Park Service--global leaders in conservation--can 
expand its collaborative activities to assist international partners in 
creating and managing parks and other protected areas.
    Thank you for the opportunity to present The Nature Conservancy's 
comments on the Interior budget.

 FISCAL YEAR 2004 LAND AND WATER CONSERVATION FUND PROJECTS RECOMMENDED
                        BY THE NATURE CONSERVANCY
------------------------------------------------------------------------
                     LWCF project                          TNC request
------------------------------------------------------------------------
BUREAU OF LAND MANAGEMENT:
    Henry's Lake ACEC, ID.............................        $1,000,000
    Otay Mountain/Kuchamaa HCP,CA.....................         2,000,000
    Santa Rosa/San Jacinto Mountains NM, CA...........         2,000,000
    Upper Snake/South Fork Snake River, ID............         2,000,000
                                                       -----------------
      Subtotal........................................         7,000,000
                                                       =================
U.S. FISH AND WILDLIFE SERVICE:
    Alaska Pennisula NWR (Pavlof Bay), AK.............           750,000
    Baca NWR, CO......................................         9,000,000
    Cache River NWR, AR...............................         2,500,000
    Cahaba River NWR, AL..............................         1,500,000
    Cape May NWR, NJ..................................         2,000,000
    Dakota Tallgrass Prairie WMA, ND/SD...............         1,000,000
    Key West NWR, FL..................................         1,500,000
    Lower Hatchie NWR, TN.............................         1,800,000
    Lower Rio Grande Valley NWR, TX...................         2,300,000
    Massasoit NWR, MA.................................           530,000
    Ninigret NWR, RI..................................           825,000
    Northern Tallgrass Prairie NWR, MN/IA.............         1,000,000
    Red River NWR, LA.................................         3,000,000
    Red Rock Lakes NWR, MT............................           750,000
    Rocky Mountain Front Conservation Easement                 1,000,000
     Program, MT......................................
    San Diego NWR, CA.................................         4,000,000
    San Joaquin NWR, CA...............................         3,000,000
    St. Marks NWR, FL.................................         1,600,000
    St. Vincent NWR, FL...............................         2,250,000
    Stewart McKinney NWR, CT..........................         1,500,000
                                                       -----------------
      Subtotal........................................        45,030,000
                                                       =================
NATIONAL PARK SERVICE:
    Big Thicket National Preserve, TX.................         5,400,000
    Fire Island National Seashore, NY.................         1,500,000
    Great Sand Dunes National Monument, CO............         2,000,000
    Hawaii Volcanoes NP (Kahuku Ranch), HI............         6,500,000
    Obed Wild and Scenic River, TN....................         1,600,000
    Pinelands National Reserve, NJ....................         3,000,000
    Timucuan Ecological and Historic Preserve, FL.....         2,500,000
                                                       -----------------
      Subtotal........................................        22,500,000
                                                       =================
U.S. FOREST SERVICE:
    Chattahoochee-Oconee NFs, GA......................         2,500,000
    Chequamegon-Nicolet NF, WI........................         4,500,000
    Delta NF, MS......................................         2,000,000
    Francis Marion NF, SC.............................         3,500,000
    Hoosier NF, IN....................................         1,750,000
    Los Padres NF, CA.................................         3,000,000
    Monongahela NF, WV................................         1,800,000
    National Forests in Alabama, AL...................         2,300,000
    Prescott NF, AZ...................................           900,000
    Shawnee NF, IL....................................         1,200,000
    Skagit River, WA..................................         2,000,000
    Sumter NF, SC.....................................         2,000,000
    Wenatchee NF (Tieton River), WA...................         1,075,000
                                                       -----------------
      Subtotal........................................        28,525,000
                                                       =================
      Total...........................................       103,055,000
------------------------------------------------------------------------

                                 ______
                                 
           Prepared Statement of the Northern Forest Alliance

    The 26-million-acre Northern Forest stretching from Maine's St. 
Croix River through New Hampshire and Vermont to the Adirondacks and 
Tug Hill in New York is a lifeline to millions of Americans. Clean air, 
clean water, wilderness and abundant wildlife are but a few of the 
gifts the forest offers to the 70 million people living within a day's 
drive. The forest's capacity to grow quality timber for high-value 
manufacturing; to lure visitors with breathtaking displays of natural 
beauty; and to showcase a rich cultural and historical tradition are 
the cornerstones on which to build a robust regional economy.
    The Northern Forest Alliance is a coalition of more than 40 state, 
regional and national organizations dedicated to the protection and 
stewardship of the region. Together we represent the interests of more 
than one million people. On behalf of the Alliance I am submitting 
testimony in strong support of several Northern Forest Forest Legacy 
projects, a significant increase in funding for the Forest Legacy 
Program to at least $150 million, and for full funding of the Land and 
Water Conservation Fund. Also, as you know, in 2000 Congress approved 
Title VIII, the Conservation Trust Fund (Title VIII), which should be 
funded in fiscal year 2004 at $2.08 billion, as originally authorized. 
It is critical for conservation efforts not only in our region but 
across the country that the array of programs included in this title be 
fully funded.

  THE CASE FOR SIGNIFICANTLY INCREASED FUNDING FOR THE FOREST LEGACY 
                                PROGRAM

    In recent years the number of compelling projects in need of 
funding under the Forest Legacy Program, along with its popularity, has 
grown exponentially. A major reason for the success of the program is 
that the conservation mechanisms available under the program are able 
to address a range of legitimate conservation needs of the 21st 
century: the program enables landowners to retain ownership of their 
land and continue to earn income from it; conserves open space, scenic 
lands, wildlife habitat, and clean water; and ensures continued 
opportunities for outdoor recreational activities such as hunting, 
fishing, and hiking. In addition, with its minimum requirement of 25 
percent non-federal matching funds, the program leverages state and 
private dollars to complement federal money, creating partnerships that 
have lasting value.
    Authorized by Congress in 1990, the Forest Legacy Program helps 
preserve working forestlands and protect critical resources. As our 
population grows and land values rise, many private productive forests 
are in danger of conversion to housing subdivisions or second-home 
development. The United States loses more than half a million acres of 
privately-owned timberland to development each year. These changes are 
impacting the economic integrity of our forest-based communities, and 
they are also limiting the amount of recreational open space and 
critical wildlife habitat we all enjoy. The Forest Legacy Program, 
administered by the U.S. Forest Service through grants to states, 
provides a mechanism and a small pot of federal funds for protecting 
forestland and the multiple benefits these lands provide. It is 
increasingly apparent, however, that the modest funds historically 
provided for this program, despite the increase in fiscal year 2003, is 
woefully inadequate to meet current and future projected demand.

                 FOREST LEGACY SUPPORTS WORKING FORESTS

    A central purpose of the Forest Legacy Program is to ensure the 
continuation of a traditional working forest rather than fragmentation 
and subdivision. Under a Forest Legacy easement, the landowner or other 
parties may continue to harvest timber according to the terms of the 
agreement. If a landowner chooses to sell the timber harvesting rights, 
they may do so, but under many existing Forest Legacy easements, the 
landowner has retained harvesting rights and agreed to specific 
language governing harvest methods.
    With a tradition of using the forest that goes back hundreds of 
years, Northern Forest residents are not eager to see the forest 
subdivided and the lakeshores built up. Converting woods to house lots 
puts an end to local forest dependent businesses ranging from timber 
and paper production to guiding and cultural tourism. Breaking up the 
forest disrupts wildlife and jeopardizes water quality. Private 
driveways and ``No Trespassing'' signs change the culture and character 
of the region. And so local residents have banded together to identify 
the most important places that are for sale. They're working with state 
agencies, legislatures, non-profits and private donors to protect more 
than 800,000 acres in the Northern Forest from development this year.
    But they cannot do it on their own; they need assistance from the 
Forest Legacy Program to realize their goals. To meet growing national 
demands, the Forest Legacy Program should be funded at $150 million in 
fiscal year 2004. In the Northern Forest, we're depending on a $38 
million investment this year to realize the potential of this public-
private collaboration for protecting our intact forests. It's an 
opportunity that cannot be missed, for the sake of conserving a 
landscape, a regional economy, and a cherished way of life.

           FOREST LEGACY SUPPORTS PRIVATE LANDOWNERS' RIGHTS

    Through conservation easements, a landowner can voluntarily sell 
development rights, continue to generate economic activity, and 
maintain a traditional landscape for the next generation to enjoy. 
Through the purchase of conservation easements, a landowner's private 
property rights are being protected. It is the landowner who decides 
whether or not to limit development of their property, and they are 
fairly compensated for the rights purchased.

        FOREST LEGACY PROMOTES PARTNERSHIPS AND LEVERAGES FUNDS

    The Forest Legacy Program offers the opportunity for the federal 
government to work in partnership with states, local communities and 
private landowners to ensure that the multiple benefits found on forest 
lands--economic sustainability, wildlife habitat protection, and 
recreational opportunities--are secured for future generations. Since 
its inception, the program has proven extremely popular but unable to 
meet the demand across the nation. In fiscal year 2003 states submitted 
funding requests totaling over $300 million in Forest Legacy funding, 
yet less than a third was appropriated. In addition, several other 
states are in the process of enrolling in the program in the near 
future, increasing the demand for funding.

             FOREST LEGACY IS A POPULAR AND GROWING PROGRAM

    34 States are currently enrolled in the Forest Legacy Program, and 
several other states are currently developing plans for enrollment in 
the program or considering beginning the planning process.
    Congressional support for the program has steadily grown, with 
funding levels increasing from $7 million in fiscal year 1999 to $30 
million in fiscal year 2000 to $60 million in fiscal year 2001, $65 
million in fiscal year 2002 and over $70 million this year. 
Significantly the Administration has requested more than $90 million 
for the program for fiscal year 2004. Even at this level, however, 
several properties being offered for protection by willing landowners 
and states through the Forest Legacy Program could not be fully funded 
and will have to be carried over to the following year. The Northeast 
in particular has an abundance of worthwhile projects and documented 
needs for Forest Legacy funding which will go unmet unless Forest 
Legacy is significantly increased or other sources of funding are 
identified.
    The Forest Legacy Program must be funded at $150 million annually 
on a dependable basis to meet the nation's need for conserving large 
tracts of forest with easements. Legacy is an essential tool in land 
conservation because it enables a public/private partnership for 
protecting the many public benefits of large tracts of forest land. It 
is clear that Forest Legacy will play an important role in completing 
the emerging conservation projects in the Northern Forest.

 SUMMARY OF NORTHERN FOREST FISCAL YEAR 2004 LEGACY PROJECTS AND FUNDING
                                REQUESTS
                          [Dollars in millions]
------------------------------------------------------------------------
                                   Acreage       Request    Project cost
------------------------------------------------------------------------
Maine:
    Machias River.............      32,000           $2.00        $15.00
    Tumbledown/Mt. Blue.......      30,000            3.00         15.00
    Bald Mountain.............      10,000            1.30          4.00
    Katahdin Forest...........     241,000            8.00         50.00
    Northern Tier: Boundary        500,000            5.00         35.00
     Mtns. to Nahmakanta......
New Hampshire: 13-Mile Woods..       5,300            2.00          3.80
Vermont:
    Monadnock to Victory Basin       3,524            1.50          1.90
    Mallory Brook.............         490            0.25          0.40
    Chittenden County Uplands.       8,515            4.15          4.15
New York:
    Domtar-Sable Highlands....     105,000            5.00          8.50
    Moose River Corridor......       5,600            2.00          9.70
    Headwaters of the Hudson--      11,200            3.50          7.00
     Tahawus..................
Property Mileage Request:
    Vermont: Long Trail.......           2.5          0.20  ............
------------------------------------------------------------------------

                          LWCF--STATE PROGRAM
    Vermont workers whose employer had closed its plant in Island Pond. 
With this and other aid, a group of employees has started a new 
business, which now produces its own furniture line. In New York, the 
same program has helped the community of Tupper Lake establish a 
Natural History Center of the Adirondacks, a focal point for future 
nature based tourism in the area. Significant funding is needed 
nationally and in the Northeast Region to keep these valuable, results-
oriented programs active in Northern Forest communities.

                     AGENCY/PROGRAM REGION REQUEST

                            ECONOMIC PROGRAMS
                        [In millions of dollars]
------------------------------------------------------------------------
                          Program                               Amount
------------------------------------------------------------------------
USDA State and Private Forestry Division:
    Forest Land Enhancement Program National...............           22
    Economic Action Programs Northeast.....................           10
USDA Rural Development Division: Rural Business Enterprise             4
 and Opportunity Grants Northern Forest States.............
------------------------------------------------------------------------

                            NEW PARTNERSHIPS

    Without a new partnership with the federal government, however, 
even these landmark state funding programs cannot meet the conservation 
challenges in the Northern Forest. Millions of acres of forest, clean 
rivers, and pristine lakes need to be protected in this most densely 
populated part of our country. We are poised now on the cusp of an 
historic opportunity to protect the cherished landscape of the Northern 
Forest, a mainstay of the economy, ecology and culture of the 
Northeast.
    We challenge Congress to fund the Forest Legacy Program at a 
minimum level of $150 million, to fully fund the Land & Water 
Conservation Fund at $900 million annually, and the Conservation Trust 
Fund at $2.08 billion to meet the conservation needs of the 21st 
century.
    Mr. Chairman, as we begin the 21st Century we are faced with an 
historic opportunity to conserve places of extraordinary natural and 
public value. The work of protecting and caring for these special 
places must be a partnership that engages government, businesses and 
non-profit organizations. But federal funds, leadership and expertise 
are a critical element of this partnership. We urge the continued 
commitment of Congress to work with the people of Maine, Vermont, New 
Hampshire and New York to protect these irreplaceable resources. Thank 
you for considering our request.
                                 ______
                                 

            Prepared Statement of the Sierra Nevada Alliance

    Mr. Chairman, the Sierra Nevada Alliance (the Alliance) would like 
to thank you for the opportunity to comment and make recommendations on 
the fiscal year 2004 Department of the Interior and Related Agencies 
Appropriations bill. I write these comments on behalf of the Alliance, 
a 10-year-old organization dedicated to protecting and restoring the 
natural values of the Sierra Nevada while promoting sustainable 
communities. Our top priorities include:
  --Continuation and full funding for the Interior portion of the 
        Conservation Trust Fund (Land Conservation, Preservation and 
        Infrastructure Improvement Fund) at $1.56 billion;
  --Within the Conservation Trust Fund, $450 million for Land and Water 
        Conservation Fund Federal land acquisition; and
  --Within the Conservation Trust Fund, $150 million for the Forest 
        Legacy program.
    We also urge you to maintain the integrity of both the Conservation 
Trust Fund, and of the Land and Water Conservation Fund. Adequate 
funding for the programs discussed below is vital to protect the Sierra 
Nevada's wild areas and environmental values.
    The Sierra Nevada range covers 18 counties and two States, 
California and Nevada. Our range has over 50 percent of the species of 
California, supplies over 60 percent of California's water and much of 
Nevada's, and is a world renown destination for recreation. Much of the 
value of our region and its ability to fuel the Sierra economy is due 
to the conservation of wildlife, recreation, and natural treasures. 
Consequently, funding provided by the Subcommittee for Federal 
conservation programs is of vital importance to every resident and 
visitor of the Sierra Nevada.
      please provide full funding for the conservation trust fund
    We respectfully urge the Subcommittee to provide full funding for 
its portion of the Conservation Trust Fund (CTF) at $1.56 billion for 
fiscal year 2004. The Conservation Trust Fund was established by 
Congress in 2000 to address the chronic underfunding of our nation's 
conservation, recreation, wildlife, and cultural treasures' needs.
    We thank the Subcommittee for providing support for CTF programs 
under the jurisdiction of the Interior Appropriations Subcommittee for 
fiscal year 2001 and fiscal year 2002. However, we are troubled by the 
drop of over $400 million in total CTF funding in the final fiscal year 
2003 Omnibus appropriations bill, and by the cut of nearly $600 million 
in the President's fiscal year 2004 budget. We strongly urge you to 
maintain Congress' commitment to the CTF for fiscal year 2004 by 
providing the dedicated funding level of $1.56 billion for Interior 
appropriation's programs.
    Additionally, Congress should reject the proposal in the 
President's budget to erode the fund's original purposes by cutting 
funding for its authorized programs, such as the Land and Water 
Conservation Fund and State and Tribal Wildlife grants.
    Land and Water Conservation Fund.--Within the CTF, we urge the 
Subcommittee to reject the Administration's proposal for the Land and 
Water Conservation Fund (LWCF), and instead to provide at least $650 
million for LWCF's original, authorized programs, including $450 
million for Federal Land Acquisition. LWCF has been a premier tool to 
fund two things: Federal land acquisition and a State assistance 
program. This year, the Administration masked cuts of over 50 percent 
in real land acquisition by adding in new programs. Funding in the 
President's Budget for National Park Service, Fish and Wildlife 
Service, Bureau of Land Management and U.S. Forest Service land 
acquisition is cut from a combined total of $429 million enacted in 
fiscal year 2002 to $187 million proposed for fiscal year 2004. 
Americans have long relied on Federal land acquisition to protect and 
complete its parks, forests and refuges, and the Administration's cuts 
would result in smaller, more degraded lands and fewer recreation 
experiences.
    Federal acquisition of these lands is necessary to address grave, 
immediate environmental threats with the potential for permanent 
damage, and to help protect and restore wildlands of significance (e.g. 
those with rare ecosystems, endangered species, and/or other special 
qualities).

            ADDITIONAL AGENCY APPROPRIATIONS RECOMMENDATIONS

    Fund U.S. Forest Service Conservation Programs.--The U.S. Forest 
Service is the largest single land owner in the Sierra Nevada, owning 
38 percent of all Sierra lands. These Forest Service lands provide a 
vast array of popular recreational opportunities for millions of 
Americans. Outdoor recreation contributes more to the Sierra Nevada 
economy than any other use of the National Forest System. Despite this, 
many important conservation programs that help maintain Forest Service 
lands' recreational and ecological components are chronically 
underfunded, while programs that harm our national forests have 
traditionally received too much funding. We urge the Subcommittee to 
provide $76 million for Wildlife, Fish, Watershed and Atmospheric 
Sciences Research, approximately a $25 million increase over the fiscal 
year 2004 President's Budget request. Here in the Sierra, our aquatic 
ecosystems are the most impaired systems in the range and further 
assessments of our watersheds are greatly needed. We also recommend 
$285 million for the Recreation, Heritage, and Wilderness Program, an 
increase of $30 million, as well as $200 million for the Wildlife and 
Fisheries Habitat Management Program, an increase of $65 million.
    Provide Funding for the purchase of California Wilderness 
Inholdings on National Forest Service Land.--There are about 25,000 
acres of inholdings in National Forest Wilderness Areas within 
California. Numerous inholdings exist in the Sierra Nevada. Each year, 
numerous private inholdings are offered for sale by the landowner. It 
is essential that the Forest Service acquire these lands as they become 
available to protect the ecological integrity of the wilderness areas. 
For fiscal year 2004, we are requesting $2,5000,000 to purchase 
available inholdings. There is a pressing need for consistent funding 
for these forest inholdings as they become available. Annual funding 
allocated specifically for critical forest inholdings would allow the 
Forest Service to purchase land on a prioritized need basis to prevent 
development of lands and protect areas of significant ecological value.
    We are also concerned that the proposed fiscal year 2004 
President's Budget's for the Forest Service Research and Development 
account falls $8 million short of the $260 million needed to prevent 
the further erosion of scientific capability within the Forest Service. 
Additionally, the Alliance strongly urges the Subcommittee to restore 
funding to the Rehabilitation and Restoration program at the fiscal 
year 2001 level of $142 million; and to fund Deferred Maintenance and 
Infrastructure Improvement at the fiscal year 2002 level of $60 
million. These two funds are critically important for mitigating 
environmental impacts after severe wildland fire events and for 
reducing the $8 billion road maintenance backlog. The Sierra has a 
history of suppressing fires and future wildland fire events will 
occur. It is imperative that the Forest Service have the resources to 
address these severe fires, ideally pro-actively as well as in 
response. Therefore, we request that you avoid endorsing the 
President's proposal to reduce the number of wildland firefighting 
crews and engines by 53 percent, but instead at least double the 
wildland fire budget to prepare for a fire season similar to 2000 or 
2002.
    Fund National Park Service Protection of Natural and Cultural 
Resources.--The Sierra Nevada Alliance is grateful for the continued 
support of the National Resource Challenge, but an increase of $12.4 
million is needed to bring its funding level to $80 million. As a 
member of Americans for Our National Parks, we recommend an additional 
$178 million over the enacted fiscal year 2003 levels in Park 
Operations to adequately protect the natural and cultural resources of 
the National Park system, bringing the total NPS Operations 
appropriation to $1.63 billion. In the Sierra we have both Yosemite 
National Park and Kings Canyon/Sequoia National Parks. Both these 
heavily visited parks need funding to protect the natural resources and 
ensure visitors for years to come enjoy the same beautiful and 
inspiring environment we do today.
    Fund Protection of Bureau of Land Management Lands.--In the Sierra 
Nevada, 11 percent of our lands are managed by BLM, including numerous 
wilderness areas and wilderness study areas. The President's fiscal 
year 2004 Budget proposes $43 million for the National Landscape 
Conservation System (NLCS), including an increase of $2.7 million for 
operations. This funding increase is vital to protect the these 
important lands.
    For BLM overall, the Alliance recommends an increase of $2 million 
for Resource Management Planning above the fiscal year 2004 President's 
Budget request of $48 million, to ensure effective public participation 
and outreach for new planning starts.
    We also endorse the Interior Department's multi-agency Invasive 
Species Initiative, and urge the Subcommittee to provide the full $9 
million increase for its programs proposed in the fiscal year 2004 
President's Budget. In the Sierra, numerous land trusts and watershed 
councils have identified significant problems with invasive weeds which 
require support for their eradication to restore the natural ecosystem.
    In summary, the Sierra Nevada is a unique and valued region of this 
nation, and full and adequate funding of Federal conservation programs 
is necessary to protect and restore these vibrant lands. Given that 
over 50 percent of our Sierra lands are federally owned and managed, 
significant cuts to the programs mentioned above have considerable 
negative impacts for the Sierra. I strongly encourage your committee to 
do everything in its ability to fully fund the conservation programs 
mentioned above, for the sake of millions of Americans and future 
generations. Please provide $450 million for Federal LWCF, and $2.08 
billion for the Conservation Trust Fund.
                                 ______
                                 
        Prepared Statement of the Society of American Foresters

    The Society of American Foresters (SAF) represents more than 17,000 
forestry professionals. SAF's primary objective is to advance the 
science, technology, education, and practice of professional forestry 
for the benefit of society. We offer this testimony for the fiscal year 
2004 budget for the Department of Interior and Related Agencies. With 
the understandable restriction on the length of this testimony, it is 
difficult to provide the in-depth analysis we would normally provide 
The table below details those items for which we offer suggestions that 
differ significantly from the Administration's proposal.

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year
                  Discretionary appropriations                     2003 enacted    2004 proposed    SAF request
----------------------------------------------------------------------------------------------------------------
Forest Inventory and Analysis \1\...............................            55.1            43.3            67.7
                                                                 ===============================================
State and Private Forestry:
    Forest Health Management--Federal...........................            50.0            44.5            50.0
    Forest Health Management--Cooperative.......................            30.8            25.1            31.0
    Emerging Pest and Pathogens Fund............................  ..............            12.0            20.0
    State Fire Assistance.......................................            25.5            25.4            28.0
    Volunteer Fire Assistance...................................             5.0             5.0             6.0
    Community and Private Land Fire Assistance..................  ..............  ..............            35.0
    Forest Stewardship..........................................            32.0            65.6            50.0
    Watershed Forestry Assistance...............................  ..............  ..............            16.0
    Forest Legacy Program.......................................            68.4            90.8           100.0
    Urban and Community Forestry................................            36.0            37.9            40.0
    Economic Action Programs....................................            26.3  ..............            28.7
    International Forestry......................................             5.7             5.1             6.0
                                                                 -----------------------------------------------
      Total.....................................................           284.7           315.8           410.7
                                                                 ===============================================
National Forest System:
    Land Management Planning....................................            71.7            70.9            72.2
    Forest Products.............................................           263.6           268.0           271.1
    Expedited Consultation......................................  ..............  ..............            15.0
                                                                 -----------------------------------------------
      Total.....................................................         1,353.4         1,369.6         1,374.0
                                                                 ===============================================
Wildland Fire Management:
    Preparedness................................................           612.0           609.7           640.0
    Fire Operations.............................................           418.0           604.6           605.0
    Hazardous Fuels.............................................           226.6           231.4           262.1
    Rehabilitation and Restoration..............................             7.1  ..............            63.0
    Fire Research and Development...............................            21.2            21.4            23.0
    Joint Fire Sciences Program.................................             7.9             8.0  ..............
    Forest Health Management--Cooperative.......................             9.9             5.0             5.0
    Economic Action Programs....................................             5.0  ..............            12.5
    State Fire Assistance.......................................            46.2            46.5            58.0
    Volunteer Fire Assistance...................................             8.2             8.2            10.0
                                                                 -----------------------------------------------
      Total.....................................................         1,371.0         1,541.8         1,695.6
                                                                 ===============================================
Capital Improvement and Maintenance:
    Facilities..................................................           202.3           200.9           202.3
    Roads.......................................................           231.3           245.4           245.4
    Infrastructure Improvement..................................            45.6  ..............            24.0
                                                                 -----------------------------------------------
      Total.....................................................           548.5           524.6           550.0
                                                                 ===============================================
Land Acquisition/L&WCF Total....................................           132.9            44.1            50.0
                                                                 ===============================================
Other Appropriations............................................            10.3            10.0            10.3
----------------------------------------------------------------------------------------------------------------
\1\ This includes funding normally allocated to S&PF, NFS, and Research. We propose creating a separate line
  item for FIA.

    Forest and Rangeland Research.--The forest health issues we are 
currently facing as a nation require an increased emphasis on research 
to achieve solutions. Increases in funding will help increase capacity. 
The Agency should also look to innovative partnerships with 
universities to further leverage research funding.
    Forest Inventory and Analysis.--The FIA program provides a clear 
understanding of forest resources, integrating data across all 
ownership boundaries. This information is crucial to ensuring forest 
management decisions are based in fact. We are concerned with the 
Administration's proposed cuts to the FIA program. To achieve the 
mandates of the 1998 Farm bill, producing an overall assessment of the 
nation's forest resources in a timely manner, FIA program funding must 
be set at a minimum of $67.7 million for fiscal year 2004. We also 
propose creating a separate line item for the FIA program. There is 
confusion in funding FIA through various line items. Consolidation will 
provide a complete understanding of all funds available for the FIA 
program.
    Fire Research.--Last year's wildfires burnt over 7.1 million acres, 
we must learn from these fires through research and transfer findings 
to those in the field. Improvements in fire management and proper 
implementation of the National Fire Plan can only be realized with 
scientific discovery, validation, and application supplied by critical 
research programs in partnership with all sectors of forestry research 
including colleges, universities, and private sector researchers.
    State and Private Forestry.--S&PF programs are a vital component of 
the sustainable management of the nation's forests. These programs 
focus on more than half of the nation's forest land, which supply clean 
water and air, recreational opportunities, and forest products. 
Development pressures are the primary threat to the sustainability of 
private forests. S&PF programs provide tools to help the 9.9 million 
landowners resist development pressures and sustain their forests for 
the nation's benefit.
    Community and Private Land Fire Assistance.--We support full 
funding for this program as authorized in the 2002 Farm Bill. The 
program enables communities to coordinate wildfire protection planning 
as well as undertake special restoration/hazardous fuel reduction 
projects, combat invasive species and build local markets for small-
diameter materials. The one ingredient broadly lacking in the National 
Fire Plan is local county/community involvement. This program gives 
locals the needed incentive to engage in the National Fire Plan.
    Forest Stewardship, Forest Legacy, Forest Land Enhancement 
Program.--Private forest lands in the United States are increasingly 
threatened by several factors, including development pressures, the 
increasing need for forest products and services, as well as forest 
health concerns. The Federal government has an obligation to ensure 
these forests are managed sustainably, as they provide numerous public 
goods and services.
    While we appreciate the proposal to allocate additional funding for 
the Forest Stewardship Program, as an alternative, we suggest that the 
proposed $16 million initiative to fund certain predefined stewardship 
projects on a competitive challenge cost share, should be eliminated 
and instead the funding should be allocated for a new program, the 
Watershed Forestry Assistance program. This program, originally 
proposed during debate on the 2002 Farm Bill, would address watershed 
and water quality issues on private lands in cooperation with State 
agencies. This program is similar to the Watershed Restoration and 
Enhancement Agreements legislative proposal contained in the 2004 
budget.
    Emerging Pests and Pathogens Fund.--Invasive species, insects, and 
disease pose increasing threats to our public and private forests. 
There is a need for a cooperative approach to addressing this issue 
across ownership boundaries, as these invaders do not respect property 
lines. In 1998, over 54 million acres of forest land were affected by 
various insect and diseases. Invasive species are increasingly a 
threat, contributing to the decline of 46 percent of imperiled or 
endangered species in the United States, second only to habitat 
degradation and loss. This program will help address these problems 
through rapid response to this overwhelming threat affecting the health 
and sustainability of forest resources across the country.
    Economic Action Programs.--We strongly oppose elimination of 
funding for Economic Action Programs. Local communities utilize these 
funds to build their capacity to and contribute to sustainable forest 
management. Through EAP, Communities are able to assist with fuels 
reduction and other forest health projects and utilize the byproducts 
of this work.
    National Forest System.--Because of rising stand densities and 
mortality rates, the NFS lands are increasingly at risk of fire, 
insect, and outbreaks, and invasive species. There is a need for active 
and continuous forest management as current management levels are not 
adequate to address forest health issues and provide the multiple uses 
for which these lands were established. There is a need for revision 
and clarification of the laws and regulations that govern national 
forest management in light of the changing public values, 
administrative agendas, court decisions, and federal environmental laws 
that have shifted the emphasis of land management. Without adjustments, 
we fear we will continue to see delays and increasing costs for the 
land management agencies. SAF will continue to work with Congress and 
the Administration to address these issues.
    One such example of the increasing cost and delay in land 
management is the timber sale component of the Forest Products Program. 
The budget documents indicate timber sales can take up to 8 years to 
complete. This is unacceptable. Timber harvesting is a legitimate use 
of national forests and BLM public lands, as the multiple-use mandates 
make clear. Current harvesting levels are insufficient to maintain 
forest health, to meet the goals for hazardous fuel reduction to reduce 
wildfire and the risk of insect and disease outbreaks in the nation's 
forests and provide economic and community benefits.
    Adequate funding for land management planning is also necessary to 
ensure the Agency continues with the revision schedule for forest 
plans. With 39 plans in progress, and another 52 plans that will need 
revision in the coming years, the Agency cannot afford backlogs in 
planning.
    Expedited Consultation.--Without additional funds for the Forest 
Service and the Bureau of Land Management to support consultation 
required under the Endangered Species Act with the Fish and Wildlife 
Service, the land management agencies will be unable to do much needed 
work in a timely manner, such as fuels reduction and insect and disease 
mitigation activities.
    Wildland Fire Management--Congress, the Administration, the Western 
Governors, the State Foresters, the SAF and numerous others have 
expressed strong support for the National Fire Plan, and its four 
goals: improve fire prevention and suppression, reduce hazardous fuels, 
restore fire-adapted ecosystems, and promote community assistance. 
However, the proposed budget does not reflect this support, 
particularly with the elimination of funds for Rehabilitation and 
Restoration as well as the minimal increase in funding for preparedness 
and hazardous fuel activities. Funding for the National Fire Plan needs 
to be a sustained effort that will enable the nation as a whole to 
develop a long-term solution.
    Rehabilitation and Restoration.--In the proposed budget, this 
account was eliminated. The funds allocated to rehabilitation and 
restorations were placed in suppression accounts, which can be utilized 
for Burned Area Emergency Rehabilitation activities. Other less 
immediate fire-related rehabilitation and restoration projects, 
normally funded by the Rehabilitation and Restoration account, will be 
prioritized within relevant programs along with other non-fire projects 
to ensure accomplishment of the highest priority projects given limited 
funding. While this rationale is consistent with the philosophy of 
local forest management, we do not believe this is consistent with the 
goals of the National Fire Plan. This funding allocation requires 
managers to make tradeoffs, when clearly; Congress, the Administration, 
and others who support the National Fire Plan believe fire-related 
rehabilitation and restoration activities should be a priority. If 
however, this is the direction that Congress chooses, the funds 
previously allocated for rehabilitation and restoration, should be re-
allocated to the relevant program accounts (i.e. Vegetation Management, 
wildlife management, etc.) were the project funding would actually come 
from under this proposed strategy. The funds should not be allocated to 
suppression, which does not fund these non-emergency projects.
    Capital Improvement and Maintenance.--The proposal to fund the 
deferred maintenance projects through the facilities, roads, and trails 
line items, is somewhat unclear. The deferred maintenance backlog 
within the Forest Service is unacceptable, the Agency should work to 
address this problem, not ignore it. If funding for this deferred 
maintenance is to come from the other line items, there should be 
increases in those items to pay for those projects. We encourage the 
Agency to adopt a prioritization system for these projects and forward 
with implementation.
    National Forest Foundation.--The National Forest Foundation 
continues to provide outstanding leadership in natural resource 
management, providing valuable programs and services to the Agency and 
the public. We encourage you to increase funding for the NFF.
    Bureau of Land Management.--The BLM manages a total of 262 million 
acres of public lands, 55 million of which are forested lands. There is 
a significant disconnect between the number of acres of forest land the 
BLM manages and the number of forest management experts that are 
employed by the BLM. Congress should appropriate increases in funding 
to address this disconnect, especially in light of the additional 
authority granted under under the Stewardship Contracting provisions.
                                 ______
                                 

       Prepared Statement of the Tumbledown Conservation Alliance

    Thank you for the opportunity to offer this testimony. I am writing 
on behalf of the Tumbledown Conservation Alliance (TCA). TCA is a 
nonprofit organization in Maine that is dedicated to land conservation 
efforts in the Mt. Blue/Tumbledown Mountain region of western Maine. I 
am writing specifically in regards to current land protection efforts 
that are underway for Tumbledown Mountain.
    TCA hopes that the Subcommittee on Interior and Related Agencies 
(Committee on Appropriations) will support $3 million in fiscal year 
2004 funding from the Forest Legacy program to go towards the 
protection of Tumbledown Mountain. A lot of progress has been made to 
date on this effort with the recent protection of 11,600 acres of land 
on and adjacent to the Tumbledown Mountain range.
    The Tumbledown Mountain range is one of the most popular hiking 
areas in the State. The parcels under consideration are essential for 
protection of the range and all of its popular trails. The $3 million 
in fiscal year 2004 Forest Legacy funding would allow the State of 
Maine to complete the protection of Tumbledown and would be used to 
permanently protect important timberland, trailhead areas, wildlife 
habitat, and trails. The President's fiscal year 2004 budget includes a 
request for Forest Legacy funding for Tumbledown Mountain and we hope 
that Congress and the Appropriations Committees will do the same. This 
effort to complete the protection of Tumbledown is part of a larger 
effort by the State of Maine, non-profit organizations, residents and 
visitors to conserve over 30,000 acres in the Mt. Blue/Tumbledown 
Mountain region of Maine.
    The Tumbledown Conservation Alliance requests that you support $3 
million for the fiscal year 2004 Forest Legacy Program for Tumbledown 
Mountain. Thank you for your consideration.

                                 ______
                                 
        Prepared Statement of the Wildlife Management Institute

    The Wildlife Management Institute (WMI) is submitting its comments 
on the U.S. Forest Service's (FS) proposed budget for fiscal 2004. WMI 
is a scientific, educational non-profit organization that is staffed by 
professional wildlife biologists and is committed to the sustainable 
management of wildlife populations and habitats throughout North 
America. For 92-years we have worked closely with the FS to identify 
wildlife conservation needs and resource management solutions. Our 
following comments support a majority of the Administration's budget 
requests but includes recommendations for a $25 million increase for 
the National Fire Plan's restoration and rehabilitation account and a 
$19 million increase for the Forest Service's research and development 
program.

                         NATIONAL FOREST SYSTEM

    Overall, WMI supports the Administration's proposed budget for the 
National Forest System: $134.8 million for wildlife and fish habitat 
management and $192.6 million for vegetation and watershed management. 
This proposal represents essentially flat level spending for the FS, 
which is definitely appropriate at a time when our nation is in war. It 
is important to note, however, that at least $65 million is needed to 
address documented needs for wildlife and fish habitat improvements. 
The Forest Service has succeeded in using partnership dollars to chip 
away at deferred conservation projects, but wildlife and fish habitat 
management on national forests and grasslands should not depend only on 
the assistance of generous partners. In fiscal 2002 alone, over $5.8 
million in FS dollars leveraged almost $13.3 million (includes in-kind 
contributions) to complete approximately 719 forest and grassland 
projects. WMI encourages your subcommittee to expand the wildlife and 
fish habitat management account to the degree that current 
circumstances allow.
    Similarly, the vegetation and watershed management account needs an 
additional $49.4 million to restore and conserve a variety of 
ecosystems, including aspen, sagebrush, early successional forests, 
prairies/grasslands and old growth forests. Proactive habitat 
management benefits not only wild animals and the recreational users 
that depend on them, but can simultaneously meet the goals of the 
President's Healthy Forest Initiative (HFI) and National Fire Plan 
(NFP). Therefore, WMI requests that the biological and ecological needs 
of wildlife and fish serve as one of the primary factors that guide the 
implementation of the HFI and NFP.
    Lastly, the spread of non-native, invasive plants is a major 
problem among all rangelands, grasslands and forests. Invasive species 
thrive in disturbed environments, such as land areas that have been 
burned or used for road construction. Since fiscal 2001, substantially 
fewer National Forest System acres have been treated to control or 
eradicate invasive plants. Using vegetation and watershed management 
funds, nearly 144,000 acres were treated in fiscal 2001 but only 
100,570 acres were planned for treatment in fiscal 2003 and 75,331 
acres are planned for treatment in fiscal 2004. Because the annual 
economic cost of invasive plants for farmers, livestock ranchers and 
wildlife and fish agencies is estimated at $38 million, WMI urges your 
subcommittee to direct the FS to increase its focus on invasive species 
management and to treat at least 25,000 more acres in fiscal 2004. We 
believe the FS can realize this goal by integrating invasive species 
management into the objectives of the wildlife and fish habitat 
management program. Deferring this action results in significantly 
escalated costs in outlying years.

                       STATE AND PRIVATE FORESTRY

    WMI applauds the Administration for significantly increasing the 
funding accounts for Forest Legacy ($91 million total request) and 
requesting $25 million for the Forest Land Enhancement Program (FLEP; 
previously known as the Stewardship Incentives Program and Forestry 
Incentives Program). Forest Legacy projects use conservation easements 
to protect non-industrial private forests that are at risk for 
conversion to other uses. Private forests provide valuable habitat to 
wildlife and approximately 300,000 acres are currently enrolled in the 
program. However, the FS has identified 1.7 million private forest land 
acres for protection. Thus, WMI asks your subcommittee to endorse the 
Administration's $91 million request for Forest Legacy and to promote 
similar spending increases in the future as well.

                           NATIONAL FIRE PLAN

    WMI is deeply troubled by the Administration's proposal to zero out 
the NFP's restoration and rehabilitation account. In fiscal 2001, this 
account received $141.7 million, which decreased to $62.7 million in 
fiscal 2002 to $0 in fiscal 2004. The restoration and management of 
burned lands is a multi-year project and should not be funded solely by 
the National Forest System's accounts for wildlife and fish management 
and vegetation and watershed management, as proposed by the 
Administration. Since 2000, catastrophic wildfires have occurred on 
19.2 million acres of forests and rangelands and the FS is preparing 
for another season of intense wildfires. WMI urges your subcommittee to 
appropriate at least $25 million for the restoration and rehabilitation 
account. Additionally, the FS must be directed to prepare realistic 
fire suppression budgets to ensure the agency does not have to borrow 
money form National Forest System accounts to combat future wildfires. 
Failure to adequately fund these programs will result in both near- and 
long-term excessive costs to taxpayers.

                        RESEARCH AND DEVELOPMENT

    The Administration proposes flat level spending for research and 
development activities concerning wildlife and fish habitat ($18.164 
million and $8.572 million, respectively) and watersheds ($18.477 
million). WMI encourages your subcommittee to at least support these 
funding requests. However, please note that the Forest Service's 
wildlife and fish research units have identified a $19 million funding 
need for research questions concerning the HFI and invasive species. 
For example, it is unclear how certain mammals, such as bats and forest 
carnivores, for which research funding is lacking, will respond to the 
removal of small diameter timber (need is $1.5 million). Also, 
landscape level research is needed to fully assess the impacts of HFI 
activities (need is $1 million). As for invasive species research, it 
remains unclear how non-native plants and animals impact native fish 
and wildlife populations and how native wildlife and fish populations 
respond to invasions of non-native organisms (need is $2.5 million). 
WMI asks your subcommittee to address these additional research needs 
to the best of your ability.
    In closing, WMI remains concerned by the Forest Service's 
transition to the Budget Formulation and Executing System. This budget 
structure relies upon broad performance measurements (e.g., acres of 
improved terrestrial habitat and number of products provided for 
information and education). This approach makes it impossible for FS 
partners to track services provided or benefits received among specific 
programs. The agency's new accounting process further exacerbates this 
problem because it groups work activities for wildlife, fish and listed 
species under one budget line item. To ensure FS projects are 
transparent and accessible for public review, WMI urges your 
subcommittee to direct the FS to use more specific budget line items 
when explaining how requested and appropriated dollars will be spent.
    Thank you for reviewing our comments, and we hope to work with you 
throughout the appropriations process. If you or your staff would like 
to discuss our recommendations further, please contact me or Terry 
Riley, Director of Conservation, at (202) 371-1808.

                                 ______
                                 
               Prepared Statement of the Wildlife Society

    The Wildlife Society appreciates the opportunity to submit 
testimony concerning the fiscal year 2004 budgets for the Natural 
Resources Conservation Service (NRCS), Farm Service Agency (FSA), 
Animal Plant Health Inspection Service (APHIS), and Cooperative State 
Research, Education and Extension Services (CSREES). The Wildlife 
Society is the association of almost 9,000 professional wildlife 
biologists and managers dedicated to sound wildlife stewardship through 
science and education. The Wildlife Society is committed to 
strengthening all federal programs that benefit wildlife and their 
habitats on agricultural and other private land.

                 NATURAL RESOURCES CONSERVATION SERVICE

    Farm Bill Technical Assistance.--We applaud Congress for passing 
the 2002 Farm Bill, which authorizes the U.S. Department of Agriculture 
to work with third party Technical Service Providers to build a solid 
network of certified professionals that can assist NRCS in delivering 
assistance to producers. However, NRCS recognizes that training will be 
needed to effectively prepare Technical Service Providers to assist 
producers and landowners. The Wildlife Society recommends that Congress 
provide NRCS with adequate funds to recruit land grant universities and 
colleges, the USDA Extension System, and professional societies to help 
train sufficient Technical Service Providers.
    Monitoring and Evaluation.--Monitoring Farm Bill conservation 
programs and evaluating their progress toward achieving Congressionally 
established objectives for soil, water, and wildlife will enable NRCS 
to ensure successful program implementation. Changes to agricultural 
policy in the 2002 Farm Bill, such as higher funding authorizations and 
expanded acreage enrollment caps, necessitate the establishment of an 
accountability system that continuously assesses the effectiveness of 
conservation programs and policies. The Wildlife Society recommends 
dedicating mandatory funding to the monitoring and evaluation of Farm 
Bill conservation programs at the $10 million level approved in the 
Farm Bill Statement of Managers. We propose using a competitive grants 
process to fund a consortium of non-USDA organizations (non-
governmental organizations, universities, and state organizations) for 
the purpose of identifying cost-saving practices, program improvements, 
and future funding requirements and determining the environmental and 
economic value of conservation expenditures.
    Wetland Reserve Program (WRP), Wildlife Habitat Incentives Program 
(WHIP).--We would like to express our gratitude for your continued 
support of WRP and for authorizing WHIP in 2003. WRP is a valuable 
program designed to assist farmers and ranchers protect and restore 
wetland habitat. WHIP is a voluntary program that provides technical 
and financial support to farmers and ranchers to create high quality 
wildlife habitat. The Wildlife Society supports funding WRP at $250 
million in fiscal year 2004. We are concerned that the Administration's 
request for WHIP, $42 million for 2004, is well below the 2002 Farm 
Bill's authorized amount of $275 million. The Wildlife Society 
recommends funding WHIP at $275 million in 2004.

                          FARM SERVICE AGENCY

    Staff Years.--FSA requires an adequate budget to implement the Farm 
Bill conservation programs under its administration. The Wildlife 
Society is concerned that the staffing level of 16,701 FTE proposed by 
the Administration in 2004 is too low to address the demonstrated need 
of agricultural producers. The Wildlife Society recommends that the 
budget include sufficient personnel funding to maintain the 2003 
requested level of 19,337 FTE.
    Grassland Reserve Program (GRP).--We believe the GRP will be 
valuable in aiding landowners in their grassland restoration efforts. 
The Wildlife Society supports the Administration's 2004 request of $85 
million for GRP.
    Conservation Reserve Program (CRP).--CRP is popular with 
landowners, and has resulted in significant wildlife and habitat 
benefits on agricultural land. Current demand for the program is on the 
rise, as is demand for technical assistance associated with 
implementation of CRP. The Wildlife Society recommends maintaining CRP 
enrollment at 39.2 million acres as finalized in the 2002 Farm Bill.
    Forest Land Enhancement Program (FLEP).--The Forest Land 
Enhancement Program was created through the 2002 Farm Bill to provide 
financial, technical, educational, and related assistance to promote 
sustainable management of non-industrial private forestlands. The 
program is authorized at $100 million for 2002-2007, to be distributed 
through state forestry agencies. The Wildlife Society asks that 
Congress appropriate at least $20 million to FLEP in 2004 to ensure 
that private forestlands continue to provide sustainable forest 
products and protect the health of our water, air, and wildlife.

               ANIMAL AND PLANT HEALTH INSPECTION SERVICE

    Wildlife Services.--Wildlife Services (WS), a unit of APHIS, is 
responsible for controlling wildlife damage to agriculture, 
aquaculture, forest, range and other natural resources, for controlling 
wildlife-borne diseases, and for controlling wildlife at airports. Its 
activities are based on the principles of wildlife management and 
integrated damage management, and are carried out cooperatively with 
State fish and wildlife agencies.
    The Wildlife Society is concerned about the proposed $1.5 million 
decrease in funding for Methods Development for 2004. Many current 
wildlife control tools such as traps, snares and wildlife toxicants are 
becoming less acceptable to the public and are being prohibited in many 
states as the result of public referenda. The only credible way to 
identify and perfect new methods is through research. However, WS 
funding is only adequate to cover maintenance and operating costs and 
no funding is being provided for the development of new innovative 
wildlife damage management methods. The Wildlife Society requests a $5 
million increase for Methods Development to adequately continue non-
lethal methods research and address the increased operating and 
maintenance costs.
    Veterinary Services.--Chronic Wasting Disease (CWD) is a serious 
problem plaguing our Nation's deer and elk. The spread of CWD is 
draining already diminished federal and state agency budgets and is 
hurting local economies that depends on revenues from recreational 
hunting. The Wildlife Society supports the Administration's request of 
$14.9 million for the research, monitoring, and control of CWD.

      COOPERATIVE STATE RESEARCH, EDUCATION AND EXTENSION SERVICES

    Renewable Resources Extension Act.--The Wildlife Society was 
pleased that Congress appropriated $423,000 above the Administration's 
request for the Renewable Resources Extension Act (RREA) in 2003. RREA 
provides an expanded, comprehensive extension program for forest and 
rangeland renewable resources. The need for these programs is greater 
now than ever due to fragmentation of ownerships, urbanization, the 
number and diversity of landowners needing assistance, and the 
increasing social concern for land use and its effect on soil, water, 
air, and wildlife.
    It is important to note that RREA was reauthorized in the 2002 Farm 
Bill at $30 million annually through 2007. Though RREA is proven to be 
effective at leveraging cooperative state and local funding, it has 
never been fully funded in the annual appropriations process. In fact, 
the fiscal year 2004 request for RREA falls back to the 2002 funding 
level, $4.093 million, which is insufficient for assisting private 
landowners who own and manage most of the nation's natural resources. 
An increase to at least $15 million would enable CSREES to expand its 
capability to assist more private landowners in improving management of 
private land while increasing farm revenue. Therefore The Wildlife 
Society recommends that the Renewable Resources Extension Act be funded 
at a minimum of $15 million in fiscal year 2004.
    McIntire-Stennis.--The McIntire-Stennis Cooperative Forestry 
program funds state efforts in forestry research to increase the 
efficiency of forestry practices, and to extend the benefits that come 
from forest and related rangelands. McIntire-Stennis calls for close 
coordination between state colleges and universities and the Federal 
Government, and is essential for providing research background for 
other Acts, such as RREA. The Administration's fiscal year 2004 request 
for McIntire-Stennis is $21.884 million, in essence level with 2002 and 
2003. The Wildlife Society recommends that funding for McIntire-Stennis 
Cooperative Forestry be increased to $30 million.
    National Research Initiative.--National Research Initiative 
Competitive Grants (NRI) are open to academic institutions, federal 
agencies, and private organizations to fund research on improving 
agricultural practices, particularly production systems that are 
sustainable both environmentally and economically, and to develop 
methods for protecting natural resources and wildlife. Innovative grant 
programs such as NRI help broaden approaches to land management, such 
as integrating timber and wildlife management on private lands. The 
Wildlife Society supports the Administration's 2004 request of $200 
million for National Research Initiative Competitive Grants, and 
requests Congressional approval.
    Thank you for considering the views of wildlife professionals. We 
look forward to working with you and your staff to ensure adequate 
funding for wildlife conservation.
                                 ______
                                 

                          DEPARTMENT OF ENERGY

           Prepared Statement of the Alliance to Save Energy
    My name is David Nemtzow, President of the Alliance to Save Energy, 
a bi-partisan, non-profit coalition of business, government, 
environmental, and consumer leaders committed to promoting energy 
efficiency worldwide to achieve a healthier economy, a cleaner 
environment and energy security. I am writing to request, generally, 
that funding for the energy efficiency programs of the U.S. Department 
of Energy be increased, and that the Buildings Technologies, and 
Industrial Technologies programs be restored to their fiscal year 2002 
levels--$9.8 million, and $41.3 million respectively. Specifically, our 
top priority recommendations, totaling $8.0 million, are set forth 
below.
    The Alliance was founded in 1977 by Senators Charles Percy (R-IL) 
and Hubert Humphrey (D-MN). The current Chair is Senator Byron Dorgan, 
and Vice-Chairs are Senators: Susan Collins; Jeff Bingaman; James 
Jeffords and Representative Ed Markey. Seventy-six companies and 
organizations currently belong to the Alliance.
    The Alliance has a long history of researching and evaluating 
federal energy efficiency programs. We also have a long history of 
supporting efforts to promote energy efficiency that rely not on 
mandatory federal regulations, but on partnerships between government 
and business and between the federal and State governments. DOE 
efficiency programs are largely voluntary programs that further the 
national goals of broad-based economic growth, environmental 
protection, national security and economic competitiveness. The Office 
of Energy Efficiency and Renewable Energy does this through the 
development of new energy-efficient technology in cooperation with the 
national laboratories, by working with the private sector to deploy 
that technology, and by fostering energy efficiency activities in the 
states.
    I appreciate this opportunity to comment on the fiscal year 2004 
budget for energy-efficiency programs at the Department of Energy.

            THE PRESIDENT'S FISCAL YEAR 2004 BUDGET REQUEST

    We have two general concerns regarding the fiscal year 2004 
request.
    First, it proposes reductions of roughly 4 and 2 percent from 
fiscal year 2002 and fiscal year 2003 appropriations, respectively. 
Given the current volatility in energy prices, the continuing economic 
slowdown, and the insecurity of the nation's energy systems and 
supplies, we believe that now is not the time to be cutting back on 
investments in energy efficiency--the nation's cheapest, quickest, and 
cleanest energy resource.
    Second, the fiscal year 2004 request proposes cutting existing and 
successful programs in order to pay for increases for Weatherization 
Assistance and the fuel cell programs. The Alliance strongly supports 
both of these recommendations. We have serious concerns, however, that 
while the Administration is proposing $674 billion in tax cuts as a 
part of an economic stimulus plan there are decreases in other programs 
that have demonstrated their ability to create jobs and stimulate the 
economy.
    In 2001, the National Research Council found that for 17 DOE energy 
efficiency programs they analyzed, there was a return of $20 to the 
economy for every dollar invested. These rates-of-return compare 
favorably with most investment opportunities including the stimulus 
effect anticipated from tax reductions. In a time of recession and 
high, volatile energy prices, we should be substantially increasing our 
investment in these successful programs instead of using them to fund 
other initiatives.
    By our calculation, the fiscal year 2004 budget request would 
reduce funding for non-fuel cell, nonweatherization programs by more 
than 20 percent as compared to fiscal year 2002. That includes programs 
with proven cost-effectiveness such as: Lighting and Appliance 
Standards, Energy Star, the Federal Energy Management Program, Windows 
R&D, support for state adoption of building energy codes and other 
programs that have reduced national energy demand, cut energy costs for 
consumers, and created jobs through the commercialization of new 
technologies and products. We urge that funding for the Buildings and 
Industrial Technologies accounts be restored to their fiscal year 2002 
levels.
    For example, the appliance standards program has been acknowledged 
by DOE to have reduced national peak electric demand by 2.5 percent. 
That is a huge accomplishment, achieved at a federal cost of less than 
$10 million per year. Equally large savings remain available assuming 
continued funding support. In fact, even the existing limitations on 
appropriations have caused DOE to fall years--sometimes up to ten 
years--behind on setting standards for products that could be providing 
savings for consumers and the economy. Moreover, Congress is poised to 
enact legislation that would substantially increase the number of 
rulemakings that DOE would be required to undertake. What is the logic 
of cutting this program?
    Another program that was praised by the National Research Council 
is the Industries of the Future Program (IOF). IOF has historically 
worked in consultation with energy intensive industries to assess 
research needs and focus on the greatest value added for government R&D 
efforts. DOE seems to have largely abandoned this approach in the 2004 
budget, cutting chemical, forest and paper products industries, and 
other program areas by more than 50 percent. In addition, the 
Administration has zeroed out efforts to continue similar successes in 
the buildings sector, eliminating its roadmap programs for lighting and 
windows. The justification for eliminating these programs appears to be 
that, if they are worth doing, then industry will fund it. Several 
analyses of government R&D efforts have shown that this does not hold 
true (Galvin, Yergin).

                         NEW MONEY IS NECESSARY

    We have now had two gasoline and two natural gas price spikes in 
three years. Our energy prices and supplies continue their instability, 
costing consumers dearly to fill their gas tanks and heat their homes, 
and sending shocks through the economy. Robbing Peter to pay Paul is 
the wrong approach to national energy policy. The President's fiscal 
year 2004 cuts in energy efficiency are the wrong approach. We agree 
that new energy efficiency research objectives need to be met, but 
funding should be increased to do so instead of cutting back on other 
equally important objectives.

                                HYDROGEN

    Hydrogen has potential to replace oil as the fuel to power our 
transportation system, but there are major technological problems to be 
solved. We cannot predict whether those hurdles will be overcome by the 
time those born this year will become drivers, as anticipated by the 
President in his State of the Union speech, or whether it will take 
much longer. Research and development, by its very nature, is 
uncertain. It is often compared to a financial investment portfolio. 
Diversity, and balancing risk are key considerations in developing an 
effective investment, or R&D, strategy. No one knows for certain 
whether large-scale use of hydrogen for transportation will ever become 
practical, let alone in the next 16 years.
    Just one of the critical questions which has not yet been answered 
is; how to make the hydrogen? Currently, the best way to make hydrogen 
is from natural gas. But natural gas is currently used to heat 55 
percent of American homes and is expected to fuel nearly all new 
domestic electric generation capacity added during the next decade. 
Surely, the addition of powering our extensive transportation system 
from natural gas will invalidate current assumptions about the future 
price and supply of natural gas--a commodity already undergoing 
tremendous price volatility.
    Accordingly, we should not curtail work on increasing the 
efficiency with which our building and industrial sectors use natural 
gas, or DOE's work on improving hybrid technology and other 
transportation fuel efficiency technologies simply because hydrogen has 
the potential to be a long-term solution to transportation efficiency. 
Such a strategy does not properly balance the risks of failure with the 
likelihood of success.

                    ANOMALIES IN THE BUDGET REQUEST

    The Alliance is confounded by certain reductions in the President's 
budget request between fiscal years 2003 and 2004.
    For fiscal year 2003, DOE requested $6.2 million for the Energy 
Star program. That figure was supported in both the House and Senate 
Interior Appropriations bills passed last year--though reduced to $4.2 
million by the Conference Committee under the stringent caps of the 
Omnibus legislation. The fiscal year 2004 request is for $3.7 million, 
a 14 percent cut from fiscal year 2003 actual appropriations and a 40 
percent cut from the fiscal year 2003 request. Why does Energy Star, a 
program which produces $75 in savings for every dollar spent, and which 
received glowing support in the National Energy Plan, merit such less 
consideration this year than last?
    Another drastic change occurred in the request for the Federal 
Energy Management Program. For fiscal year 2003, the President 
requested $27.9 million for this very successful effort to save energy 
in the federal government, the world's single largest energy user. FEMP 
has played a central role in the federal government's success in 
reducing energy use by 21 percent from 1985 to 2000. Nevertheless, the 
fiscal year 2004 request is $19.9 million. Again, there is no 
indication of why FEMP has been targeted for such significant 
reduction.

                        PROGRAM MANAGEMENT FUNDS

    Since the reorganization of EERE last year, the budget request 
includes the new Program Management account, to be funded at $76.66 
million in fiscal year 2004.
    Previously, each of the energy-use sector programs had its own 
program management account to cover salaries and administrative costs. 
Now, these funds are consolidated in the Office of the Assistant 
Secretary to be disbursed at their discretion. While, the Alliance has 
no objection to discretion, such discretion need not preclude 
transparency. We believe that there should be greater disclosure 
regarding the intended allocation of these funds so that Congress and 
the public will have a clear view and understanding of the total budget 
that is recommended for each major program area. In fact, we remain 
confused about the fiscal year 2004 funding levels for some programs 
because it is uncertain how much of these ``program management'' funds 
they will be receiving.

                          EERE REORGANIZATION

    Last year, our testimony presented several questions about the 
reorganization at EERE. After a year of experience, it is time to ask 
them again.
  --Does the reorganization itself create shifts in program priority 
        for EERE, and what are they?
  --For which programs does the reorganization make it harder, or 
        easier, to do business?
  --How does the mandated routing of all communication activities 
        through the Assistant Secretary's office enhance or detract 
        from the office's ability to get its message out?

                            RECOMMENDATIONS

    Generally, the Alliance to Save Energy recommends that the 
activities under the Building Technologies and Industrial Technologies 
sectors be restored to fiscal year 2002 levels. Specifically, the 
Alliance recommends the following fiscal year 2004 funding levels:
  --Lighting and Appliance Standards (under Equipment, Materials and 
        Tools)--plus $2.0 million over the request, to $11.0 million;
  --Federal Energy Management Program--plus $2.0 million, to $22.0 
        million;
  --Energy Star--plus $2.0 million, to $5.7 million;
  --Industrial Best Practices (under Industries of the Future, 
        crosscutting)--at the requested level of $8.24 million;
  --Window Technologies (under Building Envelop R&D)--plus $1.0 million 
        to $4.5 million; and
  --State Building Codes (under State Energy Program, Building Tech. 
        Assist.)--plus $1.0 million, to $2.8 million.
    Other programs deserving of increased funding are: Thermal 
Insulation and Building Materials; Clean Cities; Industrial Assessment 
Centers; Industries of the Future--Specific; Building America; and 
Sensors and Control Technologies.
    Thank you again, Mr. Chairman, for offering the Alliance to Save 
Energy the opportunity to submit its views, and for your support in 
past years for energy efficiency. We hope that you share our commitment 
to energy efficiency and to the economic, environmental, and security 
benefits it offers the nation.
                                 ______
                                 
  Prepared Statement of the Allison Transmission Division of General 
                        Motors, Indianapolis, IN

                                REQUEST

    Our companies are competitively developing Heavy Duty hybrid 
electric propulsion systems (HD Hybrid) for Trucks and Buses. At the 
same time, we have pre-competitively established common objectives that 
we agree to jointly pursue in order to enable these products to come to 
market. All of our companies have encountered barriers to 
commercialization so significant that we have collectively agreed 
Federal assistance is essential to overcome them. We jointly request 
that the committee increase the Department of Energy's 2004 budget for 
the Hybrid and Electric Propulsion Program as shown in the table at the 
end of this testimony. The Department of Energy should be instructed to 
``use these additional funds for the acceleration of Heavy Duty Hybrid 
Development, without stipulation of vehicle fuel type, architecture or 
configuration, to enable the development of solutions that best meet 
the needs of the trucking industry''.

                               BACKGROUND

    Our goals are to develop HD Hybrid propulsion products, overcome 
the technical barriers that inhibit the technology and stimulate market 
demand for these products. In essence, we are attempting to create a 
new, globally competitive industrial base in the United States that 
will significantly benefit the Transportation sector. Our approach is 
to create an environment that is conducive to the accomplishment of our 
goals. Our plan is to educate interested parties as to why HD Trucks 
and HD Hybrids are important, explain why HD Trucks and HD Hybrids 
differ from those used in Cars, Light Duty Trucks, SUV's and Combat 
Vehicles, to outline why Government assistance is needed and to 
summarize our technology priorities.

                 THE DILEMMA OF HEAVY DUTY (HD) TRUCKS

    The average American does not understand or care why HD Trucks are 
important. Quite the contrary, the prevailing attitude toward HD Trucks 
ranges from indifference to outright hostility. They are dirty, noisy 
and smelly and many of them aren't pretty. Americans have to share the 
roads with them. Such trucks intimidate automobile drivers and are 
perceived to cause accidents, clog traffic and ruin the roads. It's no 
wonder that looking for public policy support for HD Trucks is 
difficult. Trucks are unpopular, but, the average American doesn't 
realize that America can't economically survive without them and 
Americans cannot live without them.

                      THE IMPORTANCE OF HD TRUCKS

    America's economy runs on trucks. Virtually everything we own was 
transported by a HD Truck at least once, if not multiple times, to 
bring it to our homes or the place where we purchased it. If you have 
it, it came by truck and when you're through with it, a truck will take 
it away. According to both the 1993 and 1997 U.S. DOT Commodity Flow 
Survey Studies, 72 percent of the dollar value of goods shipped in the 
United States was shipped by truck. Furthermore, trends such as Just-
In-Time (JIT) delivery and E-commerce are pushing our dependency on 
shipping higher. A report titled ``Economic Effects of Transportation, 
the Freight Story'', January 2002 by ICF Consulting and HLB Decision 
Economics outlines the causes and effects of this paradigm shift. The 
Motor Carrier Act of 1980 deregulated trucking, which led to increased 
competition in interstate transportation markets. This caused trucking 
companies to cut their profit margins and increase efficiency to 
survive, which led to lower shipping costs. Business managers soon 
recognized this trend and invented JIT delivery, exploiting the trend 
by trading inventory cost for shipping cost to save money. Inventory 
costs of business were reduced from 8.2 percent of GDP in 1981 to 3.6 
percent of GDP in 1999 and at the same time, shipping costs were 
reduced from 7.4 percent of GDP in 1980 to 6 percent of GDP in 1988 and 
after. This resulted in more money available to suppliers of goods and 
less to the trucking industry despite increasing ton-mile volumes, 
which helped fuel the pre-Y2K economic expansion we enjoyed. The other 
significant effect is that the Nation's economy is now considerably 
more dependent on reliable, low-cost freight due to reduced 
inventories. In summary, trucking is extremely important to our 
Nation's economy, even though most Americans take it for granted.

                   THE IMPORTANCE OF HD HYBRID TRUCKS

    HD Hybrid makes trucks cleaner and more efficient. In an era of 
increasing ton-mile shipping volumes, fueled by the economic phenomenon 
described above, this is a very important consideration. HD Hybrid can 
reduce Oxides of Nitrogen (NOx) up to 50 percent and improve fuel 
economy up to 50 percent, depending on the driving cycle. Other 
technologies that are being developed and introduced to meet EPA 2004 
emissions regulations (in 2002 for those companies that are party to 
the consent decree) such as Exhaust Gas Recirculation (EGR) improve 
emissions but degrade fuel economy. HD Engine company representatives 
have stated that 2004 compliant engines reduce fuel economy as much as 
10 percent. Considering the trucking industry's razor thin margins, the 
cost increase driven by 10 percent poorer fuel economy could be 
devastating to both the trucking industry and the Nation's economy. 
With HD Hybrid, you don't have to sacrifice efficient for clean.
    Interestingly enough, HD Hybrid is a multiplier of other advanced 
truck and bus technologies. It complements, enhances and integrates 
with improvements in engines, aerodynamics, safety, aftertreatment 
devices, anti-idling systems, traction control and intelligent 
transportation concepts. It does this because of its advanced computer 
control system and its inherent power management capability. HD Hybrid 
can have the effect on HD Trucks that stringent fuel economy and 
emissions regulations coupled with savvy foreign competition and 
increasing customer expectations has had on passenger cars. These 
market forces caused the automakers to more fully integrate their 
vehicles and meet emissions regulations, improve fuel economy and offer 
higher quality, more competitive products. HD Hybrid is a unifying 
technology that enables Engine, Truck and HD Component Manufacturers to 
work together in an Integrated Product Team (IPT) fashion to enhance 
the competitiveness of their products.
    Looking forward, HD Hybrid is an integral part of the technology 
roadmap for fuel cell powered and all-electric HD Trucks and Buses. A 
fuel cell has no spinning shaft for power take-off and connection to a 
mechanical transmission and driveshaft. You put hydrogen in, and 
electricity and water vapor come out. But electricity alone cannot move 
a truck. HD Hybrid brings with it the electric drive technology that a 
fuel cell needs to become a propulsion system. And, the Japanese 
trucking industry is already moving forward with HD Hybrid, spearheaded 
by a Government wide METI initiative

                 HOW HD TRUCKS DIFFER FROM LD VEHICLES

    This subject is worth discussing to address the common perception 
that investments in Passenger Car technology benefit HD Trucks. First, 
it is important to understand the definitions of Light Duty (LD) vs. 
Heavy Duty (HD) vehicles. LD vehicles (and Trucks) are those that fall 
into Classes 1 and 2a, which contain vehicles such as Passenger Cars 
(Pass Cars), Light Trucks (such as the GMC/Chevy 1500 series pick-up 
truck), Minivans and most Sport-Utility Vehicles (SUV's). HD Trucks are 
everything else, that is, all vehicles that exceed 8,500 lbs Gross 
Vehicle Weight (GVW), which are Classes 2b through 8. This cross 
section of vehicles includes Tractor-Trailers, Delivery Vans, Refuse 
and Dump Trucks, UPS and FedEx Package Vans, Buses, even large pick-up 
trucks such as the GMC/Chevy 2500 and 3500 series are in the HD class. 
A summary of characteristics that differ between LD and HD vehicles 
relative to North American markets is shown below.

------------------------------------------------------------------------
                                 Heavy duty (HD)     LD trucks and pass.
       Characteristic                trucks                 cars
------------------------------------------------------------------------
Gross Vehicle Weight (GVW)..  8,500 to 80,000 lbs.  Up to 8,500 lbs.
Duty cycle..................  Continuous daily      Intermittent light
                               operation.            duty
Peak horsepower.............  150 to 600..........  70 to 300
Continuous horsepower.......  150 to 600..........  25 to 60
Annual mileage..............  20,000 to 250,000     8,000 to 20,000
                               miles.                miles
Expected lifetime...........  Up to 1,000,000       150,000 miles
                               miles.
Purchase price (not incl.     $40,000 to $150,000.  $12,000 to $40,000
 bus).
Market volume (annual)......  800,000.............  18,000,000
Number of configuration       Millions............  A few thousand
 variants.
Fuel of choice..............  Diesel..............  Gasoline
Fuel consumption............  5 to 15 MPG.........  14 to 40 MPG
Who buys it.................  The fleet manager...  The driver
Who drives it...............  A hired driver......  The owner
Buyers priority.............  Reliability, Low      I like it/Want it
                               ownership cost.
Emissions certification.....  Engine only.........  Vehicle level
Certification responsibility  Engine manufacturer.  Vehicle manufacturer
------------------------------------------------------------------------

    These factors have caused HD Truck and LD Vehicle markets and 
industries to behave very differently. Their markets, products, 
business models, revenue streams and regulatory environments are 
completely different. Technologies resulting from Basic Research can be 
transferable between the industries but the products of Applied 
Research and beyond are market specific. In summary, the HD Truck and 
LD Vehicle technologies and corresponding investments in them are 
complimentary, but they leverage each other only at the most basic 
level.
    How HD Trucks differ from Military (Combat) Vehicles.--Likewise, HD 
Trucks are significantly different than Combat vehicles. Arguments have 
been made that investments the DOD is making in hybrid electric for 
programs such as Future Combat System (FCS) should yield technology 
that is transferable to HD Trucks. As with hybrid technology developed 
for cars, military hybrid technology is complimentary, but only 
transferable at the basic level. Applied technologies are still unique 
for HD Trucks. A summary of characteristics that differ between Combat 
Vehicles and HD Trucks aids in understanding this concept and is shown 
below.

------------------------------------------------------------------------
                                 Heavy duty (HD)
       Characteristic                trucks          FCS combat vehicles
------------------------------------------------------------------------
Duty cycle..................  Continuous daily      Intermittent duty
                               operation.
Annual mileage..............  20,000 to 250,000     600 to 2,000 miles
                               miles.
Expected lifetime...........  Up to 1,000,000       40,000 miles
                               miles.
Purchase price (not incl.     $40,000 to $150,000.  $500,000 to
 bus).                                               $6,000,000
Market volume (annual)......  800,000.............  1,000
Number of configuration       Millions............  Less than 100
 variants.
Who buys it.................  The fleet manager...  The Army
Who drives it...............  A hired driver......  A Soldier
Buyers priority.............  Reliability, Low      Performance
                               ownership cost.
Emissions certification.....  Engine only.........  Not Required
------------------------------------------------------------------------

    Why Government Assistance is Needed.--The preceding paragraphs have 
established the importance of trucking to the Nation's economy and 
highlighted that HD Hybrid is a technology that offers increased 
efficiency with a simultaneous emissions reduction. HD Hybrid can 
enhance Energy and Economic Security as well as favorably impact the 
attainment of Air Quality Standards. It was also noted that technology 
investments in Light Duty vehicle technology have marginal impact on 
Heavy Duty Trucks, production volumes are much smaller than that of 
cars, and that the trucking industry operates on very slim profit 
margins due to the competition created by deregulation. As a result, HD 
Hybrid is a technology that offers significant benefit to the public 
good, but due to the economic factors discussed above the trucking 
industry cannot afford it. This is where the Government can help. 
Through prudent investment in key technologies, and by assuring that 
sufficient testing experience is available to overcome consumer 
reluctance, the Government can help Industry get this technology ``over 
the hump'', to the point that it will stand on its own with a strong 
business case driven by proven Life Cycle Cost payback and superior 
residual value to trucking firms.
    Therefore, we respectfully ask the Subcommittee to Increase the 
Department of Energy's 2004 budget for the Hybrid and Electric 
Propulsion Program as shown in the table below. The Department of 
Energy should be instructed to ``use these additional funds for the 
acceleration of Heavy Duty Hybrid Development, without stipulation of 
vehicle fuel type, architecture or configuration, to enable the 
development of solutions that best meet the needs of the trucking 
industry''.

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year
                                                                       2004            21CT
            Hybrid and electric propulsion line item                President's     partnership    21CT plus-up
                                                                      request         request
----------------------------------------------------------------------------------------------------------------
Energy Storage..................................................          28,700          32,700           4,000
Advanced Power Electronics......................................          13,690          17,690           4,000
Subsystem Integration and Development...........................           7,173          11,173           4,000
----------------------------------------------------------------------------------------------------------------

    Our technology priorities are Power Management Technology, Building 
the Component Supplier Base, Engine & Aftertreatment Integration, 
Electric Machines and Drive Units, Component & System Reliability 
Growth and Component & System Modeling & Simulation. The first two 
priorities map in to the Energy Storage and Advanced Power Electronics 
line items. The remaining four priorities map into the Subsystem 
Integration and Development line item.

                                 ______
                                 
           Prepared Statement of the American Gas Association

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
American Gas Association (AGA), comprising 191 natural gas distribution 
companies across North America, serving 60 million homes and businesses 
in all 50 states, we offer this testimony related to the US Department 
of Energy's (DOE) fiscal year 2004 Budget. AGA is pleased with the 
productive partnership it has with DOE and this Subcommittee to advance 
cost-shared research projects that serve the national interest. Within 
the Interior Subcommittee's jurisdiction, DOE's fiscal year 2004 budget 
request for natural gas RD&D programs reside in the Offices of Energy 
Efficiency and Renewable Energy (EERE) and Fossil Energy (FE). For the 
past decade we have provided this Subcommittee with a litany of 
technology priorities across a broad spectrum of programs. While AGA 
continues to support programs such as natural gas vehicles and 
industrial RD&D, two top priorities and programs have emerged: FE's 
natural gas infrastructure and EERE's distributed energy resource (DER) 
programs. The Administration requested no funding for natural gas 
infrastructure research in the fiscal year 2004 budget, compared with 
$9.1 million appropriated by Congress for the current year. AGA 
respectfully requests an increase of $25 million to the budget request 
for Infrastructure programs. Justification for this $15.9 million 
increase over the current level is discussed below. EERE's fiscal year 
2004 DER request is virtually unchanged from fiscal year 2003 at the 
level of $58.8 million and AGA respectfully requests an increase of $10 
million for a total of $68.8 million. The purpose of the amendment 
request is discussed below.
    AGA's prioritization and funding request reflects the nation's 
immediate need for, and the Industry's commitment to, dramatic 
advancement in the areas of infrastructure and DER. The horrible 
terrorist acts of September 11, 2001, make clear the needed re-
investment in infrastructure both to facilitate greater reliance on 
domestic energy resources and to ensure the secure distribution of 
those national assets to American consumers. Increased emphasis on 
Homeland Security also highlights the value of a power generation 
portfolio that is distributed, reliable, cost-effective and able to 
operate independently even if a central power station or the electric 
grid is compromised. Given these needs and our commitment to reliable 
and safe service for the American people, the Natural Gas Industry has 
developed two initiatives aimed at dramatically advancing 
Infrastructure and DER, they include the Natural Gas Partnership and 
the National Accounts Energy Alliance.
    The Office of Management and Budget proposes to terminate funding 
for the natural gas infrastructure program in DOE. The American Gas 
Association strongly supports the DOE's program for natural gas 
industry Infrastructure and Operations. This program was initiated in 
fiscal year 2001 with an appropriation of $4.9 million for 
infrastructure and has been met by tremendous enthusiasm and project 
cost sharing within the natural gas industry. More than 70 proposals, 
totaling in excess of $45 million, were submitted by industry partners 
in response to the inaugural year funding under the DOE program. These 
proposals exceeded the available dollars by a nine-to-one margin. All 
proposals met or exceeded DOE's 35 percent cost-sharing requirement.
    Congress appropriated $9.1 million for fiscal year 2003 and all 
indications are that industry partners will respond at least as 
enthusiastically as last year. Given the need to revitalize the 
Nation's aging natural gas infrastructure with new technologies and 
materials, given the heightened importance of safeguarding that 
infrastructure, and given the overwhelming response of the natural gas 
industry to partnering with the government to achieve these objectives, 
AGA highly recommends the continuation and expansion of this program by 
$15.9 million in fiscal year 2004.
    In general, DOE's infrastructure R&D is geared to its mission to 
make the nation's energy infrastructure more reliable, efficient and 
able to meet the needs of the economy. It tends to have longer-term 
benefits. DOE's programs include projects such as: more corrosion-
resistant material that can transport gas at higher pressure, more fuel 
efficient compressors that are capable of flexible compression 
operation, improved automated data acquisition, system monitoring and 
control techniques, no dig technologies, innovative excavation and 
restoration systems, and plastic pipe technology. All of these 
contribute to public benefits in terms of additional domestic energy 
supply, increased safety and reliability, lower cost to consumers, and 
improved environmental performance.
    The natural gas industry provides substantial cost sharing in the 
development of the technologies necessary to develop this new 
infrastructure. We do believe that there are significant benefits that 
will accrue to all Americans as a result of an infrastructure research 
partnership. We know that major and novel system improvements are 
needed for natural gas to be delivered in the volumes that DOE believes 
will be required in the future and that these improvements are 
dependent on new, highly efficient technologies.
    Some in the Office of Management and Budget argue that all natural 
gas infrastructure research should be conducted exclusively by the 
Department of Transportation. Currently, the Office of Pipeline Safety 
(OPS) in DOT does conduct limited infrastructure-related work. 
Consistent with its role as a pipeline safety regulatory agency, OPS's 
pipeline R&D has focused on near-term safety, security and damage 
prevention projects and technologies, and codes and standards 
development. DOE focuses on the long term energy delivery issues 
related to natural gas infrastructure. Although, both departments are 
involved in R&D, the departments have different missions and their R&D 
programs reflect it.
    Coordination between the two departments is critical and AGA 
recommends a balance of both security, safety, reliability and 
efficiency related work. The research programs in each department are 
extremely essential.
    Meeting a large increase in demand efficiently and in a manner that 
is in the best interest of the American people will require continued 
cooperation among DOE, DOT, and the natural gas industry to develop the 
necessary research tools. It is clear that immediate and substantial 
investment in research supporting natural gas infrastructure is 
essential to ensuring energy reliability and security in our Nation.
    The natural gas industry's commitment to partnering with the 
Departments of Energy and Transportation is underscored by AGA's 
creation and advocacy of legislation that sets aside industry funds to 
compliment federal research expenditures on natural gas infrastructure.

 DISTRIBUTED ENERGY RESOURCES--NATIONAL ACCOUNTS ENERGY ALLIANCE (NAEA)

    Efforts to test and deploy technologies being developed under the 
DER program in EERE are significantly under-funded. Private sector 
interest in these technologies is compelling. The Office of Power 
Technologies receives nearly ten solicitation applications (each 
application is typically developed by an entire team of companies) for 
every award it makes. While more manufacturers are entering the market, 
and dramatically more attention from states, power providers and end-
users is focused on DER, significant RD&D requirements abound. DER 
provides the opportunity for efficient use of waste heat to achieve 
total system efficiency levels as high as 80 percent. This compares to 
large central power plant efficiencies that are typically less than 
half as efficient largely due to their inability to productively use 
all of their waste heat. Further, the higher efficiency of DER systems 
inherently leads to lower emissions since these systems use less fuel, 
and typically cleaner feedstock fuels, than central power plants to 
achieve a given unit of power output. Many utilities are now exploring 
the utilization of DER to reduce the strain on congested transmission 
systems. On-site DER systems are especially important for high-tech and 
mission-critical facilities as they offer dramatic increases in power 
quality and reliability. The national economy is inextricably linked to 
information and electronically sensitive computer systems that require 
uninterruptible power that the 50+ year old electric grid was not 
designed to serve. Mission-critical systems, be it in high-tech, 
healthcare, manufacturing, or government facilities, are enhanced by 
DER.
    DOE has spent tens of millions of dollars developing individual DER 
technologies over the past decade. However, tremendous work remains in 
the areas of system development, advanced controls and sensors, power 
quality and reliability, storage, and interconnection. DOE has studied 
the technical, regulatory, market and institutional barriers to 
widespread utilization of DER and has worked to promote commercial 
acceptance. However, to date, these programs have failed to capture the 
vision of large commercial end-users at the corporate or headquarters 
level--NAEA is focused on affecting targeted change at this point.
    Few of the potential benefits from the Department's research 
investments will be realized if these technologies are not adequately 
tested and if initial deployment is not targeted to commercial 
applications with large potential for replication. The National 
Accounts Energy Alliance (NAEA) started in fiscal year 2002 and was 
envisioned as a four-year cost-shared initiative aimed at developing 
highly-efficient, technology driven, new construction and retrofit 
models for the nation's largest end-users, in partnership with their 
energy providers. The American Gas Association, Gas Technology 
Institute and American Gas Foundation have come together to establish 
NAEA. NAEA's members comprise the nation's largest energy providers 
(electric and natural gas) as well as almost two dozen end-users such 
as McDonalds, Wal-Mart Stores, TJ Maxx, the Great Atlantic & Pacific 
Tea Com (A&P).
    The nation's electric grid faces many technology challenges ranging 
from generation shortfalls to transmission and distribution 
constraints. The utilization of distributed energy resources (DER) is 
widely considered to be the cheapest, cleanest and most obtainable 
near-term solution to many of these challenges. DER systems can be 
sited where the power is needed and can be utilized with energy 
efficiency ratings exceeding 80 percent (compared to 29 percent 
efficiency for the electric grid) where waste heat is recaptured and 
reused. DOE has spent hundreds of millions of dollars over the years 
developing DER technologies but many technical, regulatory and 
institutional barriers remain. This is especially true for 
incorporation into new construction or retrofits of large commercial 
end-users. NAEA was created to address these barriers squarely by 
working with large commercial entities, at the headquarters-level, to 
develop new and standardized construction models incorporating advanced 
DER systems. Typically, all of these construction efforts are based on 
a central construction model, with a handful of geographic-based 
options. Additionally, a missing ingredient to DOE's past deployment 
programs was an energy Technology Test and Verification Program 
(TT&VP). DER testing and technology adoption by national accounts is 
the fastest way to perform testing, disseminate the results widely, 
make necessary technology and applications corrections and subsequently 
rapidly deploy improved systems. Because of fierce competition, 
standardization, central design services and extensive building 
programs, it is extremely difficult for national accounts to perform 
such tests on newly emerging technologies like DER because of their 
impact upon facility design.
    At its inception NAEA focused on retail, supermarket and food 
service industries. In fiscal year 2003 and beyond, NAEA will expand 
its membership to include a broader segment of the healthcare, high-
tech and telecommunications, hotel, and targeted manufacturing 
industries. This program illustrates the commitment of the natural gas 
industry and its partners to deploy the research being conducted under 
the DER technology areas.
    We respectfully request that the Subcommittee add $10 million to 
the DER budget for consortiums such as the National Accounts Energy 
Alliance to conduct technology verification tests and build 
partnerships of key stakeholders for the rapid deployment of 
distributed energy technologies.

                               CONCLUSION

    Mr. Chairman, AGA is giving great emphasis to developing 
comprehensive programs across end-use sectors that complement each 
other and provide cheaper energy to the end-user, while reducing 
emissions and improving energy efficiency, quality, and reliability. 
And, the infrastructure research partnership between DOE and the 
natural gas industry will also have significant benefits in terms of 
safety, reliability, cleaner air and economic growth that will accrue 
to all Americans. AGA greatly appreciates your past support and 
consideration of these proposals.

                                 ______
                                 
      Prepared Statement of the American Iron and Steel Institute

                  INTRODUCTION AND SUMMARY OF REQUEST

    Thank you for the opportunity to submit written testimony this 
year. Our testimony concerns fiscal year 2004 funding for the Office of 
Industrial Technologies (OIT)-Steel within the Department of Energy. 
This line item includes the highly successful, highly leveraged 
Technology Roadmap Program (TRP), which has nearly 60 industrial 
participants.
    It is because of this extensive leveraging (steel companies have 
cooperated for decades and are highly skilled at collaborative research 
and tech transfer to the plant floor), that seemingly small amounts of 
funding yield very significant results. Our research programs with DOE 
are fundamental to overcoming technical barriers to the future success 
of the steel industry. We believe that a strong, competitive and 
innovative steel industry is a critical component of national security 
and is also strategic for our country's energy security (e.g., 
transmission towers and pipelines). We ask you to keep these points in 
mind as you consider our request. And we ask you also to look at the 
results our programs have achieved thus far.
    The present budget mark of $3.4 million for all steel programs will 
satisfy Technology Roadmap funding requirements for current tasks ($2.2 
million in 2004), but such a drastic cut (the fiscal year 2003 budget 
is $10 million) will prohibit completion of other valuable steel 
projects and render useless the investments already made in them. 
Second, new opportunities for potential breakthrough technologies will 
not be pursued. Third, the steel industry recently committed to a 10 
percent reduction in energy utilization per ton by 2012 as part of the 
President's Business Challenge/Climate Vision Program. If passed, the 
proposed 66 percent cut in steel R & D funding will certainly reduce 
our ability to develop and deploy technology needed to achieve that 
goal. We urge the subcommittee to fund OIT-Steel at a level of $10 
million in order that programs under contract are completed (so their 
benefits are realized) and new opportunities can be pursued. We would 
also direct the subcommittee's attention to the specific funding of TRP 
at $2.2 million (of the $10 million requested) in fiscal year 2004. We 
believe the track record of steel industry research undertaken by AISI 
and DOE is excellent, as evidenced by the results, some of which are 
described below. Another metric of the value of this work is that 
widespread industrial participation and funding remained, even through 
periods of severe steel company financial distress. There is every 
reason to believe that continued funding will lead to additional 
important advances, such as those described below.

               TECHNOLOGY ROADMAP PROGRAM ACCOMPLISHMENTS

    The Technology Roadmap Program began under the Steel and Aluminum 
Energy Conservation and Technology Competitiveness Act, also known as 
the Metals Initiative. This legislation authorized DOE to fund projects 
with the goals of energy-efficiency, increased competitiveness of U.S. 
industry, and environmental improvement. All of these goals are being 
achieved. For example, the Technology Roadmap Program has provided key 
technologies enabling the stunning energy and environmental 
achievements of the steel industry's Ultra Light Steel Auto Body--
Advanced Vehicle Concept (ULSAB-AVC). ULSAB-AVC has developed complete 
designs for safe, steel intensive compact and mid-size sedans that will 
achieve 52 miles per gallon (mpg) using gasoline, or 68 mpg if equipped 
with a diesel engine. To appreciate the impact of this accomplishment, 
if one million ULSAB-AVC vehicles replaced an equivalent number of mid-
size sedans operating at the Corporate Average Fuel Economy standard of 
27.5 miles per gallon, and were each driven 10,000 miles per year, the 
annual savings our country would realize are estimated at:
Annual Reduced fuel consumption--171 million gallons
Annual Cost savings at $1.75/gallon--$300 million
Annual CO<INF>2</INF> reductions--2.1 million tons
    It should be noted that all of the savings above are not a result 
of lightweighting-they are a function of the steel intensive design 
that includes drivetrain and design advances. Further, since 
approximately 16 million new vehicles enter service in the United 
States annually, the energy savings that can be realized if ULSAB-AVC 
technology is universally applied is enormous, approximately 0.3 
quadrillion BTU, or nearly 20 percent of the entire energy consumed by 
the steel industry in a year (1.8 quadrillion BTU). And, based on 
comprehensive cost modeling, all this can be accomplished at no cost 
penalty to the consumer--that is why these technologies are already 
appearing in cars on the road today. This is clearly the type of pre-
competitive research appropriate for government partnering-developing 
the technologies that lead to breakthroughs that serve the public good, 
reduce our dependence on foreign oil and significantly reduce 
greenhouse gases. The following is a brief list of TRP projects whose 
results are incorporated in the ULSAB-AVC designs:
  --TRP 9732--Study of Deformation Behavior of Light Weight Steel 
        Structures Under Impact Loading (prediction of crash 
        performance of advanced high strength steels and advanced 
        materials processing).
  --TRP 9756--Cold Work Embrittlement of Interstitial Free Steels 
        (predicting embrittlement of automotive steels).
  --TRP 9934--Development of Appropriate Resistance Spot Welding 
        Practices for Transformation Hardened Steels (optimizing 
        materials joining process for advanced high strength steels).
  --TRP 9807--Reducing the Variability of HSLA Sheet Steels (developing 
        practices for consistent properties of advance high strength 
        steels).
  --TRP 9904--Constitutive Behavior of High Strength Multiphase Steels 
        Under High Strain Rate Deformation Conditions (modeling and 
        developing the processing routes to produce advanced high 
        strength steels).
  --TRP 0012--Characterization of Formability for New Generation of 
        Advanced High Strength Steels (characterizing the key 
        properties of next generation steels).
  --TRP 0015--Quantitative Measurement of Steel Phase Transformation 
        (characterizing the key properties of advanced bar steels).
  --TRP 0038--Characterization of Fatigue and Crash Performance 
        (generate fatigue, tensile and component test data at high 
        strain rates for direct input for automotive engineering and 
        design).
  --TRP 0101--Inclusion Optimization for Next Generation Steel Products 
        (developing processes to'' engineer'' imperfections in the 
        microstructure of sheet steels so that they enhance properties 
        and steel performance).
  --TRP 0106--Laser Assisted Arc Welding of Advanced High Strength 
        Steels (developing advanced joining methods for use of advance 
        high strength steels).
  --TRP 0114--Development of Appropriate Resistance Spot Welding 
        Practices for Advanced High Strength Steels (Resistance spot 
        welding is a ``gateway technology'' for the implementation of 
        advanced high strength steels into vehicle production.).
    The above Technology Roadmap Program R&D is part of the continuous 
process of advancing the science of materials. It helps the automobile 
and steel industries achieve their goals of bringing safe, affordable, 
energy efficient, environmentally desirable vehicles to the public. It 
advances the president's goal of reducing greenhouse gas emissions.
    In addition, other TRP projects have made similar contributions to 
energy-efficiency, environmental leadership and steel industry 
competitiveness:
    1. New thermally-efficient steel stud designs for residential and 
light commercial applications resulting in energy savings of 2.5 
percent of current consumption (0.03 quad) may be achieved based on 25 
percent of new homes using this technology.
    2. A recent study by the Florida Solar Energy Center found that 
metal roofing can save Florida homeowners 23 percent in cooling costs 
over conventional gray shingle roofs.
    3. Steels used in electrical applications result in more energy 
efficient motors. The electrical properties of Cold Rolled Motor 
Lamination (CRML) steels continue to improve. Only a few years ago the 
best CRML material available had core loss values of 2.0 watts/pound. 
CRML steel is now being produced with core loss properties less than 
1.7 watts/pound. This 15 percent energy efficiency improvement means 
that electrical devices made from this material, such as florescent 
light ballasts, transformers, and motors, can be made more efficient. 
These savings are being realized in the home, commercial, and 
industrial application of these products.
    4. Advanced steels for bearing applications have a direct impact on 
the energy efficiency of equipment. Developments in steel processes in 
recent decades have not only greatly improved productivity and lowered 
cost, they have led to significant quality improvements through the 
reduction of the population of harmful inclusions.
    5. Process modeling--In addition to the benefits of the application 
of fundamental sciences to understand complex relationships, the 
application of predictive models allows development work to be done 
without disrupting the process line until the verification and 
implementation stages are reached. This minimizes development costs and 
fine tunes where and when capital is invested. The Hot Strip Mill Model 
developed under TRP and now in commercial use, is an excellent example.
    Funding for TRP projects currently under contract should be 
continued in fiscal year 2004 so they can continue to achieve the 
excellent returns described above. In addition, funds should also be 
provided in fiscal year 2004 so that a new group of TRP projects may be 
started to continue to advance yield improvement, materials science and 
our industry goal of increasing energy-efficiency by 10 percent by 
2012. Your support helps us deliver these benefits to the American 
people sooner rather than later and ensures the success of an industry 
critical to our national security.
    Please feel free to contact me at 202-452-7206 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="25494e4453444b44424d6556514040490b4a5742">[email&#160;protected]</a> if you require any additional information.

                                 ______
                                 
      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other state and locally owned utilities throughout the United 
States (all but Hawaii). Collectively, public power utilities deliver 
electricity to one of every seven electric consumers (about 40 million 
people), serving some of the nation's largest cities. However, the vast 
majority of APPA's members serve communities with populations of 10,000 
people or less.
    We appreciate the opportunity to submit this statement outlining 
our fiscal year 2004 funding priorities within jurisdiction of the 
Interior and Related Agencies Subcommittee.

               DEPARTMENT OF ENERGY: ENERGY CONSERVATION

    APPA is disappointed in the Administration's fiscal year 2004 
request of $876 million for the Department of Energy's (DOE) energy 
conservation programs. We are confident that Congress's prioritization 
of these programs in its ultimate allocation for fiscal year 2003 of 
$892 million highlighted the importance of these programs to the 
Administration. We believe that DOE's energy conservation programs 
should be level-funded at minimum, and encourage the subcommittee to 
continue last year's commitment of at least $892 million.

                               FREEDOMCAR

    APPA has supported the Partnership for a New Generation Vehicle in 
the past and supports the Administration's request of $158 million for 
the new FreedomCAR program. APPA believes that the availability of fuel 
cell technology for transportation is critical for cities and states 
that must achieve mandatory federal air quality standards. We 
appreciate the Administration's new emphasis on refocusing research and 
development toward the achievement of cost-effective fuel cell 
vehicles. The fuel cell vehicle is virtually pollution-free and highly 
efficient. One of APPA's member utilities, the Sacramento Municipal 
Utilities District (SMUD) has done extensive research into this field 
and have found that even a 10 percent market penetration could reduce 
regulated air pollutants by more than a million tons a year and 
emissions of carbon dioxide by 60 million tons a year.

 BUILDING TECHNOLOGY ASSISTANCE & WEATHERIZATION AND INTERGOVERNMENTAL 
                               ACTIVITIES

    APPA supports the Administration's fiscal year 2004 request of 
$52.6 million for helping to increase the efficiency of commercial and 
residential buildings. APPA is particularly supportive of the emphasis 
on weatherization assistance as part of the President's National Energy 
Policy and encourages the Subcommittee to provide the $288 million 
requested by the Administration for this important program. The 
weatherization assistance program helps more than 100,000 residents 
annually, and is especially critical for the working poor, elderly and 
disabled. This program has been particularly effective at helping low 
income citizens afford their energy bills while at the same time 
reducing energy usage.

                   STATE ENERGY CONSERVATION PROGRAM

    APPA supports Congress's prioritization of the State Energy 
Conservation Program and urges the Subcommittee to at least level-fund 
the program at $38 million for fiscal year 2004. State energy offices 
work on nearly every energy efficiency issue and have been extremely 
successful in identifying the efficiency needs of local communities, 
businesses and consumers and providing support for meeting those needs. 
The State Energy Conservation Program offers the ideal combination of 
state-level implementation with federal support.

               COMMUNITY ENERGY PROGRAM--REBUILD AMERICA

    APPA is concerned that the Administration's request of $9 million 
for fiscal year 2004 for the Rebuild America program is a significant 
cut from the fiscal year 2003 request of $20 million. The program 
partners with states and communities interested in using energy 
efficiency to help address a wide range of community priorities, but 
primarily facilitating improvements to commercial buildings. As part of 
the local and state governmental structure, APPA's member utilities are 
uniquely suited to participate in these types of partnerships and 
encourage continued support for this important program. We encourage 
Congress to level fund this program at last year's commitment.

                                 ______
                                 
     Prepared Statement of the Biomass Energy Research Association

    This testimony pertains to the fiscal year 2004 appropriation for 
the research, development, and deployment (RD&D) effort performed by 
the U.S. Department of Agriculture Forest Service (USDAFS) on forest 
biomass-based energy, fuels, and chemicals in its Biobased Products and 
Bioenergy Research (BPBR) program. The Biomass Energy Research 
Association (BERA) recommends that $22.0 million be appropriated for 
this high-priority RD&D in fiscal year 2004. Separate statements have 
been prepared for submission on other biomass energy RD&D performed by 
the Department of Energy's (DOE) Office of Energy Efficiency and 
Renewable Energy (EERE) under the Energy and Water Development Bill, 
and by EERE's Office of Industrial Technologies under the Interior and 
Related Agencies Bill.
    BERA is a non-profit association based in Washington, DC. It was 
founded in 1982 by researchers and private organizations that are 
conducting biomass research. Our objectives are to promote education 
and research on the production of energy in all its forms from virgin 
and waste biomass that can be economically utilized by the public, and 
to serve as a source of information on biomass RD&D policies and 
programs. Please note that BERA does not solicit or accept federal 
funding for its efforts.
    On behalf of BERA's members, I would like to thank you, Mr. 
Chairman, for the opportunity to present our Board's position on the 
funding of forest biomass RD&D. Specifically, BERA's Board of Directors 
recommends that the appropriations for USDAFS' BPBR program in fiscal 
year 2004 be allocated as follows.
  --Continue the research program proposed by the USDAFS; $2,000,000 
        was requested for fiscal year 2004.
  --Collect DOE's forest biomass research results obtained from 
        laboratory and field projects and consolidate them with those 
        of the USDAFS, $1,500,000.
  --Assess the technical value and economics of the consolidated 
        results with industry participation, $2,000,000.
  --Develop an optimized, advanced RD&D plan with industry 
        participation, $1,500,000.
  --Initiate the RD&D plan with industry participation and cost sharing 
        of the scale-up projects, $15,000,000.
    BERA urges that this program be funded starting in fiscal year 
2004.

                               BACKGROUND

    One of the original goals of the Bioenergy/Bioproducts Initiative, 
which was created as a result of ``The Biomass Research and Development 
Act of 2000,'' and Title IX of the Farm Bill, was to triple United 
States usage of bioenergy and biobased products. Although the timeframe 
has been extended up to 2015 or 2020, a strategic plan has been 
developed to reach this goal by the multi-agency Biomass Research and 
Development Board (BRDB) co-chaired by the Secretary of Energy and the 
Secretary of Agriculture.
    Substantial increases in biomass energy and fuel consumption are 
clearly needed because of what has recently happened to U.S. crude oil, 
natural gas, and electricity markets, our continually increasing 
dependence on imported oil, the renewed importance of achieving U.S. 
energy security, and the impacts of environmental issues. It is time to 
determine whether practical biomass energy systems can be developed 
that are capable of displacing much larger amounts of fossil fuels than 
they have in the past. The amount of fossil fuels displaced by biomass 
energy in 2000 was 1.55 million barrels of oil equivalent per day, 
approximately 79 percent of which was wood-based. The average amount of 
crude oil imported into the United States was 9.07 million barrels per 
day in 2000.
    In fiscal year 2002, DOE began to restructure EERE's biomass RD&D 
program. This process is continuing. The funds requested by DOE for 
biomass feedstocks are for infrastructure development only, such as for 
transportation and storage. The critical research to develop, plant, 
grow, and manage dedicated energy crops for conversion to cost-
competitive energy and fuels has been terminated. DOE stated that other 
agencies or departments are better suited to handle this research, and 
that it is considered to be part of the USDA program. While DOE's 
feedstock production program has made significant research 
contributions over the last 25 years, BERA strongly endorses the idea 
that the USDA should assume responsibility for this program. The USDA 
has a long history in biomass production and is recognized worldwide 
for its accomplishments in developing advanced agricultural and forest 
biomass production methods. BERA recommends that research on woody 
biomass production for energy applications be continued by the USDAFS 
under the Interior and Related Agencies Bill. Woody feedstocks are 
essential for the production of much larger amounts of affordable 
fuels, electricity, and bioproducts than have been realized to date. 
BERA submitted testimony in support of this RD&D by USDAFS for fiscal 
year 2003, but funding was not provided.
    The expansion of the USDAFS' BPBR program recommended by BERA 
provides a considerably higher probability of significantly increasing 
the contribution of biomass to primary U.S. energy demand to help 
displace fossil fuel consumption. Indeed, the key to this eventuality 
is the development, demonstration, and deployment of technologies for 
producing low-cost forest biomass for conversion to economic supplies 
of energy and fuels. Forest biomass is the nation's and the world's 
largest reserve of renewable carbon resources. Without the availability 
of economically competitive forest biomass feedstocks, the probability 
of tripling or even doubling biomass energy consumption in the United 
States is doubtful.
    Ultimately, this program is expected to lead to commercial, 
sustainable energy plantations that are integrated with conversion 
processes supplied with both forest and waste biomass fuel and 
feedstocks. These biorefineries will be designed to yield multiple 
product slates that are sufficiently flexible to meet market conditions 
and demands.
    In the remaining paragraphs, I would like to elaborate on the high-
priority forestry research that BERA strongly urges be continued or 
started.

                          BERA RECOMMENDATIONS

Proposed USDAFS Research for Fiscal Year 2004
    The USDAFS requested an appropriation of $2,000,000 for its BPBR 
program to develop new and more economical technologies for the 
production, management, harvest, and utilization of woody materials for 
energy and high-valued products for fiscal year 2004. This work builds 
on the USDAFS' expertise on industrial wood recycling, wood chemistry, 
and wood-plastic composites; small-diameter timber harvesting and 
utilization; and experience in intensively managed silvicultural 
systems. The research is a natural complement to the woody feedstock 
production RD&D for energy and fuels by the USDAFS that BERA recommends 
be added to its overall program. BERA also recommends that some level 
of coordination of this research with the USDA work on fire hazard 
reduction for western forests be implemented to enhance the prospects 
for full use of biomass for energy across the country.

Collection and Consolidation of DOE's Research and Field Project 
        Results
    DOE has conducted an extensive forest biomass production program 
since the 1970's. This research included laboratory and field projects 
performed by academe, national laboratories, research institutes, and 
the private sector. The program emphasized the development and 
selection of special species, hybrids, and clones of trees, and 
advanced growth, management, and harvesting procedures for dedicated 
energy crops. Research on short-rotation tree growth and the screening 
of tree species in small-scale test plots was carried out in several 
areas of the country. Depending on the geographic location, woody 
species recommended as energy feedstocks from the test-plot results 
included hybrid poplars, willow, eucalyptus, black locust, and others. 
In collaboration with DOE, BERA recommends that the documented results 
of these efforts be collected and consolidated with those of the 
USDAFS. Furthermore, it is recommended that a plan be developed and 
implemented for preserving the large amount of improved woody crop 
clonal materials produced both by the USDAFS and the university 
collaborators of DOE.

Assessment of the Consolidated Results With Industry
    BERA recommends that selected companies be invited to join with the 
USDAFS for the purpose of evaluating the consolidated data and 
information compiled by the USDAFS. The first objective of this 
assessment is to carefully analyze tree species in terms of their 
potential for sustained growth in energy plantations at maximum yields 
under acceptable growth conditions in different U.S. regions. The 
second objective is to update and perform comparative economic analyses 
of conceptual system designs to assist in the prioritization of each 
system. Presuming the industrial organizations that participate in this 
work are experienced in large-scale, commercial tree production, their 
inputs will be invaluable in performing the next phase of this program, 
which consists of producing an RD&D plan.

Development of an Optimized, Advanced RD&D Plan With Industry
    The purpose of this phase of USDAFS' forest biomass program is to 
produce a 10-year, strategic RD&D plan that continues the research 
necessary to obtain the data and information needed for optimum energy 
plantation design, including environmental impacts, and that targets 
industry cost-shared field projects to demonstrate medium-scale, 
sustainable, forest biomass and residuals production in several 
geographic locations. It is important to include a schedule of 
milestones over the life of the RD&D.

Initiation of the RD&D Plan With Industry
    Considerable progress has been made on the efficient production of 
short-rotation woody crop and multi-crop systems. In addition, research 
on tissue culture techniques and the application of genetic engineering 
methods to low-cost energy crop production have shown promise. This 
research should be continued to develop advanced biomass production 
methods that can meet the anticipated feedstock demand.
    BERA also recommends that industry cost-shared, scale-up projects 
of at least 1,000 acres in size be installed and operated in different 
regions of the country as a forerunner to commercial energy plantations 
in which dedicated energy crops are grown and harvested for use as 
biomass resources. The results of this work will provide sufficient 
operating and capital cost data to afford second generation economic 
data for larger modular systems and to perfect the design of 
sustainable energy plantations. The scale-up projects should be 
strategically located and should utilize the advanced woody biomass 
production methods developed in the research programs. Successful 
completion of this work will help biomass energy attain its potential 
by providing the data and information needed to implement the design, 
construction, and operation of practical forest biomass production 
methods for sustainable energy plantations that can supply low-cost 
feedstock for conversion to heat, steam, electric power, liquid and 
gaseous fuels, and chemicals.
    It is expected that during the first year of this program, fiscal 
year 2004, site studies can be completed to facilitate the selection of 
specific areas that are deemed suitable for energy plantation 
construction, and that installation on at least one site can be 
started. DOE should be involved in this program where appropriate so 
that their work on biomass infrastructure can be applied to program 
goals such as the design and operation of integrated biomass production 
and conversion systems.

                                 ______
                                 
         Prepared Statement of Bob Lawrence & Associates, Inc.

    Mr. Chairman and Members of the Subcommittee: My name is Bob 
Lawrence, and I am President of Bob Lawrence & Associates, Inc., a 
consulting firm located in Alexandria, Virginia. With me today is Ms. 
Patrice Courtney, a Senior Associate with my firm. We are here today to 
request full funding for the Department of Energy's Weatherization and 
Intergovernmental Program (OWIP) within the Office of Energy Efficiency 
and Renewable Energy. Specifically, we request fiscal year 2004 OWIP 
funding of $375M of which $18.8M is required by the Rebuild program 
under the Gateway Deployment line item. For the Building Technologies 
program, we request a total of $63M, the same as the fiscal year 2002 
appropriated number. Cutbacks in the Building Technologies program have 
all but eliminated any outreach and education for this program. 
Outreach and education is essential for early adoption of evolving 
technologies and the maximization of national benefits.
    My firm and I have been involved in issues of Energy Efficiency and 
Renewable Energy since 1975, when this Subcommittee played an active 
and major role in helping to solve our country's first, major energy 
crisis. Ms. Courtney is responsible for communications regarding energy 
efficiency issues in both national and statewide forums, with a 
particular focus on New York State.
    Buildings account for one third of all energy used in our country, 
once you factor in the significant percentage used to generate 
electricity to heat, cool, light, and control buildings and their 
occupants. In addition, most oil use in buildings occurs in those parts 
of the country where the percentage of imported oil use is the highest. 
Therefore, efficiency increases in buildings and their associated 
technologies offset directly the import of foreign oil.
    Our current efforts, overseas, remind us all too well that the U.S. 
economy remains significantly threatened by still-high oil prices. 
Energy efficiency has become an economic priority because it is key to 
reducing our vulnerability to high oil prices controlled by 
unpredictable foreign hands. Today, many U.S. states are deregulating 
electric utilities in an effort to lower electricity prices. These 
developments have important implications for energy efficiency in 
building technology.
    Our purpose today, Mr. Chairman, is to support the Weatherization 
and Intergovernmental Program (WIP), which has been uniquely successful 
in its campaign to help Americans save energy. For example, its Rebuild 
America program, for which $18.8 million is requested, continues to 
play an important role. Through Rebuild, completed energy efficiency 
renovations are saving communities nearly $131 million each year, along 
with an annual 9 trillion BTUs of energy. (That's the equivalent of 
8,200 oil tanker trucks in line for 113 miles.) This has resulted in 
savings of $1.5 billion in cumulative energy costs in participating 
communities. To date, Rebuild has generated $601 million in private 
sector investment, and resulted in more than 529 million square feet of 
renovated building space--an area equivalent to 16,000 schools. In 
addition, 569 million square feet in new projects are committed or 
under way. Every DOE dollar invested has produced $18.43 in annual 
community energy savings and $9.38 in private energy efficiency 
investments.
    The program has 500+ participating communities in 54 states and 
U.S. territories. State energy offices play an integral role in its 
implementation, working with individuals, businesses and institutions 
committed to improving the quality of life, building by building, via 
energy efficiency retrofits or new construction. Middle income and 
lower income Americans are direct beneficiaries of Rebuild America both 
through direct labor dollars and the overall, positive effect on the 
economy.
    Rebuild America is a working model for leveraging taxpayer dollars 
with private investment to produce significant energy cost savings. For 
example, Rebuild is actively working with more than 35 associations and 
trade groups in its Strategic Partners initiative, and with 140 
companies, including Johnson Controls, Siemens, TRANE, Sempra Energy 
Services and others, in its Business Partners project.
    One such strategic partnership proceeds from the Memorandum of 
Understanding between the DOE and the American Institute of Architects 
(AIA). This has resulted in a number of collaborative activities 
between Rebuild and the architecture community, such as the Solar 
Decathlon, a design competition that involves hundreds of architecture 
students, and a Rebuild-sponsored mentoring program in which Howard 
University architecture students are teaching middle school students 
about design issues, including energy efficiency and sustainability. 
Going forward, the AIA and Rebuild plan to select leading examples of 
buildings to demonstrate the metrics associated with environmental 
performance. For its part, the AIA will continue to support DOE program 
demonstration activities and participate in technology transfer 
activities included in High Performance Commercial Buildings Roadmap 
implementation, Solar Decathlon, Energy Smart Schools, and Labs21, and 
will disseminate the results.
    Energy Smart Schools (ESS) is a key Rebuild project, for good 
reasons. A nationwide survey conducted by the U.S. General Accounting 
Office estimated a conservative $112 billion to complete needed 
repairs, renovations, and modernizations for the nation's public 
schools. According to the DOE, the nation spends $6 billion each year 
on energy costs for schools--about 25 percent more than necessary.
    Around the nation, a number of school districts are using Energy 
Smart School assistance. The College Station Independent School 
District in Texas, for example, used Rebuild's partnership system to 
team up with Texas A&M's Energy Systems Laboratory, and Texas Energy 
Engineering Services Inc., which audited the district's schools to 
determine needed energy retrofits. Rebuild helped the district locate 
5.6 percent financing that required up-front capital outlays. The loan 
will be repaid by 2009 with projected annual energy savings of 
$183,000. Ultimately, the school district financed $1.5 million of its 
capital improvements with help from Energy Smart Schools, for 
improvements that included new chillers, boilers and DX units; improved 
lighting; energy management system upgrades, and the launch of 
continuous building commissioning to ensure efficient operations and 
maintenance. This school district and many others are working to 
incorporate the Energy Smart Schools' high performance school design 
guidelines, which have been developed with recommendations that vary by 
climate, geography and energy mix.
    Here are some examples of other WIP programs and how they're saving 
energy and dollars:
    Residential Building Integration/Research and Development (formerly 
Building America).--$15.2 million is requested. Great strides have been 
made in the way we construct and operate our buildings; we have 
documented energy savings of 30-50 percent at little or no cost 
increase. But there's much more work to be done. This group is working 
to realize a 60 percent reduction in overall residential building 
energy use compared with the model International Energy Conservation 
Code of 2000. These activities also include the exciting work being 
done in the Zero Energy Buildings program. Additionally, the 
Residential Building Energy Codes group's work includes important new 
initiatives to develop new code compliance tools for residential 
construction to foster a ``whole buildings'' approach in new and 
existing buildings.
    In the area of Commercial Buildings Integration, $4.9 million is 
sought to continue its R&D. This will include guidance for four new 
building projects that will document improvements to the design process 
allowing up to 50 percent reduction in energy use. Using the Commercial 
Building roadmap, the group also is focusing on controls, indoor air 
quality, and technologies for the retrofit of existing buildings. 
Wireless sensors, whole building controls systems and retrofit 
technologies, and ventilation technologies will be key areas of 
investigation. The codes group seeks to continue its revisions to the 
IECC 2006 Edition/ASHRAE Standard 90.1 2004 to further promote energy 
efficient window assemblies. The objective is to simplify code 
compliance so that builders can use the advanced technologies developed 
by the High Performance Buildings effort, and to enable the cost-
effective construction of Zero Energy Buildings.
    State and Community Programs.--The State Energy Program (SEP) is 
the only federally funded, state-based program administered by the DOE 
that provides resources directly to the states. WIP seeks to stay level 
at $38.7 million in fiscal year 2004 funding for the SEP. The SEP has 
become a strong foundation for success in reducing energy use in 
buildings, working at the community level. Rebuild America contributes 
greatly to the SEP's success, as it delivers technical support that 
states and localities require. Recent studies have documented that each 
$1 of SEP funding results in annual energy savings of 1.17 million 
source BTUs and annual cost savings of $7.23. Additionally, each $1 of 
SEP funding leverages $3.54 from non-federal sources, not including 
public benefit funds.
    WIP leads in the technology transfer to professionals in building 
technologies. For example, on its Web site is a powerful software tool 
that can be downloaded for free. EnergyPlus, formerly known as DOE-2, 
is a new generation building energy simulation program designed for 
modeling buildings with associated heating, cooling, lighting, 
ventilating, and other energy flows.
    In conclusion, it has been shown via audits and other analyses, 
that the DOE Buildings programs, however their names have changed over 
the years, have provided tens of billions of dollars in benefits to our 
country measured in more efficient energy use, less pollutant emission, 
and lower energy prices. Not measured in this dollar number is the 
significantly increased health of our citizens as a result of these 
benefits. This taxpayer investment pays tremendous dividends.
    During the 1980s, funding was drastically cut for energy-efficiency 
R&D. When the programs were revisited in the early 1990s, lost ground 
had to be regained. Research successes are now turning into 
commercially viable products. It is crucially important to cost share 
the field testing phase and to push new products through the R&D 
pipeline to market acceptance, particularly in the fragmented building 
industry.
    Mr. Chairman, the required annual investment in Energy Efficiency 
and Renewable Energy is less than one percent of what we invest in 
defense, but its purpose is no less important. It is an investment in 
our economy, our standard of living, and our very way of life.
     We thank you for your attention to this matter.

                                 ______
                                 
     Prepared Statement of the Biomass Energy Research Association

    This testimony pertains to the request for appropriations in fiscal 
year 2004 by the Department of Energy (DOE), Office of Energy 
Efficiency and Renewable Energy (EERE), for mission-oriented biomass 
energy research, development, and deployment (RD&D) in the Industrial 
Technologies Program funded under the Interior and Related Agencies 
Bill. The Biomass Energy Research Association (BERA) recommends that 
$36.4 million be appropriated for these high-priority biomass programs 
in fiscal year 2004. Separate statements have been submitted in support 
of biomass RD&D performed by EERE under the Energy and Water 
Development Bill, and on forest biomass energy production by the U.S. 
Department of Agriculture Forest Service (USDAFS) under the Interior 
and Related Agencies Bill.
    On behalf of BERA's members, I would like to thank you, Mr. 
Chairman, for the opportunity to present the recommendations of BERA's 
Board of Directors for the high-priority programs that we strongly urge 
be continued, restored, or started. BERA is a non-profit association 
based in Washington, DC. It was founded in 1982 by researchers and 
private organizations that are conducting biomass research. Our 
objectives are to promote education and research on the production of 
energy, fuels, and chemicals from virgin and waste biomass that can be 
economically utilized by the public, and to serve as a source of 
information on biomass RD&D policies and programs. BERA does not 
solicit or accept federal funding for its efforts.
    The specific programs and budgets that BERA recommends for fiscal 
year 2004 are:
  --Incorporation of the Bioenergy and Bioproducts Initiative (BBI) 
        created as a result of ``The Biomass Research and Development 
        Act of 2000'' and Title IX of the Farm Bill, into EERE's 
        Industrial Technologies Program ($10,000,000), mainly for cost-
        shared scale-up projects.
  --Continuation of commodity organic chemicals-from-biomass RD&D 
        started in fiscal year 1999 ($8,800,000).
  --Restoration of advanced black liquor gasification RD&D and its 
        scale-up ($13,600,000). This program is aimed at developing two 
        different processes, each of which has been cost-shared by 
        industry; federal support has ended. Without continued federal 
        support at this time, successful development in the existing 
        facilities is highly unlikely. The technology is essential to 
        enable the U.S. pulp and paper industry to reach energy self-
        sufficiency.
  --Continued development of advanced biomass technologies for the 
        forest and paper products industries ($4,000,000).

           PROGRAM INTEGRATION, COORDINATION, AND MANAGEMENT

    For several years, BERA has urged that all biomass-related research 
funded by DOE should be coordinated and managed at DOE Headquarters so 
that the program managers are heavily involved in this activity. We are 
pleased to note that this process, which began in fiscal year 2002, has 
continued in fiscal year 2003. BERA congratulates DOE on the progress 
made in restructuring the program and its management. BERA also 
congratulates DOE and USDA for the new spirit of working together and 
coordinating the programs of each department to increase the usage of 
agricultural and forestry biomass for the production of much larger 
amounts of affordable fuels, electricity, and biomass-derived products 
than have been realized in the past. These efforts are expected to help 
facilitate the transition of waste and virgin biomass in the USA into 
major sources of renewable energy, fuels, and chemicals.
    BERA urges that the BBI be incorporated into the overall federal 
biomass research program. Without it, the time table for this 
transition will be stretched out for several decades and possibly never 
happen except to a very limited extent for niche markets. Large, 
strategically located, energy plantations are ultimately envisaged in 
which waste biomass acquisition and virgin biomass production systems 
are integrated with conversion systems and operated as analogs of 
petroleum refineries to afford flexible slates of multiple products 
from multiple feedstocks. Unfortunately, relatively large amounts of 
capital and inducements are required to get the private sector involved 
in developing even modest size projects in the field. So to help 
implement this program, BERA includes the BBI as a line-item in its 
annual testimony.
    BERA also continues to recommend that implementation of the BBI 
should include identification of each federal agency that provides 
funding related to biomass energy development, each agency's programs, 
and the expenditures by each agency. DOE and the USDA have initiated 
this process. This is an on-going activity that should be expanded to 
include other agencies and departments and help fine-tune the critical 
pathways to program goals. Continual analysis of the information 
compiled should enable the coordination of all federally funded biomass 
energy programs through the BRDB to facilitate new starts focused on 
high priority targets, and help to avoid duplication of efforts, 
unnecessary expenditures, and continuation of projects that have been 
completed or that do not target program goals. Full implementation of 
the BBI will enhance the value of the federal expenditures on biomass 
research to the country in many different ways.

                          BERA RECOMMENDATIONS

    BERA's project recommendations consist of a balanced program of 
mission-oriented RD&D on conversion research and technology transfer to 
the private sector. Advanced conversion processes and power generation 
technologies, alternative liquid transportation fuels, and hydrogen-
from-biomass processes are emphasized. Biomass production RD&D for 
energy uses is ultimately expected to be done by the USDA.
    BERA continues to recommend that at least 50 percent of the federal 
funds appropriated for biomass research, excluding the funds for scale-
up projects, are used to sustain a national biomass science and 
technology base via sub-contracts for industry and universities. While 
it is desirable for the national laboratories to coordinate this 
research, increased support for U.S. scientists and engineers in 
industry, academe, and research institutes that are unable to fund 
biomass research will encourage commercialization of emerging 
technologies and serious consideration of new ideas. It will also help 
to expand the professional development and expertise of researchers 
committed to the advancement of biomass technologies.
    To improve management and coordination of biomass research, EERE 
has consolidated most of its biomass RD&D under a single, integrated 
Biomass and Biorefinery Systems Program. As a result of the 
restructuring started in fiscal year 2002, a few major changes were 
made in biomass RD&D funded under the Interior and Related Agencies 
Bill in the Industrial Technologies Program (formerly the Office of 
Industrial Technologies). The two subcategories of biomass RD&D in this 
program are now called Advanced Biomass Technology: Products 
Development, and Systems Integration and Production.

Bioenergy and Bioproducts Initiative (BBI)
    The original goal of the BBI created as a result of ``The Biomass 
Research and Development Act of 2000,'' and Title IX of the Farm Bill, 
was to triple the usage of bioenergy and biobased products. Congress 
has provided annual funding for the BBI since fiscal year 2000. A 
strategic plan has been developed by the multi-agency Biomass Research 
and Development Board (BRDB), co-chaired by the Secretaries of Energy 
and Agriculture, to achieve this goal. Its achievement is necessary 
because of environmental, energy security, and projected fuel supply 
issues, and our increasing dependence on imported oil. We must 
determine whether practical biomass systems capable of displacing much 
larger amounts of fossil fuels can be developed. The fossil fuel 
displaced by waste and virgin biomass in 2000 was 1.55 million BOE per 
day, approximately 79 percent of which was wood-based.
    BERA strongly urges that the BBI be added to the Industrial 
Technologies Program in fiscal year 2004 at the funding level 
recommended by BERA, and that the highest priority be given to 
development of this program component as a line item. BERA recommends 
that most of the funding for the BBI be used for scale-up.

Advanced Biomass Technology: Products Development (Formerly Industries 
        of the Future [Specific]).
    Organic Commodity Chemicals from Biomass (Formerly Agriculture 
Vision).--This program was started in fiscal year 1999. Projects were 
selected that used a variety of biomass feedstocks to produce 
industrial products such as coatings, lubricants, chemicals, plastics, 
and composite materials. The overall goal was to develop the 
technologies necessary to displace 10 percent of the fossil feedstocks 
with biomass for the production of organic commodity chemicals and 
chemical products. When the goal is fully implemented, it was projected 
to reduce fossil feedstock usage by 0.189 quad in 2010, and 0.545 quad 
in 2020. BERA indicated in previous statements that it is important to 
include the process energy displaced too. In 1999, for example, total 
fossil feedstock converted to chemicals was approximately 1.26 million 
BOE/day. Ten percent of this value is 126,000 BOE/day, while the 
corresponding process energy consumption was about 136,000 BOE/day, or 
a total of about 0.6 quad annually. The potential energy savings is 
evident.
    EERE reported last year that no new research solicitations would be 
issued in fiscal year 2003, and that the existing program would be 
integrated with the EERE-wide bioenergy and bioproducts solicitations 
that focus on biorefinery development. However, the existing university 
grants may be increased, and new solicitations may be issued in this 
area. Twelve active projects were scheduled to be continued. They 
focused on novel separations technology; the production of plastics, 
foams, adhesives, and coatings based on sugars and vegetable oils; 
lower cost and energy use in harvesting, pre-processing, and biomass 
storage; and the modification of crops to reduce the cost, processing 
requirements, and energy consumption in the use and conversion of the 
crops to products. It was expected that 2 projects will involve scale-
up to pilot-scale demonstrations with industry, and 1 or 2 will involve 
commercialization projects on new biopolymers or solvents. Technology 
breakthroughs were expected that will improve plant composition for 
conversion to products, and provide novel, lower cost, less energy-
intensive harvesting and storage technology.
    EERE requested a total of $8,808,000 for fiscal year 2004 to 
continue this research under the Interior and Related Agencies Bill. 
This consists of $3,304,000 for thermomochemical conversion products, 
$5,104,000 for bioconversion products, and $400,000 for technical 
management. The goals in fiscal year 2004 are to evaluate the existing 
portfolio of projects in fiscal year 2003, to select and continue those 
projects that are commercially promising with significant potential for 
energy savings, to complete validation at the pilot scale in 
partnership with industry of one new biobased product with long-term 
potential sales greater than 2 billion lb/yr for economic, technical, 
and product viability, and to increase product yields and energy 
efficiency in key chemical product chains by more than 30 percent.
    BERA believes that this effort is very worthwhile. Successful 
implementation of the commodity chemicals-from-biomass research is 
expected to result in many regional and national benefits because 
virtually all commodity organic chemicals and products--including 
plastics and petroleum- and natural gas-derived chemicals--can be 
manufactured from biomass. Focusing on reducing the energy intensity of 
established organic chemical commodities as well as on new products 
where appropriate has a high probability of commercial success and of 
displacing substantial amounts of fossil fuels.

Systems Integration and Production
    Industrial Gasification (Formerly Industries of the Future 
[Crosscutting], Combustion and the gasification projects from the 
Forest and Paper Products Vision).--The largest part of this research, 
which started several years ago, was the industry cost-shared program 
to develop and commercialize the gasification of black liquor. In the 
appropriations request for fiscal year 2004, DOE states that funding 
for technology development and validation appear to be within 
industry's capability, so funding is not requested in view of the 
industry's ability to pursue further development without DOE support. 
While industry has provided all funding for a small-scale, black liquor 
gasification facility in Canada, there has been no such commitment from 
paper companies for projects in the United States. Therefore, BERA 
strongly urges that this program be continued with industry cost-
sharing to the point where industry will assume all financial risks.
    There are several reasons that support BERA's position. Black 
liquor gasification provides a pathway to combined electric power 
generation and the recovery and recycling of chemicals for the pulp and 
paper industry at much higher efficiencies than the industry currently 
realizes from combustion methods. Presuming there is wide-spread 
acceptance of one or both of the two basic processes under 
development--high-temperature processing at the facility in North 
Carolina, and low-temperature processing at the facility in Virginia 
scheduled to be operational in the fall of 2003--adoption by the pulp 
and paper industry is projected to eliminate all power purchases and to 
make the industry energy self-sufficient. Twenty GW of renewable 
generating capacity, which is about twice the capacity of all biomass-
fueled generating systems today, could be realized. Also, it is 
estimated that industry's use of this technology would reduce carbon 
emissions by more than 20 million tonnes each year. The pulp and paper 
industry currently purchases over 90 TWh of electricity annually.
    Finally, it is important to emphasize that the pulp and paper 
industry has been involved in cost-sharing these programs since they 
were started at DOE, and has a sizable investment in this RD&D to date. 
The benefits of their participation will probably be lost if the 
programs are zeroed-out at this time. According to discussions with 
industry representatives during review of this research by BERA, the 
industry is not expected to continue the work without DOE support 
because of its current economic position and the risks involved.
    Forest and Paper Products Vision.--Excluding the energy savings 
from black liquor gasification, EERE staff estimates this effort can 
reduce fossil energy usage by 0.080 quad in 2010, and 0.258 quad in 
2020. This basic assessment, along with economic analyses, when applied 
to development of this program, will help ensure its success. The 
program has significant matching funds from industry and continues to 
show significant value in addressing both national and industry 
priorities.
    The program for fiscal year 2003 was described as follows: 
Sustainable Forestry consists of approximately 8 projects on 
biotechnology, tree physiology, and sustainable soil productivity, 
including the continuation of studies to develop process models to 
predict the effect of forest management on growth and productivity on 
managed forests; Energy Performance consists of approximately 12 
projects on efficiency, heat recovery, wood and paper drying, deposit 
formation in boilers, and corrosion-resistant materials for black 
liquor gasifiers; Environmental Performance consists of approximately 7 
projects to develop advanced pollution prevention technologies, reduce 
pollution abatement costs, and demonstration of volatile organic 
compound emissions reductions at a forest products mill; Improved 
Capital Effectiveness consists of approximately 10 projects focused on 
system and process efficiency and materials of construction and 
fabrication; Recycling consists of approximately 7 projects to reduce 
energy use and fiber deterioration in recycling, improving separation 
technologies, expanding the use of recycled fibers, and optimizing 
drying processes; Sensors and Controls consists of 5 projects on the 
development of actuators and control devices, process and product 
measurement and modeling, data interpretation, and a wireless 
microwave-based moisture sensor in a wood-drying kiln.
    EERE has requested funding of $4,021,000 under the Interior and 
Related Agencies Bill for fiscal year 2004. One of the goals is to 
support voluntary efforts by the American Forest & Paper Association 
and other industry organizations to improve their energy efficiency and 
environmental performance through the industry's Agenda 2020. This 
activity will include cost-shared research. In addition, those 
activities with the highest long-term energy savings potential will be 
continued such as development of new paper dewatering techniques, 
advanced sustainable forestry projects, scale-up of solid waste 
recovery technology, and the selection of new projects that help 
improve energy efficiency and environmental performance that industry 
would not undertake without federal support.
    BERA recommends that this program be continued at the requested 
funding level.
                                 ______
                                 
Prepared Statement of the Bureau of Economic Geology, The University of 
                            Texas at Austin

    Thank you for this opportunity to provide the Bureau of Economic 
Geology's perspective on fiscal year 2004 appropriations for the 
Department of Energy Fossil Energy Budget. The President's budget 
proposes deep cuts to the U.S. Department of Energy's Fossil Energy 
Research and Development, specifically the National Energy Technology 
Laboratory (NETL) and the National Petroleum Technology Office (NPTO) 
programs. I understand that the Oil Technology budget was reduced from 
$56.2 million in 2002 to $42.3 million in 2003 to $15.0 million in 
2004, and the Natural Gas Technology budget was kept level from $44.1 
million in 2002 to $47.3 million in 2003 and reduced to $26.6 million 
in 2004.
    These reductions come at a time when private sector spending on 
fossil energy research is at a several-decade low and falling, 
university enrollments in geosciences and petroleum engineering are at 
40-year lows, oil and natural gas demand represents 60 percent of all 
energy demand combined and is rising in percentage and absolute terms 
owing to increased overall energy demand, imports of oil and natural 
gas by percentage continue to rise and impact national security, and 
oil and gas resources that remain--although potentially abundant--will 
require new and advanced technologies. The time is critical for a 
changed model from the past, a model that includes increased Federal 
awareness of the changed nature of the private energy sector, 
leveraging of the very real opportunities for private-public 
partnerships, and public awareness of the economic and environmental 
benefits that will result from same.

   CONSUMPTION: FOSSIL ENERGY CONSUMPTION IS RISING AND THE TREND IS 
                           TOWARD NATURAL GAS

    The past 20 years (1980-1999) have seen a steady and predictable 
decrease in the percentage of global energy consumption satisfied by 
oil (46 percent down to 40 percent) and coal (26 percent down to 22 
percent), and an associated increase in the percentage of global energy 
consumption satisfied by a combination of natural gas, nuclear, and 
other renewables (28 percent up to 38 percent). From 1980 to 1999 total 
global energy consumption increased by nearly 35 percent (from 282 to 
379 quads). During the same period, U.S. total energy consumption 
increased 23 percent (from 78 to 97 quads).
    In contrast to global consumption, which shows a trend away from 
coal and oil to natural gas, nuclear, and renewables, the U.S. energy 
consumption mix has remained flat for two decades to a point where 
today it is nearly identical to the global energy mix (coal 22 percent, 
oil 39 percent, and natural gas 23 percent). To maintain a flat oil and 
coal consumption curve, the United States bears the security risks 
associated with 60 percent and rising oil imports and the resultant air 
quality emissions from coal-fired electric plants. Importantly, fossil 
fuels account for 84 percent of global and U.S. energy consumption 
today. More importantly, for reasons including energy efficiency, 
environmental well-being, economic stability, health of the future 
energy workforce, supply distribution, mitigation of an oil crisis, and 
national security, U.S. energy policy and associated legislation should 
encourage what Jesse Ausubel describes as ``decarbonization''--the 
changing energy mix toward natural gas, nuclear, and other renewables.

THE CHANGED FACE OF INDUSTRY: PERMANENT DECREASE IN PRIVATE TECHNOLOGY 
                              AND RESEARCH

    The oil and gas business is, and will remain, a technical one. 
Drilling and operational technologies have advanced to a point where 
virtually any land drilling location is technically feasible, ocean 
water depth is less and less a limiting factor, oil and gas fields can 
be developed using multilateral well bores from a single vertical well 
bore, downhole logging tools provide remarkable information about the 
rock-fluid system, seismic data have evolved to a point where some 
depositional systems lend themselves to direct hydrocarbon detection, 
all aided by the seemingly endless improvements in computer--speed, 
memory, disk, visualization--capabilities. These and other advancements 
have combined to improve efficiency across the oil and gas industry 
significantly. In fact, while manpower in the industry has decreased 
nearly 70 percent in the past two decades, global production of oil and 
natural gas has steadily increased.
    The oil and gas industry changed considerably in the last two 
decades. Historically, the lion's share of the research and development 
that resulted in the creation and application of advanced technology 
and enhanced efficiency was funded by the private sector. Private 
companies each had research--later to be renamed technology--labs, and 
they competed for the best intellectual talent from universities, and 
with each other to develop advancements that would provide 
differentiating competitive advantage and allow for more expeditious 
and economic discovery and development of oil and gas. Those days are 
gone, as are most of the research labs--Amoco, ARCO, Conoco, Texaco, 
Chevron, Marathon, Mobil, Phillips, and Unocal--and much of the R&D 
spending by petroleum companies--fallen over 100 percent in the past 
decade.
    Major companies and large independents can no longer afford to 
operate R&D facilities because the payout time for commercialization of 
research--commonly on the order of 3 to 10 years--far exceeds what the 
capital markets and commodity price cycles will bear. In order to meet 
the quarterly market demands, the private sector has had to focus every 
effort on reduced cycle time, replacement of reserves (largely through 
acquisition), quarterly return on investment, and profit.

THE NEED FOR TECHNOLOGY: OIL AND NATURAL GAS WILL REQUIRE INCREASED R&T 
                             IN THE FUTURE

    Oil.--Oil represents a bridge to the natural gas and hydrogen 
future. Increased production of known reserves (reserve growth) via 
enhanced oil recovery (EOR) projects will continue to account for more 
U.S. oil than new discoveries.
    Efficient EOR requires advanced reservoir characterization and 
technology. These projects in the United States will be conducted 
largely by the independent producer, who does not have staff or 
resources for high-level R&D. Federal policy and investment in oil 
research, technology, and incentives should be directed almost 
exclusively toward the independent for EOR. Is this corporate welfare? 
No more than investing in clean coal technology, wind turbines, or fuel 
cells. It is simply a wise Federal investment in the U.S. energy 
future. An environmental benefit of EOR is that no new lands will be 
impacted.
    Natural Gas.--Natural gas (1) is an efficient fuel, (2) has 
significant environmental advantages over coal and oil, (3) is more 
broadly distributed across the globe, which, once the transportation 
networks are established, will provide long-term price, economic 
stability, and security benefits, and (4) will serve as feedstock for 
hydrogen in a hydrogen economy. The global resource potential of 
natural gas is very large. To date, natural gas has been produced 
largely in association with oil, called conventional gas. About one-
third of U.S. annual production of natural gas comes from sources not 
associated with oil called unconventional gas, such as coalbed methane, 
shale gas, and basin-centered and tight gas. Other unconventional gas 
sources include subsalt, ultra deep (>15,000 ft), and gas hydrates. 
Combined with conventional gas, these unconventional sources represent 
the future of the global natural gas supply. Because their behavior and 
distribution are not as well understood, exploration and exploitation 
will require significant research and technology investment, both 
Federally and privately.

  A BETTER DIRECTION: A PUBLIC-PRIVATE PARTNERSHIP WILL FACILITATE A 
                           SMOOTH TRANSITION

    We have before us a remarkable opportunity for a public-private 
partnership that will lead the world into the natural gas economy. For 
the foreseeable future, a balance in energy sources is critical to 
satisfy global demand. Stalwarts such as oil, and to some degree coal, 
will remain prominent sources of global energy for at least the next 
several decades. But these are sunset sources of energy, and Federal 
technology investment should be couched accordingly. Dollars spent on 
new research initiatives in coal are dollars spent against natural 
global trends. National oil independence is highly unlikely, but energy 
independence is achievable with a balanced investment in a mix of 
energy sources.
    Oil and gas research programs across Federal agencies have been 
targeted for massive budget cuts each year for the past several years. 
The fiscal year 2004 DOE budget requested of Congress for research 
directed at major U.S. energy production and consumption represents 3 
percent of the total DOE budget. Of that 3 percent, only 2 percent is 
for oil, and 3 percent is for natural gas. The remainder of the 3 
percent is for coal (40 percent), renewables (39 percent), and nuclear 
(16 percent). Let me say that a different way: of the $23.4 billion DOE 
budget, only $26.6 million (0.1 percent) is for natural gas, and $15 
million (0.1 percent) is for oil. Oil and natural gas account for 65 
percent of the nation's energy supply but only 0.2 percent of the 
proposed fiscal year 2004 DOE budget for oil and gas research! Combine 
these essentially nonexistent Federal dollars with decreases in the 
private sector, and there appears to be no future for young people in 
the oil and gas energy field. University statistics reflect this, as 
U.S. geoscience and petroleum engineering enrollments are at a 35-year 
low.
    For the next several years, Federal investments must be redirected 
to focus on Federal-private-university partnerships that help bridge 
the gap to a natural gas economy, including (1) the continued 
production of coal with some ``clean coal'' research dollars redirected 
to natural gas, (2) continued renewable and nuclear energy research, 
(3) enhanced oil recovery research in support of independent producers 
($150 million), and (4) research and technology across the upstream to 
downstream natural gas spectrum ($300 million).

                                 ______
                                 
                 Prepared Statement of Caterpillar Inc.

    Caterpillar Inc. appreciates the opportunity to present its 
comments for the record addressing the Department of Energy fiscal year 
2004 budget request for heavy-duty transportation R&D within the Office 
of FreedomCAR and Vehicle Technologies (FCVT.) Caterpillar Inc., a 
Fortune 100 company headquartered in Peoria, Illinois, is the world's 
largest manufacturer of construction and mining equipment and diesel 
and natural gas engines used in a variety of applications. We are the 
leading worldwide supplier of heavy-duty off-road vehicles and diesel 
engines for medium and heavy-duty on-road trucks, competing globally 
primarily from a U.S. manufacturing base.
    Our longstanding partnership with the Department of Energy has 
resulted in the development of an R&D technology road map to assure 
that project goals are consistent with national priorities and are 
fiscally responsible. The building blocks for Caterpillar's innovative, 
fuel-efficient and clean Advanced Combustion Emissions Reduction 
Technology (ACERT) are the direct result of collaborative R&D efforts 
between our company and the DOE.
    As such, Caterpillar is concerned with the significant reductions 
in key line items in the fiscal year 2004 FreedomCAR and Vehicle 
Technologies Program budget submission. Caterpillar understands the 
need for the Department to focus attention on emerging technologies 
such as fuel cells and hydrogen power. But, we believe it is equally 
important to maintain and accelerate R&D efforts that will provide 
``bridge technologies'' to meet the needs of our transportation 
industry through this decade and into the next. Our comments will focus 
on six program areas that provide the collaboration and funding of 
these ``bridge technologies'' that are essential to improving the fuel 
efficiency and retaining the competitiveness of our nation's commercial 
transportation sector.
    Heavy Truck Engine.--The Heavy Truck Engine Program, with a fiscal 
year 2004 agency request of $7.0 million, is competitively bid and 
designed to respond to the impact on fuel efficiency of upcoming 
federal emissions standards. These emissions reductions targeted for 
model year 2007 and beyond could result in a five to ten percent fuel 
penalty for heavy-duty trucks, which currently consume 30 percent of 
on-road transportation fuel.
    The primary focus of this R&D program is to develop technologies 
that will enable engine manufacturers to meet federal emissions 
requirements by 2006 while improving fuel economy by ten percent. The 
technological complexities and short time frame necessitates a 
collaborative, 50-50 cost shared effort with the Department of Energy 
and the federal laboratories to maximize R&D resources. Caterpillar's 
focus in this program includes the development of advanced fuel and 
combustion systems, exhaust aftertreatment systems and friction 
reduction to help improve fuel efficiency.
    Now that we are three years into this program, we have learned that 
the technical challenges are even greater than originally expected. 
Significant fuel penalties are a near certainty unless a technology 
breakthrough is created through this well focused, competitively bid, 
collaborative program. Progress on HCCI (Homogeneous Charge Compression 
Ignition) combustion with near zero emissions has been encouraging and 
holds great promise for all commercial trucks and off-road equipment. 
However, much work remains to provide the overall control and power 
capability needed for market acceptance. In addition, the application 
of exhaust aftertreatment technologies has numerous challenges that 
this program is addressing. If adequate funding is provided, there is a 
reasonable possibility to deliver a diesel engine demonstration by 2006 
that will enable the industry to meet the 2007 emissions regulations 
with improved fuel efficiency.
    Caterpillar strongly urges the subcommittee to provide fiscal year 
2004 funding for this line item at $13.5 million (fiscal year 2003 
actual was $12.5 million) to reflect the urgency of pulling forward 
technologies to meet the environmental and commercial challenges facing 
our transportation system.
    Light Truck Engine.--This program, with an agency request of $13.1 
million (a $2.0 million decrease from fiscal year 2002 actual), targets 
the development of compression ignition engine technologies for light-
duty applications (trucks, sport utility vehicles and vans). It is 
focused on achieving a 50 percent improvement in vehicle miles per 
gallon over comparable production vehicles. This 50 percent cost-shared 
program, in its final year of funding, involves multiple industry teams 
comprised of heavy-duty engine and light-duty vehicle manufacturers, 
plus significant involvement of the DOE laboratories.
    Like the Heavy Truck Engine Program, the Light Truck program 
addresses national energy security concerns and offers a tremendous 
return on taxpayer investment. For example, a 50 percent market 
penetration of fuel-efficient light trucks could result in a half-
million barrels per day of oil saved, reducing our dependence on 
imported Mideast OPEC oil by over 20 percent. This could translate into 
a $10.7 billion annual saving in fuel costs to our economy. As our 
reliance on foreign oil continues unabated, the development of fuel 
efficient, cleaner burning technologies for the largest segment of the 
light-duty vehicle market is critically important.
    Caterpillar's focus in the program is to maximize key enabling 
technologies essential to improving fuel efficiency and emissions 
reductions. Again, HCCI is a key building block of our strategy to 
achieve the ultra low emission levels required for light duty trucks. 
The HCCI combustion approach applies even better to the light duty 
operating cycle. Light trucks, vans and sport utility vehicles spend 
the vast majority of time at light loads where HCCI works best. The 
fundamental HCCI work is similar to the effort underway in the Heavy 
Truck Engine program. However, the light-duty application is different, 
especially the duty cycle, aftertreatment and systems integration 
requirements. Caterpillar's strategy is to develop the fuel and air 
system technology that is the key enabler for HCCI combustion and work 
with light truck manufacturers to incorporate this technology into 
vehicles to dramatically reduce emissions of diesel engines.
    Based on the genuine progress made in this program to date, and the 
enormous potential impact on fuel efficiency, Caterpillar strongly 
urges the subcommittee to increase the funding for this program to $15 
million, in line with the amount approved by Congress for fiscal year 
2003. We would also like to strongly suggest that this program be 
continued for 2 additional years to complete the work.
    Off-Highway Engine R&D.--According to the U.S. Environmental 
Protection Agency, non-road diesel engine emissions of oxides of 
nitrogen (NOx) will comprise 38 percent of all mobile source NOx 
emissions by 2010 with diesel particulates (PM) accounting for 60 
percent of all mobile source PM emissions. The USEPA has initiated a 
phased-in emission reduction timetable. Tier 2 regulations began in 
2001, with Tier 3 regulations scheduled for implementation beginning in 
2006. Without major technological breakthroughs, these emission 
requirements will cause a significant increase in fuel use. And while 
some technologies developed for on-road engines can be transferred to 
non-road applications, the lack of cooling air flow to the engines, 
differing power demands, and use of extremely high sulfur fuel 
necessitate the development of new technologies to meet the demands of 
off-highway equipment.
    In fiscal year 2003 Congress increased the funding level to $3.5 
million, earmarking the funds for emissions R&D, fuel cell R&D and 
locomotive R&D. However, DOE has terminated the program in fiscal year 
2004. Caterpillar strongly supports retaining the fiscal year 2003 
congressional funding level of $3.5 million with $2.0 million earmarked 
for high efficiency off-highway earthmoving equipment.
    Combustion and Emissions Control.--An important element of this 
comprehensive program, currently underway at Sandia Livermore, Lawrence 
Livermore and Los Alamos national laboratories, focuses on the need to 
understand fundamental combustion processes and the development of 
computer modeling of these processes and validation on laboratory 
engines. The development of sophisticated computer modeling is 
critically important for the timely, cost-effective introduction of 
future clean and efficient power systems for a variety of engine 
applications. This program funds several Cooperative Research and 
Development Agreements (CRADAs) working on the development of exhaust 
aftertreatment technologies requiring the unique equipment and 
personnel expertise of the DOE national laboratories.
    Caterpillar urges the subcommittee to reinstate program funding at 
the fiscal 2003 level of $23.5 million, allocated equally between 
light-duty (FreedomCAR) and heavy-duty (21CT) projects.
    Advanced Propulsion Materials.--New and improved materials are a 
necessary and key enabler for many engine system programs. With the 
recent breakthroughs in new, clean and efficient combustion regimes in 
our DOE programs, e.g. full and part mode HCCI, the development of new 
and improved materials is critically important. Along with the 
commitment to this breakthrough technology are the engine structural 
challenges in accommodating the much higher pressure rise rates HCCI 
creates. These are beyond the traditional design options with current 
materials. So along with the combustion development we also must 
advance the materials technology to assure a commercially viable 
breakthrough engine.
    The current fiscal year 2004 line item request for heavy-duty 
propulsion materials is $5.85 million. To meet our future goals, an 
additional $3 million could be very well utilized, to address HCCI 
structural needs and accelerate aftertreatment development in areas 
showing fresh promise. We urge the subcommittee to increase the Fiscal 
2004 funding level to $8.85 million.
    Fuels Technology Subprogram.--Two activities conducted within this 
subprogram have had the active participation and support of the heavy-
duty diesel engine industry. Unfortunately, both programs have been 
terminated for fiscal year 2004. In the first instance, the Advanced 
Petroleum Based Fuels (APBF) activity for heavy-duty engines began with 
an evaluation of new fuel formulations and their impact on the two most 
promising types of future aftertreatment systems. The introduction of 
reliable aftertreatment devices with the most cost effective and 
compatible fuel for heavy-duty engines is critically important to 
meeting our goals of cleaner air and improved fuel efficiencies. 
Congress approved $8.2 million in fiscal year 2003 for the heavy-duty 
component of this program and we strongly urge Congress to fund the 
heavy-duty portion at that level again in fiscal year 2004.
    Another activity in this subprogram addresses Environmental 
Impacts. The data from the source apportionment and ambient ozone 
studies conducted by this subprogram are the only accurate measurements 
available and are critically important to identifying the role and 
contributions of mobile emissions to air quality. Despite the obvious 
importance of these activities, no other agency has been willing to 
fund this work. DOE has undertaken the effort because of the direct 
relationship between emissions reductions and reduced fuel efficiency. 
We urge Congress to reinstate funding for this subprogram at $2.0 
million in fiscal year 2004.
    21st Century Truck Partnership.--The 21st Century Truck Partnership 
was created to provide a systems-wide approach to addressing our 
national transportation priorities. This collaborative effort includes 
16 companies and the Departments of Energy, Defense and Transportation 
and the Environmental Protection Agency. The partnership embraces 214 
projects with annual federal funding approaching $120 million. 
Operating within the 21st Century Partnership, industry and government 
will develop critical R&D synergies and establish technology priorities 
to avoid funding duplication and redundancies. Caterpillar supports 
this unique R&D collaborative effort and commends the Department of 
Energy for its leadership.Mr. Chairman, Caterpillar believes that the 
FreedomCAR and Vehicle Technologies Program effectively addresses real-
world technology challenges through the leveraging of public and 
private sector resources. Achieving the goals set forth in these 
programs is critically important to meeting our nation's energy and 
environmental imperatives while maintaining the competitiveness of our 
transportation sector.

                                 ______
                                 
  Prepared Statement of the California Government and Private Sector 
                Coalition for Operation Clean Air (OCA)

    On behalf of the California Government and Private Sector Coalition 
for Operation Clean Air's (OCA) Sustainable Incentive Program, we are 
pleased to submit this statement for the record in support of our 
fiscal year 2004 funding request of $7,000,000 for OCA as part of a 
Federal match for the $180 million already contributed by California 
State and local agencies and the private sector for incentive programs. 
This request consists of $5,000,000 from the Department of Energy (DOE) 
for bio mass incentives, and $2,000,000 from DOE for alternative fuels 
infrastructure funding.
    California's great San Joaquin Valley is in crisis. Home to 3.3 
million people, its 25,000 square miles may have the most unhealthy air 
in the Country. Even Los Angeles, long known as the smog capital of the 
nation; can boast better air quality by certain standards. While peak 
concentrations of air pollutants are still greater in Los Angeles; for 
the past four years, the San Joaquin Valley has exceeded Los Angeles in 
violations of the eight-hour federal health standard.
    A combination of geography, topography, meteorology, extreme 
population growth, urban sprawl and a NAFTA corridor with two major 
highways that produce 5 million big-rig miles per day driven by diesel 
powered trucks, have collided to produce an air basin which over 
300,000 people, nearly 10 percent of the population, suffers from 
chronic breathing disorders. In Fresno County, at the heart of the San 
Joaquin Valley, more than 16 percent of all children suffer from 
asthma, a rate substantially higher than any other place in California. 
The extreme summertime heat works to create smog even though smog-
forming gases are less than half the amount in the Los Angeles basin. 
There is no prevailing wind to flush the natural geologic bathtub and, 
as a result, pollutants and particulates stagnate, accumulate and 
create unhealthy air.
    Degradation of human health is not the only consequence of poor 
quality air. Because the eight county air pollution control district is 
designated as a ``severe'' nonattainment area, a significant number of 
the Valley's businesses are required to obtain permits and comply with 
increasingly burdensome regulations imposed by federal and state law 
and the Air Pollution Control District, resulting in added cost in 
compliance, reporting and record keeping. At the same time, the area is 
burdened by unemployment rates of nearly 20 percent. Encouraging 
business expansion in or relocation to the San Joaquin Valley to combat 
unemployment is extremely difficult in the face of such regulatory 
burdens.
    In the fall of 2003 the San Joaquin Valley Air Pollution Control 
District Board will decide whether to become the first District in the 
nation voluntarily to declare itself an ``extreme'' non-attainment 
area. That designation, if made, will defer until 2010 the date for 
attainment of federal standards of air quality, but will come at a cost 
of imposing permitting on thousands of more businesses and even further 
discouraging business expansion or relocation. Unemployment will 
certainly not be improved.
    The San Joaquin Valley is home to the most productive agricultural 
land in the world. Over 350 crops are produced commercially on 27,000 
farms that encompass more than 5 million irrigated acres. While the 
agricultural industry has made great strides at considerable expense to 
replace old diesel engines and manage fugitive dust and other 
emissions, farming cannot help but contribute to the problem. However, 
it is a $14 billion industry that forms the backbone of the Valley's 
economy.
    Industry alone is not the source of the Valley's poor air. 
Population growth faster than the rest of the state and nearly the rest 
of the nation, in an area without effective mass transit, where cheap 
land has led to a landscape of suburbia and sprawl, results in 
excessive over-reliance on the automobile. Trucking has increased 
dramatically with the increase in population. Other factors such as 
fireplace burning in the winter, open field agricultural burning 
because of lack of adequate alternatives, and wild fires resulting from 
lack of controlled burning in the nearby foothills and mountains all 
contribute to the problem.
    Despite the challenges listed above, much progress has been made. 
The State has spent nearly $80 million on improvement and compliance 
programs. Local government and private industry have spent over $100 
million on technology and compliance. As specific examples, over one 
half of the diesel operated irrigation pumps used by agriculture have 
been replaced with cleaner engines. The City of Tulare has converted 
its entire fleet of vehicles to natural gas as have several other 
private fleet operators. A $45 million federally financed comprehensive 
study of ozone and particulate matter is nearing completion. As a 
result, the number of one-hour EPA health standard exceedences has been 
reduced by 40 percent since 1989.
    But much more needs to be done. The District estimates that daily 
emissions must be reduced by 300 tons to achieve attainment. There is 
no single or short-term quick fix. The entire Valley is part of the 
problem and the entire Valley will need to be part of the solution.
    Operation Clean Air is a coalition of business, government, health 
care and environmental groups throughout the eight county San Joaquin 
Valley Air Pollution Control District and Mariposa County. Its goal is 
to clean the Valley's air and increase its economic prosperity. The 
coalition seeks to catalogue efforts that have produced positive 
effects and identify those strategies that could produce even greater 
effects if supported by sufficient resources. At the heart of its 
efforts will be an array of sustainable, voluntary practices and 
activities that can and will be undertaken by all of the residents of 
the San Joaquin Valley, both public and private, to improve air 
quality.
    This unique public-private partnership has invested considerable 
resources in this project to date, and will continue to do so, but 
federal funding is both imperative and justified to help address what 
is essentially an unfounded federal mandate.
    For fiscal year 2004, our Coalition is seeking funding of 
$2,000,000 from the Department of Energy (DOE) for the installation and 
operation of alternative fuels infrastructure throughout the San 
Joaquin Valley Air Basin. The alternative fuels infrastructure will 
allow for the accelerated introduction of alternatively fueled vehicles 
in municipal fleets, public school fleets, and private fleets. The 
widespread use of lower-emitting motor vehicles will provide 
significant improvement to air quality in the San Joaquin Valley while 
furthering the goals of the Department of Energy and the National 
Energy Policy Act. Development of alternative fuel infrastructure will 
augment the low-emission vehicle program by providing much needed 
compressed natural gas (CNG) and liquefied natural gas (CNG) fueling 
facilities.
    For fiscal year 2004, our Coalition is also seeking funding of 
$5,000,000 to provide financial incentives to reduce open field burning 
of residual agricultural materials by utilizing biomass-energy power 
plants to burn this material in a controlled environment. This process 
will result in multiple benefits to the San Joaquin Valley by reducing 
air pollution and producing electrical power from a renewable source.
    Thank you very much your consideration of our requests.

                                 ______
                                 
 Prepared Statement of the Center for Advanced Separation Technologies

    Mr. Chairman and Members of the Subcommittee, I represent the 
Center for Advanced Separation Technologies (CAST), which is a 
consortium of seven leading mining schools in the United States. I 
appreciate the opportunity to submit this testimony requesting your 
committee to add $4 million to the 2004 Fossil Energy Research and 
Development budget, U.S. Department of Energy, for Advanced Separations 
research. The research in advanced separation is an integral part of 
the Solid Fuels and Feedstocks Program of the Fossil Energy R&D.
    I am joined in this statement by my colleagues from the consortium: 
Richard J. Sweigard (University of Kentucky), Peter H. Knudsen (Montana 
Tech), Maurice C. Fuerstenau (University of Nevada-Reno), Ibrahim H. 
Gundiler (New Mexico Tech), Jan D. Miller (University of Utah) and 
Richard A. Bajura (West Virginia University).
    The U.S. mining industry produces approximately 40 percent of all 
solid wastes generated in the country. The generation of excessive 
waste can lead to the loss of valuable natural resources, environmental 
damage, and higher cost in raw materials production--including the coal 
that is used to generate 52 percent of the nation's electricity. A 
large part of the waste generated by the mining industry can be 
attributed to the inefficiencies of the various separation processes 
that are currently being used. Therefore, there is a need to develop 
advanced separation technologies that can be used by the U.S. mining 
industry. The Center for Advanced Separation Technologies (CAST) has 
been established to meet this need.

                               BACKGROUND

    In 2001, the U.S. mining industry produced a total of $58 billion 
of raw materials, which consisted of $39 billion from minerals and $19 
billion from coal. The mineral processing industries increased the 
value of the minerals to $374 billion, while coal and uranium were used 
to produce 72 percent of the nation's electricity, whose dollar value 
was $194 billion. Thus, the U.S. mining industry contributed a total of 
$568 billion to the nation's economy, which accounted for 5.6 percent 
of its GDP. According to the 2002 Mineral Commodity Summary, major 
industries further increased the value of the processed mineral 
materials to $1,720 billion, which accounted for 17 percent of the GDP.
    Despite the important contributions that the U.S. mining industry 
is making to the nation's economy, the country has not been investing 
in technology development. This is particularly the case with the coal 
and minerals processing technologies, which are mostly concerned with 
separating one mineral (or coal) from another. In the absence of 
advanced separation technologies, companies resort to increasing 
throughput rather than improving separation efficiencies, which in turn 
causes increased waste generation. This approach may give higher rates 
of return on these companies' investments in the short term, but it 
entails a higher loss of valuable natural resources and greater 
environmental damages. Fine coal waste impoundments are a notable 
example. According to a recent NRC report, the U.S. coal industry is 
discarding 70 to 90 million tons of fine coal annually to 713 
impoundments, mostly in the Appalachian coal field.
    To address the need for the advanced separation technologies that 
can be used by the U.S. mining industry, the National Energy Technology 
Laboratory (NETL) issued a solicitation (DE-PS26-00FT40756) in 1999 for 
the creation of a knowledge base for solid-solid and solid-liquid 
separation technologies. Virginia Tech and West Virginia University 
jointly responded to this solicitation and proposed to establish the 
Center for Advanced Separation Technologies (CAST). The objective of 
the alliance was to conduct long-term, high-risk research, primarily 
for the U.S. coal industry.
    In 2002, NETL issued a second solicitation (DE-PS26-02NT41422-9) 
requesting proposals for developing crosscutting advanced separation 
technologies for both the U.S. coal and minerals industries. CAST 
responded to this solicitation as a consortium of seven universities: 
Montana Tech of the University of Montana, New Mexico Institute of 
Mining and Technology, University of Nevada-Reno, University of Utah, 
University of Kentucky, West Virginia University, and Virginia Tech. 
The proposed work addressed a broad spectrum of technological needs of 
the mining companies operating in different geographical locations of 
the United States. The proposal was selected for $8.8 million of 
funding for three years, which included $1.8 million for the first 
year, $3 million for the second year, and $4 million for the third 
year. This testimony is to present a progress report and a rationale 
for requesting the third year funding.

                            PROGRESS TO DATE

    During August 14-15, 2002, CAST organized a workshop in Charleston, 
West Virginia, to identify the technological needs of the U.S. mining 
industry. A large number of industry leaders participated and developed 
a 63-page roadmap for research. The document has recently been printed 
and distributed throughout the U.S. mining industry and is available at 
the CAST website (www.castconsort.org). Faculty members from the 
participating universities developed research proposals, which were 
reviewed by industry representatives in accordance with the priorities 
outlined in the roadmap, and the U.S. Department of Energy made the 
final selection in light of its policies and national needs.
    Solid-liquid separation (dewatering) was one of the research topics 
that were given the highest priority in the roadmap, which may be a 
reflection of the fact that many coal companies continue to discard 
ultrafine coal to impoundments mainly due to the difficulty in 
dewatering. CAST is currently developing several different fine coal 
dewatering processes, including the development of novel dewatering 
aids (chemicals), a hyperbaric centrifugal filter (HBF), and a 
hyperbaric horizontal belt filter (HBF). Several dewatering aids have 
been tested successfully in a small pilot-scale continuous operation. 
Tests conducted on fine coal recovered from a large impoundment in 
southern West Virginia showed that the use of novel dewatering aids can 
more than double the throughput of vacuum filtration, reduce the 
moisture content substantially, and improve the handleability of the 
processed coal. Based on these successful test results, Beard 
Technologies, Inc. of Pittsburgh, Pennsylvania, is planning to 
construct a 200-ton per hour recovery plant. The HCF and HBF are 
designed to create an optimum pressure drop across a filter cake and 
thereby achieve higher filtration rates and low cake moistures.
    In general, solid-solid and solid-liquid separation processes 
become more efficient with narrowly sized feeds. Separation becomes 
particularly difficult with feeds containing large amounts of ultrafine 
particles (or slimes). In this regard, the industry representatives who 
participated in the 2002 CAST workshop stressed the need to develop 
efficient methods of desliming coal. Two CAST member universities are 
jointly working on the project. It has also been shown that enhanced-
gravity separators work substantially better when the feed coal is 
deslimed.
    In 2002, CAST took a major step forward by expanding the scope of 
its research beyond coal. The justification for this shift was that 
many of the unit operations used in the coal and mineral processing 
industries are common. Thus, a research investment in the improvement 
of a crosscutting technology such as flotation would be cost efficient. 
Furthermore, the cost of implementing the results of a crosscutting 
technology development is lower due to the larger customer base.
    The modern form of flotation technology was introduced to the 
mining industry nearly one hundred years ago. Yet, it was only recently 
that comprehensive flotation models were developed from first 
principles, which has made it possible to predict flotation performance 
on the basis of a broad spectrum of process parameters. CAST is further 
developing the models so that they can be used to predict flotation 
rates under more realistic conditions. Based on preliminary model 
predictions, a set of new flotation reagents has been developed, some 
of which are being used commercially for coal flotation in the United 
States and Australia.
    Beginning in 2002, CAST started research in the area of minerals 
processing as part of its mission to develop crosscutting technologies. 
An alternative to copper smelting has been sought for years for cost 
and environmental reasons. However, chalcopyrite is notoriously 
difficult to dissolve in acidic media due to the formation of an 
impermeable sulfur layer forming on the mineral surface. This problem 
has been overcome by adding finely divided solids that can support 
photo-catalytic reactions. CAST is also developing methods of 
optimizing heap leaching processes by conducting 3-D mineral exposure 
analysis, and of improving the separation of phosphate, potash, kaolin 
clay and trona in efficient and environmentally acceptable manner.

                                PROPOSAL

    The research activities will follow the CAST Technology Roadmap, 
which identifies three generic research areas: (i) physical separation, 
(ii) chemical/biological separation, and (iii) environmental control. 
In physical separation, issues concerning size-size, solid-solid, and 
solid-liquid separations will be addressed. High priority research 
topics in these areas of research will include the development of 
efficient desliming methods, dewatering fine coal, extending the upper 
and lower particle size limits of flotation, and the densification of 
waste materials. In chemical/biological separation, methods of leaching 
refractory base metal sulfide ores will be developed. The 
photocatalytic technique that is currently under development can be an 
alternative method to the energy-intensive smelting process and can 
minimize pollution. Chemical and biological separation methods will be 
developed to process low-grade ores and to remove both organic and 
inorganic sulfur from coal. In environmental control, advanced methods 
for separating various contaminants from wastewater streams and soils 
will be developed. In general, the advanced separation technologies to 
be developed in the three generic areas of research identified above 
will be useful for increasing the efficiency of coal and mineral 
processing operations, which will result in the minimization of the 
wastes generated by the U.S. mining industry.
    To promote industrial participation, CAST will initiate the 
Cooperative Research Program, in which groups of companies will jointly 
fund projects of common interest to solve specific industrial problems 
using the wide-spectrum of expertise available at the Center. This 
program will serve as a vehicle for generating substantial cost-sharing 
funds.

                               RATIONALE

    The U.S. mining industry is facing a difficult time due to high 
operating costs, stringent environmental regulations and a worldwide 
economic downturn. To cope with this situation, many companies are 
trying to survive by increasing their production capacity without due 
consideration of improving efficiency, which in turn causes greater 
waste generation and loss of valuable natural resources. It is, 
therefore, necessary to develop advanced separation technologies that 
can be used to increase recovery rates and hence minimize waste 
generation.
    The United States is by far the largest mining country of the world 
with $58 billion of raw materials produced in 2001. Australia is the 
distant second, with $17.5 billion in 2000. Yet, Australia has 
established a total of five centers of excellence in the area of 
minerals and coal processing research. In the United States, CAST is 
the only such center. The center is poised for success, as it is a 
consortium of seven universities with diverse expertise and its 
research activities are carried out in close consultation with a broad 
spectrum of U.S. mining companies.

                                REQUEST

    Thanks to the support of your Committee, the proposal submitted by 
CAST to DOE has been selected for funding for three years. It is 
sincerely hoped that this testimony provides justification for 
requesting $4 million for the third year funding.

                                 ______
                                 
   Prepared Statement of the Coal Utilization Research Council (CURC)

                     SYNOPSIS OF CURC \1\ TESTIMONY
---------------------------------------------------------------------------
    \1\ The CURC is an ad-hoc group of electric utilities, coal 
producers, equipment suppliers, state government agencies, and 
universities. CURC members work together to promote coal utilization 
research and development and to commercialize new coal technologies. 
Our 40+ members share a common vision of the strategic importance for 
this country's continued utilization of coal in a cost-effective and 
environmentally acceptable manner.
---------------------------------------------------------------------------
    Our testimony focuses upon the following three topics:
    1. The DOE-CURC-EPRI Clean Coal Technology Roadmap;
    2. A recommendation to increase funding for programs in the 
President's Clean Coal Research Initiative in the DOE Fossil Energy 
Budget to $347.65 million, which represents a $60.0 million increase 
over the Administration's requested $287.65 million for those programs 
in fiscal year 2004; and
    3. The Department of Energy's FutureGen Initiative.

                   THE CLEAN COAL TECHNOLOGY ROADMAP

    In collaboration with the fossil fuel experts at the Department of 
Energy (DOE), as well as the professional staff of the Electric Power 
Research Institute (EPRI), the CURC has drafted a clean coal technology 
roadmap. A copy of the technology roadmap is available upon request and 
can also be obtained on the CURC website at www.coal.org.
    The roadmap seeks to identify the critical technologies that must 
be successfully developed, as well as the timelines for when that 
development must take place, if the Nation is to have highly efficient 
(near 55 to 60 percent conversion to useful energy) coal energy 
production facilities available for commercial deployment by 2020. 
These same technologies will be capable of near zero emissions to the 
air or water and will be able to provide low cost, competitive 
electricity or other useful products to end use consumers. In addition, 
the roadmap seeks to define a technology development program for carbon 
management; that is, the prevention or capture and sequestration of 
carbon dioxide. In the event public policies are determined necessary 
for the capture/sequestration of CO<INF>2</INF> at some future time, 
then it is important that we have technologies designed to safely and 
effectively address this matter.
    It is our intent to evaluate this and future year budget requests, 
to score the progress and direction of technology development conducted 
by the Department of Energy, and to advise the current and future 
Administrations as well as the Congress about coal-based technology 
issues by using the technology roadmap as a principal reference. We 
have utilized the roadmap as a ``tool'' by which to judge budget 
priorities for fiscal year 2004 and the progress or success of R&D 
endeavors. Further, and more importantly, we hope that the roadmap will 
become a ``tool'' to enable the Congress to ask whether certain 
research and development programs are necessary or whether funding 
should be augmented or terminated for those programs. The members of 
CURC are ready to assist the Congress in understanding the elements of 
the roadmap and how the document might be used to oversee the coal 
technology R&D programs of the DOE and others.

                            SPECIFIC FUNDING RECOMMENDATIONS FOR THE COAL R&D PROGRAM
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                    CURC  fiscal
                                                                    Administration  CURC  roadmap    year  2004
                        Technology program                            fiscal year     annual  R&D     proposed
                                                                     2004 request     budget \1\       budget
----------------------------------------------------------------------------------------------------------------
Clean Coal Power Initiative.......................................          130.00         240.00         150.00
IGCC/Gasification.................................................           51.00         106.00          62.00
Pressurized fluidized bed (PFB)...................................  ..............          14.00          12.00
Innovations for Existing Plants...................................           22.00          43.00          32.00
Advanced turbines.................................................       \2\ 13.00      \2\ 15.00          23.00
Carbon Sequestration..............................................           62.00          84.00          52.00
Advanced research--Ultrasupercitical Materials Consortium.........            4.65           4.00           4.65
Coal derived fuels & liquids......................................        \2\ 5.00      \2\ 13.00          12.00
                                                                   ---------------------------------------------
      Total.......................................................          287.65         519.00         347.65 
----------------------------------------------------------------------------------------------------------------
\1\ This number is 80 percent of the total R&D amount required and represents the federal contribution. It is
  assumed that industry would provide the other 20 percent required to carry out the R&D. The annual budgets are
  based upon the CURC Roadmap through fiscal year 2010; the annual budgets from 2011-2020 are not reflected.
\2\ Not specified for coal syngas R&D.

    Clean Coal Power Initiative.--CURC recommends that fiscal year 2004 
CCPI funding be appropriated at the fiscal year 2003 level ($150 
million) so that there will be sufficient funds for multiple, large-
scale demonstration projects to be selected in the next program 
solicitation. In addition, because of the CCPI program's critical 
importance as well as the need to provide assurances to industry that 
the program will continue to be adequately funded, CURC recommends that 
the CCPI program be fully funded through advance appropriations.
    IGCC/Gasification.--The requested increase in funding from $44.7 
million in fiscal year 2003 to $51.0 million in fiscal year 2004 is 
insufficient to keep the development of promising IGCC systems on track 
and further funding is requested. Specifically, CURC supports the 
recommended budget levels for the H2/CO separation and other gas 
cleanup at $8 million and the gasification slipstream units at $9 
million. CURC recommends that an additional $3 million in funding be 
allocated to ceramic membrane and oxygen separation activities, for a 
total of $12 million, and recommends an additional $8 million be 
appropriated to fund hydrogen storage and materials management 
research. CURC also supports funding for the PSDF operation at $21 
million, but notes that this funding will simply maintain the program 
in its current state.
    There are a variety of other R&D activities to further IGCC 
technology that should be funded. These include: the application of 
IGCC systems on sub-bituminous and low-rank coals, coal-derived 
hydrogen, oxygen-blown transport gasifier, air separation membranes, 
advanced synthesis gas cleanup, solid oxide fuel cell element, 
combustion turbine burners, synthesis gas coolers, improved fuel feed 
systems, and high-temperature heat exchangers, and a number of other 
activities. (The CURC supports activities in these areas, although no 
specific funding levels are recommended.)
    Pressurized Fluidized Bed (PFB) Systems.--CURC recommends that DOE 
restore in fiscal year 2004 funding for coal combustion-based R&D at 
$12.0 million. Further, this program should be renamed ``Advanced 
Combustion Systems'' and focus on development of high efficiency, 
superior environmental performance, and CO<INF>2</INF> sequestration 
technologies. The CURC recommends that the advanced combustion program 
should focus on the following areas: advanced combustion technologies 
able to capture and sequester CO<INF>2</INF>, including high efficiency 
oxygen combustion systems and chemical looping systems; hybrid power 
plant systems; ultra-supercritical steam cycles; and, continued funding 
for the Combustion Technologies University Alliance.
    Advanced Turbines.--The recommended increase in funding is 
specifically directed to research in high efficiency gas turbines 
configured for use of synthesis gas derived from coal. The increased 
funding will accelerate the development of critical component 
technologies that will allow advanced gas turbines (i.e., G and ATS (H) 
class gas turbines just now entering the market operating on natural 
gas) to operate in coal-based IGCC plants. Specifically, additional 
focus and R&D funding is needed in the following areas: syngas tolerant 
advanced gas turbine materials and coating systems; sensors and 
monitors for syngas applications; and ultra-low emission combustion 
systems for fuel flexible gas turbines.
    Innovations For Existing Plants.--CURC recommends an increase of 
$10 million in the fine particulate/air toxics budget in order to 
increase the number of full-scale field tests from 3 to 4 tests to 10, 
to allow tests with lignite, sub-bituminous, and low-Cl and high-Cl 
bituminous coals at various configurations. Additional funding also 
should be made available for the superclean systems budget to fully 
fund the solicitation due in the fall of 2003 to develop improved 
technology and materials for meeting increasingly stringent 
NO<INF>X</INF> requirements, or in the ``waste and water management'' 
budget to address pressing clean water regulatory issues.
    Carbon Sequestration.--CURC recommends that the carbon 
sequestration program reduce its funding for the National Climate 
Change Technology Initiative (NCCTI) program by $10 million (the 
current Request is $13 million) in order to allocate funds to other 
coal-related programs in the Fossil Energy Budget. Funds for the NCCTI 
program should be considered of secondary importance to the immediate 
need to develop carbon separation and sequestration technologies that 
will be required to support the FutureGen Project. CURC recommends that 
the funds provided for carbon sequestration should focus on near-term 
proof of concept projects and provide out-year funding for 
demonstration of CO<INF>2</INF> separation and sequestration 
technologies.
    Advanced Research--Ultra-Supercritical Materials Consortium.--CURC 
believes that the ultra-supercritical materials consortium should be 
funded at the level recommended in the fiscal year 2004 Budget request. 
The program, based on successful results will provide the materials and 
processing technologies to increase steam conditions, enabling 
attainment of higher generation efficiencies.
    Coal Derived Fuels And Liquids.--CURC recommends that funding for 
hydrogen fuel derived from coal is an activity more appropriately 
placed in the IGCC program. CURC recommends that funding for Coal 
Derived Fuels and Liquids be allocated at $12 million in total funding, 
with $8 million in funding for Transportation Fuels and Chemicals. Of 
the $8 million, $3 million should be allocated to complete present 
commitments to the Early Entrance Co-Production program, $1 million for 
advanced computational modeling work focused on polygeneration system 
designs (power, liquids, hydrogen, co-generation), and $4 million for 
work on reactor design, catalyst development, scale-up, and engineering 
and development. In addition, CURC recommends retaining an Advanced 
Fuels Research Program at $4 million in total funding, with $2 million 
focused on military applications of coal-based fuels to meet 
requirements for logistic fuels.

                     THE PROPOSED FUTUREGEN PROJECT

    In late February, Secretary of Energy Spencer Abraham announced 
that the United States will lead a $1.0 billion public-private effort 
to construct the world's first pollution-free, fossil fuel power plant. 
The prototype power production facility, according to Secretary 
Abraham, will serve as a research platform to develop new technologies 
for electricity and hydrogen production, and for carbon capture and 
sequestration.
    First, the CURC supports this very important research project 
capable of testing and integrating a variety of cutting edge 
technologies.
    Second, FutureGen is estimated to cost at least $1.0 billion. 
Because it will be a research program, it is important to acknowledge 
that the government will be contributing at least 80 percent of the 
total funding required for the project.
    Third, the ten-year FutureGen project will require, at least, $800 
million in federal contributions. These funds must be made available 
from new funds and not acquired by stripping funding from other coal 
technology development programs. Specifically, the CURC would strongly 
oppose any plans to acquire funding by reducing announced funding for 
the President's Clean Coal Power Initiative. Further, funds should not 
be obtained simply by reducing or eliminating other important, on-going 
coal R&D and demonstration programs. These on-going programs are also 
instrumental in the development of clean coal technologies that have 
yet to be proven at commercial scale and will not be demonstrated in 
the FutureGen project. Examples of ongoing programs include innovations 
for existing plants, advanced combustion technologies, and carbon 
management programs.

                               CONCLUSION

    The DOE-CURC-EPRI roadmap describes a variety of advanced coal-
based energy systems that, if fully developed, will ensure cost-
effective, efficient and environmentally acceptable uses of coal, as 
well as the timeframes for development of those technologies and the 
performance requirements of these systems. However, if critical 
components of a particular system are not developed in a timely manner, 
a promising technology may not materialize in the recommended 
timeframe. Importantly, to achieve timely technology development, the 
government's long-term commitment must be assured and funding of 
programs must be substantial. Technology is the key to assuring the 
long-term use of coal, and the Department of Energy's coal RD&D 
programs are vital to that technology development.

                                 ______
                                 
     Prepared Statement of the Coalition of Northeastern Governors

    The Coalition of Northeastern Governors (CONEG) is pleased to 
provide this testimony to the Senate Subcommittee on Interior and 
Related Agencies regarding fiscal year 2004 appropriations for the 
Energy Conservation programs of the U.S. Department of Energy. The 
Governors appreciate the Subcommittee's support for these programs, and 
recognize the difficult funding decisions which confront the 
Subcommittee this year. At a time of heightened attention to the 
security, reliability and efficiency of the nation's energy systems, we 
believe that modest federal investment in these programs provides 
substantial energy, economic and environmental returns to the nation. 
In recognition of the contribution which energy efficiency and 
conservation programs make to cost-effective energy strategies, the 
CONEG Governors request that funding for the State Energy Program be 
increased to $74 million, and that funding for the Weatherization 
Assistance Program be increased to $288 million in fiscal year 2004. 
The Governors also request that funding for the Northeast Home Heating 
Oil Reserve be maintained at $6 million in fiscal year 2004.
    The Department of Energy's State Energy Program and Weatherization 
Assistance Program provide valuable opportunities for the states, 
industry, national laboratories and the U.S. Department of Energy to 
collaborate in moving energy efficiency and renewable energy research, 
technologies, practices and information to the public and into the 
marketplace. Administered by the 50 states, District of Columbia and 
territories, these programs are an efficient way to achieve national 
energy goals, as they tailor energy projects to specific community 
needs, economic and climate conditions.
    State Energy Assistance Program.--The State Energy Program (SEP) is 
the major state-federal partnership program for energy. While it 
represents only a small portion of overall funding for state energy 
activities, it is a critical nucleus for many states. As the nation 
moves to enhance the security of its energy infrastructure, the energy 
emergency preparedness activities long provided by state energy offices 
take on heightened significance. Increased SEP funding in fiscal year 
2004 will ensure that States can continue to rely upon state energy 
offices to serve as their essential energy emergency preparedness 
officials in providing this vital public security and safety function. 
As part of the nation's strategy for a balanced, reliable energy 
system, SEP also helps move energy efficiency and renewable energy 
technology into the marketplace. Through the SEP, states also assist 
schools, municipalities, businesses, residential customers and others 
in both the private and public sectors to incorporate the practices and 
technologies which help them manage their energy use wisely.
    The modest federal funds provided to the SEP are an efficient 
federal investment, as they are leveraged by non-federal public and 
private sources. According to a study of the SEP done by the Oak Ridge 
National Laboratory at the request of U.S. Department of Energy, every 
dollar in SEP funding yields $3.54 in ``leveraged'' funding from the 
state and private sectors, and results in $7.23 in annual energy cost 
savings. This adds up to over $256 million in annual energy costs 
savings. These savings estimates do not capture the valuable public 
benefits, such as energy emergency planning and preparedness, provided 
by SEP. In short, the Oak Ridge report concludes that the SEP, with its 
impressive savings and emissions reductions, ratios of savings to 
funding and payback periods, offers effective operations and a 
substantial positive impact on the nation's energy situation.
    Weatherization Assistance Program.--The Weatherization Assistance 
Program (WAP) helps low-income households better manage their ongoing 
energy use, thereby reducing the heating and cooling bills of the 
nation's most vulnerable citizens. According to the U.S. Department of 
Energy, low-income households spend 14 percent of their annual income 
on energy, compared to 3.5 percent for other households. The 
Weatherization Assistance Program strives to reduce the energy burden 
of low-income residents through such energy saving measures as the 
installation of insulation and energy-efficient lighting, and heating 
and cooling system tune-ups. These measures can result in energy 
savings as high as 30 percent.
    Northeast Home Heating Oil Reserve.--The nation's heightened 
emphasis on energy security places renewed importance on the Northeast 
Home Heating Oil Reserve. The Northeast, with its reliance upon 
imported fuels for both residential and commercial heating, is 
particularly vulnerable to the effects of supply disruptions and price 
volatility. The Reserve provides an important buffer to ensure that the 
states will have prompt access to immediate supplies in the event of a 
supply emergency.
    In conclusion, we request that the Subcommittee increase funding 
for the State Energy Program to $74 million and for the Weatherization 
Assistance Program to $288 million; and that it maintain funding at the 
level of $6 million for the Northeast Home Heating Oil Reserve in 
fiscal year 2004. These programs have demonstrated their effectiveness 
in contributing to the nation's goals of environmentally sound energy 
management and improved economic productivity and energy security.
    We thank the Subcommittee for this opportunity to share the views 
of the Coalition of Northeastern Governors, and we stand ready to 
provide you with any additional information on the importance of these 
programs to the Northeast.

                                 ______
                                 
      Prepared Statement of the Gasification Technologies Council

    The Gasification Technologies Council (GTC) submits this statement 
addressing fiscal year 2004 appropriations for the U.S. Department of 
Energy's (DOE) Integrated Gasification Combined Cycle (IGCC) R&D 
program, the High Efficiency Engines and Turbines R&D program, the Coal 
Derived Fuels and Liquids R&D program and the Clean Coal Power 
Initiative. Specific funding recommendations are listed below:
  --The IGCC R&D program for fiscal year 2004 should be funded at a $60 
        million level, up from the $51 million requested.
  --The High Efficiency Engines and Turbines (HEET) program for R&D 
        activities directed toward enabling advanced gas turbines to 
        operate on gasification-based synthesis gas should be funded at 
        a $24.5 million level, instead of the $13 million requested.
  --The Coal Derived Fuels and Liquids Program funding should be $12 
        million, instead of the $5 million requested.
  --The Clean Coal Power Initiative (CCPI) should be funded at a level 
        of $150 million instead of the $130 million requested.
  --Any funding for the FutureGen program should come from new revenue 
        sources and not transfers from any of the above programs.
       role of gasification in doe strategy, policies & programs
    Gasification related technologies are key elements in the DOE's 
strategy to bring extremely clean, highly efficient coal based power 
generation into the marketplace. More advanced and competitive 
technologies are fundamental to achieving this goal, as well as to the 
successful implementation of Vision 21 and the FutureGen pollution-free 
power plant. Continuing and robust IGCC R&D, HEET R&D, Coal Derived 
Fuels and Liquids R&D, and CCPI programs, together with tax incentives 
being proposed in the new energy legislation, are necessary to achieve 
the goal of state-of-the-art, competitive gasification-based 
technologies.
    Gasification-based power generation, as embodied in an Integrated 
Gasification Combined Cycle (IGCC) power plant configuration, has 
inherently superior environmental benefits compared to combustion-based 
power generation:
  --Hydrogen Economy.--Gasification offers the most cost-effective 
        means of producing hydrogen from coal. However, for our vast 
        coal resources to become a viable alternative to natural gas as 
        a source of hydrogen, gasification technology needs first to be 
        established as a competitive means of generating power from 
        coal through continued research, development and demonstration 
        efforts.
  --Carbon Removal & Sequestration.--If CO<INF>2</INF> removal from 
        coal-based power generation becomes a regulatory requirement in 
        the future, the impact on the cost of electricity will be 
        significant. Because of its inherent characteristics, 
        gasification based power production will enable the addition of 
        CO<INF>2</INF> removal at the lowest additional cost and thus 
        support the ability of coal to remain a viable feedstock for 
        power production if carbon capture and sequestration are 
        required. The average additional capital cost to include 
        CO<INF>2</INF> capture in the design of a pulverized coal plant 
        is expected to be more than twice the additional capital to add 
        that capability to an IGCC plant. Furthermore, the associated 
        decreases in capacity and efficiency of the pulverized coal 
        plant are expected to be twice that of an IGCC plant. The R&D 
        to confirm and extend IGCC performance in this regard is 
        important to the goal of minimizing the impact on coal-based 
        power cost, should CO<INF>2</INF> capture become a requirement.
  --Mercury Emissions Reductions.--Volatile mercury removal from coal 
        gasification-based synthesis gas is being practiced 
        commercially today. In fact, a recent DOE-funded study 
        concluded that the cost of 90 percent+ volatile mercury removal 
        from a gasification-based plant would be but one-tenth of that 
        from a combustion-based plant of comparable capacity.
  --Efficiency.--IGCC plants already are more efficient than combustion 
        based plants because they enable the use of high efficiency gas 
        turbines to generate power. Further improvements now being 
        developed in the DOE IGCC R&D program focusing on discrete 
        components of the IGCC system, including high efficiency gas 
        turbines and ceramic air separation membranes among others, 
        offer a future of additional efficiency improvements. 
        Combustion-based technologies, faced with the need to add on 
        energy intensive emissions control systems to meet more 
        stringent air regulations, will likely see reduced efficiencies 
        and generate additional solid wastes.
  --Criteria Pollutants.--IGCC reduces criteria pollutant emissions 
        (SO<INF>X</INF>, NO<INF>X</INF>, CO and particulates) from 
        coal-based power generation to levels that cannot be achieved 
        by combustion-based technologies at comparable capital and 
        operating costs, and comparable efficiency levels. An IGCC also 
        generates far lower levels of solid wastes. DOE sponsored R&D 
        in several key areas promises to widen further IGCC'S 
        advantages in emissions reductions.

           THE IMPORTANCE OF ROBUST GASIFICATION R&D PROGRAMS

    The inherent technical benefits of gasification noted above cannot 
be fully realized on an accelerated schedule without a solid 
underpinning of research and development, both in the private sector 
and in joint public-private sector endeavors as embodied in the current 
DOE IGCC program in combination with a continuation of the CCPI.
    The managers of the DOE IGCC research program have been working 
closely with the gasification industry to define critical technology 
improvements that will enhance the performance and reduce the cost of 
IGCC to help stimulate future deployment of the technology. A recent 
study has shown that if the goals of the DOE fossil energy R&D program, 
including IGCC, are realized, by 2020 the use of IGCC could see a ten-
fold increase over what otherwise would occur. This would increase coal 
use by ten percent, and reduce pressures on natural gas use for power 
generation, with no increase in criteria pollutants and with a decrease 
in mercury emissions from coal-based power generation. However, this 
analysis is premised on a successful DOE fossil R&D program, including 
the IGCC and HEET efforts.

              WHY ADDITIONAL FUNDS ARE NEEDED FOR IGCC R&D

    Although the 2004 budget request for the IGCC R&D program appears 
higher than for the prior year, a number of combustion-related programs 
that had been partly funded by IGCC are now being entirely funded by 
the IGCC program area. This means that, if current IGCC programs are to 
be adequately funded, and important new efforts initiated, total 
appropriations for IGCC R&D should be increased from the requested 
level of $51 million to a minimum of $60 million.
    The DOE IGCC program office has made a concerted effort for the 
past several years to actively seek out industry views on critical 
gasification R&D requirements. The goal of this effort has been to make 
sure that limited public funds are directed toward projects that will 
be leveraged by private sector funds and that will have payoffs in 
introducing improved technologies into the marketplace. The increased 
funding being recommended will enable these joint public-private R&D 
efforts to continue.

Recommended Fiscal Year 2004 IGCC R&D Appropriation.--$60 million
        why additional funds are needed for the heet r&d program
    Today's most advanced gas turbines, offering increased efficiency 
(with accompanying lower operating costs and reduced carbon emissions) 
have not yet been proven on combustion of syngas from coal-based IGCC 
systems. There is a distinct need for further R&D to develop advanced 
turbines for coal-derived syngas utilization and test them in full-
scale demonstrations in coal gasification systems. This will be 
necessary in order to achieve the high efficiency levels necessary to 
meet the goal of developing by 2008 a 50 percent efficient coal-based 
IGCC plant at a cost of less than $1,000/kW with near zero emissions.

Recommended HEET Fiscal Year 2004 Appropriation.--$24.5 million

 WHY ADDITIONAL FUNDS ARE NEEDED FOR COAL DERIVED FUELS AND LIQUIDS R&D

    Co-production of chemicals and fuels should be encouraged through 
ongoing financial support in the DOE fossil fuels R&D program.
    Coal derived fuels and liquids research are necessary to enable 
further development of ``polygeneration'' facilities which have the 
capability of producing not just electricity and steam, but also 
chemicals and fuels (both hydrogen and liquid fuels) as well. Such 
polygeneration facilities will ultimately improve the overall economics 
of building and operating gasificationbased power generation plants, 
thereby accelerating their deployment into the marketplace and bringing 
with them substantial environmental and efficiency advances.
    Additionally, although one national long term goal is a hydrogen 
fueled transportation fleet, it is also necessary to address 
intermediate term needs to improve performance and emissions 
characteristics of our current liquid fueled fleet of vehicles with 
coal-derived ``zero-sulfur'' liquid fuels that are co-produced in 
conjunction with an IGCC plant.
    The goal of diversifying the sources of transportation fuels to 
include coal-based fuels, which complements programs in Vision 21 and 
FutureGen, is also a consideration in supporting increasing funding for 
R&D for coal derived transportation fuels.

Recommended Coal-Derived Liquids and Fuels Fiscal Year 2004 
        Appropriation.--$12 million
              why additional funds are needed for the ccpi
    GTC recommends that appropriations for the Clean Coal Power 
Initiative be maintained at no less than the $150 million of the prior 
year. This will signal to potential industrial investors in the program 
that the Congress continues to view the CCPI as a high priority with 
long term public policy support. This level of funding over extended 
years will provide sufficient funds for multiple, large-scale 
demonstration projects to be selected under the next, and future, 
program solicitation. Any reduction in CCPI funding from previous year 
levels will limit the number of otherwise worthy projects that can be 
funded and thereby limit the technical progress that can be made.

Recommended CCPI Fiscal Year 2004 Appropriation.--$150 million
    the importance of adequate, balanced resources for gasification
    Going forward the DOE is embarked on an ambitious yet realistic 
program of gasification-based research, development and demonstration 
to accelerate the commercial introduction of coalbased IGCC power 
generation that will reduce emissions and power costs, while increasing 
use of the nation's coal resources. However, this will require a 
balanced program that does not short-change either important R&D needs 
or the CCPI demonstration program. As other new technology 
demonstration initiatives, such as the FutureGen program, are 
undertaken they must be adequately funded with additional resources and 
should not rely on transfers from ongoing R&D programs or the CCPI 
program, which are critical to the deployment of the technology 
improvements that will support large scale demonstration and 
commercialization of IGCC.

                                 ______
                                 
        Prepared Statement of the General Electric Power Systems

    The following testimony is submitted on behalf of General Electric 
Power Systems (GE) for the benefit of the Committee during its 
consideration of the fiscal year 2004 budget requests for the 
Department of Energy's (DOE) Fossil Energy program.
    Continued technology advancements are key to realizing the 
potential for cleaner, more efficient power generation. In addition, by 
improving the U.S. technology base, government-private sector programs 
addressing these challenges will enhance the international 
competitiveness of U.S. industry. Several important DOE programs 
deserve the Committee's support.

                  VISION 21 FUEL CELL/TURBINE HYBRIDS

    The fiscal year 2004 budget request for the Vision 21 Hybrids line 
item within the Distributed Generation/Fuel Cells program contains a 
significant reduction below the fiscal year 2003 funding level. GE 
believes that adequate resources should be restored to this program in 
fiscal year 2004 to support technology development to realize cost 
competitive planar solid oxide fuel cell (SOFC)/gas turbine (GT) hybrid 
electric generation systems in the 1 MW to 10 MW size range.
    Planar SOFC/turbine hybrid systems have the unique potential to 
meet the nation's need for clean, high efficiency, cost effective power 
plants with the ability to use multiple fuels. Fuel cell systems offer 
significant emissions reductions compared to conventional, combustion 
based electrical production. In hybrid systems, efficiencies of 65 
percent are achievable, well above the current state of the art. These 
systems also will be able to use fuels of future importance to our 
nation: hydrogen, coal or biomass derived syngas, as well as natural 
gas. When fully developed, planar SOFC/GT hybrid systems in the 1MW to 
10 MW size range are projected to be cost-competitive with today's 
electricity generation technologies. Systems of this size will have 
important applications in meeting dispersed generation needs to 
overcome congestion on the bulk power grid.
    Hybrid fuel cell/turbine systems are fully in line with DOE's views 
for the powerplant of the future, as seen in both the Department's 
Vision 21 goals and its recently announced FutureGen program. DOE has 
described hybrid power modules as a ``key enabling technology'' for 
long-term Vision 21 systems. The Department has further noted that 
these modules are an important element of DOE's carbon management 
policy. Similarly, DOE's February 2003 description of the FutureGen 
initiative anticipates that electricity production in the prototype 
FutureGen plant will involve turbines, fuel cells or hybrid 
combinations of these technologies.
    Hybrid planar SOFC/GT technology development for cost effective 
systems in the 1 MW to 10MW size range is in its early stages. There 
are significant technology challenges in both the fuel cell and system 
design. There will also be unique gas turbine constraints and 
challenges to be overcome. Early system design, analysis, and modeling 
are required which will lead to identification of optimum system 
configurations. Demonstration test programs will then be required to 
validate component and system design, system integration and 
manufacturability.
    Additional funding in fiscal year 2004 for planar solid oxide fuel 
cell/gas turbine hybrids will complement and leverage the technology 
advancements of DOE's Solid-State Energy Conversion Alliance (SECA) 
program. The SECA program, in which GE is a participant, focuses on 
continued SOFC technology development and demonstration to improve 
performance and reduce costs. The technology development being 
performed under the SECA program forms a solid basis for the hybrid 
effort. However, development of planar SOFC fuel cells for hybrid power 
systems requires additional technology development, such as scale-up 
and pressurized operation, which goes beyond the technical scope of the 
SECA program.
    Successful development of cost effective planar SOFC/turbine hybrid 
electrical generation systems has significant implications for the 
United States in terms of reducing fossil fuel consumption, lowering 
emissions associated with power generation and easing of grid 
constraints. However, with so much uncertainty in the electricity 
industry today, industry alone is not in the position to assume the 
full burden of the technological risks inherent in advancing hybrid 
fuel cell/gas turbine technologies. The long term time frame for 
commercial development of this technology and the technical challenges 
to realize the benefits of cost effective commercial systems will 
require a collaborative effort between the government (DOE) and private 
industry.

                                  SECA

    GE supports full funding for SECA in the Innovative Systems 
Concepts line item of the Distributed Generation/Fuel Cells program. As 
noted above, GE is a participant in the SECA program. SECA is a broad 
collaboration among industry, government, universities and other 
research organizations that has as its ultimate objective the 
development of fuel cells for a variety of uses, which will lead to the 
significant cost reductions needed for this technology to be deployed 
widely. GE appreciates the Congress's support for the SECA program in 
the past, and encourages the Committee to provide sufficient resources 
again this year to assure that the important work of this program 
continues.

                  HIGH EFFICIENCY ENGINES AND TURBINES

    The Administration's fiscal year 2004 request for the High 
Efficiency Engines and Turbines (HEET) program, within the Central 
Systems program, should be increased by a total of $11.5 million. This 
program represents the Department's primary research effort focusing on 
gas turbines for electricity production. As DOE has explained in its 
budget submission, ``developing advanced turbines with fuel flexibility 
is critical as many of the advanced, coal-fired power generation 
technologies currently being developed or demonstrated will incorporate 
modified gas turbine systems.'' The importance of this technology 
requires that adequate resources be available.
    GE commends to the Committee's attention the testimony submitted by 
the Gas Turbine Association relative to the funding needs for HEET. In 
particular, GE encourages the Committee to increase funding for DOE 
NETL's Broad Based Financial Assistance solicitation (improving overall 
performance of turbines in integrated gasification combined cycle 
(IGCC) applications), to address combustion of hydrogen in turbines, to 
support the University Turbine Systems Research (UTSR) Program, and to 
assure that adequate emphasis is placed on reliability, availability 
and maintainability (RAM).
    RAM.--The HEET program needs to continue to support improvements in 
powerplant asset utilization (RAM) through development of advanced 
technologies for sensors, diagnostics, and condition monitoring. 
Continued partnering between government and industry will accelerate 
the pace of this work and speed the introduction and widespread 
deployment of new technology in the field. Economic benefits are 
realized by increasing the operational flexibility of gas turbines to 
provide more power to the electrical grid during periods of peak 
demand, reducing the costs associated with unplanned turbine outages, 
increasing the time between scheduled outages, and reducing emissions 
under both full and partial load conditions. Advances in asset 
utilization technology can be moved into the marketplace quickly and 
applied to the installed base, including current coal based systems, 
thus enabling the nation to rapidly recognize the benefits of 
investment in this area.
    HEET Program Accomplishments Will Support IGCC Focus.--GE believes 
that DOE's continued focus, vision and support for IGCC technology is 
warranted, and we support the fiscal year 2004 funding request for the 
IGCC program. Recent increases in the price of natural gas once again 
highlight the need for a robust, fuel-diverse energy infrastructure. 
Our electricity generation sector needs to continue to utilize abundant 
and indigenous fuels such as coal and renewables in order to reduce the 
stress on both natural gas resources and their distribution. IGCC 
boasts high potential for generating clean power under present and 
future environmental criteria. It has flexibility to process a wide 
variety of feedstocks--including coal, petroleum coke and biomass. IGCC 
is also the base from which low-CO<INF>2</INF> power can grow.
    The HEET program will make important contributions towards 
realizing the full measure of IGCC's potential. GE, as the industry 
leader in IGCC gas turbine operation, has made significant investment 
in the development of fuel-flexible combustors and fuel systems. This 
has expanded the potential application range of gas turbines that are 
ready to support the broadening of gasification feedstock flexibility. 
However, to meet the aggressive emission and fuel flexibility goals of 
the HEET program, new combustion system technologies must be developed.
    Widespread commercial adoption of IGCC has been hampered by its 
high cost and complexity. Superb environmental performance and high 
efficiency are not, by themselves, sufficient to offset costs in a 
utility's technology decision process. GE, therefore, urges that all 
IGCC programs utilize an overall system perspective to identify areas 
for development that have the highest potential of meeting the 
challenging technical, cost, operability, and availability goals of the 
HEET program.
    Hydrogen.--Our nation's increasing focus on hydrogen as a future 
energy source was recently highlighted by the announcement of the 
President's hydrogen fuel initiative. While it is anticipated that 
initial demand for hydrogen will be met by natural gas, serious 
consideration must be given to the future impact on natural gas 
supplies. Economical sources of hydrogen will be needed to achieve a 
significant reduction of our reliance on imported oil. With continued 
escalation of domestic natural gas prices, GE believes that large scale 
coal-based IGCC could be a significant alternative source for hydrogen 
production. The synthetic gas produced from gasification combined with 
current process technologies for removal of carbon can provide a 
hydrogen-rich feedstock for either combustion in a gas turbine, 
chemical production, or use elsewhere in the coming ``hydrogen 
economy.''
    Funding under the HEET program should be provided for the 
development of gas turbine combustion technology for use with a high 
hydrogen fuel stream. GE has experience with gas turbines operating on 
fuel blends containing hydrogen, and has performed laboratory 
demonstration tests on high hydrogen content fuel. This experience 
highlighted the need for development of advanced combustion technology 
in order to drive down NOx emissions and enable advanced hydrogen 
generation processes. In addition, current strategies for effective 
integration of all major subsystems need to be revisited and redefined 
for use with hydrogen fuel.
    The United States has reached a critical point in time where 
development and demonstration is sorely needed for coal-based hydrogen 
production processes. DOE's FutureGen program promises to provide a 
platform to address this need. Technology research and development 
through the HEET program can serve as an important source of enabling 
technology for the FutureGen plant. With regard to the FutureGen 
initiative, GE recommends that the early involvement and participation 
of the providers of technology as key stakeholders be encouraged and 
sought.

                      CLEAN COAL POWER INITIATIVE

    GE also supports sustained funding for the Clean Coal Power 
Initiative. This program should provide a vital opportunity for the 
demonstration of IGCC technologies that hold the key to the 
environmentally acceptable use of coal for future power generation. The 
CCPI offers a unique opportunity to demonstrate these technologies on a 
commercial scale--a step that is vital to ultimate commercial 
acceptance of this technology. DOE's budget submission calls for a 
``more focused'' second round solicitation for the CCPI, and we urge 
that IGCC be a major part of the focus of the CCPI going forward.

                       CERAMIC MATRIX COMPOSITES

    Finally, GE recommends that funding be provided for Ceramic Matrix 
Composite (CMC) crosscutting technology material development. CMCs 
offer greater than 2000F capability when compared to current metal plus 
coating technology. This increased capability provides potential 
benefits in power output, efficiency, emissions and part life depending 
on how the material is designed and utilized in product applications. 
Potential opportunities include both power generation (gas turbines) 
and industrial process heating (radiant burner) markets. CMCs could 
thus provide an enabling technology for all of the programs discussed 
above, as well as the Distributed Energy Resource Program (Industrial 
Gas Turbines and Microturbines) and Industry Of The Future (IOF) 
initiatives within the Energy Conservation budget account.

                                 ______
                                 
                   Prepared Statement of IBACOS, Inc.

    IBACOS (Integrated Building And Construction Solutions) urges the 
Subcommittee on Interior and Related Agencies to provide $16 million 
for the Department of Energy (DOE) fiscal year 2004 Residential 
Buildings Program.
IBACOS, through the DOE, has significantly improved the efficiency and 
        livability of U.S. homes
    IBACOS is a founding partner in the DOE's Building America Program, 
which consists of five industry consortiums (teams). IBACOS is made up 
of more than 30 leading companies from the home building industry, 
including equipment manufacturers, builders, design firms, and other 
parties interested in improving the overall quality, affordability, and 
efficiency of our nation's homes and communities. Although we are 
located in Pittsburgh, PA, our Network membership is derived from 
across the country. Our associated building product manufacturers and 
trade associations include: North American Insulation Manufacturers 
Association (NAIMA) of Washington, DC; Carrier Corporation of 
Indianapolis, IN; GE Appliances of Louisville, KY; USG Corporation of 
Chicago, IL; Owens Corning of Toledo, OH; and Andersen Corporation of 
Bayport, MN. Our builder partners includes such large builders and 
developers as Pulte Homes of Bloomfield Hills, MI; RGC of Newport 
Beach, CA; Civano Development Partners of Tucson, AZ; Beazer Homes of 
VA; Washington Homes (a division of K. Hovnanian) of VA; and John Laing 
Homes of Denver, CO. Other builders and developers in CA, CO, GA, IN, 
NC, NJ, NY, NV, SC, and TX also participate.
    Through these and other partners, Building America has had direct 
influence in increasing the efficiency of nearly 10,000 homes to date. 
All of these homes use 30 percent less energy than a code compliant 
home, and many exceed 50 percent in savings.
    We have been working with the DOE's Residential Building Program 
since the start of the Building America Program in 1993. Along with the 
four other teams, we represent more than 200 residential builders, 
developers, designers, equipment suppliers, and community planners. All 
Building America partners have a common interest in improving the 
energy efficiency and livability of America's housing stock, while 
minimizing any increase in home costs. Many of the products used 
actually result in a lower cost, while others experience only marginal 
increases in first cost and absolute reductions in cash flow. In 
pursuit of this common interest, the five Building America teams pursue 
common activities that will ultimately assist all homebuilders and 
benefit the nations' homebuyers.

Building America teams, such as IBACOS, have the ability to research 
        and develop new technologies and processes, as well as 
        demonstrate and diffuse information throughout the building 
        community
    We are working to significantly expand the active team membership 
of Building America, but, perhaps more importantly, we are finding 
innovative new ways to increase the energy efficiency of the nation's 
housing stock, and are encouraging the diffusion of information to 
hundreds of builders through participation in research partnerships, 
national conferences, technical committees and the Internet. In fact, 
in working with Owens Corning, we helped introduce a market based 
program, System Thinking, in which Owens Corning is applying lessons 
from Building America to more than 100 builders in all regions of the 
country. Other Building America teams have had similar success with 
national programs such as Environments for Living. All of the teams are 
partnering with the Environmental Protection Agency (EPA)/DOE Energy 
Star( program.

The DOE helps develop and implement widespread innovation in the 
        fragmented residential construction industry
    The new residential construction industry accounts for the 
production of 1.6 million single family homes per year (over $70 
billion in revenue) and approximately 20 percent of total energy use in 
the United States.
    Despite its size and impact, the industry is exceptionally 
fragmented. It comprises nearly 100,000 builders, many building only a 
few homes per year, others as many as 35,000. A multitude of 
residential product manufacturers, architects, trades, and developers 
further compound the problem of an industry in which it is very 
difficult to implement widespread technological innovation. Building 
America acts as an aggregator for identifying and pursuing research 
needs and consolidating relationships between the industry and National 
Labs.
    Additionally, there has been little incentive for builders to 
improve on energy efficiency for a number of reasons. First, energy and 
resource efficiency does not necessarily contribute to the bottom line 
of the builder; instead, it benefits the homeowner and the nation. 
Second, because builders cannot directly recoup costs for up front 
investments through energy savings (since they do not own the homes), 
they have little reason to spend more initially. Third, adopting new 
technologies and training staff and trades to properly install new 
systems and products is costly and problem-ridden. Fourth, builders are 
not good at sharing knowledge between competitors, so the DOE's role is 
critical to expanding the practices beyond the first builders in.
    For these reasons, we are working to create higher performance, 
quality homes for no incremental costs, along with associated training, 
management, and technology transfer methodologies. We believe that 
because of this work, energy and resource efficiency, durability, and 
affordability will, eventually, be commonplace in the home building 
industry.
    Because the home building industry is made up of so many differing 
parties, it is virtually impossible for them to come together to 
perform common research without a third party.
    The DOE plays a critical role in bringing this research, 
development, and deployment agenda to the marketplace.
    Current research activities include:
  --systems integration, technology and process research and 
        development to improve energy efficiency
  --indoor air quality
  --safety, health, and durability of housing
  --thermal distribution efficiency
  --incorporation of passive and active solar techniques
  --techniques that increase builder productivity and product quality
  --reduction of material waste at building sites
  --use of recycled and recyclable materials
  --building materials improvements
  --envelope load reduction and durability
  --mechanical systems efficiencies and appropriate sizing
    The DOE's role in bringing together the right entities and cost 
sharing common research is invaluable in improving our nation's 
building stock, while we work to reduce up front builder costs.

Through the DOE, significant energy saving results have been achieved 
        in residential construction, and encouraging research results 
        on systems integration have helped to increase overall energy 
        efficiency
    Results of the experience gained by the Building America teams has 
been reflected in both DOE and HUD roadmapping sessions, development of 
research priorities for National Labs, and cooperation on programs 
within DOE/BTS. For example, the Building America Program is working 
cooperatively with the Windows program at BTS to ensure that advanced 
window products are incorporated into high efficiency residential 
housing. The Building America Program is also partnering in the Zero 
Energy Buildings effort. Additionally, collaborative research 
activities with the National Labs, including NREL, ORNL, and LBNL have 
resulted in the sharing of knowledge and resources that bridges the gap 
between Federal research programs and the industry.
    The Residential Buildings Program improves the affordability of 
homes by reduced energy use, and results in better use of capital and 
natural resources. The scale of impact is exemplified by the 50 percent 
savings in the average new home built today-the equivalent of the 
energy used by a sports utility vehicle for one year. And, the home 
will have a useful life of 100 years.
    Investing in residential construction technology makes economic and 
market sense. By using improved materials and techniques, the 
Residential Buildings partners promote wiser use of resources and 
reduce the amount of waste produced in the construction process. 
Because of the homes' improved efficiency, emissions from electrical 
power will be reduced, potentially eliminating 1.4 million tons of 
carbon from the atmosphere over the next ten years. The DOE's 
residential programs will also save consumers more than $500 million 
each year through reduced energy bills. These savings are permanent and 
significant.
    IBACOS supports efforts across the government to integrate 
activities in the residential building area. This includes work with 
the Partnership for Advancing Technologies in Housing (PATH), the 
National Institute of Standards and Technology, the Housing and Urban 
Development, and the Environmental Protection Agency. We at IBACOS are 
working with PATH communities as a part of Building America. One of the 
PATH communities is in Tucson, AZ. IBACOS, through the Building America 
Program, is working with the developer and builders on a 2,600-home 
sustainable new town called Civano. Through detailed monitoring, the 
homes in this community are proving to be at least 50 percent more 
efficient than comparable homes. Many of these homes are being heated 
and cooled for less than $1 a day. Other communities in which Building 
America is serving as a partner with developers, builders, and PATH are 
Village Green in CA, Summerset at Frick Park in PA, and emerging 
communities in Denver, CO, North Charleston, SC, and in Florida. 
Communities are now under construction that will yield upwards of 
80,000 units over the next seven years. All of these units will result 
in savings between 30 percent and 50 percent of their energy cost and 
serve to create market momentum, influencing many other local builders.
    Research results on systems integration are exciting and 
encouraging. One of the major hurdles in home building has been the 
issue of assembling the home on the building site in a way that 
maximizes integration of the various components and equipment within 
the house. Systems integration results in an airtight house in which 
subsystems are used together to optimize the home's engineering and 
otherwise increase the overall energy efficiency of the home.
    There have been a number of concrete and encouraging results from 
research, development and demonstration activities in cooperation with 
the Federal government. In fact, IBACOS, as a part of the Building 
America Program, has been able to demonstrate to production builders 
such as Hedgewood Homes in Atlanta, GA that they can build homes that 
save more than 30 percent to 50 percent in energy costs while avoiding 
any increase in initial construction costs. Medallion Homes in Texas 
markets to first time home builders and offers up to 50 percent 
reductions in energy; they have had excellent market success. The rapid 
adoption of new technologies from the National Labs and the industry to 
the marketplace requires additional demonstration opportunities. We are 
pleased to be working with the DOE towards this end.
    Additionally, IBACOS has been participating in road mapping 
processes for residential buildings. We have partnered with the DOE to 
ensure that renewable energy technologies are incorporated into 
Building America research and development activities. We feel very 
strongly that the integration of the systems into a home is as 
important, or even more important, than the individual pieces of 
equipment that are installed. We have proven the ability to work with 
builders to build single pilot homes and support them through early 
adoption in their production lines.
    We look forward to continuing to work with the DOE to research and 
develop the technology and process necessary to deliver higher 
performance homes to the U.S. market, as well build markets for more 
efficient equipment and technologies.
    We at IBACOS urge you to provide $16 million for the DOE fiscal 
year 2004 Residential Buildings Program. Along with the industry cost 
share in the program of at least 100 percent, this program has had and 
will continue to significantly catalyze improvements in what has 
traditionally been a very fragmented industry.

                                 ______
                                 
  Prepared Statement of the National Association for State Community 
                           Services Programs

    As Executive Director of the National Association for State 
Community Services Programs (NASCSP), I am pleased to submit testimony 
in support of the President's 2004 Budget request of $288.2 million for 
the Department of Energy's (DOE) Weatherization Assistance Program 
(WAP) and in support of $74 million for the DOE State Energy Programs 
(SEP). NASCSP is the member organization representing the states on 
issues related to the WAP and the Community Services Block Grant. The 
state offices represented by our organization would like to thank this 
Committee for its continued support of the WAP and SEP through the 
years. The $225 million in WAP funds provided by the Committee in 2003 
is expected to result in:
  --An additional 93,750 homes occupied by low-income families will 
        receive energy efficiency services, thereby reducing the energy 
        use and associated energy bills; and
  --Greenhouse gases and environmental pollutants will be significantly 
        reduced due to the decrease in energy use by these newly 
        weatherized homes; and
  --Nearly 16,000 full time, highly skilled, jobs being supported 
        within the service delivery network and in related 
        manufacturing and supplier businesses;
    The WAP is the largest residential energy conservation program in 
the nation and serves a vital function in helping low-income families 
reduce their energy use. Developed as a pilot project in 1975, the WAP 
was institutionalized in 1979 within DOE and is operated in all 50 
states, the District of Columbia, and on several Native American 
reservations. The funds are used to improve the energy efficiency of 
low-income dwellings using the most advanced technologies and testing 
protocols available in the housing industry. The energy conservation 
resulting from the efforts helps our country reduce its dependency on 
foreign oil and decreases the cost of energy for families in need. With 
lower energy bills, these families can increase their usable income and 
buy other essentials like food, shelter, clothing, medicine, and health 
care.
    The WAP provides an energy audit for each home to identify the most 
cost-effective measures, which typically include adding insulation, 
reducing air infiltration, servicing the heating and cooling systems, 
and providing health and safety diagnostic services. For every dollar 
spent, the WAP returns $1.80 in energy savings over the life of the 
weatherized home, based on the Energy Information Administration's 
long-term energy prices outlook. Since the program's inception, more 
than 5,000,000 homes have been weatherized using federal, state, 
utility and other monies.
    As we all know, these are troubling times facing our nation--war, 
budget deficits, homeland security needs, and a slowed economic 
recovery. These times create added financial burdens for all Americans, 
but especially for those who live at or below the poverty line. Low-
income families have always spent a disproportionate share of their 
income for energy needs than their middle-income counterparts. For 
example, a typical middle class family pays about 3 to 7 percent of 
their annual income for energy costs (heat, lights, air conditioning, 
appliances and hot water). Low-income families pay nearly the same 
dollar amount each year for energy but this amount represents a 
significantly higher percentage of their total household income (14 to 
20 percent). In times of energy shortages and escalating energy costs, 
the energy burden for these families can reach 25 to 40 percent or more 
of their available income.
    When energy costs rise, like they have during the 2002-03 heating 
season, even a nominal increase can have a dramatic negative impact on 
low-income families. The expected increase in this year's energy costs 
may amount to an additional $200 for most families. For middle-income 
families, this increase will amount to less than one quarter of one 
percent of the total household income. For many low-income families; 
however, a $200 increase will result in a 3 to 5 percent increase and 
will require families to go without other important essentials like 
food, medicine, or clothing to meet this higher financial demand.
    These families need long-term solutions to help them reduce their 
energy use both now and in the future--resulting in lower energy bills. 
That is the primary mission of the Weatherization Assistance Program--
``To reduce heating and cooling costs for low-income families, 
particularly for the elderly, people with disabilities, and children, 
by improving the energy efficiency of their homes while ensuring their 
health and safety.''
    The Oak Ridge National Laboratory report entitled State Level 
Evaluations of the Weatherization Program in 1990-1996: A Meta-
evaluation That Estimates National Savings found that the WAP 
significantly improved its energy savings results during those years. 
In 1996, the Program showed savings of 33.5 percent of gas used for 
space heating--up from 18.3 percent savings in 1989. The increase in 
savings was based in large part on the introduction and use of more 
sophisticated diagnostic tools and audits. Families receiving 
weatherization services can reduce their heating energy use by an 
average of 22 percent, making the cost for heating their homes more 
affordable. The Evaluation report also concluded that the WAP possessed 
a favorable cost-benefit ratio of 2.40 to 1.0. Simply stated, the 
federal funds provided to support the Program have a 140 percent return 
on investment, or nearly $2.50 in benefits for every dollar invested. 
By reducing overall energy use, families can realize average savings of 
$250 or more each year, thereby helping families move closer to 
economic self-sufficiency.
    In addition to direct energy savings from the work performed in the 
Program, the WAP also returns non-energy benefits. In a recent report 
published by Oak Ridge National Laboratory entitled Non Energy Benefits 
from the Weatherization Assistance Program: A Summary of Findings from 
the Recent Literature, it was reported that the WAP creates 
quantifiable benefits in several categories including: increased 
property value, reduced incidence of fire, reduced arrearages, federal 
taxes generated from employment, income generated from indirect 
employment, avoided costs of unemployment benefits, environmental 
externalities. Taken together, for every $1 invested in the program, 
Weatherization returns $3.66 in energy and non-energy impacts.
    The WAP has always served as a testing ground and provides a 
fertile field for the deployment of research conducted by national 
laboratories. For example, the Oak Ridge National Laboratory developed 
the National Energy Audit (NEAT) for use by local agencies in assessing 
cost effectiveness of service delivery. Oak Ridge is currently 
investigating the cost effectiveness of including certain base load 
measures (water heater replacement, lighting, motor efficiency) into 
the Program and continues to test other protocols and material 
installation techniques to help state and local agencies improve their 
field operations. The Florida Solar Energy Center and the state of 
Hawaii are working on the development of cost effective solar hot water 
heaters. The State of New York, working in concert with the local 
utility companies and the State Energy Research Development Authority, 
has implemented a refrigerator replacement program to test the impact 
of providing base-load services to conserve energy and reduce costs.
    One of the major outcomes of WAP field deployment is that the 
private sector eventually adopts these technologies. This pattern has 
been established through several advancements including blower door-
directed air infiltration, duct system testing and sealing, furnace 
efficiency standards, and insulation and ventilation protocols. The 
acceptance of these standards and protocols by the private sector is 
enormously important as builders attempt to construct new properties or 
rehabilitate existing ones using a renewed energy efficiency 
philosophy.
    Of equal importance to the technological and programmatic 
foundation are the WAP contributions in achieving overall national 
energy policies and social strategies. Some examples of how the Program 
helps achieve these goals include:
  --Reducing harmful green house gas through reduced CO<INF>2</INF> 
        emissions by avoiding energy production. Each time a house is 
        weatherized, the reduction in energy needs reduces the 
        environmental impact associated with creating that energy 
        reduction of sulfur dioxide, carbon, and other pollutants 
        spilled into the atmosphere from the burning of fossil fuels 
        like oil, coal, kerosene, wood, gas, and propane.
  --Increasing jobs in communities throughout the country. For every $1 
        million invested in the WAP, more than 51 full time jobs are 
        created and supported in the states. Another 20 jobs are 
        created in companies who provide goods and services to the 
        Program. With the $288.2 million requested in the President's 
        budget, nearly 20,000 full-time, above minimum wage jobs are 
        created and supported in local communities and in related 
        service and material industries.
  --Investing money into communities through job creation, local 
        purchasing of goods and services, and tax revenues. These 
        investments result in many secondary benefits. These residual 
        benefits, known as ``economic benefit multipliers,'' are 
        applied to local community investment to value the real worth 
        of money used locally. This multiplier is 3.5 to 4 times the 
        actual investment. This means that an investment of $288.2 
        million in the WAP could yield nearly $1.2 billion in economic 
        benefits to local communities.
  --Reducing consumption of imported fuels by reducing residential 
        energy consumption. Our country currently imports nearly 60 
        percent of its oil from foreign countries. This figure is 
        higher than the import percentage in the 1970s, when the oil 
        embargo threatened our ability to operate as a nation. The 
        conservation efforts of the WAP network will help reduce our 
        country's dependency on foreign oil, thereby strengthening our 
        country's national security.
    In 2001, the Administration earmarked the WAP as a ``Presidential 
Priority'' in its National Energy Policy Plan. President Bush committed 
$1.4 billion to be added to WAP over a ten-year period to help 
thousands of low-income families meet their energy needs while reducing 
their energy burden. Each year since then, the Administration has asked 
for higher appropriations levels in their budgets submitted to 
Congress. In response to these higher budget requests, this Committee 
did vote to increase the WAP in 2002 to $230 million--$40 million less 
than the President's request but an increase over 2001 levels. In 2003, 
the President requested $277.1 million for this Program and your 
Committee passed a bill that funded the WAP at $240 million. 
Unfortunately, the Omnibus Reconciliation Act of 2003 ended with a cut 
of $5 million for the Program from the 2002 level of $230 million (far 
below the President's request). Again in 2004, the President, in 
keeping with his commitment to WAP as a ``priority'' within his energy 
strategy, has asked Congress to appropriate $288.2 million for the 
Program. Our organization strongly supports the President's request and 
would respectfully request this Committee to provide the funding at the 
budget request level of $288.2 million to meet the President's priority 
for WAP.
    NASCSP is also concerned about the low level of funding proposed 
for the State Energy Programs (SEP) in 2004. SEP enjoys a broad 
constituency, supporting state energy efficiency programs that include 
energy generation, fuels diversity, energy use in economic development, 
and promoting more efficient uses of traditional energy resources. SEP 
funding has fallen steadily from a recent high in 1995 of $53 million 
to its fiscal year 2003 level of $45 million. The President's fiscal 
year 2004 request is a further cut to $38 million. The state energy 
offices are the crucial centers for organizing energy emergency 
preparedness. They have been asked to do much new work in the sensitive 
area of infrastructure security. Taking into consideration this growing 
burden, the increasing difficulty of managing energy resources, 
together with increasing opportunities for states to implement cost-
saving, efficiency-enhancing measures, we are supporting their request 
of $74 million for fiscal year 2004. This level would restore the 
program's recent funding cuts, enhance their ability to address energy 
emergency preparedness, and allow for inflationary impacts since 1995.
    By the evidence provided herein, this Committee can be assured that 
the increase in WAP and SEP funding will provide essential services to 
thousands of low-income families, resulting in greater energy savings, 
more economic investments, increased leveraging of other funds, and 
less reliance on high-cost, foreign oil--outcomes that will benefit the 
nation. NASCSP looks forward to working with Committee members in the 
future as we attempt to create energy self-sufficiency for millions of 
American families through these invaluable national programs.

                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials

    Mr. Chairman and members of the Subcommittee, NASEO submits this 
testimony in support of funding for a variety of U.S. Department of 
Energy programs. Specifically, we are testifying in support of no less 
than $362.2 million in funding for the State Grant programs, including, 
the State Energy Program (SEP) ($74 million) and the Weatherization 
Assistance Program (WAP) ($288.2 million). This figure moves in the 
direction of President Bush's promise included in his campaign issue 
paper to double the Weatherization Assistance Program and the State 
Energy Program. This campaign promise would provide $76 million for SEP 
and $306 million for WAP. We also support an important program which 
has been a dramatic success, the State Energy Programs Special Projects 
(SEP Special Projects) account, which should receive at least level 
funding of $19 million. SEP Special Projects has set a standard for 
state-federal cooperation and matching funds to achieve critical 
federal and state energy goals. These programs are successful and have 
a strong record of delivering savings to low-income Americans, 
homeowners, businesses, and industry. We also support an increase of 
$600,000 for the Energy Information Administration's State Heating Oil 
and Propane Program in order to cover the added costs of doubling the 
frequency of information collection (to weekly), the addition of 
natural gas, and increasing the number of state participants. 
Generally, EIA funding is a critical piece of energy emergency 
preparedness and response. NASEO continues to support at least level 
funding for a variety of critical deployment programs, including 
Rebuild America, Energy Star, NICE3 and Industries of the Future. 
Proposed cuts in these programs are counter-productive and are 
detrimental to a balanced national energy policy. The states also 
strongly support increased funding for the State Technology Advancement 
Collaborative (STAC). The fiscal year 2003 conference report allocated 
$3 million for State Cooperative R, D, D&D initiatives and $5 million 
from the science initiative for this effort. We are moving forward as 
quickly as possible to implement this directive of the Subcommittee. It 
is a new area of cooperation. Our hope is that it will speed 
procurement sand dramatically improve multi-state/federal cooperation 
and coordination.
    Over the last year, both oil and gas prices have been rising in 
response to international events as well as very low domestic 
inventories. Even in the absence of the international situation, the 
United States may very well find itself in the grips of an energy 
crisis as summer approaches. In addition, we now have quantifiable 
evidence of the success of the SEP program, which we did not have in 
years past, which demonstrates the unparalleled savings and return on 
investment to the federal taxpayer of SEP.
    In January 2003, Oak Ridge National Laboratory (ORNL) completed a 
study and concluded: ``The impressive savings and emissions reductions 
numbers, ratios of savings to funding, and payback periods . . . 
indicate that the State Energy Program is operating effectively and is 
having a substantial positive impact on the nation's energy 
situation.''
    The ORNL study found that $1 in SEP funding yields:
  --$7.23 in annual energy cost savings
  --1.17 million source MMBTUs saved
  --$3.54 in leveraged funding from the states and private sector
  --Annual energy savings of 41,358,478 BTUs
  --Annual cost savings of $256,422,600
    The annual cost-effective emissions reductions associated with the 
energy savings are equally significant: (1) Carbon--719,251.8 metric 
tons; (2) VOCs--127.2 metric tons; (3) NO<INF>X</INF>--5,739 metric 
tons; (4) PM10--144.8 metric tons; (5) SO<INF>2</INF>--7,655.7 metric 
tons; and (6) CO--968.7 metric tons
    It is important to note that the actual program benefits are even 
greater since the ORNL study quantifies the benefits of only 14 SEP 
program areas, representing about 60 percent of SEP funding. This means 
that the savings above are calculated on 100 percent of SEP funding but 
include only 60 percent of the results. Results not quantified include 
clean energy production activities such as demonstration of alternative 
fuels, development of wind energy resources, and geothermal activities. 
In addition, essential energy emergency preparedness and response 
activities are not quantified by the ORNL study (since the study 
focused only on energy efficiency activities).

                EXAMPLES OF RECENT SEP-FUNDED ACTIVITIES

North Dakota
    The North Dakota Energy Office has been at the forefront of a 
sustained effort to explore the economic viability of wind energy and 
to promote its development. The office has utilized State Energy 
Program (``SEP'') funding and other funds to forge several partnerships 
that have resulted in a high level of wind energy activity in the 
state, as well as other important state-based clean energy activities.
    The North Dakota Energy Office initiated a comprehensive, utility-
sponsored statewide resource assessment of wind involving all seven of 
North Dakota's generation and transmission utilities. The office worked 
with local development corporations, DOE's Wind Powering America 
program, the Energy and Environmental Research Center in Grand Forks, 
North Dakota, and several others to create one of the best ongoing wind 
resource assessment programs in the country. In addition, the office is 
active in statewide landowner meetings in partnership with the 
grassroots organization ND SEED (Sustainable Energy for Economic 
Development) and EAPC Engineers/Architects of Grand Forks, along with 
other information dissemination efforts. Wind energy integration 
studies are ongoing.
    Wind energy is an important new industry to North Dakota. The state 
has a turbine blade manufacturer in Grand Forks, ND, a tower 
manufacturer in West Fargo, ND, and related engineering, development, 
and construction businesses, employing hundreds of people. With recent 
installations and announcements by Minnkota Power Cooperative, Montana-
Dakota Utilities, and Basin Electric Power Cooperative, North Dakota 
will move from an installed capacity of .35 MW of wind generation to 
over 65 MW by the end of 2004, with more on the horizon.

New Mexico
    The New Mexico Energy Office Wind Energy Program is making great 
strides in preparing the way for large-scale wind development. The SEP-
supported program has completed an essential wind resource assessment 
and monitoring effort, which will aid industry in determining the 
feasibility and best locations for wind development. To date, six sites 
have been selected for intense monitoring and all appear to have 
significant commercial potential. In addition, the energy office has 
conducted necessary economic impact studies and other research that 
lays the groundwork for the private sector to commit substantial 
capital and add fuel diversity to the state's 99 percent fossil-fired 
generation fleet. The total $400,000 in SEP funds will garner nearly 
$90 million in state incentives for wind projects, and the state 
reports that over 200 MW of wind capacity is scheduled to go line by 
end of 2003. In addition, the success and data collected to date have 
been essential in aiding state decision makers as they considered a 
renewable portfolio standard, which will be effective later in 2003, 
with a goal of 10 percent renewable generation by 2011.

Montana
    The Montana Energy Office completed a demonstration of biodiesel 
fuel in Yellowstone National Park in December 2002. The project 
addresses the problem of air pollution caused by millions of tourists 
who visit the park every year. Biodiesel is produced in Montana from 
rapeseed oil (ethyl esters) or potato residues generated by the food 
processing industry. The project documents performance and emissions 
reductions using EPA protocols from operating a conventional diesel 
engine on 100 percent biodiesel. The truck operated normally for 
121,000 miles and started well in cold weather. In fact, the only time 
it failed to start during the experiment was when the temperature was 
-37 on a day when many other vehicles also failed to start. Among 
other findings, the sweet odor of the exhaust did not attract bears, 
which was a concern for park rangers at the beginning of the 
experiment.

Washington
    The Washington Energy Office established a telework program with 
funding from SEP a number of years ago. The program has grown more 
successful each year, with increasing private-sector cost share and the 
expansion of the program to Oregon, Arizona, and Texas. The program 
reduces vehicle miles traveled, saves energy, improves air quality, 
reduces traffic congestion, and enhances job opportunities. Following 
the events of 9/11/01, the states were able to use telework as a 
foundation for emergency management plans. The SEP-supported telework 
program has leveraged more than $1 million in funds to create a 
comprehensive package of telework tools including guidebooks, training 
kits, on-line training, case studies, and web sites. The program has 
aided organizations in 46 states and 12 countries in establishing 
programs. And the U.S. Office of Personnel Management lists Telework 
Collaborative training materials on its telework web site as suggested 
resources for Federal agencies. The multi-state results are impressive: 
State agency teleworkers in OR, WA, AZ, and TX drive 8.5 million fewer 
miles, saving 283,000 gallons of gasoline. (Note that substantially 
more savings are achieved by the program's private sector 
participants.) State agency teleworkers in OR, WA, AZ, and TX reduce 
2,300 tons CO<INF>2</INF> annually.

Florida
    The Florida Energy Office's Sensible Sustainable Technology Program 
promotes the use of alternative fuels and renewable energy technologies 
and reduces fossil fuel environmental impacts. The program demonstrates 
sensible sustainable technologies at schools, government buildings and 
state recreation facilities. These technologies include, for example, 
daylighting, geothermal heat pumps, solar dehumidification and solar 
security and street lighting. The results to date include energy 
savings of: (1) Daytime lighting loads--640,360 BTUs per lumen; (2) 
Dehumidification loads--642,940 BTUs per operating hour; (3) Combined 
savings from all projects reduced average Energy Users Index 31,977 
BTUs per square foot per year--$739,681; and (4) Fossil fuel savings--
5,424 barrels of oil or 1,379 tons of coal. Emissions reductions have 
been 9,250,949 pounds of power plant emissions. The projects have also 
saved 6,405,386 gallons of water.

Tennessee
    The Tennessee Energy Office's SEP--Energy Smart Schools activity 
reduces the energy dollars spent by schools and showcases the economic 
benefits of energy efficiency to school systems throughout Tennessee. 
The energy office assists schools with energy efficiency lighting 
retrofits, and aided in the delivery of $500,000 worth of lighting 
improvements in 12 schools in Fayette County. Energy savings have been 
1,687,930 kWh annually with annual cost savings of $108,000. The 
Project's lifetime economic benefit is $3,766,761--or $7.53 for each 
$1.00 expended under the project.

Pennsylvania
    The Pennsylvania Energy Office used SEP to aid in implementing the 
Philadelphia Livable Neighborhood Project. The project empowers 
individuals to save energy by adopting environmentally sustainable 
practices, and worked with 50 EcoTeams (250 households) in low income, 
urban neighborhoods to achieve energy reductions through energy 
efficiency and conservation. The project resulted in the following 
energy savings: (1) Energy use reduced by 9 percent; (2) transportation 
fuel use reduced by 13 percent; (3) Per household--14,611,472 fewer 
BTUs used for transportation; (4) 117 gallons less transportation fuel 
used per household--equivalent to 105.2 gallons distillate #2 fuel oil; 
and (5) each of 91 households saved $195--Combined $17,745. Emissions 
reductions of CO<INF>2</INF> has been 3,711 pounds. Funds leveraged 
include: (1) $30K SEP funds; (2) $100K City of Philadelphia; and (3) 
$63K PA Department of Environmental Protection, Growing Greener. Other 
savings included garbage reduced by 34 percent and water use reduced by 
27 percent and neighborhood revitalization should lead to business 
development.

Ohio
    The Ohio Energy Office's Residential Batch Test Protocol program 
evaluates the energy efficiency of homes built to the ENERGYSTAR 
standard--key to ensuring the actual delivery of savings to homeowners. 
The testing supported by the program examined the feasibility of a 
sampling approach verifying that homes meet the ENERGYSTAR standard 
rather than more costly mass inspections. This important pilot 
addresses the need for large production builders to find a cost-
effective means of assessing the efficiency performance of the ENERGY 
STAR homes they construct. The resulting homes, built to standard and 
affirmed by the batch test method, will deliver Ohioans an estimated 
total annual savings of over 3,670 million BTUs and savings to the 
homeowners that will exceed $7.5 million.

Texas
    The Texas Energy Office's Loan Star program has long produced great 
success by reducing building energy consumption and taxpayers' energy 
costs through efficient operation of public buildings. For example, a 
recently announced energy efficiency loan to the El Paso Independent 
School District will save more than $60,000 per year in energy costs. 
The loan is in the amount of $444,075 and will be used to install high-
efficiency lighting in schools throughout the district. The loan will 
pay for itself in about seven years, and El Paso will reap the savings 
from the lighting for many years thereafter.
    Since its inception in 1989, the Texas' program has distributed 
more than $163 million in loans to 142 public institutions. So far, the 
Texas Energy Office estimates that the program has saved Texas more 
than $123 million in energy costs, and savings grow every year. Over 
the next 20 years, Texas estimates that the program will save taxpayers 
$500 million. The Texas Comptroller said of the program, ``Energy 
conservation programs like LoanSTAR are important economic tools for 
Texans. When we encourage the efficient use of energy, we save tax 
dollars and help preserve our natural resources.''

New York
    The New York State Energy Research and Development Authority's 
(NYSERDA) Flex Tech program continues to succeed by encouraging energy 
efficiency in commercial and industrial sectors, by providing cost-
shared and objective engineering assistance to increase energy 
efficiency and productivity. With $750,000 per year of SEP funds the 
program provides technical information on energy improvements and 
implementation of energy efficiency. The SEP-funded portion saves 
70,000 barrels of oil equivalent per year, and the entire program saves 
the following: (1) 20,000 mWh of electricity per year = electricity use 
of more than 3,300 households; (2) 5,000 kW peak load reduction per 
year = one-third cost of NGCC plant; (3) 200,000 MMBtu of natural gas 
per year = 195 million cubic feet; and (4) 200,000 MMBtu of oil per 
year = 34,500 barrels of crude oil. Emissions reductions include: (1) 
CO<INF>2</INF> 30,000 tons per year; (2) NO<INF>X</INF> 40 tons per 
year; and (3) SO<INF>2</INF> 80 tons per year. SEP funds leverage $14 
million in capital improvements, $4 million per year of energy and 
operational savings and creates 130 jobs.

                               CALIFORNIA

    The California Energy Commission, Building Energy Code Training 
initiative uses SEP and other funds to save energy through energy code 
training for large production builders, and improves compliance with 
California's Residential Building Energy Efficiency Standards (Title 
24)--with the cooperation and support of California's homebuilders. The 
public-private partnership program provides training in quality energy-
related construction practices (insulation, space conditioning, 
plumbing, etc.) To date, more than 400 builder companies and 3,000 
builder and local building department staff have participated. Before 
the program was implemented, new homes complied with the standards only 
15 percent of the time. Following training, participating builders were 
in compliance 77 percent of the time. The result is 125,000 new 
homeowners have directly benefited in the builder-supported program. 
Results include energy savings of: (1) more than 69 trillion Btus 
annually in energy efficiency or $600,000,000 in reduced electricity 
use, equivalent to nearly 1.7 million households; (2) over 6 years: 388 
trillion Btus or $3.3 billion annually for life of homes = electricity 
use of nearly 9.5 million households; (3) annual consumer savings over 
150 percent of one-time training costs; and (4) total savings = 
production of 2 ``peaker'' power plants. Emissions reductions include: 
(1) CO<INF>2</INF>--101,196 pounds; (2) -SO<INF>2</INF>--7,197 pounds; 
and (3) NO<INF>X</INF>--7,833 pounds.

                               CONCLUSION

    In conclusion we would like to remind the Subcommittee of the 
successes that State Energy Offices deliver to the taxpayer in spite of 
the relatively small federal investment in the program. This modest 
federal investment, through the State Energy Program, is the type of 
success that state-federal energy partnerships can deliver. The states' 
success is based upon our ability to directly meet the needs of 
taxpayers, small business people, farmers, and industry. We are asking 
for $74 million in funding for SEP for fiscal year 2004; a small price 
to pay for success. As Congress and the Administration consider the 
development of a new energy policy, we understand the need to 
prioritize funding. We need to achieve a balance between demand side 
and supply side resources. The programs we discuss today can help us 
address our energy problems, both in the near-term and the long-term.

                                 ______
                                 
         Prepared Statement of the National Mining Association

    The National Mining Association's (NMA) member companies account 
for approximately three-fourths of the coal production in the United 
States, over one billion tons annually, and the vast majority of mined 
minerals including iron ore, copper, gold, silver, uranium lead, zinc, 
and phosphate. The purpose of this statement is to present the mining 
industry's views on fiscal year 2004 programs for the following 
agencies: Office of Fossil Energy, Office of Energy Efficiency and 
Renewable Energy, Energy Information Administration, and the U.S. 
Geological Survey.

                        OFFICE OF FOSSIL ENERGY

    National Mining Association strongly supports the Future Gen 
project recently announced by Secretary of Energy Abraham. The 
integration of coal gasification technology, combined cycle electricity 
generation, hydrogen production and carbon sequestration is an 
important step for our nation's energy future. Over the long term, 
domestic coal can continue to provide the basis for affordable 
electricity and become the basis for affordable hydrogen to use in 
transportation and other uses. When coupled with carbon sequestration, 
America can move rapidly toward energy independence with near zero to 
zero emissions. Although the Department of Energy's (DOE) fiscal year 
2004 budget does not specifically incorporate this project we 
understand that DOE will use unspent dollars from the Clean Coal 
program to help with start up costs. NMA supports reprogramming these 
unspent dollars in this way, but oppose taking dollars that are already 
budgeted for important ongoing research for this program. The results 
of much of the ongoing research in all the coal programs will 
ultimately be used as part of the Future Gen project and should not be 
shortchanged now. As announced, Future Gen will require funding 
participation from the public and private sector. NMA members are 
currently evaluating opportunities to participate in a core group of 
industrial interests that will help fund the private-sector share of 
the project.
    NMA supports the DOE Clean Coal Power Initiative's (CCPI) requested 
level funding of $130 million to continue with the government-industry 
partnerships that demonstrate innovations to allow coal-fueled power 
plants to operate more efficiently and with improved environmental 
performance. We understand that this will be combined with funding from 
the fiscal year 2005 budget into a solicitation so that larger projects 
can be undertaken.
    The Clean Coal Technology Program (CCTP) has been one of the most 
successful cooperative research, development and demonstration efforts 
between the government and industry, due in large part to Congress 
providing it with advanced funding. This financial commitment gave 
lending institutions and industry the confidence to move forward with 
high-risk, innovative projects. The same ``up front'' commitment should 
be considered for the 10-year, $2 billion, CCPI in order to assure that 
the results of the clean coal programs contribute to our nation's 
energy and economic security in a timely and effective manner.
    At the same time, ongoing R&D activities must be maintained and 
expanded to support the greater use of coal while addressing the new 
SO<INF>2</INF>, NO<INF>X</INF> and mercury standards proposed under the 
Clear Skies Initiative. If funding for central system research and for 
the fuels program is reduced, as proposed by the DOE budget, it will be 
more difficult for these technologies to be developed in the time frame 
required. Many of these programs will be used to support Future Gen. We 
support the overall increase in funds for the total coal program (an 
increase over fiscal year 2003 levels) but note that the request is 
still below fiscal year 2002 spending levels. We urge the Congress to 
increase the budget to fiscal year 2002 levels with the increase 
designated for the central systems and fuels programs.
    In particular, NMA supports the increase in research funds 
allocated to the Integrated Gasification Combined Cycle program. We 
understand that much of this increase is due to the fact that the 
dollars previously dedicated to research on Pressurized Fluidized Bed 
Combustion have been transferred to this account. We would support an 
additional increase to this account so that there are sufficient funds 
to cover technology development in both areas. NMA recommends that the 
funding for turbine research be increased from the proposed $13 million 
to at least $20 million. The current budget request is enough to 
maintain existing research, but is insufficient to begin new research 
in this area that is important to coal and all fuels.
    Vision 21 looks to the future where highly efficient power plants 
will continue to use coal and other fossil fuels to provide Americans 
with low-cost electricity and other products. This program is important 
to support the President's long term hydrogen initiative. Vision 21 
will build on and incorporate many of the technologies developed in the 
original Clean Coal Technology program as well as the Clean Coal Power 
Initiative. The work that DOE is proposing for fiscal year 2004 is 
critical if Vision 21 technologies are to be demonstrated by 2015. NMA 
supports funding at, or above, the requests for Vision 21.
    Carbon Capture and Sequestration technologies promise to offer an 
alternative to emitting carbon dioxide to the atmosphere. They are also 
an important part of the President's Future Gen initiative. Most of 
these projects will be a longer term, but research must begin now. NMA 
supports the request for an increase in carbon capture and 
sequestration funding to $62 million as a vital part of any climate 
change initiative.
    Coal Research and Development, Fuels Research.--It is important to 
continue funding for coal preparation and liquefaction technologies as 
advanced coal preparation technologies promise to reduce the cost of 
continued use of coal in traditional applications in large industrial 
and electric utility boilers. It is important to continue the industry 
cost-shared research work on technologies for manufacturing advanced 
carbon-based products. Research in the areas of advanced technologies 
for solid-solid and solid-liquid separations directed toward fuel 
production and use is equally important. The funding for the entire 
solid fuels program has been reduced to $5 million with support for 
solid-liquid separations eliminated entirely. NMA supports restoring 
$4.0 million for advanced separation research and increasing the entire 
solid fuels budget to $15 million.
    NMA supports continued funding of the Steubenville Comprehensive 
Air Monitoring Program (SCAMP) to develop information essential for 
defining the relationship between fine particulate matter (PM) 
concentrations in ambient air and the fine PM concentrations to which 
individuals are exposed. SCAMP is co-funded by the Department of 
Energy, the Ohio Coal Development Office, the National Mining 
Association, the American Petroleum Institute, the Electric Power 
Research Institute, the American Iron and Steel Institute, and CONSOL 
Inc.
    University Research.--The DOE should continue to provide strong 
support for research on mining at the academic institutions. We are 
very pleased to see an increase in direct funding for University coal 
research that will nearly double the fiscal year 2002 spending levels. 
Mining engineering departments continue to consolidate and some are 
closing, due to lack of funding. Thus, diminishing the national 
capability to develop fundamental sciences to improve mining practices, 
and impairing the ability of the universities to train future 
generations of mining engineers. The $5 million requested for 
University research, with the increase dedicated to projects that focus 
on mercury control technologies, is important to support our 
educational system.

            OFFICE OF ENERGY EFFICIENCY AND RENEWABLE ENERGY

    The Mining Industry of the Future Program.--The 58 percent funding 
reduction proposed by the Administration's budget must be rejected and 
funding levels restored to at least the $5.6 million dollar level 
appropriated for fiscal year 2003. The proposed cut to $2.35 million 
would mean that several of the projects already underway would have to 
be halted in mid-stream. No new research projects starts would be 
possible. The research priorities developed through this industry/
government partnership offer important direction to the Department of 
Energy, industry and Congress for a sustainable mining industry in the 
21st Century. Response to the program has been overwhelming. Since the 
program was begun in 1999, 132 proposals totaling nearly $150 million 
have been received--at 50 percent, DOE's cost share would be nearly $75 
million. Clearly there is a need for mining research that is not being 
satisfied as only a portion of these projects could be funded. Of the 
total projects started to date, industry's cost share is just over 55 
percent, or about $36 million.
    In early 2003 five new processing projects led by universities and 
industry were selected from 21 new proposals, bringing the total active 
projects funded to date to 33. Of these, 10 have been concluded or will 
be completed this summer. As these projects wrap-up, the program had 
hoped to get several other R&D-related activities underway. A mining 
and exploration solicitation was issued early in 2003, with the goal of 
selecting new projects by the end of the year. We expect that many of 
the proposals will be in the area of mine safety. If the proposed cuts 
stand, this solicitation can not go forward.
    NMA has incorporated the Mining Industry of the Future program into 
its Mining Climate Action Plan (MICAP) developed in response to the 
Administration's request to industry to voluntarily reduce greenhouse 
gas emissions. The proposed cuts would jeopardize the NMA's efforts in 
this climate plan.

                ENERGY INFORMATION ADMINISTRATION (EIA)

    In addition to its value to the nation, the functions performed by 
the EIA are of significant importance to the mining industry. EIA's 
unbiased analysis and independent short and long-term forecasts form a 
basis for reasoned and responsible policy decisions by the Congress, 
the DOE and other government agencies on both the Federal and State 
levels. EIA's independence and objectivity are especially important as 
governments develop policies to respond to energy price increases and/
or to possible energy shortages. EIA's energy data collection and 
dissemination responsibilities are essential to industry's ability to 
evaluate production and market trends and to make investment decisions 
that accrue benefit to the nation.
    Unfortunately, the quality, consistency and timeliness of the 
underlying data collected and published by EIA--data that provides the 
basis for both industry market analysis and for public policy 
decisions--was bad last year and continues to deteriorate in terms of 
quality, completeness and accuracy. Although the EIA has made 
significant strides in improving their data on coal production, the 
data on the vital electric utility sector continues to be late, 
incomplete and nearly unusable. Consistency in data collection--even on 
a month-to-month basis--is nonexistent. There is no consistency in 
reporting data. For example, the Monthly Energy Review has two 
completely different and seemingly unrelated sets of numbers for coal 
consumption and stocks at utilities. EIA should put the matter of the 
electric utility data base at the top of its priority list. 
Unfortunately the nation is considering a national energy strategy and 
new environmental policies on the basis of this flawed data. While we 
support the current funding levels suggested for EIA, and would 
certainly support an increase, we would urge that the Committee again 
include directions to the EIA to take immediate steps to improve the 
quality of the data collected and published. Sound public policy cannot 
be made if the underlying information used is faulty.

                     U.S. GEOLOGICAL SURVEY (USGS)

    The USGS's role in mineral information exploration, identification 
of geological hazards and mapping offers important support to the 
mining industry. NMA supports maintaining these programs at current or 
expanded levels. In addition, the USGS is the only source for most of 
the United States' statistical data on mining and minerals commodities. 
This information provides the basis for informed policy decisions by 
government and is extensively used by other government agencies, by 
Members of Congress and by State and local governments, as well as 
industry, academia and nongovernmental organizations. NMA opposes the 
proposed $8.1 million reduction of funding for the Mineral Resource 
Program in the fiscal year 2004 budget request. It is already difficult 
to maintain the data quality and timeliness that is so important--not 
just to the industry for market analysis purpose--but to the 
Administration and the Congress when developing and implementing public 
policy. Our nation is becoming more dependent upon foreign sources to 
meet our metals and minerals requirements as exploration and 
development of domestic resources is declining. Development of a 
National Minerals Policy to halt and reverse this trend is vital to our 
nation's economic future and strategic defense. The information 
collected and made available by the USGS will become all the more 
important in future years as Congress begins to consider elements of a 
National Minerals Policy. It is important that it be maintained at 
least at current levels.

                                 ______
                                 
Prepared Statement of the National Research Center for Coal and Energy, 
                        West Virginia University

    Chairman Burns, Ranking Member Dorgan, and Members of the 
Subcommittee: We appreciate the opportunity to offer testimony 
regarding the programs of the Office of Fossil Energy and the Office of 
Energy Efficiency in the Department of Energy. We recommend continued 
strong support for coal programs and restored funding for critical 
elements of the Fossil Energy and Energy Efficiency programs which were 
reduced in the budget proposal advanced by the Administration. Comments 
on specific programs are offered below.

                         FOSSIL ENERGY PROGRAMS

    From an overall perspective, we believe that funding recommended 
for fossil energy research and development is far below the amount 
needed to implement technologies which meet our energy needs, are 
environmentally friendly, and promote our energy security. We urge the 
Subcommittee to find additional funds to support the overall program at 
levels at least as high as the Subcommittee approved for fiscal year 
2002.
    Clean Coal Power Initiative.--Funding for the Clean Coal Power 
Initiative needs to be in excess of $150 million if we are to achieve 
the Administration's ten year goal of providing $2 billion in support 
of demonstrating clean coal technologies. Reducing the fiscal year 2004 
appropriation by $20 million compared to fiscal year 2003 because of 
unspent funds remaining from previous years is detrimental to the 
objectives of this program. Significant investments are made by power 
companies to propose projects which place them at high risk should out-
year funds not be available. We need to know that continued funding 
would be assured and that funds are available in each competition to 
accommodate the large-scale projects necessary to prove new clean coal 
technology at commercial scales.
    Fuels Program.--Funding for the fuels research program in fiscal 
year 2004 has been allocated exclusively to initiate programs for 
hydrogen production from coal. While we applaud the initiation of the 
hydrogen program, we are deeply concerned regarding the proposed cuts 
for research directed toward liquid transportation fuels from coal. 
With automobiles numbering in excess of 200 million and large fleets of 
trucks, aircraft, and marine vessels, we continue to need advanced 
research to develop clean burning fuels for the private, commercial, 
and military transportation sectors. In addition to environmentally 
friendly fuels, we also must increase our energy security and decrease 
our dependence on imported petroleum products. Continued funding is 
also recommended for solid fuels and feedstocks research to improve the 
quality of coal products while reducing the environmental impacts of 
their extraction and use.
    We make the following requests regarding programs in transportation 
fuels and chemicals currently being supported by the Subcommittee:
  --Early Entrance Co-Production Program: Funding for the EECP program 
        should be continued at a level of $3 million in fiscal year 
        2004 to complete research initiated on the WMPI and Texaco 
        projects.
  --Work in Ultra Clean fuels should be continued to complete projects 
        such as the ICRC/Syntroleum program. This program involves 
        developing a small-footprint gas-to-liquids plant with 
        demonstrations in Alaska and Washington, D.C. An additional 
        investment of $4 million is requested to complete this project 
        and harvest the benefits from the $19 million in federal funds 
        invested thus far and which were also matched by a similar 
        investment from the private sector.
  --Funding should be restored to continue the C-1Chemistry program in 
        fiscal year 2004 at the current level of $2 million. Additional 
        funding of $2 million is recommended to initiate advanced 
        research into liquid fuels for military applications.
  --Under the China-United States Bilateral Agreement, we have an 
        opportunity to study the design, construction, operation, and 
        environmental and economic impacts of a large coal-based liquid 
        fuels production facility. We recommend the addition of $0.5 
        million to the international component of the Fossil Energy 
        program to conduct this study. The plant operators in China 
        will provide significant cost sharing with additional cost 
        sharing from the United States side.
    We note that the FutureGen project proposed by the Administration 
has the essential elements to produce liquid fuels, not just hydrogen, 
and urge the Subcommittee to recommend that DOE focus on liquid fuels 
production along with demonstrating advanced coal gasification, 
hydrogen production and carbon sequestration technologies under this 
initiative. We further recommend that Fossil Energy be encouraged to 
develop coal-based programs funded under the Department of Defense to 
address the needs of the military for advanced fuels which meet 
logistical requirements.
    We make the following requests regarding programs in solid fuels 
and feedstocks currently being supported by the Subcommittee:
  --Funding for the Center for Advanced Separations Technology [CAST] 
        should be increased to $4 million to meet mortgages for the 
        current program of research supported by the National Energy 
        Technology Laboratory. According to the 2002 Mineral Commodity 
        Summary, the mining industry contributes 5.6 percent of the 
        Gross Domestic Product of the United States and the major 
        industries further increase the value of these minerals to a 
        total of 17 percent of the GDP.
  --We recommend that funds also be found to initiate programs targeted 
        toward developing advanced mining technologies and training 
        future miners in view of the importance of this activity to our 
        economic development.
  --Funding for the coal extraction program should be continued at a 
        level of $1.5 million in fiscal year 2004. In addition, funding 
        for the Consortium for Premium Carbon Products from Coal should 
        be continued at a level of $1 million. Both of these programs 
        focus on producing useful carbon products from coal, a need 
        which is more critical since many of the traditional sources of 
        carbon feedstocks are unavailable due to the loss of coking 
        ovens associated with steel manufacturing and the need to find 
        alternative carbon sources other than imported petroleum.
    Focus Area for Computational Energy Science.--This program develops 
models and dynamic simulations of advanced energy plants to improve the 
speed and reduce the costs of developing advanced systems. The modeling 
results are applicable to a wide variety of fossil energy technologies 
such as fuel cells, advanced turbines, combustion systems, FutureGen, 
and chemical reactors. We request that the funding for this program be 
restored to the level of $5 million which the Subcommittee supported in 
fiscal year 2002.
    High Temperature Electrochemistry Center.--The High Temperature 
Electrochemistry Center [HiTEC] serves as a primary technology 
underpinning for Fossil Energy's Advanced Energy Conversion Concepts, 
such as FutureGen. HiTEC develops technologies which can resolve 
technology barriers standing in the way of developing the power 
generation systems of the future. This center is supported in the Other 
Power Systems/Distributed Generation Systems element of the Fossil 
Energy program and has been recommended for funding at $10 million by 
the Administration for fiscal year 2004. We request that an additional 
$2 million be added for a total of $12 million to expand the scope of 
this program to include other university participants.
    Innovations for Existing Plants.--Waste management issues 
associated with coal combustion and gasification byproducts require 
continued research to maximize recycle use of coal utilization 
byproducts for various market applications and to facilitate technology 
transfer. We recommend that funding for this line item be increased to 
$3 million [vs. $2,475 Administration request] to provide at least $1 
million for research on the utilization of combustion byproducts.
    Oil and Gas Programs.--The regional Resource Centers funded under 
the Petroleum Technology Transfer Council [PTTC] program provide 
technology and training to many small oil and gas companies throughout 
the nation. The expertise in these centers contributes to important 
programs such as regional carbon sequestration. We recommend that the 
PTTC program be continued in fiscal year 2004 at a level of $3 million. 
We also recommend continuation of the PUMP program.

                       ENERGY EFFICIENCY PROGRAMS

    Industries of the Future.--We are concerned that the fiscal year 
2004 Administration budget request has significantly reduced funding 
for the Industries of the Future program by about 30 percent compared 
to fiscal year 2003. Of particular concern is the drastic reduction in 
funding for the Industries of the Future (Specific) Program. We have 
found that the IOF (Specific) programs enable the energy intensive 
industries to rally together in focal programs which build strong 
partnerships. The proposed cut will severely curtail the Mining IOF 
program. We request that the Industry of the Future (Specific) program 
be restored to the fiscal year 2003 level of $52.3 million.
    FreedomCAR and Vehicle Technologies Program.--As with the Fossil 
Energy programs, we are concerned about the focused investment in 
hydrogen research for fiscal year 2004 at the expense of research in 
traditional liquid fuels. Our nation will use liquid fuels into the 
foreseeable future as we develop hydrogen technologies. It is important 
that we continue investments in liquid fuels. The present budget 
request from the Administration has essentially deleted funding for 
these areas. We should continue work toward developing non-petroleum 
based fuels using feedstocks such as coal. We request that the 
Subcommittee restore funding for Fuels Technology programs to the 
fiscal year 2002 level of $24.65 million. We have a particular interest 
in the following:
  --Non-Petroleum Based Fuels and Lubricants: We request funding for 
        continuing the programs of the National Research Center for 
        Alternative Fuels, Engines and Emissions at a level of $2 
        million in fiscal year 2004.
  --Automotive Lightweight Materials: We request funding for continuing 
        the Metal Matrix Composites program at a level of $1 million in 
        fiscal year 2004.
  --Fueling Infrastructure: There are over 130,000 natural gas vehicles 
        and over 300,000 compressed natural gas cylinders in use. 
        Detailed visual inspection must be performed every three years 
        or 36,000 miles. There are few certified inspectors, and no 
        widely available program to train such individuals. We request 
        funding of $1 million to continue an initiative begun in fiscal 
        year 2003 to develop a Natural Gas Vehicle Compressed Natural 
        Gas Cylinder Safety Inspection and Certification Training 
        program under the leadership of the National Alternative Fuels 
        Training Consortium [NAFTC]. The NAFTC is an organization of 22 
        institutions which provide training in alternative fuel vehicle 
        safety and maintenance. These programs will also be applicable 
        to storing hydrogen fuels.
                            closing comments
    Thank you for the opportunity to offer testimony on these important 
programs. We appreciate the support of the Subcommittee.
                                 ______
                                 

    Prepared Statement of the Petroleum Technology Transfer Council

 PROGRAM SUPPORT FOR THE DEPARTMENT OF ENERGY, OFFICE OF FOSSIL ENERGY 
                    OIL AND NATURAL GAS R&D PROGRAM

    In support of the Department of Energy (DOE) R&D program, this 
letter is to provide background on the Petroleum Technology Transfer 
Council (PTTC) and focus on the need for the continued research 
required in the United States today. Independents continue to drill 85 
percent of the wells in the United States. The 7,000 Independents with 
an average of 12 employees lack the resources, time and money to pursue 
research or spend valuable resources looking for technology related 
information. As with the Agriculture Extension Program, PTTC focuses on 
bringing practical information to producers in a form they can readily 
apply. This provides critical adult education to those out there in the 
field developing new oil and gas reserves. Both programs seek to make 
America stronger through the education of available technology.
    PTTC is a national not-for-profit organization directed by industry 
representatives, primarily independent producers. PTTC was established 
in 1994 to disseminate technology ideas that were proven yet not widely 
accepted across the country to enhance domestic production of oil and 
natural gas. The PTTC program is a cost sharing arrangement with 
Federal funding by DOE, Office of Fossil Energy, through a grant from 
the National Petroleum Technology Office (NPTO) and Strategic Center 
for Natural Gas (SCNG) within the National Energy Technology Lab 
(NETL). Several state governments, universities, state geological 
surveys, and industry provide matching 50:50 cost-share and fully 
participate in the program.
    For U.S. independent oil and natural gas producers, obtaining 
access to cost-effective exploration and production (E&P) technologies 
is an act of survival. With limited technical staffs, independents need 
field-tested and proven, cost-effective solutions to their E&P 
problems. The Petroleum Technology Transfer Council (PTTC) enables 
independents to make timely, informed technology decisions--through 
targeted connections to potential solutions--in its five program lines:
  --Exploration
  --Drilling and Completion
  --Operations and Production
  --Reservoir Management
  --Environmental Concerns
    PTTC functions as the ``Bridge to Solutions'' for independents by 
helping them identify and clarify problems, by educating them about 
options for solutions and opportunities, and by connecting them with 
technology providers. In each of these areas, PTTC disseminates 
information and makes connections via a network of regional resource 
centers at universities and state geological surveys with strong oil 
and gas expertise. The PTTC organization has 13 regional and satellite 
offices in addition to a national office to implement the transfer of 
information.
    Smaller companies and independents play an expanding role as 
primary operators in domestic production of oil and gas due to major 
producers withdrawing from onshore activity. To address the shifting 
production environment, PTTC's most important products and services 
include:
  --Low-cost regional workshops that provide real-world solutions 
        targeted to specific constraints
  --Regional resource centers with technical referral assistance to 
        service companies/consultants and demonstrations of exploration 
        and production software
  --An award-winning national website linked to PTTC's 13 regional and 
        satellite websites and other technical resources
  --Publications and information products including newsletters, 
        technical reports, databases, and case studies
    --National Quarterly Newsletter distributed electronically and 
            hard-copy form
    --Petroleum Technology Digest ``Case Studies'' published in World 
            Oil
    --Tech Connections published in American Oil and Gas Reporter

Technology Transfer Programs Showing Results
    In nearly 10 years of transferring results to thousands of industry 
people, PTTC has achieved its original goals--and gained the widespread 
credibility within the upstream petroleum industry that is vital to 
success. PTTC programs disseminate cost-effective technological 
solutions addressing a wide range of problems--exploration, drilling 
and completion, operations and production, reservoir and development, 
as well as environmental compliance.
    Following are the most important accomplishments in expanding 
industry awareness and technology usage at the national and regional 
level:
  --Technology workshops.--PTTC held approximately 150 workshops last 
        year and plans to hold just as many this year. Cumulatively, 
        more than 37,000 individuals, the vast majority from industry, 
        have attended PTTC workshops since inception. To leverage 
        limited resources, most PTTC events are held with other 
        organizations such as professional societies and state/regional 
        producers associations.
  --Workshops with DOE.--PTTC has sponsored many workshops to transfer 
        the results of DOE programs to independents, including the 
        Technologies for Independents Program. In upcoming events, PTTC 
        actively looks for opportunities to highlight DOE-funded 
        project results in its regional workshop programs.
  --Regional resource centers.--Independents contact their local PTTC 
        resource center for a variety of services: (1) access to 
        information/data resources, (2) expert response to inquiries, 
        (3) demonstration and training for E&P software, (4) 
        information products, (5) help with understanding technological 
        problems and opportunities, (6) access to special purpose 
        databases, and (7) other outreach efforts.
  --E&P Software Training.--PTTC is well respected in producing quality 
        training on software packages that reduce risk and keep 
        marginal well producing for longer periods, thereby gaining 
        more of recoverable hydrocarbons. The courses offered are 
        filled to capacity on a regular basis, which indicates the need 
        is there and relevance is confirmed.
  --Internet websites.--With a national website plus 13 regional and 
        satellite sites, PTTC's electronic network is a key delivery 
        system for oil and gas information, data, case studies, 
        calendars of events, and technical summaries. Industry usage is 
        increasing as the on-line technical content and search 
        capabilities grow.
  --Newsletters.--The 16-page, quarterly national newsletter, PTTC 
        Network News, reaches over 16,000 readers (approximately 65 
        percent are independent E&P companies). Regional newsletters 
        also inform thousands of local producers about technology 
        transfer activities and the results of DOE technical programs.
  --Case Studies/Reports.--PTTC has developed many producer-vendor case 
        studies and are releasing new Petroleum Technology Digest case 
        studies in the World Oil publication on a monthly basis that 
        reaches over 38,000 readers. These success stories from 
        companies that have successfully applied a technology are 
        popular at showing other producers what is working, thereby 
        reducing risk of application for others and increasing 
        widespread usage of solid ideas.
  --Region-Specific Products.--Several regions have developed products 
        specific to local needs, such as the Louisiana Desktop Well 
        Reference on CD-ROM, which provides lease and production data. 
        The West Coast Region is developing templates to assist 
        operators reduce produced water production with the 
        participation of the state of California. This has broad appeal 
        for the entire country. There are many similar examples in 
        other regions.
    Many DOE programs are designed to encourage environmentally 
responsible domestic production from marginal fields operated primarily 
by independent producers. Participation in the form of cost share from 
industry, state budgets and academia provides substantial leverage for 
these programs. But the reality is that federal budgets are under 
strain and even programs with attractive benefits are under great 
scrutiny.
    R&D programs by major producing companies have been significantly 
downsized. The service sector is shouldering more of the R&D 
responsibility but stock market investors force companies to focus on 
short-term results. Investment in the domestic energy sector is 
severely challenged. All factors combine to create an environment where 
technologies appropriate for mature U.S. reservoirs receive inadequate 
resources for development or adaptation. In this environment, there is 
a role for federal funding.
    The federal government balances short-term and long-term objectives 
in providing reliable and affordable energy to consumers across the 
country. In the short term, DOE-supported R&D is making an impact in 
reducing risks for smaller independent operators and many would like 
that work to continue. These projects would not be possible today 
without participation from DOE.
    The role for government in long-term, high-risk R&D investments is 
to ensure new technologies directed at more unconventional resources 
continue to enter the pipeline to commercialization so they are 
available in the future. These projects have significant potential for 
leveraging developing technologies in other industries for application 
in the energy industry. Leveraging extends scarce resources and speeds 
commercialization. Adequate funding is essential to stimulate the 
continued flow of technology into the industry.
    The Petroleum Technology Transfer Council (PTTC) appreciates this 
opportunity to submit testimony on behalf of the fiscal year 2004 
appropriations for the U.S. Department of Energy (DOE). PTTC strongly 
supports Congressional funding for DOE Fossil Energy's Oil and Natural 
Gas Program at a level consistent with the importance of oil and 
natural gas production to the domestic economy. This level, which 
should be equal or higher than fiscal year 2002-fiscal year 2003 
funding levels, is far above the level requested in the 
Administration's budget. Continued strong funding is needed for DOE to 
fulfill its role in securing domestic oil and natural gas production.

                                 ______
                                 
                 Prepared Statement of Plug Power Inc.

    Plug Power urges the Subcommittee on Interior and Related Agencies 
to, at the least, support the President's request of $77.5 million for 
the PEM fuel cell program in the Department of Energy's Energy 
Efficiency and Renewable Energy Office.
    My name is Dr. Roger Saillant, President and Chief Executive 
Officer of Plug Power, Inc., a developer of on-site energy generating 
systems utilizing proton exchange membrane (``PEM'') fuel cells for 
stationary power applications. I am particularly pleased about the 
opportunity to comment on the U.S Department Of Energy Budget. Plug 
Power, our Latham, NY-based company was founded in 1997, as a joint 
venture of DTE Energy Company and Mechanical Technology Incorporated. 
Plug Power's fuel cell systems for residential and small commercial 
stationary applications are expected to be sold globally through a 
joint venture with the General Electric Company, one of the world's 
leading suppliers of power generation technology and energy services.
    Plug Power is very enthusiastic about the attention being paid to 
the impact of fuel cell technology on energy transformation and the 
interest level in Washington. As President Bush emphasized during his 
State of the Union Address, we as a nation currently have an 
opportunity to make a great difference to our economy, to our world 
position, and to the environment. As an auto company executive veteran 
of 30 years experience, who participated in the auto emission, safety, 
and fuel economy improvements, I see parallels in the magnitude of the 
challenges and the scope of the outcomes. First, the auto company 
transition costs were enormous but were forced by regulation. 
Currently, the fuel cell industry in partnership with the U.S. 
Government is trying to facilitate fuel cell based energy 
transformation improvements through R&D and buy-down incentives at a 
significant dollar cost. Second, this upcoming change in our energy 
situation is related to worldwide problems of natural resource 
depletion rates and global environmental degradation. Thus, the United 
States must be a technological leader in the emergence of this economic 
opportunity. And third, going from a centralized distribution model to 
a mosaic of centralized and distributed generation based on fossil 
fuels, wind, biomass, solar, and nuclear will require inspired 
leadership from our government over an extended period of time.

                    STATIONARY FUEL CELL DESCRIPTION

    A stationary fuel cell is an on-site power generation system that 
electrochemically combines hydrogen with oxygen in the air to form 
electricity. The hydrogen fuel can be obtained from readily available 
fuels, such as natural gas or propane, or in the longer term from 
renewable sources. It can also be generated by electrolyzing water with 
low-cost off-peak electricity, or with electricity obtained from 
renewable sources such as solar, wind, or biomass. Fuel cell systems, 
whether for the residential, commercial or institutional markets, 
produce not only electricity, but also heat that can be captured and 
beneficially utilized in these applications (combined heat and power 
[CHP]). This makes such fuel cell systems highly efficient as well as 
environmentally friendly. This is in stark contrast to central power 
plants where generally the heat is not captured or utilized. The heart 
of the stationary PEM fuel cell system is the stack, which is comprised 
of the same technology as is used in most fuel cell vehicle 
applications.

                     STATIONARY FUEL CELL BENEFITS

    Our traditional central generation model for supply of power in the 
United States is failing to meet the needs of a growing economy with 
increasing demand for high-quality power. There are weaknesses in power 
generation, transmission and distribution infrastructure that can best 
be met with the new paradigm of distributed generation: placing the 
generating assets on site, where both the thermal and electric energy 
is needed. Fuel cells will be an important technology component in our 
nation's distributed generation portfolio.
    When operating on a fossil fuel such as natural gas, stationary 
fuel cells using reformers emit less than half the CO<INF>2</INF> (a 
primary ``greenhouse gas''), of a traditional, coal-fired power plant. 
When fueled by hydrogen from a renewable energy source such as solar, 
wind, or hydropower, or if the fuel source is bio-fuel like ethanol 
from plant wastes, CO<INF>2</INF> emissions are net zero.
    Fuel cells can provide highly reliable electricity. Some studies 
estimate that power quality and reliability issues cost our economy as 
much as $150 billion per year in lost materials and productivity alone, 
while others have reported estimates as high as $400 billion per year 
(source: Bear Stearns, April 2000 Distributed Energy, p. 8).
    Fuel cells require hydrogen and oxygen to react chemically and 
produce electricity (and heat) and can therefore use any hydrogen rich 
fuel, or direct hydrogen. This allows fuel cell products to be 
``customized'' for customers' available fuel. It also provides the 
option of renewably generated hydrogen for a fully renewable and zero 
emissions energy system.
    Because fuel cells provide electricity at the site of consumption, 
they reduce the load on the existing transmission and distribution 
system. Siting the fuel cells at the point of consumption also avoids 
the line losses (up to 15 percent) inherent in moving electricity and 
provides an alternative to costly and unattractive traditional power 
lines.
    Because fuel cells make both electric and thermal energy where it 
is needed, the heat can be recaptured in combined heat and power 
applications to attain combined efficiencies of over 80 percent.
    Fuel cell systems are quiet.

          STATIONARY FUEL CELL RESEARCH AND DEVELOPMENT NEEDS

    Our company participated in the Department of Energy road-mapping 
process for the stationary fuel cell program in 2002. During that 
process, it became clear that the number one R&D need from the U.S. 
Government is to cost share component research and development for 
significant cost reductions, as well as life and reliability 
improvements. Additionally, the group suggested that a dedicated 
national laboratory tackle core, pre-competitive R&D issues that are 
beneficial to all of the PEM fuel cell developers.
    Clearly, some fuel cell R&D is crosscutting and has applications 
for both stationary and transportation applications. For example some 
of the basic stack component improvements such as materials, catalysts, 
instrumentation and supporting controls, blowers and pumps, will help 
both applications. In fuel processing, synergies between the 
applications occur as we begin to move to a hydrogen-based system that 
is non on-board. And in the integration of fuel cell systems, some 
subsystem synergies can be co-utilized. We are pleased that the 
Department of Energy recognizes these synergies and has reorganized 
into a more comprehensive program.
    Where the fuel cell stack is concerned, this means critical 
research on both stack and fuel processor involve life and unit cost. 
For stationary applications, weight and size can be greater than in 
automotive applications; however, the life of the fuel cell must be at 
least 40,000 hours compared to an auto fuel cell life need of only 5000 
hours. Ideally, the participants in the development of the fuel cell 
technology roadmap would like to see a 100,000-hour stack life to make 
the fuel cell system akin to other major ``appliances'' in the home or 
building.
    Fuel to feed a stationary stack will be gaseous, such as natural 
gas or propane (or direct hydrogen); therefore, reformer technology is 
very different from onboard vehicular reforming of liquid fuels. 
Research agendas include the need for significant reformer cost 
reduction, as well as life and reliability improvements. Fuel clean up 
is also important and there are hence implications for the fuel cell 
stack and how many ``impurities'' it may be able to accept.
    The integrated system design for the major fuel cell components 
including supporting subsystems (i.e., cooling, water management, etc.) 
depends on the application. Integration and systems architecture are 
very important development needs for fuel cell manufacturers, as is 
manufacturing improvements and research.

            NEED FOR GOVERNMENT R&D AND SYSTEMS INTEGRATION

    Plug Power is enthusiastic about the President's commitment to 
hydrogen and fuel cell technology made evident by his State of the 
Union Address and budget increase. We feel that there is a vital role 
for the U.S. Government, and specifically the Department of Energy, to 
work with industry on pre-competitive research and on systems 
architecture and integration with specific products and applications in 
mind. These efforts begin with a fundamental understanding of the PEM 
fuel cell stack membranes, catalysts, plates, as well as reformer 
fundamentals as they relate to contaminant resistant catalysts and 
hydrogen storage technology. Further, the availability of higher 
quality heat from high temperature (150C to 200C) PEM stacks requires 
fundamental research on stack components and associated systems that 
further increases the value and impact of stationary power systems. 
Another area of high interest is the coupling of hydrogen generation 
for stationary and automotive applications to further increase overall 
efficiency and impact the progress toward widespread fuel cell use and 
greater energy independence. The results of all these efforts are 
universally applicable to fuel cell power systems, speed their 
commercial introduction, and move the United States closer to energy 
independence.
    Pre-competitive research is tough for industry. When I first became 
CEO of Plug Power, I wrote to many of the PEM fuel cell developers with 
a plea that we work together on fundamental research issues that are 
vital to all our interests. This is not something a competitive 
industry will readily undertake. Rather, the government has to take the 
lead in bringing us all together, ensuring that no one's rights are 
infringed upon similar to the Semetech approach used in Austin in the 
late 80's. I feel very strongly that there are ``leapfrog'' 
technologies that will help all of us in the fuel cell industry, while 
helping the United States become a global technology leader in this 
field. We need to work together, with the DOE taking the lead, to find 
those leapfrog advancements. Without this private-public partnership, 
the U.S. industry will fail to develop and will allow another country 
to win the race to lead this industry.
    We urge this Subcommittee to, at the least, approve the President's 
request for an additional $20 Million for the PEM fuel cell program in 
the Department of Energy's Energy Efficiency and Renewable Energy 
Office.

                                 ______
                                 
            Prepared Statement of SAGE Electrochromics, Inc.

    SAGE Electrochromics, Inc., located in Faribault, Minnesota, is a 
developer of energy saving electrochromic (EC) window products and is 
working in partnership with the U.S. Department of Energy (DOE.) We at 
SAGE urge you to recommend a budget level of $7,000,000 for the 
Window's Technologies Program at DOE including $2.5 million for 
electrochromics R&D, engineering and systems integration in fiscal year 
2004 Interior Appropriations.
                  brief description of electrochromics
    An electrochromic window (door or skylight) is a solar control 
device that regulates the flow of light and heat with the push of a 
button. In this way the window tint can be varied from fully colored to 
completely clear or anywhere in between. The electrochromic (EC) 
properties are achieved through vacuum deposited thin films on one of 
the glass surfaces, with the rest of the construction being very 
similar to the standard insulated glass used in millions of homes and 
office buildings.

 THE UNIQUE BENEFITS OF ELECTROCHROMICS AND WHY THEY ARE GOOD FOR THE 
                                COUNTRY

    Industrial and government partners in the DOE EC program are 
performing cost shared research and development that will lead to 
significant energy and cost savings by fundamentally changing the 
nature and function of window products for tomorrow's buildings. 
Significant savings in the cooling and lighting loads can be achieved 
while reducing peak electricity demand. Just as important is the 
ability of EC technologies to improve visual and thermal comfort and 
thereby increase worker productivity and the aesthetics of the home or 
office space.
    Traditionally, adding windows to a building envelope has meant 
reducing energy efficiency because the other materials in the structure 
are much more energy efficient. However, with EC technology, windows 
will become multifunctional energy saving appliances in the home or 
office space and thereby will allow increased use of windows for 
aesthetic reasons. The Lawrence Berkeley National Laboratories (LBNL) 
estimated that the use of EC in average size windows in commercial 
buildings will reduce cooling electricity consumption by up to 28 
percent, lower peak electrical power demand by 6 percent and decrease 
lighting costs by up to 19 percent for the entire building perimeter 
zone.
    In the residential sector, use of electrochromic windows could lead 
to a 65 percent reduction in cooling over the existing installed base 
and a 47 percent reduction in cooling over the best performing glass 
used today--spectrally selective low-E. Heating savings based on the 
weighted average U-value and shading coefficients for the installed 
base and new construction are 61 percent and 31 percent respectively. 
This will be even more important for the customer's bottom line as the 
cost of energy becomes increasingly market driven.
    National energy savings are also impressive. The calculated 
national total energy savings for all market segments due to EC glazing 
adoptions show energy savings of 0.71 quads across all market sectors, 
which translates into total annual national energy cost savings of 
$11.5 Billion. These estimates are based on current EC technology, 
which is expected to improve during the marketing period. Additionally, 
the LBNL estimates do not include the use of occupancy sensors, which 
could substantially reduce cooling costs in the summer and heating 
costs in the winter simply by switching the EC glass to the completely 
darkened or clear states at the appropriate time.
    Although energy and energy-related costs savings are significant, 
additional benefits accrue from using EC technology and may even be 
more important. Reduced fading of fabrics has significant cost impacts 
in many installations. Glare control and greater thermal comfort, as 
well as the ability for full daylighting have been shown to increase 
worker productivity and reduce absenteeism. Ability to change building 
design to take advantage of more window space is a significant 
architectural benefit and may additionally reduce energy use as a side 
benefit. And the EC industry could easily grow to over $15 Billion.

         ADDITIONAL WORK TO BE DONE REQUIRES FURTHER INVESTMENT

    The Department of Energy has supported this research and 
development for the past few years, but insufficient funding has been 
split among a number of players in the industry. Traditionally, 
activities have focused on development of durable electrochromic 
materials and devices for use in building applications. This has moved 
the technology so far; however, it has become clear that the industry 
needs and will cost share pre-competitive research in three areas. 
First, continued materials and basic component research for EC windows, 
which is the principal area funded by the DOE EC program in prior 
years. Second, technology and engineering activities focused on volume 
manufacturing processes for improved performance, yields and 
reliability. And third, systems engineering and applications research 
focused on design, specifications, installation and lifetime of the 
products in building applications.
    In Materials and Components Research and Development, near term 
activities must focus on continued optimization of the device and the 
individual thin film layers further improving optical performance and 
achieving coloration desired by architects and building owners. These 
advancements will be very important to maximize market penetration and 
hence the total national energy savings provided by electrochromic 
windows. Modifications to achieve more rapid switching will be required 
for those applications in which glare must be reduced quickly (e.g. 
workplaces with computer display terminals). Additionally, advanced, 
durable window controls technology must be developed that can 
reproducibly switch EC glazings to appropriate transmission states for 
occupant comfort and/or optimum energy savings.
    With respect to Manufacturing Technology and Engineering, future 
activities should apply basic knowledge developed from the materials 
and components R&D to design for volume production and the 
implementation of in-situ diagnostics for rapidly and automatically 
controlling EC window fabrication processes. Additionally, consensus EC 
window performance requirements must be developed together with 
standards setting organizations and will entail significant testing in 
the initial stage to establish the technical basis for performance 
requirements. Testing needs to include laboratory testing of large 
electrochromic windows under simulated solar irradiation and 
accelerated temperature conditions, and towards the end of 2003, 
extensive outdoor testing in which windows can be exposed to a range of 
real world environmental conditions.
    In Systems Engineering and Application, the DOE program must begin 
initial field trials of EC windows in occupied buildings. The first 
installations will have fairly simple controls and elicit user feedback 
on performance comfort level and other parameters. Multiple window 
control must be developed and demonstrated so we can learn how to tie 
the adjacent windows together for control of the overall space.
    In summary, SAGE Electrochromics, Inc. urges the Subcommittee to 
include $7,000,000 for the Window's Technologies Program at DOE 
including $2.5 million for electrochromics R&D, engineering and systems 
integration in fiscal year 2004 Interior Appropriations. It is obvious 
that with continued public and private partnership, EC research will 
open the door for significant energy and cost savings in the United 
States.
                                 ______
                                 
    Prepared Statement of the Siemens Westinghouse Power Corporation

                       SUMMARY OF RECOMMENDATIONS

    The Siemens Westinghouse Power Corporation believes that energy 
technology R&D is essential to our nation's future and respectfully 
offers the following funding level recommendations in the fiscal year 
2004 DOE Fossil Energy R&D budget for Interior Appropriations:
    High Efficiency Engines and Turbines (HEET).--$24 million: to 
increase university-led research, strengthen advanced materials and 
advanced combustion research.
    Vision 21 Hybrids--Distributed Generation.--$16.5 million: to 
accelerate commercial applications by completing on-going fuel cell and 
hybrid system technology development.
    Innovative Systems Concepts--Distributed Generation.--$43 million 
to fully-fund on-going research for next generation, high power density 
stationary power fuel cell systems (SECA).
    Sequestration R&D.--$62 million: supporting the Administration's 
request.
  --The United States has placed a high priority on developing cleaner 
        more efficient electric power generation technologies;
  --The Administration's 2004 budget proposal correctly recognizes the 
        need for continued investments in fossil fuel R&D in order to 
        meet the increasingly demanding environmental, siting and 
        efficiency demands for new generation technologies;
  --New proposals now being debated in the Congress will significantly 
        tighten environmental standards but today's technologies are 
        unlikely to meet these standards without additional R&D 
        investments;
  --The Administration is addressing the need for advanced energy 
        technologies through initiatives like the Clean Coal Power 
        Initiative and FutureGen, as well as the Freedom Car and 
        Freedom Fuels proposals. Implicit in all of these initiatives 
        is the need to employ our extensive technology capabilities to 
        utilize coal, our most abundant, dependable and least expensive 
        energy source. As we move to develop emerging coal technologies 
        like integrated gasification combined cycle (IGCC) and other 
        stationary fuel cell hybrid turbine applications, advanced gas 
        turbines and stationary fuel cells are certain to play key 
        roles in the U.S. generation supply mix;
  --The National Research Council's recent report on DOE's Vision 21 
        program recommended that ``additional commitments should be 
        made to develop, design and test large scale turbine and fuel 
        cell power systems that can function successfully on both 
        synthesis gas (syngas) and hydrogen: ``The full potential of 
        these cleaner burning and more efficient coal-based generation 
        technologies cannot be achieved without continued investments 
        in advanced gas turbine and stationary fuel cell 
        technologies'';
  --The Administration has correctly recognized the need for continued 
        R&D funding support for the cost shared, industry--DOE gas 
        turbine program. This program has been refocused and renamed 
        the High Efficiency Engines and Turbines (HEET) program but 
        funding has remained essentially flat for several years while 
        the need and program goals have increased;
  --The Administration also continued its R&D investment in stationary 
        fuel cell applications but with the focus now on fuel cell 
        transportation applications, the stationary fuel cell program 
        funding needs have suffered. The proposed 2004 funding level 
        for stationary applications for example is $16 million less 
        than fiscal year 2003. This is despite the widespread 
        recognition that the development of stationary fuel cell 
        applications is necessary before their success in the 
        transportation sector is possible. Successful commercialization 
        of stationary fuel cells should provide key technology building 
        blocks that will be required for the transportation programs to 
        reach the aggressive goals which have been established;
  --As a result, the Administration's stationary fuel cell and turbine 
        program funding commitments fall significantly short of the 
        funding needed for these two key technologies if the United 
        States is to achieve the Administration's laudable 
        commercialization objectives.
    Under the Fuel and Power Systems/Turbines budget line, Siemens 
Westinghouse Power Corp. recommends a 2004 funding level for DOE's 
refocused HEET program of $24 million. While this level is well above 
the Administration's recommendation of $13 million, it is conservative 
when compared to DOE--Stakeholder estimates that the program should be 
funded at the $240 million (i.e. $40 million a year) level over six 
years if we are to achieve the cost reductions necessary for widespread 
market penetration of high-efficiency coal plants.
    Under Distributed Generation/Vision 21 Hybrids we recommend a 
funding level of $16.5 million (of which $11.5 million is for continued 
development of the existing tubular SOFC program). This recommended 
increase is up significantly from the Administration's request of $5.0 
million in order to continue to achieve cost reduction goals necessary 
for commercial market penetration. Past funding shortfalls have 
resulted in the stationary fuel cell R&D program failing behind in its 
commitments and the $16.5 million funding level should enable DOE to 
continue progress toward the aggressive cost reduction targets mandated 
under the Vision 21 program.
    Under the Distributed Generation--Innovative Systems Concepts 
budget line, we also recommend that funding be increased to $43 million 
for fiscal year 2004. This increase is necessary just to maintain DOE's 
previous program contract commitments. The Solid State Energy 
Conversion Alliance or SECA, which this budget line supports, holds 
great promise for delivering an advanced low cost solid oxide 
technology that will make possible smaller and more efficient fuel 
cells for the stationary and transportation markets.

                              GAS TURBINES

    The Department of Energy, in cooperation with industry, funded 
research and development through its Advanced Turbine Program that has 
made the latest generation of gas turbines, in a combined cycle 
configuration, almost twice as efficient as the existing fleet of power 
plants, and with significantly lower emissions. At the same time, 
natural gas turbine based generation technology can also be deployed 
with investment costs that are also among the lowest now available in 
the marketplace.
    The United States is in the process of committing itself to major 
improvements in both the efficiency and the emission levels of coal 
powered power plants under the Administration's Clean Coal Power 
Initiative. It has also committed itself to development of the hydrogen 
economy through the FutureGen, FreedomCar and FreedomFuel programs. We 
can also expect that the FutureGen initiative should result in 
significant improvements in emission and efficiency levels for existing 
coal burning generation facilities while at the same time moving us to 
a new generation of technologies like Integrated Gasification Combined 
Cycle (IGCC). IGCC holds the potential of using the United States' vast 
reserves of cheap and abundant coal in ways that are substantially 
cleaner, more efficient and which will be able to sequester 
CO<INF>2</INF>.
    While the Administration has recognized the important role of the 
gas turbine in preserving future U.S. coal markets by including funding 
for the HEET program in its 2004 DOE R&D budget proposal, the level is 
significantly below the level required to develop critical advanced 
materials, sensors, and combustion technologies. In order to develop an 
advanced turbine suitable for use in advanced generation technologies 
such as IGCC and fuel cell hybrids that operate on natural gas or 
synthetic gas from coal, we recommend that the funding level be 
increased to $24 million. At this level we can continue the needed 
natural gas R&D and accelerate the R&D needed for synthetic coal gas 
applications. Our recommendation reflects the technology needs 
identified by DOE and others and is also consistent with the view that 
the program is an integral and key component of the NEP, the CCPI and 
FutureGen. This increased level of funding will also permit adequate 
support for the Cooperative University Gas Turbine Technology Research 
Program. This program has played a key role in encouraging pre-
competitive basic science program participation by the university 
community and has been a major source of graduate level recruitment for 
the power generation industry.
    Unfortunately, today's advanced gas turbines that use technologies 
developed under DOE's Advanced Turbine Systems program will require 
major technology advances if they are to play the key roles envisions 
by the Administration's initiatives because;
    (1) Today's turbine technologies cannot use the coal-derived 
synthetic fuel gas or high hydrogen content gas produced by 
gasification technology and essential to the Department of Energy's 
FutureGen initiative;
    (2) We do not have the materials available that will permit today's 
machines to operate at the much higher operating temperatures that will 
be required and thus advanced materials such as ceramics will be 
needed;
    (3) We do not have the integrated diagnostic equipment, such as on-
board sensors, to permit the higher levels of reliability needed in 
integrated systems. Thus without significant additional research and 
development in combustion science, advanced real time sensors and 
diagnostics and advanced materials we run the very real risk that other 
advanced technology components could be ready for deployment, but lack 
the key component, the advanced gas turbine.
    Without the research and development investments recommended above, 
the ability of the energy industry to meet the future needs of the 
economy with minimal environmental impact, could be jeopardized. With 
the successful resolution of these and similar technology questions, 
the United States will be able to increase its national energy 
security, lower consumer cost and reduce emissions.

                               FUEL CELLS

    Stationary fuel cell technology has advanced rapidly in recent 
years and is increasingly seen as the stepping stone to more distant 
transportation applications. In particular, fuel cell stationary power 
applications are now a technological reality although their costs 
currently limit their application to niche markets where the high costs 
can be justified.
    The Siemens Westinghouse Pittsburgh-based tubular solid oxide fuel 
cell (SOFC) technology is at a critical pre-commercialization stage 
with continued pre-commercial demonstrations for product development 
required to assure commercial viability. The current focus on cost 
reduction efforts also enables a competitive technology which is 
crucial to the development of high volume manufacturing for 
commercialization. While the SOFC program has resulted in impressive 
cost reductions, additional work on advanced cell manufacturing, 
manufacturing assembly and fabrication technologies is critical to 
achieve the mandated DOE cost reduction targets. To date, our efforts 
have produced a superior technology that has demonstrated the longest 
running fuel cell of any kind, the longest running high temperature 
fuel cell system, and the world's first high efficiency fuel cell/
mircroturbine hybrid, But continued federal support is critical to 
achieving the program's milestones and commitments. To achieve these 
additional cost reductions we recommend a fiscal year 2004 funding 
level for the Vision 21 Hybrids budget line of $16.5 million.
    While the Vision 21 solid oxide fuel cell program is now nearing 
completion, a next generation of fuel cells is also under way. The 
Solid Energy Conversion Alliance or SECA, is being implemented under 
the Innovative Systems Concepts--Distributed Generation Systems budget 
line. SECA will take the technology lessons learned in the Siemens 
Westinghouse tubular SOFC program and apply them to a more advanced 
SOFC program designed to reduce the costs dramatically and make 
possible the widespread deployment of stationary fuel cells in 
stationary, military and transportation markets. This program holds 
enormous potential but at the Administration recommended level of $23.5 
million, it is unlikely to achieve its goals in a timely fashion. We 
recommend therefore that the Innovative Systems Concepts budget line be 
increased to at least $43 million in order to achieve the cost 
reductions necessary to achieve market penetration in the time frames 
currently proposed by the program. Even at the $43 million funding 
level, the program would only meet existing SECA contract commitments.

                           SEQUESTRATION R&D

    The Siemens Westinghouse Power Corporation supports the 
Administration's request for $62 million directed towards carbon 
sequestration. This forward-looking program is expected to culminate in 
the development of a virtually emissions-free generation technology. To 
support this goal, we have defined a concept that uses solid oxide fuel 
cell technology. The technology, known as the Zero Emission 250 kWe 
SOFC combined heat and power system would enable the emissions from the 
power system to be processed in such a way that the CO<INF>2</INF> 
exhaust is separated and captured. Support for this and other advanced 
sequestration technology applications can benefit from the 
Administration's FutureGen initiative.

                                 ______
                                 
               Prepared Statement of the Southern Company

    Mr. Chairman and Members of the Committee: Southern Company 
operates the Power Systems Development Facility (PSDF) in Wilsonville, 
AL on behalf of the U.S. Department of Energy's (DOE's) National Energy 
Technology Laboratory (NETL) and several industrial participants.\1\ 
The PSDF was conceived as the premier advanced coal power generation 
research and development facility in the world and it has fulfilled 
this expectation. I would like to thank this subcommittee for its past 
support for the PSDF and request its continued support. This statement 
is in support of a $13 million increase in DOE's Coal and Power Systems 
budget for the PSDF. The current budget requests $21 million for the 
PSDF in fiscal year 2004; however, $34M is needed to conduct the 
research needed to support the success of FutureGen--The Pollution Free 
Power Plant of the Future--recently proposed by President Bush. The 
major accomplishments at the PSDF to-date and the future test program 
planned by DOE and the PSDF's industrial participants are summarized 
below.
---------------------------------------------------------------------------
    \1\ Current participants include Southern Company, EPRI, Kellogg 
Brown and Root, Siemens Westinghouse Power Corporation, Peabody Energy, 
and the Burlington Northern and Santa Fe Railway Company. Foster 
Wheeler Corporation is a major past participant and Air Products and 
Chemicals, Praxair, Inc., and Pall Corporation among others have 
proposed significant participation in the future. In addition to the 
Wilsonville plant site major work is planned, or components for the 
PSDF are being developed at the following locations: Grand Forks, ND 
(sub-scale gasifier testing), Houston, TX (gasifier development); 
Orlando, FL (gas turbine low-NO<INF>X</INF> burner), Pittsburgh, PA 
(filter fabrication), Allentown, PA and Tonawanda, NY (advanced air 
separation technology); and DeLand, FL (filter fabrication).
---------------------------------------------------------------------------
    A key feature of the PSDF is its ability to test new systems at an 
integrated, semi-commercial scale. Integrated operation allows the 
effects of system interactions that are typically missed in 
unintegrated pilot-scale testing to be understood. The semi-commercial 
scale allows the maintenance, safety, and reliability issues of a 
technology to be investigated at a cost that is an order of magnitude 
below the cost of commercial scale testing. Capable of operating at 
pilot to near-demonstration scales, the PSDF is large enough to give 
industry real-life data, yet small enough to be cost-effective and 
adaptable to a variety of technology research needs.
    In addition, Southern Company supports the overall $60 million 
increase in the President's Coal Research Initiative within DOE's 
Fossil Energy R&D program for fiscal year 2004 recommended by the Coal 
Utilization Research Council (CURC \2\). The goals of the Technology 
Roadmap developed and supported by DOE, the Electric Power Research 
Institute (EPRI) and the CURC are achievable with funding at this 
increased level.
---------------------------------------------------------------------------
    \2\ CURC has over 40 members interested in coal-based energy 
systems including major universities, coal companies, railroads, 
electric generators, and technology suppliers. CURC members also 
include EPRI, the United Mine Workers of America, the Edison Electric 
Institute, the National Mining Association, and the National Rural 
Electric Cooperative Association.
---------------------------------------------------------------------------
    The Roadmap identifies the technical, economic, and environmental 
performance that advanced clean coal technologies can achieve over the 
next 20 years and is included in CURC's testimony presented before this 
committee. CURC believes that over this time period coal-fired power 
generation efficiency can be increased to over 50 percent (compared to 
the current fleet average of 32 percent today) while producing de 
minimis emissions and developing cost-effective technology for carbon 
dioxide management.
    The Roadmap also identifies the R&D cost to achieve this 
performance. From now until 2010 $6.6 billion is needed and over the 
following decade approximately $3.5 billion is needed--a total of $10.1 
billion. About half of these funds will come from industry and half 
from the Federal government. This is a $5 billion Federal investment 
over the next 20 years that can be reasonably projected to return at 
least $300 billion in benefits to U.S. consumers by 2050. EPRI recently 
used the modern financial technique called ``Real Options'' to estimate 
the value of advanced coal research and development.\3\ The major 
conclusion is that the value to U.S. consumers of further coal R&D for 
the period 2007-2050 is at least $360 billion and could reach $1.38 
trillion. But, for these benefits to be realized the critically 
important R&D outlined in the Technology Roadmap must be conducted.
---------------------------------------------------------------------------
    \3\ EPRI Report No. 1006954, ``Market-based Valuation of Coal 
Generation and Coal R&D in the U.S. Electric Sector,'' May 2002.
---------------------------------------------------------------------------
                                SUMMARY

    The United States has always been a leader in energy research. 
Given the concerns for homeland security, adequate funding for fossil 
energy research and development programs will provide this country with 
secure and reliable energy while reducing our dependence on foreign 
energy supplies. Current DOE fossil energy research and development 
programs for coal, if adequately funded, will assure that a wide range 
of electric generation technology options continue to be available for 
future needs. The choices that confront Congress when it examines the 
near-term effects of research programs on the Federal budget are 
difficult. However, significantly increased support for advanced coal-
based energy research is essential to the long-term environmental and 
economic well being of the United States. Prior DOE clean coal research 
has already provided the basis for $100 billion in consumer benefits at 
a cost of less than $4 billion. Funding the Technology Roadmap 
beginning with this year's request of $60 million above the 
Administration's budget request for DOE coal R&D can lead to additional 
consumer benefits of between $360 billion and $1.38 trillion.
    One of the key national assets for achieving these benefits is the 
PSDF. The fiscal year 2004 funding for the PSDF needs to increase to 
$34 million to support construction of new technologies that are 
critical to the success of President Bush's FutureGen program.

                          PSDF ACCOMPLISHMENTS

    The PSDF has developed testing and technology transfer 
relationships with over 50 vendors to ensure that test results and 
improvements developed at the PSDF are incorporated into future plants 
by the systems suppliers. Major subsystems tested and some highlights 
of the test program at the PSDF include:
    Transport Reactor.--The Transport Reactor has been operated 
successfully as a pressurized combustor and as a gasifier in both 
oxygen- and air-blown modes and, as a result has exceeded its primary 
purpose of generating gases for downstream testing. It is now projected 
to be the lowest capital cost coal power generation option while also 
providing the lowest cost of electricity with excellent environmental 
performance.
    Advanced Particulate Control.--Two advanced particulate removal 
devices and 28 different filter elements types have been tested to 
clean the product gases, and material property testing is routinely 
conducted to assess their suitability under long-term operation. The 
material requirements have been shared with vendors to aid their filter 
development programs.
    Filter Safe Guard Device.--To further enhance reliability and 
protect downstream components, a ``safe guard'' device was successfully 
developed that reliably and completely seals off the filter element 
upon filter element failure, thus preventing damage to the combustion 
turbine.
    Coal Feed and Ash Removal Subsystems.--The key to pressurized 
operation is reliable operation of the feed system to the pressurized 
reactor and ash removal system from the reactor and filter vessel. 
Modifications developed at the PSDF and shared with the equipment 
supplier allows the equipment to perform in a commercially acceptable 
manner.
    Syngas Cooler Testing.--Syngas cooling is of considerable 
importance to the gasification industry. Ferrules made of several 
different materials were tested at the inlet of the gas cooler and one 
ceramic material has been shown to perform well in this application.
    Instrumentation.--Several instrumentation vendors have worked with 
the PSDF to develop and test their instruments under realistic 
combustion and gasification conditions.
    Highly Experienced Staff.--In addition to this physical 
infrastructure, a highly experienced staff has been created that has a 
demonstrated ability to solve complex technical problems and rapidly 
move new technologies to commercial applications.

                        PSDF FUTURE TEST PROGRAM

    Future testing at the PSDF is intended to support FutureGen, the 
previously described Technology Roadmap, and the DOE Vision 21 coal 
initiative, which aims to eliminate all the environmental issues that 
present barriers to the continued use of coal. This includes major 
reductions in emissions of SO<INF>2</INF>, CO<INF>2</INF>, 
NO<INF>X</INF>, particulates, and trace elements (including mercury), 
as well as reductions in solid waste disposal and water consumption. 
The focus will remain on the commercialization of these new 
technologies as well as those currently under development at the PSDF. 
Assuming adequate funding the new five-year program at the PSDF is 
planned to include the following activities.
    Oxygen-Blown Transport Gasifier.--Continue the development of the 
oxygen-blown Transport Gasifier to further optimize its performance, 
explore feedstock flexibility and provide syngas for testing of Vision 
21 technologies and FutureGen.
    Air Separation Membranes.--Test advanced air separation membrane 
modules provided by Praxair and Air Products to evaluate membrane 
performance and system integration issues.
    Advanced Synthesis Gas Cleanup.--Test new advanced synthesis gas 
cleanup systems for hydrogen sulfide, hydrochloric acid, ammonia, and 
mercury removal to near-zero levels.
    Solid Oxide Fuel Cell Element Test Skid.--Test a solid oxide fuel 
cell to evaluate performance on coal-derived synthesis gas and identify 
integration issues. Combustion Turbine Burner: Integrate the existing 
3.8 MW combustion turbine with a new synthesis gas burner developed by 
SWPC.
    H<INF>2</INF>/CO<INF>2</INF> Separation Technologies.--Integrate 
and test advanced H<INF>2</INF>/CO<INF>2</INF> separation technologies 
to assess performance on coal-derived synthesis gas.
    Synthesis Gas Cooler.--Test alternative designs that are less 
complex, have lower capital cost, and offer better control of the 
synthesis gas exit temperature.
    Cooler for Char Removal from Gasifier.--Alternatives to current 
screw cooler technology have been developed and will be evaluated and 
tested to improve reliability and availability. New Particulate Control 
Device (PCD) Internals: Evaluate alternative filter internal designs 
from several vendors.
    High-Temperature Valves for Char Removal from the PCD.--Original 
design requirements dictated high temperature char depressurization. 
Developments since startup allow substantially reduced char temperature 
prior to depressurization. Several higher reliability moderate 
temperature valves are available that need to be tested.
    Improved Fuel Feed Systems.--Alternatives to conventional lock 
hopper feed systems have been identified and will be evaluated. The 
results will be applicable to all dry-feed gasifiers.
    High-Temperature Heat Exchangers.--The PSDF has been identified as 
a suitable location for testing of high-temperature heat exchangers 
that can be used in both advanced combustion and IGCC technologies.
    Sensors.--Several vendors have begun testing their sensors for a 
variety of functions, including control of temperature and coal feed 
rate; detection of gaseous species, tar, and dust at low 
concentrations; and detection and continuous measurement of hazardous 
air pollutants.
                                 ______
                                 
    Prepared Statement of the Teachers' Retirement System, State of 
                               California

    Department of Energy.--Elk Hills School Lands Fund: $59 million for 
sixth annual installment of Elk Hills compensation
    Acting pursuant to Congressional mandate, and in order to maximize 
the revenues for the Federal taxpayer from the sale of the Elk Hills 
Naval Petroleum Reserve by removing the cloud of the State of 
California's claims, the Federal Government reached a settlement with 
the State in advance of the sale. The State waived its rights to the 
Reserve in exchange for fair compensation in installments stretched out 
over an extended period of time.
    Following the settlement, the sale of the Elk Hills Reserve went 
forward without the cloud of the State's claims and produced a winning 
bid of $3.65 billion, far beyond most expectations. Under the 
settlement between the Federal Government and the State, the State is 
to receive compensation for its claims in annual installments over 7 
years without interest. Each annual installment of compensation is 
subject to a Congressional appropriation. In each of the past 5 fiscal 
years (fiscal years 1999-2003), Congress has appropriated the funds 
necessary to pay the $36 million installment of compensation due for 
that year.
    Congress should appropriate for fiscal year 2004 the $59 million 
due as the sixth annual installment payment of compensation under the 
settlement that Congress directed the Administration to achieve.
    The Elk Hills appropriation has the broad bipartisan support of the 
California Congressional delegation. Senator Feinstein is the lead 
Senate sponsor. On the House side, the California House delegation has 
sent a letter signed by the entire delegation to the Chairman of the 
House Interior Appropriations Subcommittee strongly supporting the $59 
million appropriation for fiscal year 2004.

                               BACKGROUND

    Upon admission to the Union, States beginning with Ohio and those 
westward were granted by Congress certain sections of public land 
located within the State's borders. This was done to compensate these 
States having large amounts of public lands within their borders for 
revenues lost from the inability to tax public lands as well as to 
support public education. Two of the tracts of State school lands 
granted by Congress to California at the time of its admission to the 
Union were located in what later became the Elk Hills Naval Petroleum 
Reserve.
    The State of California applies the revenues from its State school 
lands to assist retired teachers whose pensions have been most 
seriously eroded by inflation. California teachers are ineligible for 
Social Security and often must rely on this State pension as the 
principal source of retirement income. Typically the retirees receiving 
these State school lands revenues are single women more than 75 years 
old whose relatively modest pensions have lost as much as half or more 
of their original value to inflation.

          CONGRESSIONAL DIRECTION TO SETTLE THE STATE'S CLAIMS

    In the National Defense Authorization Act for fiscal year 1996 
(Public Law 104-106) that mandated the sale of the Elk Hills Reserve to 
private industry, Congress reserved 9 percent of the net sales proceeds 
in an escrow fund to provide compensation to California for its claims 
to the State school lands located in the Reserve.
    In addition, in the Act Congress directed the Secretary of Energy 
on behalf of the Federal Government to ``offer to settle all claims of 
the State of California . . . in order to provide proper compensation 
for the State's claims.'' (Public Law 104-106, Sec. 3415). The 
Secretary was required by Congress to ``base the amount of the offered 
settlement payment from the contingent fund on the fair value for the 
State's claims, including the mineral estate, not to exceed the amount 
reserved in the contingent fund.'' (Id.)

             SETTLEMENT REACHED THAT IS FAIR TO BOTH SIDES

    Over the course of the year that followed enactment of the Defense 
Authorization Act mandating the sale of Elk Hills, the Federal 
Government and the State engaged in vigorous and extended negotiations 
over a possible settlement. Finally, on October 10, 1996 a settlement 
was reached, and a written Settlement Agreement was entered into 
between the United States and the State, signed by the Secretary of 
Energy and the Governor of California.
    The Settlement Agreement is fair to both sides, providing proper 
compensation to the State and its teachers for their State school lands 
and enabling the Federal Government to maximize the sales revenues 
realized for the Federal taxpayer by removing the threat of the State's 
claims in advance of the sale.

   FEDERAL REVENUES MAXIMIZED BY REMOVING CLOUD OF STATE'S CLAIM IN 
                          ADVANCE OF THE SALE

    The State entered into a binding waiver of rights against the 
purchaser in advance of the bidding for Elk Hills by private 
purchasers, thereby removing the cloud over title being offered to the 
purchaser, prohibiting the State from enjoining or otherwise 
interfering with the sale, and removing the purchaser's exposure to 
treble damages for conversion under State law. In addition, the State 
waived equitable claims to revenues from production for periods prior 
to the sale.
    The Reserve thereafter was sold for a winning bid of $3.65 billion 
in cash, a sales price that substantially exceeded earlier estimates.
    proper compensation for the state's claims as congress directed
    In exchange for the State's waiver of rights to Elk Hills to permit 
the sale to proceed, the Settlement Agreement provides the State and 
its teachers with proper compensation for the fair value of the State's 
claims, as Congress had directed in the Defense Authorization Act.
    While the Federal Government received the Elk Hills sales proceeds 
in a cash lump sum at closing of the sale in February, 1998, the State 
agreed to accept compensation in installments stretched out over an 
extended period of 7 years without interest. This represented a 
substantial concession by the State. Congress had reserved 9 percent of 
sales proceeds for compensating the State. The school lands owned by 
the State had been estimated by the Federal Government to constitute 
8.2 to 9.2 percent of the total value of the Reserve. By comparison, 
the present value of the stretched out compensation payments to the 
State has been determined by the Federal Government to represent only 
6.4 percent of the sales proceeds, since the State agreed to defer 
receipt of the compensation over a 7-year period and will receive no 
interest on the deferred payments.
    Accordingly, under the Settlement Agreement the Federal Government 
is obligated to pay to the State as compensation, subject to an 
appropriation, annual installments of $36 million in each of the first 
5 years (fiscal years 1999-2003) and the balance of the amount due 
split evenly between years 6 and 7 (fiscal years 2004-2005).

                  THE MONEY IS THERE TO PAY THE STATE

    The funds necessary to compensate the State have been collected 
from the sales proceeds remitted by the private purchaser of Elk Hills 
and are now being held in the Elk Hills School Lands Fund for the 
express purpose of compensating the State.
    Congress has appropriated the funds necessary for each of the 
previous five annual installments of Elk Hills compensation.

 THE PRESIDENT'S FISCAL YEAR 2004 BUDGET REQUEST FOR THE SIXTH ANNUAL 
                 INSTALLMENT OF ELK HILLS COMPENSATION

    Following payment of the fifth installment of Elk Hills 
compensation for fiscal year 2003 (funds having been appropriated for 
payment on October 1, 2003), the State is owed approximately $144 
million under the Settlement Agreement between the Federal Government 
and the State. The exact final amount of compensation is subject to 
finalization of the respective equity interests of the Federal 
Government and Chevron, the co-owners of the Elk Hills field prior to 
the sale. In accordance with the Settlement Agreement, the 
Administration as part of the fiscal year 2000 budget held back $26 
million from the State's share of the Elk Hills sales proceeds 
deposited in the Elk Hills School Lands Fund, to provide for any 
potential downward adjustment in the Federal Government's equity 
interest. This equity determination process still is being completed, 
some 6 years after the sale. The State is entitled to return of this 
$26 million ``hold-back'' if the final equity determination leaves the 
Federal Government's equity interest unchanged. (If the Federal 
Government's share is increased, the State is entitled to return of the 
holdback as well as 9 percent of the increase.)
    The balance of the Elk Hills School Lands Fund currently stands at 
$118 million, after subtracting this $26 million ``hold-back''. Under 
the terms of the Settlement Agreement, for the sixth installment of Elk 
Hills compensation due for fiscal year 2004 the State is entitled to 
half of the balance of the Elk Hills School Lands Fund that remains 
after the holdback. Thus, the State is entitled to $59 million for the 
sixth installment. (The remainder of the State's 9 percent share of the 
Elk Hills sales proceeds is due in the subsequent, seventh annual 
installment.)
    For fiscal year 2004, the Administration has requested an 
appropriation of $36 million as ``a placeholder for half of the 
estimated balance for years six and seven as required by the settlement 
agreement until final equity finalization [sic.] is complete.'' 
(February 2003 Budget Highlights for the Department of Energy Fiscal 
Year 2004 Congressional Budget Request, at p. 98). See Budget of the 
United States Government--Fiscal Year 2004, Appendix, at p. 383-384. 
The Administration's budget request in effect calls for a second 
``hold-back'' that is contrary to the terms of the Settlement 
Agreement.
    The State respectfully requests appropriation of the full $59 
million that it is due for fiscal year 2004 as the sixth installment of 
compensation under the terms of its Settlement Agreement with the 
Federal Government.

                                 ______
                                 
 Prepared Statement of the United States Advanced Ceramics Association
    The United States Advanced Ceramics Association (USACA) is a 
Washington-based association of major producers and users of advanced 
ceramic products. USACA is the premier association that champions the 
common business interests of the advanced ceramic producer and end-user 
industries.
    USACA appreciates the opportunity to provide the United States 
Senate Appropriations Committee, Interior Subcommittee with our 
industry's statement regarding the fiscal year 2004 Department of 
Energy (DOE) budget request for FreedomCAR and Vehicle Technologies, 
Distributed Energy and Electricity Reliability, Industrial 
Technologies, and Coal Research Initiatives in the Office of Energy 
Efficiency and Renewable Energy (EERE) and the Office of Fossil Energy 
(FE).
    USACA Recommends increased Funding for:
  --$41.7 million.--Materials technologies (freedomcar and vehicle 
        technologies), increase of $2.1M
  --$23.0 million.--Turbines (coal research, central systems), increase 
        of $10M
  --$43.0 million.--Fuel cells (distributed generation systems, SECA), 
        increase of $19.5M
  --$16.5 million.--Fuel cells (distributed generation systems, vision 
        21 hybrids), increase of $11.5M
    USACA Supports the Administration's Request for:
  --$10.7 million.--Heavy vehicle systems (freedomcar and vehicle 
        technologies)
  --$37.1 million.--Advanced combustion engines (freedomcar and vehicle 
        technologies)
  --$31.9 million.--Distributed generation technology development 
        (distributed energy and electricity reliability)
  --$12.7 million.--Industrial materials for the future (industrial 
        technologies)
  --$12.0 million.--Materials (coal research initiative, advanced 
        research program)
    USACA has a long-standing commitment to promoting the use of 
advanced ceramics as the foundation for a new generation of high-
efficiency and high-performance products for surface transportation, 
aerospace, defense, energy, and industrial applications. In order to 
maintain U.S. competitiveness in key areas, increased focus of programs 
in advanced materials is needed, with joint programs and continuation 
of the interagency coordination committee recommended for promoting 
transfer of knowledge at reduced cost.
    USACA supports Department of Energy (DOE) programs in distributed 
power generation, hydrogen, fuel cells, vehicle technologies, 
industrial technologies and coal research, which will lead our country 
on a path to energy independence and infrastructure assurance.

                  FREEDOMCAR AND VEHICLE TECHNOLOGIES

    USACA supports an increase over the budget request from $39.6M to 
$41.7M in this program to provide full funding for the High Temperature 
Materials Laboratory (HTML). This funding increase for the HTML from 
$4.0M to $6.1M, representing a $0.5M increase over fiscal year 2003, 
would support necessary research and development of advanced 
structural, propulsion, and catalyst materials for heavy vehicle and 
automotive applications which may enable significant fuel cell cost 
reductions. Under Materials Technologies, USACA supports the 
administration request for Propulsion Materials Technology ($8.9M) and 
Lightweight Materials Technology ($26.8M).
    High Temperature Materials Lab (HTML) [EE0703].--Over the past 15 
to 20 years, the DOE Oak Ridge National Laboratory High Temperature 
Materials Lab, in conjunction with scientists in the ORNL Metals and 
Ceramics Division, have been at the forefront of advanced materials 
R&D. The HTML, through its collaborative programs with industry, 
national labs and universities has, in our opinion, done the most of 
any government program in expanding the state of the art of advanced 
materials. The U.S. ceramics industry enjoys a technological leadership 
position in part due to these programs. Materials technology, as a 
direct result of ORNL programs, such as Ceramic Technology Project, and 
HTML, now has the potential to be successfully incorporated in power, 
transportation and industrial technologies, as well as other commercial 
and military applications.
    We wish to emphasize the importance of the High Temperature 
Materials Laboratory, which through its research staff, user center, 
and fellowship programs, has provided cost-effective but critical 
support for materials development in energy intensive markets. The 
world-class materials research facilities at HTML have been 
particularly vital to assisting small businesses be competitive and 
technologically innovative. The HTML continues to expand our 
understanding of high temperature materials, vital for improving 
efficiencies in transportation, industrial and power generation 
systems.

             DISTRIBUTED ENERGY AND ELECTRICITY RELIABILITY

    The electrical power generation and distribution industry is 
vulnerable to threats to the Nation's energy security. Distributed 
generation technologies provide opportunity for energy infrastructure 
assurance. In addition, energy efficiency in both production and end 
use is becoming more critical to maintaining a growing national 
economy. Past and continuing technology advances in materials have 
contributed to the production of improved technologies for energy 
efficiency. One example of this is DOE EERE Advanced Microturbine 
Systems, providing distributed power generation typically 30 kW to 
1,000 kW. Microturbines are capable of producing electricity more cost 
effectively at the customer site than the delivered cost of the central 
station. Advanced microturbine designs, using ceramic components that 
can operated at hundreds of degrees hotter than metal components, would 
theoretically boost efficiency from about 25 percent to over 40 
percent. Further efficiency improvements are possible utilizing 
advanced materials concepts in technologies such as fuel cell hybrid 
systems. Solid oxide fuel cell systems, in particular, will be 
dependent on advanced ceramics to realize extraordinary power 
generation efficiencies utilizing high temperature fuel cell/
microturbine hybrids. In addition, advanced materials may provide 
solutions to improve catalysts and hydrogen storage performance.
    Currently, gas turbine power is the most fuel-efficient, cleanest, 
and consumer friendly way to generate electricity. Combined cycle gas 
turbines provide the highest efficiency and lowest emissions of all 
combustion generation technology available today (producing twice as 
much electricity and less than half the CO<INF>2</INF> as compared to 
existing non-gas-turbine power plants). Turbine systems are cost 
effective, and can be quickly deployed to meet the country's growing 
energy needs. The gas turbine industry is currently manufacturing and 
installing these high-tech power plants across the United States to 
reduce the cost of electricity, create new jobs, and stimulate 
investment to support economic development.
    However, America's new energy policy goals require dramatic new 
technology development. The vision of a modern, secure U.S. power 
generation infrastructure that runs on domestic fuels without harming 
the environment is achievable, if the Federal government makes a 
sufficient investment in DOE/industry turbine partnership programs. 
USACA believes the above funding levels are necessary if our nation 
intends to realize the public benefits envisioned in our national 
energy policy.
    DOE showed exceptional initiative and foresight in identifying the 
opportunity for advanced high temperature materials to improve 
efficiency in turbines, microturbines, and fuel cells. We would like to 
work with DOE to include greater opportunities for advanced materials 
research and development in these important programs. The United States 
is committed to reducing reliance on imported oil. Therefore a diverse 
energy infrastructure is needed. Program goals in the areas of 
turbines, microturbines, and fuel cells all seek to contribute to a 
diverse domestic energy portfolio. Research and development in advanced 
materials is necessary in order to improve performance, reduce weight, 
extend equipment life, decrease emissions, increase specific power, and 
decrease fuel use.

                  INDUSTRIAL MATERIALS FOR THE FUTURE

    The Office of Industrial Technologies (OIT) Industries of the 
Future (IOF) process has shown that improved materials are a 
crosscutting need of many industries and one of the keys to cleaner, 
more energy-efficient and productive manufacturing. The mission of the 
DOE Industrial Materials for the Future Program is to lead a national 
effort to research, design, engineer, and test new and improved 
materials, as well as more profitable uses of existing materials for 
the Industries of the Future (IOF). Through this program, significant 
advances have been made in a broad range of advanced materials 
including ceramics and ceramic matrix composites, in addition to 
advances made in materials for the Industries of the Future. These same 
materials have in many cases supported development efforts in gas 
turbines, fuel cells, reciprocating engines, and vehicle technologies. 
While the successful application of ceramic materials to industrial 
applications continues to be limited by their high cost, continued 
support of the Industrial Materials for the Future program is requested 
to insure that price-performance targets are ultimately met.

 COAL RESEARCH INITIATIVES--HIGH EFFICIENCY ENGINES, TURBINES AND FUEL 
                                 CELLS

    The DOE HEET Program is critical to the President's National Energy 
Policy (NEP) Clean Coal Technology goal of ``low-cost, zero emission 
power plants with efficiencies close to double that of today's fleet''. 
The DOE/industry HEET partnership will make it possible for power 
generation equipment manufacturers, as well as systems developers, 
owners and operators to create the core technology solutions necessary 
to overcome the complex challenges identified in the NEP report. The 
HEET Program turbine system efficiency goal is 60 percent for coal-
based systems, and HEET turbo fuel cell hybrid systems that offer the 
potential for unprecedented efficiencies (in excess of 80 percent). The 
HEET near-zero emission environmental goal translates into systems with 
no carbon, and negligible NO<INF>X</INF>, SO<INF>2</INF>, and trace 
contaminants. The program is also targeting a 15 percent reduction 
life-cycle cost of electricity generated by gas turbine power plants.
    Federal cost sharing is needed to enable successful development 
technology improvements envisioned under the HEET, and to expedite 
commercialization of these systems. A $23.0 Million federal 
contribution to the HEET program in fiscal year 2004 will have a direct 
impact on the fuel-efficiency, fuel flexibility and emissions levels of 
America's coal and natural gas fired power plants. Our nation's 
investment in the HEET program will allow the United States to continue 
to serve as the world's principal source for clean turbine power 
generation systems. Added funding is required beyond the 
Administration's request to fund an Advanced Materials Initiative, with 
advanced ceramics components likely to be the key enabling technology 
needed to meet NEP goals. As the leading developer and producer of 
these clean, fossil-fueled power technologies, the United States can 
remain the leader of the international effort to lower global power 
plant emissions levels through technology innovation. Gas turbine 
equipment manufacturers, as well as systems developers, owners and 
operators have already indicated strong interest in working with DOE to 
help reach the HEET program goals. Now, Congress needs to ensure there 
is adequate fiscal year 2004 federal funding ($23 million) to 
facilitate a government/industry partnership that successfully allows 
new HEET technologies to mature in a timely manner.
    Fuel cells hold the potential for clean, efficient energy 
production for both transportation and stationary power applications. 
While the Administration has recognized their potential and increased 
funding focused on transportation applications, near term electric 
power generation fuel cell programs have seen decreases in research 
funding. USACA recommends increasing overall fuel cell funding to $43 
million. Added funding is needed to fully-fund on-going research for 
next generation, high power density stationary power fuel cell systems 
(SECA), with advanced ceramics research critical to their success. DOE 
has identified turbine-fuel cell hybrid systems as a key enabling 
technology for Vision21 Power Systems. USACA recommends increasing 
Vision21 fuel cell hybrids funding to $16 million. Added funding will 
accelerate integration of fuel cell and turbine systems and meeting 
existing obligations to industry cost-shared programs.
    The HEET program, combined with DOE fuel cell program efforts, will 
lead to the required cost reductions needed to ensure the commercial 
viability of these hybrid systems. Gas turbine research is necessary to 
enable the technology to meet the pressure ratios, mass flows, and 
other critical operating and performance parameters of high-temperature 
fuel cells. Ultimately, the program will culminate with the testing a 
near-commercial-scale multi MW Vision21 coal-fired hybrid power system.

                            PUBLIC BENEFITS

    DOE gas turbine R&D Programs stimulate economic growth, clean up 
the environment, and ensure that the United States has a reliable 
supply of power. Implementation of the next generation of advanced 
turbine technology R&D programs will accelerate U.S. market 
restructuring and environmental goals. Armed with new advanced gas 
turbine systems, the U.S. power supply industry will provide America 
with the following benefits:

Reliable Power
    The United States can have technologies that can operate better in 
the dynamic restructured market including technologies able to perform 
``just-in-time'' dispatch without operational or environmental 
penalties. This translates into improved power quality and fewer 
disruptions in power supply. Distributed generation technologies such 
as microturbines and fuel cells greatly increases energy security.
Economic Strength through Improved Power Systems
    Development and accelerated deployment of advanced turbine power 
technologies will reduce the cost of electricity, create new jobs, and 
stimulate investment to support U.S. economic development. The 
expertise American manufacturers gain in producing these sophisticated 
technologies positions our companies for success in growing 
international power generation markets.

Meet Mounting Demand for Increased Power Production Capacity
    United States demand for electrical power is expected to increase 
by nearly 35 percent over the next 20 years. Manufacturing and 
information technology businesses require reliable power generation, 
thus dictating the need for DOE's next generation of R&D programs to 
develop state-of-the-art gas turbines for reliable, low-cost 
electricity.

A Cleaner Environment
    DOE gas turbine programs provide a cost-effective solution for 
clean power. Advanced gas turbine technologies developed through DOE 
programs have much higher efficiencies and lower emissions than 
competing combustion power systems.
Replace Environmentally Deficient, Aging Power Plants
    In today's market, only revolutionary, advanced gas turbine 
technologies provide the economic advantages needed to trigger the 
accelerated retirement of inefficient, environmentally challenged base-
load power plants.
    For further information, please contact Karen Miller, Executive 
Director, the United States Advanced Ceramics Association (USACA) at 
202-293-6253, or by E-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5932343035353c2b192d2d3a362b29773a363477">[email&#160;protected]</a>
                             usaca members
    Amercom/Synterials, Inc; Ceracom, Inc.; COI Ceramics, Inc.; Deere & 
Company; General Electric Company; UT Battelle, LLC; Saint-Gobain 
Ceramics & Plastics, Inc.; Siemens Westinghouse Power Corporation.
                                 ______
                                 

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

          Prepared Statement of the Alaska Native Health Board
    The Alaska Native Health Board (ANHB) submits this statement on the 
fiscal year 2004 Indian Health Service budget. Our fiscal year 2004 
Federal Legislative Priorities paper which we gave to the Subcommittees 
provides more detail than we can include in this four-page testimony. 
In summary, our fiscal year 2004 IHS budget recommendations are:
  --Community Health Aide Practitioner Program--a $7.4 million increase
  --Stop the erosion of the IHS budget by fully funding mandatory 
        increases including pay costs, inflation, and population growth 
        ($360 million)
  --Staffing packages for the health centers at St. Paul ($1.4 
        million), Metlakatla ($2.5 million), and King Cove ($1.5 
        million)
  --Funding to complete construction of the health centers at St. Paul 
        and Metlakatla and the Bethel quarters
  --Funding for the Barrow Hospital planning and site acquisition ($8 
        million) and for beginning funding for replacement of the Nome 
        Hospital
  --Medevac transportation in Alaska--a $2 million increase
  --Patient travel in Alaska--a $2 million increase
  --Increase funding for Contract Health Services
  --Fully fund contract support costs--$60 million increase
  --Support $20 million increase for Sanitation Facilities
  --Distribute the Special Diabetes Program for Indians program via the 
        existing formula
    Community Health Aide Practitioner Program.--We request a $7.4 
million increase for the CHA/P program to be phased in over a 3-year 
period. CHA/P provides emergency and primary health care for 80,000 
Alaska Natives. We request $5 million to increase the number of CHAP 
positions by 115 FTE's, for a total of 615; $1.5 million to increase 
the number of field supervisors; $750,000 to increase state-wide CHA/P 
training capacity; $150,000 for ongoing updates of materials specific 
to the CHA/P.
    Stop the Erosion of the IHS Budget.--Year after year the IHS budget 
is eroded by the lack of funding to fully meet built-in cost increases, 
and the Administration's fiscal year 2004 proposal for the IHS is 
particularly deficient in this area. As evidence of this, the IHS 
projects that its fiscal year 2004 budget proposal would result in 
367,000 less patient visits in fiscal year 2004 than in fiscal year 
2003 (IHS Budget, page 29).
    The proposal for the IHS Services account is only one percent over 
the fiscal year 2003 enacted level. This represents a significant 
erosion of IHS buying power as there is inadequate funding for 
inflation, population growth and pay raises. Some of that one percent 
``increase'' is in fact the $50 million increase in diabetes 
entitlement funding and a projected $7 million increase in third party 
payments. Given the reductions states are making in the Medicaid 
program, we are concerned about tribal Medicaid collection going down, 
and are surprised at the projected increase in collections.
    According to the IHS budget document, tribes and IHS will have to 
absorb $114 million in built-in costs in fiscal year 2004. This is only 
part of the story. The Administration requested only a 2 percent pay 
raise for civilian employees, even though it is expected that Congress 
will approve 4.1 percent pay raise. We appreciate that the fiscal year 
2004 House and Senate budget resolutions support giving civilian 
employees the same level of pay raise as is scheduled for military 
employees and urge the Subcommittee to provide funding to fully meet 
pay raise and other built-in costs.
    We also appreciate the Senate approving an amendment recommending a 
$292 million increase in the IHS budget, but that should be viewed as a 
minimum increase. Just to keep IHS Services at their current level 
would require approximately $360 million increase (inflation, pay 
costs, population growth, staffing for new facilities).
    Medevac Funding.--We request $2 million in recurring appropriations 
through the IHS for Alaska Native tribal health organizations to meet 
the escalating costs resulting from FAA requirements for the use of 
critical care air ambulance services for medical evacuations. This 
service is critical to the delivery of health care in Alaska. As 
evidence of that, the Alaska medevac planes were the first medevac 
services in the nation allowed to resume service following the 
terrorist attacks of September 11, 2001.
    In recent years the cost and number of medevac flights have 
continued to rise. The Alaska Native Medical Center, for instance, has 
seen a 30 percent increase in the number of medevac flights in the past 
four years. During that time the costs increased five fold. A major 
factor has been changes in the FAA requirements regarding use of 
critical care air ambulance services for medical evacuations. In many 
cases now only critical care air services that meet new FAA 
requirements may transport patients that historically have been 
arranged on other aircraft (e.g., transport of patients on oxygen).
    Other Patient Travel.--Funding for patient travel is a critical 
component of health care in Alaska. Individual inability to pay for the 
cost of patient travel, including land, transportation, food and 
lodging results in persons deferring health care. That, in turn, leads 
to more severe compilations that ultimately result in increased cost of 
providing health care. A roundtrip ticket to Anchorage can cost as much 
as $1,600 from some communities. People may have to make the decision 
between health care or food, fuel and other basic necessities. We 
request $2 million in recurring funding for patient travel in Alaska.
Facilities at St. Paul, Metlakatla, Barrow, Bethel and Nome
    St. Paul Health Center.--Congress appropriated $5.5 million in 
fiscal year 2003 for partial construction of the St. Paul Health 
Center--the Administration had requested $11 million in fiscal year 
2003 to complete construction. We ask that Congress provide the 
remaining amount necessary to complete construction. The present clinic 
has many documented physical and environmental deficiencies and is much 
too small to adequately serve the Native and non-Native population. 
While the clinic serves the approximately 900 permanent residents of 
St. Paul Island, it also is the sole source provider of health services 
to 3,000 fishermen during fishing and crabbing seasons. The health 
clinic is not handicapped-accessible, and hallways and doors are very 
narrow. There are only two examination rooms. Due to lack of 
examination space, treatment of patients must also be provided in 
hallways and in the x-ray room. There is little privacy for patients, 
and patient confidentiality is difficult.
    Metlakatla Indian Community Health Center.--Congress appropriated 
$306,000 in fiscal year 2003 for construction of the health center for 
the Metlakatla Indian Community and it also directed that an additional 
$5 million be made available for this health center from savings from 
completed health care facilities. We ask Congress to appropriate the 
necessary amount in fiscal year 2004 to complete construction of the 
Metlakatla clinic and associated quarters.
    Clinic services are currently housed in four modular units that 
were built in the 1970's. The units are set on pilings and are 
connected by open, elevated, wooden walkways. The buildings have 
settled unevenly, posing an unsafe environment for people seeking 
health services. They continue to re-settle, particularly when freezing 
and thawing occurs, resulting in cracked walls and other damage. There 
is an ongoing, and losing, effort to do emergency repairs. 
Additionally, the facilities are overcrowded and the utility systems 
are inadequate to support the modernization or updating of medical 
equipment.
    Barrow Hospital (Arctic Slope Native Association) ($8 million).--We 
request $8 million in fiscal year 2004 funding for the Planning and 
Site Acquisition phase of the project to replace the Samuel Simmonds 
Memorial Hospital (SSMH) in Barrow. This critical facility is the only 
hospital available to residents of an area larger than the State of 
Washington. The single story wood frame building was constructed in 
1965 and most of the major systems in the building are the original 
equipment. It was designed to meet the requirements of a much smaller 
population and now provides less than 25 percent of the space needed to 
provide appropriate medical care for the current population.
    The IHS approved the Project Justification Document and a draft 
Program of Requirements for this project in 1998. The Barrow project 
would cost $104 million when complete and is currently the fourth 
priority for inpatient facility construction on the IHS priority list.
    Nome Hospital (Norton Sound Health Corporation).--We urge Congress 
to move forward to advance the projects on the outpatient priority list 
so that the critical need for an inpatient facility in Nome can be 
proceed. The Nome Hospital is fifth on the IHS outpatient priority 
list--the uncertainty with regard to the plans for the facility in 
Phoenix has unfairly delayed getting IHS funding for the Nome facility 
and perhaps others who are just below Phoenix on the priority list.
    There is an urgent need for replacement or renovation/expansion of 
the severely overcrowded Norton Sound Regional Hospital. Originally 
constructed in 1948 and since expanded, the hospital is filled with 
code violations and safety deficiencies which include unsafe wiring and 
plumbing, lack of fire sprinkler system, inadequate ventilation, and 
structural problems due to foundation movement
    Bethel Quarters.--We request $5 million for the last year of a 
four-year quarters construction project.
    Staffing Packages for St. Paul Health Center, Metlakatla Health 
Center, and King Cove Clinic.--We urge funding for staffing packages 
for new facilities at St. Paul ($1.4 million), Metlakatla ($2.5 
million) and King Cove ($1.5 million). Detailed information on these 
staffing needs have been supplied to the IHS.
    Rural Sanitation Funding.--We give special thanks to Secretary 
Thompson for his support for increasing the IHS sanitation construction 
budget by $20 million, for a total of $114 million. We believe that the 
Secretary's visit to rural Alaska was instrumental in his decision to 
support this increase.
    The IHS estimates that it would cost $960 million to meet the 
current sanitation needs of Alaska Native villages. The future, 
however, holds challenge as well as promise. For example, providing 
water and sewer service to the last 16 percent of households will be 
particularly difficult. In some communities, sources capable of 
producing even a modest supply of water are not available. In very 
small communities, it is hard to overcome diseconomies of scale to make 
water and sewage service affordable.
    Resources to support technical, financial, and managerial capacity 
necessary to operate the systems on an ongoing basis have not been 
proportionately increased. Many of the villages with water sanitation 
projects in place or under construction lack the financial resources to 
ensure their long-term operation and maintenance. With a limited 
economic base to pay for user fees, higher costs of shipping and 
transportation to contend with, and harsh climates and geology, among 
other mitigating factors, support for operation and maintenance is 
critical to assuring long-term success of village sanitation projects.
    Contract Support Costs.--The Administration has proposed no 
increase for IHS contract support costs, even though it is expected 
that new contracts will be entered into during fiscal year 2004. The 
Senate Committee on Indian Affairs, in its March 11, 2003, letter to 
the Budget Committee, reports that 25 new or expanded contracts are 
expected during fiscal year 2004. The estimated unmet contract support 
costs in fiscal year 2003 was approximately $60 million. We believe 
that there is a federal obligation to funds these costs.
    Diabetes.--We thank Congress for reauthorizing the Special Diabetes 
Program for Native Americans and Alaska Natives last year. Funding for 
this program will be $150 million, a $50 million increase over the 
current year. We ask that IHS not award the new $50 million 
competitively, but rather that there be consultation with tribes about 
the use of these funds. Tribes individually need more diabetes funds 
and we would not want to see to entire $50 million distributed outside 
the formula. We point out that Alaska has the highest rate of increase 
in new diabetes cases in Indian country. The rate of diabetes cases in 
the Mt. Edgecumbe Service Unit increased 81 percent from 1985-1999 
(from 22 to 49 per 1,000).
    HHS Consolidation and Reallocation Proposals.--We appreciate that 
Congress rejected in the fiscal year 2003 Appropriations Act the HHS 
proposals to consolidate maintenance and construction funds, and 
legislative and public affairs within the office of the HHS Secretary. 
The fiscal year 2003 Conference Report for the IHS budget specifically 
requires that HHS proposals to consolidate or realign functions that 
affect the IHS be implemented through a reprogramming request approved 
by the Appropriations Committees. Should the Administration push these 
``one HHS proposals'' during fiscal year 2004, we urge that they be 
rejected as they were in fiscal year 2003.
    Thank you for your consideration of our recommendations.

                                 ______
                                 
          Prepared Statement of the Choctaw Nation of Oklahoma

    Halito [Hello] from the Choctaw Nation of Oklahoma to the 
distinguished Members of this Subcommittee and yakoke [thank you] for 
accepting this written statement prepared by the Tribal Members on the 
Choctaw Reservation in Durant, Oklahoma.
    I would like to take this opportunity to express my sincere 
appreciation for the military personnel who are away from home and 
their loved ones. On behalf of my People, I pray that they will have a 
safe and expedient return to their families and to their Homeland.
    The Choctaw Nation of Oklahoma is requesting this Subcommittee 
consider the following funding priorities in the fiscal year 2004 
Budgets for the Indian Health Service and the Bureau of Indian Affairs:

                         INDIAN HEALTH SERVICE

    The BIA and IHS are preparing to re-organize. We are concerned that 
this will come at the expense of diminishing tribal programs and the 
delivery of tribal services. Therefore, we ask that the Subcommittee 
include language directing both the BIA and IHS not to reduce funds 
appropriated by this Subcommittee to offset Departmental or agency 
shortfalls, to support reorganization plans, or trust reform 
initiatives without consulting with Tribal Leadership. This language 
should be included in future appropriations bills for these agencies;
  --Provide $98 million for IHS to fully fund Contract Support Cost 
        (CSC);
  --Restore $4.5 million the Indian Health Service (IHS) Office of 
        Tribal Self-Governance;
  --Provide $360 million for IHS mandatory, inflation and population 
        growth increase to maintain existing health care services;
  --Support the President's budget request for $50 million increase in 
        the Special Diabetes Program for Indians.

                             JUSTIFICATION

    1. $98 million is needed in IHS and an additional $5 million 
increase is needed in BIA to fully fund CSC. This shortfall continues 
to penalize Tribes that elect to operate BIA and IHS programs under the 
self-determination policy. Further, this shortfall threatens to pit 
tribe against tribe as mature contractors are asked to absorb all 
inflationary increases in order to fund new contractors. Additional CSC 
appropriations are needed to implement the self-determination and self-
governance policy as supported by Congress. We urge the Subcommittee to 
fully fund CSC for Tribes similar to how other contractors are funded 
within the federal government.
    2. In fiscal year 2003, a total of $4.2 million was eliminated from 
the Office of Tribal Self-Governance within the IHS budget. We believe 
that this decrease will severely impact IHS's ability to fully 
implement the provisions of Title V of the Indian Self-Determination 
and Education Assistance Act, as amended. The IHS Office of Tribal 
Self-Governance was established in 1996 to advocate and implement the 
Self-Governance initiative within IHS. There are currently 285 Tribes 
(51.1 percent of all federally-recognized Tribes) implementing Self-
Governance agreements. While the number of Self-Governance Tribes has 
and continues to increase, the staff and organizational capacity of 
OTSG has not. Additional funding is needed to increase the OTSG's 
organizational capacity to meet the legal requirements of Title V and 
to protect and advance the Self-Governance initiative.
    3. The Administration's request of $40 million in fiscal year 2004 
is far short of the $360 million needed just to maintain current health 
care services. These costs are unavoidable and include medical and 
general inflation, pay costs and staff for recently constructed 
facilities. IHS and Tribal programs simply cannot afford to continue to 
lose real resources. Mandatories should be the first consideration in 
budget formulation. If unfunded, these cost increases will result in 
further health service reductions in our Tribal communities.
    4. As a result of the special Diabetes Program, today there are 
over 300 diabetes prevention and treatment programs serving American 
Indians and Alaskan Natives. The funding has allowed Tribal governments 
to develop and improve wellness centers, establish education programs, 
and all other activities. It is not only an effective tool in 
preventing and treating diabetes, but it also provides opportunities to 
reduce the incidence of diabetes related blindness, amputations and end 
stage renal disease. We ask that the increase in funding for the 
Special Diabetes Program does not come at the expense of other vitally 
important Indian health services.
    Yakoke!
                                 ______
                                 
     Prepared Statement of the Council of Annette Islands Reserve, 
                      Metlakatla Indian Community
    We are writing to you to bring to your attention, once again, our 
needs with respect to the fiscal year 2004 appropriations.
  --$14,511,000 in IHS funds to complete construction of a health 
        clinic and quarters and $2.5 million in health clinic staffing.
  --Increased funding for the Alaska Community health aide program, 
        Alaska Medevac services and full funding for IHS contract 
        support.
  --$6,000,000 in BIA funds for continuation of the Walden Point Road 
        project.
    Health Clinic, Quarters and Staffing.--We are especially concerned 
that sufficient funding is included in the fiscal year 2004 
appropriations to the Indian Health Service facilities account to 
complete the proposed new Annette Islands Service unit clinic. As you 
are aware the present clinic is housed in obsolete modular units which 
are crowded and deteriorating. Construction of the new clinic project 
has begun with funding provided in fiscal year 2002. In fiscal year 
2003 Congress appropriated $306,000 and directed IHS to apply $5 
million in savings from other projects to proceed with the clinic on 
our reservation. We should, therefore, be in a position to complete 
construction with funding to be provided in fiscal year 2004.
    The Administration has requested $14,511,000 for completion of the 
clinic and eight units of staff quarters in fiscal year 2004. We 
support this request. We understand that IHS has carried out the 
instruction of the Congress to make available $5,000,000 in fiscal year 
2003 funds for clinic construction. Thus the appropriation for fiscal 
year 2004 can be appropriately adjusted. We also request an 
appropriation of $2.5 million to support an increase in staffing of 31 
positions. We greatly appreciate the support of your Committee and the 
Congress for this vital health care project.
    Special Health Program Needs in Alaska.--We also support the 
request of the Alaska Native Health Board for a $7.4 million increase 
to be phased in over three years to increase the Community Health Aide 
program in Alaska and we support full funding for the Indian Health 
Service to cover all built in increases in costs and to keep services 
at least at their current level. We understand that this would require 
an increase of $360,000,000.
    We urge that Congress provide a $2,000,000 increase to cover the 
special need for medevac services in Alaska. This is important 
especially for insular locations such as ours on Annette Island where 
we have no hospital facilities.
    We are concerned that the Administration has requested no 
additional funding for contract support to enable an estimated 25 new 
tribal contracts and self-governance agreements to be award in 2004, 
without diminishing contract support funding available for existing 
self-governance health services programs like ours. We support full 
funding for contract support.
    We urge that in appropriating additional funding for the special 
diabetes program the Congress require the Indian Health Service to take 
account of the relative incidence of diabetes in its various regions 
and consult with tribes on the appropriate manner of distribution. Our 
own incidence of diabetes here at Metlakatla is very high.
    Walden Point Road.--Under a Memorandum of Agreement, dated November 
20, 2000, the Metlakatla Indian Community has worked jointly with the 
Department of Defense (DOD), the Federal Highway Administration (FHWA), 
the Bureau of Indian Affairs, and the Alaska Department of 
Transportation and Public Facilities, on developing the Walden Point 
Road to alleviate isolation and improve public safety and health care 
(emergency medical evacuations must now be all by air). The project, 
when completed, would link Metlakatla to the city of Ketchikan. The 
project is eligible for funding under 23 USC 101 (a) 12 and is listed 
on the Indian Reservations Roads Inventory of the Bureau of Indian 
Affairs (Walden Point Road, Air 7, Sections 30-130 (14.7 miles). The 
Community is seeking $8,850,000 (based on FHWA cost estimates) to keep 
this project on track in fiscal year 2004 from the Federal Highway 
Administration. The Community requests $6,000,000 to continue the 
Walden Point Road project in fiscal year 2004 from the Bureau of Indian 
Affairs.
    Thank you for consideration of our concerns with respect to the 
Indian Health Service and Bureau of Indian Affairs appropriations for 
fiscal year 2004.

                                 ______
                                 
              Prepared Statement of the Hoopa Valley Tribe

    Greetings from the Hoopa Valley Tribe, name is Clifford Lyle 
Marshall and I am the Chairman of the Hoopa Valley Tribe, which is 
located in Northern California wilderness, in a beautiful but 
geologically remote area, economically depressed and with a high rate 
of unemployment. Our people are struggling with poverty, discrimination 
and limited access to health care. The Hoopa Valley Reservation was 
established by an Executive Order in 1864 as a direct result of 
negotiations for a peace and friendship treaty between the Hoopa People 
and the United States Government. More recently, it was one of the 
original ten federally recognized Indian tribes to participate in the 
Self-Governance Demonstration Project.

               THE HOOPA VALLEY RESERVATION DEMOGRAPHICS

    144 square miles of reservation territory. The off reservation 
service area is over 400 square miles. This is a tri-county service 
area consisting of Humboldt, Siskiyou and Trinity Counties.
  --The population (2000) was 2,633
  --Native language: Athabascan
  --Race: 84.7 percent Native American, 11.9 percent White, and 3.9 
        percent Other

                PERSON LIVING BELOW POVERTY LEVEL (1999)
                                [Percent]
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Hoopa, Families............................................         29.0
Hoopa, Individuals.........................................         32.0
Humboldt County, individuals (1990)........................         12.8
State of California........................................         14.2
National...................................................         12.4
------------------------------------------------------------------------


                     HOOPA COMMUNITY HEALTH PROFILE
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Disability status (percent):
     21 to 64 years with a disability.....................     22.7
    Over 65 years with a disability.......................     54.4
Birth Rate:
    Hoopa.................................................     24.7/1000
    United States.........................................     14.6/1000
------------------------------------------------------------------------

Diabetes Health Disparities
  --175 current patients diagnosed as diabetic
  --700 Children 2-19 years of age at risk of developing adult onset 
        diabetes secondary to obesity
    Childhood Obesity is a major health disparity on the Hoopa 
Reservation. Over 64 percent of the Hoopa Valley Reservation is obese. 
The National level is 15 percent, the Hoopa Valley Indian Reservation 
is far over this amount.
    The Governing Board and the Executive Leadership at K'ima:w Medical 
Center conducted a comprehensive analysis regarding the health profile 
of our community and concluded that many significant and alarming 
health disparities are growing. Our people are in desperate need of 
assistance to expand and improve existent services and to create new 
services. We have a long and strong tradition in delivering healthcare 
locally. Exporting health services to urban centers would disrupt the 
continuity of care lifestyle, and would conflict with our cultural 
tradition and will weaken even further our economical infrastructure. 
After a careful consideration, the following four priorities were 
identified as most needed.
    Expansion of healthcare access to include 24-hour emergency medical 
standby.--Our people deserve accessible, prompt and consistent service 
at the most beneficial and necessary time. By extending our hours we 
will provide not only better access, also continuity in time 
comprehensiveness and coordination of care. The cost of increased 
required staffing and operating extended hours is estimated at $635,868 
per year.
    Dialysis Center.--Our community has an above average number of 
diabetic patients on dialysis that we transport three times a week at 
approximately sixty miles distance. We project that the number of 
people in need of dialysis will double in the next five years. In 
order, to start with four stations and expand as needed we estimate the 
need of $1,400,000.00. This will cover the initial cost of equipment 
and startup of the service for one year.
    Ambulance Expansion.--Our service population is dispersed over 400 
square miles, with rugged roads. Maintaining the Ambulance service is 
critical for transporting patients to K'ima:w Medical Center in Hoopa 
or to the next hospital. We need to move the Ambulance to a more 
efficient central location and to replace some of the critical 
equipments. The total level of funded needed to do this is estimated at 
$205,000.00.
    Expansion of the Field Health and Outreach program.--We provide 
continuity of care and education at patients home. Part of the service 
is transporting non-emergent patients to and from K'ima:w Medical 
Center or to specialty visits in Redding or San Francisco. The CHR 
service is essential in assisting elderly with home healthcare. The 
level of funding to expand our service is estimated at $197,000.00 per 
year.
    In order, to increase service to our remote rural area we will need 
$2,437,668.00 in addition to what we are currently funded. Our American 
people are confronted with disproportionate incidence of disease and 
medical conditions, aggravated inadequate funding and worsening 
economical and social environment. Equalizing care and providing 
similar health services available to most Americans is our sacred 
responsibility. Thank you, for your time and consideration, and if you 
have any questions check out our website at www.hoopa-nsn.gov or call 
Emmet Chase at (530) 625-4261.

                                 ______
                                 
         Prepared Statement of the National Indian Health Board

    The President's Indian Health Service (IHS) fiscal year 2004 budget 
request is $2.89 billion, and we are requesting an additional $679 
million to boost clinical services, contract health services, facility 
construction, self-governance programs, and funding to address 
increased pay act costs, population growth, etc.
    The NIHB serves nearly all Federally Recognized American Indian and 
Alaska Native (AI/AN) Tribal governments in advocating for the 
improvement of health care delivery to American Indians and Alaska 
Natives. We strive to advance the level of health care and the adequacy 
of funding for health services that are operated by the Indian Health 
Service, programs operated directly by Tribal Governments, and other 
programs. Our Board Members represent each of the twelve Areas of IHS 
and are elected at-large by the respective Tribal Governmental 
Officials within their regional area.
    As we enter the 108th Congressional session, we call upon Congress 
and the Administration to address the funding disparities that continue 
to hamper Indian Country's efforts to improve the health status of 
American Indians and Alaska Natives. No other segment of the population 
is more negatively impacted by health disparities than the AI/AN 
population and Tribal members suffer from disproportionately higher 
rates of chronic disease and other illnesses.
    The federal responsibility to provide health services to American 
Indians and Alaska Natives reflects the unique government-to-government 
relationship that exists between the Tribes and the United States. The 
importance of this relationship is reflected in the provisions of 
Article I, Sec.  8, clause 3 of the United States Constitution, which 
gives the federal government specific authorities in its dealings with 
Indian Tribes.
    Indian Country has continuously advocated for equitable health care 
funding. Health care spending for AI/AN's lags far behind spending for 
other segments of society. For example, per capita expenditures for AI/
AN beneficiaries receiving services in the IHS are approximately one-
half of the per capita expenditures for Medicaid beneficiaries and one-
third of the per capita expenditures for VA beneficiaries. Sadly, the 
federal government spends nearly twice as much money for a federal 
prisoner's health care that it does for an American Indian or Alaska 
Native. The failure of the federal government to provide equitable 
health funding for American Indians and Alaska Natives reflects a 
tragic failure by the United States to carry out its solemn Trust 
responsibility to American Indian and Alaska Native Tribal governments.
    The greatest travesty in looking at the deplorable health of 
American Indians comes in recognizing that the vast majority of 
illnesses and deaths from disease could be preventable if funding was 
available to provide even a basic level of care. It is unfortunate that 
despite two centuries of treaties and promises, over 1.6 million 
American Indians and Alaska Natives are forced to endure health 
conditions and a level of health care funding that would be 
unacceptable to most other U.S. citizens.
    The President's IHS fiscal year 2004 budget request is $2.89 
billion, an increase of $40 million over the fiscal year 2003 enacted 
amount for the Indian Health Service. Even if the $50 million increase 
for diabetes funding is included the budget request is still over $200 
million short of what is needed to maintain current services. It is 
estimated that a $325 million increase is required provide the same 
level of health care services provided in fiscal year 2003. This amount 
would be sufficient to cover pay act costs, population growth, etc.
    The President's budget includes $114 million for sanitation 
construction, an increase of $20 million over the fiscal year 2003 
Budget Request. This 20 percent increase represents the largest 
increase provided for sanitation construction in over a decade. This 
provision and significant increase is applauded and demonstrates the 
Administration's commitment to providing safe water and waste disposal 
to an estimated 22,000 homes, an increase of 2,600 over the number of 
homes served in 2003. Proper sanitation facilities play a considerable 
role in the reduction of infant mortality and deaths from 
gastrointestinal disease in Indian Country.
    The President's budget request also reflects the $50 million 
increase in the Special Diabetes Program for Indians funding approved 
during the 107th Congress. We are grateful to the Administration and 
Congress for recognizing the success and effectiveness of the Special 
Diabetes Program for Indians as a tool to reduce the incidence and 
harmful effects of Diabetes in Indian Country.
    Health Facility Construction.--The budget includes a total of $72 
million for construction of new health facilities allowing IHS to 
replace its priority health care facility needs with modern health 
facilities and to significantly expand capacity at its most overcrowded 
sites. The request will complete outpatient facilities at Pinon (Navajo 
Reservation, Arizona) and Metlakatla (Annette Island, Alaska); continue 
construction of the Red Mesa Outpatient Facility (Navajo Reservation, 
Arizona) and begin construction of a new outpatient facility to replace 
the Sisseton hospital (Sisseton- Wahpeton Sioux Tribe, South Dakota). 
When the Sisseton hospital is closed, IHS will purchase inpatient and 
emergency care from non-IHS facilities such as the nearby Coteau Des 
Prairies hospital.
    Pay Costs.--The budget includes an additional $35 million to cover 
increased pay costs for IHS's 15,021 FTEs and to allow tribally run 
health programs to provide comparable pay raises to their own staffs.
    The budget documented the IHS health care funding needs at $18.2 
billion. President Bush's proposed appropriation of $2.89 billion falls 
well short of the level of funding that would permit Indian programs to 
achieve health and health system parity with the majority of other 
Americans.
    Failure to adequately increase the Indian Health Service clinical 
services budget will force numerous Tribal health providers to cut back 
services, worsening the plight of an already severely at-risk 
population and jeopardizing greater public health. Staff cuts would 
also result, increasing waiting periods to get appointments, as well as 
reducing clinic hours. Also, without adequate funding, several 
successful programs throughout Indian Country would have to be 
eliminated, such as patient outreach, nutritional programs, preventive 
care, referral services, dental and optometric services.
    Funding for the Indian Health Service has failed to keep pace with 
population increases and inflation. While mandatory programs such as 
Medicaid and Medicare have accrued annual increases of 5 to 10 percent 
in order to keep pace with inflation, the IHS has not received these 
comparable increases. Current Indian Health Service funding is so 
inadequate that less than 60 percent of the health care needs of 
American Indians and Alaska Natives. We request that an additional $292 
million, which represents an additional 10 percent over the President's 
request, be provided to the Indian Health Service to address medical 
inflation, currently at a rate of 12 percent.
    As we have carefully reviewed the President's fiscal year 2004 IHS 
Budget Request, several provisions would seriously affect the agency's 
ability to carry out its responsibilities pertaining to the health and 
welfare of American Indians and Alaska Natives. Below, I will briefly 
discuss several of these provisions.
    The President's Budget Request includes $493 million, which 
provides an additional $25 million or 5 percent increase over the 
previous year's request, for Contract Health Services. The documented 
need for the Contract Health Service Program in Indian Country exceeds 
$1 Billion. At present, less than one-half of the CHS need is being 
met, leaving too many Indian people without access to necessary medical 
services. We recommend an increase of at least $175 million, which 
would raise American Indian and Alaska Native tribes to approximately 
60 percent of need.
    The President's fiscal year 2004 Budget Request includes $271 
million, the same as the fiscal year 2003 enacted budget, to support 
tribal efforts to develop the administrative infrastructure critical to 
their ability to successfully operate IHS programs. Tribal governments 
continue to assume control of new programs, services, functions, and 
activities under Self-Determination and Self-Governance, therefore 
additional funding is needed. Tribal programs have clearly increased 
the quality and level of services in their health systems fairly 
significantly over direct service programs and failing to adequately 
fund Contract Support Costs is defeating the very programs that appear 
to be helping improve health conditions for American Indians and Alaska 
Natives. We recommend an additional $150 million to meet the shortfall 
for current contracting and compacting.
    According to the President's fiscal year 2004 Budget, the number of 
tribally managed IHS programs continues to increase, both in dollar 
terms and as a percentage of the whole IHS budget. Tribal governments 
will control an estimated $1.6 billion of IHS programs in fiscal year 
2004, representing 53 percent of the IHS's total budget request. 
Because of this, it is critical that funding for self-governance be 
provided in a manner reflective of this. Therefore, we feel it is 
necessary to provide $12 million funding over and above the proposed 
amount of $12 million. The enacted fiscal year 2003 budget cut the 
office of Self-Governance funding by 50 percent without any notice to 
tribes.
    The President's budget includes savings of $31 million from 
administrative reductions and better management of information 
technology. The IHS proposes to achieve these savings primarily by 
reducing the use of Federal staff. IHS also plans to reduce 
administrative costs and to achieve efficiencies through the 
development, modernization and enhancement of IHS information systems.
    The National Indian Health Board and Tribal governments have long 
been concerned about ``cost-saving'' provisions contained in the 
President's Budget Request, both in fiscal year 2003 and fiscal year 
2004. The result will be the elimination of potentially hundreds of 
full-time staff at the headquarters and area levels, which would add 
new burdens to the provision of health care to American Indians and 
Alaska Natives, rather than addressing the widespread health 
disparities throughout Indian Country. We feel it is appropriate that 
the President's Management Initiatives not be implemented until Tribal 
governments have the opportunity to develop feasible alternatives.
    The President's fiscal year 2004 budget request for the Department 
of Health and Human Services (DHHS) reflects the priorities of the 
United States with regard to health and safety concerns relating to 
Homeland Security. It reflects the Administration's commitment to 
anticipating future threats to America's public health care, health 
infrastructure and human services systems. It is important to note 
that, along with the Department of Defense and Veteran's Affairs health 
systems, the Indian Health Service occupies a unique position within 
the Federal government as a direct health care provider. Therefore, we 
are requesting $50 million be added during fiscal year 2004 to help the 
Indian Health Service, the Bureau of Indian Affairs and Tribal 
governments prepare for and respond to potential terrorist attacks, 
including increases for Data Systems Improvements and much needed funds 
to expand the capacity of tribal epidemiology centers.
    On behalf of the National Indian Health Board, I would like to 
thank the Senate Appropriation Committee--Interior subcommittee for its 
consideration of our concerns as we strive to improve the health of 
American Indian and Alaska Native people. If we are ever to reduce the 
terrible disparities between the health of American Indians and Alaska 
Natives compared to other Americans, we need to properly fund the 
Indian Health Service and we urge Congress to significantly increase 
IHS funding for fiscal year 2004. IHS and the Tribes are continuing to 
work diligently to develop health systems of sufficient quality and 
with levels of services that our people desperately need.

                                 ______
                                 

                           CULTURAL AGENCIES

   Prepared Statement of the Institute of American Indian and Alaska 
                  Native Culture and Arts Development

    On behalf of the Institute of American Indian and Alaska Native 
Culture and Arts Development (IAIA), our Board of Trustees, students, 
faculty, staff and entire community, we express our enormous gratitude 
for the Subcommittee's past commitment to IAIA. Federal appropriations 
are crucial to the operations, continued success and development of the 
college and museum.

                           SUMMARY OF REQUEST

    IAIA is authorized under Public Law 99-498. Herein, we respectfully 
submit our fiscal year 2004 request, a total of $9.25 million to be 
allocated as follows:
  --$5.25 million, as supported in the President's fiscal year 2004 
        Request, for strengthening operations as IAIA continues to 
        mature into a four-year postsecondary institution and prepares 
        for its first accreditation assessment of new four-year 
        programs; and,
  --$8 million for capital construction, phased in with $4 million in 
        fiscal year 2004 and $4 million in fiscal year 2005 to meet an 
        $8 million federal matching requirement of the W.K. Kellogg 
        Foundation for the development of an international American 
        Indian, Alaska Native and indigenous lifelong learning center.

                              INTRODUCTION

    IAIA, originally established in 1962 by Executive Order of 
President John F. Kennedy, has produced most of North America's most 
illustrious contemporary Indian artists. Founded as a Bureau of Indian 
Affairs (BIA) high school, IAIA's path has been one of steady 
evolution--from a unique high school, sharing quarters with Santa Fe's 
old Indian School, to a federally chartered four-year college, building 
its own campus and operating the American Indian Arts Museum--a 
cultural jewel in historic Santa Fe, NM.
    The Institute's founders championed freedom of expression for 
American Indian artists. Stereotypes were dispelled through bold 
creative expression and for the first time, Indian artists set their 
own artistic standards, becoming empowered by their own voices. From 
this vision, the contemporary Indian art movement was born, enriching 
Indian and non-Indian cultures alike, aesthetically and economically. 
The Institute's success is firmly grounded in the empowerment of 
American Indian and Alaska Native people in their pursuit of higher 
education, economic self-sufficiency, and the continued expression of 
their artistic creativity and cultural traditions.
    IAIA's history has not always been an easy path. The past decade in 
particular presented many difficulties due to leadership turnover and 
severe cuts in federal appropriations. Important programs were 
eliminated, student enrollment suffered and the college endowment was 
severely depleted. As a result, accreditation was threatened.
    IAIA is still working to rebuild its former strength. Through 
dedicated effort it has emerged stronger and more determined than ever 
and has won the hearts of many. A stronger working relationship with 
Congress and the OMB has been established, along with a focused 
concentration on private sector fundraising. Undertaking a design and 
build process as monies were raised for new campus construction allowed 
the Institute to celebrate a grand opening of its new campus in 2000. 
In 2001-2002 another historic landmark was reach--IAIA became a four-
year college and was granted accreditation from the North Central 
Association of Colleges and Schools to offer Bachelor's degrees in 
Museum Studies, Creative Writing, Studio Arts, and Visual 
Communications. In 2002, IAIA celebrated its 40th Anniversary and 
gained national accolades for its history, enormous contributions to 
the larger society, and most importantly, its impact on the thousands 
of Native students it has served.

                 KEY FACTS RELEVANT TO FEDERAL FUNDING.

    Charter.--IAIA is federally chartered by Public Law 99-498. This 
law affirms and acknowledges that Native art and culture are critical 
to the nation as a whole and, consequently deems it appropriate and 
even essential for the federal government to support IAIA in advancing 
the preservation and promotion of Native arts and cultures.
    Mission.--With IAIA's unique authority and charter, its mission is 
to serve as the national center of research, training, language and 
scholarship for Native Americans and Alaska Natives, dedicated to the 
study, creative application, preservation and care of our Native arts 
and cultures. The primary goal of IAIA is to enhance knowledge and 
understanding of the cultural traditions of American Indians and Alaska 
Natives with a special focus on traditional and contemporary Native 
art. To this end, it provides a culturally based curriculum that 
combines professional skills development with an integrated liberal 
arts education.
    Funding.--As a national postsecondary institution, IAIA operations 
are funded through direct federal support and a diversified private 
sector approach to foundations, corporations, tribes, and individual 
donors. It does not receive state support for operations or student 
aid.
    Governance.--IAIA is governed by a board of trustees appointed by 
the President of the United States and confirmed by the Senate, a 
majority of which must be of American Indian and Alaska Native descent.
    Educational Goals.--IAIA's educational goals are to: recruit and 
admit qualified American Indian and Alaska Native students and provide 
them with a Native-centered arts education--graduate students from the 
degree programs with demonstrated artistic and academic competency--
focus on the needs of the individual student by providing an 
environment that encourages independent work, personal growth and 
professional development--strengthen cultural identity--and provide 
awareness of community and cultural diversity.
    Museum.--IAIA's enabling legislation also authorizes funding to the 
IAIA Museum and specifies its dual purpose of education and 
presentation. Its facilities and collections provide hands-on training 
for students and faculty and serve as an outlet to showcase exemplary 
work and ongoing connections with alumni. It provides the Institute 
with a highly visible venue for public relations, education, and 
outreach efforts, attracting over 50,000 visitors annually. It also 
houses 6,500 pieces, comprising the National Collection of Indian 
Contemporary Art and valuable artifacts from BIA collections.
    Campus.--The Rancho Viejo Partnership, Ltd. donated 140 acres to 
IAIA for the establishment of the college's permanent campus. IAIA 
developed the land infrastructure for site development and created an 
impressive master campus plan. The first phase of the new campus, which 
is nearly complete, includes several buildings: Academic and 
Administration, Cultural Center, Student Housing, Student Life Center, 
Facilities and IT Management, and the Library and Technology Center.
    Student Body.--IAIA's diverse student body represents virtually 
every state in the country. Over the years, IAIA has enrolled and 
graduated almost 4,000 members of the 558 federally recognized tribes. 
The student population is 90 percent American Indian and Alaska Native. 
It is relatively young in comparison to other tribal college student 
populations. The majority is need-based, reside on campus, and 
experience phenomenal personal and professional growth from the 
holistic framework and relevancy of the curriculum. Graduates become 
renowned artists or highly respected professionals in tribal 
communities and mainstream society.
    Tuition.--IAIA's tuition rates are similar to other community 
colleges in the Santa Fe area, but is strongly committed to assisting 
its student body access federal and private sources of financial aid.
    Performance Measures.--The college is assessed regularly by 
mainstream accreditation review committees and meets strict evaluation 
standards. It has achieved dual accreditation as a Fine Arts College by 
the North Central Association of Colleges and Schools and the National 
Association of Schools of Art and Design.
    Community Support.--IAIA is strongly supported nationally by tribes 
and Indian education and tribal organizations. This budget request has 
the unanimous support (by resolution) of the American Indian Higher 
Education Consortium, the All Indian Pueblo Council, the National 
Congress of the American Indian, and the National Indian Education 
Association.

Budget Justifications
    After many years as a two-year college, the Institute is now 
transitioning into a four-year college of higher learning. It is in the 
process of fully developing a range of arts and culturally based degree 
programs in art, design, media arts, and digital communications. Along 
with this successful growth it is critical to recognize the challenges 
and additional associated costs, as reported to you in our budget 
requests for fiscal year 2002 and fiscal year 2003. Actual costs of 
core operations, imperative to the four-year designation, were not 
addressed in the fiscal year 2003 budget. Through the implementation of 
an aggressive fundraising campaign, aimed at individuals, corporations, 
tribes, and private foundations, IAIA has increased its private sector 
donations. However, serious challenges exist due to the downturn in the 
economy and stock market, both of which have resulted in substantial 
investment losses for the philanthropic community.
    However, even with diversified and additional private support, it 
has not been enough to adequately supplement federal appropriations in 
addressing ``actual'' costs of operations at the Institute. This has 
forced IAIA to absorb the difference internally, posing serious 
implications for the overall health of the Institute and placing 
additional burdens on an already stringent core budget and over-
stretched staff. Staff and faculty have not received cost of living 
increases over the past three years. Program budgets have been reduced 
by over 10 percent annually and existing staff and faculty are 
absorbing additional responsibilities. This is causing burnout, high 
staff turnover, and a depletion of IAIA's reserve/endowment fund, 
ultimately weakening core infrastructure and budget stability. 
Consistent funding streams and stable core operations are imperative to 
maintaining accreditation standing and essential to continued progress 
and success. This situation must be addressed before the next 
accreditation review in 2004. Our budget request represents the minimum 
amount necessary to address infrastructure needs, stabilize operations 
and meet other accreditation standards and criteria.

Continuing Education Lifelong Learning Center
    The emergence of adult learners as a major constituency in American 
higher education has been one of the most dramatic changes in the 
United States in the past 25 years. Since the 1970s, major commissions 
have been established to examine lifelong learning. Their 
recommendations and findings present significant research and evidence, 
which have led to a national education agenda with a high priority on 
comprehensive lifelong learning. As a result, the Kellogg Foundation 
has established continuing education centers throughout the world, 
demonstrating their commitment to creating comprehensive lifelong 
learning models across all levels and groups of people. However, while 
Native populations have not been considered in this dialogue or agenda, 
they have some of the highest educational needs in this country.
    Through a competitive process the W.K. Kellogg Foundation recently 
selected IAIA as the designated site for the very first continuing 
education center to serve American Indian, Alaska Native and indigenous 
peoples worldwide. Planning, construction and development costs are 
projected at $22 million. The Kellogg Foundation awarded IAIA a lead 
gift of $2 million for planning, which requires a federal match of at 
least $8 million for an additional $8-10 million award from the 
Foundation. Federal cooperation is essential to the success of this 
initiative. It will exemplify a national model of excellence in 
reaching the primary goal of President Bush's Executive Order on Tribal 
Colleges and Universities--federal and private engagement in supporting 
American Indian higher education. The Institute is fully committed to 
planning for the sustainability of the Center and diversifying initial 
construction and start-up costs by engaging private, federal, state, 
and tribal partners, as the following chart specifies:

                     BREAKDOWN OF FUNDRAISING GOALS
                        [In millions of dollars]
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Kellogg Initial Planning Award and Lead Gift...............           2
Federal Sector.............................................           8
New Mexico State Legislature...............................           2
American Indian Tribes.....................................           2
Kellogg Matching Award.....................................           8
                                                            ------------
      Total................................................          22
------------------------------------------------------------------------

    We have shared information about the Center with the key leaders in 
the Congress, federal agencies, White House, New Mexico State 
Legislature, and tribes, indigenous communities, organizations, and 
other potential national and international partners. The response has 
been incredibly favorable, as there is a collective vision that the 
Center will allow for an exponential increase in quality lifelong 
educational opportunities for our people and indigenous populations 
across the world. Our goal is to ensure that the Center will empower 
and better equip Native people to take their rightful positions in all 
aspects of the changing global society.

                               CONCLUSION

    Last year IAIA celebrated 40 years of artistic excellence. Through 
a tireless dedication of IAIA's staff, faculty, trustees, as well as 
the critical support of President Bush, Congress, foundations and many 
individuals, we have achieved great things. This success has positioned 
the Institute to truly become a nationally prominent, internationally 
respected four-year institution of higher education. We appeal to you 
to provide the necessary support to IAIA's hard-earned momentum. The 
federal resources specified in our budget request are essential to the 
future of the Institute of American Indian Arts. Thank you for your 
serious consideration and continued support.

                                 ______
                                 
       Prepared Statement of the American Association of Museums

    Chairman Burns, Senator Dorgan and distinguished members of the 
Subcommittee, the American Association of Museums (AAM) is pleased to 
submit testimony concerning the fiscal year 2004 budgets of the 
National Endowment for the Arts (NEA) and the National Endowment for 
the Humanities (NEH).
    The American Association of Museums (AAM), headquartered in 
Washington D.C., is the national service organization that represents 
and addresses the needs of the broad range of the museum community to 
enhance their ability to serve the public. AAM disseminates information 
on current standards and best practices and provides professional 
development for museum professionals to ensure that museums have the 
capacity to contribute to life-long education in its broadest sense and 
to protect and preserve our shared cultural heritage. Since it's 
founding in 1906, AAM has grown to more than 15,800 members across the 
United States--over 10,000 individual museum professionals and 
volunteers, nearly 3,000 institutions, and 2,300 corporate members.
    The museum community has enjoyed a positive and productive working 
partnership with both the NEA and NEH for many years. Whether they have 
worked in conjunction with the Institute of Museum and Library Services 
or on their own, the contributions of the NEA and NEH to the vitality 
of America's museums and the public services they provide to our 
communities can not be underestimated. These two agencies have provided 
invaluable support to America's museums since their inception, and we 
fully support them and the good work they do for the American people.
    Consequently, we view the proposed fiscal year 2004 budgets for the 
NEA and NEH with a mixture of optimism and disappointment. We 
appreciate the Administration's strong support for the National 
Endowment for the Humanities and fully support the President's request 
of $152 million for NEH in fiscal year 2004 but we are disappointed by 
the decision to keep NEA funding essentially flat at $117.5 million.
    As the committee knows, the core of the NEH request is an increase 
of $25 million to expand a special initiative begun last year entitled 
We the People. We fully support this initiative which is designed to 
advance understanding of American history, culture, and civics. We 
believe, however, that the arts are as integral to American history, 
culture and civics as the humanities and we are disappointed the 
administration chose not to reinforce the power of We the People by 
providing additional funds to the National Endowment for the Arts to 
help broaden public access to and understanding of our rich artistic 
heritage as well.
    We recognize that we are in the midst of a national crisis both at 
home and abroad and that difficult budget decisions need to be made, 
but we urge the committee to consider the economic, educational and 
social return even a modest increase in the federal investment in the 
arts and humanities would bring to the people we all serve.
    It would be incorrect to suggest that artistic and cultural events 
would cease without funding from the federal government. However, we 
are convinced that America would not have the rich, diverse and vibrant 
artistic community we have in this country if it were not for the 
support both large and small organizations have received from the NEA 
over the last 35 years. The recognition that comes from being awarded 
NEA grant funding is invaluable to an organization. It helps them 
leverage additional private support--NEA requires grant recipients to 
match all awards up to a ratio of four to one--that allows 
organizations to continue to grow and mature long after the federal 
money is gone. Dollar for dollar, private funding simply cannot match 
the impact of even a modest amount of government funding. Even leaving 
aside the educational and social value of strengthening the federal 
investment in the arts, both of which are substantial, the economic 
value speaks for itself. The nonprofit arts industry alone generates 
$53.2 billion annually in economic activity, supports 2.09 million jobs 
and returns $5.6 billion to the federal government in income taxes. NEA 
seed money has helped make this possible.
    In his testimony before the committee on March 13, NEA Chairman 
Dana Gioia stated that one of his five primary goals for the NEA was to 
``reclaim its leadership role in American culture.'' He said, the 
Endowment:

    ``. . . must enter a new era, confident of its civic 
responsibilities in a society overwhelmed by commercialized electronic 
mass entertainment. The NEA must enlarge the conversation of American 
public life to include the arts. It must promote, preserve, and 
celebrate the best of our culture, old and new, classic and 
contemporary. It must reacquaint America with its own best self.''

    For, as he so rightly put it, ``nothing less is worthy of our 
nation.''
    A budget of $170 million would enable the NEA to take important 
strides towards reclaiming its leadership role and expand its ability 
to support and promote creativity in the arts in America. In addition, 
a $170 million budget allows the endowment to fully fund the Challenge 
America initiative. By fully funding this initiative, the Arts 
Endowment can use the program's vast potential through grants for arts 
education, youth-at-risk projects, cultural preservation, community 
arts partnerships and improved access to the arts for all Americans, to 
use the strength of the arts to enhance America's communities.
    Mr. Chairman, the simple fact is that culture is what defines, 
builds and binds our communities. In cities and towns across America 
one finds numerous examples of arts, culture and the humanities being 
used as educational tools, economic engines, sources of civic pride, 
and catalysts for fostering a greater sense of community identity and 
multicultural understanding. To ensure that America continues to have a 
strong, vibrant, and viable artistic and cultural community that future 
generations can enjoy and learn from tomorrow requires a prudent and 
forward thinking investment in our artistic and cultural institutions 
today. We ask the committee to make that investment and support a 
budget of $170 million for the NEA for fiscal year 2004.
    We also ask the committee to support the administration's request 
of $152 million for the National Endowment for the Humanities. The NEH 
plays an important role in the American experience. In fact, the 
humanities are essential to democracy. They are the basis for reasoned 
discourse and make possible the shared reflection, communication, and 
participation upon which democratic society depends. In his testimony 
to the committee on March 13th, NEH Chairman Bruce Cole made a very 
compelling case for supporting the NEH's budget request for fiscal year 
2004. He said:

    ``At this critical time, it is urgent that Americans understand the 
principles, events, and ideas that have defined our past and shape our 
future. Democracy, unlike other forms of government, is not self-
perpetuating. Its principles and practices must be cultivated in order 
to be transmitting and sustained.''

    Yet numerous studies and reports show that students in K-12, and 
even college, have a poor, or at best confused, understanding of our 
nation's history and the ideals and principles of democracy upon which 
it was founded. The NEH is well positioned to help redress these 
deficiencies.
    The NEH is the largest single funder of humanities programs in the 
United States, enriching American intellectual and cultural life 
through support to museums, archives, libraries, colleges, 
universities, state humanities councils, public television and radio, 
and to individual scholars. Continuing this support is critical to 
addressing the nation's future needs in education. With more than two-
thirds of our nation's K-12 curriculum dedicated to the humanities, 
including subjects such as reading, literature, history and civics, 
continuing this support is crucial to addressing our nation's needs in 
education and correcting the problem of ``American amnesia'' as 
Chairman Cole put it.
    NEH's impact, however, reaches beyond the classroom and lecture 
hall by engaging the public in the humanities through exhibits in 
museums, libraries, and historical organizations; the varied programs 
of the state humanities councils and a variety of other activities. In 
a recent national public opinion survey, almost 9 out of 10 Americans 
(87 percent) said museums are one of the most trustworthy sources of 
information among a wide range of choices. This high level of trust can 
in part be attributed to the careful research that goes into developing 
museum exhibitions and programs. NEH grants, in addition to being 
invaluable in supporting efforts to preserve and protect our vast 
cultural, historic, and artistic resources held in trust for the 
American people in our museums, are also invaluable in supporting 
efforts to research those treasures and put them into historical 
context. An object or artifact without context tells no story and 
teaches nothing.
    As with the NEA, a modest investment through the NEH produces rich 
dividends. NEH seed money for high quality projects and programs, and 
NEH's reputation for scholarly excellence, leverages millions of 
dollars in private support for humanities projects and brings the 
humanities alive for millions of Americans each year--from the youngest 
students to the most veteran professors to men and women who simply 
strive for a greater appreciation of our nation's past, present, and 
future.
    Federal support for the humanities has historically received 
bipartisan support in Congress, from the Endowment's creation in 1965 
to the present day. Every American President has said that the 
humanities play an essential role in American life and are worthy of 
federal support and this administration is no exception, as evidenced 
by their strong support for the We The People initiative. We strongly 
support this program and the NEH in general and ask the committee to 
fully fund the administration's budget request of $152 million for 
fiscal year 2004 for this extremely valuable agency.
    Mr. Chairman, we firmly believe that the NEA and the NEH are both 
wonderful resources and leaders for the American people in their 
respective areas. The museum community is proud to partner with both 
agencies to provide high quality programs and services for the people 
we all serve.
    The NEA and NEH are not the same entities they were almost a decade 
ago. The agencies have reformed and refocused their programs on serving 
public and community needs. It is the time to reward these efforts and 
give the Endowments the resources to fully embrace this new phase of 
their history, particularly at a time when all Americans need to 
understand the principles of their own and others' cultures in greater 
depth. Additional funding would enable the agencies to enhance and 
increase their public service activities as well as expand the reach of 
new and innovative programs and help the agencies rebuild their 
technology and internal administration after years of essentially 
stagnant budgets.
    We of course recognize, Mr. Chairman, that you and your colleagues 
are under intense pressure to balance the funding needs of the many 
worth programs under your jurisdiction. We would ask you though to 
consider carefully the good work being done by the NEA and NEH for the 
American people and do what you can to fund these urgently needed 
increases.

                                 ______
                                 
              Prepared Statement of Americans for the Arts

    Americans for the Arts is pleased to submit written testimony to 
the Senate Appropriations Subcommittee on the Interior in support of 
fiscal year 2004 appropriations for the National Endowment for the Arts 
at an increased funding level of $170 million, with the increase used 
to support the creation, preservation, and presentation of the arts and 
for the Challenge America initiative.
    Americans for the Arts is the nation's leading nonprofit 
organization for advancing the arts. With a 40-year record of objective 
arts industry research, it is dedicated to representing and serving 
local communities and creating opportunities for every American to 
participate in and appreciate all forms of the arts.
    Local arts agencies comprise our core constituency. As important 
grantees of the National Endowment for the Arts (NEA), local arts 
agencies are entrusted public stewards of government funds for the 
arts. An increase in funding for the NEA means more grants for local 
arts agencies to utilize as they increase Americans' access to the arts 
at the local level and improve communities by stimulating economic 
development and improving community life. An increase in NEA funding 
would create increased funding for local arts agencies to continue 
their vital role in community building.

LOCAL ARTS AGENCY TRENDS--THE KEY TO COMMUNITY DEVELOPMENT THROUGH THE 
                                  ARTS

    A local arts agency is a private community organization or local 
government agency that supports cultural organizations, provides 
services to artists or arts organizations, and/or presents arts 
programming to the public.
    For 15 years, local government arts funding has been growing 
steadily, staying ahead of inflation and even showing growth during the 
recession years of the early 1990's. This year, however, we saw the 
first aggregate decrease in local government funding for the arts in 
more than 15 years, to an estimated $771 million--a drop of about 3.5 
percent.
    Local arts agencies continue to expand the role of the arts in 
their communities by using the arts to address social, educational, and 
economic development issues. Nearly all of them collaborate with 
community organizations or local government agencies to integrate the 
arts more fully into their community and to assist those agencies in 
achieving their missions, e.g., economic development departments to 
develop cultural districts, chambers of commerce to attract new 
businesses, parks and recreation departments to create after-school 
programs, convention and visitor bureaus to increase cultural tourism, 
and police departments to prevent crime.

Arts & Economic Prosperity
    In 2002, Americans for the Arts released the results of a national 
economic impact study measuring the nonprofit arts industry in 91 
American communities during 2000-2001. The diverse communities range in 
population (4,000 to 3 million), geography (Anchorage to Miami), and 
type (rural to large urban). Local arts agencies-public and private 
organizations working to increase community access to and participation 
in the arts-served as local research partners, collecting detailed 
expenditure data from 3,000 nonprofit arts organizations (full range 
from theater to museums) and 40,000 audience members. The project 
economists, from the Georgia Institute of Technology, customized input/
output analysis models for each of the 91 communities to provide 
specific and reliable economic impact data about their nonprofit arts 
industry.
    The Arts & Economic Prosperity study documents in unprecedented 
scope and detail the key role played by the nonprofit arts industry in 
strengthening our nation's economy. It dramatically alters the 
perception that the arts are luxuries--worth supporting in prosperous 
times but hard to justify when the economy is struggling. At a time 
when governments at all levels are making tough budget choices, this 
study sends an important message--that support for the arts does not 
come at the expense of economic development. In 1994, Americans for the 
Arts published its first economic impact study and the results from 
that study became the most frequently used statistics in Congress and 
other arenas to demonstrate the value of the arts to our communities, 
our states, and our nation. In 2000, we set out to update those numbers 
with a new and larger study. Not only did we want to measure the impact 
of spending by nonprofit arts organizations, but also to quantify the 
economic impact of event-related spending by their audiences.
    By all measures, the results are impressive. The nonprofit arts 
industry generates $134 billion in economic activity every year--$53.2 
billion in spending by arts organizations and an additional $80.8 
billion in event-related spending by arts audiences. This economic 
activity has a significant national impact. This economic activity 
supports 4.9 million full-time equivalent jobs--a greater percentage of 
the U.S. workforce than is employed as accountants, lawyers, 
physicians, or computer programmers. America's nonprofit arts industry 
also generates $24.4 billion in federal, state, and local government 
revenues combined annually. By comparison, federal, state, and local 
governments collectively spend less than $3 billion on support for the 
arts each year-a financial return of more than 8-to-1.
Growth of the Nonprofit Arts Industry since 1994
    The nonprofit arts are a growth industry in the United States. 
Spending by arts organizations increased from $36.8 billion in 1992 to 
$53.2 billion in 2000 (45 percent).

Measuring Ancillary Spending of Nonprofit Arts Audiences
    The nonprofit arts, unlike most industries, leverage significant 
amounts of event-related spending by their audiences. Attendance at 
arts events generates related commerce for local businesses such as 
hotels, restaurants, and retail stores. For example, when patrons 
attend a performing arts event, they may park their car in a toll 
garage, purchase dinner at a restaurant, eat dessert after the show, 
and return home and pay the babysitter. This spending generated an 
estimated $80.8 billion of valuable revenue for local merchants and 
their communities in 2000--an average of $22.87 per person, per event, 
not including the price of admission.

Cultural Tourism: Out-of-Towners Spend More
    In addition to spending data, survey respondents were asked to 
provide their home zip codes, enabling researchers to determine which 
attendees were local (i.e., reside within the county in which the event 
occurred) and which were non-local (reside outside the county). Local 
attendees spent an average of $21.75 per event, while non-local 
attendees spent $38.05 per event (74.9 percent more). As would be 
expected, travelers spent significantly more in the categories of 
lodging, meals, retail, and transportation. These data demonstrate that 
when a community invests in the arts, it stands to harness significant 
economic rewards.

                         NONPROFIT ARTS ATTENDEES SPEND AN AVERAGE OF $22.87 PER PERSON
                                      [Not Including the Cost of Admission]
----------------------------------------------------------------------------------------------------------------
                                                                                   Non-resident
                       Category of expense                         Resident \1\   \1\  attendees     All arts
                                                                     attendees                       attendees
----------------------------------------------------------------------------------------------------------------
Meals and Refreshments..........................................           $9.99          $15.12          $10.33
Souvenirs and Gifts.............................................            3.49            4.01            3.51
Transportation..................................................            2.39            5.74            2.63
Overnight Lodging (one night only)..............................            2.13            7.80            2.55
Other...........................................................            3.75            5.38            3.85
                                                                 -----------------------------------------------
      Total Per Person Spending.................................           21.75           38.05          22.87
----------------------------------------------------------------------------------------------------------------
\1\ Residents live in the county in which the event took place; non-residents live outside the county.

    When governments reduce their support for the arts, they are not 
cutting frills. They are under-cutting a nonprofit industry that is a 
cornerstone of tourism and downtown revitalization. When governments 
increase their support for the arts, they are generating tax revenues, 
jobs, and the creative energies that underlie much of what makes 
America so extraordinary.
    This message is equally important for the private sector to hear. 
The nonprofit arts, unlike most industries, leverage significant event-
related spending by their audiences, with non-local audiences spending 
75 percent more than their local counterparts. The arts attract 
visitors downtown and extend the business day: restaurants add dinner 
service, garages stay open until midnight, and stores draw more 
customers.
    When we hear talk about reducing support for the arts, we should 
ask: Who will make up for the lost economic activity? Who will attract 
tourists to our community? Who will vitalize our downtowns seven nights 
per week? Who will provide the 8-to-1 return on investment that the 
arts provide to federal, state, and local treasuries? Who will replace 
the jobs that the arts support? The expression, ``the arts mean 
business,'' is an economic reality that can no longer be dismissed.

Impact of NEA Grants on the Economy
    Federal arts grants administered by the National Endowment for the 
Arts are required to be matched by the private sector or with state and 
local government funds. As a result, NEA grants help leverage 
additional funds, which significantly contribute to our nation's robust 
economic nonprofit arts industry. NEA's matching requirement also 
provides incentives for state and local governments, as well as private 
donors, to maintain or increase their level of funding support.
    As important NEA grantees, local arts agencies are key local 
partners to the federal government in improving community life, from 
offering after-school arts education programs to generating economic 
development through increased tourism, urban renewal, and attracting 
new businesses. We urge this subcommittee to make a commitment to 
support community building and to secure the economic growth of the 
nonprofit arts industry by appropriating $170 million for the National 
Endowment for the Arts.
                                 ______
                                 
  Prepared Statement of the Association of American Universities, the 
     American Council on Education, National Association of State 
                  Universities and Land-Grant Colleges

    The Association of American Universities, the American Council on 
Education, and the National Association of State Universities and Land-
Grant Colleges appreciate this opportunity to submit for the record 
testimony in support of the National Endowment for the Humanities 
(NEH). Through our combined memberships, our associations represent 
virtually all of the public and private research universities in the 
country--institutions that educate large numbers of the nation's 
undergraduate and graduate students and conduct the bulk of the 
country's basic research and scholarship. We respectfully request that 
the Subcommittee provide the President's request of $152 million for 
NEH in fiscal year 2004.
    The fiscal year 2004 request represents an increase of $27.1 
million (21.6 percent) over fiscal year 2003 and would be the first 
significant increase in over a decade. The increase would be dedicated 
to the ``We the People'' history initiative announced by the President 
on September 17, 2002. The goal of the initiative is to deepen 
Americans' knowledge and understanding of our national heritage. 
Because all divisions and programs would be eligible to participate in 
the initiative, more funds would be available for ongoing core 
programs--a goal long supported by our three associations. The ``We the 
People'' initiative will also involve an expansion of the NEH Summer 
Seminars and Institutes program, and enhanced support for American 
Editions and Reference Works, fundamental scholarly resources for 
understanding our identity as a nation.
    Given current world events and the war on terrorism, it is more 
important than ever that Americans have a good understanding of 
history. Several surveys over the last few years have emphasized both 
students' and the public's lack of knowledge about our nation's 
history.
  --A recent National Assessment of Education Progress test found that 
        more than half of high school seniors thought that Germany, 
        Italy or Japan was our ally in World War II.
  --A Columbia Law School survey found that 35 percent of voting-age 
        Americans thought that Karl Marx's dogma, ``From each according 
        to his ability, to each according to his needs,'' was in the 
        United States Constitution. Another 34 percent responded that 
        they weren't sure.
    These findings highlight the need for the ``We the People'' 
initiative. University students all too quickly become working young 
adults, and their assumptions and attitudes are carried over into 
society at large. As NEH Chairman Bruce Cole has stated, ``The 
principles of democratic self-government cannot be affirmed unless they 
are understood and remembered. Surely we diminish our young people's 
lives and weaken our nation if students do not learn how the society in 
which they live came to be.''
    Many of NEH's projects support efforts to preserve and expand our 
knowledge and understanding of our history and culture. Such projects 
are unlikely to be funded by any single state or institution because of 
their scale and magnitude. Only an agency like NEH, with its federal 
funds and broad vision can support such projects, which include 
bibliographies, encyclopedias, and the preservation of papers of great 
leaders, such as presidents George Washington, Ulysses S. Grant, and 
Dwight Eisenhower, and the papers and writings of Frederick Douglass, 
Benjamin Franklin, Elizabeth Cady Stanton, Lewis and Clark, Thomas 
Edison, and Mark Twain. NEH has also supported educational television 
documentaries such as Ken Bums's The Civil War, The West, and Jazz, and 
biographical films on Theodore Roosevelt, Woodrow Wilson, Charles 
Lindbergh, and George C. Marshall.
    History and culture is brought alive in other ways as well. At the 
University of Virginia, NEH grants have helped to support the ``Valley 
of the Shadow'' project (http://www.iath.virginia.edu/vshadow2n), an 
archive of documents, images, maps and records for two communities, one 
Northern and one Southern, during the Civil War. The project is a 
hypermedia archive of thousands of sources for the period before, 
during, and after the Civil War for Augusta County, Virginia, and 
Franklin County, Pennsylvania. Those sources include newspapers, 
letters, diaries, photographs, maps, church records, population census, 
agricultural census, and military records. Students can explore every 
dimension of the conflict and write their own histories, reconstructing 
the life stories of women, African Americans, farmers, politicians, 
soldiers, and families. The project is intended for secondary schools, 
community colleges, libraries, and universities. Shepherding and 
nurturing such efforts--in essence, preserving our heritage--is the 
government's trust and must remain at the federal level.
    NEH support often leverages state, local, and private philanthropic 
investment and increases public engagement with the humanities. The 
imprimatur of NEH funding, awarded on the basis of merit as determined 
by rigorous peer review, has a multiplier effect, increasing public 
participation in humanistic endeavors and attracting additional funds. 
NEH challenge grants require $3 or $4 in matching funds for each 
federal dollar, thereby generating more than $1.2 billion in nonfederal 
support for U.S. libraries, colleges, museums, and other eligible 
institutions.
    MATRIX, the Center for Humane Arts, Letters, and Social Sciences 
Online at Michigan State University, is one example of a project 
leveraged through NEH support. MATRIX is devoted to the application of 
new technologies in humanities and social science teaching and 
research. In addition to serving MSU and its faculty and academic 
units, MATRIX is the home of H-Net, which houses and supports over 100 
interactive listservs edited by scholars in North America, Europe, 
Africa, and the Pacific. MATRIX has received a very high level of 
external funding from federal grant agencies such as NSF, NEH, Ford, 
Mellon, USAID, and has very high on- and off-campus visibility, which 
includes international recognition and extensive collaborations with 
other countries, especially in western and southern Africa. Its members 
collaborate extensively with other disciplines, including those outside 
of the humanities. Notable academic accomplishments include projects 
providing educational access (e.g. for women in Africa), content for 
schools (e.g. Civics on-Line), and educational outreach (work with off-
campus groups from other countries and local school districts). Further 
information can be found at http://www.matrix.msu.edu/newmatrix.
    The creation of knowledge is one of the central missions of 
research universities. It permeates the institutions in ways seen 
nowhere else. NEH funds humanities research that may not be immediately 
accessible to the broader public, but which builds a foundation from 
which Americans of all ages will ultimately benefit. As the results of 
NEH-supported research become part of the learning environment, our 
overall knowledge base increases and new generations of scholars find 
fresh questions to explore.
    One example of this is the Digital Scriptorium at the University of 
California, Berkeley. The project was conceived as an image database of 
dated and datable medieval and renaissance manuscripts and was intended 
to unite scattered resources into an international tool for teaching 
and scholarly research. It has evolved into a general catalog designed 
for the use of paleographers, codicologists, art historians, textual 
scholars, and other researchers. It allows scholars to verify with 
their own eyes cataloguing information about places and dates of 
origin, scripts, artistic styles, and quality. It documents visually 
even those manuscripts that traditionally would have been unlikely 
candidates for reproduction. It provides public access to fragile 
materials otherwise available only within libraries. Because it is web-
based, it encourages interaction between the knowledge of scholars and 
the holdings of libraries to build an ever-enriched and corrected flow 
of information.
    Another important role NEH plays is in the area of preservation. 
Again, such efforts are of substantial benefit to the entire nation but 
are unlikely to be funded by any individual state or institution. NEH's 
Newspaper Program has supported newspaper preservation projects in each 
of the fifty states, the District of Columbia, Puerto Rico, and the 
U.S. Virgin Islands. Cornell University has used NEH funds to 
coordinate the identification and preservation of 8,075 aging volumes 
on American agricultural history and rural life published between 1820 
and 1945 and held by land grant universities in California, Florida, 
Nebraska, Texas, Arizona, Arkansas, Hawaii, Iowa, Minnesota, Montana, 
and New York. The preservation of brittle books and newspapers assist 
scholars in producing source material accessible to all Americans, from 
legal scholars to political scientists to schoolchildren.
    Research universities, small private institutions, state colleges, 
and community colleges use NEH grants to conserve and nurture our 
American heritage, bring the humanities to the community, expand 
knowledge, and educate the next generation of Americans. NEH-supported 
summer seminars and institutes provide an opportunity for high school 
and college teachers to spend six to eight weeks learning from and 
working with leading scholars in the humanities. Summer seminars and 
institutes provide an exhilarating boost to the participants, 
regenerate their enthusiasm, and facilitate the transfer of new 
knowledge. This summer, teachers will have the opportunity to study 
ethics at the end of life at the University of Utah, Afro-Hispanic 
literature at the University of Missouri at Columbia, science and 
values at the University of Pittsburgh, and Aristotle's writings on 
meaning and thought at San Diego State University.
    The NEH has enjoyed bipartisan support throughout its 38-year 
history and has been the most important source of federal support for 
humanistic endeavors in the United States. By deepening knowledge of 
our national heritage, the ``We the People'' initiative will give 
Americans a better understanding of how major events of our history 
reflect certain fundamental and enduring ideas. AAU, ACE and NASULGC 
strongly support this initiative, and again urge the Subcommittee to 
provide the $152 million that the President requested for NEH in fiscal 
year 2004.
                                 ______
                                 
   Prepared Statement of the Federation of State Humanities Councils

    Mr. Chairman and members of the subcommittee, I appreciate this 
opportunity to present written testimony on behalf of the state 
humanities councils, the state-based programs of the National Endowment 
for the Humanities. I am Jamie Doggett, chair of the board of the 
Federation of State Humanities Councils. My husband and I are ranchers 
in Montana, where I served three four-year terms as a governor's 
appointee on the Montana Committee for the Humanities. I am writing in 
support of the Administration's fiscal year 2004 Budget Request for the 
National Endowment for the Humanities which seeks funding of $152 
million, including an increase of $25 million for the exciting new We 
the People (WTP) initiative on American history, culture and civics. 
The Administration's fiscal year 2004 budget request for NEH also 
includes the critically important continuation of $31.829 million in 
funding for state councils through the Federal-State Partnership line. 
We are pleased that this will be supplemented by significant resources 
we anticipate will be available to councils through the new WTP 
funding.
    The state humanities councils are located in each of the 50 states, 
Washington DC and the U.S. commonwealths and territories. Since their 
creation nearly three decades ago, the state councils have been 
promoting the use of history and literature to connect individuals with 
each other and with the life of their community. Working with dedicated 
historians and other scholars and professionals, the councils have 
helped communities understand and preserve their local history, define 
and distinguish among conflicting values, and undertake dialogue that 
can help address real problems. Notwithstanding the widening gap 
between their extremely modest funding level and the dramatic and 
consistently growing need and demand for their programs, state councils 
tirelessly seek to utilize the resources available to them as 
efficiently as possible in order to respond effectively to the demands 
of the communities they serve. Unfortunately, councils find it 
increasingly difficult to fulfill many of the burgeoning requests they 
receive.

                        WE THE PEOPLE INITIATIVE

    All of us involved with this vital work recognize now more than 
ever that it is crucial for Americans to understand our own history, 
culture and system of government before we are able to engage 
meaningfully with nations and groups with different traditions and 
values. Thus, councils have responded enthusiastically to the NEH's 
expanded WTP initiative focused on broadening and deepening Americans' 
understanding of our nation's history and culture, for its thrust has 
for some time been a primary concern of state councils, as reflected in 
the Illinois council director's description of her council's ``enduring 
commitment to promoting greater public understanding of our history in 
communities and venues, large and small, across the state.'' It is 
illuminating to consider the tremendous scope of activities already 
underway across the country which typify the sense and spirit of WTP, 
with all state councils looking forward to additional resources which 
will allow them to build on what has already been accomplished.

History and Heritage Programs
    Because they are deeply committed to responding to community needs, 
councils pursue a variety of approaches to promoting knowledge and 
understanding of American history and culture. Speakers Bureaus, a 
stable of speakers on a variety of topics who are available to do local 
programming for a minimal fee, are a long-standing and popular vehicle 
used by councils to deliver programs and expertise to locations 
throughout their states, especially distant rural areas. The Montana 
council hosts a Speakers Bureau with about half of its 100 programs 
focused on history including Native American studies, regional history, 
Lewis and Clark, and ``living history.'' In Oklahoma, ``Territory 
Speakers'' engage public audiences on topics such as ``The Meaning of 
the American Revolution'' and ``Shaped By Adversity: The Depression 
Generation.'' Iowa offers a rich array of Speakers Bureau programs 
including ``The Underground Railroad in Iowa,'' ``The 30s and 40s 
Depression and WWII: How Did We Cope?'' and ``Early Iowa Pioneer 
Women,'' with librarians and historical societies telling the council 
that these are some of the best programs their institutions offer. The 
council reports that requests for these programs has soared, exhausting 
the budget well before the end of the year and necessitating limiting 
organization requests. In addition to allowing expansion of Speaker 
Bureaus programs to a level sufficient to meet demand, many councils 
seek new funding to support development of new WTP-focused speakers 
bureaus, some with a particular emphasis on reaching young people.
    Several councils sponsor chautauqua, or ``living history,'' 
programs which feature portrayals of historical characters. A group of 
councils, Nebraska, Oklahoma, Missouri, Kansas, and North and South 
Dakota, have joined together in the ``Great Plains Chautauqua,'' a 
program conducted under a tent in local communities throughout the 
participating states. For the next four years the theme of the Great 
Plains Chautauqua is ``From Sea to Shining Sea,'' an examination of the 
westward expansion of the new American nation. They will feature 
scholars portraying historical figures such as William Clark, 
Sacagewea, York and Dolley Madison, who will participate in week-long 
residencies in rural communities and help audiences understand the 
theme in all its complexity. Great Plains Chautauqua programs draw 
thousands of attendees from throughout the local area; current resource 
constraints preclude councils from offering chautauqua programs in more 
than one community per year in their states.
    The Nevada council has an especially vibrant chautauqua program. 
The ``Great Basin Chautauqau'' is held on five consecutive nights in 
Reno and draws 1,000 people each night. The 2002 theme was ``The 
Founders Generation'' and for 2003 it will be ``The Lewis and Clark 
Expedition.'' In-state Chautauquans usually become a part of the 
council's ``Humanities on the Road'' speakers bureau. The council also 
developed their ``Young Chautauqua Program,'' which received a Coming 
Up Taller Award from the President's Committee on the Arts and 
Humanities, as a creative approach to the teaching of history based on 
the research-intensive model of the adult chautauqua.
    A number of councils have developed programming with a particular 
emphasis on an understanding of state or local history. The Virginia 
humanities council has launched the African American Heritage Program, 
an educational and economic resource for the state jointly developed 
with the Virginia Tourism Corporation. The program includes a database 
of more than 400 significant historic sites, a trails program 
comprising publications and marketing to encourage the public to visit 
the sites, and a grant program supporting organizations involved in 
interpretation of Virginia's African American Heritage as well as the 
goals of other components of the initiative. The Michigan council co-
sponsors ``Michigan's Great Outdoors Culture Tour'' featuring 24 
performing artists and cultural interpreters offering more than 110 
programs in scenic settings such as parks, campgrounds, and historic 
sites in northern Michigan. The family-friendly events bring to life 
the rich culture and heritage of people, places, and traditions of 
Michigan's northwoods and Great Lakes. The Humanities Council of 
Washington D.C. has inaugurated ``Soul of the City,'' a three-day urban 
leadership development seminar encompassing hands-on projects about 
Washington's neighborhoods taught through the lens of history, ethics, 
literature and public spaces.
    Councils use their regrant programs to encourage programming done 
by other institutions, frequently providing greater outreach and access 
and encouraging institutional capacity-building. The South Carolina 
humanities council supported a series of forums focused on the story of 
Reconstruction history in Beaufort County, sponsored by the 
Reconstruction Heritage Partnership, a coalition of local institutions 
and governments. The Illinois council with a notable depth of 
programming in the area of American history and culture, has a broad 
cross-section of regrants and other activities which it has organized 
under headings such as Inventing America/Becoming America, America at 
Work, American Mirror/American Memories, and American Challenges/
American Issues. In Wisconsin, the council has supported development of 
a 13-week series of radio programs combining oral histories and 
contemporary commentary to create living memories of Wisconsin. The 
director of the Nevada council has observed that some of the best 
humanities programs in the state are developed through their regrant 
program, with additional federal funds allowing them to create a 
program that would ``roughly match the growing need.'' The Florida 
council director speaks of the need to triple their regrant program to 
meet the needs of the 17 million people in their diverse, complex 
state.

Support for K-12 Teachers and Students
    All of us recognize that teachers are at the frontline of 
addressing the challenge of understanding who we are and where we have 
been. The state humanities councils, two-thirds of which conduct either 
summer institutes or one- or two-day teacher workshops, have 
established these programs to provide high-quality support and 
assistance to teachers in the humanities, recognizing that it is these 
disciplines which provide children with the analytic and verbal skills 
they need to participate in democratic society. The Idaho council, for 
example, has sponsored annual summer institutes for teachers on topics 
ranging from the Bill of Rights to Idaho political history since WWII, 
with this year's interdisciplinary institute for literature and history 
devoted to the theme of ``John Steinbeck and the Art of Social 
Engagement.'' This summer the New Jersey council is offering institutes 
for K-12 teachers on ``A Reconsidered Past: New Scholarship in African 
American History'' and ``Religious Diversity in America.'' The Georgia 
humanities council director captured eloquently the unique experience 
these institutes provide teachers in referring to letters received from 
attendees at the civil rights institute the council co-hosted last 
summer. He mentions participating teachers characterizing it as a life-
changing experience, observing this happens because they ``came into 
contact with heroism, sacrifice, [and] fundamental values of humanity 
for which some were willing to give their all . . .''
    The Nebraska humanities council has chosen to take advantage of 
what they refer to as the ``teachable moment'' provided by the Lewis 
and Clark Bicentennial. The council has made a four-year commitment to 
programming that prepares K-12 teachers to benefit from the newest 
scholarship on the Lewis and Clark Expedition with summer seminars, in-
school workshops for school districts, and a state-wide video 
conference for school and public librarians on the best materials for 
acquisition.
    For nearly 20 years, the Louisiana humanities council has been 
funding intensive four-week graduate seminars for elementary, middle 
and high school teachers, with the potential to affect the quality of 
teaching for 78,000 students annually. A significant number of these 
seminars have focused on American history, including four seminars on 
the U.S. Constitution. Among the offerings this summer are seminars on 
the Bicentennial of the Louisiana Purchase.
    The Indiana council has focused on re-designing the customary 
residential teacher institute to take advantage of technology as a 
delivery system for content. They have created an internet tool which 
provides teachers with lesson plans tied to state academic standards 
and information about rich humanities resources from cultural, 
academic, and library sources around the state.
    Eager to assist teachers interested in providing students with 
meaningful and engaging material, several state councils are working in 
partnership with National History Day (NHD), the national year-long 
classroom-based education program which engages students in grades 6-12 
in a process of discovery and interpretation of historical topics 
grounded in research. State councils both serve as state affiliates for 
National History Day and provide sustaining funding to other 
organizations in that role. The Maryland Humanities Council, which is 
the NHD state affiliate, views the program as an important vehicle for 
invigorating history education in the secondary grades. Crippling 
cutbacks in state support for NHD programs has constrained 
participation by many schools and the federal funding provided through 
state councils is often the only source of support for this and other 
similar high-quality programming devoted to teaching and learning about 
our history and heritage.

                   THE ONGOING NEED FOR NEW RESOURCES

    In addition to expanding current programs and activities and 
pursuing new opportunities afforded by the new funding provided through 
the WTP initiative, councils continue to require funding for other core 
programs, many of which are targeted at audiences otherwise overlooked. 
For instance, several councils, such as Georgia, Maryland and 
Wisconsin, are grappling with the challenge of serving immigrant 
communities, a growing audience throughout the country Additional 
funding would allow the Oklahoma council to develop programming 
specifically addressed to the state's Hispanic population which has 
grown 256 percent since 1990.
    In his testimony concerning the Administration's fiscal year 2004 
budget request, NEH Chairman Bruce Cole acknowledged the important role 
of state councils as the ``delivery system'' for high-quality 
humanities programming, noting that the request incorporates 
significant support for local and statewide projects on American 
history, culture, and civics sponsored by the 56 state humanities 
councils, essential NEH partners who will help to ensure that We the 
People reaches throughout every state and territory of the nation. 
Although even in challenging economic circumstances councils work to 
raise resources from state and private sources, federal funding is a 
crucial catalyst for council activities and efforts both as part of the 
WTP initiative or more generally.
    Thank you for your continuing support for the work of the state 
councils and NEH and for your consideration of our endorsement of the 
Administration's fiscal year 2004 request for $152 million for the NEH, 
including the $25 million for the We the People initiative.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Abraham, Hon. Spencer, Secretary, Office of the Secretary, 
  Department of Energy...........................................   107
    Prepared statement...........................................   111
    Summary statement............................................   109
African Wildlife Foundation, prepared statement..................   207
Alaska:
    Department of Fish and Game, prepared statement..............   174
    Native Health Board, prepared statement......................   460
Alliance to Save Energy, prepared statement......................   392
Allison Transmission Division of General Motors, Indianapolis, 
  IN, prepared statement.........................................   395
American:
    Association of Museums, prepared statements................207, 472
    Bird Conservancy, prepared statement.........................   207
    Council on Education, prepared statement.....................   477
    Forest and Paper Association, prepared statement.............   349
    Gas Association, prepared statement..........................   398
    Geological Institute, prepared statement.....................   243
    Hiking Society, prepared statement...........................   212
    Indian Graduate Center, prepared statement...................   265
    Indian Higher Education Consortium, prepared statement.......   266
    Iron and Steel Institute, prepared statement.................   400
    Public Power Association, prepared statement.................   402
    Society for Microbiology, prepared statement.................   246
    Sportfishing Association, prepared statement.................   351
    Veterinary Medical Association, prepared statement...........   207
    Zoo and Aquarium Association, prepared statement.............   207
Americans for:
    National Parks, prepared statement...........................   210
    Our Heritage and Recreation, prepared statement..............   211
    The Arts, prepared statement.................................   474
Anza-Borrego Foundation, prepared statement......................   348
Appalachian:
    Mountain Club, prepared statement............................   354
    Trail Conference, prepared statement.........................   356
Assiniboine and Sioux Tribes of the Fort Peck Indian Reservation, 
  prepared statement.............................................   269
Association of:
    American Universities, prepared statement....................   477
    Navajo Community Controlled School Boards, prepared statement   271
Audubon, prepared statement......................................   362
    Florida, prepared statement..................................   215
    New York, prepared statement.................................   340

Bear Trust International, prepared statement.....................   205
Bennett, Senator Robert F., U.S. Senator from Utah:
    Opening statement............................................     8
    Questions submitted..........................................   102
Biomass Energy Research Association, prepared statements.......403, 408
Bob Lawrence & Associates, Inc., prepared statement..............   406
Boone and Crockett Club, prepared statement......................   205
Bosworth, Dale, Chief, Forest Service, Department of Agriculture:
    Opening statement............................................     1
    Prepared statement...........................................    14
    Summary statement............................................    11
Bowhunting Preservation Alliance, prepared statement.............   205
Buckmasters American Deer Foundation, prepared statement.........   205
Bureau of Economic Geology, The University of Texas at Austin, 
  prepared statement.............................................   411
Burns, Senator Conrad, U.S. Senator from Montana:
    Opening statements.......................................1, 57, 107
    Prepared statement...........................................    58
    Questions submitted by......................................86, 141
Byrd, Senator Robert C., U.S. Senator from West Virginia:
    Opening statement............................................   121
    Questions submitted by.......................................   157

California:
    Government and Private Sector Coalition for Operation Clean 
      Air (OCA), prepared statement..............................   416
    Industry and Government Central California Ozone Study (CCOS) 
      Coalition, prepared statement..............................   216
Campbell, Senator Ben Nighthorse, U.S. Senator from Colorado:
    Opening statement............................................     5
    Questions submitted by.......................................    39
Campfire Club of America, prepared statement.....................   205
Caterpillar Inc., prepared statement.............................   413
Center for Advanced Separation Technologies, prepared statement..   417
Central Sierra Environmental Resource Center, prepared statement.   339
Choctaw Nation of Oklahoma, prepared statement...................   463
Chugach Regional Resources Commission, prepared statement........   274
Citizens for Mojave National Park, prepared statement............   218
City of Kansas City, MO, prepared statement......................   176
Civil War Preservation Trust, prepared statement.................   219
Coal Utilization Research Council (CURC), prepared statement.....   420
Coalition of Northeastern Governors, prepared statement..........   423
Colorado River:
    Basin Salinity Control Forum, prepared statement.............   163
    Board of California, prepared statement......................   165
Confederated Tribes of the:
    Grand Ronde Community of Oregon, prepared statement..........   277
    Warm Springs Reservation, prepared statement.................   278
Congressional Sportsmen's Foundation, prepared statement.........   205
Conservation:
    Force, prepared statement....................................   205
    International, prepared statement............................   207
    Trust Fund Coalition, prepared statement.....................   342
Council of Annette Islands Reserve, Metlakatla Indian Community, 
  prepared statement.............................................   464
Crownpoint Institute of Technology (CIT), prepared statement.....   281

Defenders of Wildlife, prepared statements.....................177, 207
Dian Fossey Gorilla Fund International, prepared statement.......   207
Domenici, Senator Pete V., U.S. Senator from South Carolina:
    Opening statements...........................................9, 126
    Questions submitted by..................................35, 99, 153
Dorgan, Senator Byron L., U.S. Senator from North Dakota:
    Opening statements.......................................3, 59, 108
    Prepared statement...........................................    60
    Questions submitted by......................................42, 105
Doris Day Animal League, prepared statement......................   166

Eastern Shoshone and Northern Arapaho Tribes, prepared statement.   283
Enewetak/Ujelang Local Government Council, prepared statement....   336

Federation of State Humanities Councils, prepared statement......   479
Feinstein, Senator Dianne, U.S. Senator from California:
    Opening statement............................................     7
    Questions submitted by.......................................   157
Fond du Lac Band of Lake Superior Chippewa, prepared statement...   284
Foundation for North American Wild Sheep, prepared statement.....   205
Fremont County, WY Legislative Delegation and Members of the 
  Select Committee on Tribal Relations, letter from..............   286
Friends of:
    Acadia, prepared statement...................................   220
    Back Bay, prepared statement.................................   175
    Great Smoky Mountains National Park, prepared statement......   220
    Rachel Carson National Wildlife Refuge, prepared statement...   180
Frontera Audubon Society, prepared statement.....................   180

Gasification Technologies Council, prepared statement............   424
General Electric Power Systems, prepared statement...............   426
Grand Canyon National Park Foundation, prepared statement........   221
Great Lakes Indian Fish and Wildlife Commission, prepared 
  statement......................................................   287
Ground Water Protection Council, prepared statement..............   248

Highlands Coalition, prepared statement..........................   367
Hollings, Senator Ernest F., U.S. Senator from South Carolina, 
  questions submitted by.........................................    48
Hoopa:
    Tribe of California, prepared statement......................   289
    Valley Tribe, prepared statement.............................   465
Houston Safari Club, prepared statement..........................   205
Humane Society of the United States, prepared statement..........   182

IBACOS, Inc., prepared statement.................................   429
Institute of American Indian and Alaska Native Culture and Arts 
  Development, prepared statement................................   469
International:
    Association of Fish and Wildlife Agencies, prepared 
      statements.................................................  167,
                                           185, 205, 222, 250, 291, 369
    Elephant Foundation, prepared statement......................   207
    Fund for Animal Welfare, prepared statement..................   207
    Rhino Foundation, prepared statement.........................   207
Interstate:
    Council on Water Policy, prepared statement..................   252
    Mining Compact Commission, prepared statement................   260
InterTribal:
    Bison Cooperative, prepared statement........................   292
    Timber Council, prepared statement...........................   295
Izaak Walton League of America, prepared statement...............   205

Jamestown S'Klallam Tribe, prepared statement....................   298
Jane Goodall Institute, prepared statement.......................   207
Japanese American Citizens League, prepared statement............   224

Kashdan, Hank, Director of Program and Budget Analysis, 
  Department of Agriculture......................................     1

Lac du Flambeau Band of Lake Superior Chippewa Indians, prepared 
  statement......................................................   299
Lower:
    Elwha Klallam Tribe, prepared statement......................   302
    Lake Rancheria Koi Nation, prepared statement................   303
Lummi Nation, prepared statement.................................   304

Mescalero Apache Tribe, prepared statement.......................   307
Mineral Policy Center, prepared statement........................   253
Minnesota Department of Natural Resources, prepared statements.192, 224
Mother Lode Chapter of the Sierra Club, prepared statement.......   371
Mule Deer Foundation, prepared statement.........................   205
Narragansett Indian Tribe, prepared statement....................   309
National:
    American Indian Court Judges Association, prepared statement.   312
    Association for State Community Services Programs, prepared 
      state- 
      ment.......................................................   432
    Association of:
        Abandoned Mine Land Programs, prepared statement.........   263
        Conservation Districts, prepared statement...............   372
        State Energy Officials, prepared statement...............   434
        State Universities and Land-Grant Colleges, prepared 
          statement..............................................   477
        University Fisheries and Wildlife Programs, pepared 
          statement..............................................   193
    Audobon Society, prepared statement..........................   207
    Conference of State Historic Preservation Officers, prepared 
      statement..................................................   225
    Council for Science and the Environment, prepared statement..   254
    Indian Health Board, prepared statement......................   466
    Institutes for Water Resources, prepared statement...........   256
    Mining Association, prepared statement.......................   438
    Parks Conservation Association, prepared statement...........   227
    Recreation and Park Association, prepared statement..........   239
    Research Center for Coal and Energy, West Virginia 
      University, prepared statement.............................   441
    Rifle Association, prepared statement........................   205
    Shooting Sports Foundation, prepared statement...............   205
    Trappers Association, prepared statement.....................   205
    Wildlife Federation, prepared statement......................   207
Navajo Nation, prepared statement................................   314
Nebraska Game & Parks Commission, prepared statement.............   196
New Mexico Interstate Stream Commission, prepared statement......   171
New York State Office of Parks Recreation and Historic 
  Preservation, prepared statement...............................   241
Nez Perce Tribe, prepared statement..............................   317
Northern Forest Alliance, prepared statement.....................   380
Norton, Hon. Gale A., Secretary of the Interior, Office of the 
  Secretary, Department of the Interior..........................    57
    Prepared statement...........................................    67
    Summary statement............................................    63

Oregon Water Resources Congress, prepared statement..............   196

Partnership for the National Trails System, prepared statement...   230
Petroleum Technology Transfer Council, prepared statement........   443
Plug Power Inc., prepared statement..............................   445
Pope and Young Club, prepared statement..........................   205
Preservation Action, prepared statement..........................   242
Puyallup Tribe of Indians, prepared statement....................   322

Quality Deer Management Association, prepared statement..........   205

Rocky Mountain Elk Foundation, prepared statement................   205
Ruffed Grouse Society, prepared statement........................   205

Safari Club International, prepared statements.................205, 207
SAGE Electrochromics, Inc., prepared statement...................   448
Sauk-Suiattle Indian Tribe, prepared statement...................   325
Scarlett, P. Lynn, Assistant Secretary, Policy, Management and 
  Budget, Department of the Interior.............................    57
Seminole Tribe of Florida, prepared statement....................   327
Shikar Safari Club International, prepared statement.............   205
Siemens Westinghouse Power Corporation, prepared statement.......   449
Sierra:
    Club, prepared statement.....................................   207
    Nevada Alliance, prepared statement..........................   383
Society for:
    American Archaeology, prepared statement.....................   207
    American Foresters, prepared statement.......................   385
    Historical Archaeology, prepared statement...................   207
Southern Company, prepared statement.............................   452
Southwest Tribal Fisheries Commission, prepared statement........   329
Squaxin Island Tribe, prepared statement.........................   331
Stevens, Senator Ted, U.S. Senator from Alaska:
    Opening statement............................................    60
    Prepared statement...........................................    62
    Questions submitted by.......................................    97

Teachers' Retirement System, State of California, prepared 
  statement......................................................   455
Teaming with Wildlife Steering Committee, prepared statement.....   195
Tern and Plover Conservation Partnership, prepared statement.....   199
The:
    Cascades Conservation Partnership, prepared statement........   365
    Fund for Animals, prepared statement.........................   207
    Humane Society of the United States, prepared statement......   207
    Nature Conservancy, prepared statements....................207, 375
    Ocean Conservancy, prepared statement........................   342
    Wilderness Society, prepared statement.......................   345
    Wildlife Conservation Society, prepared statement............   207
    Wildlife Society, prepared statements......................205, 390

Trezise, John D., Director of Budget, Department of the Interior.    57
Tumbledown Conservation Alliance, prepared statement.............   388

United States Advanced Ceramics Association, prepared statement..   457
United Tribes Technical College, prepared statement..............   333
Upper Mississippi River Basin Association, prepared statement....   199

Whitetails Unlimited, Inc., prepared statement...................   205
WildAid, prepared statement......................................   207
Wildlife Management Institute, prepared statements...............  172,
                                                202, 205, 207, 259, 388
Wind River Irrigation Project in Wyoming, prepared statement.....   335
World Wildlife Fund, prepared statement..........................   207
Wyoming Water Association, letter from...........................   204


                             SUBJECT INDEX

                              ----------                              

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

                                                                   Page

Accountability...................................................    15
Additional Committee Questions...................................    35
Aerial Operations................................................    40
Alaska:
    Forest Trip by Air...........................................    32
    Jurisdictional Problems......................................    31
Analysis Paralysis...............................................     6
Assessment of Threat.............................................    39
Audit Opinion....................................................    12
Bark Beetle......................................................  7, 9
Beetle Kill on the Kenai Peninsula...............................    31
Burned Area Emergency Rehabilitation.............................     2
Categorical Exclusions...........................................    14
Collaborative Adaptive Management Program........................     7
Cost Containment.................................................    52
County Partnership:
    Program......................................................    28
    Restoration..................................................    35
Deferred Maintenance.............................................    36
Drought.......................................................... 2, 25
Establishment of Emergency Treatment Objective...................    39
Evironmental Litigation Costs....................................     9
Fire:
    Funding......................................................    43
    Impacts on Watersheds........................................    24
    Preparedness................................................. 2, 37
        Suppression..............................................    11
Firefighters..................................................... 3, 42
Firewise.........................................................    24
Forest Service Research..........................................    16
Grass Banks......................................................    47
Grasslands Management Plan.......................................    46
Grazing Permits..................................................     4
Ground Operations................................................    40
Grounded:
    Air Tanker Fleet.............................................    25
    Fire Air Tanker Fleet........................................     6
Hazardous Fuel Treatments........................................    53
Healthy Forests Initiative.......................................    12
Insects and Disease..............................................    38
Invasive Species.................................................    34
Lake:
    Arrowhead....................................................    22
    Tahoe........................................................    21
        Restoration Act..........................................     8
Leafy Spurge..................................................4, 34, 45
Legislative Proposals............................................13, 18
Lewis & Clark Bicentennial Activities............................    46
Maintenance......................................................    44
National Forest Land Management Planning.........................    32
Noxious Weeds.................................................... 5, 33
Prairie Dog......................................................     8
President's Management Agenda....................................    16
Process Predicament..........................................14, 15, 27
Quincy Library Group.............................................     8
Range Management.............................................13, 16, 33
Recreation Fee Demonstration Program.............................    23
Research.........................................................13, 19
Safety--Ground and Aviation Operations...........................    54
San Bernadino National Forest....................................    21
Sheyenne Valley Grazing Association..............................    48
Situational Assessment...........................................    51
State and Private Forestry.......................................    16
Stewardship Contracting..............................10, 11, 19, 28, 37
The Next 100 Years for America's National Forests and Grasslands.    17
Tongass Timber Reform Act........................................    30
USDA Forest Service--Fire & Aviation Operations Action Plan 2003.    50
Vibrant Forest and Range Based Economy...........................    36
Water Filtration Plants..........................................    24
Western:
    Forest Fires.................................................    22
    Water Rights.................................................    23
Wildland:
    Fire Management..............................................    26
    Urban Interface..............................................    29
Yosemite Toad....................................................     7

                          DEPARTMENT OF ENERGY

                        Office of the Secretary

Additional Committee Questions...................................   140
Advanced Vehicle Technology Programs--Partnership for a New 
  Generation of Vehicles (PNGV) and FreedomCAR...................   142
Clean Coal.......................................................   130
    Power Initiative.............................................   153
    Technology Program...........................................   133
Clean Energy Technology Exports..................................   138
Climate Change Technology Initiative (NCCTI).....................   153
Competitive Sourcing Program.....................................   136
Elk Hill.........................................................   161
Energy:
    Conservation Budget Request..................................   117
    Information Administration Budget Request....................   120
    Markets......................................................   159
Environmental Impacts of Fuels...................................   144
Fiscal Year 2004/05 Competitive Sourcing/A-76 Planning...........   137
Fossil Energy:
    Budget Request...............................................   113
    OMB Budget...................................................   129
    Program Top-to-Bottom Review.................................   135
    Research Budget Cuts.........................................   127
    Distributed Generation--Fuel Cells--Solid State Electricity 
      Conversion Alliance (SECA).................................   150
    Distributed Generation--Fuel Cells--Vision 21--Hybrids.......   150
    Domestic Gas Production/Imports..............................   147
    Domestic Oil Production/Imports..............................   146
    Fuels........................................................   149
    Futuregen....................................................   151
Fuel Cell......................................................130, 155
    Research at Los Alamos National Laboratory...................   132
Future-Gen.......................................................   134
Gasoline Prices..................................................   124
High Temperature Superconductivity...............................   156
Hybrid Technology................................................   133
Hydrogen:
    Fuel.........................................................   160
    Transportation System........................................   141
    Vehicles.....................................................   131
Insourcing.......................................................   137
Interior and Related Agencies Appropriation Budget Request.......   113
National Energy Technology Laboratory............................   134
Naval Petroleum and Oil Shale Reserves--Rocky Mountain Oil 
  Technology Center (RMOTC)......................................   151
Non-Release of Department's OMB Budget Request...................   129
Nuclear Weapons Testing..........................................   157
Off-Highway Vehicle R&D..........................................   144
    Program Termination..........................................   124
Oil and Gas:
    Federal Transmission Siting..................................   155
    Research.....................................................   154
Performance Measures.............................................   145
Petroleum Reserves...............................................   116
President's Management Agenda and National Energy Policy 
  Coordination...................................................   112
Program Assessment Rating Tool [PART]............................   128
Solid State:
    Conversion Alliance..........................................   139
    Energy Conversion Alliance...................................   139
    Lighting.....................................................   152
Status of Clean Energy Technology Report.........................   139
Summary of the Management Plan...................................   136
Technology Transfer--Clean Energy Technology Export (CETE).......   157
Transition of Technologies to Market.............................   143
U.S. Department of Energy, Revised Competitive Sourcing Plan.....   136

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

Activity Based Costing...........................................    83
Additional Committee Questions...................................    86
Alaska Conveyance Program........................................    97
Alaska National Interest Lands Conservation Act..................    97
Budget Overview..................................................    68
Bureau of Land Management:
    CBM EIS for Montana..........................................    92
    Energy and Minerals..........................................    94
    Fire Funding.................................................    95
    Montana Gas Permitting.......................................    92
Conservation Grants..............................................    70
Conserving Wildlife and Fisheries................................    70
Cooperative Conservation Initiative..............................64, 69
Crownpoint Institute of Technology...............................    99
Denali National Park.............................................    98
Different Funding Categories.....................................    76
Energy Development...............................................    65
Everglades Restoration...........................................    66
Federal Permit Streamlining Pilot Project........................   103
Federally-Owned Land Statistics..................................    99
Fish and Wildlife Grant Programs.................................    96
Fort Peck Reservation/Dry Prairie................................    91
FWS/Consultation on Fuels Reduction Projects.....................    89
Going-to-the-Sun Road............................................    89
Helping to Meet the Nation's Energy Needs........................    72
Historical Trust Accounting......................................    74
Indian:
    Education................................................65, 73, 77
    School Construction..........................................   100
    Schools......................................................    75
Law Enforcement and Security.....................................    74
Maintenance Backlog..............................................    65
MMS Royalty-In-Kind..............................................    88
Mojave Desert Tortoise...........................................   104
Northwest Area Water Supply Project..............................    79
OIA/Status of Compact Negotiations...............................    89
Oil and Gas Permitting on Federal Lands..........................   102
Other Partnerships...............................................    70
Other Program Initiatives........................................    66
Overhead.........................................................    82
PILT--Proposed Movement From BLM to the Department Level.........    93
Powder River Basin EIS...........................................    84
President's Management Agenda....................................    91
Program Assessment Rating........................................    81
Recreation.......................................................    73
    Opportunities................................................    65
Rural Water Program Legislative Proposal.........................    80
Santa Fe Indian School Reconstruction Funding....................   101
Science..........................................................67, 74
Security.........................................................    67
SMCRA Reauthorization............................................    86
Southwestern Indian Polytechnic Institute (SIPI).................   101
Spruce Bark Beetles..............................................    99
State Regulatory Grants..........................................    87
Stewardship Contracting..........................................    84
Taking Care of Parks.............................................    72
Tribal Colleges Funding..........................................    77
Trust Programs...................................................    68
Trust Reform:
    Initiatives..................................................    63
    Reform Reorganization........................................    95
Wild Horse and Burro Program.....................................78, 83
Wildland:
    Fire.........................................................    66
        And Healthy Forests......................................    71
Zortman/Landusky Mine Reclamation................................    85

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
